<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-355]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 107-355, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1416

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2002 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 1

                            UNIFIED COMMANDS
                   MILITARY POSTURE/BUDGET AMENDMENT
                   SERVICE SECRETARIES/SERVICE CHIEFS
                       BALLISTIC MISSILE DEFENSE

                               ----------                              

            MARCH 22, 27; JUNE 28; JULY 10, 12, 17, 19, 2001




         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                              2002--Part 1

 UNIFIED COMMANDS  b   MILITARY POSTURE/BUDGET AMENDMENT  b   SERVICE 
       SECRETARIES/SERVICE CHIEFS  b   BALLISTIC MISSILE DEFENSE

                                                 S. Hrg. 107-355, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1416

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2002 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 1

                            UNIFIED COMMANDS
                   MILITARY POSTURE/BUDGET AMENDMENT
                   SERVICE SECRETARIES/SERVICE CHIEFS
                       BALLISTIC MISSILE DEFENSE

                               __________

            MARCH 22, 27; JUNE 28; JULY 10, 12, 17, 19, 2001


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
75-346 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
     Unified Commanders on Their Military Strategy and Operational 
                              Requirements
                             march 22, 2001

                                                                   Page

Ralston, Gen. Joseph W., USAF, Commander in Chief, U.S. European 
  Command, Supreme Allied Commander, Europe......................     4
Franks, Gen. Tommy R., USA, Commander in Chief, U.S. Central 
  Command........................................................    32

    Unified and Regional Commanders on Their Military Strategy and 
                        Operational Requirements
                             march 27, 2001

Blair, Adm. Dennis C., USN, Commander in Chief, United States 
  Pacific Command................................................    78
Pace, Gen. Peter, USMC, Commander in Chief, United States 
  Southern Command...............................................    98
Schwartz, Gen. Thomas A., USA, Commander, United States Forces 
  Korea; Commander in Chief, United Nations Command/Combined 
  Forces Command.................................................   107

                   Military Posture/Budget Amendment
                             june 28, 2001

Rumsfeld, Hon. Donald H., Secretary of Defense; Accompanied by 
  Dr. Dov S. Zakheim, Under Secretary of Defense (Comptroller)...   179
Shelton, Gen. Henry H., USA, Chairman of the Joint Chiefs of 
  Staff..........................................................   189

            Secretaries and Chiefs of the Military Services
                             july 10, 2001

White, Hon. Thomas E., Secretary of the Army.....................   261
Shinseki, Gen. Eric K., USA, Chief of Staff, United States Army..   270
England, Hon. Gordon R., Secretary of the Navy...................   271
Clark, Adm. Vernon E., USN, Chief of Naval Operations............   274
Jones, Gen. James L., Jr., USMC, Commandant of the Marine Corps..   282
Roche, Hon. James G., Secretary of the Air Force.................   293
Ryan, Gen. Michael E., USAF, Chief of Staff, United States Air 
  Force..........................................................   322

            Ballistic Missile Defense Policies and Programs
                             july 12, 2001

Wolfowitz, Hon. Paul D., Deputy Secretary of Defense.............   436
Kadish, Lt. Gen. Ronald T., USAF, Director, Ballistic Missile 
  Defense Organization...........................................   449

            Ballistic Missile Defense Policies and Programs
                             july 17, 2001

Wolfowitz, Hon. Paul D., Deputy Secretary of Defense.............   586
Kadish, Lt. Gen. Ronald T., USAF, Director, Ballistic Missile 
  Defense Organization...........................................   586

            Ballistic Missile Defense Policies and Programs
                             july 19, 2001

Berger, Hon. Samuel R., Chairman, Stonebridge International, 
  Former Assistant to the President for National Security Affairs   686
Coyle, Hon. Philip E., Senior Adviser, Center for Defense 
  Information, Former Director, Operational Test and Evaluation, 
  Department of Defense..........................................   692
Perle, Hon. Richard N., Resident Scholar, American Enterprise 
  Institute, Former Assistant Secretary of Defense for 
  International Security Policy..................................   703


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        THURSDAY, MARCH 22, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

     UNIFIED COMMANDERS ON THEIR MILITARY STRATEGY AND OPERATIONAL 
                              REQUIREMENTS

    The committee met, pursuant to notice, at 9:49 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Smith, Inhofe, 
Levin, E. Benjamin Nelson, and Carnahan.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; and Scott W. 
Stucky, general counsel.
    Professional staff members present: Charles S. Abell, 
Charles W. Alsup, John R. Barnes, Edward H. Edens IV, Gary M. 
Hall, George W. Lauffer, Thomas L. MacKenzie, Joseph T. Sixeas, 
Cord A. Sterling, and Eric H. Thoemmes.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Richard D. DeBobes, minority 
counsel; Daniel J. Cox, Jr., professional staff member; Richard 
W. Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Peter K. Levine, minority counsel; 
and Michael J. McCord, professional staff member.
    Staff assistants present: Beth Ann Barozie, Shekinah Z. 
Hill, and Suzanne K.L. Ross.
    Committee members' assistants present: Christopher J. Paul 
and Dan Twining, assistants to Senator McCain; George M. 
Bernier, III, assistant to Senator Santorum; Robert Alan 
McCurry, assistant to Senator Roberts; Arch Galloway II, 
assistant to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; David S. Young, assistant to Senator Bunning; 
Menda S. Fife, assistant to Senator Kennedy; Barry Gene (B.G.) 
Wright and Erik Raven, assistants to Senator Byrd; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; William K. Sutey, assistant to 
Senator Bill Nelson; Sheila Murphy and Eric Pierce, assistants 
to Senator Ben Nelson; and Larry Smar, assistant to Senator 
Carnahan.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The hearing will come to order. As you are 
well aware, we are having a vote in the Senate, and as a 
consequence many of our colleagues are in transit from the 
Senate floor back to the committee.
    The committee meets this morning for the first of a series 
of hearings on the status and requirements of our regional 
commands. Today we have two of our most distinguished regional 
commanders, Gen. Joseph W. Ralston, USAF, Commander in Chief, 
U.S. European Command, and Supreme Allied Commander, Europe; 
and Gen. Tommy R. Franks, USA, Commander in Chief, U.S. Central 
Command.
    Clearly, you individually and those in your commands are on 
the very forefront of the risks that our men and women of the 
Armed Forces take the world over, but particularly in your two 
areas. You represent the finest troops that this country has 
ever produced, and they are not only carrying out faithfully 
the orders of the Commander in Chief, but doing so in keeping 
with the finest traditions of our U.S. military.
    We rely on your unique perspectives as we here in Congress 
strive to fulfill our constitutional responsibilities as a co-
equal branch of Government in providing for those troops and 
their families.
    As we meet this morning, the largest contingency operations 
the U.S. military is engaged in around the world are in the 
Central Command and the European Command. Over 20,000 U.S. 
troops are stationed in Saudi Arabia, Kuwait, and Turkey and, 
indeed, the waters surrounding them, to enforce the no-fly 
zones over Northern and Southern Iraq and to help provide for 
the defense of Kuwait.
    In Bosnia, we have entered our fifth year of peacekeeping 
duties with over 5,000 U.S. troops participating in NATO's 
Stability Force (SFOR) operation, 4,600 of whom are in the 
Bosnia region. I know there are plans to somewhat reduce those 
forces in keeping with the objectives of the President. I 
support the President in this, and we look forward to your 
comments. I think we are doing it in a very orderly way, in 
consultation with our allies, and in no way in derogation of 
our commitment as a full partner to NATO in this and all other 
responsibilities that we collectively face with that historic 
treaty organization.
    In Kosovo, almost 6,000 U.S. troops participate in NATO's 
Kosovo Force (KFOR) operation, 5,500 of whom are in-country. 
With the rising tension in neighboring Macedonia, I am 
increasingly concerned, as we all are, about the safety of our 
troops in the Balkans, particularly those stationed in Kosovo 
and near Macedonia. If we are not careful, those troops and 
other NATO troops could be drawn into the conflict more than 
they are today. We will hear from you, General Ralston, on this 
developing situation.
    This past year has also seen its share of tragedy, 
particularly in the Central Command's area of operation. The 
devastating terrorist attack of the U.S.S. Cole in the Port of 
Aden on October 12 last year, and the training accident in 
Kuwait just a week or so ago, brings home to all Americans the 
very real dangers our men and women in uniform face every day. 
There are enormous risks in carrying out their missions in the 
cause of freedom.
    The U.S.S. Cole tragedy also highlighted the growing 
terrorist threat facing our Nation and our military forward-
deployed units, and the need for additional force protection 
measures to protect our soldiers, sailors, airmen, and marines. 
General Franks, we look to you to provide the committee with an 
update of the steps you have taken since the U.S.S. Cole 
attack, and the views that you have for the future as to that 
force protection enhancement within your area of 
responsibility. We would also like you to reexamine the 
engagement policy which led our forces into that region, and 
the necessity to continue that engagement policy, but I presume 
under somewhat different conditions. We welcome your testimony.
    Before we begin, I would like to enter into the record at 
this time statements by Senator Strom Thurmond and Senator Jim 
Bunning.
    [The prepared statements of Senator Thurmond and Senator 
Bunning follow:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman.
    General Ralston and General Franks, I want to join the Chairman and 
the members of this committee in welcoming you.
    Mr. Chairman, General Ralston and General Franks represent regions 
of the world in which the United States has a vital interest and has 
expended huge resources to secure peace and stability. Yet, more than 
10 years after the end of the Cold War and the devastation in the 
desert of Iraq, our forces are deployed on commitments that appear to 
have no ending in the very same regions. In hindsight, we should have 
taken a different approach to the situations in the Balkans and Iraq. I 
hope that both our witnesses will focus on the future and on how we can 
end the cycle of violence in these regions. More importantly, I hope 
they will give us their perspective on how we can minimize the impact 
of the commitments in Kosovo and Southwest Asia on our troops and the 
readiness of our Armed Forces.
    Mr. Chairman, I am also very interested in the quality of life of 
our forces stationed in Europe and those deployed to the Persian Gulf 
region. In particular, after the U.S.S. Cole incident, I would like to 
hear the witnesses' views on force protection and the terrorist threat 
facing our military personnel.
    Mr. Chairman, I look forward to today's testimony and again want to 
thank General Ralston and General Franks and the soldiers, sailors, 
airmen, and marines they represent for their dedication and 
professionalism.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement by Senator Jim Bunning

    General Ralston and General Franks, thank you for coming before 
this committee today. We appreciate your service to this country.
    Like my other colleagues, I applaud our men and women in uniform. 
They are indeed the best in the world. However, I have concerns about 
our military being stretched too thin and stressed, and participating 
in areas of the world where I believe we may have no national security 
interest. I fear that this is affecting our military's readiness and 
operations, as well as the safety and morale of our troops.
    I've expressed my frustration before about our military's chain of 
command system. It is tough to get the truth and expertise that we need 
on these issues because of the chain of command.
    We know the President is the Commander in Chief. Whatever his 
policy is, you have to salute and come over here and do it. I 
understand that. But it makes it very frustrating for us because we 
need to hear your expertise. Because you are the experts and the ones 
directly involved in these operations.
    This committee is trying to work with you to be helpful. If we 
don't get candid answers from you all, then we simply can't do our 
jobs. Therefore, you can't do your job the way you'd like to do it, and 
neither can our troops.
    So we would appreciate candor. We don't want your candor as soon as 
you retire and put on a suit. I'm always amazed how those who retire 
from the military, as soon as they put on a suit, say, ``Now let me 
tell you how it really is.''

    Chairman Warner. Now, Senator Levin will be forthcoming. I 
think in the need of time we have to get underway. Do you all 
have a preference as to who would like to proceed?
    General Franks. I will defer to General Ralston.
    Chairman Warner. All right.
    General Ralston.

STATEMENT OF GEN. JOSEPH W. RALSTON, USAF, COMMANDER IN CHIEF, 
    U.S. EUROPEAN COMMAND, SUPREME ALLIED COMMANDER, EUROPE

    General Ralston. Mr. Chairman, thank you very much for the 
opportunity to appear before the committee today, along with my 
colleague, General Franks. I would like to submit my statement 
for the record----
    Chairman Warner. Without objection.
    General Ralston.--and then spend a few moments here on oral 
testimony, if I may.
    I would draw your attention to the poster board that we 
have over here and just--I know you know this, Mr. Chairman, 
but for some of our other people that are watching here, 
sometimes I feel that the U.S. European Command Area of 
Responsibility (EUCOM AOR) may be misnamed, because it includes 
a lot more than Europe. It stretches, as you see, from the 
northern part of Norway to the end of South Africa. It includes 
the Middle East countries of Israel, Syria, and Lebanon. It 
includes all of Africa that you see there in green on that map.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Chairman, that encompasses 91 countries, and we have a 
little over 100,000 troops that are forward-based in the EUCOM 
theater to engage with these 91 countries.
    Now, I might add that that is 8 percent of our uniformed 
Active Duty military. I do not believe that is too big of a 
price to pay for engagement with those 91 countries.
    I would also add that those troops, being forward-based in 
Europe, as you can see on the map, are that much closer to 
General Franks' AOR should he need help there for redeployment.
    I have some operations that I would like to talk about that 
are ongoing within the EUCOM AOR, and I would like to start 
with Operation Northern Watch, and if I could talk for a few 
minutes about this, and then, Mr. Chairman, as I understand 
later on perhaps we could have an opportunity go into closed 
session where we could talk about this in more detail.
    Chairman Warner. You are correct. We can do that in 222 
Russell.
    General Ralston. First of all, as you can see, in Operation 
Northern Watch I support General Franks in his operation 
overall in Iraq, and what I am talking about here is just the 
northern part of that, which is the no-fly zone north of the 
36th parallel.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    I thought it might be useful to show a typical mission. We 
take off out of Incirlik Air Base in Turkey. You fly to the 
east for about an hour. You form up where those little circles 
are in different orbits, with a rather large force, about 40-
some airplanes. There are tankers, there are Airborne Warning 
and Control System (AWACS), there are F-15s, F-16s, EA-6Bs for 
defense suppression, there are reconnaissance airplanes, there 
are U.K. aircraft, there are Turkish aircraft that are involved 
in this. We then go into northern Iraq. A typical mission may 
be 3 hours long, and then another hour back home.
    Now, this is all done in support of our national policy, 
and what I am about to say is in no way intended to say that we 
have it wrong, or that we cannot support it, but I also want to 
get the facts on the record.
    Let me give you an example of last year. In 2000 we flew in 
the north about 7,500 sorties. Now, this is not without risk, 
Mr. Chairman. I know you know that, but over 250 times last 
year our people were fired at that we know of.
    We responded over 60 times. That is more than once a week, 
and I might add that we are flying a lot of single-engine 
aircraft over northern Iraq. We have been doing that for a long 
time, and if the law of averages caught up with us, we should 
have had engine failure by now.
    We willingly accept that risk, but I just want to point out 
to the committee that it is not a risk-free operation that our 
men and women are carrying out in Operation Northern Watch.
    Next I would like to talk about Bosnia for a moment. We 
have had an operation ongoing, a NATO operation in Bosnia. 
Sometimes people do not realize the progress that has been 
made. In 1996, when we went into Bosnia, as you see on the blue 
bar on that chart we had 60,000 forces that went into Bosnia. 
Those forces depicted in red are the U.S. forces. That was 
20,000. We were 33 percent of the force in 1996.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Based on the improved conditions on the ground, and in 
consultation with our NATO allies, we were able to draw that 
force down, and as you notice today, we are just right at 
20,000. The U.S. has just a tad over 4,000. We are about 20 
percent of the force. I got approval from NATO, supported by 
the administration, just in the last couple of weeks, to make a 
further reduction in those forces. I think here in a few months 
we will be down to probably 3,500 Americans. We will be about 
18 percent of the force.
    So I think that chart dramatically shows the progress that 
we are making in terms of not only the conditions on the ground 
that allowed that, but in the drawdown of the forces.
    Let me talk for a moment about Kosovo.
    Chairman Warner. Before you leave that subject, is it your 
professional judgment that that force level, be it ours or the 
combined force levels, is still essential to reach the goals 
that the United Nations and ourselves and our allies have set? 
That is where we fall into problems here. We put our troops 
somewhere, and then we are distracted, or go look at other 
situations. That situation in Bosnia has quieted down, it is 
not on the front pages. Who is looking to determine whether 
that level, indeed, is still necessary?
    General Ralston. Mr. Chairman, every 6 months we do a 
review, in conjunction with our allies in NATO, and you are 
correct. It is my judgment that--well, first of all, the 
situation on the ground has improved dramatically since 1995.
    Chairman Warner. Basically no conflict.
    General Ralston. The reason that there is no conflict there 
today is because we have had those forces there. I do not want 
to keep forces there any longer than necessary, but at the same 
time, we need to keep forces there in order to keep that safe 
and secure environment.
    Now, on a military aspect we have made enormous progress. 
In fairness, I must also tell you that economically, 
politically, we still have a ways to go, and we need to 
continue to keep that pressure on, but I would not recommend 
back to NATO, nor to the administration, nor to the Congress of 
the United States, that we do something that I do not believe 
is militarily sound. I fully support this force level, this 
reduction. We will continue to look for ways to bring that 
down, to ease the burden, but at the same time, we have a 
mission to carry out, and I want to make sure that we can do 
that.
    Chairman Warner. What you are saying is that ethnic 
tensions that gave rise to that conflict are still there with 
such force and effect that if you pulled out the troops there 
would be a war tomorrow.
    General Ralston. Well, it is my professional judgment that 
if we precipitously pulled out the troops right now, that 
conflict would start again. Whether it is tomorrow or next 
week, people can debate.
    With regard to Kosovo, let me show you a similar chart 
here. In 1999, when our forces went into Kosovo, we had about 
47,000 troops from 39 nations, by the way. Sometimes people 
erroneously think that the United States is pulling the bulk of 
this effort, but you can see there, 39 nations went together 
with 47,000 troops. We had about 7,000 Americans.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Today, overall we have about 42,000 troops in the Kosovo 
force. About 37,000 of those are in Kosovo itself, and another 
approximately 5,000 are in Macedonia. The U.S. contribution is 
about 5,500 people inside of Kosovo, and that varies between 13 
and 14 percent of the force, so my message here is, this is not 
a U.S. operation. The U.S. troops are represented in the red 
that is on there, and the other nations, the other 38 nations 
are carrying the bulk of the operation that is there.
    Next, please. There has been a lot of interest in the press 
in the past few days on Macedonia. Let me talk about that, if I 
might for a moment, in open session here, and perhaps we can go 
into more detail in the closed session. Let me have the big map 
first. This is Kosovo right here.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. The problem with that is that this is 
being transcribed for use by many others.
    General Ralston. Let me talk to colors. The country in 
orange is Macedonia, that is what we are talking about.
    Now, if you would come down to the southeast there, in 
Greece, at the top of that border, you will see Thessaloniki. 
Point out Thessaloniki, right there. That is where all of our 
supplies going into Kosovo come into that port. They then go 
overland, up through the orange country of Macedonia, into 
Kosovo, which is right at that point, right there.
    Now, as I said before, we have about 5,000 of the KFOR 
forces, mostly supply troops, mostly logistics troops that are 
in Macedonia. One of the things that is of concern when we have 
the instability there is our supply route, so I have 
recommended to NATO, and NATO is looking at alternate ways of 
making sure that we can supply our forces that are in Kosovo.
    One way to do that is through Albania. Another way is 
through Montenegro. Another way is through southern Serbia, as 
our relationships with Belgrade have improved, and we are doing 
the prudent planning now that would allow us to have 
alternative supply routes.
    The problem in Macedonia itself--let me go to the next 
chart. On this same map, you see where Kosovo is there, and 
notice the area in blue that goes into southern Serbia and down 
into Macedonia. Those areas in blue are those areas in Serbia 
and in Macedonia where there is a majority Albanian population. 
Even in Serbia, that area in blue, they have greater than 50 
percent Albanian population there. In Macedonia itself you have 
about a 65-35 split. About 65 percent of the population is 
Slavik, about 35 percent is Albanian.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Government of Macedonia is a democratically elected 
Government, and it is a coalition Government, including members 
of the Albanian population. We have encouraged the Macedonian 
Government to give political access and economic opportunity to 
the minority Albanian citizens that are there.
    The extremists that you hear about in the paper, right now 
I believe this is not something to be alarmed about. It is 
something always of concern when you have potential violence, 
but we believe that there are approximately 100 extremist 
Albanians that are involved in the hostilities.
    My advice to NATO has been that we need to condemn 
extremism wherever it comes from, and in this particular case 
from the Albanian extremists. We need to encourage the 
Macedonian Government to give political access to all their 
citizens, and I do believe that we can bilaterally, the nations 
can help the Government of Macedonia. They can help them 
diplomatically, politically, economically, and we in NATO and 
in the Kosovo force need to do our part inside Kosovo to make 
sure that there are not armed extremists coming from Kosovo 
into Macedonia. We can talk more about that in detail in the 
closed session.
    Chairman Warner. The Secretary-General said he needed 1,400 
additional troops. Now, could you speak to your military 
judgment as to that request, and most specifically, how it 
would affect the U.S. and our U.S. response? As a participant 
we wish to bear our share of the burdens and the risks in this 
operation.
    General Ralston. Yes, sir. Unfortunately, if I could say 
this, when the Secretary-General made his comments it was in a 
news conference that was associated with Macedonia. In fact, 
the two battalions that we asked for several weeks ago are to 
replace some Portuguese troops that are leaving. They have not 
left yet, but two companies to do that, and for some of the 
activities there.
    Now, some of the nations have come forward and said that 
they will provide additional troops to back-fill. My judgment 
right now is, we do not need additional American forces. I 
think we are carrying our proper share of that at this time, 
and I think we are going to be OK.
    Now, what we have done, we have taken forces out of that 
37,000 that are in Kosovo, and we have moved more forces down 
to the border to do a more effective job of patrolling the 
border.
    Mr. Chairman, I would also like to point out that this is 
an enormously difficult border to police. It is very 
mountainous terrain. It is wooded. There are trails that have 
gone back and forth across for centuries. The people there do 
not know there is a border there. I mean, they have brothers 
and sisters and uncles and aunts that live on either side of 
that. They have traded back and forth for centuries, and so it 
is enormously difficult to seal that border. I think that would 
be a mistake for us to set that as the goal, or the mission.
    Now, we can do, I think, a good job of making sure that 
there are not armed extremists that are going back and forth, 
and that is what we should be concentrating on from a NATO 
perspective on our side of the border.
    Mr. Chairman, I would like to spend a moment talking about 
Africa. We have significant problems in Africa in terms of 
economic, political, humanitarian issues. We are working with 
many of the countries in Africa to address this. We have just 
recently trained two battalions of the Nigerian Army for their 
further employment in Sierra Leone. We are about to undertake 
training a Ghana battalion in Ghana, and a Senegalese battalion 
in Senegal, and then the plan is to go back and train some 
additional Nigerian battalions.
    This is, I think, a proper role for us to try to help the 
African nations deal with the problems that they have there. I 
do not want anyone on the committee to be surprised if you hear 
that we have American soldiers in Ghana, or Senegal, or 
Nigeria. What they are there doing are training the local 
battalions for their employment in support of the United 
Nations in Sierra Leone.
    Mr. Chairman, in conclusion, there are two issues that I 
have worked hard with the Pentagon in terms of resources for 
the EUCOM area, and only two issues. I had two major budget 
issues that I worked with them, and that was for real property 
maintenance and for military construction in the European 
theater.
    Mr. Chairman, I know you know this, but 10 years ago we had 
about 360,000 troops in Europe, and we drew them down to just a 
little over 100,000. Now, it was a proper decision back in 1991 
to not spend money on military construction and real property 
maintenance until we knew what we were going to keep in Europe.
    Mr. Chairman, unfortunately, we went for the better part of 
a decade without any military construction or real property 
maintenance, and as a result, the soldiers, sailors, airmen, 
and marines that are living and working in EUCOM are in 
facilities that I am not very proud of. Here are some pictures, 
for example, of barracks problems that we have in EUCOM. Next 
slide, please.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Military family housing is a problem. Let me outline the 
standards that we have for our military housing, and I believe 
the American people would understand this. If you have a family 
that is big enough that entitles you to a three-bedroom 
apartment, we believe that you ought to have two bathrooms for 
that apartment. We believe you ought to have a stove and a 
refrigerator in the kitchen, and we believe you ought to have a 
washer and a dryer in that apartment.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Many of these are three-story walkup apartments. We have 
young mothers that have two or three young children. For her to 
wash the clothes she has to go down three or four flights of 
stairs to the basement. What does she do with the young 
children while she is doing that? She has to carry them along 
with the laundry downstairs to do that.
    I do not believe that is asking too much for these 
standards, and I must tell you, Mr. Chairman, even with these 
very modest standards, 69 percent of our Army families in 
Europe are living in conditions that do not meet those 
standards of a washer and a dryer, a stove and a refrigerator, 
and two bathrooms.
    Mr. Chairman, when I worked this with the Pentagon, I 
briefed the Joint Chiefs, I briefed the Defense Resources 
Board, I talked to the Secretary of Defense, and I believe that 
I have a sympathetic ear. I do not know what will be in the 
budget when it comes over. I have not seen that, but if it 
comes over the way that I hope that it does, I would encourage 
the support of the committee.
    Mr. Chairman, thank you for the opportunity to appear 
before you today.
    [The prepared statement of General Ralston follows:]

           Prepared Statement by Gen. Joseph W. Ralston, USAF

                              INTRODUCTION

    Mr. Chairman, distinguished members of the committee, it is my 
privilege to appear before you as Commander in Chief, United States 
European Command (USEUCOM), to discuss the posture of U.S. Forces. 
First, however, I want to make a few comments about the area in 
question.
    The U.S. European Command encompasses American military activities 
in over 13 million square miles of the globe and includes 91 sovereign 
nations. It stretches from the northern tip of Norway to South Africa, 
and from the Atlantic seaboard of Europe and Africa, to parts of the 
Middle East and out beyond the Black Sea.
    I began my tenure in the U.S. European Command last May. Since my 
arrival, our men and women have continued to carry out a multitude of 
operational commitments throughout Europe, Africa, the Levant, the 
waters of the Mediterranean, the skies over Iraq, and throughout the 
Balkans in support of the North Atlantic Treaty Organization (NATO), 
commitments to our regional friends and allies, and our national 
interests. Additionally, there are new opportunities in this theater--
opportunities that properly approached will further strengthen the 
international position of the United States. These opportunities 
include working with African allies to improve their peacekeeping 
capabilities, engagement with Russia and the countries of the Caucasus 
region, U.S. influence on the evolving European defense posture and the 
future of NATO, and the enhancement of important and vital interests to 
the economic and national security of the United States. Our forward 
presence in Europe, engagement programs in Africa and Eastern Europe, 
and the ability to deploy and respond quickly and effectively 
throughout the region contributes to the preservation of stability 
throughout much of the area of responsibility (AOR).
    While success should be acknowledged, we must exercise continued 
vigilance by pursuing modernization to meet ongoing requirements, as 
well as develop future forces to take advantage of key strategic 
opportunities as they arise. Inadequate funding for, and attention to, 
critical readiness and modernization issues will jeopardize the careful 
balance between USEUCOM's missions and available resources. Like 
operation and maintenance (O&M) dollars, modernization funding must 
also be balanced to ensure resources remain proportionate to mission 
requirements. American military personnel positioned overseas and going 
about the business of the Nation every day have proven time and again 
that they are our greatest national resource. Like every national 
asset, they require care and cultivation to ensure they maintain the 
capability edge over any potential adversary. Addressing critical 
quality of life, military construction (MILCON), real property 
maintenance (RPM), and modernization needs is central toward 
maintaining this edge.
    During my comments today, I will discuss the status of many 
programs. I should note, however, that the programs I will discuss, and 
their associated funding levels may change as a result of the 
Secretary's strategy review that will guide future decisions on 
military spending. The administration will determine final 2002 and 
out-year funding levels only when the review is complete. I ask that 
you consider my comments in that light.

      A CHANGING AND CHALLENGING STRATEGIC ENVIRONMENT--READINESS

    Readiness of USEUCOM assigned forces is my top priority. It is the 
cornerstone of our ability to respond to crises and it enhances our 
strategy of engagement. Most of our activities relate to readiness 
because they demonstrate and enhance our capability to deter potential 
adversaries, while reassuring our friends. Such activities require 
ready forces and exercise our ability to meet commitments and promote 
joint and multinational interoperability. Taken together these 
activities can serve to help shape the international environment by 
incorporating other nations and improving our multinational expertise 
in the region; they improve our ability to respond unilaterally or in 
concert with other nations; and they prepare us now for the uncertain 
regional requirements of the future.
    Thanks to the support of Congress, forces assigned to this theater 
are ready and well supported in their current operations. The command's 
forces are fully engaged and continue to rely upon augmentation and 
Reserve Forces to carry out our many diverse missions. Dedicated young 
men and women valiantly executing a wide variety of operations to 
support our national strategy make up the heart of our theater 
readiness. Over the last year, we demonstrated our readiness by 
supporting air operations over Northern Iraq, NATO-led peacekeeping 
operations in Bosnia and Kosovo, humanitarian relief operations in 
Mozambique, and training of Sub-Saharan African troops to support 
United Nations (UN) operations in Sierra Leone.

                             JOINT TRAINING

    Training is a primary pillar of readiness and an inherent 
responsibility of being in command. For USEUCOM, readiness training has 
increasingly become part of our Theater Engagement Plan. However, over 
the past 2 years efforts to cope with rapidly shrinking training and 
training-dependent budgets, such as strategic lift, have resulted in 
several cancelled and restructured exercises. These cancellations have 
frustrated our efforts to provide high-quality readiness training to 
meet theater engagement needs.
    Our challenge is to support a proper mix of readiness and theater 
engagement training within resource constraints. The U.S. European 
Command has met its congressional mandates for Chairman of the Joint 
Chiefs of Staff (CJCS) exercise-related operations and personnel tempo 
(OPTEMPO-PERSTEMPO) reductions. Additionally, strategic lift funding 
cuts during this fiscal year may force cancellation of continental U.S. 
(CONUS)-based participation by active, Reserve, and National Guard 
forces in various training and engagement exercises. In a worst case 
scenario, these cuts may also reduce training and engagement in Israel 
and Nigeria, and result in cancellation of half of the Joint Combined 
Exchange Training (JCET) activities in Africa.
    After taking a hard look at our training program for potential 
improvements in quality, effectiveness, and efficiency, we began 
implementation of a 3-year transition plan to take USEUCOM from a 
training program focused on events, to one focused on readiness and 
theater engagement objectives. This revised program will exploit 
opportunities within the total program, resulting in fewer, but higher 
quality CJCS-sponsored exercises. I do not anticipate that this 
transformation of USEUCOM's part of the CJCS exercises in fiscal year 
2002 and beyond will result in a significantly less costly program. A 
requirements-based, objectives-driven exercise program will, however, 
provide higher quality training and engagement at a size and cost that 
is appropriate to, and justified by, our National Security Strategy.

                               ENGAGEMENT

    Side-by-side with readiness activities are the other exercises, 
operations, and training which focus primarily on assisting and 
supporting other nations in the region to develop effective democratic 
political and military systems.
    To help guide Congress in its decision-making, many of you have 
traveled to the European theater and have witnessed efforts to extend 
contacts beyond Western Europe through engagement. Over the past 
several years this process has helped to positively shape our security 
environment. I believe this approach is key to continued long-term 
peace, security, and prosperity as USEUCOM works along side, and in 
active cooperation with, a number of governmental and non-governmental 
organizations.

                            FORWARD PRESENCE

    America's permanently stationed forces in Europe number just over 
100,000 troops--down from well over 300,000 during the Cold War. The 
current force level represents a 65 percent reduction from 1990. In my 
opinion, this must be considered the minimum level needed to execute 
our current National Security Strategy, meet NATO requirements, and 
provide support and staging for U.S. based forces that in time of need 
would flow into or through the theater.
    Key to our engagement efforts are our forward-deployed and forward-
based forces, which continue to make significant contributions in 
protecting U.S. national interests. In peacetime, forward presence of 
naval, land, and air assets provides unparalleled access to countries 
in transition. In crises, the forward presence of our forces enables a 
rapid transition from engagement to response. Forward presence is a 
critical enabler for USEUCOM activities.
    Continued forward presence is vital to implementing our current 
strategy, as our forces are able to respond more quickly--demonstrated 
through a number of deployments last year to the Balkans, Southwest 
Asia, and Africa. Surrendering this forward position would seriously 
degrade our ability to engage in peacetime or deploy in the event of 
armed conflict. The General Accounting Office (GAO) traveled through 
the AOR recently to discuss issues related to forward basing. Their 
report is due for release this spring and I believe we presented solid 
evidence of the benefits of forward basing.

              DEFENSE COOPERATION AND SECURITY ASSISTANCE

    Defense Cooperation and Security Assistance programs are vital 
components of Departments of State and Defense initiatives supporting 
the development of interoperable defensive capabilities, the transfer 
of defense articles and services, and the international military 
training of foreign military and civilian personnel. Through the medium 
of 38, and soon to be 40, Offices of Defense Cooperation, we are in 
partnership with U.S. embassies throughout the theater conducting 
primary military engagement in support of American foreign policy 
goals.
    Defense Cooperation in Armaments (DCA) promotes vital security 
interests through enhanced cooperation among key defense industries, 
and between DOD and West European Ministries of Defense. DCA encourages 
the development of interoperability on the ``drawing board'' and 
inherently strengthens U.S.-European military and political 
relationships.
    Likewise, Foreign Military Sales (FMS) of $4.7 billion in fiscal 
year 2000 to Europe demonstrates the continued primacy for U.S. 
security interests of trans-Atlantic defense relationships. FMS 
encourages interoperability between U.S. and European forces, maintains 
a strong U.S. presence in the development and implementation of the 
Defense Capabilities Initiative (DCI), and helps modernize the 
militaries of new friends and partners in ways critical to our security 
interests. We in Europe work closely with the Defense Security 
Cooperation Agency and the Services to ensure that U.S. European 
Command priorities are reflected.
    Foreign Military Financing (FMF) provides irreplaceable resources 
for our friends and allies, without which U.S. influence over the 
dynamic transformation of Central and Eastern Europe and key African 
partners would be affected. The program provides access to U.S. 
expertise in defense restructuring and management, and enables 
participants to acquire U.S. military goods, services and training. The 
new NATO members and the stronger aspirants for membership provide 
excellent examples of the value of this program.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    I cannot overemphasize the importance of International Military 
Education and Training (IMET) as an integral component of long-term 
beneficial change in foreign militaries, as foreign military and 
civilian leaders encounter first hand the American civil-military 
culture. The priorities of the program are professional development, 
the role of the military in a democratic society (under the Expanded 
IMET initiative, or E-IMET), and English language development. In 
fiscal year 2000, the program trained almost 1,500 military and 
civilian international students in U.S. military schools, with nearly 
550 officers attending professional schools--including senior and 
intermediate service schools. Under E-IMET, Mobile Education Teams 
(MET) traveled to 30 countries in the region last year providing 
instruction to over 2,000 civilian and military personnel in military 
justice and human rights, civil-military relations, health resources 
management and integration, defense resources management and budget 
planning, equal opportunity, and maritime counter-drug law enforcement. 
Student projections for this year match last year's numbers.

                         PARTNERSHIP FOR PEACE

    The Partnership for Peace (PfP) program continues to meet its goal 
of deepening interaction, extending stability in the East, providing 
consultation mechanisms for participants who feel threatened, assisting 
in the pursuit of democratic reforms, and preparing for possible NATO 
membership. The program has returned huge dividends for operations in 
Bosnia, with over 30 nations providing support and nearly one-third of 
the forces coming from non-NATO nations. The growth of the PfP program 
over the past 6 years has been dramatic and, in addition to real world 
operations, Partnership exercises provide superb training and equally 
important exchange opportunities.

                       JOINT CONTACT TEAM PROGRAM

    The Joint Contact Team Program (JCTP) has been one of USEUCOMs most 
successful engagement programs over the past 9 years. Through modest 
investments of money, personnel, and expertise, it has helped host 
nation militaries become familiar with the culture of the U.S. 
military, and through this process exposed to the best in American 
values and democratic ideals. By leveraging the expertise of America's 
Active and Reserve Forces, especially the unique capabilities of the 
Reserve component's (RC) State Partnership Program (SPP), JCTP has 
modeled and demonstrated the best practices of America's military 
force. It has thus helped host nation militaries move toward providing 
constructive roles to their developing democracies.
    The program's success is most evident in the three new NATO member 
countries. Poland, Hungary, and the Czech Republic's needs have matured 
beyond familiarization and exposure--they are ready to ``graduate'' 
from JCTP. Their needs must now be met with additional services and 
technical training properly administered under U.S. security assistance 
programs and plans are now being formulated to move beyond JCTP. Where 
possible, links to their SPP states will be maintained to facilitate 
this transition.
    This natural transition in the new NATO countries is the 
realization of USEUCOM's Theater Engagement Plan and is the eventual 
goal for all of the JCTP countries. This transition also allows the 
program to move, by close coordination with the U.S. Department of 
State, to new host nations requesting the unique engagement 
capabilities available through JCTP.

                       STATE PARTNERSHIP PROGRAM

    A key program in this important engagement effort is the Reserve 
Component's State Partnership Program. SPP grew out of JCTP and uses 
Reserve personnel from various National Guard and Reserve organizations 
to partner with defense ministries of Central and Eastern European 
countries. Last year was extremely successful as National Guard 
soldiers and airmen conducted dozens of events including 51 Minuteman 
Fellowships (MMFs), nine ``Guardex'' events, six PfP as well as several 
``In the Spirit of Partnership for Peace'' exercises, executed more 
than 25 percent of all events for USEUCOM JCTP, facilitated civic 
leader visits, and conducted a number of engagement activities with the 
Russian Federation. The MMF program bridges gaps in other engagement 
programs and touches levels of society that other programs cannot 
reach. Through this program we were able to share with our partners our 
experience and expertise in education, economic development, disaster 
response, environmental topics, and numerous other subject areas.
    When delegations from Tennessee, Minnesota, Indiana, Alabama, 
Vermont, Illinois, Kansas, and California conducted civic leader visits 
to SPP counterpart countries, the long-term vision for SPP had been 
realized--moving beyond military-to-military contacts into other 
important elements of society. Through these activities, state civilian 
officials in the realms of education, commerce, agriculture, medical 
emergency services, and disaster response exchange their considerable 
knowledge and expertise with their partner-nation counterparts.

                            MARSHALL CENTER

    One of the most important and effective regional engagement 
activities within the U.S. European Command is the George C. Marshall 
European Center for Security Studies. The Marshall Center strengthens 
security and cooperative relationships among key nations within the 
theater. It serves as an essential institution for bilateral and 
multilateral communication and military and civilian exchanges 
throughout the region.
    This organization builds bridges between militaries that once 
stared at one another through the crosshairs of weapons of war. Under 
the auspices of the Marshall Center, the once-warring parties of Bosnia 
came together last year and agreed to slash military spending. Marshall 
Center graduates have served as peacekeepers in Bosnia and as far away 
as East Timor. Graduates from Hungary, Poland and the Czech Republic 
are now helping to integrate their militaries into NATO. Marshall 
Center programs have led a number of nations to the democratic 
restructuring of their defense planning and crisis management 
processes. Graduates from the Republic of Georgia wrote Tbilisi's 
recently announced national security strategy. Many Marshall Center 
graduates now serve as ambassadors, defense attaches, chiefs of 
defense, members of parliament, and advisors to presidents around the 
world. These graduates possess a deeper appreciation and respect the 
concepts of democracy as we understand them, and for human rights and 
the rule of law.
    The Marshall Center is at the forefront in reaching out actively 
and comprehensively to militaries and defense establishments to lower 
regional tensions, strengthening civil-military relations in developing 
nations, and addressing critical regional challenges. Open to leaders 
from over 47 countries, the Marshall Center is a pillar of America's 
efforts to shape the world in ways that reinforce and reflect our 
values and national security interests. It is therefore important that 
the Marshall Center remains fully resourced in order to continue its 
excellent work in support of American foreign policy objectives.

                THE AFRICA CENTER FOR STRATEGIC STUDIES

    Drawing on the success of the Marshall Center, the Africa Center 
for Strategic Studies (ACSS) was established in December 1999 and 
conducted its second seminar last July in Botswana. While it does not 
yet have a permanent location to call home, its rotating seminars 
provide a unique engagement vehicle in Sub-Saharan Africa. Both 
civilian and military senior defense officials of almost every African 
nation gather with U.S. and other friendly nation counterparts to 
examine and compare experiences on national security strategy, defense 
economics, and civil-military relations. They then validate their 
impressions in an end of session capstone exercise. Its forum of open, 
two-way discussion has enjoyed great success on the continent and 
builds and strengthens bilateral and multilateral relationships.

           NEAR EAST--SOUTH ASIA CENTER FOR STRATEGIC STUDIES

    In January a year ago the Secretary of Defense approved the 
establishment of the Near East--South Asia (NESA) Center under the 
management of the National Defense University (NDU), Washington D.C. 
The purpose of the Center is to enhance regional stability by providing 
an inclusive, neutral institution where regional military, diplomatic, 
and national security professionals can broaden their understanding of 
the national strategy formulation process, examine regional security 
issues, improve their defense-related decision-making skills, and 
develop cooperative relationships with one another. Participation is 
open to military and official civilian representatives of all countries 
within the NESA region with which the U.S. Government maintains formal 
diplomatic relations. It is also open to non-NESA countries that have 
strategic interests in the NESA region. The inaugural two-day 
conference was held at NDU in November, and the first executive seminar 
will be held in Washington during May.

                   AFRICAN CRISIS RESPONSE INITIATIVE

    The African Crisis Response Initiative (ACRI) is a Department of 
State training program designed to improve the capabilities of several 
African nations to conduct humanitarian crisis response and 
peacekeeping operations. ACRI-trained forces could be offered by their 
governments for peacekeeping and humanitarian operations conducted by 
the Organization of African Unity, the UN, sub-regional African 
organizations, or any other multinational coalition. ACRI also works to 
shape the African environment by promoting professional and apolitical 
militaries, reinforcing respect for human rights, and providing a 
strong example of democratic civil-military relations. This UN-approved 
program of instruction combines U.S. and UN peacekeeping and 
humanitarian relief operations doctrine. Program instruction develops 
common standards for peacekeeping and humanitarian relief operations 
among the participating ACRI countries. Recently, the program was 
expanded to include brigade-level training focusing on the command, 
control, and logistical aspects of supporting a multinational brigade 
in the field.

                         OPERATION FOCUS RELIEF

    Last year USEUCOM was tasked to help train five Nigerian 
battalions, one Ghanaian battalion, and one Senegalese battalion in 
order to participate in UN operations in Sierra Leone, and more 
strategically, to support the professional development of the Nigerian 
military--an important force for regional stability. This operation is 
being conducted in fiscal year 2001 using State Department peacekeeping 
operations (PKO) funding as well as DOD resources made available under 
Presidential drawdown authority.
    To accomplish this mission, Special Operations Command, Europe 
(SOCEUR) was tasked to execute the mission with Army and Air Force 
units in support. Based on information provided by the SOCEUR-led 
Military Survey Team, a 10-week training program using U.S. instructors 
and an equipment support package was developed. Execution of the train-
and-equip program was designed for three-phase completion, commencing 
last October, with mission accomplishment likely later this year. Upon 
completion of the training program, each battalion should be capable of 
operating and maintaining newly acquired equipment, conducting daylight 
company level attacks and conducting day and night defensive operations 
as a maneuver company under command and control of a battalion 
headquarters.
    We have now completed phase one of the three-phase program and our 
personnel have performed magnificently. However, interagency policy-
level decisions must be made early enough in the process so funding and 
resources can be programmed to meet timelines and support requirements. 
Additionally, human rights vetting must be complete for all personnel 
to be trained, to include attached units, prior to the initiation of 
training. There must also be host nation agreement on the training 
program at every political and military level in order to assure 
mission success. Operation Focus Relief is not an operation without 
risk. However, with only 200+ U.S. personnel assigned in non-combatant 
roles, the dollar investment is minimal and the payoff great in that it 
is successfully training local forces to deal with regional problems. 
In this way, Operation Focus Relief is pioneering a new method of 
engagement.

                  KEY THEATER MISSIONS AND CHALLENGES

    Challenges in the USEUCOM AOR will continue as the U.S. works to 
strengthen and maintain the NATO structure, prepares forces to better 
respond to future conflict, shapes the international environment 
through engagement, executes contingency operations, and monitors 
potential future conflict areas. I have highlighted key challenges and 
continuing missions below to give an idea of the diversity of theater 
challenges and missions.

                     MULTINATIONAL INTEROPERABILITY

          ``The overall effectiveness of multinational operations is . 
        . . dependent upon interoperability between organizations, 
        processes, and technologies.''

                                                  Joint Vision 2020

    The U.S. European Command and America's allies and friends 
recognize that most military operations in the future, from 
peacekeeping and humanitarian relief to a major theater war, will 
typically be multinational in character. Success in multinational 
operations will depend on two factors: the capabilities of the national 
forces involved in the operation; and the degree to which these forces 
can be melded to create an effective force. These factors will demand a 
high level of interoperability and enhanced capabilities between the 
participating national forces.
    In this vein NATO has met and excelled at every challenge since the 
end of the Cold War precisely because of its ability to commit 
multinational forces structured to meet military threats to its 
members. NATO's greatest challenges today originate not externally, but 
from within. The growing asymmetry in technology between European and 
U.S. military forces is producing a serious imbalance in our military 
capabilities. Furthermore, Europe's shrinking defense industrial base 
and limitations in production of advanced military capabilities could 
lead to a future where only the U.S. has the ability to engage 
globally.
    The Defense Capabilities Initiative, launched in April 1999, is an 
effort by the European members of NATO to resolve glaring capabilities 
shortfalls between them and the U.S. as evidenced by past NATO 
exercises and Operation Allied Force in and over Kosovo. The 
Capabilities Initiative's two primary thrusts, improving national 
capabilities and exploring ways to pool capabilities, allow our allies 
and partners to enhance interoperability, take advantage of economies 
of scale, and afford participation by those countries that do not 
possess the resources to go it alone. The initiative specifically 
targets five capabilities: effective engagement; deployability and 
mobility; survivability of forces and infrastructure; sustainability 
and logistics; and communications/information systems. As Europeans 
work to improve their national and collective security, we have 
encouraged defense cooperation and procurement using the DCI roadmap 
and believe it mutually reinforces the needs of NATO and the European 
Union (EU).
    The DCI's success depends upon whether Europeans are willing to 
spend more, and more wisely, in narrowing the gap between their 
military technology and warfighting capability, and our own. Should 
Europe prove unable to engage in military operations at or near the 
level of U.S. capabilities, it may leave them vulnerable and limit the 
U.S. in some cases to unilateral action. Such a future undermines 
America's strategic vision and assumptions--diplomatically, 
economically, and militarily. Finite resources and domestic political 
realities dictate that unilateral action cannot be the future norm. 
Unilateral action endangers the historical link between the American 
and European peoples. While the issue of DCI is being worked at the 
highest levels in NATO, it is critically important that Congress work 
to engage their European counterparts on this issue. The U.S. must 
continue to engage with its European allies to help foster the 
necessary changes to enable Europe to remain a contributing strategic 
partner across the spectrum of potential operations. DCI is a crucial 
area on which the future of a strong Trans-Atlantic link may very well 
depend.

              EUROPEAN UNION AND NATO SECURITY STRUCTURES

    The establishment of a common foreign policy, supported by a 
military capability, within the EU is one of the most important 
political-military issues facing Europe and the United States today. 
The European Security and Defense Policy (ESDP) is worked hard, 
continuously, and at presidential and prime ministerial levels in every 
capital in Europe. If the military and political links that eventually 
define the relationship between NATO and the EU do not result in 
transparency, coordination, and a cooperative effort, it places at 
serious risk the future of the alliance. Indeed it is the form these 
permanent arrangements between the two will take, and assured EU access 
to NATO's planning capabilities, that are the most contentious and 
potentially destructive questions currently under debate.
    The recently completed Foreign Minister's meeting in Brussels was 
not able to reach agreement on these issues and will require much 
effort by the new administration. We believe that SHAPE headquarters 
can play a constructive and indispensable role by accomplishing the 
future military planning for both organizations, thereby negating the 
need for a duplicative headquarters solely to support the EU.
    The European Security and Defense Identity (ESDI) within NATO 
continues to evolve within U.S. redlines as the EU develops, through 
the ESDP, both capabilities and institutions for its security and 
defense aspirations. Even though the progress to date has generally met 
U.S. expectations, I would suggest that officials in Washington remain 
vigilant to ensure that ESDP remains relevant from a U.S. perspective. 
They should emphasize the requirement for Europeans to develop their 
capabilities, maintain NATO-EU linkages, and underscore the necessity 
for the inclusion of non-EU NATO members in emerging security and 
defense arrangements.
    Successful implementation of the European Security and Defense 
Policy within the European Union will require a concerted effort 
between the European members of NATO, EU members who are not in NATO, 
and Canada and the United States. This cooperation is essential to 
build the military and political links between NATO and the Union 
necessary to achieve a common strategic vision and make the needed 
improvements in technological capabilities.
    Last November witnessed positive developments in the Capabilities 
Commitment Conference. This effort has been a primary focus of the 
French during their 6 months as President of the EU last year. The 
planning scenarios used to determine capabilities and forces required 
for the ESDP Headline Goal Force have remained realistic. In this 
regard, the EU has commitments for a Rapid Reaction Force (RRF) of up 
to 60,000 personnel, which is the minimum goal. The EU member countries 
placed a total of 100,000 troops, 400 combat aircraft and 100 warships 
at the EU's immediate disposal to support this RRF. If this force 
becomes reality it is sufficient to establish the EU as a significant 
military power.
    The military staff at SHAPE played a very constructive role in 
assisting the EU's interim military staff in the development of these 
goals. The Catalogue of Forces turned out to be impressive, with high-
end capabilities that are fully in line with Europe's DCI efforts. My 
main apprehension regarding capabilities is that they remain compatible 
with NATO Force Goals once the EU force is established and that the 
Europeans follow through with the necessary financial commitments to 
correct identified capability shortfalls.
    In my role as the military commander of NATO's forces (SACEUR), I 
am fully engaged in providing advice and perspective as this issue 
evolves. In my estimation, if handled successfully by NATO HQ in 
Brussels and the European Union, the ESDP process will strengthen the 
security posture of the European continent. However, there are many 
complicated factors remaining before this capability is realized. The 
central issue, in my view, is the method by which a plan is developed 
and presented. When a potential conflict or crisis emerges the planning 
should be conducted by the SHAPE staff, with EU military augmentation. 
The Deputy SACEUR would then take the completed plan to the EU and I 
would send it to the NATO political authorities. If NATO elects not to 
involve itself, the EU could pick up the mission and deploy forces as 
required. If the process does not follow this model the EU will be 
unnecessarily creating large and redundant staffs and a real 
possibility of double counting and tasking existing NATO forces. 
Realization of ESDP largely hinges on the Europeans' willingness to 
make the necessary fiscal and political commitments. Any newly financed 
capabilities, however, must be in line with DCI--not duplicating but 
rather reinforcing alliance capabilities.

                    NATO ENLARGEMENT AND INTEGRATION

    There are currently nine European nations that aspire to NATO 
membership. While the decision to expand the alliance is a political 
one and will ultimately be made in capitals across Europe and North 
America, an aspirant's military readiness will be scrutinized and is 
certainly part of the equation. Thus far, the nine aspirants have 
benefited from U.S.-funded defense assessments as well as from the NATO 
Membership Action Plan with its associated Partnership Goals. These 
mechanisms have provided a valuable roadmap toward reform and 
interoperability in the event that additional nations are offered NATO 
membership.
    As for the three newest members of the alliance--Poland, Hungary, 
and the Czech Republic--the Interagency Group estimated that a 10-year 
process would elapse before these nations fully transition from past 
Warsaw Pact doctrine, equipment, and organization to NATO 
interoperability. One should avoid any unrealistic expectations of full 
integration this early--only 3 years since the Madrid invitations. 
Nevertheless, they have made great progress. Each has performed well in 
both exercises and deployments, including the very demanding 
environments of Bosnia and Kosovo where they share the burden through a 
contribution of nearly 2,500 troops to the international effort.

            EUROPEAN REACTION TO MISSILE DEFENSE DEPLOYMENT

    A number of potentially hostile nations are working to develop 
long-range missiles to coerce and threaten countries in North America 
and Europe. President Bush has stated that we will deploy missile 
defenses as soon as possible. These defenses, he has made clear, must 
protect not only the United States and our deployed forces, but also 
our friends and allies.
    NATO's Strategic Concept also recognizes that ``the Alliance's 
defense posture against the risks and potential threats of the 
proliferation of (nuclear, biological, and chemical) weapons and their 
means of delivery must continue to be improved, including through work 
on missiles defenses.'' As the U.S. pursues this capability, I suggest 
it continues to consult our friends around the world. Open and frank 
discussions on this initiative between the U.S., NATO, and our other 
European allies, will further understanding and help avoid alienating 
our valued friends.
    The defenses envisaged will reinforce the credibility of U.S. 
security commitments and the credibility of NATO as a whole. No one can 
reasonably argue that Europe would be more secure if the U.S. were less 
secure from a missile attack. An America able to defend itself from 
missile attacks is an America better able to defend Europe and common 
Western security interests. As consultations proceed with allies on 
missile defense, we realize they will continue to consider the 
appropriate role of missile defenses in their respective national 
security strategies for dealing with the changing international threat 
environment. In keeping with the fundamental principle of the alliance 
that the security of its members is indivisible, the United States is 
open to discussing possible cooperation with allies on longer-range 
ballistic missile defense, just as we have with our discussions and 
cooperation in the area of Theater Missile Defense.

                            FORCE PROTECTION

    Force Protection (FP) remains a top USEUCOM priority. We are 
exercising an aggressive Antiterrorism/Force Protection (AT/FP) program 
providing clear AT/FP policy, measures, and tools to mitigate risk and 
maximize security for our personnel and their families. We have 
implemented a number of innovative AT/FP programs, examining the 
application of state-of-the-art technology to enhance access control 
and explosive detection, and are continuing our efforts to field mass 
notification systems throughout the theater. We are making progress, 
but resourcing continues to challenge our AT/FP Service priorities.
    U.S. European Command is in the staffing process of publishing a 
significantly updated AT/FP Operations Order (OPORD) 01-01 prescribing 
AT/FP standards and requirements. These new mandatory requirements 
encompass FP engineering design standards for new construction, major 
renovations, and existing facilities. USEUCOM has also instituted a 
comprehensive Installation AT/FP Program Manager course to train the 
unit FP officers in our AT construction and design standards. To date, 
we have established AT/FP responsibilities for DOD elements and 
personnel at 67 Chief of Mission locations throughout the USEUCOM AOR.
    Coupled with this, 137 AT/FP vulnerability assessments, including 
74 Joint Staff Integrated Vulnerability Assessments, have been 
undertaken over the past year. These assessments have identified AT/FP 
vulnerabilities and assisted commanders in addressing those 
deficiencies through the use of countermeasures, procedural changes, 
and resourcing--endeavoring to eliminate or mitigate their potential 
exploitation by terrorists.
    We have developed and fielded a web-based Vulnerability Assessment 
Management Program (VAMP). The VAMP captures results of vulnerability 
assessments, prioritizes AOR vulnerabilities, identifies deficiencies, 
and lists corrective actions needed or completed. VAMP is a management 
tool available to every commander and AT/FP officer from the theater 
down to the installation level and allows commanders and decision 
makers the ability to track and identify the actions taken or required 
to correct and/or mitigate vulnerabilities at specific installations 
throughout the AOR.
    We employ risk management and mission analysis processes in all 
deliberate, crisis, and contingency operational planning and exercises. 
Threat working groups and assessment tools, such as the VAMP, play a 
critical role in these processes. In light of recent events these 
processes are receiving additional scrutiny. Although we cannot 
eliminate all vulnerabilities, we continue to use risk management when 
deciding missions in this theater in order to reduce risk to our 
personnel--identifying vulnerabilities and resources required to reduce 
exploitable FP vulnerabilities.
    Our intelligence operations continually analyze and assess 
potential terrorist threats to U.S. installations, facilities and 
personnel. We use a variety of systems to disseminate intelligence 
within the command and provide routine and time-sensitive threat 
warning notifications. Our systems and procedures provide the ability 
to rapidly disseminate information regarding specific terrorist threats 
to units, installations and individuals throughout the AOR. In 
conjunction with our national intelligence agencies, we are exploring 
better methods of sharing and disseminating more accurate AT/FP 
prediction and tracking threat information. Recently, we initiated 
closer cooperation with the U.S. Central Command to share and maximize 
our efforts, including assets, analytical and database capabilities.
    While intelligence operations support for AT/FP in theater is good, 
we concur with the recent U.S.S. Cole Commission recommendation to 
reprioritize resources for collection and analysis, including human 
intelligence and signals intelligence, against terrorist threats, and 
to increase our national intelligence agencies counterintelligence 
resources dedicated to combating terrorism.

                                BALKANS

    One of the greatest challenges to peace, stability, and democracy 
in Europe is the integration of the Balkans into the rest of Europe, a 
strategic objective the U.S. shares with NATO and the EU. Last year saw 
a watershed opportunity to overcoming that challenge--the toppling of 
Slobodan Milosevic and the election of Vojislav Kostunica as President 
of the Federal Republic of Yugoslavia (FRY). It has been clear for a 
decade that only a change from dictatorship to democracy in Belgrade 
would set the conditions for a regional approach to the problems in the 
Balkans. This transition from authoritarian to democratic rule in the 
FRY should have a beneficial impact on the integration of the entire 
region into the west. President Kostunica still has much work to do in 
consolidating democratic gains. While the FRY has begun its re-
integration into the western world, rapidly joining the UN, the 
Organization for Security and Cooperation in Europe (OSCE), and the 
Stability Pact for Southeastern Europe, and establishing diplomatic 
relations with the U.S. and other key NATO allies, much remains to be 
done in the Balkans.
    Greater ethnic reconciliation in Bosnia and Kosovo is elusive and 
while recent voting in Serbia and Bosnia marked another milestone in 
the rule of law and movement toward democracy, it also reinforced some 
hard-line nationalist parties and their platforms. Additionally, 
despite the first democratic elections in Kosovo, where municipal 
voting saw moderates win, the province is still volatile.
    Security conditions permitting the withdrawal of U.S. troops from 
the region have not yet been fully realized. The status of Montenegro 
within the federation, a final settlement for Kosovo, and Serbia's 
future links with the Republika Srpska remain open issues whose 
resolution are required in order to bring stability and democracy to 
the Balkans. There is no short-term solution to the problems in the 
Balkans without developing a comprehensive, region wide, and long-term 
approach. The economics in the region are driving the turmoil and 
fractious nature of the ``peace.'' International involvement in the 
Balkans must include substantive initiatives that address the economic 
problems of the region. Without such initiatives, we cannot hope to 
forecast peace.
    Military forces, too, must continue to foster an environment in 
which peaceful actions are rewarded, but do it with fewer resources. 
This can be accomplished by leveraging existing national and allied 
exercises that occur across this theater and by executing them as much 
as possible in the Balkans. By conducting exercises in the Balkans, we 
show resolve in the regional policies, deter the outbreak of 
hostilities, and improve regional infrastructure leading to increased 
interaction among Balkan peoples.
    In Bosnia, force numbers have been reduced from 60,000 when the 
mission began, to just over 20,000 personnel. Of 34 nations 
contributing forces to this effort, 28 are European and their forces 
make up 80 percent of SFOR. The U.S. has successfully reduced its 
proportion of committed troops from 33 percent in 1996 to 20 percent 
today. The way ahead in Bosnia, including future force reductions, 
remains contingent upon the implementation of Dayton's various military 
and civil tasks. We are working within the administration to address 
possible ways to implement the civil tasks and set the conditions for 
additional NATO force reductions.
    The KFOR military effort is considerable and has not changed to any 
degree since last year. KFOR's strength remains at 37,000 deployed in 
Kosovo proper and an additional 4,400 supporting in the Former Yugoslav 
Republic of Macedonia (FYROM), Greece, and Albania. This force is drawn 
from 39 nations, with 33 European countries deploying over 80 percent 
of the total. The U.S., with 5,500 troops in Kosovo, continues to 
provide 14 percent of the force. Europe as a whole has endeavored to 
live up to its personnel and financial commitments of support to Bosnia 
and Kosovo. The following charts indicate their specific levels of 
military troop support:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The UN Mission in Kosovo (UNMIK) police force enjoys continued 
success. Current numbers indicate that 53 nations contribute 4,485 
officers. This number represents 95 percent of the UN goal of 4,718 
police officers. Additionally, the domestic police academy graduated 
its twelfth class on 3 February and has placed 3,128 multi-ethnic 
officers on the beat as a result. I can report the UN's policing plan 
is on target and the effort continues to put 300+ officer graduates on 
the street every month to work--and learn--alongside UNMIK's veteran 
contract officers.
    U.S. contributions to NATO are based on the North Atlantic Treaty 
signed on 4 April 1949. The annual U.S. funding commitment is an 
obligation to cover approximately one-quarter of the NATO funding 
requirements as set by consensus of the Military Budget Committee 
composed of representatives from each of the participating nations. 
Once funding is committed, the prestige and credibility of the United 
States is irrefutable and must be met. Consequently, a failure to 
provide adequate funding to meet this commitment forces the DOD to 
reprogram funds from other established mission-essential programs. 
Shortfalls in NATO funding have been chronic in the past and have only 
served to erode national programs. I encourage Congress to realize that 
full funding of our NATO commitment will ensure the full execution and 
realization of national programs, as well as the continued security and 
stability of Europe as afforded by NATO.
    In closing on the topic of the Balkans I do want to make one 
further comment, and that is in regards to the pursuit and eventual 
apprehension of Persons Indicted for War Crimes (PIFWCs). There are few 
higher priorities in the international community's efforts in the 
Balkans than bringing PIFWCs to justice regardless of what you might 
hear or read, but it is slow and dangerous work. American forces, 
working alongside their NATO counterparts, are fully committed and one 
day I am confident these indicted criminals will be delivered to the 
International Criminal Tribunal for the Former Yugoslavia (ICTY) at the 
Hague. To date approximately 100 have been indicted and 71 delivered to 
the ICTY, killed during apprehension efforts, or have otherwise died. 
This process will continue until such time as justice is satisfied.

                        OPERATION NORTHERN WATCH

    The Combined Joint Task Force (CJTF) Operation Northern Watch, 
consisting of forces from the U.S., Turkey, and the United Kingdom, 
continue to fly dangerous and complex missions in the enforcement of 
the No-Fly Zone (NFZ) over Northern Iraq, and monitoring Iraqi 
compliance with applicable UN Security Council Resolutions.
    In the last few months, however, the situation in the zone has been 
further complicated by a dramatic increase in the number of 
international ``humanitarian flights'' into Iraq, as well as the 
introduction of domestic Iraqi flights into the NFZ. Coalition forces 
have taken appropriate measures to ensure that civilian aircraft will 
not be endangered by ONW activities. There is no guarantee of what 
actions Saddam Hussein might initiate; however, he has altered his 
primary strategy from open defiance of ONW presence, to eroding 
international support for applicable UN resolutions.

                                 RUSSIA

    U.S. and Russian soldiers execute common missions side by side 
against common threats in the Balkans. Our deployed forces have 
performed ably together and have developed positive and extremely 
important combined training and operational activities. In spite of 5 
years of operational cooperation and success however, our overall 
attempts to engage more broadly with Russia are mixed. Ideally, Russia 
will harmonize its security concerns with NATO, further strengthening 
stability in the region. A remilitarized or a failed Russia would lead 
to increased instability and danger not only to its neighbors, but to 
vital U.S. security interests as well. The U.S. supports favorable 
developments in Russia with its bilateral engagement efforts, as well 
as through its support for the stability, sovereignty, and economic 
development of the Ukraine, Moldova, and the Caucasus' states.

                                CAUCASUS

    The Caucasus region is vitally important to the United States for 
at least two major reasons: the impact on the emerging Russian national 
self-definition, and its capacity to fulfill European hydrocarbon 
energy deficits. Despite its remoteness from the U.S., the region will 
have a decisive impact on international political developments in the 
early 21st century.
    The importance of Caucasus oil and gas reserves, and the necessity 
of their supply to meet growing European energy needs, comes precisely 
at a time when Russia is still immersed in its yet to be completed 
social, political, and economic revolution. It also comes at a time 
when China is emerging as a major regional economic and political 
power, with vastly increased energy requirements. Despite this critical 
time, America has imposed on itself considerable constraints toward our 
policy and influence in this region.
    A key constraint to full American peaceful engagement in this 
region is Section 907 of the 1992 Freedom Support Act. The Act 
prohibits government-to-government assistance to Azerbaijan until such 
time as ``steps are taken'' to lift the economic embargo sponsored by 
Azerbaijan against Armenia, with the exception of counter-proliferation 
programs. The DOD applies an ``equal treatment'' policy toward Armenia 
to avoid compromising the U.S. position as mediator in the Nagorno-
Karabakh conflict. Other subsequent legislation has opened up several 
narrow ``carve out'' areas to Section 907 for military and other 
engagement activities: democratization; counter-proliferation; 
humanitarian demining operations; and humanitarian assistance. While 
these niches have allowed us to initiate preliminary military contacts 
with Armenia and Azerbaijan, they are extremely narrow and do not allow 
USEUCOM to respond to both nations' enthusiastic desire for substantive 
engagement activities.
    Were it not for Section 907, Azerbaijan, based largely upon its 
geo-strategic position, pro-western economic, political, and military 
orientation, and its abundant energy resources, would be a very high 
priority for USEUCOM engagement efforts. A stable Azerbaijan is 
necessary not only for its vast energy deposits, but also to help 
forestall terrorism and the proliferation of weapons of mass 
destruction. U.S. policy has had the effect of frustrating Azerbaijan's 
pro-NATO policy and desires to expand its relationship with Europe and 
the U.S. I would ask you to take a hard look with the intent of 
modifying this legislation to afford the opportunity for our military 
to properly engage with our counterparts in this vitally important 
region of the world. Such an initiative would strengthen our ability to 
influence this region for the next generation and beyond.
    Armenia has also persistently and vocally pursued at the highest 
levels closer ties to the U.S. Armenia's motivation lies in its 
eagerness to balance its historic dependence and partnership with 
Russia, enlist the U.S. to mitigate historically hostile relations with 
Turkey, and attract potential economic development assistance and 
investment that Russia has not been able to provide. In particular, 
Armenia has asked for our advice on establishing a program of 
instruction for a national military senior service college and for help 
in establishing peacekeeping units that could participate in 
international efforts such as the Balkans. Due to Section 907, however, 
these are opportunities USEUCOM cannot exploit and we are limited in 
our efforts to assist these nations in sorting out mutual problems and 
their futures.
    Very briefly, our activity in the case of Georgia has continued to 
increase since being assigned to USEUCOM's area of responsibility 3 
years ago. Georgia will host its first large multinational NATO 
Partnership for Peace exercise with USEUCOM support in 2001, providing 
a good example of the kind of engagement opportunities we are missing 
in Azerbaijan and Armenia.

                                 AFRICA

    Africa is a complex, diverse, and often dangerous region of the 
world. Its countries are evolving into clusters of stability and 
instability, leading in some areas to promising economic growth and 
democratic government, and in others to stagnation and autocratic rule. 
A few are simply chaotic due to coups, civil wars, widespread 
corruption, or lack of an effective government. While this dynamic mix 
of political trends and institutions will continue for the foreseeable 
future, the administration seeks to bolster stability and democratic 
transformation through a policy of engaging with key partner states and 
regional ``success stories.'' We who watch Africa closely anticipate 
fewer African ``wars'' but an ever-increasing scope of conflict as 
failed states and the emerging transnational threats and humanitarian 
crises provide the conditions for instability. Unstable political 
environments, austere conditions, and asymmetrical threats where the 
enemy is not clearly defined, either by uniform or position on the 
battlefield, will characterize the operating environments.
    Small programs, such as our Humanitarian Assistance Program (HAP), 
are key engagement initiatives in Africa that satisfy both DOD and 
State Department objectives. Small dollar amounts have yielded big 
dividends in terms of the U.S. military impact in Africa. With 
approximately $17 million for fiscal year 2001, USEUCOM will be able to 
complete more than 120 projects in roughly 50 African and Eurasian 
countries. Engagement through the African Center for Strategic Studies 
(ACSS), Near-East South Asian Center, African Crisis Response 
Initiative (ACRI), and the West African Training Cruise (WATC) are also 
helpful for promoting African stability. Joint Combined Engagement 
Training with African partners, in addition to giving our soldiers the 
chance to improve their capabilities to work in multiple environments, 
expose African soldiers to the U.S. military, challenging them to 
improve their professional skills. By leveraging the resources of 
programs such as these we seek to help shape the African environment in 
a positive way.

                           SUB-SAHARAN AFRICA

    The portion of Sub-Saharan Africa in USEUCOM's area is an immense 
geographic area comprised of 37 countries and four primary sub-regions, 
each with significant environmental, cultural, political and economic 
differences. USEUCOM has identified its three principle objectives for 
military engagement in Sub-Saharan Africa: promote stability, democracy 
and a professional military; provide prompt response to humanitarian 
crisis; and ensure freedom of air and sea lines of communication. By 
applying resources against established objectives, the intent is to 
reinforce success and work to prevent crises before they occur. There 
are three critical issues preventing peace, stability, and economic 
development in the Sub-Saharan Africa region: the war in the Congo 
(DROC); the conflict in Sierra Leone; and the HIV/AIDS pandemic; all of 
which are unrestrained by boundaries or borders. Each is a contagion 
that threatens current and future stability throughout the continent.
    With the assassination of President Laurent Kabila on 16 January 
2001, the future situation in DROC is uncertain. Joseph Kabila, the 
late President's son, was sworn in as President on 26 January 2001. 
Within DROC there are military forces from six different nations 
participating in the conflict. The countries previously supporting the 
late President--Zimbabwe, Angola, and Namibia--have pledged continued 
support to the new government in its civil war. Additionally, the nine 
countries bordering DROC are significantly impacted socially and 
economically by the war to varying degrees. The sheer size, geographic 
location, vast mineral wealth, and economic potential in DROC guarantee 
that peace in the Congo is inextricably linked to stability throughout 
the region. The existing Lusaka Peace Accord is the best opportunity to 
resolve this conflict. President Joseph Kabila recently held a historic 
meeting with Rwandan President Paul Kagame in Washington in February 
where both sides pledged to renew efforts to implement the Lusaka Peace 
Accords. President Kabila also met with Secretary of State Colin Powell 
the same day. Within the limits of U.S. law and policy, U.S. European 
Command continues its limited engagement with all parties in an effort 
to demonstrate neutrality and urge support for the Accord and the UN 
Mission to the Congo.
    The situation in coastal West Africa continues to smolder and 
destabilize the sub-region. While centered in Sierra Leone, this 
conflict also involves Liberia, Guinea, and Burkina Faso, as well as 
the sixteen other members, directly or indirectly, that comprise the 
Economic Community of West African States (ECOWAS). Through support of 
the UN's mission to Sierra Leone, support to British efforts, and 
training and equipping countries contributing to the ECOWAS Military 
Observers Group, USEUCOM works to contain the spread of this conflict, 
as well as create the conditions for future peace and stability in the 
region.
    Sub-Saharan Africa is the region most heavily infected with HIV in 
the world. The region accounts for two out of every three of the 
world's HIV infections, and represents over 80 percent of global HIV/
AIDS deaths. The prevalence of HIV in Sub-Saharan militaries varies 
greatly, but it generally exceeds that of the civilian populace. Many 
militaries have infection rates as high as 20 to 50 percent of the 
force. As African militaries participate not only in conflicts but also 
in peacekeeping and humanitarian relief operations outside their 
borders, HIV follows. We are committed to working with African 
militaries to contain the spread of HIV/AIDS through education, 
awareness, and behavior modification.

                              NORTH AFRICA

    The strategy in North Africa is anchored by bilateral relationships 
with what USEUCOM sees as two cornerstone countries--Morocco and 
Tunisia. Recent developments in Algeria have also prompted measured 
engagement activities with that country. Complementing these bilateral 
relationships is a developing regional approach to engagement in North 
Africa and the Mediterranean.
    There are three prime sources of tension in North Africa. The first 
is the Islamist insurgency in Algeria where the government's amnesty 
offers have persuaded moderate rebels to surrender, while security 
forces remain engaged in fighting hardliners. The behavior of both the 
military leadership and insurgents will be critical to the progress of 
political reform efforts and the environment for badly needed foreign 
investment. Complete restoration of civil order in the countryside will 
likely take years, and social tensions will exist long after the 
conflict. There is optimism, however, as it appears there is a general 
trend toward greater internal stability.
    The second key source of tension is Libya--long a source for 
concern as its leader, Muammar Qadhafi, continues to pursue the 
development of weapons of mass destruction and associated delivery 
systems. Islamist opposition to Qadhafi has found limited popular 
support and has met with a strong effective response from Qadhafi's 
security forces.
    The third source of tension is the unresolved dispute in the 
Western Sahara. The King of Morocco, Mohamed VI, has initiated a series 
of measures to make the administration of the territory more positive, 
but the UN-sponsored process to hold a referendum on the final status 
of the territory remains bogged down over disagreements about the voter 
list. At times, this confrontation contributes to dangerous tensions 
between Morocco and Algeria.
    Africa will remain a challenging environment for the foreseeable 
future. USEUCOM will continue to pursue a program of active peacetime 
military engagement to shape the region and pursue our objectives with 
the aim of maintaining stability and preventing crises before they 
occur. Solutions to many of Africa's challenges are elusive, but 
USEUCOM is managing threats and capitalizing on opportunities where we 
can.

                   MODERNIZATION AND PERSONNEL ISSUES

    Several modernization and personnel issues are being addressed at 
USEUCOM and I want to highlight some of those that Congress might 
positively influence and support.

           ORGANIZATIONAL TRANSFORMATION BENEFITS TO USEUCOM

    There is high probability that there will be repeated demands at 
the center of the spectrum of conflict, as well as the possibility of 
high intensity small-scale contingencies. Responding to this reality 
the Army has articulated a new vision for a strategically responsive 
and dominant force to effectively meet the full spectrum of future 
military operations. The Army's ``Transformation'' will occur in three 
phases, eventually resulting in the ``Objective Force.'' The Objective 
Force aims to be able to send a brigade anywhere in the world in 96 
hours, a division in 120 hours and five divisions in 30 days. The two 
divisions in Europe must also meet this standard by resourcing the 
training, exercises and infrastructure that support strategic mobility. 
Only through proper resourcing of our two divisions will this Objective 
Force be able to provide the deployability, maneuverability, and 
lethality necessary to conduct operations throughout the full spectrum 
of conflict.
    Another key benefit for USEUCOM is the ability to rapidly move 
lighter vehicles between training areas and countries within this 
theater. As a potential force provider to other unified commands, most 
notably U.S. Central Command, future commanders will find that enhanced 
mobility of the Transformed Army also enhances deployability. The 
capability to deploy within a matter of hours to trouble spots in 
Africa and less developed countries of Eastern Europe offers a range of 
options that are simply unavailable today.
    As the Army transforms it will reduce the logistics tail 
considerably. By operating from a single family of vehicles, 
significant efficiencies will follow. Much of the larger and more 
demanding logistics support activities will occur outside the 
operational area, reducing the logistics footprint.
    Permanently stationed forces will be able to train effectively in 
the AOR, where many of the training activities of heavier forces will 
become increasingly problematic. Less noise and disruption of the local 
populations during movement to and from major training areas (MTAs) 
make it more likely that permission will be granted for maneuver 
training off MTAs. This will allow the widely dispersed units of the V 
Corps to greatly expand maneuver training, at a much-reduced cost.
    Similarly, the Air Force transition to the Expeditionary Air Force 
(EAF) concept has resulted in improved responsiveness in meeting the 
diverse needs of USEUCOM. Organized into multiple AEFs to support 
ongoing operations, Air Force personnel are now afforded predictable 
rotations. This new stability has improved morale, stabilized training, 
and assured necessary reconstitution time, thereby improving the combat 
readiness of all involved forces. USAFE forces are integral to the EAF. 
They provide, in addition to resident combat capability, the backbone 
that supports ongoing AEF operations over the Balkans and northern 
Iraq.

                       SPECIAL OPERATIONS FORCES

    An invaluable tool for the effective implementation of our 
engagement programs is Special Operations Forces (SOF). These forces 
focus largely on their unique capability to organize and train 
indigenous forces in internal defense. By interacting with foreign 
military counterparts throughout the theater, SOF instills in host 
nation forces a sense of loyalty and professionalism that support 
democratic government and ideals. In the process, SOF gains valuable 
training and cultural experiences from these regional engagements. In 
fiscal year 2001, Special Operations Command, Europe (SOCEUR) has 
scheduled 101 JCET initiatives in 52 countries. Special Operations 
Forces become USEUCOM's force of choice for engaging on the fringes of 
the theater in uncertain environments to open new doors and to shape 
the battlespace in preparation for possible contingency operations.

                           RESERVE COMPONENTS

    Total Force integration means conducting military operations that 
fully utilize the unique capabilities of the Reserve components (RC) of 
all Services. Reserve utilization requires a balanced and proportional 
approach that considers Service competencies and capabilities and 
matches those competencies to best support theater missions. The U.S. 
European Command's ability to undertake missions is growing 
increasingly dependent upon capabilities offered by the Reserves and 
the National Guard.
    In an effort to ease active component operational tempo the 
Services are increasing their use of Reserves in contingency operations 
in the Balkans. The 49th Armored Division (Texas Army National Guard) 
successfully completed a rotation as the command element of Multi-
National Division (North) in Bosnia last October. Their performance was 
superb and I want to take this opportunity to publicly applaud the 
great job they did last year. The Navy Reserve contributory support to 
this AOR for Operations Joint Guardian, Joint/Deliberate Forge and 
Northern Watch has included filling 89 percent (237,600 workdays) of 
all Navy billet requirements as of July 2000. The Air Reserve component 
provides 60 percent of the total KC-135 tanker aircraft needed for 
Operation Deliberate Forge providing air-refueling support to NATO 
aircraft flying missions over the Balkans. At the end of last fiscal 
year there were 1,244 Guard and 2,775 Reserve members on Active Duty in 
support of the two operations in the Balkans. The reality is SFOR and 
KFOR stability operations will continue to require augmentation from 
the Reserve community for the foreseeable future, especially in the 
area of civil-military operations and peace support operations.
    Reserve components are an increasingly important asset for 
USEUCOM's operational activities, combined exercises, training, 
combined education, humanitarian assistance, and security assistance 
efforts. Reserve support to the theater, however, is not limitless. 
There are constraints that require a deliberate and well-thought-out 
balance of Reserve force functions in the total equation of 
requirements. The requirements of employers and families demand advance 
notice of deployment and training. Reserve Service members require 
predictability in order to manage business and personal affairs. 
Accessibility and volunteerism are factors that require reasonable 
lead-time to match and mobilize assets to the mission.
    The PERSTEMPO management legislation enacted in the fiscal year 
2000 National Defense Authorization Act will help provide standards and 
limits for all Service member deployments. While PERSTEMPO management 
provides stability and predictability for the Service member, it may 
increase personnel turbulence and cost due to an increased frequency of 
personnel rotations. Anecdotal evidence has suggested that increasing 
use of the RC has a negative impact on Service members' personal lives 
and may affect recruiting and retention goals.

                     COMBAT AIRCRAFT MODERNIZATION

    To a large degree tactical aviation has shouldered much of the 
Nation's foreign policy when that policy called for the use of force. A 
decade ago Operation Desert Storm commenced with an unprecedented air 
assault against Iraq's military forces involving hundreds of U.S. 
aircraft flying tens of thousands of sorties around the clock. Since 
that time American aviators and aircraft have maintained the NFZ over 
Iraq, and since Operation Northern Watch was established have flown 
nearly 13,000 fighter sorties alone. More recently we have seen the use 
of our strike assets over the Balkans to stop the killing in Bosnia and 
to compel Milosevic to withdraw Yugoslav forces from Kosovo during 
Operation Allied Force. The demands of modern warfare for precision 
strike to maximize combat effectiveness while minimizing collateral 
damage clearly demonstrate the increased need for all-weather/all-
target capability. The fact of the matter is, however, many of our 
tactical aircraft--F-18s, F-15s, F-16s, AV-8s, and A-10s--are aging and 
nearing the end of their service lives. Even the F-117 ``Stealth 
Fighter,'' thought by most to be a new system, has an average age of 
9.7 years and relies on dated technology. Currently, possible 
replacements--the F-22, Joint Strike Fighter, and F-18E/F--continue in 
development and are likely part of the administration's defense review.

                         AIRLIFT MODERNIZATION

    Systems modifications are required to keep our airlift aircraft 
viable, particularly for USEUCOM's fleet of C-130s. These airplanes, 
now approaching 30 years of age, are essential to the success of 
several USEUCOM mission areas. From support of USEUCOM army units, 
including combat airdrop and resupply, to execution of humanitarian 
relief operations, these aircraft are a critical ingredient in 
maintaining a force projection capability in both combat and during 
peacetime. It is almost a certainty that the missions and roles this 
aircraft fulfills will only be more crucial in the future.

                          AIR TRAFFIC CONTROL

    The tremendous growth in air traffic and communication industries 
in Europe presents increasing challenges for air traffic control 
agencies, civil air carriers, and military aviation. Just as in the 
United States, the European air traffic system requires significant 
improvements to increase capacity and reduce delays. At the same time, 
expansion of communication technologies is pressuring a limited radio 
frequency spectrum. To address these challenges, European countries are 
mandating more efficient air traffic communications systems and 
avionics. The U.S. has many similar plans; however, Europe is leading 
worldwide implementation due to its current frequency and air traffic 
congestion. We have no choice but to equip our aircraft for flight in 
the airspaces of Europe as well as the rest of the world to allow 
access to perform our mission.

             INTELLIGENCE AND COMMUNICATIONS INFRASTRUCTURE

    For the past several years, we have been living in a new 
operational environment for both conventional and support operations as 
technological advances change the way our potential adversaries and the 
U.S. military operate. At the same time, military forces have become 
the spearhead for several nation-building efforts. To meet these 
challenges, our intelligence collection and analytical efforts must 
constantly adapt to keep pace with the evolving intelligence demands 
associated with these new mission areas. Potential asymmetric attacks, 
including WMD, terrorism and information operations, may be directed 
not only at our deployed forces, but also at our critical 
infrastructures.

                    INTELLIGENCE SUPPORT TO USEUCOM

    National agency support, including overhead collection, analysis 
and reporting, is critical to supporting our operational forces and 
engagement strategies. While we continue to revalidate our commanders' 
intelligence requirements and economize our requirements on these 
national resources, there is no theater capability to complement 
national collection support.
    Defense Intelligence Agency (DIA) capabilities are critical to 
meeting USEUCOM intelligence needs. In particular, the contributions of 
the Defense Attache System provide first-hand insights into the 
military-to-military relations in each country and timely reporting on 
crisis situations. The initiative to expand Defense Attache Office 
presence in Africa is important to our engagement programs. In 
addition, DIA is leading a defense intelligence community effort to 
meet future challenges. This effort includes improvements to the 
database to enhance future targeting capabilities, increased 
interoperability between national levels and tactical commanders, and 
an emphasis on new threats such as WMD and terrorism. The most 
significant of these is the emphasis on the workforce to ensure the 
intelligence workforce is capable of meeting these and other threats 
now and in the future. I am confident these initiatives will shape and 
improve defense intelligence support for the warfighter.
    USEUCOM relies heavily on National Security Agency (NSA) products 
and services. The actions undertaken by the Director of the NSA to 
transform the agency into an organization that will successfully 
respond to future threats of the Information Age are critical to 
ensuring the safety of our forces. Funding support for NSA's efforts 
will help mitigate trade-offs during NSA's transformation process, 
while ensuring the timely deployment of capabilities needed to exploit 
and defeat modern adversaries. Such funding will have the added benefit 
of meeting USEUCOM's needs now, and into the rapidly evolving future.
    The National Imagery and Mapping Agency (NIMA) provides critical 
imagery intelligence (IMINT) and geospatial information support and has 
repeatedly demonstrated its responsiveness to USEUCOM crisis 
operations. The need to precisely engage targets while minimizing 
collateral damage requires accurate and timely spatial and temporal 
intelligence. NIMA initiatives to develop a global geospatial 
foundation are critical in achieving our operational and engagement 
objectives. Additionally, NIMA's efforts to provide a critical IMINT 
tasking, processing, exploitation, and dissemination (TPED) system are 
crucial in fully realizing the benefits of our next generation imaging 
satellites. The recent congressionally-directed NIMA Commission, 
however, concluded TPED is under-resourced overall, and the U.S. cannot 
expect to fully realize the promise of the next generation of IMINT 
satellites unless NIMA TPED is adequately funded.

                         INFORMATION DOMINANCE

    In conducting our missions and executing our responsibilities, 
USEUCOM commanders have an indispensable edge: We enjoy ``information 
dominance'' that comes from the interaction of superior intelligence 
and information infrastructures. However, that edge is perishable and 
is constantly threatened. The section addresses our health in both.
 command, control, communications, and computer systems infrastructure
    Europe's Command, Control, Communications, and Computer Systems 
(C\4\) infrastructure needs improvement to be able to handle a major 
crisis. Many USEUCOM networks were built in the 1940s and 1950s to 
support low-bandwidth voice service, and are simply inadequate for 
evolving high bandwidth demands, such as worldwide command and control 
video conferences, live Unmanned Aerial Vehicle (UAV) video feeds, 
electronic tasking orders for our air and land forces, theater-wide 
situational awareness, and full implementation of DOD's Global Combat 
Command and Control and Global Combat Support Systems. These systems 
are the foundation of USEUCOM's command and control capabilities.
    The theater's World War II-era infrastructures suffer weather-
related degradation in copper cables still insulated with wrapped 
paper. Increased network loads and failure of critical components cause 
unacceptable system delays and outages. Many naval sites in particular 
are unable to meet the minimum requirements for the Navy/Marine Corps 
Intranet--their primary information service network. Furthermore, 
current infrastructure does not support Information Assurance (IA) 
measures, potentially allowing our collection, analysis, dissemination, 
and command and control functions to be jeopardized by hostile or 
inadvertent interference.
    We depend upon information services and network-centric command and 
control to enable smaller forward deployments, rapidly deployable joint 
task forces and task force component commands, shorter decision times, 
and improved force protection capabilities. This reliance makes 
targeting our networks an attractive option for adversaries unable to 
field conventional forces against us, and makes IA an absolute must if 
we are to maintain information superiority, and the integrity of our 
command and control.
    USEUCOM's satellite communications lack flexibility, and capacity 
is extremely limited. In the event of a major crisis in Southwest Asia, 
nearly all of our mission-essential communications could be preempted 
by the surge in bandwidth requirements from U.S. Central Command. 
Realistically, this infrastructure needs to be replaced with modern 
high-bandwidth capability, preferably within the next 5 to 7 years--a 
significant investment, but one that we can't afford not to make.

               OTHER AREAS FOR INVESTMENT AND IMPROVEMENT

    Recent process improvements have enhanced coordination and 
prioritization of scarce intelligence, surveillance, and reconnaissance 
(ISR) resources across numerous worldwide requirements. However, 
airborne collectors remain a ``low density--high demand'' asset. Our 
ability to penetrate denied and high-risk airspace is critical to 
deliver the real-time threat awareness to deployed forces in places 
like the Balkans, Northern Iraq, and the Levant. We need to ensure the 
development of these capabilities, including long dwell UAVs with both 
imagery and signals collection capabilities, stays on track in order to 
deliver necessary warning and force protection in threatening and 
uncertain environments.

                               RESOURCES

    America's most precious military resource, servicemembers and their 
families, are our number one combat multiplier. The well-being of the 
family is one of our top theater priorities, and is inextricably linked 
to readiness, retention, and reinforcement of core values, healthy 
family life, high morale, and mission accomplishment.

                            QUALITY OF LIFE

    The quality of our housing, medical care, schools, religious 
services, public facilities, community services, and recreation 
activities in Europe should reflect the American standard of living--a 
value we have all pledged to defend. Our most important fiscal year 
2000 Quality of Life (QOL) objective was to analyze and quantify the 
impact QOL has on readiness and retention. We took ``expert testimony'' 
from senior enlisted advisors and family members across the theater. 
Their conclusions paralleled previous evaluations, with family housing 
and barracks, spouse employment, childcare and health care, dependent 
education, and now the work environment consistently identified as 
lagging the farthest behind.

                        MILITARY INFRASTRUCTURE

    We have seen many positive results from increased congressional 
funding last year and we all applaud and are thankful for congressional 
efforts to ensure the readiness of our forward deployed forces and 
families. Of particular note, the recently added $25 million provided 
to the Army in Europe to plan and design their ``Efficient Basing 
Initiative'' is greatly appreciated, and will prove important as we 
work to revitalize our existing infrastructure. However, there is still 
a substantial amount of work to do to adequately provide for our 
servicemembers, civilians, and family members who deserve quality 
housing, workplace, and community facilities.
    Housing, both unaccompanied and family, has improved continuously 
for the last 3 years and the outlook is promising. The elimination of 
gang latrines and the renovation of the barracks and dormitories to 
DOD's 1+1 standard has been a major morale booster for our troops and 
our components are on track to meet the Defense Planning Guidance (DPG) 
requirement for fiscal year 2008. Military family housing throughout 
Europe as a whole remains old, however, and is well below contemporary 
standards, and in need of extensive repairs and modernization. Although 
our housing programs in Europe are generally on track to meet DPG 
requirements for fiscal year 2010, for the Air Force alone, military 
housing construction allocations of over $100 million per year for the 
next decade will be required to achieve minimum housing requirements. 
Quality housing for military members and their families continues to be 
a critical element in attracting and retaining the high caliber 
personnel who make our military forces the best in the world.
    With trends in housing and barracks positive, it is now essential 
to focus our attention on the quality of the infrastructure of our 
communities and work facilities in Europe. Sustaining, restoring, and 
modernizing facilities are critical to properly supporting the military 
mission within the theater. From runways for our aircraft to the work 
place for our troops, the infrastructure support for our operations and 
people has weakened over time. This failing infrastructure is due to 
almost a decade of placing MILCON and Real Property Maintenance funding 
at a lower priority than other needs. Significant investments need to 
be made over the next decade to enhance our warfighter's support 
infrastructure and demonstrate to our people that they are indeed our 
most valuable resource.
    USEUCOM is aggressively using all available funding sources, 
including the NATO Security Investment Program, Residual Value, 
Payment-in-Kind, and any additional funds provided by Congress, such as 
last year's Kosovo MILCON Supplemental Appropriation, to help reduce 
costs and meet escalating requirements. Additionally, some European 
base closures and consolidations will reduce future costs, enhance 
readiness, and increase effectiveness. Current ongoing efforts include 
the Army's proposed relocation of an entire brigade combat team 
currently spread across more than 13 sites, to the Grafenwoehr/Vilseck, 
Germany area. This consolidation will significantly improve command and 
control, enhance training opportunities and vastly improve quality of 
life for the troops and family members--while saving approximately $40 
million per year in infrastructure costs.
    With our continuing resolve to reduce the footprint while 
maintaining presence in our AOR, recapitalization has also become a 
critical issue. Progress is ongoing with the Naples Improvement 
Initiative nearly completed and construction efforts at Naval Air 
Station (NAS) Sigonella about to commence. These efforts will provide a 
significant improvement in both quality of life and service for sailors 
stationed in the European Southern Region.
    These and other initiatives are essential for posturing our forces 
to better perform their missions, both now and in the future. In the 
meantime, we will continue to endeavor to help ourselves first and work 
every opportunity for internal efficiencies through consolidation, 
privatization, and ensuring maximum benefit from available funding.

                          DEPENDENT EDUCATION

    With over half of USEUCOM servicemembers supporting families with 
children in school, the quality of DOD's dependent education programs 
ranks very high in determining QOL for our civilian personnel and 
servicemembers. As with many of our other QOL programs, lack of 
adequate infrastructure funding is the top concern. Since many of our 
schools are remote, program-based staffing is critical to provide a 
full range of educational opportunity for all students in music, art, 
and associated after school activities. We must take aggressive action 
to expand vocational, technical and school-to-work opportunities for 
our students. Finally, we must work toward establishing an 18:1 
student-teacher ratio for kindergarten and to provide a Talented and 
Gifted program for middle schools similar to what is currently 
available at our high schools.

                               CONCLUSION

    The U.S. European Command, which I am proud and honored to command, 
is executing new and exciting missions everyday, while successfully 
maintaining its warfighting edge. USEUCOM has also been active and has 
indeed expanded its engagement efforts, working to influence the 
military evolution of NATO, PfP, and emerging European defense 
structures. Finally, USEUCOM has seized new opportunities involving 
Russia, the Caucasus, and Africa, and will continue to seek new 
openings to expand our relationships.
    Although our current posture is favorable and capable of meeting 
our national security interests, our infrastructure in particular is in 
need of upgrade and replenishment. Generally, significant increases in 
funding are necessary to maintain our readiness, continue current 
engagement efforts, and make the necessary investments to sustain our 
quality of life.
    Without bipartisan congressional support, USEUCOM would not have 
been able to realize the achievements accomplished over the past year. 
On behalf of all personnel in the USEUCOM theater, I want to thank the 
committee for its support.

    Chairman Warner. Thank you very much, General Ralston.
    General Franks.

  STATEMENT OF GEN. TOMMY R. FRANKS, USA, COMMANDER IN CHIEF, 
                      U.S. CENTRAL COMMAND

    General Franks. Mr. Chairman, first of all let me reinforce 
the point that you made earlier when you talked about the 
quality of the young people that we have serving today in the 
Army, Navy, Air Force, Marines, our Special Operating Forces, 
our Coast Guard. In fact, they are the best that we have had, 
and that brings to my mind the fact that what I would like to 
do with the committee is express on the record our condolences 
in Central Command to the families and the loved ones of those 
young people who were lost last week in that training accident 
on the Udairi Range at Observation Post 10 in the state of 
Kuwait. Five Americans and a New Zealand Army officer were 
killed in this tragic accident, while they were in the 
performance of duties designed to increase the stability in a 
region that is inherently unstable.
    It reminds me of the fact that ours is a dangerous 
profession, and these young people do in fact go in harm's way 
as they do the mission. All of us are in their debt, and in 
Central Command we join friends and allies in saluting the 
courage and the patriotism, commitment, and sacrifice of these 
young people.
    Additionally, I would like to thank the Government of 
Kuwait, as well as others in the region, for the magnificent 
support that they provided with respect to this accident.
    Mr. Chairman, I appreciate the opportunity to appear today 
before the committee to have an opportunity to talk about the 
central region, an area of vital importance to the United 
States of America, and what our activities are all about, what 
our interactions are, what are difficulties are, and what our 
needs are.
    As this committee certainly knows, in this region on a 
given day will be between 18,500 and perhaps as high as 25,000 
American personnel. Today we stand at a bit over 21,000 
Americans deployed in the region, 175 to 200 airframes involved 
in our operations there, and generally between 25 and 30 ships 
with a carrier battle group in the Northern Arabian Gulf.
    This region, as the committee knows, includes 25 countries, 
in an area about twice the size of the continental United 
States. Our forces around the clock, 365 days a year, are 
involved in enforcement of the no-fly zone in Southern Iraq, a 
security zone that extends from south to north, that being from 
the Kuwait or Saudi border up to the 33rd parallel about 180 
nautical miles, and our sailors, and marines, additionally 
serve in Marine Expeditionary Units as they are in the region 
about 6 months of each year interacting with forces there.
    Our maritime forces include, as I mentioned, a carrier 
battle group involved in maritime interception operations to 
ensure that the regime in Iraq is not afforded the unrestricted 
opportunity to smuggle gas oil using maritime routes in order 
to enhance Saddam Hussein's disposable income, which he has 
provided every evidence he will use to enhance his military 
position by building up and modernizing his conventional 
forces, his integrated air defense systems, as well as his 
weapons of mass destruction program.
    These people who serve in the central region are doing this 
every day, and I mentioned to the committee, Mr. Chairman, they 
do, in fact, go in harm's way. Witness the Khobar Towers 
incident, or witness the bombing of the Saudi Arabian National 
Guard facility several years ago, witness 12 October this past 
year, where 17 Americans, 17 sailors lost their lives in the 
Port of Aden in a terrorist incident.
    We ask a lot of these young people, we expect a lot of 
these young people, we owe them what we seek in Central 
Command, in fact all the military services to provide, and that 
is the appropriate balance of our resource levels to ensure 
appropriate force protection, to ensure appropriate policy-
level decisions, to provide the benefit of experience from 
within the region to the policy level, as the policies are 
being formed by this administration, to ensure that we do the 
best things we can to work toward the assurance of maintaining 
access to this region of vital and enduring interest to the 
country.
    Mr. Chairman, I have asked that my prepared remarks be 
included in the record, and at this point I will stop the oral 
remarks and be pleased to entertain the committee's questions.
    [The prepared statement of General Franks follows:]

            Prepared Statement by Gen. Tommy R. Franks, USA

                              INTRODUCTION

    Mr. Chairman, members of the committee.
    U.S. Central Command's (USCENTCOM) Area of Responsibility (AOR) 
includes 25 nations, extending from Egypt and Jordan to the Horn of 
Africa, the Arabian Peninsula, Pakistan in South Asia, and Central 
Asian states as far north as Kazakhstan. Included are the waters of the 
Red Sea, the Northern Indian Ocean, and the Persian Gulf, with maritime 
chokepoints of the Suez Canal, the Bab el Mandeb, and the Strait of 
Hormuz.
    The current National Security Strategy specifies that our core 
objectives in this vital region are to enhance U.S. security, promote 
democracy and human rights, and bolster American economic prosperity. 
To meet these goals, USCENTCOM promotes regional stability, ensures 
uninterrupted access to resources and markets, maintains freedom of 
navigation, protects U.S. citizens and property, and promotes the 
security of regional friends and allies.
    As we work with policymakers to define USCENTCOM's approach in the 
AOR, we address our objectives and goals in light of the political-
military dynamics of the region. The Middle East Peace Negotiations 
(MEPN) and U.S. relationships with Israel, Lebanon, Syria, and Turkey 
influence our relations with Egypt, Jordan, and the states of the Gulf 
Cooperation Council (GCC). Pakistan is important to the U.S. because of 
regional tensions and its proximity and relationship to Afghanistan. 
U.S.-Pakistan relations continue to be influenced by these issues and 
by progress toward a return to civil, democratic government. 
Transnational issues including humanitarian disasters, refugees, 
international crime, drug smuggling and terrorism, and state-to-state 
conflicts such as the Eritrea-Ethiopia War, will continue to define our 
tasks in the Horn of Africa. Our relations with the Central Asian 
states will be influenced by their relationships with Russia, their 
concern about extremism generated from Afghanistan, and our efforts and 
commitments to help the Central Asian states in maintaining their 
independence, sovereignty, and territorial integrity through democratic 
and defense reform.
    Natural resource distribution will continue to influence regional 
dynamics. Control of water sources and uses downstream may heighten 
existing international tensions, particularly along the Nile, Tigris, 
Euphrates, and Jordan Rivers. Competing claims over the control and 
distribution of energy resources will continue to influence relations 
between states, particularly around the Caspian Sea.
    On a given day, USCENTCOM operates in the region with some 30 naval 
vessels, 175-200 military aircraft, and between 18,000 and 25,000 
soldiers, sailors, airmen, coast guardsmen, and marines. Activities 
range from missions such as Operation Southern Watch enforcement of the 
No-Fly Zone (NFZ) over Southern Iraq, to Maritime Intercept Operations 
(MIO) in the northern Persian Gulf, to Security Assistance, to 
International Military Education and Training (IMET), to Joint and 
Combined Exercises, and Humanitarian Demining (HD). Our military men 
and women continue to do a remarkable job across the board in enhancing 
U.S. relationships in the region, in promoting stability, and in 
supporting diplomatic efforts aimed at securing America's vital and 
enduring national interests.
    There is, however, a price for America's visibility in pursuit of 
our interests. Some, opposed to the values for which our country 
stands, have determined to take direct and violent action against our 
presence in the region. The terrorist bombing of the Office of Program 
Management for the Saudi Arabian National Guard (OPM SANG), the Khobar 
Towers bombing, the attacks on our embassies in Kenya and Tanzania and 
last October's attack on U.S.S. Cole continue to demonstrate that our 
opponents are dedicated, determined, and resourceful. Our clear task is 
to remain resolutely committed to the principles we stand for while we 
provide the best possible protection for our people. Efforts to counter 
the terrorist threat are ongoing, but much remains to be done as our 
men and women in uniform daily go ``in harm's way.''
    I will now describe our AOR in greater detail, highlight our 
ongoing challenges and opportunities, and identify our essential 
requirements.

                            REGIONAL TRENDS

Overview
    The Central Region is of vital interest to the United States. 
Sixty-eight percent of the world's proven oil reserves are found in the 
Gulf Region and 43 percent of the world's petroleum exports pass 
through the Strait of Hormuz. The developing energy sector of the 
Central Asian states, with the potential for discovery of additional 
oil reserves, further emphasizes the importance of the Central Region 
to America and the world.
    The words that best describe the AOR are ``diversity'' and 
``volatility.'' The region is home to more than 500 million people, 
three of the world's major religions, at least 18 major ethnic groups, 
and national economies that produce annual per capita incomes varying 
from a few hundred dollars to tens of thousands of dollars.
    Portions of USCENTCOM's AOR are characterized by instability. We 
find social volatility due to pressures created as governments 
transition toward democracy, and we find additional social, economic 
and military stresses from humanitarian crises, the strains of resource 
depletion or overuse, religious or ethnic conflict, and military power 
imbalances. While national instability is not uncommon, the volatility 
of USCENTCOM's AOR is particularly significant because of its 
geographical and economic importance. The natural resources of Saudi 
Arabia, Kuwait and others have provided extraordinary opportunities for 
these nations, but also have given rise to a range of socio-economic 
problems and rivalries. States such as Egypt and Jordan have 
compensated to a large extent for their lack of mineral wealth through 
positive use of their human resources. Yet, there are nations in the 
region that have not generated the will, resources, or organization to 
move ahead. These factors will not be easily overcome, and portend 
potential regional challenges for the future.
Iraq
    Ten years ago, American leadership produced a coalition that 
defeated Saddam Hussein's invasion of Kuwait. Despite victory, we 
remain engaged in current operations in the Gulf because of Iraq's 
refusal to abide by the terms of a series of United Nations Security 
Council Resolutions (UNSCRs).
    In the past year, coalition forces flew more than 19,000 sorties in 
support of Operation Southern Watch (enforcement of the Southern Iraq 
NFZ), with almost 10,000 of those sorties in Iraqi airspace. The 
purpose of these missions in support of United Nations (UN) resolutions 
remains the protection of Iraqi civilians (Kurds in the north/Shia in 
the south) from Saddam Hussein and the prevention of Iraqi aggression 
against its neighbors. Our forces have been engaged by surface-to-air 
missiles or anti-aircraft fire more than 500 times during the period, 
and coalition forces have responded to these provocations on 38 
occasions. Enforcement of the NFZ will remain dangerous but necessary 
business as long as the Iraqi regime continues to threaten its 
neighbors and its own people. Similarly, our naval forces maintain 
continuous presence in the Persian Gulf, and have intercepted 610 ships 
in the past year in support of MIO, enforcing UN sanctions designed to 
limit Saddam Hussein's ability to smuggle oil out of Iraq. Iraqi oil 
smuggling provides uncontrolled revenues, which could be used to 
reconstitute his weapons of mass destruction (WMD) and rebuild his 
conventional forces. Sixty-five of these ships have been diverted to 
Gulf coalition partners where contraband oil has been confiscated and 
sold. Again, necessary but dangerous business.
    As allied forces continue to enforce the resolutions, Iraq has 
become more aggressive in attempts to circumvent them. As the second-
largest producer of oil after Saudi Arabia, Iraq has attempted to 
manipulate the UN Oil-for-Food (O-F-F) program. Because of Saddam's 
obstruction, not all revenues and supplies intended for the direct 
relief of the Iraqi people under the O-F-F program have found their way 
to the population. Additionally, by halting and restarting crude oil 
exports of up to 2.3 million barrels per day, Iraq has attempted to 
establish leverage that it can use to end sanctions. Saddam's ability 
to circumvent UN sanctions leaves little incentive for him to accept 
UNSCR 1284 or permit the resumption of UN inspections. In the absence 
of inspectors and a long-term monitoring program, we cannot verify that 
Iraq is not continuing research, development and production of WMD and 
ballistic missiles.
    Despite the overwhelming defeat of Iraq's conventional military 
force, it remains a threat to its neighbors and has repeatedly 
demonstrated an ability to project force as evidenced by significant 
deployments to western Iraq in October and November/December 2000. Iraq 
continues to challenge coalition aircraft in the NFZs despite the 
effects of 10 years of sanctions on its air force and continued 
attrition of its air defense forces. Despite the degradation of Iraq's 
military capability, our regional partners do not yet possess the 
capability to deter Iraqi aggression without our assistance.
    Saddam is as secure now as at any time in the past decade. Iraqi 
participation in the 21-22 October 2000 Arab Summit and the 12-13 
November 2000 Organization of Islamic Conference (OIC) signals his 
attempt to reenter the Arab fold, and renewed contacts between Baghdad 
and a number of moderate Arab countries following the breakdown of the 
MEPN make the U.S. leadership role critical as we work to rebuild the 
Gulf War coalition. USCENTCOM operations and military-to-military 
relationships remain key to this effort.

                                  IRAN

    Iran's future is an enigma in the question of stability in the AOR. 
Since 1997, President Khatami has attempted to change the image of Iran 
by initiating diplomatic rapprochement with Europe and the Gulf States. 
Domestically, moderate legislators have the majority in the parliament 
and have attempted to reform the system by introducing greater 
transparency and accountability within government. However, 
conservative hard-liners have closed Iran's free press, blocked reform 
legislation, and intimidated and jailed moderate legislators and 
popular figures, effectively maintaining an atmosphere of social and 
political repression.
    Iran faces severe internal challenges including domestic political 
and economic problems, massive unemployment, and increasing drug use. 
While a majority of Iranians, especially the young, demand change, they 
find themselves virtually powerless. President Khatami has not 
succeeded in changing the system while Supreme Leader Khamenei and the 
ruling conservatives have clearly demonstrated that they will not 
accept change, nor will they share the principal elements of state 
power with an increasingly restless population.
    Meanwhile, Iran continues to improve its conventional and 
unconventional military capabilities. Tehran's ability to interdict the 
Strait of Hormuz with air, surface, and sub-surface naval units, as 
well as mines and missiles remains a concern. Additionally, Iran's 
asymmetrical capabilities are becoming more robust. These include high 
speed, fast attack patrol ships; anti-ship missiles; unmanned aerial 
vehicles (UAVs); and hardened facilities for surface-to-surface 
missiles and command and control. WMD programs and the Shahab-3/4 
Medium Range Ballistic Missile (MRBM) also continue to receive priority 
funding. Although President Khatami is attempting to change Iran's 
image, sustained hostility of conservative hard-liners is evident as we 
see continued support of terrorism aimed at derailing efforts for peace 
between Israel and the Palestinians.
    As Tehran deals with the stresses of a growing and increasingly 
discouraged population, internal political volatility could result in 
diplomatic, military, or asymmetric attacks on Iran's neighbors or 
American citizens and our interests. If we factor Iran's burgeoning WMD 
capability into this equation, the risks increase significantly and 
Iran becomes the greatest long-term threat in our AOR.
Gulf States
    Increased revenues from high oil prices have benefited Gulf oil 
producers. This financial shot in the arm has reduced budget deficits 
and reactivated previously stalled infrastructure projects. However, 
socio-economic problems, such as increasing population, high 
unemployment, declining public services, and a depressed worldwide 
financial market, have focused the nations on the Arabian Peninsula on 
economic reforms that are intended to diversify and stimulate their 
economies.
    Regional stability was recently enhanced through the resolution of 
long-standing Saudi-Yemeni border and Kuwaiti-Saudi maritime boundary 
disputes. But, unresolved United Arab Emirates (UAE)-Iran and Bahrain-
Qatar territorial disputes, and Kuwait-Iran maritime boundary disputes 
remain.
    The ongoing Israeli-Palestinian violence is of continuing concern 
in the Gulf region. This violence has increased internal pressures on 
moderate Arab governments who must balance responses to public opinion 
with the value placed on their relationships with the West. If the 
Peninsula states begin to distance themselves from the U.S., their 
inability to face the dual threats of Iran and Iraq will leave them 
vulnerable to intimidation by these aggressive powers.
Northern Red Sea
    The Northern Red Sea sub-region (Egypt and Jordan) is on the front 
lines of the MEPN and has the most to gain or lose from the process. 
Peace would usher in the prospect of economic development, a stable 
financial environment, and social stability. Continued conflict 
encourages extremism, deters economic investment from outside the 
region, and inhibits tourism, a major source of income in both Egypt 
and Jordan. President Mubarak of Egypt and King Abdullah of Jordan have 
walked a fine line on the issue despite domestic difficulties, calls 
for breaking diplomatic relations with Israel, and for boycotts of 
Israeli and U.S. goods.
    Economically, Egypt's move toward privatization is hampered by 
concerns about unemployment and the expected economic downturn that 
would initially follow. As Egypt's major source of hard currency is 
tourism, its economy reacts dramatically to advances or setbacks in 
MEPN.
    Jordan suffers from water shortages, high unemployment, deficit 
spending, and a stagnant economy hampered by sanctions imposed on Iraq, 
Jordan's largest trading partner and its sole supplier of oil. Jordan's 
economic prospects are limited by the region's instability, magnified 
by the fact that 60 percent of the population of Jordan is Palestinian. 
King Abdullah has managed to support the Palestinian cause while 
maintaining ties with Israel, and dealing with the economic impact of 
sharing borders with Syria and Iraq.
Central and South Asia
    Central Asia's primary security concern is the threat posed by 
religious extremism generated from the continuing conflict in 
Afghanistan. In response to the Islamic Movement of Uzbekistan (IMU) 
incursion in 1999, Uzbekistan and Kyrgyzstan began developing new 
tactics and deployed military forces to critical defensive corridors in 
anticipation of renewed IMU activity. Consequently, and due to 
increased logistical and training support provided by the U.S., Turkey, 
Russia, and China, Uzbekistan and Kyrgyzstan anticipated and 
effectively countered IMU infiltration into their territory in the 
summer and fall of 2000. But these countries, and the Central Asia 
region as a whole, will remain vulnerable to renewed IMU attacks in the 
coming spring and summer. USCENTCOM will continue to work with the 
militaries in Central Asia to enhance their abilities to secure their 
borders, build multilateral relationships through exercises, and 
support diplomatic efforts to enhance stability and nurture democracy.
    Pakistan remains key to achieving stability in South and Central 
Asia. Peace initiatives instituted by Pakistan and India have the 
potential to develop into meaningful dialogue and dramatically reduce 
tensions in the region, but both these nuclear states require 
encouragement to move forward. Pakistan perceives U.S. policy as 
``tilting'' in favor of India, which complicates dialogue on the 
subcontinent. This perception is fueled by our limited military-to-
military interaction with Pakistan coupled with the current moratorium 
on International Military Education and Training (IMET). Historically, 
the Pakistani military is one of the most influential forces within the 
country and USCENTCOM's relationships at the military level could 
create leverage to enhance stability in South Asia.
    Afghanistan remains a destabilizing influence in the region. In one 
way or another, all of Afghanistan's neighbors are affected by 
Afghanistan's internal war--either as a supporter of one side or the 
other, or by proximity to the chaos generated by the war.
    The military, economic and social stresses brought on by the Afghan 
conflict and the continuing tension between India and Pakistan impact 
each of the Central Asian governments and regional economies as well, 
and have prompted the Central Asian states to look for increased 
collective security opportunities. USCENTCOM has effective mil-to-mil 
programs with Khazakstan, Uzbekistan, and Kyrgystan, and is interested 
in beginning engagement with Tajikistan, a country key to the region 
because of its geostrategic location and close ties to Russia. 
Tajikistan has submitted paperwork to join the Partnership for Peace 
program, and the Department of State is actively working to obtain 
Cooperative Threat Reduction certification and IMET funding to support 
their request.
Africa
    The 2\1/2\-year war between Ethiopia and Eritrea appears to have 
ended with the 12 December 2000 peace agreement. With the deployment of 
the United Nations Mission to Ethiopia and Eritrea (UNMEE), both 
countries have promised to uphold the principles of the peace 
agreement. As long as UN peacekeepers are present, renewed fighting is 
not expected. As these states implement the peace agreement, we will 
reopen military contacts and seek to build on relationships that 
provide balance and enhance regional stability.
    Other countries in the Horn of Africa are still suffering from the 
impact of a 5-year drought that places 20 million in need of aid, about 
10 million of whom are facing starvation. Despite donor fatigue, aid 
agencies remain responsive to this humanitarian disaster, and USCENTCOM 
will continue to assist with humanitarian programs in every way 
possible.
    Sudan continues to provide support and safe haven to transnational 
terrorists and opposition groups. President Bashir has been unable to 
end the civil war in southern Sudan, and factional fighting has caused 
the UN and other relief agencies to periodically suspend relief 
efforts.
    Despite Djiboutian efforts to revive a national Somali government, 
there is little prospect that Somalia will emerge as a coherent state 
in the near future. Djibouti itself will continue to face challenges as 
it struggles to deal with its own economic, political and social 
problems.
    Despite the continuing drought-induced humanitarian crisis 
described above, economic stagnation, and political turmoil, Kenya 
remains key to stability in East Africa and is an important friend for 
the United States. Kenya's apolitical Army remains a source of 
stability that will be important as Kenyans go to the polls in 2002 to 
elect their first new president in 23 years. The African Crisis 
Response Initiative (ACRI) will help that Army build capacity to 
respond to Kenya's needs.
Terrorism
    The threat of terrorist activity remains high throughout the 
Central Region. Events such as the attack on U.S.S. Cole serve as 
constant reminders of this fact. Despite our counterterrorism successes 
over the past year, including the disruption of terrorist cells in 
Jordan and Kuwait, extremist groups continue to recruit, train, and 
conduct operations. One evolving trend that has helped terrorist 
organizations rebound from our counterterrorism successes is 
unprecedented cooperation between known and obscure groups. This 
cooperation includes moving people and materials, providing safe-havens 
and money, and training new recruits. The trend is especially 
disturbing as known organizations gain plausible deniability for 
operations, while the obscure groups achieve an increased capability 
from training and financial support.
    Terrorists' persistent interest in larger devices, more lethal 
tactics, and unconventional (chemical, biological, radiological, and 
nuclear) weapons points to an even more significant problem in the 
future. In addition to the use of unconventional weapons, the potential 
for terrorists to regard unconventional targets (civilians and civilian 
infrastructure) as practical options for attack seems likely. As 
terrorist networks improve their ability to operate within the global 
communications environment, we see increased capability to support 
recruitment, conduct fund-raising, and direct sub-elements worldwide. 
The complex terrorist threat we face today is less predictable and 
potentially much more dangerous than we have seen in the past.
Proliferation of WMD
    Russia, China and North Korea remain the primary external suppliers 
of WMD and missile-related technology to countries in the AOR, and some 
regional states with maturing WMD programs have joined the ranks of 
potential suppliers. As proliferation in the Central Region 
accelerates, coalition partners feel mounting pressure to offset the 
WMD threat with comparable weapons of their own.
    As mentioned previously, Iraq's WMD capabilities have been degraded 
but not eliminated. The reconstitution of key weapons programs may have 
begun, facilitated by the long absence of UN arms monitors. The 2+ year 
gap in the UN disarmament presence makes it difficult to verify the 
current status of biological, chemical and prohibited missile 
capabilities.
    Meanwhile, Iran continues to place a high priority on developing 
WMD, specifically chemical weapons (CW), ballistic missiles and 
possibly biological agents. Tehran is aggressively pursuing nuclear 
technology and is progressing in its development of a large-scale, 
self-supporting CW infrastructure. Additionally, they have pursued the 
development of the Shahab-3 medium range ballistic missile (MRBM) to 
augment existing SCUD-B and SCUD-C systems. Two Shahab-3 flight tests 
were conducted in 2000 and, despite a failure on the last attempt, this 
system may now be available for use. Additional programs and 
capabilities can be expected in the future.
    In South Asia, the missile and nuclear race between Pakistan and 
India continues. Both states are developing and testing a variety of 
technologies capable of delivering nuclear devices out to ever-greater 
ranges. Although the Central Asian states neither produce nor store WMD 
on their territories, given the geopolitical situation, WMD could 
transit their borders. DOD's WMD Customs and Law Enforcement programs 
support nonproliferation efforts in Central Asia.
Environmental Security (Water)
    Water will dominate the environmental factors that pose the 
greatest threat to regional stability. The combination of water 
scarcity, water contamination, the lack of equitable water-sharing 
agreements, population growth, and exponentially increasing demand for 
water will exacerbate an already challenging and volatile situation in 
the Central Region. While environmental factors can easily trigger 
conflict, cooperation on these issues can promote regional stability 
and contribute to the ongoing process of conflict resolution. As such, 
environmental security remains an important element in shaping a future 
made complex by competition over natural resources. USCENTCOM-sponsored 
environmental conferences will continue to provide a valuable forum for 
the region to discuss environmental issues.

                           PROGRAM ASSESSMENT

Operational Activities
    The focus of our day-to-day operations in the Gulf region remains 
Iraq. Iraq's long-term intransigence and non-compliance with UNSCRs has 
resulted in continued NFZ operations in both northern and southern 
Iraq, and our naval forces continue to conduct maritime intercept 
operations to limit Iraq's ability to smuggle oil outside the Oil-for-
Food Program. Additionally, we maintain a rotational ground task force 
in Kuwait to assist with initial defense of Kuwaiti should Iraq attempt 
aggression.
    USCENTCOM's Joint Task Force--Southwest Asia (JTF-SWA) conducts NFZ 
enforcement, along with our UK partners, in order to monitor Iraqi 
compliance with UNSCR 688 and deter enhancement of Iraq's military 
capabilities in violation of demarches and UNSCR 949. Despite the 
resumption of both international civilian flights to Iraq and intra-
Iraq flights, JTF-SWA remains capable of effectively enforcing the 
southern NFZ.
    One of the most visible examples of our commitment to the region is 
the presence of Naval Forces U.S. Central Command (NAVCENT) in Manama, 
Bahrain, the only component headquartered in our AOR. Operating with 
other coalition members, NAVCENT enforces UN sanctions against Iraq and 
protects our interests in the Gulf. Along with containing Iraq and 
ensuring freedom of navigation in shipping lanes critical to world 
commerce, NAVCENT operations serve as a constant reminder of U.S. 
commitment to stability in the Gulf region and Strait of Hormuz.
    Since the beginning of Operation Desert Shield (August 1990), 
Maritime Intercept Operations (MIO) have resulted in the search of 
almost 13,000 ships bound for or departing from Iraq, with more than 
760 diversions. Support for MIO has been significant with ships from 
Kuwait, Canada, the United Kingdom, Belgium, New Zealand, Italy, 
Australia, and the Netherlands, and boarding teams from Argentina and 
Poland having participated. Additionally, our naval units ensure 
freedom of navigation, execute maritime rescue missions, and conduct 
directed contingency operations.
    USCENTCOM provides ground presence in Kuwait with Operation Desert 
Spring (ODS). This ongoing operation, under the command and control of 
Combined Joint Task Force (CJTF)-Kuwait, is built around a mechanized 
infantry or tank battalion task force, an Apache helicopter company, 
and a Multiple Rocket Launch System (MLRS) battery. The units which 
rotate on 120-day tours come from both the active and Reserve 
components with a deployed strength of just over 2,500 personnel. This 
force level has been present in Kuwait since October 1999.
    These on-going operations promote stability in this volatile 
region, acting as a deterrent to potential crises. However, the 
destabilizing influence of Iraq, Iran and failed states such as 
Afghanistan and Somalia, require us also to maintain Operational Plans 
(OPLANs) and Contingency Plans (CONPLANs) to respond to a variety of 
crises when directed.
    Maintaining our ability to meet the command and control 
requirements of our OPLANs and CONPLANs is an important mission. This 
requirement is particularly significant, as USCENTCOM is responsible 
for a major theater warfighting mission in an AOR 7,000 miles away. In 
view of this, we have initiated the development of a Deployable Command 
Post (CP) that can be introduced into any country in the AOR early and 
increase strategic flexibility to respond across the full spectrum of 
operations. This CP is being designed to be deployable by air (C-5/C-
17) and modular. Depending on the situation, it can range in size from 
the CINC's aircraft with a small operational staff to a full up 
headquarters with all the critical command nodes available.
    The USCENTCOM Theater Engagement Plan (TEP) provides direction and 
a common vision for our ``shaping'' of the security environment. 
Through theater engagement planning, we integrate the engagement 
activities of U.S. Central Command with those of other U.S. Government 
agencies, non-governmental and private volunteer organizations, and our 
friends and allies. The TEP draws resources from various agencies to 
include the Department of State, the Office of the Secretary of 
Defense, the Joint Staff, the Defense Security Cooperation Agency, and 
the military services. We are working closely with the Joint Staff to 
streamline funding processes and to develop a framework to better align 
resources with missions.
    TEP engagement activities are divided into eight broad categories, 
including operations addressed above. Significant aspects of the 
remaining seven engagement categories are summarized below.
Exercises and Combined Training
    The Joint and Combined Exercise Program is a key element of our 
current National Military Strategy, and is coordinated with other 
agencies' regional activities through the Theater Engagement Plan. The 
USCENTCOM exercise plan includes 10 major exercises and 80 smaller 
exercises for fiscal year 2001. Our aim is to maximize the use of in-
theater forces, increase multilateral exercise and simulation 
opportunities, gain the greatest possible training benefit for our 
forces, and combine exercises whenever practicable. The program remains 
a cornerstone of our mil-to-mil relationships and serves to guarantee 
access and enhance coalition capabilities.
    In November of 2000, we executed Internal Look 01 (IL01), our 
premier battlestaff and coalition training exercise, by establishing a 
Contingency Forward Headquarters and simulating the execution of one of 
our principal plans. During the remainder of this year, we will execute 
several major sub-regional exercises. In May, Eagle Resolve, a senior-
level symposium held in Bahrain, will be our principal mechanism for 
advancing the Cooperative Defense Initiative (CDI) among the GCC 
states. In early July, we will execute Regional Cooperation--formerly 
known as CENTRASBAT--a multinational peacekeeping command and staff 
exercise with various Central Asian, NATO and other Newly Independent 
States (NIS) at the Warrior Prep Center in Germany. In late July, we 
will execute the Golden Spear symposium in Kenya, bringing together the 
Ministers of Defense (MOD), Chiefs of Defense (CHOD) and Foreign 
Ministers of 10 East African nations to formulate regional strategies 
for humanitarian assistance and disaster relief. This fall, Bright Star 
will culminate our exercise program in Egypt when more than 35 
participating or observing nations and approximately 65,000 personnel 
take part in a coalition field training exercise.
Combined Education and International Military Education and Training 
        (IMET)
    The Combined Education and IMET programs are pivotal to sustaining 
U.S.--host nation bilateral military relationships. These programs are 
relatively low cost, high value investments that support U.S. national 
interests and help shape the security environment for the future. The 
programs afford military members of regional states, many of whom are 
destined to become senior leaders in their respective countries, 
opportunities to attend courses in our military institutions such as 
Command and Staff Colleges and Senior Service Schools. Combined 
Education and IMET support congressionally-mandated democratization 
initiatives by exposing regional military officers to the concepts of 
military professionalism, respect for human rights, and civilian 
control. Some 540 students from our AOR will attend U.S. military 
courses, schools, colleges, and training this year.
Security Assistance
    In coordination with our ambassadors and country teams, we manage 
security assistance programs to help the countries in the AOR improve 
their military capabilities and interoperability. Foreign Military 
Sales (FMS) in the Central Region have accounted for a significant 
portion of America's worldwide sales--38 percent from 1990 through 
1999--while our Foreign Military Financing (FMF) programs have allowed 
us to assist AOR countries in meeting their legitimate self-defense 
needs and improving interoperability with U.S. forces.
    In the aftermath of Operations Desert Shield/Desert Storm, a 
primary emphasis of countries in the region, particularly the countries 
of the Persian Gulf, was modernization of their armed forces through 
FMS and Direct Commercial Sales of U.S.-built equipment. Saudi Arabia 
is the largest FMS customer in the world, accounting for over $83 
billion in FMS thru fiscal year 2000. Combined with the other countries 
of the GCC, the total for this sub-region is over $94 billion through 
fiscal year 2000.
    Two significant security assistance highlights of this past year 
include:

        <bullet> In March 2000, the United Arab Emirates (UAE) signed a 
        $6.4 billion commercial contract with Lockheed-Martin to 
        purchase 80 F-16 Block 60 aircraft. Associated with this 
        commercial sale is a projected $1.6 billion in FMS. FMS cases 
        will include program support, pilot and maintenance training, 
        and F-16 munitions, which include AMRAAM, AIM-9, HARM, Maverick 
        and Harpoon missiles. Though the F-16 purchase was a Direct 
        Commercial Sale, U.S. Government and industry worked closely 
        together to bring this to fruition. As a result, the sale is a 
        step toward enhanced strategic partnership.
        <bullet> Similarly, the sale of ATACMS missiles to the 
        Government of Bahrain was finalized on 15 December 2000, as the 
        Bahrain Defense Force (BDF) continues to place emphasis on 
        equipping and training their land and air forces with U.S. 
        resources and making them more capable contributors to Gulf 
        collective security.
Humanitarian Assistance (HA)
    HA programs provide basic economic and social benefits for the 
civilian populations of developing countries in the region. These 
activities, in concert with a variety of State Department programs, 
focus on developing indigenous disaster response capabilities. We 
expect in the coming year to complete projects that include rudimentary 
construction and water well drilling, disaster preparedness 
assessments, transportation of DOD excess non-lethal property, and 
various other medical, dental, and veterinary projects in seven 
countries.
Humanitarian Demining (HD)
    USCENTCOM currently provides HD training to Yemen, Oman, Djibouti, 
and Jordan. The purpose of this program is to train host nation 
military and civilian personnel in demining operations, with the 
ultimate goal of establishing local, self-sustaining capabilities. U.S. 
led demining training efforts have helped several countries to develop 
significant capabilities. Jordan, for example, is developing a regional 
response team that will be able to assist other regional partners in 
their own demining efforts--an important step which enhances multi-
lateral relationships.

                            KEY REQUIREMENTS

    During my comments today, I will discuss the status of many 
programs. For fiscal year 2002, the President's budget includes funding 
to cover our most pressing priorities. I should note, however, that the 
programs I will discuss and the associated funding levels may change as 
a result of the Secretary's strategy review which will guide future 
decisions on military spending. The administration will determine final 
2002 and outyear funding levels only when the review is complete. I ask 
that you consider my comments in that light.
    USCENTCOM priority requirements are as follows:
Strategic Lift
    With few permanently-stationed forces in the region, our vitally 
important power projection capability depends upon strategic lift and 
robust land and sea-based prepositioned assets. Our ability to deploy 
forces and equipment quickly remains the linchpin for conducting rapid 
response to contingencies in USCENTCOM's AOR. We must continue 
modernization and maintenance of our strategic deployment triad: 
airlift, sealift, and prepositioning.
    The accelerated retirement of the C-141 fleet and the significant 
challenges of maintaining readiness levels of the C-5 fleet make 
continued production of the C-17, progress toward C-5 modernization, 
and support of the Civil Reserve Air Fleet program critical to meet 
major theater war deployment timelines. Our requirements for strategic 
airlift combined with intratheater airlift are addressed in Mobility 
Requirements Study 05, which we support.
    The procurement of Large, Medium Speed Roll-on Roll-off (LMSR) 
ships is on track and will significantly enhance our lift capability. 
Under the current procurement plan, we will meet our force and 
sustainment deployment timelines with these LMSRs and Ready Reserve 
Fleet (RRF) assets by the end of fiscal year 2003.
    Prepositioning in the region, the third leg of the strategic 
deployment triad, helps mitigate our time-distance dilemma, ensures 
access, demonstrates our commitment to the region, and facilitates 
sustainment of forces until the Sea Lines of Communication (SLOCs) are 
established. I will expand on this later.
Command, Control, Communications, Computers, and Intelligence (C\4\I)
    USCENTCOM is responsible for executing a major theater war (MTW) 
plan without a headquarters located physically within the geographic 
AOR. As mentioned above, USCENTCOM requires a deployable command and 
control headquarters that provides the necessary flexibility to direct 
operations throughout the AOR during a crisis or armed conflict with 
assured 24-hour communications to the National Command Authorities 
(NCA), other Combatant Commands, the Services, USCENTCOM staff, our 
Component Commands, and deployed forces. We request the committee 
support our initiative to build this capability as provided for in our 
current funding plan.
    Additionally, the strategic environment in our AOR mandates a 
capable and reliable C\4\I infrastructure. The C\4\I infrastructure in 
place today is a mix of legacy equipment and modern components that 
have been assembled ad hoc as a contingency system. Intelligence, 
operations, and support systems increasingly rely on assured 
communications bandwidth. USCENTCOM must have a robust C\4\I 
infrastructure that supports these warfighting requirements. We will 
bring robust tactical communication systems into the AOR in wartime, 
but we need a joint theater C\4\I infrastructure to plug them into, one 
that takes advantage of fiberoptic cable and commercial satellite 
services that are now available in the Gulf states. Forces must 
maintain the ability to rapidly deploy to the theater, immediately 
access, and operate within our communications infrastructure and the 
global networks. Investing in our theater infrastructure will give us 
the tools we need to operate across the full spectrum.
Full Dimensional Protection
    USCENTCOM focuses on full dimensional protection for forces and 
facilities around the clock. Protection begins with timely, high 
confidence early warning of terrorist planning and targeting. Recent 
intelligence community efforts to improve performance in this area 
through improved analysis and information sharing are steps in the 
right direction, but more needs to be done. We need a dedicated, long-
term effort with access to all terrorist-related information, both 
intelligence and law enforcement, leveraged by state-of-the-art 
information technology tools, to get in front of the next attack. 
Timely warning will generate defensive and offensive options that we do 
not currently have. I view this as our most important initiative to 
protect forces and facilities. We must concurrently ensure that we are 
effectively postured in the event timely warning does not come. 
Improvements are needed in our ability to identify friend or foe (IFF), 
create standoff, and counter the delivery of explosives (direct or 
indirect) used against component forces and facilities. Approximately 
81 percent of USCENTCOM's funding for military construction projects is 
directed toward force protection requirements. I expect our funding 
requirements to increase in the near future as we finalize ongoing 
vulnerability assessments and increase our emphasis on elimination of 
force protection construction waivers.
    Successful execution of USCENTCOM OPLANs/CONPLANs also requires the 
capability to detect and characterize chemical, biological, 
radiological or potentially hazardous elements, as well as the ability 
to decontaminate fixed sites and provide collective protective measures 
in order to build and sustain forces within the AOR. We intend to 
retrofit existing structures and incorporate chemical/biological 
hardening into all new construction.
    Finally, integrated theater air and missile defense will remain a 
priority to provide robust and responsive defense of theater forces and 
critical assets against the full range of enemy Theater Ballistic 
Missiles (TBMs) and cruise missiles.
Intelligence, Surveillance, and Reconnaissance (ISR)
    We have made progress in bringing shared situational awareness to 
our components and regional partners, but still have more work to do. 
USCENTCOM has teamed with national intelligence agencies, other 
Combatant Commands and components to devise a DOD-wide interoperability 
strategy employing a common set of analytical tools and security 
safeguards that will allow us to rapidly share information at multiple 
security levels and across echelons. USCENTCOM currently serves as the 
``warfighter proving ground'' for several interoperability evaluations, 
having invested some $3 million in this effort in concert with the 
Defense Intelligence Agency (DIA), the Joint Battle Center, the 
Assistant Secretary of Defense (ASD) for C\3\I, and others.
    Synchronizing U.S. and coalition operations via a secure shared 
network is an essential USCENTCOM interoperability initiative. Our 
concept begins with hardware/software installations for the six GCC 
states plus Egypt and Jordan, to provide our partners with near-real 
time threat data and releasable operational information to support our 
contingency plans. While intelligence community and Commander in Chief 
(CINC) Initiative Funds have enabled us to make some initial progress, 
we will need congressional support to operationalize this capability as 
provided for in our current funding plan.
    Theater airborne ISR remains a critical enabler for effective 
regional indications and warning. Shortfalls in our current 
capabilities jeopardize our ability to obtain the warning necessary to 
execute our OPLANs. Solutions lie in fielding additional modernized 
airborne reconnaissance systems and next-generation long-dwell unmanned 
aerial vehicle (UAV) platforms. Such assets are necessary to fill early 
warning and mobile target collection gaps and provide a surge 
capability in the event of crisis.
    The health and status of national systems is also of concern to 
USCENTCOM. A robust national imagery intelligence (IMINT), measurement 
and signature intelligence (MASINT), and signals intelligence (SIGINT) 
systems architecture is essential to providing indications and warning 
and situational awareness to all echelons of command. We will continue 
to rely on these systems in tandem with the direct threat warning 
provided by our theater ISR assets. The current mix of platforms and 
sensors does not provide the full range of collection required for 
comprehensive threat warning and support to fast-paced combat 
operations. Continued congressional support for existing and planned 
national sensor platforms and upgrades, as provided for in our current 
out-year funding plan, is essential.
    MASINT provides key indications and warning, theater ballistic 
missile warning and battle damage assessment. However, the current lack 
of operational sensors and a formal architecture significantly reduces 
MASINT's ability to support military operations. MASINT has great 
potential and can provide tremendous support to the warfighter. Your 
continued support is needed for existing and planned operational 
sensors and associated architectures to make the system more capable.
    It is also essential that we maintain a robust tasking, processing, 
exploitation, and dissemination (TPED) architecture. This remains a 
daunting challenge, as current limitations impede our ability to 
process, exploit and disseminate large imagery files and move this 
critical data through the ``last tactical mile'' to our components and 
their supporting units.
    Active duty intelligence personnel manning and systems support also 
remain challenges at USCENTCOM, given our high operating tempo. That 
said, our Reserve program is thriving. Reserve personnel have been 
integrated across all functional lines including systems, 
counterterrorism, analysis, imagery, targeting, and battle damage 
assessment. We would be unable to accomplish our missions and meet 
emerging requirements without this Reserve component contribution.
Working with Regional Forces
    As I discussed earlier, key elements of our current national 
strategy include ensuring continued access for U.S. forces and 
enhancing the ability of regional states to provide for their own 
security in concert with us and with each other. To meet these 
objectives, USCENTCOM has developed a program that includes operations, 
exercises, security assistance, education, humanitarian demining, and 
military-to-military contacts.
    With few permanently-stationed forces in the AOR, a strong mil-to-
mil program provides access to our friends and allies. Our engagement 
program provides not only training to our forces and those of our 
partners, it also provides an outstanding example of a successful, 
professional, and apolitical military to nations striving to build 
their own military traditions. Military-to-military interaction 
engenders trust and confidence and ultimately translates to greater 
security for our people. Our combined commitment to aligning resources 
with these programs will ensure success in achieving our national 
objectives.
Prepositioning and Forward Presence
    Prepositioning in our AOR is the third leg of our strategic 
deployment triad. The Navy and Marine Corps Maritime Prepositioning 
Force (MPF) program, comprised of Maritime Prepositioned Ship Squadrons 
(MPSRONS) 1, 2, and 3, maintains a high materiel readiness rate. It 
will become more robust when the MPF Enhancement (MPF(E)) Program, 
scheduled for completion in March 2002, is fully fielded. Each MPSRON 
will gain a fleet hospital, a Navy mobile construction battalion, an 
expeditionary airfield, and additional warfighting equipment. The 
MPSRON-1 Enhancement ship is already on station.
    The Army's prepositioning program, with a goal of placing a heavy 
division of equipment in the region, is advancing on schedule. The 
brigade set in Kuwait maintains high operational readiness and is 
exercised regularly. The prepositioned site in Qatar (Camp As Saliyah) 
houses the second brigade set and a division base set estimated to be 
completed before the end of fiscal year 2003. The afloat combat 
brigade, APS-3, is complete, and combat ready, and a second afloat 
brigade is planned to augment APS-3 with an equipment fill of 83 
percent of requirement in the near term. The Army is evaluating other 
actions which could lead to a fill of 92 percent of requirement.
    The Air Force Harvest Falcon bare-based materiel program is also a 
vital asset to meet our requirements, as these assets support the 
generation of Air Force combat sorties in the early stages of 
contingencies. Having these sets positioned in the AOR lets us avoid 
diverting critical strategic lift assets at the start of a conflict to 
the movement of bare-base materials, thereby delaying the arrival of 
warfighting elements. Currently, our on hand Harvest Falcon assets are 
45 percent mission capable.
Transformation
    Our ability to shape the environment and influence the battlespace 
is linked to transformation efforts by the Services and members of the 
joint team. In particular, USCENTCOM supports the development of the 
doctrine, organization, and training that will enable joint, combined 
operations in the multinational setting. We support further development 
of a process for integrating coalition members into our transformation 
efforts.
    Across the board, USCENTCOM endorses Service efforts aimed at 
transformation of existing force structures to modernized, versatile, 
full spectrum forces. Of special importance to USCENTCOM is Army 
transformation, which will provide required adaptive, lethal, and 
survivable forces responsive to the diverse operating continuum in our 
AOR.
Quality of Life
    Finally, the requirements identified above mean little without our 
most important resource, people. An essential component of force 
readiness is continued emphasis on improving the quality of life for 
service members and their families. I applaud the leadership shown by 
Congress with passage of the ``TRICARE For Life'' program for retirees 
and family members. I ask for your continued support to the Defense 
Health Program as we fully realize the ``TRICARE promise'' for our 
personnel and families stationed overseas and in remote locations. 
``Taking care of our own'' through medical, pay, and other entitlement 
programs provides the Services a set of powerful recruitment and 
retention tools.

                               CONCLUSION

    In the near-term, Saddam Hussein will continue to challenge our 
resolve as we rebuild and strengthen the Gulf coalition. In the long-
term, Iran's moves toward regional hegemony could be of greater 
concern. The Central Region is as dynamic as it is volatile. Weapons of 
mass destruction, state-to-state conflict, terrorism, and general 
instability will continue to place special demands on our people and on 
our ingenuity.
    Interaction and cooperation with regional militaries will remain a 
vital ingredient in enhancing stability and security in this AOR. This 
interaction equals access and goes a long way toward building trust and 
confidence with our friends and allies. Our presence strengthens 
relations with our hosts and improves our ability to protect ourselves 
by eliminating suspicion, demystifying intent, opening the door to 
communication, and denying the closed environment in which terrorists 
thrive.
    The volatility of our region requires that USCENTCOM remain 
adaptable and agile. Without a large footprint in the region, we must 
be truly ``deployable.'' Responsive command, control, and 
communications during peace, crisis, and conflict will remain key to 
our ability to accomplish the mission. We have the finest soldiers, 
sailors, airmen, coast guardsmen, and marines in the world. Your 
steadfast, superb and visible support has made it so and you can count 
on them to do all we ask of them--and more.

    Chairman Warner. Thank you very much.
    General Ralston, I am going to pick up on your last 
presentation about the need for the military construction in 
your area. I think that is a very important issue. It does not 
have the drama of conflict and all of the other things that 
come to the attention of people through media and otherwise, 
but it is just as important to give your troops the basic 
requirements of a quality of life which they deserve, 
commensurate with the onerous burdens of picking up here in the 
United States, moving overseas and adapting to the local 
economy. Often it is difficult for the wife to engage in other 
activities and care for the family if the income level of the 
family requires her to work.
    You and I understand those things through long years, and I 
am going to very much participate in trying to give you this 
support, but I have to tell you that that is but one part of 
the overall concern here in Congress of the United States, and 
certainly with this Senator on this committee. Another area of 
concern is a drifting attitude that I see with respect to NATO, 
brought along by this European Security and Defense Policy 
(ESDP).
    Yesterday, our committee had the pleasure of receiving the 
British Secretary of State for Defence, and we had a long 
discussion with him on that subject. I will speak for myself 
for the moment--there is a concern about further augmentation 
of U.S. spending and so forth with regard to NATO.
    Now, it may well be that we will have to do this by 
necessity, because the evolution of this new concept in NATO is 
going to take a long time. This is an emergency situation that 
has to be addressed, but I would be less than candid if I did 
not point out my concern, and I think of others, about this 
situation.
    I remember when I first came to the Senate some 23 years 
ago, the then-Majority Leader of the Senate, or he had just 
stepped down, he had an amendment, the Mansfield amendment, to 
bring our troops out of NATO. In the early years in my Senate 
career, time and time again we had to go to the floor of the 
Senate to gain the support of the whole Senate to do an orderly 
withdrawal of our forces, and not a precipitous one.
    I am not suggesting that that is going to happen here 
tomorrow, but nevertheless, that is a part of Senate history, 
and it could be brought up in an orderly way. Yesterday with 
the visit of our British colleague, one of our colleagues 
brought up the question of whether or not U.S. force levels in 
Europe need to be kept at the 100,000 figure that you 
mentioned, in view of the desire for this initiative within 
NATO. I think it is important to get this into the record every 
time we have the opportunity, through your appearance and 
others.
    General Ralston. Thank you, Mr. Chairman. Let me give a 
little bit of background on the European Security and Defense 
Identity (ESDI) and ESDP that we talk about. For years, we as 
Americans have asked the Europeans to do more to carry their 
own security, so I would like to be supportive of anything that 
improves the security posture of our European nations, and so 
therefore I want to be supportive of ESDI with the caveat that 
it should be done in a way that does not detract from the NATO 
alliance.
    Now, I think there is a way to do this. Let me give you 
what I think is the right way ahead, and then I will come back 
and talk about some of the downsides if we do not do that.
    There are four nations, Mr. Chairman, that are in the 
European Union that are not in NATO: Finland, Sweden, Austria, 
and Ireland. I think the proper way to do this is to bring 
those four nations' military planners to Supreme Headquarters 
Allied Powers Europe (SHAPE) headquarters, where we have the 19 
NATO nations there, and in terms of operational planning, 
military planners will do what military planners always do. 
They will come up with military options. We will have option A, 
and option A will have a certain set of forces, and a certain 
risk factor, and a certain chance of success, and option B will 
have a different set of forces, and a different risk, and 
different chances of success, and option C, and once those 
options are designed, then they can be provided simultaneously 
to the European Union and to the North Atlantic Council.
    Now, the two political bodies will have the same set of 
plans, the same set of facts, and the two political bodies can 
then deliberate as to who should do this operation, should this 
be a NATO operation, or should it be a European Union 
operation, and the United States will be well-represented in 
that debate as it sits around the table in Brussels.
    Now, my concern is if we do not do it the way I have 
outlined, and instead the European Union sets up their own 
planning mechanism over here, that has three major downsides. 
First, it is wasteful of resources. The last thing that the 
European nations need to be doing is spending money on more 
jobs for generals in headquarters in Paris. That is money that 
needs to be going into the battalions and the squadrons and the 
ships, not in more headquarters.
    Second, if we do not do the planning the way I said, then 
the European Union will come up with options 1, 2, and 3, NATO 
will have A, B, and C, and when it gets to the two political 
bodies, there will be more confusion than normal in times of 
crisis. We do not need that.
    Third, the European Union, if they pick battalion X that 
they want on their operation, how do they know that battalion X 
is not assigned to a NATO plan, and a NATO operation?
    So if we do it the way that I said, where we bring the 
European Union planners that are not already part of NATO, 
those four nations to SHAPE, I think this can be well-managed, 
and I think it can, in fact, be an improvement, but we do not 
have those details ironed out yet, and that is something I am 
very concerned about. It is something that we need to keep 
pushing on, and I think we need to do it in the next few months 
to get that tied down the way that it should be.
    Chairman Warner. I thank you. So it is in the next few 
months that we will get some clarity to this situation.
    General Ralston. That is certainly my hope.
    Chairman Warner. I want to address an article which 
appeared on March 21 in the London Daily Telegraph, and I will 
give you a copy of it. Would you quickly pick up on the point 
they are trying to raise here. I think this record today should 
incorporate your testimony to strongly refute the principle 
they are trying to advocate.
    ``NATO's attempt to quell the growing conflict in the 
Balkans is being hampered by Americans' reluctance to risk 
casualties, alliance officials said yesterday.'' Now, that is 
attributing it to alliance officials, who I presume would be 
persons who work in the same command structure that you are 
working in, if there is credibility to this.
    The problem is not discussed openly, but British officers 
speak of ``body bag syndrome,'' as the major brake on NATO 
operations to stop infiltrations of Albanian extremists from 
Kosovo into Serbia and Macedonia.
    The U.S. forces may be highly motivated by fighters and 
superbly equipped, but there is frustration with the perception 
that American commanders are under the intense political 
pressure not to shed soldiers' blood. ``The body bag syndrome 
is a real problem now, said a senior European officer. It is 
not that the American soldier doesn't want to fight. The 
politicians won't let him.''
    The issue has become urgent, since ethnic Albanian rebels 
began to infiltrate both Yugoslavia and Macedonia late last 
year, using the American sector of Kosovo as a base of 
operations.
    Now, certainly, whether we are military field commanders 
like yourself, or those of us here at home in Congress, we have 
foremost in our mind the safety of our military in the 
forefronts of the world, and the same may be said of this 
article about your AOR, General Franks, but the Kosovo war was 
fought in a unique way, unprecedented with almost total 
dependence on air, as opposed to any ground elements. The 
planners devised that and essentially brought about the 
cessation of hostilities in that region, and I think it was a 
successful operation. That is my personal opinion.
    We were very proud of the fact that the performance of our 
military, under the command of the leadership of their senior 
officers, performed this mission with a minimum of casualties.
    Clearly it is my perception that our military is willing to 
accept the risks for which they chose this profession, and that 
they will follow the orders of the Commander in Chief, our 
President. Congress does not issue any orders, but we are very 
vocal, and a very important co-equal partner of the 
infrastructure supporting our troops, but I do not know that 
anything has emanated from Congress that would give rise to the 
accusation in this article.
    I know of no commands or orders given by the senior 
military commanders that give rise to it. To the contrary, I 
feel that our forward-deployed troops will accept those risks 
professionally associated with their mission, and if it results 
in casualties, it is highly regrettable, but that from time 
immemorial has been the role of those in uniform.
    Now, I would like to have your comment. I presume your 
views coincide with mine, but this is a fairly serious 
indictment that was raised in the British press, particularly 
at a time when we see requests coming in for additional troops. 
I think it is important that you speak out with clarity on this 
article, because while you may not be familiar with this 
article, you have heard this accusation before.
    General Ralston. Thank you, Mr. Chairman. I did read the 
article, and I will tell you that I take strong exception to 
the sentiments expressed in that article. Soldiers that are in 
Kosovo today that are on the border are doing, in my judgment, 
a magnificent job.
    Chairman Warner. Incidentally, Senator Stevens and I and 
others were there just 3 weeks ago. We were on that very border 
where the fighting is taking place in the valley with you and 
our troops.
    General Ralston. Yes, sir, and Mr. Chairman, I very much 
appreciate the fact that so many members of the Senate took the 
time to go and look at that, and you saw those magnificent 
young soldiers up there. They were not afraid of anything, they 
were there to do their job.
    Just a couple of weeks ago, on the Macedonian border, we 
had a case where an American patrol was there. They were 
threatened by armed extremists, and they shot two of them. They 
followed the rules of engagement exactly as they should have, 
and they did that, but that is a risk that they take every 
night and every day. It could have been that the Albanian 
extremist fired the first shot, and shot our people. As it was, 
they protected themselves. They did the right thing.
    So I would take strong exception to the sentiments 
expressed in that article. Our people are there. We do not 
expect them to go do things that are irresponsible. There were 
some minefields on that border. When you are operating in 
minefields, you have to do that very carefully, and so we are 
going to make sure that our people are protected to the best 
extent that they can be, but they will willingly accept that 
risk, we will accept that risk, in order to carry out the 
mission.
    Chairman Warner. As commander, you are not asking of other 
military units to take any greater degree of risks than being 
assumed by our own troops.
    General Ralston. That is exactly right.
    Chairman Warner. Thank you.
    General Franks. Mr. Chairman.
    Chairman Warner. Yes, General Franks.
    General Franks. If I might add to the same point, I also 
read the article, and I also take exception to it. It brings to 
my mind several things, not the least of which is a letter 
which I received from an Australian officer after last week's 
training accident in Kuwait.
    I published it on our web site for everyone to see, wherein 
the Australian officer talked about the sense of pride that he 
had had when he had been a member of that coalition force 
standing in Kuwait, had had the opportunity to work with 
coalition people, U.K., his own, New Zealand, Kuwaitis, a 
variety of other Gulf States, as in fact they had gone about 
their business, whether it be training, or whether it would be 
maritime intercept operations, or whether, in fact, it be 
Operation Southern Watch, where these young people fly in 
harm's way every day.
    I have not, sir, and I do not expect to see any reluctance 
whatsoever in the will of these young people from across the 
coalition wherein all of us serve to do what they are asked to 
do.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Let me add my 
welcome. I am sorry I was late. I was on the Senate floor. I 
have had a chance to chat frequently with both our witnesses 
and congratulate them on the terrific job that they and the 
forces under their command are doing.
    First, I want to talk to each of you about the no-fly 
zones. Each of you have a no-fly zone under your command, I 
believe. It is a very frustrating engagement, I think. So the 
question is whether or not flyers are at risk. From time to 
time when threatened they act to remove the threat, as they 
should. We are spending a tremendous amount of effort and money 
to maintain these no-fly zones.
    At the same time, we are told that the sanctioned regime is 
gradually becoming weaker. I guess my question for each of 
you--because one of you has the northern no-fly zone and one of 
you has the southern--is whether or not you see any daylight in 
terms of accomplishing a mission of removal, either through 
those no-fly zones, which obviously you have a different 
mission, or through some other means, removing the regime. If 
not, whether or not you believe that the maintenance of those 
no-fly zones is really accomplishing a useful purpose.
    Are we satisfied that, for instance, Saddam is not building 
up his forces on the ground in those no-fly zones? Do you feel 
that they are accomplishing their limited mission? Is it worth 
the risk, in your judgment, to our flyers to maintain those no-
fly zones? Is it also worth the cost?
    Now, I know there are a lot of policy questions wrapped up 
into that, but I would like to get your judgment on this as 
professionals.
    General Ralston. OK, let me go first.
    You are right, Senator Levin, there are a lot of policy 
issues there, and what I try to do is to make sure that I can 
articulate as best I can to the Joint Staff, to the Secretary 
of Defense, and to the administration, not whether we should or 
should not be doing this, but what the military consequences 
are of doing it.
    Once again, as I said at the beginning, there is a risk 
that every time our pilots enter Iraq to enforce that no-fly 
zone, they willingly accept. We are, in fact, doing I think a 
very credible job of enforcing the no-fly zone, and do believe 
that it has a deterrent effect in terms of what the Iraqi 
military does, either to move in the north against the Kurdish 
citizens that are there, and I will let General Franks talk 
about the southern part.
    As the administration reviews their policy, only the 
President can ultimately make the decision as to whether the 
risk and whether the cost in terms of resources is worth what 
comes out on the positive side, and so I am not going to try to 
make a judgment here today. The administration is reviewing 
that, and what we are doing on the military side is carrying 
out whatever that policy happens to be.
    I do believe we have a responsibility to tell them, as I 
have told you this morning, what those risks are in terms of 
the chances of an American airman being downed over Iraq, but 
ultimately that has to be a policy decision.
    Senator Levin. General Franks.
    General Franks. Mr. Chairman, I would add to the comments 
of General Ralston by saying, my direct experience with the 
southern no-fly zone goes back about 4 years in the immediate 
past, 8 or 9 months in Central Command, and several years as 
the Army component commander before that, having supported 
Operation Southern Watch, and having observed the maritime 
interception operations.
    I agree with the observations that General Ralston made. 
That said, this is not a without-cost enterprise--both 
monetarily and in terms of the way we put our people at risk as 
we enforce this no-fly zone.
    As this committee knows, some 153,000 times our pilots have 
been in the southern no-fly zone, 153,000 times since 1992. If 
you go back just the past 12 months, we have put our young 
pilots and support crews in the southern no-fly zone 10,000 
times. We have had more than 500 occasions where our people 
have either been illuminated by radars, or engaged by surface-
to-air missiles, or engaged by antiaircraft artillery fire.
    Senator Levin. Over what period of time was that?
    General Franks. Over the past year, sir.
    As I look at what has been accomplished, I look at the 
reason we engaged in these no-fly zone enforcement processes in 
the first place, and I am reminded of the Security Council 
resolutions which came about at the end of the Gulf War, 
provisions of which the Iraqi regime has not yet complied with.
    I look at occasions where the regime has threatened the 
Kurds in the north, Saddam's own people, the Shia in the south, 
his own people, and as recently as 7 years ago, massed large 
Republican Guard formations down in the vicinity of Kuwait 
again, in violation of the resolutions that came about at the 
end of the Gulf War.
    So, sir, as I look at what we have done, placing our troops 
in harm's way, I have to believe that the containment of the 
regime has had some positive effect.
    I will defer to the policy team, the State Department, 
Secretary Rumsfeld, Dr. Rice, the President, the Vice 
President, to review the risk-gain analysis with respect to our 
current policy. I believe, as General Ralston said, that 
process is ongoing. I have high confidence in that process, and 
I have had the opportunity to inform that process. I believe 
that a quality policy will emerge from it, and I believe that 
that policy will address the pillars upon which we should stand 
as we look back at the reasons why we are involved in this key 
region of the world.
    Senator Levin. Just one followup question, and then I will 
be done on this particular subject. This is on a very directly-
related matter. Secretary Powell stated that the rules had been 
changed to enable a more effective response to Iraqi activities 
to develop weapons of mass destruction and the means to deliver 
them.
    Can either of you shed some light on the comment of 
Secretary Powell about rules being changed so we can more 
effectively respond to the efforts of Saddam to develop those 
weapons?
    General Franks. Senator Levin, I cannot talk directly to 
Secretary Powell's comment. I can tell you that the policy 
review that is ongoing is, in fact, reviewing what we have 
heretofore called the red line associated with weapons of mass 
destruction, and the means to deliver them along with the other 
issues that we have included in the policy in the past, and 
beyond that I am not sure how to comment.
    Senator Levin. You do not know about a change of rules yet?
    General Franks. No, Senator.
    Senator Levin. General Ralston?
    General Ralston. No, sir.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Senator Smith.
    Senator Smith. Thank you very much, Mr. Chairman.
    Good morning, General Franks, General Ralston.
    I want to mention three areas that to some extent overlap 
both of your commands that are very troubling to me, and I 
think to the region, if you could just comment briefly on them.
    First, there are reports that Russia has agreed to supply 
some $7 billion worth of weapons to Iran over the next few 
years, specifically three kilo-class submarines that, to my 
knowledge, are the only submarines owned by a Gulf country. We 
also know that Iran is now interested in the SU-25 fighter 
aircraft, which, of course, would close the air power gap 
between Iran and its Gulf neighbors.
    Second, there are reports that the Chinese helped to 
upgrade the Iraqi air defense systems, and General Franks, you 
just talked quite at length in response to Senator Levin's 
question about our pilots in harm's way, so if you would 
comment on that point. Third, we received in Congress the 
recent report for the first half of 2000 that notes that China 
continues to send ``substantial assistance to Pakistan's 
missile defense program,'' not only Pakistan, but also Iran and 
Libya.
    There are some reports saying this proliferation is 
continuing despite the previous administration's lifting of 
U.S. sanctions against China based on a promise that Beijing 
would stop the sales.
    So in summary, we are seeing both Russia and China making 
decisions that severely impact, I think, not only the 
volatility of the region, but the safety of our forces in those 
regions.
    Let me just go back to each point, and if you would prefer 
to take the one in your area, that is fine. Let me go 
specifically now to the Chinese helping to upgrade the Iraqi 
systems. First of all, is that true?
    General Franks. Senator, it is true.
    Senator Smith. Second, can you characterize the increase of 
that effectiveness and how this might impact our forces as they 
go up in the no-fly zone?
    General Franks. Senator, I propose in closed session to 
give you some greater details, but for the purpose of open 
session, I would say that as we consider the threat our pilots 
face in the southern no-fly zone, the thing that gives us the 
biggest problem is the integrated air defense capability of the 
regime.
    That integrated air defense capability involves several 
factors. One is the command and control ability, that being the 
bunkers, the communications and so forth, where the leaders 
command and control the air defense operations. Another is the 
communications capability, and in this case that involves some 
fiber optic cable link, which is the point of your question.
    Senator Smith. A Chinese company.
    General Franks. Affirmative. Also involved are the weapons 
platforms themselves that are involved in the integrated air 
defense, and as we look at the threat it is always in our best 
interest to assure that it is not possible for the Iraqis to 
have early warning, and to have competent target-tracking 
radar, and to be able to move signals around southern Iraq 
which will cause their weapons platforms to effectively engage 
our air frames.
    That was the case, and so the part of this that relates 
directly to your question about the Chinese is this business of 
the communications architecture that supports this integrated 
air defense capability, specifically this business of fiber 
optics, and it was in that context that I answered your 
question. Yes, the Chinese were involved.
    Senator Smith. There have been press reports--and if you 
choose to go into this in closed session, that is OK--that the 
taking out of the Iraqi sites was based on the fact that we 
might injure Chinese technicians. Is there any truth to that?
    General Franks. Senator, what I will tell you is that that 
would never be a reason that would cause us to place our people 
in harm's way. I will give you the specifics in closed session, 
if I may, but I will tell you that at no time were our airmen 
subjected to increased risk as a result of these capabilities 
while we did not strike them.
    Senator Smith. To the best of your knowledge, was there any 
information about what the Chinese were doing in Iraq with 
their defenses during the Permanent Normal Trade Relations 
(PNTR) debate?
    General Franks. Sir, I cannot answer that question. I do 
not know.
    Senator Smith. Just let me know when my time has expired, 
Mr. Chairman.
    We move over to your area, General Ralston, on the arms 
proliferation, in terms of assistance to Pakistan, and how that 
might impact the relationship between India and Pakistan: What 
is your assessment of how that impacts volatility of the 
region?
    General Ralston. Senator Smith, let me make a comment and 
then defer to General Franks. Neither India or Pakistan are in 
my AOR----
    Senator Smith. I apologize.
    General Ralston.--so I am not the expert on that, but from 
my previous job as Vice Chairman----
    Senator Smith. Libya.
    General Ralston. Obviously, Libya is one that I do worry 
about. Yes, arms proliferation, weapons of mass destruction is 
certainly a topic that is of concern to me in EUCOM, and it is 
of concern to NATO. This is one of the issues that we have been 
pushing hard in NATO, that the European nations have to 
acknowledge the fact that there is a weapons of mass 
destruction threat, and that we need to be prepared to counter 
that.
    Senator Smith. General Franks, if you would just briefly 
comment on the India-Pakistan portion.
    General Franks. Sir, the comment that I would make would be 
that weapons of mass destruction, as General Ralston said, are 
obviously of great concern to us, and the proliferation of 
technologies associated with that, to include missile 
technologies, is a problem for us.
    We can talk about the specifics of weapons types and so 
forth, if we could, again sir, in closed session, but I will 
tell you that proliferation associated with the parties that 
you mentioned is, along with other parties, a continuing 
concern for us in the Central Region.
    Senator Smith. Last point, the Russians and the Chinese 
obviously in seemingly isolated ways are impacting both of 
these regions, the European Command and Central Command. Do we 
have any evidence of coordination of those efforts between the 
two countries?
    General Franks. Sir, I have no evidence of it.
    Senator Smith. General.
    General Ralston. Neither do I, Senator.
    Senator Smith. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman.
    General Franks, I have been struck by the breadth of our 
continuing operation to contain Saddam Hussein. The average 
American would probably be surprised to learn that coalition 
forces flew 20,000 sorties in the past year to control the no-
fly zone in southern Iraq, and that our forces have been fired 
on 500 times with surface-to-air missiles and anti-aircraft 
fire. We should be quite proud of our dedicated forces 
participating in these potentially dangerous missions, 
stationed for long periods of time far away from home.
    You have stated that enforcement of the no-fly zone is 
necessary business to assure that Iraq does not threaten its 
neighbors and its own people. Since Saddam Hussein appears to 
have strengthened his grip on power, the United States and its 
coalition partners have no choice but to remain vigilant and 
maintain a strong presence in the region.
    Would you agree that more needs to be done to keep the 
American people informed of the threats posed by Saddam 
Hussein, and the importance of maintaining our military 
presence in the region?
    General Franks. Senator, that is my view, yes.
    Senator Carnahan. Thank you. One other question. I share 
your concern that the ongoing Israeli-Palestinian violence 
could lead moderate Arab governments to distance themselves 
from the United States, but as you point out, these states rely 
on the U.S. presence in the region to deter intimidation by 
Iran and Iraq.
    Clearly, the self-interest of these moderate Arab states is 
essential in relieving the current tensions, and I believe they 
have an important role to play in urging a stop to the current 
violence, and a resumption of negotiations between Israel and 
the Palestinians. What communications have you had with the 
leaders of these countries to urge them to play a constructive 
role in ending the violence?
    General Franks. Senator, with respect to precisely that 
point, my interaction with the leaders in our region has not 
talked to, has not made suggestion as to what they could do in 
order to ease the Palestinian-Israeli problem. What we in 
Central Command do is, by way of constant visit and constant 
interaction, provide the opportunity for them to inform us of 
what they believe the issues to be, which we then work very 
closely with not only defense but also----
    Senator Carnahan. You are not being proactive in this 
respect?
    General Franks. In terms of the military side of our 
organization, no, ma'am. What we are doing is informing them of 
our own policy, assisting with consultations, providing advice 
within our own governmental construct, the new policy team, and 
taking the results of their ongoing consultations with each of 
the leaders out in this region.
    Senator Carnahan. General Ralston, I certainly applaud you 
for your focus on readiness in the European Command's forces, 
and you have stated it is one of your top priorities. Your 
testimony, however, includes many examples of cuts in training 
exercises throughout the theater.
    This brings me to a much broader subject. We are currently 
considering a budget that would significantly reduce revenues 
to the Government over the next decade, yet we are being asked 
to commit to this budget before the Department's review is 
completed, and before we have a firm idea of what our military 
needs are going to be.
    If the anticipated surpluses are not as large as we expect 
them to be, there will be calls for restraint in domestic 
spending, including defense spending. Do you have any concerns 
that, like in the past, the overall budget outlay could 
adversely impact our ability to fund important military needs?
    General Ralston. Yes, ma'am. First of all, I am not privy 
to the budget that will be coming over, so I cannot talk in 
detail to what that is. I do not know what is going to be in 
there.
    What I tried to point out in my statement is a statement of 
fact, what has happened in the past. All I can do is outline 
for the administration and for Congress what steps we would 
have to take in terms of cutting back on exercises, cutting 
back on deployments, and cutting back on training if our 
operation and maintenance budget is not funded at the proper 
level.
    Senator Carnahan. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I am sorry I have 
been in and out. We have two committee meetings at the same 
time.
    General Ralston, I do appreciate the fact that you did 
single out readiness. It is a crisis, not just in your area but 
all over. I chair the Readiness and Management Support 
Subcommittee. We had two hearings, one yesterday and one the 
day before. The one yesterday was on facilities, Mr. Chairman, 
and we had 14 witnesses from all ranks, and some Reserve and 
Guard components, most of them regular services. It is a crisis 
throughout here, in the United States, and I heard you mention, 
and I am very sensitive to the conditions that you showed us on 
your chart in your theater, but also the same thing is 
happening here. In fact, 67 percent of our facilities were 
rated C-3 or below, and that is all here in the United States. 
I applaud you for being concerned with doing something about 
that over there. We also must concentrate on doing it over here 
at the same time.
    You think about the retention problems that we are having 
and I do not think there is anything that contributes to that 
more than these kinds of deplorable conditions and quality of 
life, and so this is a problem.
    Now, second, I want to say, I really do appreciate the fact 
that you have come out and talked about Africa. During the 
whole situation in Kosovo, I was trying to get the point across 
that if you would take the countries of Burkina Faso, Sierra 
Leone, Cote D'Ivoire, Benin, Togo, Gabon, Rwanda, Burundi, 
Kinshasha, Congo-Brazzaville, in just those countries, for 
every one person who is ethnically cleansed in Kosovo, there 
are 100 persons ethnically cleansed in those West African and 
Central African countries.
    I applaud you for your interest and for bringing it out, 
and letting America know that there is a serious problem there, 
and that we are doing what we can to prevent such atrocities.
    General Franks, I was down in the Sinai, in that area down 
there. Quite often we talk about what is happening to our 
readiness as a result of deployment to places like Kosovo and 
Bosnia, and I am concerned about that, because from a ground 
logistics standpoint, if something should happen in the Persian 
Gulf, we would not be able to handle those without, I think, 
being totally dependent on Guard and Reserve. I was told that 
by the senior officer down there.
    But in areas like the Sinai, where we have troops, do you 
see any areas where you think that we might be able to reduce 
the number of troops for the benefit of an increased readiness?
    General Franks. Senator, as you know, and certainly as the 
committee knows, Central Command is a bit of an unusual command 
in that we really do not have assigned forces, and so the 
answer to your question honestly is, yes, sir, weekly and 
daily.
    We will change our force levels, and they will range 
generally between, as I mentioned, 18,500 up to perhaps 25-
26,000, dependent on what particular contingency operation we 
may be running at a given point in time, or depending on 
whether we have a Marine Expeditionary Unit in our AOR at a 
point in time, and so, sir, what we do, literally, is we move 
up and down the force levels, depending on what the needs are 
in the AOR on a given day.
    Senator Inhofe. In the case of the U.S. troops, did they go 
through the Vieques training?
    General Franks. Vieques, yes, sir, they did.
    Senator Inhofe. But was it inert?
    General Franks. With inert, yes, sir.
    Senator Inhofe. With inert. What is your feeling about 
inert versus live ordnance?
    General Franks. Senator, as a matter of fact we also, in 
all of our training areas we will use sometimes inert only, and 
sometimes a combination of live, in this case Mark-82 bombs, or 
inert bombs, and so the preference is to use the live munitions 
when we can, and I think that is responsive to your question. 
But my experience has been that the other munitions also 
provide great training value.
    Senator Inhofe. Well, we had a hearing before my 
subcommittee 2 days ago on encroachment, and of course Vieques 
is the poster child for that kind of a problem.
    General Franks. Right.
    Senator Inhofe. All of them came forward and said that in 
the cases of the Marines, the Expeditionary Units, as well as 
the live Navy support fire, and the ability to use our pilots 
was absolutely necessary, and it did affect the quality of it. 
I want to get your perspective.
    General Franks. I agree with that. I think there is a place 
for both inert and live. Obviously, the most realistic training 
we get is with live munitions.
    Senator Inhofe. Yes. Now, lastly, right after the U.S.S. 
Cole attack occurred, I went over there and tried to determine 
what I could from my perspective to determine what happened 
there. Every naval officer I talked to said that if they had 
had the option of refueling at sea, they would have done it, 
and this was without exception.
    You cannot say for sure whether it would not have happened, 
but it certainly would not have happened in Yemen, and Yemen 
was a terrorist code red at that time, and yet there were no 
choices.
    As you go along from the Mediterranean down through the 
Suez and the Red Sea and turn left and go up toward the Persian 
Gulf, everything has to refuel someplace. I came back with the 
opinion, and it was fortified by every Navy officer that I saw, 
that we should have that capacity out there somewhere, when you 
turn that corner up to the Arabian Sea.
    After that, we went back to a couple of the boneyards and 
we found two excellent oilers that could be deployed in a very 
short period of time. I am trying to get this done. What would 
be your feeling about trying to get some oiler capacity, 
refueling at sea capacity in that area?
    General Franks. Senator, I will give you a two-part answer. 
First off, I would always defer to the CNO, Adm. Vern Clark, 
and his determination within a given resource level of what he 
thinks is the appropriate mix.
    Now, having said that, from an operational perspective, 
increased operational flexibility is always good for a 
geographical commander, and I would say to you, we keep right 
now two U.S. and one U.K. oilers in the region, and we are able 
to use those by some repositioning in order to not put our 
people in harm's way unnecessarily, as you are aware, Senator, 
and also by paying very close attention to march rates against 
the global naval force presence policy. Which is to say, if you 
provide an extra day here and an extra day there in transit, 
then the speeds of transit are reduced and much less fuel is 
burned, and so, sir, I would end by saying that a combination 
of operational flexibility, and some flexibility in global 
naval forces presence, provides to us what we need to have in 
the CENTCOM AOR.
    Senator Inhofe. Well, yes, and my time has expired, but I 
do want to say that I have talked to Admiral Clark about it and 
others, but still recognize it gets down to a capacity that we 
do not have that we could have fairly inexpensively, so I would 
like to ask if you would spend some time talking about this 
with Admiral Clark.
    General Franks. I will, Senator, yes, sir.
    Senator Inhofe. Thank you very much.
    General Franks. Yes, sir.
    Chairman Warner. Senator, I want to thank you. I was going 
to follow on that same line of questioning, because as soon as 
I heard about that tragic accident on that bombing range, the 
first thing that occurred to me was whether or not that 
accident could in some way be traced back to what we understand 
is a shrinking ability of the Navy to properly train the 
deploying units to that region to face the rigors of the combat 
in which the aviators, certainly, and to some extent others, 
are immediately injected, and you said, of course, the Truman 
got the inert training. Was it a full range of inert training, 
or was that even curtailed?
    General Franks. Sir, I cannot answer the question. I am not 
sure what the full breadth of the training they received in 
Vieques was, but I know that they were able to do close air 
support, and I know that they did use inert munitions as they 
did the training.
    Chairman Warner. What about the next carrier task force 
being deployed? What is the status of that training?
    General Franks. That training is not going to be done in 
Vieques, as I understand it, from information that I read this 
morning.
    Chairman Warner. That is my understanding also, so I think, 
Senator Inhofe, these are matters which you are going to have 
to bear down on in your Readiness and Management Support 
Subcommittee.
    Of course, we are also advised that there are shortfalls in 
shipmates on some of these deploying ships. I think it is a 
matter that this committee is going to have to look into with 
greater intensity.
    Do you think in any way that freak accident on the bombing 
range could be attributed to the inability of live fire 
training? He was off the Truman, was he not?
    General Franks. He was off Truman, affirmative.
    Mr. Chairman, as you and I discussed yesterday, I do not 
want to speculate on it. In terms of, as we pull the thread out 
of the ball of yarn and look to see whether we had the right 
level of training competencies, I would prefer to hold an 
opinion on that.
    Chairman Warner. I can fully understand that.
    Senator Carnahan, Senator Smith, and others talked about 
Iraq--indeed, Senator Levin raised in his opening questions 
Iraq, but there is another note of irony about this policy. I 
know it affects your military commanders a great deal. I 
remember from my own modest experience when I was a ground 
officer with a combat operation in Korea, our pilots were 
flying missions when the peace talks were taking place at 
Panmunjong, and they were saying, why am I taking this risk at 
the same time peace talks are taking place.
    To some extent, there are no peace talks taking place as 
far as I know on Iraq right now. I respectfully urge our 
President to convene the coalition of nations that brought 
about the cessation of hostilities in 1991 in the Gulf and say, 
now, look, if you have a better idea as to how to continue the 
containment of Saddam Hussein and limit the proliferation of 
his desire to use mass destruction weapons, then tell us what 
it is. If you have not got a better idea, then I guess the 
United States and Britain are just going to have to carry on as 
best we can see, and stop the criticism.
    But the other aspect of it is, we are facing an energy 
crisis in this Nation, whether it is in the California region, 
or we are told that on the east coast we are going to 
experience brownouts in the heat of the summer. Therefore we 
are looking for all possible sources of energy, and at the same 
time we are flying these missions in Iraq we are buying Iraqi 
oil to meet our own energy needs. Am I not correct about that, 
General Ralston?
    General Ralston. Yes, sir, you are correct.
    Chairman Warner. You have been in that combat situation as 
a young aviator. What does your aviator think about carrying 
out a high risk mission of containment at the same time the 
United States is buying the oil, as one of our colleagues, in a 
very colorful and I think factually correct way said it, we use 
that oil? Indirectly some of it could get into the very gas 
tank of the airplane flying the mission that bombs Iraq.
    How do we deal with that? When you sit down to talk with 
them, as I am sure you do, do your young pilots raise that 
issue with you?
    General Ralston. Yes, sir. Our young aviators that we have 
out there are well-educated, bright young men and women.
    Chairman Warner. Indeed they are.
    General Ralston. They also are very dedicated. If we tell 
them this is the mission that they are to go do, then they 
salute, and they go do that with great dedication.
    What they really need is to make sure that the 
administration and Congress and the American people are behind 
them. If they believe that, they will do anything that we ask 
them to do, and so that is why I think it is appropriate that 
the administration go through their policy review, and then 
whatever that policy is that comes out the other end, we should 
not be in the military the tail wagging the dog on this. We 
need a policy, and then tell us what it is, and tell us what 
our role is, and we will do that and the young men and women 
will respond admirably.
    Chairman Warner. Well, that is always the way it has been, 
but it has to be in the minds of those aviators that the very 
cars back home are using Iraqi petroleum.
    General Franks. I think, Mr. Chairman, and I know you are 
aware of this, but with this being a public hearing and on the 
record, I think my personal view is, the purchase of this 
percentage of Iraqi oil is entirely appropriate, because under 
the oil-for-food program, under the existing rules for the 
purchase of this petroleum, I think that what this does is send 
a signal that says that the purpose of our policy is not to 
punish the people of Iraq.
    The purpose of our policy is to assure that Saddam Hussein 
does not have an opportunity to put unencumbered money in his 
own pocket for the purpose of building his military 
organizations, and for the purpose of reconstituting his 
weapons of mass destruction.
    So, Mr. Chairman, I wanted to say that, because I believe 
the young men and women who are involved in Operation Southern 
Watch, as well as this maritime intercept operation we have 
ongoing, are very much aware of that, yes, sir.
    Chairman Warner. If we ever experience the misfortune of a 
downed aviator, and he is marching or being dragged through the 
streets of Baghdad, stand by. I think a lot of the public have 
not focused on this. Some of our allies, including Turkey and 
Jordan, who are participating in getting some of those hard 
dollars into Saddam Hussein's pocket, are very valued allies. 
So at the same time we are asking our pilots to put their lives 
in danger, our policy in this region is fractured in so many 
different ways. The pilot's total dedication does not seem to 
me to be matched by the total dedication of those who bear the 
burden of trying to resolve this conflict, which has dragged on 
for over 10 years.
    General Franks. I agree, Mr. Chairman.
    Chairman Warner. General Ralston, this problem that we are 
seeing in Macedonia, do you see other areas of the bordering 
nations, particularly around Kosovo, experiencing some 
destabilization--Montenegro, for example, as a consequence of 
their forthcoming elections--in the same way we are seeing in 
Macedonia?
    General Ralston. Yes, sir, Mr. Chairman. As you and I 
discussed, and as we heard in Greece when we were on our last 
trip, this area of the world has long been a clash between 
different civilizations, and it all comes to a head around the 
Balkans area, so clearly there is the potential for 
instability.
    One of the issues that I think the committee needs to think 
about, the election upcoming in Montenegro on April 22. I think 
it is going to be very significant, because it is in large part 
going to indicate whether the people of Montenegro want 
independence from Yugoslavia. If so, and if that proceeds, then 
that will start another series of questions. What about Kosovo? 
Should they be independent or not, and what about the Republic 
of Srpska in Bosnia, should they be independent or not?
    So it is, I think, a pretty profound event, that I know you 
are focused on. I am not so sure the American people are 
focused on this upcoming election on 22 April in Montenegro.
    Chairman Warner. I am glad you raise that, because again, 
it comes down to the risks in the deployment of our troops, the 
expenditures of this Nation, and it is still a very fragile 
situation.
    General Franks, missile defense is very much a part of our 
initiatives here in Congress and, indeed, certainly our 
President. How do you rate Iraq's current ability to employ 
ballistic missiles against U.S. forces and/or our allies in 
that region?
    Saddam Hussein has the authority, under the accords that 
were drawn up at the time that that conflict was terminated, to 
go ahead with the production of missiles with a range that 
presumably only ensured his ability to defend his country. That 
same technology can be used to extend the range of those 
missiles, in my judgment, in relatively simple ways.
    General Franks. Chairman Warner, I agree with exactly what 
you just said. We obviously have concern and should be 
concerned about missile development that is permitted to go on 
under the existing rules which allow for development as long as 
a range of 150 kilometers is not exceeded by those weapons. The 
issue for us is the possibility of doing solid propellant 
investigative work or scientific development of solid 
propellants which could perhaps at some point be used in 
weapons systems, missiles with much greater range. Sir, I share 
your concern.
    Chairman Warner. Senator Levin, I see our colleague, 
Senator Nelson has joined us just as I was beginning to ask the 
second round, so Senator Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    General Franks and General Ralston, first of all I want to 
commend the 125,000 men and women under your commands, the 
125,000 troops in harm's way for being so committed to peace in 
the world, and certainly to represent their country so 
admirably.
    Senator Inhofe, before I arrived, mentioned something about 
the deplorable conditions of housing, and I know, General 
Ralston, you also made reference to that. Senator Inhofe and I 
in a hearing earlier this week received a lot of information 
about the inadequate housing situation for our troops. I am 
concerned to hear most of the discussion was about here at home 
as opposed to in foreign locations, so I hope that we are able 
to do something to help correct that. If we want a family-
friendly and a military-friendly environment, housing is 
certainly going to have to be part of that.
    My question here is, in the wake of the U.S.S. Cole tragedy 
as we have experienced concerns about the protection of our 
troops in foreign locations, with the ethnic extremism in 
Macedonia today, and the enormous border that you police, can 
you describe for us the steps that are being taken for security 
of our locations in that part of the world?
    General Ralston. Senator, if I may, that is an excellent 
question, and it is an issue that we spend a lot of time 
working, and I must tell you, I am probably more concerned 
about other areas than I am our troops that are in Kosovo, 
because in Kosovo they are focused on this every day. They are 
wearing their flak jackets and their helmets, and they are in 
patrols, and we constantly work on that issue. It is not risk-
free, as we have mentioned before, but I think they do a good 
job on that.
    Sometimes we forget that our forces that are living in 
England and in Germany and in Italy are far more vulnerable to 
a terrorist act than we would like to think about. We have had 
to go through several actions in the past couple of months in 
the U.K. and in Germany and in Italy and in Turkey, and I could 
go on and on, Belgium, no place is immune from potential 
terrorist acts. The bigger challenge is, these places that for 
many years have been considered very safe places, it is like 
living in Virginia or Maryland, and all of a sudden we find 
that is not true, so how do you keep the people focused on 
that, and how do you make sure that you can deal with the 
resource implications here?
    In other words, if we were going to put the same level of 
security around our installations in Germany or in England as 
we are doing in Kosovo today, that is an enormous bill, and 
there are issues with host nation countries. How are we going 
to be able to do that?
    So I know General Franks spends a great deal of time on 
this, as we both do, looking at all of the various airfields 
and all of the various ports that we have where our airplanes 
fly into and our ships go to refuel, so it is an enormously 
difficult issue. We try to work it with good intelligence.
    It is less than perfect intelligence. I know that I 
probably get 15 messages a day from the intelligence community 
that say something is about to blow up in Europe. That is 450 a 
month, and you cannot disregard them. You have to look at every 
one of them, do the very best you can to say, is this real, or 
is this a false report, and how do you keep all the people down 
the line in the squadrons and in the battalions who get these 
same messages, how do you keep them focused that this is not 
somebody crying wolf?
    I do not have a solution to that. I am not complaining 
about it, but I am trying to at least make people be aware of 
what we are trying to deal with on a day-to-day basis.
    General Franks. Senator, if I could add to the same thing, 
I think one of the points General Ralston just made is a very 
important point, that point having to do with the specificity 
of intelligence.
    As we looked at the U.S.S. Cole attack, and as we thought 
our way through ways and places where we can close seams and 
provide better force protection for our people, I actually 
directed a bit of an inquiry into the issue of threat 
information received. Senator, I will tell you that in the 12 
months that preceded U.S.S. Cole, our headquarters received 
127,000 messages that indicated, as General Ralston mentioned, 
that there was the potential for difficulty associated with our 
forces in this region.
    To increase the specificity of this information, I will add 
to what General Ralston said, which is very important to us as 
we move through time. The business of bringing together 
agencies, improving our human intelligence capability, 
improving our ability to analyze the information we have, in my 
personal view, is a first major step, which our Defense 
Department is undertaking now, to move us in the direction of 
providing better force protection.
    Now, sir, knowing that that is not precisely the intent of 
your question, I will talk a little bit about the military 
construction that we have going on in our area. We have more 
than 20 projects underway, and the chairman would remember when 
General Tony Zinni, my predecessor, came before the committee 
after the U.S.S. Cole, at the chairman's request and at the 
request of Senator Levin. General Zinni talked about waivers 
for force protection, and we have, in fact, about 20 of those 
associated projects across our area of responsibility, 
associated in some cases with the stand-off that we are able to 
provide from our installations and so forth.
    So we have worked very hard, and the work did not begin 
with the U.S.S. Cole, and it did not begin with me. It has been 
ongoing for several years, to work our way through these places 
where we perceive that we have a problem. If you look at the 
money involved in this over the next 5 or 6 years, with the 
help from this committee, as well as from the other body, we 
have put about $150 million to this task.
    Now, interestingly, the host nations where we keep our 
forces, as the chairman rightly pointed out, in harm's way, 
have put about $350 million to this task. So it is this work 
that I believe we need to continue over time that talks to 
quality of life, certainly, but force protection is a major 
piece of our quality of life effort.
    Thank you, sir.
    Senator Ben Nelson. Thank you very much.
    Chairman Warner. Thank you, Senator.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. First, General 
Ralston, about your comments on Montenegro. It seems to me from 
what I know of the history of Montenegro, Kosovo and Republika 
Srpska, and the other pieces of the Balkan puzzle, that we 
should differentiate between Montenegro and some of the other 
very complex areas.
    It was independent for many years, so it has a history, or 
had a history of independence. Its vote is coming up. It will 
probably be a close vote, but nonetheless it will be a 
democratic vote. I think we should, number one, in light of its 
history of independence and in light of the fact that it may, 
in fact, opt for independence, or some variety thereof in the 
near future, that it may not be wise for us to suggest that 
there would be an unraveling in Kosovo or Republika Srpska or 
other areas should that event occur.
    I am not an expert. I am far from it, on that history. But 
just from what I do know about it, I would simply say I think 
we should be a little cautious at least about kind of lumping 
some areas which have some different histories into one general 
commentary.
    I will leave it at that. I more than welcome your comment 
on it, though.
    General Ralston. Senator Levin, I think you are exactly 
right, and I did not intend to imply a value judgment on the 
outcome of that vote. That is for the people of Montenegro and 
the people of the FRY to decide. I was merely trying to make 
the point that those issues will be in the debate. Whether they 
should or should not, I agree. I am not trying to make a value 
judgment on what it should be, but it will start a debate on 
those issues, was my point.
    Senator Levin. But to help us in the debate, I think it 
would be probably useful to at least incorporate the fact that 
there are some differences in the histories of the areas. I am 
going to start doing some historical reading myself. I am 
really talking to myself more than to you, I think. I think it 
is important that we have at least the beginning of that 
historical background. I am again going to gain that for 
myself, in the event that that is what the people of Montenegro 
opt for.
    On Macedonia, we have a very complicated situation there, 
General Ralston. We have the Albanian extremists, the rebels 
there who seem to have burst on the scene fairly quickly. I 
think there probably was plenty of advanced warning of what was 
happening. Nonetheless, from kind of a press perspective, or 
our perspective, it seems to have come quite suddenly.
    In the Presevo Valley we have had a lot of attention 
focused on that problem, but now we have allowed the Yugoslav 
Army to enter a small area in that valley--apparently a 3-mile-
wide ground safety zone on the border of Kosovo and Macedonia; 
agreed in principle to the entry of that army into a larger 
ground safety zone area; and then there's the question of what 
the limitations are on their presence, both the army and the 
special police, both in that narrower area into which they have 
been allowed, and into the border area.
    Basically, if you could give us a thumbnail sketch as to 
how the situation is unfolding, what the dangers are, and how 
you see us responding to those dangers.
    General Ralston. Yes, sir. Let me ask for the chart. Put 
the chart up with the ground security zone on it.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    While they are doing that, this ground security zone is a 
5-kilometer-wide ribbon, if you will, that goes around Kosovo.
    You can use that one, if they can see the green on it. The 
red probably shows up. The red area there is the ground 
security zone that goes around Kosovo, and as I say, this was 
instituted back in June 1999 as part of an agreement with the 
Federal Republic of Yugoslavia and NATO, and what it is, it was 
for the force protection of the KFOR forces.
    We did not want the then-FRY army bringing their tanks and 
their artillery and putting it right up on the border where 
they could threaten the KFOR forces with no warning, so we 
said, you cannot have heavy weapons, tanks, artillery, VJ army 
forces in that 5-kilometer-wide zone.
    Now, as we have gone through the democratic changes in 
Belgrade, starting last September and then again in December, 
with the parliamentary elections, and as the FRY and Serbia try 
to reenter the international community, the chances of the VJ 
army attacking KFOR have declined tremendously.
    The unintended consequence of this ground security zone, 
since we were not in there and the FRY military was not in 
there, was that the extremist elements set up camp in this free 
zone, if you will, and that was causing its own instability and 
its own threats.
    So the North Atlantic Council has made the decision, as you 
mentioned, that we will do a phased and conditioned return of 
this ground security zone back to the FRY. Phased means a piece 
at a time, and we started with the first piece, which is the 
piece just north of the Macedonian border. That was done on the 
13th of this month, 13 March.
    There were certain conditions that were agreed to by the 
FRY before they did that, and I will not take you through all 
of them, but basically it said, they will not bring tanks in 
there. They do not really need tanks in there to do that. They 
do not need self-propelled artillery and that kind of thing.
    That reentry went very smoothly. They cooperated very well. 
They showed us their plans. There were phase lines as they came 
across. They reported in. The very last one, right up against 
the border, we have checkpoints, where our soldiers and their 
soldiers meet so that we are not shooting across the border 
inadvertently, so all those procedures are in place.
    The North Atlantic Council is looking at the next phase of 
this, which will be most of the northern part of that, all the 
way around to the east border. That should happen, I would 
think, here in the next few days, and once again, if that goes 
well, then we will look at the more contentious area, which is 
over on the eastern border.
    There is still some work to do, because once again this is 
not just a military problem, this is a political and economic 
problem as well, and in those areas in blue on that map, where 
the ethnic Albanian majority have been denied political access 
and economic access for a number of years, that needs to be 
addressed by the Serbian authorities.
    But to summarize, I think the conditions in the so-called 
Covic Plan, which was the Serbian Deputy Prime Minister, said 
that the Serbian authorities would, in fact, give political 
access and some economic opportunities to the Albanian 
citizens, and we would give the Serbs access back to the ground 
security zone. I think that is working well. I think that is 
the proper approach. We need to keep working through this.
    Chairman Warner. Senator Inhofe, we have some people who 
have traveled a long distance, and their message is directly 
germane to the line of questioning that you raised with our 
witnesses earlier, so at this point in time I recognize you to 
proceed as you desire.
    Senator Inhofe. Thank you, Mr. Chairman. General Franks, 
earlier in this hearing I brought up the fact that you are 
responsible for the quality of training of those individuals 
who serve in the Persian Gulf many times in a combat 
environment, and from the East Coast deployments where our 
battle groups go, we have learned sometime ago that there is 
only one place where you can get the integrated live training 
to give them that degree of competency to carry out those 
missions.
    That is the island of Vieques and, because of the problems 
that have come up, starting about a year ago, we have been 
inhibited from having the freedom to carry on the live fire 
training on this island, on this land that is owned by the 
United States Navy.
    In fear that we would lose this, I took the time to go 
around the world, look at every possible alternative source, 
including Capa del Lata and Cape Rath and all the rest of them, 
and there is none. In fact, they are becoming fewer and fewer 
as each month goes by.
    For that reason, I have spent quite a bit of time in Puerto 
Rico, and then actually on the island of Vieques. A lot of 
people do not realize, Mr. Chairman, that Vieques is a 
municipality of Puerto Rico. It is not a separate system, it is 
a town, but it is an island.
    I had the occasion to go over to the island and actually 
visit with the citizens, and I did this, Mr. Chairman, for one 
very significant reason, and that is that I had heard all the 
opposition from the politicians on Puerto Rico, but I had not 
heard it from the citizens who were directly affected, who live 
on the island of Vieques.
    Let us keep in mind there are 9,300 residents in Vieques. 
Of that, there would be something less than 4,000 registered 
voters in Vieques. The way the law is currently structured, it 
is very likely that there could be a referendum as to whether 
or not they want the Navy to continue live fire. Obviously, if 
it turned out the wrong way, our presence and our activity on 
the whole island of Puerto Rico would be diminished.
    But I think it is very significant, Mr. Chairman, as I 
introduced you to the group out in the hall, to recognize that 
in my trips to Vieques, I have met with these citizens, only to 
find that the majority of the citizens on the island of Vieques 
that would be directly affected--not the politicians in Puerto 
Rico, but the citizens--like the Navy, by and large.
    They recognize that the Navy needed some improvement, they 
have improved the relationships, and they are satisfied with 
it. They recognize the economic benefit to the people of 
Vieques, and I invited them to come here to the United States, 
to Washington, so that we would be able to see what the real 
people on Vieques want.
    The leader of the delegation, Mr. Chairman, is Luis 
Sanchez. I met with these people on the island of Vieques.
    Chairman Warner. Senator, I think it would be important if 
they came forward.
    Senator Inhofe. Would you come forward at this point. You 
have all of your petitions with you. If you would come forward 
to this side of the table so we can see you, as I saw you in 
Vieques. The second gentleman there is Luis Sanchez, who is the 
leader of the group, and these are all citizens.
    They are carrying with them, Mr. Chairman, over 1,700 
petitions, signatures of registered voters on the island of 
Vieques. On those, they have listed their names, addresses, and 
social security numbers and registrations of all 1,700. As you 
can see, this almost constitutes a majority of everyone who 
lives on the island of Vieques. I thought it was significant 
that, since I could not get anyone to listen to me back here on 
what the people of Vieques want, as opposed to the politicians 
on Puerto Rico, that they come forward and show this.
    If you just put those on the table there. I am not sure 
whether it would be in order or not, Mr. Chairman, I would 
defer to you on that, but if you would like to hear from any of 
them, or if you would like to ask questions of these 
individuals----
    Chairman Warner. Well, I think that you and I should first 
indicate that a copy of one of these petitions will be 
incorporated into today's record. This clearly indicates that 
there is a very substantial number of the citizens of Vieques 
who support the ongoing naval operations that existed when I 
was Secretary of the Navy, many years ago, 30-plus years ago. 
This training is so essential, as General Franks has recounted 
today, to preparing elements of the Navy and the Marine Corps 
for going into harm's way, that this is a clear manifestation 
of the desire of those people to work with the United States 
Government and particularly our military to resume that 
training as it was performed for many years.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. Mr. Chairman, I know that when you were 
Secretary of the Navy you had an appreciation for what was 
going on over there, but let me clarify. It is much more 
significant than just these individuals. 1,700-plus are 
supportive of the Navy. All of these people are signing a 
petition saying, if necessary, they would secede from Puerto 
Rico and become a separate entity and vote themselves out so 
that they would be able to do what has been taking place since 
1950, in terms of supporting the Navy, and offering us the kind 
of training that gives us the quality that we need in that war-
torn region of the Persian Gulf.
    I think it would be significant, Mr. Chairman, if each one 
gave the recorder his name so that we would be able to properly 
enter them into the record.
    Chairman Warner. We will see that that is done.
    [The information referred to follows:]

    Mr. Luis E. Sanchez
    Mr. Ralph Perez

    Now, Senator, I think what we are going to do, unless there 
are further comments from yourself or our other colleagues, 
Senator Levin and I are recommending that this committee stop 
this open portion of the hearing. We will resume a classified 
session in room 222 Russell immediately.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Rick Santorum

      ARMY TRANSFORMATION GOALS AND OBJECTIVES AND STRATEGIC LIFT

    1. Senator Santorum. General Ralston and General Franks, the Army 
has initiated a transformation process that is designed to result in a 
lighter, more deployable and mobile force. Recognizing the Army will 
provide you with the bulk of your ground force should military action 
be required in your theater of operations, what are your views of the 
Army Transformation goals and objectives? To what extent has the Army 
initiative addressed concerns you might have about strategic 
responsiveness? Do we have the strategic lift assets required to 
execute established deployment goals and objectives?
    General Ralston. There is high probability that, in the USEUCOM 
AOR, there will be repeated demands at the center of the spectrum of 
conflict, as well as the possibility of high intensity small-scale 
contingencies. USEUCOM has been engaged in 25 operations since October 
1996. The average number of operations per year has doubled since the 
years 1991-1995.
    Responding to this reality, the Army has articulated a new vision 
for a strategically responsive and dominant force to effectively meet 
the full spectrum of future military operations.
    A key benefit for USEUCOM is the ability to rapidly move lighter 
vehicles within the theater. As a potential force provider to other 
unified commands, most notably U.S. Central Command, future commanders 
will find that enhanced mobility of the Transformed Army also enhances 
deployability. The capability to deploy within a matter of hours to 
trouble spots in Africa and less developed countries of Eastern Europe 
offers a range of options that are simply unavailable today.
    The operations conducted by USEUCOM over the past decade have 
required the use of ground forces that are not necessarily structured 
or equipped for small scale contingency operations. The two divisions 
in Europe must meet this standard of responsiveness and strategic 
dominance by resourcing the training, exercises and infrastructure that 
support strategic mobility. Only through proper resourcing of our two 
divisions will this Objective Force be able to provide the 
deployability, maneuverability, and lethality necessary to conduct 
operations throughout the full spectrum of conflict.
    The current level of strategic lift assets is not adequate to meet 
the full range of requirements, primarily due to identified intra-
theater lift joint requirements and to the consideration of missions 
additional to those directly supporting the two major theater war 
scenario. In accordance with Mobility Requirements Study 2005, DOD 
should develop a program to provide 54.5 MTM/D (Million Ton Miles per 
Day), the airlift capacity for a single major theater war while 
supporting other high priority airlift missions. The program should 
consider capabilities that could be provided by additional C-17s, 
additional services that could be provided by commercial operators, and 
sources that could be useful for missions of short duration.
    General Franks. I support any and all efforts by each of the 
services to increase the deployability and mobility of combat forces. 
Having few assigned forces within the CENTCOM AOR, I rely on the rapid 
deployment of forces to meet contingency requirements (as long as the 
U.S. Army keeps them modernized and sustainable). The faster lethal, 
survivable and sustainable ground forces deploy, the more likely it is 
that I can successfully protect and defend United States interests in 
the region. [Deleted].
    The Army's pre-positioning system gives CENTCOM adequate strategic 
responsiveness for responding to the region's major theater war 
threats. The Army transformation initiative will enhance my command's 
ability to meet smaller scale contingencies, especially if urban 
operations are required. CENTCOM however, has not participated in any 
qualitative analysis pertaining to future force structure and 
deployment platforms.
    All CENTCOM operation plans and concept plans are executable. 
However, risk within some of these plans remains high in the early 
phases, in the large part due to strategic airlift deficiencies. Given 
the distance to the CENTCOM AOR, the small number of assigned forces 
and still developing regional infrastructure, strategic lift is one of 
my concerns.

                      LAND FORCES MODERNIZATION  

    2. Senator Santorum. General Ralston, the Army currently provides 
the bulk of our forces in the Balkans, where they are serving our 
Nation very well in difficult circumstances. These operations are 
clearly stressing the equipment we have in the region and there appears 
to be no relief in sight. What are your concerns regarding the 
modernization posture of the land forces you have at your disposal? 
Based on what you see in the land forces that are currently deployed, 
where would you focus modernization efforts to ensure that our forces 
have the best, most modern equipment available?
    General Ralston. Based on U.S. Army, Europe's (USAREUR) experience 
in the Balkans, the gap between the equipment in the active Army and 
the Reserve Army is widening, particularly the equipment in the War 
Reserve Stocks/Army Prepositioned Stockage (APS).
    To take some examples, Bradley fighters in the APS are older than 
Operation Desert Storm, there are shortages of Single-Channel Ground 
and Airborne Radio Systems (SINCGARS) radios and installation kits, 
fielding delays of rolling stocks, including Family of Medium Tactical 
Vehicles (FMTVs) and Light Medium Tactical Vehicles (LMTVs), as well as 
our 800-series trucks being over 40 years old. The bottom line is that 
when CONUS-based units come to theater, they train with obsolete APS/
War Reserve equipment, and training suffers accordingly.

            TACTICAL MOBILITY OF WHEELED VEHICLES IN DESERT

    3. Senator Santorum. General Ralston, the Army is in the process of 
fielding an interim force that is designed to span a perceived near-
term operational shortfall first recognized during the Persian Gulf 
War. To that end, the Army recently selected a vehicle to serve as the 
armored vehicle that will be used by interim brigade combat teams in 
operations from peacekeeping through full spectrum combat. There has 
been a lot of debate over wheels versus tracks for armored vehicles and 
I don't expect to conduct such a debate here. I am curious, however, 
about any lessons we may have learned in the Gulf about mobility 
tradeoffs between different vehicle types, especially in vehicles 
currently available in the world today. Put differently, what are your 
views about the tactical mobility of current generation wheeled 
vehicles in a desert environment?
    General Ralston. The Army's Interim Armored Vehicle (IAV) 
represents a good step forward towards properly equipping the lighter, 
more mobile, Army of the future. Wheeled vehicles have been used in the 
desert for years with excellent results. The Army's IAV will, in my 
estimation, enjoy the same excellent results as it becomes an integral 
piece of the Interim Brigade Combat Team (IBCT).
    While there have been concerns about the IAV, primarily about the 
amount of protection (armor) and fire power provided in the new 
vehicle, I feel it is unfair to compare the IAV with traditional 
tracked-vehicle tanks, such as the M1A1 Abrams. The IAV was not 
designed to replace the M1, but rather to become an integral part of a 
more mobile, faster, lighter, IBCT. In other words, the IAV is more an 
augment to the foot soldier of Army's Infantry forces, rather than a 
replacement for the heavy armor of the Army's Cavalry forces.
    For a view of the issue from one who has a keen understanding of 
the desert environment as well as armored vehicles operating in combat, 
I recommend you ask General Franks, Commander in Chief Central Command, 
for his views.

                            READINESS LEVELS

    4. Senator Santorum. General Ralston and General Franks, in your 
respective AORs you are responsible for the continuing commitments of 
Operation Northern Watch (ONW) and Operation Southern Watch (OSW). 
These operations continue to require rotational deployments and large 
numbers of tactical aviation sorties flown by an aging fleet of 
tactical fighters. Do you see any indicators in your theaters that 
readiness levels of our tactical air forces are declining?
    General Ralston. The majority of forces provided to ONW are from an 
Air Expeditionary Force (AEF). The balance is comprised of U.S. Navy, 
Marine Corps, and coalition forces. For the past 6 months, the majority 
of tactical aircraft used in ONW came from outside of our AOR. There 
are no indicators that the tactical aircraft assigned to the AEF to 
support ONW from outside our AOR or our own organic tactical aircraft 
are suffering declining readiness levels. As you may know, the 
readiness indicators of many of our fighter aircraft have shown a 
recent increase as the funding for spare parts in fiscal year 1998, 
1999, and 2000 has begun to take effect.
    General Franks. The Services support Operation Southern Watch by 
deploying a wide variety of aircraft including tankers; theater 
airlifters; intelligence, surveillance, and reconnaissance platforms; 
combat search and rescue assets; and several types of fighter aircraft. 
At their current level of activity, U.S. air forces combine for over 
[deleted] sorties per year in support of Operation Southern Watch.
    These forces, whether land or carrier-based, arrive in my AOR fully 
combat ready. On a regular basis they demonstrate superb readiness 
levels by responding to hostile Iraqi actions with strikes on Iraqi air 
defenses in the Southern No-Fly Zone. [Deleted.] From what I have seen, 
the Services are doing an excellent job bringing trained and ready air 
forces to the fight, and I have no doubts about their preparedness to 
perform the missions for which they are responsible.

                     HIGH DEMAND/LOW DENSITY ASSETS

    5. Senator Santorum. General Ralston and General Franks, during 
Operation Allied Force in Kosovo, one of the newly coined terms was 
High Demand/Low Density assets. If these assets were so highly tasked 
in this small contingency, doesn't that indicate we do not have enough 
of these assets to execute the National Military Strategy?
    General Ralston. The term High Demand/Low Density (HD/LD) was 
coined well before Operation Allied Force (OAF). In addition, it is my 
belief that OAF, from an air perspective, was not a small contingency. 
I believe that we do have the assets necessary to conduct the National 
Military Strategy--but that strategy says we will quit all operations 
around the world and devote all our assets to the two MTWs if we are 
required to fight two MTWs. During the Kosovo air operation we 
continued to support all our operations around the world--Operation 
Southern Watch, Operation Northern Watch, Korea, South America, 
peacetime training, etc.
    General Franks. Senator, every geographic Commander in Chief places 
tremendous value on HD/LD assets. They perform unique missions and 
yield great operational benefits. Any time combat operations are 
ongoing, they will be needed continuously.
    While General Ralston will undoubtedly give you the expert answers 
on Operation Allied Force, I would characterize it as more than a 
``small'' contingency. Operation Allied Force placed virtually the 
entire burden of combat operations upon joint and combined air forces, 
causing them to fly sorties at relatively intense rates. Moreover, the 
allies considered it imperative to avoid collateral damage and minimize 
friendly losses, causing heavy use of HD/LD assets to gather 
intelligence and protect our aircraft. Given these factors, the call 
for HD/LD assets is understandable.
    Keep in mind also that Operation Northern Watch and Operation 
Southern Watch continued during Operation Allied Force, as well as 
other operations to monitor countries like North Korea. In other words, 
HD/LD assets performed global missions in addition to Operation Allied 
Force. Had another contingency arisen, the National Command Authorities 
could have diverted HD/LD assets from these other operations if mission 
priorities so dictated.
    The bottom line is that judging whether we have enough HD/LD assets 
is a complex question, and the Operation Allied Force case alone 
doesn't lead to a definitive conclusion. The Secretary of Defense and 
Chairman of the Joint Chiefs of Staff are better positioned to respond 
to the issue of resourcing the National Military Strategy, and may be 
better able to discuss HD/LD assets with you.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

              TRAINING, EQUIPMENT READINESS, AND RETENTION

    6. Senator Allard. General Franks, for several years now we have 
maintained a military presence in the Persian Gulf region. Units 
include naval forces enforcing sanctions, air forces enforcing the no-
fly zones, and soldiers in Kuwait. How are these missions affecting the 
training and equipment readiness of the units involved? What is the 
effect on retention of personnel?
    General Franks. You are correct that the Services support 
operations in the Arabian (Persian) Gulf region with significant 
resources, including over [deleted] personnel, [deleted] aircraft, and 
[deleted] naval vessels on any given day. These forces arrive in my AOR 
fully combat ready and well-equipped to sustain operations as needed.
    My component commanders exploit every opportunity to provide 
quality training for deployed forces whenever possible, consistent with 
operational responsibilities. Some of that training, such as the land 
force training integral to Operation Desert Spring, includes 
opportunities for combined operations and live fires that deployed 
units do not always get at home. From what I have seen, the Services 
are doing an excellent job bringing trained and ready forces to the 
fight, and we do our best to keep them that way.
    If you need more information on what goes into training, equipping, 
and retaining our troops, the Service Chiefs are better positioned to 
address these issues.

                    MILITARY OPTIONS AGAINST SADDAM

    7. Senator Allard. General Franks, what military options are 
available to curtail Saddam's ability to circumvent UN sanctions? What 
military options are available to affect Saddam's efforts to research, 
develop, and produce weapons of mass destruction and ballistic 
missiles?
    General Franks. The options span the breadth of military 
capabilities from passive monitoring of Iraqi actions to applying 
combat forces using kinetic solutions against Iraqi sanction 
violations. Operation Southern Watch and Operation Northern Watch are 
ongoing efforts aimed at keeping Saddam from circumventing specific UN 
resolutions. Operation Desert Spring, which keeps a joint task force in 
Kuwait, exists as a hedge against Iraqi circumvention of other 
sanctions. Maritime Interception Operations in the Gulf deny 
international waters to Saddam's effort to circumvent UN sanctions. 
Other contingency plans exist that use various military capabilities to 
hinder any Iraqi circumvention or respond to violations.
    Saddam's knowledge of United States military intelligence 
capabilities has forced him to go to great lengths in concealing his 
ballistic missile and weapons of mass destruction (WMD) development 
programs, driving up the costs of these efforts and slowing their 
progress. Additionally, Iraq remains dependent on foreign supply of 
some raw materials and advanced technology. Our military capability to 
interdict shipments of sensitive cargoes could potentially hamper Iraqi 
WMD and missile development even further. Our ability to target key 
research and production nodes, as demonstrated in Operation Desert Fox, 
can set back Baghdad's advanced weapons programs for limited periods. 
Ultimately, without an in-country disarmament regime, consisting of 
active and passive surveillance systems, routine and intrusive 
inspections, and export/import controls, Iraq is otherwise unhindered 
from reconstituting its unconventional weapons capabilities.

                 ARMY INTERIM FORCE AND OBJECTIVE FORCE

    8. Senator Allard. General Ralston and General Franks, in your 
statements, both of you mentioned a strong support for the 
transformation of our military. You specifically mentioned a support 
for Army Transformation. How do you see the Interim Force impacting 
your command? How do you see the Objective Force impacting your 
command?
    General Ralston. Interim capability is far better at meeting my 
small scale contingency (SSC) requirements than the current legacy 
ground formations. The interim formations are far more tactically 
mobile and considerably more lethal than light units--they can serve 
just as effectively as a deterrent in these environments and will not 
require near the logistics support of Legacy formations. Bottom line: 
interim is a win-win for the less than very high-end operations that I 
routinely conduct in my AOR.
    However, there exists a strategic gap between SSC mission 
requirements and the theater's force structure design. The heavy forces 
within the theater currently do not provide the optimal level of 
responsiveness required to support SSCs. A forward deployed Interim 
Brigade Combat Team/Interim Combat Regiment would greatly enhance 
CINCEUR's response options for SSCs and will address the risk inherent 
in the strategic gap created by the theater's current force structure 
until the Objective Force is fielded.
    Objective capability will provide many more options than are 
available to me today. I can deploy and employ these formations quicker 
and the situational understanding inherent in the Objective Force and 
its full integration within the joint force can reduce collateral 
effects associated with conflict. Further, by means of its introduction 
deeper into the battlespace (enemy rear) the objective capability will 
contribute to faster conflict resolution.
    General Franks. The Interim Force adds capability that did not 
exist before. The Interim Force increases the lethality and mobility of 
light forces which are more easily deployed and sustained than heavier 
forces. This type of force is well-suited for deployments over long 
distances into regions with still developing infrastructures, such as 
those in the United States Central Command's AOR. I envision the 
Interim Force having a potential in smaller scale contingencies, 
especially operations in urban areas.
    Overall the Objective Force supports our war plan requirements, 
though the transition to the Objective Force needs to be managed 
carefully. The major threats in the Central Region still possess a 
significant heavy ground capability. This threat, the short indications 
and warning available, and the significant distances that must be 
traveled requires an Army preposition system that can match trained 
forces to compatible pre-positioned equipment capable of surviving and 
defeating this heavy threat. The Objective Force must also validate 
that its enhanced reconnaissance, surveillance, and target acquisition 
capability increases the lethality and survivability of transformed 
Army units against tank heavy opponents.

                          INTELLIGENCE SUPPORT

    9. Senator Allard. General Ralston and General Franks, what are 
your most significant shortfalls in the intelligence and communications 
infrastructure? Do you have sufficient satellite communications 
capability? What must we do to ensure we have the capacity and 
flexibility to support mission-essential communications in the next 5 
years? Ten years? Fifteen years?
    General Ralston. Our growing dependence upon information services 
and network-centric command and control to shorten decision times and 
improve force protection capabilities is fundamentally changing our 
intelligence and communications requirements. These changes will tax 
the ability of the intelligence community to rapidly adapt collections 
and analysis priorities to keep pace with the evolving requirements. 
They will also outstrip the capacity of the existing theater 
communications infrastructure.
    Theater intelligence production is augmented by national 
intelligence agency support that is critical to our operational forces 
and engagement strategies. The unique production support provided by 
national agencies places a tremendous demand on the communications 
architecture. The National Imagery and Mapping Agency (NIMA) efforts to 
provide a robust IMINT Tasking, Processing, Exploitation, and 
Dissemination (TPED) system remains one of our greatest concerns. As 
the recent congressionally-directed NIMA Commission concluded, NIMA is 
under-resourced overall, and the U.S. cannot expect to fully realize 
the promise of the next generation of IMINT satellites unless NIMA TPED 
is adequately funded.
    In order to deliver the time-critical intelligence produced at the 
theater and national level, USEUCOM is dependent upon a Command, 
Control, Communications, and Computer Systems (C\4\) infrastructure 
that is routed through networks built largely in the 1940s and 1950s to 
support low-bandwidth voice service. These problems are even worse 
south of the Alps and in the Balkans, while Africa suffers from a near 
total lack of communications infrastructure, with only pockets of 
development in countries like South Africa. These shortfalls force a 
heavy reliance on already limited satellite communication networks. 
This system is insufficient to meet current and evolving high bandwidth 
demands such as worldwide command and control video-conferences, live 
Unmanned Aerial Vehicle (UAV) video feeds, electronic tasking orders 
for our air and land forces, and full implementation of DOD's Global 
Combat Command and Control and Global Combat Support Systems. These 
systems form the foundation of USEUCOM's command and control 
capabilities. Furthermore, current infrastructure does not support 
Information Assurance (IA) measures, potentially allowing our 
collection, analysis, dissemination, and command and control functions, 
to be jeopardized by hostile or inadvertent interference. Finally, 
USEUCOM's satellite communications lack flexibility and its capacity is 
extremely limited.
    This infrastructure needs to be replaced with modern high-bandwidth 
capability within the next 5 to 7 years if we are to realize the full 
potential of the ``information dominance'' that will come from the 
interaction of superior intelligence and information infrastructures.
    General Franks. With regard to the intelligence infrastructure, 
significant shortfalls include: shortages of airborne reconnaissance 
platforms and supporting systems; an intelligence, surveillance, and 
reconnaissance (ISR) capability to locate, track, and target mobile 
missiles; inadequate number of imagery analysts, intelligence 
specialists, and systems maintenance personnel; incompatibilities 
between Service, Joint, and Coalition intelligence systems; lack of an 
end-to-end ISR information management system; and inadequate 
intelligence support to information operations. These have been 
identified as deficiencies via the Joint Monthly Readiness Review 
(JMRR) and ISR Joint Warfighting Capability Assessment (JWCA) 
processes.
    Regarding communications infrastructure shortfalls and satellite 
communications, no, sir, I do not have sufficient satellite 
communications, nor do I have sufficient theater communications 
infrastructure for daily operations or to support a contingency. The 
lack of adequate communications infrastructure and capacity into and 
within the area of responsibility (AOR) severely limits the successful 
dissemination of mission-critical products to the warfighter. Fiber 
optic connectivity is expanding in some of the key AOR countries (e.g., 
Kingdom of Saudi Arabia (KSA), Kuwait, Bahrain, Qatar), however, 
inadequate funding limits CENTCOM's ability to exploit this medium. So, 
I must rely on over-taxed military satellite communications incapable 
of providing the required increases in connectivity should a crisis in 
the CENTCOM AOR arise. Our theater and headquarters communications 
infrastructure is my number two priority item on my IPL and for good 
reason. We need the infrastructure to ensure we can selectively respond 
to the full spectrum of military options and sustain our forces to 
prepare for an uncertain future.
    In the next 5 years, assistance with increased funding to exploit 
available fiber and build an adequate C\4\ infrastructure in the AOR 
would reduce CENTCOM's over-dependence on satellite communications and 
improve reliability and redundancy for critical intelligence and 
command and control voice, data, and video connections. In the next 10 
to 15 years increased bandwidth and modern, reliable, and adequately 
provisioned networks will be critical as new ISR and C\2\ systems are 
fielded.
                                 ______
                                 
           Question Submitted by Senator Joseph I. Lieberman

                          IMPORTANCE OF JSTARS

    10. Senator Lieberman. General Ralston and General Franks, for the 
last 3 years, Congress has added funds to continue procurement of the 
Joint Surveillance Target Attack Radar Systems' (JSTARS) aircraft 
moving the fleet size toward the Joint Requirements Oversight Council 
(JROC) requirement of 19. Would you please give us your view of the 
importance of that system to the U.S. Central Command?
    General Ralston. The JSTARS' ability to acquire, monitor, target, 
and report ground force movement has proven crucial to supporting 
combat operations and maintaining situational awareness during high-
intensity contingency operations in the USEUCOM AOR. JSTARS has 
deployed to USEUCOM three times over the past 6 years: 1995, 
Implementation Forces' (IFOR) move into Bosnia; 1996, Operation Joint 
Endeavor monitoring of the Dayton Peace agreement; and 1999, Operation 
Allied Force in Kosovo. Each of these deployments highlighted JSTARS' 
ability to provide near real time (NRT) indications and warning, force 
protection, situational awareness, airborne command and control, attack 
support, and intelligence collection to commanders. JSTARS' ability to 
incorporate data collected by other sources, and subsequently linked to 
the aircraft, to create fused analysis has been critical to the 
positive identification of the targets and movement it monitors. This 
was particularly important during the Operation Joint Endeavor 
deployment where the system monitored fixed garrisons and the movement 
of small groups of vehicles within civilian traffic. The adaptive use 
of crew and external sensor input via satellite communication has 
proven JSTARS' effectiveness in complex, high-intensity EUCOM 
contingency operations.
    General Franks. JSTARS provides an operational joint airborne 
command and control (C\2\) platform and tactical/operational 
intelligence, surveillance, and reconnaissance (ISR) capability. These 
capabilities provide JSTARS subscribers a terrestrial picture with 
excellent moving target fidelity and unparalleled air-to-ground 
battlespace C\2\ and surface situational awareness. Close air support, 
combat search and rescue, and moving target information distribution 
are evolving capabilities provided by JSTARS. Additionally, the Navy 
and Marine Corps have recently purchased ship-based receiving systems 
to monitor littoral operations which, if netted with the Army and Air 
Force systems, could produce an even keener operational surface picture 
and an enhanced air-land C\2\ structure in and around the Arabian Gulf.
    I strongly desire to validate the importance of JSTARS to U.S. 
CENTCOM with a deployment to the Arabian Gulf region. The last time 
JSTARS was in CENTCOM's AOR was in early 1998 during Operation Desert 
Thunder. The lack of available aircraft and difficulties obtaining 
diplomatic permissions have delayed efforts to deploy JSTARS into the 
CENTCOM AOR this year. Nevertheless, my air component continues to plan 
for a JSTARS deployment this fall.
                                 ______
                                 
               Question Submitted by Senator Bill Nelson

                          CENTCOM HEADQUARTERS

    11. Senator Bill Nelson. General Franks, there has been some 
discussion about the possibility of relocating U.S. Central Command 
headquarters from its current location at MacDill Air Force Base, 
Florida to an undetermined location within your Area of Responsibility 
in Southwest Asia. Given recent terrorist attacks, and the continuing 
threats in the region, this raises understandable concern regarding 
force protection for members of your headquarters and their families. 
At the same time there is understandable concern over the ``7,000-mile 
commute'' members of your command must endure when traveling to and 
from the area. What are your thoughts on the issue of your 
headquarters' location and moving it to Southwest Asia? What steps can 
be taken to mitigate the challenges of command and control from the 
United States and avoid increasing the risks to members of your command 
by increasing our physical presence in that region?
    General Franks. There are currently no plans to relocate the 
CENTCOM headquarters from Tampa to Southwest Asia. Ideally, any 
commander would want to be located in his AOR but the political 
situation and existing infrastructure in the region make this 
unfeasible for the foreseeable future.
    CENTCOM compensates for the separation from its AOR several ways. 
CENTCOM conducts day-to-day operations in the region through the 
command and control of four forward-deployed headquarters elements on 
the Arabian Peninsula. These are the Joint Task Force-Southwest Asia, 
responsible for air operations in the southern no-fly zone; the 
Combined Joint Task Force-Kuwait, responsible for the ground defense of 
Kuwait; Special Operations Command Central (Forward), responsible for 
all of our Special Operational Forces in the northern Red Sea, Arabian 
Gulf, and Horn of Africa; and Naval Forces Central Command (NAVCENT) in 
Bahrain, responsible for all maritime operations in CENTCOM. NAVCENT is 
CENTCOM's only forward-deployed service component headquarters.
    This command and control structure has proven itself a capable and 
robust substitute for a forward-deployed CENTCOM headquarters. 
Technology is the enabler in this process by providing ever increasing 
``reach back'' and even ``reach forward'' capability for communication 
between Tampa and our forward headquarters elements. My staff strives 
to employ the latest technology not only to move information swiftly 
but also to provide redundancy to work around the loss of key nodes or 
capabilities.
    Currently there are four fixed locations in the region that are 
designated as possible CENTCOM forward headquarters locations, should a 
crisis or contingency require moving my battlestaff to the AOR. All are 
on the Arabian Peninsula and access to these facilities is not 
guaranteed in time of crisis. Consequently, we are developing a 
capability to rapidly deploy the battlestaff along with an air-
deployable command post that provides the same command and control 
capabilities I have in Tampa or at any established headquarters in the 
region. There are over 100 C-5 or C-17-capable runways throughout the 
region where we could fly in this deployable command post. The 
technology exists to do this right now; all we require is $10.1 million 
in funding.

    [Whereupon, at 11:42 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        TUESDAY, MARCH 27, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

    UNIFIED AND REGIONAL COMMANDERS ON THEIR MILITARY STRATEGY AND 
                        OPERATIONAL REQUIREMENTS

    The committee met, pursuant to notice, at 9:34 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Smith, Inhofe, 
Santorum, Sessions, Collins, Levin, Kennedy, Cleland, Landrieu, 
Akaka, Bill Nelson, E. Benjamin Nelson, and Dayton.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; and Scott W. 
Stucky, general counsel.
    Majority staff members present: Edward H. Edens IV, Gary M. 
Hall, Carolyn M. Hanna, George W. Lauffer, Thomas L. MacKenzie, 
Joseph T. Sixeas, and Cord A. Sterling.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Richard D. DeBobes, minority 
counsel; Richard W. Fieldhouse, professional staff member; and 
Peter K. Levine, minority counsel.
    Staff assistants present: Kristi M. Freddo, Shekinah Z. 
Hill, and Suzanne K.L. Ross.
    Committee members' assistants present: Dan Twining, 
assistant to Senator McCain; Margaret Hemenway, assistant to 
Senator Smith; J. Mark Powers, assistant to Senator Inhofe; 
George M. Bernier III, assistant to Senator Santorum; Robert 
Alan McCurry, assistant to Senator Roberts; Arch Galloway II, 
assistant to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; Menda S. Fife and Sharon L. Waxman, assistants 
to Senator Kennedy; Barry Gene (B.G.) Wright, assistant to 
Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Andrew Vanlandingham, assistant to Senator Cleland; 
Jason Matthews, assistant to Senator Landrieu; Elizabeth King, 
assistant to Senator Reed; William K. Sutey, assistant to 
Senator Bill Nelson; and Sheila Murphy and Eric Pierce, 
assistants to Senator Ben Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. We hold our second series of 
hearings to receive testimony on the status and requirements of 
our regional commands. We do that in this committee each year. 
It provides us a basis of fact upon which we can then proceed 
to have our long and lengthy series of hearings on the 
authorization bill.
    Last Thursday, the committee heard from Gen. Joseph 
Ralston, Commander in Chief, U.S. European Command; and Gen. 
Tommy R. Franks, Commander in Chief, Central Command. Today we 
are pleased to have Adm. Dennis C. Blair, United States Navy, 
Commander in Chief, U.S. Pacific Command; Gen. Peter Pace, 
United States Marine Corps, Commander in Chief, U.S. Southern 
Command; and Gen. Thomas A. Schwartz, United States Army, 
Commander in Chief, United Nations Command/Combined Forces 
Command and Commander, U.S. Forces Korea.
    I would like to just focus on concerns that this Senator 
has with respect to issues in each of your AORs. In the Asia-
Pacific region, China remains a growing concern. Each year 
there is another incremental set of facts that I think directly 
impacts on our planning here. First, our line of deterrence, 
our effort to work with our allies and friends in that region 
to maintain peace and tranquility, but we note that China will 
increase its defense budget by nearly 18 percent this year.
    I would hope, Admiral, in your testimony you can give us 
the baseline on which that 18 percent is predicated. Very often 
we see significant increases like that, but if you go back to 
the baseline, in real terms so to speak, there is not that 
much. But that is an issue which I have studied, and I would 
like to have your perspective on exactly what you believe the 
18 percent represents.
    This dramatic increase in spending, which will enable the 
further acquisition of many advanced weapons systems, I presume 
many coming from Russia, and the positioning of additional 
short-range ballistic missile launch sites within range of 
Taiwan are matters we have to take into consideration.
    At this point, I am going to do something that is unusual, 
but I have studied it several times, and I will provide each of 
the witnesses with a copy, and that is the Washington Post 
editorial of March 25, titled the Taiwan Arms Decision. In 
reading that, it comports generally with my approach and 
philosophy towards this issue.
    You have just returned, Admiral Blair, from a trip to 
China, South Korea, and Japan, and therefore your insights are 
of particular value.
    Under statute and law, the administration is to consult 
with Congress regarding the annual review of the Taiwan arms 
situation and their ability to defend themselves. 
Representatives of the Departments of Defense and State have 
come up and briefed. I can testify on this side. Yesterday I 
had a special briefing for members of the committee on that 
subject.
    The situation on the Korean Peninsula remains very volatile 
and extremely dangerous. Over the past year, while there 
appeared to be some approachment towards lessening the tensions 
between the north and the south, the fruits of that effort 
remain to be seen in my judgment because we view the actions, 
as well as the words, and the actions reflect that North Korea 
took no significant reduction in any of its massive number of 
troops deployed in that border region. Perhaps you will touch 
on that, General.
    In light of our relationship with South Korea, it is a very 
important one, critical to the overall posture of deterrence in 
the region of the Pacific, and we look forward to your update. 
37,000 U.S. troops--I think that is the number--are stationed 
in South Korea. Accompanying them are many families, and we 
have many industrialists and others from the United States. So, 
we should always be mindful that very significant numbers of 
our own population are right there within the range of weapons.
    Now, in SOUTHCOM, the situation in Colombia and its 
bordering nations is, of course, of great concern. We had an 
opportunity to visit last night with the senior staff, and we 
want to hear from you this morning with regard to your view of 
that situation down there. I take note that my distinguished 
colleague, the ranking member, traveled there with other 
Senators recently, as did our colleague, Senator McCain.
    We continue to support the efforts of the previous 
administration with regard to the $1.6 billion U.S. aid 
package. I say we. I speak for myself and I think the majority 
of this committee. But the precariousness of that situation, 
and particularly the spill-over effect on the adjoining 
nations, is of concern to us. We have our own military 
personnel there now in the position of training.
    These are just some of the issues, and we should have, I 
think, a very informative and profitable hearing from our 
distinguished witnesses this morning.
    If you will forgive my voice. It is not up to prime time, 
but I am still here in every respect. Thank you. At this time, 
without objection, I submit the opening statement of Senator 
Strom Thurmond.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Mr. Chairman, I join you in welcoming Admiral Blair, General 
Schwartz, and General Pace to the second in the series of hearings with 
our regional and warfighting commanders. Our panel represents areas of 
the globe that are an ever increasing political and security challenge 
to the United States.
    In the Pacific, we are confronted by the two sleeping giants, India 
and China, optimistic peace talks between North and South Korea, and 
ethnic strife ready to explode in various parts of the region. In South 
America, the strife in Colombia is forcing the drug lords and their 
operations into neighboring countries threatening to spread our so-
called war on drugs. Although the historical focus of our Nation has 
been toward Europe, in my judgment, the future lies in the Pacific and 
south of our borders. Today's witnesses are bringing a focus on their 
regions and effectively securing our vital national security and 
economic interests. They accomplish their missions despite quality of 
life challenges for their personnel and underfunding of vital readiness 
accounts.
    Mr. Chairman, I look forward to the testimony of our distinguished 
group of commanders and thank them for their professionalism and 
distinguished service to our Nation. I would also like to assure them 
that the committee will take into consideration their requirements as 
we deliberate on the defense budget for fiscal year 2002 whenever it 
arrives.
    Thank you, Mr. Chairman.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. Let me first join 
you in welcoming our distinguished witnesses here this morning. 
They have made great contributions in the past to our Nation's 
security, and their advice and commentary to us is indeed 
welcomed.
    At the outset, let me thank you, General Pace, for your 
assistance and your counsel and your hospitality as three 
colleagues of myself and the chairman of this committee and I 
went to Colombia not too many weeks ago. Senators Reed, Bill 
Nelson, Ben Nelson, and I made that visit. It was a very 
important one for us, and your participation contributed a 
great deal to that importance.
    This morning's hearing takes place as the administration 
continues to conduct a review of existing policies toward 
China, including potential arms sales to Taiwan, and existing 
policies which are being reviewed toward North Korea, Colombia, 
the Andes, and a number of other hot spots in the world.
    In recent weeks, President Bush has expressed support for 
Plan Colombia and for the peace process, but declined to have 
the United States represented at the peace negotiation table.
    In recent weeks, President Bush has expressed skepticism 
about the course of negotiations with North Korea, thereby 
weakening the position of the South Korean president in his 
negotiations with North Korea.
    In recent weeks, the President has characterized the United 
States and China as strategic competitors, quite a contrast to 
the prior characterization of his predecessor of our 
relationship with China as one of strategic partnership.
    There is an impression here and abroad that the 
administration appears to be backing away from U.S. engagement 
in a number of critical areas around the world, from the 
Balkans, to the Middle East, to the Korean Peninsula. If so, I 
am concerned that that disengagement could cause us to lose 
some opportunities to ease tensions in several regions of the 
world and, therefore, lose opportunities to make this country 
more secure.
    So, this is a very timely hearing. There is a huge number 
of issues to be reviewed with our witnesses. I look forward to 
their testimony this morning and the opportunity to ask them 
questions. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Levin.
    Unless other members of the committee have a comment, we 
will proceed to receive the testimony from our witnesses, and 
Admiral Blair, we will ask you to lead off.
    The full statement of all witnesses will be admitted to the 
record.

  STATEMENT OF ADM. DENNIS C. BLAIR, USN, COMMANDER IN CHIEF, 
                 UNITED STATES PACIFIC COMMAND

    Admiral Blair. Chairman Warner, Senator Levin, and other 
distinguished members of the committee, I need to begin by 
thanking all of you for the support that you have given to the 
men and women of the Pacific Command. They know you care and it 
comes through to them. Thank you very much.
    Our priorities in the Pacific Command are readiness, 
regional engagement, transformation of the Armed Forces, and 
resources.
    I must tell you readiness is a mixed picture. We have made 
progress in some areas in the past year; we have lost ground in 
others. We can do our job today, but I remain concerned for the 
future unless we address some of the structural readiness 
issues in operations and equipment, as well as sustainment, 
restoration, and modernization.
    I just returned, as the Chairman mentioned, from a trip to 
China, Korea, and Japan. With our forward-based and our 
forward-deployed forces, we reassure our friends, we are 
deterring our potential enemies, and we are making some 
progress on enhanced regional cooperation which will build a 
security structure which will posture us for the missions of 
the future, as well as those of the past.
    Third, transformation. Working with the Joint Forces 
Command, we are experimenting our way into the future in the 
Pacific Command using our existing exercise program, including 
our allies. Our concept for the future is called a joint 
mission force.
    Finally, resources. Our strategy for the Asia-Pacific 
region is built on a foundation of ready, balanced, forward-
deployed forces with information networks that can enable them 
to move around the theater with confidence and a mobility 
system to get them there quickly. We need sustained funding and 
support for those forces and for the headquarters which direct 
them. It is important because this region is dynamic, because 
America has big security interests there, and our Armed Forces 
play a strong role in there.
    As far as the question that you raised, Mr. Chairman, on 
China, based on my recent trip there I can make a couple of 
points. We probably will want to discuss it further, sir.
    Chairman Warner. Please do. In particular, review the 
package that has come forward from Taiwan, the procedure by 
which it is to be reviewed, both by yourself and the 
administration, and the likely timetable of the announcement, 
to the extent you have knowledge of that.
    Admiral Blair. Yes, sir.
    The requests for arms sales this year were delivered by the 
Taiwan Deputy Chief of the General Staff last fall, and it was 
an extensive list of equipment really across all three of their 
Armed Forces: Army, Air Force, and Navy.
    My role in the process is to evaluate sufficient defense 
for Taiwan across the Taiwan Strait. We do a detailed military 
analysis of the balance of likely developments and trends, and 
then I submit that up the chain for the President to make the 
final decision on which arms should be made available based on 
my military input and other factors.
    That process is in progress right now. The rough deadline 
that we generally set for ourselves is next month, the month of 
April, that we generally reply. We are doing the work now to 
meet that deadline.
    Chairman Warner. When you use the word ``my,'' my 
understanding of that is that it is yourself, of course, as 
CINCPAC. But you take into consideration your senior Army 
commander, your senior Air Force commander. You have also a 
senior Navy commander and a senior Marine commander. So, it is 
a composite of the senior commanders of all of our forces in 
that region.
    Admiral Blair. It is a composite. We benefit from several 
assessments that have been made over the last couple of years 
in which teams have visited Taiwan, have talked with the 
Taiwanese. We have looked carefully at the intelligence and we 
have come to a judgment as to what is the state, both right at 
the moment and the trends in terms of Taiwan's sufficient 
defense, and what would make that defense sufficient.
    Over the long term, the most destabilizing parts of the 
Chinese buildup are their intermediate-range and short-range 
ballistic missiles, the CSS-6s and CSS-7s, of the type that 
were used in 1996 to fire in the waters north and south of 
Taiwan. I have told the Chinese directly on numerous visits, 
including the one last week, that the buildup of these 
missiles, which presently are weapons of destruction, not of 
military significance, but as their numbers increase and as 
their accuracy improves, become militarily significant, will 
force a response by the United States eventually in order to 
maintain that sufficient defense. That really is the most 
troubling aspect of the buildup.
    I talked to the Chinese about the 18 percent increase that 
you mentioned when I was there. I was told at many different 
levels, not simply Beijing, but the field commanders that that 
would largely go for personnel expenses, maintenance, and then 
a certain amount to acquisition. But they understand, as do all 
armed forces, that you need to compensate people beyond your 
conscript force in order to be effective under modern 
conditions, and they are putting some money to that. So, I do 
not translate that directly into weapons.
    They are having mixed success with the weapons that they 
are purchasing from the Russians. It is not just a case of 
having the systems themselves, but the entire logistical 
support, training, and integrating with the mother systems is 
difficult business. As I say, the People's Liberation Army is 
having mixed success in turning those into effective combat 
capability.
    So, my overall assessment, which is in my written 
statement, is that for the near term, the balance across the 
Straits is stable. There are certain trends that have to be 
addressed in order to keep it stable. I emphasized with the 
people I talked with in China that military means are not the 
best way to achieve the one China, which is Chinese policy, 
American policy, that the military side of this equation should 
be kept in the background. The things that will draw China and 
Taiwan are nonmilitary ties, commercial, financial, 
information, travel, those sorts of activities.
    The Chinese agree. They want a peaceful resolution as well, 
but they maintain the right to use force, and we maintain that 
resolution must be peaceful. That is where we are, Mr. 
Chairman.
    Chairman Warner. Do you wish to cover other areas of your 
area of responsibility (AOR)? I think it is important that you 
do.
    Admiral Blair. Why do I not wait for questions, sir, if 
that is all right with you.
    Chairman Warner. We will do just that then.
    [The prepared statement of Admiral Blair follows:]

            Prepared Statement by Adm. Dennis C. Blair, USN

                              INTRODUCTION

    Mr. Chairman and members of the committee: On behalf of the men and 
women of the United States Pacific Command, thank you for this 
opportunity to present my perspective on security in the Asia-Pacific 
region.
    Having served as Commander in Chief, United States Pacific Command 
(USCINCPAC) for over 2 years, I continue to believe, as we enter into 
this century, that a secure, peaceful, and prosperous Asia-Pacific 
region is very much in the interests of America, and the world. 
Alternatively, an uncertain Asia may present only crises and dangers. 
We base our power and influence on our values, our economic vibrancy, 
our desire to be a partner in this critical region, and the forward-
stationed and forward-deployed forces of the U.S. Pacific Command 
(USPACOM).

                DEVELOPMENTS IN THE ASIA-PACIFIC REGION

    Since I last testified before you, developments in the region have 
offered promise and continuing challenges.
Japan
    Japan remains our most important ally in the Asia-Pacific. Although 
the economy is virtually stagnant, Japan remains the second largest 
economy in the world and continues to have a strong economic impact on 
the Asia-Pacific region. Japan hosts nearly 41,000 U.S. Armed Forces 
personnel and serves as a forward-deployed site for about 14,000 
additional U.S. naval personnel. Japan also contributes $4.86 billion 
in host-nation support, the most of any U.S. ally. These forward-
stationed and forward-deployed forces are key for the United States to 
meet commitments and defend American interests throughout the Asia-
Pacific region. The U.S.-Japan alliance is the cornerstone of U.S. 
security interests in Asia, and it is fundamental to regional security 
and peaceful development.
    Over the past year, we made steady progress in strengthening our 
alliance with Japan. The two countries signed a new 5-year Special 
Measures Agreement (SMA) that will take effect on April 1, 2001. While 
the utilities cost-sharing levels are down slightly from the previous 
SMA, the new agreement provides for the same levels of labor cost-
sharing and training relocation costs as those of the previous SMA.
    Over the past year, working groups took the first steps to 
implement the Defense Guidelines. In addition, Japan's Diet passed the 
final piece of Defense Guidelines-related legislation: a law 
authorizing the Japanese Self-Defense Forces (JSDF) to conduct ship 
inspections to enforce UN sanctions. Now that a site for the 
replacement facility for Marine Corps Air Station Futenma has been 
selected in northern Okinawa, detailed discussions have begun over the 
type and scale of the facility. U.S. and Japan ballistic missile 
defense cooperation continued on Navy Theater-Wide research.
    On February 9, 2001, U.S.S. Greenville collided with the fishing 
vessel Ehime Maru, resulting in the loss of the ship and nine lives, 
including students. The U.S. Government and Navy have apologized to the 
Government of Japan and the families of the victims, are evaluating the 
feasibility of raising the vessel, and will provide compensation to the 
victims. The Navy has convened a Court of Inquiry to examine the events 
contributing to the incident and accountability. The U.S. and Japan 
have a strong bilateral relationship whose enduring strength has 
benefited both sides for close to half a century. We believe we will be 
able to move forward from this tragedy in the interests of both nations 
and our peoples.
    The roles and capabilities of the JSDF are slowly evolving to meet 
future challenges. The Japanese Ground Self-Defense Force provided a 
45-man transportation unit as part of the Golan Heights UN 
Disengagement Observer Force. The JSDF has also worked closely with 
USPACOM components to restructure bilateral exercises to develop skills 
for humanitarian assistance, search-and-rescue, non-combatant 
evacuation, consequence management for chemical, biological, and 
nuclear incidents, and complex contingency operations that are likely 
to occur in the future. JSDF is sending observers to Team Challenge, a 
linked series of exercises addressing these missions and involving 
several Asia-Pacific nations. I am also encouraged by the increased 
attention that the JSDF is giving to cooperating with regional armed 
forces--the Republic of Korea in particular.
    I remain deeply concerned about the Shinkampo private industrial 
waste incinerator abutting Naval Air Facility Atsugi. While dioxin 
levels have fallen significantly since Shinkampo completed the 
installation of bag house filters last May, construction has not 
started on a 100-meter smokestack that the Prime Minister of Japan 
committed to building by March 2001. This situation continues to be a 
serious health risk to our servicemembers and their families.
    We must solve individual local issues arising from our forces based 
in Japan. As important, however, is that the U.S. Pacific Command and 
the JSDF maintain the capability to defend Japan and build the 
capability to operate together in order to face the common regional 
challenges of the future--peace operations, noncombatant evacuation 
operations, humanitarian relief and dealing with transnational 
concerns. The Defense Guidelines show the way to the future for the 
U.S.-Japanese alliance and we must proceed in that direction.
South and North Korea
    Last year, the U.S. and Republic of Korea (ROK) began the 
commemoration of the 50th anniversary of the Korean War. About 37,000 
U.S. troops remain stationed in the ROK to deter North Korean 
aggression.
    Political developments in Korea have been breathtaking, highlighted 
by the June 2000 summit between President Kim Dae-Jung and his North 
Korean counterpart Kim Jong-Il. Other North-South reconciliation 
activities included reunions between selected families separated by the 
war, increased aid, and agreements to increase economic links including 
a road and railway passing through the demilitarized zone.
    At the same time, North Korea's military training cycle in the 
winter and summer of 2000 was the most extensive ever, and the ongoing 
winter training cycle remains robust. North Korea continues to maintain 
60 percent of its forces within 100km of the DMZ.
    Given North Korea's continuing significant military capabilities, 
the Republic of Korea and the United States must maintain the deterrent 
power of the Combined Forces Command (CFC). Any changes to the CFC 
posture must come through mutual and verifiable confidence-building 
measures that increase warning times for aggression.
    I remain concerned about the lack of frequency clearances granted 
by the ROK government to U.S. forces for planning and training. For 
example, there are no frequencies cleared to support UAV training on 
the peninsula. Likewise, we are currently limited to only 126 VHF/FM 
frequencies for planning purposes, far short of the over 1,000 
frequencies we would expect in an operational scenario. We will 
continue to work to resolve this deficiency.
    Whatever the future holds, it remains in the interests of both the 
Republic of Korea and the United States to have a continued U.S. 
forward presence on the Korean Peninsula. Recent developments have been 
encouraging. The recent renewal of our Status of Forces Agreement 
(SOFA), the conclusion of the No Gun Ri investigation, and the 
agreement on missile guidelines reflect the mature relationship between 
the United States and South Korea and provide a strong foundation for 
future cooperation on the Korean Peninsula. The Commander in Chief of 
U.S. Forces Korea has also proposed a Land Partnership Plan that, once 
enacted by Korea, will make U.S. force presence less burdensome while 
enhancing training and combined warfighting capability. We also will 
begin negotiations for a new Special Measures Agreement that we hope 
would increase South Korea's financial support for the stationing of 
U.S. troops in the country.
    The Republic of Korea increasingly contributes to meeting regional 
security challenges by contributing 419 troops to peacekeeping in East 
Timor, consulting and cooperating with the JSDF, participating in 
exercises such as RIMPAC (a major, multilateral naval exercise) and 
PACIFIC REACH (a submarine rescue exercise also involving naval forces 
from Japan, Singapore, and the United States), and participating as 
observers in Team Challenge.
China
    During the past year, military developments in China have been 
mixed. A White Paper issued in February 2000 emphasized China's 
commitment to peacefully resolving its differences with Taiwan, but 
also specified conditions that could trigger the use of force against 
Taiwan. Chinese military spending increased, and Beijing continued to 
acquire advanced weapon systems from Russia.
    The People's Liberation Army (PLA) is modernizing and making 
organizational changes in all branches of service to strengthen 
homeland defense, expand regional influence and support sovereignty 
claims to Taiwan and the South China Sea. China continues to increase 
its modern combat aircraft inventory and improve air defenses, 
particularly across the Taiwan Strait. The PLA navy conducted sea 
trials for eventually fielding additional surface ships and submarines, 
continued testing of anti-ship missiles, and received its second modern 
Russian guided missile destroyer. PLA ground forces continued 
downsizing to reduce force structure and increase mobility. The PLA 
missile force continued testing and fielding of newer inter-continental 
and short-range ballistic missiles (SRBM) and is building additional 
SRBM launch sites within range of Taiwan. China's exercise program, 
while extensive, was not explicitly threatening to Taiwan.
    Over the past year, we have reinitiated military relations with 
China on a realistic foundation. We have fashioned policies that offer 
China areas for productive relations, while ensuring that we can deal 
with a more confrontational posture, should it be necessary. We 
emphasize areas of mutual interest and encourage Chinese participation 
in regional security cooperation while maintaining that diplomacy, not 
armed force, should settle disputes.
    We have exchanged visits between senior PLA delegations and U.S. 
counterparts, and ships have conducted reciprocal port visits. PLA 
forces participated in a search-and-rescue exercise in the Special 
Administrative Region of Hong Kong, and four Chinese officials (two 
from the PLA and two from the Ministry of Foreign Affairs) attended the 
Asia-Pacific Center for Security Studies in Honolulu. We have invited 
the PLA to participate in more multinational conferences on topics 
involving regional security cooperation than it has chosen to attend. 
We carefully vet our engagement in accordance with the National Defense 
Authorization Act.
    The Taiwan Armed Forces also continue their restructuring and force 
modernization. A civilian Defense Minister now oversees the Armed 
Forces. The Taiwan military relies heavily on the United States to 
modernize its forces. Through last year's arms sales, Taiwan's Armed 
Forces increased surveillance capabilities and modernized air-to-air, 
air-to-ground and air-to-surface weapons. Taiwan is looking forward in 
its modernization plans by improving a number of bases and 
infrastructure to support acquisition of future weapons.
    As Taiwan modernizes its Armed Forces to ensure a sufficient 
defense, training, inter-service interoperability, and logistics 
support become even more important. The Taiwan Armed Forces will have 
to put resources and attention into these areas to retain the 
qualitative edge.
    Based upon our assessments, I conclude that the changes in PLA and 
Taiwan military forces have not significantly altered the balance of 
power across the Taiwan Strait. Taiwan's military maintains a 
qualitative edge over the PLA, and the PLA still lacks the capability 
to invade and hold Taiwan. China maintains a quantitative edge in all 
branches of service, but does not have adequate power projection to 
quickly overcome Taiwan's more modern air force and inherent 
geographical advantages, which favor defense. Beijing's military 
forces, however, have the ability to inflict significant damage to 
Taiwan.
    We expect China to accelerate military modernization, but pressing 
economic and social issues will temper this effort. Military 
modernization will not decisively alter the military situation across 
the Strait in the next several years. The continuing buildup of Chinese 
ballistic missiles, combined with increases in accuracy, will 
increasingly pressure the sufficiency of Taiwan's defenses. The U.S.-
China-Taiwan relationship will continue to be a critical factor in our 
regional engagement strategy.
India
    U.S. military relations with India have been restricted since 
India's nuclear weapons tests in 1998. Areas for military cooperation 
exist, however. Peacekeeping is the most promising. We have also agreed 
to discuss search-and-rescue, humanitarian assistance, and 
environmental security. The U.S. and India have also set up a working 
group to address counter-terrorism cooperation. The response to India's 
recent earthquake demonstrated the value of cooperation, both civilian 
and military. We are pursuing opportunities to build a foundation for 
closer relations. I believe a gradual strengthening of military 
interaction is in the interests of both countries. The more we work 
with India and Pakistan, the better we can defuse tensions by 
supporting productive relations between those two nuclear-armed 
countries.
Insurgents and Communal Violence
    Beyond Kashmir, which remains a flash point of tension between 
India and Pakistan, insurgents and communal violence affect many states 
in the Asia-Pacific Region.
    Indonesia faces violent separatist movements in Aceh and Irian Jaya 
(West Papua) and sectarian violence in the Maluku Islands and 
Kalimantan. Intense fighting on the Jaffna Peninsula between the Tamil 
Tigers and Sri Lankan Armed Forces continues without significant gains 
by either side. Nepal faces an increasingly troublesome Maoist 
insurgency. For much of the year, the Philippine Armed Forces have 
battled the Moro Islamic Liberation Front (MILF) and operated against 
hostage takers, including the Abu Sayyaf, which took American Jeffrey 
Schilling hostage. Indonesia, Sri Lanka, Nepal, and the Philippines are 
still searching for the right combination of political, economic 
development, and military/police measures to effectively address these 
insurgencies and sectarian strife.
    In Fiji, a coup overthrew the democratically elected government, 
and the Solomon Islands have experienced separatist violence that 
caused a change in government and the evacuation of foreign nationals. 
Also, fighting among various ethnic groups on Burma's borders, much of 
it connected to illegal drug trafficking, has spilled into Thailand.
    Communal violence not only causes suffering and slows the 
political, social, and economic development of countries in the region; 
violence also fosters terrorism, causes refugees to migrate, and 
creates humanitarian disasters that spill across national borders.
Indonesia
    Indonesia is still undergoing major political, social, and economic 
changes after 40 years of authoritarian rule.
    The Armed Forces of Indonesia, or TNI, began reforms in 1999 that 
they have yet to complete. The reforms call for the TNI to become a 
professional, modern armed force, focused on external defense and 
divorced from political practices. The number of TNI seats in 
parliament has been reduced and the police force separated from the 
TNI. However, elements of the TNI have been reluctant to continue 
reforms. The TNI remains a major political force, particularly on the 
local level, and retains the major role in internal security. It has 
not brought under control the militias in West Timor, resulting in the 
deaths of three UN workers and a continuing security threat to East 
Timor, nor has it yet brought to justice any of those who orchestrated 
or engaged on atrocities in East or West Timor. TNI reform is an 
important aspect of restoring order in Indonesia in a manner that 
promotes democratic development and regional security.
    Most interactions between U.S. and Indonesian Armed Forces have 
been suspended until there is credible progress toward accountability 
for East Timor human rights abuses and the return or resettlement of 
refugees. During the past year, limited interaction with the TNI 
involved a Navy humanitarian exercise and Indonesian Air Force 
observers at Exercise Cobra Gold. The objectives of interaction with 
the TNI are to favor reform and build capability for coalition 
operations.
    Under the protection of international peacekeepers, East Timor 
today is generally secure from the militias, but the work has just 
begun to establish a fully functioning society. Our Australian allies 
did a great job in leading this UN-mandated peace operation and remain 
the backbone of the security forces. The Philippines and Thailand have 
stepped forward to assume leadership of the peacekeeping forces since 
it became a UN operation. The U.S. Armed Forces continue to conduct 
operations in East Timor by providing liaison officers, engineers, and 
humanitarian assistance during ship visits.
Philippines
    The Philippines experienced a peaceful transition of power from 
former President Estrada to former Vice President Gloria Macapagal-
Arroyo (GMA). Throughout the period of the impeachment hearings and 
transfer of authority, the Armed Forces of the Philippines (AFP) acted 
with restraint and used constitutional precepts as guiding principles.
    Following the ratification of the Visiting Forces Agreement (VFA) 
in May 1999, the frequency and quality of interactions between U.S. and 
Philippine Armed Forces has also improved. The AFP has actively 
participated in initiatives to enhance regional cooperation and promote 
regional security. It deserves credit for taking a leading and 
responsible role in East Timor, contributing ground forces to the 
International Force in East Timor (INTERFET) coalition, providing the 
first force commander for the peacekeeping force of the UN Transition 
Authority for East Timor (UNTAET).
    The United States maintains its Mutual Defense Treaty with the 
Philippines, and our defense relations have steadily improved over the 
past year. The Defense Experts Exchange, a consultative group 
established between OSD and the Philippines Department of National 
Defense in 1999, has made progress in identifying the Philippines' 
national security and force structure needs. The talks address ways to 
help the Philippines increase readiness and become a more active 
contributor to regional security. Operations with, and assistance from, 
the United States cannot substitute for adequately funded Armed Forces, 
and the Philippines has not yet made the necessary investments.
    The Philippines continues to face significant internal security 
challenges from organizations such as the MILF, the Communist New 
People's Army (NPA) and the Abu Sayyaf Group. This past year, the 
United States initiated a $2 million program using Nonproliferation, 
Antiterrorism, Demining and Related (NADR) program funds to train and 
equip a counter-terrorist unit that will improve the AFP's capability 
to deal with hostage taking and other terrorist incidents.
Thailand
    A strategic ally, strongly oriented to U.S. military training and 
equipment, Thailand aspires to adopt force modernization and 
``jointness'' along U.S. models. Thailand consistently responds 
positively to U.S. requests for access, training, and transit. Thailand 
is one of the nations in Asia most committed to building regional 
approaches to future challenges--peacekeeping, humanitarian assistance, 
and transnational concerns. Exercise Cobra Gold in Thailand is 
developing into a multilateral training event to improve participating 
countries' capabilities to cooperate in peacekeeping and humanitarian 
missions.
    Thailand has taken a leading Southeast Asian regional role in 
support of peacekeeping by maintaining battalion strength forces in 
East Timor. The current military commander in East Timor is Thai LTG 
Boonsrang Niumpradit. We support humanitarian demining in Thailand and 
will transfer that program over to Thailand by fiscal year 2002. Joint 
Task Force Full Accounting Detachment-1 in Bangkok logistically anchors 
our POW/MIA recovery efforts throughout Vietnam, Laos, and Cambodia.
    Within the last year, Thailand has requested U.S. assistance to the 
Royal Thai Army in combating drug traffic across the Burma-Thai border. 
U.S. Pacific Command is in the early stages of establishing a modest 
program of assistance against this common threat. Joint Interagency 
Task Force West (JIATF-WEST) is the standing task force for all 
counterdrug (CD) issues in the theater and has the lead to work 
training, equipment, and organizational coordination initiatives to 
assist the Thais with their CD mission.
Australia
    This year marks the 50th anniversary of the ANZUS treaty, and 
Australia remains America's closest ally in the Asia-Pacific region. 
Australian Armed Forces not only took the lead in East Timor 
operations, but they remain the largest part of the UN security force 
there. They also evacuated civilians and provided peace monitors in 
Bougainville and the Solomon Islands. The Australian government has 
been active in promoting the return of democracy in Fiji and in 
promoting security and peaceful development throughout the archipelagic 
states of Southeast Asia and the South Pacific. Australia has also 
constructively engaged in dialogue with China and North Korea to 
promote peace in Northeast Asia.
    In recognition of our special relationship, we have pursued an 
agreement to exempt qualified Australian firms from U.S. International 
Traffic in Arms Regulations controlling unclassified military 
technology.
    Australia recently completed an extensive Australia Defence 2000 
White Paper that clearly lays out its future defense requirements. The 
White Paper achieved broad national support and general bipartisan 
consensus through a unique consultation process that involved the 
public and all government agencies. The product is a plan to acquire 
the skills and equipment Australia will need to succeed across the full 
range of defense tasks, along with required funding.
Singapore
    Completion of the deep draft pier at Changi Naval Base signifies 
Singapore's contribution and desire for continued U.S. presence in the 
region. Though not an ally, Singapore is a solid security partner in 
the Asia-Pacific region, a vocal proponent for U.S. access, and 
supports and hosts multilateral activities. Singapore hosted PACIFIC 
REACH, a multi-lateral submarine rescue exercise; participated in Cobra 
Gold and in numerous anti-piracy regional conferences; and is planning 
a regional Mine Counter-Mine exercise in May 2001.
    Singapore seeks greater interoperability with the U.S. Armed 
Forces. It views high technology and advanced hardware as a deterrent 
and is increasing its cooperation with the U.S. in joint 
experimentation. Singapore participates with the Extension of the 
Littoral Battlespace Advanced Concept Technology Demonstration (ACTD) 
and is active in other experiments such as the Joint Mission Force and 
Asia Pacific Area Network.
POW/MIA Efforts in Southeast Asia
    Joint Task Force Full Accounting (JTF-FA) continues to make 
progress on achieving the fullest possible accounting of Americans 
unaccounted for as a result of the conflict in Southeast Asia. JTF-FA 
conducted 10 joint field activities (JFAs) in fiscal year 2000--4 in 
Vietnam, 5 in Laos, and 1 in Cambodia. During these JFAs, the JTF-FA 
field teams investigated 219 cases and excavated 44 sites. JTF-FA will 
continue to maintain its robust pace of operations in fiscal year 2001, 
with 10 JFAs scheduled--4 in Vietnam, 5 in Laos, and 1 in Cambodia. 
Each JFA is about 30 days in duration.
    In calendar year 2000, 40 sets of remains previously recovered in 
JTF-FA operations were successfully identified and returned to their 
loved ones. As of January 31, 2001, Americans unaccounted for total 
1,900. In the same period, JTF-FA recovered and repatriated 24 remains 
we believe to be those of unaccounted-for Americans from Southeast Asia 
(17 from Vietnam and 7 from Laos).
    Achieving the fullest possible accounting of Americans is a U.S. 
Pacific Command priority, and we will continue to devote the necessary 
personnel and resources to obtain the answers the POW/MIA families so 
richly deserve.

                    U.S. PACIFIC COMMAND PRIORITIES

    The challenges to security and peaceful development in the Asia-
Pacific region require regional cooperation to address effectively. 
They include:

        --  Unresolved wars in Korea, across the Taiwan Strait, and in 
        Kashmir that have flared, on occasion, but have been restrained 
        for over 50 years.
        --  Conflicting territorial claims such as the Spratly Islands, 
        the Kuril Islands, and the Senkaku Islands.
        --  Major powers--China, India, and Russia--that seek greater 
        roles in regional security.
        --  Communal violence driven by separatist movements and 
        historic grievances.
        --  Transnational concerns--including terrorism, illegal drug 
        trafficking, piracy, and weapons proliferation.

    Our objective is an economically prosperous and interdependent 
region that shares dependable expectations of peaceful change. To 
achieve this objective, the strategy of the U.S. Pacific Command 
involves:

        --  Deterring aggression in Korea;
        --  Determining the future of Taiwan by peaceful means;
        --  Encouraging responsible development of growing powers;
        --  Developing multilateral capabilities to handle complex 
        contingencies and transnational challenges;
        --  Planning for transition as security challenges evolve;
        --  Transforming our Armed Forces to increase their warfighting 
        edge.

    The priorities for the U.S. Pacific Command in executing this 
strategy continue to be readiness, regional engagement, transformation, 
and resources.
(1) Readiness
    During my comments today, I will discuss the status of many 
programs. I should note, however, that the programs I will discuss and 
the associated funding levels may change as a result of the Secretary's 
strategy review, which will guide future decisions on military 
spending. The administration will determine final 2002 and outyear 
funding levels only when the review is complete. I ask that you 
consider my comments in that light.
    U.S. Pacific Command forces must be fully ready to execute any 
assigned mission. Readiness revolves around people. If we are to 
recruit and retain the quality personnel that we need, service must be 
professionally rewarding to the members of our Armed Forces and must 
meet their personal and family needs. If we do not meet their basic 
professional and personal needs, they have many, often more lucrative, 
alternatives to a life of service to their Nation.
    Professionally and personally rewarding service involves confidence 
that financial compensation is fair, that educational opportunities are 
available to prepare for a world that values knowledge, and that 
healthcare is adequate. It also involves the provision and maintenance 
of suitable housing and facilities in which to live and work. It 
involves confidence that we fill personnel billets to match the tasking 
and that we are properly trained to conduct the full spectrum of 
operations expected of us. It involves having the resources to maintain 
equipment in a high state of readiness both during and between 
deployments, and adequate munitions to train and fight. It involves 
adequately protecting our forces on and off duty.
    Pay, Education, and Healthcare. First, let me thank you for all the 
positive quality of life initiatives in the Fiscal Year 2001 National 
Defense Authorization Act (NDAA). The pay raise of 3.7 percent, 
targeted pay table reform for mid-grade non-commissioned officers, 
basic allowance for housing amendments, partial reimbursement for 
mandatory pet quarantine fees, impact aid to help civilian schools 
educate military dependents, and tuition assistance up to 100 percent 
for off-duty education are all outstanding efforts that servicemen and 
women appreciate. Also, thanks to your support, the performance of DOD 
schools is second to none, though we need help in funding operating 
expenses and maintaining infrastructure.
    We greatly appreciate the initiatives of the 106th Congress to 
enhance the TRICARE benefit and its coverage to include our retirees 
over the age of 65. This is the right thing to do--such quality of life 
enhancements favorably impact recruitment and retention and ultimately 
force readiness. Yet, challenges remain in establishing consistent, 
adequate funding of the healthcare benefit in a way that does not 
compromise other essential programs. We must ensure health services 
support functions organic to our operating forces, which are not in the 
Defense Health Program, receive adequate funding and attention within 
the Service POMs.
    Real Property Maintenance. Real property maintenance (RPM) 
continues to reveal the combined effects of aging facilities and under 
funding. The current and accumulating RPM backlog for U.S. Pacific 
Command components will amount to $7.1 billion over the next 5 years, 
assuming no fundamental changes emerge from the Secretary of Defense's 
ongoing strategy review. Funding intended for facilities repair and 
maintenance often goes to more immediate operational needs, and the 
backlog grows. The result is that our camps, posts, and stations across 
the U.S. Pacific Command are shabby and deteriorating. This shortfall 
in real property maintenance affects readiness, quality of life, 
retention, and force protection that we can no longer ignore. Our 
people deserve to live and work in a quality environment.
    Housing. Good top-rate housing that meets family housing goals of 
2010 remains one of my top quality of life concerns. Projects are 
underway, ranging from whole barracks renewals at Fort Richardson, 
Alaska, and Schofield Barracks, Hawaii, to new family housing at Pearl 
Harbor and Kaneohe Bay, Hawaii. Commander in Chief Pacific Fleet 
(CINCPACFLT), Pacific Air Forces (PACAF), and Marine Forces Pacific 
(MARFORPAC) expect to meet the 2010 housing goal if funding continues 
at current levels for their programs. U.S. Army Pacific (USARPAC) 
anticipates adequate housing for Hawaii by 2010 if their Residential 
Community Initiative is successful. However, housing in Alaska and 
Japan will remain inadequate until substantial MILCON funding is 
allocated to their revitalization programs. U.S. Forces Korea (USFK) 
and U.S. Forces Japan (USFJ) also face shortages, forcing 
servicemembers to live off base in Korea and Japan, often in inadequate 
housing. Lack of available real estate acquisition for new housing is 
the biggest obstacle in Japan and Korea. When additional real estate is 
procured, we will need additional MILCON housing funding to meet 
requirements above what host nation-funded construction can provide in 
Japan and Korea.
    Munitions. Although we are beginning to procure additional 
munitions, because they have just recently entered full-rate 
production, or have yet to do so, a number of preferred munitions are 
available only in limited quantities and do not support training and 
operational requirements. Such already limited quantities have been 
drawn down as a result of expenditures in Kosovo and ongoing 
consumption in Operation Southern Watch and Operation Northern Watch. 
Alternative munitions will get the job done, but with greater combat 
risk and losses. Funding to further increase stock levels of preferred 
and precision munitions is a top priority.
    Force Protection. Before the terrorist bombing of the U.S.S. Cole, 
U.S. Pacific Command's Force Protection Program had expanded over the 
last year to include rear-area protection program during increased 
hostilities and critical infrastructure protection. The U.S.S. Cole 
bombing resulted in a command-wide, top-to-bottom review of our 
antiterrorism policies and procedures.
    Funding obtained through the Combating Terrorism Readiness 
Initiative Fund (CbT RIF) has helped with critical emergent 
requirements, but the U.S. Pacific Command still has $110 million in 
unfunded requirements. Joint Staff Integrated Vulnerability Assessments 
(JSIVA) play a significant role in assessing our program and 
identifying requirements.
    Following the U.S.S. Cole bombing, the command began a full 
reassessment of vulnerabilities at ports and airfields not under U.S. 
control. Negotiating force protection memoranda of understanding with 
foreign countries is an ongoing process to ensure clearly delineated 
responsibilities.
    A major challenge is to prevent increased effort from becoming a 
bureaucratic drill rather than a routine way of operating. Instructions 
and checklists help, but they are not enough. Our commanders must think 
tactically about force protection. On every deployment, every exercise 
and even at home stations, we must ingrain force protection in the very 
fabric of our forces. Having said that, terrorists can choose their 
time and place of attack. That gives them an advantage. As long as we 
are engaged around the world, there will be further attacks. Our goal 
is to minimize the impact to our forces.
    Staffing, Training, and Operations. As we exploit information 
technology and revise our organizations, the character of combatant 
command headquarters is changing. Increasingly, headquarters staffs 
perform operational functions that forward forces used to do. As 
examples, my staff in Hawaii provided many logistics, communications, 
and intelligence support functions for our operations in East Timor 
that allowed us to keep the number of U.S. personnel in country to a 
minimum. This further reduced requirements for force protection and 
living support. Also, PACAF is establishing a Joint Air Operations 
Center at Hickam Air Force Base. This center will similarly perform 
many functions of the Joint Forces Air Component Coordinator, reducing 
the number of personnel that must forward deploy to conduct operations.
    As our headquarters staffs become more involved in supporting 
operations 24 hours a day, 7 days a week, in addition to their 
administrative functions, we are finding our staffs working harder than 
before, even as they downsize. We have turned to the Reserve Components 
for help, and they have done a splendid job. But our shortfalls are 
growing, and we are just beginning to exploit the capability that 
information technology gives us to allow forward forces to reach back 
to staffs.
    Increasingly, the measure of staffs to deployed forces is shifting 
from ``tooth to tail'' toward ``brain to brawn.'' While the fiscal year 
2001 NDAA provides some relief from the fiscal year 1998 and fiscal 
year 2000 NDAAs, there is still a requirement for OSD designated 
activities to reduce personnel by 7.5 percent. These additional 
headquarters cuts will hinder our ability to provide effective 
management and oversight of command readiness and operations. It will 
be difficult to execute these reductions in a way that does not impact 
our operational readiness. In the U.S. Pacific Command our staffs are 
fully engaged in operations forward.
    We are experiencing shortfalls not only in available billets, but 
also in the funds needed to train, exercise, and operate our forces. 
Particular areas affecting readiness are funding for flight hours, ship 
depot maintenance, joint exercises, and Reserve support.
    The funds allocated to component flying hour programs (FHP) are 
increasing, but not fast enough to cover escalating costs. The rising 
costs of fuel and spare parts for aging aircraft appear to be driving 
the escalation. These costs may increase even faster in the years ahead 
as DOD aircraft and avionics fall further behind commercial standards. 
The Navy FHP is growing 15 percent annually. PACFLT is facing a $317 
million shortfall in fiscal year 2001. This figure includes a MARFORPAC 
shortfall of $94 million. Both PACFLT and MARFORPAC would exhaust their 
fiscal year 2001 FHP funding by August without reprogramming funds. 
USARPAC's and PACAF's programs also have shortfalls. The Services 
increasingly rely upon supplemental appropriations to avert the 
consequences of unprogrammed escalation in operation and maintenance 
program costs.
    PACFLT's ship depot maintenance program continues to be underfunded 
relative to the full requirement. Growing deferred maintenance backlogs 
have been kept in check largely through execution year supplemental 
funding from Congress. This affects battle group inter-deployment 
training readiness, which continues to decline as training resources 
are continually sacrificed to maintain deployed readiness. Forces enter 
training cycles at low state of readiness, fall to lower levels and 
then ``recover'' rapidly right before deployment. The resultant 
``spikes'' in our readiness curves could become vulnerabilities if 
asked to respond to unforeseen contingencies.
    The ability of U.S. joint forces to fight in a seamless battle 
space and to conduct combined operations with our coalition partners 
will provide the greatest gains in U.S. warfighting capability over the 
coming decade. Joint training represents 5 percent of the operations 
tempo (OPTEMPO) of forces assigned to U.S. Pacific Command. Currently, 
we are well within the congressionally-mandated joint exercise man-days 
reduction directives. Our USPACOM-wide man-day reduction through fiscal 
year 2000 was 32 percent, 7 percent below the objective of 25 percent. 
Simultaneously, we have shaped a solid Joint Training Program. This 
program provides us confidence that our Joint Task Forces (JTFs) are 
ready to fight. Further fiscal reductions to the Joint Exercise Program 
put our JTF and joint warfighting readiness at risk. We need full 
funding of the currently planned minimum exercise program. This 
includes Service Incremental Funding and the Strategic Lift (STRATLIFT) 
provided through the Chairman's Exercise Program. Inflation of flying 
hour costs has increased exponentially over recent years, significantly 
eroding our STRATLIFT buying power. This impacts us greatly in USPACOM 
where STRATLIFT is our lifeblood due to our vast area of responsibility 
(AOR). We need full funding to ensure we get the right forces, to the 
right place, to exercise with the right joint and coalition partners, 
so we can indeed remain ready.
    Shortfalls also exist in funding designed to employ Reserve and 
National Guard personnel. U.S. Pacific Command's Reserve billets are 
based upon a single major theater war. Reservists' 2 week training 
period is sufficient for them to support one major exercise per year, 
which leaves the command short of personnel to support several other 
major exercises in the joint training plan. Defense plans include 
provisions for Reserve personnel to volunteer to support exercises, but 
funds are inadequate to accommodate the volunteers.
    Summary. Overall, the majority of readiness concerns of a year ago 
remain today. While making progress in some areas, we are declining in 
others. I continue to have no reservations about the U.S. Pacific 
Command's ability to do its job today. However, I do have doubts about 
its ability to do so in the future unless we make more progress in 
addressing structural readiness issues.
(2) Regional Engagement
    While readiness prepares us to respond, through regional engagement 
we shape the region to promote security and peaceful development. 
Current circumstances provide the opportunity and the necessity to 
develop more mature security arrangements among the nations of the 
region. Opportunities derive from dynamic regional security 
developments and a new generation of leaders willing to reexamine what 
policies are genuinely in their national interest. Necessity derives 
from strong nationalism, ethnic and religious rivalry, and historic 
grievances that drive desires to settle old scores prevalent throughout 
the region. Steady and focused efforts ensure the region develops in 
ways favorable to American interests.
    Engagement is a process to achieve national objectives, not an end 
in itself. Our efforts improves the ability of regional partners to 
defend themselves, deters potential aggressors, strengthens security 
alliances and partnerships, increases regional readiness for combined 
operations, promotes access for American forces to facilities in the 
region, and promotes security arrangements better suited to the 
challenges of the 21st century.
    Enhanced Regional Cooperation. Over the past year, the U.S. Pacific 
Command has worked closely with the Joint Staff, Office of the 
Secretary of Defense, and the interagency community to develop enhanced 
regional cooperation. The objectives of enhancing regional cooperation 
have been to improve regional readiness for combined operations and to 
expand the set of states in the region that share dependable 
expectations of peaceful change.
    Transnational concerns affect all states in the region in varying 
degrees. Many of the states in the region contribute armed forces and 
police to UN peacekeeping operations. Terrorism, weapons proliferation, 
illegal drug trafficking, illegal migration, piracy, and other 
transnational criminal activities represent problems that require 
regional cooperation. Some of this is police work and some of it is 
military work. Different countries organize differently. Since 
adversaries operate freely without regard for borders, seeking support, 
bases of operation, and weak points to attack throughout our region, 
the only way to win against them is international cooperation.
    By developing capabilities to work effectively as coalitions in 
complex contingencies (such as East Timor); as partners in countering 
terrorism, illegal drug trafficking, and piracy; in managing the 
consequences of chemical, biological, or nuclear attacks, natural 
disasters and accidents; in evacuating citizens caught in the path of 
violence; in search-and-rescue of mariners in distress; and in 
providing humanitarian assistance, the armed forces of the region 
improve their readiness to contribute to combined operations. Working 
side-by-side on these missions builds confidence and trust among the 
participants as it improves operational capabilities. It provides a way 
for states that want to exert more influence in the region to do so in 
constructive ways that contribute to regional security. It provides the 
United States with competent coalition partners so that our Armed 
Forces need not shoulder the entire load.
    The U.S. Pacific Command's efforts to enhance regional security 
include expanding dialogue among the armed forces of the region, 
developing standard procedures and training staffs to use them, and 
exercising to hone our capabilities and learn where to improve.
    In addition to my visits around the region and those of my 
component commanders, U.S. Pacific Command sponsors a wide range of 
activities to promote regional security dialogue. The Asia-Pacific 
Center for Security Studies (APCSS--see Appendix A) brings together 
military officers from around the region at the colonel/brigadier level 
and government officials of equivalent grades for a 12-week course. 
APCSS also conducts a 1-week course for more senior officers and 
officials, and hosts about five conferences each year. The U.S. Pacific 
Command also hosts annual conferences on military operational law and 
logistics, and for the past 3 years has held a conference for Chiefs of 
Defense from around the region. These conferences have been very 
effective in promoting military cooperation against common threats.
    At the Chiefs' conference, we also demonstrated our new Asia-
Pacific Area Network (APAN). APAN is a non-secure web portal, which 
provides an internet-based communications and collaboration ability for 
the armed forces of the region and civilian organizations that 
participate in complex contingencies to share sensitive, but 
unclassified, information. On it, we have begun web-based collaboration 
by posting standard procedures for combined operations. These web pages 
have mechanisms so that anyone can suggest improvements. Like many 
things on the web, no government signs up to use these procedures, but 
they are available for those who need them. Web-based planning and 
distributed simulations are also possible to add new, affordable means 
to build regional capacity. Additionally, the APAN concept provides a 
simple and economical means to provide a networking of institutions and 
training centers with this new form of collaboration and information 
exchange. These networks will be the building blocks for Asia-Pacific 
Security Communities that were previously unaffordable.
    We also have held Multinational Planning Augmentation Team (MPAT) 
conferences to refine procedures, and conducted workshops to train 
staff officers from around the region as a cadre of Asia-Pacific 
military planners ready to reinforce a multinational force 
headquarters. We rely on lessons learned in East Timor and other 
peacekeeping operations to improve the region's capability to conduct 
combined operations. In November, the Philippines hosted an MPAT Staff 
Planning workshop attended by 18 nations, non-governmental 
organizations, and UN representatives. Many armed forces in the region 
want to improve their abilities to work together, and use APAN to 
continue their MPAT dialogue between workshops.
    Team Challenge links bilateral exercises Cobra Gold with Thailand, 
Balikitan with the Philippines, and Tandem Thrust with Australia to 
address bilateral training objectives and to improve the readiness of 
regional armed forces to contribute to multilateral operations. This 
year Singapore will participate and other nations, such as Japan and 
Korea, will observe with an eye toward participating in future years. 
In Team Challenge we will exercise elements from the full spectrum of 
missions that our combined forces may be called upon to do together, 
from complex contingencies to humanitarian assistance.
    These are examples of efforts to enhance regional security 
cooperation. As we progress, we find many requirements to coordinate 
better on logistics, intelligence and other aspects of our operations, 
and take steps such as developing a coalition-wide area network 
(successfully employed in RIMPAC, our multinational naval exercise). 
With cooperation from the nations of the region, and the initiative 
that my staff and my components have demonstrated, enhanced regional 
cooperation and security communities have grown from a concept to a 
substantial approach for promoting security and peaceful development 
over the past year.
    The reactions to the U.S. Pacific Command's efforts have been 
largely positive, with some reservations. Some allies have expressed 
concern that multinational efforts will dilute the quality of our 
bilateral relations. For enhanced regional cooperation to succeed, we 
must strengthen our traditional bilateral relations, focusing our 
efforts on capabilities to pursue common interests, and then reach out 
to other nations in the region. The Team Challenge planning efforts 
have demonstrated our commitment to meeting bilateral training 
objectives and enhancing them with skills required for coalition 
operations.
    Other nations have expressed concerns that this is a precursor to 
the United States reducing its involvement in the region. Quite the 
contrary! By improving our capabilities to work together, the nations 
of this critical region can more effectively address the broad range of 
security challenges that none can solve alone.
    Also, some nations fear that it is a scheme for containing China. 
Instead, it is a way to encourage China to contribute to regional 
security in constructive ways. We welcome the fact that China has sent 
15 police officers as part of the CIVPOL contingent to East Timor. We 
would welcome greater Chinese involvement in peacekeeping such as they 
provided in Cambodia in 1994. The last class at APCSS included two 
Peoples Liberation Army (PLA) officers and two officials from the 
Ministry of Foreign Affairs. They learned that many nations in the 
region share American security concerns and that cooperation in many 
areas is in China's interest. The way ahead in U.S. Pacific Command's 
relations with the PLA is, with the support of other armed forces, to 
encourage cooperation in areas where our Nations genuinely share mutual 
interests, while maintaining that disputes must be resolved peacefully. 
As with many nations in the region, we must work to transform PLA 
leadership mindsets from measuring differences in military power to 
measuring progress in regional security.
    The $10 million in Asia-Pacific Regional Initiative (APRI) funds 
provided by Congress in fiscal year 2000 and $24.6 million provided in 
fiscal year 2001 have been essential to the initiatives to enhance 
regional cooperation. The dollars we invest in these regional 
activities pay huge dividends in U.S. security.
    Currently, U.S. Pacific Command interactions with armed forces of 
14 of the 43 nations in the region are restricted in some form. Some of 
these restrictions are in the U.S. interest. Others, I question. I 
encourage the close review of restrictions to ensure we have drawn the 
lines at the right places. The objective is to build relationships and 
influence for the long term as we exact penalties in the short term.
    Foreign Military Officer Education (FMOE). One area where I would 
recommend eliminating restrictions is in foreign military officer 
education. The experience of American officers who have attended 
foreign military colleges provides an unparalleled understanding of how 
foreign armed forces see their role and approach operations. Similarly, 
foreign officers who attend American military colleges develop an 
understanding of the value of professional armed forces, removed from 
politics and subordinate to civilian government authority. They come to 
appreciate that reliance on force to resolve internal disputes, rather 
than political accommodation and economic development, stokes the fires 
of rebellion and drives away investments needed for national growth. 
They also acquire a deeper appreciation of America's interest in 
maintaining international security so all may prosper. The contacts 
they develop with Americans and officers from their region establish a 
network for dialogue and become particularly valuable as they assume 
leadership roles within their armed forces.
    International Military Education and Training (IMET). We should 
also examine restrictions on many aspects of our IMET program. 
Education is a long-term investment and the IMET program, a main source 
of funding for FMOE, is our primary tool in this effort. I believe 
unrestricted IMET programs are fundamentally in the national interest. 
Some say military education is a reward for countries that behave 
according to international standards. On the contrary, military 
education is a valuable tool we use to gain influence with foreign 
militaries. Military training--teaching tactical skills and equipment 
maintenance--should be carefully tailored and controlled. However, 
military education--study at command and staff colleges--introduces the 
ideals of democracy, civilian control of the military, and respect for 
human rights, and should be available to all. Many reform-minded, pro-
U.S. military leaders in the Asia-Pacific region today are IMET 
graduates who strongly advocate a continued U.S. presence and 
engagement in Asia.
    IMET is a modest, long-term investment to help build a secure, 
peacefully developing Asia-Pacific region. Following a declining trend, 
with your help U.S. Pacific Command's funding for IMET is now on the 
right path. In fiscal year 2000 we received $6.659 million for 17 
countries, and in fiscal year 2001 our budget is about $7.2 million for 
19 countries. Further increases would yield real benefits to U.S. 
security.
    UN Convention on the Law of the Sea. U.S. ratification of the UN 
Convention on the Law of the Sea (UNCLOS) is another action that would 
enhance regional security cooperation. Many Asia-Pacific countries 
assert excessive maritime claims that challenge navigation rights. Over 
the past few years, parties disputing territory in the South China Sea 
have shifted their approach from occupying reefs to negotiating over a 
Code of Conduct. In this and other disputes, the U.S. position is that 
agreements should be in accordance with UNCLOS. Ratification will 
strengthen our hand in demanding compliance with UNCLOS requirements 
and in countering excessive maritime claims.
    Summary. We have continued to make significant progress this year 
in better structuring our engagement programs in the Asia-Pacific 
region to advance U.S. interests. Through continued emphasis on 
education, dialogue, standard procedures, staff training, improved 
communications, exercises and coordination on matters of common 
interest, we will continue to expand the set of nations in the Asia-
Pacific region that share dependable expectations of peaceful change. 
We will enhance regional cooperation and access of U.S. forces to 
facilities in the region, strengthen alliances and security 
partnerships, and deter aggression.
(3) Transformation
    Transformation involves changes in operational concepts and 
organizational schemes that take advantage of technology to provide 
decisive advantages in warfare. The Armed Forces of the United States 
are committed to leading that change in the 21st century. At U.S. 
Pacific Command, our transformation strategy is based on two parallel 
initiatives--technology insertion efforts such as the Advanced Concept 
Technology Demonstration (ACTD) program run out of OSD and the Joint 
Experimentation program that is led by U.S. Joint Forces Command.
    Since I last spoke with you, U.S. Pacific Command has been rewarded 
for its aggressive pursuit of ACTDs with 3 fiscal year 2001 new start 
ACTDs and a fourth ACTD-like project, bringing the total number of 
ACTDs we are involved in today to 13.
    The Tactical Missile Systems-Penetrator ACTD will provide a 
penetrator weapon designed to deal with specific high threat targets in 
Korea within 3 years. The Coalition Theater Logistics ACTD will provide 
vital logistics command and control capabilities for coalition forces 
operating in campaigns similar to that in East Timor. The Hunter 
Standoff Killer Team ACTD will provide vital joint C\4\I capabilities 
to engage time critical targets and massed armor. The Coalition Rear 
Area Security Operations Command and Control (CRASOC\2\) is an ACTD-
like project in that it will have streamlined management and early 
operator involvement. CRASOC\2\ will develop force protection C\4\I 
capabilities to improve coordination between U.S. security forces and 
host nation police and military agencies for improved protection of our 
forces stationed overseas.
    The Advanced Concept Technology Demonstration program is serving 
U.S. Pacific Command well. We need such programs designed to get 
advanced technology rapidly into the field for evaluation and 
experimentation.
    The pace of joint experimentation in the U.S. Pacific Command has 
increased since I last testified before you. Over the past year, U.S. 
Pacific Command has supported U.S. Joint Forces Command in the Unified 
Vision and Millennium Challenge series of experiments and planning 
conferences. We participated in Joint Warrior Interoperability 
Demonstration (JWID) 2000 as a primary demonstration site and the 
Combined Task Force Commander's headquarters in the Pacific Scenario. 
We have agreed to team, as host CINC, with the Joint Staff and U.S. 
Marine Corps in the execution of JWID 2002-2003 and have already 
stepped forward to influence the C\4\ISR interoperability challenges 
that will be addressed. We continue efforts to develop joint 
interoperability at the tactical level through the Expanding the 
Littoral Battlespace (ELB) ACTD. With the support of U.S. Joint Forces 
Command and the Services, we have made significant progress in 
developing the Joint Mission Force (JMF) concept into a capability.
    A Joint Mission Force is a seamless Joint/Combined Pacific Theater 
response force capable of accomplishing the full spectrum of missions 
from a complex contingency through humanitarian assistance and of 
serving as the leading edge of a major war. This force will execute 
operations more effectively, rapidly, and efficiently than we can 
today. This transformation effort has moved from its infancy into 
wargames and exercises that enhance our ability to rapidly form and 
deploy a Joint Task Force. We have identified the top 10 challenges to 
more effective Joint Task Force operations and have made significant 
progress in developing procedures to address them. We also have 
incorporated JMF and other mature experimentation into our exercise 
program.
    We have concentrated our efforts over the past year on the 
improvements we need to establish a relevant, common operational 
picture and communicate tasking and information among the headquarters 
of components of a Joint Task Force. Our JMF Command and Control 
exercise program, or C\2\X, is identifying clear requirements to enable 
a JTF and assess where specific deficiencies exist, with the intent of 
fixing deficiencies by 2003. We are receiving strong support from the 
Services in rectifying these deficiencies that are basic to our joint 
warfighting capability. The greatest gains in warfighting capability 
that we will see over the coming decade will come from our ability to 
eliminate seams in the battlespace and let all units assigned to a 
Joint Task Force exploit their full potential. We have received 
significant financial and staff support from U.S. Joint Forces Command 
in taking the JMF concept from its infancy to a near-term capability. 
By including our allies and close security partners in our wargames, we 
ensure that our JMF efforts are in harmony with our other efforts to 
improve regional readiness for combined operations.
    Australia, Japan, Korea, and Singapore all have the technological 
resources to work with the United States in developing advanced warfare 
capabilities. We share information on our efforts with these countries, 
and work together to improve coalition interoperability at the high end 
of military technology.
    Some have expressed concerns that by strengthening coalition 
capabilities and working with potential adversaries on skills required 
for peacekeeping operations and complex contingencies, we are 
jeopardizing our warfighting edge. The reverse is true. We are 
continuing to widen the gap in warfighting capabilities between the 
United States, its allies and partners, and potential adversaries. As 
we experiment, we improve our readiness, enhance regional cooperation, 
and transform our forces to meet the challenges of the 21st century.
    Indeed, U.S. Pacific Command's priorities of readiness, regional 
engagement, and transformation are not wholly distinct activities. Let 
me try to bring this idea alive by describing a visionary Western 
Pacific deployment of a carrier battle group (CVBG) on its way to the 
Arabian Gulf.
    During workups, the battle group acts as the Navy component of a 
joint task force under a realistic exercise scenario. The battle group 
maintains a common operating picture with a JTF commander's 
headquarters and subordinate Service components. During that time, it 
experiments with a new C\4\ system being developed by the Army--for 
example a new version of the Coalition Wide Area Network--holding 
common operational picture checks with brigade headquarters in 
Australia, Singapore, and the Philippines.

        --  As the battle group approaches Japan, it forms a two-
        carrier task force, and conducts an area access exercise 
        involving Japanese and ROK forces in both coalition and 
        opposition force roles. The battle group joins the Japanese 
        Global Command and Control System (GCCS).
        --  It then integrates into the Korean area air defense and 
        conducts experiments integrating joint and combined fires, 
        including live ordnance fire on ranges.
        --  The task force then transits from Korea down to the South 
        China Sea.
        --  It exercises operational deception, employing information 
        from national technical means to evaluate effectiveness.
        --  It conducts Antisubmarine Warfare (ASW) exercises, working 
        the seams between CVBG and area ASW in littoral regions, 
        developing new concepts and establishing C\4\SIR requirements.
        --  It exercises area air and missile defense with an Air Force 
        component out of Okinawa and Guam, working Air Tasking Order 
        improvements and experiments with information operations, and 
        routinely operating with Global Hawk to hone new joint 
        concepts.
        --  The transit culminates with a dissimilar air engagement 
        exercise with Singapore and port calls in South East Asia. 
        During the port calls, battle group officers hold seminars with 
        counterparts in host countries to improve coalition 
        interoperability at the tactical level.

    All of this could be done in 10-14 days. What would we have 
accomplished?

        --  Increased readiness of all forces involved, to respond to 
        contingencies;
        --  Conducted regional engagement that both reassured allies, 
        and deterred those who would use aggression to impose their 
        will;
        --  Made progress in transforming the way we operate, both to 
        take advantage of emerging technology and to address emerging 
        challenges.

    This vignette illustrates that readiness, regional engagement, and 
the transformation of our Armed Forces are not distinct efforts, 
accomplished by separate organizations at separate times. We do them 
together, with operational units. If we experiment and adapt, we are 
increasing our readiness, while we make the evolutionary changes in 
technology and concepts which will lead to the transformation of 
warfighting. If we do them with our allies and security partners, we 
have the most effective kind of military engagement.
    Transforming our Armed Forces to maintain their leading edge and 
interoperability with coalition partners is essential to protecting 
American security interests in the 21st century. Several members of 
Congress have been active in pushing us to pursue this program, and we 
need your continued support and leadership.
(4) Resources
    The U.S. Pacific Command's ability to execute its strategy rests on 
its ability to command ready, forward-deployed and forward-stationed 
forces, to move them where they need to be in the theater, and to 
reinforce them in the event of a major war. Ultimately this depends on 
the resources Congress and the American taxpayers provide us. In this 
section, I will discuss resources in several key areas that are 
important to the Pacific Command's strategy.
Command, Control, Communications, and Computer Systems (C\4\) 
        Capabilities
    Information technology is changing every aspect of warfare in an 
evolutionary way and warfare as a whole in a revolutionary way. From my 
perspective, C\4\ support fits into three main categories: (1) an end-
to-end infrastructure; (2) the capability to integrate and process data 
into usable information and make it available when needed; and (3) the 
protection of information.
    First, the end-to-end enterprise enhances the ability to command 
and control forces and consists of a space segment, a downlink 
capability, and the ground segment.
    The U.S. Pacific Command's vast area of operations, covering 52 
percent of the earth's surface, requires forces to rely heavily on 
strategic satellite communications (SATCOM). Since my testimony to you 
last year, we've made great strides in many of the SATCOM programs. For 
example, we accelerated the Advanced Extremely High Frequency program 
to compensate for a Milstar launch failure; agreed to launch a third 
Wideband Gapfiller System satellite to complete global coverage as the 
Defense Satellite Communications System constellation replacement; and 
scheduled the launches of the three Milstar satellites. The challenge 
is to keep these critical satellite programs on track.
    As I also stated last year, my Joint Task Force commanders and 
deployed units must have access to the strategic defense information 
infrastructure, the Global Information Grid, or GIG. This capability is 
critical to providing them with vital command, control, and 
intelligence information. I strongly supported the DOD Teleport 
program, as did many of my fellow CINCs, and I am now satisfied that 
this program is on course.
    Advances in the space segment and downlink capability provide 
little value if we cannot push the information out to the user. The 
base, post, camp, and station infrastructures must keep pace. Since we 
still have antiquated cable plants, network wiring, and end-user 
equipment, we must attack this ground infrastructure as aggressively as 
we have the space segment. The recent decision that injected 
significant funding into the U.S. Army's European and Pacific theaters 
is a tremendous boost in our fight to keep pace with technology, and I 
applaud your and OSD's efforts in directing that funding to us. 
However, requirements go beyond the U.S. Army. The U.S. Air Force, 
Navy, and Marine Corps are also encountering the same problems and 
require much-needed funding support if we are to modernize entire 
theaters. While single-Service efforts significantly help in the 
modernization battle, we realize maximum payoffs when we collectively 
raise all Services to the same capability level.
    Not to be overlooked in the end-to-end infrastructure is the 
frequency spectrum. We must proceed cautiously with the sell-off of DOD 
frequencies since that loss directly translates into potential 
operational risks. Once we sell them, they are forever unavailable for 
military use.
    The second C\4\ category involves converting data into useful 
information that will optimize synchronous planning and execution, and 
improve decision support. At the heart of this requirement is 
interoperability and accessibility. Interoperability allows all parties 
to share the same capabilities and information, while accessibility 
allows them to get the information they require when and where they 
need it.
    The Global Command and Control System (GCCS) is the backbone of the 
joint and combined command and control capability. Yet, Service 
variants of GCCS are not fully interoperable with the joint version. 
For example, the GCCS Integrated Imagery and Intelligence application 
being developed for the joint version of GCCS is falling behind, while 
the Services continue to modernize their individual intelligence 
applications. To fix this, we must mandate new C\4\ systems be joint 
`from cradle to grave.'
    There are also GCCS incompatibilities in combined operations; for 
example, GCCS-Joint and GCCS-Korea. These two systems share some common 
operational picture data, but do not share information via files, e-
mail, and other web service tools. Obstacles to combined 
interoperability lie in information release restrictions. Our allies 
understandably restrict release of their classified information. 
Likewise, we want to control release of U.S. classified information. To 
achieve effective combined interoperability, we must develop much more 
capable security procedures and sophisticated tools to allow 
information exchange while protecting our national and allied data.
    Technology is changing the way the warfighter prepares, trains, and 
executes the mission. We must develop a mindset promoting innovation 
and technology insertion. It is through continued support of Advanced 
Concept Technology Demonstrations, experimentation programs, and 
exercises with our coalition partners, that we find ways to improve 
interoperability and enhance capabilities. We must put more emphasis on 
acquisition by adaptation, put proven prototypes into a joint field 
environment, and mature them through a tight spiral development cycle. 
Information is power, and a fully interoperable atmosphere allows us to 
collaborate with coalition partners, share operational pictures, 
increase the speed of command, and ultimately, win the day.
    Obviously, sharing information among Services, sub-unified 
commands, and coalition partners is a complex security challenge. That 
leads me to the third category, information assurance (IA). How do we 
provide access to, and share information with, Asia-Pacific countries 
while protecting U.S. and coalition-sensitive data from potential 
adversaries?
    To improve IA in the U.S. Pacific Command, we are taking several 
measures. We are evaluating the Automated Intrusion Detection 
Environment. Our Theater C\4\ISR Coordination Center is building a 
theater IA common operational picture (COP) (similar to the COP we use 
in the command and control arena) and tracking intrusion attempts and 
methods. We also are working closely with the Defense Information 
Systems Agency on an improved configuration that will provide full 
coverage of external connections to our Pacific networks.
    Yes, we can improve IA in the theater; however, to do so requires a 
heavy investment in people and additional hardware. The payback is not 
always as easily recognizable as with the production of new airplanes, 
ships, or tanks. You cannot touch and feel information protection, but 
a loss of critical or time-sensitive information or a denial of service 
can be far more detrimental to national security than a single weapon 
system. I request your continued support as we implement IA into our 
daily operations.
    As you can see, C\4\ is a major concern in the Pacific and my top 
resource priority. While we have made great strides recently in 
addressing satellite communications shortfalls, we still have a long 
way to go. We must now focus on modernizing the ground infrastructures 
and ensuring the protection of our networks and the information that 
traverses them.
Intelligence
    Intelligence is essential to monitor potential adversary 
developments and preparations so that we can train our forces for the 
threats that they face and move them into position in a timely fashion. 
Shortages of airborne intelligence, surveillance, and reconnaissance 
(ISR) assets--U-2s, RC-135s, EP-3s, significantly impact USPACOM's 
readiness ratings. These shortfalls diminish our situational awareness, 
early indications and warning (I&W), and deep knowledge of the 
capabilities, plans, and intentions of key theaters in our area of 
responsibility. Although Joint Staff-planned allocation of airborne 
reconnaissance assets is adequate for routine operations in the Pacific 
Theater, we do not have the surge capability to monitor crises or 
cyclical increases of potential adversary activities. Other chronic 
shortfalls in high priority intelligence include linguists, tactical 
signals intelligence (SIGINT) systems, intelligence specialists, and 
intelligence interoperability.
    The core of intelligence analysis and dissemination in the theater 
is the Joint Intelligence Center Pacific (JICPAC), located near Pearl 
Harbor. JICPAC's operational efficiency and impact suffers because 
almost 100 JICPAC personnel must work in a revamped hangar at Hickam 
AFB, due to space limitations in the main JICPAC facility. These split-
based operations cost almost $300,000 per year for the separate 
facility, as well as lost time and efficiency. In addition, JICPAC's 
building, in a vulnerable location near a major highway, presents a 
serious force protection issue. At the same time, the Kunia Regional 
SIGINT Operations Center (RSOC) occupies an aging facility, built in 
1945, renovated for cryptologic operations in 1979, and then updated 
throughout the last 20 years. Collocating the RSOC with the new JICPAC 
facility on an intelligence ``campus'' would improve intelligence 
exchange, analytical dialogue, and efficiencies in infrastructure.
    Advances in global telecommunications technology continue to place 
enormous pressure on the need to modernize both national and tactical 
cryptologic capabilities. USPACOM supports the National Security 
Agency/Central Security Service's (NSA/CSS's) strategic transformation 
actions and changes undertaken in the last year. NSA must transform to 
address the global net, but warfighters' knowledge of adversary 
battlefield communications will also continue to be a high USPACOM 
priority. NSA must be funded to continue modernizing tactical SIGINT 
collection capabilities, operations of the RSOC and accompanying land-
based collection architecture, addressing ELINT collection shortfalls, 
and operations of the Information Operations Technology Center (IOTC).
    Specifically, NSA needs more capable, joint tactical cryptologic 
systems. Rapid advances in widely available communication technology 
have rendered obsolete much of the current inventory of tactical 
cryptologic systems. At the same time, the Services' R&D funding has 
declined. NSA and the Services must continue to aggressively pursue 
standards and common architectures, such as the Joint Tactical SIGINT 
Architecture.
    Increased HUMINT capabilities are critical to support collection 
against strategic and operational requirements in the Pacific. 
Improvements are needed to enhance collection against key USPACOM 
indications and warning requirements and hard-target organizations and 
countries. Continuing investment in theater-based HUMINT resources, 
specifically computers and communications capabilities, is essential to 
improve collection against hard targets. Any further Defense HUMINT 
Service (DHS) reductions will adversely impact USPACOM-based U.S. 
Defense Attache Offices (USDAOs), field operating bases, and DHS 
support to key USPACOM collection requirements and contingency 
operations. The USDAO system, in particular, already is experiencing 
serious resource constraints in the USPACOM AOR.
    The Nation's future imagery and geo-spatial architecture will 
deliver unmatched capability, including enhanced imagery collection 
provided by unmanned aerial vehicles and the future imagery 
architecture. However, USPACOM warfighters will not reap the full 
benefits of this capability without full tasking, processing, 
exploitation, and dissemination (TPED) investment. A robust TPED 
architecture is essential to ensure that dynamically tasked national, 
airborne, and commercial imagery and geo-spatial products connect the 
sensors to the analysts and, ultimately, to the tactical consumers. 
Services and agencies must institutionalize the need to properly 
program resources that incorporate TPED capabilities. Progress is 
occurring and CINC interests are being addressed. However, we will work 
to identify outyear funds to meet substantial portions of Senior 
Warfighting Forum priority requirements. Specifically, the Services 
must work with National Imagery and Mapping Agency to fund the 
capabilities needed to make Joint Vision 2010/2020 a reality. These 
include required technical enhancements to theater digital 
infrastructure, advanced analytical exploitation tools, and improved 
imagery analyst training (especially for advanced sensor products).
    Asian linguist deficiencies are acute and a documented USPACOM 
readiness concern. Despite additional student slots at the Defense 
Language Institute, there are recurring and persistent shortages of 
Asian linguists to meet Operation Plan (OPLAN) and Contingency Plan 
(CONPLAN) requirements. Also, resources for low-density linguists in 
support of probable Noncombatant Evacuation Operations (NEO) continue 
to be problematic. Service recruiting and retention shortfalls, coupled 
with the inherent difficulty of Asian languages and the longer training 
periods required, aggravate these deficiencies.
Mobility Infrastructure and Strategic Lift
    With congressional and Service support, we have made solid progress 
in correcting deficiencies in our mobility infrastructure. A total of 
15 MILCON projects are either in work or programmed through fiscal year 
2004. We will apply supplemental MILCON funding for fiscal year 2001 to 
critical en route and currently unfunded infrastructure projects, such 
as those at Wake Island.
    We support the fiscal year 2001 MILCON language that would restore 
MILCON contingency funding. While we are making headway with some near-
term MILCON projects, sustained funding is still required. The 
continued appropriation of resources is absolutely essential to 
maintain an upward trend and complete the necessary repairs of our 
aging mobility infrastructure.
    In addition to a well-maintained mobility infrastructure, 
contingency throughput in our theater largely depends on strategic 
lift. As identified in the recently released Mobility Requirements 
Study 2005 (MRS-05), there are ``areas where improvements are needed in 
mobility programs. . . An airlift fleet of 49.7 million-ton-miles per 
day, (the previous established level), is not adequate to meet the full 
range of requirements.'' I fully support the MRS-05 recommendation that 
``DOD should develop a program to provide [additional] airlift 
capacity.''
Army Prepositioned Stocks (APS-4)
    A key logistics and sustainment shortfall remains in Army 
Prepositioned Stocks (APS-4) in Korea. Sustainment shortfalls limit 
ability to reconstitute the force and sustain missions, resulting in 
increased risk. Major end item shortages include M1A1/A2 tanks, MLRS, 
HEMTT fuelers, and some chemical defense equipment. Equipment shortages 
currently total about $450 million. Lack of repair parts and major 
assemblies within the APS-4 sustainment stockpile will directly impact 
the ability to return battle-damaged equipment to the fight. The Army's 
current plans are to cascade additional equipment into the APS-4 
sustainment stocks over the next couple of years, thus reducing this 
shortfall.
Infrastructure in Japan and Korea
    The Host Nation-Funded Construction (HNFC) programs in Japan and 
Korea provide almost $1 billion annually in new construction to support 
U.S. Forces. However, the United States must fund the initial project 
planning and design (P&D) effort. For fiscal year 2001, the U.S. Army 
Corps of Engineers allocated $20.5 million for the HNFC program. This 
is a return on investment of 46:1. Continued congressional support for 
the planning and design funding is critical.
    One provision of the latest Special Measures Agreement is that 
Japanese Facilities Improvement Program (JFIP) funds can no longer be 
used for ``revenue producing'' projects. Examples of projects 
disallowed in the fiscal year 2001 program were Army and Air Force 
Exchange Service warehouses, exchanges, commissaries, and gymnasiums. 
The effect of this provision is that additional MILCON funding will be 
required for the Services, Defense Logistics Agency, Army and Air Force 
Exchange Service, Navy Exchange, Defense Commissary Agency, and DOD 
schools to support quality of life initiatives for our servicemembers 
in Japan. We will need strong congressional support for these MILCON 
projects when programmed. There has not been a MILCON project completed 
in Japan since 1989.
New Headquarters Building
    I would like to offer my thanks again for your support for the new 
U.S. Pacific Command Headquarters building. We held the groundbreaking 
ceremony in February and are on track to provide a facility designed to 
support the 21st century.
Security Assistance
    Security assistance funding in the Pacific theater is an important 
component of my theater engagement strategy.
    Foreign Military Financing (FMF). For fiscal year 2001, two U.S. 
Pacific Command countries will each receive about $2 million in FMF: 
Mongolia, to increase its border security capabilities; and the 
Philippines, for critical aircraft and patrol boat spare parts. State 
Department has allocated FMF for East Timor, as those funds meet 
legislative requirements.
    Enhanced International Peacekeeping Capabilities (EIPC). The Asia-
Pacific region needs better capabilities to respond collectively when 
the United Nations or the nations of the region determine that an 
international response is required. Approximately $2.2 million in 
fiscal year 2001 EIPC funds have been requested for five Pacific 
Command countries, to either enhance existing or establish new 
peacekeeping operation (PKO) training centers. These well-spent dollars 
are helping our neighbors share the PKO burden around the world.
    Nonproliferation, Antiterrorism, Demining, and Related Program 
(NADR), and Overseas Humanitarian Disaster and Civic Aid (OHDACA). NADR 
funding has helped the Philippines improve its ability to deal with 
terrorists, and, in combination with DOD OHDACA money, has done much to 
reduce the threat of unexploded ordnance in Thailand, Cambodia, Laos, 
and Vietnam. Anticipated fiscal year 2001 funding will expand demining 
operations in those countries.
    These security assistance programs, along with IMET, are crucial to 
our continued engagement in the Asia-Pacific region, and I request your 
continued support in their funding.
Center of Excellence in Disaster Management and Humanitarian Assistance 
        (COE)
    Since its beginning in 1994, the Center of Excellence in Disaster 
Management and Humanitarian Assistance has bridged the gap between 
civil and military activities related to humanitarian emergencies. 
Historically an annual increase to DOD appropriations has funded the 
COE. Collaborating the resources and strengths of governmental and non-
governmental organizations, the Center of Excellence has participated 
in relief efforts following floods in Vietnam and Venezuela, 
earthquakes in Turkey and Taiwan, and population displacement in Kosovo 
and East Timor. The Center's approach to response, education and 
training, research, and consulting for disaster relief has become the 
model for successful interaction between the military and private 
humanitarian organizations.

                               CONCLUSION

    In summary, Asia-Pacific issues are growing in importance on the 
American security agenda. Our people are the foundation for everything 
that we do, and providing professionally rewarding service must be our 
first concern. Next must be our strategy, and ensuring that we have the 
capability to sustain our forward basing, support increasingly 
information-rich operations, and the mobility to move our forces across 
this vast theater and across the globe. The coming year will continue 
to present challenges for the United States in the Asia-Pacific region. 
We neglect developments in the region at our peril, but with sustained 
attention we can help build a region which will support American 
interests over the long term.

                               APPENDIX A

Asia-Pacific Center for Security Studies
    The Asia-Pacific Center for Security Studies (APCSS) is a regional 
studies, conference, and research center in Honolulu. Established in 
September 1995 as a preventive defense and confidence-building measure, 
its mission is to enhance cooperation and build relationships through 
mutual understanding and study of comprehensive security issues among 
military and civilian representatives of the United States and other 
Asia-Pacific nations. The cornerstone of the Center's program is the 
College of Security Studies, which provides a forum where future 
military and government civilian leaders from the region can explore 
pressing security issues at the national policy level within a 
multilateral setting of mutual respect and transparency to build trust 
and encourage openness. Central to the College's effectiveness are the 
relationships forged between participants that bridge cultures and 
nationalities. Full and unobstructed participation by all nations in 
the region, to include such countries as Indonesia and Cambodia, is 
essential to achieving this. Complementing the College is a robust 
conference and seminar program that brings together current leaders 
from the region to examine topical regional security concerns, 
including peacekeeping, arms proliferation and the role of nuclear 
weapons in the region, and energy and water security.
    The Center directly serves to further our regional engagement goals 
in several ways. First, it serves as a resource for identifying and 
communicating emerging regional security issues, within the constraints 
of non-attribution. Second, the Center functions as an extremely 
effective ``unofficial'' engagement tool to continue critical dialog in 
cases where official mil-to-mil relations are curtailed. Recent 
conferences and regional travel involving contact with, or 
participation by, prominent representatives from China highlight this 
role. Additionally, the Center frequently coordinates or hosts 
conferences addressing topical issues of interest to the U.S. Pacific 
Command or the region. Finally, the Center serves as a forum for 
articulating U.S. defense policy to representatives from the region. 
Authorization to waive certain expenses as an incentive for 
participation, and expanded authority to accept domestic and foreign 
donations to help defray costs are crucial to the continued success of 
the Center.

    Chairman Warner. Now, General Pace.

STATEMENT OF GEN. PETER PACE, USMC, COMMANDER IN CHIEF, UNITED 
                    STATES SOUTHERN COMMAND

    General Pace. Mr. Chairman, members of the committee, it is 
really an honor to have this opportunity to appear before you 
this morning, and thank you very much for that.
    I would like to reserve most of the time available to 
answer your questions so we can get to the meat of what you 
want to know about, sir.
    I would like to mention two things up front.
    First is to thank you, sir, and the very strong bipartisan 
support of this committee that has enabled your Armed Forces to 
be as strong as we are to do what we do. Visits such as that 
led by Senator Levin and the members of his delegation and 
Senator McCain and the members of his delegation are very 
tangible evidence of the concern and leadership of our Congress 
and this Senate and this committee, and we very much appreciate 
that.
    Second, sir, it is my great honor for the last 6 months to 
be the Commander in Chief of the U.S. Southern Command. The 
soldiers, sailors, airmen, marines, and coastguardsmen with 
whom I serve are absolutely first class, sir. They are 
wonderful young men and women. It is a distinct honor to serve 
with them. I would just like to highlight before this 
committee, sir, that your Armed Forces in this Nation are 
extremely well-served by the young folks who volunteer today.
    With that, sir, I would like to answer your questions.
    [The prepared statement of General Pace follows:]

              Prepared Statement by Gen. Peter Pace, USMC

                              INTRODUCTION

    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to present my assessment of security in Latin 
America and the Caribbean. I would also like to thank the Members of 
Congress and particularly this committee for your outstanding support 
to the United States Southern Command (USSOUTHCOM). I appreciate your 
interest in USSOUTHCOM's area of responsibility (AOR) and the support 
you have consistently provided to our mission with partner nations in 
this theater.
    Since assuming command of USSOUTHCOM 6 months ago, I have traveled 
to 21 of the 32 countries and 3 of the 14 separate territories in my 
assigned AOR, visiting many of the Andean Ridge nations several times. 
I have met key military and civilian leaders in the region, and I have 
worked to ensure Southern Command's plans and initiatives are well-
coordinated with the Joint Staff, the Office of the Secretary of 
Defense, and other U.S. government agencies. My visits to our 
neighboring nations have provided important insights to the region and 
its leaders, as well as to specific challenges and opportunities.
    In this statement, I will provide the committee our strategic 
assessment of the AOR, highlighting the most serious transnational 
threats that challenge the growth of democracy in several countries. 
Next, I will detail our progress in resetting the theater architecture 
in the post-Panama era, followed by an overview of our engagement 
efforts and most important requirements. I will conclude by presenting 
my priorities for the way ahead.

                          STRATEGIC ASSESSMENT

    U.S. Southern Command's AOR includes all of Central and South 
America, the Caribbean, and surrounding waters, totaling more than 15.6 
million square miles. The AOR is divided into four sub-regions: the 
Caribbean, Central America, Andean Ridge, and the Southern Cone. Total 
population in the AOR exceeds 404 million people. Twenty-five languages 
are spoken, and the people practice 10 different religions. The theater 
is a diverse region, rich in natural resources with largely untapped 
industrial potential. Today, the per capita Gross Domestic Product 
(GDP) ranges from a low of about $1,300 to a high of $25,000.
    The United States has strong economic, cultural, and security ties 
to Latin America and the Caribbean. More than 39 percent of our trade 
is conducted within the Western Hemisphere. Furthermore, 49 cents out 
of every dollar spent in Latin America is spent on imported goods and 
services from the U.S. Latin America and the Caribbean supply more oil 
to the U.S. than all Middle East countries combined. In addition to our 
strong economic ties, we share an increasingly strong cultural bond. 
Today, one of every eight Americans is of Hispanic origin, and that 
ratio is projected to increase to one in four by 2050.
    Except for Cuba, all nations in the USSOUTHCOM AOR have some form 
of democratically elected government and free market economy. During 
the past 20 years, we have seen a positive trend as nations adopted 
democratic principles and institutions, subordinated their military to 
civilian leadership, instituted the rule of law, and promoted respect 
for human rights. However, democracies have not matured or flourished 
equally in the region. Some countries are struggling to complete the 
full transition to democratic rule. In other countries, democracy 
itself is at risk as failing economies, deteriorating security, and 
endemic corruption undermine institutions and public support.
    Although several age-old border disputes still provide ample 
opportunity for disagreement between neighbors, this region does not 
have an arms race or a ``shooting'' war between nations. In fact, the 
region spends less per capita on arms than any area of the world. 
Today, democracies in this AOR generally maintain open and amicable 
relations with each other and reject armed conflict between nations.

                                THREATS

    The greatest threats to democracy, regional stability, and 
prosperity in Latin America and the Caribbean are illegal migration, 
arms trafficking, crime and corruption, and illegal drug trafficking. 
Collectively, these transnational threats destabilize fragile 
democracies by corrupting public institutions, promoting criminal 
activity, undermining legitimate economies, and disrupting social 
order.
    Illegal Migration. Illegal migration is a potential problem in our 
AOR. The ongoing violence in Colombia associated with fighting between 
illegally armed groups is expected to displace Colombian refugees 
across the international borders of neighboring nations. Panama and 
Venezuela have already reported displaced Colombian refugees inside 
their sovereign territory. Several countries that share porous borders 
with Colombia will remain vulnerable to illegal migration and 
incursions by armed insurgents and paramilitaries, resulting in 
political and social instability.
    Arms Trafficking. The illegal trafficking of arms poses a serious 
threat to the national security of several nations. In our AOR, the 
breakup of the drug cartels in the early 1990s resulted in smaller, 
more adaptable drug trafficking organizations (DTOs) that have formed a 
symbiotic relationship with the insurgents and paramilitaries. These 
illegal and violent groups receive significant financial support from 
the DTOs, which they use to procure weapons. The insurgents can afford 
anything available on the international arms market, possibly including 
man-portable air defense weapons systems (the possession of which we 
cannot confirm).
    Crime and Corruption. Local and international criminal 
organizations are an increasing threat to the security and stability of 
the region. Many nations in the AOR lack the organization and resources 
to effectively counter criminal activity within their borders. In some 
areas, criminal organizations are so pervasive that the governments 
cannot effectively protect their citizens.
    Although money laundering, kidnapping, extortion, and bribery of 
government officials are common criminal activities within many Latin 
American and Caribbean countries, the impact is regional, as evidenced 
by the recent kidnapping of oil workers in Ecuador. In calendar year 
2000, Colombia reported more than 3,000 kidnappings. Although criminal 
activity in the Caribbean has typically been less violent and 
characterized as local, we are seeing a proliferation of street gangs.
    Drug Trafficking. The illicit drug industry is a corrosive force 
that threatens the stability and rule of law in the Andean Region. 
Partner nation governments realize the importance of working together 
to develop regional approaches to counter the production and 
trafficking of illegal drugs. However, effective and sustainable 
counterdrug operations are beyond the capabilities of our partner 
nations' thinly stretched security forces. U.S. counterdrug assistance 
to security forces will help Colombia and other nations in the region 
develop more effective counterdrug capabilities while enhancing United 
States Government support to partner nation interdiction efforts.
    Drug trafficking organizations have shown considerable skill in 
adjusting their operations in response to our counterdrug efforts. 
These small but efficient organizations will change the place of 
production, transport routes, points of transshipment, and markets when 
eradication or interdiction programs achieve success. Many DTOs provide 
financial support to the insurgents and illegal self-defense groups to 
secure protection from counterdrug operations conducted by the Colombia 
National Police (CNP) and Colombian Military (COLMIL).
    We are encouraged by the success of cocaine eradication programs in 
Peru and Bolivia and by the initial results of Phase I of Plan 
Colombia. Unfortunately, reductions in Peru's and Bolivia's cultivation 
appear to have been offset by Colombia's increased coca cultivation in 
calendar year 2000. However, further assessment is required to 
determine the full impact of the intensive aerial eradication effort 
recently conducted by the Government of Colombia in the Putumayo 
Department.
    The illicit drug industry is also a growing threat to the U.S. 
homeland. According to the most recent interagency assessment, law 
enforcement and security forces detected 645 MT of cocaine 
hydrochloride (HCl) moving toward the United States from the source 
zone during 2000. The assessment also reports that 128 MT were 
interdicted, leaving the possibility that an estimated 517 MT were 
available for domestic consumption. According to the Office of the 
National Drug Control Policy (ONDCP), nearly 17,000 Americans lost 
their lives last year to drug overdoses and drug related violence. In 
addition to this tragic loss of life, the direct and indirect costs of 
illegal drug use to the U.S. taxpayer exceeded $110 billion.

                          THEATER ARCHITECTURE

    The United States Southern Command, located in Miami but based in 
Panama until 1997, is responsible for planning, coordinating, and 
conducting all U.S. military activities in our AOR. We promote 
democracy and stability by working cooperatively with host nation 
security forces, responding to crises or contingencies such as the 
recent earthquakes in El Salvador, and supporting partner nation 
security forces and U.S. law enforcement agencies (LEAs) in reducing 
the flow of illegal drugs into the United States. To accomplish our 
mission, we have established the post-Panama theater architecture that 
includes our headquarters in Miami and component headquarters forward 
deployed in Puerto Rico.
    Puerto Rico has replaced Panama for forward basing headquarters in 
the region. United States Army South (USARSO) has completed its 
relocation to Fort Buchanan, where it draws heavily on the Puerto Rican 
Army and Air Force National Guardsmen and Reservists to accomplish its 
assigned missions. United States Navy South (USNAVSO) was activated 
last year and is collocated with Special Operations Command South 
(USSOCSO) at Naval Station Roosevelt Roads.
    To compensate for the loss of the 8,500 ft. runway at Howard Air 
Force Base, the United States Government (USG) negotiated long-term 
agreements for the use of forward operating locations (FOLs) at Aruba-
Curacao in the Netherland Antilles, Manta in Ecuador, and Comalapa in 
El Salvador. These locations provide us the capability to conduct 
sustained CD operations throughout the source and transit zones. U.S. 
detection, monitoring, and tracking (DM&T) operations from the FOLs 
improve our support to partner nation interdiction efforts. Thanks to 
the support of the U.S. Congress, funding has been provided for 
necessary operational and safety improvements for Manta and Aruba-
Curacao and for construction design at Comalapa.
    The Aruba-Curacao FOL provides effective, rapid response DM&T 
operations in the northern source zone, which includes the Guajira 
Peninsula of Colombia and the Venezuelan border region, as well as a 
large part of the transit zone. The formal 10-year access agreement 
with the Kingdom of the Netherlands was signed on March 2, 2000, but 
awaits final parliamentary debates and ratification.
    The FOL at Manta extends our Airborne Early Warning aircraft 
coverage deep into the source zone. It is the only FOL from which 
aircraft can reach all of Peru, Colombia, and the drug producing areas 
of Bolivia. In January 2001, the Ecuadorian Constitutional Court issued 
the favorable ruling that the November 1999 access agreement complies 
with the country's constitution. Construction at the Manta FOL is on 
schedule. We will begin operating AWACS aircraft from Manta in October 
of this year and all construction will be completed by June 2002.
    The Government of El Salvador offered the use of the Comalapa 
International Airport as an FOL for U.S. aircraft in Central America. 
Excellent relations between the U.S. and El Salvador, strengthened by 
years of solid military-to-military contact, helped produce favorable 
negotiations on the FOL agreement. This FOL extends the reach of our 
DM&T aircraft into the Eastern Pacific, Western Caribbean, and all of 
Central America.
    In addition to our headquarters in Miami and three component 
headquarters in Puerto Rico, USSOUTHCOM has permanently assigned 
headquarters in the following locations: our Air Force Component 
(United States Air Force South) at Davis-Monthan Air Force Base in 
Arizona; our Marine Corps Component (United States Marine Corps Forces 
South) in Miami, Florida; Joint Interagency Task Force East (JIATF-E) 
in Key West, Florida, which plans, coordinates, and supervises the 
execution of our support to counterdrug operations in the transit and 
source zones; Joint Southern Surveillance & Reconnaissance Operations 
Center (JSSROC), collocated with JIATF-E in Key West, which receives, 
fuses, and disseminates the radar common operating picture from AWACS 
and ground based, aerostat, and ROTHR radar; and Joint Task Force Bravo 
(JTF-B) in Soto Cano, Honduras, which provides responsive helicopter 
support to USSOUTHCOM missions in Latin America and the Caribbean.
    Most of our post-Panama theater architecture is firmly in place, 
and we look forward to permanently anchoring our headquarters in CONUS, 
accomplishing necessary improvements at the FOL in Comalapa, and 
completing previously approved but temporarily suspended military 
construction projects in Fort Buchanan, Puerto Rico.

                   STRENGTHEN DEMOCRACY AND STABILITY

    The United States Southern Command's military-to-military 
engagement with host nation forces seeks to build mutual trust and 
understanding that will engender regional stability and shared 
solutions to common problems. Our approach focuses on combined 
operations, exercises, training and education, security assistance, and 
humanitarian assistance programs. While maintaining strong bilateral 
relationships throughout the AOR, we promote regional cooperation and 
transparent operations among all our regional partners.
    Caribbean. The fiscal year 1997 Unified Command Plan assigned 
responsibility for U.S. military activities in the Caribbean, a region 
of more than 32 million people, to USSOUTHCOM. The countries and 
territories in this region, as a rule, have very small security forces 
that need modernization and training assistance. They are receptive to 
regional cooperation and are well represented in the Organization of 
American States (OAS) and Caribbean Nation Security Council (CANSEC). 
During calendar year 2000, USSOUTHCOM conducted medical readiness 
training exercises (MEDRETE) and New Horizon engineer exercises; 
assisted partner nation security force training and new equipment 
fielding; and hosted Tradewinds 2000, a multi-national exercise that 
fosters maritime and land-based forces cooperation in response to 
regional crises and drug trafficking. In addition, many of the 
countries hosted other regional events to improve partner nation 
capabilities. For example, in January 2001, Jamaica hosted a regional 
disaster preparedness seminar that included representatives from more 
than 20 countries throughout the AOR.
    Caribbean countries conduct operations and training with the United 
States Coast Guard that improve their capabilities to interdict illicit 
drug shipments through the transit zone. Most countries in the 
Caribbean have assisted U.S. efforts to interdict the flow of illicit 
drugs through the central and eastern Caribbean. One of our most 
successful efforts is Operation Bahamas, Turks, and Caicos (OPBAT), a 
multi-agency international effort based in Nassau, Bahamas. The mission 
of OPBAT is to interdict the flow of cocaine and marijuana transiting 
through the Bahamas destined for the United States. OPBAT was 
established on July 12, 1990 by the TRIPART Agreement, a diplomatic 
engagement signed by the Governments of the Bahamas, the United 
Kingdom, and the United States. U.S. government agencies participating 
in OPBAT include DOS, DOD, USCG, and the U.S. Customs Service.
    Another prominent counterdrug operation in this region is 
Weedeater, which is conducted in the Eastern Caribbean. DOD provides 
helicopters for host nation law enforcement agencies and DEA to conduct 
marijuana eradication. The most recent Weedeater operation eradicated 
1,013,635 marijuana plants and seedlings with an estimated Miami street 
value in excess of $800 million. Total helicopter operating costs for 
this Weedeater were slightly more than $129,000.
    Central America. Four factors stimulate our engagement initiatives 
in this region. First, Central America, with more than 36 million 
people, is one of the least developed regions in our AOR. The military 
budgets of these nations cannot support large forces or large 
modernization efforts. Second, this region is vulnerable to natural 
disasters, as evidenced by Hurricane Mitch a few years ago, wildfires 
last year in Guatemala, and the recent earthquakes in El Salvador. 
Third, powerful criminal organizations, often fueled by drug related 
activities and money, challenge democratic institutions, and in many 
cases, exceed the capacity of the nations' security forces to provide 
protection to the population. Last, governments in this region are 
understandably sensitive to border disputes that have been ongoing for 
many years. Examples include the border disputes between Belize and 
Guatemala, between Honduras and Nicaragua, and the maritime 
disagreement concerning the Gulf of Fonseca. Last summer, USSOUTHCOM 
helped diffuse the Fonseca disagreement by providing Global Positioning 
Systems (GPS) and night vision goggles to Honduran and Nicaraguan 
military vessels to aid them in precise navigation.
    Military forces in this region range from none to very capable. 
Costa Rica and Panama now have only police forces, while El Salvador 
demonstrated a very professional and capable military force during 
recovery operations following the recent earthquakes. Nicaragua has a 
large inventory of mechanized equipment, but needs assistance in 
training and sustainment.
    Our engagement activities in Central America mirrored our efforts 
in other regions. Last year, we relied heavily on our New Horizons 
Exercise program to provide much needed assistance to several 
communities in Belize, El Salvador, and Nicaragua. In total, our forces 
renovated 12 schools, drilled 12 water wells, and provided road and 
bridge improvements. We also conducted a total of 32 medical 
deployments that provided health and dental services to more than 
95,000 people. Medical teams on these deployments provided veterinary 
services as well.
    Peacekeeping operations and seminars are excellent vehicles to 
promote cooperation and interoperability between neighboring nations. 
This past year, we conducted several combined activities in Central 
America, including the Peacekeeping Operations--North (PKO-North) 
exercise, hosted by Honduras and attended by 20 nations. This exercise 
trained multinational staffs from Caribbean and Central American 
nations in peacekeeping operations.
    Costa Rica, Guatemala, Honduras, Belize, El Salvador, and Panama 
have also participated in Central Skies counterdrug operations. In 
support of Central Skies, the United States provides transportation 
support to Central American country teams and host nation military and 
counterdrug law enforcement agencies. The most recent Central Skies 
operation in Costa Rica eradicated 385,563 marijuana plants with a 
Miami street value that exceeded $300 million. U.S. helicopter 
operations costs for this iteration of Central Skies was approximately 
$164,000. 
    USSOUTHCOM has a long history of providing assistance to Central 
American nations following natural disasters. Last April, JTF-B from 
Soto Cano provided emergency assessment and fire fighting assistance to 
help Guatemalan forces extinguish nearly 250 wildfires. In November 
2000, Hurricane Keith hit the eastern coast of Belize. USSOUTHCOM 
provided humanitarian assistance to the Belize government in the form 
of emergency shelters, vehicles, disaster relief equipment, and medical 
supplies. In the most recent disaster in El Salvador, USSOUTHCOM 
provided emergency assistance that included the movement of 560 
personnel and 160 tons of supplies by JTF-B helicopters. USSOUTHCOM 
relief and sustainment efforts following the earthquakes will include 
several medical readiness training exercises, technical expertise, and 
humanitarian assistance supplies and equipment.
    Central America is key to U.S. counterdrug efforts. El Salvador 
agreed to allow the U.S. to use Comalapa International Airport as an 
FOL for counterdrug operations. This facility supports U.S. DM&T 
aircraft coverage in Central America, Eastern Pacific, and Western 
Caribbean. El Salvador's rapid agreement to our request for ramp space 
is reflective of the outstanding military to military relationship that 
has been nurtured over the years.
    Southern Cone. Harmonious relations among Southern Cone countries 
provide the necessary preconditions for increased defense cooperation, 
dialogue, and multilateral training exercises. Keeping pace with new 
training opportunities, Chile and Brazil have recently begun military 
modernization programs. In December 2000, the Chilean government made a 
formal decision to negotiate the possible purchase of F-16 aircraft 
with Lockheed Martin. Brazil has also initiated programs to modernize 
its Air Force and Navy. In some neighboring countries, budget 
constraints still limit military procurement and modernization.
    Argentina and Uruguay both participate routinely in United Nations 
peacekeeping operations. Last year, Argentina hosted the USSOUTHCOM 
annual CABANAS training program, a peacekeeping exercise that included 
military forces of seven other nations. Argentina and Chile each hosted 
phases of the UNITAS exercise, the largest multinational naval exercise 
in this hemisphere. In addition to nations from the USSOUTHCOM AOR, 
UNITAS 2000 included Canada and several European nations. This exercise 
is one of Southern Command's most important engagement tools and 
contributes significantly to regional cooperation in the Southern Cone.
    Andean Ridge. USSOUTHCOM operations in the Andean Ridge are the 
most diverse of any region. Recent activities have included 
humanitarian civic assistance, demining operations, training exercises, 
and extensive counterdrug operational support. Militaries in this 
region range from small and under-equipped to standing forces with 
considerable capabilities.
    One of USSOUTHCOM's most important and visible missions during 
fiscal year 2000 was Operation Fundamental Response in Venezuela. 
Following torrential flooding and mudslides that devastated Venezuela's 
northeastern coast, USSOUTHCOM performed life saving rescue, medical 
evacuation, and disaster relief operations. With Venezuela reporting an 
estimated 30,000 dead, USSOUTHCOM provided immediate rescue assistance, 
ultimately saving more than 5,500 lives and delivering 673 tons of food 
and water. U.S. forces, largely JTF-B aviation assets, Special 
Operations, and Reserves, produced more than 2.8 million gallons of 
potable water, flew more than 1,300 aircraft sorties, and distributed 
more than $650,000 worth of medical supplies. Total cost of USSOUTHCOM 
directed support to Venezuela was $8.25 million.
    In Ecuador, USSOUTHCOM has worked closely with the U.S. Ambassador 
and President Noboa's administration to provide assistance to Ecuador's 
military, particularly in the management of national crises. We have 
also worked closely with military leaders to improve Ecuador's 
capability for detecting and interdicting illegal drug traffic. As 
previously noted, Manta Air Base on the northwestern coast is a 
linchpin in resetting our AOR architecture and extending the reach of 
our DM&T aircraft coverage in the source zone.
    U.S. counterdrug support to Andean Ridge nations includes training 
and equipment for the riverine forces of both Peru and Colombia. The 
Joint Peruvian Riverine Training Center in Iquitos, Peru is the finest 
facility of its kind in the AOR. Peruvian and Colombian riverine units 
have significantly increased their capabilities during the past year.
    USSOUTHCOM has provided extensive support to the training of 
Colombia's Counternarcotics (CN) Brigade. The second CN battalion 
graduated from training in December 2000, and the third battalion is 
scheduled to complete training on May 24, 2001. To provide air mobile 
capability to the CN Brigade, USSOUTHCOM is supporting the Department 
of State (DoS) led effort to field Huey II and UH-60L helicopters to 
the Colombian Army and to assist in training the required aircrews.
    USSOUTHCOM is cooperating with the security forces of each Andean 
Ridge nation to build more effective counternarcotics capability. 
Bolivia, with perhaps fewer resources than any other country in the 
region, has achieved unprecedented success in eradicating illegal coca 
cultivation and aggressively interdicting drug trafficking 
organizations' (DTOs) movement of precursor chemicals. We have assisted 
Bolivia's military training effort with mobile training teams and 
facility construction. We are also assisting the Bolivian Army in 
renovating troop barracks to establish a permanent presence in the 
Chapare coca-growing region.

                              REQUIREMENTS

    The United States Government has provided substantial support in 
military hardware, training, and services to Latin American and 
Caribbean countries. Each year, USSOUTHCOM executes engagement programs 
throughout this AOR, to include combined operations and training 
exercises, educational opportunities, mobile training teams, unit 
exchanges, humanitarian civic assistance, foreign military financing 
and sales, and counterdrug training and operations.
    USSOUTHCOM's exercise program is the engine for our Theater 
Engagement Plan. USSOUTHCOM will conduct 17 joint or combined exercises 
and 178 training deployments with partner nations this fiscal year. We 
conduct four different types of exercises and deployments. First, our 
operational exercises are based on USSOUTHCOM contingency plans and 
normally include only U.S. forces. The primary purpose of these 
exercises is to train the CINC's and the JTF's battlestaffs.
    Foreign military interaction (FMI) exercises are the core of 
USSOUTHCOM's engagement program. They are conducted throughout the AOR 
and are generally hosted by the many participating nations in the 
region. All of these exercises, which include Unitas, Tradewinds, PKO 
North and South, Cabanas, United Counterdrug, and Fuerza Allidas 
Humanitarians, are multilateral.
    New Horizons (NH) are the command's civic assistance exercises that 
focus on engineering and medical projects. Humanitarian and civic 
assistance (HCA) projects are embedded in these programs but can be 
conducted as stand alone deployments for training as well. USSOUTHCOM 
plans to conduct six NH exercises in fiscal year 2001. Planned sites 
include the Bahamas, St. Lucia, St. Vincent, Guatemala, Honduras, and 
Paraguay.
    The fourth type of exercise is stand-alone training deployments. 
USSOUTHCOM will conduct a total of 178 stand-alone training deployments 
in fiscal year 2001. These deployments will include Joint Combined 
Exchange Training (JCET), Riverine Training Teams (RTT), and 
Counterdrug Training Support (CDTS). Included in the training total are 
66 stand-alone medical assistance deployments that predominantly 
support Central America and the Andean Ridge.
    In a typical year, USSOUTHCOM deploys more than 12,000 
servicemembers, the majority of which are National Guardsmen and 
Reservists, in support of the FMI and NH exercise programs. In fiscal 
year 1999, the U.S. Congress provided funding to expand the NH exercise 
concept. Funding has remained relatively constant for 2000 and 2001. 
These exercises have been very successful in providing schools, water 
wells, road and bridge improvements, and medical outreach programs to 
needy communities. NH exercises have the added benefit of providing 
U.S. forces with realistic training opportunities generally not 
available in the United States. In fiscal year 2000, USSOUTHCOM 
completed 98 HCA projects in 19 countries; 105 construction and repair 
projects are planned or fiscal year 2001. Scenarios for the seven FMI 
exercises conducted in fiscal year 2000 and the six planned for this 
year focus on peacekeeping operations, disaster relief, and counterdrug 
coordination.
    International Military Education and Training (IMET) and its 
companion program, Expanded IMET (EIMET) provide professional education 
opportunities to selected military and civilian candidates in our AOR 
on a grant basis. These programs are the backbone of our combined 
professionalization and military education. They provide funding for 
military and civilian personnel from our partner nations to attend 
professional development courses in United States military 
institutions. At only modest cost, these programs represent valued 
investments as many of the students go on to become senior leaders in 
their respective militaries and government agencies. In fiscal year 
2000, USSOUTHCOM received $9.89 million for IMET and trained 2684 
students, including 474 civilians. We invested roughly two-thirds of 
our IMET dollars in professional military education (PME), management, 
postgraduate courses, mobile education teams, and english language 
training. The remainder paid for technical assistance training 
throughout the AOR.
    With declining military budgets, most countries in the USSOUTHCOM 
AOR request military equipment through the Excess Defense Articles 
(EDA) program or Section 506 Emergency Drawdown Authority. Few 
countries are able to purchase new equipment in large quantities 
through the Foreign Military Sales Program. Although we have been very 
successful in assisting partner nations through EDA and Drawdown, 
transport costs and sustainment of the received equipment fall to the 
requesting country. Absent host nation funding and the availability of 
foreign military financing (FMF), we have not been able to help these 
nations build the maintenance programs to sustain the equipment. At its 
peak in 1991, the FMF program for Latin America was $220 million. Last 
year, the Caribbean received $3 million, while Latin America received 
only $450,000.

       COMMAND, CONTROL, COMMUNICATIONS, AND INTELLIGENCE (C\4\I)

    As we reset our theater physical architecture in the post-Panama 
era, we are also enhancing our C\4\I architecture for fixed and mobile 
operations throughout the AOR. Because most of the countries in this 
theater are still maturing their C\4\ infrastructure, satellite 
communications are vitally important to our deployed forces, especially 
in time of crises. However, satellite communications are currently 
limited by available bandwidth.
    We have initiated several programs to increase our C\4\I 
effectiveness throughout a very large AOR. Programs like the 
Cooperating Nations Information Exchange (CNIES) and the 
Counternarcotics Command and Management System (CNCMS) have helped 
optimize satellite bandwidth. We have also initiated the Theater Signal 
Support Program, which is focused on streamlining and enhancing C\4\ 
operational and maintenance support that was degraded by our exit from 
Panama.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Our top readiness priorities for this AOR remain intelligence, 
surveillance, and reconnaissance (ISR). Although OSD and the Joint 
Staff have helped us a great deal in this area, we still have 
unresourced requirements in national, theater, and tactical collection 
and processing for signals intelligence (SIGINT), human intelligence 
(HUMINT), and imagery intelligence (IMINT).
    IMINT, SIGINT, HUMINT, and measurement and signals intelligence 
(MASINT) provide commanders at all echelons indications and warnings 
(I&W), situational awareness, battle damage assessments (BDA), and crop 
cultivation estimates. However, the current suite of national sensors 
and platforms meets only part of our requirement for a comprehensive 
intelligence and counterdrug picture in this AOR. USSOUTHCOM needs 
greater redundancy in ISR assets to mitigate risk during crises. 
Specifically, we need additional airborne quick-reaction ISR capability 
and the focus of a tactical military intelligence unit dedicated to 
this AOR. Funding support for planned and existing MASINT capabilities, 
plus an effective MASINT architecture, will significantly enhance the 
conduct of future operations.
    The USSOUTHCOM AOR is a mixture of legacy and 21st century 
technology systems. While we are making progress in transitioning to 
more sophisticated and more reliable systems, we still need significant 
support for three important activities: wide area surveillance for 
maritime and ground detection and monitoring; theater air surveillance, 
tracking, and sorting; and force protection against asymmetric threats. 
First, a real-time integrated wide area surveillance capability is 
required to track and monitor maritime and ground targets of interest, 
particularly in support of counterdrug operations in this theater. This 
system should be compatible with both manned and unmanned ISR 
platforms. Second, the theater air surveillance system will provide air 
space detection, sorting, monitoring, and management that will promote 
regional cooperation in support of theater engagement strategies. 
Third, asymmetric warfare challenges our best force protection measures 
and strategies. Sophisticated surveillance systems are needed to 
enhance force protection for our limited number of forward-deployed 
personnel in high threat areas.
    Our ability to execute effective operations is often hampered by 
restrictions on sharing data with our partner nations. We need to 
streamline sharing procedures that are currently used for time 
sensitive counterdrug information. Like other unified commands, we are 
developing information-sharing networks that will allow us to combat 
the drug trafficking problem more efficiently. The South American Net 
(SURNET), the Caribbean Information sharing Network (CISN), and the 
Cooperating Nations Information Exchange System (CNIES) are all ongoing 
initiatives that enable us to share certain types of counterdrug 
information expeditiously.
    We experience continuing shortages of intelligence personnel, 
especially qualified linguists and other SIGINT experts. A fully manned 
and functioning regional SIGINT operating center at Medina, Texas, is 
essential to support our AOR operations. We also face many difficulties 
in our efforts to maintain a robust tasking, processing, exploitation, 
and dissemination architecture (TPED). Due to persistent C\4\I 
shortfalls, these issues are expected to continue in the near term.

                         COUNTERDRUG OPERATIONS

    Congress appropriated significant funding last year to support 
President Pastrana's Plan Colombia. During the past several months, 
USSOUTHCOM has worked with the U.S. interagency to develop the plan and 
begin executing the support package. This program is on track and is 
increasing partner nation counterdrug capabilities. Although most of 
the supplemental funding was directed to Colombia, neighboring nations 
also received assistance.
    USSOUTHCOM is using the funds designated for military purposes to 
improve partner nation capabilities in counterdrug operations. We are 
lead for execution of DOD support and provide assistance to DoS as 
needed on military related programs. We have coordinated the intended 
use of the funding in the U.S. interagency process to ensure our 
actions complement other agencies' activities and comply with 
congressional law and OSD directives. U.S. assistance to Plan Colombia 
will significantly improve the COLMIL capability to successfully 
support eradication and interdiction operations. Although $180 million 
was also distributed in the aid package to Colombia's neighbors, 
several of these neighboring nations will need additional assistance in 
the form of both military and non-military programs to effectively 
challenge the illicit drug industry within their own borders. We also 
anticipate that nations in this region, particularly Colombia, will 
likely need international assistance to sustain these programs in the 
long term.

                            FORCE PROTECTION

    Force protection is Job #1. We are committed to providing the best 
possible protection measures to our forces in this theater. Since the 
terrorist attack on the U.S.S. Cole, we have conducted a comprehensive 
review of our force protection requirements and have focused our 
efforts on improving policies and procedures for deterring, disrupting, 
and mitigating terrorist attacks.
    Each of my Component Commanders has formed ``Red Teams'' to assess 
his force protection posture on a continuous basis. Throughout the AOR, 
we have intensified ongoing efforts to identify potential threats and 
the corresponding force protection measures to mitigate risk to these 
threats. We are also looking specifically for seams in our force 
protection posture that could be exploited. We have implemented a suite 
of preventive measures, such as limiting travel to known or suspected 
high-risk areas, to minimize exposure of DOD personnel.
    We have used the Combating Terrorism Readiness Initiative Fund to 
resource emergent and unforeseen high priority requirements. However, 
we still require better access to enhanced national signals collection 
and processing, organic airborne reconnaissance capability, a military 
intelligence unit permanently assigned to this theater, and expanded 
human intelligence collection. Our components continue to work with 
host nation security forces, to include establishing U.S. controlled 
security zones when necessary, to ensure protection of our deployed 
aircraft, vessels, and personnel. Component Commanders tailor threat 
conditions and random antiterrorism measures based on their assessment 
of the threat for assigned and in-transit units.
    The U.S.S. Cole Commission recommendations address the diversity of 
threats that could potentially target U.S. personnel and interests in 
the USSOUTHCOM AOR. We continue to make good progress in hardening our 
headquarters, bases, and forward operating locations. Where we are 
unable to mitigate threats through physical or structural enhancements, 
we are addressing the risk with procedural modifications for our 
personnel.

                                STRATEGY

    Our vision for this theater has not changed. These nations can 
become a ``community of stable, democratic, and prosperous nations 
served by professional, modern, and interoperable security forces that 
embrace democratic principles and human rights, that are subordinate to 
civil authority, and are capable and supportive of multilateral 
responses to regional challenges.''
    Five objectives guide our engagement and security activities in 
this AOR:

        <bullet> Promote and support stable democracies;
        <bullet> Promote and support respect for human rights and 
        adherence to the rule of law;
        <bullet> Assist partner nations to modernize and train their 
        security forces;
        <bullet> Sustain and strengthen multilateral security 
        cooperation; and
        <bullet> Cooperate with regional forces to detect, monitor, and 
        reduce the transit of illegal drugs.

                               CONCLUSION

    Thanks to the hard work and vision of many U.S. Government 
agencies, we have been able to assist our neighbors, some gravely 
threatened by insurgencies, narcotics, and other transnational threats.
    Because of this committee's efforts and the strong bipartisan 
support in Congress for programs key to this hemisphere, we are making 
a positive difference in helping to strengthen democracy, promote 
prosperity, and foster regional security in Latin America and the 
Caribbean.
    Thank you again for the opportunity to appear before you.

    Chairman Warner. General Schwartz.

 STATEMENT OF GEN. THOMAS A. SCHWARTZ, USA, COMMANDER, UNITED 
    STATES FORCES KOREA; COMMANDER IN CHIEF, UNITED NATIONS 
                COMMAND/COMBINED FORCES COMMAND

    General Schwartz. Sir, thank you very much for having me, 
Mr. Chairman, Senator Levin, and other committee members. 
Thanks a lot. I am glad to be here today.
    It is exciting to be in Korea. I have been there 15 months. 
It is an exciting time. Like you said, Senator Warner, things 
are changing at a rapid pace. Who would have predicted that the 
summit would have taken place like it did last year? Who would 
have predicted the amount of dialogue, the exchange, the 
cultural exchanges, all the things that are happening, the 
Nobel Peace Prize, the Status of Forces Agreement (SOFA) 
revision that we had, a big success in my opinion, the Nogun-Ri 
and the resolution of that very successfully? The list goes on 
and on. Who would have predicted? Almost nobody. Then the visit 
of Kim Jong-Il to the south and the next couple of months. Who 
would have predicted? I do not think anybody could say ``I knew 
positively that was going to take place.''
    But I can tell you one thing you could predict, that our 
forces over there stay trained and ready, the 37,000 you have 
there under my command, as well as those great Republic of 
Korea military. I am really high on them because when anybody 
from this committee comes, they look at them, they see them, 
they always comment to me. They say, ``Tom, they are good. Are 
they not? They are trained and ready. Are they not? They are 
well-spirited and have high morale. Do they not?'' Those are 
the kinds of things that are reinforcing about this alliance. 
We should be tremendously proud.
    That 2nd Infantry Division we have over there, in my 
opinion, is the most well-trained, fit-to-fight division in the 
world. I am proud of what they do and the pace they maintain, 
the things they do every day to stay trained and ready on that 
Demilitarized Zone. I know you, Senator Warner, and the other 
committee members are very proud.
    I think the key over there right now is our presence. We 
have been there for 50 years. We might be there for 50 more. We 
do not know. But I tell you, when the north looks south and 
they see 37,000, when they look south, and they see the 750,000 
South Koreans trained and ready, they know for sure one thing: 
they are not going to do anything. They know we are ready. They 
know we are together, and that has deterred war for 50 years. 
We are tremendously proud of that.
    We have to mix all of that readiness too with our quality 
of life and our infrastructure. We cannot just be trained and 
ready. We cannot just let Korea be a place we have been for 50 
years, 1 year at a time, and not look at the infrastructure and 
not look at the quality of life of those great soldiers, 
sailors, airmen, and marines. So, I have looked at that, and I 
have talked to a lot of those great people. I am tremendously 
impressed with our soldiers.
    I tell you, Senator, the other day I had a stand-up in 
front of those soldiers, and I said, ``this is my third tour. 
Who has me beat?'' One of those great sergeants, E-5, stood up 
and said, ``Sir, I have been in 10 years. This is my fourth 
tour in Korea. I have you beat.''
    Then a staff sergeant E-6 stood up. He said, ``Sir, I am a 
staff sergeant E-6 in this great Army of ours. I have 12 years, 
and I have five tours in Korea. I have you beat.''
    I started to look around. I started to think, gosh, these 
young men and women are recycling in here. When I started to do 
some statistics on this thing, I realized that 17 percent of 
the Army is either getting ready to go in, is in Korea, or just 
came out of Korea.
    So, it does have a tremendous impact on our force and on 
the morale and on the reenlistment, and on the quality of life 
and decisions that these young people make every day when they 
sit down at the dinner table. They go back home after a tour in 
Korea, and they say to the family, should I stay or should I 
get out? So, Korea does have an impact. It matters. We have to 
care about what we do with our soldiers, sailors, airmen, and 
marines over there, every year as we touch those great people.
    So, it is things like separate rations that we take away 
from them, that the spouse back home who loses $227 a month and 
is still cooking the same pot of spaghetti, even though he is 
serving for a year over in Korea, and she is saying to herself, 
``Where is my $227?'' She is saying to herself, ``Where is my 
$4,000 that it equates to over a year? Where did that go?'' She 
is asking her spouse, ``how much is it costing you to live over 
there?'' They are saying about $4,000 to $6,000 out of their 
pocket, hidden costs. Senator, you and I discussed this a 
couple of times.
    There is a price to be paid by these young people when they 
serve their country overseas. We have to take a hard look at 
some of these things and make sure we are doing the right thing 
with respect to these people when they are sacrificing so much 
for us. So, I would lay that on the table.
    But I would like to make a comment, if I could, Mr. 
Chairman, about the transformation that the Army is doing right 
now under the great General Shinseki. He is creating a new 
force. He is shaping a force, an Army that is much different 
than we had before. I told him I am the first guy to stand up 
and say, I want one of your brigades. I want one of those light 
brigades. I want one of those wheeled brigades. I want its 
flexibility. I want its mobility. I do not just want it for the 
peninsula, but I want it for the region. I want it because it 
can do a lot of things I cannot do right now. So, I am an 
advocate of what we are creating there, and I am one of the 
first ones to sign up as a CINC and say, send it to me because 
we can certainly use it.
    A couple of my top priorities that I have in my statement 
are quite well outlined, but I would like to emphasize just a 
couple of them because I think they are important to lay on the 
table.
    One is we have to look hard at the command, control, 
communications, computers, and information (C\4\I) architecture 
that we have in Korea. If we are going to fight tonight like we 
do, we have a bunker system. We have hardened systems of 
command and control that were created over the last 30 and 40 
years, and we work hard to keep them fit to fight. But we have 
to keep putting the money into them to make sure they are hard, 
and to make sure they are redundant, and to make sure that they 
do for us what we need to do. So, I have some needs in that 
area that I laid out in my formal statement that I will submit.
    Also, I think we need some money for our battle simulation 
centers. The way we keep 37,000 people trained and ready, when 
96 percent of them change every year, is that we have three 
very robust exercises. We have the largest simulation exercise 
in the world called Ulchi Focus Lens (UFL). To run that battle 
simulation center, to run the Air Force simulation center, 
costs a lot of money. That cost is going up and up. So, I laid 
some dollars on the line there that we need to keep that going.
    I would just mention one other area, and it is called force 
protection. We are now in the second most densely populated 
country in the world, Korea, 45 million people in a peninsula 
the size of the State of Indiana. We have plopped ourselves 
down in 95 camps and stations all over that peninsula. Believe 
me, we did not have any thoughts when we plopped down about 
force protection, but we have a lot of thoughts about it today. 
We need some money and we need to put some effort into it. We 
need to do some consolidation of that effort as we see 
ourselves on that peninsula to make sure we are protecting our 
people, like we need to protect them all over the world. So, I 
would say that to you.
    But when you look across that peninsula, Senator Warner, 
and you look north, some people down south think, well, the 
security situation is changing and everything is OK and there 
is no threat. But I am telling you as a Commander in Chief, 
when I look north, I do not think the same thing. When I look 
north, I see an enemy that is bigger, better, closer, and 
deadlier. I can prove it.
    This guy puts 33 percent of his gross national product into 
his military. People are starving. His own figures say that 
250,000 starved last year. We think it is close to a million. 
Whatever the figure is, he puts more money into his military 
than any other nation Gross Domestic Product (GDP)-wise, 33 
percent. He has a military-first policy and he is getting 
better.
    Now, does he have the economy to sustain that great 
military? Yes. It is coming apart a little bit. It is coming 
down and we all know that. But the fact of the matter is he is 
very capable, bigger, better, closer, and deadlier and we have 
to keep our eye on it.
    This is a period of uncertainty like I said. Tremendous 
change, dramatic change. I think the danger during this period 
of time is miscalculation. We just have to keep ourselves 
trained and ready. We are doing that in the peninsula, and I am 
tremendously proud of those soldiers, sailors, airmen, and 
marines.
    I am prepared to answer your questions.
    [The prepared statement of General Schwartz follows:]

           Prepared Statement by Gen. Thomas A. Schwartz, USA

    Mr. Chairman and distinguished committee members, I am honored to 
appear before you as Commander in Chief, United Nations Command, 
Republic of Korea--United States Combined Forces Command (CFC); and 
Commander, United States Forces Korea. We want to first express our 
deep gratitude to Congress for the consistent support you provided our 
forces over the years. The more than 37,000 soldiers, sailors, airmen, 
and marines, and Department of Defense civilians of United States 
Forces Korea benefit every day from your support, which enables us to 
accomplish our vital mission. We welcome this opportunity to present 
the current security situation in the Korean theater of operations 
through five major categories: (1) Korean Peninsula Overview, (2) Post-
Summit Korea: Perceptions vs. Reality, (3) North Korea, (4) The 
Republic of Korea and United States Alliance, and (5) Command 
Priorities.

                       KOREAN PENINSULA OVERVIEW

    The physical presence of U.S. ground, air, and naval forces in 
Korea and Japan contributes significantly to U.S. and northeast Asian 
interests. These contributions endure well into the future. As shown in 
the figure below, the vital U.S. national interests in the region are 
many, and the threats to those interests are great. However, the U.S. 
presence provides the military access in east Asia that allows and 
encourages economic security, and political stability.
    While the U.S. has made great strides in our ability to rapidly 
project power around the globe, there is still no substitute for some 
degree of forward presence when faced with limited warning times, and 
vast distances. Our presence in Korea provides the access necessary for 
defending the Republic of Korea today, and responding to regional 
threats in the future. It is physical, not virtual, U.S. presence that 
brings peace of mind to the democratic nations of the region, and 
provides tangible deterrence.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The security offered by this presence is directly and indirectly 
responsible for the economic vitality and political stability of the 
region. The physical security has fostered the rapid expansion of the 
mutually reinforcing elements of democratization and market economies. 
The political and military stability resulting from U.S. involvement in 
northeast Asia provides the confidence necessary for foreign investment 
to flow into the region. The results are staggering. In the course of a 
single generation, Japan, China, Taiwan, Korea, and Singapore have 
risen respectively to numbers 3, 4, 7, 8, and 10 in total trade with 
the U.S., and comprised over $425 billion in trade in 1999. Most of 
this would not have been possible without the direct security offered 
by the U.S. presence. It is the U.S. presence that will allow this 
regional prosperity, so critical to the global economy, to flourish in 
the future.

               POST-SUMMIT KOREA: PERCEPTIONS VS. REALITY

    In June of last year, the world witnessed the historic meeting 
between President Kim Dae-Jung and Chairman Kim Jong-Il. This 
remarkable event, the centerpiece of a great deal of diplomatic 
activity on the Korean peninsula, touched off a wave of reconciliation 
euphoria in South Korea and generated the public perception that peace 
was just around the corner. However, the situation's reality is far 
from the perception.
    The pace of diplomatic activity is indeed staggering. Both before 
and since the summit, the North Korean government has greatly expanded 
its diplomatic outreach to a number of countries. Three reunions of 
families separated since the war have occurred since August 2000. 
Athletes from both sides marched together under a single flag during 
the opening ceremonies of the Sydney Olympics. North Korea's second 
most powerful official, Vice Marshal Jo Myong-rok met with President 
Clinton in October. U.S. Secretary of State Albright reciprocated by 
visiting Pyongyang later that month. Since the summit, the two Koreas 
have conducted multiple ministerial and working level economic talks, 
and the first ever meeting between the two defense ministers. The two 
sides have agreed to restore the Seoul-Sinuiju railway through the 
Demilitarized Zone (DMZ), create an economic development zone in the 
North Korean town of Kaesong, and conduct sports and cultural 
exchanges.
    Despite this welcome increase in direct North-South dialogue, the 
military threat from North Korea continues to improve. The perception 
of a peaceful peninsula differs from reality. North Korea has yet to 
discuss or implement any meaningful military confidence building 
measures beyond agreement of the opening of a railroad corridor through 
the DMZ. The North has focused thus far on obtaining significant 
foreign aid in exchange for political and humanitarian gestures. As 
recently as December 2000, the North threatened to halt the entire 
reconciliation process, including family reunions, unless the South 
immediately provided 500,000 kilowatts of electrical power, to be 
followed by up to 2 million kilowatts. It subsequently resumed the 
exchanges even though it did not receive the power.
    The gap between reduced political tensions and the current North 
Korean military capacity and capability in certain areas concerns us. 
If the North Korean regime is serious about reconciliation, it is the 
time now for it to reduce the military threat and reciprocate to the 
peaceful gestures from other nations. North Korea should begin now to 
reduce military capabilities, both conventional and weapons of mass 
destruction.

                              NORTH KOREA

    Despite the perception of political and humanitarian change, the 
reality is that there is as yet no permanent ``peace dividend.'' North 
Korea still poses a major threat to stability and security in the 
region and will continue to do so into the foreseeable future. Kim 
Jong-Il stubbornly adheres to his ``military first'' policy, pouring 
huge amounts of his budget resources into the military, at the expense 
of the civil sector, as he continues his military buildup. As a result, 
his military forces are bigger, better, closer, and deadlier since last 
year's testimony. We define this dangerous military threat in simple 
terms as capability and intent.
    Capability: Bigger and better. The military is the overwhelming 
power and dominant presence in North Korea. Its ability to strike South 
Korea without warning and to employ nonconventional weapons and systems 
continues to grow bigger and get better. The North Korean People's 
Army, which includes the Army, Navy, and Air Force, numbers over 1.2 
million, making it the fifth largest Active-Duty Force in the world. 
Limited military production continues in aircraft and artillery systems 
with renewed manufacturing efforts in missiles, submarines, and armored 
vehicles.
    The ground force alone numbers 1 million active-duty soldiers and 
ranks third in the world. The North Korean Air Force has over 1,700 
aircraft. The Navy has more than 800 ships, including the largest 
submarine fleet in the world. There are an additional 6 million 
Reserves supporting the Active-Duty Force. In total, over 25 percent of 
its population is under arms, with all able-bodied children and adults 
receiving military training every year--although admittedly in a 
country where ``the quest for food'' is a daily reality for the average 
citizen and the vast majority of people lack adequate food, clean 
water, heat, clothing, or access to even basic medical care.
    Recent force improvements include forward repositioning key 
offensive units, emplacing anti-tank barriers in the forward area, 
establishing combat positions along major routes between Pyongyang and 
the Demilitarized Zone, improving coastal defense forces in the forward 
area, constructing missile support facilities, and procuring air 
defense weapons and fighter aircraft. Applying lessons from U.S. 
operations in Europe and Southwest Asia, the North Koreans also 
modified key facility defenses, dispersed forces, and improved 
camouflage, concealment, and deception measures.
    Training levels over the past 2 years have been record-breaking, 
with the focus on improving the readiness of major offensive forces. 
Immediately following the June 2000 summit, the North Korean People's 
Army training cycle in the summer of 2000 was the most extensive ever 
recorded. It was preceded by the most ambitious winter training cycle 
for the past 10 years. High levels of training continue as we speak to 
you today.
    Capability: Closer. As big as they are, North Korea continues to 
position forces into the area just north of the DMZ--in a position to 
threaten Combined Forces Command and all of Seoul with little warning. 
Seventy percent of their active force, including approximately 700,000 
troops, over 8,000 artillery systems, and 2,000 tanks, is postured 
within 90 miles of the Demilitarized Zone. This percentage continues to 
rise despite the June 2000 summit. Most of this force in the forward 
area is protected in over 4,000 underground facilities, out of over 
11,000 nationwide. From their current locations, these forces can 
attack with minimal preparations or warning. The protracted southward 
deployment follows a tactic of ``creeping normalcy''--a significant 
movement over a period of many years that would attract too much 
international attention if accomplished over weeks or months.
    The North fields a total artillery force of over 12,000 systems. 
Without moving any pieces, Pyongyang could sustain up to 500,000 rounds 
per hour against Combined Forces Command defenses, and Seoul, for 
several hours. This artillery force includes 500 new long-range systems 
deployed over the past decade; however, most dangerous is the 
accelerated deployment over the past 2 years of large numbers of long-
range 240 mm multiple rocket launcher systems and 170 mm self-propelled 
guns to hardened sites located along the DMZ. Current training 
continues to improve their capabilities.
    Capability: Deadlier. To keep Combined Forces Command off balance 
and offset the conventional military technological superiority of the 
United States and Republic of Korea, the North's leadership has 
developed substantial asymmetrical capabilities in ballistic missiles, 
special operations forces, and weapons of mass destruction. The North's 
asymmetric forces are dangerous, receive an outsized portion of the 
military budget, and are well trained. Improvements continue in each 
area.
    The North's progress on its ballistic missile program indicates it 
remains a top priority. Over the past year, North Korea upheld its 
moratorium on flight-testing missiles. However, they continue to make 
enhancements in their missile capabilities. Their ballistic missile 
inventory includes over 500 SCUDs of various types that can threaten 
the entire peninsula. They continue to produce and deploy medium-range 
No Dongs capable of striking Japan and our U.S. bases there. Pyongyang 
is developing multi-stage missiles aiming to field systems capable of 
striking the continental United States. They have tested the 2,000-
kilometer range Taepo Dong 1 and continue significant work on the 5,000 
plus kilometer Taepo Dong 2. North Korea also threatens American 
interests through the proliferation of ballistic missile capabilities--
missiles, technology, technicians, transporter-erector-launchers, and 
underground facility expertise--to other countries of concern. North 
Korea has reportedly sold at least 450 missiles to Iran, Iraq, Syria, 
Pakistan, and others.
    At the tip of the spear are North Korea's special operations 
forces--the largest in the world. They consist of over 100,000 
personnel and are significant force multipliers. During wartime, these 
forces, which Kim Jong-Il would use as an asymmetrical capability from 
a ground, air, and naval perspective, would fight on two fronts, 
simultaneously attacking both our forward and rear forces. They 
continue to train year around in these skills, and just completed a 
robust training period last month.
    North Korea also possesses weapons of mass destruction. A large 
number of North Korean chemical weapons threaten both our military 
forces and civilian population centers. We assess North Korea to have 
large chemical stockpiles and is self-sufficient in the production of 
chemical components for first generation chemical agents.
    Additionally, North Korea has the capability to develop, produce, 
and weaponize biological warfare agents. They could deploy both 
chemical and biological warheads on missiles.
    Finally, we continue to be concerned with the potential nuclear 
threat from North Korea. In the late 1980s and early 1990s, North Korea 
may have produced enough plutonium for at least one, and possibly two 
nuclear weapons.
    Intent: The Kim Jong-Il regime maintains a ``military-first'' 
orientation. The army is North Korea's largest employer, purchaser, and 
consumer, the central unifying structure in the country, and the main 
source of power and control for the ruling clique--the ``pillar of the 
revolution.'' North Korean state-run media pronouncements continue to 
insist on unification under Kim Jong-Il's leadership. In an 
unprecedented interview with ROK news media executives on August 12, 
2000, Kim Jong-Il stated, ``In relations with foreign countries, we 
gain strength from military power, and my power comes from military 
power,'' thus openly stating his belief that military power is his 
security imperative and the cornerstone of his philosophy. This 
``military first'' policy was reiterated in the North Korean leader's 
New Year's editorial on 1 January this year. Maintaining a large and 
credible military force does a number of things: It provides 
deterrence, defense, an offensive threat, and gives the regime leverage 
in international negotiations.
    The North Korean economy is in ruins. Let's take a look at some 
stark numbers: a decline in Gross National Product (GNP) by 55 percent 
from 1990 to 1998, down to about $12 billion; a foreign debt 
approaching the same figure; foreign trade at only 10 percent of GNP; 
per capita income of less than $600; many factories closed, with those 
remaining open in operation at less than 20 percent of capacity; daily 
grain rations for common people at between 100 and 200 grams (one-half 
to one bowl); estimates of the number of deaths from hunger and disease 
in the last 5 years ranging from several hundred thousand to three 
million--despite foreign aid of over $1.6 billion since 1995. The 
result of this past winter's harsh weather--the worst in over 2 
decades--will likely be thousands of deaths, serious injuries, and 
major illnesses among the general populace.
    In the face of this human tragedy, North Korea continues to invest 
25 to 33 percent of their GNP annually in the military (as compared to 
3 percent in the U.S.). Top priority for the nation's scarce economic 
resources are the military related industries. For additional hard 
currency infusion, the North Korean regime continues to export weapons 
and engage in state sponsored international crime to include narcotics 
trafficking, and counterfeiting U.S. currency.
    Without major fundamental economic reforms, the North will continue 
to rely on charity to avert complete economic collapse. Absent a 
sustainable economic turnaround, the North faces the potential for huge 
humanitarian disaster. The North Korean leadership appears to recognize 
its dire economic circumstance. The economic and human weakness brought 
by natural disaster and the failure of state planning likely prompted 
the diplomatic offensive that we are seeing from the North Korean 
regime. However, until North Korea undertakes meaningful confidence 
building measures, it will be necessary for the United States and our 
allies to remain vigilant against the threat posed by North Korea's 
sizable military machine.
    Conclusion: While the growing inter-Korean dialogue evident over 
the past year gives cause for hope, the tense security situation on the 
Korean peninsula is unpredictable and serious, and will so remain for 
the foreseeable future. The North Korean military remains the main 
element of national power and source of leverage that Kim Jong-Il 
possesses to advance his interests. Despite North Korea's continuing 
interests in foreign aid and economic reform, the Kim regime continues 
to field far more conventional military force than any conceivable 
sense of self-defense would warrant. We and our allies in the Pacific 
must encourage tangible military confidence building measures that are 
verifiable and reciprocal. The measures taken so far (economic, 
diplomatic, and cultural) are first steps, but tangible military 
measures are key to reducing the risk of conflict. Throughout this 
process and into the future, the unequalled ROK-US alliance will remain 
vigilant, trained, and ready to fight and win decisively!

            THE REPUBLIC OF KOREA AND UNITED STATES ALLIANCE

    The Republic of Korea and United States alliance remains the best 
in the world. It is an alliance built on mutual trust, respect, a 
common set of values, and commitment to the defense of freedom of South 
Korea. Our combined forces can fight and win today if called upon. Our 
power, might, and daily readiness are unparalleled. Unquestionably, our 
South Korean partners are professional war fighters. They can mobilize 
over 4.5 million servicemembers and can bring 54 divisions to the 
fight. Our combined war fighting assets include over 1,500 strike 
aircraft that can launch over 1,000 daily sorties, over 1,000 rotary 
aircraft, more than 5,000 tracked vehicles, 3,000 tanks, and over 250 
combat ships to include 4 or more carrier battle groups. If necessary, 
this unequalled combined combat power and might can defeat a North 
Korean attack and destroy its military and regime. It is this power and 
might that strengthens our deterrence mission and ultimately provides 
regional security.
    Our continuing cooperation and understanding is a success story in 
many ways. It is institutionalized in our Mutual Defense Treaty and in 
our Security Consultative and Military Committee Meetings. Four 
alliance areas deserve particular note: alliance successes, military 
procurement, defense burdensharing, and a brief discussion of command 
initiatives that will shape our alliance.
    Alliance successes: Overall, our alliance is stronger because of 
U.S.-South Korean cooperation to conclude three significant issues in 
the past year. Most notably, we successfully revised our Status of 
Forces Agreement, which safeguards the rights of our servicemembers 
while better respecting the laws, customs, and culture of the Republic 
of Korea. Second, both nations concluded a cooperative investigation on 
the tragic events that occurred 50 years ago at the Korean village of 
Nogun-Ri. Here again, this issue has been resolved in a manner that is 
consistent with an alliance based on democratic ideals and an honest 
quest for truth and accountability. Finally, South Korea, in 
consultation with the U.S., established a policy of developing 
operational missiles with a range of no more than 300 kilometers and a 
payload of 500 kilograms, which are the Missile Control Technology 
Regime limits.
    Military Procurement: The Defense White Paper 2000, published by 
the Ministry of National Defense, addresses aggressive modernization 
goals for the South Korean forces. United States Forces Korea 
wholeheartedly supports these efforts and feels that they will set the 
conditions for an autonomous South Korean military in the future. 
Modernization and improvements are being made in many key areas through 
indigenous production, co-production, and procurement through Foreign 
Military Sales. South Korea continues to demonstrate overwhelming 
preference for U.S. military equipment. South Korean military purchases 
from the U.S. as a percentage of total foreign procurement has ranged 
from 59.2 percent to 98.9 percent in the last 10 years. The decade 
average is 78.6 percent.
    Last year the South Korean military purchased Multiple Launch 
Rocket Systems (MLRS), theater airborne collection systems, and weapons 
and electronics upgrades for their newest destroyers. Additionally, we 
are encouraged by the serious consideration that the Republic of Korea 
is devoting to purchase the F-15E strike fighter jet, the AH-64D Apache 
Longbow attack helicopter, and the Patriot (SAM-X) missile systems. 
These powerful systems are interoperable with U.S. systems and will 
ensure that military might can be brought to bear quickly and 
decisively, at a time when it may be required. Not only will these 
systems improve today's alliance combat power, they also contribute to 
the future regional security for Northeast Asia.
    There are three areas where the Republic of Korea must procure 
capabilities to support our combined combat readiness: (1) Command, 
control, communications, computers, and intelligence (C\4\I) 
interoperability; (2) Chemical and biological defense capabilities; and 
(3) Preferred munitions necessary for the early stages of the war plan.
    Defense Burdensharing: Of the four burdensharing categories in the 
2000 Report to Congress on Allied Contributions to the Common Defense, 
South Korea met the congressional goal in one. The Republic of Korea 
increased the number of peacekeepers in support of multinational 
military activities, primarily in East Timor. The Republic of Korea did 
not meet congressional targets in the three other areas: (1) cost 
sharing, (2) defense spending as percentage of Gross Domestic Product, 
and (3) foreign assistance. This is a downward trend from the previous 
year and must be reversed, as key U.S. congressional leadership has 
articulated.
    In the cost-sharing category for fiscal year 2000, the Republic of 
Korea paid $751 million out of $1.83 billion United States non-
personnel stationing costs. This is a 41 percent contribution that fell 
short of the congressional 2000 goal of 75 percent. The U.S. and South 
Korea enter negotiations this year to adjust this level of cost sharing 
and sign a new Special Measures Agreement. The Republic of Korea must 
raise its present percentage of non-personnel stationing costs. The 
U.S. State Department concurs.
    South Korean defense spending as a percentage of Gross Domestic 
Product dropped from 3.2 to 2.8 percent between 1998 and 1999. The 1999 
value of 2.8 percent was below the U.S. defense investment of 3.2 
percent.
    South Korean outlays for foreign assistance failed to increase by 
10 percent between 1998 and 1999, and at 0.04 percent of Gross Domestic 
Product, they fell below the congressional goal of 1 percent.
    Command Initiatives: During this past year, we have developed a 
number of initiatives designed to better meet the needs and demands of 
our great alliance. The most important of these are support to the 
North-South transportation corridor, the ``good neighbor'' initiatives, 
environmental programs, and the Land Partnership Plan.
    The United Nations Command will continue to fully support President 
Kim Dae-Jung's reconciliation process and the development of a road/
rail transportation corridor through the Demilitarized Zone. The 
command has already modified the 1953 Armistice Agreement to allow the 
Republic of Korea to coordinate construction issues on behalf of the 
Military Armistice Commission. Close cooperation between United Nations 
Command and the South Korean Ministry of National Defense has, and will 
continue to ensure sufficient levels of security in the Demilitarized 
Zone during demining, corridor construction, and future operation. As 
we work closely with North Korea over issues concerning access and 
commerce in this corridor, we will continue to insist that all actions, 
and all confidence-building measures, are both reciprocal and 
verifiable.
    During the summer of 2000 the command and the government of South 
Korea initiated comprehensive good neighbor initiatives in response to 
an alarming rise in ``anti-U.S. Forces Korea'' sentiment that turned 
violent in some situations. The program includes education programs for 
both U.S. servicemembers and the Korean public, public affairs programs 
to offer a balanced perspective to the Korean press, and increased 
interaction between U.S. servicemembers and local Korean military units 
and citizens. To educate and nurture an understanding between our 
servicemembers and South Korean citizens we began a bilingual quarterly 
newsletter jointly published by U.S. Forces Korea and the South Korean 
government, and posted on the Korean Defense Ministry's internet 
website. Still in its infancy, these initiatives have already paid 
dividends and will continue to do so into the future.
    Being good stewards of the environment in our host country is 
important to our mission and the alliance. We have accomplished much 
but there is more we will do. Future problem mitigation and 
environmental protection requires continuous funding from both the 
Republic of Korea and United States. Our investment in protecting the 
Korean environment is the responsible course that serves to strengthen 
our alliance.
    The final future initiative is the Land Partnership Plan begun in 
December 2000 with our Korean partners. This program seeks to improve 
the combined forces readiness posture, improve force protection, 
enhance public safety, stop training range encroachment, advance 
quality of life for U.S. forces, support South Korean economic growth, 
and posture our forces for cooperation well into the future. The 
combination of a robust and growing Korean economy, rising population, 
and very limited land on the Korean peninsula is placing extreme 
pressure on the command. Encroachment by farming and construction on 
training ranges and in safety zones around ammunition storage areas 
endangers the public and is lessening our ability to properly train. 
This initiative will reconfigure and protect training areas, and 
consolidate our forces around hub installations. Both nations stand to 
gain significantly from this effort, but the program requires strong 
support from the Korean government. U.S. Forces Korea must have access 
to small new purchases of rural land for consolidation before we can 
release large areas of valuable urban land and facilities. 
Additionally, both sides must approach the plan as an integrated whole, 
and not piecemeal the package, to maximize benefits.

                           COMMAND PRIORITIES

    During my comments today, I will discuss the status of programs and 
programmatic areas in which resource allocations are of significant 
concern to me. My intent is to discuss possible problem areas as they 
now appear. However, these program areas and their associated funding 
levels may change pending the outcome of the new administration's 
strategy and defense review which will guide future decisions on 
military spending. For fiscal year 2002, the President's budget 
includes funding to cover our most pressing priorities. I ask that you 
consider my comments in that light.
    Achieving our vision and accomplishing our missions requires us to 
prioritize scarce resources. Our command priorities are (1) War 
Fighting Readiness, (2) Support to War Plans, (3) Force Protection, (4) 
Future Force Development, and (5) Quality of Life.
    War Fighting Readiness: Our number one command priority of war 
fighting readiness consists of training, exercises, and headquarters 
operations:
    Training is the cornerstone of our combat capability and level of 
readiness. Our combined forces continue to remain trained and ready. We 
can fight and win! The North knows it. They fear our power and might. 
We are fully capable of decisively defeating North Korea and destroying 
the regime. However, the command faces significant training challenges 
ranging from training range encroachment to required modernization. We 
need to reverse problems in three specific areas: (1) Training area 
requirements, (2) Korea Training Center modernization, and (3) 
Realistic urban operations training facility.
    Our first concern is that our joint forces experience a lack of 
adequate training areas on the peninsula. The problem stems from 
training areas being widely dispersed, non-contiguous, often 
temporarily unavailable, and too small to support the range of our 
modern weapon systems. Current training areas also suffer from 
sustained civilian construction and farming encroachment. The Land 
Partnership Plan addresses this urgent problem by consolidating and 
protecting necessary training areas. The new Inchon International 
Airport scheduled for full operation in 2003 creates additional 
problems for airspace management. The Republic of Korea government must 
energize a realistic and near term program to improve their airspace 
management system. Failure to do so will increase the risk for both 
commercial airlines and military aircraft.
    The second long-term challenge is the support for our Korea 
Training Center, Synthetic Training Environment Vision. Currently, we 
have the ability to train a battalion task force in the live 
environment at the Center but only under manpower intensive, manually 
supported efforts. We need to increase training realism by modernizing 
range instrumentation. We are working with Department of the Army to 
fund this requirement.
    To squeeze the most benefit out of every training minute and 
dollar, we must infuse new training technologies. In the near term, 
full funding of our joint exercise program is critical to maintaining 
our current level of readiness. Currently, our vital simulation centers 
(Korea Battle and Korea Air Simulation Centers) are not fully funded 
which requires us to reprogram dollars from other programs to fund 
these readiness enablers. This is a less than ideal situation. Third, 
and finally, urban combat training is imperative for all forces in 
Korea as urbanization now dominates South Korea, the second most 
densely populated country in the world. We greatly appreciate the 
fiscal year 2001 military construction (MILCON) you provided and 
efforts are ongoing to construct our Combined Arms Collective (urban 
warfare) Training Facility. However, instrumentation for this critical 
project is not funded. To achieve the maximum training benefit from 
this facility, we need to install the prescribed instrumentation 
systems.
    The second component of war fighting readiness is exercises. Both 
the content and timing of our combined and joint exercises successfully 
posture this command to deter, defend, and decisively win a military 
engagement. Exercises equal deterrence! Because of the proximity of the 
threat, the complexity of this theater, and our high personnel 
turnover, we must conduct robust theater level exercises annually to 
maintain combat readiness. Each exercise is unique and focused on a 
different essential component of the combined war fight. The loss or 
reduction of dollars to support these exercises will weaken readiness 
and deterrence, and hamper our combined forces training to fight and 
win.
    Our vital Chairman of the Joint Chiefs of Staff exercise support is 
currently under-funded. Budget constraints have seriously impacted our 
joint and combined exercise program. The combination of the increasing 
cost of strategic lift, and a flat-line strategic lift budget, has 
degraded our exercise strategic lift capability. It would be unwise to 
let this continue over the Future Years Defense Plan (FYDP).
    We will try to maintain our major exercises, but we must not 
sacrifice realistic, quality training opportunities in the process. 
Again, we must monitor our cuts carefully because these exercises are 
not hypothetical--they are the exercising of real, ``go to war'' plans. 
Korea is the only theater in the world where real war plans drive all 
exercises.
    Finally, we need significant help with our headquarters operations. 
We anticipate needing additional funding in this area in order to 
conduct day-to-day operations in the headquarters for United Nations 
Command, Combined Forces Command, U.S. Forces Korea, and Eighth U.S. 
Army.
    Support to War Plans: The four principle categories of support to 
war plans are logistics; personnel; command, control, communications, 
computers, and intelligence (C\4\I); and intelligence capability. 
Although we have made great strides in recent years, all four 
categories require additional support.
    The distance between the northeast Asian theater and the U.S. make 
logistics support a healthy challenge to overcome. The task that is 
most vital to our success in Korea is the current readiness of our 
forward deployed forces. It is time to change the way Korea-based units 
are viewed in our logistics system. Instead of considering our forces 
as forward based or stationed, we must be considered ``forward 
deployed'' in much the same manner as forces in the Balkans. The 
proximity of the enemy and short warning times mandate our forces be 
ready to fight tonight. In order to ``fight tonight,'' our units must 
have the supplies and equipment necessary to defeat any attack. We will 
defeat any North Korean attack early, while our augmentation forces and 
supplies are overcoming the tyranny of distance from the United States. 
To accomplish this our forces must have a support priority equal to the 
highest priority of each of the four services. We intend to work 
through the services to improve this posture.
    Intra-theater sea and airlift form the cornerstones of our ability 
to integrate forces and provide responsive theater support during 
conflict. We fully support the Army's initiative to forward station 
Army watercraft close to northeast Asia. We also are avid supporters of 
Air Force programs that will ensure adequate availability of C-130 and 
C-17 aircraft for intra-theater lift during a crisis. The geography of 
the Korean Peninsula makes the effective use of theater-controlled air 
and sealift essential to our success.
    The limitations of airlift and sealift to rapidly move forces and 
supplies to Korea are a concern. We fully support the planned and 
continued modernization and maintenance of our Defense Department's 
strategic enroute infrastructure.
    The U.S. also needs to improve the strategic deployment triad: (1) 
For airlift, this means a robust acquisition program for the C-17, 
increased efforts to improve the reliability of the C-5, and strong 
support for the Civil Reserve Air Fleet; (2) For sealift, this means 
the completion of our Ready Reserve Force and Large, Medium Speed Roll-
On, Roll-Off programs; and (3) For pre-positioning programs, this means 
100 percent fill of equipment and adequate sustainment for these 
programs for all services.
    Pre-positioning programs for equipment offer us the ability to 
reduce the strategic movement requirements early in any conflict. In 
Korea, our ability to defeat a North Korean attack is critically 
dependent upon the pre-positioning of key items of equipment and 
supplies. We primarily focus on the Army's brigade set of equipment and 
supplies, the pre-positioning of critical munitions and repair parts, 
and the location of assets critical to our ability to integrate and 
sustain forces early in the fight. Our pre-positioning programs focus 
on the initial 15 to 30 days of the campaign while the United States' 
strategic sustainment base gears up. We have shortages with regard to 
our stocks of preferred munitions, Air Force replacement parts, 
replacement ground combat systems, and the Army's pre-positioned 
Brigade set.
    Key logistics and sustainment shortfall remains in Army 
Prepositioned Stocks (APS-4). Sustainment shortfalls limit ability to 
reconstitute the force and sustain missions, resulting in increasing 
risk. Significant major end item shortages do exist. Lack of repair 
parts and major assemblies with the APS-4 sustainment stockpile will 
directly impact the ability to return battle-damaged equipment to the 
fight. The current funding stream does not adequately support 
sustainment shortfalls in APS-4. However, the Army's current plans are 
to cascade additional equipment into APS-4 sustainment stocks over the 
next couple of years, thus reducing the shortfall. We strongly support 
the services' requirements to improve our ability to sustain combat 
operations. Failure to support these requirements increases our risk.
    The second element of supporting our war plans is personnel. Our 
main challenge is the turnover of our people. In a theater with 
approximately 95 percent turnover per year, the small size of our joint 
staff is currently our major concern. We are manned at about 34 percent 
of our wartime staff requirements. In addition, new mission areas such 
as force protection, information assurance, information operations, and 
critical infrastructure protections are being established without any 
authorized billets. We cannot continue to handle new requirements 
without the manpower to do the job. This must change. Korea cannot go 
on at the 34 percent manning level.
    We are most concerned about our command and control systems. Today, 
severe deficiencies in command, control, communications, computers, and 
intelligence (C\4\I) functionality impairs our ability to execute the 
war plan. To achieve the information superiority that President Bush 
describes in A Blueprint for New Beginnings--A Responsible Budget for 
America's Priorities, we must pursue technologies that provide 
collaborative, interactive, real-time common operational understanding. 
This is best achieved by building a C\4\I architecture that embraces 
the principles of network-centric warfare while leveraging emerging 
space based capabilities and sensor to shooter technologies. We are 
also engaging Joint Forces Command to integrate ongoing C\4\I 
experimentation in our major peninsula exercises to help us stay on the 
forefront of emerging technology. We feel this relationship will put us 
in a solid position to integrate maturing technologies into our theater 
architecture.
    Pursuing leading edge technologies alone will not guarantee success 
in the future. Transitioning to modern technology requires an 
accompanying shift from the current analog processes that served us 
well during the Cold War to the digital processes needed to address 
regional threats in the information age. To begin this transition, we 
need to balance current readiness with the imperative to pursue C\4\I 
capabilities that ensure full functionality. As such, the vast majority 
of our anticipated fiscal year 2002 budget for C\4\I supports the 
minimum required to sustain current ``go-to-war'' systems while we 
expect to pursue this new vision over the Future Years Defense Plan. 
This includes maintaining the funding previously earmarked for Korea 
support through U.S. Army Forces Command and Army Signal Command.
    Our ``go-to-war'' command and control (C\2\) systems consist of the 
Global Command and Control System ((GCCS), both U.S.-only and combined 
versions), as well as a combined secure video teleconferencing (VTC) 
system. These combined systems are the Department of Defense's largest 
and most complex bilingual command and control systems and are 
absolutely imperative to commanding and controlling U.S. and South 
Korean forces. Over the last 5 years, U.S. Forces Korea has had to 
divert funds from other operations and maintenance programs to sustain 
these C\2\ systems. We can no longer afford to take this approach. Our 
funding shortfall is significant, but contains only what is required to 
maintain the status quo. We have deferred new growth and operational 
enhancements to the outyears.
    Any discussion of C\4\I must include two near term challenges--
information assurance and spectrum availability. These capabilities are 
critical to protecting our investments in C\4\I. Our increasing use of 
information systems breeds a growing dependence. While this dependence 
does create opportunities for us to exploit adversary information and 
information systems, it does, however, expose our own vulnerabilities. 
We are pursuing a viable information assurance program to protect our 
information while defending our information systems, but we anticipate 
facing a severe funding shortfall with regard to our top down driven 
projects. However, this could change as a result of the defense 
strategy review.
    I share the same concerns as other CINCs regarding the upcoming 
plan to sell off major portions of the U.S. frequency spectrum. Today, 
we are hindered from fielding new systems as well as training as we 
will fight because of host nation spectrum access. We will soon be 
fielding the Apache Longbow attack helicopter in Korea but have not yet 
gained frequency approval for armistice training and operations due to 
conflicts with South Korean commercial telecommunications providers. 
Additionally, there are no available frequencies to support unmanned 
aerial vehicles during armistice, and only limited frequency approval 
for Joint STARS and Patriot air defense system. Further sell-off of 
additional spectrum in the U.S. will reverberate around the world and 
significantly impair on our ability to execute operations. I strongly 
urge great caution in this area.
    Enhancement to our intelligence capability is an absolute 
necessity. President Bush's articulation of the need for ``leap-ahead 
technologies for new . . . intelligence systems'' (A Blueprint for New 
Beginnings. . . ) hits the mark in Korea. Our top priority is to 
advance our intelligence backbone, the Pacific Command Automated Data 
Processing Server Site Korea (PASS-K) with 21st century technology. 
This is a General Defense Intelligence Budget Program (GDIP) that has 
operated with insufficient funding for over 5 years, and is now running 
on fumes. I fully support the Defense Intelligence Agency (DIA) 
requests for funding to expedite long neglected modernization, and 
acquire next-generation improvements. Failure to do so risks degrading 
our already diminished indications and warning posture while hampering 
our collaboration with the entire joint intelligence community. This 
must be funded!
    We must improve our theater's intelligence systems' functionality. 
Our VSAT (Very Small Aperture Terminal) satellite network provides us 
mobile communications, but is currently separated into three isolated 
networks. We intend to integrate the three into one network, while 
modernizing and upgrading in the process. This will improve capacity 
and reduce costs while providing much needed redundancy in this fragile 
system. However, we have a funding shortfall in this program.
    We need to leverage our capability to collaborate with the entire 
joint intelligence community off peninsula to perform rapid targeting, 
battle damage assessment, and threat analysis. We plan to install 
hardware and software onto the existing systems and networks to 
accomplish this essential requirement. This will facilitate the 
integration of U.S. Forces Korea collection efforts into national 
databases and threat assessments, seamlessly collaborating theater and 
national intelligence related to Korea. Without increasing our 
footprint in Korea, this will increase our accessibility to analysts at 
National Security Agency (NSA), DIA, and Joint Intelligence Center-
Pacific Command. We need funding support for this effort.
    Finally, intelligence, surveillance, and reconnaissance (ISR) 
assets must not dip below current levels in imagery intelligence and 
signals intelligence (SIGINT) . . . it must improve. Until the unmanned 
aerial vehicle proves itself reliable and affordable as a replacement 
for the U2, we must hold the number of U2 pilots we have and not let 
this precious high-demand, low-density asset decrease on peninsula. I 
also fully support the U.S. national intelligence community, 
particularly National Security Agency, requests for funding to improve 
ISR and SIGINT capabilities.
    Force Protection: The environment in Korea presents several unique 
challenges for the protection of our servicemembers, civilians, and 
family members. While our force protection posture continues to 
improve, United States Forces Korea has 95 installations across the 
peninsula, many quite small and remote. We have organized these 95 
installations into 12 ``enclaves'' for more centralized planning, 
execution, and coordination of resources and to provide a clear chain 
of command responsibility.
    During this past year, we have reviewed and updated the force 
protection plans for each of our enclaves. We are now taking the next 
step by exercising these plans, using likely terrorist scenarios, to 
continue to improve them. I have established a U.S. Forces Korea level 
``Tiger Team'' to conduct an exercise at each of our enclaves during 
this fiscal year. Each exercise is preceded by a ``Red Team'' 
assessment, which simulates a terrorist group attempting to penetrate 
and attack one of our installations. We have conducted four of these 
exercises thus far. We have shared the lessons learned from each of 
these with the joint community and all of our units as we continue to 
refine our force protection plans.
    We have identified four systemic force protection concerns within 
United States Forces Korea: lack of standoff, access to installations, 
off-post housing, and off-post activities.
    Our most resource intensive vulnerability is lack of standoff. 
Urban encroachment on our installations, decaying infrastructure, and 
the lack of available real estate for force protection modifications 
contribute to the vulnerabilities. In the short term we have used Joint 
Staff Combating Terrorism Initiative Funds to install blast walls and 
mylar coating in limited areas to protect our most critical facilities. 
Our Land Partnership Plan addresses some of our long-term weaknesses. 
This plan will shift many of our installations and training areas from 
urban centers to rural areas and allow us to move more of our people 
onto our installations.
    Access to our installations poses another significant challenge. We 
have taken positive steps to improve our access control through 
implementation of a fingerprint scanning identification system and 
reducing the number of non-U.S. Forces Korea persons who can be 
sponsored onto our facilities. The Army currently fully funds our 
contract security guard force that maintains installation access 
control and perimeter security without diverting soldiers to this task. 
Continued funding is vital.
    We are conducting a complete study of off-post housing and 
temporary lodging to assess our vulnerability and determine appropriate 
protection policies. Our long-term goal is to substantially reduce the 
number of personnel being housed off-post through increased 
construction of on-post quarters. In the near term we execute a very 
proactive force protection public awareness program for those living or 
traveling off post.
    We have routinely conducted force protection assessments for all 
high profile off-post activities and events. We have expanded risk 
assessments to assess our vulnerabilities with regard to the lower 
profile activities such as inter-camp bus routes and personnel 
attending college classes on local campuses. We continue to look for 
and implement innovative ways to mitigate our vulnerabilities and 
educate our personnel and their families on threat avoidance. We 
believe force protection funding shortfalls will be significant for 
fiscal year 2002, and we need your help to ensure our American 
personnel are properly protected.
    Future Force Development: As technology advances we must constantly 
seek innovative improvements to our capabilities through force 
development. We support the efforts of the research and development 
community, and would benefit most from improved intelligence analysis 
capability; ability to locate and track weapons of mass destruction; 
protection against nuclear, biological, and chemical attack; ability to 
defeat hard and deeply buried targets; and missile defense.
    We are excited about the Army's transformation concepts and I am 
pushing for the stationing of one Interim Brigade Combat Team (IBCT) in 
Korea to replace one existing brigade. This will provide the 
maneuverability and combat power necessary to operate in the 
mountainous and increasing urbanized terrain of Korea. It will also 
prepare us to refocus the Army's forward deployed forces in Korea to a 
regional role. The IBCT provides a rapidly deployable ground force to 
complement Air Force Aerospace Expeditionary Forces, and Marine 
Expeditionary Forces, and Navy Amphibious Ready Groups and Carrier 
Battle Groups as U.S. Forces Korea's role transitions to that of 
northeast Asia regional security.
    Quality of Life: Quality of life, our final command priority, is a 
basic element of overall readiness and is critical to our mission. As 
stated in President Bush's A Blueprint for New Beginnings. . ., ``we 
cannot honor our servicemen and woman and yet allow substandard housing 
and inadequate compensation levels to endure.'' The Korean peninsula 
faces shortfalls in both areas. The investment philosophy of ``50 years 
of presence in Korea . . . 1 year at a time'' has taken a severe toll 
on our housing, infrastructure, and morale. Personnel tempo is 365 days 
a year in this ``hardship tour'' area. Our servicemembers wake each day 
within artillery range of our adversary knowing he will be the one who 
decides if we go to war. Our intent is to make a Korean tour the 
assignment of choice for our military personnel by providing the best 
quality of life possible. Our goal is a quality of life that is 
comparable to other overseas assignments. This is clearly not the case 
today. A Korea assignment today involves the greatest loss of pay in 
the military, the highest command declination rate, the highest ``no 
show'' rate in the U.S. Army, and the poorest quality of life of any 
permanent change of station assignment in the military. We have a plan 
but we need help. To attack these problems, we need to address Pay and 
Morale, Housing and Infrastructure, and MILCON.
    Even with the great assistance we received from Congress last year, 
we continue to face grim conditions regarding housing and 
infrastructure throughout this command. Nearly 40 percent of the 
servicemembers in U.S. Forces Korea live in inadequate quarters. 
Overcrowded facilities force us to billet many unaccompanied personnel 
off-post, increasing their personal risk and cost of living. 
Unaccompanied housing and dining facilities suffer from rapid 
deterioration and excessive wear through overcrowding and lack of real 
property maintenance and repair (RPM) funding. Some military personnel 
still live in quonset huts and Vietnam-era pre-fabricated buildings. 
However, if funded, by 2008 the barracks will be upgraded to an 
acceptable standard. Fifteen percent of all buildings in the command 
are between 40 and 80 years old and 32 percent are classified as 
temporary buildings. In 1999 and 2000 alone, the command suffered 295 
electrical power and 467 water supply outages from decaying 
infrastructure.
    The lack of adequate family housing is the most serious quality of 
life issue we face in Korea. It contributes to high personnel 
turbulence and discontinuity, degrades morale and productivity, 
resulting in high assignment declinations and retention problems for 
our services. Indeed, Korea's uniqueness as a yearlong unaccompanied 
tour has been purchased at a price. We provide government owned and 
leased housing for 1,987 personnel--less than 10 percent of our married 
servicemembers--compared to more than 70 percent in Europe and Japan. 
Our goal is to increase the command-sponsored rate for Korea.
    The solution is to raise the quality of life for personnel that 
serve in Korea, and we have a plan. This current plan includes new 
construction and leasing local housing units. We intend to apply more 
than half of this cost from our host nation construction funding to 
build 4,200 of the 6,300 units needed over the next 20 years, but we 
will need your help to fund family housing construction. In addition, 
we need leased housing (800 units authorized by Title 10 now, and add 
an additional 2,000 units to expand the command sponsored population). 
This year's ``New Housing Project'' budget includes 60 new units at 
Camp Humphreys. This project must not be cut. A total of 6,300 units 
across the peninsula are required.
    Congressional funding that you provided last year has enabled us to 
improve water distribution systems at Kunsan and Osan Air Bases, and 
improve existing barracks at Camp Carroll, Camp Hovey, and Camp Page. 
Nevertheless, chronic under-funding of military construction (MILCON) 
funding for Korea during the past 15 years and the interruption of 
MILCON dollars for our command between 1991 and 1994 has limited our 
ability to give our servicemembers the quality of life they deserve. We 
desperately need to execute a comprehensive construction program and 
begin to eliminate the unacceptable living and working conditions in 
aging facilities that U.S. forces in Korea face every day.
    Aging facilities are also more costly to maintain. Under funding of 
RPM exacerbates an already serious problem with troop housing, dining 
facilities, work areas, and infrastructure. We hope to receive 
additional funding that will allow us to keep the doors open to our 
facilities and make emergency repairs only. It will still leave us 
short of our total requirement.
    Finally, utilities costs are soaring. This is an area where 
increasing costs can no longer be absorbed. Oil costs are up 60 
percent. Electricity is up 5 percent and scheduled to go up 15 percent 
more. Because of these increased energy costs, we anticipate needing 
additional funds.
    In summary, we work our command priorities through a balanced 
readiness approach--carefully addressing combat readiness, 
infrastructure, and quality of life with limited resources. Our ability 
to fight and win decisively is tied to proper balance in all of these 
essential areas. Overall, our top priorities for fiscal year 2002 are 
as follows: (1) C\4\I architecture modernization and protection, (2) 
Combat readiness: air and ground battle simulation centers, (3) Anti-
terrorism and force protection, (4) Environmental protection and damage 
mitigation, (5) Real property maintenance, and (6) Family housing.

                               CONCLUSION

    We would like to leave you with five thoughts:
    First, we want to emphasize that the support of Congress and the 
American people is vitally important to our future in Korea. We thank 
you for all you have done. However, we must also ensure that our 
resolve is consistent and visible so that North Korea, or any other 
potential adversary, cannot misinterpret it. We have an investment of 
over 50 years in this region. I believe we should continue to build on 
it to guarantee the stability that is so important to the people of 
Korea, northeast Asia, and to our own national interests. We urge 
committee members to come to Korea and see first-hand the importance of 
the American military presence and the strength and vitality of the 
United States--Republic of Korea alliance.
    Second, the North Korean military continues to increase its 
nonconventional threat and conduct large-scale training exercises in 
spite of severe economic problems and a perception of a thawing 
relationship between North and South Korea. North Korea's continued 
growth in military capability and the intent implied, amounts to a 
continued significant threat. Now, more than ever, the strength of the 
Republic of Korea--United States alliance, built on a foundation of 
teamwork and combined training, provides both nations with a powerful 
deterrent as well as the readiness to fight and win. Make no mistake; 
there is no ``peace dividend'' yet in the Korean theater at this time. 
The North Korean threat to peace and stability in northeast Asia will 
not fundamentally diminish until the North engages in tangible military 
confidence building measures, both now and in the future, that are 
verifiable and reciprocal.
    Third, this is the second year of commemorations recognizing the 
significance of the 50th anniversary of the Korean War, viewed by many 
of our veterans as the ``forgotten war.'' We are committed to honoring 
the brave veterans living and dead and hope you can join us in Korea 
for these commemorations to remember their sacrifice.
    Fourth, now and in the future, the U.S. and northeast Asian nations 
cannot secure their interests and economic prosperity without credible, 
rapidly-deployable, air/land/sea forces in Korea. Presence is security, 
commitment to friends, and access into the region. As the only presence 
on the mainland of east Asia, U.S. forces in Korea will play a vital 
role in the future peace and stability of the region.
    Finally, you can be justifiably proud of all the exceptional things 
the soldiers, sailors, airmen, marines, and Defense Department 
civilians continue to do with great spirit and conviction. They remain 
our most valuable asset. They sacrifice for our Nation every day. This 
is why we remain so firm that we owe all those who faithfully serve 
proper resources for training, a quality infrastructure, and an 
adequate quality of life. Again, thank you for this opportunity to 
share our thoughts with you.

    Chairman Warner. Thank you.
    We will have a 6-minute round of questioning for each 
member.
    I am going to lead right off, General Schwartz. During the 
course of President Bush's campaign, he addressed the serious 
problems associated with retention of our middle grade officer 
corps and senior enlisted. One of the root problems was over-
deployment. While you speak with great pride as to the number 
of times that you and your subordinates have served in Korea, 
nonetheless, President Bush and Secretary Rumsfeld and the team 
have to look to determine whether or not there are areas of the 
world in which we can reduce the U.S. presence which, in turn, 
hopefully will reduce the number of deployments. In our 
judgment--at least mine--the last administration was over-
deployed with our Armed Forces and underfunded.
    Now, is your AOR one in which the Bush team can look at and 
determine, based on your recommendations, that there is a basis 
for a reduction of the total number of personnel which, in 
turn, would reflect Army-wide fewer deployments?
    General Schwartz. I think my answer to that, Senator 
Warner, would be this. With the current situation like it is, 
with the threat as we see it, with the words that I used, 
``bigger, better, closer, deadlier,'' I would not recommend any 
cut or reduction of force in the Korean peninsula at this time. 
If, however, in the future we go down the path of 
reconciliation, if we go down the path of confidence-building 
measures that are verifiable and reciprocal, and we see that 
the north takes the actions--not the words, as you indicated in 
your opening statement, but the actions--to reduce the tension 
and to reduce the threat, then there could be a concomitant 
reduction of troops. But until we reach that period of time, I 
would not recommend to do so.
    Chairman Warner. You were present before this committee 
last year and have rejoined us this year. Is your AOR in your 
judgment subject to greater tensions and threat or about the 
same as last year?
    General Schwartz. Sir, I have to tell you the threat has 
gotten identifiably better in those areas that I talked about, 
and I can be more specific in a closed session. But the threat 
is better than we saw it last year. They are training at a 
higher level.
    Chairman Warner. When you say it is better, in other words, 
it places a more serious threat to our forces and those of 
South Korea.
    General Schwartz. Right, sir. I think the threat is more 
serious today than it was last year when I testified.
    Chairman Warner. Let us start off with your AOR, Admiral 
Blair. What about the threat condition last year when you 
appeared before this committee versus this year?
    Admiral Blair. Sir, the concerns that you have about the 
strain on our people of operations I think are more true of 
other theaters than of the Pacific Command. I would, in fact, 
point to the East Timor operation as an operation in which we 
were able to come up with some very creative ways of working 
within an international coalition in order not to have large 
deployments of U.S. forces.
    Right now we have 12 on-the-ground personnel in Dili, East 
Timor. That is down from about 500 last year. The rest of our 
presence is visits by Navy ships and often embarked Marine 
units. For instance, we have the Boxer Amphibious Ready Group 
with its embarked Marine Expeditionary Unit making a visit 
during its regularly scheduled deployment.
    So, we are taking advantage of the deployment capability we 
have within the force to get the job done. All of our ships are 
within their personnel tempo (PERSTEMPO) limits, and the same 
is basically true for the other services.
    Chairman Warner. Do you feel that within your AOR there 
could be some reduction in deployments, thereby reflecting on 
lessening the overall stress in the Navy on deployments and 
hopefully improving retention?
    Admiral Blair. I do not think the PERSTEMPO is a factor in 
retention in the Pacific theater. I think we are in good 
balance, sir.
    Chairman Warner. Returning again to the work that you 
perform--and it is a very valuable contribution to this most 
difficult decision that is facing our President with regard to 
how to structure this year's arms package for Taiwan--did you 
have consultations with our allies and friends, other nations 
in this region, and are their thoughts factored in? Because if 
we had the misfortune of an outbreak of hostilities requiring 
the presence or enhancement of U.S. forces to, hopefully, 
either stabilize or prevent it or, indeed, confront this 
problem, it would impact the entire region. Therefore, I think 
consultation with our allies should be a factor to be taken 
into consideration as we structure this package. All I need to 
know is procedurally, have you and your subordinates done that?
    Admiral Blair. We did not have specific discussions on the 
particular Taiwanese request this year. It is something that we 
discuss in general terms with allies, but there is not a 
procedure for a specific consultation with them.
    We do have specific consultations with the Taiwanese 
delegation itself. It comes to Washington to present the 
requests, along with rationale, and then it visits my 
headquarters in an unofficial capacity also to discuss it.
    Chairman Warner. As you look at the relations between China 
and Taiwan and compare those relationships today with 1 year 
ago, do you believe the tensions are about the same or higher?
    Admiral Blair. About the same, sir.
    Chairman Warner. Now, as you look at the military situation 
with a trend in China of putting in place specific 
installations, missiles foremost, they are predicated 
presumably solely for the balance of military power between 
China and Taiwan. Given that I think I understood you to say 
that that trend is increasing on behalf of China and therefore 
places upon Taiwan the need to enhance its own defenses, will 
the arms packages now being constructed in your judgment result 
in a balancing of this trend brought about by the initiatives 
in China?
    Admiral Blair. My recommendation is to take the actions 
necessary to maintain that balance, and I believe that balance 
is well attainable under current conditions. There have been 
improvements in the People's Liberation Army (PLA), as I said. 
It is a mixed picture as far as the advanced weaponry goes. 
There have also been improvements in the Taiwanese Armed Forces 
as they also bring new systems on line. So, what you are 
talking about is the balance here, and that is the way my 
staff, my components, and I evaluate it.
    Chairman Warner. But in simple language, given the trend of 
increases you see on the behalf of China in its defense, 
increased spending, and the placement of missiles, that balance 
will no longer be present unless there is an enhancement of the 
arms package to Taiwan. Is that correct?
    Admiral Blair. There has to be an enhancement of Taiwan's 
capability through a combination of what they buy from us, what 
they manufacture from us, and what they buy from others.
    Chairman Warner. To bring that back in balance again.
    Admiral Blair. To maintain the balance.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. General Pace, one of the conclusions that 
Senators Reed, Ben Nelson, Bill Nelson, and I reached following 
our visit to Colombia was that--and here I am quoting--``the 
continued strengthening, modernization, and professionalization 
of the Colombian military is the best hope for weakening the 
narcotraffickers' strangle-hold on Colombian society, advancing 
the rule of law to protect the rights of all Colombians, and 
ending the massive violations of human rights in Colombia.'' 
Would you agree with that?
    General Pace. Sir, I agree with that 100 percent.
    Senator Levin. Could you tell us, General, about your views 
as to how serious you believe the Colombian army leadership is 
to end the cooperation between the Colombian army units in the 
field and the paramilitaries?
    General Pace. Senator, thank you.
    I am convinced that the senior leadership is dedicated to 
do that. I have been to Colombia seven times, sir. I have had 
the pleasure of meeting, on various occasions, with President 
Pastrana; on almost every occasion, Minister of Defense 
Ramirez; and on every occasion, General Tapias, who is their 
chairman, and the service chiefs of the Army, Navy, and Air 
Force. We have had discussions. We have visited field units. We 
have talked both about human rights violations and about 
collusion with the paramilitary.
    The Army of Colombia initially attacked the problem that 
they had with human rights. They have embedded in their 
training program human rights training. As an example of the 
success they have had there, 2 years ago about 60 percent of 
the accusations of human rights abuse inside Colombia were 
against the Colombian military. This past year, just under 2 
percent of all accusations of human rights abuse was against 
the Colombian military. The Colombian military's standing 
within the public has raised from number 10 in public opinion 
polls to number 1. So, the Colombian military has, in fact, 
taken on the human rights responsibilities that they have with 
vigor.
    They have now turned that same focus onto collusion with 
the paramilitary.
    Senator Levin. In an attempt to end it.
    General Pace. Correct, sir. The leadership understands that 
it has been going on. They understand that it is unacceptable. 
They have undertaken to train their units in that regard, and 
in fact they have specifically said that they view the 
paramilitaries and, in their words, the ``illegal self-defense 
forces,'' to be the largest long-term threat to the survival of 
their democracy. Colombia uses the term illegal self-defense 
forces, because they think the use of paramilitary gives the 
organizations too much credibility.
    Senator Levin. Thank you.
    Admiral Blair, on the question of Chinese military 
spending, I understand there has been about a 17 percent hike 
in military spending in China. But most experts have previously 
concluded that China put economic development above military 
modernization. I am wondering whether in your view the hike in 
military spending means that the Chinese leadership has changed 
its priorities.
    Admiral Blair. No, Senator, I do not believe it does. It is 
interesting. The Chinese proudly announced a 17.7 percent 
increase, and when I asked 17.7 percent of what, the answers 
got a little vague. Chinese military budget accounting is 
evolving, to put it charitably, opaque to put it more 
realistically. There are various items off budget, and clearly 
the claims that they make of an overall spending of on the 
order of less than $20 billion just does not make any sense.
    That being said, I do not believe that the fundamental 
priorities of the Chinese Government have changed. The Chinese 
officers that I talked to clearly feel underfunded. They feel 
that they are not being given the resources that they need, and 
the government leaders, according to the most careful estimates 
that I have, are keeping them underfunded.
    Senator Levin. Thank you.
    Admiral, this goes to both you and General Schwartz. It has 
to do with the Perry recommendations, the two-track policy 
approach that he recommended relative to North Korea. I 
understand that he worked carefully with your command, General 
Schwartz, and I believe also with the Pacific Command before 
those recommendations were made. It is my understanding that 
his recommendations had the full support of both commands. Is 
that correct? I could ask either or both of you.
    Admiral Blair. I can start because I was there, Senator 
Levin, when Secretary Perry was doing his study. The 
fundamental pieces of what he recommended, that we must 
maintain the deterrent capability, that we must consult closely 
with both Japan and Korea, and that we should pursue a policy 
of offering Korea a balanced set of incentives to stop the 
behavior that was dangerous to its neighbors and to us in 
return for relief with their diplomatic and economic isolation 
was certainly something that we supported.
    General Schwartz. I think I add, sir, that the Perry 
process was a comprehensive review, and it went across the 
Agreed Framework of the missile moratorium. Certainly from what 
I hear from the administration right now that same 
comprehensive review is taking place, looking at everything 
that is in place and reviewing what we had done in the past and 
trying to make recommendations to move forward. So, I think it 
is a starting point certainly for all of us. As I testified 
last year, I think the Perry process took us a long way towards 
where we find ourselves on the peninsula at this time in terms 
of negotiation and even the summit that we have had and some of 
the historic things that have taken place in the last year.
    Senator Levin. Did he work carefully with your command 
before making those recommendations?
    General Schwartz. Sir, he did. In fact, I was almost 
flabbergasted at the amount of time that he spent on the 
peninsula talking to us and working with us in developing his 
recommendations.
    Senator Levin. Did the recommendations have the support of 
your command?
    General Schwartz. Yes, sir, they did.
    Senator Levin. On the question of the Framework Agreement, 
it has kept North Korea from producing enough plutonium for 
dozens of nuclear weapons. Are we better off militarily if 
North Korea does not have those additional weapons, does not 
produce that additional plutonium? Does that leave us better 
off?
    General Schwartz. Sir, I do not think there is any doubt 
about it. If they are not producing fissile material, they are 
not then able to produce the nuclear weapons that we are so 
concerned about. So, when we have an agreement like the Agreed 
Framework and it freezes that capability, at least at two 
locations, like it has, that is beneficial. There is no doubt.
    Senator Levin. Just a quick brief answer, if I can, from 
each of you. As the CINCs, can you tell us whether or not you 
are participating in the strategy review that is going on now 
in the Defense Department? Can you just tell us if you have an 
active role now in that strategy review?
    General Schwartz. Sir, I will give you an example for 
Korea. Ambassador Hubbard is there right now with a team that 
is the policy formulation team for this current administration. 
It's on the peninsula for the next 3 or 4 days, briefing some 
draft recommendations, getting feedback from us, as well as the 
Koreans, then moving on to Japan. So, that process is active 
and taking place on the peninsula.
    Senator Levin. Admiral, are you actively involved in that 
review?
    Admiral Blair. Are you talking about the review of North 
Korean policy?
    Senator Levin. No, generally.
    Admiral Blair. The overall strategy review. Yes, sir, I am 
involved in the overall strategy review.
    Senator Levin. Thank you.
    General Pace. Sir, Secretary Rumsfeld gave me a draft last 
night and asked me to be prepared to discuss it with him 
tonight.
    Senator Levin. Great. Thanks.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Schwartz, you used in your opening statement the 
term ``well-trained, fit-to-fight.'' I have visited you in 
different incarnations that you have had, and one thing I have 
noticed is you are able to get fitness programs squeezed out of 
nothing. Are you satisfied with your quality of life and your 
fitness program there?
    General Schwartz. Sir, I am not, to be honest with you. I 
am looking hard at the fitness programs. I am looking hard at 
the quality of life, and I am trying to articulate some of our 
needs. I have done so in my formal statement, and I am doing so 
as I make visits around to Congress and the Senators. So, I am 
trying to articulate a better effort in that regard.
    We are trained and ready, but when we look at the 
infrastructure and we look at the quality of life aspects of 
Korea, 50 years, 1 year at a time, there is a lot of work that 
needs to be done to get that theater and that peninsula up to 
speed.
    Senator Inhofe. When you talk about when you look up north 
the threat that is up there, I know that right now they are 
reviewing a lot of this new equipment that we are talking 
about, such as the Crusader, but do you see a real need for a 
high rate of fire artillery piece in terms of reducing the 
threat that you are facing?
    General Schwartz. Senator Inhofe, I do. One of the 
imbalances we have on the peninsula is artillery. The 
capability of the North Koreans--they have the world's largest 
stockpile of multiple rocket launchers. They have the world's 
largest artillery force for such a small nation. I am very 
concerned about that capability, and anything we can do in the 
south to offset that to bring that into balance with respect to 
the Crusader or any other artillery systems, I would be in 
favor of.
    Senator Inhofe. Yes, because we are right now deficient 
compared to them in the rapid fire realm.
    General Pace, this is not consistent with what we are 
supposed to be asking at this hearing, but because of something 
else that is going on right now and because of the Pace-Fallon 
report that you were involved in, I would just like to ask you 
the question. As far as Vieques is concerned, I made an effort 
to see all of the possible alternative sites and came back 
satisfied that there is none.
    But just recently the two sites in Nevis came up. Since 
they were not on my list to go see, I would like to ask if you 
remember why they were or were not alternatives for this type 
of integrated training.
    General Pace. Sir, Admiral Fallon and I looked at that 
early on in our deliberations for the report we provided. It 
did not make the final cut because it lies in the path of a 
very heavily trafficked civil aircraft area.
    Senator Inhofe. So, neither one of those made your list to 
examine.
    General Pace. That is correct.
    Senator Inhofe. Admiral Blair, when Senator Warner talked 
about how you would assess the threat today relative to 5 years 
ago, you thought for a while and said, about the same. I think 
your answer is probably accurate, but it is very serious. It 
was 5 years ago, as I recall, when China was putting on its 
show there in the Taiwan Straits. I think at that time it was 
to influence the elections. That is when one of the high 
officials said we are not concerned about America intervening 
because they would rather defend Los Angeles than Taipei.
    Then more recently, when they made the statement that war 
with America is inevitable--now, these are things that have 
been happening over the last 5 years.
    Then just a few months ago, when you met privately with 
some of the Chinese generals in Beijing and informed them that 
the United States stands ready to defend Taiwan in the event of 
Chinese attack, according to one official, he dismissed your 
statement as a laughable bluster.
    Now, in light of the buildup that is going on there, we 
talked about the budget. We have not talked about the fact that 
they are buying an unknown number of SU-27s, SU-30s, things 
that are as good or better than those things that we have right 
now. Even though you assess the threat the same today, I did 
not want that answer to imply that, for some reason, it is not 
that serious.
    Admiral Blair. Sir, no, I was answering the question about 
there is a relative threat today.
    I read that same newspaper article, and I do not know what 
the hell they were talking about. When I talk to Chinese 
officials and tell them that we can take care of our 
responsibilities there, they do not dismiss it one bit. In 
fact, quite the contrary.
    Senator Inhofe. In your opening statement, you talked about 
readiness and some of your problems. In terms of readiness, I 
would like to ask both of the Generals to respond in the same 
way. What is the nature of your readiness problems for the RPM 
accounts, quality of life, which I always consider to be a 
readiness issue, not a personnel issue, force structure? What 
are your readiness problems, General Pace and then General 
Schwartz?
    General Pace. Sir, in my area of responsibility, I have 
very few troops actually assigned to me. I get all troops 
deployed to me from the Joint Forces Command under the 
authority of the Secretary. So, I am very fortunate in that the 
troops who come to work in the SOUTHCOM AOR are, in fact, fully 
trained and ready to perform.
    Senator Inhofe. You do not have the problem.
    General Pace. So, I do not have readiness problems. That is 
right, sir.
    Senator Inhofe. General Schwartz.
    General Schwartz. I think I would comment on it just to 
reinforce a couple that I started my opening statement with. 
Some of the readiness concerns that I have, of course, are in 
the C\4\I area, command and control and the protection of our 
command and control facilities in terms of hardening and in 
terms of the fiber optics we need. I would say that was number 
one.
    The upgrading of our battle simulation center so we can 
have the robust exercises that we have, and the sustainment of 
dollars to conduct those exercises is very important to us.
    The force protection effort, as I indicated, is 
tremendously important because we found ourselves all over that 
peninsula and we find ourselves in a situation now where we 
have not been able to take the force protection measures that 
we are confident that we need to take for the future. So, we 
will need some dollars to fix some of that.
    Then, of course, I would just maybe end with this, the RPM, 
the real property maintenance account. We have a tremendous 
need for dollars to fix some of the things that are 30- and 40-
years-old that we just have not been able to fix. Those dollars 
are in the millions, and we just need to get our hands around 
that and some money to fix some of the things.
    Senator Inhofe. By the very nature of an RPM account, that 
is something that should be done immediately. Yet, you do have 
a great need there, just as the other CINCs do that we have 
talked to. That seems to be consistent.
    General Schwartz. Yes, sir. There is no doubt.
    Senator Inhofe. Thank you very much.
    General Pace. Senator, if I may, I answered your question 
based on the troops and equipment that deploys to my AOR. To be 
more complete in my answer, I can give you a very thorough 
answer about ISR in the closed session.
    Senator Inhofe. Very good. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General Schwartz, I noticed that you are originally from 
St. Paul, Minnesota, and your distinguished service greatly 
enhances your native State. So, thank you.
    General Schwartz. Thank you very much.
    Senator Dayton. You spoke briefly and you mentioned that 
you had discussed this at greater length with the Chairman 
about the treatment of our service men and women who are 
deployed, as well as their families who are left behind. I had 
the very sad duty last week to go to Fort Bragg to attend the 
memorial service for an Army Ranger, Sergeant Troy Westburg 
from Minnesota, who was deployed to Kuwait, his first overseas 
tour of service, and 1 month later was returned home to his 
family with the loss of his life. So, it underscored to me the 
sacrifices that these men and women are prepared to make and 
are sometimes called upon to make are very real. For their 
families, the separation over that period of time at best is a 
hardship and at worst is a lifelong tragedy.
    So, I wonder if you could elaborate on your brief comment 
about how the rations and other ways in which these families 
are subjected to what you would consider unfair, undue hardship 
financially and otherwise and what can we do, what should we do 
to remediate that?
    General Schwartz. Thank you very much, sir. I appreciate 
the opportunity to comment on that.
    The separation is tough. It is long. It is hard. When you 
look into the eyes of these great people, you can see the hurt. 
There is a hurt there. They serve and they are willing to do 
that. That is what they signed up for. There is tremendous 
opportunity on that peninsula for them to train and do the 
things that they love. So, there is a hurt but there is also a 
love of what they do.
    But if you just look on the hurt side and the quality of 
life side, we need to improve the barracks situation over 
there. We need to improve the quality of life over there in 
terms of the facilities that we have, dining facilities and 
gyms. So, we need to pick up on that.
    But when you get into the individual soldier, sailor, 
airman, and marine, I think there are a couple of things we can 
do. We can look at this whole issue of separate rations, which 
I commented on, because when they deploy to that theater and 
they leave that family and that spouse behind, that is a big 
hurt. That is about a $4,000 a year hurt that she or he has 
when they are deployed away from home for a year. So, we need 
to take a hard look at that and see if we are doing the right 
thing there and see if we can provide the means to give it back 
to them, or at least not take it away.
    The second thing is--and I have talked several times about 
this--we ought to look seriously about a tax exclusion for 
these folks because when they are deployed in other areas of 
the world, when they are deployed to the Balkans, when they are 
deployed to Kuwait, we give these great soldiers, sailors, 
airmen, and marines a tax exclusion. It is a tremendous boost 
in morale. It is a tremendous vote of confidence for their 
sacrifice when they are deployed away from home. It helps that 
family back home. It helps that soldier say, this is not 
hurting me as much when I am gone for a year, and it kind of 
covers some of those hidden expenses.
    I have been doing some surveys about those hidden expenses, 
and they are anywhere from $4,000 to $6,000 out of each 
servicemember's pocket per year. Plus the separate rations 
hurt. When you add that all together, you are starting to talk 
about $10,000 to $12,000 that a servicemember has to pay to 
serve away from home. So, there are some things that we need to 
do and take a hard look at to try to help them when they are 
repetitively going back to a theater like Korea.
    Senator Dayton. Thank you, sir.
    If you have any specifics on that, being a freshman member 
of this committee, you can help educate me and also additional 
remedies. I would appreciate if you would send those to me. 
Thank you.
    General Schwartz. Thank you, sir. We will do. I will follow 
up on that.
    Senator Dayton. Thank you very much.
    General Pace, you mentioned Colombia. We have had a couple 
of briefings on that, including a meeting with the Defense 
Minister of Colombia. Some of the comments that he made struck 
a note in my memory bank. He referred to the light at the end 
of the tunnel in the situation there. Your testimony, sir, 
refers to the increased paramilitary activity, kidnappings, and 
the like which seems, given our involvement in what some might 
view as the domestic affairs of that country, would be almost a 
natural follow-on to what we are doing.
    I understand that these policies are made by civilian 
authorities, but from a military standpoint, how do you view 
realistically the situation there?
    As a corollary to that, I appreciate that in your prepared 
remarks you referred to this illicit drug industry as a growing 
threat to the United States homeland which corroborates in my 
own view that one of, if not the greatest, threat to our 
national security is this flow of illicit drugs into this 
country and the devastating effect it is having on our cities, 
our youth, and the like.
    What, if anything, from a military standpoint could we do 
to increase the interdiction of these narcotics coming into 
this country to make the transport of them something that would 
be seen as so life-threatening that we would have a greater 
deterrence on those who are trafficking, it seems often without 
impunity?
    General Pace. Senator, thank you very much. I will try to 
give you the Reader's Digest version of the answer to both 
those very important questions.
    With regard to the situation, sir, President Pastrana's 
Plan Colombia, which we are supporting through the bipartisan 
support of our Congress, has 10 very distinct parts, one of 
which is the military piece. The other nine are such things as 
revamping the judiciary, improving the schools, improving the 
health, building roads, alternative crop development, and all 
the kinds of things that will actually be the make or break 
part of the plan and will determine whether or not it is 
successful in the future. But to get there, the military and 
police are providing a secure environment, which allows the 
other nine parts to take place and is very important.
    Today, the combined capabilities of the Colombian military 
and Colombian police is not sufficient to provide security for 
the entire country. They can, in fact, do set-piece battles and 
win. They can go to a particular part of the country, take 
control of it, and sustain that control, but they are not large 
enough to be able to provide security for the entire country.
    As a result of that, the military support that we are 
providing in the form of assisting them to train their 
counternarcotics brigade and assisting them through our State 
Department to obtain helicopters and to marry up the 
helicopters with the counternarcotics brigade is, in fact, 
helping them very much.
    The plan by President Pastrana to increase the size of his 
military by 10,000 a year, each year for the next several years 
will, in fact, go a long way toward allowing him to have the 
size force and the professional size force to be able to 
provide the security he needs.
    So, from my perspective, the plan as laid out, if 
aggressively pursued, can in fact reach the goal for which it 
is intended, sir.
    To your second question, sir, as far as threat to the 
homeland, sir, I consider drugs to be a weapon of mass 
destruction. It is a threat to our homeland. If I had $1 to 
spend, I would spend it on demand reduction. The second place I 
would spend money is in the source zone we are helping right 
now, and the third place I would spend money would be in the 
transit zone. The reason I put it in that priority is that is 
where I believe our efforts will provide the most success in 
the long term. It is very difficult, once it is produced and it 
begins its transit to the United States, through the eastern 
Pacific, up through Central America, through the Caribbean, up 
through the islands, to chase those arrows once they have left 
the bow to try to catch them in flight or determine where they 
are going to land.
    Senator Dayton. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    We will now hear from Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Admiral Blair, I was reading excerpts of some remarks you 
made recently in a speech regarding the concept of security 
communities. Some of what you say makes sense. A couple of 
things concern me. Let me just briefly pull out a couple of 
lines and then ask for your comment.
    The prevalent way of thinking about international relations 
throughout Asia and the Pacific is in balance of power.
    You go on to say that is the world of Bismarck in 19th 
century Europe. An alternative approach, offering the prospect 
of a brighter future in Asia and better suited to the concerns 
of the 21st century is one in which states cooperate in areas 
of shared interest, such as peaceful development, diplomacy 
promotion, and the use of negotiation. In essence, it would be 
preferable to promote security communities as opposed to the 
old balance of power.
    Then you go on to say the problem is not force structure. 
It's zero sum balance of power mindsets and ambiguous 
intentions, fueled by ethnic and religious zeal, et cetera.
    Then you say here part of the answer lies in developing 
regional, multilateral approaches to common security 
challenges. The most effective method is to develop policy 
coordination, including combined military cooperation, on a 
particular regional security military issue or a series of 
related security issues.
    I understand where you are coming from in terms of trying 
to relax tensions and work together in a community sense, a 
security community. But combined military cooperation, if you 
were to move that to a region such as the Taiwan Straits and 
try to come up with a common security community, how would you 
do that in such a region as that?
    My understanding of the military cooperation with China is 
it is a one-way street. We give and they give nothing. So, I am 
very concerned about that particular statement as to how it may 
apply to China in your region of AOR.
    Admiral Blair. Sir, I think in our relationship with China, 
we have areas in which our interests coincide and we have areas 
in which we are at odds. Clearly, Taiwan is the area where we 
are most at odds because they reserve the right to use force 
and we reserve the right for them not to use force.
    On the other hand, there are many areas in which the 
interests of the two countries run parallel: resolving the 
Korean Peninsula situation peacefully without conflict, 
ensuring that southeast Asia is a region which is secure and 
developing peacefully, the flow of oil from the Persian Gulf, 
on which China is becoming dependent, and many other allies of 
the United States of that region are dependent on, 
transnational issues such as narcotics. General Pace was 
talking about narcotics coming up from Colombia. There is also 
a flow from the Golden Triangle through southern China out to 
all countries in the region. It is affecting China. It is 
affecting other countries in southeast Asia. Part of it comes 
to the United States. Terrorism, which is a threat to both of 
our countries.
    In addition, virtually all of those areas that I have 
talked about are areas that are not just in China's and the 
United States' interest. They are in the interest of the other 
countries in the region. North Korea is the interest of all of 
the countries in the region. Transnational issues are in the 
interest of all. Southeast Asian stability is in the interest 
of all.
    So, I believe that in those areas, the United States, 
China, and other countries can cooperate, including military 
cooperation on things like peacekeeping, disaster relief, 
basically the non-warfighting military cooperative areas. I 
think we can develop areas in which we can productively work 
together and stand a better chance of isolating the holdovers 
from past conflicts, such as the Korean standoff, such as the 
Taiwan Strait standoff. So, I think it offers a way for China 
to develop constructively and for the United States and other 
countries to make that same approach.
    Senator Smith. Did you make any recommendations to 
Secretary Rumsfeld on Taiwan arms sales?
    Admiral Blair. I did.
    Senator Smith. I assume you choose to keep those private at 
this point.
    Admiral Blair. I would rather let the decision process play 
out, sir.
    Senator Smith. All right.
    Again, in the Taiwan Straits and looking at any possibility 
of what you call a security community, we have reports, at 
least from Taiwanese newspapers, about the Chinese using the 
Russian-made Sunburn missile in the region. The most 
significant purpose of that missile is to take out an aircraft 
carrier, to ``kill it'' is the exact term that they use. That 
sends to me a pretty clear message from the Chinese that they 
are intent on countering the U.S. Seventh Fleet's presence in 
the Taiwan Straits. With all due respect, I do not see how 
there can be shared or combined military cooperation with a 
country that is basically threatening our entire Seventh Fleet 
carrier force out there.
    What are we doing now to be able to protect our forces from 
any possible attack from a Sunburn missile, especially the 
several thousand men and women who would be on an aircraft 
carrier? What countermeasures are we taking to that missile 
being introduced into the region?
    Admiral Blair. The Seventh Fleet, in conjunction with the 
other forces that I can bring to bear, can ensure that China 
would not be successful in aggression against Taiwan should the 
decision be made to commit our forces. So, when you look at the 
whole picture, China right now cannot be successful in 
aggressing and, therefore, coercing Taiwan. That is the job 
that we have.
    As I mentioned, I think we should not have Taiwan define 
the entire U.S.-Chinese relationship. It should not define the 
entire military relationship. It certainly should not define 
the entire national relationship, which includes economic 
cooperation and all of the changes that information technology 
and generational change are bringing to China. So, I do not 
think that a military confrontation between the United States 
and China is inevitable, and I believe that we should pursue 
policies which makes it less likely rather than more likely.
    Senator Smith. My time is expired. If you want to say it in 
closed session fine, but I just want to ask, are our carriers 
in the Seventh Fleet in the Taiwan Straits threatened by 
Sunburn missiles?
    Admiral Blair. The carriers in the Taiwan Strait can carry 
out their jobs, Sunburn missiles or no Sunburn missiles.
    Senator Smith. Thank you.
    Chairman Warner. Thank you very much, Senator Smith.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    General Pace, the U.S. Ambassador to Colombia, Ann 
Patterson, has indicated that spray planes in Colombia were 
shot at 122 times last year and American civilians are involved 
in flying those planes. Her assessment is that Americans are at 
risk in Colombia and that we will have Americans shot down.
    What is your view about the risk that Americans have in 
Colombia? Is it inevitable that Americans will be shot down?
    General Pace. Senator, thank you.
    The American civilians who are flying those aircraft are 
hired by our State Department to fly those airplanes. They are 
U.S. contractors who are flying the airplanes. They have, in 
fact, had at least 128 hits in the last year on these small 
airplanes that they fly. They continue to fly into the more 
difficult areas to reach. Where they have been spraying so far 
is in the flat areas. As they get into the more mountainous 
terrain where the folks on the ground can shoot at them not 
only straight up but from the sides, the environment in which 
they fly becomes more and more dangerous. It would not surprise 
me that over time that one of those aircraft will be shot down.
    Senator Kennedy. Well, if that happens, what are the 
procedures for search and rescue operations? Who is responsible 
for the Americans' safety?
    General Pace. Sir, those aircraft are flying in support of 
and as part of the Colombian National Police effort. The 
Colombian National Police have the search and rescue 
responsibilities. The helicopters that they use currently are 
manned both by Colombian pilots and by U.S. civilian contract 
pilots.
    Senator Kennedy. So, our military would not be involved in 
any of the search and rescues?
    General Pace. That is correct, sir.
    Senator Kennedy. Are the American civilians who are 
involved in flying these spray planes armed?
    General Pace. I do not know, sir. I can find out.
    [The information referred to follows:]

    [Deleted.] I defer to DOS for further information on this policy.

    Senator Kennedy. On the issue of collusion between the 
Colombian Armed Forces and the paramilitary, it is widely 
recognized that collusion between the two groups exists at the 
grassroots level, notwithstanding the efforts at the higher 
levels to address the problem. The State Department Human 
Rights Report states that in 2000 members of the security 
forces collaborated with the paramilitary groups that committed 
abuses, in some cases allowing such groups to pass through 
roadblocks, sharing information, or providing them with 
supplies and ammunition.
    Who is the highest ranking U.S. military person who has 
conveyed concerns about the links to the Colombian Government?
    General Pace. Sir, the highest ranking U.S. military 
officer who has conveyed that concern is me.
    Senator Kennedy. I know you made a brief reference earlier 
to Senator Levin. I know you have been there seven times, and I 
appreciate your earlier responses. Could you give us some idea 
about what the response was and what your own reaction is to 
it?
    General Pace. Sir, thank you.
    Sir, the response from President Pastrana, who broached the 
subject with me, Minister Ramirez, who broached the subject 
with me, General Tapias and all of his service commanders, who 
briefed me on it first, have all been of great concern. They 
recognize that they do have, at the lower levels, collusion 
with what we call the paramilitaries. They are determined to 
stamp out that collusion.
    As one indicator, I have been invited next week by General 
Tapias to go to sit down and debrief his senior staff, his 
service chiefs, and their senior staffs on my testimony in 
front of these committees so that they can better understand 
what issues are of importance to the United States Congress. 
Obviously, two of the issues I will talk to them about and 
debrief them on are human rights and collusion. So, they are 
very dedicated, sir, from the president on down, to stamping 
this out, just as in the past they focused on human rights 
violations and their record has improved dramatically.
    Senator Kennedy. Let me ask you this before I come to the 
human rights. Have the American military personnel on the 
ground in Colombia seen evidence of this collusion?
    General Pace. No, sir. We operate solely inside the 
training bases. We do not go out on operations, sir.
    Chairman Warner. Senator Kennedy, could I interrupt just a 
minute? I have to absent myself to go up and introduce the new 
nominee for the General Counsel of the Department of State, a 
former Deputy Secretary of Defense. So, I will be back in just 
a few minutes.
    If you, Senator Sessions, would take the chair.
    Senator Kennedy. On the issues of human rights, I have 
appreciated the percentages and the population. As one who was 
around during the pacification in Vietnam, I remember we used 
to have a checklist too. A hamlet was pacified if they had a 
well. They had 10 different things. If they had a well, they 
had a school, they had employment, they had housing, they had 
the other, it was pacified. So, it took us a long time to 
realize that we ought to look at what has happened in the 
inflation of rice that is coming into that hamlet in terms of 
understanding of what was really happening in that area or 
region. We became much more sophisticated in terms of the 
evaluation. I am sure you will want to do that as well.
    When we talk about the human rights, I am sure you will 
want to know the kinds of charges that were made, what level of 
human rights charges were made, what has been dropped, or what 
has not been dropped on this. They have gone from the 
percentages. I would like to know who is doing the polls. We 
have all been through polls. I am sure you have your own 
intelligence people who are looking at it. I am sure you are 
appropriately skeptical, as you would be, in trying to make any 
judgment on any policy sort of question.
    My time is up. If you have any reaction to that.
    But then if I could, Mr. Chairman, ask if SOUTHCOM is 
preparing a report on Colombia's paramilitary groups and their 
links with drug traffickers. I would like to see if SOUTHCOM 
could do one for the committee, if that is possible. I suppose 
that request order for the committee ought to come through the 
chair, but I will ask that and I will talk to the chair and the 
ranking member.
    General Pace. Sir, we can do that.
    [The information referred to follows:]

    Colombia has the most complex human rights environment in the Area 
of Responsibility (AOR) due to the symbiotic relationship between drug 
trafficking organizations (DTOs) and several illegal armed groups. We 
continue to see allegations that members of the Colombian Military 
(COLMIL) and National Police (CNP) maintain covert links to illegal 
self-defense forces, despite strong government and legal pressure to 
discontinue these ties.
    Illegal self-defense forces and insurgent groups are Colombia's 
worst human rights offenders. [Deleted.]
    In a concerted effort to improve its human rights record, the 
Colombian government has implemented the most aggressive human rights 
program in the hemisphere. Along these lines, the government and, in 
particular, the COLMIL, have made significant progress. During the 
1980s and early 1990s, about 60 percent of all reported accusations of 
human rights abuses were made against the security forces. In 2000, the 
number of accusations attributed to the security forces amounted to 
less than 2 percent, marking the fifth consecutive year in which 
accusations of human rights violations against the military have 
declined. This progress is a direct result of the effort made by 
Colombia's military leadership to change the culture of their 
institution. Specific measures have included educating their military 
on human rights standards, establishing a staff judge advocate corps, 
developing rules of engagement for the troops, and increasing the 
military's cooperation with civilian investigative and prosecutorial 
agencies.
    Civilian and military investigators pursue officers and soldiers 
accused of collusion. The military penal code that went into effect in 
August 2000 took human rights investigations out of the hands of field 
commanders and created a cadre of military prosecutors. The Colombian 
government has given civilian courts jurisdiction in cases not 
involving official duties. Punishments for security force members found 
guilty of collusion with illegal self-defense forces have ranged from 
administrative discipline to prison sentences.
    The COLMIL has declared a ``no tolerance'' policy against collusion 
by military members with self-defense forces and has successfully 
sought to condemn members linked to these groups and human rights 
violations. Reliable evidence on collaboration is limited, making it 
difficult to assess confidently the degree of collaboration within the 
COLMIL. 
    USSOUTHCOM uses all source information to poll human rights abuses 
in Colombia: [Deleted.]

    General Pace. My human rights information, sir, came from 
Ambassador Patterson and her country team. I am parroting 
information I received in country from the U.S. embassy.
    Senator Kennedy. I would just say that in your own 
evaluation to know the types of charges, what the allegations 
are, and how they are being dismissed, what officers, if they 
are officers, or noncommissioned people, to give a complete 
picture I think is going to be called for as well.
    But I thank you very much for your testimony. Thank you, 
Mr. Chairman, and I thank the Senator from Louisiana.
    Senator Sessions [presiding]. General Schwartz, I think it 
is my time to ask a few questions.
    With regard to Korea and the assignment of your fine 
soldiers there and the detriment and losses they incur in terms 
of income and their families--Senator Dayton I think mentioned 
it--where are we in getting that fixed? I think you are exactly 
correct. It is something that in terms of cost is not that 
great, but it strikes me as a real unfairness. It has to be a 
sore spot for the soldiers. Can we fix it and how close are we 
to getting it fixed?
    General Schwartz. Sir, let me say this. We are doing some 
of the things that we can do on our own. For example, we have 
just won a victory on the peninsula in terms of Korea being 
defined as a hardship tour. So, that allowed our soldiers, 
sailors, airmen, and marines to get up to as much as $150 a 
month this year that they did not get last year. That is a 
victory. They are tremendously excited about that. As I travel 
around the peninsula, all of them say to me, General Schwartz, 
thank you. It makes a difference. So, we have had some success 
ourselves.
    We are talking to the service chiefs about this separate 
ration issue and trying to articulate exactly the number of 
dollars that it would take for each service chief to chip in 
and try to pay that bill because it will have to come from the 
service chiefs. I am working that on my side.
    As far as the tax exclusion piece of it, I have seen many 
Members of the Senate and House and we are talking about that 
and the positive impact that it would have on the service 
people.
    So, I would tell you that we are moving, but we still have 
some work to do in terms of making it a reality.
    Senator Sessions. I hope you will keep us informed on it. I 
think this Congress would be ready to help you on that. It does 
strike me to be a significant matter.
    With regard to force protection in the 95 stations--you 
mean locations that you have troops in Korea--can those be 
consolidated? In the long run, would that be a cost-saver for 
our deployment in Korea?
    General Schwartz. Sir, thank you very much.
    Yes, they can be consolidated. I have started an initiative 
which I call the Land Partnership Plan, which we introduced 
this year for the first time. To give you an example of the 
magnitude of that effort, of the 95 I spoke of, 46 are major 
installations. We are going to reduce that, according to the 
plan, to 25 major installations. That is significant.
    We are cooperating with the South Koreans right now in that 
effort. We are moving it along, and I think it is going to be 
very successful. It is a 10-year plan. We have the ball 
rolling, and it looks like it is going to be a very successful 
one. We will save money in that effort, and we will improve the 
quality of life, and we will enhance the force protection 
effort for our servicemembers serving overseas. So, there are 
many benefits to that partnership plan that I am excited about.
    Senator Sessions. I think you are on the right track with 
that. I think that is what the President and the American 
people want to see. We want to see enhanced ability to do our 
job, and we like to do it in a way that saves money rather than 
costs us money. If in the short term it costs us some money, we 
are willing to put it up if in the long term we will receive a 
benefit.
    I do hope that we can reduce the number of personnel there. 
Every time we can, we can afford to do more for the ones who 
are there, you have fewer people away from their family, and it 
is less transfer of American wealth, it seems to me.
    So, I think you are on the right track and I hope that we 
can continue along that way. I believe you will have support 
here.
    General Schwartz. Thank you, sir.
    Senator Sessions. General Pace, have you had prior 
experience with the drug effort prior to this assignment?
    General Pace. Sir, in a minimal way in my previous 
assignment as the Commander of U.S. Marine Corps Forces in the 
Atlantic. We had some detachments that deployed to Peru and to 
Colombia to assist with riverine training. We also had some 
detachments that deployed to the southern border of the United 
States to assist law enforcement agencies there in detecting 
and monitoring traffic coming across the border. But that is 
the extent of my involvement.
    Senator Sessions. As a Federal prosecutor, beginning in 
1975, on the Gulf Coast dealing oftentimes with smuggling cases 
from Colombia which was the main source country for cocaine--
and remains so--I have seen and wrestled with that. I have seen 
a lot of plans that are going to fix the problem. Through 
interdiction we are going to stop it, or we are going to do it 
through focusing on the source countries.
    You correctly stated in your priority that demand reduction 
is number one. Demand reduction is a combination, in my view, 
of law enforcement and education and drug treatment and drug 
testing and things of that nature that do work in the United 
States.
    But I will just tell you--and I think I have expressed this 
to you before--we are not going to solve our drug problem by 
spraying the coca plant in Colombia. At one of our meetings in 
the Drug Caucus recently, I asked the DEA Director what his 
budget was. It was $1.3 billion, the same amount of money we 
are spending on Plan Colombia. Trust me, we will get a lot more 
anti-drug benefit from doubling DEA than we will for this Plan 
Colombia.
    Now, I supported Plan Colombia and expressed real concern 
about our full understanding of what it is about.
    So, I would like to ask you, again from what you understand 
the policy of the United States with regard to Colombia and 
Plan Colombia, if you would discuss with me what our goals are. 
How much of it is focused on drugs and how much of it is 
focused on helping Colombia reestablish a democratic society 
throughout its nation?
    General Pace. Sir, concerning the $1.3 billion supplemental 
last year, DOD has the responsibility to oversee about $250 
million. Of that $250 million, about $110 million to $120 
million is going to improving the capabilities of the three 
forward operating locations in Ecuador and El Salvador and in 
Aruba-Curacao so our airframes can fly so that they can do the 
detection and monitoring mission. The next large chunk of money 
is about $55 million that has gone into the support for the 
Colombian military, to assist them in improving their 
intelligence capability. The next level down then is the amount 
of money we are spending to train up a 3,000-man brigade, to 
assist them with some of the logistics and their maintenance, 
to assist in building the helicopter pads for the three groups 
of helicopters that are being bought by our State Department 
and sent down there. So, from the U.S. military standpoint, 
sir, the vast majority of the money is going into cement and 
into intelligence.
    Senator Sessions. I am just concerned. I will just restate 
my concern with this whole matter. Colombia is the oldest 
democracy in this hemisphere, I believe, except the United 
States, and it is 38 million people. They have been allies and 
friends of ours. They are a significant trading partner of the 
United States, and their nation is in jeopardy. Some of their 
best people are fleeing the country, are they not, a real 
emigration because of the terrorism and the attacks and the 
marxist guerillas taking over substantial portions of their 
country. We suggest the only way we can help them is to help 
them fight drugs.
    I think we need to be much more realistic about that. It 
would be a tragedy if we stand here and allow them to fall or 
be undermined or have the economy destroyed as a result of this 
guerilla effort.
    General Pace. Sir, I agree with you that this is a fight 
for democracy in Colombia to support that democracy. It is not 
an expectation of being able to wipe out coca. If you did wipe 
out every coca plant in the world, some other drug would be fed 
to the demand side, and I stand by and agree with you that the 
demand reduction is the most important.
    I have done a disservice to the State Department because I 
cannot speak to their numbers, but I do know that inside of 
their $1 billion plus of the $1.3 billion, that there are 
alternative crop developments and support for the other nine 
parts of Plan Colombia other than military that are the key to 
success.
    But I agree with you, sir, this is supporting our friends 
and neighbors, supporting a fellow democracy, while we also 
assist ourselves.
    Senator Sessions. We have a huge demilitarized zone for the 
FARC that allows them to operate without any attack, under 
complete protection. Now--I believe yesterday--the United 
States Ambassador to Colombia, Ann Patterson, has endorsed a 
proposal to grant Colombia's second largest rebel group a 
demilitarized enclave, another one, a second one, a 5,000-
member National Liberation Army, another marxist group. Do you 
think that makes good sense militarily?
    General Pace. Sir, if I may give you an answer to that 
question in detail in closed session, I would appreciate the 
opportunity to do that.
    Senator Sessions. It does not make good sense to me. I hope 
that somehow we can reach a stage that we can help Colombia. 
They are a good nation and important to this hemisphere.
    Admiral Blair. Senator Sessions, may I just add one point 
to your discussion with General Schwartz earlier? I think it is 
important to note that both Korea and Japan provide support to 
the U.S. forces there to the tune of $5 billion, $4.5 billion 
from Japan in direct contributions, half a billion in direct 
contributions from Korea. So, it is a shared responsibility 
over there.
    Senator Sessions. We certainly do not want to destabilize 
that area and not be too rapid, but to the extent to which we 
could reduce our numbers, make life better for the ones who are 
there, it would be helpful.
    Senator Landrieu.
    Senator Landrieu. Thank you.
    Generals, thank you for your service and for your testimony 
this morning. Let me just follow up because Senator Sessions 
and I have similar views about our operations and our focus on 
Latin America and Central America. Representing Alabama and 
Louisiana, they are neighbors right to our south, and so our 
attention is drawn quite naturally, if you will, to that 
particular area of the world. His expertise in this area I have 
come to respect in terms of his prosecutorial skills.
    I happen to agree that our Plan Colombia has to be much 
more comprehensive. It is not just a war against drugs, but it 
is a war for democracy, to help strengthen those nations. It is 
most certainly in our interest, the entire country, and 
particularly in the southern part of our Nation, because of the 
close proximity of Colombia.
    So, let me just ask you to follow up, General Pace. I know 
that you are only responsible for one part of this plan, but 
could you state one or two constructive either criticisms or 
changes you would make based on what you have seen in the last 
year or 2 that we could focus our attention on in terms of 
reaching the goals of Plan Colombia, anything that you could 
direct us? I know you have said some of that in your testimony 
already, but one or two things that you could suggest to us 
that we could do to perhaps reach the goals as outlined in Plan 
Colombia.
    General Pace. Yes, ma'am, thank you. Senator, one of the 
problems about Plan Colombia is that there will be spill-over. 
Just as when Peru and Bolivia in recent years were very 
aggressive in attacking their problem, as they were aggressive, 
the businessmen, who are interested in making money, moved from 
the point of resistance, Peru and Bolivia, into the point of 
least resistance, Colombia, and set up shop there. So, as 
Colombia becomes aggressive in their implementation of their 
plan, the businessmen will look for another place to set up 
shop.
    I think what we need to do collectively is to encourage the 
regional nations, the bordering nations especially with 
Colombia, to discuss with each other how best to handle the 
overall impact so that we do not continually have things 
seeping over borders. Then once they have had a chance to come 
up with regional solutions to regional problems, then we can be 
their partner in assisting them to attain those goals together.
    Senator Landrieu. So, a more regional approach, which is I 
think the way we originally started with Plan Colombia, but 
perhaps as it went through the process, it got somewhat watered 
down. So, we should, in your opinion, focus on strengthening 
the regional aspects of that plan so that we could increase our 
chances of success.
    General Pace. Last year there was about $180 million 
allocated inside the $1.3 billion that went to the region. 
About $110 million of that went to Bolivia. About $32 million 
was earmarked for Peru, and the rest went to about five or six 
other nations. As I said, I think now we are in a position, now 
that we have seen the beginning impacts of Plan Colombia, to 
have a much more robust dialogue with the other nations to 
determine how to have a better regional approach.
    Senator Landrieu. On another subject, each year through the 
budget cycle, we go through an annual debate over the needs of 
our CINCs and their battlefields and their theaters for 
surveillance. We talk a great deal about new technologies 
developing in that area. But currently we are bolstered by our 
JSTAR technology. General Pace and Admiral Blair, do you have 
enough access to these platforms? Are you having any difficulty 
with your surveillance? Are you getting adequate coverage in 
this regard?
    General Pace. Senator, thank you.
    I do not know that you will ever get a commander to sit in 
front of you and say he or she has all the intelligence they 
need. We always want more.
    I do believe that my requirements receive a fair hearing 
inside the decision process here in Washington and that I am 
allocated a fair share of those intelligence, surveillance, and 
reconnaissance assets that are available. I would like to give 
you a more complete answer in closed session, to be more 
definitive about the types of problems I have.
    The short answer is I do not have enough ISR, but it is not 
because of the system not being adequate or fair with me. It is 
just that across the board, we do not have enough national 
capability. Therefore, when you spread out what I need and what 
Tommy needs and what Denny needs and what the other CINCs need, 
there is just not enough to go around.
    Senator Landrieu. Thank you, and I will look forward to 
that closed session.
    Admiral Blair.
    Admiral Blair. The primary airborne assets that are used to 
keep track of what is going on in the theater are virtually all 
in the so-called high demand/low density category, which means 
that the Joint Staff and then the Secretary of Defense have to 
make priority decisions.
    We find in the Pacific theater that when there are no 
crises in other parts of the world, we can keep a pretty good 
eye on what we have to keep it on. When something is going on 
in other parts of the world that draws assets, an air war in 
Kosovo or heightened tensions in the Persian Gulf, then we are 
cut a little short with those assets that support General 
Schwartz and the rest of the theater that I keep an eye on.
    We have been able to take partial measures to compensate, 
but we are squeezed a little tight. We made this input 
internally. We need additional Rivet Joints, EP-3s, and similar 
systems.
    Senator Landrieu. I would like to help you with that.
    Just one final comment, Mr. Chairman, if I could. General 
Schwartz, I look forward to helping you in your efforts to 
build up our bases in Korea. I have tried to focus my time on 
this committee on the areas of retaining in terms of retention. 
As my good friend from Georgia says, we may recruit a soldier, 
but we retain a family. When you are talking about retention, 
the issues that you have so beautifully expressed this morning 
I think are very important and sometimes overlooked. The 
importance of housing and compensation and steady paychecks and 
predictable deployments I think have a great deal to do with 
the strengthening of our force. They are not soft issues. 
Sometimes we want to think there are hard issues and soft 
issues, but they are all important issues and they are all 
about building our force. So, I look forward to working with 
you.
    My time is up at this point, but I would like some specific 
numbers from you about what we are talking about in terms of 
investments because this Senator thinks that we should take a 
part of this surplus and invest in our military now. We do not 
have to wait for the strategic plan in many instances to 
understand what our housing and our maintenance and operation 
budgets and our MILCON budgets need. So, I am hoping that this 
committee can be forceful in getting some of that investment 
made sooner as opposed to later.
    General Schwartz. Thank you very much, ma'am, and I will 
make it a point to come by and brief you.
    Senator Landrieu. Thank you.
    Chairman Warner [presiding]. Thank you very much, Senator.
    Our committee is fortunate to have two distinguished 
Senators, both with the name of Nelson, and our records show 
you arrived simultaneously this morning. [Laughter.]
    If you gentlemen would sort out between yourselves, based 
on seniority or any other formula you wish, as to who goes 
first and who goes second.
    Senator Bill Nelson. I am senior but I will defer.
    Chairman Warner. That is very gracious. I hope your 
colleague remembers that in the future.
    Senator Ben Nelson. Thank you very much, Mr. Chairman, and 
thank you, Senator Nelson.
    We appreciate very much the three of you being here today. 
It is good to see you and have the opportunity to visit with 
you. It is good to see General Pace who accompanied us and so 
very ably hosted us on our trip recently to Colombia. I 
appreciate very much every courtesy, as well as the opportunity 
to learn more about what is happening in that part of the 
world.
    One of the subjects that is getting more attention today 
than it has maybe rather recently, but has in the past flared 
up and raised questions, is the relationship between the 
Republic of China and the People's Republic of China, the 
tensions that continue to exist and are exerted. Admiral Blair, 
you may have already gotten into this before we arrived. I 
apologize for being late. I was on the Senate floor for the 
campaign finance reform matter, so I was delayed getting over 
here.
    But I guess the question I would have, having visited both 
Taiwan and mainland China, is what the threat level is to 
Taiwan from China at the present time, and what impact would 
the sale of certain military craft that is being sought by the 
Taiwanese have on U.S.-China relations?
    Admiral Blair. Sir, I am senior but I will yield to General 
Pace on that. [Laughter.]
    The current military state across the Strait, Senator, is 
that China is capable of causing damage to Taiwan. It is not 
capable of taking and holding Taiwan.
    The requests which Taiwan has made include strengthening of 
their fleet air defense. It is largely an antiquated system and 
the types of surface combatants they have asked for would allow 
their surface combatants to take part in both defense of naval 
forces and in a joint defense of other areas within Taiwan.
    Senator Ben Nelson. If we were to assist Taiwan by the sale 
of additional military hardware to them, what impact do you 
think that might have on U.S.-China relations?
    Admiral Blair. It really depends on the nature of the 
equipment that is sold to them. Those decisions are in process 
now. My input to it is based on what is necessary to maintain 
sufficient defense, which is the standard that we use. That 
recommendation is rolled in with the sort of considerations 
that you mentioned and then the President will be making a 
decision. So, that is in process right now and I have made my 
input.
    Senator Ben Nelson. The effort, though, would be to try to 
maintain some level of parity so that Taiwan may be able to 
maintain a position that would be sufficient to defend against 
whatever Chinese incursion might be threatened. Is that fair to 
say?
    Admiral Blair. Yes, sir. I would say ``balance'' is 
probably a better word than ``parity'' since you are talking 
about one side on the defense and the other side that would be 
committing the aggression. But our policy is that the defense 
will be sufficient; that is, that aggression will not succeed.
    Senator Ben Nelson. We would not want it to get out of 
balance if we can do something to help maintain that balance. 
Is that fair too?
    Admiral Blair. That is what our policy is.
    Senator Ben Nelson. That is our commitment.
    Admiral Blair. Right.
    Senator Ben Nelson. Thank you. I will defer to the Senator 
with more seniority. [Laughter.]
    Thank you, Mr. Chairman.
    Chairman Warner. Very well. The Senator from Florida, 
Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Let me follow up on that, Admiral. You refer to your input. 
What is your advice to the White House with regard to the sale 
of the more sophisticated systems to Taiwan?
    Chairman Warner. Senator, we intend to go into a closed 
session. I am going to propound a question much along those 
lines in a moment.
    The way I would suggest we phrase it is not the precise 
advice that this distinguished officer has given the President, 
which I think is of a confidential nature, but what are the 
various pros and cons of elements of the issues before the 
President and indeed before Congress, which does have a role in 
this. May I suggest we pursue that course in open session?
    Senator Bill Nelson. Indeed, Mr. Chairman, but we are going 
to have to vote on that issue.
    Chairman Warner. That is correct.
    Senator Bill Nelson. I want to be the best prepared that I 
possibly can and would like to have the advice of knowing the 
recommendations from the CINCs as we evaluate all the 
information and have to make our decision.
    Chairman Warner. Admiral, you may wish to pursue this.
    I am not going to take your time. I will yield back. But I 
am going to talk about the ship requests and the pros and cons 
of the Kidd class of cruisers versus a follow-on of the current 
production line. What are the pros and cons of those two? That 
is the way I am going to proceed with it.
    Senator Bill Nelson. Would the Chairman like to proceed and 
I will just defer to the Chairman?
    Chairman Warner. No. I am going to yield to you to go 
ahead. I was just giving you an example of ships as one area 
which I am going to probe.
    Senator Bill Nelson. What I want is the best of advice from 
many different quarters. So, do you want to proceed in 
executive session on this issue?
    Chairman Warner. No. I am going to proceed in open session. 
I gave you an example of how I am going to address the question 
as it relates to the different views as to two types of 
cruisers which they are looking at. So, you proceed with your 
line of questions, but I am just showing you how I am going to 
do mine.
    But I think the exact words that he transmits to the 
President of the United States are a matter of confidence.
    Senator Bill Nelson. I respect that. Then what I am going 
to do is I am just going to defer any of my questions on Taiwan 
and come back after you have.
    Let me mention just a couple other things. I noticed, 
General Schwartz, throughout your testimony, you keep coming 
back to intelligence and command and control. The more that I 
get into this from a standpoint as a member of this committee, 
as well as a member of the Foreign Relations Committee, there 
are a bunch of heroes every day that we do not know anything 
about because terrorist acts are not being committed because of 
our intelligence. I certainly agree with your comments there.
    General Schwartz. Thank you, sir.
    Senator Bill Nelson. I think what we need to do is to 
commit whatever resources we have to, without blinking an eye, 
to see that we have sufficient intelligence to meet the 
terrorist threat around the world.
    General Pace, I would just say that I thoroughly enjoyed 
your hospitality going to Colombia with a number of the members 
of this committee. I had never thought of the sensitivity and 
appropriateness of the location of your headquarters where so 
many of the foreign leaders happen to come in and out of Miami, 
and as a result, you get another crack at them in order to 
visit with them in order to develop a personal relationship 
with them to carry out your duties. Would you care to comment 
on that?
    General Pace. Sir, thank you. That is exactly one of the 
great benefits of being in Miami, that it is a hub for 
transportation. We are about 15 minutes from the airport, so I 
am able to meet with the senior leadership of most of the 
countries who come through, who either come specifically for 
business in Miami because it is such a great Latin hub, or who 
continue to transit up to DC. But it works out extremely well 
from my perspective, sir.
    Thank you, both you and Senator Nelson, for going along 
with Senator Levin and Senator Reed. Your time in theater made 
a huge difference.
    Senator Bill Nelson. General Schwartz, I am getting ready 
to go with the Intelligence Committee Chairman to Korea. You 
have heard the recent flap over whether or not--and this is a 
political issue. I do not need you to get into this, but 
whether or not we might have undercut the president of South 
Korea's attempts to reach out to North Korea. Do you have any 
comments in this area that you would share with us?
    General Schwartz. Sir, I think right now we are in a policy 
formulation stage with the current administration. So, we are 
waiting for that policy to be articulated to us. I mentioned 
earlier, before you got here, Ambassador Hubbard is in country 
right now with some effort to gather information, as well as 
propose some of the draft approach for the future. So, we are 
in the stage of a comprehensive review and policy formulation 
that I think will result in some real strategic guidance in the 
future.
    Senator Bill Nelson. I would be appreciative of that policy 
formulation being passed on when you formulate it.
    To what degree is the starvation continuing in North Korea?
    General Schwartz. Sir, I think nobody knows. One of the 
problems with North Korea is it is not open, it is not 
transparent. It is hard to get inside and really ascertain 
everything that is going on. They announced some figures of 
250,000, their own figures, that died of starvation in the last 
18 to 24 months. We have estimations up to a million that have 
died from starvation in the same period of time. The fact of 
the matter is it is serious, it is extensive, and it is 
continuing.
    Senator Bill Nelson. Is there food from outside of North 
Korea that is getting in to try to help with the starvation?
    General Schwartz. Sir, there is. There is food coming in. 
Of course, the United States is providing food, Japan, the 
South Koreans, the Chinese. It is coming from all over the 
world.
    They are struggling, as best they can, to produce some of 
their own food products. One of the only factories that they 
have that runs day and night, 24 hours a day, because of their 
energy shortage, is their food factories. So, they are trying 
to produce their own, as well as take all the aid they can, and 
they are still coming up short.
    Senator Bill Nelson. Mr. Chairman.
    Chairman Warner. You can take another 2 minutes because I 
invaded your time.
    Senator Bill Nelson. Well, no, I would be just as happy for 
you to proceed on your questions about Taiwan.
    Chairman Warner. Then we will have an opportunity for 
further questions.
    Senator Bill Nelson. Thank you.
    Chairman Warner. I think we have had very good testimony, 
Admiral Blair, with regard to the importance of this Taiwan 
arms package. We conduct this oversight this morning against 
our obligations in law which are quite clear in many respects, 
but left somewhat unclear in others, purposely so because there 
should never be any doubt about the United States' commitment 
to help Taiwan defend itself and, if necessary, come to its 
aid. I think you have been quite explicit and clear on that 
this morning.
    Second, to maintain the balance, you expressed the need to 
continue to find ways to cooperate with China. So, there is 
this balance.
    We are not here to discuss the question of independence. 
That is something our Nation has never stepped out on and I 
think quite properly because that issue is entirely left to the 
will of the people of Taiwan, together with the will of the 
people of mainland China, to resolve, hopefully in a peaceful 
way in the future sometime.
    But the right to defend itself is inherent in this review 
of the package of arms that comes before us, and at the core of 
that is the issue of the type of destroyers. I mentioned 
cruisers earlier. I meant destroyers. The options are the Kidd 
class, which are ships that were built on the old Spruance type 
hull, and they are in a status of inventory today where they 
can be brought back on line with some renewed outfitting and, 
therefore, made an integral part of the Taiwan navy in perhaps 
2 to 3 years, whereas the more recent production line of the 
Aegis Burke class would take a number of years.
    Why do you not give us, first, the technical analysis of 
the two classes of ships, their likely availability to be 
integrated into the Taiwanese navy, and the pros and cons, as 
you view them, from a military standpoint? I think this package 
should be decided on military principles, hopefully, as nearly 
as we can. Give us an evaluation because that, I think, will be 
at the heart of this, certainly for this particular Senator, as 
we review this. So, if you would give us that.
    Admiral Blair. Yes, sir. Before I do that, let me, if I 
may, talk a little bit about the consequences of a short-term 
military solution of the Taiwan issue which is basically 
reunification with China.
    I have looked at that hard and from the points of view of 
both China and of Taiwan, that is a lose-lose situation. Not 
only would there be military losses on both sides, there would 
be civilian suffering on both sides. There would be tremendous 
economic damage on both sides: on the Chinese side, the loss of 
foreign direct investment, the loss of foreign trade; on the 
Taiwanese side, the sorts of effects that we saw even in 1996 
when there was the near possibility of military action. Also, 
there would be secondary effects which always happen when 
conflict occurs, which you have spoken more eloquently about 
than any other Member of this Congress.
    Chairman Warner. We should make note of the fact that the 
Taiwanese people have invested a tremendous amount of their own 
resources in mainland China's industrial base. Am I not correct 
in that?
    Admiral Blair. There are 70,000 Taiwanese living in 
Shanghai as we speak.
    Chairman Warner. Also, they have invested in the industrial 
base very heavily.
    Admiral Blair. They are the single largest investor, and 
the trade across the Straits has been increasing since the 
current Taiwanese government came into office. So, all of the 
positive incentives are on the side of down-playing the 
military confrontation and emphasizing those things which would 
bring Taiwan and China together over time.
    Chairman Warner. When you say ``together,'' you mean some 
resolution between the wills of the people of the two nations, 
whatever that may be.
    Admiral Blair. However that may be negotiated. There are a 
large number of arrangements which could be worked out if there 
were trust, and today there is simply not trust on either side. 
The only way that I know to build the conditions for enduring 
security for Taiwan is long-term development of some sort of a 
political arrangement between Taiwan and China with the sorts 
of guarantees and assurances that Taiwan requires to feel safe, 
as well as to be safe.
    So, the great area that Taiwan, China, and the United 
States have in common is to emphasize those things which lead 
to a peaceful solution and to deemphasize those things which 
tend to raise tensions, bring confrontation, and exacerbate 
that sort of a situation. So, I think even while I am sitting 
here in my uniform talking about the military aspects of the 
situation, we need to keep in mind that this is a tool toward 
the larger end, which is security for Taiwan and a long-term 
development of China and long-term development of the United 
States.
    I really find that people want to classify everyone who is 
involved in this issue as either pro-China or pro-Taiwan. I am 
pro-American. I want to do what is best for the United States 
in this instance, and I think that is what we have to keep in 
mind. Certainly what is best for the United States is the long-
term peaceful resolution of the issue between them.
    Chairman Warner. I think there is even a larger 
perspective. It would be enormously destabilizing to the entire 
region were there open conflict. So, it is not just the United 
States, but it is the region.
    Admiral Blair. It absolutely is. Just look at 1996, what 
the short-term shock waves were that went through Asia when the 
confrontation went up.
    So, we make our military evaluations, we carry out our 
responsibilities, but I think we have to remember our role in 
the overall policy and in the overall direction which is in the 
interest of both Taiwan and China.
    Now coming to the Aegis combatants versus the Kidds, the 
Kidds have about 12 to 15 years of service. That is plenty of 
useful life left. As you mentioned, they could come on line and 
actually be available in about 2 years. They would be equipped 
with a fleet air defense system called the New Threat Upgrade, 
or NTU.
    An Aegis combatant could take various configurations, but 
it would basically come on line about 2008-2009, and it would 
be equipped with some variant of the more capable Aegis weapons 
systems. The area in which the Aegis weapons system is more 
capable than the NTU system is in the volume of threats that it 
can handle and in some of the extreme profile missiles.
    There are two other things that you have to think about as 
you make the decision, Mr. Chairman. One is the ability of the 
Taiwan navy to absorb complicated systems. Either one of these 
would be the most capable surface combatant that the Taiwan 
navy had operated, and that is a consideration as far as 
logistics and manning and training.
    The second thing is major differences from a capabilities 
point of view. The Aegis system could eventually provide a 
platform on which the theater missile defense systems that the 
United States Navy is developing could be fielded. The NTU Kidd 
could not. So, the major capability difference in the two 
systems would be in its future upgrade potential. That is 
fundamentally the difference between those two systems.
    As I mentioned, the requirements of the Taiwan navy for 
fleet air defense are there today. It is not very robust right 
now, and it is something that is of concern to the Taiwanese 
navy.
    Chairman Warner. Now, let us once again look at the pros 
and cons because in my opening questions to you, my 
recollection is you clearly agreed with me that as China 
proceeds to install more and more missiles, the balance is 
slipping away and that this arms package should be viewed as 
restoring that balance of military capabilities of deterrence 
and defense for Taiwan.
    Now, given that trend of the putting in of the Chinese 
missiles--and it appears that it is going to go on for some 
period of time--will the Kidd class of ships right the balance 
for a period right now?
    Admiral Blair. No, Mr. Chairman, it will not. Right now we 
cannot sell a theater missile defense system to Taiwan because 
we have no theater missile defense systems to sell to them.
    Chairman Warner. I understand.
    Admiral Blair. They have the Patriot PAC-2 missiles, which 
is the most capable system we have. They are point defense 
systems.
    Chairman Warner. So, the Kidd class of ships will not bring 
about a balancing of the missile threat as perceived by Taiwan.
    Admiral Blair. That is correct, and neither will the Aegis.
    Chairman Warner. At this point in time.
    Admiral Blair. At this point.
    Chairman Warner. Because you have to bring in software and 
perhaps some modification to hardware and certainly an 
inventory of missiles to incorporate that into the Aegis 
system.
    Admiral Blair. We have to develop that, yes, sir.
    Chairman Warner. You have to develop it, and we do not have 
a really good time line as yet on the development of that. Am I 
not correct?
    Admiral Blair. That development program is underway and it 
is in the order of about 2008-2009 itself.
    Chairman Warner. Of that software and hardware to bring 
that system up for a theater missile.
    Admiral Blair. For the shorter range of the two Navy 
systems in development, yes, sir.
    Chairman Warner. Do you want to have any amplification of 
that?
    Senator Bill Nelson. Yes, Mr. Chairman, for this new member 
of the committee, would you or one of your staff or perhaps one 
of the panel describe the difference between the Aegis and the 
Kidd class? What are the capabilities?
    Chairman Warner. The Aegis is interesting. When I was 
Secretary of the Navy, we began the development of Aegis. Aegis 
is a generic term with regard to an electronic system to engage 
various types of threats to a ship. It is in an evolution and 
expanding.
    Now, let us go back again. I think it is very clear because 
this is the sort of record that will be before the Senate, such 
that those Senators who wish to address it, by virtue of speech 
or otherwise, can have the benefit of it.
    We go back to the Spruance hull, which has been in 
inventory for many years in the Navy, and these Kidd class are 
on that hull. But you say that the system is primarily air 
defense and not missile defense. Not primarily, but that is the 
distinction. Am I not correct?
    Admiral Blair. Yes, sir. The Aegis class is also on a 
Spruance hull for the cruisers. For the destroyers, it is on a 
new hull.
    But the primary difference is that an Aegis system, which 
was originally designed against the Soviet threat, can handle a 
higher volume of incoming missiles at the same time than can 
the Kidd class NTU. So, it is primarily having to do with the 
volume of missiles arriving.
    As far as the performance of missiles that can be handled, 
they are roughly comparable. So, from the fleet air defense 
point of view, they would be virtually the same, that is, for 
handling anti-ship missiles against the fleet.
    The primary difference is that once the United States Navy 
does develop theater missile defense (TMD) programs, they will 
be based on the Aegis fire control system. Therefore, if Taiwan 
had Aegis platforms, they could be upgraded with missiles 
software and some hardware to TMD configuration.
    Chairman Warner. In the same way we are going to upgrade 
our own units.
    Admiral Blair. The same way we plan to upgrade our own, 
yes, sir.
    Chairman Warner. But I think we have to go back again. We 
are talking about land-based mobile missiles which China is 
putting in right now.
    Admiral Blair. That is correct.
    Chairman Warner. I want to make it very clear in the 
record, that the Kidd class cannot engage those at the present 
time. Is that not correct?
    Admiral Blair. That is correct, and neither can the Aegis.
    Chairman Warner. Neither can the Aegis. It is the Burke 
class.
    Admiral Blair. Or the Ticonderoga class.
    Chairman Warner. Or the Ticonderoga class, which was the 
initial Aegis-type hull.
    Admiral Blair. Which is the cruiser level and the Burke is 
the destroyer level. Right now neither of those can engage the 
CSS-6s and CSS-7s, which is what China is deploying right now. 
They have about 300 of them that can range Taiwan.
    Chairman Warner. So, with the Kidd class, they can be 
introduced into the fleet and integrated into the Taiwan navy 
within, say, 24 to 30 months, somewhere in there.
    Admiral Blair. Yes, sir.
    Chairman Warner. For the hulls, including the upgraded 
system, we are looking at 2008, 2009, 2010, many years out.
    Admiral Blair. That is right. We have a building program 
going on in two yards. You put in the order. It will be 2008-
2009 before it is available.
    Chairman Warner. Then you have to look at what is the 
threat facing Taiwan not only from the land-based missiles, but 
other threats that the Kidd class could engage and help deter. 
What would be the advantage of the Kidd class being integrated 
into the Taiwan navy now in, say, 24 to 30 months?
    Admiral Blair. It would be able to provide fleet air 
defense so that the Taiwanese navy would have air cover as it 
operated at sea out of range of land-based air, which it does 
not now have.
    Chairman Warner. Now, would that help bring into balance 
the disparity that we see between mainland China and Taiwan?
    Admiral Blair. That would increase the Taiwanese capability 
to engage other aircraft across the Strait which the Taiwanese 
navy has very little capability.
    Chairman Warner. So, the Kidd class does make a substantial 
contribution to add to the deterrence of the threats.
    Admiral Blair. That is correct, yes, sir.
    Chairman Warner. It gives their navy really a training base 
for that class of ships which they could profit from between 
now and, say, 2008-2009 timeframe so that if they took the Kidd 
class now, they would be better prepared to accept at a later 
date, either an exchange program or the addition of the 
upgraded Burke class.
    Admiral Blair. Yes, sir. That is correct. It is the same 
propulsion system, for example, many of the same auxiliary 
systems, and so it would give them capability in complex 
surface combatant operation, which they do not have now.
    Chairman Warner. So, one of the options that is before the 
President would be to offer the Kidd class now with the 
understanding that it substantially enhances the naval element 
of deterrence, and it would provide a training base for a 
follow-on acquisition, if the threat persisted, for the 
upgraded Aegis system which would have the theater missile 
defense capability.
    Admiral Blair. Exactly correct, sir.
    Chairman Warner. I think we have pretty well put that 
record together. Do you wish to add to it, Senator?
    Senator Bill Nelson. Just to go back to the Admiral's 
statement of his two goals, the long-term guarantees for 
Taiwan. It sounds like that system would give long-term 
guarantee. But the other goal of the Admiral was a long-term 
peaceful resolution. Does it enhance that? That is the question 
that we have to answer.
    Admiral Blair. Sir, that is correct. As I mentioned, the 
lower the level of missiles on the Chinese side and responses 
on the Taiwanese side and counter-responses on the Chinese side 
and counter-responses on the Taiwanese side, I think the more 
conducive to a long-term resolution. So, restraint on the 
Chinese side would be a definite factor in doing that. If the 
Chinese continue to add 50 missiles a year and increase their 
accuracy, which has been their program in the past, then it 
does not take a detailed military analysis to tell you that at 
some point that makes a military difference and defense is not 
sufficient. It is that ratcheting up that I think does not 
serve the interests of either Taiwan or China, but it requires 
restraint by China, which has not been shown yet, which I have 
talked to them about and many other representatives of our 
Government have talked to them about frequently and I would 
hope we could see.
    Senator Bill Nelson. Mr. Chairman, may I?
    Chairman Warner. Go ahead.
    Senator Bill Nelson. That is useful information to me 
because with the Intelligence Committee Chairman, I am going to 
Beijing as well. Are they, in fact, increasing their missiles 
50 a year?
    Admiral Blair. Yes, sir, they are right now.
    Senator Bill Nelson. At this present time.
    Admiral Blair. At this present time.
    Senator Bill Nelson. Those are the ones you described as 
CSS-6s and 7s?
    Admiral Blair. 6s and 7s, right.
    Senator Bill Nelson. Are those air-breathing missiles or 
are they rockets?
    Admiral Blair. They are ballistic missiles. They go out of 
the atmosphere and come down.
    Senator Bill Nelson. So, they are liquid-propelled, not 
air-breathing engines.
    Admiral Blair. Solid.
    Senator Bill Nelson. As opposed to air-breathing like 
cruise missiles.
    Admiral Blair. Yes, as opposed to cruise missiles which go 
a couple hundred feet. They are ballistic missiles.
    Senator Bill Nelson. What are the ranges of these 6s and 
7s?
    Admiral Blair. It is about 500-600 kilometers. They are on 
the longer range of the short range. They are like Scud Deltas, 
the kind that threaten General Schwartz's forces.
    Senator Bill Nelson. That is very helpful information, Mr. 
Chairman.
    Chairman Warner. I thank you, Senator.
    Senator Dayton, did you wish to participate in this 
colloquy?
    Senator Dayton. No, I will wait until the closed session. 
Thank you, Mr. Chairman.
    Chairman Warner. On the issue of the fixed-wing aircraft, 
Admiral, they wanted some P-3s. Did you talk about the fixed-
wing package and what are the pros and cons of some of those 
requests?
    Admiral Blair. I would say Aegis and Kidds have been enough 
publicly discussed that I think it is fine to talk about them 
in open session. I would rather go to closed session to talk 
about some of the other aspects of the program.
    Chairman Warner. Senator Levin.
    Senator Levin. I just have one additional question of 
General Pace. It relates to the SOUTHCOM's engagement program. 
I have been a supporter of our engagement program with foreign 
militaries, particularly relative to activities on our part 
which would impart respect for human rights and the proper role 
of a military in a democratic society.
    So, I was very supportive of our effort last year to close 
the U.S. Army School of the Americas, but to reopen a different 
school with a different focus, which was to authorize the 
Secretary of Defense to establish the Western Hemisphere 
Institute for Security Cooperation (WHINSEC). I am wondering if 
you would describe for us the Southern Command theater's 
engagement program, tell us how the Western Hemisphere 
Institute for Security Cooperation fits into that.
    General Pace. Senator, thank you.
    One of the things that we are able to do is, through the 
support of Congress, to provide training and education 
opportunities for almost 2,500 officers per year from 31 of the 
32 countries in my area of responsibility. They go to various 
schools, our war colleges, our command and staff level schools. 
They also go to the WHINSEC where they are able to learn about 
planning, about logistics, et cetera.
    Embedded in that training, especially at the WHINSEC, are 
courses in human rights, in proper subordination of the 
military to civilian authority. In all of our exercises 
throughout the region, of which we conduct about 17 per year, 
either bilateral or multilateral, we take the opportunity 
through both demonstration and scenario development to train in 
subordination of the military to civilian rule.
    I have not had the opportunity, Senator, to visit WHINSEC 
yet, so I do not have a complete layout in my mind of the 
curriculum that they have, but I do know that they do, in fact, 
address human rights.
    Senator Levin. Could you familiarize yourself with that 
curriculum and then tell us how the two fit for the record?
    General Pace. Yes, sir. I will, sir.
    [The information referred to follows:]

    U.S. Southern Command's engagement strategy incorporates promoting 
a culture of respect for human rights within the military and security 
forces of nations in our AOR. The human rights program focuses on 
strengthening respect for human rights through education, training, 
conferences, seminars, and subject matter expert exchanges.
    At the Western Hemisphere Institute for Security Cooperation, or 
WHINSEC, the human rights curriculum provides critical support to this 
program. Their human rights course is pass-fail and ensures each 
graduate gains a basic knowledge of human rights principles. In 
addition, all WHINSEC instructors are required to pass an intensive 
human rights course and to integrate human rights principles into every 
course. Students are therefore taught human rights in the context of 
different subjects.
    The curriculum developed by the WHINSEC human rights staff is 
unquestionably one of the most comprehensive offered in any military 
institution anywhere. It includes well-researched, in-depth, case 
studies based on historical events, which are used in advanced human 
rights training.
    The WHINSEC human rights staff also supports USSOUTHCOM strategy by 
traveling throughout the AOR to provide courses to larger groups of 
military officers and noncommissioned officers. Many of the students 
that attend WHINSEC advance to senior positions of leadership in their 
country's security forces. By incorporating respect for human rights as 
a central theme in their professional education, we effectively 
influence the culture of the security forces at large.
    WHINSEC's human rights curriculum is one of the most important 
tools available to USSOUTHCOM for strengthening respect for human 
rights by military and security forces in the area of responsibility.

    Senator Levin. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Gentlemen, I want to cover some other subjects rather 
quickly so that the open record has reference to them.
    Panama is an ever-present concern to us, General Pace. We 
discussed that last night in our private meeting, and you gave 
me certain reassurances. There was concern at one time that 
mainland China was trying to gain a stronger foothold of 
influence in that region, and also the respective operation of 
the Panama Canal from a technical standpoint, and also the 
stability of the government down there, and any other aspect 
you wish to cover.
    General Pace. Sir, thank you.
    There is a Chinese company on each end of the Panama Canal. 
They provide port services. They in no way interfere with or 
are a part of the actual operation of the canal. So, unless a 
ship requires on-load or off-load at either end of the canal, 
they play no part at all in the day-to-day operation of the 
canal.
    The canal itself, under the commission that is being run by 
the Panama Government, is being run extremely efficiently. From 
an outsider's point of view, they have run that extremely well, 
and their plans to increase capacity in the future look very 
well laid out.
    As they will tell you and as I said to you yesterday, the 
greatest threat to the operation of the canal right now is the 
environmental impact on the watershed. As development takes 
place, silt and runoff----
    Chairman Warner. Are you talking about land development 
which removes the natural growth, and that results in a water 
runoff that impairs the operation of the canal because I think 
it takes--what did you say--500 million gallons of water to----
    General Pace. It takes 55 million gallons of water per ship 
per transit. There are 40 ships per day, give or take. So, you 
have a huge amount of fresh water being used every day that 
comes from those watersheds. The canal commission, rightfully 
so, is concerned that as they have development of what is 
currently vacant land, that the silting and the runoff will 
impact the ability of the country to collect the water it needs 
to run the canal.
    Chairman Warner. Now, the government and the stability and 
the relationships with that government.
    General Pace. Sir, we have excellent relationships with the 
government through the U.S. Ambassador. Minister of Security 
Contero is very friendly toward the United States. He has made 
possible such opportunities for us as assisting them in putting 
together a national command and control location, which they 
are building in the former Howard Air Force Base. So, as far as 
today's environment inside of the ministries with whom I do 
business, it is very friendly, sir, and looking to the future.
    Chairman Warner. Now, the forward operating locations for 
our air elements in the counternarcotics operation. Is that 
proceeding at a satisfactory rate?
    General Pace. For the most part, it is, sir. We're on 
track. At Manta in Ecuador, we will close that facility in 
about a week. The major part of the $60 million worth of 
upgrade to that facility will take place over the next 6 
months. That is on track.
    Chairman Warner. Last night you spoke about your own 
professional judgment with regard to the time line of the 
ability of Colombia to come to grips with this very serious 
problem. There were two aspects of it that impressed me, and 
that is your professional views as to the length of that time 
line. My recollection is you said about a decade, and we are 
barely into it at this time. Second, the impact on the adjacent 
countries and how the United States will be considering, 
independent of Plan Colombia, financial packages to help them 
stem any flowing into their nations of the current operations 
in Colombia.
    General Pace. Senator, my estimate, based on my discussions 
with the Colombian leadership, is that for the Colombian 
military to be large enough and well enough educated and 
trained, it will take about 3 to 5 years for them, in 
conjunction with the Colombian police, to provide security, 
inside of which then the other nine elements of Plan Colombia 
can take root. My estimate, again talking to government 
leaders, is that Plan Colombia itself overall will take about 
10 years to show the benefits of rebuilding the fabric of that 
democracy that has been destroyed by the drug traffickers.
    With regard to the spill-over and therefore the impact on 
the neighboring countries, yes, sir, regional solutions to the 
regional problem, properly supported by the U.S. Government, I 
think is the requirement.
    Chairman Warner. You might enumerate those countries 
presently under consideration for that assistance.
    General Pace. Sir, my recommendation would be primarily 
those that border Colombia, which include Panama, Ecuador, 
Peru, Bolivia, Brazil, Venezuela, if in fact we are able to 
have satisfactory accommodation with that particular 
government. We should not, however, completely overlook places 
like Paraguay, Uruguay, and other nations through which drugs 
transit to get to the sea to get to Europe.
    Chairman Warner. Part of our training involves the use of 
their helicopters, which we are going to supply. We are always 
concerned--and we saw the concerns manifested in the Kosovo 
operation--about hand-held small weapons that can interdict 
airborne platforms such as the helicopter. How serious is that 
threat? Do we have any indication that the insurgents will be 
trying to acquire on the open market in the world such weapons? 
How are we training to deal with that situation?
    General Pace. Sir, we take that threat very seriously. We 
presume that an entity that possesses hundreds of millions of 
dollars in illegal profits every year has the capacity to go on 
the open market and buy shoulder-held surface-to-air missiles. 
We have no intelligence to confirm that. Yet, we train to that 
probability. The configuration of the helicopters that the 
State Department is buying took into consideration the 
likelihood that they would operate in the same environment.
    Chairman Warner. So, they have the state-of-the-art 
equipment for defensive measures.
    General Pace. Sir, they do.
    Chairman Warner. Periodically Haiti should be examined. 
Give us an update on that. That posed in the past serious 
problems in this country.
    General Pace. Sir, Haiti is very much in the policy arena 
right now for me. I am prepared and have on the shelf ready to 
execute four exercises this year, which are called medical 
readiness exercises. Those medical readiness exercises will, in 
fact, go in and assist the population with their medical 
problems. But those are currently on hold pending a policy 
decision on government-to-government issues.
    Chairman Warner. Senator Reed, I am just doing wrap-up 
questions. I see you are present. Why do you not take your 
regular time at this time?
    Senator Reed. Mr. Chairman, first let me welcome and 
commend General Pace, Admiral Blair, and General Schwartz and 
thank them for their service to the country and the fidelity of 
the great men and women they lead each and every day.
    I have been on the Senate floor and I understand many 
questions have been asked. I also understand that we are going 
into a closed session. So, Mr. Chairman, rather than taking 
some time now, I would simply yield back my time to you and 
then move forward.
    Chairman Warner. General Pace, the Vieques problem is a 
continuing one. We now have a carrier task force that is on the 
verge of deployment. It is my understanding that the previous 
one, the Truman task force, was only able to do inert. What is 
the status of this current task force and its ability to use 
those ranges in your judgment?
    General Pace. Sir, I need to defer to the Chief of Naval 
Operations for the train-up of his forces. I could restate my 
comment that I made before this committee when I was Commander 
of U.S. Marine Corps Forces Atlantic.
    Chairman Warner. Well, we know the essential nature of it.
    General Pace. Yes, sir.
    Chairman Warner. The problems in your AOR, General 
Schwartz, from time to time of the attitude of South Korea 
toward the presence of our military and their families. Where 
does that situation rest today versus a year ago?
    General Schwartz. I think overall I would characterize the 
attitude of the South Koreans towards our military as very 
positive. The majority of the people, high into the 90s, 
respect the presence of and the deterrence value of U.S. 
servicemembers on the peninsula. There is no doubt about it. 
There is a small percentage of the people who do not understand 
our presence, who do not understand the war itself, how it 
originated, why we are there. Most of them are younger, 
college. They spend their summers protesting and they get a lot 
of visibility, but I would have to tell you the silent 
majority, the majority of the South Koreans, fully understand 
the deterrence value and the presence of U.S. servicemembers on 
the peninsula.
    Chairman Warner. Thank you very much.
    General Pace. Senator, I apologize. May I give you just a 
little bit more information on Vieques? I would be remiss as a 
leader if I do not bring up one problem.
    Chairman Warner. All right.
    General Pace. It is a quality of life problem, sir, the 
quality of life for my very dedicated Army soldiers and 
families who have moved from Panama to Fort Buchanan. In the 
process of doing that, renovations were to be made. For 
understandable reasons, policy reasons, right now the 
construction money that was allocated to build an elementary 
school, $8 million last year, and the money to renovate 
housing, $25 million this year, has been held in abeyance. So, 
as we go through the policy debate, which I understand, the 
Army families there are being held hostage.
    Chairman Warner. We will take note of that, and thank you 
for bringing that up.
    Admiral Blair, you have India in your AOR. The Central 
Command has Pakistan, and when the Central Command commander 
was before this committee, he stated that the two of you work 
very closely together. Give us an update of that situation, the 
seriousness of it compared to last year and now, as well as the 
28 percent increase in military budget that India has 
announced, and any other aspects of that situation that you 
think is important that we learn.
    Admiral Blair. Sir, I think the developments on the Indian 
side have been quite positive since I last appeared before this 
committee. Although they have not signed the Comprehensive Test 
Ban Treaty and they are continuing to develop their nuclear 
weapons arsenal, I think they are working their way towards the 
principles of a high nuclear threshold and a good stewardship 
of those weapons.
    The earthquake that took place in Bhuj, India was a 
terrible human tragedy. The loss of life was on the order of 
20,000 to 30,000. On the other hand, the response to it was a 
real regional and, in fact, international effort, including 
supplies from Pakistan. A couple of flights of C-130 aircraft 
with relief supplies from Pakistan landed in India and off-
loaded the supplies, and they were welcomed by India.
    The situation in the Kashmir itself, there continues to be 
casualties within Jammu/Kashmir, fire across the border. But 
there are intermittent contacts between India and Pakistan, 
looking at talking about the situation again after the 
disappointment following the Lahore Summit and the conflict in 
Siachen Glacier.
    So, on the Indian side, there are some positive 
developments, and it certainly does not seem to be any worse. 
General Franks and I both agree that the United States needs to 
maintain contact with both sides of southern Asia, both with 
Pakistan and with India, so we can exert the restraining 
influence on their interaction with each other and develop 
independent relationships. We do not want to shift our weight 
from Pakistan where it had traditionally been and put it all on 
India. We think we need a balance on both sides. I think we are 
taking steps to do that on the Indian side.
    Chairman Warner. Last question. I would like to have both 
Admiral Blair and General Schwartz comment on the status of the 
North Korean ballistic missile program. We will take it up in 
greater detail in closed session, but I would like to have your 
views, to the extent possible, here in open session. Why do you 
not lead off, General Schwartz?
    General Schwartz. Let me characterize it like this. It is 
still very aggressive. They are producing a certain number of 
missiles each year that we could talk about in closed session. 
But they are the number one proliferator of missiles in the 
world, and they are being very aggressive in that regard.
    Chairman Warner. They are selling them. What countries do 
we know now are actively engaged in negotiations?
    General Schwartz. We know Iran, Iraq, Pakistan, Syria, 
Yemen, and Egypt are recipients of some of their missiles at 
this time.
    Chairman Warner. Admiral Blair.
    Admiral Blair. Sir, I would not add anything to what 
General Schwartz said except that the moratorium on testing 
missiles, which the North Koreans have undertaken to maintain 
as long as negotiations with the United States continue, has in 
fact continued. Although the North Koreans seem uniquely 
capable of selling missiles that have not been tested, and some 
fool countries seem uniquely capable of buying them even though 
they do not know if the damned things work or not, they have 
not in fact fired them since that time took place.
    Chairman Warner. Members of the committee, we are now in 
the process of Senate floor voting, three consecutive votes. I 
would suggest that we all go to the floor at this point in 
time, ask our witnesses to extend us the courtesy to do this 
most important function, and then we will resume next door in 
the Intelligence Committee hearing room for a closed session. 
My estimate would be it could be as long as 30 minutes before 
we return.
    Senator Levin. I have three quick questions.
    Chairman Warner. Yes, of course.
    Senator Levin. Admiral, is it in our national security 
interest that that moratorium on flight testing on the part of 
North Korea continue?
    Admiral Blair. From the military point of view, it is 
certainly in our interest that it continue. As to the price we 
pay for it, that is for another to decide.
    Senator Levin. But militarily at least it is in our 
interest.
    Admiral Blair. Militarily, just as with the Agreed 
Framework, the less development of nuclear technology, the less 
missiles they test, the better from our point of view.
    Senator Levin. General Pace, on the unmanned aerial 
vehicles that are being used in Colombia by Department of State 
contractors, our report to the four of us who went there, who I 
have referred to before, indicated that the low cost and the 
low risk technology that is reflected in those UAVs should be 
assessed for expanded use for the detection of drug labs and 
other important missions such as border control and that 
Colombia offers an excellent area for such an assessment. Could 
you tell us very briefly in your view whether those UAVs have 
performed a useful function down there?
    General Pace. Sir, they performed a very useful function. 
We were delighted. Senator, they were a test bed. They were fed 
to us as an opportunity. As it happened, during the time they 
were there, we had some things going on in the region I can 
talk more about in closed session to which they were very 
useful. So, from my vantage point, not only for my 
responsibilities today but also as a military person who might 
need to employ them elsewhere in the world, very useful.
    Senator Levin. Would you like to see them continue there?
    General Pace. I would, yes, sir.
    Chairman Warner. Thank you, Senator Levin.
    Any other questions from members? We will recess for a 
period of time, maybe up to 30 minutes, and then reconvene in 
the Intelligence Committee hearing room to continue our 
hearing.
    We have had an excellent session this morning. I commend 
each of you for your important contributions and look forward 
to the additional testimony in closed session. We are 
adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Rick Santorum

                         ARMED WHEELED VEHICLES

    1. Senator Santorum. General Schwartz, the Army is in the process 
of fielding an interim force that is designed to span a perceived near-
term operational shortfall first recognized during the Persian Gulf 
War. To that end, the Army recently selected a wheeled vehicle to serve 
as the armored vehicle that will be used by interim brigade combat 
teams in operations from peacekeeping through full spectrum combat.
    There has been a lot of debate recently over wheels versus tracks 
for armored vehicles and I don't expect to conduct such a debate here. 
I am curious, however, about any lessons we may have learned in the 
past about mobility tradeoffs between different vehicle types. It seems 
likely that in the event of hostilities in your theater of operations 
that access to roads will be limited due to damage, debris, or 
refugees.
    While the new Army wheeled vehicles may be good for peacekeeping 
activities, do you have any concerns about the tactical mobility of 
wheeled vehicles in off-road environments in the Korean theater of 
operations? To what extent has the Army initiative addressed concerns 
you might have about strategic responsiveness? Do we have the strategic 
lift assets required to execute established deployment goals and 
objectives?
    General Schwartz. No. There are two primary reasons that these new 
vehicles improve our capabilities in Korea. First, there is a large 
amount of terrain and road/bridge limitations on the Korean peninsula 
that favors wheeled vehicles. Second, these vehicles will not operate 
in isolation but as part of tailored, combined arms units. The 
complementary nature of ``wheeled'' units with traditional ``heavy'' 
units will increase our warfighting effectiveness. They will also 
reduce our logistical footprint, thus extending our operational reach.

                     HIGH DEMAND/LOW DENSITY ASSETS

    2. Senator Santorum. Admiral Blair, General Pace, and General 
Schwartz, during Operation Allied Force in Kosovo, one of the newly 
coined terms was high demand/low density assets. If these assets were 
so highly tasked in this small contingency, doesn't that indicate we do 
not have enough of these assets to execute the national military 
strategy? What are the key high demand/low density assets in your area 
of responsibility?
    Admiral Blair. [Deleted.]
    General Pace. The availability of some high demand/low density (HD/
LD) assets may be inadequate to satisfy multiple CINC requirements if 
surge operations are occurring in one or more theaters. With the 
national military strategy (NMS) currently under review, I must defer 
to the Joint Staff to provide a more detailed assessment of HD/LD 
availability to support the current or revised NMS.
    The key HD/LD assets that support our AOR are the [deleted].
    General Schwartz. [Deleted.]

                     DEMILITARIZED ZONE FOR THE ELN

    3. Senator Santorum. General Pace, one of the issues being 
considered by senior government officials of Colombia has been the 
creation of a demilitarized zone for members of the National Liberation 
Army (ELN). Do you see the creation of a demilitarized zone for the ELN 
as a positive or negative development in reducing the flow of narcotics 
into the United States and in achieving a lasting peace in Colombia?
    General Pace. The creation of the demilitarized zone for the ELN 
will not significantly reduce the flow of narcotics into the United 
States. The vast majority of coca is cultivated and transported outside 
the area under consideration. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                       STATUS OF FORCES AGREEMENT

    4. Senator Allard. Admiral Blair or General Schwartz, I understand 
you recently revised your Status of Forces Agreement with Korea. What 
improvements did you make and what prompted the change?
    Admiral Blair. The force structure is correctly sized for our 
current mission but must be fully-manned and equipped to maintain it as 
an effective and ready force. The force structure plan details the 
number and type of forces. Fully manning the planned force structure is 
the problem. Increasing the force structure may compound the personnel 
shortage by placing a greater personnel demand on the under-manned 
critical specialties.
    In U.S. Pacific Command (USPACOM), shortages exist in several of 
our critical specialties, especially in our mid and senior level non-
commissioned officers (E5-E9) which represent the bulk of our 
experience and enlisted leadership. For example, in our latest 
readiness assessments, USPACOM intelligence specialists (E5-E9) are 
only manned at 66 percent; aviation maintenance technicians (E5-E9) are 
manned at 70 percent; and communication specialists (E5-E9) are manned 
at 83 percent. Korean linguists manning specialty remains at 64 
percent. Additionally, rated pilot staff manning at Pacific Air Forces 
is at 81 percent with no projected increase in the near term.
    Personnel in these low density and high demand specialties cannot 
be replaced overnight. Length of training and the years required to 
gain valuable experience require time. Support of retention-related 
incentives is essential to the health of our forces and keeping the 
experienced personnel we have today. Recent pay increases have helped 
and need to continue, but support of infrastructure and readiness fixes 
also weigh in our members' quality of life, and their decision to stay 
in the Armed Forces. Where manning shortfalls are most severe, 
selective reenlistment bonuses should be considered as an option.
    In addition to manning considerations, headquarters reductions 
continue to impact our ability to be proactive and plan as the reduced 
staff manages an increasing number of critical programs required in 
support of national security and the NMS. As I testified, our staff is 
taking the lead on future capabilities such as the joint mission force, 
expanding the littoral battlespace, and the combatant headquarters of 
the future with CINC21. These capabilities suffer when our limited 
staffs are cut further. 
    Within the Defense Department, we are minimizing the impact of our 
shortages with reliance on the outstanding capabilities of the Reserve 
components. This capability must be recognized and supported within and 
outside the Defense Department. The services and our components have 
made significant progress in correcting personnel problems, but 
maintaining Active and Reserve personnel accounts at appropriate levels 
in each skill area and grade is a challenge that will receive our 
continuous attention and emphasis.
    General Schwartz. Let me answer the second part of your question 
first. We felt we needed to revise the SOFA in order to address long-
standing perceptions of the Korean people that the SOFA was unfair to 
them in several respects, especially in comparison to our SOFA with 
Japan. In 1995, the Republic of Korea (ROK) Government raised about 20 
issues for discussion, headlined by their strong desire for pretrial 
custody of SOFA personnel accused of violating ROK law, similar to that 
in Japan. Former Secretary William Perry offered comparable treatment 
to Japan and our other allies on custody in exchange for certain 
assurances of fair treatment and a substantial reduction of issues. 
However, after considerable effort to reach agreement, negotiations on 
these issues stalled and were suspended by the two sides in 1997.
    After a technical review of the issues at the expert level in May 
1999, the Korean side attempted to restart negotiations with a 
compromise proposal. As it failed to fully address our concerns for the 
rights of accused persons and as our mutual failure to resolve these 
issues threatened to drive a wedge in the alliance, former Ambassador 
Stephen Bosworth and I asked our team to develop creative solutions for 
resolving the impasse. After a lot of hard work, a new U.S. proposal on 
custody and assurances was delivered to the Korean side in May 2000. In 
addition, the Korean side raised several other high priority issues, 
including environmental protection, labor rights of Korean employees of 
USFK, and plant quarantine. That led to a resumption of formal 
negotiations on 2 August 2000 and ultimate agreement for revision of 
the SOFA on 18 January 2001. The revisions were subsequently approved 
under the procedures of both governments and entered into force on 2 
April 2001.
    A number of significant changes were made. First, although under 
the previous agreement the U.S. was permitted to retain custody until 
the completion of all judicial proceedings, including appeals, the ROK 
may now receive custody upon indictment if it requests in any one of 12 
categories of serious cases. Such cases include murder, rape, 
kidnapping, arson, drug trafficking or manufacturing, robbery with a 
dangerous weapon, and also cases of assaults, drunk driving, or fleeing 
the scene of an accident that result in death. In very serious cases of 
murder or rape, if the Korean police arrest a SOFA accused in the act, 
in hot pursuit, or before he or she returns to military control, they 
may retain custody.
    However, our personnel will be protected by a very strong package 
of ``due process'' rights while in Korean pretrial custody and 
confinement, including the right to release on bail. A person subject 
to custody upon arrest (e.g., caught in the act for murder) may not be 
interrogated until BOTH a U.S. representative and a lawyer representing 
the accused is present. Statements taken without their presence are not 
admissible in court. Korean authorities may not question an accused in 
their custody after indictment, except about totally unrelated matters; 
even then, a U.S. representative must be present during the 
interrogation. Thus, our concerns about the real possibility of an 
involuntary confession during a custodial interrogation have been 
substantially alleviated.
    In addition, SOFA personnel will be entitled to a pretrial 
confinement hearing with a lawyer present and will not be confined by 
the ROK without a judge's determination that confinement is warranted 
because there is reasonable cause to believe (1) that he/she committed 
the offense; and (2) that he/she may flee, or (3) that he/she has 
destroyed or may destroy evidence, or (4) that he/she may cause harm to 
a victim, witness, or family member of a witness or victim. This is 
very similar to the due process procedures existing in U.S. law. The 
accused will also be protected from unfair violations of privacy while 
in pretrial confinement, especially during staged reenactments of the 
alleged offense.
    In the area of environmental protection, we added an Agreed Minute 
emphasizing the commitment of both governments to recognize the 
importance of environmental protection. The U.S. Government agreed to 
implement the SOFA consistent with the protection of the environment 
and public health and confirmed its policy to respect relevant ROK 
environmental laws. The ROK Government confirmed its policy to 
implement its environmental laws with regard for the health and safety 
of U.S. personnel. In short, we sought and obtained a mutual and 
aspirational agreement to protect the environment.
    The word ``respect'' is used intentionally here. The U.S. sees it 
as a goal to try to operate within relevant ROK environmental laws, as 
enforced and applied, to the best of its ability and within resource 
constraints. However, as an equal sovereign, the U.S. is not obligated 
to comply strictly with each and every ROK law or regulation.
    Basically, we all hope to live and work in a better environment. 
The real problem is that environmental cleanup (or restoration) 
requires a large commitment of resources. We could not commit to 
environmental restoration, except to the extent necessary to protect 
the public health, without the availability of funds. In addition, an 
agreement to restore the environment fully would be inconsistent with 
the basic trade-off in Article IV, SOFA. Under Article IV, when the 
U.S. returns facilities and areas to the ROK Government, the U.S. is 
not obligated to restore them to their original condition. In turn, the 
ROK Government is not obligated to compensate the U.S. for any 
improvements or structures left behind.
    In a separate, non-binding ``Memorandum of Special Understandings 
on Environmental Protection,'' we mutually agreed to cooperate on 
environmental governing standards (EGS), to share information and to 
provide for appropriate access to USFK facilities and areas and to 
consult on risks. In addition, the U.S. Government confirmed its policy 
to conduct environmental performance assessments and the ROK Government 
confirmed its policy to respond to outside contamination sources that 
endanger health. It was also agreed that the Environment Subcommittee 
and relevant SOFA Subcommittees would meet regularly to discuss 
environmental issues.
    The agreement is considered a statement of principles, similar to 
that declared by the U.S. and Japan in September 2000, not a binding 
international agreement. Most of these things are simply standard U.S. 
policy--things we have long tried hard to do. Our agreements in this 
area, the Agreed Minute clause and this separate agreement, are 
designed to be mutual--it is important that both governments do what 
they can to improve the environment.
    The SOFA Joint Committee must still agree on a means to provide 
``appropriate access'' by ROK officials to U.S. facilities. We prefer 
``joint visits'' at our option, rather than ``joint inspections,'' 
especially on Article III facilities and areas where we have been 
granted exclusive use and full control by the ROK Government. We also 
plan to institutionalize procedures for the rapid notification, 
response, and remediation of new environmental incidents or spills. We 
are close to an agreement in these areas. However, while we agreed to 
remediate new incidents or spills, we did not agree to environmental 
restoration of existing facilities and areas upon their return to the 
ROK Government as that would be inconsistent with Article IV, SOFA.
    In a significant new agreement affecting preferential hiring of our 
Korean national employees, it was agreed in exchange for ``positive 
consideration'' of applications by family members of military personnel 
and the civilian component to accept employment on the Korean economy. 
This does not include dependents of invited contractors. Any of the 
eight employment status categories (E-1 thru E-8) that previously 
required a different visa status will be available to our family 
members as long as they meet the employment requirements for a position 
under Korean immigration law, whether full or part-time. Family members 
will not have to give up their SOFA A-3 visa; instead they may be 
granted permission to work as an additional activity while in Korea on 
that visa. However, Korean taxes must be paid on any income received.
    In another significant agreement affecting criminal jurisdiction, 
it was agreed that minor traffic offenses resulting in property damage 
only will no longer be reported as a crime as long as adequate private 
insurance is maintained as in case of a personally owned vehicle (POV) 
accident or if the matter can be settled under Article XXIII, Claims, 
as occurring in the course of official duty. The Claims process will be 
the ``efficient legal remedy'' for such accidents, without prejudice to 
the rights of the victim. In other words, the victim could still file a 
criminal complaint if not adequately compensated. Dependents are not 
included because the U.S. Government cannot act as an insurer of last 
resort under the Claims article for dependents. This should 
dramatically lower the statistics of so-called ``crimes'' committed by 
SOFA personnel.
    Also in the labor area, we streamlined and shortened the mediation 
procedures required under Article XVII, SOFA, before collective labor 
action or strikes may be taken. We agreed to use the ROK Labor 
Relations Commission for this purpose, while preserving the right of 
the Joint Committee to make the final decision on a dispute. We also 
preserved management's ability to downsize the labor force due to 
resource constraints or mission changes and agreed that Korean 
employees would not be terminated without ``just cause''.
    With respect to plant quarantine, we agreed in principle to accept 
``joint inspections'' of animal and plant products brought into Korea 
to resupply the troops, under procedures yet to be established by the 
Joint Committee. However, we must retain the ability to bring in fresh 
fruits and vegetables without undue delay, even those on the ROK banned 
list. Negotiations continue in the SOFA Animal and Plant Health 
Inspection Subcommittee.
    As you may be aware, one of the greatest threats to readiness in 
Korea is the denial of access to required training areas due to urban 
development, the scarcity of arable land for agriculture and farming, 
and encroachments by private landowners, many of whom have not been 
fully compensated by the ROK Government for the use of their land by 
USFK as required by SOFA Article V. To better protect our facilities 
and areas from encroachment, the ROK Government has agreed to promptly 
initiate steps toward removing encroachments, including administrative 
measures acceptable to both sides. The U.S. is permitted to take 
necessary measures to properly manage and prevent encroachment to the 
extent possible, with ROK administrative support upon request. We 
further agreed to jointly survey existing facilities and areas and to 
provide a better accounting for the use being made of them.
    We also agreed to notify and consult with the ROK Government 
concerning planned modification or removal of indigenous buildings and 
concerning new construction or alterations that might affect the 
ability of local communities to provide relevant utilities and 
services, or may affect the public health and safety. This does not 
mean a veto, but consultation. Subsequent discussions regarding 
implementation of this provision indicate that the ROK Ministry of 
National Defense still insists that USFK should submit building plans 
to and obtain building permits from local governments, however, that is 
inconsistent with our agreement to consult at the central government 
level. We cannot be forced into the position of having to deal with 
each and every local government. It is the responsibility of the 
central government to elevate any concerns they may have to the 
government-to-government level.
    We also adopted a new procedure for the service of civil process 
upon SOFA personnel so that private lawsuits may be more readily 
settled in Korean courts, similar to that recently agreed in Germany.
    Finally, although not legally binding upon the two governments or 
the Joint Committee, the two chiefs of delegation signed a separate 
``Record of Discussions'' regarding Korean access to our Non-
Appropriated Fund Organizations (NAFO), our clubs and recreational 
facilities. The delegation chiefs reconfirmed the U.S. commitment that 
only qualified persons may use NAFO facilities, recommended that the 
SOFA Joint Committee conduct a review to determine who may use NAFO 
facilities, the conditions of that use, and the appropriate means of 
assuring compliance, and recommended revision of a 25 June 81 agreement 
regarding ``Membership in the USFK Club System'' by 31 Dec 2001. (The 
Joint Committee agreed to take up these tasks on 2 April 2001.)
    The delegation chiefs further recommended that the review should 
determine the appropriate number of Korean members who may participate 
in USFK clubs; the reasonable and effective measures, including Korean 
government officials' access to NAFO facilities to monitor the measures 
taken when formally requested and accorded, to prevent unauthorized use 
of NAFO facilities; and that it should address the issue of Korean 
citizen honorary memberships in NAFO golf clubs. The Korean side 
confirmed that it would permit Korean employees and Korean guests 
accompanied by USFK personnel to consume food and beverages on the 
premises of NAFO dining facilities (in other words, the Korean side 
opposes the concept of unescorted guests). Finally, the delegation 
chiefs recommended that the 1981 agreement be revised to accommodate 
these recommendations by 31 Dec 2001. If the Joint Committee is unable 
to do so, they recommended that the matter be resolved through 
diplomatic channels.
    Overall, we consider these changes to be balanced and positive. 
They reflect a maturing ROK-U.S. alliance. We are working hard with our 
ROK ally to implement them in good faith in order to preserve and 
maintain this great alliance.

                               PERSONNEL

    5. Senator Allard. Admiral Blair or General Schwartz, in your 
written statement you mentioned a concern over a shortage of personnel. 
Can you handle this within the Defense Department? Do we need an 
increase in force structure?
    General Schwartz. In peacetime, we experience a 90 percent turnover 
every year. My recommendation would be to increase the number of 
accompanied tours to Korea and fund infrastructure improvements to make 
Korea a tour of choice. We need to man the force to meet our 
requirements, especially in forward deployed/assigned units. We also 
need to leverage reach back capabilities.
    [Deleted.]
    Each of these issues can be handled within the Department of 
Defense.

                              INTELLIGENCE

    6. Senator Allard. Admiral Blair, General Pace, and General 
Schwartz, what is your most significant shortfall in the intelligence 
and communications infrastructure? Do you have sufficient satellite 
communications capability? What must we do to ensure we have the 
capacity and flexibility to support your communications requirements in 
the next 5 to 10 years?
    Admiral Blair. Senator, I appreciate you asking me this question. 
Command, control, communications, computers, and intelligence (C\4\I) 
shortfalls have been my major concern in U.S. Pacific Command (USPACOM) 
since I took command. Of particular concern is satellite service for 
the highly mobile maritime and ground forces and last mile network 
connectivity for the in-garrison commands. The tyranny of distance, as 
well as the lack of formal alliances in this theater increases my 
reliance on tactical satellite communications to support commanders. 
For example, my Joint Task Force (JTF) Commanders are reliant on video 
teleconferencing and collaboration to enhance their situational 
awareness, synchronize missions, and accelerate command and control. 
This requires large satellite bandwidth. Last mile connectivity to in-
garrison forces is just as important, and not to be overlooked. For 
force protection, I am especially interested in increasing classified 
network services throughout my AOR. We need to ensure this keeps pace 
with the rest of the communications infrastructure modernization. It 
has also become increasingly evident that we need to operate with our 
coalition partners. In USPACOM, we have an initiative called the 
Combined Operations Wide Area Network, or COWAN for short. This multi-
purpose network will provide transport capability with enough 
flexibility to protect sensitive information within appropriate 
communities of interest.
    In addition, my Director of Intelligence, Rear Admiral LeVitre, 
identified shortfalls in intelligence support during her testimony to 
the House Permanent Select Committee on Intelligence. In the Pacific 
theater, our intelligence collection, production, and dissemination 
processes depend heavily on the availability of a reliable, robust 
communications infrastructure. Despite major advances in communication 
technologies, increased availability of high bandwidth transmission 
across the Pacific Ocean, and decreasing cost of long-haul 
communications, we are still short of bandwidth on the national 
networks. The relatively high cost of transoceanic communications in 
the Pacific theater AOR prevents planners from providing sufficient 
bandwidth on national network infrastructures, and currently programmed 
increases in available bandwidth fall far short of low-end requirements 
identified in past communications studies and surveys. As a result, we 
face a severe and worsening shortage of accessible communications 
bandwidth caused by the ever-increasing demand for online and 
interactive intelligence information in the form of imagery, video 
conferencing, online collaboration applications, intelligence data 
bases, Intelink web content, and other forms.
    We do not have sufficient satellite communications (SATCOM) 
capability. Since my theater is vastly separated by water, satellite 
communications are vital assets that link deployed tactical forces with 
online, interactive, and responsive intelligence and critical command 
and control information. Among the deficiencies are:

        (1) lack of readily available high-capacity transmission links;
        (2) limited satellite communications ground stations; and,
        (3) limited availability of high-cost mobile satellite 
        terminals.

    We must find better ways of disseminating intelligence to our 
remotely stationed forces. Though existing programs (e.g., Trojan 
Spirit II, fielded in the Pacific theater at Joint Task Force commands, 
and the Global Broadcast System) will lessen the current shortfall, new 
satellite communications technologies are still needed to meet the 
ever-growing intelligence requirements at the lowest tactical level.
    [Deleted.]
    USPACOM is a dynamic and challenging theater whose AOR is of vital 
security interest to the United States. The command and control and  
intelligence missions are demanding and difficult. To succeed, there 
must be sustained investment in critical capabilities necessary to 
support a wide range of military operations in a vast, heterogeneous, 
and increasingly tense theater. The snapshot view of our communications 
infrastructure appears insufficient to support USPACOM plans, 
operations, and associated intelligence requirements. In response to 
the increasing information requirements, we must continue to invest in 
communications technology refreshments which improve our ability to 
manage our vast infrastructure more efficiently, increase remote 
operations, improve intelligence access to the tactical warfighter, 
significantly increase available communications bandwidth, and 
emphasize coalition connectivity and interoperability. We need 
releasable equipment, accreditation of public key infrastructure/
technology that will facilitate virtual private network capability.
    [Deleted.]
    With the emphasis on unmanned vehicles, I see a great potential for 
putting communications relay packages on platforms such as Global Hawk 
to improve our capacity when there is an emergent requirement. However, 
equipment that use satellite services should evolve their usage to new 
formats that leverage satellite channel capacity. We have been 
successful in encouraging the use of demand assigned multiple access 
circuits, however there are still systems that demand the full 
[deleted] channel and unfortunately we have not always been able to 
support their missions.
    General Pace. [Deleted.]
    Our most significant shortfall in communications infrastructure is 
the lack of access to the Defense Information Systems Network (DISN). 
This shortfall impacts our ability to provide voice, data, and video to 
U.S. forces deployed throughout our AOR. Currently, we rely on 
commercial satellite services procured by the State Department's 
Diplomatic Telecommunications Service Program Office to provide limited 
voice, data, and video capabilities. We are partnering with Defense 
Information Systems Agency (DISA) to extend the DISN into the SOUTHCOM 
AOR. This initiative will provide us a faster, more reliable, cost 
effective, and robust communications infrastructure.
    [Deleted.]
    We must continue to pursue new capabilities and systems that 
provide reliable and flexible communications services. Sustained 
support for promising initiatives, like the Advanced MILSATCOM Program, 
which is designed to satisfy military requirements for assured access, 
survivability, and flexible mobile-netted communications, will help us 
alleviate current shortfalls in meeting our most critical 
communications requirements.
    General Schwartz. USFK's most significant intelligence 
infrastructure shortfall is [deleted]. We have received unprogrammed, 
single year ``plus-ups,'' however, the money has been limited to 
current year dollars without sustainment. [Deleted.]
    Funding constraints have prevented multiyear planning, adequate 
staffing, and the timely introduction of emerging technologies. In 
fact, every year we maintain the status quo, we actually regress 
because we cannot keep pace with the rest of the [deleted]. 
    No, I do not have sufficient satellite communications capability.
    [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                            CHINA AND TAIWAN

    7. Senator Collins. Admiral Blair, the recent rhetoric between 
China and Taiwan seems to be at a high level. Can you further define 
the recent patterns of activity by China? Is the activity within normal 
limits or are you seeing signs of a major exercise or major operation?
    Admiral Blair. The People's Republic of China (PRC) appears to have 
 adopted a more active forward defense of land and sea borders. 
People's Liberation Army (PLA) forces have identified operational 
weaknesses and are incrementally addressing them as they slowly 
transition to a more modern force. This modernization is important to 
the PLA not only in a Taiwan scenario, but also for any regional 
conflict involving the PRC. As a result, we are beginning to see the 
results of this modernization effort. Increased training levels and 
modernization make the execution of military options easier; however, 
there is no evidence to suggest that ongoing activity is in preparation 
for any near term specific military operation.

                   CHINA'S MISSILE TECHNOLOGY EXPORTS

    8. Senator Collins. Admiral Blair, China has increased its exports 
of missile technology in recent years to Pakistan, Iran, North Korea, 
and Libya and now must be watched ``carefully'' to see if China's 
communist leaders abide by the terms of a non-assistance pledge they 
made last November. Do you have additional comments on China's missile 
technology exports?
    Admiral Blair. [Deleted.]

                           TAIWAN ARMS SALES

    9. Senator Collins. Admiral Blair, China has recently launched a 
diplomatic offensive aimed at preventing the high-tech arms sales to 
Taiwan. Among other items, Taiwan has requested to buy four Arleigh 
Burke class destroyers. Understanding that there is a delicate balance 
to strike between supporting Taiwan's self-defense capability and 
maintaining relations with China, I am of the mind that the sale of 
these destroyers would meet the U.S. legal obligation to assist Taiwan 
in maintaining a self-defense capability in accordance with the Taiwan 
Relations Act of 1979. I would be interested in hearing your opinion on 
Taiwan's need for these systems and the pros and cons associated with 
the sale of these destroyers.
    Admiral Blair. [Deleted.]

                          HUMAN RIGHTS STATUS

    10. Senator Collins. General Pace, what is the status of human 
rights in the AOR? What is the status of human rights in Colombia?
    General Pace. I consider human rights to be a developing success 
story in the USSOUTHCOM AOR. Most of the nations in the AOR continue to 
implement legislation and create institutions to protect the human 
rights of their citizens. For example, the Dominican Republic 
established a school to teach human rights to their military troops, 
Colombia established an equivalent of our Staff Judge Advocate Corps, 
and virtually all the nations in the region cooperatively developed a 
human rights consensus document to establish standards of conduct, 
measures of effectiveness, and training criteria for military and 
police forces. While there is still much to be done, I am optimistic 
the nations in the region are addressing this important issue 
seriously.
    Colombia has the most visible ongoing human rights challenges and 
the most aggressive human rights program. We believe the Colombian 
government and, in particular, the Colombian military have made 
significant progress in their efforts to curtail human rights abuses. 
During the late 1980s and early 1990s, about 60 percent of all reported 
accusations of human rights abuses were made against the Colombian 
military. Last year, the number attributable to the military fell to 
less than 2 percent of all accusations. This progress is a direct 
result of leadership at the highest levels of the Colombian military 
taking an active role in changing the culture of their institution by 
educating their forces on human rights standards, establishing a staff 
judge advocate school to train their lawyers, establishing Rules of 
Engagement for the troops, investigating allegations, and dismissing 
those found guilty of committing human rights violations or collusion 
with the illegal self defense forces. Last year the Colombian military 
under the direction of Minister of Defense Ramirez dismissed 388 
officers suspected of human rights violations. The recent appointment 
of Gustavo Bell as the nation's Minister of Defense is another sign of 
the Colombian government's and military's commitment to 
institutionalize human rights standards and practices into everyday 
operations. Mr. Bell has been President Pastrana's point man for human 
rights reforms during the latter's administration and a strong advocate 
of change and evolution in the area of human rights. Mr. Bell's 
appointment as Minister of Defense serves to reinforce the Colombian 
government's commitment to human rights and should continue to build 
upon the significant progress demonstrated by Colombia in recent years.

                    OPERATIONS IN SOUTHERN COLOMBIA

    11. Senator Collins. General Pace, what is the status of operations 
in southern Colombia, including the program to purchase UH-60s and UH-
1H IIs for Colombia? What are the anticipated regional impacts and 
threat assessment as a result of implementation of military aspects of 
Plan Colombia?
    General Pace. [Deleted.]
    The Department of State International Narcotics and Law Enforcement 
(DoS/INL) has contracted with Sikorsky Aircraft Corporation for the 
procurement and delivery of 14 UH-60Ls. The first UH-60 aircraft are 
projected to arrive in Colombia in July 2001. All 14 aircraft should be 
in Colombia by December 2001. DoS/INL is negotiating with Bell 
Helicopter Textron Incorporated for the procurement and delivery of 20 
Huey IIs. The first Huey II aircraft is expected to arrive in Colombia 
by January 2002. All 20 Huey II aircraft are projected to be in 
Colombia by June 2002.
    The drug trafficking organizations have shown considerable skill in 
adapting their manufacturing procedures, production locations, 
transportation routes, and markets in response to interdiction efforts. 
That said, [deleted].

                         MISSILE PROLIFERATION

    12. Senator Collins. General Schwartz, recent reports indicate that 
North Korea has been a key source of missile-related technology, 
expertise, and equipment for the Iranians since the early 1990s. Due to 
extensive equipment and technical assistance from North Korea, Iran now 
can produce Scud missiles. Which technologies do you suspect North 
Korea is providing to our other key adversaries and what regions do you 
believe are seeking these technologies? What more can or should we be 
doing to prevent this proliferation?
    General Schwartz. [Deleted.]

                            AGREED FRAMEWORK

    13. Senator Collins. General Schwartz, in October 1994, the U.S. 
and North Korea entered into the Agreed Framework in an effort to 
control the potential development of nuclear weapons by North Korea. 
The heart of the Agreed Framework and the amending accords is a deal 
under which the United States will provide North Korea with a package 
of nuclear, energy, economic, and diplomatic benefits, in return North 
Korea will halt the operations and infrastructure of its nuclear 
program. What is your view on the extent to which the Framework's 
objectives have been satisfied thus far? What is your view on the 
prospect for ultimate success of the agreement?
    General Schwartz. We should measure the Agreed Framework against 
our nonproliferation objectives. The DPRK made two very significant 
nonproliferation agreements beyond the freezing of the facilities at 
Yongbyon and the canning of the known fuel rods. First, the DPRK agreed 
to permit at the conclusion of the light water reactor (LWR) supply 
contract ad hoc and routine inspections by the International Atomic 
Energy Agency (IAEA) of facilities not subject to the freeze. Second, 
the DPRK agreed to come into full compliance with IAEA Safeguards 
Agreement before completion of the LWR project.
    Although the DPRK has, for the most part, lived up to the letter of 
the Agreed Framework and the agreement has achieved the near term 
objective of shutting down the Yongbyon facilities, implementation of 
the Agreed Framework is incomplete. To date these graphite moderated 
reactors remain frozen, and all known intact rods are canned, and under 
IAEA seal. For the LWRs to become operational the DPRK must be in full 
compliance with IAEA safeguards. No indication exists that North Korea 
is ready to accept the prerequisite level of transparency. 
Unfortunately, the potential and promise of the Agreed Framework have 
not yet been fully realized and the DPRK's long-term intentions are not 
clear.
    [Deleted.]

                   INFRASTRUCTURE AND QUALITY OF LIFE

    14. Senator Collins. General Schwartz, infrastructure and quality 
of life have been bill payers for readiness for a long time. However, 
despite this fact, the morale and dedication of our service men and 
woman are extraordinary. In your professional opinion, what steps can 
we take this year to make strides in attaining a balanced approach to 
ensure good training, good quality of life, and good infrastructure for 
our troops?
    General Schwartz. Achieving our vision and accomplishing our 
missions require us to prioritize scarce resources. To do this, we 
apply the concept of balanced readiness. Balanced readiness blends 
combat readiness--our ability to ``fight tonight''--with the categories 
of quality of life for servicemembers and their families, and the 
condition of the infrastructure. In fact, in terms of prioritizing 
military construction resources today, the quality of life and 
infrastructure categories of my balanced readiness concept are the most 
important. Our military construction (MILCON) command priorities, then, 
fall into three categories: (1) War Fighting Readiness, (2) 
Infrastructure, and (3) Quality of Life. My immediate concerns right 
now are quality of life issues.
    A Korean assignment today involves some of the poorest living and 
working conditions of any permanent change of station assignment in the 
military. Even with the great assistance we received from Congress last 
year, $138 million for quality of life construction, we continue to 
face grim conditions throughout this command. We cannot sacrifice cuts 
in one category to provide for in another category. My goal is to make 
a Korean assignment comparable to other Outside Continental United 
States (OCONUS) assignments. To do this we need the continued support 
of Congress.
    Over 50 percent of the servicemembers in U.S. Forces Korea live in 
inadequate quarters. These quarters are inadequately maintained due to 
lack of funding and are inadequate in terms of size. Quarters in Korea 
are very small and become very cramped when furnished to American 
standards. Overcrowded facilities force us to billet many unaccompanied 
personnel off-post in dense urban areas, creating force protection 
concerns. This practice not only increases their personal risk, it also 
imposes a high financial burden in terms of out of pocket, cost of 
living expenses.
    Family housing throughout the peninsula is inadequate as well. As 
with the barracks, the family housing on and off post in Korea is very 
small and becomes very cramped when furnished to American standards. 
Much of the housing in Korea is over 25 years old and many of the units 
have never been renovated. Only 9 percent of the Command serves an 
accompanied tour due to the lack of available housing on post. This 
continuous rotation of personnel every year has a dramatic impact on 
all services in Korea and seriously impacts force readiness for U.S. 
Forces Korea. Historically, funding for housing in Korea has been 
minimal. Since 1959, only $43 million has been targeted for family 
housing. We require $49 million, per year, over the next 10 years to 
match our host nation funded construction housing effort.
    Many of our soldiers along the Demilitarized Zone (DMZ) are still 
living and working in overcrowded and substandard Quonset and H-
relocatable barracks that do not provide the minimum net square footage 
required by current Army standards. These substandard facilities have 
gang latrines and deteriorated heating systems, do not provide adequate 
security for soldiers' personal and military issue items, waste energy 
and are becoming structurally unsound.
    Furthermore, we cannot renovate these substandard barracks to meet 
current standards. These substandard conditions have a significant 
negative impact on the health, morale, and mission readiness of the 
soldiers and units they serve. We need 28 new UOQs at a cost of $49 
million per year over the next 10 years.
    We presently have 20 physical fitness centers that need to be 
replaced at a cost of $15 million per year over the next 10 years. We 
have 12 dining facilities that need immediate replacement at a cost of 
$14 million per year over the next 10 years. Replacing these 
unsatisfactory buildings will have an immediate effect on improving the 
quality of life for our servicemembers.
    We desperately need to execute a comprehensive construction program 
and begin to eliminate the unacceptable living and working conditions 
in aging facilities that U.S. forces in Korea face every day. Last year 
we received $76 million.
    Substandard infrastructure, living, and working conditions are not 
limited to the soldiers at the DMZ, but also exist at other Army, Air 
Force, and Navy installations throughout the Korean peninsula. The 
problems continue to grow worse. Chronic under-funding of sustainment, 
restoration, and modernization (SRM) funding for Korea during the past 
15 years and the interruption of MILCON dollars for our command between 
1991 and 1994 has limited our ability to give our servicemembers that 
quality of life they deserve. Aging facilities are also more costly to 
maintain.
    The extent of our water and electricity problem is best illustrated 
by the fact that in 1999 and 2000 alone, the command suffered 437 
electrical power and 515 water supply outages from decaying 
infrastructure. Currently, we can only afford emergency repairs, which 
is more costly in the long term than having a preventive maintenance 
program.
    Additionally, we are currently in the process of upgrading and 
improving sewer and water disposal systems in many of our installations 
and require support to complete these projects. To repair and upgrade 
these systems we require $29 million per year for 10 years for water, 
$60 million per year for 10 years for electric, and $61 million per 
year for 10 years for sewers. In fiscal year 2002, we anticipate $83.4 
million in fiscal year 2002 for real property maintenance. This funding 
will allow us to keep the doors open to our facilities and make 
emergency repairs only. It leaves us $194.0 million short of our total 
requirement of $274.4 million, which would allow the command to provide 
quality facilities and accomplish the routine maintenance required on a 
day-to-day basis. Thirty percent of all buildings in the command are 
between 40 and 80 years old and 32 percent are classified as temporary 
buildings.
    Being good stewards of the environment in our host country is 
important to our mission and the alliance, and a major subset of the 
infrastructure category. We have accomplished much but there is more we 
will do. Future problem mitigation and environmental protection 
requires continuous funding from both the Republic of Korea and U.S. We 
need an additional $43.6 million in the environmental operations and 
maintenance accounts for fiscal year 2002 and approximately $15 million 
in MILCON per year over the next 10 years for compliance cleanup, 
pollution prevention, wastewater treatment facilities, and 
conservation. Our investment in protecting the Korean environment is 
the responsible course of action that serves to strengthen our 
alliance.
    I want to emphasize that the support of Congress and the American 
people is vitally important to our future in Korea. We thank you for 
all you have done. Your MILCON support since 1995 has allowed us to 
upgrade or replace 126 facilities. We have an investment of over 50 
years in this region, but we cannot continue this investment 1 year at 
a time. The U.S. forces in Korea require a continued investment in 
basic readiness and quality of life.

                          READINESS ASSESSMENT

    15. Senator Collins. Admiral Blair, General Schwartz, and General 
Pace, recently, a senior officer expressed his concern to me that our 
current spending pattern is to rob our modernization account to pay for 
pressing readiness problems. He also described a disturbing pattern in 
which the Clinton administration deliberately under funded readiness 
accounts with the expectation of a supplemental fix for these pressing 
issues. While you have each addressed readiness issues separately in 
your testimony, what is your overall assessment of your respective 
command's readiness?
    Admiral Blair. As previously mentioned in my written testimony, the 
forces in U.S. Pacific Command (USPACOM) are fully ready to execute any 
assigned mission. We continue to have no reservation about our ability 
to do our job today, but do have doubts about our ability to do so in 
the future unless we make progress in addressing structural readiness 
issues.
    Overall, the warfighting capabilities of U.S. Armed Forces have 
leveled out after recent declines, but there are many critical 
readiness areas that continue to cause concern. My issues are focused 
in eight areas: people; operations and maintenance funding; mobility 
infrastructure; sustainment restoration, and modernization; housing; 
Army prepositioned stocks; preferred munitions; and medical support.
    People. Readiness starts with people. First, I would like to 
express the appreciation of the men and women of the USPACOM for the 
pay and compensation measures taken this past year. I strongly applaud 
the funding in the fiscal year 2000 budget for a base pay increase, 
elimination of the REDUX retirement system, return to 50 percent base 
pay after 20 years of service, and pay table reform that rewards 
achievement more than longevity. These actions demonstrate the interest 
of our Nation in equitably and fairly compensating the men and women of 
the Armed Forces both on active duty and in retirement. I also very 
much endorse Congress's commitment to keep pay raises above the 
Employment Cost Index for the next several years to continue to ensure 
competitive compensation.
    Pay and retirement are not the only areas of concern. To attract 
and retain highly motivated, qualified people, we must continue to 
emphasize quality medical care, education, and housing while providing 
the opportunity to live in a secure and safe environment. We must 
increase our efforts to pursue improvements in TRICARE so customer 
satisfaction, particularly at military treatment facilities, meets the 
national standard. This is critical to taking care of our personnel and 
families. I appreciate the ongoing efforts in the area of dependent 
education; however, I must emphasize we need to continue our efforts so 
educational standards in Department of Defense schools offer programs 
and services that meet or exceed the national average. We should be 
especially attentive to revitalizing all housing assets. Current 
funding gaps and delays in privatization have endangered our goal to 
fix the housing problems by 2010.
    Operations and Maintenance Funding. The next most important 
component of readiness is funding for operations and maintenance. These 
funds provide spare parts, fuel for aircraft, ships, and tanks, funds 
to train, and upkeep for our bases. Here the news is not positive. The 
Pacific component commands gained only marginally from fiscal year 1999 
and 2000 Emergency/Readiness Supplemental Appropriations. Further, the 
funds provided were only sufficient to prevent further declines in 
readiness rather than assist in any measurable increase. Accordingly, 
the readiness of our component commands is not expected to reflect any 
significant increase this fiscal year from supplemental funding. 
Forward deployed forces and forces deploying to contingencies are at a 
high state of readiness. Non-deployed and rear area forces are at lower 
readiness. Camps, posts, and stations continue to deteriorate.
    Mobility Infrastructure. Of particular concern is the 
transportation infrastructure required to deploy forces across the 
Pacific in support of conflict in Korea or other operations. The 
problem centers on aging fuel systems in Alaska, Hawaii, Guam, and 
Japan, specifically, fuel hydrant distribution systems and storage 
tanks, which in many cases are nearly 50 years old and nearing the end 
of their useful service life. These existing systems are not only very 
costly to maintain, but their age reduces our capacity to speed 
strategic airlift across the Pacific. The continued appropriation of 
resources is absolutely essential to maintain this upward trend and 
complete the necessary repairs of our aging mobility infrastructure.
    Sustainment, Restoration, and Modernization (SRM). SRM is showing 
the combined effects of aging facilities and cumulative underfunding. 
The result is a maintenance backlog that will continue to grow unless 
the Services can program more funds. These programs must reflect a 
commitment to having first-rate facilities that are on a par with the 
quality of our people and weapons systems. Our components require 
approximately $3.6 billion over the next 5 years to fix this backlog. 
This amount is above what is needed to maintain the status quo on our 
bases and infrastructure. The shortfall in SRM affects readiness, 
quality of life, retention, and force protection, and can no longer be 
ignored. Our people deserve to live and work in first-class buildings. 
We have not yet reached this standard.
    Housing. Safe, adequate, well-maintained housing remains one of my 
top quality of life concerns. In the Pacific area of responsibility, 
the latest assessment shows military family housing (MFP) units totaled 
79,471, with shortfalls of over 11,000 on the west coast and Hawaii, 
4,000 in Japan, and 2,650 in Korea. We are working hard to correct the 
housing problems with projects ranging from whole barracks renewals at 
Fort Richardson, Alaska, and Schofield Barracks, Hawaii, to new family 
housing at Pearl Harbor and Kaneohe Bay, Hawaii. However, much more 
remains to be done and I need your continued support for these very 
important programs which are vital to retaining the quality people that 
are the cornerstone of our military strength.
    Army Prepositioned Stocks. A key logistics and sustainment 
shortfall remains the Army Prepositioned Stocks 4 (APS-4) Brigade Set 
located in Korea. Army heavy forces deploying to fight on the Korean 
peninsula would fall in on this equipment. Although we are happy with 
the status of the Brigade Set, crucial shortages exist in sustainment 
stocks that impact our ability to replace combat losses. I fully 
support CINCUNC/CFC's requirement to have this set of equipment become 
a Korean version of the capability that exists in Kuwait to support 
Central Command.
    Preferred Munitions. Another logistics shortfall in USPACOM is 
preferred munitions. Operations in Kosovo severely depleted worldwide 
stocks of Navy and Air Force precision guided munitions, including many 
types designated in our plans for use in Korea. Although Service 
programs have received supplemental funding that will alleviate some of 
the shortfalls over time, critical shortages exist now. Theater plans 
can still be executed successfully, but only by substituting less 
effective munitions early in the conflict. The result is additional 
high-risk sorties by combat crews, a longer conflict, and higher 
casualties.
    Medical Support. Finally, we may be accepting some risk in the area 
of medical support. Although funding has been programmed to meet 
prepositioned medical supply shortfalls, and a test will be made of the 
shortages of prepositioned medical supplies, an initial shortfall in 
the number of hospital beds, the movement of additional hospitals and 
personnel from continental U.S.-based hospital facilities, and the 
untested ability of the industrial base and medical logistics programs 
to support massive deployment and initial in-theater requirements, 
makes our ability to provide adequate force health protection 
uncertain.
    In summary, USPACOM can do the job today. However, we need 
continued investments to attract and retain quality personnel, maintain 
both our equipment and facilities, build stocks of the most modern 
munitions and equipment needed to sustain combat operations most 
effectively, and provide medical support during a major theater war.
    General Schwartz. As I report in my Joint Monthly Readiness Review 
(JMRR), all CFC units are prepared to execute their wartime mission. 
However, we have some significant deficiencies that are reported in 
great detail to the Joint Staff. [Deleted.] While there have been only 
minor changes to the readiness issues reported in the JMRR, CFC 
believes there is [deleted].
    General Pace. There are shortfalls within our units. With one 
exception, none of the shortfalls significantly impact our ability to 
accomplish assigned missions. [Deleted.]
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                   PLAN COLOMBIA AND NARCO-TERRORISM

    16. Senator Landrieu. General Pace, last year I followed the 
debates over Plan Colombia, our approach to the problem of narco-
terrorism in South America, and the issues surrounding counter-
narcotics efforts with great interest. I am concerned, however, that 
Plan Colombia was significantly watered down. I believe its focus on 
Colombia risks simply pushing drug producers, processors, smugglers, 
and possibly the rebels themselves across the borders into the 
neighboring countries of Venezuela, Brazil, Peru, and Ecuador. This 
would just exacerbate the problem and turn Colombia's problem into a 
regional one. Do you agree with this assessment and, if so, what 
changes would you recommend to make Plan Colombia more effective 
throughout your AOR?
    General Pace. While various elements of the drug trafficking 
business already impact virtually all nations in the region, I agree 
with your assessment that a successfully executed Plan Colombia 
increases the risk of pushing drug producers, processors, and smugglers 
across the borders into neighboring countries. Due to the potentially 
lucrative profits of the narco-trafficking business, I fully expect 
drug trafficking organizations (DTOs) to employ every measure possible, 
including migration of their activities across Colombian borders, to 
continue their operations. Fortunately, no major change of direction is 
required in planned U.S. support for Colombia and its neighbors. The 
Department of State-led U.S. Government interagency effort supporting 
Plan Colombia anticipated this DTO reaction and is already coordinating 
the regional response required to contain spillover. A substantial 
percentage of both the fiscal year 2001 Emergency Supplemental and the 
proposed fiscal year 2002 Andean Regional Initiative (ARI) provide 
funds to develop bordering country capabilities specifically designed 
to address this problem. USSOUTHCOM, through the Department of Defense, 
is actively supporting this Department of State-led effort.

                            COLOMBIAN REBELS

    17. Senator Landrieu. General Pace, just last week, the U.S. 
Ambassador to Colombia, Anne Patterson, endorsed a proposal to grant 
Colombia's second-largest rebel group a demilitarized enclave to help 
revive suspended peace talks. This proposal, part of President Andres 
Pastrana's land-for-peace policy, would hand over a territory in 
northern Colombia to the 5,000-member National Liberation Army with all 
government troops and police leaving the zone. Based purely on your 
military expertise, what is your assessment of the Colombian military's 
ability to execute Plan Colombia and deal with these rebels?
    General Pace. [Deleted.]

                    READINESS AND CURRENT OPERATIONS

    18. Senator Landrieu. Admiral Blair, General Pace, and General 
Schwartz, last week this committee was briefed by Generals Ralston and 
Franks on the status of their AORs. Like them, you have provided superb 
prepared statements which address your engagement plans and needs. I 
have a few follow-up questions:
    JSTARS. The Air Force reports that JSTARS platforms and air crews 
are severely burdened due to CINCs' requirements--particularly in the 
EUCOM ard CENTCOM AORs. For the past 3 years Congress has added funds 
to continue procurement of the JSTARS aircraft moving the fleet size 
toward the Joint Requirements Oversight Council (JROC) requirement of 
19. I would like you to give your views on the importance of that 
system to your AOR, your war plans, and if you have been constrained 
due to lack of assets.
    Force Reductions. Given the fact that our forward-deployed forces 
in Korea serve mainly as a ``tripwire'' and source of deterrence, do 
you see any room for reductions in those forces in the near future?
    Burden-sharing. With regards to the renegotiation of the Special 
Measures Agreement, what is the status of those negotiations and what 
are your expectations as to increase South Korean support of the 
financial costs associated with the facilities and forces we base 
there?
    Admiral Blair. Moving Target Indicator (MTI) coverage over the 
Korean Peninsula is a [deleted]. JSTARS is invaluable in providing 
deep-look MTI especially in light of ongoing [deleted]. The aircraft, 
however, is allocated to the Pacific theater [deleted] JSTARS support 
to the theater is required. During a conflict, JSTARS will play a 
critical role in providing MTI coverage of enemy activities. [Deleted.] 
This is expected to increase in subsequent re-writes of the OPLANS as 
more JSTARS aircraft and trained aircrew come on-line. [Deleted.]
    General Pace. [Deleted.]
    General Schwartz. [Deleted.]
    No. The strength of our alliance with the Republic of Korea (ROK) 
is our presence. The ROK soldiers, sailors, airmen, and marines defend 
the Republic everyday. They defend the majority of the Demilitarized 
Zone forward of most USFK forces. Northeast Asia will remain vital in 
both strategic and tactical terms. Our presence demonstrates our 
commitment to regional partners and provides credible and practical 
contribution to regional stability and security. Continued access to 
Northeast Asia will be critical to respond to future contingencies/
crises. Regional presence enables us to respond more rapidly and 
flexibly. Many variables will determine the shape and size of our 
presence such as the nature of regional security situation and the 
national interest of our host nation and perceived threats to those 
interests. However the U.S. will have national interests in the region 
well into the future.
    Ambassador Marisa Lino, Senior Advisor to the Assistant Secretary 
of State for Political-Military Affairs, led the U.S. delegation in the 
first round of the 2001 Special Measures Agreement (SMA) negotiations 
with the Republic of Korea's Government (ROKG) on 29-30 March in Seoul. 
The U.S. proposed a multi-year agreement, within the current SMA 
structure, with a baseline contribution of USD 584 million for 2002. 
Ambassador Lino further proposed that contributions for future years 
should be calculated with a growth equation based upon the previous 
year's inflation rate, GDP growth, and a fixed escalator clause to 
ensure that the overall ROK contributions reflect an increasing 
percentage of USFK non-personnel stationing costs and fair 
consideration of the ROK's economic situation. The ROKG SMA 
representatives during the initial meeting in March and during three 
subsequent working level meetings lead by the U.S. Embassy expressed 
concerns about our assessment of their ability to pay, evaluation of 
contributions outside of the SMA, commitment to a multi-year agreement, 
and overall fairness.
    Despite the gaps in our initial positions, we fully anticipate a 
new Special Measures Agreement, which results in fair, real, and 
meaningful growth in the Republic of Korea's contribution to the 
payment of USFK's non-personnel stationing costs.

                           PEACE NEGOTIATIONS

    19. Senator Landrieu. Admiral Blair and General Schwartz, in your 
opening statements you both allude to the fact that, while the last 
year has seen breathtaking developments in North Korea's relationship 
with the South and the rest of the world, their training cycle last 
winter and over the summer was robust and you evaluate their military 
as ``bigger, better, closer, and deadlier'' than when you briefed this 
committee last year. At the same time, the North Korean economy is a 
shambles and most experts agree that the country is breaking down--the 
only question is whether it will explode or implode. Recently, the 
President has expressed skepticism about ongoing peace negotiations 
between North and South Korea and decided to postpone talks with the 
North. Just last Friday, European Union leaders announced they would 
dispatch their own team of mediators to try and jump-start the talks. 
What is your assessment of the ongoing peace negotiations and what 
impact do you believe the EU's actions will have on the process?
    Admiral Blair. President Bush's 6 June policy announcement on North 
Korea has changed the dynamics of the issue significantly. At this 
time, our State Department and its peers in the Republic of Korea (ROK) 
and other nations have the lead in the diplomatic campaign to convince 
North Korea to move from rogue state to becoming a more normal member 
of the international community--with all the benefits and 
responsibilities that entails. As a military leader, I am concerned Kim 
Jong-Il continues to devote scarce resources to maintaining a large 
conventional military force that threatens regional peace and 
prosperity. I certainly support the multilateral efforts to reduce that 
threat and hold North Korea responsible for adhering to international 
norms. 
    General Schwartz. The historic meeting between President Kim Dae-
Jung and Chairman Kim Jong-Il initiated a great deal of diplomatic 
activity on the Korean peninsula which touched off a wave of 
reconciliation euphoria in South Korea and generated the public 
perception that peace was just around the corner. As I noted in my 
statement, the initial pace of diplomatic activity  in the summer and 
fall of 2000 was indeed staggering. North Korea, however, is not a 
predictable and reliable partner for the ROK. The North Koreans have 
repeatedly stalled the promised follow-on to the first ever meeting of 
defense ministers in September 2001. North Korea has yet to implement 
any meaningful military confidence building measures (CBM). A detailed 
agreement, which could have served as a model CBM, on the construction 
of the Seoul-Sinuiju transportation corridor remains unsigned. Meetings 
at the ministerial-level sponsored by the ROK Unification Ministry on a 
wide range of non-military issues have yet to yield concrete results. 
This spring North Korea abruptly cancelled an April Red Cross meeting 
and a March ministerial-level meeting. The promised and long 
anticipated follow-on summit between the leaders of North and South 
Korea is not yet scheduled. While it is encouraging that Kim Jong-Il 
promised to extend the moratorium on missile testing into 2003 the 
recent threat to abrogate the Agreement Framework is a more typical 
example of their unpredictable behavior. While North Korea's greatly 
expanded diplomatic contacts, to included the European Union, provide 
the opportunity from the DPRK leadership to hear from a variety of 
sources about the requirements for predictable and reliable 
international behavior, these contacts have not fundamentally changed 
the DPRK's erratic behavior and the reconciliation process is stalled.

                             MISSILE THREAT

    20. Senator Landrieu. General Schwartz, the ongoing debates on 
national and theater ballistic missile defense as well as concerns 
about threat assessments and the Rumsfeld Commission's report continue 
to highlight the danger ballistic missiles pose to regional and world 
stability. What is your military assessment of the North Korean missile 
program and the threat it poses to our forces in the Pacific as well as 
Hawaii and the Continental United States?
    General Schwartz. [Deleted.]

                           TAIWAN ARMS SALES

    21. Senator Landrieu. Admiral Blair, just last week President Jiang 
Zemin told American reporters: ``We absolutely oppose the sale of 
advanced weapons by the United States to Taiwan. If the United States 
were to sell advanced weapons to Taiwan such as the Aegis system, that 
would be very detrimental to China-U.S. relations.'' At the same time, 
China continues to deploy increasingly more sophisticated missile 
batteries in the Fujian province (about 100 miles from Taiwan) to 
threaten leaders on the island. Given your expertise on Sino-American 
relations and the security environment in your theater, what is your 
recommendation on the sale of advanced technology systems, including 
the Aegis weapons system, to Taiwan?
    Admiral Blair. [Deleted.]

                             CHINESE THREAT

    22. Senator Landrieu. Admiral Blair, a source of great debate in 
Washington these days is the strategic review Secretary Rumsfeld is 
conducting at the Pentagon to determine what our strategy should be in 
the coming years. Andrew Marshall is on record as saying he believes 
China represents the true threat the United States will face in the 
21st century. What is your assessment of the Chinese threat and what 
advice would you give this committee on how to deal with it?
    Admiral Blair. [Deleted.]
    Our engagement tempo and range of activities with China may vary 
over time, but it is important to keep a consistent approach that 
promotes cooperation, fosters constructive regional agreements, and 
deters intimidation or the use of force.

                  RESTRICTIONS ON MILITARY INTERACTION

    23. Senator Landrieu. Admiral Blair, in your prepared statement you 
allude to restrictions on your ability to interact with 14 of the 43 
nations in the region and question the validity of some of those 
restrictions. What restrictions do you believe should be removed or 
modified to enhance your ability to execute your regional engagement 
strategy? Are any of those restrictions mandated by Congress or are 
they imposed by the administration and/or DOD?
    Admiral Blair. U.S. Pacific Command currently is restricted in some 
 manner in its interactions with 14 of the 43 nations in the region. If 
we are to maintain our relationships and ability to influence 
throughout the AOR we must seek to propel inevitable changes in Asia in 
directions we deem desirable. Inflexible restrictions that impose broad 
penalties in the short-term may ultimately damage our overall long-term 
strategic interests.
    While I do not support a reward to ``bad actors,'' suspension of 
all Military-to-Military (Mil-to-Mil) contact activities eliminates the 
opportunity for dialogue and the opportunity for positive influence by 
the U.S. When Mil-to-Mil contact is totally suspended, no shaping can 
occur.
    I favor a baseline activity level that we would sustain with all 
nations. All nations would generally be entitled to attend 
international multilateral conferences, senior service schools, and 
institutions such as the Asia-Pacific Center for Security Studies 
(APCSS). I believe that it is to our benefit to expose officers and 
other officials even of nations like Burma, Comoros, and North Korea, 
to democratic ideals and international norms.
    Expansion of Mil-to-Mil contact above the baseline would include 
foreign military sales (FMS)/foreign military financing, port visits, 
military training, and exercises. If a nation severely regresses in its 
reform efforts or violates international norms, then discretionary 
activities are rolled back in proportion to the severity of the event.
    For example, under such a Mil-to-Mil baseline policy, Indonesia 
would benefit from continual exposure to democratic ideals and 
international norms. It is in the U.S. interest to influence Indonesian 
armed forces (TNI) to adopt such ideals and norms. Yet, since 
international military education and training was discontinued in 1991, 
few Indonesian officers have been exposed to the U.S. Armed Forces. 
Conversely, we are limited in our ability to influence developments due 
to the scarce number of contacts developed.
    Positive reforms by TNI could result in increased activities, 
ranging from FMS cases like C-130 spare parts and F-16 aircraft, to 
port visits, military training, and exercises. Regression in the TNI 
reform effort would lead to a proportional rollback in discretionary 
activities. Regardless of progress or regression, however, I believe 
there should remain a place for Mil-to-Mil contact to provide long-term 
opportunities for dialogue and positive influence.
    Current restrictions include: New Zealand, Indonesia, North Korea, 
Taiwan, Vietnam, Burma, Cambodia, Fiji, Laos, Mongolia, China, Comoros, 
India, and Russia.

                                 JAPAN

    24. Senator Landrieu. Admiral Blair, you have spoken about our 
relationship with Japan and the sensitivity of negotiations on the 5-
year Special Measures Agreement (SMA) as well as issues concerning 
various bases in Japan. In your opinion, what impact will the U.S.S. 
Greeneville's sinking of the Ehime Maru have on those negotiations and 
our security relationship? Based on your experience as a naval officer, 
what is your opinion about the calls to raise the Ehime Maru?
    Admiral Blair. The new 5-year SMA was ratified by the Japanese Diet 
in November 2000 and went into effect on 1 April 2001, before the 
U.S.S. Greeneville's collision with the Ehime Maru. I believe the U.S. 
and Japan have a strong bilateral relationship whose enduring strength 
has benefited both sides for close to half a century. I  believe we 
will be able to move forward from this tragedy in the interests of both 
nations and our peoples. I fully support ongoing efforts to raise the 
Ehime Maru. Recovery operations at this depth, though technically 
feasible, will be challenging. We are committed to using the best 
capabilities in the world. When salvage operations begin later this 
summer, the U.S. Navy and the Japan Maritime Self Defense Force will do 
everything possible to recover the remains of the missing crewmembers.

    [Whereupon, at 12:00 p.m., the committee was recessed, to 
reconvene in closed session.]


 DEPARMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                   MILITARY POSTURE/BUDGET AMENDMENT

    The committee met, pursuant to notice, at 2:31 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Cleland, Landrieu, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Carnahan, Dayton, Warner, McCain, Inhofe, Santorum, 
Roberts, Allard, Hutchinson, Sessions, and Collins.
    Committee staff members present: David S. Lyles, staff 
director; Anita R. Raiford, deputy chief clerk; Madelyn R. 
Creedon, counsel; Richard D. DeBobes, counsel; Gerald J. 
Leeling, counsel; and Peter K. Levine, general counsel.
    Professional staff members present: Daniel J. Cox, Jr., 
Evelyn N. Farkas, Richard W. Fieldhouse, Creighton Greene, 
Michael J. McCord, and Terence P. Szuplat.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; L. David Cherington, minority 
counsel; Ann M. Mittermeyer, minority counsel; Suzanne K.L. 
Ross, research assistant; Scott W. Stucky, minority counsel; 
and Richard F. Walsh, minority counsel.
    Professional staff members present: Charles W. Alsup, 
Edward H. Edens IV, Brian R. Green, William C. Greenwalt, Gary 
M. Hall, Mary Alice A. Hayward, Ambrose R. Hock, George W. 
Lauffer, Patricia L. Lewis, Thomas L. MacKenzie, Joseph T. 
Sixeas, and Cord A. Sterling.
    Staff assistants present: Gabriella Eisen, Thomas C. Moore, 
and Jennifer L. Naccari.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Christina Evans, Barry Gene 
(B.G.) Wright, and Erik Raven, assistants to Senator Byrd; 
Frederick M. Downey, assistant to Senator Lieberman; Andrew 
Vanlandinghama, assistant to Senator Cleland; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Neal 
Orringer, assistant to Senator Carnahan; Brady King, assistant 
to Senator Dayton; Christopher J. Paul, assistant to Senator 
McCain; Margaret Hemenway, assistant to Senator Smith; John A. 
Bonsell, assistant to Senator Inhofe; George M. Bernier III, 
assistant to Senator Santorum; Robert Allen McCurry and James 
Beauchamp, assistants to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; and Kristine Fauser, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order. The 
committee meets this afternoon to receive testimony from Donald 
Rumsfeld, Secretary of Defense; General Hugh Shelton, Chairman 
of the Joint Chiefs of Staff; and Dr. Dov Zakheim, Under 
Secretary of Defense (Comptroller). We welcome them. They will 
be testifying this afternoon on the fiscal year 2002 budget 
amendment. We welcome you all back.
    This may be the final time that General Shelton will be 
appearing before this committee to present his views on a 
defense budget before his term ends this fall. General Shelton, 
you have always put one cause above all others, and that is the 
well-being of America's Armed Forces and their families. 
History will record you as an outstanding Chairman of the Joint 
Chiefs of Staff who left the U.S. military more capable than 
you found it. On behalf of all of us, I want to take this 
opportunity to express our gratitude for the tremendous service 
that you have given to this Nation.
    Mr. Secretary, we all know there are many reasons why the 
administration is late in submitting the amended budget 
request, but as I mentioned in our hearing last week, the 
administration's delay is forcing Congress to attempt in an 8-
week session what typically takes 5 months. It will be an 
incredibly difficult task.
    The men and women of our Armed Forces have a lot at stake 
in the Fiscal Year 2002 National Defense Authorization Bill, 
and every member of this committee is committed to working hard 
to complete action on this bill before the start of the new 
fiscal year. To do that, the committee needs an actual budget 
proposal from the Department of Defense. So far, we have 
received only a budget outline. We need details on specific 
budget line items, and we need the justification books 
explaining these line items.
    This morning, we received some of the legislative proposals 
that the Secretary is asking this committee to consider. Mr. 
Secretary, given the extremely compressed schedule that I 
mentioned, we have to ask again for all of that information 
that I have outlined, the specific line items, the 
justification books, and legislative proposals by next week.
    While we have had only 24 hours to review your budget 
request, certain aspects are beginning to emerge. The fog is 
still heavy, but it is beginning to lift. There are some 
positive aspects to the request, such as efforts to build on 
the improvements in quality of life over the last few years by 
giving pay raises, reducing service members' out-of-pocket 
housing costs, and increasing funds for military health care 
and family housing. However, there are some puzzling aspects of 
your request as well.
    For instance, despite a proposed $33 billion increase in 
defense spending over the current fiscal year, spending on 
procurement would actually decrease next year by $0.5 billion; 
despite this $33 billion increase, funding for basic science 
and technology also would decrease next year; and despite a 
$7.8 billion increase in spending for operations and 
maintenance, Army flying hours and tank training miles also 
would decrease.
    At the same time, funding for missile defense would 
increase by $3 billion, from $5.3 billion to $8.3 billion, a 57 
percent jump over this year's level. Every line item in the 
budget involves real choices. It is clear that this budget 
places a huge increase in missile defense ahead of important 
programs in modernization, basic research, and training time 
for Army units.
    Earlier this year, many of us in the Senate expressed our 
concern that the large tax cut sought by the administration 
would leave little, if any, room for some essential 
investments, including defense. In fact, during the debate on 
the budget resolution, Senators Landrieu, Carnahan, and others 
introduced an amendment to redirect $100 billion of the tax cut 
over 10 years to defense, only to have that amendment defeated.
    Our Ranking Member, Senator Warner, offered an amendment, 
which was adopted in the Senate but then later dropped in 
conference, which also would have added funds for defense.
    Under the terms of the budget resolution, the Chairmen of 
the Budget Committees in the House and Senate will decide if 
the current level of funding for national defense in the budget 
resolution should be increased to accommodate your proposed 
budget amendment. As the Chairman of the Senate Budget 
Committee mentioned in a letter to the President earlier this 
week, with the new economic estimate from the Congressional 
Budget Office due in about a month, it would appear that the 
$18.4 billion increase that the administration is requesting 
for the Defense Department in fiscal year 2002 could lead to 
dipping into the medicare surplus.
    Moreover, the request before us is limited to fiscal year 
2002. The Secretary will testify today that an additional $18 
billion increase, totaling $347 billion, will be required in 
fiscal year 2003 just to sustain the proposed 2002 budget level 
on a straight line basis. This could take as much as $30 
billion of medicare funds next year alone without paying for 
any improvements or providing funding for the transformation of 
the military to meet new threats, which the Secretary will be 
proposing in the fiscal year 2003 budget, following the 
completion of his defense strategy review and the quadrennial 
defense review.
    Our men and women in uniform depend on defense budgets that 
are sustainable, yet it is increasingly apparent that the 
funding for any future transformation of our Armed Forces 
cannot be initiated or sustained without cutting existing 
defense programs, using the medicare surplus, returning to 
budget deficits, or cutting important programs such as 
education, health care, and law enforcement, none of which are 
acceptable alternatives.
    The bottom line is this: the administration's strategy of 
first laying out a banquet of tax cuts unnecessarily leaves 
other programs, including our national security programs, in an 
extremely precarious position. In order to avoid dangerous 
instability in the defense budget in the future, the 
administration needs to address this situation and provide a 
clear plan for meeting and sustaining our defense needs.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses.
    Mr. Chairman, the Republicans are going to caucus today at 
3:00, so I am going to forego my opening statement and place it 
in the record and give my colleagues who will be attending that 
conference the opportunity, hopefully, to have some questions 
before they depart. I certainly join you in the recognition of 
our distinguished chairman of the Joint Chiefs and his lifetime 
contribution to freedom and service to this country.
    I thank you and your family.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman, for your leadership in arranging to 
conduct this most important hearing at the earliest possible date. We 
both recognize the herculean task we now face in thoroughly reviewing 
this defense budget request, crafting an authorization bill, and 
gaining the consent of the full Congress prior to the beginning of 
fiscal year 2002.
    I join Senator Levin in welcoming Secretary Rumsfeld to his first 
posture hearing since the 1970s. It was a very different world when you 
last appeared before Congress to discuss the budget request 25 years 
ago, but the importance of the work we begin today is unchanged.
    I want to thank you for the service that you have once again 
undertaken for your country and for the work you have already begun. I 
also want to commend you and President Bush for submitting a budget 
amendment that begins to address the commitment you both made to our 
service men and women, past and present, to their families, and to all 
American citizens. As President Bush stated at the Citadel last Fall, 
we must, ``. . . renew the bond of trust between the American people 
and the American military; . . . defend the American people against 
missiles and terror; and, . . . begin creating the military of the next 
century.''
    I also extend a welcome to Gen. Hugh Shelton, Chairman of the Joint 
Chiefs of Staff, to what will be your last posture hearing--I won't say 
last appearance before this committee--because as a warrior you know 
none of us can predict with any certainty what the future may bring.
    I do want to extend to you the heartfelt thanks of a grateful 
Nation for your extraordinary service, which now spans five decades--
from 1963 to the present--and includes combat service during two tours 
of duty in Vietnam and during Operation Desert Storm. As Chairman of 
the Joint Chiefs, you have been repeatedly called upon to provide sound 
military advice to our President and to execute military operations 
across the spectrum of conflict that have been the epitome of precision 
and military professionalism. We are indebted to you, General Shelton, 
and salute your service.
    We are clearly at a critical juncture in our military history, and 
in the history of our Nation. We all accept that the United States has 
assumed a unique leadership role in the world today, especially in the 
realm of international security. It is easy to feel secure in our sole, 
superpower status, but as our own Director of Central Intelligence, 
George Tenet, and many other studies and commissions have repeatedly 
reminded us, we, as a Nation, are more vulnerable today than ever 
before in this increasingly interdependent and complex world. Mr. Tenet 
reaffirmed before this committee in March of this year that threats to 
our national security continue to increase, as was so tragically 
demonstrated in the vicious terrorist attack on the U.S.S. Cole. The 
pace of both social and technological change, continues to accelerate, 
increasing the concerns and the uncertainty we must accept.
    Ironically, we find ourselves in a fractious, complex world in the 
aftermath of communism. The proliferation of weapons of mass 
destruction and the means to deliver them, as well as the pervasive 
spread of information technologies, have combined to empower the 
disaffected of this new world order to increasingly threaten our 
shores, interests, and friends. Simply put, we are more vulnerable than 
ever. Those that would do us harm may not be constrained by 
conventional norms of conduct or dissuaded by the vague threat of 
prosecution or retaliation. New concepts and capabilities must be 
considered to strengthen our deterrence and maintain our security. The 
President has properly called for a new ``strategic framework'' to 
address this new reality.
    Clearly, we must be judicious in determining how and when we commit 
our Armed Forces around the world, but just as clearly this global 
leadership role requires robust, balanced, versatile, and credible 
Armed Forces to deter potential aggressors and defend our vital 
national interests, both at home and abroad. To remain a credible 
force, we must act now to develop the improved capabilities and 
concepts to protect our homeland, and deter and defeat anticipated and 
unanticipated threats in the future.
    Indisputably, our Armed Forces are the best, most powerful in the 
world today. This well-deserved reputation was not earned without cost, 
however. While our servicemen and women have performed their military 
missions with great dedication and professionalism, our people, 
equipment, and infrastructure are increasingly stressed by the effects 
of the unprecedented number of military deployments over the past 
decade, combined with years of declining defense spending. As the 
service chiefs have told us repeatedly, future readiness and the upkeep 
of military facilities have been deferred to pay for current operations 
and maintenance.
    Congress has been sensitive to this issue, providing much needed 
extra funding for defense in recent years. In fiscal year 2000, we 
reversed a 14-year decline in defense spending by authorizing a real 
increase in defense spending. Last year, we continued that momentum by 
providing an even larger increase for fiscal year 2001. Over the past 2 
years, we have increased military pay by over 8 percent; restored 
retirement and health care benefits to keep faith with those who serve; 
raised procurement levels to begin recapitalization and modernization 
of aging equipment; and significantly increased investment in research 
and development for the future.
    While much has been done, much remains. The President is to be 
commended for the increases he has proposed in defense spending. Since 
taking office, the President has recommended increases totaling $38.2 
billion. The increases he has proposed for fiscal year 2002 represent 
an almost 11 percent increase in defense spending above the amount 
available in fiscal year 2001. While this increase begins to address 
the shortfalls, I fear it may not be enough.
    There is one area of the budget before us I specifically want to 
highlight--the funding for the development and deployment of missile 
defenses. Ten years after the Gulf War demonstrated our vulnerability 
to ballistic missile attack, our forces overseas and our homeland 
remain defenseless. The Rumsfeld Commission highlighted--and the North 
Koreans demonstrated--the proliferation and growing sophistication of 
these ballistic missile technologies increasingly available to rogue 
states and lawless elements. We must move rapidly to comply with the 
Cochran Act and deploy missile defenses, ``as soon as technologically 
possible.'' I would remind my colleagues that this act, which was 
passed overwhelmingly by the Senate--97-3--and signed into law by the 
President, limits deployment only by technological progress. There are 
no limitations based on treaty restrictions. The budget request of $8.3 
billion for missile defense is a step in the right direction.
    There is a growing consensus in Congress, in the new 
administration, and among the American people that significant new 
investment in defense is necessary and prudent. I credit the joint 
chiefs for the courageous role they have played in building this 
consensus. Beginning in September 1998, and at least once a year since 
then, the chiefs have come before us to testify to critical shortfalls 
in defense spending. I simply ask now, is the budget amendment before 
us sufficient to meet the near-term and long-term needs of the 
respective services?
    General Shelton, you and the Service Chiefs have often spoken of a 
strategy-resource mismatch. We have followed a strategy that has led to 
a geometric rise in the commitment of our forces, without a 
corresponding increase in resources. Secretary Rumsfeld, we are all 
very familiar with the review process you have undertaken to address 
our military strategy and anxiously await the recommendations you will 
make upon conclusion of the Quadrennial Defense Review (QDR). Crafting 
a strategy that more realistically anticipates near-term, as well as 
emerging threats is a noble goal. Whatever strategy is ultimately 
adopted must be adequately funded, lest we create another mismatch at a 
reduced level of capability.
    Mr. Secretary, we look forward to working with you to ensure we 
keep faith with our Armed Forces to fully fund all that we ask them to 
do. We also look forward to forthright dialogue and partnership that 
must be a part of our deliberations this year, as well as the fiscal 
year 2003 budget process and beyond, as we truly begin to turn this 
mighty ship you lead to best confront the challenges of today, and the 
ones that lie ahead.
    Thank you.

    Senator Warner. At this time I would also like to insert 
Senator Thurmond's and Senator Hutchinson's statements for the 
record.
    [The prepared statements of Senators Thurmond and 
Hutchinson follow:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman. Secretary Rumsfeld and General Shelton, I 
want to join our Chairman, Senator Levin, and Ranking Member, Senator 
Warner, in welcoming you to this long overdue hearing on the fiscal 
year 2002 budget. Mr. Secretary, you have been very busy during the 
past 5 months and have stirred up much dust. I congratulate you for 
setting into motion a critical review of our defense strategy and the 
operations of the Department of Defense. I look forward to the 
conclusions of your efforts.
    General Shelton, although this may not be your last appearance 
before the committee, it will be your last posture hearing. You have 
weathered many storms during your 4 years as Chairman of the Joint 
Chiefs of Staff and will be remembered for the many actions you 
advocated to improve the quality of life for our military personnel and 
their families. I expect that I speak for many here on the committee 
when I say, ``thanks for a job well done!''
    Mr. Chairman, as we begin the process that culminates in the 
National Defense Authorization Act for Fiscal Year 2002, I would like 
to share a quote from a poem by Elizabeth Barrett Browning:

        Happy are all free people, too strong to be dispossessed. But 
        blessed are those among nations who dare to be strong for the 
        rest!

    The United States of America is a blessed nation because those who 
proceeded us had the foresight to provide for the best equipped, 
trained, and motivated Armed Forces in the history of our great Nation. 
By our strength we have become the protector of the rest of the world 
and must not shed that mantle of responsibility. The budget that we 
will consider over the next several months will provide for the 
continuation of our leadership whether in the form of a missile defense 
system, new high technology weapons or the best quality of life for the 
men and women who wear the uniforms of our military services.
    I do not think that anyone will dispute the fact that over the past 
several years our Armed Forces have become frayed from over commitments 
and under funding. We must reverse that trend. I believe this budget 
amendment, although less than many of us had hoped for, is a good 
start. With this amendment, President Bush will increase the defense 
budget by more than $38 billion over the fiscal year 2001 defense 
budget. More importantly, the increase will provide real benefits in 
terms of improved family housing, readiness, and research and 
development. It will also provide robust funding for a National Missile 
Defense program which I consider the most urgent requirement for our 
Nation's security.
    Mr. Chairman, despite all the positive aspects of this budget, I 
believe it does not adequately fund the modernization of our Armed 
Forces. It is still short of meeting the standard of revitalizing our 
infrastructure every 67 years. It will not close the pay gap between 
the private sector and the military. More importantly, it assumes 
almost $1 billion in savings or efficiencies that are not going to be 
realized.
    Mr. Chairman, I appreciate the fact that fiscal and time 
constraints will leave us little flexibility to make significant 
changes to the budget request. However, we must ensure that we maximize 
the resources that are available. I intend to work with you, Senator 
Warner and Secretary Rumsfeld, to ensure that we achieve that goal. 
Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Tim Hutchinson

    Mr. Chairman, the President's Fiscal Year 2002 Defense Budget 
Amendment directly addresses areas of critical need in our military. It 
places the needs of our troops first, and places special emphasis on 
quality of life issues. Mr. Secretary you should be applauded for your 
efforts in shaping a budget that will significantly improve morale and 
retention.
    I am particularly pleased about the level of funding provided for 
military healthcare. Last year, as Chairman of the Subcommittee on 
Personnel, I worked very hard to improved the military healthcare 
system. In cooperation with Senator Warner and other members of this 
committee, we passed Warner-Hutchinson Tricare-for-Life, as well a 
comprehensive pharmacy benefit. The President's budget includes 
substantially increased funding for these and other healthcare items.
    I do have concerns about some specific programmatic decisions, and 
I look forward to working with the administration and my colleagues on 
this committee regarding these issues. However, this budget provides 
needed funding for personnel, missile defense, and military 
construction. I look forward to further reviewing the details of the 
President's submission.

    Chairman Levin. Thank you, Senator Warner.
    Secretary Rumsfeld.

  STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE; 
 ACCOMPANIED BY DR. DOV S. ZAKHEIM, UNDER SECRETARY OF DEFENSE 
                         (COMPTROLLER)

    Secretary Rumsfeld. Mr. Chairman, I had planned to make 
about 10 to 12 minutes of remarks and ask that my statement be 
put in the record. I can do that, or if the Senators have to 
leave, I could delay it until they have a chance. I can do 
whatever you want.
    Chairman Levin. With leave of my colleagues on this side, 
because of that caucus, instead of alternating, let's have 
three or four on the Republican side ask their questions first 
and then come to us. Would that be agreeable? I am willing to 
forego my first line of questions as well.
    We did not have a chance to talk about this--let's start 
out in that direction. Secretary Rumsfeld, why don't you start 
with your 10-minute opening, and then we will call on our 
Republican colleagues, at least for a few minutes each, while 
they are here, to give them a chance to ask a few questions, 
and then we will take the same number on this side.
    Senator Warner. Thank you, Mr. Chairman, for that very 
special accommodation.
    Chairman Levin. Secretary Rumsfeld, please proceed with 
your opening.
    Secretary Rumsfeld. Thank you, Mr. Chairman, and members of 
the committee.
    In discussing the budget, it seems to me it is useful to 
begin by confronting some less than pleasant but important 
facts. The U.S. Armed Forces have been underfunded in a number 
of respects over a sustained period of years. We have been 
living off of the substantial investments made in the 1970s and 
the 1980s. Shortfalls exist today in a number of areas, 
shortfalls that I must say are considerably worse than I had 
anticipated when I arrived.
    Mr. Chairman, as you and members of the committee know 
well, the U.S. Armed Forces are the best-trained, best-
equipped, and most powerful military force on the face of the 
earth, and certainly the members of this committee have 
contributed greatly to that strength. Peace, prosperity, and 
freedom across the world are underpinned by the stability and 
security that the men and women of the Armed Forces provide.
    I was recently in Kosovo and Turkey to visit our troops. 
They are dedicated men and women who are ready, willing, and 
able to take on any mission the Government may ask of them. Our 
country has many strengths. Indeed, in some ways it is because 
our forces are so capable that we face the challenges we do. 
Over much of the nineties, the U.S. has simultaneously 
underfunded and overused the force, and it has taken its toll. 
Asked to do more with less, they have saluted, done their best, 
but it has been at the cost of needed investment in 
infrastructure, maintenance, and procurement.
    With an end to the Cold War, there was an appropriate 
drawdown, a well-earned peace dividend, but it went too far, in 
my view, overshooting the mark by a good margin. We are 
certainly well past the time to take steps to arrest the 
declines and put the Armed Forces on a path to better health.
    For example, many of our facilities are dilapidated and 
need repair and replacement. There are shortfalls in spare 
parts, flying hours, training and personnel. Navy nondeployed 
force readiness is down to 43 percent from 63 percent in 1991. 
Only 69 percent of the Air Force total combat units are 
mission-ready, down from 91 percent in 1996. Of the Army's 
major air and ground combat systems, 75 percent are beyond 
their half life, and 60 percent of all military housing is 
characterized as substandard.
    While the DOD was using its equipment at increased tempos, 
procurement of new equipment fell significantly below the 
levels necessary to sustain existing forces, leading to steady 
increases in the average age of the equipment. It was called a 
procurement holiday.
    I know you agree that we have an obligation to make certain 
that the men and women in the Armed Forces have the proper 
equipment, training, facilities, and the most advanced 
technologies available to them. The President's 2002 defense 
budget adds needed funds to begin stabilizing that force. Using 
the 2001 enacted budget of $296.3 billion as a baseline, the 
President earlier this year issued a budget blueprint that 
outlined a 2002 baseline budget of $310.5 billion. This 
included $4.4 billion in proposed new money for presidential 
initiatives in pay, housing, and R&D. The request before you 
proposes to raise that investment $18.4 billion, as the 
chairman said, to a total of $328.9 billion.
    Taken together, these increases amount to $22.8 billion. I 
am told that represents the largest peacetime increase in 
defense spending since the mid-1980s. It certainly would 
represent a significant investment of the taxpayer's money. But 
let's be clear about this increase; while significant, and 
while we certainly need every cent of it, it does not get us 
well. The underinvestment went on far too long, the gap is too 
great, and there is no way it can be fixed in a year, or even 6 
years.
    I want to be very straightforward about what this budget 
will do and will not do. This budget will put us on a path to 
recovery in some categories, such as military pay, housing, 
readiness training, and health care. It will start an 
improvement but leave us short of our goal in others, such as 
maintenance of weapons systems and reaching best standards with 
respect to facilities replacement. In other categories there 
will be continued shortfalls and modest, if any, improvements.
    Considering the private sector, the standard for overall 
facility replacement is 57 years. The DOD's target is 67 years. 
Under the 2001 enacted budget, the DOD was replacing facilities 
at an unbelievably poor average rate of 192 years. The 2002 
budget gets us closer. It would allow us to replace facilities 
at an average of 101 years. That is an improvement, but it is 
still a long way from the acceptable target of 67 years.
    In my view, we could do better. With a round of base 
closings and adjustments that reduce unneeded facilities, we 
could focus the funds on facilities that we actually need and 
get the replacement rate down to a lower level. Without base 
closings, to achieve the target it would require an additional 
$7 billion a year for 9 years, or a total of $63 billion.
    Mr. Chairman, let me just say a word about the 2003 budget. 
Today, we are proposing $328.9 billion defense budget for 2002. 
But to keep the Department going next year on a straight line 
basis with no substantial improvements, just covering the cost 
of inflation, honestly budgeting for outyears in major weapons 
systems, and funding health care, which is going to be another 
$4-plus billion, according to the actuaries, we would need a 
budget of about $347 billion. That is another $18 billion 
increase, which would be before addressing important 
transformation issues.
    So where do we find the money? We simply have to achieve 
some cost savings. We have an obligation to the taxpayers to 
spend their money wisely. Today, DOD has substantial overhead. 
Despite 128 acquisition reform studies, we have an acquisition 
system that is antiquated. It takes twice as long as it did in 
1975 to produce a weapons system, and this is at a time when 
technology generations are shortened to something like a year 
or two, or 18 months.
    We have processes and regulations so onerous that a number 
of commercial businesses developing military technologies 
simply do not want to do business with the Department. The 
Department needs greater freedom to manage so we can use the 
taxpayer's money more wisely. For example, I think we ought to 
consider contracting out commissaries, housing, and some other 
services that are not considered core military competencies, 
which can be performed more efficiently in the private sector.
    For fiscal 2002, the Department proposes a pilot program to 
see if this is a good idea; the Army and Marine Corps will 
contract out certain commissaries, and the Navy will contract 
out refueling support, including tanker aircraft.
    Mr. Chairman, I cannot promise it, but I have never seen an 
organization that could not operate at something like 5 percent 
more efficiency if it had the freedom to do so. It is not 
possible today, given all the restrictions on the way the 
Department must function.
    With those savings, we could increase the shipbuilding 
budget, which certainly needs it. We are on a six-ship basis 
now. It needs nine ships to maintain the 310-ship Navy. If we 
keep going in the direction we are going, we are going to end 
up down at 230 ships at a steady state and that simply is not 
enough. We could procure an additional 700 aircraft annually, 
rather than the 189, to help meet and reach a steady state 
requirement for the Army, Navy, and Air Force, at enormous 
savings in maintenance and repairs.
    We have a big task ahead. Since the Cold War, we have a 30 
percent smaller force doing 165 percent more missions. This 
President's budget proposes a large increase by any standard. 
It will allow us to make some improvements to the readiness, 
morale, and condition of our military. The taxpayers have a 
right to demand that we spend the money more wisely, in my 
view. Today, we cannot tell the American people that we are 
spending it in the best possible manner. I know I cannot.
    Fixing the problem is a joint responsibility. It will 
require a new partnership between Congress and the Executive. 
We certainly owe it to the men and women in the Armed Forces.
    I would point out that one generation bequeaths to the next 
generation the capabilities to ensure peace, stability, and 
security. Today, we have the security of future generations of 
Americans in our hands. We have certainly an obligation to get 
it right. I am anxious to work with you to achieve that goal, 
and it certainly will take the best of all of us.
    Thank you very much.
    [The prepared statement of Secretary Rumsfeld follows:]

             Prepared Statement by Hon. Donald H. Rumsfeld

                              INTRODUCTION

    Mr. Chairman, members of the committee, I am pleased to present the 
President's 2002 amended budget for the Department of Defense.
    In discussing this budget, it is necessary to begin by confronting 
some less than pleasant, but important facts: The U.S. Armed Forces 
have been under funded in a number of respects over a sustained period 
of years. We have been living off of the substantial investments made 
during the 1970s and 1980s. Shortfalls exist in a number of vital areas 
including readiness, operations, procurement, maintenance, 
infrastructure, modernization and health care--shortfalls, I must say, 
that are considerably worse than I had previously understood.
    The U.S. Armed Forces are the best-trained, best-equipped, most 
powerful military force on the face of the earth. Peace, prosperity and 
freedom across the world are underpinned by the stability and security 
these men and women provide.
    I recently took the opportunity to visit our troops in Kosovo and 
in Turkey. They are dedicated men and women who are ready, willing and 
able to take on any mission their government may ask of them.
    No force in the world can do what they do. Only the United States 
can quickly move large, effective combat forces across long distances, 
or conduct large-scale, all-weather precision strike operations.
    The U.S. is unparalleled in conducting aerial operations at night, 
amphibious operations anywhere in the world, operating high endurance 
Unmanned Arial Vehicles (UAVs), or conducting corps sized expeditionary 
operations, and highly complex joint operations.
    Our advantages in air-to-air combat and on the high seas have made 
it impractical for adversaries to use airplanes to attack us or send 
forces across oceans to threaten us.
    So our country has many strengths. Indeed, in some ways, it is 
because our forces are so capable that we face the challenges we do. 
Over much of the 1990s, the U.S. has both under-funded and overused 
this force, and it has taken a toll. Asked to do more with less, they 
have saluted and done their best--but it has been at the cost of needed 
investment in infrastructure, maintenance, and procurement.
    With the end of the Cold War, there was an appropriate draw down, 
but it went too far--overshooting the mark by a good margin. We are 
well past the time to take the necessary steps to arrest the declines 
and put the Armed Forces on a path to better health.
    The problem goes well beyond op-tempo, and is more profound than I 
expected. For example:

        <bullet> Many facilities are dilapidated and in urgent need of 
        repair and replacement.
        <bullet> Health care costs are rising at a much greater rate 
        than the funds provided.
        <bullet> Outdated management and acquisition systems and 
        processes add millions to the department's costs each year.
        <bullet> Due to shortfalls in spare parts, flying hours, 
        training and personnel, Navy non-deployed force readiness is 43 
        percent--down from 63 percent in 1991.
        <bullet> Only 69 percent of the Air Force's total combat units 
        are mission ready, down from 91 percent in 1996.
        <bullet> 75 percent of the Army's major air and ground combat 
        systems are beyond their half-life, and Army aviation ``safety 
        of flight'' messages have increased 222 percent in the past 4 
        years.
        <bullet> Sixty percent of all military housing is substandard.
        <bullet> Force protection capabilities have been under funded 
        and are in need of investments.
        <bullet> Financial management systems are so poor that the 
        Department can't get a clean audit.
        <bullet> While DOD was using its equipment at increased tempos, 
        procurement of new equipment fell significantly below the 
        levels necessary to sustain existing forces--leading to steady 
        increases in the average age of equipment. It was called a 
        ``procurement holiday.'' Some holiday!
        <bullet> Basic research funding has declined by 11 percent 
        since 1992, and RDT&E funding levels have declined 7.4 percent 
        in the same period.

    Clearly, we need to arrest this deterioration and to do a better 
job of balancing the risks we face.
    The first responsibility of the Federal Government is to defend the 
American people. That job is done by brave men and women, who wake up 
each morning and voluntarily put their lives at risk, so that the rest 
of us can go about our days in peace and freedom.
    We have an obligation to make certain these men and women have the 
proper equipment, training, facilities, and the most advanced 
technology available to them.
    The current condition of U.S. Armed Forces didn't happen overnight. 
Each individual action that caused this situation was hardly noticed--a 
little less procurement here, some purchases and repairs put off 
there--until one day, the cumulative total shortfalls amount to tens of 
billions of dollars.
    Even the best built, best-engineered car in the world will 
eventually break down if you put off regular maintenance and repairs. A 
Ferrari on blocks will get beaten by an Edsel every time.
    We have the best Armed Forces in the world. But we cannot allow 
them to deteriorate any further.
    We are about to face new, emerging threats of the post-Cold War 
world. They are real, they are dangerous, and they are just over the 
horizon. If we are to meet them, we need to invest now to begin 
transforming our Armed Forces for the challenges of the 21st century.
    But we cannot build a 21st century force quite yet . . . because 
the 20th century force we have is in serious need of repair.
    We need to get on a path to correct the most serious deficiencies; 
we need to stabilize the force and begin needed modernization; we need 
to restore DOD infrastructure; and we need to make progress toward 
transformation--so that our forces are ready for the new and different 
threats of the new century.
                         the president's budget
    The President's 2002 defense budget adds urgently needed funds to 
begin stabilizing the force.
    Using the 2001 enacted budget of $296.3 billion as a baseline, the 
President earlier this year issued a budget blueprint that outlined a 
2002 baseline budget of $310.5 billion.
    This included $4.4 billion in proposed new money for Presidential 
initiatives, including:

        <bullet> $1.4 billion to increase military pay,
        <bullet> $400 million to improve military housing,
        <bullet> $2.6 billion for research and development.

    The request before you proposes to raise that investment still 
further to a total of $328.9 billion--$18.4 billion more than the 
President's February budget blueprint.
    Taken together, these increases amount to $22.8 billion in proposed 
new money for the Department in 2002.
    I am told that this represents the largest peacetime increase in 
defense spending since the mid-1980s. So, if Congress approves this 
budget, by historical standards, it would represent a significant 
investment of the taxpayer's money.
    But let's be clear: This increase, while significant, does not get 
us well. The systematic under-investment went far too long--the gap is 
too great. There is no way it could be fixed in 1 year, or very likely, 
even 6.
    Mr. Chairman, allow me to provide an idea of the depth of the hole 
we are in. To get well by 2007--to meet existing standards and steady 
state requirements in areas like readiness levels with proper flying 
time, training, and maintenance; replacement of buildings and 
facilities that are falling apart; fixing family housing and restoring 
quality of life for the men and women of our Armed Forces--all of this 
together would cost the American taxpayers many tens of billions of 
dollars. That would do little with respect for the investment needed to 
transform the force for the future.
    So, yes, $22.8 billion is a large increase by historical standards. 
It is a huge commitment of the American people's hard earned tax 
dollars. We need every cent of it, but it only begins to make a dent in 
the leftover problems we face today.
                   what the budget will and won't do
    I want to be very straightforward about what this budget will do--
and what it won't do.

        <bullet> This budget will put us on the path to recovery in 
        some categories such as military pay, housing allowances, 
        readiness training, and health care;
        <bullet> It will start an improvement but leave us short of our 
        goal in others such as defense-related science and technology, 
        maintenance of weapons systems and reaching best standards for 
        facilities replacement;
        <bullet> In still other categories there will be continued 
        shortfalls such as backlogs in property maintenance 
        requirements.

    Here are a few specific cases to illustrate the pattern. Take, for 
example, the Defense health program:

        <bullet> Today, overall health care costs are increasing at an 
        annual rate of 13 percent.
        <bullet> The 2001 budget provided $12.1 billion--falling short 
        of what was needed to cover that rate of increase by $1.4 
        billion.
        <bullet> The 2002 amended budget proposes $17.9 billion for 
        defense health--a $5.8 billion increase--that will allow us to 
        cover a 12 percent growth in the costs of medical care and a 15 
        percent growth in the cost of pharmacy purchases.

    So, for the first time in years, the 2002 budget should fund a 
realistic estimate of military health care costs. This is an area where 
we are getting well.
    We are not getting as well, however, when it comes to the state of 
DOD facilities. Consider:

        <bullet> In the private sector, the standard for overall 
        facility replacement 57 years. DOD's target is 67 years.
        <bullet> Here is the reality: Under the 2001 enacted budget, 
        DOD was replacing facilities at an unbelievably poor average 
        rate of 192 years.
        <bullet> The 2002 budget which proposes to increase funding for 
        facilities from $3.9 billion to $5.9 billion gets us closer. It 
        would allow us to replace facilities at an average rate of 101 
        years--an improvement, but still well off the acceptable target 
        of 67 years.
        <bullet> We could do better. With a round of base closings and 
        adjustments that reduced unneeded facilities by, for example, 
        25 percent, we could focus the funds on facilities we actually 
        need and get the replacement rate down to 76 years at the 2002 
        budget level.
        <bullet> Without base closings, to achieve the target 67-year 
        replacement rate would require an additional $7 billion 
        annually for a period of 9 years or a total of $63 billion. 
        That is simply not going to happen. We will need to close 
        unneeded bases.
    So, by putting off needed spending on facilities replacement, DOD 
is now in a deep hole. This budget improves the situation--but leaves 
us short of our goal.
    Or, take an example where things are continuing to decline--
shipbuilding:

        <bullet> The current standard based on the 1997 Quadrennial 
        Defense Review is to maintain a steady state of 310 ships.
        <bullet> Here is the reality: Under the 2001 enacted budget, 
        DOD is building 6 ships a year at a cost of $11.5 billion--
        which puts us on course to reduce the size of the U.S. Navy to 
        a clearly unacceptable steady state of 230 ships by 2030.
        <bullet> The 2002 budget, by providing for six ships at a cost 
        of about $9.3 billion will keep the Navy on the same course 
        toward a 230-ship steady-state Navy. We need to begin to turn 
        this trend up.
        <bullet> This puts us in a worse situation than in 2001 because 
        the cost of reversing the decline and ``catching up'' to the 
        310 ship steady-state increases by $3.0 billion every year we 
        put it off.
        <bullet> To meet the target of 310 ships would require building 
        at least 9 ships each year, at a cost of about $12 billion.

    Or consider the aging of Navy aircraft:

        <bullet> The desirable average age for Navy aircraft is pegged 
        at 11 years. Given the impact of continued low procurement, 
        that average age has grown steadily to 18 years.
        <bullet> Here is the reality: Today, with the current strategy, 
        the Navy has a requirement for a total of 4200 aircraft, which 
        allows them maintain an average age of 18 years.
        <bullet> To meet this steady-state requirement, the Navy needs 
        180 to 200 new aircraft per year at a cost of $11 billion.
        <bullet> The 2001 budget amendment would provide for 97 
        aircraft at a cost of $8.4 billion.
        <bullet> The 2002 budget would provide for 88 aircraft at a 
        cost of $8.3 billion.
        <bullet> Even at the rate of 122 aircraft a year, the cost of 
        reversing the decline and ``catching up'' to the 4200 plane 
        steady-state increases by $4 billion every year we put off the 
        decision to do so.

    Facility repair and maintenance:

        <bullet> The deferred maintenance for DOD facilities--the 
        cumulative amount that has not been funded from year to year--
        currently stands at least $11 billion.
        <bullet> The 2001 budget included $4.9 billion for facility 
        maintenance.
        <bullet> The 2002 amended budget would increase the facility 
        maintenance budget by $0.9 billion for a total of $5.8 
        billion--an increase of 18.4 percent.
        <bullet> But this increase only funds facility maintenance at 
        89 percent of the requirement.
        <bullet> At this rate, because of years of under funding, it 
        would take 20 years to catch up and eliminate the cumulative 
        deferred maintenance.

    There are some of the difficulties facing the U.S. Armed Forces 
today. Despite a proposed increase in defense spending unmatched by any 
President since the mid 1980s, this budget still cannot not fix the 
problems we face as a result of a decade of a mismatch between 
requirements and appropriations.
    It is an indication of the depth of the hole we are in today that a 
$22.8 billion increase in defense spending makes just a good start in 
meeting the shortfalls our Armed Forces are facing.
    That is just the tip of the iceberg. Today, we are proposing a 
$328.9 billion defense budget. But to keep the department going next 
year on a straight-line--no improvements, just covering the costs of 
inflation and realistic budgeting--we will need a budget $347.2. 
billion. That is a $18.3 billion increase.
    So, where do we find money for the rest of our pressing needs? We 
simply must achieve cost savings.

                          FINDING COST SAVINGS

    We have an obligation to taxpayers to spend their money wisely. 
Today, we're not doing that. DOD:

        <bullet> Has overhead that has grown to the point where it is 
        estimated by some that as little as 14 percent of DOD manpower 
        may be directly related to combat operations.
        <bullet> Despite some 128 acquisition reform studies, DOD has 
        an acquisition system that since 1975 has doubled the time it 
        takes to produce a weapon system--while the pace for new 
        generations of technology has shortened from years to 18 
        months. This guarantees that DOD's newest weapons will be one 
        or more technology generations old the day they are fielded, 
        and DOD has processes and regulations so onerous that many 
        commercial businesses developing needed military technologies 
        simply refuse to do business with the Department.

    But the Department needs greater freedom to manage so we can save 
the taxpayers money in areas such as:

        <bullet> Rationalization and restructuring of DOD 
        infrastructure. A 20-25 percent reduction in excess military 
        bases and facilities could generate savings of several billion 
        dollars annually. Legislation authorizing a new round of 
        facilities rationalization will be transmitted later this year.
        <bullet> Increasing the thresholds in Davis-Bacon. If we could 
        change the threshold for contracts subject to Davis-Bacon wage 
        requirements from $2,000 to $1,000,000, it would permit the 
        Department to achieve savings of $190 million in fiscal year 
        2002 alone. We need that money for shipbuilding, for 
        modernizing our aircraft fleets and for modernization.
        <bullet> Contracting out commissaries, housing and other 
        services that are not core military competencies and that can 
        be performed more efficiently in the private sector.

    In fiscal year 2002, the Department proposes a pilot program with 
the Army and Marine Corps to contract out certain commissaries, and 
another pilot program with the Navy to contract out refueling support 
including tanker aircraft.
    Mr. Chairman, I have never seen an organization, in the private or 
public sector, that could not, by better management, operate at least 5 
percent more efficiently if given the freedom to do so.
    Five percent of the DOD budget is over $15 billion! With those 
savings, we could do many of the following:

        <bullet> Increase ship procurement from six to nine ships a 
        year, maintaining a steady state 310 ship Navy and protecting 
        needed job at Navy shipyards $3 billion annually;
        <bullet> Procure several hundred additional aircraft annually, 
        rather than 189, to help meet reach the steady state 
        requirements for Navy, Air Force, and Army aircraft $16 billion 
        annually; $82 billion from fiscal year 2003-2007;
        <bullet> Meet the target of a 67-year facility replacement rate 
        $7 billion annually for 9 years;
        <bullet> Fund 100 percent of base operations requirements $1.4 
        billion annually;
        <bullet> Increase defense-related science and technology 
        funding from 2.7 percent to 3 percent of the DOD budget $1.2 
        billion annually;
        <bullet> Purchase needed UH-60 helicopters $50 million;
        <bullet> Replenish precision munitions such as JSOW, JDAM and 
        ATACMS $200 million;
        <bullet> Buy three additional C-17 aircraft $600 million, 
        replenish Army trucks $100 million; Buy HMMWVs $50 million; 
        Bomber upgrades $730 million; purchase high-speed sealift $122 
        million.

    But today there is no real incentive to save a nickel. To the 
contrary, the way the Department operates today, there are 
disincentives to saving money.
    We need to ask ourselves: how should we be spending taxpayer 
dollars? Do we want to keep paying for excess infrastructure that 
provides no added value to our national security? Or we want to spend 
that money on new technologies that will help us extend peace and 
security into the new century? That is the choice before us.
    We are doing two things:

        <bullet> First, we are not treating the taxpayers' dollars with 
        respect--and by not doing so, we risk losing their support, and
        <bullet> Second, we are depriving the men and women of our 
        Armed Forces of the training, equipment and facilities they 
        need to accomplish their missions. They deserve better.

                             V. CONCLUSION

    We have a big task ahead. It took years of coasting and overuse to 
get us where we are today. We can't dig out in a year.
    Following the Cold War, we reduced forces and claimed a well-
deserved peace dividend for the American taxpayers. But in the mid-
1990s, we began to overdraw on that account. We kept reducing our 
forces, despite the fact that op-tempo increased.
    As a result, we have a 30 percent smaller force doing 165 percent 
more missions. In short, we have been asking the Armed Forces to do 
more and more, with fewer resources.
    The President's budget proposes a large increase by any standard. 
It will allow us to make significant improvements to the readiness, 
morale and condition of our military.
    Would all services prefer to have more money to get well faster? Of 
course.
    But at the same time, the taxpayers have a right to demand that we 
spend their money wisely. Today we can't tell the American people we 
are doing that. I know I cannot.
    To have the support of the American people, we need to be able to 
make the case that we are fixing these systemic problems and achieving 
significant cost savings.
    Fixing this problem is a joint responsibility. It will require a 
new partnership between Congress and the Executive Branch. It is a 
responsibility we have not only to the men and women who serve in our 
Armed Forces today, but to future generations of Americans as well.
    Because of the long lead times, most of the capabilities any 
President invests in during his tenure are not available during his 
service; rather they are available to his successors. The force that 
won the Gulf War was built on the decisions of presidents and 
congresses over the preceding three decades.
    The Tomahawk cruise missile program, the F-15, F-18 and the F-16 
aircraft flying today, were developed in the 1970s. Many other 
technologies, such as the current generation of space satellites that 
gave us dominant battle space awareness in Iraq, were developed in the 
1980s.
    The point is this: One generation bequeaths to the next generation 
the capabilities to ensure its security.
    Today, we have the security of future generations of Americans in 
our hands. We have a responsibility to get it right.
    Because of the long procurement holiday of the 1990s, we have been 
left a poor hand. We must resolve to leave a better hand to our 
successors.
    I am anxious to work with you to achieve that goal. I know full 
well it will take the best of all of us.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you, Secretary Rumsfeld. General 
Shelton, I know you have a longer statement, but summarize the 
highlights in a few minutes, and we will call on our colleagues 
who have to leave. I hate to do that to you. We could call on 
you later in the afternoon to supplement or amplify.

STATEMENT OF GEN. HENRY H. SHELTON, USA, CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Shelton. Thank you, Mr. Chairman. I can also submit 
my statement for the record, if you would like. I would like to 
thank you, Mr. Chairman and Senator Warner, for your very kind 
words a few minutes ago about my tenure as Chairman of the 
Joint Chiefs of Staff. It has been my great honor to serve the 
men and women of our Armed Forces, and I want to once again 
thank this committee, each and every Senator, for your very 
strong and staunch support of our men and women in uniform.
    I can highlight a few areas, if you would like, Mr. 
Chairman. First of all, with your help, I believe we have made 
considerable progress in many areas that have impacted the 
overall health and welfare of our troops in recent months. 
Increases in pay and allowances, pay table reform, TRICARE 
reform and expanded health care coverage, additional funding to 
provide adequate housing for our military families, and the 
budget plus-ups to arrest a decline in our first-to-fight units 
have been critical and have been provided.
    But, let me also say that I believe we need to sustain this 
momentum if we are to preserve the long-term health, as well as 
the readiness, of our force in the years to come. Today, as we 
consider new budgets, new national security strategies, and new 
ideas of transforming the force, it is important that we always 
remember that the quality people in our military are the 
critical enablers that allow us to accomplish the things that 
we are asked to do.
    Since my last testimony, we have been reminded of the human 
element of national security in several profound ways. Last 
October, U.S.S. Cole was savagely attacked in the Port of Aden. 
In that incident, 17 sailors died. Some asked why we put a ship 
in harm's way in such a dangerous part of the world. Well, that 
is what we do. We go into harm's way to protect America's 
interests around the world. The sailors of the U.S.S. Cole were 
en route to the Gulf, establishing presence and protecting our 
Nation's vital interests.
    Last December we had two U.S. Army helicopters that crashed 
during a very difficult night-time training mission in Hawaii. 
In that crash, nine U.S. soldiers died. Some asked, why would 
the U.S. Army put soldiers in harm's way during a dangerous 
training mission in the black of the night? Well, that is what 
we do. We train for the most difficult missions we may face, 
because we know that when America's interests are threatened we 
have to be ready to go, day or night, and failure is not an 
option. We try to minimize the risk to our great men and women, 
but we train like we anticipate having to fight.
    Then, as we all know, just a few weeks ago we had an EP-3 
that was a reconnaissance aircraft flying in international air 
space over the South China Sea struck by a Chinese fighter, 
forced to make an emergency landing, and 24 of our personnel 
were detained. Some asked why we were conducting surveillance 
of another nation. Well, my answer is, that is what we do. We 
are vigilant. We are watchful, because we know that our 
interests and those of our allies in the region may be 
challenged, and if and when they are, we must be ready.
    I am very proud of the performance of these great men and 
women and the many thousands of others who proudly wear the 
uniform of our country. They have been, and will always be, our 
decisive edge. Indeed, they are so good at what they do, that 
unless there is an accident, or an incident, then we rarely 
take notice of their daily contributions to our national 
security. They sail their ships, they fly their aircraft, and 
they go on their patrols, quietly and professionally, and 
America is safe to enjoy great prosperity, in part because of 
them.
    However, today our forces and our people are experiencing 
some significant challenges, a number of which I would like to 
bring to your attention. Our first-to-fight forces are, in 
fact, prepared, trained, and ready to meet emergent 
requirements, but some of our other forces are not as ready as 
they should be. These include our strategic airlift fleet, our 
intelligence, surveillance, and reconnaissance assets, our 
combat service support units, and our training bases, all of 
which provide critical capabilities to our warfighting forces.
    These units are in some cases suffering the consequences of 
a high OPTEMPO and a diversion of resources to sustain the 
near-term readiness of the first-to-fight forces. In fact, 
since 1995, DOD has experienced a 133-percent increase in the 
number of military personnel committed to joint operations. 
These are real-world events, not exercises, and we are doing it 
with 9 percent fewer people. That has, in fact, caused a high 
operational tempo on some segments of our force and that, of 
course, puts a strain on our people.
    I believe the fundamental cause of this situation has, in 
fact, been an imbalance between the demands of our national 
security strategy and the post-1997 Quadrennial Defense Review 
(QDR) force structure. Fixing this imbalance, of course, will 
be one of the top priorities for this year's QDR for Secretary 
Rumsfeld and all the Joint Chiefs, because the challenge will 
only increase over time, and we owe it to our people to get it 
right.
    In fact, today we are struggling to reconcile a multitude 
of competing demands, near-term readiness imperatives, long-
term modernization, and recapitalization of aging systems, and 
infrastructure investments that are central to preserve the 
world's best warfighting capability. As I have mentioned in 
previous testimony, and as the Secretary just commented on, we 
did, in fact, live off of some of our procurement in the 1980s 
throughout the 1990s.
    Now, we have had a marked reduction in procurement. That 
means the average age of most of our systems, and our key 
warfighting systems, have been increasing, as was highlighted 
to some extent by the Secretary.
    Let me provide you with just a few examples. Our frontline 
air superiority fighter, the F-15, averages 17 years of age. It 
is only 3 years away from the end of its original design 
service. Our airborne tanker fleet, as well as our B-52 
bombers, are nearly 40 years old. Our intelligence, 
surveillance, and reconnaissance, along with our electronic 
warfare aircraft, such as the RC-135s and EP-3s, the P-3s, and 
our EA-6Bs, all average between 19 and 38 years of service, and 
our main battle tank, the M-1, and our marine amphibious 
assault vehicle, are powered by engines that were designed and, 
in some cases, built in the 1960s.
    Finally, numerous helicopter platforms for all of our 
services have passed or are approaching the end of their 
original design service lives. In fact, most of the warfighting 
platforms that I just mentioned meet the 25-year rule required 
by the great State of Virginia to qualify for antique license 
plates.
    Our force is not aging gracefully. In fact, we are having 
to spend significantly more in each year to maintain our aging 
equipment in repair parts and maintenance down time and in 
maintenance support, which also increases the operational tempo 
of those great soldiers, sailors, airmen and marines that have 
to maintain them.
    If we do not replace some of these systems soon, either the 
force structure will shrink, or we will have to continue to 
maintain the old systems, resulting in spiraling operations and 
maintenance costs and reduced combat capability. In my opinion, 
these are unacceptable alternatives, which begs the question, 
what should we do?
    I believe there are two answers. First, we must bring into 
balance our strategy and our force structure, and we must 
significantly increase our efforts in procurement to modernize 
and recapitalize our force. The QDR should produce the 
strategic blueprint and the investment profile necessary to 
shape our force to carry out the new strategy.
    Another related concern is the fact that our vital 
infrastructure is decaying at an alarming rate, as Secretary 
Rumsfeld has commented. Budget constraints have forced us to 
make some hard choices. The fact is that in the real property 
maintenance accounts today, we currently have a backlog that is 
growing, that today totals over $11 billion. I think that a 
quality force deserves quality facilities, and therefore it is 
essential that we start providing the resources to reverse the 
deterioration of out post, bases, camps, and stations.
    Now, Mr. Chairman, I would like to focus for just a second 
on the decisive edge of our force, the men and women in 
uniform. President Bush stated that a volunteer military has 
only two paths. It can lower its standards to fill its ranks, 
or it can inspire the best and the brightest to join and to 
stay. The latter starts with better pay, better treatment, and 
better training.
    The President, I believe, had it exactly right. We must 
continue to close the significant pay gap that still exists 
between the military and the private sector, and we must make 
continued investments in health care, housing, and other 
quality-of-life programs that are essential to sustain our 
force.
    One of the most valued recruiting and retention tools that 
any corporation can offer potential employees or its current 
workforce is a comprehensive medical package. DOD is no 
different. For that reason, the Chiefs and I strongly urge 
Congress to fully fund the defense health program and all 
health care costs as a strong signal that we are truly 
committed to providing quality health care to our troops. I do 
not think there is a better way to renew the bond of trust 
between Uncle Sam and our service members and retirees than 
this commitment to quality health care.
    Additionally, I would ask for your support to help ensure 
that all of our men and women in uniform, single, married, or 
unaccompanied, are provided with adequate housing. 
Unfortunately, this is not the case today. About 62 percent of 
our family housing units are classified as inadequate, and 
correcting this situation is essential if we are to improve the 
quality of life for our service members and their families. We 
have learned over the years that we recruit the member, but we 
retain the family.
    To sum up, Mr. Chairman, I believe that we have the best 
military, the best Armed Forces in the world today. But having 
said this, I believe that we will continue to enjoy our 
military advantage, or that it will erode over time if we fail 
to prepare for the evolving strategic landscape for the 21st 
century. Our greatest adversary today, as I have said so many 
times, in my opinion, is complacency. It is imperative that we 
take action today to ensure that our men and women in uniform 
are properly equipped, trained, and led. If we do so, I am 
confident that we will prevail in any challenges that we face 
in the future.
    I am struck by the fact that today I believe we have an 
opportunity to build the foundation for another long era of 
U.S. military supremacy and, in doing so, we will help 
underwrite the peace and prosperity that our Nation currently 
enjoys, and should continue to enjoy well into the future.
    Mr. Chairman, thank you for the opportunity to make this 
statement, and we now stand ready to take your questions.
    [The prepared statement of General Shelton follows:]
            Prepared Statement by Gen. Henry H. Shelton, USA
    It is an honor to report to Congress today on the state of 
America's Armed Forces. As every member of this committee knows, our 
Nation is blessed with an unsurpassed warfighting force that has been 
actively engaged over the past year supporting America's interests 
around the globe. I am extremely proud to represent the young men and 
women of our Armed Forces. They serve our country selflessly, away from 
home and loved ones, and are frequently put in harm's way. They 
personify America at its very best.
    It is those young soldiers, sailors, airmen, and marines who will 
fight tomorrow's wars with the strategy, force structure, doctrine, and 
equipment that we develop today. For them to do what we ask--to remain 
the best in the world--we must give them the best tools. This means 
ensuring that they always have the resources necessary to be trained, 
armed, and ready. It means properly compensating them today and 
tomorrow. It means recapitalizing our weapon systems and 
infrastructure, and modernizing the force to meet tomorrow's 
challenges. As we consider the choices ahead, may we always remember 
that our great people have the most at stake in the decisions that we 
make here in Washington.
    In this Posture Statement, I will address two broad topics: (1) 
Sustaining a Quality Force, concentrating on those programs that are 
critical to maintaining the force; and (2) Building Tomorrow's Joint 
Force, what we are doing today to prepare for tomorrow's challenges.

                     I. SUSTAINING A QUALITY FORCE

    America's best and brightest must continue to answer the clarion 
call to serve if our Nation is to remain the strongest force for peace 
and stability on the planet. It is the quality of our people that gives 
us a decisive edge over our adversaries and to sustain this qualitative 
edge we must support our personnel with continued investments in pay 
compensation, health care, housing, and other quality of life programs.
Compensation Gains
    As a result of compensation gains in fiscal year 2000 and fiscal 
year 2001, we have made great strides toward improving the standards of 
living for members of our Armed Forces. With the significant support 
and help of this committee, Congress, and the administration, the 
Fiscal Year 2001 National Defense Authorization Act (NDAA) provided one 
of the largest pay raises in recent history, and allowed us to greatly 
reduce out-of-pocket (OOP) costs for off-base housing, instituted 
retirement reform, and implemented pay table reform.
    That same level of outstanding support was evident in the fiscal 
year 2001 NDAA. The 3.7 percent pay increase maintains our commitment 
to close the pay gap between the military and their civilian 
counterparts. Additionally, the fiscal year 2001 NDAA provided $30M in 
Basic Allowance for Housing (BAH) to further reduce OOP expenses to 
less than 15 percent. The opening of the Thrift Savings Plan to 
military members, the implementation of a monetary allowance for 
military members currently receiving food stamps, and revising the 
enlistment/retention bonus authority has also demonstrated to our 
forces a commitment to their quality of life. This helps us attract and 
retain quality people.
    We need to sustain the momentum of the past 2 years. The pay raise 
slated for fiscal year 2002 and your continued support of our efforts 
to reduce OOP expenses for housing to zero by fiscal year 2005 will 
further improve the quality of life for our servicemembers and their 
families. This is not only important for their well being, it is 
equally important to our efforts to recruit and retain a quality force.
Military Health Care
    One of the most valued recruiting tools any major corporation can 
offer a potential employee is a comprehensive medical package. DOD is 
no different. Congress and the administration have done much over the 
last year to address the health needs of our active duty and retired 
servicemembers and their families. As in the civilian sector, 
healthcare costs for the military community have continued to rise 
rapidly. Passage of the fiscal year 2001 NDAA demonstrated Congress' 
commitment to honor the promise to those currently serving and to those 
who served honorably in the past. I appreciate the support of Congress 
for this effort.
    We are pursuing full funding of healthcare costs as a strong signal 
that we are truly committed to providing quality healthcare for our 
active duty military members, retirees and their families. This 
commitment will have a profound impact on all who wear our uniform, and 
will encourage those who are considering a military career. It is also 
imperative that we fund healthcare benefits for retirees and their 
families in such a manner that this funding no longer competes with 
operations, force structure, and readiness. This will honor the 
national commitment we made long ago to our military retirees, without 
impacting the readiness and military capability of today's force.
    Additionally, the Joint Chiefs are working with the Assistant 
Secretary of Defense for Health Affairs in seeking business practice 
improvements and implementing the new benefits identified in the fiscal 
year 2001 NDAA. Beginning in fiscal year 2002, TRICARE will pay costs 
not covered by Medicare for over-65 retirees and their families.
Housing
    Housing continues to be a core element in our efforts to improve 
the quality of life for our service members. All our men and women in 
uniform deserve adequate housing. The Services remain on track with 
plans to eliminate inadequate housing for unaccompanied enlisted 
personnel by 2008. The situation for family housing is more 
challenging. Last year, the Service Family Housing Master Plans deemed 
almost 61 percent of family housing units inadequate. The Services are 
revamping their respective Family Housing Master Plans to revitalize, 
privatize, or demolish these inadequate units by 2010.
    Congressional support for DOD's three-pronged strategy to improve 
family housing has been outstanding and is greatly appreciated. First, 
the initiative to raise housing allowances to reduce out-of-pocket 
expenses for our servicemembers has provided welcome relief to the 
force. Second, creating smart partnerships with the private sector 
makes defense dollars go further and effectively frees up resources to 
revitalize existing housing. Finally, your continued efforts to fund 
our construction and privatization programs will pay great dividends by 
ensuring our servicemembers and their families can live in respectable 
accommodations.
    There is an inseparable, direct link between personal and family 
readiness and our total force combat readiness. Your continued support 
of these and other quality of life programs will provide substantial 
returns in retaining not just the member, but also the family.

                  II. BUILDING TOMORROW'S JOINT FORCE

    In this section, I present some of my thoughts on those actions we 
are taking today, to build tomorrow's joint force. In my view, these 
are the critical enablers for any new defense strategy designed to 
confront the challenges of this 21st century.
Modernization
    While recent funding increases have arrested the decline in current 
readiness, our modernization accounts, which are critical to future 
readiness, remain under funded. Solving this problem has become my most 
urgent priority.
    Modernization will help reduce our capability concerns by 
leveraging advanced technology to improve interoperability. Also, 
newer, technologically advanced Intelligence, Surveillance, and 
Reconnaissance (ISR) collection assets, communications systems, and 
logistics support systems will help reduce manpower requirements while 
simultaneously improving the CINCs' warfighting capabilities. 
Modernization is also necessary for improved operational flexibility 
and to ensure that we retain a technological and qualitative 
superiority on the battlefield.
    We must modernize our force; however, we must not sacrifice current 
readiness to do it.
Recapitalization of Force Structure
    After the Cold War, we made a conscious decision to cut procurement 
and live off the investments of the eighties as we reduced force 
structure. Between fiscal years 1993-1998, approximately $100 billion 
was taken out of DOD procurement accounts. The 1997 QDR Report 
identified a potentially serious procurement problem if we did not 
increase investment in new platforms and equipment. A goal of $60 
billion in procurement was established as an interim target to recover 
from the sharply reduced procurement spending in fiscal year 1993-1998. 
Last year, for the first time, this interim goal was achieved.
    However, several recent studies, to include one by the 
Congressional Budget Office, have concluded that $60 billion is not 
sufficient to sustain the force. Since the QDR will determine the 
strategy and size of the force, I cannot give you a precise 
recommendation on the additional amount required. What is clear today 
is that we must accelerate the pace of replacing our aging and worn 
systems if we are to deliver the right capability to meet future 
challenges. We simply cannot continue to defer procurement and continue 
our usage at existing rates if we expect our force to meet all of our 
21st century commitments.
Recapitalization of Infrastructure
    Our vital infrastructure is decaying. The understandable desire for 
a post-Cold War peace dividend forced us to make hard choices that 
redirected funds from military facilities and infrastructure accounts 
to support immediate readiness requirements. Years of belt-tightening 
have increased the risk of facility failures and have added to the 
costs of upkeep.
    Within civilian industry, the replacement, restoration or 
modernization of physical plant assets is accomplished in roughly a 50-
year cycle. The rate of investment in DOD infrastructure has fallen to 
a level that requires over 100 years for recapitalization. We must find 
the resources to accelerate the recapitalization of our infrastructure 
to avoid further damage and degradation. A sustained period of 
increased funding is required to develop a modern infrastructure 
capable of supporting our 21st century force and the next generation of 
weapon systems.
    In its current state, the DOD infrastructure is still capable of 
supporting the National Military Strategy; however, in some locations, 
we face a high risk of operational limitations that may affect mission 
success. Throughout DOD, installation readiness is at an all-time low. 
In fact, 60 percent of our infrastructure is rated C-3 (some failures) 
or C-4 (major problems). It is particularly alarming that the current 
condition of training and operational facilities is lower than any 
other facility category in DOD. Usage restrictions and the shortage of 
required training ranges and operating areas slowly but inevitably 
degrade the readiness of our operational units. The poor material 
condition of facilities also directly contributes to lost or degraded 
training opportunities.
    In sum, our deteriorating infrastructure continues to impair 
readiness and detract from the quality of life of our service members 
and their families. I ask you to support our efforts to fix this 
problem, because it effectively reduces the efficiency of our uniformed 
and civilian workforce and further lowers retention rates for highly 
qualified and otherwise motivated personnel. A world class fighting 
force requires mission-ready facilities.
    Additionally, we sorely need further base closure rounds as part of 
our overall recapitalization effort. According to the April 1998 DOD 
BRAC Report, we have 23 percent excess base capacity in the United 
States, a situation that directly impacts the ability of the Service 
Chiefs to provide, train, maintain, and equip today's force. By 
removing validated excess capacity, we could save $3 billion per year 
in the long-term. This money would then be available to fund 
appropriately our remaining bases and help fix the remaining 
infrastructure.

                             TRANSFORMATION

Joint Vision 2020
    Our future force must be a seamless joint force and our roadmap for 
achieving this joint force is detailed in Joint Vision 2020 (JV 2020). 
Although the Services are busily engaged in the transformation of their 
respective forces, in my view these individual transformations will be 
most effective operationally only if they mesh fully with the more 
encompassing joint transformation called for in JV 2020.
    A key feature of this transformation will be the implementation of 
dominant maneuver, precision engagement, focused logistics, and full 
dimensional protection in the context of Joint Task Force (JTF) 
operations. Today, we successfully execute JTF operations when they are 
needed. But, in my view, we will be more responsive and agile in the 
future with JTF operations as our ``national military core 
competency.'' This goal will not be achieved through technology and 
materiel solutions alone. It will also require intellectual innovation 
and the development of doctrine, organizations, training and education, 
leaders, people, and facilities that effectively make use of new 
technologies.
    Using JV 2020 as a conceptual template, the goal of our joint 
transformation effort is a force that is dominant across the full 
spectrum of military operations. DOD is seeking to transform its forces 
to meet future challenges through a comprehensive plan that integrates 
activities in several areas:

        <bullet> Service concept development and experimentation 
        efforts;
        <bullet> Joint concept development and experimentation designed 
        to integrate Service capabilities where possible and develop 
        joint solutions where necessary;
        <bullet> Implementation processes in the Services and joint 
        community to identify rapidly the most promising of the new 
        concepts; and
        <bullet> Science and Technology efforts focused on areas that 
        can enhance U.S. military capabilities.

    This overall transformation effort is not focused solely on US 
military capabilities. USJFCOM has developed an aggressive plan for 
outreach to multinational partners as well. Our objective is to bring 
allied perspectives into the concept development process to facilitate 
our future ability to operate effectively within a coalition 
environment.
    Based on joint experimentation and implementation programs, we 
expect to see some new capabilities that will be operational well 
before 2020, while other promising concepts will continue to be 
explored and developed. Our overarching goal is to bring these various 
capabilities together in a coherent and synchronized fashion.

                      OTHER TRANSFORMATION ISSUES

Logistics Transformation
    Our goal for logistics transformation is to provide the joint 
warfighter real-time logistics situational awareness by leveraging 
technology and optimizing logistics processes. The Defense Reform 
Initiative Directive #54, Logistics Transformation Plans, establishes a 
framework of objectives and a means to measure progress toward 
accomplishing this goal.
    Ultimately, we must create a network-centric environment in which 
data can be accessed in real time at its source. This network-centric 
environment will provide the warfighter with operationally relevant 
logistics information necessary to make accurate, timely decisions and 
to maintain our military advantage into the next decades.
Mobility
    We are making significant improvements in our ability to deploy 
forces. Our fleet of 35-year old C-141s is being replaced with C-17s, 
and numerous conventional break-bulk cargo ships are being replaced by 
Large Medium Speed Roll-on Roll-off ships. However, we foresee 
increased challenges and stresses to the mobility system. These 
challenges were carefully examined in the comprehensive 2-year Mobility 
Requirements Study 05 (MRS-05). The study determined that programmed 
strategic lift capability falls short of requirements for both CONUS 
and inter-theater missions. MRS-05 also determined that increased 
capability is needed within theaters to move equipment and supplies 
forward from pre-positioning sites, airports, and seaports. 
Consequently, we are aggressively pursuing policy changes, host-nation 
agreements, and, where necessary, considering new equipment as part of 
the 2001 QDR to ensure timely force deployment. More than ever, 
Congressional support of strategic lift is needed if we are to build a 
national mobility capability sufficient for our current and future 
needs.
Joint Interoperability
    We have made progress in the area of interoperability with an 
overall effort focused on creating a force that is ready to fight as a 
coherent joint unit, fully interoperable, and seamlessly integrated. 
Our long-term goal is to require that interoperability be ``designed 
in'' at the beginning of the development process rather than ``forced 
in'' after the fact. We intend to achieve this goal through 
improvements in the requirements generation process, including 
establishment of interoperability Key Performance Parameters (KPPs) and 
Information Exchange Requirements (IERs) in systems development. A 
requirements-based Joint Operations Architecture, well grounded in 
joint doctrine, will provide a roadmap for addressing interoperability 
issues across the full spectrum of capabilities. These efforts will 
enable DOD's senior leadership to focus more on interoperability and 
integration of the joint force.

             INTELLIGENCE AND COMMUNICATIONS TRANSFORMATION

Intelligence, Surveillance, and Reconnaissance
    Achieving and maintaining a decisive advantage in our ability to 
access, gather, exploit, and act on information remains a critical 
aspect of our combat capability and readiness. A full spectrum ISR 
capability is the mainstay of that concept. To achieve this, we need to 
place more emphasis on the capability to ``watch'' or ``stare at'' 
targeted objectives with collection systems able to monitor, track, 
characterize, and report on moving objects and dynamic events as they 
occur in the battlespace. In other words, a constant rather than 
periodic sensor access is required.
Intelligence Interoperability
    Intelligence interoperability is the foundation of our capability 
for dominant battlespace awareness. Our goal is to ensure that our 
forces retain an information edge over potential adversaries. To be 
fully interoperable, intelligence must be produced and delivered in a 
fashion that immediately supports command decision making and mission 
execution. We are gradually tearing down barriers to interoperability 
between intelligence and operations systems to ensure we provide the 
Common Operating Picture essential to future command and control. The 
Common Operating Picture will provide a unified view of the battlespace 
for the soldier in the field, the pilot in the cockpit, and the 
commander, regardless of location.
Intelligence Federation
    The Intelligence Federation is a new concept wherein designated 
commands and units provide specified intelligence support to an engaged 
CINC during a crisis or contingency operation using a pre-planned 
methodology tailored to that CINC's area of responsibility and 
operational requirements. The concept evolved from the growing need to 
ensure the collective resources of the intelligence community function 
as a ``system of systems,'' so that users are able to receive 
information tailored to their unique requirements, and with the 
necessary fidelity. To do this effectively, we need to create a 
federation among intelligence components using Joint Tactics, 
Techniques, and Procedures.
Global Information Grid (GIG)
    The CINCs testified last year that a major warfighting deficiency 
in some theaters is the inability to plan quickly and execute 
decisively because of C\4\ deficiencies. I wholeheartedly agree. Simply 
put, our C\4\ infrastructure falls short of what is needed to support 
properly our decision makers and the men and women on the front lines. 
To help alleviate this shortfall, we must ensure that our warfighters 
have full and reliable access to the GIG from any point on the globe. 
The GIG is the globally interconnected, end-to-end set of information 
capabilities, associated processes, and personnel that we are 
developing to manage and provide information on demand to warfighters, 
policy makers, and supporting personnel. I believe that our ongoing 
efforts to bring the GIG online will provide the foundation for 
information superiority on the battlefield in the decades ahead. To 
that end, it is necessary to continue to invest in and upgrade the GIG 
infrastructure. Satellites, fiber optic cables, support of network 
operations, information assurance programs, and DOD's use of the radio 
frequency spectrum, are all tremendously important to achieving this 
goal.
Radio Frequency Spectrum Access
    There is an important debate ongoing concerning the proposed 
reallocation of a segment of the DOD radio frequency spectrum to 
commercial users, an initiative with the potential to disrupt our 
transformation effort. In the last 8 years, 247 MHz of the RF spectrum 
for Federal use, primarily used by DOD, has been reallocated for 
commercial use by the private sector. I am concerned that further 
reallocation of frequency spectrum for commercial use, without 
comparable spectrum to execute DOD's critical functions, will have a 
major impact on our ability to execute our missions. Our success on the 
battlefield largely depends on our ability to use advanced 
communications technology to exchange vital information between 
decision-makers, commanders, and deployed forces.
    One of the principal areas of interest to the private sector is the 
1755-1850 MHz band. This band is currently used for tactical data 
links; satellite telemetry, tracking, and control; precision guided 
weapons; air combat training systems; and the delivery of voice, video, 
and data information to warfighters and commanders in the field. These 
systems are indispensable to our national defense. Some industry 
advocates have suggested that DOD share segments of this frequency band 
or relocate to another operationally suitable spectrum. I believe this 
proposal is problematic for two reasons. First, according to our 
analysis, sharing with commercial users is not possible due to 
interference over large geographical areas and metropolitan centers. 
Second, moving DOD communications to a different, but comparable, 
spectrum could be problematic due to the lengthy transition period 
required. Some national security satellites will use this frequency 
band well into the future. If directed to move, a more detailed cost 
and transition timeline will be required to ensure continuity of our 
Nation's defense capabilities. It is imperative that we strike a 
reasonable and informed balance between commercial needs and military 
requirements. I understand that there is a White House process, led by 
the National Security Council and the National Economic Council, which 
is reviewing this issue to achieve this balance, critical for national 
security. We anticipate that suitable solutions will be found that are 
acceptable to all parties.

                               CONCLUSION

    Today, even as we seek to transform our force to face an evolving 
security environment, our goals remain firm. We must protect America's 
interests, deter aggression, support peaceful resolution of disputes 
and most importantly, to be ready to intervene or respond to a conflict 
and win decisively.
    This is a critically important time for our Nation as we move 
further into the new millennium as the only global superpower. It is 
clear that we have a great deal of work to do with the administration 
and Congress as we develop a new NSS and support the requirements of 
the QDR. Our professional, highly trained, and motivated young 
Americans in uniform are counting on us to make the right decisions. We 
have an opportunity in the months ahead to build on successes, address 
the challenges, and sustain and support our dedicated forces. We must 
provide our warfighting forces with the best tools available as they 
defend America's interests, and we must shape a future force that will 
help us achieve our national security objectives well into the 21st 
century. Together, I am confident we can capitalize on this 
opportunity.

    Chairman Levin. General Shelton, thank you. We are going to 
modify my announcement on the order for questions. I am going 
to first call on Senator Warner, who is going to allocate his 6 
minutes, and then we will pursue the usual rotation.
    Senator Warner. I thank the chairman. Two of my colleagues 
are going to be leaving us at 3:00, so if the Senator from 
Alabama and the Senator from Maine would like, take my time, 3 
minutes each.
    Senator Sessions. Thank you, Mr. Chairman. Perhaps I will 
not use all that time. I would just like to thank Secretary 
Rumsfeld for challenging the system, for asking tough 
questions, and for not believing that anything is a sacred cow. 
The President indicated he was going to do that.
    I think it is your responsibility to do so, and I know you 
are just now beginning to get your staff approved, confirmed, 
and on board. We are behind in that, and I know it is difficult 
to prepare a detailed budget during the time that you are 
giving fundamental review to the priorities of the Department 
of Defense.
    I, for one, am going to be as supportive as I possibly can, 
because when you testify that you need this program or that 
program, I want you to have had the time to study it and make 
that recommendation with the confidence and backing you need.
    We are, indeed, increasing spending around this body an 
awful lot. Cutting social programs, Mr. Secretary, means that 
the projected increases cannot be reduced. That is what cutting 
means in a social program. On defense, however, we do not seem 
to be as determined to protect it.
    I think it is a core function of our Government to provide 
for the national defense and the national security. It ought to 
be given our highest priority in the tough budget-making issues 
that we face. I will support you on that, and I also hope that 
at the same time you will follow through, as you have 
indicated, on commitments to efficiency, productivity, and 
research, which perhaps can save us a lot of money in the years 
to come.
    Thank you very much.
    Chairman Levin. Thank you, sir.
    Senator Collins. Thank you, Mr. Chairman. First, I want to 
thank Senator Warner for his graciousness in letting me use his 
time so that I can participate in the hearing.
    Secretary Rumsfeld, General Shelton, you have certainly 
painted a very grim picture, which obviously indicates that 
these problems did not occur overnight. They have been building 
for a long time, which raises questions of why the alarm bells 
were not sounded in the previous administration. But leaving 
that issue aside, Secretary Rumsfeld, you have emphasized the 
difficulty of ``getting well'' in 1 year with this budget. You 
have mentioned with regard to shipbuilding that meeting the QDR 
target of 310 ships would require building at least nine ships 
each year, at a cost of about $12 billion.
    Has the Pentagon considered recommending to Congress the 
use of advance appropriations to step up the shipbuilding 
budget in a way that might be more affordable in the short 
term? Ultimately, we are still going to have the same costs, 
but is there consideration underway at the Pentagon to looking 
at advance appropriations?
    Secretary Rumsfeld. Senator Collins, that is an important 
question, and I am not an expert on it. Dov Zakheim has been 
working with the Office of Management and Budget on it. I do 
not see any other way we are going to get that shipbuilding 
budget up and going in the right direction without doing 
forward-funding.
    Whether or not the balancing of the pros and cons of it 
will be sufficiently persuasive with the Office of Management 
and Budget (OMB) is a question, but it is clearly a way for us 
to increase the number of ships per year, which we need to do. 
We need to do it because we need the ships. We also need to do 
it because the industrial base and the shipyards need the work, 
and I am certainly hopeful that we will be able to do that in 
addition to increasing funds in the shipbuilding budget in the 
coming year.
    Senator Collins. Thank you, Mr. Chairman. Thank you, 
Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. If I might just 
comment on that too, Senator Levin and I met with you yesterday 
and this was central to our discussions. We want to join you on 
this. I think hopefully within Congress there is a majority 
view that this is a way to aid shipbuilding and maybe other 
procurement accounts. So let us work together. If it requires 
legislation, let us roll along with it.
    Chairman Levin. Very good. Thank you, sir.
    Secretary Rumsfeld, just on that last point, I think this 
committee is more than happy to look at the pros and cons of 
these various approaches, but we have had these considerations 
before. There are some definite advantages, but there are some 
definite disadvantages to that kind of funding, and the 
committee will be happy to look at all of those advantages and 
disadvantages when you are ready to submit them to us.
    I was struck, Secretary Rumsfeld, by your comment that the 
United States Armed Forces are the best-trained, best-equipped, 
most powerful military forces on the face of the earth. I can 
assure you that this committee will continue to do everything 
in our power to keep it that way, just as we have in the past.
    This committee has acted consistently on a bipartisan basis 
to make sure that we are the best-trained, best-equipped force 
on the face of the earth. We worked with our Secretaries of 
Defense, with our uniformed leaders, and we will continue to 
carry on that role.
    Secretary Rumsfeld, the Chairman of the Senate Budget 
Committee, Senator Conrad, sent a letter to President Bush with 
copies to you this week outlining the fiscal challenges we 
face, particularly those that relate to your budget amendment 
for the Defense Department.
    The Chairman of the Budget Committee looked at the 
possibility that the impending summer revisions to our economic 
forecast could show that the small remaining surplus left for 
2002 would evaporate because of a slowdown in the economy. Does 
the administration believe that your defense budget amendment 
can be paid for in fiscal year 2002 without using the medicare 
or social security trust funds?
    Secretary Rumsfeld. Absolutely.
    Chairman Levin. Last week, the Deputy Secretary of Defense 
announced the creation of a senior executive council that would 
make key decisions on defense matters. This council does not 
include, or at least does not appear to include, the Joint 
Chiefs of Staff or other senior military leaders. Can you 
explain why they are not included in that council?
    Secretary Rumsfeld. The group you are referring to is the 
Deputy Secretary, the Under Secretary for Acquisition, and, as 
I recall, the three service secretaries. They deal continuously 
with the Chairman and the Chiefs of Staff of the services. The 
issues they will address will be issues that are at their level 
and of the nature that are appropriate to them.
    For example, that group, plus Dr. Zakheim and I, have been 
involved with the Chairman and the Chiefs practically every day 
now for the last 4 weeks, and the interaction is continuous.
    Chairman Levin. Thank you. At your hearing last week, Mr. 
Secretary, I asked you if you agreed with General Kadish's 
assessment that if you adopted and implemented the 
recommendations on missile defense from the missile defense 
strategy review that he has just completed, that those 
recommendations would not lead to a violation of the Anti-
Ballistic Missile (ABM) Treaty in fiscal year 2002.
    You said that you would give us your answer relative to 
that, after reviewing General Kadish's assessment. Now that you 
are presenting the fiscal 2002 budget, let me ask you this: In 
this budget request for fiscal year 2002, are you incorporating 
recommendations from the National Missile Defense Strategy 
Review, which General Kadish briefed us on June 13?
    Secretary Rumsfeld. It turns out that in our eagerness to 
consult with Congress, General Kadish briefed you and Congress 
prior to briefing me on that program. The program has not been 
briefed to me. It is in a state of some adjustment because of 
changes in the budget plan.
    Yesterday, I met with General Kadish, goodness, for I am 
sure an hour and a half or 2 hours, and some of the people to 
discuss the treaty aspect of it, and I am prepared to speak to 
that. But the actual details of the research and development 
(R&D) budget, not the deployment budget, but the R&D budget 
that General Kadish is working on, as I say, are still in a 
state of some flux.
    Chairman Levin. In the budget that you are presenting to us 
today, is there anything in that budget which would cause a 
violation of the ABM Treaty in fiscal year 2002?
    Secretary Rumsfeld. They do not know for sure. That is to 
say, as you engage in a research and development activity, it 
is not clear how it is going to evolve, and General Kadish 
cannot answer the question, nor can I. What we can say----
    Chairman Levin. Well, let me interrupt you there. General 
Kadish did answer the question. He said it did not.
    Secretary Rumsfeld. That was a perfectly honest answer from 
his standpoint at that stage of his knowledge. As I say, he 
has----
    Chairman Levin. You were briefed by him. How can you 
disagree, then, with his conclusion?
    Secretary Rumsfeld. May I finish the sentence here on this, 
so that we can get it completely clarified. General Kadish's 
program is still being adjusted, and therefore we cannot say 
that the program is final and therefore we know.
    Second, we cannot know because it is a research and 
development budget, and it is impossible to be able to say 
exactly which R&D program is going to evolve or progress faster 
or slower than another.
    What I can say is that the law is the law, and we will 
comply with it. I can also say there is a compliance 
requirement in the Pentagon that, as things do evolve, it has 
to go through a compliance review, so the chances of anything 
happening that would be contrary to U.S. law, or contrary to 
the treaty, are zero.
    Now, let me go the next step. The President has said that 
he wants to pursue promising technologies, and he wants to be 
able to at some point deploy a missile defense capability. The 
ABM Treaty does not permit that. That means that they're in 
conflict.
    That is why the President has said he wants to enter into 
discussions with the Russians and see if we can find a way to 
establish a new framework to move beyond the ABM Treaty. Those 
discussions and talks began with my visit with the Defense 
Minister of Russia, Mr. Ivanov, the President's meeting with 
Mr. Putin, and Secretary Powell's meeting with his counterpart.
    They will be starting up again soon, and the President's 
full intention is to find ways that the ABM Treaty will not 
inhibit his goal of providing missile defense for the American 
people, deployed forces, and friends and allies.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First of all, we 
have somewhat of a pilot crisis. I think we all agree with 
that. One of the issues we talked about last year was 
individually contracting out to retired military personnel some 
of the flying functions of noncombat vehicles.
    We asked in our defense authorization bill last year that 
the DOD study this and report back to us by April as to what 
their recommendation would be. I would like to ask first, when 
are we going to get the report back, and second, what thoughts 
do you have on the contracting out provision for retired 
military personnel?
    Secretary Rumsfeld. Are you familiar with it?
    General Shelton. Yes, sir.
    Senator Inhofe, we, in fact, in the Joint Staff, based on 
the requirement in the authorization act, completed that study, 
and have forwarded that to the Office of the Secretary of 
Defense (OSD) for review. It has not reached the Secretary yet. 
We did examine all facets of it. To be candid, and not to go 
into too much detail here, it does not look very promising at 
this point.
    There are numerous things tied into it, including the 
combat-readiness of the pilots that we train in those aircraft 
to end up being commanders of the larger aircraft in our 
strategic lift, but all that has gone up to OSD. You should be 
receiving the complete report shortly.
    Senator Inhofe. Shortly?
    General Shelton. Yes, sir.
    Senator Inhofe. In a month?
    General Shelton. Sir, I cannot speak for the Secretary.
    Senator Inhofe. Why don't you advise us for the record when 
you think we will get that, because I think it is something 
that does have merit, and I would like to kind of bring it up 
for discussion at some point.
    [The information referred to follows:]

    The report is still under review in the Office of the Secretary of 
Defense. At this point, we cannot offer a date certain when the report 
will be completed. We will ensure that proper notifications are made 
when the report is released by the Department of Defense.

    Senator Inhofe. Secretary Rumsfeld, in one of your 
management reforms, you talk about outsourcing depot 
maintenance workloads beyond a depot's capacity. It is my 
understanding that you measure capacity by a 40-hour work week. 
In other words, you measure one shift when there is capability 
in all of our three remaining air logistics centers, for 
example, to operate with three shifts.
    Wouldn't it be smarter to go ahead and change the 
definition of capacity, and maybe have that capacity at two 
shifts, as opposed to wasting that infrastructure in 
outsourcing when it isn't really necessary?
    Secretary Rumsfeld. Dov Zakheim has been working on this. 
My understanding is that the proposal relates just to backlog 
that is not being met, so if a depot is not able to meet the 
backlog, that that then would be freed up for different 
outsourcing.
    Senator Inhofe. But if the depot is not able to meet that 
because they are using the current definition of full capacity, 
would it not be advisable to at least explore expanding that 
capacity by increasing from one to three, or from one to two 
shifts?
    Secretary Rumsfeld. I would be happy to take a look at it.
    Senator Inhofe. Okay. Why don't you do that and answer it 
for the record.
    [The information referred to follows:]

    Options for overtime and extra shifts were not excluded. The 
initiative recognizes that depots could choose to bid on competed work 
by increasing overtime and adding extra shifts. However, excessive 
overtime cannot be sustained for extended periods of time and could be 
uneconomical. The ability to hire additional qualified personnel from 
the local labor pool, either for extra shifts or to utilize existing 
equipment and facilities, is a factor in determining a depot's ability 
to accomplish extra work.

    Senator Inhofe. I was pleased to see the Crusader is going 
to receive the funding that would put it online, I believe, in 
2006. I am not sure, General Shelton, but I think you are in 
agreement, as most of the Army people are, as to where we are 
with the old Paladin; it is an outdated system, and many of our 
prospective adversaries have a lot more capacity than we have. 
Is there any chance that you would be able to move that up from 
2006 to 2005 in terms of having one deployed and operating?
    General Shelton. Senator Inhofe, I think that as a part of 
the QDR process, part of the examination of our strategy and 
our force structure, that system, like all the other systems 
that we have will undergo a review. As part of that, certainly 
in the Army's overall plan for transformation, where we would 
need it to dovetail in with their objective force, or with 
their interim force, even, is what will have to be examined. Of 
course, in that comes the priority issues, of where they 
prioritize that, and I cannot speak for the Army right now. I 
will have to take that one for the record and get back to you.
    [The information referred to follows:]

    Transformation is an evolutionary process and the Fiscal Year 2002 
Amended Budget represents a balanced program, which maintains an Army, 
trained and ready. To support the Army's future goals, significant 
funding increases for Transformation and Science and Technology 
development have been included as part of the President's Amended 
Budget. The service can best articulate in any discussion pertaining to 
transformation tradeoff decisions.
    The Army's Future Goals was part of the process in the Quadrennial 
Defense Review which was released the end of September 2001.

    Senator Inhofe. I am pleased they made the evaluation, the 
commitment, and the funding that they did. Senator Warner and I 
have both had the opportunity to go out and see the reason that 
it is necessary for us to update our 40-year-old Paladin 
system, so it would at least be competitive.
    General Shelton. Yes, sir. It represents a quantum leap in 
capability.
    Senator Inhofe. The modernization cuts proposed with the B-
2 include installation of the new satellite communication 
system, Link-16. We have been talking about this for quite 
sometime, and I understand that in this budget you are 
proposing to cancel the $123 million in the B-2 modernization 
funding. I was surprised when I saw this, after the performance 
that we witnessed with this, and the criticism of not being 
able to change missions en route during the Kosovo operation.
    Am I accurate on what the budget has on this, Secretary 
Rumsfeld, and can you tell me what the thinking was behind it 
in terms of cutting the updating of the B-2?
    Secretary Rumsfeld. I would have to look back into that and 
get back to you on that, unless, Dov, do you have that?
    Dr. Zakheim. No. We need to look into it.
    Senator Inhofe. Good. Well, perhaps it is not true, then. I 
would certainly, again, like to have that answer for the 
record.
    [The information referred to follows:]

    We are not proposing to cancel the B-2 Link-16 Program. We do have 
an unfunded requirement of approximately $48 million that would 
continue the development efforts that will provide battlefield 
situational awareness for improved survivability and flexible 
retargeting. It is my intention to fully fund this program in the 
Fiscal Year 2003 Budget Request.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Secretary Rumsfeld, thanks for your testimony. Let me say 
first that I am pleased to see that the budget that you and the 
President are offering us today, despite the fact that it is a 
place-holder, does build on the bipartisan efforts in this 
committee and Congress over the last year to regain real growth 
in defense spending. This is the first time we have done this 
since the mid-eighties, and I am pleased that this budget 
includes an increase over last year.
    Although we have not seen the details, and therefore it is 
pretty hard to endorse them, I applaud the increase that you 
are recommending and I will support it. In fact, in looking 
over the material we have so far, I think the increase in 
defense spending which the President and you are recommending 
is actually too small to meet our national security needs.
    While it does make much-needed progress in quality of life, 
in compensation, and in restoring deteriorating infrastructure, 
I do not think it meets the goals of bolstering readiness and 
transforming military capabilities. Resources to support 
OPTEMPO are flat or down in the categories you have shown us so 
far, such as flying hours and tank training miles.
    I think it was General Patton who once said, ``first-class 
training is the best form of welfare for the troops,'' meaning 
it is another aspect of quality of life. I think the budget, so 
far, falls short there.
    Also, after factoring in increases for the ballistic 
missile defense, spending for research development, testing, 
and evaluation appears to be no better than flat. Basic 
research and advanced research, the source of the technology we 
will need to transform the entire military, is flat. It is well 
below the goal of 3 percent of the budget, which itself, I 
think, is too low, and that is not consistent with your 
transformation goals.
    I am also very concerned that procurement spending in this 
budget is not what it should be, even after accounting for 
additions from transferring missile programs from the Ballistic 
Missile Defense Office to the Services. Even if the QDR 
concludes that we will not transform our force, which I hope it 
does not, we nonetheless must modernize. One independent 
analysis, one of many that have suggested this, was done by the 
Center for Strategic and Budgetary Analysis headed by Dr. 
Krepinevich, and concluded that modernizing the existing force 
on the current schedule would require between $65 and $85 
billion per year, or $5 to $20 billion more than is in this 
year's procurement budget. Accelerating the schedule would 
require $75 to $95 billion per year, or between $15 and $35 
billion more than is in this year's budget. Even cutting the 
current force and modernization programs could cost $65 billion 
per year, which is $5 billion more than you have in this year's 
budget.
    The fact is that bold transformations, such as the one I 
think you are hoping for and which I agree with, will add 
substantially to those estimated cost increases. So as I said 
at the outset, I endorse the defense increases that you 
propose. I would personally support a larger increase, because 
I believe that is necessary to keep the American military 
dominant into this new century.
    Let me ask you about two of the points that I have just 
made. On procurement, do you agree that we need more, whether 
for a transformed or modernized force, than the amount you have 
requested for procurement?
    Secretary Rumsfeld. Yes, sir. The goal for procurement, as 
you will recall, in recent years has been to get up to $60 
billion. In 2001, with the supplemental, it will be $62 
billion. In 2002, we are proposing $61.6 billion, so it is 
quite close, but I agree with you that it is not at a level of 
increase that would modernize the force.
    In regards to OPTEMPO, it is a matter of choices. The Air 
Force, for example, has an increase, whereas the Navy and 
Marine Corps took a slight decrease, as they chose between 
things with finite resources.
    With respect to research, development, testing, and 
evaluation (RDT&E), the number actually is up from $41 billion 
to $47 billion, with some focus on transformational R&D, 
countering unconventional threats to national security, 
improving RDT&E test range infrastructure, reducing cost of 
weapons and intelligence systems, and OPTEMPO. It is uneven. 
The Army's flying hours, you are quite right, went down from 
14.5 to 14. The Navy, on the other hand, went up from 17.8 
hours for their tactical air forces to 22.6. The Air Force held 
level at 17.1 in terms of flight hours.
    The tank miles are different. They actually did go down, as 
you suggested, from 800 to 730. The Army made those kind of 
choices. The National Training Center stayed level at 97, and 
the ship operations stayed exactly level at 15.5. So it's a 
mixed bag, some up, some down, and some staying right where 
they were on OPTEMPO.
    Senator Lieberman. Let me address the first part of your 
answer, if I may, Mr. Secretary. As I gather, you agree that in 
the best of all worlds we should be spending more on 
procurement. Did you request that through the budget process of 
OMB?
    Secretary Rumsfeld. We certainly presented to the Office of 
Management and Budget and the President the budget that we felt 
would be desirable for the Department. The process then is, as 
you well know, for them to look at all their needs, social 
security and various other things that are going on in the 
government, and come to a conclusion. This is where we came 
out. It is the largest increase since 1986, 7 percent in real 
terms, as I understand it, and yet it is not sufficient to dig 
us out of the hole that we have been digging ourselves into for 
the past 5, 6, or 7 years.
    Senator Lieberman. So, it is fair to presume, in the normal 
course of the budgetary exercise, that you did not get 
everything you wanted.
    Secretary Rumsfeld. Seldom do.
    Senator Lieberman. Therefore, there is some room for this 
committee, hopefully, to make some independent judgments about 
the budget.
    I would just say briefly, in response to Mr. Chairman, on 
the RDT&E, it is true that there has been a substantial 
increase. However, as I look at it, most of it, not all of it, 
is in the defense-wide area, which is mostly missile defense 
and increases to the services. Except for the Navy and Marine 
Corps, it is not great.
    The one part I do want to focus on, and I hope the 
committee can take a separate look at, is the science and 
technology budget. The total for this year is $9 billion, and 
you are recommending $8.8 billion. I don't think we are going 
to be able to do what we need to do unless we are investing in 
the technologies of the future.
    I have gone over my time. Thanks, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Secretary Rumsfeld. Senator Lieberman, actually, on RDT&E, 
the Army is up from 6.3 to 6.7 billion, the Navy is up from 9.4 
to 11.1, Air Force is up from 14 to 14.3, and defense-wide is 
11.3 to 15.3.
    In regards to transformational R&D, there are any number of 
items, including Global Hawk, Future Combat System, 
digitization, joint tactical radio systems, and several others.
    Chairman Levin. Thank you.
    Senator Roberts.
    Senator Roberts. General Shelton, well done, sir. Thank 
you.
    General Shelton. Thank you, sir.
    Senator Roberts. At about 3:30, Mr. Chairman, I thought I 
had arranged a B-1B flyover from McConnell Air Force Base----
[Laughter.]
    --to fly about 30 feet over the Senate Office Buildings and 
perhaps over the Pentagon.
    That is a poor attempt at humor that perhaps Senator 
Cleland would enjoy--a little black humor.
    I am discouraged, I am frustrated, and I am angry, Mr. 
Secretary. More to the point, the men and women of the 184th 
Bomber Wing in Wichita, Kansas, at McConnell Air Force Base, 
share my discouragement and my frustration. I do not know if 
they are angry. They should be, and I will tell you why.
    At our last hearing, I asked you to include Congress as you 
go forward with your transformation. I believed your stated 
resolute position to review transformation recommendations 
carefully before decisions were made.
    I was very disappointed--that is not strong enough. I will 
not tell you how strong I felt on Tuesday when, without 
discussion from Congress of any kind, no consultation, and from 
my view, with little close review by senior leaders in the DOD, 
the decisions to significantly reduce the B-1 bomber fleet and 
take the B-1 bombers from Georgia, Idaho, and Kansas, and put 
them in South Dakota and Texas was announced.
    Dr. Zakheim, your able assistant there, told staffers that 
evening that the way this was handled by the services was a 
model of what DOD is trying to do to cut excess. I sure as heck 
hope this is not a model on how you are going to consult with 
Congress.
    I have been quoted as stating that I thought that politics 
may have played in the decision to place the B-1's in South 
Dakota. Why would I say that? I do not think that this 
Secretary is going to do that. I did not think anybody in the 
Air Force would do that.
    Well, I said it because I have here a political impact 
statement from the United States Air Force, and it says here, 
in regards to Texas, the home State of POTUS--I do not know of 
any Senator named POTUS. [Laughter.]
    I do know of a President by the name of Bush whose home 
State is Texas. Then the political impact says, Senate Majority 
Leader, home State of South Dakota.
    It gets to Georgia, it gets to Idaho, and it gets to 
Kansas, and you do not find any mention of Senator Cleland, 
Senator Roberts, Senator Craig, or Senator Crapo. I do not know 
what doofus over at the Air Force put this out, but if there is 
a political impact, why he put it on a piece of paper is beyond 
me.
    I am angry because of the apparent piecemeal approach to 
transformation that this represents lack of any coordination 
with Members of Congress. Will other programs receive the same 
consideration? Will the Senators from affected States and on 
this committee find out one morning of the Navy's decision to 
reduce or cut the DD-21, or the Army decides to cut the 
Crusader? Maybe we are moving from 10 Army divisions to 8.
    We cannot have a piecemeal approach to our transformation. 
These actions to cut or reshape major weapons systems must be 
part of an overall plan, and Congress must be included.
    I am going to make every effort--you know this, we have 
talked about it--to stop any movement of the B-1B aircraft 
until I am confident, and Senator Cleland is confident, that 
this decision fits into our national defense strategy, has had 
the proper review, and every aspect of such a decision has been 
considered. I will do the same for any decision on any major 
weapons system if the proper reviews have not been made.
    I would appreciate your comments, sir, on this recently 
announced decision on the B-1 platform, including the time line 
for such action and the choice for the locations of the 
remaining B-1Bs. Please include how future weapons system 
decisions will be coordinated with the Members of Congress.
    You do not have to answer that right now. You have in your 
possession somewhere in the Pentagon a letter sent to you by 
myself, Senator Cleland, Senator Miller, Senator Brownback, 
Senator Craig, Senator Crapo, and about eight or nine Members 
of the House of Representatives.
    We point out that you have correctly indicated that the 
global environment will likely include limited access to 
overseas bases and require a strategy dependent more on long-
range precision strike. That is correct. This is the primary 
mission of the B-1 bomber. It is being plussed up in terms of 
offensive capability, so that cannot be a consideration.
    In terms of the strategic portion of this, I do not 
understand it. In terms of the cost-benefit, I really do not 
understand it. The Kansas Air National Guard has made a 
historic mission-capable rate of an average 15 percent higher 
than an active duty at 25 percent less cost per flying hour. 
They do it better than any other outfit in the United States 
from a cost-benefit standpoint, and that is not all.
    We have a General Accounting Office (GAO) report--if I can 
separate it from the other reports--which is approximately 1 
year old, and basically says that we made a good decision in 
turning over the B-1 to the Reserve and the Guard. It discusses 
the exercises in Kosovo and Operation Desert Fox, which proved 
the value of the B-1 as a solid long-range performer and 
validated the CINC's option to provide combat punch without the 
arduous basing problems that other short wing, short-range 
weapons endure. That is a GAO report.
    I have a Congressional Research Service (CRS) report saying 
the same thing. General Shelton just said we have aging 
aircraft--do not come around with that damn note [Laughter.]--
--
    --under the B-52, the B-1, and the B-2, and we compare very 
favorably, if not more favorably, to the B-52 and the B-2. Let 
me quote Gen. John Michael Loh at a Pentagon press briefing. I 
will just sum it up.
    Throughout this test, we have proved the B-1 can pack up, 
go anywhere in the world, and put bombs on target at the combat 
readiness rates we need and expect. It is, and remains, the 
backbone of our bomber fleet.
    In response to our letter, you indicated that McConnell Air 
Force Base loses all nine B-1s--no, you did not indicate that; 
that was your original statement--and opens up 832 manpower 
authorizations. I think there is 1,300, but if you say there is 
832, that is better.
    Then, the day after we raised a fuss and said that we lose 
all nine B-1s, we were going to find new missions. These people 
have 15 to 20 years of experience. They have flown in every 
aircraft imaginable. I do not know what kind of a new mission 
they are going to find in Wichita. I am for that. God, don't 
take that away.
    We want some answers. We want some answers on the strategic 
side and on the cost-benefit side. Mr. Secretary, if this is 
the way we are going to be consulted with in regards to 
transformation--I thought we were going to have a situation 
where we got well first, then consult with Congress for 
transformation, and then go to the QDR. I think on a bipartisan 
basis, everybody here would support that. This is not the way 
that this should happen.
    Now, I am way over time. If you would like to say something 
I would like to invite your comments.
    Secretary Rumsfeld. Well, Senator, I would begin with a 
very sincere apology to you and Senator Cleland. There is no 
question that it was not handled well. The Air Force made this 
recommendation and it was executed. Unfortunately, the 
Secretary of the Air Force was out of the country, and the 
handling of it was not well done. I apologize for it, and I do 
not know what else I can say.
    With respect to the details and specific questions you have 
raised, we will certainly take the time and sit down and get 
the specific answers and look at it in the context that you 
requested.
    Your general comment about how the weapons systems were 
going to be handled is exactly correct. It is exactly what I 
said when I was last before this committee. It is exactly how 
it has happened, and the normal order of things is that these 
issues are being addressed in the Quadrennial Defense Review. 
They will be addressed in an orderly way, in context with each 
other.
    Finally, with respect to how it is possible to consult, 
what I suppose we could do--I have not really thought it 
through as to exactly how we can consult with the House and the 
Senate Armed Services Committees and the Appropriations 
Committees who have the particular interest in these subjects. 
But there is no reason at all that we cannot find periodic 
break points in the QDR process and offer opportunities for 
Senators and Members of the House to become aware of how the 
progression is going.
    At some point somebody is going to make a recommendation on 
all of these weapons systems that are coming down the road, and 
at the point that a recommendation is made, one would hope that 
they would be looked at together, as you properly suggest is 
the desirable way to do it.
    Ultimately, a decision will get made, and someone is going 
to like it, and someone is not going to like it. All I can do 
is express the hope that when those decisions are made, we will 
have looked at them in a manner that is satisfactory to the 
Members in terms of the quality of the process, and that we 
will have made, particularly members of this committee and the 
House committee, knowledgeable about how that decision is 
evolving and what the arguments are so people are not 
blindsided badly, the way you and Senator Cleland have been. 
Again, I apologize.
    Senator Roberts. I appreciate that. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Roberts.
    Senator Cleland.
    Senator Cleland. Mr. Secretary, I am here to say that the 
emotion, the feeling, the rage expressed by my dear friend from 
Kansas is bipartisan, deep, and profound. This decision on the 
B-1 bomber and the way it was handled looks to me like a 
mackerel in the moonlight. It both shines and stinks at the 
same time. After all, it was the Reagan-Bush administration 
that cranked up production of the B-1 bomber in the first 
place, and after the Cold War was over, the country no longer 
relied on the triad of missiles, submarines, and bombers to 
retaliate in the case of nuclear attack.
    Then President Bush, Secretary of Defense Cheney, and 
Chairman of the Joint Chiefs of Staff Powell found a new role 
for the B-1. It is as the Senator from Kansas suggested. It 
would no longer be massed in the center of the country to 
protect it from enemy attack and preserve precious minutes in 
response time for take-off under a nuclear strike scenario. It 
would be dispersed and given a conventional role of supporting 
forces deployed around the globe. It would be dispersed west to 
Kansas and Idaho for quick response to Pacific and Asian 
theaters. It would be deployed east to Warner Robins Air Force 
Base in Georgia for quick response to action in Europe, the 
Middle East, and the Balkans.
    Its dispersion meant a quicker response to a changing 
global environment, and a reduced chance of a terrorist or 
sabotage attack to knock out the force centered in one or two 
sites. Although the B-1 bomber saw limited action in both 
Desert Storm and the Balkan War, it still serves as the 
Nation's only supersonic bomber capable of conventional and 
unconventional missions.
    Additionally, the decision by the Bush administration 
committed the Air Force to build up extensive infrastructure to 
support the B-1 bomber in its new dispersion plan. This was 
offset, in one way, by letting the Air Guard maintain and 
operate the bombers in two States: Kansas and Georgia. This 
became a very effective means of accomplishing the B-1 bomber 
task.
    The two most cost-effective B-1 bomber wings in the world 
are the two run by the Air Guards of Kansas and Georgia. As a 
matter of fact, the GAO report the distinguished Senator from 
Kansas referred to in 1998 says whether the Air Force chooses 
among our options or develops options of its own, we believe 
millions of dollars could be saved without reducing mission 
capability by placing more B-1s in the Reserve component. 
Therefore, we recommend that the Secretary of Defense direct 
the Secretary of the Air Force to prepare a plan to place more 
B-1s in the Reserve component and seek congressional support 
for the plan.
    As the Senator from Kansas states, the National Guard B-1s 
have a mission-capable rate higher than that of the active duty 
Air Force. The Air National Guard B-1 units have a lower flying 
hour cost than the active duty Air Force B-1s. At Warner Robins 
in particular, $100 million was committed over a period of 10 
years to bed down a B-1 bomber wing. Some $70 million has 
already been spent in that effort. Recently, a $40 million 
brand-new hangar was completed. Ironically, the two newest 
facilities for the B-1 bomber and the two most cost-effective 
facilities for operating a B-1 bomber wing are the very ones 
you want to shut down.
    I think this puts us back in the Cold War mode, puts us 
back where we were before President Bush, Dick Cheney, and 
Colin Powell made the decision to embark on the policy we have 
lived with for a decade.
    Now, walking away from $100 million in brand-new 
infrastructure and cost-effective operations does not seem to 
be a formula for saving money. I would like to know, and I 
would like for you to explain to this panel, why did you go 
against the GAO recommendation, and why did you make this 
decision?
    Secretary Rumsfeld. Senator, the decision was made by the 
Air Force, and the logic of it is that they wanted to go from 
93 B-1 bombers down to 60 B-1 bombers and change the basing 
mode from five down to two to save funds. They wanted us to use 
those savings to upgrade the remaining B-1 bombers.
    It is an interesting footnote in history, I was the 
Secretary of Defense in 1976 who first approved the B-1 bomber. 
It was later canceled by the Carter administration, as I 
recall, and then reinitiated in the Reagan period.
    Senator Cleland. I will ask the GAO to take a new, 
independent look at this decision, to give this Senator and 
this committee an objective analysis of where we are with the 
B-1 bomber program and the suggestions as to where we should 
go. Any decision regarding the B-1 bomber program should 
strengthen the security of the Nation, not weaken it, and I 
will be going to Warner Robins tomorrow to see for myself what 
the facts are.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland. Senator Warner 
is yielding very graciously.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. I would 
like to first add my commendation to General Shelton for his 
great service to the Nation.
    General Shelton. Thank you, Senator.
    Senator Reed. One would expect nothing less from a former 
Brigade Commander in the 82nd Airborne Division.
    General Shelton. Thank you, Senator.
    Senator Reed. If I may, Mr. Secretary, let me follow up 
with a line of questioning about national missile defense that 
Senator Levin began.
    My understanding of your response is that as we look 
forward in this budget cycle, the Ballistic Missile Defense 
Office will be involved in intensive, aggressive research 
activities. If those activities present opportunities, those 
opportunities will be exploited even if they violate the ABM 
Treaty.
    Secretary Rumsfeld. Let me clarify that. The President has 
said that he does not want to simply give notice under the 
treaty, which is permitted, a 6-month notice, and then go on 
his way, apart from Russia. He has said he would much prefer, 
and told President Putin this, that he would much prefer to 
work with the Russians and see if they cannot come to some 
understanding of a new framework with respect to the 
relationship that goes beyond missile defense; one that 
includes reductions in strategic offensive forces and looks at 
proliferation and counterproliferation. That is his hope. That 
is his intention.
    He has also said that he intends to have a ballistic 
missile defense capability for this country and for our 
deployed forces overseas, and to the extent friends and allies 
want to participate, fine.
    The treaty is inconsistent with his goal of having the 
ability to protect population centers and deployed forces. 
Therefore, he has said he wants to set it aside, or get beyond 
it, and establish some other framework. That process is 
underway. It was started, as I said, with the President's 
meeting with Mr. Putin. The two of them have agreed that the 
Ministers of Foreign Affairs and of Defense will meet. We are 
supposed to begin that process of discussions at some point in 
the period immediately ahead.
    The President has also said that he does not intend to give 
a veto to Russia over whether or not the United States has the 
capability of defending its populations from ballistic 
missiles, so I think the way to think of it is that the R&D 
program is going forward. There is a compliance, the law 
exists, the treaty exists, and the President does not intend to 
violate the treaty. The President intends to set a process in 
motion to discuss with the Russians how we get beyond it.
    Now, clearly, if they are unwilling to do anything to get 
beyond it, the President has indicated that therefore he would 
very likely give notice to the Russians and allow the 6-month 
period and go ahead and do the research and development that is 
inhibited by the current treaty. But that is not his intention, 
that is not his hope, and I must add, it is not his 
expectation.
    Senator Reed. Thank you, Mr. Secretary. Let me turn to a 
more specific issue with respect to this area of national 
missile defense. There was a story today in the Wall Street 
Journal that a contract has been prepared for the construction 
of an interceptor site near Fort Greely, Alaska. Has this 
contract in fact been prepared, and are you entering into 
discussions with a contractor to construct a facility at Fort 
Greely?
    Secretary Rumsfeld. I saw the article and I asked about 
that. My understanding of that situation is that there is a 
contract that is in the process of being prepared. It does 
involve Alaska. It involves site preparation, and to my 
knowledge, it would not violate the treaty--correction, it 
would not constitute an act that would be beyond the permitted 
acts under the treaty, I am advised.
    Senator Reed. This approach sounds similar to an option 
that General Kadish briefed to the committee earlier this 
month, to have up to 10 test missiles available for operational 
deployment using an upgraded existing radar on Shemya Island in 
Alaska. Does this budget contain funds to upgrade that radar or 
to build the interceptor silos in Alaska, beyond the issue of 
the contract preparations?
    Secretary Rumsfeld. As I indicated to Senator Levin, 
General Kadish, which was perfectly proper, briefed the 
committee on his thinking prior to the time that he had firmed 
up his research and development plans. Those plans have not 
been firmed up as of this moment, nor have I been briefed on 
them.
    You are exactly right. In his set of options, one of them 
involves the possibility of upgrading an existing radar in 
Alaska and putting some number of interceptors in silos in 
Alaska. To go back to Senator Levin's question, I am told by 
the lawyers that there is a debate among the lawyers as to 
whether, if you actually did those things, as opposed to just 
site-clearing, whether or not that would constitute going 
beyond what the treaty permits. There are lawyers on both 
sides, and apparently, part of the issue involves intent.
    If it is intended that it be a test bed, apparently more 
lawyers than not believe that would not exceed the treaty. If 
it is intended not to be a test bed but possibly a prototype of 
some sort, then some more lawyers would switch over and say, 
``well, maybe that might be.''
    The problem is, I am not inclined to get into that 
business. I am not a lawyer. Why does the United States want to 
put itself in a position where someone can say, ``you violated 
the treaty,'' or ``you did not violate the treaty,'' and one 
lawyer argues with another lawyer? We want to get into the 
discussions with the Russians, get the treaty straightened out, 
and get a new framework that gets beyond that so this country 
can go forward and do what the President has indicated he would 
like to do.
    Senator Reed. My time has expired. Thank you, Mr. 
Secretary.
    Secretary Rumsfeld. Thank you, sir.
    Chairman Levin. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Secretary, I am particularly interested in your request 
to raise the threshold for contracts subject to Davis-Bacon 
wage requirements from $2,000 to $1 million. Your request 
states this policy would lead to a savings of $190 million in 
fiscal year 2002. I am concerned about the impact that your 
proposal would have on local economies and businesses.
    The question is, what assurances can you provide to 
mitigate the negative impact this would have on Federal workers 
and local economies? What steps would the Department take to 
avoid the problems experienced by States who have repealed 
prevailing wage laws, which include cost overruns and change 
orders, to correct mistakes in poor workmanship?
    Secretary Rumsfeld. Senator, I would like to ask Dr. 
Zakheim, who has been working on this specific issue, to 
respond to your question. Thank you.
    Dr. Zakheim. Senator, the Davis-Bacon Act has been around 
for quite some time. At the time it was enacted, $1 million was 
an awful lot for a contract, I believe. We are now talking 
about contracts much, much larger, and so a $1 million contract 
today is really a relatively small contract. That is one point.
    Second, the questions you raise are extremely to the point, 
and there would certainly be efforts to mitigate the kinds of 
impacts you are talking about. But clearly at the present a 
$2,000 contract is not terribly much. Most contracts are well 
above that, and effectively it means that in no circumstances, 
barring very, very minimal ones, can the situation take place 
where one pays non-union wages to non-union workers.
    We are trying our best to find a variety of management 
reforms. We know $190 million is a significant amount, and at 
the same time, we take your concerns under advisement. There 
are people looking at those.
    Senator Akaka. General Shelton, I agree with your goals for 
sustaining a quality force. I believe we need to address the 
quality of life for our service members and their families to 
increase pay, improve housing, reduce out-of-pocket expenses, 
and improve health care for our military retirees. I share your 
concerns regarding the deteriorating infrastructure and its 
impact on readiness and the quality of life for service members 
and their families. I support your efforts to address this 
situation.
    Given your identification of modernization as your biggest 
priority, my question to you is, do you believe that the fiscal 
year 2002 budget adequately addresses this issue?
    General Shelton. Thank you, Senator, and thank you for your 
support on those very key issues for all men and women in 
uniform. I believe that the fiscal year 2002 budget is a very 
prudent interim budget. It puts people first. It makes sure 
that we have fully funded our current readiness, which is very 
important. As I have said so many times before, when our Armed 
Forces are needed, we do not have time to ask, ``Are you 
ready?'' It is normally time to go.
    The modernization and the recapitalization, as I indicated, 
are still an issue. However, the QDR process right now is 
addressing where we go in terms of capitalizing, modernizing, 
and transforming. Out of that process now we should come out 
with a blueprint, a road map for the way ahead, and see where 
we are going to need the significant plus-ups in the 
modernization and in the transformation accounts.
    As indicated earlier by one of your distinguished 
colleagues, the estimates on how much that would be are still 
to be determined. I think out of the QDR we should have a 
better figure for what that total amount is going to be, where 
it should be applied. The estimates, of course, have ranged 
from $50 to $100 billion. It is a wide range. I think the QDR 
will help us to start focusing that effort and have it ready to 
go in the 2003 budget.
    Senator Akaka. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. First of all, I 
would like to note that General Shelton will be retiring in 
September. I would like to express my gratitude for the 
patriotism that you have shown, and for all you have done in 
the interest of peace around the world. Certainly, the American 
people owe you a great debt of gratitude, and I thank you very 
much for that.
    General Shelton. Thank you very much, Senator. It has been 
my honor.
    At this point, I would like to offer my statement for the 
record.
    [The prepared statement of Senator Carnahan follows:]
              Prepared Statement by Senator Jean Carnahan
    Thank you Mr. Chairman. I wish to welcome Secretary Rumsfeld, 
General Shelton, and Dr. Zakheim. I am very pleased that this committee 
will begin considering 2002 Defense Authorization and engage our 
Pentagon leadership in a substantive dialogue about the defense budget.
    I am dedicated to providing a strong national defense and intend to 
do what is necessary to ensure we have the best equipped and best 
prepared fighting force in the world.
    To begin with, we need to develop a suitable framework for 
responding to emerging threats around the globe. We need to develop a 
force structure that shifts our current focus on Cold War areas of 
concern to 21st century dangers emanating from Central and East Asia. 
In addition, we must be prepared to confront assymetric threats from 
rogue nations and terrorist organizations. To meet the challenges of 
the future, we need to expand our capabilities in cyber-warfare, rapid 
reaction tactics, and early warning intelligence. Achieving these goals 
will require sizable investments in several areas, including airlift 
assets, research and development of new technologies, and expansion of 
our modern long range bomber fleet.
    But above all else, it is essential that we take care of the most 
important resources in our arsenal--our men and women in uniform. This 
year, I hope that the Department of Defense takes special care to 
ensure that the 2002 defense budget addresses critical shortfalls in 
personnel's quality of life--this means long overdue investments in 
housing units, health care facilities, and education benefits that are 
so crucial to the retention of our service men and women and their 
families.
    It will be a difficult task to meet our pressing needs within the 
confines of the Budget Resolution, but I have great confidence in the 
leadership of Senators Levin and Warner and look forward to working 
closely with them as well as with Secretary Rumsfeld and the Pentagon 
leadership.

    Senator Carnahan. I would like to now address a question to 
General Shelton. In your remarks you emphasize key advancements 
in our military health care system. I agree with your statement 
that our commitment to health care must extend to personnel and 
families of retirees. I supported last year's initiative and 
hope we can continue developing these programs.
    In addition, I hope that this committee, as well as the 
Pentagon, will evaluate our commitment to this component of our 
Armed Services. Indeed, we have increasingly come to depend on 
our Reserve components in almost every major deployment abroad. 
As a result of the post-Cold War downsizing, we have now 
maintained fewer active forces in our military, while we 
continue to expand our commitments around the world. Would you 
describe the expansion of our Reserve component's role in the 
total force since the Gulf War ended in 1991?
    General Shelton. Senator, our use of our Reserve 
components, and I might say great Reserve components, because 
they do yeoman's work day-in and day-out around the world, both 
the National Guard as well as the Reserve Forces, has become 
quite extensive. In fact, I was just in the Balkans this last 
month, and every time I go I am reminded, whether it is in 
Operation Southern Watch at Prince Sultan Air Base, or Northern 
Watch at Incirlik Air Base, wherever I go, the Reserve 
components are a key part of the force.
    I want to say that roughly a third of those at any given 
point in the Balkans come out of the Reserve components, and so 
we have been demanding a lot of them. In some cases, in our 
civil affairs, the percentage of our force that is actually in 
the Reserve components, which we use civil affairs an awful 
lot, is 96 percent. In psychological operations it's about 67 
percent, and so we are forced to go to the Reserves a lot, 
given the types of operations, particularly the long-term 
commitments that we have, like in Bosnia, Kosovo, and the 
Sinai, to a great degree. That has been a concern.
    I have discussed that with the Chiefs of our Reserves, and 
the National Guard. They have some concerns about it, although 
they do not think that we are in a crisis yet. But certainly as 
a part of the Quadrennial Defense Review that has got to be 
something that we do address and plan to address as a part of 
the look at the total force, and whether or not we have the mix 
right in the Guard and the Reserve.
    Senator Carnahan. Does the Department of Defense plan to 
address health care and other benefits for reservists in 
recognition of their increased contribution to the defense of 
our Nation?
    General Shelton. Senator, I will have to take a look at 
that. I do not recall specifically if that was a part of our 
terms of reference for the QDR or not, but we will look at that 
and get back to you.
    [The information referred to follows:]

    The Quadrennial Defense Review process addresses health care and 
other benefits and was released by the Office of the Secretary of 
Defense September 2001.

    On health care, I want to once again thank the members of 
this committee for the great support given to our men and women 
in uniform, as well as our retirees. You made it happen, and it 
is reflected in everything that I see now in terms of morale, 
attitude, and recognition and appreciation of their great 
efforts.
    There is still a concern, as we look at health care, that 
it is an entitlement that competes with ammunition, planes, and 
ships. We need to try to figure out a way to get that out of 
the O&M account and into a category of funding that recognizes 
it for what it is: a must-pay that we pay up front and do not 
put in the same category with precision munitions.
    Senator Carnahan. One other question. In your last 
appearance before this committee, you and the secretary 
emphasized emerging threats posed by chemical, biological, and 
nuclear weapons around the globe.
    I believe, as you do, that these threats remain imminent. 
Even as we plan a long-term strategy for dealing with weapons 
of mass destruction, it is essential that our troops remain 
sufficiently protected from chemical/biological agents. I hope 
that the fiscal year 2002 defense budget will sufficiently 
equip our troops with adequate protection to deploy in a 
contaminated environment. Has the Pentagon sought to modernize 
its defense against chemical and biological agents in the 
short-term?
    General Shelton. Senator, the answer is yes. In the short-
term, and certainly as part of our long-term analysis and 
strategy, that is a growing threat which we know we have to 
deal with. We have programs and plans in place to do exactly 
that.
    We have made some, I think, relatively quantum leaps in the 
area of detection, such as our ability to determine what type 
of agent it is at greater distances than when you are actually 
exposed to it. But that is an area we need to continue to 
press, because obviously it is one of those asymmetrical 
threats that we have to be very concerned about, and that will 
be reflected in the priorities of our programs.
    Senator Carnahan. You have also testified before this 
committee to illustrate the fact that chemical and biological 
agents pose a more imminent threat than most other types of 
weapons of mass destruction (WMD) attacks. Do you anticipate 
substantial increases in long-term investments in chemical/
biological defenses equivalent to other investments in WMD 
defense?
    General Shelton. I will respond for the record for that, 
because I need to go back and look at it in terms of the nature 
of your question. Certainly, those are programs that we have to 
have funded. They are very important programs. In terms of the 
percentage of increase relative to the others, I will have to 
go back and check the figures on that, and I will respond to 
you in writing.
    [The information referred to follows:]

    Our troops are equipped with the most modern defense equipment 
capable of providing more than adequate protection against traditional 
chemical and biological warfare agent attacks. The President's budget 
will provide improved chemical point and standoff detection 
capabilities, and continue research to improve protective ensembles and 
masks, medical, chemical, and biological countermeasures, and 
decontamination technologies. Always cognizant of emerging chemical and 
biological warfare threats, we continue to modernize and upgrade our 
equipment to maintain the highest standards of protection and to meet 
the challenge of future military operations. The DOD Chemical and 
Biological Defense Program is committed to maintaining the proper 
balance between the fielding of state-of-the-art equipment and 
continued investments in science and technology programs. The ongoing 
QDR is assessing our future requirements for countering nuclear, 
biological, and chemical weapons and means of delivery to include 
passive defense capabilities, both for military operations overseas and 
in support of civil authorities.

    Senator Carnahan. Thank you very much.
    General Shelton. Thank you.
    Chairman Levin. Senator Bill Nelson. According to the list 
that I have, Senator Bill Nelson is ahead of Senator Ben 
Nelson.
    Senator Ben Nelson. Just on this. [Laughter.]
    Senator Bill Nelson. I will hold my tongue.
    It is kind of interesting; two Nelsons, both freshmen, both 
Democrats, both former insurance commissioners. He likes to 
think he is from the State with the football team, but I 
reminded him that Florida has six professional football teams. 
[Laughter.]
    Chairman Levin. I think we are not going to go there.
    Senator Bill Nelson. Not only in the NFL, but also the 
Gators, the Seminoles, and the Hurricanes.
    Mr. Secretary, I said to you a couple of days ago that you 
have a tough job. I think you are doing a good job, 
notwithstanding the anger of Senators Roberts and Cleland, 
which is quite understandable. I think you are trying to get 
your arms around a behemoth and bring some rationality to it, 
and redirect our force structure to meet the challenges for the 
future. I want to commend you for that, as I said a few days 
ago.
    I would like to discuss what we explored the other day, but 
with a slightly different angle. I notice that Senator Stevens 
has inserted this in the supplemental appropriation which we 
will be voting on probably tomorrow: ``notwithstanding any 
other provision of law, the Secretary of Defense may retain all 
or a portion of Fort Greely, Alaska, as the Secretary deems 
necessary, to meet military operational, logistics, and 
personnel support requirements for missile defense.''
    My question is, picking up on what we had discussed the 
other day, how can you start to deploy something that has not 
been developed? You and I discussed that we want to continue 
robust R&D, and then you go about testing, but you cannot 
deploy something that is not developed.
    There are certain lead times that you need, obviously, in 
preparation of ground and so forth, but then you get to a point 
that you have to start building silos. I would like your 
comment in light of the fact that it is a generally accepted 
principle in the Nation's defense that you cannot deploy 
something that is not developed.
    Secretary Rumsfeld. Yes, sir. First let me say that I am 
not familiar with the language that you mentioned that may be 
in the supplemental. I can comment on the remainder of your 
question.
    To test something, you frequently need to do something in 
the ground, and the single missile defense activity that was 
the furthest along was the one that the Clinton administration 
had planned to go forward with in Alaska. That concept was to 
have a radar and have some interceptors in the ground, in 
silos, in Alaska. That particular model was the one they were 
working on, to the exclusion of things that might, at some 
point, lead to a breach with respect to the treaty.
    You are correct that lead times become quite important. 
Apparently, in that part of Alaska there are 2 or 3 months, at 
the most, when you can do any kind of construction. It is not a 
friendly, hospitable environment for construction. The site 
preparation and the shipment of materials has to go up and be 
there during that brief period when the weather permits it.
    Second, they have to go up there, I think, a year in 
advance so that they are there when the actual time when 
something is permitted.
    Senator Bill Nelson. All right. All of that is 
understandable, Mr. Secretary, but let's get on to the 
question, are the interceptors, in fact, developed?
    Secretary Rumsfeld. The decision to do what you are 
describing has not been made. There has not been a decision 
made to deploy in Alaska. Indeed, I do not even know if the 
decision had been made in the previous administration, although 
it might have been. Someone here can correct me on this, but 
the intention in the previous administration, or the track they 
were on, was to, in March or April, I believe, ship up to 
Alaska the materials they would need for the radar and possibly 
also for some of the interceptor silos. They would not have 
done that had they not believed that by the time they were able 
to do that the interceptors and the radar would be available.
    The purpose of doing it in the prior administration I 
cannot speak to, whether it was a deployment or not. The 
purpose of doing what they are doing now is something that 
General Kadish is currently considering. That is to say, 
whether or not it would be a test bed or a prototype.
    Senator Bill Nelson. Let us talk about those interceptors 
being developed. The theory, you said, is that they would be 
developed, and therefore be able to be deployed. Do we have any 
evidence in any of our R&D and testing now that that kind of 
interceptor would, in fact, work?
    Secretary Rumsfeld. The purpose of, of course, a test bed 
would be to experiment to see to what extent it would work. My 
recollection of that particular interceptor is that they do, in 
fact, have something that is in track that could be used, 
although there is also, as I recall, an intention to upgrade 
it. Do you recall, General?
    General Shelton. Sir, you have described it exactly right. 
It is still being tested. It has worked. However, it still 
needs additional testing, additional work, and there are more 
tests scheduled in the next few years.
    Senator Bill Nelson. Where is it being tested, General?
    General Shelton. It is part of the Ballistic Missile 
Defense Organization (BMDO) testing. Specifically where the 
test sites are we will have to provide for the record.
    Senator Bill Nelson. This is not part of the test on the 
kinetic energy, the one that is launched from California or 
Kwajalein?
    General Shelton. We will provide you an answer for the 
record, Senator.
    [The information referred to follows:]

    In response to your questions about testing, we currently use the 
range between Vandenberg Air Force Base (VAFB) in California (for 
launching targets) and the Reagan Test Site (RTS) in the Marshall 
Islands (for launching interceptors) and it has been useful for 
developmental testing. However, the range lacks the required realism 
for tests of BMDS interceptors and sensors. Flight test restrictions on 
trajectories, impact areas, and debris in space are among the 
challenges facing the former ``National Missile Defense'' program, now 
called the Ground-based Midcourse Defense (GMD) element of the 
Ballistic Missile Defense System (BMDS).
    To increase the operational realism of GMD testing, proposals are 
being considered to expand our test infrastructure to include 
additional test assets and additional intercept areas. Because this 
expansion is still being analyzed, MDA has not yet determined the 
activities and locations that will be used. The proposals include 
making use of early warning radars on the west coast and using both the 
Kodiak Launch Complex in Alaska and VAFB to launch targets. The Kodiak 
Launch Complex may be upgraded to launch single or dual interceptors. 
Currently RTS can launch a single interceptor and may be upgraded for 
dual interceptor launches.

    Senator Bill Nelson. Mr. Chairman, you obviously see where 
I am going. We have all this discussion and hand wringing about 
breaking the ABM Treaty or maybe not breaking it because it is 
a test and so forth. But I think it gets back to a basic 
question of physics, that you have to develop something before 
you can deploy it. This Senator has not seen that we are at 
that point which ought to justify Senator Stevens inserting 
this language in the supplemental appropriations bill. Mr. 
Chairman, I am going to continue to poke and probe, and 
General, I would appreciate it if you would furnish that 
information to me, not only about this specific test that might 
be applicable to a site in Alaska, but all other tests as well.
    Secretary Rumsfeld. Senator, just very briefly, I think you 
made the comment that you are concerned about deployment. There 
is not a plan to deploy ballistic missile defense at the 
present time, and so I do not know quite where you are going 
with respect to that; there will have to be testing done, there 
is testing being done, and there will prospectively, depending 
on which of the R&D programs involved. But there has not been a 
decision made to deploy for the purposes of putting in place a 
system under the theory that it is developed and ready to go.
    Senator Bill Nelson. Mr. Secretary, when I start reading 
language like this, that I am going to vote on tomorrow, I 
start getting concerned. If we are not going down the road in 
somebody's mind in your shop about deployment, and if it is 
only testing, why is it being considered in that location for 
the testing?
    Secretary Rumsfeld. That is the location it has been 
considered for from the very beginning of that particular R&D 
project that began back in the prior administration.
    Senator Bill Nelson. My response to that would be, why 
there? Why not continue the testing at the present location?
    Secretary Rumsfeld. The reason there is because of the 
decision that was made with respect to where a potential threat 
from North Korea might be.
    Senator Bill Nelson. That starts to sound like deployment 
to me.
    Secretary Rumsfeld. Well, all I can say is what I have 
said. Neither General Kadish, nor I, nor anyone I know in the 
Pentagon thinks they know enough at this time to deploy. I will 
say that the technology has been tested and in some instances 
proven very effective. The Arrow system that the Israelis have 
been working on suggests that the physics are workable, and 
that they are able to do the things that the Ballistic Missile 
Defense Office has been working on and believes is possible.
    Senator Bill Nelson. Thank you, Mr. Chairman. I look 
forward to continuing this.
    Chairman Levin. Thank you, and thank you for pressing these 
points. They are very significant ones.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. First, I want 
to thank and congratulate General Shelton on a job well done. I 
appreciate all your courtesies and the opportunities we have 
had to get together and your support for our national defense. 
You are certainly to be thanked and congratulated.
    General Shelton. Thank you very much, Senator Nelson.
    Senator Ben Nelson. Mr. Secretary, I have not seen my 
colleague from Kansas so angry since Nebraska beat Kansas State 
in football. Nevertheless, I would like to continue the 
discussion that my colleague from Florida has raised about the 
difference between development and deployment.
    Obviously, there is some difference, or at least I hope 
there is some difference. Is there a bright line between 
development and deployment? At what point will a decision be 
made on deployment, away from development? Will we be 
surprised, as the trimming of the B-1 bombers surprised us? Is 
this something that is going to happen incrementally, or will 
it happen suddenly?
    I think that gets to the heart of what my colleague is 
trying to probe and explore here, and I feel the same way. I do 
not want to suddenly realize that I voted on something in an 
appropriations bill that constitutes deployment and not be 
aware that that is the decision that I made.
    Secretary Rumsfeld. Senator, I just cannot imagine 
something happening suddenly in government.
    Senator Ben Nelson. I would agree with you on that.
    Secretary Rumsfeld. The situation is that the members of 
the committee can get briefed on the progress in the ballistic 
missile defense activities any time they want. They have been 
briefed on a regular basis, as interested. It is impossible to 
know how any R&D program is going to evolve at any given time. 
You cannot know it in pharmaceutical research and you cannot 
know it in ballistic missile defense research. That is why you 
do the research, because you do not know exactly how it is 
going to evolve.
    Within the Department of Defense there are technical 
meanings for the words, and there are definitions of what each 
stage of a process is supposed to mean. The problem with them 
is that--I am trying to think of a case that could concern you. 
Let me see if I can fashion one.
    General Shelton can tell you one from the Gulf War, where a 
project, an activity that was purely in the development stage, 
was in R&D and it was being tested but it had not been fully 
developed and it was not ready to go. It had not been deployed, 
and suddenly we were in a conflict. Because we had this testing 
capability, it was heaved into the war and used very 
effectively.
    General Shelton. A couple come to mind, including the 
Patriot missile system, which still had testing ongoing, and 
actually improved the capabilities while we were in the 6-month 
pre-deployment phase, or pre-Desert Storm phase. Another was 
the Joint Surveillance and Target Attack Radar System (JSTARS) 
which was still being tested and developed, and proved to be 
very effective.
    Secretary Rumsfeld. The reason I mentioned that is because 
I wouldn't want someone to come back to me and say, ``goodness, 
back in June of 2001 you said we would not be surprised,'' 
because it is conceivable that something like that could 
happen. A system that was under development could be heaved 
into a conflict because the need was there, and the value was 
there. It might or might not work, because it had not been 
fully developed.
    I do not want to get nailed down too tight on it, but 
certainly anything that anyone could conceive of that would be 
considered deployment would be something that would be rather 
well understood by this committee and by us.
    Senator Ben Nelson. So there will most likely be a 
difference between deployment and a decision to deploy, and we 
will know the difference?
    Secretary Rumsfeld. Absent some unusual event like this.
    Senator Ben Nelson. Absent a conflict?
    Secretary Rumsfeld. Yes, sir.
    Senator Ben Nelson. The missile defense system probably 
would not fit into the same--except for theater-type weapons, 
although that line blurred on us recently as well. But 
generally, what you are saying is, we will not end up being 
surprised that we made a decision to deploy in a budgetary 
context that we did not have the opportunity to visit with you 
about.
    Secretary Rumsfeld. That is for sure.
    Senator Bill Nelson. Mr. Chairman, I would like to ask 
consent that I be allowed to proceed for 1 additional minute.
    Chairman Levin. No objection.
    Senator Bill Nelson. JSTARS was developed in my home town 
of Melbourne, Florida. It continues to be located there. This 
Senator and a Member of the House helped get the initial 
appropriations for JSTARS. It indeed was one of the stars of 
the Gulf War, and it deployed to the Gulf War from my home town 
with a group of civilians.
    But that is not an equal comparison to what Senator Nelson 
was speaking about. In that case, we were in the midst of a 
conflict. In this case, we are talking about a whole new system 
of strategic importance that involves applicable treaties, and 
I think that we need to make that distinction, Mr. Chairman.
    Thank you.
    Secretary Rumsfeld. I quite agree. I was not suggesting it 
was on all fours with that.
    As General Shelton just reminded me, Alaska was supposed to 
be the first deployment site by the Clinton administration 
because of the North Korea issue. That construction had to 
start this year in March, the shipments had to start this year 
in March to meet the, he thinks, 2005 date for actual 
effectiveness and deployment, because of short construction 
periods.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you. Mr. Chairman, I want to thank 
you again for accommodating our side in the course of the 
afternoon here, and I appreciate your courtesies.
    I would just say to our two new members who are preparing 
to depart, I can assure you that we will not, as a Nation, get 
to the point of deploying anything before such time as our 
President has resolved one way or another these treaty issues 
with Russia. So sleep well, and we are going to be all right. 
But I also say, if someone were to have an accidental firing or 
a rogue firing of a missile, I do not know who might be 
President, but I hope he would bring together everything we 
have to stop and blunt the next one that might come this way. 
We have a good system of government, and it will respond well 
in time of need.
    Gentlemen, I am going to go to some broad questions here 
which we would normally reserve for the posture hearing. It is 
a great credit to you, Mr. Secretary, to General Shelton, and 
to Dr. Zakheim, that three-quarters of the members of this 
committee attended this hearing today. It is a day when we have 
some of the most intense activity going on on the Senate floor 
including party caucuses.
    I want to go back, Mr. Secretary, to the years when I was 
privileged to be chairman, and we were endeavoring in a 
bipartisan way to try and address readiness in particular. We 
turned to the service chiefs, and they came before this 
committee, as General Shelton well knows, for two successive 
fiscal years and told us of their professional opinion. That is 
clearly established by this committee as a duty owing to the 
committee and, indeed, to Congress at the time they are 
confirmed. Each service chief, as part of the record, rendered 
a professional opinion that we, the United States, should be 
spending greater sums on our defense. Largely at the initiative 
of this committee, joined by the balance of Congress, we were 
able the last 2 fiscal years to begin to turn around the 
declining defense budgets.
    General Shelton, I want to pay a special tribute to you, 
because you led that effort in many respects, and the other 
Chiefs joined in that effort. I happen to know, Mr. Secretary, 
that you strenuously tried to get dollars for the 2001-2002 
budget in excess of what has been announced by our President. 
Because you value the consultation and confidence of sharing 
your views with your President, I will not ask you to comment 
on that. But I know as a fact, and this record should reflect 
it, that you worked arduously with the Office of Management and 
Budget to get a higher figure for 2001 and 2002.
    But we are where we are. We are going to have to do our 
best, but I am going to recommend to our chairman, he will 
probably do it on his own initiative, that in due course we 
have the service chiefs up to address what Senator Lieberman 
said. It was his judgment. This is a bipartisan thing, not 
partisan in any way. We are still short, and we will ask the 
chiefs for the marginal differences between what appears to be 
coming along in 2001 and what they need. In 2002 there is some 
certainty as to how these Budget Committees are going to deal 
with the 18-and-a-fraction billion.
    I am optimistic, but until such time as that gavel falls in 
those committees and the Senate acts, there is going to be some 
doubt. General Shelton, my record shows that last year the 
military services indicated that they wanted a $48 to $58 
billion funding increase per year over the Future Years Defense 
Program (FYDP) as it existed then, if the Department is to 
restore readiness and modernize for the future.
    I think we have to recognize that readiness is a crisis 
across the board in our military, and I do not use that word 
ill-advisedly. You cannot comment, nor should you, on higher 
figures that you have requested, but clearly if the Chiefs were 
correct last year, and I will pass this question momentarily to 
the General, there is a shortfall. How is that going to impact 
on your prime responsibility to deploy our troops when 
necessary?
    I know there is some expectation that we are going to 
reduce the level of deployments, but I think you should address 
what clearly is a shortfall in the 2001 and 2002 budgets, and 
how that is going to impact your ability as advisor to the 
President of the United States with regard to our deployments 
and other things of high priority to our military.
    Secretary Rumsfeld. Senator Warner, first let me say that 
the military leadership has been deeply involved in the budget 
preparation and where we are, not in the total amount, that is 
for the President and the Office of Management Budget. But 
certainly with respect to the allocation, I would say that 
readiness did get a priority, people did get a priority, and 
where the balancing came out somewhat shorter was with respect 
to procurement and investing for the future.
    Second, I know that the Chiefs will speak their mind, and I 
want them to. I would say this, however: the readiness issue 
has to be disaggregated. There is readiness with respect to 
various types of training. There is readiness with respect to 
the facilities, and they get ratings as well. There is 
readiness for the forces that are on the leading edge and have 
to be ready to go, and there is readiness levels for the forces 
that have just returned from being on the leading edge and are 
in a down period. The other way I think we have to disaggregate 
it is this, readiness for what?
    If the Third Infantry Division is told by the President and 
Congress, go to Bosnia, and they are doing a great job, and 
they are ready for that, but their other job is to be ready for 
a major regional conflict, because they are in Bosnia doing 
what they have been asked to do and are ready to do, they end 
up with 28 days training instead of 29 days training, and 
therefore their readiness level drops.
    So if you are asking organizations to do several things, 
and your readiness standards do not reflect that, they reflect 
only the one major assignment, then it leaves an impression, it 
seems to me, that is imperfect, and I am asked, and I think it 
will be done in the quadrennial review process, that we give 
consideration to that issue that I have just raised.
    Senator Warner. Let us turn to modernization, because that 
impinges on readiness. I recognize that you have been under a 
battering ram today on shipbuilding, and I join in that 
battering for reasons that are clear, but let us recognize that 
we need to modernize, and we are, in my judgment, right up at 
the top level of what we can obtain by way of military spending 
in 2001 and 2002.
    Where are we going to give in this system? Should we 
diminish the size of our end-strength? Should we make a 
decision that we are going to have less deployments? Where are 
we going to develop the cash that is necessary to go to 
modernization?
    Secretary Rumsfeld. The risks that we, the Chiefs, the 
Chairman, myself, the Under Secretaries and the Secretaries of 
the services considered, in terms of reference for the 
Quadrennial Defense Review, were really four. One was the risk 
about the people. If you do not invest in the people, the 
heart, then the total capability of the U.S. Armed Forces 
decays.
    Senator Warner. I agree.
    Secretary Rumsfeld. That is a risk that tended not to get 
elevated with the risks of not being able to meet your 
strategy, for example, the operations risks of meeting a war 
plan. Can you meet the requirement? Do you have the 
requirements? Are the requirements right? Can you have the 
capabilities to fulfill those requirements so you can fulfill 
your war plan?
    A third risk, which is difficult because it is apples and 
oranges, is that you have to get up on the table and balance 
the question of modernization. What do you do about your legacy 
force, your current force? How do you keep bringing in 
additional capabilities as you are going along, somewhat 
better, but of a kind, so that the aircraft age does not get up 
to the point where the budget is getting destroyed with repair 
cost and the shipbuilding number does not go all the way down?
    The fourth risk was not taking into account that we are in 
a period of time when technologies are changing. The world is 
changed, and we need to not just modernize, but transform. We 
need to invest sufficiently in research and development, S&T, 
and new capabilities, new systems in intelligence, and in space 
capabilities, so that we have the ability to deal with the 
kinds of threats we are likely to face in the period ahead.
    If you take all those risks and try to compare them against 
each other and weigh them against each other, it is an 
enormously difficult, complex task, and you are right, 
something has to give. We need savings out of the Department, 
and at the present time the Department is wrapped around its 
anchor chain. We simply are so tied up in rules and 
requirements and stipulations and prohibitions that it is very 
difficult to manage. There are not many incentives to save any 
money in the Department.
    A captain of a base goes out there, and at the end of a 
quarter he knows that if he does not spend that money, he is 
not going to get it the next year, and so the incentive to save 
is not there. It is not intuitive, but that is what is 
happening. We have to find ways to fix the financial systems we 
talked about. The acquisition system is not working right. It 
is perfectly possible to save money in the Department if we 
could be freed up to do it.
    Senator Warner. I am going to let you a little bit off the 
hook. You have just beautifully restated my whole question, and 
I am not sure I got clearly the answer where the money is 
coming from. You may be able to bring in some savings through 
incentives and a few other things, but I am talking about major 
dollars for shipbuilding, aircraft, and the transformation of 
the Army with new equipment. Those are significant dollars, and 
somewhere, somehow, your Department, this committee, and the 
House Armed Services Committee have to work to solve that 
problem.
    Secretary Rumsfeld. Yes, sir, let me just go directly to 
it. There are three ways the money is going to come, and 
probably it will take, I am afraid to say, most of them. The 
first way is through savings. We have to do a better job, and I 
believe we can.
    A second way is for something to give among those four 
risks. We have to make tradeoffs, just like any business does, 
just like any family does. We have to look at it and say, how 
much are we willing to give up today in exchange for investing 
in the future? Are we willing to give up on the people in 
exchange for operational capabilities? I think not.
    Senator Warner. No.
    Secretary Rumsfeld. I think we have to keep the people.
    Senator Warner. I agree that is not on the table.
    Secretary Rumsfeld. A third way, the way it normally 
happens in our country, let us be honest, is that there is a 
crisis, a conflict, a major new threat is suddenly on us: North 
Korea invades South Korea. What did we do? We said we could not 
afford an $18 billion budget when it was a $15 billion budget. 
Omar Bradley was asking for $18 billion, they said they could 
not afford it, and the next thing you knew we had a $48 billion 
budget. We could afford it just fine because we were in a war.
    Unfortunately, there is a natural tendency on the part of 
people to not recognize how critically important to prosperity 
and peace in this world the United States Armed Forces are. 
They underpin that prosperity and that peace. We are down to 3 
percent of gross national product going to defense. If there 
were a crisis, we would be right up to 8 or 10 in a minute, and 
we could afford it just fine. The key is to invest what we need 
to invest, and manage it in a sufficiently sensible cost-
effective way so that we do not get in a crisis because the 
deterrent is sufficiently strong and healthy that we can 
dissuade people from doing things that upset stability.
    Senator Warner. I thank you, Mr. Secretary.
    General Shelton, last year the Chiefs testified that there 
are $48 to $58 billion additional dollars needed in the FYDP if 
the Department is to restore readiness and modernization for 
the future. You recognize there is a shortfall no matter how 
valiant the Secretary's efforts were to get the 2001 budget 
augmented, and a very significant figure, in a way, for 2002. 
We are still short, are we not?
    General Shelton. Senator Warner, I do not think there is 
any question, this is a budget that does put people first. It 
keeps the emphasis on the quality of the great force we have 
and it fully funds the current readiness for this year, 
something that we are concerned about. If we get called upon 
today we want to be ready to go, and the budget has $18 billion 
plus-up in the current readiness account.
    Of course, that also takes into consideration the fact that 
we have old equipment that is costing more to operate, due to 
the cost of fuel and other factors. That eats up a lot, but it 
ensures that we do not have to come back for a supplemental in 
the middle of the year in 2002, assuming that we do not have 
some other type of disaster for which we have to use our 
forces.
    The challenge remains, as I said earlier, with 
recapitalization and modernization. There again, we have the 
QDR. It is a chance to take a look at our force structure, 
decide where we need to recapitalize and where we really need 
to really put the money in order to modernize. I do not think 
there is any question, when you come out on the other end, that 
it is going to require additional funds in the outyears, 
starting in the 2003 budget and going beyond. We have all seen 
the figures that have come from various studies.
    That is, of course, based on today's national security 
strategy. It is based on today's force structure, and it is 
said that basically somewhere between $30 and $50 billion will 
be required.
    Senator Warner. So in your judgment, is that over and above 
the current FYDP levels?
    General Shelton. Over and above the 2002 FYDP level as we 
look out to the future for recapitalization and modernization.
    Senator Warner. So that is $50 billion over the 6-year 
program?
    General Shelton. Sir, the estimates range from $30 to $50 
billion per year above currently programmed levels. I think 
when we come out of the QDR, the Secretary and myself will have 
a better feel for what the exact number will be, based on the 
strategy and on the force structure to support that strategy.
    But I would like to underscore something the Secretary 
said. We are a global power. We are the only one in the world, 
and sometimes that gets to be lonely, but we have worldwide 
responsibilities. It is the great strength of America, and the 
men and women in uniform that are out there daily, carrying out 
protecting our national interest, help provide for the peace 
and prosperity that we have today. It is quite an investment, 3 
cents on the dollar. That is what our Armed Forces provide for 
us today.
    Ultimately, if we want to continue to enjoy peace and 
prosperity, be recognized as a leading power in the world, and 
provide for the peace and stability for the rest of the world, 
which also helps our own prosperity, we have to make an 
investment in that force. That may mean that 3 cents on the 
dollar will not be sufficient in order to modernize this great 
force we have and keep leading technology in the hands of the 
greatest force in the world.
    Senator Warner. I thank the chairman. I thank you very 
much.
    Chairman Levin. Thank you, Senator Warner. I want to return 
to the subject that I started relative to the ballistic missile 
defense.
    Two of our colleagues here today from Kansas and Georgia 
expressed very appropriately their frustration in terms of 
consultation and, as far as I am concerned, your response was 
appropriate as their feelings.
    General Kadish came before us and said that he has 
completed his review and that his recommendations had not yet 
been reviewed by you. Nonetheless, his completed review was 
briefed to us. In that completed review, he said that all the 
R&D programs which he had laid out for the year 2002 in no case 
bumped up against the ABM Treaty.
    I asked you today, do you disagree with his brief in that 
regard. Your answer was, it seems to me that you had not been 
briefed on it yet by General Kadish, which is fair enough, if 
that is accurate. I do not have any problem with that. If that 
is the situation, that is the situation. But you do not have 
any basis, then, to disagree with his conclusion, which we, it 
seems to me, have a right to rely on at least in terms of the 
head of the BMDO saying that it is his conclusion and his 
review that none of the research and development in his plan 
for the year 2002 would violate the ABM Treaty. So do you have 
any basis to disagree with his conclusion?
    I am not talking about what it evolves into in future 
years, if you use the word evolve. I am talking about 2002 
budget dollars that you are asking us for.
    You may want to keep the Russians guessing as to whether or 
not you pull out of the ABM Treaty, but we have a greater 
responsibility than that in terms of our dollars. We just have 
to know, are there any dollars in this budget request for 
research and development that violate the ABM Treaty, or any of 
these projected programs?
    Secretary Rumsfeld. Mr. Chairman, General Kadish is a fine 
officer. He was requested to come up and brief, and he did.
    Chairman Levin. By whom?
    Senator Warner. I think I was responsible.
    Secretary Rumsfeld. I do not recall.
    Chairman Levin. I think you offered him, by the way, and 
that is fine.
    Secretary Rumsfeld. I am delighted he did, and he knows 
what he is talking about, and at the moment he came up here he 
had a budget figure in mind, and he briefed a presentation 
which he tells me now the budget has been reduced on. I could 
be wrong on this.
    Chairman Levin. There were no budget figures that he 
briefed us on, Mr. Secretary.
    Secretary Rumsfeld. I did not say he did brief you on 
budget figures. I said his program was based on a budget in his 
thinking that he was planning his program on, and that budget, 
he tells me yesterday, has been adjusted.
    Chairman Levin. Which way?
    Secretary Rumsfeld. Down.
    Chairman Levin. Which means there is even less money than 
he presumably thought he had for 2002.
    Secretary Rumsfeld. Yes, that is correct.
    Chairman Levin. There is even less money.
    Secretary Rumsfeld. Even less money, exactly.
    Now, the next thing I would say is, I would repeat, he is a 
very fine officer. He is not a lawyer, and he is not the 
compliance officer, so he is not the person, in my personal 
view, to be advising the committee as to whether or not he 
thinks something he is doing conceivably could end up violating 
the treaty.
    Chairman Levin. End up in 2002? This is very important. You 
are asking us for budget dollars in 2002.
    Secretary Rumsfeld. I understand.
    Chairman Levin. We have to know, are any of those budget 
dollars going to violate the treaty? It is a fairly direct 
question. Are they, or not?
    Secretary Rumsfeld. I have said, not to my knowledge. I am 
a conservative person. It is conceivable that there are 
lawyers--indeed, there was one in the room yesterday who has 
different views from others, so it is--first of all, a treaty 
depends on historic practice, it depends on interpretations, it 
depends upon debatable legal concepts, and for me to sit here 
and tell a committee of the United States Senate that I, Don 
Rumsfeld, a nonlawyer, am telling you that I understand every 
conceivable thing that an R&D program could conceivably do, and 
that I can assure you that no lawyers are going to tell you 
that it might be in violation of something, I am not going to 
do it.
    Chairman Levin. You have not been asked to do it.
    Secretary Rumsfeld. I will not do it.
    Chairman Levin. You have not been asked to.
    Secretary Rumsfeld. Good, because I cannot.
    Chairman Levin. By the way, General Kadish did consult with 
lawyers. He is not a lawyer.
    Secretary Rumsfeld. Of course he did.
    Chairman Levin. He got legal advice.
    Secretary Rumsfeld. Of course he did.
    Chairman Levin. He gave us his conclusion, not based on 
legal advice, but on the advice of his compliance office and 
his lawyers.
    Your words that you just gave us, however, not to your 
knowledge, are the clearest indication that in your judgment 
there is nothing in the 2002 R&D budget for ballistic missile 
defense, in your judgment, that violates the ABM Treaty. Do I 
read you correctly? Have you reached a judgment or not?
    Secretary Rumsfeld. I have. Let me respond, and see if I 
can do it in a way that will add clarity to this.
    The first thing I would say is that the administration has 
no plans to do anything to violate the Treaty. Now, I do not 
know how I could be any clearer on that.
    Chairman Levin. That is fine.
    Secretary Rumsfeld. What the President intends to do is to 
have General Kadish proceed with a research and development 
program. One or more of the activities may, eventually will, 
the Good Lord willing, run up against the treaty and be a 
violation.
    Chairman Levin. But not in 2002.
    Secretary Rumsfeld. Before that happens, we would be told, 
and we would have been in discussions with the Russians, and we 
fully intend that we would have fashioned some sort of a 
framework to move beyond the treaty.
    Now, the reason I am being very careful in what I say is 
because I am a conservative person. If you went ahead in 
Alaska----
    Chairman Levin. Is there money for that in Alaska, in this 
budget?
    Secretary Rumsfeld. The budget has not been finalized 
because I have not been briefed on the R&D program under the 
new numbers of dollars.
    Chairman Levin. It has been submitted to us.
    Secretary Rumsfeld. I know, but you are talking about money 
for a program. There is money in the 2002 budget amendment for 
an R&D program for missile defense. The missile defense program 
itself, that General Kadish is working on, has not been 
finalized because we just got the number from the budget 
bureau, the Office of Management and Budget, and he just got a 
reduced number. He will then fashion that specific program and 
make a recommendation.
    Chairman Levin. To you.
    Secretary Rumsfeld. To me, exactly.
    Chairman Levin. Then when will we get it from you?
    Secretary Rumsfeld. When I get it.
    Chairman Levin. How many days? I mean, we are trying to 
make up a budget here. This is an important issue.
    Secretary Rumsfeld. I can tell you we have no intention of 
breaking the treaty, if that is the question.
    Now, is it possible someone could say, ``oh, if you went 
into Alaska and shipped the stuff there and cleared the site, 
and started to do any kind of an upgrade on that radar that is 
there,'' I, some lawyer, could say that that is not a test bed, 
it is a prototype, and therefore it would be in violation of 
the treaty. Could that happen? You bet.
    Chairman Levin. That a lawyer would say that, but it is not 
your judgment?
    Look, you have the responsibility as Secretary of Defense. 
We have a responsibility as people who authorize expenditures. 
We have to make a judgment the best we can. You have to make a 
judgment. There is a lot riding on this judgment, a lot riding 
on it, and we have to make an assessment, and you need to make 
an assessment, frankly. You need to make an assessment.
    If it is not your intention that any 2002 money violate the 
treaty in any of your R&D programs, your statement to that 
effect is very meaningful. We will reach our own judgment.
    Secretary Rumsfeld. All right, let me try it this way. The 
administration has no plans to violate the treaty or to break 
the law in 2002, 2003, 2010. What we intend to do is to have an 
R&D program, begin discussions with the Russians and establish 
a framework to move beyond the treaty, because the treaty 
inhibits the deployment and testing of ballistic missile 
defense, and the President wants to have ballistic missile 
defense.
    Chairman Levin. Senator Allard.
    Secretary Rumsfeld. Therefore, we do not intend to break it 
at any time, break the treaty, break the law.
    Chairman Levin. You are hoping to amend the treaty so you 
do not break it. My question is----
    Secretary Rumsfeld. Well, wait--no.
    Chairman Levin. We are going to keep asking.
    Secretary Rumsfeld. I see your point. Let me----
    Chairman Levin. We are going to keep asking the question, 
because we need an answer, the country needs an answer, the 
world needs an answer. Is there any money in the 2002 budget 
request which, for R&D programs, missile defense, would, in 
your judgment, violate the ABM Treaty? I am going to keep 
asking it. We need an answer, in your judgment.
    Secretary Rumsfeld. Let me try it--let me finish the 
thought, and maybe this will answer it.
    Violating the treaty means that the treaty still exists. As 
I understand the question, and what I have said is that the 
President fully intends to work with the Russians and fashion 
something that does not allow the constraints of the treaty to 
inhibit the development of missile defense, and if he is not 
able to, he has indicated he will give 6 months notice.
    I mean, that--and then he would not be breaking the treaty, 
or violating the treaty. He would be using the treaty provision 
that allows a country to give 6 months notice and step away 
from the treaty, and the hope is not to do that. The hope, 
obviously, is to fashion an arrangement with the Russians that 
is something that is acceptable to move beyond it.
    Chairman Levin. Thank you. Senator Allard.
    Senator Allard. Mr. Chairman, thank you very much, and I 
apologize, I was not here earlier, but a busy schedule dictated 
my absence for the first round of questioning. I appreciate the 
fact that you are giving me a shot here.
    I would like to move to the airborne laser, Mr. Secretary. 
According to my understanding, the supplemental includes about 
$153 million for the airborne laser, and there is full funding 
in the fiscal year 2002 budget. How high a priority is the 
airborne laser program for you and for the Department in 
regards to the missile defense program?
    Secretary Rumsfeld. I wish these answers were easy. I 
cannot characterize how high a priority it is. It is one of 8 
or 10 or 12 programs that General Kadish and the Ballistic 
Missile Defense Office has briefed us on a preliminary basis 
that are part of the things he would like to move forward on. 
He is now adjusting that program to fit his new budget mark.
    It is something that has been underway for sometime. It is 
something that, if I am not mistaken, is some way down the 
road. Whether or not it is going to be accelerated, it is, I 
think, something that is yet to be decided in the Department.
    Senator Allard. I want to be supportive in your missile 
defense efforts, and move in this direction. Overall, the 
ballistic missile defense budget will increase about $1 billion 
compared to last year. Some missile defense critics will no 
doubt argue that the increase is too large, and meeting other 
shortfalls in the Department, they will claim, deserves 
priority over missile defense. Can you tell me on what basis 
did you accord missile defense the priority it received in your 
budget proposal?
    Secretary Rumsfeld. I suppose it is safe to say that if one 
started out with one's first choice, most of the budgets and 
elements of the budget would be higher than they are. As in any 
organization and any budgeting process, you end up with making 
judgments and tradeoffs.
    At the present time, that budget is at $8.2 billion total, 
and that includes the theater missile defense as well as the 
national missile defense, including the airborne laser dollars. 
It is about 2.0 or 2.5 percent of the total budget. It 
compares, for example, with something like $11 billion in the 
aggregated terrorism number. It is higher than it was. It does 
not fund all the things that General Kadish had hoped to be 
able to fund, and it funds some of them on a somewhat slower 
basis.
    Senator Allard. Let me ask you this, do you think the 
threat in this area is growing greater than other areas of 
threat?
    Secretary Rumsfeld. I think that the threat of a major land 
conflict in Europe is very low. I think the threat of a major 
strategic nuclear exchange with Russia is very low.
    I think that the problem of proliferation and the 
advancement of technologies and the relaxed tension in the 
world has led to the availability of weapons of mass 
destruction and the ability to deliver them in a variety of 
ways. Because it is so difficult to cope with western armies, 
navies, and air forces, the nations that have an interest in 
dissuading us from doing things, and have an interest in 
imposing their will on their neighbors, have looked for these 
asymmetric threats from terrorism, cruise missiles, ballistic 
missiles, and I would guess down the road, cyber warfare as 
well, because we have vulnerabilities in those areas that are 
distinctive, compared to the vulnerabilities we have with 
respect to typical warfare.
    I would rank all of those as risks. The proliferation of 
cruise missiles is taking place. I worry a great deal about 
germ warfare and what we read in the intelligence reports about 
what is taking place in the world. There is no question that 
the number of nations that are getting ballistic missiles is 
growing, and I certainly rank the ballistic missile threat up 
among those asymmetric threats very high.
    Senator Allard. In regard to the ballistic missile defense 
program, maybe General Shelton or maybe somebody else on the 
panel would like to answer this question, but the budget 
structure has been substantially changed from last year from 
the one that focused on specific systems, such as national 
missile defense, Theater High-Altitude Area Defense (THAAD), 
and the Navy theater-wide, to one that focuses on phases of the 
ballistic missile during flight that our forces might 
intercept. Could you talk a little bit about the advantages of 
this restructuring?
    Secretary Rumsfeld. Actually, what happened was that 
General Kadish and various others have decided that 
reorganizing how that program should go forward led to the 
kinds of adjustments that you are talking about, and Dr. 
Zakheim can comment on it.
    Dr. Zakheim. Yes, sir. You are correct, Senator, that the 
general focus now is on the phases of flight: the initial 
phase, mid-course and terminal. There are several things that 
were done. Mature systems have been devolved to the services; 
the Army PAC-3 the Patriot upgrade; the Navy area-wide, which 
used to be known as Navy lower-tier; the international program 
we have with the Europeans, to which they attach high 
importance, the medium-range extended air defense system 
(MEADS).
    On the other hand, systems that were not as mature, and I 
include among those the airborne laser, which the Secretary 
mentioned, space-based laser, and space-based infrared system, 
have devolved to the management of General Kadish at the 
Ballistic Missile Defense Office. If you aggregate what General 
Kadish is essentially now dealing with in his R&D program, it 
is slightly over $7 billion.
    You mention THAAD. There is some program visibility for 
that. Those are being carried as projects within the 
overarching structure that I outlined.
    Senator Allard. Thank you. I see my time has expired.
    Chairman Levin. Senator McCain. Thank you.
    Senator McCain. Thank you, Mr. Chairman. Mr. Secretary, it 
has been a long afternoon for you, and I will try not to impose 
on your time too much longer.
    General Shelton, on September 27, 2000, you said that it is 
a real success story to go from $43 billion procurement 3 years 
ago to $60 billion in the 2001 budget, a significant 
achievement led by Secretary Cohen. Then you go on to say that 
the simple reality is that after 3 years of demanding and 
unanticipated military and humanitarian operations, we know 
that the $60 billion projected by the QDR will not be 
sufficient to sustain the force.
    I look at the procurement budget, fiscal year 2001, $62.1 
billion, fiscal year 2002, $61.6 billion, an actual decrease in 
procurement. How do you state on September 27 that $60 billion 
projected will not be sufficient to sustain the force and then 
come tell us that $62.1 and $61.6 are sufficient?
    General Shelton. Senator McCain, what I said was that in 
the 2002 budget the emphasis, of course, is sustained quality 
of life issues for the force. It has funded current readiness. 
In fact, it added $18 billion between 2001 and 2002.
    Senator McCain. I am talking about $60 billion projected 
for procurement.
    General Shelton. What I also said was, obviously the 
shortfall, if there is one in the 2002 budget, the place that 
it needs most work is in recapitalization and modernization, 
which maintains slightly over the $60 billion that is 
necessary, but not anywhere near what will be necessary to 
recapitalize, modernize, and transform the force for the 
future.
    That is going to have to be the answer--how much more is 
required over the $60 billion should be the answer that comes 
out of the QDR. What our strategy is going to be, what the 
force structure to support that strategy is going to be, and 
consequently how much additional money is going to be required 
to support the modernization and in the numbers of things and 
types of units that will be required to support the strategy. 
It obviously will be a lot more than $60 billion.
    Senator McCain. I will not belabor the point.
    Mr. Secretary, I was not here for your opening statement, 
but I read it, and I think it is a very powerful and important 
statement. I think it lays out our requirements and our needs 
as strongly as possible.
    Part of your statement is that we could do better with a 
round of base closing and adjustments that reduced unneeded 
facilities by, for example, 25 percent. We could focus the 
funds on facilities, et cetera. Without base closings, 
achieving the 67-year replacement rate would require an 
additional $7 billion annually.
    I take that to mean you are proposing a BRAC.
    Secretary Rumsfeld. We will be proposing something that 
people will call a BRAC. Whether it will fit the previous model 
or not, I do not know. We have people working on it right now, 
talking with people on the Hill. They will certainly be 
visiting with the leadership on this committee, with you, and 
those in the House.
    It is not something that I, personally, am delighted to be 
doing. It causes a lot of heartburn, pain, concern, anger, 
apprehension, fear, but we simply have to manage the money in 
this Department better than we are doing. BRAC is only one 
piece of it. There are a host of other things that we are 
prevented from doing that we need to be freed up to do.
    Senator McCain. I agree with you that it is one of many 
things, but I would assume that $7 billion a year is a fairly 
good chunk of some of the things we need to do.
    Secretary Rumsfeld. I do not know this because I have never 
been around for a BRAC, but I am told that problem with it is 
that the money does not start coming in until the fourth or 
fifth year.
    Senator McCain. Every year you wait, that is another year 
delay from the time that it does come in.
    Secretary Rumsfeld. Exactly.
    Senator McCain. My point is, I do not care whether you call 
it BRAC or not, but we have learned from bitter experience it 
has to be a deal where there is an up or down vote on the part 
of Congress.
    Secretary Rumsfeld. Yes, sir.
    Senator McCain. That has to be an integral part. I would 
also argue that we have to make sure that it is not 
politicized. It is the view of this Member, I do not speak for 
other Members of the Senate, that the BRAC closing round 
concerning McClellan Air Force Base and Kelly Air Force Base 
was politicized. There cannot be a taint of politicization, so 
we are going to have to tighten up that language.
    I just want to say, Mr. Secretary, I want to support you in 
that. I have been fighting for it a long time, and it is 
absolutely necessary. I have never been able to find any 
military expert who disagrees with the fact that we need a 
BRAC. I have not met a single one, and as we all know, they 
come in all sizes and shapes.
    But the fact is, we also need to look at depot maintenance, 
because a lot of depot maintenance today could be contracted 
out by civilian and competitive sources. If you feel, as I read 
in the media, that some B-1s need to be taken out of 
commission, or any other weapons system in order to modernize 
the force, and you come and make that argument here, I want to 
support you.
    The history of this Congress in recent years has been 
protection of depots, bases, and weapons systems while, 
unfortunately, men and women in the military are living in 
conditions that in many cases are unacceptable, and under 
deployment and operational requirements that have made it 
extremely difficult for us to recruit and maintain quality 
young men and women. I want to help you in this effort in any 
possible way that I can.
    I would like to add one additional comment, if I could. I 
do not believe that you are asking for enough money. I believe 
it is because, as you stated in print, there was so much money 
taken up in a tax cut that there is not money available. I am 
sure that you may have regretted the words, or maybe I 
misinterpreted them.
    Secretary Rumsfeld. I did not say that.
    Senator McCain. Well, I will get you the quote. It is a 
pretty good quote. [Laughter.]
    Secretary Rumsfeld. It does not sound like a good one to 
me. [Laughter.]
    Senator McCain. The fact is, there is not enough money for 
defense, medicare, and social security, and when you ask, as I 
have been told, for $32 billion and get $18 billion, or 
roughly, as the media reports, then I think it is very 
unfortunate. In fact, as long as I have been around here that 
has been the custom. It is driven by budgets rather than 
requirements, and when there is not money available, somehow 
that seems to be the case.
    I thank you, Mr. Secretary.
    Secretary Rumsfeld. May we just make one comment?
    Senator McCain. Would you respond? Yes, I would like to 
hear your response.
    Secretary Rumsfeld. On the depot issue, Dov Zakheim would 
like to comment on that.
    Dr. Zakheim. Senator, we do have an initiative specifically 
on the depot issue. It is one that essentially says if a depot 
has back orders, which means by definition they cannot deal 
with it now, and that is by their own definition, because it is 
a back order, then we would propose to contract out that work. 
That results in a savings of nearly $200 million, which we 
could then apply to other departmental activities, so that is a 
step in the direction that you are talking about, sir.
    Senator McCain. Did you want to respond?
    Secretary Rumsfeld. I would like to say thank you for your 
offer of assistance, and we will certainly appreciate that, and 
it is going to take a lot of assistance.
    Senator McCain. Thank you, Mr. Secretary.
    Senator Warner. I want to say with regard to BRAC, that I 
was a coauthor with others on these bills. As a matter of fact, 
I joined you one year on the BRAC before this politicization 
issue came along.
    Senator McCain is correct. I think the unanimous view among 
the professional military and others is that we have to reduce 
the infrastructure. I would hope that legislation will be 
brought up here in due course, and I want to support it.
    I would suggest, however, that we not get the depot issue 
tagged onto that one. If it is to be addressed, let us address 
the issues separately. I have been around long enough to know 
how trains run at this station. [Laughter.]
    You can catch one and get to where you want to go, but you 
can't load too many cars on it. With all due respect to my 
friend, if there is a depot question out there, maybe we ought 
to address it, but let us address it separately.
    Mr. Secretary, there have been some hearings in the House 
on the subject of Vieques. I asked the chairman to withhold 
hearings of this committee on that important issue. The fact 
that we have not held hearings should in no means indicate that 
Senator Inhofe, myself, and a number of others, it is 
bipartisan here, are not gravely concerned about the need to 
fully train our men and women of the Armed Forces for combat 
activities with live ammunition, under every circumstance 
possible that parallels those they would face in a combat 
situation.
    It is essential for many of our troops deploying to the 
gulf, because regrettably, in due course, they are often faced 
with hostile fire. Regrettably, they are constantly under a 
threat situation.
    I hope that we can work our way through that. I have not 
had a chance to study your responses to the House today, but I 
will do so. I do not know whether you wish to have this 
opportunity to tell our committee what you feel procedurally we 
should do to work on that. I presume it is a steady 
concentration of looking at alternative means to train our 
troops. On the question of the referendum, I want to be 
supportive of our President, but at the moment I think it is 
uncertain just how that legislation would move or not move, 
should it be brought to Congress.
    I have a suggestion, one that you do represent today, that 
you should press as hard as you can on finding alternative 
means to train our men and women of the Armed Forces, 
particularly those that are faced with deployments to the gulf 
region. Perhaps we can sit down quietly and work out in a 
bipartisan way some solutions to this problem. Is that a 
general summary of where you are on it?
    Secretary Rumsfeld. Yes, sir. There is no question that we 
have to redouble the efforts to find alternative location, or 
locations, plural, so that the men and women who go to the gulf 
and deploy to the east have the kind of training they need. We 
are hard at that task, and we look forward to working with you 
on the subject.
    Senator Warner. You say redouble the efforts. I have spent 
a good deal of time working on this together with Senator 
Inhofe, who certainly has spent an enormous amount of time on 
this issue. A conscientious effort has been made. I am sure 
General Shelton is ready to testify to that point, and we had 
two, independent groups that went out and looked at it. Am I 
not correct on that, General?
    General Shelton. Sir, you are correct, and that work 
continues today, as a matter of fact.
    Senator Warner. More emphasis is needed, but I want to say 
that the Navy Department, in my judgment, has conscientiously, 
in the last year, looked at those options very carefully.
    I would like to move to another subject, which is that I 
certainly commend our President. When he was a candidate and, 
indeed, now that he is President, he has recognized we have a 
situation here at home, where perhaps only in the times of 
World War II did we consider homeland defense. Under the 
leadership of our former Chairman Roberts, and now our new 
Chairman Landrieu, the Emerging Threats and Capabilities 
Subcommittee, which looks at the future threats to this Nation, 
is bearing down again on homeland defense. I will be 
scrutinizing your budget submission to make sure that it is 
adequate, because we have to prepare for an attack of a 
terrorist nature in cities here in the United States, and 
prepare this Nation's response.
    You came before the Chairman and Ranking Members of the 
Intelligence Committee, Armed Services Committee, Foreign 
Relations Committee, and the Appropriations Committee and gave 
us your thoughts on how you could marshall the resources of 
your Department to address this problem.
    Clearly, the lines of authority, the lines of 
responsibility and how we would respond can be improved. I hope 
you will take a leadership role in doing that, so it is better 
understood who has what responsibility, should a crisis hit us.
    Secretary Rumsfeld. Senator Warner, you know as well as any 
the problem is serious. It is not some distant thought, it is 
something that this country simply must address.
    It is also enormously complex. The Department of Defense, 
in people's minds, has the task of defending our country, and 
under the law, as we all know, the responsibilities are 
elsewhere. The Department of Defense is not a first responder 
with respect to the kinds of attacks you are talking about, 
here at the homeland.
    Senator Warner. The Posse Comitatus Act, which goes way 
back in our history and is a well-thought-out concept, stands 
as a barrier, and I think it is going to remain. I doubt if we 
can modify it, but the Department has enormous resources to 
bring to bear on a crisis. If we had 5,000 casualties, we would 
have to turn to the supplies within the Department to help that 
community instantly.
    Secretary Rumsfeld. You are exactly right. If something 
happened in the United States of America, notwithstanding the 
law, notwithstanding the way we are organized, the phone call 
would be right to the Pentagon. The Pentagon has the 
organization with the capabilities to deal with a major 
disruption from weapons of mass destruction in the United 
States of America. Yet our society is not organized so that the 
Pentagon has that responsibility. It does not, and as you said, 
the President has asked Vice President Cheney to address the 
issue and to help put some order and structure into it, which 
he is in the process of doing.
    Senator Warner. General Shelton.
    General Shelton. Senator Warner, I believe, about 2 years 
ago we gave a tasking to our Joint Forces Commander, General 
Kernan, and before that Admiral Gehman, in Norfolk to stand up 
Joint Task Force Civil Support. Its primary purpose was to make 
sure that within the Department, we knew where all of these 
resources that could assist whoever the lead Federal agency 
are. Whether it was the Federal Emergency Management Agency or 
some other organization, we would know that they were 
organized, had the right training, had the equipment, and would 
be able to move very rapidly in the event we had multiple 
locations that were hit simultaneously, not to take the lead, 
but to support whoever was in the lead, realizing that they 
would look to us to provide this type of support, as they 
normally do.
    Of course, in the counterterrorism business we have a 
world-class capabilities, but always in support of the 
Department of Justice, and again, with a waiver of posse 
comitatus by the President.
    Senator Warner. More needs to be done.
    I will pick up on two other points, Mr. Secretary. First is 
the stockpile stewardship program. While it is not under direct 
control of your Department, the readiness of the stockpile 
itself to some extent, impacts on the men and women of the 
Armed Forces who have to deal with nuclear weapons every day.
    I suggest to you that you begin to review that, because it 
concerns me, not only for the men and women of the Armed Forces 
and the civilians that have to deal with this arsenal, but also 
for the communities and the environs where they are housed. We 
have to make certain of the safety and reliability of these 
weapons. From a credibility standpoint if the reliability of 
our weapons is in question that bears directly on deterrence. 
If a potential enemy feels that our weapons have little value, 
then deterence goes.
    Secretary Rumsfeld. You are exactly right, there is no 
question that the safety and reliability of that stockpile is 
enormously important to the Department of Defense, as well as 
to the country. It is part of the Department of Energy, as you 
well know, and General Gordon has the responsibility 
specifically within the Department.
    He has a program. I have been briefed on it. In my view, it 
is a sensible program, a rational program. The problem that 
exists, of course, is like others. At what pace are you able to 
fund that program so that in fact you have a confidence level 
that you are dealing properly with safety and reliability?
    Senator Warner. I think you should fund it at the pace that 
technology can accept it, and judiciously and efficiently spend 
those dollars. We are coming down on a curve where the 
stockpile, by the very nature of its age, is beginning to raise 
potential questions of safety and credibility, and we are going 
to have to make the decision as a Nation whether we go into 
production on certain new weapons.
    Secretary Rumsfeld. Senator, that program has been 
underfunded for a series of years. It is just a brutal fact.
    Senator Warner. All right. I will address that later.
    Lastly, could you bring us up to date on the policy that 
our President has established together with NATO as to the 
utilization of NATO forces with respect to Macedonia. I believe 
our President has indicated that our forces would be part of 
that effort as NATO makes its decision. Is that generally 
correct?
    Secretary Rumsfeld. The circumstance is that the United 
States has, in the country of the former Yugoslavian Republic 
of Macedonia, somewhere between 400 and 700 U.S. military at 
any given time, depending on rotation. They have a variety of 
functions, but most of the functions relate to supporting the 
forces in Kosovo, which is, of course, just a short distance 
away.
    They have been there for a number of years now. They do 
some UAV work, they do some logistics work, and they do some 
transportation work. There is a very small unit that was there 
to assist the Government of Macedonia for a period, and I think 
that group left.
    General Shelton. Yes, sir.
    Secretary Rumsfeld. The situation in the country is very 
difficult. There have been decades of hostility between the 
Albanians and the rest of the population, as you know well. At 
the moment, the Albanian representatives are still part of the 
government. At the moment, most of the ethnic Albanians are 
still a part of the military, although some non-trivial number 
left within the last 7 days, departed the military, which was 
unfortunate.
    There are physical threats from Albanian extremists who are 
using force and violence against the parliament a short 
distance away, against the airport in Skopje, where our troops 
and our UAVs are located. So they are at risk. There have been 
a lot of so-called envoys. Secretary-General Robertson has been 
in and out several times. Solana has been in and out several 
times. Now, the French have appointed some man named Leotard 
who is going to be going in there.
    The government is young and it is facing a very difficult 
situation. They are not all in agreement, as anyone who reads 
the press can tell. There are some tensions between various 
members of the Macedonian Government. There is no way in the 
world to predict what the outcome will be, whether or not a 
deal will finally be arranged for a cease-fire.
    I will say that there recently has been something very good 
that has happened in the area, and that was when the ground 
safety zone actually was turned back over to the Serbs, and a 
great many weapons were turned in voluntarily. It was done 
peacefully, there was no violence, and it was exceedingly well 
done. It is possible that some good things can happen there. It 
is also possible that it can deteriorate rather rapidly. We had 
some buses that were assisting in moving some Albanians within 
the last 48 hours that were surrounded, and it could have 
deteriorated into a very difficult situation, very rapidly.
    Senator Warner. I hope that you will consult with Congress 
should it require putting our troops in that assignment into 
greater risk.
    Lastly, Mr. Secretary, this committee took several 
initiatives last year with regard to unmanned vehicles. I note 
that the Fiscal Year 2002 Budget Amendment has increased 
funding for several of these programs with the potential to 
transform the military. We commend you, and I hope it moves 
forward.
    I note the presence of my distinguished colleague from 
Alabama, who has returned. We are about to wrap up here. Do you 
wish to ask any questions?
    Senator Sessions. I have one brief series to ask. Mr. 
Secretary, we are in such a new era, it seems to me, in regards 
to Russia. I spent 2 weeks there as a private citizen in 1993, 
and the people are wonderful. They are our friends now. They 
are not our enemies, and we need to build on that. I applaud 
the President for doing so.
    It strikes me quite plainly that the ABM Treaty, which has 
been in effect since 1972, is not appropriate for today's 
world. We have threats of missile attacks from other nations 
that endanger American lives. I hope that our negotiations and 
our efforts to work with the Russians will succeed in getting 
them to agree to allow us to construct a national missile 
defense system.
    First of all, it is important to our national security. I 
know you believe that. Your bipartisan commission unanimously 
found that we were facing a threat to our Nation from a 
ballistic missile attack. I hope we can proceed on that because 
the treaty itself provides the United States a way out of it, 
with notice. It is not something that binds us forever.
    Certainly, the Russia that exists today is not the Soviet 
Union that we signed the treaty with. The problem is this: as I 
understand it, President Clinton instructed that the 
development of national missile defense be treaty-compliant. 
There are some ways to do that, but I have heard expert 
testimony, and I would ask if you or General Shelton would 
comment on it, that if we continue with that treaty-compliant 
approach it will delay the implementation of a good system. It 
will make the system more expensive, and at its conclusion, we 
will probably be less secure than if we proceeded outside the 
treaty.
    Secretary Rumsfeld. Senator, it is certainly my view that 
the way to develop the most effective and most cost-efficient 
ballistic missile defense is not to try to design something 
that fits in a treaty that prohibits you from having a 
ballistic missile defense.
    Senator Sessions. Well said. What is troubling me, Senator 
Warner, is that we have members of this Senate tying the hands 
of the President of the United States. They are saying 
basically to Russia, ``do not agree to this thing.'' If you do 
not agree to the President's request, we may not deploy the 
system, and I think that is tying the President's hands. That 
is not a bipartisan foreign policy that we are a part of.
    The President ran on this issue. It was something that he 
took his case to the American people on, and we voted on it, 
Mr. Secretary. We voted to deploy this. Maybe there is some 
disagreement about how fast we ought to deploy it, but there 
should not be disagreement in Congress, because we voted to 
deploy the system as soon as it was technologically feasible to 
do so.
    So I remain troubled that members of this body make 
statements suggesting that if the Russians hold out and fail to 
work out an agreement with the President, we are prohibited 
from protecting ourselves from missile attacks from rogue 
nations. Maybe you would want to comment on that.
    Secretary Rumsfeld. Senator, I thank you for your comment. 
As one of the individuals that has been asked to begin the 
process of meeting with the Russians to attempt to fashion some 
sort of a framework that would take us beyond the ABM Treaty, I 
have to admit that entering a negotiation where the Russian, 
the other side that you are dealing with, may have come to a 
conclusion that they have a veto over whether or not the United 
States of America should have a missile defense capability 
would be a terrible way to enter a negotiation.
    So anything that would contribute to the impression on the 
part of the Russians that the United States would like to have 
a ballistic missile defense capability, but we would not want 
it if they did not want us to have it, would clearly mean that 
you would not be in a negotiation. The odds are you would 
simply be stonewalled, and that is not how one wants to spend 
one's time.
    The NATO countries have properly told the Russians that 
they will not have a veto with respect to NATO enlargement, for 
example. There is no reason that Russia should have a veto over 
enlargement, and the President told Mr. Putin that. I mentioned 
that to Mr. Ivanov, the defense minister of Russia, and NATO 
itself has spoken on that subject. If they are not having a 
veto on NATO enlargement, I cannot imagine why anyone would 
want to hand them a veto with respect to a missile defense 
system that would protect the population of the United States 
of America, our deployed forces, and our friends and allies.
    Senator Sessions. Thank you, and thank you for having the 
courage to discuss this issue. I think as the American people 
become more aware of it they will be supportive, and you will 
find Congress supportive. I am sure they will be. We voted on 
it previously.
    General Shelton, let me express my appreciation for your 
service. You have testified so many times here, and it is an 
honor to have known you and worked with you. You have been 
truly committed to your Nation's strength and welfare, and we 
appreciate it very much.
    General Shelton. Thank you very much, Senator Sessions.
    Secretary Rumsfeld. Mr. Chairman, may I make a comment? I 
am a little concerned about all this praise for General 
Shelton. I expect to get 3\1/2\ more months work out of him. 
[Laughter.]
    I hope and pray that that is the case, and I would not want 
him to start mentally leaving, because we need this fine 
officer. He is doing a superb job for us.
    Senator Warner. We know him, and know him well. That will 
not occur.
    We have had an excellent hearing, Mr. Secretary, General 
Shelton, and Dr. Zakheim. Thank you, Senator, for your 
observations. I think we had a good, constructive dialogue on 
missile defense here today. I hope no comments by any of our 
colleagues would be construed to suggest that it would 
undermine the President's ability to continue to consult with 
our allies and eventually to sit down and work out a new 
framework with Russia. I think we are all supportive of the 
President in his endeavors to do that. Certainly, I am.
    I thank you, Mr. Secretary.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                                START II

    1. Senator Levin. Secretary Rumsfeld, section 1302 of the National 
Defense Authorization Act for Fiscal Year 1998 requires the U.S. to 
remain at START I strategic force structure levels until such time as 
START II enters into force. Will you be asking Congress to repeal this 
provision of the law?
    Secretary Rumsfeld. Yes, I will. The DOD supports repeal of Section 
1302 in its entirety in order to maintain the President's prerogative 
in setting strategic force structure for the defense of the United 
States. As currently written, Section 1302 prohibits the obligation of 
funds for the retirement or dismantlement, or the preparations for 
retirement or dismantlement, of strategic nuclear delivery systems 
until entry into force of the START II Treaty. Unnecessarily linking 
reductions in U.S. strategic nuclear delivery systems to START II entry 
into force severely limits the President's flexibility and could delay 
implementation of important parts of the President's overall deterrent 
strategy. The repeal of this legislation would therefore allow the 
President to make the necessary changes and modifications to strategic 
nuclear force structure in support of his comprehensive review of US 
deterrence requirements.

                           TRIDENT SUBMARINE

    2. Senator Levin. Secretary Rumsfeld, I understand the amended 
budget requests funding to maintain the option to convert two of the 
four Trident submarines excess to strategic requirements, to a 
conventional non-nuclear role. Have you made a decision as to whether 
any such conversion would or would not allow the submarine to be 
excluded from START II accounting rules?
    Secretary Rumsfeld. Our intention is for the Nuclear-Powered Cruise 
Missile Attack Submarine (SSGN) to retain its D5 launch tube and remain 
accountable under current START Treaty rules. To convert SSGN by 
removing the D5 tubes completely and replacing it with a whole new hull 
section would be prohibitive from a cost perspective and would 
approximately double the conversion costs. Although accountable under 
START I, the only applicable strategic nuclear arms treaty currently in 
force, the ``phantom warheads'' associated with SSGN would not cause 
the United States to exceed limits. SSGN would have to be addressed as 
an exemption in any future arms control agreement.

                                VIEQUES

    3a. Senator Levin. Secretary Rumsfeld, you have been quoted as 
saying you are in ``full agreement'' with Secretary England's recent 
proposal to leave Vieques by 2003 and cancel the scheduled referendum 
mandated by last year's defense authorization bill.
    Did you participate in and approve this decision? In other words, 
did you tell Secretary England he needed your approval before proposing 
this to White House officials, and did he have your approval before he 
did so?
    When is the administration going to submit your legislative 
proposal regarding the referendum?
    Was your agreement with Secretary England's proposal to cancel the 
referendum and make a commitment now to leave Vieques based on an 
understanding that a suitable alternative exists? If so, can you tell 
us where that new training area is located?
    Secretary Rumsfeld. The effective training for our sailors and 
marines is a matter most appropriately handled by the Department of the 
Navy. The Secretary of the Navy has the best vantage point to make 
these decisions and he made it. We did discuss the Vieques range issue 
before he briefed the White House and Congress. I did not tell the 
Secretary of the Navy how to make the decision or specify the mechanics 
of briefing it outside of the DOD.
    The National Defense Authorization Act for Fiscal Year 2001, 
requiring a referendum by the citizens of the island of Vieques to 
decide whether the Navy can continue to train there, has put Navy in 
the challenging situation of having training matters effecting fleet 
readiness being decided by local vote. Rather than initiating a 
precedent where our training range needs are submitted to a plebiscite, 
we decided to pursue aggressively both legislative relief from the 
referendum and suitable training alternatives now. We expect to submit 
the proposal for legislative relief from the November referendum soon.
    There are currently no singular satisfactory alternatives to 
Vieques. Between now and May 2003, we will work to develop the best 
possible combination of methods and places to replace Vieques. The 
Secretary of the Navy has already directed a study of alternative with 
initial ideas due to him this fall.

    3b. Senator Levin. General Shelton, did you support the decision to 
leave Vieques without trying to win the referendum that had been agreed 
to?
    General Shelton. The training and equipping of our forces is a 
Title 10 responsibility of each of the Services. In this particular 
case, the Secretary of the Navy decided to seek legislative relief from 
the referendum, but in the interim to do all the Navy can do to win 
should the referendum occur. I support his position.

    3c. Senator Levin. General Shelton, the Navy has consistently 
stated that they cannot find a suitable replacement for Vieques. Do you 
disagree with their assessment, or has their assessment changed your 
knowledge?
    General Shelton. My primary concern is to provide trained and ready 
forces to the warfighting commanders in chief, and where that required 
training is performed is not an overriding issue. Navy leadership has 
said that they will provide comparable, not necessarily identical, 
training opportunities for the East Coast Battle Groups, and are 
currently pursuing alternative training methods and locations to ensure 
future battle groups continue to be combat ready for deployment.

    3d. Senator Levin. Last week you said three alternative sites were 
being considered. Can you tell what the three locations you referred to 
are?
    General Shelton. I was referring to the Navy examining training 
opportunities in the Gulf region, in Texas and North Carolina, among 
others.

                             NATIONAL GUARD

    4. Senator Levin. Army and Air National Guard requirements are 
traditionally underfunded in the Department of Defense budget. What 
strategy have you employed to ensure that the resourcing of the 
National Guard is commensurate with its missions?
    What do you envision as the future missions of the National Guard?
    Secretary Rumsfeld. The resourcing of Army and Air National Guard 
units, fleet modernization, and new missions are the responsibility of 
the service secretaries. DOD's oversight of the process assures unit 
resourcing commensurate with missioning within overall DOD fiscal 
constraints. Active, Guard, and Reserve units are addressed in our 
Total Force planning for the present and into the future. Please be 
assured that the Army and Air National Guard and all Reserve Components 
will continue to be full partners with their active counterparts, and 
their missions (current and future) will reflect that relationship.

                               READINESS

    5. Senator Levin. General Shelton, in the fall of 1998 you told 
this committee that ``we have `nosed over' and our readiness is 
descending.'' When you appeared before this committee last September 
you stated that ``we have made considerable progress these past 2 years 
in several key areas'' such as ``arresting the decline in near-term 
readiness.'' What is your assessment of the morale of our forces, 
including the retention situation in fiscal year 2001, and of the 
readiness of our forces to carry out their missions? 
    General Shelton. Even though there are still some trouble spots, 
overall we are doing well. With the significant support of Congress, 
this year provided increased authority for retention bonuses, increases 
in pay and compensation, and enhancements in quality-of-life areas to 
include housing and health care. These continued improvements directly 
help our retention effort, morale of our troops, and more importantly, 
demonstrates to our Service members that we care about them, their 
families, and their quality of life.
    I am pleased to report that retention is up across the board; 
however, we are not out of the woods yet. It appears the Air Force will 
miss its aggregate retention goals. Although their overall retention 
picture looks better, particularly in first-term retention, the loss of 
second-term and career Service members has had an affect on the 
readiness of the Service. Additionally, we continue to see many of our 
senior enlisted and junior officers leaving each of the Services. While 
the Services' overall retention is good, shortages still exist in 
individual skills such as information technology; air traffic 
controllers, pilots, and other high tech skills--the same skills that 
are in high demand in the private sector. The common reasons members 
leave the military are lack of adequate compensation and high OPTEMPO.
    In terms of readiness I'm proud to report that our soldiers, 
sailors, airmen, and marines remain ready to accomplish their assigned 
wartime mission(s). However, several commanders in chief (CINCs) and 
the Services continue to highlight in the Joint Monthly Readiness 
Review the impact that lower than desired retention rates have on their 
readiness . . . i.e. shortages of experienced personnel. Continued 
congressional support is critical to resolving these readiness 
concerns. Our long-term goal is to enhance the quality of life of those 
who have chosen to defend their country, ultimately ensuring our force 
remains both highly motivated and highly trained.
    As in the past, continued congressional support will allow us to 
achieve higher levels of morale and readiness necessary to maintain the 
premier military force in the world.

                                 ______
                                 
              Questions Submitted by Senator Jean Carnahan

                          AIRLIFT CAPABILITIES

    6a. Senator Carnahan. Secretary Rumsfeld, in April, General 
Robertson, head of U.S. Transportation Command, testified before our 
Subcommittee on Seapower. He stated that current U.S. operations 
required a massive increase in airlift capabilities. Then just this 
Tuesday, General Robertson announced that the military needs at least 
60 more C-17 transports to meet its current requirements. The 
President's proposed budget seems to be addressing this need, with a 
requirement of 15 aircraft.
    Secretary Rumsfeld, can you discuss how such an initiative might 
address a possible strategic shift to Asia and help in the rapid 
movement of new Army brigades?
    Secretary Rumsfeld. The Army strongly supports the proposed 60 
additional C-17 aircraft recommended by General Robertson, regardless 
of a possible strategy shift to Asia. This figure is consistent with 
the 54.5 million ton miles per day (MTM/D) as recommended by the 
Mobility Requirements Study 2005 (MRS-05). Strategic airlift is vital 
to the Army's strategic responsiveness goals of a brigade anywhere in 
the world in 96 hours, a division in 120 hours, and 5 divisions in 30 
days. The C-17 in particular is crucial to achieving strategic surprise 
anywhere in the world with decisive ground combat power to influence 
the battle early on as opposed to reacting to an opponent's strategic 
initiative. The Army's Interim and Objective forces will be lighter and 
smaller than current legacy heavy divisions and therefore more rapidly 
deployable. The vehicles supporting these new organizations are being 
designed to fit inside a C-130 for tactical movement within any theater 
of operations. From a strategic perspective, the C-17 can maximize 
delivery times by delivering much larger cargo loads directly into a 
theater. The C-17 has the same small and austere airfield (SAAF) 
landing capability as the C-130, but with a significantly greater cargo 
capacity. One more advantage of the C-17 is its unique ability to 
leverage maximum on ground (MOG). MOG is a constraint at any aerial 
port of debarkation (APOD) and is determined by the sufficiency of the 
airfield's infrastructure to land, taxi, park, offload, refuel and 
maintain aircraft simultaneously. The C-17 optimizes MOG with its 
ability to back-up, self-load and provide more throughput delivered 
with less time on the ground.
    The operational readiness rate of the C-17 combined with its 
performance parameters to date, make it the airframe of choice to 
rapidly deploy America's Army anywhere in the world expeditiously. Many 
do not realize that strategic airlift today is a scarce resource, which 
is heavily competed for early in any deployment sequence. For example, 
the United States Air Force (USAF) requires nearly 75 percent of the 
entire airlift fleet to move its bare-base sets and Aerospace 
Expeditionary Forces during the first several weeks of deployment. The 
Army requirement to deploy an IBCT in 96 hours will take on the order 
of 250 C-17 equivalent missions. Additionally, the USMC has a 
requirement similar to the Army's to deploy and activate one Maritime 
Prepositioning Ship (MPS) Squadron. The C-17 is also a high demand item 
for CINCs in the execution of their peacetime theater engagement plans. 
The utility of the C-17 to carry outsize and oversize military 
equipment over strategic distances and then land on SAAF in theater 
make it an invaluable asset to all CINCs and Services. During the 
period fiscal year 1996-2002, surge sealift will realize a 135 percent 
increase while Army prepositioned stocks afloat will increase 126 
percent. Unfortunately, strategic airlift will not have increased at 
all from fiscal year 1996 out to fiscal year 2006 even after the 134 
authorized C-17s are in service. The 120th C-17 will be delivered in 
2004 and the 134th in 2005. With an average annual production rate of 
15 C-17s, and even with decisive action today, the additional 60 would 
not be fully realized until 2009. During the interim, as we continue to 
retire the C-141 fleet and experience continued poor mission 
reliability of the C-5 fleet, our strategic airlift capacity will only 
get worse before it gets better. The 60 additional C-17s recommended by 
General Robertson--over and above the 134 originally authorized--will 
go far in balancing our strategic airlift capability with the actual 
requirement as identified in MRS-05. Until then, however, the actual 
airlift throughput capacity will diminish or at best remain static.

    6b. Senator Carnahan. General Shelton, can you elaborate on these 
comments?
    General Shelton. Yes. Part of your question applies to a possible 
shift of our strategic focus. The United States has had strategic 
interests in Asia before and after World War II. We have political, 
economic, and military allies and friends with whom we have cooperated 
for many years. The current or future security environment will dictate 
whether we need to have a region of primary focus, but it will not 
suggest that we abandon our commitments to our other allies. As 
mentioned previously, the new defense strategy is not finalized, so it 
would be premature for me to be any more specific about our strategic 
focus at this time.
    The MRS-05 study shows with great fidelity that to meet our 
Nation's contingencies, we must increase our airlift capability to the 
Joint Chiefs `agreed-upon' 54.5 MTM/day as a minimum. Please remember 
that 54.5 MTM/D still puts us at moderate risk, any less capability and 
we enter the high-risk category. The best way for us to accomplish this 
is to purchase additional C-17s and modernize the C-5. The C-17 has 
continued to meet and exceed our expectations as our military's new 
core airlifter. Programmatically, the time is now to execute a follow-
on multi-year contract; otherwise Boeing and its sub-contractors will 
begin shutting down the production line. If we delay much longer, the 
cost of additional C-17s is going to become prohibitively expensive. A 
shift in strategies toward Asia does not invalidate MRS-05 conclusions, 
nor does Service transformation efforts. A more Asia-centric defense 
strategy naturally carries with it greater deployment distances from 
the continental United States (CONUS), keeping the airlift requirement 
high. Service transformation may mean lighter, leaner, and more lethal 
but it is also means faster. With the lighter forces requiring a faster 
deployment, airlift rate of delivery increases and offsets the 
reduction in total tonnage delivered.
    The 15 C-17s in the President's proposed budget do not address the 
need for 60 additional C-17s. Those aircraft are being purchased as 
part of the original 120 aircraft multi-year contract. In recent 
budgets, 14 additional C-17s were authorized to support the Special 
Operations mission. In the President's proposed budget we have added 3 
more C-17s to continue addressing the airlift shortfall (if approved, 
the total C-17 buy will then be 137). Again, a firm commitment to 
acquire a total of 180 C-17s is critical. That would allow us to 
purchase the additional aircraft already on the books and 40+ more as a 
60 aircraft multi-year, significantly reducing cost.

                             BASE STRUCTURE

    7. Senator Carnahan. Secretary Rumsfeld, we have received limited 
information about a new program that the Pentagon is proposing, called 
the Efficient Facilities Initiative (EFI). As I understand it, this 
program has the same objectives as Base Realignment and Closure (BRAC). 
General Shelton's statement seemed to endorse another BRAC round, 
indicating that the Defense Department is operating at 23 percent 
excess base capacity in the United States.
    Could you explain the difference between the program being 
considered by the administration and the BRAC rounds conducted in the 
past?
    Mr. Secretary, there is great interest in this subject on our bases 
and in our communities. We were advised by the Comptroller about the 
EFI during our discussions about the 2002 budget. When do you plan to 
advise this committee as to whether the administration proposes to 
reduce the base structure in the coming year?
    Secretary Rumsfeld. The Efficient Facilities Initiative that we are 
developing supports the Department's efforts to transform its 
facilities to meet the challenges of the new century. Three main 
components of this initiative are: authorization of an additional round 
of base closures and realignments in 2003; authorization of significant 
improvements in the existing base closure process; and authorization of 
a set of tools for the efficient operation of enduring military 
installations.
    While using essentially the same process as has been used 
successfully before, the proposal would better ensure the primacy of 
military value in the selection and execution of base closure and 
realignment decisions. It would add authority to better harness the 
strength and creativity of the private sector to facilitate 
environmental restoration. This process would also continue the 
Department's no-cost economic development conveyance authority to 
reinvest in the economic redevelopment of the installation and the 
surrounding community.
    Additionally, this initiative would add a new section to Title 10, 
United States Code, providing specific authorities that permit the 
military departments to explore ways of supporting its missions and 
people at more effectively, more efficiently and at less cost while 
maintaining its operational readiness. It is a collection of innovative 
authorities for the secretaries of the military departments to partner 
with local communities for the ownership, operation, and maintenance of 
an installation. This concept has been tested at Brooks Air Force Base 
in San Antonio, TX, under a pilot program with promising success. Our 
proposal would permanently authorize this program and make it available 
to all the military departments.
    Our goal is to submit this EFI to Congress before the August 
recess.

                      WEAPONS OF MASS DESTRUCTION

    8. Senator Carnahan. General Shelton, in your last appearance 
before this committee, you and the Secretary emphasized emerging 
threats posed by chemical, biological, and nuclear weapons around the 
globe. I believe, as you do, that these threats remain imminent. Even 
as we plan a long term strategy for dealing with Weapons of Mass 
Destruction (WMD), it is essential that our troops remain sufficiently 
protected from chemical/biological agents. I hope that the fiscal year 
2002 defense budget will sufficiency equip our troops with adequate 
protection to deploy in a contaminated environment. Has the Pentagon 
sought to modernize its defenses against chemical and biological agents 
in the short term? We have heard a lot about new approaches to 
examining the ballistic missile threat to the United States and its 
allies. I share the Secretary's concerns over this threat, and support 
research, development, and testing for adequate defenses. I also 
understand that you have testified before this committee to illustrate 
the fact that chemical and biological agents pose a far more imminent 
threat than most other types of WMD attacks. Do you anticipate 
substantial increases in long term investments in chemical/biological 
defenses equivalent to other investments in WMD defense?
    General Shelton. Our troops are equipped with the most modern 
defense equipment capable of providing more than adequate protection 
against traditional chemical and biological warfare agent attacks. The 
President's Budget will provide improved chemical point and standoff 
detection capabilities, and continue research to improve protective 
ensembles and masks, medical chemical and biological countermeasures, 
and decontamination technologies. Always cognizant of emerging chemical 
and biological warfare threats, we continue to modernize and upgrade 
our equipment to maintain the highest standards of protection and to 
meet the challenge of future military operations. The DOD Chemical and 
Biological Defense Program is committed to maintaining the proper 
balance between the fielding of state-of-the-art equipment and 
continued investments in science and technology programs. The ongoing 
QDR is assessing our future requirements for countering nuclear, 
biological, and chemical weapons and means of delivery to include 
passive defense capabilities, both for military operations overseas and 
in support of civil authorities.

                           RESERVE COMPONENT

    9a. Senator Carnahan. General Shelton, can you describe the 
expansion of our Reserve components' role in the ``total force'' since 
the Gulf War ended in 1991.
    Are there any DOD plans to address health care and other benefits 
for reservists in recognition of their increasing contributions to the 
defense of our Nation?
    General Shelton. The Department of Defense has actively pursued 
equitable health care benefits for Reserve component members 
commensurate with their increased contribution to Total Force missions 
and their potential for risk and exposure to harm. With the support of 
Congress, health care protections have been expanded to ensure we are 
able to provide medical and dental care for a member who is injured or 
becomes ill while performing military duty. The law was also amended to 
ensure the family of Reserve member has access to the military health 
care system when the member is retained on active duty for treatment of 
or recovery from a service connected injury or illness. The recently 
expanded TRICARE Dental Program offers reservists a comprehensive, 
affordable and portable dental program that provides a uniform benefit 
supported by a robust and stable dental provider network. It also 
offers a family member option, not previously available to reservists.
    DOD also plans to initiate a contract study to specifically assess 
the current health coverage experienced by reserve families. When the 
reservist is ordered to active duty for greater than 30 days, cost-
effective options may be considered to lessen the burden on reservists 
and their families and the implications for Force Health Protection and 
the medical readiness of Reserve personnel.

                              HEALTH CARE

    9b. Senator Carnahan. General Shelton, are there any DOD plans to 
address health care and other benefits for reservists in recognition of 
their increasing contributions to the defense of our Nation?
    General Shelton. The Department has actively pursued equitable 
health care benefits for Reserve component members commensurate with 
their increased contribution to Total Force missions and their 
potential for risk and exposure to harm. With the support of Congress, 
health care protections have been expanded to ensure we are able to 
provide medical and dental care for a member who is injured or becomes 
ill while performing military duty. The law was also amended to ensure 
the family of a Guard and Reserve member has access to the military 
health care system when the member is retained on active duty for 
treatment of or recovery from a service-connected injury or illness.
    The recently expanded TRICARE Dental Program offers reservists a 
comprehensive, affordable and portable dental program that provides a 
uniform benefit supported by a robust and stable dental provider 
network. It also offers a family member option, not previously 
available to reservists.
    The Department also plans to initiate a contract study to 
specifically assess the current health coverage provided to Reserve 
component members and their families, to identify new options that 
might be more cost effective, and to evaluate the likely response of 
Reserve component members to these new approaches. The project will 
consider such factors as healthcare for families of reservists when the 
reservist is not on Active Duty; the disruption and expense of 
healthcare coverage experienced by reserve families when the reservist 
is ordered to active duty for greater than 30 days; cost-effective 
options that may be considered to lessen the burden on reservists and 
their families; and the implications for Force Health Protection and 
the medical readiness of Reserve personnel.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                             FAMILY HOUSING

    10. Senator Thurmond. Secretary Rumsfeld, the fiscal year 2002 
budget amendment provides an additional $400 million for family housing 
construction, of which I understand 80 percent must be dedicated toward 
the housing privatization initiative.
    If you can sustain this level of funding for family housing, will 
you achieve the Department's 2010 goal for fixing the housing problem?
    Secretary Rumsfeld. Currently, each service is pursuing varied 
levels of housing privatization. The Department is working with the 
services to increase the rate of privatization, where it makes economic 
sense, to better leverage the resources we ask for in annual budget 
submissions. Were the Department to receive funding above the current 
program levels in its outyear program, the Department, overall, would 
not only meet the 2010 goal, but would be able to eliminate all our 
inadequate housing prior to 2010. The extent to which the military 
services are able to privatize family housing is another key factor in 
achieving the 2010 goal.

                           RESERVE COMPONENT

    11. Senator Thurmond. Secretary Rumsfeld, historically, funding for 
the Reserve component military construction program has been at a level 
of $50 million for the Army and Air National Guard and much less for 
the other Reserve components. As a result, their aging facilities are 
in worse shape than the Active components.
    Does your budget contemplate bringing the Reserve components up to 
the 67-year replacement standard?
    Secretary Rumsfeld. The fiscal year 2002 Reserve component military 
construction (MILCON) President's budget of $615 million is the highest 
in over 20 years and represents approximately 6 percent of the total 
Fiscal Year 2002 MILCON request of $9.9 billion. The fiscal year 2002 
budget additions represent an emergency ``down payment'' to begin 
restoring the readiness of facilities rated C-3 and C-4. The 
allocations for the active and Reserve components were, therefore, 
based on readiness ratings rather than on the 67-year recapitalization 
goal. The Reserve components received 20 percent of the additional 
fiscal year 2002 resources. The goal of future budgets is a Department-
wide 67-year recapitalization cycle for all components, Active, Guard, 
and Reserve, as well as Defense Agencies.

                           MANAGEMENT REFORMS

    12. Senator Thurmond. Secretary Rumsfeld, according to the briefing 
information I have received thus far, you plan to save $1 billion by 
implementing a series of management reforms and initiatives. 
Additionally, in a recent interview, you described your vision of 
saving as much as $10 to $15 billion per year through additional 
acquisition and management reforms. Could you briefly discuss your 
vision of these future reforms in detail?
    Secretary Rumsfeld. On June 18, 2001, I announced the formation of 
two new internal management committees that will take action to improve 
the Department's overall business practices and transform the military 
into a 21st century fighting force: a Senior Executive Committee (SEC) 
and a Business Initiative Council (BIC). The mission of the BIC is to 
improve the efficiency of the Department of Defense business operations 
by identifying and implementing business reform actions that allow 
savings to be reallocated to higher priority efforts (i.e., people, 
readiness, modernization, and transformation). Such savings will be 
retained by the services/agencies for their reallocation.
    Past studies have already pointed the way to many beneficial 
reforms. We plan to begin by drawing upon the recommendations of those 
studies, and then moving quickly toward their implementation, as well 
as re-enforcing promising reforms that are underway.
    The functional leadership and expertise from both the business and 
operational communities of the Department, Joint Staff, and the 
Services will be called upon to examine and recommend where we should 
devote our energies. The Joint Staff and the Secretaries of the 
Military Departments have joined me and pledged their commitment to 
provide the steadfast leadership to improve the DOD's business 
practices.

                              MX MISSILES

    13. Senator Thurmond. Secretary Rumsfeld, I understand your 
decision to retire the 50 MX missiles as an economic issue. However, I 
am concerned that it will affect on our ability to negotiate further 
cuts in Russia's nuclear arsenal.
    What were the considerations regarding our overall nuclear arms 
reduction negotiations when you decided to retire the MX missiles?
    Secretary Rumsfeld. In our on-going effort to properly size and 
configure our strategic nuclear forces to deal with the deterrent tasks 
of a post-Cold War world, we have determined after careful study that 
now is the time to retire our 50-missile MX force. This decision is 
consistent with our move toward a new post-Cold War framework and our 
effort to reduce the number of American nuclear weapons to the lowest 
possible number consistent with our national security and our 
commitments to our allies. In our view, such changes to our nuclear 
force posture should not require years and years of detailed 
negotiations under an out-moded, Cold War-style arms control process. 
There is an inherent contradiction in attempting to improve U.S.-
Russian political relations and enhance strategic stability by 
remaining committed to the Cold War approach to arms control, a 
fundamentally adversarial approach. In 1991, the United States invited 
the Soviet Union to join it in removing thousands of tactical nuclear 
weapons from deployment. Huge reductions were achieved in a matter of 
months, making the world much safer, more quickly. Similarly, in the 
area of strategic nuclear weapons, we should invite the Russian 
government to accept the new vision put forward by the President, and 
act on it. In retiring the Peacekeeper missile force, we have an 
opportunity, to lead by example, to a safer world. It is in our best 
interest and the best interest of the world to take this step.

                             INFRASTRUCTURE

    14. Senator Thurmond. Secretary Rumsfeld, one of the stated fiscal 
year 2002 goals is to streamline and upgrade DOD infrastructure. 
Although the budget reflects the funding to upgrade the infrastructure, 
there is no visibility on how you plan to streamline the 
infrastructure.
    Please provide some specifics on how you plan to streamline the 
infrastructure.
    Secretary Rumsfeld. The Department intends to streamline its 
infrastructure by seeking authority to conduct one additional round of 
base closure and realignment beginning in fiscal year 2003. The 
Department plans on submitting its request as a legislative proposal 
for fiscal year 2002 under the title of Efficient Facilities Initiative 
(EFI). If legislative authority for EFI is provided in fiscal year 
2002, the Department will request funding in the fiscal year 2004 
budget submission to begin implementation of approved base closures and 
realignments.
    EFI is essential to re-shape and properly match installations' 
capabilities with changing military operational needs and to improve 
installation support for readiness. Strategies for privatization, 
competitive sourcing, and housing will be better formulated once 
decisions are made to eliminate unnecessary infrastructure. The 
Department cannot afford to maintain excess infrastructure while 
modernizing its weapons and increasing benefits. While savings will be 
significant and reinvested for other priority needs, an equally 
important message, is that EFI is an integral part of the military 
transformation occurring in all the Services.

                            GOVERNMENT JOBS

    15. Senator Thurmond. Secretary Rumsfeld, I understand that the 
Office of Management and Budget ordered agencies to offer for 
competition at least 5 percent of government jobs considered commercial 
in nature. The directive also established a deadline of October 2002 to 
complete this task.
    What are the implications of this directive on the Department of 
Defense and how do you plan to accomplish this task?
    Secretary Rumsfeld. Through the past several years the Defense 
Department has managed the most robust program of competitions of 
government-performed commercial type activities among all the Federal 
Agencies. The competitions, performed under the procedures identified 
in Office of Management and Budget Circular A-76, take on average 2 
years to complete. Therefore, most of those that will be completed by 
October 2002 were already initiated by October 2000 and constitute part 
of our ongoing program. While our current projections indicate that 
those that will complete during fiscal year 2002 alone will fall 
modestly shy of 5 percent, the cumulative competitions between fiscal 
year 1999 and fiscal year 2002 will be far in excess of the 5 percent 
target.

                             STRATEGIC LIFT

    16. Senator Thurmond. General Shelton, in your prepared statement 
you indicate: ``Congressional support of strategic lift is needed if we 
are to build a national mobility capability sufficient for our current 
and future needs.'' What are the specific programs for which you are 
seeking support?
    General Shelton. Our Strategic Mobility Triad is the central 
component of our strategy to respond around the world. The triad 
consists of strategic airlift, strategic sealift, and pre-positioning. 
I will address each portion of the triad that could benefit from your 
support, as well as associated infrastructure issues.
Strategic Airlift
        <bullet> Acquisition and sustainment for the full fleet of C-
        17s: fund the full complement of C-17s required to attain 
        strategic airlift requirement identified by MRS-05/QDR and 
        correct sustainment shortfalls for the currently authorized C-
        17 fleet.
        <bullet> C-5 Modernization: fund Avionics Modernization Program 
        (AMP) and Reliability Enhancement and Re-engining Program 
        (RERP). AMP and RERP are needed to improve the C-5 mission 
        capable rate, to allow us to improve the oversize and outsize 
        requirements. AMP increases navigational safety and complies 
        with new internationally mandated Global Air Traffic Management 
        standards--ensuring continued access to worldwide air routes. 
        RERP will significantly improve mission capable rates through a 
        one-time upgrade of aircraft structure, engines, fuel system, 
        environmental system, flight controls, hydraulic system, 
        electrical system, pneumatic system, and landing gear.
        <bullet> Large Aircraft Defensive Systems (LADS): fund Air 
        Mobility Command's (AMC) Large Aircraft Infrared 
        Countermeasures (LAIRCM) system. The system is designed to 
        protect critical strategic aircraft from lethal Man Portable 
        Air Defensive Systems (MANPADS) in Third World and terrorist 
        areas. LADS provides next generation defensive capabilities to 
        reduce vulnerability as these aircraft face increasingly 
        sophisticated portable anti-aircraft systems. The current AMC 
        program calls for the outfitting of a 79-aircraft Small-Scale 
        Contingency (SSC) complement, consisting of C-17s, C-5s, C-130s 
        and KC-135s.
        <bullet> Air Refueling: address aircrew and maintenance 
        shortfalls in the KC-135 fleet. An AMC initiative to fill the 
        additional 75 aircrew and 601 maintenance positions is not 
        funded. Without full funding to correct these shortfalls, our 
        ability to operate in a timely and flexible manner across the 
        full spectrum of contingencies will be severely limited.
        <bullet> Materials Handling Equipment (MHE): The modernization 
        of our MHE fleet consists of Tunner (60,000) loaders and Next 
        Generation Small Loader (NGSL) (25,000) loaders. Both loaders 
        are able to service all cargo aircraft, especially the Civil 
        Reserve Air Fleet (CRAF) aircraft with their 18.5-foot upper 
        cargo decks. The Tunner lacks the funding for the purchase and 
        sustainment of the final 38 units. The NGSL is fully funded, 
        but has a shortfall in sustainment funding.
Strategic Sealift
Regarding strategic sealift the following is provided: The continued 
decline of U.S. flag merchant marine fleet and the increased 
globalization/consolidation of companies within the maritime industry 
may affect USTRANSCOM's ability to meet peace and wartime DOD 
requirements. Our objective is a stable commercial merchant marine 
capability, with maximum emphasis on U.S. flag ships, U.S. citizen 
mariners to support DOD contingency pre-positioning, surge and 
sustainment requirements.

        <bullet> Continued support to finish the Large Medium Speed 
        Roll-on/Roll-off (LMSR) build. This on-going construction 
        program consists of 19 vessels that will provide the backbone 
        of our contingency support fleet with over 5.2M square feet of 
        militarily useful capacity.
        <bullet> Re-capitalization of the Ready Reserve Force (RRF) 
        ships. The aging of these critical surge fleet assets causes 
        increasing difficulty with operation and maintenance and 
        requires re-capitalization.
        <bullet> Maritime Security Program (MSP)/Jones Act/Cargo 
        Preference. These programs are critical to ensure available 
        U.S. flag ships and mariners are available to support national 
        defense. Additionally, the programs help maintain viability of 
        the U.S. merchant marine fleet in a highly competitive global 
        environment.
        <bullet> Merchant Mariner manning. U.S. merchant mariners are 
        an integral part of national security to crew the organic and 
        commercial fleets.
        <bullet> Additional sealift issues which are not specifically 
        defined yet, but will likely require full Congressional support 
        are:

                <bullet> Maritime tanker re-capitalization. Maritime 
                tanker situation is adequate at present; however, Oil 
                Pollution Act of 1990 (OPA 90) (double hull tanker 
                requirement) requires extensive recapitalization. All 
                tankers must be in compliance with OPA 90 by 2015.
                <bullet> Heavy lift for non-self deployable watercraft 
                (NSDW). Military Requirement Study 2005 identified a 
                shortfall in our ability to deliver NSDW to overseas 
                theaters within CINC timeline requirements. Joint 
                Staff/J4 is chairing a study to determine solutions to 
                alleviate this shortfall.

Pre-positioning
        <bullet> Pre-positioning is a vital facet of our strategic 
        mobility triad. It permits us to respond more quickly to 
        developing crises and enhances our ability to deter aggression 
        and war. Pre-positioning also helps offset our reduced forward-
        deployed presence and decreases reliance on scarce strategic 
        lift assets. The two main components of our global pre-
        positioning strategy require robust investment to ensure their 
        continued viability.
        <bullet> Afloat Pre-positioned Force: Each service maintains 
        pre-positioned equipment aboard approximately 30 ships 
        stationed in the Mediterranean Sea, and Indian and Pacific 
        Oceans. This flexible method of pre-positioning provides timely 
        equipment and supplies to the geographic CINCs. Continued 
        investment in these strategic assets will help improve 
        responsiveness and deliver greater capability to the 
        warfighter.
        <bullet> Land-based Pre-positioning: We currently pre-position 
        equipment and supplies in several European, Southwest Asian, 
        and Pacific Rim countries. Our overseas commands rely on this 
        equipment to support the earliest stages of their war and 
        contingency plans. As global threats evolve, we continually 
        tailor our pre-positioned assets to meet the warfighting CINCs, 
        most critical requirements. 
Infrastructure
        <bullet> En Route Infrastructure Improvements (Europe and 
        Pacific). The current strategic airlift enroute infrastructure 
        system comprises seven bases in the Pacific and six in Europe. 
        Improvements to ramps, fuel hydrant systems, and fuel storage 
        systems are needed for these bases to handle the transiting C-
        5s and C-17s en route to the theaters.
        <bullet> Critical Infrastructure Protection (CIP) is mandated 
        through Presidential Decision Directive 63. DOD is identifying 
        what truly is mission-critical (i.e., no Plan B for a 
        particular go-to-war capability at a particular node) and 
        assessing and remediating vulnerabilities at those locations.
        <bullet> Ammunition infrastructure improvements to ensure 
        efficient ammunition flow from depot to destination from CONUS 
        depots to railcar availability to CONUS ports to overseas 
        destinations. DOD must improve its container-handling equipment 
        and intermodal capabilities.
        <bullet> Assured Access. The MRS-05 study pointed out 
        shortfalls in lift, especially commercial railcars, to carry 
        large volumes of ammunition and unit equipment from origins to 
        ocean ports. Assured Access program now underway will negotiate 
        DOD agreements with carriers, specifying how much equipment is 
        needed and when during a contingency.

                              MILITARY PAY

    17. Senator Thurmond. General Shelton, although I strongly support 
increased pay and allowances for our dedicated military personnel, I 
believe we must set a goal on what we hope to achieve. If we continue 
to increase pay and compensation under the current system, we build 
expectations that may not be achievable considering all the other 
requirements to maintain our readiness. What is your ultimate goal for 
the level of military pay?
    General Shelton. The Department's ultimate goal is to attract and 
retain quality personnel in numbers sufficient to sustain the National 
defense. To do so, the Department needs to remain competitive with the 
civilian sector in terms of pay and compensation. The proliferation of 
technology and information-based systems and the changing nature of 
warfare have increased the demand for highly trained, technically 
proficient men and women in the Armed Forces.
    The 9th Quadrennial Review of Military Compensation (9th QRMC) 
recommends changes that would not only raise the level of pay for some 
grades, but would alter the structure of the pay system as well. The 
pay raise slated for fiscal year 2002 and your continued support of our 
efforts to bring military pay in line with the civilian sector, such as 
the Employment Cost Index +.5 percent initiative, will further improve 
the quality of life for our Service members and their families. 

                          LARGE DECK CARRIERS

    18. Senator Thurmond. General Shelton, as you may be aware, there 
has been an ongoing debate in the press on the vulnerability of our 
large deck carriers. What are your views on our carriers vulnerability 
in future operations?
    General Shelton. Carriers have been our first on-scene presence in 
many operations over the past decade, protecting our economic, 
political, and security interests in both peace and conflict. I do not 
see their mission changing in the near future.
    To place the on-going debate in context, press articles often do 
not account for the challenges of identifying and targeting a mobile 
platform. If we consider carriers vulnerable to missiles, then land 
bases and land assets share the same vulnerability if not more.
    With that premise, the question becomes ``How survivable are 
carriers?''
    The answer is, they are very survivable.
    An enemy not only has to locate, target, and launch a weapon at 
what is an extremely mobile platform, but that same weapon has to 
penetrate the carriers layered defense systems. Carriers are survivable 
because of limitations in weapon systems acquisition capabilities 
versus the carriers' mobility, offensive, and defensive capabilities.
    In addition, the Navy is developing an array of air and underwater 
sensors and capabilities that will only enhance the carriers' 
survivability in the future.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                         UNFUNDED REQUIREMENTS

    19. Senator Santorum. Secretary Rumsfeld, traditionally, the 
committee has relied on Service unfunded requirements lists or ``UFR 
lists'' as a guide on where best to apply additional resources. That 
is, these lists have provided Congress with information on the most 
pressing needs facing the services that are not addressed by the 
President's Budget Request. Can you update the committee on whether the 
Services will permitted to submit UFR Lists for fiscal year 2002? If 
not, what recommendations or advice will the Department of Defense 
provide on how best to allocate additional resources for our military 
branches and defense agencies?
    Secretary Rumsfeld. Although I have concerns about this traditional 
practice of unfunded requirements lists, I have not prevented such 
lists from being provided to Congress. However, in this or future 
budget years, I would urge members of Congress to seek recommendations 
from me on how best to allocate added defense resources--rather than 
relying on Service lists, which can become dated and which are not a 
reliable way to identify the Defense Department's most pressing 
security requirements. 

    20. Senator Santorum. General Shelton, have you begun the process 
of generating UFR lists? If additional funds were added to the Fiscal 
Year 2002 Defense Authorization Act, and if Service UFR lists will not 
be generated, how do you suggest Congress best allocate additional 
funds for the Military Services? Has the Office of the Secretary of 
Defense told the service chiefs not to generate UFR lists for fiscal 
year 2002? Do you have unfunded requirements for fiscal year 2002 that 
are not addressed by this Budget Amendment?
    General Shelton. The Services provide the resources for the 
warfighters and as such they can best articulate unfunded requirements. 
Recently, at the request of Congressman Skelton and with full knowledge 
by the Office of the Secretary of Defense, the Services provided their 
fiscal year 2002 unfunded requirements. If additional resources are 
made available for defense, allocations should reflect inputs from the 
Services' unfunded requirements.

                      SUPPLEMENTAL APPROPRIATIONS

    21. Senator Santorum. Secretary Rumsfeld, traditionally, the 
Clinton administration used supplemental appropriations bills to fund 
existing military requirements. Will you require additional or 
supplemental funds in fiscal year 2002 or is this budget request 
sufficient for the year?
    Secretary Rumsfeld. This budget request should be sufficient for 
the year. The Bush administration is committed to preparing realistic 
budgets that will not require supplemental appropriations except for 
genuine emergencies like war or natural disaster.

                         SCIENCE AND TECHNOLOGY

    22. Senator Santorum. Secretary Rumsfeld, the President expressed a 
desire to pursue ``leap ahead'' technologies and has been supportive of 
``skipping a generation'' in the weapons system acquisition process. 
The ability to realize these goals will largely be driven by our 
investment in our Department of Defense Science and Technology (S&T) 
Program. These budget accounts support research on many of the key 
technologies that will be necessary for the Army to transition to its 
``objective force,'' for the Air Force and Navy to utilize UCAVs, and 
for many of our chemical and biological agent protection/detection 
capabilities.
    I am alarmed to see that the funding levels for Basic Research 
(6.1) and Applied Research (6.2) have remained equal to the levels that 
were appropriated last year. In addition, I am perplexed to see that 
Advanced Technology Development (6.3) funding has declined versus last 
year's appropriated level. Overall, the fiscal year 2002 Amended Budget 
request asks for less in S&T funding than was appropriated last year. I 
am doubtful that the Department can realize advances in ``leap ahead'' 
technologies or invest in our next generation of engineers and 
scientists with this level of S&T funding. While I am encouraged to see 
increases in nanotechnology research and chemical and biological agent 
research, the fiscal year 2002 Amended Budget request fails to robustly 
fund our S&T accounts.
    How do you intend to support ``leap ahead'' advances with less 
money than was requested last year? Since leaders of industry have 
bemoaned the lack of funding devoted to basic research, how can you 
assure me that the Department of Defense is strongly supportive of 
producing the next generation of scientists and engineers?
    Secretary Rumsfeld. Determining a sufficient level of S&T 
investment is not a precise science, rather I believe it is a strategic 
decision. It has always been the Department's goal to fund S&T at a 
level adequate to ensure the technological superiority of our Armed 
Forces. In fiscal year 2001, the Department's total request for S&T 
funding was $7.5 billion and our Fiscal Year 2002 Amended Budget 
request is for a total of $8.8 billion. This represents an increase of 
more than 17 percent over the fiscal year 2001 request. A strong S&T 
program is required to provide options for responding to a full range 
of military challenges both today, and into the uncertain future. The 
Department's investment in S&T develops the technology foundation 
necessary for our modernization effort, and fosters the development of 
``leap ahead'' technologies that produce revolutionary capabilities. 
DOD must continue to invest broadly in defense-relevant technologies 
because it is not possible to predict in which areas the next 
breakthroughs will occur. It is the Department's objective to grow the 
S&T budget to be 3 percent of the total DOD top-line budget as soon as 
possible. This goal is consistent with the industrial model of 
investing 3 percent of a corporation's budget in research. However, we 
also need to ensure that the funding levels of the various components 
in the Department's total budget are balanced based on our assessment 
of the most urgent requirements at any given time.
    With respect to your second question, the Department of Defense 
gives a high priority to basic research and to the training of future 
scientists and engineers in defense-critical fields. DOD basic research 
is a wellspring of new knowledge and understanding that underpins 
future defense technologies. Moreover, the DOD basic research program 
provides the majority of the Department's support to students pursuing 
advanced degrees in defense-critical science and engineering fields, 
helping to ensure the future availability of talent for defense needs. 
The Fiscal Year 2002 Amended Budget request of $1.3 billion for basic 
research is more than 8 percent above the fiscal year 2001 request of 
$1.2 billion. Our carefully considered judgment is that this level of 
basic research investment makes most sense within available resources, 
given that we must maintain a good programmatic balance among all of 
the components of research, development, test, and evaluation (RDT&E). 
A balanced RDT&E investment strategy is important to help assure that 
basic research results are fully utilized in a timely way, through 
technology transition to applied research and ultimately to development 
of defense systems.

                             TRANSFORMATION

    23. Senator Santorum. General Shelton, last year, the Army 
terminated or re-structured seven programs to pay for the Chief of 
Staff of the Army's ``transformation'' initiative. The Army believed 
these terminations and re-structuring were necessary because the Office 
of the Secretary of Defense was unable to provide additional funds to 
support transforming the Army. Congress then restored several of these 
programs because of existing Army requirements. What assurance can you 
provide that the Army's transformation initiative is fully funded in 
the Fiscal Year 2002 Budget Amendment? If the transformation effort is 
not fully funded, what are some of the tradeoffs or choices that the 
Army will have to consider seeing that this effort is adequately 
funded? What is the funding level for the S&T efforts that are 
necessary to support the Army's ``objective force?''
    General Shelton. Transformation is an evolutionary process and the 
Fiscal Year 2002 Amended Budget represents a balanced program, which 
maintains an Army, trained and ready. To support the Army's future 
goals, significant funding increases for transformation and science and 
technology development have been included as part of the President's 
Amended Budget. The service can best articulate in any discussion 
pertaining to Transformation tradeoff decisions.
                                 ______
                                 
               Questions Submitted by Senator Pat Roberts

                                BOMBERS

    24. Senator Roberts. Secretary Rumsfeld, I understand that within 
the Air Force and with other supporters, there is an effort to reopen 
the B-2 line. Part of the justification for the cuts in the B-1B 
program is to free up funds to support needed modernization accounts. 
The strong suggestion is that funds for modernization of this very 
capable platform are scarce--and probably for other programs as well. 
What is the justification for opening the B-2 line while reducing the 
inventory of the B-1B because of funding? If the numbers of long range 
precision bombers is an issue, why spend significant scarce dollars 
when the current inventory could be modernized at a substantially less 
cost?
    Secretary Rumsfeld. It is premature to say that the Department 
supports efforts to reopen the production line of the B-2 bomber. 
Funding provided in fiscal year 2002 for the Next Generation Bomber 
program is for basic research and development and will be used for 
introductory flight dynamics and propulsion technology. If the decision 
is made to enter production of a new bomber then a substantial 
investment will have to be made. The entire Air Force aircraft fleet is 
aging, but the fleet of strategic bombers, on average, is the oldest. 
Their current age is 25 years and it is projected to increase to 33 
years if nothing is done to modernize the fleet.
    As for the B-1, it is becoming increasingly expensive to maintain 
the aircraft. I felt it was a prudent decision to reduce the fleet size 
and take those savings and reinvest them into modernizing the remaining 
aircraft, because, as you point out, funds for modernization are 
scarce. Therefore, it was important that funding made available from 
the reduction in the B-1 inventory be used to modernize and increase 
the mission capable rates of the remaining B-1 aircraft.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                           SPACE BASED RADAR

    25. Senator Allard. Secretary Rumsfeld, in earlier visits, we have 
discussed the importance of the development of space based radar and 
the disappointment of the cancellation of Discoverer II. Last year's 
Authorization Bill required a space based radar roadmap to guide the 
overall effort. Where is the Department on completing the roadmap? How 
does your budget address space based radar?
    Secretary Rumsfeld. The space based radar roadmap is now in final 
coordination within the Department and should be delivered to Congress 
in August. While the roadmap uses fiscal year 2008 as a target date for 
initiating deployment of an operational space based radar system, the 
specific system architecture and its integration with airborne assets 
still needs to be defined. The President's Budget request for fiscal 
year 2002 of $50 million sustains and expands the space based radar 
technology effort as well as supports the development of requirements, 
concepts of operation, and architecture options for a space-based radar 
system.

                              SPACE ASSETS

    26. Senator Allard. Secretary Rumsfeld, I know you understand the 
importance of protecting our national security and commercial space 
assets. How does the budget fund surveillance capabilities, asset 
protection, and attack prevention?
    Also, what efforts are underway to coordinate protection against 
disruption of our space assets between the commercial and defense 
sectors?
    Secretary Rumsfeld. The President's Fiscal Year 2002 Budget 
requests increased funding to modernize the existing space surveillance 
network by upgrading the Cobra Dane and Eglin space tracking radars in 
Alaska and Florida, respectively, as well as improving the Navy's space 
surveillance ``fence.'' It also requests funds to increase the number 
and quality of optical sensors in the network to expand coverage and 
improve resolution of space objects, improve command and control, and 
pursue development of a space-based sensor to enhance the performance 
of the existing ground-based surveillance network. With respect to 
space asset protection, the budget requests increased funds for 
radiation hardening of electronics as well as other technology 
development to make satellites, links, and ground control nodes more 
robust. This includes technology for threat warning that, when coupled 
with improved intelligence, will provide a greater ability to 
anticipate and prevent attacks to critical space systems. It also 
requests funds to develop an approach to space asset protection that 
addresses commercial assets used to support national security missions.

                       INTELLIGENCE REQUIREMENTS

    27. Senator Allard. Secretary Rumsfeld, how does this budget 
request address shortfalls in our satellite intelligence and 
communications infrastructure? How will the Future Years Defense 
Program (FYDP) ensure we have the capacity and flexibility to support 
our intelligence and communications requirements in the future? 
    Secretary Rumsfeld. Complete integration of intelligence, 
surveillance, and reconnaissance systems is a key DOD objective, and 
remains one of our greatest challenges. Our joint service Distributed 
Common Ground Systems (DCGS) architecture has made great progress, but 
much remains to be accomplished through integration of DCGS and 
National Mission Ground Stations to meet the TPED requirements 
associated with our advanced tactical sensors and future overhead 
collectors. New sensors and deployment schemes are being examined that 
could provide important intelligence information to military commanders 
on the battlefield as well as to decision-makers assessing foreign 
leadership intentions.
    Evolution of a Defense Surveillance Architecture of integrated 
surveillance platforms, networks and databases is a top priority for 
meeting DOD requirements in the next 5 to 10 years. The Department is 
currently implementing a Surveillance Integration initiative to 
integrate both airborne and space surveillance systems. We must add 
also new collection capabilities, such as the proposed Space Based 
Radar system.
    It is critical that we continue ongoing efforts to improve 
collection from both space and airborne collectors. This includes 
sensor developments such as Hyperspectral Imagery and chemical/
biological ground sensors; and platform developments such as stealth 
and tactical UAVs. We must deliver the Future Communications 
Architecture, which will allow individual collectors and-ground 
processing elements, DCGS and MGSs to inter-operate and relay data more 
efficiently and effectively.
    In the communications arena, our goal is to provide our forces with 
the ability to connect to a ubiquitous information grid, requiring only 
the correct communications equipment with the correct security 
capabilities. The most significant shortfalls in meeting this goal are 
in satellite communications (SATCOM) and terrestrial communications. 
SATCOM offers a unique capability for expeditionary forces by allowing 
reliable command and control connectivity from the national command 
authorities to the forces afield, independent of any infrastructure 
where forces are operating. Both spacecraft and connecting ground 
communications equipment procurements have lacked synchronization and 
are being addressed by the QDR and program initiatives.
    System replacement is the near term issue, and DOD has begun the 
planning and design activities required to execute the replacement of 
the existing Defense Satellite Communication, MILSTAR, and UHF Follow-
On Systems. Looking further into the future, technologies that will 
provide exponential increases in communications throughput, security, 
and responsiveness are also being studied. The National Security Space 
Architect has been tasked to examine space assets, while another task 
group is developing an Information Superiority Investment Strategy. 
Both groups are reviewing the shortfalls and are providing the 
recommendations that span the DOD infrastructure.
    To meet our communications requirements, in the next 5 to 10 years, 
we will continue to develop an integrated architecture and achievable 
roadmap for the acquisition of communications satellites. Replacement 
of the existing communication satellite constellations, MILSTAR, UHF 
Follow On, and the Defense Satellite Communication System will remain a 
priority.
    In concert with new platform acquisitions and expanded use of 
commercial communications, we will continue our dedicated efforts to 
deliver the Global Information Grid (GIG). The communication systems, 
computing systems and services, software applications, data, and 
security services comprising the GIG provide the force structure the 
ability to decisively maintain information superiority over current and 
potential adversaries. The GIG represents the integrating construct and 
architecture for the DOD's use of information technology that supports 
warfighting and other important national security purposes. The GIG 
includes all Defense and Intelligence Community Information Technology 
(including that which is embedded in airborne and space platforms). We 
plan to continue to develop and enforce DOD interoperability policy and 
implement key initiatives such as the Global Command and Control 
System, Defense Message System, and the Cooperative Engagement 
Capability. We also plan to continue and strengthen our 
interoperability efforts with our alliance partners.


                        COMPUTER NETWORK DEFENSE

    28. Senator Allard. Secretary Rumsfeld, a recent Defense Science 
Board study stated that the U.S. military is severely lacking in the 
area of computer network defense. They must spend up to $3 billion per 
year or $1.4 billion more than today on computer security technologies 
and training and recruitment of qualified individuals. What is the DOD 
response in this budget to this important and complex problem?
    Secretary Rumsfeld. The revised fiscal year 2002 budget submission 
has addressed some of these issues and has included an increase of $142 
million for efforts in training education and retention, cryptographic 
modernization, secured wired and wireless communications, computer 
network defense, global information grid, and network intrusion 
detection. The Quadrennial Defense Review, which is currently on going, 
also addresses these issues and has identified additional requirements. 
Efforts will be made to accommodate these requirements in the upcoming 
program build process.


                            ANTHRAX VACCINE

    29. Senator Allard. Secretary Rumsfeld, there have been discussions 
regarding the need for a second facility to produce the anthrax 
vaccine. Do you address this issue in the budget?
    Secretary Rumsfeld. Yes, the Department of Defense is currently 
planning for construction of a government-owned, contractor-operated 
(GOCO) biological defense vaccine production facility on a generic 
site. The site selection process will be conducted in a fair and open 
manner. A GOCO biological defense production facility will accommodate 
three bulk vaccine production suites, each with different production 
technology processes: spore-forming bacteria (e.g., anthrax), a 
microbial fermentation, and tissue culture (viral vaccines). A modular 
design will allow flexibility and expandable manufacturing capacity for 
production of DOD-critical vaccines, such as anthrax, that are intended 
for force protection and licensing by the Food and Drug Administration.
    Regarding specific funding, there is $0.7 million in the Fiscal 
Year 2002 Military Construction, Defense-wide budget to support initial 
planning and design efforts. Also, $2.4 million in PE 0604384BP is in 
the President's Fiscal Year 2002 Budget Request to establish a program 
management office for a biological defense vaccine production facility.


                                OPTEMPO

    30. Senator Allard. Secretary Rumsfeld, we often hear reports that 
the PERSTEMPO and the OPTEMPO are too high and that you are having 
difficulty maintaining them with the current force structure. An 
increased reliance on the Reserve components has had a positive effect, 
but they too are suffering from a high OPTEMPO. At the readiness 
hearing last September, the service chiefs implied that the Quadrennial 
Defense Review would likely return a recommendation to increase the 
size of our force structure, particularly in the Army. Do we need an 
increase in force structure? How are you going to reduce the effects of 
a high OPTEMPO?
    Secretary Rumsfeld. I also share your concerns about tempo strains 
on U.S. forces. This issue is under examination in the Quadrennial 
Defense Review.
                                 ______
                                 
             Questions Submitted by Senator Tim Hutchinson

                         SPECTRUM INTERFERENCE

    31. Senator Hutchinson. Secretary Rumsfeld, I know that there have 
been discussions within the Department of Defense about the future of 
the spectrum band that the military currently uses. Certainly, any 
consideration of changing the DOD's spectrum should have as its primary 
goal the maintenance and enhancement of our military's communications 
system.
    The military's spectrum is also used commercially in most parts of 
the developed world. It has been suggested that a stepwise migration to 
new spectrum could potentially help prevent future interference 
problems in these areas of the world and could be financed through the 
sale of the military's current spectrum. Do you believe that such a 
move could provide national security benefits to our military?
    Secretary Rumsfeld. This is an excellent question that has several 
important issues embedded in it. I would like to provide the bottom 
line answer first and follow that with my rationale that will address 
the embedded issues of both ``new spectrum'' and potential interference 
to our systems when employed outside the United States.
    Essentially, I do not believe the proposal to transition DOD 
systems from the spectrum band of current interest to other bands has 
any potential for providing national security benefits. I am, however, 
willing to objectively participate in the search for the best national 
solution to the spectrum demand problem.
    The specific spectrum band of interest is the 1755-1850 MHz band, 
which DOD employs for a number of critical major systems. This band is 
under consideration, along with others, to be designated for use by 
advanced wireless systems, more commonly referred to as Third 
Generation cellular systems or ``3G''. This band is technically Federal 
Government spectrum, within the borders of the United States, and the 
DOD is allowed to employ the band as a Government entity and does so in 
the provision of warfighting capabilities that are vital to our Nation.
    First allow me to address the issue of ``new spectrum.'' There 
could be other spectrum that the DOD would be able to migrate our 
systems into, but there is no new spectrum that can be made available 
The idea of providing the DOD other spectrum sounds reasonable but the 
Nation's two key spectrum regulatory bodies in the Department of 
Commerce and the Federal Communications Commission have been examining 
this issue for over a year without finding a workable solution. The DOD 
systems that operate in this band support functions that we must 
maintain or else we will seriously degrade our defense capabilities. 
Losing access to the current band, without first being provided 
comparable spectrum that is just as useful would weaken the DOD's 
ability to protect the Nation and cripple our capabilities to execute 
our global missions.
    Second, the responsibility for global missions ties in with your 
reference to potential interference for our systems when operated in 
the developed world. You are correct that the band of interest is used 
in the developed world for commercial systems. We recognize this and 
there are reasons why we do not view the situation as a hindrance to 
fulfilling our obligations in other parts of the world. In the truly 
developed areas of the world, we employ our systems in training ranges 
and areas that are quite remote from the commercial sources of 
potential interference. In those cases where there is a need to use a 
system in proximity to a commercial source of interference, our 
spectrum experts with the Combatant Commands coordinate with the proper 
entities to ensure that any potential interference is avoided. I must 
also point out that our systems are designed with ``spectrum 
flexibility'' so that those who operate them can respond to the 
constraints we experience when we are in other sovereign nations. 
Additionally, the majority of situations where we employ critical 
weapons systems outside our own country are not in the developed world 
but in the less developed regions where interference from commercial 
systems is not a concern.
    My final point is based on a linkage of the two above issues. Our 
nation stands alone with global responsibilities and the requirement to 
consider and, when necessary, apply military force as an instrument of 
foreign policy. No other country faces the security implications that 
we face in designating spectrum for commercial purposes. We cannot 
assume that we can reach a decision on this critical spectrum issue by 
following the same path or assuming the same options that other 
countries may have considered. Our decision must truly be made in the 
best national interest that balances all facets of the issue, including 
ensuring the maintenance of our vital defense capabilities.


                                  BRAC

    32. Senator Hutchinson. Secretary Rumsfeld, I am adamantly opposed 
to a new round of base closures. With a changing strategic environment, 
the high cost of base closures, and the uncertain benefits, I would be 
very concerned about the proposal of a new BRAC round.
    Does the administration propose a new round of BRAC? It is my 
understanding that the budget amendment will include something called 
the ``Efficient Facilities Initiative.'' Is that a new name for BRAC? 
What would the criteria be for closing military facilities? When does 
the administration to provide further details on this issue?  
    Secretary Rumsfeld. The Department will be requesting additional 
base realignment and closure authority as part of its Efficient 
Facilities Initiative. The Efficient Facilities Initiative that we are 
developing supports the Department's efforts to transform its 
facilities to meet the challenges of the new century. It is not a new 
name for BRAC, but BRAC is a central part of the initiative. The three 
main components of the EFI are: authorization of an additional round of 
base closures and realignments in 2003; authorization of significant 
improvements in the existing base closure process; and authorization of 
a set of tools for the efficient operation of enduring military 
installations.
    While the BRAC authority we are requesting uses essentially the 
same process as has been used successfully before, the proposal would 
better ensure the primacy of military value in the selection and 
execution of base closure and realignment decisions. Specific selection 
criteria will be worked out after Congress has authorized the new BRAC 
round. We intend to submit this EFI to Congress before its August 
recess.

    [Whereupon, at 5:35 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                         TUESDAY, JULY 10, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            SECRETARIES AND CHIEFS OF THE MILITARY SERVICES

    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Cleland, Reed, Akaka, E. Benjamin Nelson, Carnahan, Warner, 
Inhofe, Roberts, Allard, Collins, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Madelyn R. Creedon, counsel; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; and Christine E. 
Cowart, chief clerk.
    Professional staff members present: Daniel J. Cox, Jr., 
Creighton Greene, Maren Leed, Michael J. McCord, and Arun A. 
Seraphin.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; Charles W. Alsup, professional staff 
member; Brian R. Green, professional staff member; William C. 
Greenwalt, professional staff member; Gary M. Hall, 
professional staff member; Carolyn M. Hanna, professional staff 
member; Mary Alice A. Hayward, professional staff member; 
Ambrose R. Hock, professional staff member; Patricia L. Lewis, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Ann M. Mittermeyer, minority counsel; Suzanne K. 
L. Ross, research assistant; Cord A. Sterling, professional 
staff member; Scott W. Stucky, minority counsel; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Gabriella Eisen, Thomas C. Moore, 
and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Barry Gene (B.G.) Wright, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; Eric Pierce, 
assistant to Senator Ben Nelson; Neal Orringer, assistant to 
Senator Carnahan; Brady King and Jason Van Wey, assistants to 
Senator Dayton; John A. Bonsell, assistant to Senator Inhofe; 
Robert Alan McCurry and James Beauchamp, assistants to Senator 
Roberts; James P. Dohoney, Jr., assistant to Senator 
Hutchinson; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; and Derek 
Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony on the proposed fiscal 
year 2002 amended budget from the secretaries and the chiefs of 
the military services. I want to welcome Secretary of the Army, 
Tom White; Army Chief of Staff, Gen. Eric Shinseki; Secretary 
of the Navy, Gordon England; Chief of Naval Operations, Adm. 
Vernon Clark; the Commandant of the Marine Corps, Gen. Jim 
Jones; Secretary of the Air Force, Jim Roche; and Air Force 
Chief of Staff, Gen. Mike Ryan.
    Before we begin, I just want to take a moment to 
acknowledge that last night in North Carolina a CH-46 
helicopter carrying five marines crashed during a routine 
training exercise. Three of the marines were killed, the 
remaining two crew members are hospitalized. Our thoughts and 
our prayers are with them and their families. General Jones, I 
just want to express our condolences to you personally while 
you are here and hope that you will extend all of our 
condolences to the family and friends of the victims and to the 
entire Corps.
    These tragedies remind us of the risks that men and women 
in our armed services take every day on our behalf. We are 
grateful to them and we hope that you will pass along our 
condolences to the families and the victims.
    General Jones. Thank you, sir.
    Senator Warner. May I join our chairman in that, General.
    I think one other thing should be pointed out. Regrettably, 
these types of accidents point out the aging of our equipment. 
We first started buying that type of helicopter in the sixties 
is my recollection. How old would you anticipate that air ship 
to be?
    General Jones. About 35 years old, sir.
    Senator Warner. Thirty-five years old. So it is near the 
very end of its extended life.
    Chairman Levin. Is the cause of the accident known?
    General Jones. It is under investigation, sir. The pilot 
and the copilot survived and they are in stable condition in 
the hospital as we speak.
    Chairman Levin. This is an unusually large panel of 
witnesses, but we are in an unusual situation. The delay in 
submitting the fiscal year 2002 amended budget to Congress has 
left us with just 7 weeks of session to accomplish what 
typically takes 5 months. We still need the detailed 
justification books that are essential to our review of the 
budget request. We just will remind our secretaries here that 
it is absolutely critical that we get those detailed 
justification books as soon as possible.
    It is becoming increasingly clear that the additional $18.4 
billion in defense spending that the President is requesting 
for fiscal year 2002, along with any increases in defense 
spending in future years, cannot be initiated or sustained 
without using the surpluses in the Social Security and Medicare 
trust funds or without returning to budget deficits or without 
cutting important domestic programs, such as education, health 
care, and law enforcement.
    None of those are acceptable alternatives. The only 
alternative that I see is to revisit the upper income tax cuts 
which were recently enacted. But once we address the issue of 
how we are going to pay for the budget increases that are 
proposed, we then have to ask whether or not the 
administration's proposed budget reflects the proper balance 
between the quality of life and readiness of our military men 
and women that they need today and the investments that are 
needed to modernize and transform our Armed Forces to meet the 
threats of tomorrow.
    We will be asking each of our witnesses this morning 
whether this budget request addresses what they consider to be 
the priorities of their respective services, both for the near 
term and the long term. In order for us to evaluate the 
programs and priorities included in this budget, we also need a 
clear understanding of what was not included. In recent years 
each of the service chiefs has provided Congress lists of the 
key programs that were not included in the annual defense 
budget request. We will be asking each of the chiefs to provide 
to this committee the unfunded priorities lists that you 
provided in past years, similar to those lists at least, so 
that we can get some understanding, not just of what is 
requested, but again what has not been able to be funded.
    I will also be asking our witnesses their views about some 
of the choices that were made in this year's budget. For 
example, this budget request would decrease funding for 
procurement and for science and technology programs below the 
current year's level while increasing funding for missile 
defense programs by $3 billion or 57 percent over the current 
year.
    The budget request would also reduce Army flying hours and 
tank training miles in fiscal year 2002 compared to the current 
year. In the latter case, Secretary Rumsfeld told the committee 
that ``the Army made those kind of choices.'' The committee 
looks forward to the testimony of all of the service 
secretaries and chiefs on the thinking behind these and other 
difficult choices.
    All of us share a responsibility to do our best to ensure 
that Defense Department programs and activities are conducted 
effectively and efficiently. In his recent testimony to this 
committee, Secretary Rumsfeld said: ``I have never seen an 
organization that could not operate at something like 5 percent 
more efficiency if it had the freedom to do so.'' He went on to 
say that: ``The taxpayers have a right to demand that we spend 
their money wisely. Today,'' he said, ``we cannot tell the 
American people we are doing that. I know I cannot.''
    That is a very significant and serious statement. If the 
American taxpayers cannot be assured that the Defense 
Department is spending their money wisely, we will not be able 
to sustain public support for the kind of increases in defense 
spending that are contained in this budget request.
    Each of our service secretaries has had extensive 
experience managing large private sector companies. Secretary 
Rumsfeld has set up a new senior executive committee and a 
business initiative council to draw on this experience and to 
help him manage the Defense Department. I hope each of you this 
morning will give us recommendations to improve the management 
of your respective departments, both those requiring 
legislation and those that can be implemented without 
legislation.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
recognizing our service secretaries and service chiefs, and 
particularly you, General Ryan. In all likelihood this could be 
your last appearance before the Senate as you wind up a most 
distinguished career, preceded by your father, who was also 
Chief of Staff of the Air Force when I was privileged to be 
Secretary of the Navy. I remember him well.
    What a proud family tradition. It exemplifies here in the 
United States of America how families, generations of families, 
have proudly worn the uniform of our country in different 
services. That is the very bedrock of our professional military 
force, officer as well as enlisted.
    I commend you and your wife and your family for this 
service.
    Chairman Levin. General Ryan, let me just join Senator 
Warner in congratulating you for your distinguished service. I 
am a little more cautious in saying this is probably your last 
visit before the committee, but just on that chance, I surely 
want to join, and I know on behalf of all the members of the 
committee, in congratulating you and thanking you for an 
extraordinary career.
    General Ryan. Thank you, sir.
    Senator Warner. Across our country we detect a growing 
consensus, and indeed here in Congress. The American people 
want to improve the quality of life for those who serve in 
uniform. They want to obtain modern equipment for those who 
constantly take the risks, whether here at home, as we saw last 
night, or abroad.
    I can think of no more important building block in the 
budget process than the testimony that is provided by those who 
proudly serve as the service chiefs in our military 
departments. I just go back over the past few years, because we 
look to you for the complete professional opinions that each of 
you are able to give. With due respect to the Commander in 
Chief, whoever that may be, this committee time and time again 
has called upon you to give us your personal views with regard 
to the budget levels and the issues.
    Indisputably, our Armed Forces are the best and the most 
powerful in the world today. This well-deserved reputation was 
not earned without cost. While our service men and women 
perform their military missions with great dedication and 
professionalism, our people, our equipment, and our 
infrastructure are increasingly stressed by the effects of an 
unprecedented number of military deployments over the past 
decade, combined with years of decline in defense spending.
    At the same time our force structure was declining in size 
by almost 40 percent, our overseas deployments for peacekeeping 
and other military operations increased by over 300 percent. As 
the service chiefs have told us repeatedly, future readiness 
and the upkeep of military facilities has been deferred to pay 
for current operations and maintenance, and service personnel 
are being asked to do more with less--less people, less 
resources.
    In the past week I have visited seven military 
installations in my State and, General Jones, I spoke with you 
about Quantico. Am I not correct that it has been 60 years 
since we put a new housing unit for either an enlisted or an 
officer on that base?
    General Jones. That is correct.
    Senator Warner. Those things simply have to be corrected, 
and I am hopeful that we can make progress in this budget.
    We have tried here in Congress in the past several years, 
together with my distinguished colleague here Mr. Levin. We 
have worked together as a team to increase defense spending. In 
fiscal year 2000, we reversed a 14-year decline in defense 
spending by authorizing a real increase in spending that year. 
Last year we continued that momentum by providing an even 
larger real increase for defense for fiscal year 2001. Over the 
past years we have increased military pay by over 8 percent, 
restored retirement and health care benefits to keep faith with 
those who serve or have served, raised procurement levels to 
begin recapitalization and modernization of aging equipment, 
and I think significantly increased investment in research and 
development.
    We have to keep that momentum going forward, and we must 
rely on you for your opinions as to whether the budget now 
before us is adequate to keep that momentum.
    Again, while much has been done, much remains. The 
President is to be commended. I just looked at this fiscal 2002 
defense request and our calculations are that $38.2 billion in 
increases have been recognized and requested by President Bush. 
These increases proposed in 2002 represent an almost 11 percent 
increase in defense spending above the amount available in 
2001.
    While this increase begins to address the shortfalls, it 
may not be enough, and we look to you for those answers.
    I talked with my distinguished chairman this morning about 
the $18.4 billion increase. We still have a battle on our own 
home front here with our Budget Committees. They have an 
across-the-board responsibility for the entire budget and we 
will do our best. I will join our chairman in trying to support 
in every way the President's request before those committees.
    So this is a very, very important hearing today. I think it 
is wonderful to go back to the old style of having the service 
secretaries appear side-by-side with the service chiefs, 
because it is a partnership between the civilian oversight and 
the military chief as you work your way for your respective 
departments. Let us do our best.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    In the interest of time and in order to give the members 
chances to get into specific issues in their questions, I am 
going to ask our witnesses now to limit their opening remarks 
to 7 minutes. Secretary White, we will begin with you.

    STATEMENT OF HON. THOMAS E. WHITE, SECRETARY OF THE ARMY

    Secretary White. Thank you, Mr. Chairman, Senator Warner, 
distinguished members of the committee. I appreciate this 
opportunity to discuss the state of America's Army. Consistent 
with your guidance, Mr. Chairman, I will make a very brief 
statement and then submit a longer statement for the record.
    Chairman Levin. All your statements will be made part of 
the record.
    Secretary White. Thank you.
    General Shinseki and I want to talk to you today, against 
the backdrop of the President's 2002 amended budget, about our 
progress in achieving the Army's vision. In our written 
testimony, we described the magnificent work the Army has done 
in recent months and identified the challenges we continue to 
face.
    There is still much work to be done, but the Army has moved 
up. We are transforming in comprehensive and profound ways into 
the most strategically responsive and dominant land force of 
the 21st century, decisive across the entire spectrum of 
military operations. That being said, I want to be very 
straightforward about what this budget does and does not do for 
the Army.
    First, the budget will put us on the road to recovery in 
some categories, such as military pay, housing allowances, and 
health care. Second, it will start an improvement, but leave us 
short of our goals, in other areas, such as restoring our 
deteriorating infrastructure. Third, unfortunately, there will 
continue to be shortfalls in a number of critical areas, such 
as modernization and recapitalization of the existing force.
    Recognizing these budget shortfalls, we must look elsewhere 
for cost savings. The key to this effort is the freedom 
necessary to efficiently manage the Army and generate near and 
long-term savings for reinvestment. Given that latitude, we 
hope to improve efficiency within the Army by adopting better 
business practices, focusing on our core competencies, 
outsourcing or privatizing where it makes sense, and 
streamlining processes to reduce operating costs.
    Success will be achieved by the redirection of resources to 
fully fund the pillars of the Army's Vision: People, Readiness, 
and Transformation.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The joint prepared statement of Secretary White and 
General Shinseki follows:]
   Prepared Joint Statement by Hon. Thomas E. White and Gen. Eric K. 
                             Shinseki, USA
    Mr. Chairman and distinguished members of the committee, we thank 
you for this opportunity to report to you today on the United States 
Army's readiness to provide for our Nation's security today and in the 
future.
    The Army exists for one purpose--to serve the Nation. For over 226 
years, American soldiers have answered the Nation's call to duty, 
faithfully and selflessly performing any mission that the American 
people have asked of them. The soldiers are the common denominator that 
has allowed us to enjoy economic prosperity and stability in a rapidly 
changing global environment.
    Throughout that time, the Army--active component, Army National 
Guard, U.S. Army Reserve, and Army civilians--has maintained its non-
negotiable contract with the American people to fight and win the 
Nation's wars decisively. Indeed, the Army stands ready to go into 
harm's way whenever and wherever we are asked. Today, The United States 
Army is the most formidable land force in the world, a fact that 
reassures allies and deters adversaries.
    Today, the Army must also be capable of executing the broader 
requirements of the National Security Strategy and National Military 
Strategy across the full spectrum of operations. The commitment and 
dedication of Army soldiers and civilians, coupled with the support of 
the administration and Congress, are allowing the Army to meet its 
requirements as the decisive landpower component of the U.S. military.
    The bipartisan support of Congress during the past 2 years has 
helped the Army build sustainable momentum for its Transformation. We 
want to talk to you today, against the backdrop of the President's 2002 
amended budget, about where we are in achieving the Army Vision. In our 
testimony, we will describe the magnificent work the Army has done in 
recent months and identify the challenges we continue to face. There is 
still much work to be done, but the Army has moved out. It is 
transforming in comprehensive and profound ways to be the most 
strategically responsive and dominant land force of the 21st century--
decisive across the entire spectrum of military operations.
    The budget for fiscal year 2002 ensures the Army is funded at 
sufficient levels to support the National Security and National 
Military Strategies. It funds people programs to man the force and 
address quality of life issues relevant to our soldiers and their 
families, ensures our continued warfighting readiness, and advances the 
Army's Transformation to a full-spectrum 21st century force. It is a 
balanced base program that allows the Army to meet these objectives. It 
includes significant increases for installation services and 
infrastructure, mitigating the necessity to divert training funds to 
installation support.
    The Army Transformation is enabled, although not at the optimal 
level. The Army is accepting moderate risk in the level of training 
OPTEMPO, but these risks are considered acceptable to ensure stable 
base operations levels and improved facility maintenance and repair. 
Sustainment programs also remain stable, and we are able to begin some 
modernization of our aging helicopter fleet.
    Today, the Army's active component ``go-to-war'' force is forward 
stationed, deployed, or in the field--advancing our National interests, 
supporting theater engagement plans, and training for tomorrow's 
warfight. But, our Army is one-third smaller, deploys more frequently, 
and is more likely to conduct stability and support operations than its 
Cold War predecessor. Accelerating operational and deployment tempos 
have strained Army capabilities, and over-stretched resources have 
leveraged our warfighting readiness on the backs of our soldiers and 
their families. Indeed, our mission demands create a requirement for 
forces that increasingly can only be sustained by committing the 
Reserve components. When we speak of the Army--Active and Reserve 
components, soldiers, civilians, family members, retirees, and 
veterans--we are acknowledging a single force with common missions, 
common standards, and common responsibilities.
    The Army has competing requirements that are in constant, daily 
tension. First is the Army's requirement to have a trained and ready 
force to fulfill its non-negotiable contract with the American people 
to fight and win our Nation's wars decisively. That mission is 
significantly enhanced by being fully engaged around the globe with our 
allies, partners, and sometimes our potential adversaries to promote 
stability, to gain influence, and to ensure access in times of crisis. 
Further, as contingency operations become long-term commitments, our 
mission tempo--both training and operational--increasingly strains our 
force structure. Second, but most important, the Army must transform 
itself into a force for the 21st century, strategically responsive and 
dominant at every point on the spectrum of military operations and 
prepared to meet a growing array of requirements including threats to 
our homeland. The mismatch between strategic requirements and 
operational resources forces us daily to prioritize among support for 
our people, the readiness demanded by the Nation, and the 
transformation necessary to continue our global preeminence.

                            THE ARMY VISION

    More than 10 years ago, during the buildup of Operation Desert 
Shield, the Army identified an operational shortfall--a gap between the 
capabilities of our heavy and light forces. Our heavy forces are the 
most formidable in the world. There are none better suited for high-
intensity operations, but they are severely challenged to deploy to all 
the places where they might be needed. Conversely, our magnificent 
light forces are agile and deployable. They are particularly well 
suited for low-intensity operations, but lack sufficient lethality and 
survivability. There is, at present, no rapidly deployable force with 
the staying power to provide our national leadership a complete range 
of strategic options. The requirements dictated by the rapidly evolving 
world situation increasingly underscore that capability gap; therefore, 
the Army is changing.
    To meet the national security requirements of the 21st century and 
ensure full spectrum dominance, the Army articulated its vision to 
chart a balanced course and shed its Cold War designs. The vision is 
about three interdependent components--People, Readiness, and 
Transformation. The Army is people--soldiers, civilians, veterans, and 
families--and soldiers remain the centerpiece of our formations. 
Warfighting readiness is the Army's top priority. The Transformation 
will produce a future force, the Objective Force, founded on innovative 
doctrine, training, leader development, materiel, organizations, and 
soldiers. The vision weaves together these threads--People, Readiness, 
and Transformation--binding them into what will be the Army of the 
future.

                       ACHIEVING THE ARMY VISION

    Last year, the Army took the initial steps to achieve the vision. 
One step was the continued realignment of our budget priorities, 
generating investment capital by canceling or restructuring eight major 
Army procurement programs. Unfortunately, the Army has had to eliminate 
or restructure 182 programs over the past decade and a half. It is not 
that these systems and capabilities were unnecessary; rather, our 
resource prioritization made the programs unaffordable. Joining with 
the Defense Advanced Research Projects Agency in a cooperative research 
and development effort, we began to streamline our acquisition process 
to focus and accelerate the development and procurement of enabling 
technologies for our Objective Force. To reduce the risk from the 
capability gap between our heavy and light forces, the Army developed a 
concept and began to organize an interim capability until the 21st 
Century Objective Force is fielded. The Army also completed a 
comprehensive study of how it trains soldiers and grows them into 
leaders, knowing that the capabilities of a transformed Army will 
reside in competent, confident, adaptive, and creative people.

                                 PEOPLE

    The fiscal year 2002 budget continues to emphasize people, the core 
of our institutional strength. Well-being--the physical, material, 
mental, and spiritual state of soldiers, families, and civilians--is 
inextricably linked to the Army's capabilities, readiness, and its 
preparedness to perform any mission.
    To improve well-being, we are offering technology-based distance 
learning opportunities; working to improve pay and retirement 
compensation; working with the Department of Defense to guarantee that 
TRICARE meets the needs of our soldiers, retirees, and their families; 
improving facilities maintenance; and modernizing single soldier and 
family housing. The much welcomed increases in housing allowance and 
efforts to reducing out of pocket expenses is an important step toward 
restoring faith with our soldiers and their families.
    The health care provisions in the Fiscal Year 2001 National Defense 
Authorization Act for our soldiers, retirees, and family members 
represent the types of significant improvements the Army continues to 
seek for the force's well-being. Sustained congressional support for 
important well-being initiatives helps us recruit and retain a quality 
force.
    Indeed, the pay raise, pay table reform, and retirement reform, as 
well as diligent efforts by leaders at all levels of the Army helped us 
exceed our recruiting and retention goals in fiscal year 2000. 
Attention to the well-being of our people will keep trained and 
qualified soldiers and civilians in the Army in the years to come.

                                MANNING

    In fiscal year 2000, we started a 4-year effort to increase 
personnel readiness levels. The Manning Initiative redistributed 
soldiers to fill all personnel authorizations in every active component 
combat division and cavalry regiment, but by doing so, we accepted some 
risk in the institutional base.
    This effort exposed the serious gap that has existed in the 
aggregate between manning requirements and authorizations. It is 
possible that we will need to increase personnel authorizations to meet 
all requirements, dependent upon ongoing reviews of overall Army 
missions. Meeting the requirements with the active component, however, 
is not enough. As mission demands necessitate increased use of our 
Reserve components, we must bolster their full-time support 
requirements to better keep them ready and available. Manning the 
entire force will reduce operational and personnel tempo and improve 
both readiness and well-being.
    The fiscal year 2002 budget increases for enlistment and retention 
bonuses will enable the Army to sustain its recent recruiting and 
retention successes, although some shortfalls remain. Funding for 
change-of-station moves helps to ensure we can place soldiers when and 
where they are needed to man units at desired grade and skill levels, 
and further advance the Army's Transformation.

                           GLOBAL ENGAGEMENT

    Readiness is a top priority. It means we must be prepared to 
execute strategic missions across the full spectrum of operational 
requirements around the globe. Our military formations must be able to 
conduct a range of activities from engagement to stability and support 
operations to warfighting. On any given day, the Army has nearly 
125,000 soldiers and 15,000 U.S. civilians forward stationed in over 
100 countries around the world. In fiscal year 2000, on a daily 
average, we deployed more than 26,000 additional soldiers for 
operations and military exercises in 68 countries--from East Timor to 
Nigeria to the Balkans. In Bosnia, the Texas Army National Guard's 49th 
Armored Division assumed the mission for the Multinational Division 
(North), the first time since World War II that a Reserve component 
division headquarters has led active component forces in an operational 
mission. In both Europe and Korea, Army soldiers continue a successful 
security commitment made 50 years ago. In Southwest Asia, the Army 
continues its support of United Nations sanctions against Iraq, 
stability operations in the Persian Gulf, and peacekeeping efforts in 
the Sinai. No other military service works as frequently, as 
continuously, or on as many levels to deter aggression, operate with 
allies and coalition partners, and to respond at home and abroad with 
support to civil authorities.

                             CIVIL SUPPORT

    The Army provides military support to civil authorities, both 
domestically and around the globe, for crisis response and consequence 
management. Army support after natural disasters ranged from personnel 
and equipment to suppress wildfires to logistical and medical support 
following the disasters in the South African, Central American, and 
Asian Pacific regions. Last year, within the United States, the U.S. 
Soldier and Biological Chemical Command trained over 28,000 people and 
conducted crisis response and consequence management exercises in 105 
cities with Federal agencies, state and local governments, and non-
government organizations in support of the Domestic Preparedness 
Program. The Army Corps of Engineers prevented an average of $21.1 
billion in damages through flood control management projects including 
383 major flood control reservoirs and 8,500 miles of flood control 
levees as part of its flood fighting authority and the Federal Response 
Plan. The Army supported civil law enforcement agencies in more than 
380 counter-drug operations in 41 states. Finally, as part of a joint 
program, the Army led the development and testing of a fixed, land-
based National Missile Defense system that offers the most mature 
technology for a near-term deployment decision. The Army stands ready 
to respond to the full breadth of security requirements in the homeland 
and abroad now and in the future.

                               READINESS

    The fiscal year 2002 budget request supports our most critical 
readiness requirements, although we have accepted some risk in the 
level of funding for active component air and ground OPTEMPO to 
stabilize the deterioration of our facilities and augment training 
enablers.
    Measuring the readiness of the Army to respond to the Nation's call 
requires accuracy, objectivity, and uniformity. Our current standards 
are a Cold War legacy and reflect neither the complexity of today's 
strategic and operational environments nor other important factors. 
Near-term factors encompass the overall capability of units to deploy 
and include training enablers such as training ranges, institutional 
support, and depot maintenance; full time support for our Reserve 
components; and installation support. Long-term readiness factors 
affect the Army's ability to fight in the future and to retain quality 
personnel. We are re-examining how to measure Army readiness in the 
near-term, the long-term, and across the range of missions we may be 
expected to undertake. This new reporting system will provide timely 
and accurate information on the status of the Army's readiness, with 
measurements that are relevant and quantifiable, to enhance the ability 
of commanders to make the best possible employment decisions. It will 
also give the American people a more accurate assessment of how ready 
their Army is to do what it is asked to do.

                         INSTALLATION READINESS

    Installations are an essential, but often overlooked, part of our 
warfighting readiness. They support soldiers and their families, 
enhance the rapid deployment of the Army, and provide efficient and 
timely support to deployed formations. Funding facility Sustainment, 
Restoration and Modernization (SRM, formerly termed Real Property 
Maintenance, or RPM) accounts is one of the Army's greatest concerns 
this year. We must maintain, modernize, and transform the training 
platforms and ranges that prepare the force; the depots and arsenals 
that maintain and equip the force; and the power projection platforms 
and information infrastructures that support the force when deployed. 
The fiscal year 2002 budget provides military facilities and soldier 
housing needed to improve Army readiness, quality of life, and 
efficiency. The military construction projects provide new and 
renovated facilities that improve strategic mobility, modernize 
barracks, and support the missions of the Army's active and Reserve 
components. The family housing budget includes funding for operation, 
maintenance, leasing, construction, revitalization and privatization of 
housing in the U.S. and overseas. Only by taking care of installation 
infrastructure now can the Army secure readiness for the future also.
    In the past, we paid other bills at the expense of facilities 
upkeep or masked these costs by migrating funds from operating tempo 
accounts--a practice we have stopped.
    Of course, the Army would prefer to divest itself of excess 
infrastructure and receive full funding to maintain installations and 
repair critical facilities. The Army's current goal is to sustain 
facilities to a level that prevents further deterioration and to 
improve both the quality and the quantity of facilities to meet 
validated deficits in strategic mobility by fiscal year 2003, barracks 
by fiscal year 2008, and family housing in fiscal year 2010.
    However, even with this significant investment, our overall 
infrastructure condition continues to decline. While the budget meets 
the Army's strategic mobility goal of fiscal year 2003, we need 
sustained funding to achieve our goals of barracks renewal and family 
housing upgrade. Previously, we have funded SRM at only 60 percent. The 
significant increase of SRM funding to 94 percent for fiscal year 2002 
will allow the Army to aggressively attack its deteriorating 
infrastructure and impede the growth in the backlog of maintenance and 
repair. We currently have an unfunded SRM backlog of $17.8 billion and 
an unfunded facilities deficit of $25 billion. The solution requires a 
30-year commitment to fully fund and focus SRM funding on selected 
facility types, in 10-year increments. Army installations will take on 
a greater role as we attempt to reduce the deployed logistical 
footprint and rely on reach-back links for enhanced command and control 
capabilities. Transformation of our operational force without a 
concurrent renovation of the installation infrastructure will create an 
imbalance that will impinge on advantages gained by a transformed 
force.

                             TRANSFORMATION

    The third thread of the Vision requires a comprehensive 
transformation of the entire Army. This complex, multi-year effort will 
balance the challenge of transforming the operational force and 
institutional base while maintaining a trained and ready force to 
respond to crises, deter war and, if deterrence fails, fight and win 
decisively. Transformation is far more extensive than merely 
modernizing our equipment and formations. It is the transformation of 
the entire Army from leader development programs to installations to 
combat formations. All aspects--doctrine, training, leaders, 
organization, material, and soldiers--will be affected.
    Transformation of the Army's operational force proceeds on three 
vectors--the Objective Force, the Interim Force, and the Legacy Force. 
All are equally necessary to our Nation's continued world leadership. 
The Objective Force is the force of the future and the focus of the 
Army's long-term development efforts. It will maximize advances in 
technology and organizational adaptations to revolutionize land-power 
capabilities. The Interim Force will fill the current capability gap 
that exists between today's heavy and light forces. Today's force, the 
Legacy Force, enables the Army to meet near-term National Military 
Strategy commitments. Until the Objective Force is fielded, the Legacy 
Force--augmented or reinforced with an interim capability--will 
continue to engage and respond to crises to deter aggression, bring 
peace and stability to troubled regions, and enhance security by 
developing bonds of mutual respect and understanding with allies, 
partners, and potential adversaries. It must remain ready to fight and 
win if necessary, giving us the strategic hedge to allow 
transformation.
    The fiscal year 2002 budget supports procurement and upgrade of 
important Legacy, Interim, and Objective Force systems. It procures 326 
Interim Armored Vehicles and five Wolverine systems. It also continues 
support for the Abrams-Crusader common engine program and both the 
Abrams and Bradley upgrade programs. Finally, it accelerates two M1A2 
system enhancement program retrofits.
    As the Army works to develop and acquire the technologies for the 
Objective Force, the Legacy and Interim Forces will guarantee Army 
readiness. Our most pressing concerns this year include the 
modernization and recapitalization of selected Legacy Force systems.

            LEGACY FORCE MODERNIZATION AND RECAPITALIZATION

    Recapitalization and Modernization efforts are necessary to ensure 
current and near-term warfighting readiness. Currently, 75 percent of 
major combat systems exceed engineered design half-life and will exceed 
design life by 2010; system operation and sustainment costs are up over 
35 percent, and aircraft safety of flight messages are up 200 percent 
since 1995.
    We must judiciously modernize key armored and aviation systems in 
the Legacy Force to enhance force capabilities. We will further 
digitize the Abrams tank to increase situational awareness and 
remanufacture early model Bradley infantry fighting vehicles to improve 
lethality, situational awareness, and sustainability. We will procure 
new systems like Crusader to increase force effectiveness, reduce 
friendly casualties, ease logistics support requirements, and improve 
deployability. Crusader will maximize the total capabilities of the 
Legacy Force. Fielding the Patriot Advanced Capability-3 missile 
defense upgrade and the Theater High Altitude Area Defense system will 
significantly increase our in-theater force protection. Current legacy 
forces will benefit from upgrades and enhancements to proven systems. 
Interim forces will demonstrate the power of developmental and off-the-
shelf communications and intelligence capabilities. The Army has made 
the hard decisions for selective modernization to sustain combat 
overmatch. What is needed is continued support for our prudent 
investment strategy to keep our force strong and credible.
    Concurrently, the Army will selectively recapitalize Legacy Force 
equipment to reduce the rapid aging of our weapons systems. The fiscal 
year 2002 budget takes a step in this direction by providing additional 
funding to depot maintenance in preparation for recapitalization. The 
Army has determined that we preserve readiness best and most cost 
effectively when we retire or replace warfighting systems on a 20-year 
Department of Defense modernization cycle. Today, 12 of 16 critical 
weapons systems exceed this targeted fleet average age. As systems age, 
they become more costly and difficult to maintain in peak warfighting 
condition. They lose combat overmatch with respect to an adversary's 
modernized systems. The Army has established a selective 
recapitalization program that will restore aging systems to like-new 
condition and allow upgraded warfighting capabilities for a fraction of 
the replacement cost. We must maintain the readiness of the Legacy 
Force until the Objective Force is operational. As the Legacy Force 
maintains our strategic hedge and the Interim Force bridges the 
capability gap, the Army will build the Objective Force and complete 
the Vision for a trained and ready 21st Century Army.

                           THE INTERIM FORCE

    The fielding of the Interim Force fills the strategic gap between 
our heavy and light forces and is an essential step toward the 
Objective Force. The key component of the Interim Force is the Interim 
Brigade Combat Team (IBCT), the first of which is being organized at 
Fort Lewis, Washington. Its primary combat platform, the Interim 
Armored Vehicle (IAV), will fulfill an immediate requirement for a 
vehicle that is deployable any place in the world arriving ready for 
combat. The IAV will consist of two variants, a mobile gun system and 
an infantry carrier with nine configurations. The IAV will achieve 
interoperability and internetted capability with other IBCT systems by 
integrating command, control, communications, computer and 
intelligence, surveillance, and reconnaissance systems. Congress 
supported the IBCT concept with an additional $600 million in the 
fiscal year 2001 Defense Appropriations Act for IAV procurement and 
organizing the second IBCT. The Army has programmed resources to field 
six to eight IBCTs.
    The Army will train and test soldiers and leaders in the doctrine 
and organization of these new units to ensure that they can respond to 
operational requirements. An IAV-equipped battalion-sized element will 
undergo training and initial operational testing and evaluation to 
guarantee system suitability and effectiveness. Innovative applications 
and technology insertion in supporting forces will complete the IBCT 
package and enable full operational capabilities for the first IBCT in 
2005.

                          THE OBJECTIVE FORCE

    The Army's ultimate goal for Transformation is the Objective Force. 
Operating as part of a joint, combined, and/or interagency team, it 
will be capable of conducting rapid and decisive offensive, defensive, 
stability and support operations, and be able to transition among any 
of these missions without a loss of momentum. It will be lethal and 
survivable for warfighting and force protection; responsive and 
deployable for rapid mission tailoring and the projection required for 
crisis response; versatile and agile for success across the full 
spectrum of operations; and sustainable for extended regional 
engagement and sustained land combat. It will leverage joint and 
interagency reach-back capabilities for intelligence, logistical 
support, and information operations while protecting itself against 
information attacks. It will leverage space assets for communications; 
position, navigation, and timing; weather, terrain, and environmental 
monitoring; missile warning; and intelligence, surveillance, and 
reconnaissance. The Objective Force will provide for conventional 
overmatch and a greater degree of strategic responsiveness, mission 
versatility, and operational and tactical agility. With the Objective 
Force, the Army intends to deploy a combat-capable brigade anywhere in 
the world in 96 hours, a division in 120 hours, and five divisions in 
30 days. Our ability to quickly put a brigade-size force on the ground, 
with the balance of a division following a day later, fills a current 
gap for credible, rapid deterrence. The Objective Force will offer real 
strategic options in a crisis and changes the strategic calculations of 
our potential adversaries. The Army with Objective Force capability 
will provide the National Command Authorities with a full range of 
strategic options for regional engagement, crisis response, and land 
force operations in support of the Nation.

                         SCIENCE AND TECHNOLOGY

    Advances in science and technology will lead to significantly 
improved capabilities for the Objective Force. The Army is programming 
over $8 billion for science and technology efforts to begin fielding 
the Objective Force by the end of the current decade. This effort seeks 
to resolve a number of challenges: how to balance sustained lethality 
and survivability against ease of deployability; how to reduce 
strategic lift requirements and logistical footprint required in-
theater; how to mitigate risk to our support forces and to forces in-
theater; and how to ensure digitized, secure communications to provide 
battlefield awareness at all levels of command. The Army will find the 
best possible answers while maintaining the ready, disciplined, and 
robust forces our Nation demands, our allies expect, and our 
adversaries fear.
    Future Combat Systems (FCS), a system of systems, is one of the 
essential components for the Army's Objective Force. To accelerate 
development of key technologies, the Army partnered with the Defense 
Advanced Research Projects Agency in a collaborative effort for the 
design, development, and testing of FCS while simultaneously 
redesigning the force. The fiscal year 2002 budget funds FCS 
demonstrations of system-of-systems functions and cost sharing 
technologies. Forces equipped with FCS will network fires and maneuver 
in direct combat, deliver direct and indirect fires, perform 
intelligence, surveillance, and reconnaissance functions, and transport 
soldiers and materiel. Over the next 6 years, the Army will demonstrate 
and validate FCS functions and exploit high-payoff core technologies, 
including composite armor, active protection systems, multi-role 
(direct and indirect fire) cannons, compact kinetic energy missiles, 
hybrid electric propulsion, human engineering, and advanced electro-
optic and infrared sensors.
    Equally essential to the Objective Force, and consistent with 
Secretary Rumsfeld's strategic review, is the fielding of the Comanche 
helicopter beginning in 2006. The fiscal year 2002 budget continues our 
efforts toward achieving this important capability. Comanche is the 
central program of the Army aviation modernization plan and a prime 
example of existing modernization programs with significant value for 
Objective Force capability. Although Comanche will be fielded as part 
of the Objective Force, its digitization will be compatible with Legacy 
and Interim Force systems. Comanche will provide a lethal combination 
of reconnaissance and firepower.

                      INSTITUTIONAL TRANSFORMATION

    The fiscal year 2002 budget funds schoolhouse training at 100 
percent. This is a first. It funds U.S. Army Training and Doctrine 
Command (TRADOC) transformation initiatives to include expansion of one 
station unit training, establishment of a land warfare university, 
basic officer leadership course enhancements, establishment of an 
accession command, and quality assurance initiatives.
    As the combat formations are being transformed, the Army's 
institutional base--schools, services, facilities, and installations--
must also change to support both the Objective Force and current 
mission requirements. TRADOC produces tactically and technically 
proficient soldiers and leaders and the doctrine and concepts for 
operational success. The Army must train soldiers--in simulations, on 
ranges, and in exercises--and grow them into leaders who are capable of 
executing rapid and seamless transitions between missions throughout 
the spectrum of operations. Training must continuously improve and 
respond to emerging technologies. We must recapitalize and modernize 
ranges, distance learning centers, Army schools, and combat training 
centers to keep pace with changes in force structure, technology, and 
the global environment. We must address the increasing challenge to 
readiness posed by encroachment to our ranges and training areas while 
maintaining our environmental stewardship of these same lands.
    Army doctrine and concepts must also transform to keep pace with 
our changing operational force and growing technological advantages. As 
foundations for the Transformation, the two conceptual baselines for 
Army doctrine, Field Manuals, FM-1, The Army, and FM-3, Operations, 
were published June 14, 2001. TRADOC is revising and developing 
doctrine for organization and operation of the Interim Force and 
validating concepts for the Objective Force. We are also developing the 
concepts to integrate the capabilities of space and information 
operations to provide support across the entire spectrum of military 
operations. At every level, the Army is integrating emerging joint and 
multinational doctrine to develop the concepts that will field a force, 
grounded in doctrine, that is capable of providing the National Command 
Authorities a range of options for regional engagement, crisis 
response, and sustained land force operations.

                  ARMY TRAINING AND LEADER DEVELOPMENT

    Key to transformation is the training and leader development 
necessary for producing adaptive soldiers and leaders who can lead and 
succeed in both joint and combined environments while capitalizing on 
the latest battlefield technologies. The Army Training and Leader 
Development Panel (ATLDP) has concluded its in-depth study of issues 
affecting the Army's culture and its training and leader development 
doctrine. The ATLDP surveyed and interviewed over 13,500 officers and 
spouses. Follow-on studies of the noncommissioned officer and warrant 
officer corps will be conducted over the next 6 months. The primary 
objectives of the panel were to identify skill sets required of 
Objective Force leaders and to assess the ability of current training 
and leader development systems to cultivate those skills. Study 
participants addressed issues that included well-being, job 
satisfaction, training standards, and the officer education system. 
This study represents a candid self-assessment by the Army; it seeks to 
restore faith with soldiers and set a course for improving all aspects 
of the Army's culture by bringing institutional beliefs and practices 
in line. To that end, some steps have already been taken, including 
adapting the officer education system to meet the needs of the 
transforming Army; eliminating non-mission compliance tasks that 
interfere with war fighting training; allocating full resources to our 
Combat Training Centers; and protecting weekends for the well-being of 
soldiers and their families. It is a testament to the strength of any 
organization when it is willing to take such a candid look at itself, 
and this kind of healthy introspection characterizes a true profession.
    The fiscal year 2002 budget funds development of training, training 
products, and materials that support resident and unit training 
programs. It provides for the analysis, design, development, 
management, standardization of processes and practices integration and 
operations of Army training information systems and automation of the 
training development process. In the area of leader development it 
allows schoolhouse trainers to adapt training programs for future 
leaders and increases training support funding for aviation and 
specialized skill training. Further, the budget funds active component 
unit training OPTEMPO and supports critical training enablers. Our 
Combat Training Center program remains the proving ground for 
warfighting proficiency, and we currently have scheduled ten brigade 
rotations through the National Training Center, ten brigade rotations 
through the Joint Readiness Training Center, and five brigade rotations 
through the Combat Maneuver Training Center.

                       LOGISTICAL TRANSFORMATION

    We will transform logistical services and facilities to enhance 
readiness and strategic responsiveness. Today, logistics comprises 
approximately 80 percent of the Army's strategic lift requirement, 
creating a daunting challenge to deployability. Prepositioning stocks 
and forward presence solves only part of the problem. Currently, the 
Army has seven brigade sets of equipment forward deployed on land and 
at sea with an eighth brigade set being deployed in fiscal year 2002. 
As we fundamentally reshape the way the Army is deployed and sustained, 
we will ensure logistics transformation is synchronized with the needs 
of the operational forces and supports Department of Defense and Joint 
logistics transformation goals. The Army is examining how to reduce the 
logistical footprint in the theater of operations and to reduce 
logistical costs without hindering warfighting capability and 
readiness. Approaches already being explored are recapitalization, 
common vehicle chassis design, a national maintenance program, and an 
intermediate basing strategy for force protection. We are synchronizing 
the critical systems of the institutional Army with our operating 
forces to ensure the Transformation of the Army is holistic and 
complete.

                               CONCLUSION

    The Army has embarked on a historic enterprise. Recognizing that 
the forces we can provide to the combatant commands are becoming 
obsolescent in a changing strategic environment, the Army is 
transforming. With the support of the administration and Congress, the 
Army has charted a course that will better align its capabilities with 
the international security environment, enhancing responsiveness and 
deterrence while sustaining dominance at every point on the spectrum of 
operations. The Army Transformation is the most comprehensive program 
of change in a century and is already underway. It comes at a 
propitious moment. We live in a time of relative peace. Our Nation's 
economic strength has given us a period of prosperity. A decade of 
post-Cold War experience has provided us strategic perspective and 
American technological power gives us tremendous potential. We have 
seized this opportunity to guarantee our strategic capability and our 
non-negotiable contract with the American people well into this 
century.
    Mr. Chairman and distinguished members of the committee, we thank 
you once again for this opportunity to report to you today on the state 
of your Army. The statements made in this testimony are contingent upon 
the results of Secretary Rumsfeld's strategic review. We ask you to 
consider them in that light. We look forward to discussing these issues 
with you.

    Chairman Levin. Thank you.
    General.

STATEMENT OF GEN. ERIC K. SHINSEKI, USA, CHIEF OF STAFF, UNITED 
                          STATES ARMY

    General Shinseki. Mr. Chairman, Senator Warner, 
distinguished members of the committee: Today more than 24,000 
soldiers are operationally deployed around the world in 67 
countries. These are not new statistics to you. This committee 
in particular gets out to see those soldiers. But I give you 
those numbers because it gives you an indication of where the 
Army is deployed today.
    We remain a warfighting Army and our primary focus day to 
day attends to our warfighting prowess. But we also understand 
that we provide versatile and agile solutions for all the other 
challenges facing the United States. This explains in part our 
deployed profile, and in the absence of better alternatives we 
do not believe that we should leave the Nation without forces 
that can cover the full spectrum of demands that it confronts 
as a global leader day to day.
    To meet these obligations, the fiscal year 2002 
presidential budget amendment reflects a carefully balanced 
program that allows the Army to meet its readiness requirements 
in fiscal year 2002 while sustaining the other key elements of 
our vision--our people and the transformation of the force.
    With tremendous bipartisan support from Congress, we have 
achieved sustainable momentum in transforming the Army. We are 
committed to making that momentum irreversible as we make the 
Army faster, more lethal and decisive, and more affordable. In 
the next 10 years, we must be prudent about accepting more 
operational risk than we are already carrying today without 
good analytical foundations for such additional burdening.
    To date, we have moved out on our two interim brigade 
combat teams at Fort Lewis, Washington, and we are investing in 
science and technologies in ways that will enable us to begin 
research and development on those Science and Technology (S&T) 
initiatives in the 2003-2004 timeframe. Momentum here is good. 
In order to protect that momentum, our priority under the new 
budget is to extend the life of our Legacy Force systems 
through recapitalization and selective upgrades to our current 
warfighting platforms.
    Today 75 percent of those combat systems exceed their 
expected half-life, increasing operations and maintenance costs 
by 30 percent over the past 4 years. Apache helicopter safety 
of flight messages alone have gone up by over 200 percent since 
1995. To combat these spiraling costs, we have identified 19 
systems that must be recapitalized in order to extend their 
useful readiness. We must also selectively modernize those 
capabilities with systems like Crusader and Comanche, which 
will cost-effectively maximize the capabilities of the Legacy 
Force and also answer Objective Force requirements.
    We are grateful for this committee's devotion to improving 
the well being of our soldiers and their families. It is making 
a difference. These initiatives will begin to slow the rate of 
decay of our infrastructure, but not totally reverse it. We 
must protect the dollars we have elected to shift to these 
accounts and remain vigilant in fixing this problem.
    Mr. Chairman, the Army Vision is about future American 
leadership at home and abroad. Decisive land power uniquely and 
critically counters international threats and defends U.S. 
interests, and when resistance is overcome, land power 
ultimately guarantees compliance with terms of peace. 
Thereafter, it enables the establishment of legitimate 
authorities and rebuilding in areas of conflict. In short, land 
power provides the National Command Authorities and the 
warfighting CINCs with the kind of flexibility to respond to 
and resolve crises.
    Thank you for your invitation to appear here today. I look 
forward to your questions.
    Chairman Levin. Thank you, General Shinseki.
    Secretary England.

   STATEMENT OF HON. GORDON R. ENGLAND, SECRETARY OF THE NAVY

    Secretary England. Chairman Levin and Senator Warner, 
members of the committee: I am delighted to be here. I am 
especially delighted to be here with Admiral Clark and General 
Jones. Hopefully, you will see us together much in the future 
because we have formed indeed, Senator Warner, a very, very 
close leadership team as we lead our forces into the future.
    I do want to thank this committee for your support in the 
past and for your continuing support of our naval services. In 
fiscal year 2001 and particularly with the supplement provided, 
as a naval service we were able to meet our commitments, but 
with some unfulfilled needs. The submitted budget for fiscal 
year 2002 has the naval service getting better in all 
categories.
    Senator Warner, we do maintain the momentum in 2002 with 
the budget we have submitted. It is still short of our end 
objective and you will be hearing more of that, I know, from 
the chiefs. We are looking to the 2003 budget submittal to 
reflect the ongoing studies and the future force structure.
    Senator Levin, the CNO and the Commandant and I, in 
response to your comment earlier, do plan to include in the 
2003 budget specific business practice improvements within the 
Department of the Navy to make our organization far more 
efficient and effective. We do agree with Secretary Rumsfeld, 
we do believe 5 percent is certainly reasonable in terms of 
improved proficiency and efficiency and effectiveness, and you 
will see that reflected in our 2003 submittal to you.
    So I do look forward to working with each of you as we 
address these challenges ahead. I thank you for this 
opportunity to appear before you, and I also look forward to 
your questions.
    Thank you very much, sir.
    [The prepared statement of Secretary England follows:]
              Prepared Statement by Hon. Gordon R. England
    Mr. Chairman, members of the committee, good morning. Thank you for 
the opportunity to speak with you today. The CNO, Commandant and I are 
grateful for your continuing support to keep the Navy and Marine Corps 
the very best in the world.
    Let me begin by saying the Navy and Marine Corps remain a strong 
and potent arm of our Nation's military forces. They have maintained a 
forward presence in all corners of the globe ready to perform any 
mission called for from humanitarian relief to interdiction operations. 
Able to deploy on short notice the Navy Marine Corps team provides the 
theater and regional commanders a well trained and effective fighting 
force.
    In his remarks at the Naval Academy graduation, President Bush 
said, ``We must build forces that draw upon the revolutionary advances 
in the technology of war that will allow us to keep the peace by 
redefining war on our terms--a force that is defined less by size and 
more by knowledge and swiftness . . . and that relies heavily on 
stealth, precision weaponry and information technologies.'' I am in 
full agreement with this challenge and, while naval forces inherently 
fit the President's vision, some modifications and alignments may be 
needed to meet these goals.
    But such changes are best made with a full understanding of the 
uses to which Navy and Marine Corps units are being put today. For 
instance, forward deployed naval forces are present around the world 
and are central to assuring the availability of the sea lines through 
which international commerce and key resources such as oil flow. Also, 
as Theater Commanders in Chief develop their comprehensive Theater 
Engagement Plans (TEP) in support of the National Security Strategy and 
National Military Strategy, the Navy and Marine Corps play particularly 
important roles in TEP execution by virtue of their regular forward 
presence. Lastly, we know that naval forces are regularly called upon 
to execute combat tasking on short notice in distant parts of the 
world. From the time my predecessor testified before this committee on 
10 February 2000, Navy or Marine forces have engaged in combat over the 
skies of Iraq, in humanitarian support in East Timor, South America and 
in Europe.
    Looking forward, it is useful to note that for some time the sea 
services have undertaken an evolutionary shift from operations 
predominantly on the open seas to operations that include the littoral: 
an evolution that has underscored the requirement for improved data 
networking; tailored battle management systems and sensors; and 
innovative ideas for employing marines that are attuned to the 
difficult littoral environment--afloat and ashore. This shift in focus 
generates a need to look at our equipment across a broader mission 
range . . . such as time-critical strike, ballistic and cruise missile 
defense; littoral and deep water anti-submarine warfare; intelligence, 
surveillance, and reconnaissance; air and ground mobility; and 
expeditionary maneuver warfare.
    We also recognize that we need to recapitalize our force--by that I 
mean building new platforms--for the future. For instance, even as the 
average age of our ships has been steadily increasing to its present 
average of 16 years--and trending upward for the next 5 or so years--
our building rates have not been keeping apace. Likewise, the average 
age of Navy and Marine Corps aircraft is about 18 years . . . close to 
the age of those sailors and marines who maintain them. However, the 
shape of the Navy of the future may change, as we work to develop a new 
national military strategy that takes new threats and new opportunities 
into consideration. Here also building aircraft in sufficient numbers . 
. . ideally at economical orders of production . . . is called for.
    We have precious few new programs to recapitalize our forces other 
than systems like DDG 51, F/A-18E/F, and the new carrier under 
construction, U.S.S. Ronald Reagan. In fact, projected replacement 
aircraft, such as the F/A-18 E/F and the Joint Strike Fighter do not 
meet the entire need under current plans, as there are no replacements 
scheduled for the EA-6B, P-3, or E-2 aircraft and some of our 
helicopter fleet. New funding may be needed, but I also intend to 
identify some funding sources through process improvement.
    Modernization of our current force is also an imperative because of 
the requirement to be able to prevail if called upon in the near term. 
Nonetheless, it is prudent to accept reasonable risk by some reduction 
of expenditure in these accounts in order to make available assets for 
recapitalization for the future.
    With that backdrop. I intend to make the most of our Navy-Marine 
Corps team by focusing on four strategic areas: combat capability, 
people, technology, and business practices.
    First, as this committee is well aware, the primary purpose of the 
Navy and Marine Corps is to deter, train for, and when necessary, fight 
and win our Nation's battles. In remaining faithful to this charge, 
combat capability, which includes readiness, must be our primary 
emphasis. In all our decision-making, we will ask the question, ``Does 
this task, program, organization, or facility materially contribute to 
improving our combat capability?'' Likewise we will recognize that what 
has worked in the past may not always succeed in the future. Therefore, 
the department will invest more in technical and doctrinal 
experimentation, and in new and different ways of accomplishing our 
mission. Let me emphasize, our mission is, and will remain, joint. We 
are committed to the concept ``One Team, One Fight.'' Along with our 
sister services and allies, we will organize, equip and train to fight 
jointly, recognizing that forward deployed naval forces are integral to 
the combined efforts of all the armed services.
    Second, my very highest priority is our men and women in uniform, 
their families and our civilian workforce. During my confirmation 
hearings, I commented that any capital asset purchased by the 
Department of the Navy has no value to the Nation until it is manned by 
highly motivated and trained people. Therefore, as we plan for the 
future, we need to first be sure that our personnel policies will 
provide us the people and skills we require for our future systems.
    In this regard, emphasis needs to be placed on ``Quality of 
Service''--achieving a higher quality workplace as well as a higher 
quality of life for our sailors, marines, active duty and reserve, and 
civilians and all of their families. The goal will be to create an 
environment where our men and women can excel at their chosen 
profession, unimpeded by factors that divert their attention from work 
and sap their morale. This includes state-of-the-art tools, cutting-
edge training, competitive compensation and efficient health care, and 
an operational tempo that considers the individual, as well as the 
family. Fostering a positive working environment where young men and 
women believe they contribute meaningfully to their units will 
encourage them to want to stay and grow with our team. When people want 
to stay with a group, others will want to join that group. Retention is 
a great recruiting tool!
    Third, the application of advanced technology is central to our 
Nation's military strength. I am concerned, however, that the 
application of technology in the military has for a generation lagged 
its commercial availability. This is a high priority in our combat 
systems, but also includes technology for training, testing and 
management systems. Technological advances are central to the 
priorities set forth by the President and Secretary of Defense as we 
shift from the 20th century force, to the more lethal and agile one of 
the 21st. Technology will emphasize networks of information and 
communications as well as improvements in sensors and weapons. 
Initiatives are on going to translate such concepts as the Navy's 
Netcentric Warfare and the Marine Corps Expeditionary Maneuver Warfare 
into reality. The Naval War College's Navy Warfare Development Command 
and Marine Corps Combat Development Command along with numerous Fleet 
Battle Experiments are but one example of the testing of new concepts, 
equipment, and doctrine in both the joint and naval environments.
    But technology is changing fast, so care must be taken to plan for 
future advances by anticipating logical insertion points early in the 
design process. This preplanned improvement schedule combined with 
spiral design should allow for the delivery of increased combat 
capability over a shorter period of time. Also important, U.S. systems 
need to have designed into them conduits that allow our allies to 
participate to the best of their significant capabilities at increasing 
levels of complexity. It goes without saying that embarking on this 
technological transformation will necessitate we recruit, train, and 
retain bright and intelligent people to operate and maintain these 
systems.
    Fourth, our management team should be more process-oriented, 
working on ways to improve ``how we do business'' rather than 
concentrating only on specific programs and products. To do that, we 
need to know where we are and to have clear visibility of where we are 
going. Measures and metrics provide the tools to do so and as such, 
will be a key element of our process-oriented management strategy. Our 
cold war acquisition infrastructure and regulations have been described 
as a ``voracious dinosaur consuming dollars which should be applied to 
the real mission.'' It is time to change. Borrowing applicable business 
practices from commercial industry is a logical step. While the Navy 
and Marine Corps will always need good leaders in their primary combat 
arms arena, the Department of Navy will also develop leaders with a 
better understanding of business strategies, cost control and rapid and 
flexible design.
    The Department has embraced the use of teams for integrated product 
and process development. We intend also to focus on activity based 
costing to better understand the actual price we are paying for a 
platform or system, both for acquisition and equally importantly for 
support over the life of the system. These initiatives should help to 
free resources to recapitalize our operating forces, establish 
processes that leverage commercial capabilities, maintain excellence 
and attract and retain quality people.
    The world has changed a great deal over the past decade. But one 
thing, has not changed: the Navy and Marine Corps needs to deter, train 
for, and when necessary fight and win our Nation's battles. As we steam 
into this new century, I am reminded that forward presence provides an 
essential benefit for our Nation. The Navy and Marine Corps, and in 
fact the entire U.S. military, contribute to a stable global 
environment allowing our economy and our citizens to prosper along with 
other nations and peoples throughout the world. The stabilizing 
benefits of American military strength are key to our National 
interests and the well being of the international community. The 
investment by our Nation in its military to underwrite this prosperity 
is, indeed quite modest.
    I look forward to working with Congress, the Secretary of Defense, 
and our sister Services to meet the challenges in the next year and 
beyond. The changes and transformations I have discussed constitute a 
start at the beginning of the new century. Thank you for your time this 
morning and your continued support for our sailors, marines . . . 
active and Reserve . . . our civilians and their families.
    The statements made in this testimony are contingent upon the 
results of Secretary Rumsfeld's strategic review. I ask that you 
consider them in that light.

    Chairman Levin. Thank you, Secretary England.
    Admiral Clark.

    STATEMENT OF ADM. VERNON E. CLARK, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Thank you, Chairman Levin, Senator Warner, 
and members of this committee. I thank you for the opportunity 
to appear before you today. I am grateful always for your 
consistently strong support of the men and women of our Navy.
    This morning as I speak, 96 of our 316 ships are forward 
deployed, almost 50,000 of our sailors at the far reaches of 
the Earth. That is the cycle of deployment for our Navy. Every 
day, every year, it never stops and it has not for many years, 
thanks in large part to the support of this committee.
    The young men and women who volunteer to serve in our Navy, 
they work hard, they make it work. We owe them a great deal. 
They are doing a magnificent job and you have much to be proud 
in their service.
    We do this as part of the Navy-Marine Corps team. It is 
appropriate that I am sitting next to General Jones. But we 
also do it operating jointly with the Army and the Air Force, 
projecting sovereign American power on and from the sea, close 
to home and in the far corners of the globe. We are doing this 
today with a relatively small force, 41 percent fewer ships 
than we had 10 years ago.
    Our Navy is not breaking under stress, but its operational 
elasticity has diminished significantly. We face serious fiscal 
challenges due to the mismatch between mission requirements and 
resources. For too long we have deferred modernization and 
recapitalization of the force and paid for mission 
accomplishment by postponing maintenance and repair of our 
infrastructure. This trend now poses, in my opinion, a serious 
risk to our future.
    We also are streamlining our organizations, and I want to 
refer to Secretary England's comment. It is important that we 
improve our analytical underpinning, our metrics on how we 
accurately determine our requirements in the future, to 
continue to improve readiness and to maximize investment 
effectiveness.
    A major focus of our future follows Secretary England's 
emphasis on using better business practices throughout our 
Navy. I share his enthusiasm for this very important cause. We 
need to reform the way we do business in the Department.
    Regarding current readiness, I am encouraged by the fiscal 
year 2002 amended defense budget. It makes substantial 
investments to move the readiness accounts toward required 
levels.
    In previous appearances I have talked here about being at 
war for people. Certainly they are the key to mission 
accomplishment. The improvements in compensation that you have 
supported and in fact brought about--bonuses, pay table 
adjustments, retirement reforms, better medical care, and in 
fact the initiative to balance their out of pocket expenses in 
housing--they are having the desired impact. Recruiting is on 
track for 2001 and this is good news.
    But more exciting to me is the substantial improvement that 
we are making in retention. The targeted pay raise and other 
initiatives in the 2002 budget amendment will reinforce these 
positive trends.
    One word about quality of service. We have made substantial 
gains in our quality of life programs, with the support of 
Congress. Our quality of work programs require improvement, 
especially the infrastructure. Our Navy's shore structure is in 
poor condition. Our recapitalization cycle exceeds 160 years 
and my critical backlog is over $2.75 billion. Our real 
property maintenance funding is significantly below private 
industry norms. I have spoken on this point on virtually every 
trip to the Hill and we continue to seek your support to change 
the way we think about this vital area.
    Certainly the challenge of sustaining current readiness 
while investing in key future capabilities is a difficult 
balancing act. Following underinvestment in the decade of the 
nineties, we face an acquisition bow wave. It has been spoken 
about here before. We need nine ships and at least 180 
airplanes a year to sustain the 1997 QDR level. I use that 
frame of reference because that is what we are targeted against 
until we arrive at a new strategy and force structure profile. 
But we are proceeding at significantly less than that and we 
cannot sustain the Navy that we have today with current funding 
levels, which will lead eventually to a Navy of somewhere 
around 230 ships.
    I am very interested in innovative solutions to accelerate 
ship and aircraft procurement rates. To do this, I am convinced 
that we must find ways to more effectively partner with 
industry and level fund our annual investments in this type of 
construction.
    Ensuring current readiness, modernizing our fleet, 
providing sailors with high quality of service, and 
transforming to meet future needs--we also need these things to 
do this. This budget moves us in the right direction, but we 
need continued and increased investment. The challenges facing 
our Navy are significant, but with the help of this committee 
and Congress they can be overcome.
    I again thank the committee for your continued support to 
our Navy, to our sailors, and to their families, and I look 
forward to answering your questions.
    [The prepared statement of Admiral Clark follows:]

            Prepared Statement by Adm. Vernon E. Clark, USN

    Mr. Chairman and members of the committee, I appreciate this 
opportunity to appear before you. Your consistent support of Navy 
requirements and vision of a strong Navy for our Nation have protected 
the quality of life of our sailors and enhanced operational readiness 
during the past year. I am very grateful and I thank you.

        THE UNITED STATES NAVY: ON WATCH FOR AMERICA'S SECURITY

    The defense and prosperity of the United States has been tied to 
the seas since the founding of our Republic and the United States Navy 
has been the principal instrument of that security. Our Navy's history 
is one of international engagement in peacetime, effective response in 
crisis, and victory in conflict. It includes a rich tradition of 
innovation, adaptation, and courage in meeting regional and global 
threats that have confronted our Nation over the past two and a quarter 
centuries.
    Today, on the threshold of this new century, we face emergent 
challenges that are adding complexity to the missions our Navy has 
traditionally accomplished, providing powerful impetus for change. 
Cyberwar, weapons of mass destruction (WMD), international terrorism, 
and the violence accompanying failed states--to name but some of these 
threats--do not replace the specter of state on state conflict. Rather 
they add to the danger, providing spark to already combustible 
situations.
    To counter these challenges, we are investing in a 21st Century 
Navy of awesome capability: a Navy that is strategically, 
operationally, and tactically agile; technologically and 
organizationally innovative; networked at every level; highly joint; 
and effectively integrated with allies. It is a Navy that will remain 
at the leading edge of the joint and combined fight--forward deployed 
to enhance deterrence, react swiftly to crises, and triumph in war.
    These attributes are critical because our Navy will operate in a 
volatile world of rapid change, more dangerous in some regards than 
when we faced the global strike and sea denial capabilities of the 
Soviet Union. This strategic environment will place a premium on 
freedom of access, and America will need the capabilities of the Navy/
Marine Corps team operating from the maritime domain--free to move 
about the world, influencing events, representing our Nation's vital 
interests, and remaining ready to fight and win.

                     THE IMPORTANCE OF NAVAL FORCES

    In 2002 and beyond, our Navy's posture, programs, and character 
will be shaped by the mission of projecting sovereign American power in 
support of national interests while forward-deployed to the far corners 
of the earth.
    Such forward-deployed naval forces are central to the success of 
the National Military Strategy and integral to regional Commander in 
Chief (CINC) plans for peacetime and combat operations. A premier 
instrument of American power, your Navy operates around the globe, 
demonstrating command of the seas, ensuring the free flow of trade and 
resources, providing combat-ready presence, and assuring access for 
joint forces.
    Our Navy is shaped to meet the national and regional requirement 
for forward forces. While some ships and squadrons are homeported 
overseas, most deploy rotationally for periods of up to 6 months in an 
18-24 month cycle. This construct drives the Navy's force structure.
    Fulfilling these important missions has become steadily more 
challenging. While the requirement for forward-deployed, combat-capable 
naval forces has remained constant since the end of the Cold War, 
assets available to meet that requirement have decreased markedly. Our 
force structure declined 41 percent since 1991, from 538 to 316 ships. 
Currently one-third of our ships are forward deployed every day 
compared to approximately one-fifth during the Cold War. Our Navy is a 
carefully balanced force optimized to fill the global presence 
requirements of the Unified CINCs.
    One of today's central defense issues relates to the continued 
relevancy of overseas forces. Since the end of the Cold War, the United 
States military has become a mostly CONUS-based force. We have 
withdrawn two thirds of our permanently stationed forces from Europe 
and are fulfilling Middle East presence requirements with rotational 
units. With the exception of Korea, Asian commitments are being covered 
by naval forces or flyaway units from the United States.
    Emerging technologies have offset some of these overseas presence 
reductions, yet virtually all strategic planners remain committed to 
the importance of forward-deployed forces. They appreciate that 
regionally engaged, combat credible assets maximize our ability to 
dissuade potential adversaries, deter aggression, and quickly bring 
warfighting power to bear when needed. Operationally, such presence is 
fundamental to providing sustained precision fires and projecting 
defense overland to assure access for expeditionary joint forces.
    Forward presence is not without risk, however, and we are committed 
to making the investments necessary to assure mission effectiveness in 
view of emergent threats. In short, we must remain ready to ``climb 
into the ring'' with our opponents--and not only the ring defined by 
us--and prevail.

                   THE CHALLENGE OF CURRENT READINESS

    The standard by which we measure current readiness is the ability 
of naval forces to confidently meet the challenges of an uncertain 
world from the very first day of deployment. We will deploy and operate 
ready to conduct combat operations with maximum effectiveness and 
minimum risk.
    Forward-deployed naval forces are prepared to do so. As reported 
first in the latter part of the 1990s, the readiness of deployed forces 
is being achieved more and more at the expense of the non-deployed 
segment of our force structure. Non-deployed forces are operating below 
satisfactory readiness levels, making it increasingly difficult to meet 
operational standards and deployment requirements. Analysis of fleet 
forces (figure 1) clearly illustrates the growing gap between deployed 
and non-deployed Navy units in overall readiness during the last two 
decades.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                                Figure 1

    Many ships, including the Austin and Anchorage-class amphibious 
ships, as well as our fleet command ships, are reaching the end of 
their service lives. Such units often require unprogrammed repairs, 
forcing us to divert funds to meet urgent maintenance requirements. 
These actions, in turn, produce a maintenance backlog that is very 
unhealthy, especially given the size of our Navy today.
    Another important fact is that ships reaching service mid-life, 
like the oldest of our Aegis cruisers, require modernization to be 
operationally viable in future hostile situations. Funds to complete 
this type of modernization have historically not competed successfully 
against other recapitalization requirements.
    Naval aviation, in particular, poses profound challenges. Our 
aviation force now contains the oldest mix of type/model/series 
aircraft in naval history, yet it is our aircraft that are routinely 
employed in combat overseas. For the first time, our average aircraft 
age exceeds the average age of combatant ships, leading to a 
corresponding increase in the cost of operations and maintenance.
    Global tasking has continually stressed our aviation force. As a 
result, the F/A-18 has been flown well in excess of planned utilization 
rates and more than 300 aircraft will require service life extensions 
earlier than planned or budgeted. Similar situations apply to F-14s, 
EA-6Bs, P-3Cs, SH-60s, and virtually every other aircraft in the fleet.
    The single most influential factor in achieving near-term aviation 
readiness is the health of our Flying Hour Program, which includes 
fuel, consumable spare parts, and Aviation Depot Level Repairables 
(AVDLRs). The cost of AVDLRs has risen an average of 13.8 percent per 
year from fiscal year 1996-1999; the cost increases are driven 
principally by age. Despite attempts to alleviate shortages in AVDLRs, 
we continue to experience shortfalls. Shortages also exist in aviation 
mission critical items such as targeting pods and repair equipment on 
aircraft carriers.
    The most effective manner in which to address the problems facing 
naval aviation is to introduce new aircraft into the fleet as soon as 
possible. Toward that end, the fiscal year 2002 amended budget takes 
steps to increase the number of F-18 E/F aircraft. We are currently in 
an age/cost spiral that can be best corrected by addressing these 
modernization requirements.
    Current readiness shortfalls facing our ships and aircraft would be 
far worse were it not for aggressive action already taken. We 
reprogrammed nearly $6.5 billion from other Navy programs to the 
current readiness portion of the Navy baseline program for fiscal year 
2002-2007, shoring up the Flying Hour Program, Ship Depot Maintenance, 
Ship Operations, and Real Property Maintenance accounts. The fiscal 
year 2002 amended defense budget will have a further positive impact 
due to the substantial investment being made in bringing readiness 
accounts to required levels. This budget puts us on course to correct 
the under-investment in readiness.
                   the imperative of future readiness
    The challenge of sustaining current readiness while investing in 
key future capabilities has been a most difficult balancing act. 
Current readiness has too often come at the expense of recapitalization 
and modernization. As a result, modernization efforts have not kept 
pace. Figure 2 shows the dramatic decline in authorized ships over the 
past five decades.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                                Figure 2

    Due to the level of investment in procurement during the 1990s, we 
face a significant acquisition ``bow wave'' for ships and aircraft 
today. I am on the record in stating that the Navy needs about $34 
billion a year to meet procurement requirements--this is about $10 
billion per year more than funded at present. We must buy 180-210 
aircraft and nine ships a year to sustain the 1997 QDR force level of 
4,200 aircraft and 310 ships.
    We are procuring significantly less than that. We will procure just 
six ships and 88 naval aircraft in fiscal year 2002. We cannot sustain 
the Navy we have today with current funding levels, which would lead to 
a 230 ship Navy over time.
    The impact of the current low procurement rate goes beyond force 
levels. It adversely affects the stability of our unique defense 
industrial base. We are paying a premium in program cost today and 
realizing substantial cost growth because of production inefficiencies 
due to the lack of economies of scale. For the Navy, virtually every 
procurement program of record is proceeding at a sub-optimum economic 
order of quantity.
    Still, we are making important investments in programs that will 
comprise the core capability of our forces in the coming decades. DD-
21, CVNX, JSF, FA-18E/F, LPD-17 and the Virginia-class SSN present 
compelling technological leaps in warfighting capability and 
innovation.
    The status of programs discussed below, as well as the associated 
funding levels, is subject to change as a result of the ongoing 
Quadrennial Defense Review. The Secretary of Defense will develop 
funding guidelines beyond fiscal year 2002 when that review is 
complete.
    Program specifics include:

          DD-21. The Zumwalt-class destroyer will provide sustained, 
        distributed, and precise firepower at long ranges to support 
        joint forces ashore by conducting precision attacks on land 
        targets while simultaneously engaging threats above and below 
        the sea. This program is central to our transformation effort, 
        including the introduction of Integrated Power Systems (IPS), 
        the Advanced Gun System (AGS), multi-function radar, and 
        reduced manning concepts. Additionally, DD-21 is another step 
        toward the creation of a more integrated Navy/Marine Corps 
        team. DD-21 will provide significantly enhanced fire support 
        for marines ashore. The fiscal year 2002 amended budget 
        provides continued RDT&E investment pending final contractor 
        down-select later this year.
          CVNX. The fiscal year 2002 amended budget provides RDT&E and 
        advance procurement for the first CVNX, which will replace 
        U.S.S. Enterprise in fiscal year 2013 and sustain essential 
        carrier force levels. Principal design objectives for the CVNX 
        class include a significant reduction of total ownership costs 
        during the carrier's 50-year expected service life, reduced 
        manning, and introduction of a flexible infrastructure that 
        will facilitate the insertion of new warfighting capabilities 
        as they evolve.
          JSF. The Joint Strike Fighter program will field a family of 
        tri-service, next-generation strike aircraft with an emphasis 
        on commonality, providing sustainable U.S. and allied 
        technological superiority at affordable prices. The fiscal year 
        2002 amended budget supports vigorous R&D investments required 
        to procure the initial variant in fiscal year 2006.
          LPD-17. We are not requesting additional LPD-17 class ships 
        in the fiscal year 2002 budget, due in part to design and 
        production challenges with the lead ship. We remain fully 
        committed to the program, however, as it supports vital 
        littoral warfighting requirements and promises relief from 
        mounting costs of our aging amphibious ships. The 12 projected 
        LPD-17s will replace four older classes of ships and serve as 
        central elements of future Amphibious Ready Groups.
          Virginia-class SSN. This class will sustain minimum essential 
        attack submarine force levels as the Los Angeles (SSN-688)-
        class attack submarines leave the fleet. They are specifically 
        designed for multi-mission littoral and regional operations as 
        well as traditional open-ocean anti-submarine and anti-surface 
        missions. Equally important, flexibility is designed into these 
        ships to allow incorporation of new technologies. The fiscal 
        year 2002 amended budget procures one submarine per year and 
        continues RDT&E. This pace of procurement is not sufficient to 
        maintain our required attack submarine force level over the 
        long term.
          F/A-18E/F. The F/A-18E/F will replace older F/A-18s and all 
        F-14s. There is extensive commonality of weapons systems, 
        avionics, and software between F/A-18 variants, and the 
        infrastructure supporting the Super Hornet builds upon existing 
        organizations. We strongly support the fiscal year 2002 amended 
        budget's procurement increase from 39 to 48 aircraft to take 
        advantage of economies of scale.

                     GROWING AND DEVELOPING SAILORS

    Navy men and women are our most valuable resource and we must 
provide them with the tools and leadership to excel. We are and will 
continue to be in a ``War for Talent'' with other employers. To win 
this war, we are focusing on recruiting the right people, reducing 
attrition, and increasing reenlistments.
    Improvements in compensation that you supported--bonuses, pay table 
adjustments, retirement reforms, and better medical benefits--are 
having the desired impact. The targeted pay raise and other initiatives 
in the Fiscal Year 2002 Budget Amendment will reinforce these positive 
trends.
    The Navy met its overall recruiting and end-strength goals in 
fiscal year 1999 and 2000, and we are on track for fiscal year 2001. We 
are currently reenlisting nearly 60 percent of eligible Sailors who 
reach the end of their first enlistments, compared with 47 percent in 
1999. Sixty-seven percent of petty officers with 6-10 years of service 
are reenlisting, compared with 60 percent 2 years ago. Annual attrition 
rates for first term Sailors have fallen from over 14 percent to less 
than 12 percent since 1998. Officer retention remains well below 
steady-state goals, however, in every community except Naval Flight 
Officers.
    Better than anticipated manning in fiscal year 2001, the result of 
long sought after improvements in recruiting and retention, has reduced 
at-sea billet gaps and allowed our Navy to begin filling increased 
requirements in areas such as anti-terrorism/force protection, aviation 
maintenance, and environmental billets at sea. As a result, we are 
requesting authorization in fiscal year 2002 to increase our end-
strength from 372,642 to 376,000. This additional end-strength will 
lock-in gains we have made in improved at-sea manning and enhanced 
readiness.
    A major initiative aimed at further strengthening the professional 
development of Sailors is the Revolution in Training that is getting 
underway. This effort, which will unfold over the next 3 years, will 
leverage distance learning technologies, the improved Navy information 
exchange network, and a career-long training investment continuum to 
fully realize the learning potential of our professional force. This 
development is vital to the health of our manpower growth and 
development concepts of the 21st century.
    Looking ahead, two personnel issues concern me. First is the 
erosion in Career Sea Pay, last updated in 1986. Redress of this 
problem was authorized in the Fiscal Year 2001 National Defense 
Authorization Act (NDAA) but not funded.
    Second is the ITEMPO legislation contained in the fiscal year 2000 
and 2001 NDAAs. Despite major progress made in mitigating time away 
from home for our Sailors, this legislation has the potential to 
significantly impact our force. Since October 2000, we have been 
collecting fleet data to evaluate the potential cost of this program. 
We will work closely with you in the months to come as the full impact 
of this legislation becomes clear.
             quality of service: a critical retention tool
    A high Quality of Service--defined as a balanced combination of 
Quality of Life and Quality of Work--is directly related to retaining 
and motivating Sailors. While we have made gains in Quality of Life 
programs, our Quality of Work requires substantial improvement in many 
areas.
    In previous testimony, I noted that a ``psychology of 
deficiency''--the acceptance of sustained resource shortages as a 
normal condition--has become ingrained in our operating forces. It 
manifests itself in such things as substandard facilities and working 
environments. Over time, our people have not only become accustomed to 
poor facilities, many believe they will never improve.
    Our Navy's shore infrastructure is in such condition because our 
recapitalization cycle exceeds 160 years, our critical backlog of 
maintenance and repair exceeds $2.75 billion, and our RPM funding is 
significantly below the private industry average.
    Meeting this challenge requires finding innovative ways to satisfy 
infrastructure needs. The fiscal year 2002 amended budget makes modest 
increases in RPM and military construction accounts that represent a 
start in bringing our shore facilities up to standard. There is much 
left to be done.

                         THE POWER OF ALIGNMENT

    Navy-wide alignment is critical to ensuring our organizations, 
systems, and processes deliver a combat-capable Navy ready to sail in 
harm's way. To enhance communications and coordination, we reorganized 
the Navy Staff so that a Deputy CNO is focused exclusively on Fleet 
Readiness and Logistics, while another Deputy CNO is dedicated to 
Warfare Requirements and Programs.
    In the fleets, we have taken action to consolidate leadership 
functions for naval aviation, surface, and subsurface forces. This will 
enable us to accomplish our missions in a better organized and more 
consistent manner around the world. Additionally, we are streamlining 
our requirements and readiness reporting process and amplifying the 
fleet voice in Washington decision-making, allowing us to more 
accurately determine requirements, improve readiness, and maximize 
investment effectiveness.
    These actions are taken with the realization that we must, at every 
level, ensure our Navy is functioning as effectively and efficiently as 
possible. The Secretary of the Navy has made the incorporation of 
better business practices a major tenet of his plan of action. I share 
his enthusiasm for this cause. More accurate requirements forecasting, 
enhanced stability in program execution, greater efficiency in system 
design and production, and improved expenditure discipline in 
infrastructure maintenance and renewal all promise the taxpayer a 
fuller return on investment and our Navy a healthier future.

               TRANSFORMING TO MEET 21ST CENTURY THREATS

    Ensuring future readiness is not solely a matter of procurement. It 
also requires substantial investment in Science and Technology accounts 
to swiftly and effectively leverage emerging opportunities. Such 
agility will be key to the success of our conceptual shift from 
platform-centric warfare to an emphasis on networked, distributed 
systems.
    For the Navy, transformation is about achieving greater warfighting 
capability per unit delivered to the CINC (Battle Group/Amphibious 
Ready Group/Ship/Aircraft/ Submarine.) We are transforming in two ways: 
by gaining capability through investment in critical technologies and 
by experimenting with the application of those technologies in an 
operational environment.
    Enhanced capability will be achieved via prioritized investments 
focusing on networks, sensors, weapons and platforms. Examples of Navy 
investments key to the success of netted warfare include Information 
Technology for the 21st Century (IT-21), Navy-Marine Corps Intranet, 
Cooperative Engagement Capability (CEC), F/A-18E/F Shared 
Reconnaissance Pod (SHARP), Advanced Targeting Forward Looking Infra-
Red targeting pod (ATFLIR), Naval Fires Network, Unmanned Airborne 
Vehicles (UAVs), Unmanned Combat Air Vehicles (UCAVs), Unmanned 
Undersea Vehicles (UUVs), Advanced Electronically Scanned Array (AESA) 
Radar, E-2C Radar Modernization Program (RMP), Acoustic Rapid COTS 
Insertion (ARCI), Link-16, and Multi-function Information Distribution 
System (MIDS) data links.
    Also key to transforming the fleet to meet 21st century threats is 
our serious commitment to fleet experimentation, spearheaded by the 
Navy Warfare Development Command in Newport, Rhode Island. Our ongoing 
series of Fleet Battle Experiments, working hand-in-hand with U.S. 
Joint Forces Command's experimentation efforts, holds great promise for 
doctrinal and programmatic development.
    The result of these efforts will be a fleet that enhances 
conventional and WMD deterrence, assures access, conducts precision 
strike, gathers real-time intelligence, exercises joint command and 
control, and exploits the priceless advantages of sea control. In 
short, it will be a transformed Navy that continues its time-honored 
service, on watch for America's security.

                               CONCLUSION

    I thank the committee for your continued strong support of our 
Navy, our sailors, and their families. Working together, I am confident 
that we can meet the challenges of current and future readiness, 
allowing the United States Navy to fulfill the missions fundamental to 
a more stable and peaceful world.

    Chairman Levin. Admiral Clark, thank you very much.
    General Jones.

STATEMENT OF GEN. JAMES L. JONES, JR., USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Jones. Mr. Chairman, members of the committee: 
Thank you very much for your kind thoughts and words with 
regard to the families of marines who lost their lives and were 
injured in the accident last night at New River, North 
Carolina. Mr. Chairman, you correctly captured the sentiment 
with regard to the dangerous missions that we entrust to our 
men and women in uniform, and I will convey your words to their 
families and to the Corps. Thank you, sir.
    I would like to add parenthetically, although under the 
backdrop of this tragedy, that I am pleased to report that thus 
far this fiscal year is the safest recorded year for flight 
mishaps in recorded Marine Corps aviation history, despite the 
accident.
    With regard to the 2002 budget and the 2001 supplemental 
that is before you, many good things were done for our marines 
and their families. Quality of life enhancements, pay and 
entitlement, health, flying hours, military construction, force 
protection issues, all received great attention and we are 
profoundly grateful for this assistance.
    I am happy to report to you, Mr. Chairman, that the Marine 
Corps is today a very stable culture. The proof of that is in 
its recruiting successes and its retention efforts across the 
board. Officer, staff, NCO, enlisted, 62 percent of the Marine 
Corps budget is now consumed by manpower accounts, pay, 
entitlements, health care and the like. This is good.
    It also underscores what is not being done; despite the 
fixes that we have made in readiness, and they have been 
substantial, we are still going to continue to pay for it out 
of deferred modernization and out of inattention to our 
infrastructure recapitalization, which critically needs urgent 
attention.
    I have said before that the Marine Corps is expeditionary 
by culture and transformational by design. I say that because 
words are important. I would like to talk very briefly about 
two sets of words. The first one is the words ``expeditionary'' 
versus ``deployability.'' When you talk about expeditionary 
requirements for the Nation, you are talking about investment 
in speed, and speed is expensive. Speed may get you there 
quickly, but it will not do you any good if it is not 
logistically sustainable.
    So we talk about being able to get to different spots on 
the globe quickly. I just would like to underscore the fact 
that if you cannot sustain them once they are there it is not a 
good investment.
    Simply put, too much speed may not be logistically 
sustainable. Put another way, the Nation does not need all of 
its forces to get to spot X or Y on the globe at the same time, 
nor can we afford it or lift it.
    In 1973 we had an energy crisis and we pledged, or at least 
it was attempted to pledge, that we would not be held hostage 
to fossil fuels for our automobile industry, and we directed 
and pledged ourselves to transformational processes whereby our 
cars would become electric or solar-powered. Well, 27 or 28 
years later, what we really did was modernize. We developed 
fuel efficiencies, better, lighter cars, safer cars, though we 
are still essentially dependent on fossil fuels.
    So you may have transformational goals, but you may wind up 
simply modernizing. So that is the second set of words that I 
would mention. Transformation versus modernization needs to be 
considered, how much of one you need in relation to the other.
    You should consider transformation and modernization and 
expeditionary capabilities versus simply deployable needs in 
relation to how we use our forces. Since the end of World War 
II we have deployed forces in response to burgeoning crises 
over 300 times, we have actually mobilized follow-on forces six 
times, and we have committed forces to major theater conflicts 
three times. So the power of our engagement strategies, which 
are not dependent on speed, but dependent on location and being 
engaged and being present and shaping the environment and doing 
things that are very important for our Nation and our 
alliances, is very important.
    So we need both transformation and modernization, but 
perhaps not in the same amounts. We are likely to need more 
modernization than transformation since transformation is 
sometimes dependent on science and physics and programs that 
may or may not come to pass.
    The Marine Corps' transformation and modernization programs 
are designed and on the books today to result in a convergence 
path that will start coming to fruition in 2008. As an example, 
I consider transformational programs for the Marine Corps to 
include the V-22, the Joint Strike Fighter, the AAAV, 
integrated logistics concepts which will revolutionize the way 
we support our forward-deployed and based forces, information 
operations, and naval precision fires.
    As an example of the modernization process, I consider the 
Lightweight 155, the LCAC, Landing Cushion Aircraft, SLEP 
program, the acquisition of HIMARS, the AH-1T modernization, 
the 120-millimeter mortar program, the M-4 service rifle, and 
the Joint Tactical Radio, and the KC-130J to be examples of 
needed modernization programs.
    I believe that the American citizen of the future 
generation expects that we will be the dominant Nation of 
influence, so-called superpower, 50 years from now. I believe 
we can do this if we understand that the purpose of our 
investment in peacetime is so we do not have to fight wars, and 
the way we used our forces in the last 50 years suggests 
persuasively that we are successful at doing this.
    We understand that national security is not an independent 
investment and that such an investment is the anchor that 
allows our Nation to be the Nation of global influence 
economically, politically, diplomatically, culturally, 
scientifically and technologically.
    It is abundantly clear in my judgment that approximately 
2.9 percent of our gross domestic product towards this goal is 
insufficient. Whatever Congress decides the investment is, I 
recommend that it be proportional and sustained over a gradual 
period of time. I am truly excited by the prospect of working 
with the Secretary of Defense, our Secretary of the Navy, the 
DOD and senior military leaders to adopt better business 
practices, which are critically needed, and much-needed 
acquisition reforms. The Marine Corps is proud to be the 
largest activity-based costing management program in the 
Department of Defense currently.
    Our budget request, designed with both transformation and 
modernization in mind, balances the requirement for 
expeditionary forces with that for simply deployable forces. It 
has its convergence in 2008 and we can do that by sustaining 
and supporting the programs that are currently a matter of 
record. This is inclusive of base housing and modernization and 
recapitalization of our infrastructure.
    We have a path to success. We continue to develop our 
foundational needs, such as the acquisition of Blount Island, 
which in my judgment should be done by 2004--it is a national 
asset and it is a national logistics gateway; enhancing and 
achieving a 3.0 Marine Expeditionary Brigade lift capability, 
due to the predictable paucity of land-based operational 
support bases in the 21st century. We should look at maritime 
prepositioned ships of the future, to explore rapid sealift.
    I would also caution that we pay a lot of attention to the 
rise of encroachment issues, which are going to face all of us 
in the foreseeable future.
    The Secretary of Defense has said we should only replace 
things if we have something better to replace them with. I 
understand that, I agree with it, and we are already moving in 
that direction.
    The rapidly deployable force with staying power that some 
has said is nonexistent in the military today in fact does 
exist and it is the Marine Expeditionary Brigade. It is both 
expeditionary and it is deployable. It is being modernized and 
will be transformed in part, maybe in whole, between now and 
2008, and it exists today for the joint warfighter. It 
possesses forcible entry capability, it is affordable, it is 
scalable, it is forward-based or deployed, it is sustainable, 
it is joint and interoperable, and it is combined arms-capable, 
which is a goal that all true joint forces in the future must 
seek to achieve.
    A final thought, Mr. Chairman. It is an exciting time to be 
a United States Marine. We look forward to our future while 
learning from the past, and we look forward to your questions. 
Thank you, sir.
    [The prepared statement of General Jones follows:]

          Prepared Statement by Gen. James L. Jones, Jr., USMC

    Chairman Levin, Senator Warner, distinguished members of the 
committee; it is my pleasure to report to you on the state of your 
Marine Corps. On behalf of all marines and their families, I want to 
thank the committee for its continued support. Your efforts to increase 
compensation and improve the quality of life of our young men and women 
in uniform have been central to the health of your Marine Corps and are 
deeply appreciated.

                                 VISION

    I believe the committee is well familiar with the nature of the 
present international security landscape and the current state of our 
forces, so I will begin simply by noting some of the ways in which 
warfare has changed in the 21st century. In the 20th century, mass and 
volume were the primary methods relied upon to win wars. In their 
place, speed, stealth, precision, and sustainment have become the 
emergent principles of modern warfare.
    These four principles have application from the strategic to the 
tactical levels. Furthermore, they are key with regard to how our 
forces maneuver and employ weapons as well as to how they exchange 
information and logistically sustain themselves. The Marine Corps' 
vision, accordingly, is to inculcate these principles into our 
doctrine, organization, training, equipment, and support. One 
indication of our commitment to do this, reflected in Marine Corps 
Strategy 21, is our concerted aim to enhance the strategic agility, 
operational reach, and tactical flexibility of our Marine Air-Ground 
Task Forces. Speed, stealth, precision, and sustainment are integral to 
each of these capabilities.
    Indeed, we are revolutionizing our approach to operations with 
these 21st century principles of war in mind. We are moving beyond the 
traditional amphibious assault operations which we conducted in the 
20th century. Our goal now is advanced, expeditionary operations from 
land and sea to both deter and respond to crises.
    The Corps has been our Nation's premier expeditionary force since 
our landing at Nassau in the Bahamas, 225 years ago. Today, we have 
worldwide responsiveness and the versatility to undertake missions 
across the spectrum of operations. To marines, the term 
``expeditionary'' connotes more than a given capability. For us, it is 
a cultural mindset that conditions our marines to be able to rapidly 
deploy with little advance warning and effectively operate with organic 
logistical support in austere environments. This is the basis of the 
Marine Corps' culture as well as an acknowledgement of the necessity to 
do more with less and to be prepared to fight and win with only the 
resources we bring with us, without the need to return to fixed bases 
for refitting or retraining.
    A prime example of these attributes is resident within our medium 
weight Marine Expeditionary Brigade (MEB). Nearly 10 years ago, in 
light of pressing manpower considerations, we deactivated our six 
standing brigade command elements. Last year, we reestablished three 
Marine Expeditionary Brigades by embedding their staffs within our 
Marine Expeditionary Force headquarters. These units are now actively 
operating. The 1st MEB recently participated in operation NATIVE FURY, 
a humanitarian assistance mission in Kenya; 2d MEB has been integrated 
into contingency plans for Europe and Latin America; and, 3d MEB has 
conducted a maritime prepositioning shipping offload in Australia.
    The versatility of the MEB is emblematic of the unique scalability 
of our Marine Air-Ground Task Forces. In size and capability, these 
brigades are midway between our Marine Expeditionary Units and our 
Marine Expeditionary Forces. Furthermore, our MEBs can either deploy on 
amphibious shipping or be airlifted into a theater of operations and 
join up with Maritime Prepositioning Forces.
    A special characteristic of our Marine Air-Ground Task Forces is 
that they consist of five integrated elements: command; ground combat; 
aviation; logistics; and, supporting establishment. The MEB consists of 
a regimental landing team, with organic infantry, artillery, and armor 
elements, and in addition to a composite aircraft group with both 
fixed-wing and rotary-wing aircraft, it also has a combat service 
support group--whose supplies can sustain the MEB in full scale combat 
for 30 days. Each of these elements reinforces the others. This 
teamwork, built on training and experience, reaches across every 
battlefield function, creating a unique degree of synergy that 
distinguishes our units from others.
    Ultimately, our vision of the future and our expeditionary culture, 
along with our philosophy of maneuver warfare, come together in our 
emerging capstone concept, Expeditionary Maneuver Warfare. Achieving 
the full promise of that concept will hinge on our efforts to balance 
the competing demands of near-term readiness and investment in 
equipment modernization and infrastructure. This is no small task. 
These over-arching concerns are interrelated and in the long-term we 
cannot have one without the others.
    In order to improve our near-term readiness, we have made 
significant internal adjustments over the past 2 years. Through 
reduction in attrition of our first term marines, internal management 
efficiencies, outsourcing, and privatization, we will eventually return 
approximately 4,000 marines to the operating forces. We are also 
utilizing numerous best business practices to make our operations both 
efficient and effective and now have the largest Activity-Based 
Costing/Management program in the Department of Defense, if not all of 
government. While these efforts have improved the efficient application 
of fiscal and manpower resources, and directly supported our commitment 
to personnel readiness in the operating forces, we are still assessing 
the totality of our personnel requirement. Should a need for additional 
personnel be determined, we are confident that commensurate funding and 
our continued recruiting and retention successes will support any 
required increase.
    Despite such efficiencies, we are, regrettably, continuing to 
maintain our near-term readiness at the expense of our modernization. 
During the past decade, the Nation has consistently limited the 
resources dedicated to its national security. Consequently, the 
dramatic increases in operational requirements coupled with imposed 
constraints have mandated a substantively reduced rate of investment in 
equipment modernization and infrastructure. We are, in fact, at a point 
where we can no longer fail to rectify these shortfalls. As a nation 
with global responsibilities, we cannot ignore the critical importance 
of readiness.
    The fiscal year 2002 budget submitted by the President proposes 
increased funding for military pay and entitlements, health care 
benefits, flying hours, base and station utilities, depot maintenance, 
strategic lift, essential base operating support costs, and force 
protection requirements. The administration also provided increased 
funding for one of our most underfunded areas--our infrastructure. 
Additional funds provided in this budget will allow us to begin to 
address badly needed family housing requirements at Camp Pendleton, 
California, and bachelor enlisted quarters at various locations. These 
are of great importance to our readiness. Nevertheless, I remain 
concerned about the level of investment in our infrastructure and 
equipment modernization. For example, the fiscal year 2002 budget does 
not include increases for ground equipment modernization.

                               READINESS

    We assess our readiness in terms of ``four pillars:'' marines and 
their families; our infrastructure; our legacy equipment systems; and, 
our transformation and modernization efforts. Each of these pillars 
requires attention and resources in order to ensure your Corps is 
prepared to serve our Nation's interests. I will discuss each of the 
pillars and comment on what we are currently doing and what we want to 
do with the support of this committee, beginning with the most 
important part of the Marine Corps, its people.
Our Marines and Their Families
    The Marine Corps has three major goals: making America's marines; 
winning our Nation's battles; and, creating quality citizens. The fact 
that people are the focus of two of these three goals exemplifies the 
extent to which we recognize the special trust and confidence that the 
Nation reposes in us for the care and welfare of the young men and 
women in our charge.
    Safety is central to the Corps' focus on people and it is a 
critical component of maintaining our readiness. It is also a vital 
element of the quality of life that we provide our marines and their 
families. Along these lines, I am pleased to report that we have 
significantly lowered our off-duty mishap rates. Moreover, we have had 
notable success in aviation safety: our Class ``A'' flight mishap rate 
is the lowest it has ever been at this point in the fiscal year. For 
these trends to continue, it will take our unrelenting attention and we 
are dedicated to maintaining our focus on this important issue.
    One factor contributing to our safety challenge is that we are a 
young force. The average age of our marines is 23, roughly 7 to 9 years 
younger than the average age of the members of the other services. This 
is part of the culture of the Corps inasmuch as our unique force 
structure results in 68 percent of our marines being on their first 
enlistment at any one time. The nature of our force structure requires 
us to annually recruit 39,000 men and women into our enlisted ranks. To 
fill this tremendous demand, our recruiters work tirelessly and have 
consistently met our accession goals in quality and quantity for 6 
consecutive years as of the end of June 2001.
    Retention is as important as recruiting. We are proud that we are 
meeting our retention goals across nearly all military occupational 
specialties. Intangibles--such as the desire to serve the Nation, to 
belong to a cohesive organization, and to experience leadership 
responsibilities through service in the Corps--are a large part of the 
reason we can retain the remarkable men and women who choose to remain 
on Active Duty. Concrete evidence of this phenomena is seen in our 
deployed units, which continually record the highest reenlistment rates 
in the Corps. The Selective Reenlistment Bonus Program (SRB) has been 
an additional, powerful tool to meet our retention goals. The increases 
for the SRB Program as well as the targeted pay raise initiative found 
in the President's budget will go a long way toward assisting in 
meeting our retention goals and helping take care of our marines and 
their families. Retention success is also partly a consequence of the 
investment we make in supporting our operational forces--to give our 
marines what they need to do their jobs in the field when they are 
deployed--as well as the funds we earmark for educating and training 
our marines.
    While we recruit marines, we retain families. As noted earlier, the 
effectiveness of our marines is dependent, in large measure, on the 
support they receive from their loved ones. Our families are indeed 
vital to our readiness. Increased pay as well as improved housing and 
health care directly influence our families' quality of life and, in 
turn, bolster the readiness of our units. Your support of our families' 
quality of life has contributed greatly to our retention success. 
However, the rising costs of rent, utilities, and fuel require 
continued annual increases in pay and Basic Allowance for Housing. 
Furthermore, we need to provide and maintain those essential support 
systems that benefit and protect marines and their families, especially 
accessible and responsive health care. We are extremely thankful, Mr. 
Chairman, for the recent enactment of much-needed improvements to the 
TRICARE system for our Active Duty personnel and for our retired 
veterans. The President's budget includes further improvements in this 
area which we expect to make a significant difference in retention, 
morale, and readiness.
Our Infrastructure
    Beyond providing for our families, your support in allocating and 
sustaining resources for our bases and stations has had a profound 
impact on our readiness. Bases and stations are the launching pads and 
recovery platforms for our deployed units and thus are integral parts 
of our operating forces. Hence, we want to ensure that our posts 
possess the infrastructure and ranges necessary to prepare our marines 
for the wide variety of contingencies they can expect to confront. 
Equally important, they are sanctuaries for many of our families. 
Moreover, just as our bases and stations are vital to our current 
readiness, the recapitalization of our infrastructure is as important 
to our warfighting strength in the future as is modernization.
    Thirty-five percent of our infrastructure is over 50 years old. Our 
supporting infrastructure--water and sewage systems, bridges, and 
roads--is antiquated and decaying. Though we slowed the growth of 
backlog of maintenance and repair (BMAR) at our bases and stations to 
approximately $650 million this fiscal year, it rises to $687 million 
in fiscal year 2002 and averages approximately $660 million across the 
remainder of the Future Years Defense Plan--far exceeding the goal of 
$106 million set for fiscal year 2010.
    Although the increases provided in the President's budget begin to 
address this problem, I remain concerned. Prior to this budget, our 
military construction replacement cycle exceeded 100 years compared to 
a commercial industry standard of approximately 50 years. While this 
budget allows us to attain an approximately 60 year cycle of military 
construction replacement in fiscal year 2002, the average 
recapitalization rate remains nearly 100 years across the balance of 
the Future Years Defense Plan.
    In more specific terms, approximately half of our family housing 
units are inadequate, and we have a shortage of nearly 9,000 homes in 
fiscal year 2001. The budget submitted by the administration allows us 
to revitalize our current inventory and to accelerate the eradication 
of substandard housing which is our first priority in this regard. 
Additional funding for both base-housing construction and the 
elimination of out-of-pocket housing costs for marines that live off-
base will allow us to reduce our family housing deficit by 20 percent 
within 4 years.
    On a separate note concerning our infrastructure, we are 
increasingly finding that many forms of encroachment upon our bases and 
stations threaten to degrade our readiness. When most of our bases and 
stations were established, they were distant from civilian population 
centers. Today, population growth and commercial development have not 
merely reached our installations, they have enveloped them. There are 
two major ramifications of this phenomenon. The first is that our bases 
and stations often are the last remaining wilderness zones in otherwise 
over-developed areas--which has meant that we have to balance our 
training requirements with our increasing responsibilities as 
environmental stewards. The second consequence is that we are now 
obliged to routinely deal with a wide variety of complaints, mostly 
regarding noise or flight patterns, from those citizens who have chosen 
to live in close proximity to our bases and stations.
    Such concerns about sea, land, and airspace utilization have 
necessitated close coordination and frequent compromise with many 
elements of the civilian sector. Accordingly, we work diligently to be 
good neighbors and try to accommodate the demands of environmental 
protection and concerns of adjoining communities without degrading 
training and the mission effectiveness of our marines. Despite this 
focus, encroachment issues have the potential to increasingly affect 
readiness in the years ahead. We need your continued support to ensure 
that the growing complexity and expense of encroachment issues do not 
hamstring our efforts to conduct meaningful training in order to 
provide for national security.
Our Legacy Equipment Systems
    Our present and future readiness does not rest solely on the 
investments we make in our personnel and infrastructure. We also must 
consider the equipment we give our marines. This is no simple task. We 
must apportion our allotted resources between maintaining the ability 
to respond to crises and the requirement to lay the foundation for our 
capacity to respond to the security challenges of the future.
    As a consequence of the procurement pause of the 1990s, many of our 
weapons, vehicles, aircraft, and support systems are approaching or 
have already reached block obsolescence. In the last decade, we have 
watched the size of our forces decline while the number of 
contingencies has increased. Under these circumstances, our equipment 
has been put under tremendous stress. We are devoting ever-increasing 
amounts of time conducting preventive and corrective maintenance as 
well as spending more and more money on spare parts to repair our 
legacy equipment. The limited availability of spare parts has put 
additional strain on these efforts. Our procurement programs seek to 
address this concern, but we are acutely aware that the acquisition 
process is often a slow enterprise. As a result, our legacy equipment 
systems and our efforts to maintain them will remain central to the 
readiness of our Marine Air-Ground Task Forces until our modernization 
programs replace those aging pieces of equipment.
    This situation is particularly acute in our aviation combat 
element. In fact, the majority of our primary rotary-wing airframes are 
over 25 years old and in turn they are older than many of the marines 
who fly aboard them. Another illustration of the advanced age of our 
airframes is that our KC-130Fs are 19 years past planned retirement. 
When our first KC-130F rolled off the assembly line, President Kennedy 
was beginning his first year as the commander in chief. Likewise, our 
CH-46Es and CH-53Ds are more than 30 years old, and the average age of 
our CH-53Es is 12 years. Some of our younger pilots are flying the same 
aircraft that their fathers flew.
    The challenges associated with the failure of parts on older 
aircraft, diminishing manufacturing sources, and long delays in parts 
delivery all place demands on readiness. Since 1995, the direct 
maintenance man-hours per hour of flight has increased by 16 percent 
and our ``cannibalization'' rate has increased by 24 percent. During 
the same time period, the full mission capable rate, though still 
within acceptable parameters, decreased by almost 17 percent across the 
force. While recent increases provided by the administration for 
Program Related Engineering and Program Related Logistics (PRE/PRL) are 
extremely helpful, modernization will ultimately relieve the strain 
being placed on these older airframes, as it will do for our ground 
combat and combat service support elements as well.

                    TRANSFORMATION AND MODERNIZATION

    We recognize that we cannot know for certain what missions and 
threats we will face in the future, and that, as a result, we need to 
focus our efforts in such a way as to provide America with weapons 
platforms that are flexible and robust enough to allow her marines to 
excel across the wide spectrum of tasks and environments that they may 
encounter. The Corps' efforts to enhance its capabilities can be 
broadly described in terms of transformation and modernization. On one 
hand, transformation programs are intended to achieve fundamental 
advances in capabilities by exploiting leap-ahead technologies. On the 
other hand, modernization programs represent more modest efforts to 
yield incremental improvements to our equipment systems. Examples of 
the transformational programs that the Marine Corps is pursuing are the 
Advanced Amphibious Assault Vehicle, V-22 Osprey, Joint Strike Fighter, 
Naval Precision Fires, and Integrated Logistics Capabilities. Key 
modernization programs include the KC-130J, Lightweight 155mm Howitzer, 
High Mobility Artillery Rocket System, Medium Tactical Vehicle 
Replacement, and amphibious shipping.
Transformational Programs
    Advanced Amphibious Assault Vehicle. The award winning Advanced 
Amphibious Assault Vehicle program is the Corps' highest ground 
acquisition priority and promises to allow high-speed surface maneuver 
from ship-to-shore as well as on land. Importantly, these vehicles will 
be able to deploy to their objectives from over the visual horizon, 
which will allow our ships to remain beyond the range of many threat 
weapons and surveillance systems. This capability will help negate an 
enemy's anti-access strategies and enable expeditionary operations from 
the sea.
    V-22 Osprey. The Osprey remains the Corps' premier near-term 
aviation acquisition priority. Tiltrotor technology promises to 
revolutionize aviation and the V-22 will radically increase our 
strategic airlift, operational reach, and tactical flexibility. The 
Osprey's superior range, speed, and payload will allow us to accomplish 
combat missions and other operations from distances previously 
unattainable and at faster response times than possible with other 
airframes.
    We are acutely aware of the challenges associated with the Osprey 
but are gratified that the Review Panel, appointed by then-Secretary of 
Defense William Cohen, concluded that tiltrotor technology is mature 
and that the V-22 promises to become a true national asset. Though the 
panel also determined the aircraft's reliability and maintainability 
must be improved, it noted that the V-22 will provide the Marine Corps 
with capabilities that cannot be provided by any single helicopter or 
conventional aircraft. Indeed, the Panel's conclusions mirror those of 
seven major cost and operational effectiveness analyses and the fact 
that the tiltrotor XV-15 has been flying since 1977.
    We are presently in the process of ensuring that the V-22 is 
reliable, operationally suitable, and affordable--just as we did 40 
years ago with each of the aircraft the Osprey is intended to replace. 
Currently, 85 reliability and maintainability improvements have been 
incorporated, or are on contract for incorporation, on the Osprey's 
production line--out of the 120 identified. With time, diligence, the 
close cooperation of our partners in industry, and with the support of 
Congress, we can work through the present challenges confronting us and 
achieve the tremendous operational capabilities offered by this 
remarkable aircraft. We are hopeful that the program's needed changes 
and improvements will be funded at the most economical rate of 
production in the fiscal year 2003 budget.
    As has always been the case, our actions will be guided by an 
unyielding commitment to do what is right for our marines, their 
families, and our Nation. In asking for your support, I assure you that 
we will not compromise our integrity or jeopardize the safety of our 
marines for any program.
    Joint Strike Fighter. Another aviation transformational effort of 
great importance is the Joint Strike Fighter. The Joint Strike Fighter 
is, first and foremost, a product of Congressional guidance from the 
1980s. At the time, each service routinely produced a large number of 
different, service-specific airframes. Congress, therefore, asked the 
Department of Defense and industry to develop airframes that could be 
used more commonly by each of the services. The Joint Strike Fighter is 
the first step in that direction. The Short Takeoff and Vertical 
Landing variant promises to combine the current basing flexibility of 
the AV-8 Harrier with the multi-role capabilities, speed, and 
maneuverability of the F/A-18 Hornet and will fulfill both the Marine 
Corps' air-to-ground and air-to-air mission requirements. It will also 
incorporate both stealth and standoff precision guided weapon 
technology. Just as the Joint Strike Fighter has transformational 
operational potential, it also holds remarkable promise for our 
industrial base and our Nation's economy. Considering the fact that 
many of our allies have expressed interest in becoming partners in the 
program, this aircraft has the potential to bolster our defense 
industrial base to a degree similar to that achieved by the F-16 
Fighting Falcon over the past 25 years. There is no other tactical 
aviation program with so much potential for satisfying national and 
international requirements in the first half of this century. The JSF 
program preserves our leadership role on the global stage in tactical 
aviation.
    Naval Precision Fires. Marine Corps expeditionary capabilities are 
intrinsically linked to those of our partners, the U.S. Navy. One 
illustration of this, among many, is that naval precision fires are an 
essential dimension of our power projection capabilities. Yet, today 
the available resources for naval fire support are inadequate. Efforts 
to upgrade current naval surface fires capabilities are focused on 
modifications to the existing Mark 45 gun mount as well as the 
development of an advanced gun system, extended range guided munitions, 
and the Land Attack Standard Missile. Taken together, these planned 
enhancements will dramatically improve the range, responsiveness, 
accuracy, and lethality of the naval surface fire support provided to 
forces ashore.
    Integrated Logistics Capabilities. We are also pioneering 
Integrated Logistics Capabilities to transform our combat service 
support. In this effort, we are analyzing with the help of academia the 
manner in which military logistics can be altered to make our supply 
chain more responsive and better integrated with the operating forces. 
Tangible savings have already been realized by consolidating selected 
unit supply responsibilities at the retail level and we are looking to 
further reengineer our methodologies. With the use of new technologies 
and practices, proven in the private sector, the Corps will, in 
essence, create a ``new order'' for its logistics enterprise and 
undertake the revolutionary changes necessary to ensure that it 
continues to be the premier fighting force in the world.
Modernization Programs
    KC-130J. Replacement of our aging KC-130 fleet with KC-130J 
aircraft is necessary to ensure the viability and deployability of 
Marine Corps Tactical Air and Assault Support well into the 21st 
century. The KC-130J's performance features include increased cruise 
airspeed, night vision compatible interior and exterior lighting, 
enhanced rapid ground refueling capability, digital avionics, and 
powerful propulsion systems. These strengths promise lower life-cycle 
expenses and eliminate the need for costly KC-130F/R Service Life 
Extension Programs. With the KC-130J, our aerial refueling fleet will 
be ready to support the tremendous increase in capabilities that the 
Osprey and the Joint Strike Fighter promise to provide for our Marine 
Air-Ground Task Forces.
    Lightweight 155mm Howitzer. A number of ground weapon system 
programs are also of great interest to us. The Lightweight 155mm 
Howitzer is our first priority in this regard. The Lightweight 155 is a 
joint Marine-Army program that meets or exceeds all the requirements of 
the current M198 Howitzer while reducing the weight of an individual 
artillery piece from 16,000 to 9,000 pounds. This lower weight allows 
for tactical lift by both the CH-53E Sea Stallion helicopter and the V-
22. Moreover, the digitization of this platform will greatly reduce 
response time and increase accuracy. I am pleased to note that the four 
minor technical discrepancies--concerning the spade, spade latch, 
recoil dampener, and optical sight--identified by the General 
Accounting Office have each been corrected. The first Engineering 
Manufacturing Development guns have passed all contractor testing and 
been accepted by the Department of Defense for subsequent evaluation. A 
production decision should be reached in September of next year.
    High Mobility Artillery Rocket System. Also integral to our plans 
to improve our fire support is the acquisition of the High Mobility 
Artillery Rocket System (HIMARS). This system is designed to be rapidly 
deployable as a key part of our expeditionary operations. It will fire 
both precision and area munitions, as well as extend our ground-based 
fire support umbrella to 45 kilometers. HIMARS's tactical mobility, 
small logistics footprint, and capacity to deliver heavy volume fires 
against time-sensitive targets will, in conjunction with the 
Lightweight 155, at last remedy the fire support shortfall we have 
known for much of the last 2 decades.
    Medium Tactical Vehicle Replacement. The Medium Tactical Vehicle 
Replacement is at the heart of Combat Service Support modernization and 
will provide our forces improved sustainment and permit maximum 
flexibility in responding to crises. The vehicle's weight and height 
allow it to be transported internally by the KC-130 Hercules aircraft 
and externally by the CH-53E Sea Stallion helicopter. The Medium 
Tactical Vehicle Replacement can readily negotiate terrain twice as 
rough as our current vehicles can, and it has increased payload, speed, 
and reliability.
    Amphibious Shipping. Our military presence around the world is the 
framework that enables the application of the other elements of our 
National power--political, economic, diplomatic, cultural, and 
technological--to cultivate stability overseas. Yet in the 21st 
century, our forward land-basing options are not likely to increase and 
may even decline and, as a result, U.S. forces will rely less on large 
fixed bases overseas to fulfill America's global responsibilities. It 
is myopic, given the history of the 20th century, to think we can deter 
or defeat aggression on the global playing field solely with 
capabilities based in the United States. It has been proven many times 
over that presence in the operating area will be essential to our 
prosecution of a successful strategy. More specifically, it is going to 
take a sea-based presence in the operating area, a formation of joint 
assets that together project and sustain combat power ashore while 
reducing or eliminating our landward footprint. In the future, U.S. 
forces are going to increasingly deploy and sustain operations either 
from our sea-bases or our homeland.
    Despite the fact that the enduring requirements of global sea 
control, strategic deterrence, naval forward presence, and maritime 
power projection have not declined, the United States Navy's fleet of 
ships has shrunk in number by 23 percent in the last decade. The 
requirement for our amphibious shipping, which has been under-
resourced, remains the linchpin of the Corps' ability to influence the 
international security landscape, project power, and protect the 
Nation's interest during crises. Simply put, virtual presence amounts 
to actual absence where global events are concerned. We cannot afford 
absence, which will likely result in vacuums that could be filled by 
those at odds with our National interests.
    We are grateful for your support to replace four classes of older 
ships with the new LPD 17 San Antonio amphibious ship class. The 
delivery of these twelve ships to the fleet is programmed to be 
complete at the end of the decade. However, we remain concerned about 
schedule slippage in the LPD-17 program. Such delays are unacceptable 
and must be avoided. Likewise, we should also be concerned with 
replacing the LHD Wasp class ships. Considering the extended time-frame 
for ship design, construction, and delivery we need to ensure now that 
we are ready to replace the Wasp class when they reach the end of their 
35 year service life starting in 2011.
    Today's amphibious ship force structure, when the number of active 
fleet vessels is combined with Reserve ships that can be mobilized, has 
the capacity to lift nearly two and a half Marine Expeditionary Brigade 
assault echelon equivalents. It has long been recognized that we 
require an amphibious ship force structure capable of simultaneously 
lifting the assault echelons of three Marine Expeditionary Brigades. I 
strongly recommend that we commit to redress this shortfall as a matter 
of urgent priority.
    The leases of our current fleet of maritime prepositioning ships 
(MPS) will expire in fiscal year 2009 and fiscal year 2011. The 
development of advanced maritime prepositioning capabilities will 
significantly increase the strength and flexibility of our sea-based 
expeditionary operations. The marriage of a modern amphibious fleet 
with maritime prepositioning shipping capable of hosting at-sea arrival 
and assembly of forces will eliminate the requirement for access to 
secure ports and airfields, and give our Nation an unmatched 
asymmetrical advantage in projecting power. The mobility and dispersion 
inherent to this future sea-basing concept promises to provide 
survivability far greater than that afforded by fixed land bases and 
will give us a revolutionary power projection advantage for many 
decades.
Convergence
    Looking ahead, the programs we have planned will, with your 
support, begin to converge in our operating forces in 2008. In the not 
distant future, the Advanced Amphibious Assault Vehicle, V-22 Osprey, 
Joint Strike Fighter, KC-130J, Lightweight 155, High Mobility Artillery 
Rocket System, Medium Tactical Vehicle Replacement, Naval Surface Fire 
Support, amphibious shipping, and a number of other smaller programs 
will together dramatically transform our expeditionary capabilities. As 
discussed earlier, these systems promise to embody speed, stealth, 
precision, and sustainment as well as afford us modern agility, 
mobility, and lethality. But, we cannot stop here. We must work 
together with the Navy and our defense industrial base to exploit other 
opportunities to advance our capabilities in the future.
    Continuous transformation and modernization are key to our long-
term national interest; without them, we will fail to keep pace with 
change. The Marine Corps has an institutional tradition of such 
innovation and is expeditionary by nature, while being transformational 
by design. We view transformation as an evolutionary process, not a 
singular event.

                         TRAINING AND EDUCATION

    People, not systems, are the fundamental component of the Corps. 
Just as we are continually striving to evolve our doctrine, equipment, 
and supporting establishment so that we can better win our Nation's 
battles, we are also constantly moving forward to improve how we train 
and educate our marines.
    We believe the old adage, ``you fight the way you train.'' Because 
of this, our training exercises are becoming ever more Joint and 
Combined in order to provide our marines with the experience that they 
will need when they are called upon to respond to crises--because there 
is no doubt that they will work alongside our sister services and 
partners from other nations in such circumstances. Moreover, we 
recognize that while our first duty is to be ready to win our Nation's 
battles, we are increasingly called on to execute missions at the lower 
end of the spectrum of operations. Accordingly, our exercise scenarios 
emphasize both conventional warfighting missions as well as operations 
other than war.
    Experience in tandem with education is the best foundation for 
dealing with both difficulty and fortuity. Accordingly, we are not only 
focused on training our marines, but on educating them as well. We have 
expanded our distance learning programs to ensure that greater numbers 
of marines have the opportunity for education, not merely those who 
attend resident courses. In light of this, we are adjusting 
administrative policies to accommodate family concerns--such as spouses 
with careers or children with exceptional needs--when selecting 
officers to attend our various schools that require a change in duty 
station. We have instituted a ``year-out program'' for our junior 
officers and SNCOs, within the corporate world, think-tanks, and 
Congress. This will widen perspectives and provide valuable experiences 
which will bolster our marines capacity to innovate and adapt in the 
years to come.

                       OUR MARINE WARRIOR CULTURE

    At the very heart of the Corps and its relationship to each marine 
is our service culture. The Marine Corps is sui generis--that is, we 
have a nature that is distinct from all others. This goes beyond the 
unique characteristics of our expeditionary Marine Air-Ground Task 
Forces which are always prepared to be deployed overseas. It, in fact, 
pertains to our warrior ethos. From the individual marine to our 
institution as a whole, our model is the thinking and stoic warrior who 
fights more intelligently than his enemy and is inured to hardship and 
challenges.
    Our commitment to maintaining our warrior culture is illustrated by 
our recently instituted martial arts program. We have developed a 
discipline unique to the Corps and are in the process of training every 
marine in its ways. This program seeks to promote both physical prowess 
and mental discipline. Successive levels of achievement are rewarded 
with different colored belts reflecting a combination of demonstrated 
character, judgment, and physical skill. This training will benefit 
marines in the missions we face; especially in peacekeeping and 
peacemaking operations where physical stamina and mental discipline are 
often vital. At its heart, our martial arts training is fundamentally 
concerned with mentoring our young men and women to understand that the 
keys to mission accomplishment often are a matter of using 
intelligence, strength, and self-control to influence circumstances, 
rather than always resorting to the application of deadly force. In 
this regard, our martial arts training supports our pursuit of non-
lethal alternatives.
    Under Title 10 of the U.S. Code, each of America's Armed Services 
has a different set of responsibilities, separate operating roles, and 
institutional structures that give every service a culture that is 
distinct from the others. Indeed, such cultural diversity should be 
considered a force multiplier. Consequently, ``one-size fits all'' 
policies are not often the best solutions in the Department of Defense, 
despite the importance of our on-going work to be fully joint in the 
conduct of operations. It is important to understand how the 
differences between the services may sometimes require separate and 
service-specific means of accomplishing universal goals such as 
promoting the quality of life of our people.
    The recently enacted PERSTEMPO Program is an example of a 
requirement that is likely to impact each of the services differently. 
The 2001 National Defense Authorization Act mandated that any service 
member deployed more than 400 days in 2 years receive $100 for each 
additional deployment day. While the larger services may be capable of 
managing the restriction placed on deployments and the additional costs 
associated with this requirement, the policy runs counter to the Corps' 
rotationally deployed, expeditionary force identity.
    Our young men and women join the Corps to make a difference, to 
challenge themselves, and are prepared to deploy in service of our 
country. The testament to this is our success in recruiting and 
retention: the ``acid-test'' of any service culture. Our young marines 
and their families understand that our forward presence and 
expeditionary deployments are the core expression of our warrior 
culture. It is why they are marines. In turn, though the PERSTEMPO 
Program may be appropriate for the other services, its present 
construct does not comport with the Corps' culture and missions. The 
policy may in fact have the unintended consequences of having a 
profoundly deleterious effect on our cohesion, capabilities, training, 
and budget. As a consequence we are now conducting a study to analyze 
how we can better manage our personnel tempo and still meet our 
operational requirements while remaining true to our culture and our 
fiscal constraints.

                               CONCLUSION

    One of the clearest indicators that people are our first priority 
is that approximately 60 percent of the Marine Corps budget is allotted 
to funding manpower programs. Yet, this fact also emphasizes the 
relative state of the other pillars of readiness, especially 
transformation and modernization; which have been underfunded for most 
of the past decade. The Marine Corps has long prided itself on being 
able to do more with less. Nothing reflects this more clearly than the 
fact that the Corps provides 20 percent of our Nation's expeditionary 
ground and aviation combat force for 6 percent of the Department of 
Defense budget.
    Just as the other services have pursued plans to reorganize from a 
Cold War posture to one that matches the post-Cold War world, the 
Corps, too, has adapted itself to the challenges and opportunities that 
have emerged during the last 10 years. I want to underscore that the 
Marine Corps intends to remain our Nation's premier expeditionary 
combined arms force with modernized sustainment capabilities. That 
identity is central to who we are as marines.
    With that firmly in mind, the Corps has carefully plotted a course 
for the future. Indeed, if the programs we have currently planned are 
properly funded, we will see a convergence of transformation and 
modernization capabilities in our Marine Air-Ground Task Forces 
starting in 2008 that will revolutionize our expeditionary operations.
    While our Nation's current strategy and force structure may change, 
it is clear that a sustained increase in resources will yield the 
operational strength, flexibility, and resilience we envision in both 
the short and the long-term. With regard to the Marine Corps, an 
increased investment of approximately $1.8 to $2 billion a year 
sustained for the next 8 to 10 years--a modest step that is less than 1 
percent of what is allotted to the overarching national security 
budget--will permit us to achieve our vision and deliver a Marine 
Corps, in partnership with the U.S. Navy, which will be capable of 
defending America's global national security interests in the 21st 
Century. Such an investment addresses our warfighting readiness 
requirements, accelerates the pace of our transformation and 
modernization, and recapitalizes our infrastructure. The fiscal year 
2002 plus-ups provided by the administration during budget wrap-up 
reduced our unfunded requirements by approximately $400 million. With 
your consistent support we can achieve our goals and provide our Nation 
with a Marine Corps that will be well on the road to dramatically 
transformed expeditionary capabilities.

    Chairman Levin. General Jones, thank you so much.

  STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE

    Secretary Roche. Mr. Chairman, Senator Warner, members of 
the committee: I am honored to appear before you today for the 
first time as Secretary of the Air Force and to be in the 
company of my fellow service secretaries and the distinguished 
flag officers who lead the world's finest military team.
    I, too, would like to pause and say something special about 
Mike Ryan. He is certainly a class act. In fact, besides being 
a superb military officer, I find that he is a man for all 
seasons, and I commend him to you, sir.
    With your permission, Mr. Chairman, I will make just a 
short opening statement, as will General Ryan, and we will 
request our written statement and the Air Force 2001 posture 
statement be included in the record.
    Mr. Chairman, America is an aerospace Nation. During the 
last 100 years our country has harnessed and developed 
aerospace power to accomplish many impressive feats, including 
revolutionizing the nature of warfare, changing the face of 
transportation and the conduct of global trade, and enabling 
mankind to open doors to a new universe of discovery in space. 
Those accomplishments, Mr. Chairman, form the legacy of the 
twentieth century.
    In the 100 years to come, aerospace power, properly guided 
and nourished, will further transform the interactions among 
nations for the benefit of our own citizens. With its 
attributes of speed, range, stealth and precision, our Nation's 
outstanding Air Force will continue its current global 
reconnaissance and strike superiority and the greatest 
deterrent power that capability brings with it.
    The President's fiscal year 2002 budget supports critical 
needs for our 21st Century Air Force. It places a special and 
very welcome emphasis on people and readiness, areas of 
immediate concern to our forces. The current quadrennial review 
process and the analysis the Secretary of Defense is leading in 
the Department of Defense will address our strategy, force 
structure, and efficient management of our resources for the 
longer term.
    As these intellectual efforts reach their conclusions, my 
Air Force colleagues and I will be prepared to consider and 
orchestrate the role of military aerospace power in the joint 
and combined operations of the future.
    We also are striving for efficiency. We recognize that we 
cannot just keep coming back and asking for more money, but we 
are looking for things we can do to free up resources so that 
we can in fact devote those resources to modernization and 
transformation where it makes sense to do so.
    Mr. Chairman, I thank you and Senator Warner and members of 
your committee for your tremendous support that has enabled our 
Air Force to become without question the world's finest. We did 
not get here on our own.
    I look forward to your questions and advice and the 
dialogue we will conduct together in the months and years to 
come. Thank you, sir.
    [The joint prepared statement of Secretary Roche and 
General Ryan follows:]

  Prepared Joint Statement by Hon. James G. Roche and Gen. Michael E. 
                               Ryan, USAF

    Mr. Chairman and members of the committee, the Air Force has and 
will continue to focus on aggressive transformation to the extent our 
budget allows. This fiscal year 2002 budget shores up some of our most 
critical people and readiness concerns and allows us to remain the 
world's most respected aerospace force.
    During the last 100 years, U.S. air and space competence has 
revolutionized the conduct of warfare, providing near-instantaneous 
global reconnaissance and strike capability across the full spectrum of 
engagement, from combat operations to humanitarian aid. This competence 
has contributed to our ability to deter wars, as well as our ability to 
win them. However, in this century, we find that rogue nations, the 
proliferation of weapons of mass destruction, and the rapid spread of 
information technology, have the potential to threaten our National 
interests. This changing security environment presents us with both 
unique challenges and opportunities.
    The Department of Defense is in the midst of numerous studies and 
analyses--the results of which will undoubtedly influence our future 
aerospace strategy. We must develop a force structure that, when teamed 
in joint or combined operations, will be effective in maintaining the 
peace and preserving freedom. We must also deepen and enrich the bonds 
of trust with the men and women who serve in the Air Force in order to 
attract and retain the very best individuals. We must continue to 
reform our policies, practices, and processes to make our Service more 
effective and efficient. Finally, we must pay special attention to the 
shrinking industrial base and evaluate ways to improve our current 
acquisition processes to ensure innovative future capabilities for the 
Nation.
    We respectfully submit this testimony to recount our 
accomplishments during the past year and outline our plans for the 
future. Without the steadfast support of the President and Congress, 
our past successes would not have been possible. With your continuing 
support, we will build upon those successes.

                 Air Force Posture Statement--Overview

    As we transition to the new century, even the new millennium, we 
will use this posture statement to reflect on what the Air Force 
accomplished during 2000, where we want to go in the future, and how we 
plan to get there.
    We're a service emerging from a decade of continuous 
transformation. During this period, we have molded and transformed 
aerospace power into a crucial component of joint operations. We 
defined ourselves with ``integrity first, service before self, and 
excellence in all we do'' and developed ourselves to be ``fast, 
flexible, and decisive.''
    It was also a time that took a heavy toll on our people and our 
systems. Therefore, we are developing new initiatives in our People, 
Readiness, and Modernization programs. If we are to continue to protect 
America's interests with aerospace power, we must implement these 
initiatives.

                                 PEOPLE

    The state of the economy has exerted considerable pressure on our 
ability to retain and recruit the right people. Frankly, it is 
difficult to compete with the financial compensation available in the 
private sector. Consequently, taking care of our people is our top 
priority. Taking care of people starts with their professional lives, 
so that they are satisfied with the work they do and know they're 
accomplishing something important. It also, of course, means providing 
them attractive compensation, benefits, housing, and facilities that 
show we value their efforts and care about their families.

                               READINESS

    Our dominance of the full spectrum of operations tends to 
overshadow what has happened to our readiness. Responding across this 
full spectrum of operations necessitates we have a certain number of 
units ready to deploy in the first 30 days of conflict. This is the 
basis of our readiness requirement of 92 percent. Since 1996, our 
worldwide combat force readiness rates have decreased 23 percentage 
points to a rate of 68 percent in April 2001. Furthermore, our overall 
Air Force readiness is lower than any time since June 1987. We are 
capable of winning today; however, we are concerned about these trends 
in readiness indicators. A major factor in the decline is the 
increasing age of our aircraft. For example, our flying hours have 
remained relatively constant over the past 5 years, but their cost has 
increased by over 45 percent after inflation. Older aircraft are simply 
more difficult to maintain as mechanical failures become less 
predictable, repairs become more complicated, and parts become harder 
to come by and more expensive. But, even with these contributing 
factors, we had the best year in our history for aviation safety, a 
clear measure of our people's professionalism.

                             MODERNIZATION

    Today, the average age of our aircraft is almost 22 years old. Even 
if we execute every modernization program on our books--which amounts 
to procuring about 100 aircraft per year in the near future--our 
aircraft average age continues to rise, reaching nearly 30 years old by 
2020. In order to level off this increasing trend, we would have to 
procure about 150 aircraft per year. To actually reduce the average age 
of our aircraft, we would need to procure about 170 aircraft per year. 
Similarly, where as industry replaces or totally renovates their 
facilities on a 50-year cycle, competing priorities have resulted in a 
150-year facilities recapitalization rate. We are in a position where 
we can only address the most urgent repair issues, while our backlog of 
real property maintenance continues to grow. We are working to slow 
down the aging of our fleet and infrastructure, but the climbing costs 
of operations and maintenance, as well as competing modernization 
effectiveness goals, continue to prevent that from happening. 
Consequently, we do not have the procurement funding to recapitalize 
our fleet and facilities to the extent that we would like.
    However, even with these challenges, we have molded and transformed 
aerospace power into a crucial component of joint operations. Because 
of this, we have expanded our vision for the future. Our new Vision 
2020--Global Vigilance, Reach and Power captures the philosophy that 
transformed us into a ``force of choice'' for rapid expeditionary 
operations. Our strategic plan institutionalizes this vision by linking 
the capabilities we need in the future with what we do best--our core 
competencies.
Core Competencies
          Aerospace Superiority--The ability to control what moves 
        through air and space . . . ensures freedom of action.
          Information Superiority--The ability to control and exploit 
        information to our Nation's advantage . . . ensures decision 
        dominance.
          Global Attack--The ability to engage adversary targets 
        anywhere, anytime . . . holds any adversary at risk.
          Precision Engagement--The ability to deliver desired effects 
        with minimal risk and collateral damage . . . denies the enemy 
        sanctuary.
          Rapid Global Mobility--The ability to rapidly position forces 
        anywhere in the world . . . ensures unprecedented 
        responsiveness.
          Agile Combat Support--The ability to sustain flexible and 
        efficient combat operations . . . is the foundation of success.

    Nothing illustrates our culture of transformation better than the 
Expeditionary Aerospace Force--the ``EAF.'' In October 1999, the heavy 
demand for aerospace power drove us to restructure our forces so we 
could inject some stability and predictability into the lives of our 
people. By December 2000, we had completed the first full rotation 
cycle of the EAF. In the span of less than 2 years, we succeeded in 
restructuring ourselves into a more sustainable, flexible, and 
responsive force. We now give the commanders in chief (CINCs) 
expeditionary aerospace packages that are tailored and trained-to-task 
to meet their full mission requirements.
    In 2000, we were involved in the full spectrum of operations--from 
famines, fires, and hurricanes to major contingency operations. Yet, 
the diversity of these missions didn't stifle us; it stimulated our 
creativity. We're already light and lean, so now we're pushing the 
envelope with technologies that will revolutionize the way we deliver 
aerospace power for the Nation. We are developing directed energy 
weapons capable of effects at the speed of light; unmanned aerial 
vehicles that reduce the risk to our people while giving us greater 
capability at a lower cost; space technologies that radically increase 
the effectiveness of our aerospace operations; and aircraft like the F-
22 that are more survivable and lethal than our current fighters. We 
don't wait until we're forced to improve--innovation and adaptation are 
our heritage.
    Our creativity also extends to how we conduct business inside our 
organization. We are realizing significant cost efficiencies by 
benchmarking the best in commercial and government business practices 
and adapting them to our unique environment. We are leveraging 
technology by integrating our people, operations, and oversight into a 
globally-connected, enterprise-wide, and secure information network. We 
are conducting manpower and program competitions to take advantage of 
the best opportunities for outsourcing and privatization. We're 
improving the way we plan, program, acquire, and protect our air, 
space, and information systems. Our reinvention teams have saved more 
than $30 billion during the last decade. Of course better business 
practices aren't a choice; they're necessary to maximize the returns on 
our Nation's investment.
    This posture statement will give you a good idea about where we've 
been, where we're going, and what's necessary to remain the world's 
best aerospace force. Aerospace power is America's asymmetric 
advantage, and we're determined to make sure America keeps it.

                      America's Air Force in 2000

    In 2000, we participated in the full spectrum of military 
operations--from deterrence and combat contingency operations to 
humanitarian aid and disaster assistance. Across this spectrum, it was 
Global Vigilance, Reach, and Power that was essential for assuring U.S. 
national security and international stability. We provided global 
vigilance using our intelligence, surveillance, and reconnaissance 
(ISR) assets; force protection measures; and deterrence missions. Our 
mobility assets and pre-positioned munitions contributed to our global 
reach. Finally, we displayed global power in Iraq and the Balkans with 
our unmatched capability to create precise military effects when called 
upon or threatened. These three facets of aerospace power are 
interdependent, collectively providing rapid aerospace dominance for 
America. Perhaps most importantly, all these accomplishments were 
against the backdrop of a pivotal transformation in the way we 
structure our forces to support expeditionary operations. This chapter 
will describe these efforts during the past year.

                   THE EXPEDITIONARY AEROSPACE FORCE

    This year we completed our organizational transformation to an 
Expeditionary Aerospace Force--the EAF--a groundbreaking approach to 
organizing aerospace capability. Given the demand for aerospace forces 
over the past 10 years, we designed a capability-based force structure 
to ensure that on-call, rotational forces can effectively meet both our 
steady-state and ``pop-up'' commitments, while giving our people more 
predictability and stability in their deployment schedules. We began 
implementing the initiative in October 1999, and successfully completed 
the first full rotation of our ten Aerospace Expeditionary Forces--the 
AEFs--in December 2000.
    The EAF includes both deployable and non-deployable warfighting and 
support forces. Our deployable AEFs are 10 packages of aerospace power. 
They provide us with the rotational base required to conduct multiple, 
concurrent small-scale contingencies, immediate crises, and ``pop-up'' 
engagements. These AEFs must be fully resourced to provide the full 
spectrum of aerospace power capabilities required by the warfighting 
CINCs. Our AEF Prime forces include those operational capabilities not 
organically assigned to the AEFs. They comprise our nuclear alert, 
regional command and control, and space operation forces, without which 
we could not meet our steady-state and contingency commitments. The 
AEFs are deployed and sustained by a robust mobility force called EAF 
Mobility. EAF Mobility is the Nation's fastest system to transport the 
most urgent cargo, from troops and equipment to humanitarian aid. 
Underlying the AEFs, AEF Prime, and EAF Mobility is EAF Foundation--the 
acquisition, medical, depot, training, and infrastructure resources 
needed to keep the other parts of the EAF operating.
    The EAF offers predictability for commanders to reconstitute, 
train, and organize their assigned forces to better meet their upcoming 
contingency requirements. Two AEFs are on-call every 3 months within 
the full-rotation period of 15 months. Additionally, two Aerospace 
Expeditionary Wings (AEW) supplement these AEFs, alternating on-call 
duties every 120 days for ``pop-up'' conflicts. Two AEFs and one AEW 
represent about 20 percent of our combat forces, which equates to the 
maximum commitment the Air Force can maintain indefinitely without 
adversely impacting training or readiness. If tasked beyond this level, 
we would conduct surge operations as required. Upon completion of 
large-scale operations, the EAF would then reconstitute before 
beginning a new rotational cycle. From now on, we will use the EAF to 
provide Joint Force Commanders trained-to-task, capability-based 
packages to meet their specific requirements.
    AEFs offer many operational advantages:

        <bullet> An AEF is fast--our goal is to deploy one AEF, or 
        about 120 aircraft and 10,000 airmen, within 48 hours, and we 
        strive to provide up to 5 AEFs in 15 days.
        <bullet> An AEF is light and lean--our global command and 
        control infrastructure allows high-fidelity operational support 
        in near real-time from the continental U.S. This enables a 
        ``reachback'' capability that helps minimize the deployment of 
        supporting equipment and personnel and simplifies force 
        protection.
        <bullet> An AEF is lethal--it is capable of striking more than 
        200 targets per day.
        <bullet> An AEF is flexible--we provide a tailored, trained-to-
        task, strategically relevant force that rapidly projects power 
        anywhere in the world.

    Lessons learned from the first AEF rotation are improving the 
force's expeditionary structure and concepts of operations. For 
example, our low density/high demand (LD/HD) platforms, such as the 
Airborne Warning and Control System (AWACS) and U-2 reconnaissance 
aircraft, have been strained by supporting continuous operations--
deploying up to five times more frequently than other forces. As a 
short-term remedy, we stood-up another AWACS squadron (without 
procuring additional aircraft) to better align the squadrons with the 
AEF rotation. For the long-term, instead of procuring more LD/HD 
platforms, we are developing transformational solutions to perform 
these missions more effectively, while providing more persistence over 
the target area. For example, we are exploring the transition of the U-
2 and other over-tasked ISR missions to unmanned aerial vehicles 
(UAVs), common wide-body (multi-radar) aircraft, and/or space-based 
assets. These future capabilities should arrest some of the operations 
tempo issues facing our most critical LD/HD assets.
    The success of the EAF depends on the vital contributions of all 
the components of the Total Force--active, guard, Reserve, civilians, 
and contractors. The stability of the 15-month cycle has allowed the 
Air Force Reserve and Air National Guard to meet (or even exceed) their 
programmed 10 percent tasking to the EAF. Our Reserve components 
currently provide the EAF about 7 percent of its expeditionary combat 
support, 20 percent of its combat forces, 33 percent of its air 
refueling assets, and 44 percent of its intratheater airlift.

                          AEROSPACE OPERATIONS

    Aerospace power can bring a rapid halt to human suffering or 
attacking forces. Our presence in struggling regions of the world, like 
East Timor and Mozambique, brings help where it is needed, builds 
goodwill, improves international relations, and provides valuable real-
world training. Alternatively, we can create military effects against 
our adversaries, like we have done in the Balkans and Southwest Asia.
    Our aerospace forces have the flexibility and agility for 
simultaneous engagement across the full spectrum of military 
operations. We are prepared to maintain regional stability, protect 
national interests, and help win America's wars whenever called. The 
following are a few of the operations in which we participated this 
year.
Operation Stabilise
    When the province of East Timor attempted to break away from 
Indonesia, the resulting conflict caused thousands of residents to flee 
their homes. The U.N. relied on our airlift to deliver the manpower and 
supplies to stabilize the region. Intertheater airlift, provided by C-
5s, C-141s, and C-17s, transported 1,580 Thai peacekeepers to the 
region. Intratheater C-130H aircraft from Elmendorf AFB, Alaska, flew 
over 600 hours transporting more than 1,800 personnel and 1,250 tons of 
combat support equipment and humanitarian aid to Dili and Komorro in 
East Timor.
Operation Atlas Response
    In March 2000, flooding devastated Mozambique, driving hundreds of 
thousands of people from their homes. We responded as part of Joint 
Task Force Atlas Response, flying more than 600 sorties that delivered 
970 tons of crucial supplies. Crews flying C-130s and C-17s transported 
nearly 2,000 non-governmental relief workers to Maputo, Mozambique's 
capital city, and Beira, the country's second largest city. Rescue and 
special operations crews played a key role ensuring supplies were 
distributed properly.
Balkan Operations
    In 2000, we conducted 16 percent, or about 2,000 of the 12,000 
combat sorties flown in the Balkans in support of the Kosovo Forces 
(KFOR) and Stabilization Forces (SFOR). Yet this statistic 
significantly understates our contribution to these Balkan operations. 
Our fighter, tanker, command and control (C\2\), ISR, and airlift 
aircraft; C\2\ facilities; combat search and rescue forces; special 
operations units; UAVs; and space-based resources were indispensable to 
the performance of all joint and coalition operations.
United States Wildfire Relief
    Our people played a pivotal role fighting the worst wildfires to 
ravage the western United States in 50 years. In 48 airlift missions, 
we transported 330 tons of cargo and over 5,900 Army, Marine, and 
civilian firefighters to Idaho, Montana, and California. Three Air 
National Guard and one Reserve C-130 aircraft, equipped with the 
Modular Airborne Fire Fighting System (MAFFS), flew 870 missions and 
dropped almost 2.3 million gallons of fire suppressant across 19 states 
within a 6-month period.
Southwest Asian Operations
    During 2000, we maintained a continuous presence of 8,000 airmen in 
Southwest Asia in support of Operations Northern Watch and Southern 
Watch. Our aerospace superiority assets (including air, space, and 
information systems) produced an environment that permitted more than 
23,000 coalition combat sorties without a single combat loss. Of these 
sorties, 63 percent, or 14,500, were flown by the Air Force. We 
responded to Iraqi no-fly zone violations and air defense threats with 
precision-guided munitions (PGMs), destroying a significant portion of 
Iraq's anti-aircraft artillery systems, threat radars, and command 
centers.
Northeast Asian Operations
    As the Nation marks the 50th anniversary of the Korean War, we 
continue to maintain a significant presence in South Korea and Japan, 
and conduct joint and combined exercises with the host nations. Cope 
Thunder, executed in early 2000, provided realistic training for 
aircrews, operations and logistics personnel, and selected C\2\ 
operators by exercising complex combat operations across the Pacific 
Theater. We also participated in exercise Ulchi Focus Lens, the world's 
largest annual joint and combined computer simulation war game 
conducted with the Republic of Korea's national mobilization exercise 
``Ulchi.''

                               DETERRENCE

    America deters potential aggression by maintaining the ability and 
resolve to use overwhelming force against any adversary. We maintain 
this posture through our expeditionary, rapid global mobility, nuclear, 
and space forces. The bomber, with its unique strengths of flexible 
payload, global range, and in-flight retargeting or recall, is the 
cornerstone of our conventional and nuclear force projection 
capability. Additionally, the land-based intercontinental ballistic 
missile (ICBM) provides a quick-reaction and highly reliable force with 
a mission capable rate above 99 percent.

            COUNTER-NUCLEAR, BIOLOGICAL, CHEMICAL OPERATIONS

    The potential use of weapons of mass destruction (WMD) against 
America and its allies is one of the most complex threats facing the 
DOD. Our balanced response to the proliferation of WMD, as outlined in 
our recently completed Air Force Counter-Nuclear, Biological, and 
Chemical (NBC) Operations Doctrine document, integrates the four 
pillars of counterproliferation--proliferation prevention, counterforce 
strategies, active defense efforts, and passive defense measures. 
Proliferation prevention restricts the spread of NBC weapons through 
political and diplomatic efforts, such as export controls and treaty 
agreements, but may also include denial operations when directed by the 
National Command Authorities. Counterforce operations include attacking 
an adversary's NBC weapons and their associated production, 
transportation, and storage facilities prior to their use. Active 
defense focuses on intercepting conventional and unconventional NBC 
delivery systems before they reach friendly forces. Finally, passive 
defense measures, including force protection, protect our people from 
the effects of an NBC attack and enable sustained aerospace combat 
operations.
    Our counter-NBC operational readiness initiative sets Air Force-
wide standards for readiness, identifies shortfalls, and develops 
capabilities to effectively cope with NBC attacks. This initiative 
includes our recently developed counter-NBC roadmap and chemical 
warfare concept of operations (CW CONOPS). The roadmap is an innovative 
investment strategy that cuts across all facets of Air Force plans and 
programs to increase counterproliferation visibility. The CW CONOPS, 
developed by our Pacific forces, is a plan to help us maintain high-
paced operations during NBC attacks on air bases.

                            FORCE PROTECTION

    Force protection comprises the activities that prevent or mitigate 
hostile actions against our people and resources when they are not 
directly engaged with the enemy. In 2000, our force protection 
personnel made 41 vulnerability assessments that were used to improve 
our physical security, the safeguarding of our food and water supplies, 
and our ability to respond to WMD incidents both at home and abroad. We 
developed a surface-to-air missile (SAM) footprint mapping capability, 
which couples site-specific topography with the effective range of 
hand-held SAMs, to direct security forces to probable threat locations. 
We have also instilled a force protection mindset in our people by 
incorporating force protection into the curriculum at all levels of 
professional military education and as part of Warrior Week during 
basic training. Protecting our people remains a top priority at all 
command levels.

               INFORMATION ASSURANCE AND NETWORK DEFENSE

    Information assurance (IA) and computer network defense are the 
strategy and means to deliver crucial information securely to the 
warfighter. We are in a daily battle for information superiority. Our 
air tasking orders, flying schedules, maintenance and logistics 
records, C\2\, and other operational functions are carried over our 
networks, making them a key target for potential adversaries. In 2000, 
we developed a plan to integrate operations, people, technology, and 
oversight through an enterprise-wide, network-centric concept. This 
plan includes operations and information protection; automated and 
dynamic detection and response; consolidated situational awareness and 
decision support; and IA in deployed and classified environments. For 
example, we monitor and evaluate network anomalies detected by our 
automated security incident measurement system (ASIMS). This system 
recognizes the latest hacking techniques to ensure early warning of 
attempted penetrations into our systems.

             INTELLIGENCE, SURVEILLANCE AND RECONNAISSANCE

    Our air-breathing and space-based ISR assets combine to provide 
America global vigilance by exploiting the high ground and actively 
monitoring the entire globe for emerging threats and treaty compliance. 
They provide an integrated capability to collect, process, and 
disseminate accurate and timely information that allows our decision-
makers to rapidly analyze and respond to changing global conditions, 
and enables us to obtain and maintain decision dominance. In 2000, our 
ISR assets monitored Iraqi compliance with U.N. sanctions as part of 
Operations Northern and Southern Watch and were key to providing 
critical real-time decision-making information to NATO leaders in the 
Balkans.

                        COUNTER-DRUG OPERATIONS

    We are actively supporting the National Drug Control Strategy. Our 
AWACS and other ISR assets, with tanker support, detect suspected drug 
traffickers in the South American source zone and monitor their 
activities through the Caribbean transit zone to their arrival and 
apprehension in the United States. Air National Guard forces conduct 
the majority of our counter-drug missions, employing an impressive 
variety of capabilities from intelligence and airlift to ground-based 
radar and fighter interception. The Guard's domestic counter-drug 
operations focused on state and Federal law enforcement support, 
interdiction, eradication, and drug demand reduction. The Reserve was 
also an important participant, flying patrol missions, and providing 
mobile training teams, intelligence, and linguists. In 2000, the 
Reserve provided 68 personnel, flew 105 missions, and conducted 15 
mobile training team deployments in support of worldwide counter-drug 
operations.
    Our civilian auxiliary, Civil Air Patrol (CAP), joined the Nation's 
counter-drug program in 1986, partnering directly with U.S. Customs and 
the Drug Enforcement Administration. Since then it has flown thousands 
of hours a year in support of counter-drug efforts. During 2000, the 
CAP efforts prevented approximately $3 billion worth of narcotics from 
entering the U.S.--a great all-volunteer accomplishment. The active, 
Guard, Reserve, and CAP are crucial partners in the Nation's ``war on 
drugs.''

                          SECURITY ASSISTANCE

    Cooperative foreign relationships are crucial to building 
multinational coalitions, securing international access, and sustaining 
our commercial defense industry. In 2000, we managed more than 3,800 
contracts for sales of aircraft, spare parts, munitions, and training 
valued at over $103 billion. These contracts included sales of over 240 
F-16s to the United Arab Emirates, Greece, Israel, and several other 
countries. Through the foreign military sales and international 
military education and training programs, we trained approximately 
4,600 international students in warfighting and professional military 
education.
    Our international armament cooperation program co-developed and 
fielded interoperable weapon systems that effectively leveraged DOD 
resources by cost-sharing, employing foreign technical expertise, and 
securing larger economies of scale (reducing the cost per unit). Under 
this program, we have reached more than 360 agreements with our allies 
and coalition partners involving research and development, production, 
equipment loans, and scientific and technical information exchanges.

                                 SAFETY

    The safety of our people is a principal concern in all our 
operations. A combination of increased funding for aircraft 
improvements and the use of operational risk management yielded 
positive results in several safety categories. We had the lowest flight 
mishap rate in our history--1.08 major mishaps per 100,000 hours of 
flight time. On the ground, we had our second lowest annual number of 
off-duty fatalities, with 50 (24 percent below our 10 year average of 
65), and on-duty fatalities, with 6.
    We continue to build on this success with innovative safety tools 
such as bird avoidance warning systems; an automated system to expedite 
mishap collection methods that supports operations and acquisition 
decision making; and a quality assurance system that ensures fleet-wide 
flight safety deficiencies are rapidly corrected.

                               CONCLUSION

    In 2000, we honored our tradition of operational excellence--firmly 
establishing our position as the National Command Authorities' frequent 
choice for fast, flexible, and precise military response. We also have 
done something difficult for many large organizations--we overcame the 
inertia of the status quo, improving both how we operate and the 
quality of life for our people. We are now an Expeditionary Aerospace 
Force--organizationally transformed to sustain America's aerospace 
advantage. Through global vigilance, reach, and power, we wield the 
unprecedented ability to observe events around the globe, rapidly reach 
out to influence them, and if necessary, bring to bear the force needed 
to secure our National objectives.
    In this chapter we recounted some of our activities during the past 
year. In the next chapter we will move from the present to the future. 
Specifically, the discussion will turn to our understanding of the type 
of capabilities we must pursue to successfully contend with the future 
security environment.

                       America's Future Air Force

    The history of the Air Force is marked by an unshakable dedication 
to the promise and potential of aerospace power as envisioned by our 
early pioneers. This enduring commitment has kept us on the cutting 
edge through continual organizational, operational, and technological 
transformation. We no longer narrowly focus on one overarching 
adversary, but rather on full-spectrum employment of the Total Force 
whenever our Nation calls. In the new strategic environment, we 
integrate air, space, and information to dominate the entire vertical 
realm. Indeed, we have transformed ourselves from a forward-based, 
organizationally stovepiped force structure to a forward-deploying, 
integrated expeditionary force structure. Moreover, we accomplished 
this through a steady, well-planned process of continuous innovation. 
Given the increasing complexity of warfare and an ever-changing 
adversary, expeditionary aerospace power offers an expanded range of 
strategic and operational options across the entire spectrum of 
engagement. Our commitment to technologies such as stealth, precision 
standoff weapons, and information warfare offers America new strategic 
options with less risk. This continuous transformation will preserve 
the Nation's vital role in world leadership and the ability to defend 
its interests around the globe.

                    THE GLOBAL SECURITY ENVIRONMENT

    Today's security environment is unique in American history. We do 
not have a ``peer competitor,'' nor are we likely to see one in the 
near future. At the same time, we face a number of uncertainties and 
potential challenges that threaten America's security and interests. 
These threats include regional hegemonies, asymmetric and transnational 
threats, and crises that may require intervention for humanitarian 
purposes.
    A hostile power, for example, may attempt to dominate a region by 
intimidating our allies or pursuing interests contrary to our own. Such 
a power may use anti-access strategies that attempt to deny our ability 
to deploy stabilizing military force. Today, we see many potential 
adversaries developing theater ballistic missiles and other anti-access 
capabilities to achieve this goal. Renegade actors may use asymmetric 
means such as terrorism, information warfare, or weapons of mass 
destruction to radically enhance their disruptive capabilities at a 
relatively low cost. We experienced such a tragedy in 1996 when 19 
deployed airmen were killed during the Khobar Towers bombing in Saudi 
Arabia. Other transnational or small-scale contingencies, including 
ethnic conflicts, international criminal activity, or insurgencies, may 
threaten our interests or the safety of our citizens (e.g., illicit 
drug activity in Latin America). Non-state actors and criminal 
organizations will continue to threaten American interests through 
sophisticated technical means or by physical attack. Crises that can 
spill over state borders that require humanitarian assistance, such as 
environmental disasters, will persist. We recently responded to the 
floods in Africa and the earthquakes in India.
    Space is an area where threats might emerge in the coming decade. 
Some of our potential adversaries have the ability to improve both 
their offensive and defensive military capabilities with commercially 
available space and information technologies. At the same time, they 
may try to neutralize our space assets, especially as space becomes 
more vital to our military, civil, and commercial interests.
    Ultimately, any national-level response is predicated on the 
ability to rapidly adapt military capabilities and operational concepts 
to precisely achieve the desired objectives. We demonstrated this 
ability during Operations Desert Storm and Allied Force, and we will be 
even more formidable in the future. Should deterrence fail, aerospace 
power is a force of choice for rapid response with minimum risk to U.S. 
personnel and non-combatants.

                               OUR VISION

    Our vision, America's Air Force: Global Vigilance, Reach, and 
Power--Vision 2020, published in June 2000, provides a template for the 
ongoing transformation of the Air Force and aerospace power into the 
21st century. Our vision underscores that people--our Total Force--are 
the foundation of the Air Force. We describe an aerospace domain best 
exploited by an integrated air, space, and information force. We 
present our forces in capability-based packages, called Aerospace 
Expeditionary Forces (AEF), each built upon the pillars of aerospace 
expertise, our core competencies--Aerospace Superiority, Information 
Superiority, Global Attack, Precision Engagement, Rapid Global 
Mobility, and Agile Combat Support. In the end, our vision focuses us 
on our mission: To defend the United States and protect its interests 
through aerospace power.

                           OUR STRATEGIC PLAN

    We believe that aerospace power will be, indeed must be, 
increasingly called upon as the Nation's military instrument of choice 
in an uncertain world. No other option is as fast, flexible, or 
necessary to the execution of joint operations. The Air Force Strategic 
Plan is the broad framework to institutionalize our vision. It 
anticipates the future security environment and provides guidance on 
major force modernization and investment strategies by identifying 
fourteen critical future capabilities based upon the Air Force core 
competencies and support areas. It is our roadmap to the future.

                            THE TOTAL FORCE

    Our Total Force builds on a foundation of high standards and strong 
cooperation among our active, Reserve, Guard, civilian and contractor 
personnel. Simply stated, we could not perform our mission without the 
combined contributions of all components. On any given day, members of 
the Guard and Reserve work side-by-side with their Active Duty 
counterparts. Today, our Guard and Reserve assets account for 38 
percent of our fighter force, 60 percent of our air refueling 
capability, 71 percent of our intratheater airlift, and significant 
portions of our rescue and support resources. The Reserve is the sole 
provider of unique capabilities such as aerial spray, space shuttle 
helicopter rescue support, and hurricane hunting, while the Guard 
provides 100 percent of our homeland air defense capability. 
Additionally, the Guard and Reserve have an increasing presence in the 
bomber force and in space, intelligence, and information systems. Guard 
and Reserve units provide essential support for training new pilots, 
manning radar and regional control centers, performing flight check 
functions at our depots, and conducting space operations. Equally 
important, our civilian members and contractors provide specialized 
administrative, technical, and managerial expertise that complement the 
functions performed by uniformed members. Without these combined 
skills, we could not operate as an expeditionary force. In the future, 
we will foster an even closer and more interdependent partnership 
between all of our components through new organizational structures and 
more interactive and flexible career patterns.

                         AEROSPACE INTEGRATION

    Our domain stretches from the earth's surface to the far reaches of 
our satellites' orbits in a seamless operational medium. However, even 
with the best aircraft and spacecraft optimized for their respective 
environments, the aerospace effects we create hinge on our people and 
their ability to rapidly and continuously integrate our air, space, and 
information systems. Accordingly, we have modified our command 
organizations to take full advantage of the resulting synergy.
    In September 2000, for example, we designated the Aerospace 
Operations Center (AOC) as a ``weapon system'' of the future. This hub 
of advanced networks will gather and fuse the full range of information 
in real-time--from the strategic to the tactical level--giving Joint 
Force Component Commanders actionable knowledge to rapidly employ their 
forces in the battlespace.
    Effectively employing integrated aerospace power requires 
commanders who exploit the entire aerospace continuum, both on a 
regional and global scale. This new paradigm of employment must be 
instilled in the minds of airmen at all levels of Air Force 
professional military education. To help achieve this end, we created 
an Aerospace Basic Course for newly commissioned officers to ensure 
they understand the different elements of aerospace power. Similarly, 
our Developing Aerospace Leaders initiative is determining the best way 
to cultivate the skills needed to lead in a dynamic, changing 
environment. We are infusing air, space, and information operators into 
all key command and training courses to expand their breadth of 
experience and core knowledge. Finally, our Space Warfare Center 
established a space aggressor squadron to increase the awareness of 
threats from space-capable adversaries and improve our ability to 
defend against them.

                     EVOLVING THE FULL-SPECTRUM EAF

    Providing the flexibility needed for full-spectrum operations 
requires continued efforts to round out the capabilities of our AEFs to 
make them virtually interchangeable. Currently, our 10 AEFs are not 
equal in capability. For example, only three of the ten AEFs are 
equipped with long-range, precision standoff strike capabilities, and 
only nine have an F-16CJ squadron for suppression of enemy air 
defenses.
    As the EAF continues to mature and technologies advance, we will 
expand the capabilities each AEF can provide. We will enlarge the 
battlespace an AEF can control; enhance our ability to do real-time, 
adaptive targeting; and dramatically increase the number of targets an 
AEF can engage in a day. Finally, we will improve our expeditionary 
combat support capabilities--effective, responsive logistics are the 
key to sustaining expeditionary forces and operating from austere 
locations.

          OPERATIONS IN THE FUTURE GLOBAL SECURITY ENVIRONMENT

    The changing security environment requires us to change the way we 
plan and operate. Aerospace power's ability to perform effects-based 
operations (i.e., focusing on achieving desired effects versus creating 
target lists) means we can support the joint force commander in ways 
unimaginable only a few years ago. Our ongoing transformation enables 
our long-range, standoff, all-weather precision, and stealth 
capabilities to rapidly counter any adversary's attempt to deny us 
access to a theater.
    This global strike capability, combined with responsive logistics, 
will then help to achieve the rapid halt of human suffering or 
threatening forces. Lastly, the massing of joint firepower at the time 
and location of our choosing will create the conditions that permit the 
safe deployment and employment of our joint forces. Once deployed, our 
force protection measures will provide defense against asymmetric 
threats. Through long-range stealth, precision standoff weaponry, and 
information operations, we are able to project substantial effects 
without subjecting our forces to substantial risk. Aerospace power's 
inherent versatility and precision form a large part of this tremendous 
capability, giving our leaders unprecedented strategic initiative and 
flexibility now and in future operations. Aerospace power is the 
Nation's asymmetric advantage.

                           HOMELAND SECURITY

    The Air Force has always contributed to homeland defense by 
deterring aggressors, intercepting intruders, and providing ballistic 
missile warning. However, defending our homeland has assumed new and 
daunting dimensions with the increased threat of terrorism, the spread 
of information warfare techniques, and the proliferation of weapons of 
mass destruction. Our traditional defenses are often incomplete against 
these unconventional threats.
    We are significant supporters of a multi-layered missile defense 
system incorporating space-based elements that provide effective, 
affordable, global protection against a wide range of threats. Future 
space capabilities like the Space Based Infrared System (SBIRS) will 
greatly enhance our ability to track and engage ballistic missiles, 
while space-based radar technologies (if transitioned into deployed 
systems) will track fixed and mobile ballistic missile launchers. The 
Airborne Laser (ABL) will engage boost-phase ballistic missiles, while 
the F-22, working with advanced ISR systems, will defend against cruise 
missiles. The Air Force expects to be a principal player in any future 
missile defense system.
    The Total Force brings a variety of capabilities to the defense of 
our homeland. The Air National Guard is positioned to ensure the air 
defense of the Nation while providing critical resources like airlift, 
command and control, and disaster preparedness response forces to other 
lead agencies and the Joint Forces Civil Support Teams. Our Air Force 
Medical Service is acquiring a variety of modular packages that can be 
used to support civilian authorities requesting our assistance at home 
or abroad. The Small Portable Expeditionary Aeromedical Rapid Response 
or ``SPEARR'' teams deploy ten highly trained specialists within 2 
hours of notification with the capability to provide a broad scope of 
care, including initial disaster medical assessment, emergency surgery, 
critical care, and patient transport preparation. In February 2001, we 
participated in a 3-day bioterrorism exercise, Alamo Alert, in San 
Antonio, Texas. This tabletop exercise explored city, county, state, 
and Federal responses to the release of a biological agent. We will use 
the lessons learned from this exercise to merge the disaster response 
plans of different agencies so they will work together more 
effectively. Developing a robust homeland defense strategy is critical 
to the Nation. The Air Force stands ready today, as in the past, to 
contribute our special capabilities, as well as develop new 
technologies that can aid civil authorities in combating any threat or 
attack to our homeland.

                            URBAN OPERATIONS

    By 2015, half the world's 7.2 billion people will live in urban 
centers. The growing migration to cities means an increased likelihood 
that military targets will be in close proximity to non-combatants. We 
must, therefore, place special emphasis on producing precise, 
predictable effects with minimal collateral damage to surrounding 
structures. Advances in target identification and precision weapons 
delivery have propelled us from committing multiple aircraft for each 
target during World War II (e.g., 1,000 B-17 sorties dropped 9,000 
bombs to destroy one target in 1943) to utilizing a single aircraft to 
neutralize multiple targets during Operation Allied Force (e.g., one B-
2 with 16 bombs hit 16 different targets in 1999). We are pioneering a 
new class of non-kinetic weapons that will create the desired effects 
without death and physical destruction. Large-scale conflicts will 
always include some degree of devastation, but non-kinetic weaponry and 
precision effects provide expanded options for our Nation's leaders 
across the entire spectrum of conflict. Precision effects also offer 
the potential to significantly reduce the duration of a conflict by 
concentrating our force on high-value military targets. This minimizes 
collateral damage, unintended consequences, and the accompanying 
pressures such problems bring to coalition cohesion.

                   SCIENCE AND TECHNOLOGY COMMITMENT

    Our commitment to a strong science and technology (S&T) program is 
fundamental to maintaining aerospace dominance in the 21st century. We 
continue to invest in a broad and balanced set of technologies derived 
from basic research, applied research, and advanced technology 
development on a continuum of maturity levels from short- to long-term. 
This time-scaled approach keeps emerging capabilities in the pipeline 
and fosters revolutionary developments.
    The Air Force S&T community is working closely with operators and 
strategic planners to explicitly link research activities with our core 
competencies, critical future capabilities, and future concepts of 
operation. This effort has produced S&T goals in the areas of time 
sensitive targeting; improved command, control, and information 
systems; survivability (defensive efforts); lethality and 
neutralization (offensive efforts); and improved power generation, 
propulsion, and vehicles. In accordance with the Fiscal Year 2001 
National Defense Authorization Act, we are also conducting a major 
review of our S&T program to identify both short-term objectives and 
long-range challenges.
    No matter how strong our commitment to S&T, however, our efforts 
will be jeopardized if we don't protect our developing technologies. We 
are taking aggressive measures to safeguard existing and emerging 
technologies from compromise that would degrade combat effectiveness, 
shorten the expected combat life of a system, or stall program 
development.

                               CONCLUSION

    We have adapted to the new strategic environment by incorporating 
new technologies, operational concepts, and organizational structures--
the definition of transformation. For the good of the Nation, we cannot 
afford to stop with the transformation we have already achieved. Given 
the increasing complexity of warfare and the access potential 
adversaries have to new technologies, we now need to move ahead even 
more quickly. If we emphasize those force elements that have the 
flexibility to respond to the new strategic challenge, we can realize 
order of magnitude increases in capability. For example, America can 
support the full spectrum of operations at lower cost in dollars and 
manpower by emphasizing stealth, precision standoff weapons, and 
information technologies that mark a qualitative shift in military 
operations. Those same forces have relevance across the entire spectrum 
of conflict. If we exploit the aerospace capabilities that have emerged 
since our current war plans were established, we may not be faced with 
having to shrink from our responsibilities as a global power. 
Capitalizing on America's asymmetric advantage--aerospace power--we can 
expand America's strategic options at less risk. However, there's a 
bill for this tremendous capability. We must fully fund our aerospace 
power force--the force that gives America a capability that is truly 
unique among nations.

                         Roadmap to the Future

    In order to remain the world's preeminent aerospace force, we must 
continue our transformation and work through the financial hurdles 
before us. A strong economy has made retaining and recruiting an all-
volunteer force extremely difficult, but we have taken significant 
steps to reduce the downward trends. The increasing cost of readiness 
(including operations and maintenance) is consuming the funds required 
to modernize our systems and our infrastructure. We have developed a 
responsible, time-phased plan to modernize our force without 
sacrificing readiness or capability goals. However, even if the plan is 
approved after Secretary Rumsfeld's review, we do not have the 
modernization funds to fully execute it. Finally, through constant 
innovation and adaptation, we are linking emerging technologies with 
our future concepts of operation in order to evolve our aerospace 
capabilities while providing the Nation the most effective return on 
its investments. Taking care of our people, improving readiness, and 
procuring upgraded and new, integrated systems are crucial to ensuring 
we can deliver rapid aerospace dominance well into the 21st century.

                                 PEOPLE

    Force structure drawdowns and a high demand for U.S. military 
presence around the globe have had a significant impact on our Total 
Force--active, Reserve, Guard, civilians, and contractors. Last year, 
at any given time, an average of 13,000 Total Force members were 
deployed around the world. Another 76,000 people were stationed 
overseas on permanent assignment. Retaining our military people is the 
first step in maintaining our combat capability and readiness, and will 
help alleviate many of our current recruiting and training problems. We 
need help to ensure our civilian work force is properly sized and 
shaped. We also continue to address the quality of life and quality of 
service concerns of all our people by creating better living and 
working environments for them. Finally, we are developing leaders who 
understand the full spectrum of expeditionary and integrated operations 
and the importance of giving every member an equal opportunity to serve 
and succeed. All of these actions are crucial to sustaining the 
foundation of our force--Air Force people.
Retention
    We are unique among the Services in that we are a retention-based 
force. We depend on retaining highly trained and skilled people to 
sustain our readiness posture for rapid global deployment. By meeting 
retention goals, we can reduce our current recruiting and training 
requirements, and build and maintain our technical expertise. However, 
we expect the economic climate will continue to make retaining our 
skilled enlisted and officer personnel difficult over the next several 
years. About 7 out of every 10 enlisted airmen will make a reenlistment 
decision between now and 2004. Exit surveys show the availability of 
civilian jobs as the primary reason our people decide to separate from 
the Air Force. To retain these people, we must continue to improve 
compensation; not only in terms of pay, but also by reimbursing the 
out-of-pocket expenses incurred during frequent moves, deployments, and 
other temporary duty. The viability of the all-volunteer force depends 
on military service remaining a competitive career option. We will 
continue to retain our people through quality of life initiatives.
    In 2000, we held two retention summits chartered to identify the 
reasons people decide to leave the Air Force and to develop solutions 
to retain them. From the summit, we produced and are implementing 19 
initiatives to improve retention, including establishing career 
assistance advisors at our bases to maximize the benefits of 
performance feedback sessions and provide selective reenlistment 
program counseling.
    With respect to officer retention, we closely monitor the officer 
cumulative continuation rate (CCR), or the percentage of officers 
entering their 4th year of service (6 years for pilots and navigators) 
who will complete their 11th year of service given existing retention 
patterns. In fiscal year 2000, the pilot CCR dropped to 45 percent from 
the high of 87 percent in fiscal year 1995. Non-rated operations and 
mission support officer retention rates have also dropped over the past 
2 years. In fact, retention rates have decreased for several high-tech 
specialties--developmental engineers, scientists, communication 
officers, and acquisition managers are in high demand. Conversely, 
navigator and air battle manager rates improved in fiscal year 2000, 
rising to 69 percent and 51 percent from last year's rates of 62 
percent and 45 percent, respectively.
    We aggressively use bonuses to retain our members. For example, a 
flexible aviation continuation pay (ACP) program is integral to our 
multi-faceted plan to retain pilots. Under a provision of the Fiscal 
Year 2000 National Defense Authorization Act (NDAA), we began offering 
ACP payments through 25 years of aviation service at up to $25,000 per 
year, and expanded eligibility to pilots below the rank of brigadier 
general. This resulted in a substantial increase in additional years of 
service commitment. The fiscal year 2001 ACP program includes two 
enhancements for first-time eligible pilots: the up-front lump sum 
payment cap was raised from $100,000 to $150,000 and up-front payment 
options were expanded. These changes were made to enhance the 
attractiveness of longer-term agreements.
    Seventy-six percent of our enlisted skills are now targeted with 
reenlistment bonuses, and we are considering bonuses for some non-rated 
line officer categories. The need to widen our bonus footprint, coupled 
with current below-goal retention rates, is strong evidence that the 
basic pay structure is too low. The addition of the officer and 
enlisted critical skills retention bonus of up to $200,000 during a 
career, which was authorized in the fiscal year 2001 NDAA, should help 
retain those people with skill sets in high demand by the civilian 
sector. We have also targeted our enlisted members with those crucial 
skills by increasing special duty assignment pay to $600 per month.
    Our Guard and Reserve have also taken steps to address retention 
problems by authorizing special pay and enlistment bonuses for critical 
enlisted specialties, ACP for active Guard and Reserve pilots, and 
special salary rates for full-time Reserve component military 
technicians. Implementation of the EAF concept will also help alleviate 
some of their retention challenges by providing advanced deployment 
notice to civilian employers.
Recruiting
    We missed our enlisted recruiting goal only twice since the 
inception of the all-volunteer force in 1973: fiscal year 1979 and 
fiscal year 1999. In fiscal year 2000, we waged an all-out ``war'' to 
recruit America's best--and won. We exceeded our enlisted recruiting 
goal of 34,000 by almost 400 without lowering our standards. We still 
require 99 percent of our recruits to have high school diplomas, and 
nearly 73 percent of our recruits score in the top half of all scores 
on the Armed Forces Qualification Test. In addition, we brought 848 
prior-service members back on Active Duty, compared to 601 in fiscal 
year 1999 and 196 in fiscal year 1998.
    Successful recruiting means enlisting airmen whose aptitudes match 
the technical requirements we need. Although we met our overall 
recruiting goals in fiscal year 2000, we fell about 1,500 short of our 
goal of 12,428 recruits with mechanical aptitudes. In response, we are 
developing a targeted program to highlight the many opportunities we 
offer to mechanics, as well as a ``prep school'' to increase the number 
of airmen qualified to attend courses in areas such as jet engine 
repair and avionics maintenance. These efforts are paying off--through 
the first 4 months of fiscal year 2001 we have met or exceeded our 
monthly goal for mechanically skilled recruits.
    As with our retention efforts, we are using bonuses to improve 
recruiting. An increase in the enlistment bonus to $20,000 for our 
hard-to-fill critical skills positions proved successful--68 percent of 
our bonus-eligible recruits selected a 6-year initial enlistment in 
fiscal year 2000. We also introduced a $5,000 ``kicker'' to encourage 
new recruits to enlist during our most difficult recruiting months: 
February, March, April, and May.
    Additionally, we held a comprehensive review of our recruiting and 
accessions processes. One of the most important initiatives that came 
out of this review was to increase our recruiter force. Therefore, we 
augmented our permanent recruiters with temporary duty personnel for 
periods of 120 days. This action resulted in an extra 1,100 recruits 
during the spring and summer of 2000. We increased the number of 
recruiter authorizations from 1,209 to 1,450 in fiscal year 2000, and 
we project 1,650 recruiter authorizations by the end of 2001. The 
Active Duty drawdown has also created an additional recruiting 
challenge for our Guard and Reserve components. As a result, the Air 
Force Reserve is increasing its recruiting force in fiscal year 2001 by 
50 recruiters (to 564), and the Air National Guard is adding 65 
recruiters (to 413) over the next 3 years.
    Officer recruiting is not immune to the economic factors affecting 
enlisted recruiting. As of March 2001, the Reserve Officer Training 
Corps (ROTC) anticipates shortfalls of 400 officers in fiscal year 2002 
and 280 in fiscal year 2003 (against a yearly goal of 2,000). We are 
considering several initiatives to attract more candidates, including 
offering cadets contracts after their freshman year rather than waiting 
until the end of their sophomore year, as well as recommending 
legislation to permit an officer accession bonus and to increase 
enlisted commissioning opportunities. In fiscal year 2000, we achieved 
97 percent of our line officer accession target, even though fiscal 
year 2000 production was 5 percent above fiscal year 1999 and 21 
percent greater than fiscal year 1998.
    Recruiting health-care professionals has also been challenging. 
Many medical, dental, nurse, and biomedical specialties are critically 
short. For example, only 80 percent of our clinical pharmacy positions 
are filled. In 2001, for the first time, we will be offering a $10,000 
accession bonus to pharmacists who enter Active Duty.
    Finally, we launched a multi-faceted marketing campaign, including 
television and movie theater advertising. Our ads depict the teamwork, 
dedication, and technological sophistication that characterize the Air 
Force. The Air Force Reserve and Air National Guard also launched a 
national campaign that includes television, radio, and outdoor 
advertisements.
Civilian Workforce Shaping
    In 1989, approximately 17 percent of our civilians were in their 
first 5 years of service. Today, that figure is less than 10 percent. 
In the next 5 years, more than 40 percent of our civilian career 
workforce will be eligible for optional or early retirement. 
Compounding this problem, the downsizing of the past decade has skewed 
the mix of civilian workforce skills. While we are meeting mission 
needs today, without the proper civilian force shaping tools, we risk 
not being ready to meet tomorrow's challenges.
    We have developed several initiatives to address our civilian 
workforce concerns. These initiatives include finding new ways to 
attract and recruit civilian employees; developing streamlined, 
flexible, and expedited hiring processes; supporting pay flexibility to 
better align salaries with those of private industry; and increasing 
the availability of student loan repayment programs.
    We also realize that we must renew the mid-level civilian workforce 
to meet the demands of an increasingly technical force. We will 
accomplish this through job proficiency training, leadership 
development, academic courses, and retraining. Further, we believe that 
funding civilian tuition assistance programs, as we do for our military 
people, and having the flexibility to pay for job licenses and 
certifications, will help our shaping efforts.
    However, we must also use separation management tools to create 
vacancies so the civilian work force is continuously refreshed with new 
talent and contains the right skills mix. These tools include pay 
comparability, and extending special voluntary separation incentive pay 
(VSIP) and voluntary early retirement authority (VERA) for workforce 
restructuring. We also need an incentive to provide employees the 
option to offset all or part of the early retirement penalty to their 
annuity through a lump-sum payment to the civil service retirement and 
disability fund.
Quality of Life
    For the first time in 5 years, we are adding manpower and workplace 
environment to our core quality of life priorities. Updated wartime 
planning factors and real-world operations validated our increased 
manpower requirements. Meeting our existing mission requirements with 
our current end strength is wearing out our people. We need to increase 
our end strength by 12,000 personnel above our fiscal year 2000 level, 
primarily in the combat, combat support, low density/high demand, and 
high-tempo areas.
    A good quality of life is central to attracting and retaining our 
people. The fiscal year 2001 NDAA provided a 3.7 percent pay raise, 
one-half percent above private sector wage growth, and a targeted pay 
raise for our mid-level enlisted members ranging from $32 to $58 per 
month. While these are positive developments, military pay, 
particularly for mid-grade NCOs and officers, remains below comparable 
private sector salaries. In fiscal year 2001, our members' out-of-
pocket housing expenses will be reduced from 18.9 percent to 15 
percent, but at significant cost to our budget. A goal of zero out-of-
pocket housing costs by fiscal year 2005, as directed by the former 
Secretary of Defense, will be difficult to fund within current 
projections. To help reduce out-of-pocket moving expenses, the NDAA 
equalized dislocation allowances for our lower ranking enlisted force, 
and authorized advanced payment of temporary lodging expenses and a pet 
quarantine reimbursement up to $275.
    Providing our people with safe, affordable accommodations improves 
their quality of life and, in turn, increases retention. Our dormitory 
master plan will build or replace dormitory rooms throughout the Air 
Force. We continue to pursue a private room policy for our airmen. 
Currently, 86 percent of our unaccompanied airmen housed on base have a 
private room with a shared bath. We also plan to replace, improve, or 
privatize over 10,000 family housing units. In addition, ensuring our 
members have adequate officer and enlisted visiting quarters and 
temporary lodging facilities remains a high priority. Constructing and 
maintaining sufficient numbers of on-base facilities yields significant 
savings in moving and travel costs while aiding force protection.
    Another important component of quality of life is health care. The 
year 2000 was a milestone year for our health-care program, with many 
changes taking effect in 2001. TRICARE was expanded to include 1.4 
million Medicare-eligible beneficiaries, retirees, and their family 
members beginning in October 2001. By enrolling in Part B Medicare, 
they can now visit any civilian health-care provider and have TRICARE 
pay most, if not all, of what Medicare does not cover. Other 
legislation extends TRICARE Prime Remote to immediate Active Duty 
family members stationed in remote areas (i.e., areas not within 50 
miles of a military treatment facility); eliminates TRICARE co-payments 
for Active Duty family members; establishes chiropractic care for 
Active Duty members; reduces the TRICARE catastrophic cap to $3,000 per 
year; and improves claims processing.
    Enhancing community and family programs is crucial to retention 
since 62 percent of our force is married. This year we created the 
Community Action Information Board (CAIB) to bring together senior 
leaders to review and resolve individual, family, and installation 
community issues impacting our readiness and quality of life. We 
recognize the economic benefits our members and their families receive 
from youth programs, family support centers, fitness centers, libraries 
and other recreational programs which support and enhance the sense of 
community. We also continue to support the commissary benefit as an 
important non-pay entitlement.
    Even with the EAF, our tempo can make educational pursuits 
difficult. Our learning resource centers and distance learning 
initiatives address this situation by offering deployed personnel 
education and testing opportunities through CD-ROM and interactive 
television. We support lengthening the Montgomery GI Bill contribution 
period from 1 to 2 years in order to ease the financial burdens of new 
airmen. Additionally, we have joined with the other Services, the 
Department of Labor, and civilian licensing and certification agencies 
to promote the recognition of military training as creditable towards 
civilian licensing requirements.
Training
    Training the world's best Air Force is challenging in today's 
rigorous, expeditionary environment. Recruits face a demanding basic 
training course, and newly commissioned officers and selected civilians 
attend the Aerospace Basic Course to establish a fundamental knowledge 
of aerospace power and the profession of arms. However, lower enlisted 
retention rates are increasing our training burden. Fewer experienced 
trainers are available to train entry-level personnel. Additionally, 
the increased number of accessions (due to lower retention) stress our 
training facilities and personnel. During accession surge periods, our 
technical training centers operate at over 100 percent capacity by 
triple-bunking students in two-person dorm rooms. Despite these 
challenges, our technical training schools are meeting their mission. 
By increasing our use of technology and streamlining training 
processes, we are producing fully qualified apprentices. Recognizing 
training as a continuous process, we are using emerging technologies to 
establish a training management system capable of documenting and 
delivering the right training throughout a member's career.
Equal Opportunity
    We strive to build and maintain an environment that is free from 
unlawful discrimination and harassment and reflects the rich diversity 
of our Nation. Equal opportunity, diversity, and fair and equitable 
treatment of our people have evolved from law to a strategic readiness 
imperative. Ensuring that every airman is given equal access and equal 
opportunity to achieve his or her full potential is vital to our 
readiness equation. Creating and sustaining an environment where 
individuals are respected and valued is key to mission performance and 
force sustainment. These issues require constant attention and support. 
Accordingly, we are committed to attracting, recruiting, hiring, 
accessing, developing, managing, rewarding, and retaining a diverse and 
high-quality Air Force that reflects all segments of American society.

                               READINESS

    Total Air Force readiness has declined 23 percentage points since 
1996. We attribute this decay to the problems associated with 
supporting the oldest aircraft fleet in Air Force history; the 
inability to retain an experienced workforce; and constrained resources 
and spare parts. With recent financial assistance from the 
administration, Office of the Secretary of Defense (OSD), and Congress, 
we are turning our spare parts problems around. However, as our 
fighter, ISR, combat search and rescue, mobility, and tanker aircraft 
continue to age, they need more frequent and substantial repairs, 
driving up readiness costs. This, in turn, reduces the number of 
aircraft available for missions and creates higher demands on the 
remaining fleet. Reversing this trend will take additional funding and 
a concerted recapitalization effort. In addition, the maintenance tasks 
and materiel growth inherent in supporting our aging aircraft fleet 
have increased our depot workload. Limited depot infrastructure 
investment over the past decade, coupled with constrained funding, adds 
to our already significant challenges in meeting readiness 
requirements. We are also experiencing infrastructure shortfalls in our 
facilities (i.e., bases), vehicles and support equipment, and 
communications infrastructure. However, our environmental program 
remains on track. Overall, we are committed to improving readiness, but 
it must be in concert with our people, infrastructure, and 
modernization programs.

                              SPARE PARTS

    Sufficient inventories of weapon system spare parts are crucial to 
mission readiness. Lack of spares puts a severe strain on the entire 
combat support system, creating increased workload for our logistics 
personnel and reducing the number of mission-capable aircraft available 
to our operational forces. When our logistics system suffers parts 
shortages, maintenance personnel must either cannibalize parts from 
other equipment or aircraft to serve immediate needs, or accept 
degraded readiness while they wait out long-delivery times for 
backordered parts.
    Recent improvements in spare parts funding are turning this 
situation around. Through internal funding realignment, the 
administration, OSD and congressional plus-ups, we were able to spend 
an additional $2 billion for spare parts over the past 2 years. This 
helped replenish inventories drained during Operation Allied Force. 
During the summer 2000 program review, the DOD fully supported our 
efforts to fill shortfalls in the spare-parts pipeline which were 
impacting operational requirements. Additional administration and OSD 
support for fiscal year 2002 includes full funding of the flying hour 
program and our airlift readiness spares packages, and increased 
funding to reduce the spares repair backlog.
    One of our greatest readiness challenges is managing the 
consequences of an unprecedented older aircraft fleet. Today, the 
average aircraft is approximately 22 years old. Even with currently 
programmed procurements, this figure will continue to rise, reaching 
nearly 30 within the next 15 years. Buying spare parts for aging 
aircraft is similar to buying them for aging vehicles. The older the 
vehicle, the more expensive the part due to obsolescence and a reduced 
vendor base. Maintaining an aging fleet with more expensive spare parts 
is one of the costs reflected in the increasing cost per flying hour. 
Over the past 5 years, our flying hours required for training and 
readiness have remained relatively constant, but the cost of executing 
our flying hour program has risen over 45 percent.
Facility Infrastructure
    Our available resources do not cover the maintenance requirements 
of our facilities. Presently, we are able to sustain only day-to-day 
recurring maintenance and periodic system repairs on our real property, 
creating a backlog of required maintenance. The replacement or 
renovation of existing real property is now on a cycle exceeding 150 
years, compared with the industry standard of 50 years. Military 
construction has also been reduced drastically since the mid-1980s 
(from the high of about $1.8 billion in fiscal year 1986 to the current 
$596 million in fiscal year 2001).
    Reductions in Air Force manpower and force structure have also left 
us with too much infrastructure. As a result, we are required to spend 
scarce resources on unneeded facilities while struggling to maintain 
acceptable operational readiness levels. We must be allowed to close 
unnecessary installations and then reinvest the savings in Real 
Property Maintenance (RPM), base-operating support, family housing, and 
military construction.
Vehicles and Support Equipment
    Over the past 8 years, the vehicle replacement program has been 
significantly underfunded. This situation has created approximately 
$552 million in deferred vehicle requirements for more than 27,000 
special-purpose, construction, tactical, and material-handling 
vehicles. While our major commands are pursuing temporary solutions, 
like general-purpose vehicle leasing, refurbishment programs, and 
reducing excess vehicle requirements wherever possible, failure to 
replace aging vehicles will directly impact our combat capability.
    Our support equipment program is only 58 percent funded. This 
follows an historical trend of inadequate funding. We have about $134 
million in deferred funding for maintenance stands, aircraft de-icing 
trucks, munitions-handling equipment, military working dogs, and 
Harvest Eagle and Harvest Falcon equipment used to erect bare bases. 
Missions in the Balkans and Southwest Asia have exacerbated equipment 
shortfalls. Addressing this funding gap will improve our readiness.
Communications Infrastructure
    Information technology (IT) advancements over the past decade have 
revolutionized aerospace power. From desktop computing to near-
instantaneous worldwide access to information, our communications 
technologies enable information dominance and create ``actionable 
knowledge'' for our commanders. The ability of forward-deployed 
commanders to rapidly and reliably reach back to a large number of 
combat support capabilities at home base, streamlines expeditionary 
operations by reducing airlift requirements and the size of our 
deployed footprint. A vital piece of our ``infostructure'' is our 
global information grid, an interconnected, network-centric information 
environment that provides information on-demand to our policymakers, 
warfighters, and supporting personnel. This infostructure gives us the 
means to meet our future information requirements.
Environmental Cleanup
    Our environmental program stands on four main pillars: 
environmental compliance, pollution prevention, environmental 
restoration, and resource conservation. The goal at our active 
installations is to have cleanup remedies in place for all our high-
risk sites by 2007 and for all sites by 2014.
    The environmental program for our closed and closing bases focuses 
on expedient cleanups that stress public health, responsible 
environmental stewardship, and the transfer of property for 
redevelopment. We continue to streamline processes, reduce costs, and 
promote community participation in decision-making. We are on target to 
complete all of our environmental cleanups by 2005, except for 
McClellan AFB, CA, which is targeted for 2015. Still, we require 
continuing investment to ensure properties are ready for permanent 
transfer to civil authorities.

                             MODERNIZATION

    Our modernization plan includes retiring the C-141 and procuring 
the C-17, buying our future air superiority fighters, considering 
tanker replacements, upgrading conventional bombers and precision-
guided munitions (PGMs), and developing new C\2\ and ISR systems. An 
important step in achieving these priorities involves sustaining and 
modernizing relevant, capable space forces, with emphasis on the 
development of the Space Based Infrared System (SBIRS), the Global 
Positioning System (GPS), the Evolved Expendable Launch Vehicle (EELV), 
and secure communication satellites. We must also upgrade our space 
launch ranges and satellite control network. The next several pages 
describe our modernization programs aligned under each of our core 
competencies.
Aerospace Superiority
    Aerospace superiority is the ability to control the entire vertical 
dimension, from the surface of the Earth to the highest orbiting 
satellite, so the joint force has freedom from attack and freedom to 
attack. Aerospace superiority is the crucial first step in achieving 
rapid aerospace dominance. In the 21st century, aerospace superiority 
depends on strike and defensive platforms, such as F-22 and the 
Airborne Laser (ABL), and ISR platforms, such as Global Hawk and SBIRS, 
seamlessly integrated through real-time information sharing and 
appropriate space control measures.
    The F-22, with its revolutionary combination of stealth, 
supercruise (i.e., supersonic-cruise without afterburner), 
maneuverability, and integrated avionics, will dominate the skies. The 
F-22's advanced capabilities will allow it to penetrate an adversary's 
airspace even if anti-access assets are in place, destroying the most 
critical air defense capabilities, thus permitting follow-on forces 
freedom of movement.
    Additionally, the F-22 will serve as the enabling platform for the 
Joint Strike Fighter (JSF) and other systems engaging enemy ground 
targets. In 2000, during continued envelope expansion flight testing, 
the F-22 successfully launched an Advanced Medium-Range Air-to-Air 
Missile (AMRAAM) and an AIM-9 infrared-guided missile from its internal 
side weapons bay, and began testing Block 3.0 avionics software.
    The F-22 has successfully met all congressionally mandated criteria 
necessary to enter low-rate initial production (LRIP) following Defense 
Acquisition Board approval. Entering operational service in 2005, this 
leap in technology is crucial to preserving the Nation's most important 
military advantage for future warfighters: the capability to rapidly 
obtain and maintain aerospace dominance.
    The Airborne Laser (ABL) is a transformational boost-phase 
intercept weapon system that will contribute significantly to the 
missile defense architecture. In January 2000, we began modifying a 
Boeing 747 to become the first of two ABL prototypes. This prototype 
successfully completed critical design review in April 2000. With the 
modifications completed in the third quarter of fiscal year 2001, ABL 
is progressing toward a demonstration against a theater ballistic 
missile. This revolutionary capability will bring equally revolutionary 
changes in warfighting.
    The Space Based Laser (SBL) has the potential to provide continuous 
boost-phase intercept for ballistic missile defense. To pursue this 
capability, the SBL integrated flight experiment (IFX) project will 
determine the feasibility and utility of this approach, focusing on 
risk reduction, the sustainment of critical technologies, and system 
architecture studies. The program is currently making excellent 
progress in high-energy laser beam control; acquisition, tracking and 
pointing technologies; and overall systems integration.
    The Space Based Infrared System (SBIRS) significantly improves on 
the missile warning capability of the 1993 Talon Shield upgrade to the 
Defense Support Program (DSP) missile detection and warning network of 
satellites. DSP has provided strategic missile warning for North 
America for nearly 30 years. Beginning in 1993, the DSP project 
upgraded processing techniques to provide a theater missile warning 
capability that includes timely and accurate detection and tracking of 
tactical ballistic missiles and other theater threats. SBIRS 
significantly improves on the missile warning capability of Talon 
Shield by consolidating the Nation's infrared detection systems into a 
single architecture, meeting our security requirements for missile 
warning, missile defense, technical intelligence, and battlespace 
characterization.
    SBIRS High, SBIRS Low, and DSP, and will operate through a 
consolidated ground segment. DSP currently employs satellites to 
provide early detection and warning of missile launches and nuclear 
explosions to the National Command Authorities. The last three DSP 
satellites will be placed into orbit between fiscal year 2001 and 
fiscal year 2003, and subsequently operated from the new SBIRS mission 
control station. The SBIRS High component, currently in engineering and 
manufacturing development (EMD), is on track for the first delivery of 
a highly elliptical orbit (HEO) sensor in fiscal year 2002 and the 
first launch of a satellite into geosynchronous orbit (GEO) in fiscal 
year 2005. The SBIRS Low component, now in the program definition/risk 
reduction phase, consists of low earth orbiting (LEO) satellites with 
the first launch planned for 2006. We are working hand-in-hand with the 
Ballistic Missile Defense Office to make the SBIRS program a success. 
In total, we will operate 2 SBIRS HEO, 4 GEO, and between 20 and 30 LEO 
satellites.
    Miniature Satellites
    On July 19, 2000, the Air Force Research Laboratory launched 
MightySat II, a test satellite weighing only 266 pounds. The MightySat 
series of experiments are designed to quickly and inexpensively 
explore, demonstrate, and transition space technologies from the 
drawing board to operational use. MightySat II demonstrates advanced 
technologies for hyperspectral remote sensing and on-board processing 
that could eventually help military commanders detect and identify 
hidden targets. The MightySat series are building blocks for more 
advanced satellite concepts, such as TechSat-21. This concept will 
employ three micro-satellites flying in formation to act as an 
integrated ``virtual'' satellite, enabling revolutionary remote sensing 
capabilities such as ground moving target identification.
    Assured Access to Space
    Achieving and maintaining superiority throughout the entire 
aerospace continuum requires an operational space launch and maneuver 
capability that can deploy to orbit with the same speed and flexibility 
as our other aerospace forces. The Evolved Expendable Launch Vehicle 
(EELV) will soon replace the current Titan, Atlas, and Delta launch 
vehicles to ensure America's spacelift capability until 2020. It 
consists of two independent launch systems: the Boeing Delta IV and 
Lockheed Martin Atlas V. The first EELV launch is scheduled for 2002. 
Our EELV partnership strategy with industry will meet military, 
government, and commercial spacelift requirements at 25 percent to 50 
percent lower cost than current systems. In the future, we envision 
reusable launch vehicles that will provide launch on demand, high 
sortie rates, reduced operations costs, and increased operational 
flexibility in support of space mission areas.
    Space Control
    We are committed to exploring innovative ways of modernizing space-
based technologies. Utilizing residual resources from the midcourse 
space experiment (MSX) satellite, Air Force Space Command (AFSPC) 
transitioned this advanced concept technology demonstration into a 
space-based space surveillance sensor. The Space Based Visible (SBV) 
sensor provides critical positional data on orbiting objects to ensure 
battlespace awareness.
    During the past year, we activated the first-ever space control 
unit--the 76th Space Control Squadron at Peterson AFB, Colorado. The 
76th SPCS is an offensive and defensive counterspace technology unit 
responsible for exploring emerging space control capabilities, 
including concepts of counter-communications and counter-surveillance/
reconnaissance, and the development of a satellite attack, threat 
detection, and reporting architecture.
    Combat Search and Rescue
    Combat search and rescue (CSAR) forces, identified by DOD as low 
density/high demand (LD/HD) assets, recover downed combat aircrews and 
other isolated people from hostile territory and return them to 
friendly control. The age of our CSAR platforms, and their lack of 
compatibility with our advances in strike, C\2\, ISR, communications 
and other systems, jeopardize our ability to fulfill our operational 
commitments beginning in 2010. For example, the A-10 aircraft does not 
have the latest airborne receivers required to perform the on-scene 
command role during combat rescue missions. In 2010, our HH-60s (search 
and rescue helicopters) will reach the end of their service life and 
require either a service life extension program (SLEP) or replacement. 
Our near-term enhancements include equipping HH-60Gs with over-the-
horizon data receivers and improved defensive systems. We are also 
improving our CSAR force structure by converting 10 WC-130Hs (weather 
observation aircraft) into HC-130s (rescue/tanker transports) and 
transferring eight HH-60s and five HC-130s from the Reserve to the 
active force. We have established the new combat rescue officer (CRO) 
career specialty to improve the leadership of the CSAR mission area. 
The first CRO commanded pararescue squadron will stand up in May 2001.
Information Superiority
    Information superiority, like aerospace superiority, means our 
information systems are free from attack while we have freedom to 
attack an adversary's information systems. Information superiority 
enables us to provide tailored, accurate targeting information from a 
sensor to a shooter within minutes. It assures U.S. and allied forces 
have a clear picture of the battlespace and can operate freely in the 
information domain while denying the enemy the same. Information 
superiority includes the ability to gain, exploit, attack, and defend 
information. Integral elements include capabilities in information-in-
warfare (e.g., ISR, weather, communications) and information warfare 
(e.g., electronic warfare, psychological operations, computer network 
attack and defense).
    Command and Control
    Our operational and tactical command and control (C\2\) airborne 
platforms and ground systems organize and direct ISR efforts and 
tactical forces to successfully apply combat power. Our C\2\ assets 
include the aerospace operations center (AOC) with its decentralized 
component control reporting centers (CRC), the Airborne Warning and 
Control System (AWACS), and the Joint Surveillance Target Attack Radar 
System (JSTARS).
    As the primary element of the Theater Air Control System (TACS), 
the AOC is responsible for planning, executing, and assessing the full 
range of aerospace operations. By fusing the data from a vast array of 
C\2\ and sensor systems, the AOC creates a comprehensive awareness of 
the battlespace so the Joint Force Air Component Commander (JFACC) can 
task and execute the most complex aerospace operations across the 
entire spectrum of conflict.
    Especially significant among these operations are time sensitive 
targeting, which provides rapid reaction to the threat, and theater 
battle management, which blends C\2\, rapid intelligence collection, 
analysis, and dissemination with positive control of airspace and the 
tasking of combat forces to coordinate the entire air battle with joint 
and coalition partners and component commanders. We have recently 
designated the AOC as a ``weapon system'' and are working on efforts to 
standardize its capabilities. Our continued efforts in equipment 
baselining, personnel training, and documentation are the precursors to 
a full AOC system modernization effort. The emergence of the AOC as a 
fully developed, standardized weapon system will revolutionize the 
operational level of warfare.
    The CRC is the JFACC's ground tactical execution node for C\2\ and 
battle management. It provides wide-area surveillance, theater air 
defense, identification, data link management, and air battle 
execution. The current system was developed in the 1970s and must be 
replaced. The CRC replacement, the Battle Control System, will exceed 
year 2010 requirements for time sensitive targeting, open system 
architecture, small deployment footprint, remote operations, multi-
sensor fusion, and AEF responsiveness.
    The Theater Battle Management Core Systems (TBMCS) is an 
integrated, automated C\2\ and decision support tool that offers the 
senior aerospace commander and subordinate staffs a single point of 
access to real- or near-real-time information necessary for the 
execution of higher headquarters taskings. TBMCS will support a full 
range of functions including threat assessment, target selection, 
mission execution, battle damage assessment, resource management, time 
sensitive target identification and prosecution, and defensive 
planning.
    Communication
    Information superiority, and by extension, all our core 
competencies depend on the availability of a robust, worldwide 
communications capability. Unfortunately, our military satellite 
communication (MILSATCOM) systems can not fully keep up with the growth 
of theater requirements. Over the next 10 years, our need for secure 
communications is expected to increase 15-fold over current capacity, 
while wideband requirements are projected to soar to 20 times the 
current capacity. In an environment of extremely high worldwide demand 
and competition, commercial providers simply cannot supply us with the 
protected bandwidth, security, or coverage necessary to fully support 
military operations.
    MILSATCOM systems, notably the Defense Satellite Communications 
System (DSCS) and the Military Strategic and Tactical Relay System 
(MILSTAR), support contingency and ongoing operations. The first DSCS 
SLEP satellite, launched in January 2000, provides users a 200 percent 
increase in military wideband communications capacity compared to 
legacy DSCS III satellites. It also increases the overall reliability 
of the military wideband constellation. Early in 2001, the MILSTAR 
constellation received a third operational satellite, to provide jam-
resistant communications for tactical operations. Furthermore, a 
complete modernization of protected communications (advanced extremely 
high frequency) and wideband communications (advanced wideband) is 
underway. These are positive steps toward ensuring space superiority 
and information superiority today and in the future.
    While the long-haul communications provided by satellites is 
crucial to operations, transporting information to in-garrison and 
deployed units is equally vital. Theater deployable communications 
provide lightweight multiband satellite terminals that allow our 
deployed forces to reach back on the Global Command and Control System-
Air Force (GCCS-AF) via the Combat Information Transport System--our 
high-capacity fiber-optic backbone. This capability allows combat 
forces to quickly deploy with a smaller support structure. We are also 
implementing innovative emerging technologies to maximize bandwidth 
availability. This is especially critical given the commercial 
expansion into the frequency spectrum used by the military.
    Information Warfare
    We have fielded eight information warfare flights (IWF) to date, 
providing combatant commanders with full-spectrum information warfare 
(IW) planning for offensive, defensive, kinetic, and non-kinetic 
applications. We plan to field at least one additional IWF to support 
U.S. Special Operations Command. Each IWF integrates offensive 
counterinformation, defensive counterinformation, and information-in-
warfare functions to gain, exploit, attack, and defend both information 
and information systems. We recognize the potency of psychological 
operations and, therefore, include it in our strategic planning as part 
of our IW capabilities.
    Intelligence, Surveillance, and Reconnaissance
    Currently, our limited numbers of airborne ISR systems are in 
extremely high demand. The RC-135 Rivet Joint, U-2, and Predator UAV 
were indispensable during Operation Allied Force, providing real-time 
PGM target data, threat warning, and battle damage assessment. UAV 
systems, such as Global Hawk and Predator, promise to expand our ISR 
collection capability while reducing the need to place our people in 
harm's way.
    Global Hawk successfully completed a military utility assessment 
and is poised to move forward as a formal Air Force acquisition program 
with the delivery of production vehicles in fiscal year 2003. The 
Predator continued to demonstrate impressive expandability with the 
integration of a laser illuminator for PGMs and the recent successful 
launch of a Hellfire-C missile against a ground target. Additionally, 
we are nearing completion of a major upgrade to the U-2's sensors, 
cockpit, defensive, and power systems.
    Space-Based Radar Capability
    We are evolving information superiority assets into space. New 
sources and methods of space-based ISR are being explored to provide 
nearly continuous overflight of enemy targets to complement airborne 
and ground-based sensor platforms. We are partnering with other 
Services, agencies, and the National Reconnaissance Office (NRO) to 
develop a roadmap for future space-based radar (SBR) capabilities. SBR 
is a pioneering approach to providing near-continuous, worldwide 
surveillance that would complement JSTARS and other ground moving 
target indication and imagery systems. SBR capability would skip a 
generation of sensor technology to provide precision weapons data and a 
nearly continuous deep, denied-area look at ground moving targets. 
Furthermore, as a space-based asset, SBR would not be limited by 
overflight restrictions, basing issues, lengthy personnel deployments, 
crew fatigue, or terrain masking. From a collection perspective, SBR 
would move us to the ultimate high-ground.
    Joint Surveillance Target Attack Radar System
    The JSTARS provides battle management, C\2\, and ground moving-
target detection. We are replacing the on-board computers with 
commercial-off-the-shelf equipment by 2005 under the JSTARS Computer 
Replacement Program (CRP). The CRP is the foundation of all JSTARS 
communications and sensor upgrades, and should reduce life-cycle costs 
and minimize the number of obsolete parts. However, due to fiscal 
constraints, we are enhancing only 2/3 of the fleet with the capacity 
to simultaneously transmit voice and data through beyond-line-of-sight 
satellite communications by 2005. Finally, the multi-platform Radar 
Technology Insertion Program (RTIP) will replace the current JSTARS 
radar with an advanced electronically scanned array radar that has five 
to ten times the air-to-ground surveillance capability, reduces target 
revisit times, improves moving-target track capability, and enhances 
radar resolution.
    Airborne Warning and Control System
    The AWACS remains the premier air battle management and wide-area 
surveillance platform in the world. Still, aging aircraft issues, 
obsolete technologies, and the proliferation of advanced adversary 
systems necessitate several upgrade programs. An improved radar system 
will become operational this year, with fully upgraded capability 
slated for fiscal year 2005. The next computer and display upgrade will 
replace the 1970 vintage processors with an open architecture system. 
Finally, a satellite communications access program will provide 
improved connectivity with regional and national C\2\ centers.
    Global Access, Navigation, and Safety
    In 1996, we began the most comprehensive avionics modernization 
effort in our history--the Global Access, Navigation, and Safety (GANS) 
program. It comprises an unparalleled avionics procurement and 
installation effort to update the navigation and safety equipment in 
our aircraft and in many ground systems. GANS includes the Joint 
Precision Approach and Landing System; the Air Traffic Control and 
Landing System; modernization of our Global Air Traffic Management 
(GATM) capabilities; and updated avionics to include navigation, 
safety, and installation of Global Positioning System (GPS) capability. 
In May 2000, GPS selective availability was turned off, thereby 
providing the same accuracy to civil and military users. This increased 
accuracy will significantly enhance the capabilities of systems using 
GPS. In 2000, we built a strategic GANS implementation plan to 
synchronize our efforts with those of the Federal Aviation 
Administration (FAA) and International Civil Aviation Organization 
(ICAO). In the future, GANS will define the operational requirements 
for upgrading all our ground and air traffic management systems to 
preserve unimpeded worldwide operations within domestic and 
international airspace systems.
    We project that more than 99 percent of our aircraft will complete 
the congressionally mandated GPS upgrade by the 2005 deadline. 
Additionally, through our GPS Modernization/Navigation Warfare (NavWar) 
Program, we began development of navigation warfare upgrades that will 
be fielded in GPS ground and space segments beginning in fiscal year 
2003. These and future upgrades will allow us to better protect the 
ability of American and allied forces to employ GPS on the battlefield 
while denying it to our adversaries and minimizing potential impacts to 
civilian users.
Precision Engagement
    Operation Allied Force demonstrated the need to strike targets in 
adverse weather conditions with precision. Our new generation of guided 
weapons couples GPS with an inertial navigation system to put bombs 
precisely on targets, day or night, in nearly all weather conditions. 
Weapons with this capability, such as the Joint Air-to-Surface Standoff 
Missile (JASSM), Joint Standoff Weapon (JSOW), Joint Direct Attack 
Munition (JDAM), and Wind Corrected Munitions Dispenser (WCMD) are 
among our high-priority precision engagement programs.
    JASSM is a precise, stealthy, standoff missile that will enable us 
to destroy heavily defended, hardened, fixed, and relocatable targets. 
As a result of acquisition reform initiatives, JASSM will be delivered 
below the objective unit price of $400K, after a development period 
that will be 35 percent shorter than comparable missile programs. JASSM 
is currently undergoing flight tests with production deliveries 
scheduled to begin in 2003.
    JSOW is an accurate, adverse-weather, unpowered, glide munition. We 
are currently procuring two variants, the AGM-154A and AGM-154B, which 
are capable of destroying soft and armored targets at ranges of up to 
40 nautical miles.
    JDAM employs GPS guidance, incorporated in a tail kit, to deliver 
general-purpose or penetration warheads in adverse weather with near 
precision. We will use JDAM on multiple platforms to destroy high-
priority, fixed, and relocatable targets. The first operational use of 
a 2,000-pound JDAM was from a B-2 during the first night of Operation 
Allied Force.
    We are currently developing a MK-82 (500-pound) JDAM--a small bomb 
that will multiply kills per sortie by increasing the number of PGMs 
that can be carried. For example, the same B-2 that carried up to 16 
2,000-pound JDAMs in Operation Allied Force will now be able to carry 
up to 80 500-pound JDAMs. This 500-pound JDAM capability, planned for 
initial deployment in fiscal year 2004, is the first step in the Air 
Force's transition to miniature munitions.
    WCMD has an inertial-guided tail kit that enables us to accurately 
deliver the Combined Effects Munition, Sensor Fuzed Weapon, and the 
Gator Mine Dispenser from medium to high altitude in adverse weather. 
WCMD-equipped weapons became operational in late 2000.
    In summary, munitions recapitalization is one of our top 
priorities. A decade of high operations tempo has depleted our large 
Cold War Reserve munition stockpiles. Acquisition of JDAM, JASSM, JSOW, 
and WCMD will increase PGM capabilities over the next few years; 
however, shortages of legacy munitions and consumable munitions items 
(e.g., bomb bodies, rockets, chaff, flares, training ammunition, and 
practice bombs) will continue to hamper training and operations.
Global Attack
    Global Attack is the ability to engage targets anywhere, anytime. 
Global attack programs include the development of the Joint Strike 
Fighter (JSF), improvements to our legacy fighters, and the 
modernization of the B-1, B-2, and B-52 bombers with PGM capabilities. 
Additionally, modernization of strategic platforms such as the 
Minuteman III, the Air-Launched Cruise Missile, and the Advanced Cruise 
Missile ensures the viability of two legs of the nuclear triad.
    Joint Strike Fighter
    The Joint Strike Fighter (JSF) program will develop and field an 
affordable, lethal, survivable, and highly common family of stealthy, 
next-generation, multi-role, strike-fighter aircraft for the Air Force, 
Navy, Marine Corps, and our allies. It will provide a 24-hour, adverse-
weather, precision-engagement capability not provided by our legacy 
systems. The JSF would help us limit our aging fleet problems. With a 
set of fully validated and affordable joint operational requirements in 
place, the competing contractors are completing the concept 
demonstration phase. The EMD phase is expected to begin in the fall of 
2001. Partner countries will share the cost of JSF development, 
including the United Kingdom, which signed an agreement in January to 
contribute $2 billion to the program. Several parallel negotiations are 
underway with other potential international partners.
    Legacy Fighter Modernization
    Our legacy fighters, including the F-15, F-16, and A-10, provide a 
potent mix of air-to-air and air-to-surface capability. The recent 
addition of GPS-guided PGMs on the F-117 gave it an adverse-weather 
capability. However, these aging platforms are growing more expensive 
to maintain and operate, and their combat effectiveness is expected to 
eventually decline as projected surface-to-air and air-to-air threats 
appear. The introduction of the stealthy F-22 and JSF will maintain 
America's technological advantage, ensuring the ability to defeat 
emerging threats while replacing aging force structure with modern 
combat systems.
    One of our Guard and Reserve's top modernization priorities is 
incorporating precision targeting pods into their F-16 aircraft. From 
1998 through 2000, we outfitted all of our Reserve units and selected 
Guard units with Litening II pods. This acquisition gave the Guard and 
Reserve's F-16s a critical precision strike capability while moving 
them closer to the configuration of the active F-16 force. Beginning in 
fiscal year 2001, the Guard will join with the active force in 
procuring the Advanced Targeting Pod (ATP). Collaborative programs 
between our active and Reserve components increase our overall 
procurement flexibility and close the gap in combat capability.
    Bomber Modernization
    Our bomber modernization efforts will continue to increase the 
lethality and survivability of our bomber force by enhancing precision 
strike and electronic combat capabilities. We are applying the lessons 
learned from Operation Allied Force by enhancing the flexible targeting 
and electronic connectivity of the B-2 using electronic data-link and 
UHF satellite communications. We are committed to integrating the MK-82 
500-pound JDAM into the B-2, enabling it to strike up to 80 targets per 
sortie. Further, we are fielding the MK-84 2,000-pound JDAM on the B-1 
and developing the capacity for both the B-1 and the B-52 to deliver 
JSOW, JASSM, and WCMD. Communications, avionics, situational awareness, 
electronic countermeasures, and defensive system upgrades would also 
improve bomber effectiveness.
    Intercontinental Ballistic Missiles
    Ongoing modernization of the Minuteman III (MM III) 
intercontinental ballistic missile (ICBM) force and a clear policy 
decision regarding the future of the Peacekeeper (PK) ICBM are crucial 
to the viability of ICBMs through 2020. For example, we could dismantle 
our PK ICBMs and then retrofit up to 350 MM IIIs with warheads 
currently on PKs to avoid a costly life-extension program on the 
Minuteman system. This replacement effort would ensure that our newest 
warhead, with the most modern safety features, remains part of the ICBM 
force. However, continued delays in START II Treaty ratification, and 
the resultant delay in a PK deactivation decision, make it difficult to 
implement this program and are causing increased maintenance challenges 
that could eventually cause degradation of our ICBM force.
Rapid Global Mobility
    Rapid Global Mobility ensures the Nation has the global reach to 
respond quickly and decisively anywhere in the world. As the number of 
forward-deployed forces has declined, the need for immediate response 
to overseas events has risen. Airlift and tanker aircraft give the 
United States the ability to rapidly reach out and influence events 
around the world. Yet, some of these platforms are reaching the end of 
their service life. To prepare for the future, the Mobility 
Requirements Study (MRS-05) and Tanker Requirements Study (TRS-05) were 
commissioned to determine long-term military airlift and aerial 
refueling requirements. MRS-05 ascertained the mobility requirements to 
support the Nation's military needs with moderate risk. Additionally, 
the TRS-05, baselined from MRS-05, will inform our decision-makers on 
the number of tankers needed to carry out future military operations. 
The KC-135 fleet now averages about 40 years old, and operations and 
support costs are escalating as structural fatigue, corrosion, systems 
supportability, and technical obsolescence take their toll. The KC-135 
Economic Service Life (ESL) Study was completed in December 2000. This 
study provided specific KC-135 milestones, as well as information on 
projected sustainment costs and operational availability. In fiscal 
year 2001, using the KC-135 ESL study and TRS-05 as baselines, an 
aerial refueling analysis of alternatives will examine options and 
timing for replacing the aging KC-135.
    The procurement of the full complement of C-17s and the continued 
modernization of the C-5, C-130, KC-10, and KC-135 fleets will enhance 
the viability of our mobility forces. Extensive efforts to modernize 
the C-5's avionics and propulsion systems should keep this aging 
platform operational for the future.
    Modernization of the C-130 fleet (for intratheater airlift) is 
proceeding with a two-pronged approach. We are procuring new C-130Js to 
replace 150 of our most worn-out 1960s-era C-130E combat delivery 
aircraft. The C-130J provides increased range, performance, and cargo 
capacity compared with the current C-130E/Hs. The remainder of our C-
130 fleet will undergo an avionics modernization program (AMP) 
modification. AMP includes state-of-the-art avionics that will 
eliminate the need for a navigator and will increase reliability, 
maintainability, and sustainability. The C-130 AMP modification will 
make the aircraft compliant with GATM standards and navigational safety 
requirements.
    The Air Force has begun a large aircraft infrared countermeasures 
(LAIRCM) initiative to counter increasingly prolific man-portable air 
defense systems (MANPADS). LAIRCM will use state-of-the-art technology 
to provide active defenses for airlift- and tanker-sized aircraft 
against widely deployed shoulder-launched surface-to-air missiles.
    LAIRCM will build on existing systems designed for helicopters and 
small, fixed-wing aircraft. It will add new missile warning and 
tracking systems to locate and direct a laser at an incoming missile. 
Operational capability is expected on the first C-17s in fiscal year 
2004. Additional airlift and tanker aircraft will be outfitted with 
this system in the near future.
    Rapid Global Mobility is dependent upon the Tunner 60K mobility 
aircraft loader. It is essential for expediting onload and offload and 
maximizing throughput at any location. The next generation small loader 
(NGSL), a replacement for existing 25K loaders and wide-body elevator 
loaders, will provide the versatility to load wide-body commercial 
aircraft and support mobility operations at forward bases.
    Integrated Flight Management Modernization
    Air Mobility Command's (AMC) Mobility 2000 (M2K) program is a 
comprehensive systems integration and C\2\ architecture modernization 
initiative to increase the efficiency and responsiveness of airlift and 
air refueling operations. M2K will revolutionize AMC's C\2\ data flow 
and connectivity, data processing, database management, and information 
display capabilities. By leveraging GATM system installation and 
digital datalink technologies, AMC will realize near-real-time global, 
end-to-end data connectivity between the Tanker Airlift Control Center 
and all AMC mission aircraft. The implementation of M2K programs began 
in 2000 and will continue into 2006.
    Spacelift Range Modernization
    The Spacelift Range System (SLRS) modernization program is 
replacing aging and non-supportable equipment; using automation to 
improve reliability and efficiency; reducing the cost of operations; 
and standardizing equipment on the eastern and western launch ranges. 
To date, the completion of new downrange satellite communication links, 
a new fiber-optic network, and new range scheduling systems are 
providing government and commercial users more flexibility at the 
spacelift ranges. The congressionally directed National Launch 
Capabilities Study concluded that once completed, the SLRS 
modernization program, coupled with the EELV program, would meet the 
future launch demands of national security, civil, and commercial 
payloads.
    The White House-led Interagency Working Group on the future 
utilization of U.S. space launch bases and ranges developed a strategic 
direction for the spacelift ranges. The Air Force was instrumental in 
shaping that strategic direction as well as the findings and 
conclusions contained in the Group's report. Through this effort, we 
have been expanding and formalizing partnerships with states, 
spaceports, and the Departments of Transportation and Commerce to 
better consider the spacelift requirements for civil and commercial 
launches while ensuring our capability to meet national security 
requirements now and in the future. At the same time, we are examining 
options for the use of non-Federal funding to improve the space launch 
ranges.
    CV-22
    The CV-22 is our designation for the special operations variant of 
the V-22 Osprey--a vertical/short-takeoff and landing airplane designed 
for long-range, rapid penetration of denied areas in adverse weather 
and low visibility. With twice the range and speed of a conventional 
helicopter and its state-of-the-art avionics system, the CV-22 will be 
able to complete most of its missions under the cover of darkness 
without being detected. We will use the CV-22 to infiltrate, 
exfiltrate, and resupply special operations forces and to augment 
personnel recovery forces when needed. The CV-22 is currently in the 
EMD phase with two test vehicles designated for flight tests through 
2003.
Agile Combat Support
    The goal of Agile Combat Support (ACS) is to improve the 
responsiveness, deployability, and sustainability of combat aerospace 
forces. Our four basic objectives are to become more rapidly 
deployable; develop a more responsive planning and execution 
capability; improve agile combat support C\2\; and develop an agile, 
responsive, and survivable sustainment capability. We are making gains 
in the process of right-sizing deployment teams so they are postured 
better for expeditionary needs. We have developed expeditionary site 
planning tools that help tailor our deployment capability based on 
assets prepositioned in the forward theater. We are gradually 
introducing bare base assets and other types of support equipment into 
our inventory. We've invested in infrastructure and prepositioning to 
improve the reception and beddown capabilities of our bomber forward-
operating locations. We have fielded an integrated deployment system at 
all of our wings that improves the responsiveness of our deployment 
process. Our information technologies, such as the virtual logistics 
suite hosted on the Air Force Portal, will help provide real-time 
situational awareness for ACS command and control.
    Through efforts like our logistics review and logistics 
transformation initiatives, we are reengineering our processes to 
achieve an agile, effective, well-integrated logistics chain that is 
responsive to EAF requirements. These are all examples of initiatives 
that will help achieve our four ACS objectives; however, our ACS 
capability must be improved even more to fully support our EAF vision. 
For example, we need to fix readiness shortfalls in key logistics 
resources including people, skills, spares, munitions, bare base 
assets, and vehicles. We need to improve our capability to rapidly 
develop deployment and sustainment plans for fast-breaking 
contingencies. Finally, we are making enhancements to our ACS command 
and control capability to make it more responsive, better integrated, 
and sufficiently robust to support EAF needs. These agile combat 
support initiatives are crucial to sustaining current and future combat 
operations.
    Aircrew Training Requirements
    We are actively updating the way we train. The Joint Primary 
Aircraft Training System (JPATS), including the T-6A aircraft, will 
replace the Air Force T-37 and the Navy T-34 primary trainers and their 
associated ground-based training systems beginning in June 2001 at 
Moody AFB, GA. We will continue to upgrade the T-38 advanced trainer 
aircraft with new avionics representative of current fighter systems 
while modernizing the propulsion system to improve engine reliability, 
safety, efficiency, and performance. Finally, we are making significant 
strides in developing simulated environments that produce training 
effects comparable to authentic environments. Our groundbreaking 
distributed mission training (DMT) system seamlessly links aircrew 
training devices at diverse locations, allowing aircrews to train as 
they fight.
    Ranges
    Ranges provide the critical airspace we need to test and train on 
our weapon systems. As modern aircraft continue to fly faster and 
deliver munitions from a greater distance, our ranges and associated 
test and training systems must evolve to meet our changing needs. We 
will balance our need to test and train with our responsibilities to 
the public and the environment. We are completing modifications to our 
range and airspace structure that will significantly enhance local 
training for our forces at Mountain Home AFB, ID, Dyess AFB, TX, and 
Barksdale AFB, LA. We are also working to further advance the 
integration of space and information operations into our ranges. This 
includes capitalizing on a common infrastructure across the test and 
training spectrum.
                       innovation and adaptation
    We have a proud heritage of innovation and adaptation. We are 
carefully linking emerging technologies with our future concepts of 
operation to evolve our aerospace core capabilities while providing the 
Nation the most effective return on its investments.
Experimentation and Wargames
    We conduct experiments and wargames to evaluate near- and far-term 
aerospace capabilities and operational concepts. Joint Expeditionary 
Force Experiment (JEFX) 2000, conducted at various locations throughout 
the U.S. in September, focused on ways to integrate support functions 
into expeditionary operations and technologies to conduct time 
sensitive targeting. The wargame Global Engagement (GE) is held every 
other year to explore the potential capabilities of joint aerospace 
power and alternative force structures 10 to 15 years into the future. 
In June 2000, GE-V explored operational concepts and alternative force 
structures designed to deny and degrade an adversary's strategic 
decision-making ability and accelerate the transition from halt to win. 
GE-V also demonstrated aerospace power's unique capability to ensure 
access to operational areas where the enemy employs robust anti-access 
strategies. We are currently conducting a year-long analysis of GE-V in 
areas such as time sensitive targeting, space control, information 
operations, and forward logistics support. During odd-numbered years, 
we conduct an aerospace future capabilities wargame that takes a longer 
view, striving to shape our decisions and strategic direction by 
testing alternative concepts, systems, and force structures that may 
appear 20 to 25 years into the future. These wargames have produced new 
aerospace concepts, such as standoff warfare and reach-forward C\2\ 
capability, which continue to mature through follow-up analysis and 
subsequent wargames.
Advanced Concept Technology Demonstrations
    Advanced concept technology demonstrations (ACTDs) marry new 
operational concepts with mature technologies in order to meet 
warfighter needs in 2 to 4 years at a reduced cost. The high altitude 
UAV ACTD, Global Hawk, which has successfully transitioned to a formal 
acquisition program, is targeted for accelerated production and is 
expected to provide a follow-on capability for the U-2. The Miniature 
Air Launched Decoy (MALD), another ACTD system scheduled to enter 
production in fiscal year 2001, will augment our electronic warfare 
capability to protect valuable strike packages.
Battlelabs
    Since their inception in 1997, the battlelabs have developed over 
100 initiatives, including the application of commercial scheduling 
software for the Air Force Satellite Control Network, 
telecommunications firewalls for base phone systems, and the use of 
speech recognition to reduce mission planning time. The recently 
commissioned Air Mobility Battlelab joined the ranks of the Air 
Expeditionary Force Battlelab, Command and Control Battlelab, Force 
Protection Battlelab, Information Warfare Battlelab, Space Battlelab, 
and Unmanned Aerial Vehicle Battlelab, with a charter to rapidly 
identify and assess innovative operational and logistics concepts.
Joint Test and Evaluation
    The Air Force plans to remain at the forefront of the joint test 
and evaluation (JT&E) process. JT&E programs are a means to bring two 
or more of the Services together to evaluate systems interoperability 
under realistic conditions. We are the lead service on five JT&Es in 
the areas of close air support; joint command, control, ISR sensor 
management techniques; cruise missile defense capability; GPS 
vulnerabilities; and electronic warfare in joint operations.
Conclusion
    Our future hinges on continued advances in people, readiness, and 
modernization programs. Retention and recruitment of people will stay 
challenging in the near-term, but we will remain focused on the quality 
of life of our members. Similarly, we are concerned about readiness, 
but until we solve our aging aircraft troubles, improving our readiness 
will remain difficult. We believe we have developed a sound 
recapitalization plan to address our aging aircraft problem, but if the 
plan is approved, we would require additional funding to execute it. 
Modernization brings increased readiness, along with new technologies 
and enhanced capabilities. We will continue to innovate and adapt our 
revolutionary advances in space technology, directed energy, and 
unmanned aerial vehicles, to name only a few. Our efforts span the 
gamut of the world's most diverse, flexible, and powerfully integrated 
aerospace force. We must balance and fund our people, readiness, and 
modernization programs to ensure aerospace power for America well into 
the future.

                      REFORMING BUSINESS PRACTICES

    The budget constraints of the past decade have forced us to take a 
hard look at our business practices. We have undertaken aggressive 
efforts to realize cost efficiencies by benchmarking the best business 
and management practices, whether in government or industry, and then 
adapting them to our unique environment. During the past year, we made 
significant progress in improving how we do business in everything from 
competitive sourcing of personnel positions to the flow of information 
within the Air Force Headquarters.

                   LEVERAGING INFORMATION TECHNOLOGY

    We made some tremendous progress in 2000 in the way we plan for, 
acquire, and protect our information technology (IT). We started by 
creating the position of Principal Deputy Assistant Secretary of the 
Air Force for Business and Information Management to centralize IT 
decision-making and implement an Air Force-wide process to assess our 
IT investments in preparation for future budgeting efforts.
    Driving our IT efforts is our ``One Air Force, One Network'' 
strategy, a multi-layered approach to integrating operations, people, 
technology, and oversight through an enterprise-wide, network-centric 
concept. Included in this strategy is the establishment of the Air 
Force Portal, the consolidation of our servers, and improvements in 
information assurance (IA). The Air Force Portal will provide all our 
members with a platform-independent, single logon capability to meet 
practically all their information needs. Currently, network-based 
access allows our members to logon anywhere in the world, supporting 
over 75 applications. The migration of most of our critical databases 
is planned for the near future.
    In 2000, we saw the initial consolidation of our servers improve 
the utilization of our computer resources. We have created teams of 
experts at central sites and reduced our exposure to outside threats. 
Our goal is to have one base from each major command completed by 
August 2001 and all bases by September 2002. Our strategy advances IA 
through standardized practices and procedures; integrated network 
operations and information protection; automated and dynamic detection 
and response; consolidated situational awareness and decision support; 
and enhancements for deployed and classified environments. We are 
committed to IA as our top information warfare priority for long-term 
investment.
    Finally, our Global Combat Support System-Air Force (GCSS-AF) is 
key to integrating our critical combat support information systems and 
processes across functional areas. GCSS-AF incorporates the Air Force 
Portal, allowing customer specific access while permitting the 
customization of information within our business information systems. 
Together, GCSS-AF and the Air Force Portal will provide the warfighter, 
supporting elements, and other Air Force members with timely and 
accurate data and the capability to transform this data into meaningful 
information. Seamlessly incorporating combat support into war planning 
allows military planners to improve their course of action development, 
analysis, and collaborative planning; and it measurably streamlines our 
business processes.

                          COMPETITIVE SOURCING

    Our public/private manpower competitions are a defense reform 
initiative success story. In 2000, we began new competition studies 
impacting 2,895 positions, as required by Office of Management and 
Budget Circular A-76. The A-76 circular calls for the review of 
government functions meeting specified criteria, and competition with 
private-sector firms to determine the most efficient and cost-effective 
method to perform the work. In 2000, we concluded 30 competitions that 
covered 5,534 positions. These competitions resulted in 46 percent of 
the work being contracted, and the remainder being performed by the 
most efficient government organization. Both results yielded 
significant cost savings. As of April 2001, we have completed 48 
percent of the A-76 competitions targeted by the 1997 QDR and the 
Defense Reform Initiative. Our annual top-to-bottom review of our 
manpower authorizations identified an additional 3,491 positions as 
eligible for competition.

                             PRIVATIZATION

Utilities
    Defense Reform Initiative Directive (DRID) #49 directed the 
privatization of all utility systems by September 30, 2003, except 
those needed for unique mission or security reasons, or when 
privatization is uneconomical. This included two interim milestones: 
determining the feasibility of privatizing each system by September 30, 
2000, and releasing all requests for proposals by September 30, 2001. 
Currently, we have completed the first milestone by determining whether 
or not to pursue privatization for each system (i.e., water, 
wastewater, electrical, and natural gas). This evaluation resulted in 
434 systems becoming candidates for privatization. We continue to 
assess our options, and are now preparing the requests for proposal 
that are required to meet the second milestone.
Housing
    The 1996 National Defense Authorization Act provided legislation to 
privatize military family housing. Privatization efforts are underway 
to meet the goal of eliminating inadequate military family housing 
units by the year 2010. We have awarded 4 of 9 pilot projects to 
privatize 6,280 housing units. During fiscal year 2001-04, we plan to 
privatize over 21,000 housing units at 22 additional installations. Our 
privatization efforts are part of our overall housing revitalization 
program outlined in our Family Housing Master Plan.

                           ACQUISITION REFORM

    Today's environment demands continuous acquisition reform. We have 
consistently led the way with new acquisition initiatives, or 
``Lightning Bolts,'' and reinvention teams, which succeeded in saving 
more than $30 billion during the last decade. Today, we are 
institutionalizing acquisition reform through new initiatives, such as 
the use of cost as an independent variable and reduction of total 
ownership cost, which improve acquisition affordability. In addition, 
we've recently developed an acquisition cycle-time reduction initiative 
known as the warfighter rapid acquisition process. This initiative has 
the potential to speed up the development and deployment of innovative 
solutions to warfighter requirements by 2 to 5 years. Our motto of 
``faster and smarter'' continues to guide us as we build upon the 
successful efforts of the past.

                       PARTNERSHIP WITH INDUSTRY

    We have consistently counted on industry to deliver superior 
products at reasonable prices. Now, we are institutionalizing 
partnering between industry and the warfighter. Initiatives such as 
teaming on proposals (TOPS) and total system program responsibility 
(TSPR) allow us to establish these partnerships early in the 
acquisition process. Integrated product teams extend this relationship 
throughout the acquisition life cycle. The process of alternative 
dispute resolution is now a part of all major acquisition projects, 
reducing the threat of expensive claims. We are reaching out to 
industry to maintain robust, rewarding, and healthy relationships. In 
our partnerships with industry, we are also developing a blueprint for 
defense reform that will guide future reform initiatives throughout the 
government. This blueprint was unveiled in February 2001. We will 
continue to look for new areas in which we can improve our partnership.

           PLANNING, PROGRAMMING, AND BUDGETING SYSTEM REFORM

    We are reengineering the Air Force Resource Allocation Process 
(AFRAP) to better link strategic planning, requirements generation, 
programming and budgeting, while providing a consistent focus on 
capabilities throughout the process. This new process will have a more 
rigorous and consistent analytical underpinning than earlier methods. 
We are planning to give our major commands an explicit slice of total 
obligation authority with the flexibility to program funds to best meet 
their own priorities. We believe this approach will improve the 
accountability and visibility of our resource requirements during the 
DOD and congressional review and funding processes.

                            FINANCIAL REFORM

    We continue to make progress toward achieving auditable financial 
statements as required by the Chief Financial Officer (CFO) Act. An Air 
Force integrated process team is resolving issues related to the 
reduction of erroneous or unsupported obligations. This, in turn, will 
enable us to achieve an auditable statement of budgetary resources. We 
are making efforts to validate at least four of our crucial inputs that 
provide the foundation for unqualified audit opinions on Air Force 
financial statements. All these efforts will provide better financial 
information for Air Force commanders and managers.

                        LOGISTICS TRANSFORMATION

    The Defense Planning Guidance, DOD Logistics Strategic Plan, and 
Defense Reform Initiative Directive #54 (Logistics Transformation) all 
identified a requirement for the services to modernize their logistics 
programs. Accordingly, we initiated a logistics transformation effort 
designed to improve overall combat capability. Through improved supply 
chain management practices, this effort gives the warfighter a complete 
picture of the enterprise's supply, maintenance, and sustainment 
support activities affecting readiness. Reengineered logistical support 
concepts will directly support warfighter readiness with a tailored 
sustainment strategy for a downsized, but expeditionary force 
structure, that is within the budgets currently projected across the 
FYDP.

                       DEPOT MAINTENANCE STRATEGY

    Over the past year, we conducted a comprehensive review of our 
depot maintenance strategy to ensure our capability is properly sized 
for both wartime and peacetime utilization. Our current depot posture 
and future planning has been influenced by the downsizing of our 
operational force; the reduction of our organic infrastructure; a more 
active and robust private sector; the introduction of new technologies; 
and recent depot legislation changes. This review reaffirmed that depot 
maintenance is a critical element of our overall warfighting 
capability. Our recent experience in support of Operation Allied Force 
once again proved the wisdom of having a ready and controlled source of 
depot maintenance. As a result, our depot strategy will ensure we 
possess an organic ``core'' capability sized to support potential 
military operations. In addition, we recognize the need to efficiently 
utilize our organic facilities during peacetime. To that end, our 
depots are allowed to pursue repair workload beyond their ``core'' 
requirements that is awarded through public/private competitions when 
doing so would increase their ``core'' production efficiencies or offer 
a ``best value'' source of repair.

                               CONCLUSION

    In a time when the Air Force was asked to do more with less, we 
succeeded in reinventing our business approaches to capitalize both on 
the inherent strengths of our enterprise and the best practices found 
in the private sector. We are at the forefront of apportioning 
positions between military and civil service functions and those that 
can be accomplished by contract personnel. We are becoming 
interconnected with a single, Air Force-wide network that puts crucial 
information at everyone's fingertips. We are reforming the acquisition 
process and partnering with industry, not only delivering products 
faster but assuring superior quality as well. In the last decade, our 
better business practices have saved billions of dollars, allowing us 
to revolutionize the application of aerospace power.

                            CLOSING THOUGHTS

    From the beginning of powered flight almost 100 years ago to the 
space-related operations we conduct today, we have demonstrated that we 
are an innovative and adaptive force. We were born of change and it 
remains a part of our nature. We will continue exploring new 
technologies and operational concepts to identify those that offer 
potential for evolutionary or revolutionary increases in capability.
    Our success as an aerospace force is founded on recruiting the 
finest men and women available and then retaining them. We must size, 
shape and operate the force to best meet the needs of our Nation. 
Through the structure of our ten Aerospace Expeditionary Forces, we 
provide the Commanders in Chief (CINCs) with trained-to-task forces, 
while adding predictability and stability to the lives of our airmen. 
We owe our people the education, equipment, and training to perform the 
missions we ask them to do. Finally, to keep our aerospace advantage, 
we must modernize and replace our worn out, aging, and increasingly 
difficult to maintain systems and infrastructure.
    In a world that is globally-connected, national security and 
international stability are vital foundations of America's prosperity. 
Ensuring security and stability requires global vigilance, reach, and 
power--global vigilance to anticipate and deter threats, strategic 
reach to curb crises, and overwhelming power to prevail in conflicts 
and win America's wars. We are postured to provide balanced aerospace 
capabilities across the full spectrum of military operations, but in 
order to maintain America's aerospace advantage we must recapitalize 
our force.

    Chairman Levin. Secretary Roche, thank you.
    General Ryan.

STATEMENT OF GEN. MICHAEL E. RYAN, USAF, CHIEF OF STAFF, UNITED 
                        STATES AIR FORCE

    General Ryan. Chairman Levin, Senator Warner, distinguished 
members of the committee: Before we get started, I would like 
to thank my fellow chiefs for all their service and support, 
flying in close formation through the years, and these service 
secretaries for their commitment to serve. I also want to thank 
members of the committee for all you have done for the men and 
women in uniform over the 4 years I have had the privilege of 
serving as the Chief of Staff of the Air Force.
    During that time we have seen a drop in readiness that has 
concerned us all. With your help, we have been able to arrest 
the decline, but much more needs to be done to regain our edge 
across the board. Consequently, this budget submission for the 
Air Force has a great emphasis on people and readiness.
    We still need your help in attracting the highest quality 
individuals to serve in our military. I am happy to say this 
year we are making our recruiting goals, both in terms of 
quality and numbers. Our major challenge is retaining our best 
and brightest to stay with us for a career. Your help over the 
past years on pay, retirement, health care, etcetera, has been 
much appreciated.
    Quality of life issues are terribly important to attracting 
and retaining great people, but also so is quality of service. 
Quality of service addresses the need to assure we give our 
airmen the proper tools to do the tough jobs we ask of them in 
Kuwait, Saudi Arabia, Turkey, in No Fly Zone enforcement where 
combat occurs daily. The same is true in the Balkans and in 
Korea. Quality of service is not just about the equipment with 
which we operate, but the ranges, hangars, buildings and shops 
in which we ask these dedicated individuals to do their work.
    We all know quality begets quality and we have underfunded 
our modernization of our capital equipment and our 
infrastructure for too long. The average age of an Air Force 
aircraft is 22 years and continues to climb. We must turn this 
aging problem around.
    In summary, I look forward to working with Secretary Roche 
and all of you as we complete the quadrennial defense review 
and address the budget issues before us. I know together we can 
make a great difference as we continue to rebuild our military 
to meet the challenges of the 21st century, and I look forward 
to your questions.
    Chairman Levin. Thank you, General Ryan.
    We are going to have a 6-minute first round.
    Senator Inhofe. Could I have a question, Mr. Chairman?
    Chairman Levin. Yes.
    Senator Inhofe. Do we intend to have more rounds?
    Chairman Levin. Yes. For our first round we will use the 6-
minute rule and then, depending on how many people are still 
here and how much time we have left, we will decide on how long 
the question period will be for the second and any successive 
rounds.
    Senator Inhofe. Thank you.
    Chairman Levin. I want to ask each of you for the record to 
give us your list of unfunded requirements for 2002. I am not 
going to ask you here, but I am going to ask each of you to 
submit that for the record.
    [The information referred to follows:]
                                  Army

                         UNFUNDED REQUIREMENTS

    I appreciate the opportunity to comment on the Army's fiscal year 
2002 resource posture. Clearly, the fiscal year 2002 Amended Budget 
represents a balanced program that will allow the Army to remain 
trained and ready. I am pleased to note significant increases in a 
number of key areas--soldier pay and housing, base operations, real 
property, and science and technology. These will improve quality of 
life for our soldiers and their families, slow deterioration of our 
aging infrastructure, and advance Army Transformation.
    However, there is still much to be done. To stem the critical 
decline in our facilities, the Army has assumed some risk in our 
operating accounts. We will mitigate this risk in the year of 
execution. Additional resources will allow us to accelerate 
recapitalization of our counterattack corps, restore necessary OPTEMPO 
funding and begin stabilization of our infrastructure.
    The following list outlines these and other fiscal year 2002 Army 
shortfalls.

                    FISCAL YEAR 2002 ARMY SHORTFALLS
                        [in millions of dollars]
------------------------------------------------------------------------
                                                   Shortfall      Cum
------------------------------------------------------------------------
OPTEMPO.........................................       300.0       300.0
Antiterrorism/Force Protection..................       306.0       606.0
SRM/RPM.........................................       287.7       893.7
Reserve Component Duty Training Pay.............       100.0       993.7
Reserve Component Full Time Support.............        76.4     1,070.1
Recapitalization................................       566.2     1,636.3
Objective Force Development.....................        43.1     1,679.4
Interim Brigade Combat Teams....................        93.6     1,773.0
Second Destination Transportation...............        70.7     1,843.7
Ammo Stockpile Management.......................        81.4     1,925.1
Current Force Modernization.....................     1,969.0     3,894.1
Test and Evaluation.............................       193.8     4,087.9
Infrastructure Support and Information                 449.1     4,537.0
 Technology.....................................
CTC/Training Range Modernization................       493.1     5,030.1
Initial Entry Training..........................        32.6     5,062.7
Mission Oriented Readiness......................       259.9     5,322.6
Sustainment Systems Technical Support...........        68.4     5,391.0
Depot Maintenance...............................       194.4     5,585.4
Education, Transition, and Other People Programs       137.6     5,723.0
Spares/War Reserve Secondary Items..............       675.0     6,398.0
Homeland Security (Weapons of Mass Destruction).        19.6     6,417.6
Army Family Housing.............................       353.0     6,770.6
Maintenance and Repair Backlog..................     2,778.5     9,549.1
------------------------------------------------------------------------

                           Navy/Marine Corps
    The Navy's list of unfunded requirements for fiscal year 2002 is 
provided in the following tables.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                               Air Force
    The following are the Air Force's fiscal year 2002 unfunded 
priorities:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. We do not know to what extent Congress is 
going to be able to accommodate the budget amendment for the 
year 2002. The Budget Committee and other committees are going 
to be involved in that as well as us. But the larger question I 
want to ask you about has to do with future year funding, and 
that has to do with whether or not you are putting together a 
longer term strategy which our fiscal situation can support.
    So let me start with the service secretaries and ask each 
of you this question. Do you expect that after the completion 
of the QDR you will be proposing a fiscal year 2003 budget 
which will require additional funding above the level that you 
are requesting for the year 2002, or are you planning to make 
offsetting reductions in lower priority programs or in business 
practice savings which would finance a new strategy at or below 
the funding levels that you are requesting for the year 2002?
    So we will start with you, Secretary White, as to what is 
your current expectation relative to the 2003 request following 
the QDR, just your best estimate at this point.
    Secretary White. Well, Senator, it is difficult to predict. 
If the QDR process dictates or the Secretary decides that force 
structure changes will be a part of that, then obviously if the 
force gets smaller as a part of the QDR process that will 
create a different funding requirement going forward. If the 
force stays the same, we will make every attempt to offset the 
additional requirements above the levels we are looking at now 
with business efficiencies that we will hope to employ during 
the 2003 year and get sorted out over the next few months as we 
continue to work this.
    So it is difficult to see exactly where that balance is 
going to come out short of the final decisions on the strategy 
review. But if it were to stay the same, I think that we will 
look toward at least this level of funding next year net of 
business practice improvements that we could make.
    Chairman Levin. Thank you.
    Secretary England.
    Secretary England. Senator, I think it would be a 
combination, and that is my best estimate at this point. If you 
look at our recapitalization rate, as the CNO commented, at our 
present rate we will go down to about 240 ships. I do not know 
what the outcome of the QDR will be, but I doubt it will be 
that low in terms of our naval services. After all, we are a 
forward-deployed force, a rotational force, so we are always 
around the world. Therefore I would expect that we would not be 
that low. So we will need additional resources.
    Our airplanes are also very old. We do need to recapitalize 
the airplanes. At the same time, we do anticipate that we will 
have better efficiency, we will indeed save money as we go 
forward through business practices. So I would expect that we 
will save money, but we will also have some additional needs. 
So I do not see that our request will be lower this year, but 
hopefully it will not be as much as if we did not take action 
in terms of better business practices.
    Chairman Levin. Secretary Roche.
    Secretary Roche. Mr. Chairman, the 2002 budget does a lot 
to help us get well in maintenance and people-related things, 
but it does not do all that we need. We cannot live with the 
procurement holiday in airplanes that has existed for the last 
8 or so years, where we have just had insufficient purchases of 
airplanes. Our planes age increasingly. The costs--the time to 
put a tanker through a logistics center now is over a year 
because these planes are failing in ways that we did not 
anticipate because they are just getting old.
    So we will need more money. At the same time, we have an 
obligation to look for offsets, to look for ways to do things 
more efficiently, put in better business practices. But some of 
these things will make pain for certain areas and we will have 
to work that out, sir.
    Chairman Levin. Thank you.
    I want to talk to you about an additional round or rounds 
of base closures. Let me start with you, General Ryan, and go 
down and ask each of our service chiefs and our service 
secretaries this question: Do you agree with the President and 
Secretary Rumsfeld that we have unneeded bases and that we 
should have another round of base closures to eliminate the 
excess infrastructure and to free up resources for 
modernization or for other higher priorities? General?
    General Ryan. Absolutely, yes, sir.
    Chairman Levin. Could you be a little more fulsome? Why do 
you believe that? Give us an estimate as well of the 
significant savings here.
    General Ryan. Over the past 4 years we have continued to 
ask for a base closure. The Air Force is overbased for the 
force structure we have today. We think that we can save 
significant amounts of money in the out years with a base 
closure. But sir, during the years that you do the base 
closures you actually have to invest to be able to save in the 
future.
    We have out of the past rounds of savings of base closures 
had extensive savings, calculated in the $4 billion to $5 
billion a year amount over these years today, the last base 
closure being in the mid-nineties. So we emphatically support 
base closure.
    Chairman Levin. Now I will have to ask each of our other 
witnesses to be much shorter because my time is up. If you 
could just give us now a short answer to that question.
    Secretary Roche. Yes.
    General Jones. Sir, yes, I support it. I support the 
Secretary's findings on that. But as the smallest service with 
the smallest bases, I have the least to offer.
    Chairman Levin. Thank you.
    Admiral Clark.
    Admiral Clark. I have always believed that one of the 
fundamental principles we should follow is that we should not 
pay a nickel for a structure we do not need. Then, having said 
that, I would say we are already in our major naval bases very 
consolidated. I think that the potential savings would be in 
the area of support structure.
    Chairman Levin. Thank you.
    Secretary England.
    Secretary England. I would support the comments of the CNO. 
We definitely as we go forward, depending on what our future 
force is, we do have to size it appropriately because we cannot 
afford to carry extra infrastructure.
    Chairman Levin. General Shinseki.
    General Shinseki. The Army has excess capacity that we have 
carried and we believe that a BRAC would help adjust that.
    Chairman Levin. Secretary White.
    Secretary White. I agree with the chief. I think we have 
excess infrastructure and we have to do something about it.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you very much.
    I will lead off with an Army question. It really goes to 
operational, but we have before us today a great deal of 
concern about the future of NATO, the future of NATO expansion, 
our participation in NATO. General Shinseki, I remember 
visiting you in Bosnia when you were the commander of our 
forces over there, and throughout the Bosnia-Kosovo chapter it 
seems to me that the United States shouldered equally with our 
allies the burdens and the risks of those operations.
    But today's headline says: ``U.S. Offers Aid to Macedonia 
Effort: Rumsfeld Limits Role to Logistics of Rebel 
Disarmament.'' Logistics. Is there something behind this that 
is not in the headline, because we are constantly concerned 
about the European defense initiative and their desire to go 
off and establish their own force structure, which I believe is 
somewhat redundant and in competition with NATO? This may feed 
into their arguments that they should establish their own force 
structure because we decline to take on and share equally the 
burdens and the risks of military operations.
    I will lead off with the Secretary. You start and then I 
will invite the General, who had hands-on experience over there 
for many years.
    Secretary White. Senator, I am unaware of any change coming 
from the Secretary or even a part of the QDR discussions to 
date that would indicate any less emphasis on our commitment to 
NATO. We have been the leader of that alliance since its 
founding and we have actively participated and provided the 
leadership in Kosovo and Bosnia, and I think we will sustain 
that in the future. I defer to the chief.
    Senator Warner. Chief.
    General Shinseki. Senator Warner, I apologize, I am not as 
quick with the morning headlines and I had not read that 
article. I am not aware of any changes. Our leadership both as 
a global leader and inside of NATO has been consistent.
    Senator Warner. I should hope so, and I would hope that 
does not indicate that we are going to say we will opt for just 
logistics and leave the risk fighting to others.
    Yesterday I had a chance to visit my National Guard group 
in Virginia and I was astonished to learn that the Army 
indicates what level of technical assistance the Army should 
supply and yet only 50 percent of the commitments from the 
regular Army are flowing to the Guard in terms of manpower. I 
will provide this chart to you.
    But the point is that our Guard in Virginia are very 
proudly working up to go in to be a contingent in Bosnia to 
take on those duties. Other States' Guards are right alongside 
the regular forces. Yet back home in their duties, which are 
quite diverse as the Guard in training up and working up, they 
seem to have--and this is nationwide, it was related to me--all 
50 States are roughly only receiving from the Department of the 
Army about half the trained personnel full-time that they need.
    Mr. Secretary, have you had an opportunity to address that 
question? If not, I will give you a month or 2 to work on it 
and then I will be back.
    Secretary White. Clearly, the integration of Reserve 
components and their stepping up the missions that in the past 
have been taken almost exclusively by active forces indicates 
that we are one Army, and we have to sustain and resource on 
that basis and they deserve the support of the Department in 
accomplishing this.
    Senator Warner. I would like to come back to you in about 
30 days and get an update on that.
    Chief, do you care to add?
    General Shinseki. I am not familiar with the chart, 
Senator, but I would be very happy to review it and provide 
some detailed responses.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
             Active Component Support the Reserve Component
    I share your concerns about the levels of full-time support manning 
in our Reserve components. The numbers on the chart you provided 
indicate the current levels of manning for Active Guard/Reserve (AGR) 
and military technicians (MILTECH) of the Virginia Army National Guard. 
The matching of Reserve component requirements to resources is an issue 
that the Army has pursued for several years. In regard to the chart, it 
is correct that the Virginia Army National Guard is near 50 percent of 
their required strength with AGR and MILTECH. This is similar in the 
Army National Guard in other states and in the Army Reserve. We have 
sought, along with the National Guard Bureau and the Army Reserve, to 
obtain budgetary increases to permit the manning of approved 
requirements.
    As such, the Army seeks to incrementally increase Army National 
Guard full-time support at a rate of 794 AGR personnel in fiscal year 
2002 and 724 AGR personnel per year from fiscal year 2003 through 
fiscal year 2011, with a final increment of 188 in fiscal year 2012. 
For the Army National Guard MILTECH, the Army seeks an increase of 487 
per year from fiscal year 2002 through fiscal year 2010, with a final 
increment of 208 in fiscal year 2011.
    For the Army Reserve, the Army seeks an increase of 482 in fiscal 
year 2002 and an annual increase requirement of 300 AGR for fiscal year 
2003 through fiscal year 2010, with a final increment of 273 in fiscal 
year 2011. The requested MILTECH increase for the Army Reserve is 250 
personnel per year from fiscal year 2002 through 2008, with a final 
increment of 146 in fiscal year 2009. I am including a table that shows 
these increases.
    Full-time support has been the number one integrated priority list 
item with Joint Forces Command for the last 2 years. During fiscal year 
2001, we were successful in obtaining funding for the first increment 
of the AGR and MILTECH ramp-up to meet required levels.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Shinseki. I am not sure what the 50 percent means.
    Senator Warner. Well, you provide regular Army personnel to 
the Guard units all across America.
    General Shinseki. Yes, sir, I do.
    Senator Warner. You also have prescribed, that is the 
Department of the Army, how many regular Army should be given 
to Virginia, Maryland, Arizona, and so forth. I am told that 
you are only providing half of the needed personnel that your 
own tables of organization state that should be supplied.
    General Shinseki. We are providing 5,000 officers and NCOs 
under the title that mandates----
    Senator Warner. We will go into it together, but I am going 
to be very, very persistent on this. We will address this issue 
in the current authorization bill before the Senate.
    General Shinseki. We are meeting the obligation of the 
5,000, Senator. So I need to see what the 50 percent 
represents.
    Senator Warner. Now to the Navy and, of course, the 
question of shipbuilding. Mr. Secretary, you and I have talked 
extensively on this. You touched on it in your opening 
testimony this morning together with our distinguished Chief of 
Naval Operations. The curve is going down to where you are at 
313 ships. As we talked about this morning, it is going to drop 
below 300 because we are simply not building enough ships. We 
are looking for innovative ways to finance. There used to be 
the old long lead, the early procurement. We have had a dozen 
different names.
    Mr. Secretary, what progress are you making with the Office 
of Management and Budget towards establishing a new type of 
funding whereby you can better husband that limited amount of 
money each year that you allocate to shipbuilding and do it in 
a manner that hopefully will produce a greater number of ships 
as the pipeline grows?
    Secretary England. Senator, we are not having those 
discussions in detail with OMB at the moment. We are having 
discussions within the Navy because this is a problem within 
the Navy. If we do anything in terms of advance appropriations 
or whatever, it commits us to a strategy of each year funding 
at some significant level.
    I will tell you that--and I will let the CNO speak after me 
on this issue, but I believe he and I do agree we definitely 
need to increase the rate and we need to do this at some 
sustained level. It is part of the business practice 
improvements that we can put in place.
    Senator Warner. But are you working on that the best you 
can?
    Secretary England. We are definitely working to do that, 
sir.
    Senator Warner. General Jones, a question on Vieques. This 
committee follows this issue very, very carefully. I have spent 
a considerable amount of my time on this issue, as have my 
other colleagues, particularly my colleague from Oklahoma, 
Senator Inhofe, who during my years as chairman devoted much of 
his time to this issue. I know the Department of the Navy, both 
Navy and Marine Corps service chiefs, are looking for 
alternatives. I think we accept the assumption that we will not 
likely find anything that will meet the excellent standards 
that Vieques has provided the Navy for 50 years, and that is a 
piece of property owned by the United States Navy, I hasten to 
remind all.
    But nevertheless, our President has indicated a policy 
decision, which I presume that you are trying to salute and 
march off to fulfil. But it brings to mind that we are going to 
have to look at the funding for Roosevelt Roads, which is an 
ancillary base. In my recollection, when I was in your seat, 
Secretary England, that base was largely justified by the 
periodic use of the ranges at Vieques.
    What is likely to be your recommendation with regard to 
Roosevelt Roads as we work our way through this problem on 
Vieques? If you want to lead off, Mr. Secretary, then let your 
two service chiefs respond.
    Secretary England. Let me just refer this to Admiral Clark 
because he has detail on that subject. I will just let Admiral 
Clark respond to that, sir.
    Admiral Clark. Well, this really falls in the category of 
the previous question about support structure and facilities 
and whether we need it or not. We absolutely need Roosevelt 
Roads if we are in Vieques and if we are not in Vieques it 
raises the question about how we put the whole structure 
together to train, organize, develop, and deploy a task force.
    It costs us between $200 and $300 million a year to keep 
that going. The Secretary has laid out the requirement for a 
group to reevaluate alternatives. We have had discussions on 
this. My posture is if I do not need the structure to get the 
task done, my recommendation would be to not be supporting that 
kind of investment.
    But we have to put together the posture we are going to use 
and the actual tactics, techniques, and procedures to develop 
and deploy these forces.
    Senator Warner. General Jones.
    General Jones. Sir, I agree with the CNO.
    Senator Warner. Thank you.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.

            STATEMENT OF SENATOR JOSEPH I. LIEBERMAN

    Senator Lieberman. Thank you, Mr. Chairman.
    Thanks to you gentlemen for your outstanding and in some 
senses unsettling testimony. I thank you for it. The chairman 
expressed at the beginning a thought that I want to associate 
myself with, which is that we are facing some real resource 
constraints here, which are unfortunate, because the projected 
surpluses were so significant and remain, notwithstanding the 
economic slowdown. So that some of us--I do not say this in a 
partisan way--regret the amount of money that we have committed 
for the tax cut program because it puts us in a bind in meeting 
and fulfilling our committee's responsibility to meet the needs 
of the military.
    But I do think that is our responsibility and we as a 
committee on a bipartisan basis should go ahead and try to do 
that and then see if at other points along the way in this 
process we can figure out where to get the money and how to do 
it, because we are dealing here with a fundamental 
constitutional responsibility to provide for the common 
defense, as Senator Warner said.
    While I appreciate the significant increase that the 
administration has recommended for defense, as I said to 
Secretary Rumsfeld last week, and I say with even more force 
today having heard your testimony, because you are on the line, 
we are not giving you enough. We have to find a way to do that.
    As I look at the numbers in the various budgets, in the 
Army budget in real terms procurement and research and 
development (R&D) seem to be, by my calculation, down because 
Patriot Advanced Capability-3 was transferred from the 
Ballistic Missile Defense Office (BMDO) to the Army, adding 
$714 million in procurement and $107 million in R&D to the Army 
number. So procurement actually may be down by $500 million and 
R&D may be down by $600 million.
    In the Navy budget, procurement is down by $1.9 billion; 
family housing is down by $100 million in the Air Force budget. 
Most troublingly, the R&D picture is not getting better. It is 
down again this year, and it is only at 2.1 percent of the Air 
Force total obligational authority, which is well under the 3 
percent that DOD has set as a goal.
    The supplemental appropriations bill is on the floor now. I 
am going to be joining with Senator McCain and two others to 
introduce two amendments that would increase funding for the 
Department of Defense, one by $2.74 billion, the other by $846 
million. These are largely driven by what we understand to be 
requests, quite justifiable, that the service chiefs have made 
for supplemental funding.
    I hope we can convince our colleagues to take first steps 
in the direction of giving you what you need. Maybe I should 
start there as an example. For instance, one of the items that 
we are adding is procurement of ammunition for the Army at the 
rate of $14 million. I know it would be hard for you, based on 
the generality, to indicate, but I wonder, General Shinseki, if 
you could tell us what you would do with that $14 million for 
procurement for ammunition for the Army?
    General Shinseki. Well, Senator, we traditionally have an 
unfunded requirement for ammunition, because the ammunition 
statement is against a war to be determined at a future date. 
We procure about a billion dollars in ammunition every year. 
Until recently, we carried over the Program Objective 
Memorandum (POM) about a $9.5 billion critical war reserve 
shortfall--against which we programmed $2 billion.
    So we have reduced that shortfall. But that shortfall is 
one that we have carried and I think we have addressed in terms 
of our available dollars and suitable risk for requirements 
that are to be determined in the near future.
    There are stockpiles that we do maintain. When we are 
unable to use them, those ammunition stockpiles, in a timely 
manner, they outlive their shelf life. We then have to go 
through the process of demilitarization, which we spend about 
$100 million a year doing. So it is a balance of getting it 
right.
    Senator Lieberman. So that is the purpose that Congress 
should appropriate an additional $14 million for ammunition? 
That is the purpose for which you would use it?
    General Shinseki. I have a priority list of the kinds of 
ammunitions, probably mostly in the precision arena, but I will 
provide that for the record.
    [The information referred to follows:]

                       Procurement of Ammunition

    The Army would spend the additional $14 million procuring 135,000 
Modular Artillery Charge Systems, as the most pressing unfunded 
ammunition requirement. These new modular propellant charges are 
critical to support both war reserves and training.
    The Modular Artillery Charge System, a replacement system for 155 
millimeter propelling charges, offers simplified logistics compared to 
traditional bag propellant systems. Simplified logistics directly 
support Transformation, reducing the logistics footprint and making the 
Army more agile and lethal.

    Senator Lieberman. Thank you.
    Admiral Clark, Navy procurement, by my calculation, at 
$24.6 billion is down by $1.9 billion. Am I reading that right?
    Admiral Clark. I do not have the exact numbers in front of 
me, Senator, but you probably are. Last year I testified before 
the Readiness Committee about the level of investment we had to 
have in acquisition to sustain the Navy that we needed and I 
suggested it was somewhere in the neighborhood of $34 billion a 
year. There is a delta----
    Senator Lieberman. Again, excuse me, but on that basis I 
accept your number. You are the Chief. We are at $24.6 billion?
    Admiral Clark. That is correct.
    Senator Lieberman. So we are almost $10 billion below that.
    Admiral Clark. I am on the record, I have been, that we 
have to do something on the acquisition accounts. That is the 
point I tried to get forward in my statement. If you compare 
the 2001 and 2002 and try to analyze the difference, 
fundamentally you will see that we purchased an aircraft 
carrier in 2001 and that creates a spike.
    Senator Lieberman. Sure.
    Admiral Clark. This is the point, though, that I have tried 
to make with regard to the requirement to better partner with 
industry, that industry cannot size itself properly. We have 
unique industrial bases that support the defense structure of 
the United States and with this sine-cosine curve kind of 
investment structure it is not the economic way to go at it.
    Senator Lieberman. General Ryan, let me ask you about that 
number for research and development, which concerns me, and I 
would guess it concerns you. How can we get to the future Air 
Force that I know you want with research and development 
funding at that level?
    General Ryan. Our S&T funding, science and technology 
funding, in the current budget that we presented for Air Force 
is up to 2 percent of our total TOA this year, which is up from 
last year's budget we presented. This committee and others 
helped us increase the funding for our S&T up to approximately 
$1.5 billion last year. We submitted a budget this year at $1.4 
billion as we prioritized.
    But I agree with you, we must not eat our seed corn and S&T 
is the essence of our future readiness.
    Senator Lieberman. Thank you all.
    My time is up, Mr. Chairman. I hope that we will be able to 
work in this committee on a bipartisan basis to respond to the 
statement of need from the secretaries and the chiefs and then 
be advocates for them through our authorization bill. I thank 
you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I had an experience yesterday I thought I would share with 
this committee. I was flying my plane from Oklahoma to 
Washington and I had with me a guy named Charles Savett, who is 
one of the most highly decorated pilots from the Vietnam era, 
having flown 288 missions. Senator Warner, what he told me, he 
said: You can argue with the war; it was highly controversial, 
but when they were in combat, he said, the one thing we had the 
assurance of is that everything we were using was better than 
what they were using--the F-100, the F-105's, F-4's. You can 
say the same thing for the Navy; the A-4's and A-6's were all 
better than the equipment that was being flown by the 
adversaries at that time.
    I think most of the American people probably believe that 
is still true today. But it is not true today if you look at 
our air to air vehicles. One of the things I like to do each 
year, as I have for the last 15 years, is go to the air show 
over there and see what the competition is doing and see what 
is on the market that the Chinese and other potential 
adversaries are buying. Air to air vehicles, the F-15 is the 
best that we have, and they have the SU-27's that are on the 
market today. Air to ground, the F-16's that we have, compared 
to the SU-30s that they are using right now in many areas, are 
inferior in terms of range, in terms of detectable range, which 
means they can detect us before we can detect them.
    So we do not have the best of everything right now. Look at 
the double digit SAM's that are out there on the market today 
that are putting the lives of our pilots in danger because they 
are able to reach them now. This was not the case before. They 
have this type of equipment.
    General Shinseki, look at the artillery right now, the 
Paladin. I have the chart that shows that the British, the 
Russians, the Africans, and the Germans, if you use as a 
comparison the rate of fire and the range, are better than we 
are right now in terms of the Paladin. This is the case for the 
Crusader, of course.
    I know that we are looking at different forces and how we 
are going to change the force structure, but in terms of rate 
of fire and range we are already inferior today to what is on 
the market and anyone is able to buy.
    So let me just real quickly try to--first of all, General 
Ryan, do you agree with my assessment of where we are 
competitively with our modernization program?
    General Ryan. Absolutely, sir. I think the equipment that 
is being produced worldwide surpasses our current equipment. 
What makes us good is the fact that we have great people 
operating that equipment.
    Senator Inhofe. Well, then you are looking at--the obvious 
answer to this, to certainly the first part, the deficiencies 
that I was outlining, is the F-22. You have been very 
outspoken, both of you have been, on the necessity of that F-
22. As it is right now, are 339 aircraft enough to meet the Air 
Force's needs?
    General Ryan. We have used 339 as a number that would fit 
underneath the caps that we had imposed coming out of the last 
QDR, Quadrennial Defense Review. We are relooking at the number 
this year. That does not recapitalize all of our F-15 air to 
air fleet and falls far short of that.
    We also believe that the aircraft has some capability in 
the future to be used as replacements for things like the F-15E 
and the 117.
    So to answer your question, I think, built in numbers, the 
F-22 will be a great addition, not just to the air to air 
fleet, but our air to surface capability also.
    Senator Inhofe. Good, good.
    Secretary Roche, I will just ask for a real quick response 
on this. The administration's budget proposal includes $922 
million in assumed savings from management reform initiatives, 
including $140 million in depot maintenance savings if Congress 
approves a waiver of the 50-50. We are not talking about the 
national security waiver. We are just talking about the waiver.
    We have been asking for the analysis of that. Do you have 
that?
    Secretary Roche. What we would like to do, Senator, is to 
come back to you with a definition of ``capacity.'' That would 
trigger only if our ALC's were at 100 percent capacity. That is 
the only reason that would trigger.
    Senator Inhofe. How would you define ``capacity'' in coming 
to that conclusion?
    Secretary Roche. We would like not to play games as we 
define ``capacity.'' Right now our view is that which exists 
today on one shift--no special games.
    Senator Inhofe. For instance, if you had three ALC's right 
now operating at 100 percent capacity at only one shift a day, 
if you had two shifts they would be at 50 percent capacity; is 
that correct?
    Secretary Roche. If that was the definition, yes. In fact, 
at one of the ALC's I know that they do weekend shifts and that 
they contract out that weekend shift, and that has worked very 
well, and that is at Warner Robins. It has worked out very, 
very nicely.
    Senator Inhofe. Thank you very much.
    General Shinseki, getting back to the Crusader, I wanted to 
get this in before this first round expires for me. One 
Crusader has the firepower of three Paladins, but when you get 
into sustained fire or after the first 3 minutes it is about 
ten times. Can we continue to be in the inferior position that 
we are today and, if not, what is there out there other than 
the Crusader that would take care of that problem, that 
deficiency?
    General Shinseki. Well, Senator, coming out of Desert Storm 
we realized that in terms of artillery we were carrying 
significant risk. We were outgunned, outranged, and outmassed 
by other formations. The reason we did not pay a big price to 
that difference, which I would categorize as risk, was the 
failure on the other side to be able to employ their artillery 
the way we would have.
    So coming out of Desert Storm, we added to that risk. Not 
only were we outgunned, outmassed, and outranged, but we took 
25 percent of our artillery systems and retired them in order 
to husband those resources for future capabilities. But we went 
beyond that. We also retired 25 percent of our direct fire 
systems, our tanks and our Bradleys, and reduced by 25 percent 
the number of platforms inside each battalion.
    We invested those monies in future capabilities that 
ultimately became known as Crusader and directed our efforts at 
digitization to give us better situational awareness so we 
could fight our systems in an integrated fashion.
    We are on the verge of fielding Crusader, and Crusader is 
an important aspect of filling that risk we have incurred.
    Senator Inhofe. Thank you, General.
    I know my time has expired, Mr. Chairman. I have one last 
question, just yes or no. General Jones, if I wrote this down 
right, I do not think it was in your submitted statement, but I 
think you said that you agreed with Secretary Rumsfeld that we 
should only replace things when we have something better to 
replace them with. Is that an accurate----
    General Jones. That is correct, sir.
    Senator Inhofe. Do you agree with this, Secretary England?
    Secretary England. Yes, I do. I think that is definitely 
the case for our weapons systems, sir.
    Senator Inhofe. Does that include Vieques?
    Secretary England. No, sir, it does not.
    Senator Inhofe. General Jones, do you think that includes 
Vieques?
    General Jones. The requirement for training----
    Senator Inhofe. Yes, sir.
    General Jones.--does not take a back seat to programs.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Without objection, I will ask that a statement by Senator 
Thurmond be inserted into the record and let me read the order 
here that I will be calling on senators. We have really an 
extraordinary attendance here this morning, which is a real 
tribute to you all and to the issues that we grapple with. But 
next will be Senator Reed and then Senator Allard, Senator 
Cleland, Senator Collins, Senator Carnahan, Senator Bunning, 
Senator Sessions. Senator Akaka is here now. After Senator 
Bunning would be Senator Akaka, and then Senator Sessions and 
then Senator Roberts.
    That is the present order. Now, some may leave and some may 
come and switch for that matter, but that is where we now 
stand.
    Senator Reed.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you Mr. Chairman:
    Mr. Chairman, I join you in welcoming our Service Secretaries to 
this, their first official hearing before the committee. We have great 
expectations on their ability to bring about change in our Armed Forces 
and look forward to working with them as they take up the challenges of 
their office. I also want to extend a welcome to our senior military 
chiefs. All of them are well known to this committee and are highly 
respected for their distinguished service to our Nation.
    Mr. Chairman, I have been a member of the Armed Services Committee 
almost 42 years. During these years, I have witnessed the many positive 
changes that have transformed our Armed Forces into the world's most 
powerful and professional forces. Despite this achievement, the 
military services must be prepared to meet the challenges of the new 
threats posed by international terrorism, weapons of mass destruction' 
and missile proliferation. Therefore, I fully support the 
transformation plans for each service.
    Mr. Chairman, I believe the President's budget amendment, although 
less than many of us had hoped for, is a good start to provide for the 
transformation of our Armed Forces. With this amendment, defense will 
realize an increase of more than $38 billion over the fiscal year 2001 
defense budget. More importantly, the increase will provide real 
benefits in terms of improved family housing, readiness, and research 
and development. It will also provide robust funding for a National 
Missile Defense program which I consider the most urgent requirement 
for our Nation's security.
    Mr. Chairman, despite all the positive aspects of this budget, I 
believe it does not adequately fund the modernization and 
transformation of our Armed Forces. It is still short of meeting the 
standard of revitalizing our infrastructure every 67 years. It will not 
close the pay gap between the private sector and the military. More 
importantly, it assumes almost $1 billion in savings or efficiencies 
that are not going to be realized.
    The coming months and years will challenge the expertise and will 
power of each of our witnesses as they struggle to prepare our forces 
to fight in an environment that is new to all of us. I believe we are 
fortunate to have men of their caliber in the key positions which they 
occupy. They have my support, and I expect that they will have the 
bipartisan support of this committee.
    Thank you, Mr. Chairman.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman.
    Let me begin by associating myself with Senator Lieberman's 
remarks. I believe that the mutual dilemma we all have, both 
the members of this committee, the service chiefs, and the 
service secretaries, is that the budget Congress passed did not 
explicitly or adequately address the needs of the Department of 
Defense. Those needs were secondary to the tax cut.
    The very legitimate and compelling demands you make today 
are not able easily to match with resources since they have 
already been committed. So the budget we are looking at may be 
enough to keep you going, but it is not enough to get you 
ahead. That is the dilemma that we all have to face going 
forward.
    Having said that, let me, if I may, ask more detailed 
questions. Admiral Clark, I understand that in this budget 
there is $110 million set aside for the SSGN conversion. Have 
you made a decision as to the number of boats that would be 
converted? If not, when will that decision be made? Also, could 
you roughly describe how the funding would be used, $110 
million?
    Admiral Clark. I sure can, Senator. Question number one: A 
definite decision as to the total numbers. We put--frankly, 
this was something Secretary England and I worked together on 
in doing what we thought was the best we could do for the 
procurement accounts as we closed this down and made 
recommendations on the amended budget, that the money put in 
there would do advanced planning and design work and would take 
care of two Tridents and that as we continue to examine the 
program in the course of the next year that we could 
potentially pick up two more.
    So that was our thinking. How the money will be spent 
specifically, design, planning work.
    Senator Reed. In your conversion, will you try to make 
these submarines outside the accounting rules of START II, 
which I assume is a more expensive proposition?
    Admiral Clark. That is an issue that has to be dealt with, 
whether they will be START accountable or not, and that is not 
a decision that I get to make. The final bill will of course be 
dependent upon that, and that decision is not made yet.
    Senator Reed. Thank you.
    Secretary White and General Shinseki, the budget briefings 
on the Army budget suggest that there might be a significant 
deterioration in the momentum for transformation, given your 
other demands. In fact, if one looks forward, there is a real 
danger that, because of budget concerns rather than strategic 
concerns, the Army would be forced to cut back its force 
structure.
    Could you elaborate on those concerns or the pace of 
transformation, Mr. Secretary?
    Secretary White. Well, first of all, Senator, in the fiscal 
year 2002 budget, we have made funding the S&T effort to 
support Transformation a priority. We have fully funded that 
and gotten support, both from Congress in the past and from the 
Secretary as we go forward. So we are going to maintain the 
momentum of bringing on both the Interim Brigades and the 
Objective Force as we have laid it out.
    Where we have taken the shortfall is in the sustainment of 
the Legacy Force, as it is called, the existing force in the 
modernization and the recapitalization of that.
    The second part of the question, having to do with force 
structure, is a decision that will be made as a part of 
decisions on the strategy and where that is headed, and the 
Secretary has not made those decisions yet and we will just 
have to wait and see how that comes out.
    Senator Reed. General Shinseki, do you have any comment?
    General Shinseki. I would only add, in agreement with the 
Secretary, that if you think of the three efforts that we have 
described--Army Transformation as being this interim effort, 
Interim Brigade Combat Teams, we have funded that requirement. 
We have also funded aggressively our investments in S&T for 
that future Objective Force capability.
    In terms of the Legacy Force, the current force that we 
have today, that is going to be the force that we go to war 
with for the next 10 years. We have said we need to do 
something about recapitalization of those systems, as well as 
taking care of our infrastructure in terms of revitalization.
    Given the profile of where Army soldiers serve today in my 
opening statement, nothing has changed in the last 10 years 
about where we find Army soldiers deployed. The requirement for 
the structure to support those deployments is real and if the 
strategy changes, of course, that is subject to review.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman.
    I am concerned about whether we are going to have the 
capacity and the flexibility to support our intelligence and 
communications requirements over the next 5 to 10 years. This 
budget that has been proposed--are we addressing the shortfalls 
in the satellite intelligence and communications infrastructure 
that we have had in this budget? Please elaborate a little 
further about whether you think we will be meeting those needs 
in 5 to 10 years down the road.
    I would like to address that question to General Ryan.
    General Ryan. Senator Allard, quite honestly, the appetite 
for communications, particularly secure communications, is 
huge. Trying to keep up with that demand has put a great strain 
on our capability both in space and terrestrially, quite 
honestly, to modernize at a rate that the demand is out there 
for. So no, we are struggling with communications. I think all 
of us are.
    Senator Allard. Are we at least beginning to address that 
issue in this budget?
    General Ryan. Yes, sir. We have funding for our satellite 
constellations for communications, which is probably not 
completely adequate, but it is good funding considering the 
budget levels that we are at.
    Senator Allard. The military services must transform into a 
force that is more flexible and more joint and more capable of 
providing military power to the President that is relevant in 
today's job. I would like to hear from each one of the chiefs 
just a comment on that, on how your service is responding to 
that requirement. We will start maybe with General Shinseki.
    General Shinseki. Senator, I would use the Army's efforts 
over the last 2 years to begin transformation of what it has 
described as the force we carried forward or inherited from the 
Cold War designs that we applied and look forward to the 21st 
century and, if I could use the term, see constant whitewater. 
We have begun the process of adjusting our thinking about how 
we organize, how we describe our doctrinal responsibilities, to 
accommodate where we are headed there.
    I think that what we have described is a relevant force for 
the future and a way to get there, labeled the three vectors in 
Army transformation: an Interim Brigade Combat Team concept 
that, applied to today's Legacy Force, gives us capabilities 
out for the next 10 years as we have the time to design that 
future force we were describing.
    As I indicated earlier, we have applied resources against 
all three of those efforts. The initiative in most need of 
support right now is the Legacy Force initiative in terms of 
recapitalization and we believe that is where we have put as 
much energy as we could in this budget.
    Senator Allard. Admiral Clark.
    Admiral Clark. Yes, sir. Well, we oftentimes talk about 
stealth--about transformation in terms of platforms. Excuse me 
for saying ``stealth.'' I was thinking about the 
characteristics I want to describe.
    I think that when I look at my Navy, I have 60 to 70 
percent of the hull forms that I am going to have 15 to 20 
years from now. So is the Navy going to be the same 15 to 20 
years from now? Well, it is nothing today like it was even 10 
years ago. So when I talk about transformation I talk about the 
characteristics. It is stealth, it is lethality, precision, it 
is about command and control, superior knowledge, and with that 
for us it is network-centric warfare, investing in the channels 
that--by the way, General Ryan talks about the insatiable 
appetite. It is about a different way of fighting the war and 
it is about being smarter than the enemy and it is about having 
that edge that Senator Inhofe talked about, and it is about 
speed of response and reach.
    In every area, I can give you programs that we are 
investing in for the future. That is the way we are 
transforming our Navy. It involves DD-21, it involves JSF, it 
involves programs that we cannot talk about in an open hearing, 
that allow us to take it to the enemy.
    Senator Allard. General Jones.
    General Jones. Senator, it is an exciting period to be in 
because it really is crossing the bridge between the 20th 
century and the 21st century. The 20th century force structure 
was based on mass and volume. As the CNO pointed out, the 21st 
century forces will have characteristics of speed, not only in 
being able to get to where we need to get to, but also speed in 
decisionmaking. It will be stealthier; there will be much more 
precision involved in these forces. It will be more lethal, as 
the CNO pointed out.
    I think if we do it right they will also be sustainable 
from greater distances. I think that piece of it is equally 
important, if not more so, than the others. We will get into 
some asymmetric advantages that will, as a result of our world 
leadership in technology and the development of those 
technologies, allow us to move away from this mass and volume 
twentieth century characteristic to perhaps a smaller force, 
but one that is certainly much more capable and will have 
tremendous aspects of cohesion and will be able to delegate 
down to unbelievable levels of responsibility tremendous 
missions. The captains of tomorrow are going to be excited 
about serving in this force if we do it right.
    Senator Allard. General Ryan.
    General Ryan. Sir, I think you hit on it in your previous 
question also and that is that, though we will have some 
excellent capabilities in the future and all of the services 
are I think tending toward stealthy, long-range rapidly 
deployable and sustainable forces, what will pull that together 
for us will be our ability to command and control the force, to 
have the knowledge, the vigilance and knowledge of what is 
going on in a particular area to apply the force properly.
    That is a function of a new way of doing business, reaching 
back to many, many different pieces of our military capability 
for analysis and bringing it forward to make it actionable. I 
think that is where the revolution in military affairs is 
headed.
    Senator Allard. Mr. Chairman, I see my time has expired.
    Chairman Levin. Senator Cleland.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Mr. Chairman, thank you very much.
    Thank you, gentlemen, for your service to our country. I am 
fascinated about this discussion here at the end of Senator 
Allard's question about the whole concept of transformation. I 
agree with General Ryan that the whole military is going 
through this transformation.
    Over the holidays and the Fourth of July break, I had the 
pleasure of reading General Wesley Clark's book ``Waging Modern 
War.'' How we go to war now is so different than even going to 
war in terms of Desert Storm. The emphasis on massive air and 
sealift, the ability to respond quickly, flexibility, the use 
of precision weapons, massive amounts of air power, the ability 
to deploy the Apaches and so forth and take it to the enemy 
from a long range point of view, on the ground and in the air.
    Wow, what an exciting time to be a young officer in the 
American military. But I am afraid that this budget that I 
review grossly underfunds our ability to do that. The budget 
does not procure enough ships to sustain a 300-ship fleet. It 
does not procure enough aircraft to halt the aging problem that 
adds to flying hour costs and safety concerns. It does not even 
procure enough precision guided munitions to address the 
shortfall in our Reserves. That is simply unacceptable.
    Many say that we simply have deferred the procurement 
decisions until the next budget, after the defense review. That 
is all fine and good, except that the outcome of the strategic 
review is not going to change the fact that we need adequate 
numbers of ships to meet worldwide commitments and we will need 
safe aircraft for our young men and women to fly. We will need 
an adequate stockpile of precision munitions to be ready when 
necessary to protect our vital interests.
    These things have been deferred. They have been deferred in 
some measure so that we can accelerate on a range of missile 
defense programs that have not yet been proven to work and that 
raise significant issues regarding our international 
commitments under the ABM and other treaties. An extra $2.2 
billion by some accounts has actually been allocated in this 
budget to the $6 billion that is already going to these 
programs.
    By ``these programs'' I mean the missile defense programs. 
No one has come to Congress with a threat briefing, classified 
or otherwise, that justifies accelerating these unproven 
programs by literally billions of dollars. I cannot in good 
conscience support it when I know of many legitimate defense 
requirements which you have articulated here and those I have 
mentioned above that do require urgent attention.
    One of those decisions about our future military has to do 
with the B-1 bomber decision, Secretary Roche. Just some 
questions. You have been kind enough to spend some time with me 
and other members of this panel with regard to this decision. I 
look forward to seeing you down at Warner Robins on August 8 
and we will review some of these decisions in more detail.
    But I would like to ask you, do you have in your mind any 
concept of what will happen to the Guard personnel when the 
bombers are removed from Georgia, Kansas, and Idaho? Any 
thoughts about that at this point?
    Secretary Roche. The Guard issues, Senator, I think are 
principally in Georgia and in Kansas. Our goal is to not do any 
harm to the Guard, but to do good for the B-1 fleet by 
modernizing and by transforming them without having to come 
back and ask for more money. We would like to try to integrate 
and look for ways to use the Guard. For instance, we would like 
to consider an associate squadron for the Joint STARS. We would 
like to consider Warner Robins for some of the other things 
that are coming along. The same with Kansas. In terms of 
Kansas, we would like to work with the Guard there to find out 
what is best.
    As I pointed out to Senator Roberts, there is an engine 
remanufacturing facility that is run at the base which is 
really quite superb and there is no reason for it to go away. 
We are trying to both be efficient and to have a better 
fighting force with the B-1 bomber and consistent with our 
long-range standoff aircraft, which now we see as a good 
strategy that we feel very comfortable being able to discuss 
with you, sir.
    Senator Cleland. As you evolve the strategy, Mr. Secretary, 
continue to keep in mind not only the great investment in terms 
of hardware and software in these bases that maintain the B-1, 
but the great service of the Air Guard as well.
    General Ryan, were the expenditures on precision guided 
munitions during the Kosovo air campaign higher or lower than 
projected at the outset of the campaign?
    General Ryan. I have to say that there was no projection 
stated on the length of the campaign. There were those who 
opined that the campaign would only last 2 or 3 days and 
Milosevic would roll over and it would be over. There were 
others who said it is going to go on for a while. Seventy eight 
days into the operation, it was called off, with Milosevic 
rolling.
    The expenditure of precision weapons in that engagement was 
very, very large. What offset it somewhat was our bomber fleet 
that went in using smart airplanes with dumb bombs and doing 
great damage to some facilities and infrastructure that the 
Serbs were using during that time. So it is hard to say whether 
the amount of precision munitions used was within a calculation 
because there was no calculation base, but we certainly used a 
lot of them and fell short in our inventories, and we are still 
short in our inventories.
    Senator Cleland. That was my next question: Are we still 
short of precision weapons?
    General Ryan. Yes, sir.
    Senator Cleland. Thank you very much.
    Admiral Clark, thank you very much for your service and 
thank you for the conversion of two Trident submarines to more 
unconventional forces and use. Of course, the Navy I am sure 
would like to have the money to do four of these. What are some 
of the advantages that you see in the conversion of maybe a 
total of four Tridents to the mission that you have 
articulated?
    Admiral Clark. Well, not only will an SSGN Trident give us 
the ability to do massive long-range strike, but I look at this 
as a space-weight-volume issue for future transformations. We 
get real sensitive real quick here, Senator, but if we look at 
future systems that are possible where space and weight and 
cube are going to be required, I see the potential of this 
platform to be significant. I would be happy to talk to you 
about this in a closed forum.
    Senator Cleland. Thank you very much, Mr. Chairman.
    Chairman Levin. Senator Collins.

               STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman. I think it is 
important to note for the record that the Department inherited 
serious shortfalls in virtually every account, making it very 
difficult for the new administration to correct all of these 
deficiencies in a single year. As a result, we have some very 
serious problems to solve.
    Admiral Clark, you testified this morning that we need to 
build nine ships a year to sustain the QDR level. Similarly, a 
senior DOD official recently told me that it would take between 
$11 and $12 billion per year just to sustain, not to grow but 
just to sustain, the current naval force structure, So we have 
a long way to go to recapitalize our naval force structure.
    In that regard, Secretary England and Admiral Clark, I want 
to get comments from both of you on three issues that offer the 
promise of helping the Navy recapitalize the fleet in the most 
economical way possible. The first is greater use of multi-year 
procurements; the second is more of a focus on life cycle 
costs; and the third is an exploration of the use of advanced 
appropriations.
    I want to first comment on multi-year procurements and get 
you to respond to that. I may have to go to the other two 
issues in a subsequent round. This committee took the 
initiative last year in extending the Navy's authority to 
procure DDG-51 Aegis destroyers at a rate of three ships per 
year through fiscal year 2005. The Navy has previously 
testified that using the multi-year procurement approach has 
saved more than a billion dollars compared to annual 
procurements of the same ships and that multi-year procurements 
have introduced a degree of industrial base stability.
    So my question to Mr. Secretary and Admiral Clark: Congress 
has provided the Navy with clear legal authority and 
encouragement to buy as many as 12 DDGs over the next 4 fiscal 
years at a rate of 3 per year through a follow-on multi-year 
procurement. Would you agree that sustaining the 3-ship DDG-51 
procurement rate at a minimum would serve both the Navy's 
interests and be the most economical way from the taxpayers' 
and budget perspective of starting to recapitalize our fleet?
    Secretary England?
    Secretary England. Senator, an additional DDG-51 was put in 
the 2002 budget so we could exercise that option, which is a 
very good price as part of that other ship that was on the 
multi-year. So we did exercise that to get three of them this 
year in the 2002 budget. I would certainly agree that multi-
year is an approach that provides stability for the industry 
and also provides economy of scale for the Navy. So certainly 
we would look to partner and to continue to do that in the 
future.
    So certainly I would hope that we are going to be able to 
continue to do that.
    Senator Collins. It essentially allows you to buy three 
ships for the price of two if it is carried out and executed 
effectively and, given the huge shortfall that we face in 
shipbuilding, it seems to be an approach that is extremely 
economical and helps us resolve the underlying problem of the 
declining number of ships.
    Secretary England. Definitely. Any way that saves money for 
us, we can utilize that money in other procurements or for 
additional ships. Certainly we look favorably upon that. So 
definitely we are interested in multi-year and continuing to do 
that, Senator.
    Senator Collins. Admiral Clark.
    Admiral Clark. Well, here I am, Senator, sitting in uniform 
and wanting more ships, and so we talk about three a year. I 
sure am happy to sign up for--I said I need nine. Three a year 
would be great.
    The point on multi-year, I want to reinforce the 
Secretary's comments, Senator. One of the things I am most 
pleased about in this budget, the amended budget, is that we 
were able to pick up that extra DDG. I believe that this is 
consistent in what I was trying to get to in my initial 
comments. This is the kind of partnering that we have to do 
with industry. The reason we save money is because industry can 
now project the work force it needs and get its industrial 
plant lined up the way it needs to.
    This is the kind of thing that we have to do. Secretary 
England also made the point that we have to commit to, I 
believe, a more consistent investment posture across the years 
to help in that partnership.
    Senator Collins. Admiral Clark, I would now like to go on 
to the issue of total ownership costs or life cycle costs. The 
Navy has testified on several occasions that the key to 
reducing total life cycle costs while continuing to provide 
combat capability to our naval forces is to invest in research 
and development for our future naval platforms. Would you 
please elaborate on the research and development investments 
that are included in the fiscal year 2002 budget amendment that 
could reduce total ownership costs associated with current and 
future naval platforms?
    Admiral Clark. Well, of course the biggest area in our--
there are two areas that are affected here principally. It is 
the investment in reducing life cycle costs that are part of 
the DD-21 R&D effort, and obviously a major cost associated 
with any combat system is the manpower associated with it. So a 
principal piece of that is the reduction in manpower.
    The second thing I would--actually, there are at least 
three. The second thing is the R&D in the Joint Strike Fighter, 
and that is all about reliability and maintainability. I 
believe that is--for all of the things that JSF will bring to 
us in the future, the ability to reduce life cycle costs 
because of the specifications laid on for reliability and 
maintainability are to me among the most significant.
    Then the third piece that I would talk about is an effort 
we have in S&T, and that S&T work is specifically about hull 
forms and potential new ship types that will allow us and lead 
us to lower life cycle costs.
    Senator Collins. Thank you.
    My time has expired.
    Chairman Levin. Thank you.
    Senator Carnahan.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman.
    General Ryan, my home State of Missouri is the proud home 
of the 131st Fighter Wing, recognized as the best F-15 wing in 
the United States Air Force. This honor reflects the new 
concept of total force because the 131st is a National Guard 
unit. Whether they are patrolling the dangerous skies of Iraq 
or bringing disaster relief to Honduras, these Reserve 
components are serving alongside our Active Duty personnel. I 
certainly hope the budget suitably addresses the needs of our 
Reserve components as well as our active components.
    I was wondering if you would elaborate on our Reserve 
components' contribution to the U.S. air superiority missions 
abroad.
    General Ryan. Senator, we in the Air Force integrate our 
Guard and Reserve Forces in with our Active-Duty Forces in as 
seamless a way as possible. We ask our Guard and Reserve Forces 
to share our operations tempo, not just with air superiority, 
but across-the-board into the support areas. It is not unusual 
to go to, say, Incirlik, Turkey, and find the National Guard 
flying air superiority missions intermixed with our Active Duty 
flying support missions. It is that way across our Air Force.
    So we are very, very proud of the ability to integrate our 
forces and we are very, very dependent upon our Guard and 
Reserve Forces for our OPTEMPO and our readiness.
    Senator Carnahan. Following up on that dependency, I might 
ask Secretary Roche the next question. The F-15 Guard units 
have identified an engine upgrade as the most pressing need. 
Does the fiscal year 2002 defense budget suitably address our 
shortfalls and are there plans to use F-16 engine parts to 
provide for the F-15 inventory?
    Secretary Roche. Senator, I am not familiar with that 
particular issue. If General Ryan is, I would ask him to 
answer. If not, we will get back to you for the record, ma'am.
    General Ryan. I will take it for the record, too, ma'am, if 
that is okay.
    [The information referred to follows:]

    The current ANG F-15 fleet consists of mostly A and B models:

        - The training unit at Klamath Falls has 12 C/Ds, 6 Bs.
        - All other units have 108 A/Bs (99-As/9-Bs).
        - All aircraft have the PW F-100-100 engine.

    The ANG F-15 modernization priorities do not include an engine 
upgrade for the A/B models. The annual prioritization process listed an 
advanced Interrogator Friend/Foe as the #1 priority. The list is 
developed at the unit level and approved through the Director of the 
ANG.
    The active duty F-15 modernization program includes engine upgrades 
for the C/D models. The current funding plan includes continued engine 
upgrades although budget reductions have decreased the rate at which 
the engines are being upgraded. The fiscal year 2002 budget does not 
have sufficient funds to address the C/D shortfall. Higher budget 
priorities continue to pressure the remaining funding. The engine 
upgrades are listed on the active duty unfunded priority list submitted 
to Congress on 6 July by CSAF.
    The ANG will inherit the upgraded engines as the active C/D models 
migrate to the ANG inventory. There is a single engine Systems Program 
Office (SPO), making repair an engine type issue, not an aircraft 
origin issue. The 220E upgrade kit works in both the F-15 and F-16 and 
the kits are bought without designation as F-15 or F-16.
    The ANG units have an ever-increasing requirement to modernize the 
subsystems of the F-15 to maintain the level of combat capability 
required by the AEF. Upgrading the engines is reviewed annually and 
prioritized.
        - The cost of upgrading the entire fleet is approximately 
        $500M.
        - Partial upgrades create major logistics challenges as all six 
        combat coded F-15 units contribute to the AEF #9 force.

    Senator Carnahan. I might ask you as well, Secretary Roche, 
that during the first 9 weeks of the Kosovo operation our B-2's 
flew 45 sorties out of Whiteman Air Force Base and in this time 
they destroyed 90 percent of their targets on their first 
strike. I think the B-2, all of us can say, certainly has a 
very successful track record.
    Would you comment on the administration's commitment to B-2 
upgrades?
    Secretary Roche. Yes, ma'am. I spent 18 years of my life 
cleared to level 4 on the B-2 and it is a superb airplane. We 
are committed to upgrading it. The first upgrade we want to go 
to is JDAMS, which will take it up to 80 weapons per flight. 
These will be precise and can be used to get close to a target 
because of the B-2's stealth. In certain conditions we may need 
F-22's to be around to make sure no one shoots it down.
    Then the next step past that is what is called the small 
precise weapon, the small diameter bomb. There we can get up to 
numbers in excess of 300 per airplane, so that we take a fleet 
of 21 aircraft and the lethality of those 21 aircraft will grow 
dramatically over the next 10 to 15 years.
    Senator Carnahan. Thank you.
    Then a final question here of General Shinseki. I believe 
it is important to be able to treat our soldiers on the 
battlefield in the event of a chemical or biological attack, 
and the Army has sought to procure chemically and biologically 
protective shelters that are specially designed, rapidly 
deployable, mobile medical aid stations. I was wondering if you 
would be able to comment on our preparedness to treat military 
forces on a contaminated battlefield.
    General Shinseki. Well, Senator, this is one of the areas 
that we constantly train to and the procurement of this kind of 
equipment reflects what we learned out of that training, that 
we need capabilities we do not have. If you would like, I would 
be happy to provide for the record specifically what that 
program buy is about in terms of those specific shelters.
    For all the services, but particularly for the Army, 
operating in a contaminated environment is a key part of our 
training programs.
    Senator Carnahan. Do you feel that there are any 
improvements that need to be made at this time?
    General Shinseki. I think we have made in investments what 
we have declared as important. We have go-to-war stocks in 
terms of chemical equipment set aside for go to war, as well as 
chemical equipment that we use for training. The program buy 
information for these particular shelters, I think probably 
would provide you a better answer for the record.
    [The information referred to follows:]
           Chemical and Biological Protective Shelters (CBPS)
    The Army trains with the assumption that we will fight on a 
contaminated battlefield and will require the capability to treat 
casualties on that battlefield. The CBPS is a critical component of 
that capability. Although the Army is currently the only Service with a 
requirement for the system, the CBPS is funded through the Joint 
Nuclear Biological Chemical Defense Program and a Defense-wide 
appropriation. The CBPS is the primary collective protection shelter 
used for echelon I and II medical treatment facilities and forward 
surgical teams. The system provides a rapidly deployable mobile medical 
treatment capability to treat casualties in a nuclear, biological, 
chemical environment. It is mounted on a high-mobility multipurpose 
wheeled vehicle and is fully operational by a crew of four within 20 
minutes. This capability does not exist in the field today.
    The CBPS contract was first awarded in February 1996, and the Army 
has exercised several options under the contract to maintain 
production. There are 33 systems currently located at Pine Bluff 
Arsenal and at the contractor's facility. An additional 80 systems are 
currently under contract, and we plan to field the first 122 CBPS 
systems in the very near future. The Army also plans to complete a type 
classification standard decision in September 2001 and exercise another 
option under the contract in January 2002.

    Senator Carnahan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Bunning.

                STATEMENT OF SENATOR JIM BUNNING

    Senator Bunning. Thank you, Mr. Chairman.
    I sit here in amazement because of the questions coming 
from one side and the other. For 8 solid years the defense 
budget declined. How many military personnel here were at this 
table, any of them, during the last 8 years? [A show of hands.]
    General Ryan. 4 of the last.
    General Shinseki. The last 2.
    Senator Bunning. Did you make the point that you were a 
little short in your budgets before this committee at that 
time?
    General Ryan. Yes, sir.
    General Shinseki. In testimony last fall before this 
committee, as I recall, the Army's statement of needs on 
finance requirements----
    Senator Bunning. What about the ones in the prior 8 years? 
How much more are you now receiving in your military budgets 
than you were in the last 8 years? Take 1993, 1994, 1995.
    General Ryan. I can partially answer that.
    Senator Bunning. Thank you.
    General Ryan. 1996 was the bottom-out year of the drawdown 
of our forces and the budgets from 1996, 1997 were fairly 
level. I have to tell you that we----
    Senator Bunning. Only because Congress in their wisdom put 
more money back into the request that came from Pennsylvania 
Avenue.
    General Ryan. We did get substantial help from Congress 
during those years to shore up our budgets.
    Senator Bunning. I just want that to be in the record.
    General Shinseki, you brought up the fact that we were 
technologically inferior during the Gulf War. Is that an 
accurate statement?
    General Shinseki. I was referring specifically to the 
capabilities of the adversary's artillery systems.
    Senator Bunning. Just the artillery? General Ryan, what 
about the military aircraft?
    General Ryan. During the Kosovo conflict we were able to, 
quite honestly, overwhelm a smaller force. What we were unable 
to do and lost two airplanes because of is coming to grips with 
how to defend against the surface to air missile threats that 
were in that area.
    Senator Bunning. Even with stealth?
    General Ryan. Even with stealth. In fact, we lost one 
stealth aircraft. It was a lucky shot, but we lost a stealth 
aircraft.
    Senator Bunning. It was just a barrage that brought down 
that aircraft?
    General Ryan. I would like to answer that question in a 
closed form, sir.
    Senator Bunning. OK. I have to go to the base closures. 
Someone mentioned the fact that there was $4 billion plus 
saved. Where did the money go? General Ryan, it is your 
statement.
    General Ryan. We have continued to put most of our emphasis 
into people and into readiness accounts. That is where I would 
say most of our investment from any savings we have had through 
the years, particularly over the past 4 years, that is where we 
put our money and our emphasis, at the expense of our 
infrastructure and modernization of our force.
    Senator Bunning. Secretary Roche, you are also a base 
closure advocate. Where would you say the savings have gone 
over the last two base closures?
    Secretary Roche. Senator, clearly at this stage of base 
closing you put up a lot in the front in order to save over a 
very long period of time, so you have investment in the 
beginning and then you have recurring savings over the long 
term, which are cost avoidance. I believe that if those bases 
had not been closed then the kinds of monies that we would have 
left over for maintenance, for modernization, for our people, 
would be under significantly greater stress.
    Senator Bunning. All the civilian personnel that are for 
base closures, would you bring before me or this committee the 
savings that have gone on from the two prior BRAC's that we 
have had? Because I am having a terrible time finding any of 
the money that we saved by the first two BRAC's.
    Secretary Roche. Their costs avoided, sir? We would be glad 
to.
    Senator Bunning. No, no. I want to see the actual dollars 
that now you are spending for something else. In other words, 
if there is $4.5 billion saved in the first two BRAC's, and you 
said that in a passing way and I do not know if you were really 
meaning exactly $4.5 billion, I would like to see it so that I 
can be informed.
    I do not think there is one person here, sitting up here at 
the table, that actually knows anything about the exact dollars 
being saved by the first two BRAC closings.
    [The information referred to follows:]
                             Navy Response
    As of the end of fiscal year 2001, the Department of the Navy will 
achieve a projected net savings of $5.8 billion as a result of two 
rounds of Base Realignment and Closure. Beginning in fiscal year 2002, 
we will save an additional $2.6 billion each year. These net savings 
estimates have been validated by several independent sources.
                             Army Response
              base realignment and closure (brac) savings
    The Army will realize $945 million in annual savings with the 
closure and disposal of all BRAC properties. Savings represent 
reductions in personnel and infrastructure operating costs. The Army 
realizes the majority of these savings when the closure and realignment 
actions are complete. The remainder of the savings occurs when the 
properties are disposed. BRAC actions resulted in $945 million in 
savings in the Army's operating accounts in fiscal year 2001, while the 
Army is spending $288 million in this final year of BRAC 
implementation. The Army has $1.1 billion in remaining environmental 
liabilities after fiscal year 2001, which will be paid from a little 
more than 1 year of savings.
    The savings resulting from closing and realigning installations are 
real. The BRAC savings have been recognized by the Congressional Budget 
Office and audited by the General Accounting Office and the Army Audit 
Agency. After closing 112 installations and realigning 27 others, the 
Army has reduced base operations and sustainment, restoration, and 
modernization costs and eliminated 16,462 civilian positions. The $945 
million in savings each year are now spent on readiness, modernization, 
and remaining infrastructure. Spending these cost avoidance dollars for 
priority programs rather than unneeded infrastructure presents an 
opportunity for the Army to operate more efficiently within the 
available top line obligation authority.

    Secretary Roche. Sir, we will be glad to. In the Air Force 
it is cost avoidance principally. Since money is fungible, it 
is hard to find where a specific dollar went. But it is costs 
we do not have to pay in the long run.
    Senator Bunning. We cannot make up in 2 years or 3 years 
what took place in the last 9 years.
    Secretary Roche. That is absolutely correct, Senator.
    Senator Bunning. So we have to do it on a gradual basis. 
You will get my cooperation to do it on a gradual basis. I am 
not going to blow the budget out of the water just to take care 
of future needs 20 years down the pike. But I will support 
increases and gradual increases in the DOD authorization and 
the budget to make sure that we are ready to fight a war if we 
have to.
    Secretary Roche. Thank you, sir.
    Senator Bunning. Thank you.
    Chairman Levin. Senator Akaka.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to welcome all the witnesses here before us 
this morning and tell you that I am particularly interested in 
the readiness of our troops. A multitude of issues impact 
readiness, from adequate funding to addressing concerns about 
encroachment as it pertains to training ranges and facilities. 
I am looking forward to working with my colleagues and with you 
on these.
    Secretary England, I want to tell you that I agree with 
your four strategic areas--that is, combat capability, people, 
technology, and business practices--and wanted to particularly 
ask you about this question that we discussed already. But to 
bring me up to date, what is the current status of the 
situation involving the Navy's decision to stop training at 
Vieques, and are alternative training sites available?
    Secretary England. Senator, there is a request coming in to 
Congress to change the law that requires a referendum in 
November. So we are asking, because we feel that is bad public 
policy, not to have that election in November. In the meantime, 
we have funded the Center for Naval Analysis to stand up the 
group to look at alternative sites.
    In addition, it is not just a site issue, which is why I 
answered no to Senator Inhofe, because the real issue is one of 
adequate training for our sailors and marines. So they will 
look at the total issue of what is the training that we are 
trying to accomplish, what is the best way to accomplish that 
training, and then what are the facilities required to support 
that.
    I was pleased, by the way, with General Jones' answer to 
that question because he said training does not take a back 
seat, and I agree with that. The question is, what is the best 
way to do it? So that is what this group will be doing, and 
that group is now being stood up and people named to that 
panel. So that is where we are at present, sir.
    Senator Akaka. Admiral Clark, your prepared statement 
refers to the difficulty of sustaining current readiness while 
investing in key future capabilities. In your testimony, you 
refer to the $6.5 billion that has been reprogrammed from Navy 
programs to the current readiness portion of the Navy baseline 
in the program for fiscal year 2002 to 2007. This action has 
been characterized as putting the Navy on course to correct the 
underinvestment in readiness.
    My question to you is, do you have any additional thoughts 
regarding this issue that this committee should consider?
    Admiral Clark. When I came here, Senator, last year for my 
confirmation hearing, we talked about the issue of readiness 
and it was my number one priority. I said as the CNO that that 
is where I was going to put my priority, that failing to do it 
was taking it out on the backs of our sailors and I was not 
going to do that.
    I do not have final decision authority on this. I make 
recommendations. I am extraordinarily pleased with the steps 
that we are taking in this budget. It is the right thing to do. 
When we fail to do it, what we end up doing is that we have to 
reprogram or take action in an execution year to fix a bill 
that we have to pay, current readiness, in order to deploy the 
forces. That has an extraordinarily corrosive impact on all of 
the people that are affected in this process.
    Here is what I have learned since I came here for my 
confirmation hearing in all sorts of analysis. This is 
happening because of the age of the force. We have proven to 
ourselves that the demand for spares on our aircraft, for 
example, not the dollar amount, the demand for spare parts, is 
going up 9 percent a year, spares alone. This is costing us 
between 13 and 15 percent a year. The costs are spiraling out 
of control.
    So when we got down to the amended budget, we were really 
happy that we were able to put additional F-18's back in the 
budget. The only way out of this is to buy our way out in terms 
of getting rid of these airplanes that are costing us a fortune 
to operate. So that is what I have learned in the past year. I 
now have data to back up what I was experiencing in the fleet 
when I came into this job.
    I am convinced that the challenge here is the balance. We 
cannot short the current readiness accounts or our people to 
pay for it. At the same time, we have to figure out how--and 
this is why I am so much in support of Secretary England's 
initiative about real reform. We have to know exactly where 
every dollar is going and we have to not only pay the current 
readiness bills, because that is why the Nation has a Navy, to 
be out there, but also to do something significant to turn 
around this problem.
    Senator Akaka. Thank you.
    General Jones, I took note of your concern regarding the 
aging infrastructure that is being indicated here and the 
backlog in maintenance and repair. I share your concern, 
especially as it pertains to family housing and encroachment. 
It is important to continue discussions with the community 
regarding encroachment and to do what is necessary to be 
environmental stewards.
    I am particularly interested in your assessment that the 
PERSTEMPO program enacted in last year's defense authorization 
act does not comport with the mission and culture of the Marine 
Corps. Could you further elaborate on this assessment and 
provide comment as to what alternatives the Marine Corps is 
examining to address this issue?
    General Jones. Thank you, sir. We are fully tracking our 
PERSTEMPO per DOD guidance and will report to Congress as 
required. To our way of thinking, the high PERSTEMPO per diem 
equates to paying premiums for doing what we do as normal 
operations in deployments in support of our national mission. 
As I have said before in previous testimony, 68 percent of the 
Marine Corps is always on its first enlistment. That means we 
have a young force, average age is 24 years or younger.
    We are able to recruit people, young men and women of great 
courage and character, to do these types of missions, and they 
come into our ranks to do those kinds of things, and we do not 
disappoint them. It is a matter of fact and record that the 
highest reenlistment rates in the Marine Corps are in our 
deployable or deployed units.
    So satisfying the expectation of this very young force with 
the idea that they are going to do something important for the 
Nation in pursuit of our national objectives and in support of 
really a historically proven record over the last 50 or 60 
years that being forward engaged is good for the Nation across 
a whole broad spectrum of interest items.
    We feel that it is a question of capable and good 
management and leadership of the force. To have a policy that 
compels us to pay money to do what we naturally want to do does 
not seem to be, at least at first glance, something that we--it 
should be something that we look at.
    For example, it is not just limited to operations. People 
who go on temporary additional duty from headquarters, people 
that train on our bases, have a clock that starts counting with 
every day they spend away from their domicile, be it a BEQ or 
bachelor quarters or married quarters.
    We will know more later on this summer about the fiscal 
impact of this. But I think we need to come back to Congress, 
and I propose to do that, with some greater facts and figures 
to show exactly what the impact of that legislation will be. My 
personal judgment is it will be significant.
    Senator Akaka. Thank you for your responses.
    My time has expired, Mr. Chairman. I will submit additional 
questions that I have for the record.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Thank you, Mr. Chairman.
    General Ryan, thank you for your courtesies and a job well 
done. As the Air Force has moved from a stationary military 
fighting force to an expeditionary force, you have piloted, if 
I can use that term, the Air Force in outstanding fashion. We 
owe you a great debt of thanks. You do an outstanding job, and 
we like you as well. I like Mike.
    General Ryan. Thanks.
    Senator Roberts. I want to thank you all for your candor. 
We have asked for candor in the past. The Senator from Kentucky 
sort of alluded to that in a different kind of question. As a 
result, we have all experienced a time frame where we have 
understood our military has been stressed, drained, and in some 
cases hollow. But most of all, we appreciate your coming with 
your candor.
    As a result, we have passed significant pay raises. We 
fixed the retirement system. We have done a lot with health 
care. We are doing a lot with emergency supplemental funds. So 
thank you all for the job that you are doing.
    General Jones, my heart goes out, as a member of the Marine 
Corps family, to the families of the three marines that lost 
their lives in protecting our Nation's 911 force in readiness. 
I appreciate your comments and the comments of our 
distinguished chairman.
    Now it is time to move to the B-1. Secretary Roche, you 
remember the old days when Bob Dornan was known as ``B-1 Bob''?
    Secretary Roche. Yes, I have met the gentleman.
    Senator Roberts. Well, now you have B-1 Max, B-1 Larry, B-1 
Mike, B-1 Zell, B-1 Sam, and B-1 Pat. It is my hope in 
discussing this with the distinguished chairman and the ranking 
member and the subcommittee members that we are going to have a 
hearing on this in the immediate future in the Strategic 
Subcommittee with the Emerging Threats and Capabilities and the 
Airland Subcommittees invited to take part. So we will welcome 
you at that particular time.
    The Senators from Kansas and Georgia and Idaho, however, 
are being painted, and I am upset about this, as only 
interested in the B-1, and I have a statement I am going to 
read here, ``because of the loss of the platforms and the jobs 
in their respective states.'' That is not it.
    I am interested in ensuring that the men and women of the 
United States military, active, Guard, and Reserve, that serve 
in the State of Kansas or Georgia or any other place are not 
jerked and assets are moved only when it makes sense and when 
it is part of an overall plan.
    For the past 3 years, the Emerging Threats and Capabilities 
Subcommittee, a new subcommittee by the grace of our ranking 
member and our former chairman--and I chaired that subcommittee 
until recently--has looked closely at military transformation 
and the very real need to align our forces to the threats we 
are most likely to face. I am a strong believer in 
transformation.
    Secretary Roche, thank you for coming this morning to visit 
with me about this. I am all in favor of your efficiency 
initiatives. I know you will do a great job. You have started 
something called the Business Initiative Council or Committee. 
It is called ``BIC''. That is the new acronym. I am all for 
that. I want to thank you for coming up.
    But I also feel strongly that any effort to make any 
significant changes to our force structure and our weapons 
systems must be well thought out and part of an overall plan. 
Part of my frustration--and I shared it with you--is that this 
B-1B move was done quickly, quietly, with zero consultation, 
more stealth by the way, than any B-1 or B-2 has, and not part 
of any defense-wide strategy. I know you do not agree with 
that, but that is my take.
    I do not think we should let arbitrary actions made in 
isolation from the rest of DOD impact on the transformation I 
believe to be vital to our future defense strategy. Now, I see 
placards frequently touting the Air Force Active and Guard as 
one team. Senator Carnahan just asked General Ryan about that. 
This action to pull the B-1B away from the Guard and place them 
only in Active Duty military bases speaks louder than any 
placard.
    If I were a member of the Kansas Guard--and I just was out 
on the flight line yesterday when Lieutenant General Whirly 
took time to come out and explain the administration's 
position--of the Georgia Air National Guard who spent years of 
blood, sweat and tears maintaining the high state of readiness 
of their B-1B units, only to see them transferred--I originally 
had ``jerked away''; I have now changed that to 
``transferred''--to active forces, I would question the 
commitment of the active Air Force to the Guard.
    They are not doing that, by the way. They are standing tall 
and they are standing at parade rest and saying: We will do the 
mission.
    Finally, from my understanding the mission capable rate of 
the B-1B is low because of the lack of funding for support for 
the aircraft. As the congressionally-mandated study showed, 
given the proper funding and support, the mission capable rate 
of the B-1B is very good. If the same lack of funding and 
support was provided to any of the Air Force's other bombers, 
what would happen to the mission capable rate of that platform?
    I have about six questions here that I am going to submit 
for the record. I am going to skip over those. Some of them are 
a little argumentative. Some are meant to produce some 
meaningful dialogue, which I am sure that we will have. I want 
to cut to the chase.
    Congressman T. Hart and Senator Brownback and I yesterday 
in Wichita at McConnell Air Force Base, home of the proud 184th 
Bomber Wing, said the first thing we need to do is to delay 
this. We cannot do this in 10 weeks. You cannot jerk people 
around that way.
    You agreed with that as of this morning and said that you 
are going to go back to the Secretary of Defense and indicate 
we are not going to do it until 2002. That means not 10 weeks. 
At least there would be 16 months. In the 16 months--and I want 
to clarify that--it would at least give us an opportunity to 
compare this with the QDR, with another GAO study requested by 
Senator Cleland, let us scrub the numbers that are in dispute, 
let us try to not start a sheep and cattle war between the 
National Guard and the active duty folks, and that we would 
have sort of a time out and we could arm-wrestle over the 
future of our long-term strike capability, whether it is B-2 or 
B-1 or B-52 or the future bomber that we talked about.
    But I do not think that is going to be the case. I got a 
report of your statement that in 2 months time as of 1 October, 
to use a Dodge City term, we are going to head them up and move 
them out. I do not want to head them up and move them out. I 
want at least a little time to present our case to you, sir.
    So I want a clarification. Do we have 16 months or do we 
have 2 months and we take the gloves off?
    Secretary Roche. Senator, thank you. First of all, the 
Secretary of Defense has apologized for how this was unveiled. 
On the part of the Department of the Air Force, I apologize as 
well. We never intended for it to come out the way it did. We 
thought we would have time to consult and we failed to make our 
case strongly enough at that time. So that is our 
responsibility.
    Second, Senator, we do not want to do anything draconian to 
people and, therefore, it would be our intent to ask the 
Secretary's permission to be able to use all of 2002 to do this 
in a sensible manner.
    Third, this is not something against the Guard. This is 
something for the B-1 force. The B-1 force was designed in an 
era of nuclear weapons. It was designed at a time when you 
spread bombers around the country because you were afraid of 
SLBM's being fired from our shores, attacking the bomber leg of 
the triad.
    It is time now to try to be more efficient and to make this 
force a usable force. It is $2 billion behind as it stands in 
maintenance and modifications. I view this as a force that has 
low capability rates, very, very high cannibalization rates, 
because it is just not as relevant as it should be, and I wish 
to make it relevant.
    I do not see the kind of money necessary to be able to make 
the whole fleet relevant and meet our other needs, our 
purchases of C-17's, F-22's, etcetera. Therefore, we proposed a 
way to save part of the force and to make it very relevant for 
the next 30 years. That was what was going on.
    With regard to the Guard members, we would like to engage 
with the Guard in Kansas and Georgia to look for alternative 
missions for them, such things as associate squadrons. We would 
like to have a dialogue on the MILCON on those two bases that 
was associated with the B-1 to see how much of it would be 
useful for the base in large, because we see those bases going 
on.
    We hope we will be permitted to do the kind of thinking and 
discussions with you in the intervening period and not be 
restrained from doing that so that we can work with you, make 
our case, and, as I promised you this morning, when I have 
looked at the numbers and have asked for them recently, the 
comparisons between mission capability rates and flying hours 
are very, very close. We understand that the Guard in Georgia 
has a different analysis and we respect those folks. They are 
part of one Air Force. We will go over their numbers and I have 
promised you that we will set up a session with your folks, 
with the Guard, our people, and I am sure we are going to come 
back to the fact that we do not have an auditable set of books 
and that how you allocate overhead is going to be the clear 
issue.
    But we have nothing to hide. We would be glad to share 
this. But the intent was to take the investment made in B-1s 
and to make it a useful investment and not one that is not. We 
do not see our ability to come back and just ask you for more 
and more money on top of what our other needs are, sir.
    Senator Roberts. Mr. Chairman, my time has expired. Could I 
have 1 additional minute? I apologize for asking this.
    Chairman Levin. Sure.
    Senator Roberts. Well, I do not apologize. I am just going 
to ask for a minute.
    Chairman Levin. In that case you cannot have it. 
[Laughter.]
    Senator Roberts. Welcome to the minority. [Laughter.]
    I appreciate all that. We went over that as of this 
morning. Again, I want to thank you for taking your time out.
    We want the B-1 to be relevant. How on earth could anybody 
say that it should not be relevant as part of the B-52, B-1, B-
2? As we go through this, I am looking for the future strategic 
bomber that everybody knows we are going to have to have. I do 
not even see it on the table yet, but we need to talk about 
that.
    I am for consolidation if it works. But basically what you 
have done is you have said we are not going to--we are going to 
give it to the two active duty bases because that is the only 
mission they have, and you did not want to go down the road, 
despite everybody saying yes on a BRAC, you did not want to 
take that step that might lead to a BRAC. I am being very 
candid about it.
    But the two military installations that are run by the Air 
National Guard do it better. Now, I know we are going to have 
some argument about the numbers. I just have some more numbers 
here in regard to the allegations that you have made. We need 
to compare apples to apples, and I think we will do that.
    But basically now you have told me that over the period of 
time we will have an opportunity to make our case, and I really 
appreciate that and we can do so in hearings and hopefully the 
hearings will take place in a couple of weeks. On behalf of the 
warfighters in Georgia and Kansas, we are not going to simply 
jerk them away as of the 1st of October; is that correct?
    Secretary Roche. That is correct, sir.
    Senator Roberts. Thank you.
    I thank the chairman.
    Chairman Levin. Thank you.
    Secretary England, relative to Vieques, is the Defense 
Department going to be submitting a legislative proposal to 
Congress to change the current law that requires a referendum 
on the continuation of live fire training on the Vieques 
training range?
    Secretary England. Yes sir, they are.
    Chairman Levin. When will that be submitted?
    Secretary England. Sir, I hope it is any day now. I thought 
it would have happened by this time.
    Chairman Levin. Is that going to recommend that the 
referendum be cancelled?
    Secretary England. Yes, sir, it will recommend--it would 
say to delete that part of the legislation that now says have a 
referendum. It will delete that language.
    Chairman Levin. What progress are you making to identify 
alternative training sites?
    Secretary England. We are standing up the outside group and 
naming those people right now, Senator.
    Chairman Levin. But your cancellation recommendation--and I 
emphasize it is only that--is not contingent upon your finding 
another site?
    Secretary England. No, sir. Our feeling is that we will be 
able to find another site, other techniques. Again, this is not 
site-specific. It is how do we achieve the level of training 
that we require. So that could be a combination of sites, 
technology. So it is not to look for a one for one replacement 
for Vieques.
    Chairman Levin. Have you identified that alternative 
approach?
    Secretary England. No, sir, we have not. We are working at 
that. We do have preliminary findings from CNA that indicates a 
combination of other sites that would be appropriate, sir. So 
there have been previous studies that indicate there are 
alternatives.
    Chairman Levin. But until that alternative approach is 
identified, you are not making your recommendation that the 
referendum be cancelled contingent upon the identification of 
an alternative approach?
    Secretary England. No, sir. The recommendation is made 
really because in our view, at least my view and I think some 
other people's view, it is just poor public policy to have 
people voting on actions important to our sailors and marines. 
We would much rather make those decisions in the Department of 
the Navy and the DOD and with consultation with Congress than 
have people vote on those decisions, sir.
    Chairman Levin. Is your proposal going to say that you will 
end training in May of 2003?
    Secretary England. Yes sir, it will.
    Chairman Levin. Admiral Clark, let me ask you about 
Vieques. Were you consulted on the decision to ask Congress to 
cancel the referendum before that recommendation was made?
    Admiral Clark. I think, Senator, there were discussions for 
several months and before Secretary England arrived with regard 
to this issue. With regard to the specifics of going to 
Congress with this, I would say that the discussion was more 
about the desirability of having a referendum. I would tell you 
that I represented my case in those discussions that I thought 
the referendum itself--and I am a military guy, not the policy 
guy--but that I thought that it was bad public policy.
    Chairman Levin. That was before the recommendation was made 
to have a referendum?
    Admiral Clark. That is correct.
    Chairman Levin. But I am talking about----
    Admiral Clark. No, sir.
    Chairman Levin. Oh, you did not make that before the 
recommendation to have the referendum last year?
    Admiral Clark. No sir, that is not what I am talking about.
    Chairman Levin. So it was the current----
    Admiral Clark. I am talking about currently in this 
calendar year, after the new administration arrived.
    Chairman Levin. But before there was actually a decision 
made, apparently, to come to Congress to recommend cancellation 
of that referendum, were you consulted at that time? This year 
were you consulted before, that Congress was going to be asked 
to cancel the referendum?
    Admiral Clark. I was not told that--I characterize it the 
same way. We had discussions about potential courses of 
actions. I was not told before the decision was announced that 
this was going to happen.
    Chairman Levin. Were you surprised by it?
    Admiral Clark. I was not surprised that this was the 
conclusion of the administration.
    Chairman Levin. What were you surprised by?
    Admiral Clark. Was I surprised by which piece of it?
    Chairman Levin. By the fact that you were not notified that 
the request was going to be coming to Congress?
    Admiral Clark. I had discussions with both Deputy Secretary 
Wolfowitz and Secretary England. On this particular, when 
Secretary England made the decision, he did not come and we did 
not talk about it until after he made the decision and then he 
informed us.
    Chairman Levin. General Jones, were you consulted?
    General Jones. My answer echoes the CNOs because I was at 
the same meetings.
    Chairman Levin. To the service secretaries here, Secretary 
Rumsfeld has assigned all three of you, I guess, to sit on a 
new board of directors to manage the business affairs of the 
Department of Defense. The Secretary has testified that the 
Department should be able to save $15 billion a year through 
improved business practices. In the past, the Department has 
tried to save money by contracting out commercial functions to 
the private sector, but the Department has never provided the 
management attention needed to ensure that savings are actually 
realized when it contracts for the services from the private 
sector.
    A series of reviews by the Inspector General and the 
General Accounting Office have revealed that the Department has 
failed to compete requirements for the delivery of services and 
has barely begun to implement requirements for performance-
based services contracting.
    At a more fundamental level, the Department of Defense has 
no centralized management structure for service contracts, has 
never conducted a comprehensive spending analysis of its 
service contracts, has made little effort to leverage its 
buying power, improve the performance of its service 
contractors, rationalize its suppliers base, or otherwise 
ensure that its service contract dollars are well spent.
    Do you believe that the Department should be able to 
achieve significant savings by instituting better commercial 
practices for the management of the $50 billion service 
contract budget? Secretary White?
    Secretary White. Yes, I do. It is done all the time in the 
business world. Outsourcing of non-core functions is a way of 
life. You do not stay in business if you spend a lot of time on 
non-core activities, and I see no reason why we should not be 
able to do the same thing in the Department. That is our 
intent.
    Chairman Levin. Secretary England.
    Secretary England. I would agree. I think Secretary White 
summed it up very well, sir.
    Chairman Levin. Secretary Roche.
    Secretary Roche. In general I agree. We have some examples 
in the case of having total maintenance on the 117, where we 
have absolutely measurable dollars that we can point to. But 
with regard to the BIC, it is not just contracting out. There 
are a lot of things we are probably doing that create our own 
inefficiencies, where we are laundering our own laundry back 
and forth, we would like to eliminate. We would like to find 
areas where we are asking each other for work that simply does 
not have to be done or duplicating sets of meetings--a series 
of things to get smarter, better, faster, and to get the 
decisionmaking down at lower levels and empower people to do 
this in a better way.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    A little bit of good news every now and then, not that we 
have not had good news here today. But Senator Levin and I have 
been in this Senate for 23 years and we have gone through many 
military operations by our Nation and each of us in our own 
respective lives have been involved with the military in other 
ways long before we came to the Senate.
    But this is the booklet that is being given to a private 
first class, who happens to be my executive secretary's son, as 
he embarks on a mission to the Bosnia-Kosovo region. I have 
never seen a better prepared document. It is carefully written 
so that a, in his case, private first class can read it and 
learn the history of the region going way back to the 1300s and 
exactly what each soldier is expected to do in the performance 
of his or her duties in the platoon, in the company, in the 
regiment, and the other nations that are involved.
    I just wish to commend those, presumably in the Department 
of the Army and indeed maybe throughout the Defense Department, 
who are preparing our men and women in both the active and the 
Guard as they embark into that region of the world to better 
understand why they are going and to some extent, depending on 
their assignments, putting their safety at risk in the cause of 
freedom.
    So this is very, very well done, and I commend the 
Department of Defense and the military departments for their 
preparation of their people as they deploy.
    To the Air Force Department, Mr. Secretary and Chief. I do 
not like to use the personal pronoun ``I'', but I will go ahead 
and do it anyway. Last year I included $200 million in the 
defense authorization bill to accelerate the development of 
unmanned combat aircraft. I have been joined by a number on 
this committee. We are moving in that direction.
    General Ryan, I do not want as a heritage, you being a 
proud aviator of many years, to be too strong an advocate today 
of moving toward unmanned cockpits, but I believe that is the 
direction that this country has to go in. You have some of the 
leading programs in this area, and I wonder if you might lead 
off with your own enthusiastic support of this concept.
    It is not going to totally, in any way I think, threaten or 
abridge or otherwise limit the number of manned cockpits in the 
future, but a certain percentage of our warfighting equipment 
in my judgment should be unmanned or remotely controlled, so to 
speak, or both. Your own views about those programs and what 
you see as the future for them?
    General Ryan. Yes sir. First of all, I do not think pilots 
across our Air Force in leadership positions have any hatred 
for unmanned aerial vehicles. In fact, if you look at our 
inventories, we have gone that way in almost every munition we 
have. Almost every one of our munitions is a standoff munition. 
It in itself is an unmanned aerial vehicle, whether it is an 
AMRAAM or an air-to-air missile or an air-to-surface missile, 
things that give us standoff, where we do not have to put 
people in harm's way. It is just most of those do not come 
back; they go one way.
    We are now working very hard on technologies that would 
allow us to do it, to use these vehicles, where they are 
reusable. Predator is a very good example. We used Predator 
first in combat in Bosnia and it went to places that I as the 
commander over there did not want to send----
    Senator Warner. I remember seeing those operations. I went 
on the actual sites and watched them go and return.
    General Ryan. Yes, sir.
    Global Hawk is another capability. We are building a UCAV 
now to look at the applications of unmanned aerial vehicles in 
a direct combat mode, where we would have the vehicle dispense 
munitions or high energy capabilities that would disenable 
military capabilities of the other side. So we are very much 
into this and I see nothing but increased involvement in these 
kinds of activities.
    Senator Warner. I thank you.
    Secretary Roche.
    Secretary Roche. Senator, the Secretary of Defense is very 
much supporting our increasing the amount of money we are going 
to put into unmanned vehicles. They are not substitutes for 
piloted vehicles; they are complements. We will run into in 
time--it is a bandwidth problem, the communications problem 
raised earlier by one of your colleagues, because when you put 
sensors in you want to remote everything back and you are using 
a lot of bandwidth.
    So we know we are stressing this, but the state of digital 
technology is such that we feel these vehicles have a high 
reliability and can be very useful and can complement us very 
well.
    Senator Warner. But I think that they have a mission in 
land warfare, General Jones. Do you agree with me?
    General Jones. Absolutely, yes, sir.
    Senator Warner. You are moving along. You have some 
excellent research and development going on in the Marine 
Corps. We want to compliment you particularly; you are on the 
cutting edge of all the military services as it comes down to 
the weapons of mass destruction, particularly biological and 
chemical. You are spearheading that research and development 
within the Corps.
    But back to the unmanned, you support that?
    General Jones. Absolutely. Our warfighting lab at Quantico 
is doing extraordinarily good work in support of the 
requirements of our ground warfighters. As I said, the future 
lieutenants and captains are going to have an incredible array 
of information that is going to come in. They will be able to 
look over the next hill with great precision. This is exciting 
stuff.
    Senator Warner. Admiral.
    Admiral Clark. Absolutely, Senator. In fact, I predict that 
some day they will be flying from aircraft carriers.
    Senator Warner. I hope I am around.
    General Shinseki.
    General Shinseki. Likewise, Senator. We have dedicated a 
good bit of our look in science and technology toward the 
robotics arena as well. Even with a system like Crusader, we 
have the crew separated from the weapons system's ability to 
deliver fires. I mean, whether it is 3 feet, 30 meters, or 3 
miles, control over a weapons system that delivers like the 
Crusader does is a matter of distance, and we are working on 
those technologies.
    Senator Warner. I make an observation for the Department of 
the Navy--I thank you, General--that in my judgment, Mr. 
Secretary, we have had a very good discussion on BRAC today, 
but our information for the committee indicates that the 
Department of the Navy has not sufficiently funded--as a matter 
of fact, we look at $90 million in deficit financing--BRAC 
funding for installations that have been the subject of closure 
in past legislation of BRAC and awaiting transfer to the 
communities.
    Now, that hiatus period is very difficult for those 
communities to deal with the loss of the military, frankly 
payroll, and the awaiting of a follow-on substitute in the 
private sector. Would you examine that?
    Secretary England. Yes, I will, sir. I understand it is the 
case. I do not have those specifics, but I will take that for 
the record and get back with you, sir.
    [The information referred to follows:]

    The Base Realignment and Closure account has been buffeted by 
budget reductions from the Navy, through the Office of the Secretary of 
Defense and Congress in the last few years, primarily due to the 
expectations that prior year unexpended balances could be used to fund 
current requirements. Because of competing budget needs, the Navy was 
unable to fully fund the fiscal year 2002 budget requirement. There are 
significant shortfalls in our ability to accomplish the work agreed to 
in state and federal cleanup agreements and, at our current funding 
levels, turnover of some bases will be delayed by 8 to 10 years. In 
addition, the Navy will miss the opportunity of good business decisions 
to transfer significant parcels of land to local communities through 
Early Transfer Authority.

    Senator Warner. Our chairman asked I think very penetrating 
questions about the Vieques situation and indeed he and I 
collaborated on deciding when we would address that issue. I 
think we jointly decided we would wait until this hearing today 
rather than take the initiative as did the House of 
Representatives in a special hearing.
    You are advocating coming up with language canceling the 
referendum. That was the position taken by the previous 
administration, endorsed by Congress, enacted into law with 
Congress and the President's signature.
    Chairman Levin. Not the cancellation.
    Senator Warner. No, no, but the referendum was a part of a 
thought-out process of Congress and the executive branch.
    My question to you is very simple: What do we get in return 
if we cancel that referendum? It is something that is being 
demanded by the present governor of Puerto Rico, but it was 
agreed to by her immediate predecessor. The United States is 
caught in the switches politically between one governor, who 
worked with our President and Congress to get a framework 
solution, and the next governor comes right along and 
absolutely abdicates any responsibility with regard to the law 
of the land.
    So what do we get in return?
    Secretary England. Sir, I think what we get in return--
first of all, there are no ``good alternatives'' here. This is 
a contentious issue. The situation that we have today is the 
one we have to deal with.
    What we get in return is we do not allow other people to 
vote on the policies affecting our naval services. In my 
judgment and I think in the judgment of other people, it is 
very bad policy to have someone vote on issues that affect our 
sailors and marines. I think that is a very bad message to send 
around the world and around the country.
    Senator Warner. I think you have made that point clear. But 
let me ask you the following: Have we any assurance from this 
governor for the balance of the life, which goes to 2003--and 
that remains part of the legislation, does it not?
    Secretary England. Yes, it does.
    Senator Warner.--that she will work to help enforce such 
security as is needed to enable us to carry forward the use of 
that range during that period of time? Because, frankly, before 
this Senator accedes to a change in the legislation I want to 
know what we are getting in return. Is this governor going to 
work with us to have the security so that the range can be 
utilized to balance, or are we going to stop that?
    Secretary England. It is my understanding, Senator, that 
the governor will indeed uphold the law. The last time we were 
in Vieques we did have much better security at the site, much 
better than we had previous times. That occurred after the 
announcement we were going to leave, so I viewed that as a 
positive sign. I was hopeful that would occur. It did occur. 
While we had some disruptions the last time, it was 
significantly less than we had the prior time.
    My expectation is that we will probably continue to have 
some disruption, but hopefully at a lower level. It is 
important that we stay, however, until May of 2003.
    Senator Warner. I agree with that.
    Secretary England. Because we do need the time to develop 
an alternative. As you recall, my rationale was the worst 
possible situation was to have to leave early for whatever 
circumstances.
    Senator Warner. I have to move on. We are in agreement on 
that, but I am going to press to figure out what we get in 
return if we are canceling this referendum, because I am not 
ready to concede that we would have lost that referendum. We 
put $40 million out there to work with the people of that small 
area of Vieques and I am not so sure that we could not prevail. 
But it looks as if that option may well be removed in the 
future by Congress.
    But I want to finish up with the following question. This 
committee will--and I will be working with our chairman and may 
well during the course of this year be revisiting Goldwater-
Nichols. For those that are watching this hearing, that was 
framework legislation adopted by our committee many years ago 
that kept in balance what I view as the responsibilities of the 
uniformed military and the responsibility of the civilian 
secretaries of the services and of defense in the management of 
the Department.
    Now, clearly from the earliest times in our Republic it has 
been civilian control over the military and it should always be 
that way. But we want to assure that the uniformed services 
have the opportunity to make known their views, to have those 
views carefully considered as you evolve through the decisions 
that are being made.
    Quite frankly, I am going to ask you, in the context of the 
current QDR--and a lot of communications come to this committee 
from the Department. I have the highest respect for Don 
Rumsfeld. He and I have had parallel careers for many, many 
years. We go way back. I think that he has put together, along 
with the President, one of the finest teams I have ever seen of 
civilian managers, and three of the great ones are here before 
this committee today.
    But at the same time, in this QDR process, I am going to 
ask each chief, do you feel that your views are, first, given 
an adequate opportunity to be expressed and, second, are being 
taken into consideration, because this QDR process will be a 
foundation block for the 2003 budget which could represent a 
significant change of direction in the management and the 
future of our Armed Forces?
    General Ryan.
    General Ryan. Yes, sir, I believe that our inputs were 
taken and we had the opportunity in developing the terms of 
reference for the QDR and our participation is substantial in 
the review process we are going through now.
    Senator Warner. General Jones.
    General Jones. I concur with General Ryan. I do think that 
it would be a worthwhile discussion to have to examine the 
Goldwater-Nichols from the standpoint of other unintended 
consequences as a result of the legislation. But in the context 
of the QDR, I have absolutely been consulted and participated 
fully.
    Senator Warner. Admiral Clark.
    Admiral Clark. Senator, we have been consulted, I have been 
consulted, we collectively, extensively. We are spending hours 
and hours on the QDR process. The end product will determine 
the extent to which we have affected the process.
    I would like to align myself with the comments of General 
Jones regarding Goldwater-Nichols and follow-on discussions 
that you might have. I am convinced there are areas that need 
to be pursued.
    Senator Warner. General Shinseki.
    General Shinseki. Likewise, I think it would be a good 
opportunity to relook Goldwater-Nichols. With regard to the QDR 
strategy, for the last 6 to 7 weeks I think all the members at 
this table have been involved, really sometimes several times a 
day, in discussions about that strategy. The output of that was 
the terms of reference for the QDR, which is currently under 
way, and our ability to bring, at least in the case of the 
Army, about the important contributions of land power, 
discussions about the relevance of warfighting and what 
principles apply, and discussions about risk and how we see 
risk and think about it, not as an academic exercise, but for 
us operationally it is about mission success and the ability to 
execute those missions without exorbitant cost.
    Senator Warner. I thank the witnesses.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman.
    I want to thank all of you for being here today and for the 
opportunity to receive your reports and respond to them. In my 
limited time with the Armed Services Committee thus far, I have 
come to believe that the United States military has legitimate 
and pressing needs that include, among other things, better 
pay, housing, health care, and training areas. I have also come 
to believe that the Pentagon's accounting system does not work 
very well. Some might suggest it is broken. As Senator Byrd has 
indicated on more than one occasion, a simple audit cannot be 
done to explain where the money is being spent.
    What I would like to know is, if we are spending more 
money, that it is going towards the things that we need most, 
our highest priorities. So I look forward to the findings of 
Secretary Rumsfeld's strategic review and learning what broad 
missions the Secretary believes the military should prepare for 
if it is not going to be a two-war concept, a two-war strategy.
    I am also anxious to learn what steps are being taken in 
the development of a missile defense system which could cost a 
considerable amount of money by anybody's terms, money that can 
be spent certainly on domestic and international terrorism as 
well as fully funding already existing defense programs.
    So my question for the chiefs today is, as we are looking 
at phasing out a two-war requirement as a strategy, what do we 
do to replace that with? If the two-war strategy is no longer 
needed, no longer fundable, what do we replace that with? What 
will the strategy be for the branches in the years ahead?
    General Ryan, we will start with you and perhaps we could 
go down to the other chiefs.
    General Ryan. Yes, sir. Part of our Quadrennial Defense 
Review is addressing that very question. It is not so much a 
two-war strategy as it is a force structuring mechanism to 
determine the depth of forces you need across all of the 
services. So we are struggling with that issue right now.
    What we did in the previous QDR was to take the two major 
regional contingencies or two major theater wars and use that 
as a force sizing mechanism for the amount of capability that 
you need, the depth, and then assumed that all of the other 
activities that we do are lesser included cases of those two.
    This particular strategic review and QDR, we are not using 
that as the construct. We are using a different look at being 
able to continue to do in critical areas of the world, our 
ability to halt aggression and also fight major regional 
contingencies at the same time, a major regional contingency, 
at the same time doing humanitarian operations, etcetera. So it 
is a completely different look at how we force structure.
    We are not through with that work yet, but that is the 
direction in which it is headed.
    Senator Ben Nelson. But if the two-war strategy or two-
theater strategy is the base now from which all other force 
structure questions might arise and that is being phased out, 
then is there something that takes its place? Or is it just 
that it might be some strategy for protection, some for 
defense, some for offense? Do we have anything that comes back, 
or is that what we will find out when we get the review?
    General Ryan. Well, we have set in general the terms of the 
force construct. That is, to be able to protect the capability 
to win in a major theater, one major theater war, while in 
other vital areas being able to repel attacks, while at the 
same time doing a series of smaller or lesser scale 
contingencies.
    That replaces the two. Then what you do is you go through 
the exercise, which we are in the middle of now, of putting 
forces against doing that all at the same time, and that 
becomes the substitute for the two major regional 
contingencies. It is not a strategy. It is a force sizing 
mechanism.
    Senator Ben Nelson. General Jones.
    General Jones. Senator, this is an extraordinarily complex 
issue and it is one that is uniquely faced by our Nation 
because we have global responsibilities that, frankly, no one 
else does at this point. Warfighting is obviously the most 
pressing requirement to be able to make sure that you have 
sufficiency in your force structure and capabilities and the 
right systems and the right programs to guarantee that, as 
people have said, it will not be a fair fight, that we will win 
overwhelmingly and convincingly.
    Coupled with all of this in the process is the ability to 
examine the sufficiency that is required to do all the other 
things that we do in executing our unique role as leaders: 
engaging with other militaries, providing the bases for 
peaceful economic cooperation in various parts of the world, 
teaching by the fabulous example of our armed people in uniform 
in our employed forces, land-based, sea-based, whatever, that 
subordination of the military to civilian authority is a good 
thing and how you do that.
    We attract other militaries to sit around conference tables 
with us who want to try to be like us or want to have an 
association with us on a permanent and long-term basis. That 
takes a certain amount of robustness that is calculated into 
the force structure or force sizing mechanism where we have to 
respond to real threats or be able to.
    Then there is the problem of trying to figure out what you 
do in the near term, which is obviously more pressing, versus 
the difficult-to-define far term. You can use the case of 
Desert Shield-Desert Storm as a force that was built and put 
together when the Soviet Union was dominant and we were 
building a force to react to the Soviet threat, and we wound up 
using it for something dramatically different.
    So this is all rolled into the QDR. We are working our way 
through that to whether it is one major theater war or one plus 
several lesser contingencies or two. The force structure 
implications do not necessarily mean less forces. These are 
tough issues and you have to go beyond the warfighting to talk 
about what the force will look like on a day to day basis 
because of how we use it. You need sufficiency, you need 
rotational forces that routinely deploy, have to be refreshed. 
So it is a big issue.
    Admiral Clark. Senator, in the past, frankly, one of the 
problems with the two MTW strategy was that the force structure 
that fit that did not fit the world we were living in. We had 
these forces that we tagged as low density, high demand, and 
that is because we were engaged in a lot of areas where there 
was not a major theater war going on, but we had forces 
committed for peacekeeping, for any kind of activity. The fact 
is that once the force is committed the commander has to know 
what is going on, he has to collect intelligence, and these are 
the kind of resources that did not match.
    For the Navy, I see this unfolding and what we have to do 
as a Nation is answer the question, what do you want us, the 
Navy, to do? The answer in QDR 1997 was clearly that in the 
post-Cold War era we had moved a significant portion of our 
force back to the continental United States instead of being 
based overseas and the whole posture was set up so that 
Presidents in the past asked the question, where are the 
carriers? Do you want the carrier battle group and this kind of 
capability to be there in a month or do you want it to be there 
in 72 hours? The answer was in 72 hours, and our force 
structure has been sized in order to give the President those 
kind of options.
    So General Ryan has laid this out. Clearly, this posture 
will be able to deal with additional contingency, smaller scale 
things, and be postured and the force structure put together 
correctly to be able to do that, instead of believing that two 
MTW's gives you the ability to do any and all lesser included 
offenses.
    I believe that the challenge for us then is to size how 
many of those we are talking about, and that work is going on, 
and what is reasonable and whatever the opportunity costs, and 
we are working toward that.
    Senator Ben Nelson. Thank you.
    General Shinseki. Senator, a key element of the current QDR 
that does not get enough attention is an assumption that says 
plan on strategic surprise. I think that is a key point here, 
that if you try to get it perfect you are probably going to be 
wrong, and if you are confident that your perfection in 
prediction is exactly right you could be wrong by a wide 
margin.
    I think for all of us, as we have participated in this 
exercise, it is to accept that assumption and then to lay out 
the requirements for as much flexibility as we can provide in 
the formations we can afford, so that we can accommodate that 
kind of reality, a strategic surprise.
    For an Army that is likely to go to war in the foreseeable 
portion of this century, we would like to go to war with the 
best and the biggest Air Force we can afford. We would like to 
go to war with the best and the biggest Navy we can afford. We 
certainly want to bring to this joint equation here of Navy, 
Marine Corps, and Air Force the best Army that we can afford. 
That is part of our deliberations.
    Our contributions have been about warfighting and about why 
decisive warfighting is a key element of discussion and why 
risk and the way we treat risk operationally is important. I 
think we have been able to bring those contributions to the 
debate.
    Our Army today is the best Army in the world, but we have 
to do something about it. I think all the chiefs have laid out 
programs to describe their particular perspectives, but we are 
the ninth largest army in the world. We do not have to be 
necessarily any bigger, but we better be the best on the day we 
have to go, because seven of the eight ahead of us are 
potential adversaries.
    Senator Ben Nelson. Thank you.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all let me echo, everything good and glittering 
that was stated about General Ryan. I would like to have it all 
attributed to me, but I do not want to take the time right now 
to do it if that is all right, General Ryan.
    General Ryan. Thank you, sir.
    Senator Inhofe. I was very disturbed, Secretary England, by 
your answer to my last round of questioning. The statement that 
was attributed to Don Rumsfeld by General Jones, which was that 
we should only replace things when we have something better to 
replace them with, I asked if that should include training 
ranges. As I understand it you said that should apply to 
weapons, but not to ranges. Is that accurate?
    Secretary England. No, sir. I believe you said does that 
apply to Vieques and I said no, it did not.
    Senator Inhofe. Does it apply to ranges?
    Secretary England. Pardon me, sir. I thought you said does 
it apply to Vieques, and I said no to that question because the 
issue in my mind is not Vieques. The issue is one of adequate 
training and it is not necessary, at least in my mind, that we 
have Vieques. The issue and the question is what is the best 
way to train our men and women. So it is a broader question.
    Senator Inhofe. I do want to use up all my time on your 
answer here. It was not an accurate interpretation of your 
response that this should not, does not apply to training 
ranges, just to weapons systems? That is not what you said?
    Secretary England. No, sir. Again, I do not want this to be 
just a Vieques issue. This needs to be an issue of training and 
not just specifically Vieques. So it definitely applies to 
training. Training is as important as our weapons systems. I 
certainly recognize that, and that is the whole objective in my 
approach, is to make sure we will have adequate training in the 
future. So that is the whole approach, is to make sure we have 
the same objective. We come at it from a different way, 
Senator.
    Senator Inhofe. Well, I would suggest that we have five 
dead American soldiers today as a result of not being able to 
use the Vieques range for integrated training. It happened on 
March 12 in the Udari Range in Kuwait. Do you have any concern 
about that?
    Secretary England. Sir, for my understanding that is not 
the case. Those personnel did train at Vieques.
    Senator Inhofe. But not live fire training. It was inert.
    Secretary England. That is correct, sir. But they did do 
their training at Vieques. My understanding is that the 
findings of that do not relate that to Vieques. So I would not 
agree with that finding, sir.
    Senator Inhofe. Let me read from the report of that 
accident that took place on March 12 of this year: 
``Discrepancies were noted in the deployment certification 
message''--and this would have been 5 months before--with 
regard to amphibious warfare CAS--that is close air support; it 
is a submission of amphibious warfare. ``Some of those comments 
regarded the lack of live fire training that was available 
during the strike missions.''
    Later on it says: ``The commander and the deputy commander 
stated that they actively sought close air support 
opportunities whenever possible, but the limiting factor was 
range availability.`` They were talking about Vieques.
    Secretary England. I do not believe, however, sir, there is 
a relationship between those comments and the specific accident 
that occurred.
    Senator Inhofe. That is on the accident report of March 12.
    Secretary England. Yes sir, but it does not relate directly 
to the situation that occurred.
    Senator, I indicated I would be happy to come discuss this 
subject with you. I am happy to do that, sir. I do believe 
there is a chain of logic here that is logical and reasonable 
and in the best interests of our naval services. Otherwise I 
would not take this position. The last thing I want to do is 
put our men and women in harm's way. Certainly there is no way 
that I would ever endorse doing that without adequate training.
    The issue here again is to make absolutely certain for some 
period of time until we can find an alternative that we do have 
Vieques available to us. That is the risk that in my view has 
to be addressed. I believe that is a substantial risk that we 
face, and that is not being able to use Vieques in the near 
term, and we do need it for a limited period of time. So this 
approach is to buy us time to get an alternative. I am 
convinced this is the best----
    Senator Inhofe. I understand that, Secretary England. But 
you are using my entire 6 minutes on this one justification and 
I do not agree with it. I believe that live fire training is 
very, very valuable and it trains much better than inert. I 
think this report clearly states that they had sought live fire 
training and were not able to get live fire training.
    Let me ask Admiral Clark and General Jones--there are no 
two more brilliant military minds in America today, 
particularly in this rather confined subject. Do you consider 
the live fire aspect of training to give a better, more 
qualified job or qualified training than using inert?
    Admiral Clark. I believe that a principle we pursue 
constantly is train the way we intend to fight, and the more 
real you can make it the better.
    Senator Inhofe. Thank you.
    General Ryan--General Jones.
    General Jones. I agree with that.
    Senator Inhofe. I was very disturbed. This is the first 
time I heard, during the course of this meeting, Secretary 
England, that you are now talking about putting together 
another group and they are going to go out and look again. We 
have already had the Pace-Fallon report, which studied all 
sites known at that time as alternative sites for unified 
training. We had the Rush report which had retired admirals and 
a retired general doing the same thing. Both reports came back 
and said there is no alternative that can be found out there 
for this quality.
    But now we are talking about lowering the standards, Mr. 
Chairman, lowering the standards of this training so that it is 
no longer unified training. I can remember being out on the 
U.S.S. Kennedy and the U.S.S. Eisenhower before their East 
Coast deployments to the Persian Gulf, and it happened by 
coincidence even though it was both in a confined period of 
time, that the F-18 pilots told me in a gathering out there on 
those aircraft carriers, they said--they used the football 
analogy, and you have heard me state it several times privately 
and in these meetings, that you can have the very best people 
out there and you can have the very best football players, you 
can have the very best quarterbacks, the very best halfbacks. 
You let me group train over here and let another group train 
over here and you have your quarterbacks over here, never 
scrimmaging together, and the day of the big game comes and 
they lose.
    It is the unified training. Now I understand you are saying 
that you are going to consider a combination of other sites and 
get away from that unified training.
    Before you answer that, let me ask the two experts here. In 
the unified aspect of this training, primarily three functions 
take place. You have a marine expeditionary landing, you have 
live Navy fire, and you have the F-14s and the F-18s up 
dropping live ammunition. Is it not accurate for me to come to 
the conclusion that the unified training is much more valuable 
and does a better job of training than having them do it in all 
different areas, such as is now being suggested?
    Admiral Clark. Whether it is your conclusion or anybody 
else, the reality is that the integration of multiple 
disciplines is the graduate level exercise and is what our 
advantage has been, and that is the kind of training that we 
like to bring people to. All of our certifications seek to 
maximize that kind of training before we deploy them.
    Senator Inhofe. General Jones.
    General Jones. I agree with the CNO. I would just go on to 
say that I hope that in our search for an alternative solution 
that we will continue to hold to that standard; that is 
obviously the best thing to be able to do for us, and 
everything else is not as good.
    Senator Inhofe. Let me just address this third thing, with 
the indulgence of the chair. I think it is important. Secretary 
England, I agree with you that it is very bad policy to have a 
referendum. But if you had the choice of having a referendum of 
self-determination or having a bunch of law-breaking, 
trespassing political activists kick us off of the land that we 
own, which is the worse policy?
    Secretary England. I do not believe that is the choice, 
Senator, and I would like to first address your first issue 
that you brought up, because the Pace-Fallon report and the 
Rush report indeed concluded that there was no direct 
replacement for Vieques, one for one replacement. Those reports 
were the basis of a further study that was conducted by the 
Center of Naval Analysis and they concluded that, while there 
was not a direct replacement for Vieques, there was a 
replacement in terms of a combination of bases that would give 
an equivalent level of training. They recognized that we had to 
do some changes to some of the bases, but they were existing 
bases.
    So in my judgment there was a foundation to go forward. 
This decision was not made without any consideration of 
potential alternatives. So there is a foundation, and they will 
now use the prior studies that they have done to go forward and 
look for, to build upon those studies to see if we cannot 
develop those alternatives previously identified.
    So I believe that, while there were earlier reports, there 
are also later reports that built upon those, that indicate 
there are opportunities for alternatives.
    Senator Inhofe. One last thing. I do not like the idea of 
the referendum, but we can win the referendum. This notion that 
is coming out of the White House that we cannot do it, or 
wherever this came from--I am not sure where this came from, 
Mr. Secretary. You and I have had many private conversations. 
We will have more, and I do not want this to be a personal 
thing because I certainly have the highest regard for you and 
your abilities. I think you are doing a great job in here.
    Frankly, I think you were put in a terrible, awkward 
situation. I do not envy you at all. But as far as the 
referendum is concerned, there is a difference here. We are 
talking about Vieques, which is a municipality of the big 
island of Puerto Rico. There are 9,300 people on there, of 
which there are 6,400 voters on that island.
    Those people do not like, as a general rule, the 
politicians and the people who are coming over and protesting 
on their land from Puerto Rico. We had an election with three 
different parties running for election, all of them seeing who 
could be the meanest to the Navy in order to get elected 
governor, and the one won who was.
    Now we have a situation. I have in my office petitions 
signed by 2700 registered voters with their social security 
numbers, their addresses, their telephone numbers, people who 
live on Vieques, not only supporting the Navy, but wanting to 
secede from Puerto Rico. Now, with that base we can win the 
referendum and then just hope we never have another referendum 
again.
    Secretary England. If we have one, I hope you are right, 
Senator. On the other hand, there are over 2,000 people on that 
island who are suing the Navy.
    Senator Inhofe. Well, wait a minute now. Let us talk about 
trial lawyers going around getting people to sign things 
saying, if we are able to get a large judgment here would you 
like to participate in the judgment? That is essentially who 
those 2,000 people are, and you know it and I know it.
    Secretary England. Well, it is not clear to me that you 
will win this election. If you look at all the past results, 
the indicators are we will not, and if we do not it is a 
significant embarrassment.
    Senator Inhofe. I think we have covered that enough. I 
would just ask for your full support in helping to win the 
referendum.
    Secretary England. If we have a referendum, we will 
definitely try to win that referendum. I have made that 
commitment to you before, sir.
    Senator Inhofe. Thank you very much.
    Secretary England. I repeat that commitment.
    Senator Inhofe. Thank you.
    Senator Warner. If I might indulge a minute----
    Chairman Levin. It might be useful to see if any of the 
names might be on both lists. [Laughter.]
    Senator Warner. I would like to say that in the past few 
days--I mentioned I had been working in my State. I have 
visited two ranges in Virginia where there is live firing of 
artillery and tanks. One of them is at Quantico not more than 
25 miles from where we are sitting right here. Am I not 
correct, General Jones?
    General Jones. Absolutely, yes, sir.
    Senator Warner. The other, General Shinseki, is right down 
there in Blackstone, Virginia, which is the biggest training 
center on the East Coast, really.
    Senator Inhofe. I trained on that range.
    Senator Warner. So we have that going home, and nobody 
around here is going to have a referendum down in Virginia as 
long as I am Senator.
    Chairman Levin. I have a couple more questions on Vieques. 
I think we appropriated $40 million that the Navy was to use 
for economic development down there and a very small amount of 
that has been used so far. Assuming the referendum goes 
forward, do you plan on spending all of that money?
    Secretary England. Senator, I do not know if we will spend 
all of it, but what we have done so far is spend $3 million for 
other agencies for health and environmental type issues. We 
have $5 million obligated for small business development and 
for apprenticeship programs, and on Thursday I will review the 
detailed schedule of all the activities, the activities with a 
spend plan, to make sure we are spending the money wisely.
    It does include, for example, reimbursement for fishermen 
who cannot fish on the days that we use the range, etcetera. 
There are a wide range of activities on the island. People are 
working diligently to schedule those activities in terms of 
both time and money. I will have that available on Thursday and 
then I am pleased to make that available to this committee. So 
we are working that very hard, sir.
    Chairman Levin. Assuming the referendum goes forward or 
otherwise, you do plan on spending most of that money; is that 
correct?
    Secretary England. Sir, I would expect that would be the 
case. I do not know if in the time between now and November we 
can spend it all wisely, but we will definitely have a plan to 
spend it.
    Chairman Levin. Well, let us know, if you would, within a 
week just exactly what your plans are.
    Secretary England. Yes, I will.
    [The information referred to follows:]

    Of the $40 million authorized and appropriated, $3 million has 
already been transferred to other Federal agencies ($1.6 million to 
Department of Health and Human Services; and $1.4 million to Department 
of Interior) for health studies and land management. Of the remaining 
$37 million, the Navy has released $5 million for apprenticeship 
training and economic development. We are still considering how to 
spend the rest of the money, but the focus will be on improving health 
care, economic development, and educational assistance.

    Chairman Levin. There was a provision in this referendum 
requirement that if the CNO and the Commandant jointly submit a 
certification that the range is no longer needed for training, 
then the requirement for a referendum shall cease to be 
effective on the date on which the certification is submitted.
    Are you prepared, either of you, to sign that certification 
at this time?
    Secretary England. I hope not.
    Admiral Clark. No, I am not.
    Chairman Levin. That was addressed to them.
    Secretary England. I am sorry, sir.
    Admiral Clark. No, I am not, and I testified on a prior 
occasion that when the subject came up--and you asked if I was 
consulted--I raised this issue during the consultations, that 
for the referendum to be set aside, lacking some other action, 
the Commandant and I would have to so certify and that I could 
not do so, and it was said--the comment to me was that they 
would not ask me to do so.
    Chairman Levin. General?
    General Jones. The same answer, sir.
    Chairman Levin. Now, the question then arises about 2003. 
Are either you, Admiral Clark, or you, General Jones, prepared 
to tell us that there will be a satisfactory alternative that 
meets the standards that you have set out by the end of 2003? 
Can you tell us that today, that that will occur?
    Admiral Clark. In answering your question, Mr. Chairman, I 
would say we have to define ``satisfactory.'' I am given 
guidance about the level I am supposed to deploy the battle 
groups and the amphibious ready groups, and it is a Charlie 2 
rating. The CNA study is based upon the plan that Admiral Bill 
Fallon put together when he was the Second Fleet commander to 
pull various pieces together, and we did in fact do that during 
the time that we were not conducting training on Vieques.
    That gets us to a low C-2 level. So if you define 
''satisfactory`` as low C-2, well, then I would tell you that 
we can do that today. If you ask me if that is where I think I 
ought to have our forces when we deploy, I would tell you, no, 
of course, I want them to be in the highest state of readiness 
they can be. I do not know where that place is today.
    Recall, when you asked me to----
    Chairman Levin. You do not know whether that will be 
achievable by 2003?
    Admiral Clark. I do not know how to do that today, and that 
has to be discovered. If you recall our discussion----
    Chairman Levin. Are you able to tell us--excuse me, 
Admiral, for interrupting--that will be discovered by the year 
2003?
    Admiral Clark. No, I cannot.
    Chairman Levin. General Jones, can you tell us that that 
level of training will be discovered, that alternative 
discovered, by the year 2003? Can you tell us that today?
    General Jones. I cannot.
    Chairman Levin. Secretary England, how can you then tell us 
that it will be discovered by the year 2003 if your experts 
here cannot tell us that.
    Secretary England. Again, sir, I have to go back and rely 
on the earlier CNA studies that indicated there were 
alternatives, a combination of bases that would include live 
fire testing, so that it would give us an equivalent level. 
That with hopefully additional technology, that we will be able 
to do it.
    It does buy us a considerable period of time. I mean, 2003 
is a reasonable time in which to look at alternatives and 
develop it. So we do have to rely on the fact that we are going 
to put the best people together on this problem, look at the 
best set of alternatives, look at technology, and come out with 
the best answer.
    Chairman Levin. Base it on a hope, in your words, on a 
hope.
    Secretary England. Well, I believe that is a better 
opportunity for us----
    Chairman Levin. I understand, but----
    Secretary England. --than the other side.
    Chairman Levin. --it is still a hope.
    Secretary England. Well, it is an expectation, sir. It is 
based on facts and information.
    Chairman Levin. I guess the last question on Vieques I have 
has to do with the governor. Have you received the governor's 
assurance that, assuming your proposal that you are going to 
make in the next few days passes, she will use her best efforts 
to provide non-disrupted training through the year 2003? Have 
you received that assurance from the current governor?
    Secretary England. Senator, I believe the only thing she 
can do is enforce the law. So she can provide security for our 
facilities. She obviously just cannot keep people from showing 
up on the island, but she can provide security for the forces. 
My belief is she will do that, but I will confirm that with 
her, sir.
    Chairman Levin. I am not asking about your belief, though. 
I am asking about whether or not she has given you assurances 
that she will use her best efforts to provide undisrupted 
training through 2003.
    Secretary England. The governor has told me that she will 
indeed uphold the law.
    Chairman Levin. Do you understand that to mean she would 
use her best efforts to provide--is that what you understand 
that to mean? I do not want to use some words that are not----
    Secretary England. I am trying also to understand, sir. I 
am trying to make this clear. I think what she would do is 
provide security, so she will uphold the law in terms of trying 
to keep trespassers off the Navy property during the times of 
our testing.
    Chairman Levin. Would she withdraw the lawsuit?
    Secretary England. I do not know, sir.
    Chairman Levin. Have we asked?
    Secretary England. No, sir, we have not.
    Chairman Levin. Are you going to?
    Secretary England. I have had preliminary discussions with 
the governor. They were, I would say, very preliminary, get 
acquainted, basically understand each other's position. We have 
not gone beyond that, sir.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Well, Mr. Chairman, those were very good 
questions and it goes to the heart of the one that I earlier 
asked: What do we get in return?
    I assure you, Mr. Secretary, this committee, if this 
language comes up, we will all be back in this room and we are 
going to go over these questions and they will be tougher. I 
for one am going to petition the chair to bring that governor 
up here, because I do not think I want you to answer this 
question, but I know the answer. If she indicates to you that 
she will uphold the law, has she done that in the period of 
time between her election and now? I do not think so.
    Secretary England. Well, she did the last time, sir. My 
impression is the last time she did indeed put considerable 
forces in Vieques to uphold the law. So my understanding is 
that she did do that during the last training session.
    Senator Warner. Well, I would ask you to go back and talk 
with your commanders, because I have information that the 
United States military departments are spending a great deal of 
money in security down there and all types of things. That 
money is being diverted from readiness and other desperate 
needs in your department that are going down there to enforce 
the law of the United States of America, which Puerto Rico 
accedes to.
    Secretary England. We definitely augment what she does, 
sir. There is no question about that.
    Senator Warner. Just an observation, Mr. Chairman and 
members of the committee. My analysis of the R&D programs 
across the board for the military departments--correct me if I 
am wrong, but in the past the Pentagon-sponsored R&D programs 
certainly made our country the world's undisputed superpower. 
The fiscal year 2002 research and development account actually 
decreases when compared to the 2001 appropriated amount.
    Now, time has run out here this morning, but I would have 
you supply the answer to the record as to what your opinion is 
with regard to R&D. R&D is the thing that keeps us on the 
cutting edge.
    [The information referred to follows:]
                   Research and Development Accounts
                             army response
    The Army expects significant science and technology advances that 
will enhance our Objective Force capabilities, and we have focused 
investments in these areas. The Fiscal Year 2002 President's Budget 
submission has less funding for science and technology than what was 
appropriated in fiscal year 2001. However, a comparison of the Fiscal 
Year 2002 President's Budget submission show a 22 percent increase in 
real growth. The Fiscal Year 2002 President's Budget submission 
requests $1,579 million for advanced technology research and 
development, which is an increase of $285 million over the $1,294 
million requested in fiscal year 2001. The Army's commitment to 
maintaining this investment in research and development is critical for 
our successful transformation to the Objective Force.
                             navy response
    The fiscal year 2002 budget provides a very robust RDT&E program, 
and satisfies our highest priority research and development needs. As 
compared to the fiscal year 2002 estimates in the Fiscal Year 2001 
President's Budget Future Year's Defense Plan, the Navy's RDT&E has 
increased by more than $1.9 billion. The increase provides additional 
funding for a number of programs, including DD-21, CVN(X), Virginia 
class submarine, SH-60R, Anti-Terrorism/Force Protection, and Science 
and Technology efforts.
                           air force response
    The Air Force Readiness portion of the overall R&D budget changes 
from $8.6 billion in fiscal year 2001 to $8.5 billion in fiscal year 
2002, a net reduction of $0.1 billion.
    This $0.1 billion reduction is primarily attributed to a 
combination of one-time congressional actions in fiscal year 2001 ($+.5 
billion), and various fiscal year 2002 programmatic changes, the most 
significant being the transfer of the Space Based Laser, Airborne 
Laser, and Space Based Infrared System (SBIRS) Low programs to the 
Ballistic Missile Defense Organization (BMDO) ($-.6 billion).

    Senator Warner. Lastly, we have not said much this morning 
about our CINC structure. For those watching this hearing, we 
have worldwide the commanders who rely on you to prepare the 
forces by way of equipment, readiness, and the training such 
that they can use those forces as a deterrent and then, if 
necessary, actual combatants.
    Now, it is interesting. The quarterly readiness reports to 
Congress identify a number, around 90, of CINC-identified 
readiness-related deficiencies. About 30 of these deficiencies 
are listed as category 1 deficiencies, which entails 
significant warfighting risk to the execution of our national 
military strategy. That is risk beginning on the battlefield to 
the individual soldier, sailor, airman, and marine, and then to 
the conclusion of the political decisionmakers to employ those 
forces.
    Most of the specific deficiencies have been reported for 
the past several years and have not as yet been effectively 
addressed. Does this budget provide the necessary resources to 
address these CINC-identified readiness deficiencies? Again, I 
will ask that for the record, given the time, Mr. Chairman.
    [The information referred to follows:]
                 CINC-Identified Readiness Deficiencies
                             army response
    The Fiscal Year 2002 President's Budget submission provides the 
resources necessary to address CINC-identified deficiencies at an 
acceptable level of risk. The Army will continue to use the Department 
of Defense's Joint Monthly Readiness Review process to provide the 
appropriate level of visibility to these programs. This review examines 
each program to make recommendations to senior level officials as the 
level of risk that can be accepted and still meet the requirements to 
execute our National Military Strategy.
                             navy response
    Three of the six CINC Class ``A'' readiness deficiencies that 
require Navy funding have been adequately funded in the fiscal year 
2002 budget. However, while additional resources wee applied in the 
fiscal year 2002 budget for preferred munitions, engine maintenance 
backlogs, and aviation spares, these deficiencies were not funded at 
levels necessary to eliminate the identified shortfalls.
                           air force response
    The CINC-identified deficiencies are addressed at an acceptable 
level of risk in the Amended Fiscal Year 2002 President's Budget. Air 
Force components of each Unified Command are constantly assessing 
requirements to insure we are aware of CINC's warfighting priorities.

    Chairman Levin. Thank you, Senator Warner.
    I want to thank all of our witnesses this morning. It has 
been a long hearing. There are a number of things that have 
been requested for the record already. Senator Warner also 
raised the question of Goldwater-Nichols. With his agreement on 
this since he raised it, I think it would be useful that we ask 
them for what suggested changes they might make. We made 
reference to a number of them, and that they supply those for 
the record.
    There was a question that I thought you raised very 
appropriately and, since a number of our witnesses said that 
there were a number of other areas in Goldwater-Nichols that 
they would make some suggested changes to, that we ask them for 
the record to submit those changes. So we would ask each of you 
to do that within a week or so.
    [The information referred to follows:]

                             Army Response
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Note: All the changes relating to Internal Department of 
the Army would have to be replicated by parallel changes in the 
provisions of Title 10 relating to the headquarters of the 
other military departments. One of the purposes of Act was to 
align the Military Departments in this regard, and it is 
unlikely that Congress would make changes in the Department of 
the Army without making the same changes in the other Military 
Departments.
      
                             Navy Response
    The Goldwater-Nichols Act has significantly benefited the 
Department in numerous ways, including clearly setting forth the 
responsibilities of the Secretary. I do not presently have any 
recommendations to change this defense legislation. However, a part of 
our effort to improve and transform the Department, the Chief of Naval 
Operations, the Commandant of the Marine Corps, and I will also be 
examining the impact of the Goldwater-Nichols Act to see whether any 
future improvements would be beneficial. The Department would also 
welcome the opportunity to participate in any effort by the committee 
to review the Act.

                         Marine Corps Response
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                           Air Force Response
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Levin. Also, the shortfall list, if you could do 
that within a week or so. Senator Warner and others have made 
other requests for items for the record. We will keep the 
record open 24 hours for additional requests.
    We want to thank all of our witnesses. Again, General Ryan, 
if this turns out to be--I will not add any word there after 
that, either ``thankfully'' or ``regrettably''--the last 
hearing of ours that you attend, we all again want to just give 
you one big thank you for a career and a lifetime of service.
    Senator Warner. Your family, too.
    General Ryan. Thank you, sir. It is an honor to serve.
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
    1. Senator Levin. Admiral Clark, the Fiscal Year 2000 and 2001 
Defense Authorizations required the services, commencing on 1 October 
2000, to track the ``deployment'' of service members on an individual 
basis. It also required that members be paid a per diem allowance of 
$100 per day (effective 1 October 2001) if their cumulative days of 
deployment exceed 401 days out of the preceding 730 days.
    What has the Navy done to implement this program, what challenges 
or unintended consequences has the Navy encountered in the process and 
what possible measures do you suggest to address these challenges and/
or consequences?
    Admiral Clark. In direct compliance with the legislation, the Navy 
has inaugurated its Individual Personnel Tempo (ITEMPO) Program and is 
actively tracking the `deployments' of sailors on an individual basis. 
In keeping with the spirit and intent of the legislation, the Navy has 
and is continuing to pursue more equitable and efficient ways to 
utilize individual members' time away from home and to lessen the 
impact of attendant high deployment pay on Navy budgets while 
continuing to meet our broad spectrum of global commitments. Battle 
group/unit operational employment schedules for fiscal year 2002 and 
beyond, for example, are being structured to reflect more time in 
homeport between major deployments and underway periods. Communities 
with historically high operational tempo, such as the Seabees and 
Military Sealift Command, are undergoing fundamental review and 
restructuring to better comply with the intent of legislation. 
Similarly, the personnel assignment process has been revamped to more 
effectively identify and assign personnel to critical sea duty billets 
to preclude ITEMPO `busts'. Additionally, maintenance availability for 
major combatants and support vessels are being evaluated with an eye to 
better sequencing and locating these within homeports to minimize 
ITEMPO consequences. 
    At the same time we move to comply with the intent of the 
legislation, however, our efforts are exposing a range of unintended 
consequences which have significant potential to negatively impact our 
service members and our operational readiness. Operational schedule 
adjustments instituted to reduce overall deployed days will translate 
into some global naval forward presence and capability gaps in critical 
theatres. Similarly, desired adjustments to maintenance availabilities 
may create contractual conflicts and scheduling issues. While more 
restrictive personnel assignment policies threaten to reduce the 
overall distributable inventory and severely limit the options of our 
personnel vis-a-vis requisite career path requirements and family 
geographic and financial stability. In essence, it has become clear 
that the comprehensive consequences of ITEMPO implementation are not 
yet adequately understood.
    The Navy fully supports the underlying premise of ITEMPO 
legislation; however, with just 9 months of individual ITEMPO related 
data on file and with current Navy cost estimates indicating up to $160 
million per year in attendant ITEMPO costs, Navy believes it would be 
prudent to seek legislative relief which extends for 2 years the 
effective date of implementation of payments to allow more time to 
gather data and conduct detailed analysis. In so doing the full 
spectrum of unintended consequences could be better understood and 
requisite effective measures taken to mitigate them.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
    2. Senator Kennedy. Secretary England and Admiral Clark, the 
administration's draft plans for expanded intercontinental-range 
ballistic missile defense include looking to sea-based defenses. The 
Navy seems split over this matter, with some advocating a greater Navy 
role in missile defenses, other than the Navy Area Defense and Navy 
Theater Defense programs, and others who are concerned over the impact 
this new mission would have on the number of ships available to the 
fleet for conventional missions. 
    What are your views of the impact that using Navy ships for 
intercontinental-range ballistic missile defense testing or deployment 
would have on the availability of ships for existing missions?
    Secretary England and Admiral Clark. In February, the Secretary of 
Defense signed out a joint Ballistic Missile Defense Organization and 
Navy study on how the Navy could supplement the initial land based 
missile defense site. While this conceptual study indicated that 
layered defenses, including forward positioned sea-based interceptors 
and radars could provide operational benefits to an initial land-based 
defense system, no policy decisions were made to determine the size, 
deployment or employment of a Naval capability in defense of 
intercontinental ballistic missiles.
    Since the Navy still has not been assigned a Ballistic Missile 
Defense system role, it remains focused on the Area and Theater 
Ballistic Missile Defense (TBMD) mission development.
    The Navy's top priority in missile defense is to get Navy Area to 
sea onboard Aegis-equipped cruisers and destroyers in Fiscal Year 2004. 
Testing of the SPY radar and Aegis computer programs is ongoing at sea 
using the LINEBACKER ships (U.S.S. Port Royal and U.S.S. Lake Erie). In 
addition, extensive land based testing of the SM-2 Block IVA missile 
and vertical launch systems are ongoing at the White Sands Missile 
Range. Following the land and sea based testing this year, the Navy 
expects to conduct final system integration at sea during live missile 
firings in fiscal year 2003-2004.

    3. Senator Kennedy. General Jones, for months now, we have been 
asking ourselves what to do with the V-22 Osprey program. Since 
December of last year, the program has undergone a Mishap Investigation 
Report and JAG Manual Report for the December accident that claimed the 
lives of four marines; the Blue Ribbon Panel Review; and a DOD 
Inspector General investigation to determine if maintenance records 
have been falsified--according to the preliminary results of this 
investigation, it seems that they were.
    The administration requested 12 V-22s in its final Fiscal Year 2002 
Defense Budget. This number of V-22s is said to be the minimum 
sustainable rate of production for this aircraft. Yet, to my knowledge, 
procurement funding provided in fiscal year 2001 for 11 V-22s has not 
yet been released.
    There are many changes that have been recommended for the V-22 
program, including those needed to address design and manufacturing 
problems which resulted in the chaffing of wires and hydraulic lines in 
the nacelles, safety reporting problems where the program manager 
didn't know about flight problems that had been detected during 
operational test and evaluation, and the most disturbing to me--the 
lack of thorough testing of the NATOPS operations manual. As you may 
recall, in the December tragedy, this manual instructed that the pilots 
push the illuminated Primary Flight Control System reset button, but, 
when they did, the pressed button started an unanticipated, software-
related, chain of events that likely resulted in the deadly crash of a 
potentially air worthy aircraft. This emergency procedure was included 
in the NATOPS manual, but was never tested and verified in the V-22 
simulators.
    Will the V-22 program complete the further development and changes 
necessary to improve the program's safety and reliability record before 
procurement funding for the 12 fiscal year 2002 aircraft is released?
    If not, then these aircraft will have to go through the same 
modifications that will have to be performed on the 8 Ospreys already 
manufactured, and the 11 Ospreys from fiscal year 2001.
    Does the Navy or Marine Corps know how much these modifications 
will cost? Has the Navy or Marine Corps provided funds for these 
necessary modifications in the fiscal year 2002 budget or any future 
years budgets?
    General Jones. No. All developmental changes to improve the safety 
and reliability of the V-22 will not be completed before the release of 
fiscal year 2002 funding. However, the aircraft procured in fiscal year 
2002 will not be delivered until fiscal year 2004. This should allow 
time for changes to the aircraft production lines before this lot is 
produced. In any event, all required modifications to these aircraft 
will occur before delivery to the fleet. The V-22 program is 
continuously incorporating changes to improve the aircraft's safety and 
reliability performance. This process of identifying improvements and 
incorporating changes has been ongoing and will continue throughout the 
life of the program.
    We will not know the total cost of the modifications until we have 
ascertained exactly what they are. However, the fiscal year 2001 and 
fiscal year 2002 budgets (as well as outyear planning) reflect funding 
to design, develop, test and install corrective actions in the aircraft 
already delivered as well as those planned to be procured.

    4. Senator Kennedy. Secretary England, will the V-22 program 
complete the further development and changes necessary to improve the 
program's safety and reliability record before procurement funding for 
the 12 fiscal year 2002 aircraft is released?
    If not, then these aircraft will have to go through the same 
modifications that will have to be performed on the 8 Ospreys already 
manufactured, and the 11 Ospreys from fiscal year 2001.
    Secretary England. No, all developmental changes to improve the 
safety and reliability of the V-22 will not be completed before the 
release of fiscal year 2002 funding. However, the aircraft procured in 
fiscal year 2002 will not be delivered until fiscal year 2004. This 
should allow time for changes to the aircraft production lines before 
this lot is produced. In any event, all required modifications to these 
aircraft will occur before delivery to the fleet. The V-22 program is 
continuously incorporating changes to improve the aircraft's safety and 
reliability performance. This process of identifying improvements and 
incorporating changes has been ongoing and will continue throughout the 
life of the program.

    5. Senator Kennedy. Secretary England, does the Navy or Marine 
Corps know how much these modifications will cost? Has the Navy or 
Marine Corps provided funds for these necessary modifications in the 
fiscal year 2002 budget or any future years budgets?
    Secretary England. We will not know the total cost of the 
modifications until we have ascertained exactly what they are. However, 
the fiscal year 2001 and 2002 budgets (as well as out year planning) 
reflect funding to design, develop, test, and install corrective 
actions in the aircraft already delivered as well as those planned to 
be procured.

                   outsourcing and commercialization
    6. Senator Kennedy. Secretary Roche, the Air Force has been in the 
forefront of public-private competition and contracting out. The DOD 
budget request plans to save millions of dollars with more competition 
and outsourcing and further commercialization efforts. While I believe 
that competition is a great way to ensure that the Department of 
Defense is getting the best value for the taxpayers, it seems that many 
involved in these efforts have forgotten that competition for work can 
go both ways.
    Are you planning to offer Federal Government employees the 
opportunity to compete for workload that is done both in-house and 
outside the government to achieve the most savings and efficiency for 
the government?
    Secretary Roche. It has long been the policy of the Federal 
Government to obtain commercial services from the private sector when 
it is cost effective to do so. Once it has been determined that 
government performance of a commercial activity is not required, an A-
76 cost comparison may be performed to determine the most cost 
effective method of performance--in-house or contract.
    Normally, contracted activities are not re-competed between the 
private sector and an in-house government workforce because it has 
already been determined that government performance is not necessary. 
However, current OMB, DOD, and Air Force policy provides for contracted 
workload to be converted to in-house performance if it can be 
demonstrated, via A-76 cost comparison, that the government can operate 
the activity on an ongoing basis at a lower cost than a qualified 
commercial source. Today, many of our A-76 cost comparisons include 
currently contracted workload as part of the total competition. If the 
cost comparison demonstrates that in-house performance is more 
economical, the previously contracted portion can be converted to in-
house performance.

                                 dd-21
    7. Senator Kennedy. Secretary England, several of us on the 
committee are very supportive of the DD-21 program. This ship is the 
next-generation destroyer for the Navy and is the only near-term 
solution for shore-fire support for the Marine Corps and the Army.
    Earlier this summer, the Navy delayed the selection of the winning 
team, which will design and build the DD-21. This decision was made, in 
part, due to a new study, ordered by Under Secretary Aldridge, which is 
to examine the future shipbuilding program.
    Because no future years defense program was submitted with the 
final fiscal year 2002 defense budget request, we don't know when--or 
if--DD-21 procurement funding will be forthcoming. The fiscal year 2002 
budget only requests research and development funding to keep the 
program alive.
    What is the status of Under Secretary Aldridge's study?
    Secretary England. I will have to refer you to the Department of 
Defense on the details of the Shipbuilding Review and the process used 
to perform it. However, the Navy supported the Office of the Secretary 
of Defense-led effort with operational and acquisition subject matter 
experts as required. It is the Navy's understanding that the results of 
the study will be incorporated as part of the overall Quadrennial 
Defense Review.

    8. Senator Kennedy. General Jones, is there another means of 
providing for the Marine Corps shore-fire support requirements other 
than DD-21?
    General Jones. No other system is currently under development that 
will fully satisfy the Marine Corps' requirements for all-weather, 
precision and volume naval surface fires at the required ranges. 
    The 155mm Advanced Gun System, with a family of precision-guided 
and ballistic ammunition, is being designed specifically for DD-21 as a 
means to provide both precision and volume fires for expeditionary 
maneuver forces. Additionally, the Advanced Land Attack Missile, with a 
family of general use and specialty warheads, will provide responsive 
fires out to the ranges required to support a vertically lifted Ship-
to-Objective Maneuver force. The capabilities provided by the DD-21 and 
its associated systems remain vital to realizing the full potential of 
Expeditionary Maneuver Warfare and the conduct of expeditionary 
operations and sustained operations ashore in a fluid, non-linear 
battlespace.

    9. Senator Kennedy. Secretary England, do you support the DD-21?
    Secretary England. Yes, the Navy supports the DD-21 and remains 
committed to the objectives of the program. This position was 
reiterated by Under Secretary Pirie in his May 31, 2001, letter 
temporarily placing the source selection on hold, ``While the 
objectives of the DD-21 program remain valid, it is prudent to afford 
the Department of the Navy an opportunity to consider if a change in 
program strategy is warranted based upon the outcome of the respective 
defense strategy studies.''

    10. Senator Kennedy. Secretary England, when will the Department of 
the Navy be making a decision to pick the winning team for the DD-21?
    Secretary England. The source selection decision for the DD-21 
program will not be made until the Department of the Navy has 
determined if a change in program strategy is warranted based upon the 
outcome of the ongoing defense strategy studies, specifically the 
Department of Defense QDR, Strategic studies and the Future 
Shipbuilding Program Study.

    11. Senator Kennedy. Secretary England, will you encourage 
Secretary Rumsfeld to keep the program as you go through the 
Quadrennial Defense Review?
    Secretary England. The Navy remains committed to the objectives of 
the DD-21 program. As you are aware, DD-21 source selection was delayed 
by the Navy pending the results of several on going defense strategy 
reviews, specifically the Office of Secretary of Defense's Strategic 
Review, the Quadrennial Defense Review, and Future Shipbuilding Program 
study. The Navy is working closely with the Department of Defense on 
these force structure reviews and is an active advocate for all our 
future acquisition programs, including DD-21.

                       unexploded ordnance (uxo)
    12. Senator Kennedy. Secretary White and General Shinseki, the 
financial and technical problems of cleaning up unexploded ordnance at 
all of the Army's bases--open, active, inactive, closing and closed--
continues. In Massachusetts, the Army is currently having to remove UXO 
to keep their contents from further contaminating the sole-source 
aquifer under the Upper Cape. What resources has the Army invested in 
both ongoing UXO cleanup efforts and in research and development 
programs to find better and more effective ways of removing UXO?
    Secretary White and General Shinseki. In our ongoing UXO cleanup 
efforts, we are investing nearly $79.4 million. Of this, we are 
executing $53 million as DOD's Executive Agent for Formerly Used 
Defense Sites, which is a DOD-funded program.
    In the last 2 fiscal years, we invested approximately $19 million 
in our research, development, and technology programs to find better 
and more effective ways of identifying, discriminating, and addressing 
unexploded ordnance and buried munitions. Next fiscal year, we have 
programmed an expenditure of approximately $15.3 million in research 
and development programs.
    We are currently conducting a complete inventory of our ranges. 
When complete, the inventory will assist us in developing the scope of 
munition-related issues at our ranges.

    13. Senator Kennedy. General Jones, the Pentagon estimates that 
personnel living in off-base housing currently pay about 15 percent 
out-of-pocket for housing costs. The goal for next year is to raise the 
basic allowance for housing to reduce out-of-pocket expenses to about 
11.3 percent for the approximately 750,000 service members living off-
base. But, it is my understanding that there are areas where military 
families currently pay much more than the 15 percent out-of-pocket 
expenses to meet housing costs. For example, military personnel 
stationed in Southern California and living in off-base housing have 
felt the impact of the rapidly rising energy costs and pay well above 
the current 15 percent out-of-pocket goal.
    What steps are being taken by the Marine Corps to reduce this 
expense or mitigate this burden?
    General Jones. The 15 percent out-of-pocket cost is a national 
average. Some marines will pay more than 15 percent while others will 
pay less. This is not a regional issue and servicemembers in southern 
California are not different from anywhere else we have marines 
stationed. Although the Office of the Secretary of Defense establishes 
BAH rates and updates them on a periodic basis, they do so with Service 
involvement and the involvement of local commanders. In the particular 
case of Southern California, throughout the fall of 2000 when the 
current BAH rates were being developed, it was forecast that the 
utility portion of the BAH for southern California would continue to 
rise into 2001. Instead of using measured utility costs in 2000, costs 
were forecast by comparing the growth in utility costs from June 1999 
with May-July 2000 and then doubling that rate of growth then applying 
this inflated estimate to the 2001 rates. The actual cost of 
electricity in southern California has still not yet risen to the 
inflated level applied to the 2001 BAH rates.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                     armored security vehicle (asv)
    14. Senator Landrieu. General Shinseki, I've been reading in daily 
periodicals that the Army intends to terminate the Armored Security 
Vehicle (ASV) program at the end of fiscal year 2002. The ASV was 
developed for use in operations other than war to protect military 
police (MP) units from weapons up to .50 caliber armor piercing 
ammunition and 12 lb. landmines. What is the rationale for that 
decision?
    General Shinseki. The Army does not have plans to terminate the ASV 
program at the end of fiscal year 2002.

    15. Senator Landrieu. General Shinseki, is there an Interim Armored 
Vehicle (IAV) variant for the ASV programmed for MP units? If so, what 
is this vehicle, when will they be issued to the MPs, what are its 
capabilities, and what will it cost compared to an ASV?
    General Shinseki. There is no IAV variant for the ASV programmed 
for MP units. The IAVs are fielded to the Interim Brigades and not 
individual MP units. The current plan is to continue to field the ASV 
to MP units. Therefore, no cost analysis has been performed concerning 
the use of an IAV in the MP role.

    16. Senator Landrieu. General Shinseki, what is your plan for 
providing vehicles for this mission, if ASV is terminated and there is 
no IAV equivalent?
    General Shinseki. If the Army were placed in a position where a 
substitute vehicle would be required for the ASV, the UpArmored High-
Mobility Multipurpose Wheeled Vehicle (HMMWV) would be used. The 
UpArmored HMMWV is already in use in MP units.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    17. Senator Reed. General Jones, your statement refers to the AAAV 
as a transformational program ``intended to achieve a fundamental 
advance in capabilities by exploiting leap-ahead technology.'' Could 
you please elaborate? What is the difference between transformational 
technologies and modernization for the Marine Corps?
    General Jones. To the Marine Corps, transformation is a continuing 
process that spans decades of innovation and experimentation with the 
implementation of new systems, operational and organizational concepts. 
It involves the development of new operational concepts, refinement of 
enabling capabilities through experimentation, and the development of 
new organizations, tactics, techniques, procedures and technologies as 
necessary to turn these concepts into warfighting capabilities.
    Modernization, as used by the Marine Corps, explicitly means 
reshaping the Marine Corps capabilities to meet the future through the 
selective acquisition of new equipment that will enable the execution 
of Expeditionary Maneuver Warfare in support of emerging joint 
warfighting concepts. Modernization leads to increases in capability. 
Since it is part of an on-going process of Marine Corps combat 
development, there is not a requirement for a major shift in the way 
the Marine Corps trains, organizes, and equips operating forces implied 
in the term ``transformation''. Modernization is more than simply 
replacing worn out equipment; rather, effective modernization is our 
means of opportunistically implementing new technologies in order to 
enable new concepts and increased warfighting capability.
    In this sense, the Advanced Amphibious Assault Vehicle (AAAV) is 
more than simply a replacement for the 1970s technology of the 
venerable AAV7A1 that has served the Marine Corps for over 30 years. 
The AAAV will join the MV-22 and LCAC as an integral component of the 
amphibious triad that will enable Expeditionary Maneuver Warfare in the 
21st century. With an eightfold increase in speed and a range of 
greater than three times its predecessor, the AAAV will allow 
immediate, high-speed surface maneuver of marine infantry units as they 
emerge from ships located over the visual horizon 25 nautical miles and 
beyond. Projection of these forces will be conducted in a manner that 
exploits the intervening sea and land terrain to achieve surprise and 
rapidly penetrate weak points in the enemy's littoral defenses to seize 
operational objectives. For the first time in the history of naval 
warfare, maneuver ashore in a single, seamless stroke will be possible 
thereby providing both ships and landing forces sufficient sea space 
for maneuver, surprise, and force protection during power projection 
operations.
    The result is a truly transformational operational capability 
stemming from a convergence of various modernization programs that, 
when joined, result in a truly revolutionary gain in warfighting 
capability.
                      long range power projection
    18. Senator Reed. Secretary Roche, as recently demonstrated, long-
range power projection remains critical to U.S. national security. What 
are your plans to modernize the U.S. long-range bomber force? Does the 
fiscal year 2002 budget request begin this modernization process?
    Secretary Roche. The fiscal year 2002 budget request continues the 
modernization process via aircraft modifications outlined in the Air 
Force White Paper on Long Range Bombers. The Air Force established time 
phased modernization plans--near, mid, and long term modernization 
initiatives--for the B-52, B-1, and B-2. The purpose of a time phased 
plan was to outline a program to improve the combat capability of the 
bomber platforms through integration of precision, gravity and standoff 
weapons, avionics, computers, communications suites, and 
maintainability upgrades. The modernization plan will improve bomber 
fleet lethality, survivability, flexibility, and responsiveness.

                    space commission recommendations
    19. Senator Reed. All secretaries and chiefs, could you each 
discuss your views of the Secretary's (SECDEF) decision to implement 
the recommendations of the Space Commission? How will this initiative 
effect the Services' roles in this area?
    Secretary White and General Shinseki. The Commission released its 
report containing 10 major recommendations in January 2001. The Army 
concurred with many of the Commission's recommendations, but presented 
comments about three of the recommendations as outlined below.
    The first comment centered on the designation of the Air Force as 
executive agent (EA) for space. Without a clearly defined description 
of the responsibilities and authority delegated to the Air Force, it is 
difficult to assess specific Army impacts. The Army requires additional 
clarification on issues such as Army role in assisting the EA in 
maintaining the space program plan; Army responsibilities for 
developing and funding Service-unique space systems and capabilities; 
Army authorities with respect to maintaining their own space 
requirements determination process; the Services' authority for their 
unique doctrine, strategy, education, training, and operations; the EA-
Army relationship with respect to the Joint Requirements Oversight 
Committee (JROC) requirements process; the Services' right to appeal EA 
decisions to the Under Secretary of Defense for Space, Intelligence, 
and Information or any subordinate oversight bodies; and the cost of 
implementing the Commission's recommendations. The Army anticipates 
having an opportunity to review and comment on the draft of Office of 
the Secretary of Defense (OSD) charter to the Air Force that would 
describe its responsibilities as the space EA and acquisition executive 
(AE).
    A second comment centered on the creation of an Under Secretary of 
the Air Force (USECAF) and assignment of responsibilities as the 
Director of the National Reconnaissance Office, and designation as the 
Air Force AE for space. The report is not clear as to the disposition 
of the other Services' program executive officers as related to such 
areas as space control, force enhancement, and force application. 
Without an EA charter, and without further clarification, the value of 
assigning the EA duties to a Service instead of a Joint or Defense 
organization is not clear. Designating the USECAF as the Air Force AE 
for space would provide a single agency within the Air Force for 
integrating space funding and acquisition. Again, the Army is seeking 
an opportunity to review and comment on OSD's draft charter to the Air 
Force.
    A third comment centered on the importance of maintaining the 
independence of the National Security Space Architect (NSSA) efforts. 
The Space Commission recommended that the NSSA report to the USECAF. 
The Army proposes that the existing architecture review process, to 
include the National Security Space Senior Steering Group and the JROC 
review process, be maintained. The Army looks forward to working with 
the Air Force on this subject during the development of the Space 
Architect memorandum of understanding.
    Secretary England and Admiral Clark. The Navy concurs with the 
recommendations of the Space Commission. We see the report as an 
opportunity and we look forward to an active role in the implementation 
of the recommendations to better enable joint land, air, and maritime 
warfighting using space assets. Space systems are critical to naval 
warfighting and network centric operations, so it is imperative for 
Navy to continue to participate--with the Air Force as Executive 
Agent--as a joint partner in the requirements, science and technology, 
research and development, acquisition, and operations processes for 
space systems.
    A Naval Review Panel on Space, sponsored by the Under Secretary of 
the Navy, is currently meeting to help us focus on and address several 
key areas. These include: the maintenance of an effective naval space 
cadre of both military and civilian personnel to participate throughout 
the National Security space organization; strong space science and 
technology/research and development within Navy to continue to provide 
innovative space solutions as recommended by the Space Commission; the 
education of our naval warfighters in all facets of space systems; 
strategic joint partnerships with other space stakeholders; and the 
identification of any space-related missions for which Navy may be 
uniquely qualified.
    General Jones. The Marine Corps enthusiastically concurs with, and 
is actively engaged in supporting the decision of the Secretary of 
Defense (SECDEF) to implement the recommendations of the Space 
Commission. The Commission was faced with a balkanized landscape of 
less than optimally coordinated national security space efforts that 
lacked a coherent vision. Lack of adherence to military principles of 
organization had been the fault of the conceptual restriction of space 
to an information medium. The Commission recognized that the 
technology-enabled threats and opportunities ``in, to, through, and 
from space'' demanded change. The SECDEF's implementation will now lead 
to the establishment of singular leadership, unity of effort, and 
advocacy for this all-important environment, one that could eventually 
evolve into a warfighting Area of Responsibility (AOR).
    The Secretary's decision to implement fundamental changes comes 
none-too-soon, and the DOD has an arduous task ahead. Our space-borne 
Intelligence, Surveillance, and Reconnaissance (ISR) systems, not to 
mention our military and civil space communications-navigation assets, 
are extremely vulnerable. For example, the asymmetric anti-satellite 
(ASAT) threat from less Information Technology (IT)-dependent potential 
adversaries must be addressed immediately. As the Commission observed, 
without a superior space protection operational capability and other 
space control measures, the U.S. could suffer a space version of Pearl 
Harbor. This could very well occur without the simple pre-space era 
industrial capacity to effectively compensate for lost military 
platforms.
    Our national dependency on precious few information nodes in space 
has many causes. These include our military cultural euphoria with IT 
convenience, a naive confidence in our invincibility atop the strategic 
high ground, and reluctance within the public and private sectors to 
bear the cost of space system swivability and robustness in the post-
Cold War era. But, given sufficient resources and institutional 
motivation, the new priority of space in DOD may enable us to 
effectively respond in time.
    For Marine Corps warfighters the potential for improved space-
enabled terrestrial battlefield capabilities is more hopeful than ever 
before. When the Marine Corps vision for national security space was 
briefed to the Commission we reminded the members that the Marine 
Corps' 23rd Commandant, Gen. Wallace M. Greene, was one of the Defense 
Department's first space visionaries. As early as 1963 he proposed 
rapid expeditionary Marine Corps power projection using the space 
medium, including the sub-orbital, hypersonic transport of small units 
to crisis hot spots anywhere on earth. Even today, the technical 
challenges of General Greene's vision remain great, but the new DOD 
emphasis could lead to the earlier realization of many other advanced 
capabilities.
    The Commission also recognized that the need for a Space Force, 
Corps, or Service might emerge in the future. Since the Air Force has 
been designated the Executive Agent (EA) for space it should rightfully 
receive the exclusive Title X responsibility for raising such forces. 
It is noteworthy that the Air Force has been managing approximately 85 
percent of the DOD's military space programs to date. Furthermore, the 
Air Force already has over 40,000 military and civilians serving in 
space-related duties, and those positions and personnel will now begin 
to be managed as a professional space cadre. With its assumption of EA 
responsibilities, the Air Force will also take under its programmatic 
cognizance major Navy and Army space programs, as well as the United 
States' greatest ISR success legacy, the National Reconnaissance Office 
(NRO). In coming years Air Force ``space forces'' can expect to remain 
terrestrially based, with systems and weapons remaining robotic or 
remotely controlled, and primarily operating in support of soldier, 
sailor, airman, and marine terrestrial warfighters.
    However, technology and future crises may bring surprises, and the 
need for routine manned military space flight and operations in space 
could emerge. For General Greene's vision of expeditionary marine 
transport, our Service's environmental connection to space appears 
secure. But it is the Air Force that will have the charter and 
responsibility to develop space transport, space warfighting, and other 
advanced space capabilities; awesome tasks that could change the 
character and identity of a large fraction of that Service. The history 
of the emergence of the Air Force from the Army Air Corps should be 
carefully studied in this regard, and further sensible evolution should 
not be hindered.
    Our military cultural decision to ride the IT bandwagon is a two-
edged sword. The cost of global, speed-of-light information 
dissemination and communications is that USMC terrestrial warfighting 
victory across the spectrum of conflict will largely hinge on our 
Nation's ability to exploit and defend assets in the unusually exposed 
space medium. Therefore, with a small contingent of qualified Marine 
Corps space professionals, we must increase our influence over space 
operational and programmatic processes in the future through strategic 
personnel assignments. The critical nodes in which we are aggressively 
seeking increased participation are the National Reconnaissance Office 
(NRO) (legacy ISR acquisition programs and operations), United States 
Space Command (USSSPACECOM) (space warfighting operations), Air Force 
Space Command (AFSPC) (Joint and multi-user space acquisition 
programs), the National Security Space Architect (NSSA) (the joint 
space concepts development and requirements arbitrator for the JROC), 
and the Joint Staff.
    Our cadre's core qualifications will continue to be rooted in the 
superb educational foundation provided by the Naval Postgraduate 
School, and could include U.S. Army and Air Force space cadre 
qualification curriculums in the future. Marines are already assigned 
to a few of the key nodes noted above, but that participation will now 
increase, in concert with a larger network identity that operates off 
of a single, coherent, requirements-based USMC vision. The objective is 
to have acquisition qualified space cadre marines managing or 
functioning within all the nodes, particularly in Joint programs at the 
NRO and AFSPC, to help guarantee the relevance of future weapons, C\4\, 
ISR, and other capabilities for USMC warfighters.
    It is worth noting that some have questioned the weight that should 
be assigned to Marine Corps positions on space. Admittedly, of all the 
services, the Marine Corps space cadre is the smallest, and with the 
exception of some C4 terminal procurements and a modest experimentation 
budget, we have no programmatic stake in the approximately $20B per 
year that constitutes U.S. national security space. But our Service's 
space-related warfighter requirement equities are exactly equal. 
Arguments based on the preservation of Service Total Obligation 
Authority (TOA) in space programs appear to run counter to the SECDEF's 
aims for improved national defense through focused purpose and 
efficiency. Fortunately, the Corps' programmatically neutral broker-
warfighter perspective was heard, and we believe it had a useful 
influence on the outcome.
    In summary, the Marine Corps is elevating the priority of space 
unilaterally. It is up to us to recognize the importance of national 
security space expertise and commit ourselves to long-term Joint 
influence during its emergence as a warfighting medium.
    Secretary Roche and General Ryan. The changes described by the 
Space Commission and directed by the Secretary will help create a 
stronger center of advocacy for national security space missions and 
resources and build the critical mass of space professionals within the 
Air Force and in the Nation's national security space programs. 
Implementing the changes directed by the Secretary will strengthen Air 
Force space management and organization, consolidate the Department's 
space activities, and provide a focal point for the Department's 
interaction with the commercial, civil, intelligence, and international 
space communities.

                         black hawk production
    20. Senator Reed. Secretary White and General Shinseki, the Army 
has cut the number of Black Hawks procured in fiscal year 2002 from 16 
to 12. Could you tell us why this decision was made and the impact it 
will have? What plans do you have to ensure the much-needed 
modernization of the Guard units?
    Secretary White and General Shinseki. In the fiscal year 2001 
President's Budget, the Army allocated sufficient funds to procure nine 
UH-60s in fiscal year 2002. The Army has funded the procurement of 12 
UH-60s in the fiscal year 2002 President's Budget submission. This 
increase is an indication of the Army's commitment to provide as many 
Black Hawks as possible to the fill the revised aviation force 
structure, including the Army National Guard force structure, within 
current Total Obligation Authority.
    The Army plans to continue to procure Black Hawks to facilitate the 
full modernization of the Reserve components. We have identified an 
unfunded requirement for an additional 10 Black Hawks in fiscal year 
2002 to accelerate modernization of the Army National Guard.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                       space command organization
    21. Senator Bill Nelson. Secretary Roche, how quickly should we 
anticipate changes in the organization of Space Command? For each of 
you, how will you ensure the missile defense programs BMDO is devolving 
to the Services will be integrated and interoperable?
    Secretary Roche. The changes described by the Space Commission and 
directed by the Secretary will help create a stronger center of 
advocacy for national security space missions and resources and build 
the critical mass of space professionals in the Nation's national 
security space programs. Implementing the changes directed by the 
Secretary will strengthen Air Force space management and organization, 
consolidate the Department's space activities, and provide a focal 
point for the Department's interaction with the commercial, civil, 
intelligence, and international space communities.
    Within the Air Force, the Space and Missile Systems Center (SMC) is 
planning to transfer from Air Force Material Command (AFMC) to Air 
Force Space Command (AFSPC) on or about 1 October 2001. This is part of 
AFSPC's effort to develop a comprehensive approach for managing and 
organizing Air Force space activities from research and development 
through acquisition to operations. Further, the practice of dual-
hatting CINCSPACE/CINCNORAD with the Commander of Air Force Space 
Command will end and a separate four-star will be assigned as Commander 
of Air Force Space Command.

    22. Senator Bill Nelson. General Jones, you are on record as 
calling the Blount Island complex a national asset. What is the mission 
of the Blount Island complex? What efforts have been made by you and/or 
the civilian leadership within DOD and the Navy to fund the purchase of 
this facility?
    General Jones. The mission of the Blount Island Complex focuses on 
attainment, maintenance, and sustainment of all requirements in support 
of the Marine Corps' Maritime Prepositioning Ships (MPS). Maritime 
Prepositioning Force (MPF) Maintenance Cycle operations conducted at 
Blount Island are vital to maintaining the readiness and continued 
capability of the MPF program. Blount Island is recognized by DOD, the 
Joint Staff and the commanders in chief (CINCs) as a vital national 
strategic asset, through its role in support of the MPF program. Since 
1986, the MPF Maintenance Cycle for prepositioned equipment and 
supplies has been conducted at Blount Island. Blount Island is part of 
the Strategic Enabler entitled ``Strategic Mobility'', and is an asset, 
which is critical to the worldwide application of U.S. military power 
and our military strategy, under the strategic concepts outlined in the 
National Military Strategy of Forward Presence and Crisis Response. 
Under these concepts, the MPF program provides rapid and efficient 
strategic deployment options through strategic siting around the globe 
for the geographic and combatant CINCs. This enables MPF to be 
especially responsive to regional crises and disaster relief. With 
regards to the purchase of Blount Island, we appreciate the support of 
Congress in funding the first phase of this acquisition and are well 
underway in executing it.
    I have included the second phase within the FYDP and am continuing 
to work with the Secretary of the Navy and the Office of the Secretary 
of Defense (OSD) to move it forward in the program. I did submit the 
project as my number 1 priority for consideration as OSD made final 
adjustments to the fiscal year 2002 budget. However, their guidance for 
these final adjustments precluded new footprints, to include Blount 
Island. That said, I am committed to pursuing earlier programming 
during the next budget cycle.

                   potential alternatives to vieques
    23. Senator Bill Nelson. Secretary England, what is your target 
date to decide on an alternative to Vieques? What alternatives are you 
considering?
    Secretary England. I have a November 6, 2001 deadline to report to 
the President with alternatives to Vieques, however, there is no 
specific decision date as yet. I will make a decision as soon as I have 
all the relevant information, and will review any alternative location 
or combination of locations that enables the Navy to effectively meet 
our challenging and demanding training requirements in support of Fleet 
readiness.

    24. Senator Bill Nelson. Secretary England, why is the Navy not 
taking advantage of the availability of increased dollars to purchase 
new T-6 training aircraft, especially in view of recent loss of two 
more Naval aviators in the old T-34 at Pensacola?
    Secretary England. The T-34C is a safe and reliable aircraft that 
has sufficient service life remaining and can satisfy Navy requirements 
for several more years. Navy conducted a prioritized review of Navy 
programs including Joint Primary Aircraft Training System (JPATS) 
procurement profiles. In this review all options were investigated, 
including maintaining T-34C in service longer than previously 
envisioned. JPATS procurement was deferred to fund more urgent 
competing priorities. JPATS procurement will resume in the future to 
take better advantage of service life remaining on the T-34.
    The T-34C has an excellent safety record. Over the last 20 years, 
the mishap rate for the T-34C in the Training Command has been 0.66 
mishaps per 100,000 flight hours. The average overall Navy/Marine Corps 
mishap rate was 2.8 mishaps per 100,000 flight hours for the same 
period.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
    25. Senator Thurmond. Secretary England, Secretary White, and 
Secretary Roche, the Department of Defense has established 2010 as the 
goal for improving the quality of military family housing. The budget 
amendment proposes a $400 million increase in the family housing 
account to facilitate the achievement of this goal, but focuses the 
funding on the housing privatization.
    Do you believe that housing privatization is the most appropriate 
method for improving the military family housing stock?
    Secretary England. DOD is using a three-pronged approach to 
eliminating its inadequate housing stock. First, Basic Allowance for 
Housing is being raised to zero out of pocket by fiscal year 2005 in 
order to eliminate the economic inequities between community and 
military family housing. Second, the Navy is entering into Public 
Private Ventures (PPV) where feasible. Third, where PPV is not 
feasible, the Navy is using Family Housing, Navy appropriated funds to 
eliminate inadequate housing units.
    The Navy was first in DOD to implement PPV in 1996 and will soon 
privatize additional existing Family Housing units. Having just awarded 
several PPVs, there is no long-term history on the success of the 
executing phase of PPVs, property management (Navy awards typically 
range from 20 to 50 year programs).
    PPV Housing has as its primary advantage the ability to accelerate 
inadequate home elimination by leveraging funds with the private 
sector. Accordingly, PPV is playing a large role in the Navy's Family 
Housing program. It is important though that the use of PPV be 
considered as one of several tools available to improve Navy housing 
standards. However, due to the long term impact, all housing options 
should be assessed on their ability to meet each installation's unique 
housing needs. The Navy accomplishes this by assessing all housing 
construction, including PPV feasibility assessments, annually on an 
installation-by-installation basis through the Shore Installations 
Programming Board (SIPB). The SIPB is comprised of the Fleets and Chief 
of Naval Operations Ashore Readiness Division. Its charter is to 
consider regional PPV opportunities while promoting decisions that take 
both the short and long term PPV impact into account. In some instances 
it has been determined that PPV is not feasible. This is due to several 
unique factors which include but are not limited to anti-terrorism 
force protection concerns (housing is not severable from the 
installation), existing commercial activity studies, available number 
of housing units, lack of regional opportunity to partner with other 
installations, or a poor private sector environment (low growth, high 
vacancy rates, etc.).
    Additionally, the Navy is conducting a Family Housing Functionality 
Assessment (FA) that should be completed October 2001. This FA is 
expected to assist in the decision making process by identifying 
alternatives to traditional family housing asset management; namely, a 
property management prototype, commercial activity, and PPV.
    Current Navy guidance is to use PPV where feasible. The use of PPV 
quotas though has the potential to introduce long-term risk for short-
term objectives as each installation's unique housing requirements may 
not receive full consideration.
    Secretary White. Yes, privatization of our family housing inventory 
remains a key factor in helping the Army achieve its goal to provide 
quality housing and improve the well being of soldiers and their 
families. The Army has an aggressive privatization program utilizing 
the Military Housing Privatization Initiative Act that Congress granted 
in 1996 and extended until December 2004. These authorities allow the 
Services to leverage appropriated family housing funds and assets to 
attract private-sector capital and expertise to operate, manage, 
maintain, improve, and construct new housing. By the end of 2005, 
approximately 62 percent (67,842 units) of the worldwide end-state 
inventory of 109,355 units is planned for privatization.
    Secretary Roche. Given the limited MILCON budget for revitalizing 
59,000 housing units, and the need to upgrade these units by the OSD 
goal of 2010, privatizing 27,000 housing units is the most appropriate 
method to achieve this goal. On average, the Air Force is leveraging 
its assets by greater than five to one using privatization.

    26. Senator Thurmond. Secretary England, Secretary Roche, and 
General Shinseki, under the current funding profile, will your service 
achieve the 2010 goal for family housing improvement?
    Secretary England. Yes. The Navy's current Master Plan eliminates 
currently identified inadequate homes by fiscal year 2009.
    Secretary Roche. Our Family Housing Master Plan provides our 
corporate Air Force strategy to meet the 2010 goal. While we have 
worked hard to provide an integrated plan which concentrates on fixing 
our worst housing first, we recognize the realities of budget 
shortfalls. Recognizing ongoing QDR discussions, the administration has 
yet to establish our future funding levels beyond fiscal year 2002. 
However, we are committed to find a solution to revitalize, divest 
through privatization or demolish inadequate housing by 2010. This 
commitment will guide our revision to our Family Housing Master Plan in 
2002.
    General Shinseki. Using a mix of traditional military construction 
and privatization, the Army is able to allocate sufficient resources to 
eliminate all inadequate Army family housing by 2010.

    27. Senator Thurmond. Secretary England, Secretary Roche, and 
Secretary White, one of Secretary Rumsfeld's more significant goals is 
to fund facility replacement on a 67-year standard, rather than the 
almost 200-year cycle under prior funding programs. Although this 
standard is still short of the industry standard of 57 years, it will 
significantly increase the readiness of our military installations.
    Will the current budget request support the 67-year replacement 
standard? If not, what are the funding requirements or other 
initiatives that will allow you to reach the standard?
    Secretary England. The Navy's amended fiscal year 2002 budget 
request supports a 113-year recapitalization rate. While still short of 
the 67-year standard this is a substantial improvement over the 
previous rate of over 160 years that existed prior to the amended 
budget. The facility replacement program will require nearly $600M 
additional recapitalization funds in fiscal year 2002 to meet the 67-
year standard.
    Infrastructure reduction initiatives to assist in reaching this 
standard include planning efforts to identify true requirements, 
consolidation of facilities where feasible and demolition of aging and 
excess facilities. Key to consistently achieving the long-range 
recapitalization goal will be successful implementation of the Defense 
Department's Efficient Facilities Initiative to realign and reduce base 
infrastructure.
    Secretary Roche. No. It would take a fiscal year 2002 add of about 
$1 billion to achieve a 67-year replacement cycle investment rate. 
However, the AF has had to take risk in the infrastructure accounts 
over the last decade and has a backlog of deteriorated facilities. An 
additional $1.7B/year is required to buyout this backlog by 2010.
    Secretary White. In fiscal year 2002, the budget request does not 
support the 67-year replacement standard. An additional $526 million in 
fiscal year 2002 is needed to get the total inventory replaced in 67 
years. Other initiatives that help the Army reach the 67-year standard 
include privatization of housing and utilities, leasing facilities to 
the private sector (i.e., the hospital at Fort Sam Houston), and 
elimination of excess facilities.

                       european restationing plan
    28. Senator Thurmond. General Shinseki, European Army units 
continue to be stationed in World War II facilities that limit mission 
capability, complicate training, drain repair and maintenance 
resources, and are extremely costly to renovate. To correct this 
situation the Army is reviewing alternatives to the current stationing 
plan.
    What is the status of the European restationing plan and what is 
the anticipated cost?
    Does this budget provide any funding to initiate the relocation 
effort? If not, when do you anticipate funding will be available for 
this transition?
    General Shinseki. United States Army, Europe (USAREUR) initiated 
the Efficient Basing-East program to enhance readiness and improve 
soldier well being through the restationing of a brigade combat team 
from numerous small installations to the Grafenwoehr area. The goal is 
to gain efficiency by improving command and control, providing improved 
training at lesser cost, reducing the USAREUR footprint and operating 
cost, enhancing force protection, reducing personnel tempo and 
operational tempo, and reducing manpower overhead and long-term costs 
by eliminating small, costly, and inefficient installations.
    USAREUR continues to develop this initiative in terms of costs and 
phasing. Current identified costs total $477.7 million for fiscal year 
2003 to fiscal year 2007 for construction, planning and design, Army 
family housing, and design of other support facilities, i.e., schools, 
medical facilities, commissaries, post exchanges, etc. If allowed to 
reprogram identified funding, the net additional cost to USAREUR would 
be reduced to approximately $200.2 million.
    The Commander in Chief Europe has approved the plan, and the Army 
is evaluating this initiative along with other military construction 
projects. The draft 2002 Presidential Budget Future Years Defense 
Program contains seven projects totaling $68 million for the 
restationing. If approved, the initiative will be presented to the 
Office of the Secretary of Defense and Congress with the intent of 
gathering full support.

          sustainment, restoration, and modernization backlog
    29. Senator Thurmond. General Shinseki, although the overall 
funding request for the Army increased by more than $6.5 billion over 
fiscal year 2001, the Army reduced the number of tank miles funded by 
the budget from 800 to 730 miles--reduction of $300 million. I 
understand this was done to support facility stabilization.
    Despite this significant adjustment, what is the Army's current 
backlog for real property maintenance? ,
    General Shinseki. In fiscal year 2002, the current unfunded backlog 
to bring our facilities to a C-1 level is $17.8 billion. The increased 
level of sustainment funding in fiscal year 2002 needs to continue into 
the outyears to prevent the backlog from growing.

    30. Senator Thurmond. Admiral Clark, in 1999, your predecessor 
reported that the Navy was experiencing critical skills shortfalls 
resulting in more than 13,000 gapped billets. Since that time, 
Congress--working with the Department of Defense--has supported a 
series of personnel initiatives such as increased pay and health care.
    How have these initiatives improved your gapped billets problem?
    Admiral Clark. The At-Sea Enlisted Gap has been reduced from 13,000 
in 1993 to less than 5,000 today. This success has resulted from strong 
leadership combined with the significant pay raises and bold 
compensation initiatives enacted by Congress in the last 2 years. With 
the help of Congress, we reinvigorated efforts to retain every eligible 
sailor by offering new or enhanced officer continuation pays and 
enlistment/reenlistment bonuses, and increases in base pay. We improved 
advancement opportunities by gradually increasing the number of sailors 
in the top six pay grades. We also expanded E4 and E6 High Year Tenure 
gates and concentrated efforts on reducing attrition. Recruiting and 
retention successes have allowed us to execute total Navy end strength 
approaching the 1-percent statutory flexibility above our fiscal year 
2001 authorized strength. This has decreased the Gap and improved 
battlegroup readiness by getting more sailors with the right training 
to their ships earlier in the pre-deployment cycle. Manning for our 
fiscal year 2001 battlegroup deployers has been as much as 3-4 percent 
greater than our fiscal year 2000 deployers across the entire 
deployment cycle. We are deploying at 98-101 percent manning with as 
many as 250-360 fewer billet gaps per battlegroup.

    31. Senator Thurmond. Admiral Clark, I understand that the Navy has 
a $5.0 billion backlog in the repair and maintenance of its facilities. 
Despite this backlog, the funding requested for real property 
maintenance increases less than $90.0 million over the fiscal year 2001 
appropriation.
    How do you explain such a small increase in the real property 
maintenance account when the overall Department request for facility 
sustainment and base operations increased by more than approximately 
$3.0 billion?
    Admiral Clark. Due to funding priorities, sustainment, restoration 
and modernization (SRM) and base operating support funding have been 
programmed to minimally adequate sustainment levels in fiscal year 
2002. While the SRM increase request is only $90 million, the fiscal 
year 2002 MILCON funding request represents an increase of $130 million 
from the fiscal year 2001 request. Therefore, the total requested 
increase in facility investment for the Navy is $220 million.
    The current backlog in facilities repair and maintenance (BMAR) is 
over $5.0 billion with the critical portion being $2.6 billion. The 
Navy is in transition from the BMAR metric to the Facility Sustainment 
Model and the Installation Readiness Reporting System (IRRS) to improve 
the identification of facility repair and maintenance investment 
requirements.

    32. Senator Thurmond. General Jones, both you and General Krulak 
have always made the point that the Marine Corps equipment was showing 
its age and causing additional work for our marines and cost to our 
taxpayers. Despite these problems, your budget funds depot maintenance 
at only 78 percent of requirement. How do you explain the low level of 
funding for Depot Maintenance and what will be the cumulative effect of 
this funding shortfall?
    General Jones. The Marine Corps must fund a balanced program within 
the resources we have available. In the past we have funded near-term 
readiness at the expense of modernization. We can no longer continue 
this trend. Modernization has now become a readiness issue. We have 
realized that we must accept some measured risk in the short term in 
order to modernize our force. The Ground Depot Maintenance Program is 
funded at 78 percent of the executable requirement in fiscal year 2002. 
This level of funding will not impact the near term readiness of the 
operating forces. The $14 million Depot Maintenance Shortfall on the 
fiscal year 2002 Unfunded Priority List would fund us to the Office of 
the Secretary of Defense prescribed goal of 90 percent, but it is not 
critical to near term readiness.

    33. Senator Thurmond. General Jones, the Marine Corps will not 
recover from the accumulated effect of the procurement holiday which 
lasted from 1992 to 1999 until well beyond fiscal year 2007.
    What is the trade-off of this delay in terms of additional funding 
for repair parts and maintenance of your aging equipment?
    General Jones. The Marine Corps has experienced a rise in the 
average cost to maintain spare parts for our major end items. That is, 
the cost per repair has increased. As the Marine Corps faces virtual 
block obsolescence for many repair parts, we are required to spend more 
time and money to maintain aging equipment and weapons systems. As 
ground equipment has continued to age, and because the Marine Corps has 
yet to reap the benefits of modernization efforts, funding required for 
consumable and reparable spare parts has continued to grow.
    The Marine Corps has begun initiatives to modernize our aging 
equipment. For example, we are now fielding the Medium Tactical Vehicle 
Replacement and the HMMWV A2, as well as rebuilding our Assault 
Amphibious Vehicle. As we continue to modernize equipment we expect the 
cost of maintaining spares to begin to decline.

                         new ship construction
    34. Senator Thurmond. Secretary England, the Navy's budget request 
reflects a goal for the construction of new ships of 8 to 10 per year. 
The budget we are considering builds six new ships.
    What is the objective of the goal of building 8 to 10 ships 
annually?
    When will you make up the shortfall in this year's ship 
construction program?
    Secretary England. The objective of the goal of building 8 to 10 
ships annually is to sustain a battle force capable of addressing all 
likely joint and combined warfighting requirements, overseas presence, 
and support to contingency operations. The foundation supporting the 
goal is the 1997 Quadrennial Defense Review and additional requirements 
articulated in the 30-year shipbuilding plan report provided to 
Congress in June 2000.
    Until we know the results of the ongoing Quadrennial Defense Review 
and the Secretary of Defense's strategic review, I cannot comment on 
the extent of the shortfall. Currently, the Navy is limited to 
procuring six ships per year due to fiscal constraints and competing 
demands for Navy Total Obligation Authority. In order to build 8 to 10 
ships per year, the Navy requires approximately $3 billion to $5 
billion more in Shipbuilding and Conversion, Navy funding.

    35. Senator Thurmond. Secretary England, because the Marine Corps 
has been flying the CH-46 Helicopter since the 1960s, it is critical to 
the safety of our marines to find a replacement for the aging 
workhorse.
    Now that the V-22 program has been delayed for who knows how long, 
are there any alternatives or interim fixes for the CH-46?
    Secretary England. There have been seventeen Cost and Operational 
Effectiveness Analyses (COEs) conducted by a diverse series of trusted 
institutions to determine the most suitable replacement for the CH-46. 
The V-22 was a very consistent first choice with no clear second choice 
among the widest possible variety of potential alternatives to replace 
the CH-46. Each analysis showed that the MV-22 Osprey is the most 
operationally effective choice and the most cost effective (affordable) 
choice for the Marine Corps. They revealed that no other options or 
combination of platforms could provide the balance achieved with the V-
22. Other alternatives including mixes or `silver bullets' offer no 
real advantage in cost savings or avoidance given the requirement. The 
bottom line is the V-22 is significantly more capable and cost 
effective than any alternative. The V-22 is the only alternative that 
meets the requirement.
    Based on current utilization rates, the service life of the CH-46E 
does not need to be extended to compensate for the delay of the MV-22. 
The only interim improvement in place for the CH-46E is the Engine 
Reliability Improvement Program (ERIP). This ERIP will ensure the 
health and reliability of the CH-46 at a cost of $200 million. The 
Engine Reliability Improvement Program is fully funded, and thanks to 
Congressional support, we were able to start it 1 year early (in this 
fiscal year). However, ERIP was procured based on a projected 
retirement schedule of the CH-46. As the delay of the MV-22 becomes 
more definitive, Marine Aviation will have to examine how many more 
ERIP kits the Marine Corps will need to procure. The current ERIP cost 
estimates are $1.3M per aircraft (then year dollars). Although the CH-
46 will endure a delay in the introduction of the V-22, the cost of 
ownership of the CH-46E will likely continue to rise. Over the past 7 
years, flight hour costs and maintenance man-hours-per-flight-hour have 
increased by approximately 30 percent (in constant fiscal year 2000 
dollars).

                         transformation funding
    36. Senator Thurmond. Secretary White, the Army's Transformation is 
critical not only to the Army, but also to the Nation's future.
    Does the fiscal year 2002 budget fully support your Transformation 
goals? If not, what changes would you propose?
    Secretary White. The fiscal year 2002 budget generates sustainable 
momentum for Army Transformation, although not at optimal levels. We 
invested in Objective Force research, development, testing, and 
evaluation to set the stage for modernization of equipment; continued 
fielding the Interim Brigade Combat Teams; and funded modernization of 
key Legacy Force systems to enhance force capabilities. We made a 
number of tradeoffs to ensure a well-balanced Army program and will 
continue to evaluate competing requirements in our efforts to 
transform.

                            rc modernization
    37. Senator Thurmond. Secretary White, historically, the 
modernization of the Army National Guard and Army Reserve relied on the 
cascading of equipment from the active component.
    How does this budget request support the modernization of the 
Reserve components?
    Secretary White. This budget focuses on selective upgrades and 
modernization of key organizations while rebuilding and maintaining 
existing capabilities in others. Reserve component units that are 
paired with active component units will be selectively modernized, 
recapitalized, or rebuilt to attain full interoperability and 
compatibility with their active component teammates, ensuring current 
and near-term readiness.

                            training ranges
    38. Senator Thurmond. Secretary Roche, one of the concerns I have 
is that our training ranges are not providing the challenges that our 
pilots will meet in future combat. For example, the pilots of Shaw Air 
Force Base training at Poinsett Bombing Range engage emitters that 
represent 1960s technology rather than the modern systems that our 
pilots will face over almost any hostile nation.
    How does your budget support the upgrading of training ranges in 
general? Regarding the Poinsett bombing range in South Carolina, I 
would appreciate it if you answer it for the record.
    Secretary Roche. Although many technological advances in surface-
to-air threats have occurred over the past 40 years, recent conflicts 
have been against countries which have possessed predominately 1960s 
and 1970s vintage air defense systems. This fact highlights the need to 
train against these older systems; however, we cannot count on future 
adversaries employing older, less sophisticated threat systems. Combat 
readiness/survivability training for our aircrews must include 
proficiency training against modern, sophisticated threats.
    In general, we have ongoing programs that our fiscal year 2002 
budget supports to modernize our existing range electronic warfare 
threat emitters, weapon scoring systems, and air-to-air combat training 
systems, and targets through upgrades and procurement of additional 
items. Our fiscal year 2002 budget also supports modernization of an 
aging range electronics and telecommunications infrastructure and 
invests in the development of a new Advanced Threat Emitter System 
intended to provide simulation of modern threat capabilities, 
densities, and mobility for combat training. Poinsett Range in 
particular is scheduled to receive high-fidelity HARM targets to 
support training of the F-16s at Shaw AFB. Our fiscal year 2002 budget 
also provides for installation of a Joint Advanced Weapons Scoring 
System at Poinsett to score practice and inert munitions dropped on the 
range. Additionally, eight older Mini-Multiple Threat Emitter Systems, 
are slated for upgrade at Poinsett Range by fiscal year 2004 as part of 
an ongoing modernization program for this particular emitter system.

    39. Senator Thurmond. Secretary Roche, what is the total number of 
B-52 aircraft in the Air Force's inventory, and what is the number B-
52s required to support both the conventional and SIOP missions?
    If the number on hand is greater than required, why are they in the 
inventory?
    Secretary Roche. [Deleted.]

    40. Senator Thurmond. General Ryan, I understand that the average 
readiness of your combat squadrons is running at approximately 69 
percent against a readiness requirement of 92 percent. What are the 
major causes of this low level of readiness?
    Assuming no major changes as a result of the QDR, when will you be 
able to achieve your readiness requirements at the current funding 
level?
    General Ryan. As of 15 July 01, the overall readiness, measured by 
percentage of units C-2 or better, of our major operational units is 
down 22 percentage points while Active Duty stateside combat air force 
units are down 40 percentage points since 1996. The major causes for 
the decline are past underfunding (particularly of spare parts), the 
aging aircraft fleet, a less experienced workforce due to declines in 
retention, and past years of higher TEMPO.
    Our looming backorders caused by past underfunding continue to have 
a negative effect on readiness. These negative effects include lower 
mission capable rates, higher cannibalization rates, and added work 
hours for our people. Older aircraft are subject to organic problems, 
which are often discovered only after an aircraft ages. As these age-
related problems surface, it's possible that they will affect large 
portions of the fleet. Moreover, older aircraft require more manpower 
and resources to keep them ready to fight in the future.
    Our overall retention rate is also a major cause for the decline in 
AF readiness. The Air Force failed to achieve our first-term, second-
term, and career re-enlistment goals for the past 3 years (fiscal year 
1998-2000). Although, we are encouraged by the recent upturn in first-
term re-enlistment rates, we continue to remain below our second-term 
and career re-enlistment goals. Retention challenges also exist for our 
mid-grade officer corps, not only for our pilots but also for many of 
our non-rated line officers.
    Past years of higher TEMPO has also contributed to the decline in 
overall readiness. Although, we have seen a significant drop in TEMPO 
recently, our people are still deploying over three times more often 
than in 1989 despite the fact that the drawdown reduced the size of the 
Active-Duty Force to approximately 60 percent of its former size. This 
TEMPO exacerbates the negative retention trend because it places a 
greater burden on those who are forward deployed and those who remain 
at home. Additionally, the sustained TEMPO not only takes a toll on our 
people but also on our equipment as we conduct split operations.
    Because our current readiness is the result of several years of 
sustained underfunding, poor retention, TEMPO, and aging systems, it 
will require several years of substantial and sustained investment to 
recover readiness.

    41. Senator Thurmond. Secretary Roche, the Air Force's current 
backlog in maintenance and repair of facilities is in excess of $4.0 
billion and is expected to grow to $5.6 billion by the end of the 
fiscal year. Despite this significant backlog, the Air Force funded 
real property maintenance at less than 1 percent of plant replacement 
value.
    What was the basis for the low level of funding for RPM? How long 
will it take for the Air Force to make up the ever increasing backlog 
in real property maintenance?
    Secretary Roche. The Air Force topline supported the priorities of 
readiness, recruitment and retention, modernization, flying hour and 
utility cost increases. Unfortunately, the plus up from the recent 
amended budget was not enough to address facility O&M shortfalls.
    If facility sustainment requirements were fully funded, our 
facility restoration and modernization requirements would be an 
additional $1.2 billion per year to buy down the backlog by 2010. This 
funding would be in addition to a MILCON funded to meet the 67-year 
facility replacement standard and would allow the Air Force to buy down 
the backlog.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                            okinawa incident
    42. Senator Smith. Secretary England and Secretary Roche, the July 
9th New York Times had an article on this latest incident in Okinawa 
involving a U.S. servicemember and a rape charge, I recognize the 
importance of Japan in the U.S. security framework in the Pacific and 
as a partner in missile defense research. However, I have concerns 
about turning over U.S. servicemembers to the Japanese Government for 
prosecution. The article states that the Japanese judicial system 
permits interrogation without a lawyer present and with an interpreter 
chosen by the police, which it says is ``standard Japanese procedure,'' 
U.S. demands that a U.S. appointed interpreter be present and a defense 
attorney were rejected. When did the U.S. cede the rights of these 
service members to a foreign judicial system and can this be revisited 
at any point, since it appears that their civil rights under the UCMJ 
are being violated?
    Secretary England. Under general international law, a country may 
exercise criminal jurisdiction over anyone found within its borders. 
For instance, a nation is not obliged to give any different treatment 
to a foreign tourist accused of a crime than it would give to one of 
its own citizens. Unless, that is, it has agreed by treaty to provide 
special treatment to the foreign national.
    One of the functions of a Status of Forces Agreement (SOFA) is to 
recognize that military personnel invited into a country have special 
status and are therefore entitled to special treatment under the SOFA. 
One of the ways host countries typically recognize this status is to 
grant to the United States the right to exercise its criminal 
jurisdiction over U.S. service members who commit crimes within the 
host nation. However, in a number of agreements host nations have 
reserved the right to exercise criminal jurisdiction in certain types 
of cases, such as where there is an allegation of a very serious 
offense committed against someone who is not part of the U.S. force or 
civilian component. The United States seeks to secure the greatest 
latitude possible for bringing service members accused of crimes in 
foreign countries back under its jurisdiction.
    In those cases where the host country retains the right to 
prosecute, the United States seeks, through the SOFA, to secure for the 
accused service member as many due process rights as possible. The 
United States then augments those safeguards by providing lawyers, 
translators and trial observers to the accused service member without 
charge.
    The Navy will always seek the same procedural rights for U.S. 
service members facing trial in a foreign country that they are 
entitled to under the UCMJ and the Constitution. That may not always be 
possible given the sovereign status of the host nation within its 
borders. But, we will in all cases demand that U.S. service members be 
afforded an investigation and trial that are open to observation by 
U.S. representatives and are objectively fair.
    Secretary Roche. Under general international law, a country may 
exercise criminal jurisdiction over anyone found within its borders. 
For instance, a nation is not obliged to give any different treatment 
to a foreign tourist accused of a crime than it would give to one of 
its own citizens. Unless, that is, it has agreed by treaty to provide 
special treatment to the foreign national.
    One of the functions of a Status of Forces Agreement (SOFA) is to 
recognize that military personnel invited into a country have special 
status and are therefore entitled to special treatment under the SOFA. 
One of the ways host countries typically recognize this status is to 
grant to the United States the right to exercise its criminal 
jurisdiction over U.S. service members who commit crimes within the 
host nation. However, in a number of agreements host nations have 
Reserved the right to exercise criminal jurisdiction in certain types 
of cases, such as where there is an allegation of a very serious 
offense committed against someone who is not part of the U.S. force or 
civilian component. The United States seeks to secure the greatest 
latitude possible for bringing service members accused of crimes in 
foreign countries back under its jurisdiction.
    In those cases where the host country retains the right to 
prosecute, the United States seeks, through the SOFA, to secure for the 
accused service member as many due process rights as possible. The 
United States then augments those safeguards by providing lawyers, 
translators and trial observers to the accused service member without 
charge.
    The Air Force will always seek the same procedural rights for U.S. 
service members facing trial in a foreign country that they are 
entitled to under the UCMJ and the Constitution. That may not always be 
possible given the sovereign status of the host nation within its 
borders. But, we will in all cases demand that U.S. service members be 
afforded an investigation and trial that are open to observation by 
U.S. representatives and are objectively fair.

    43. Senator Smith. Secretary England, I'm concerned about an 
organization affiliated with CINCPAC called the ``Asia-Pacific Center 
for Security Studies''--based in Hawaii. A retired Marine Lieutenant 
General, Hank Stackpole, who runs this organization, told a conference 
in Australia that the Bush administration's missile defense program 
would be destabilizing. Here's the quotation: ``I don't believe, in my 
own personal view, that it is worth the effort to go ahead and create a 
space war field. . . . What rogue states are going to build ICBM that 
are easily targeted when you can do, you've heard the old argument, 
suit-case nuclear device somewhere in downtown New York.'' First, he's 
comparing apples and oranges--we have to worry about ICBM and suitcase 
nokes--but second, I'm concerned about an organization which is 
affiliated with PACOM that is undermining the president on missile 
defense. I would recommend that PACOM end its affiliation with this 
organization.
    Would you care to comment?
    Secretary England. Modeled after the George C. Marshall European 
Center for Security Studies, the Asia-Pacific Center for Security 
Studies was established to build on the strong bilateral relationships 
between the United States Pacific Command and the Armed Forces of the 
nations in the Asia-Pacific region. The relationship between the Asia-
Pacific Center for Security Studies and United States Pacific Command 
is an issue for the Secretary of Defense.

    44. Senator Smith. Secretary England, when the U.S. accidentally 
bombed the Chinese Embassy in Belgrade, the U.S. agreed to pay for 
refurbishment of the Embassy. On April 1, when the Chinese pilot 
crashed into the Navy EP-3 and forced an emergency landing on Hainan 
Island, we had to pay for a Russian transport to carry our aircraft 
back to the States.
    Is there any reason why the Navy did not ask the Chinese Government 
to pay for the damage it did to our aircraft over international waters?
    Secretary England. The U.S. Government did not request compensation 
for damage to the U.S. aircraft, nor did it address the issue of 
damages to the Chinese aircraft involved in the incident as raised by 
the People's Republic of China. Further questions regarding these 
matters should be referred to the Office of the Secretary of Defense.

                         submarine force level
    45. Senator Smith. Secretary England, the Director of Undersea 
Warfare for the Navy volunteered that the submarine force wasn't able 
to ``do some of the national-level missions that we're asked to do.'' 
He commented this spring that submarines have been pulled off those 
missions to go off and do other work.
    Reportedly, strategic intelligence tasking has doubled in the past 
10 years, while the number of attack subs in the fleet have declined by 
40 percent--what is the solution to this problem?
    Secretary England. The solution is two-fold. First, we must ensure 
our submarines are employed efficiently and effectively to carry out as 
many operational requirements as possible with existing resources. 
Second, we must preserve and acquire the right number of submarines in 
order to build up our SSN force structure.
    In the area of submarine employment practices, the interdeployment 
training cycle and maintenance periods have been reduced, deployment 
duration has been increased to 6 months for all submarine deployments, 
and our ships and crews are operating at maximum operating tempos. We 
are also proceeding with plans to homeport three submarines in Guam 
starting in 2002 to increase their availability for Intelligence, 
Surveillance, and Reconnaissance (ISR) missions in that theater. The 
submarine force providers are operating the forces as efficiently as 
possible. Further reductions in training time or deferrals of 
maintenance to increase operational time would have a significant 
negative impact on submarine force material and personnel readiness.
    The remaining option, if we are to fulfill all of the current and 
projected ISR mission requirements for submarines, is to increase force 
size. Increasing submarine force structure in the near and mid-term can 
be done by refueling existing SSNs otherwise scheduled for early 
inactivation and by converting SSBNs to SSGNs to boost the overall 
force structure and free SSNs to perform more intelligence missions. In 
the President's Fiscal Year 2002 Budget Proposal, we recommend new 
funding to begin converting SSBNs and to refuel one of the five SSNs 
scheduled for inactivation. For the long-term, fixing submarine force 
structure shortfalls can be done only by increasing the Virginia Class 
SSN build-rate to 2-3 per year as soon as possible.

    46. Senator Smith. Secretary England, if the Navy can't meet U.S. 
intelligence requirements, what price are we paying in terms of 
readiness and isn't good intelligence one of the most important 
missions of all, and one that should never be underfunded?
    Secretary England. Understanding the price paid in terms of 
national or military readiness is complicated by the fact that we 
cannot assess what we don't know--i.e. what we have failed to hear or 
see due to a lack of submarine presence for intelligence collection. 
The best that can be done is to address examples, invariably highly 
classified examples, of situations where the submarine was the only 
``sensor'' that was able to identify ad evaluate significant actions or 
capabilities of a potential adversary--even when all other intelligence 
collectors identified nothing. In the 1999 Attack Submarine Study, 
Intelligence Surveillance and Reconnaissance (ISR) missions were 
assessed by the Geographic CINCs as the highest priority missions for 
SSNs. In that study, the CINCs assessed the impact of not executing 
both current and future missions by articulating, at a classified 
level, detailed consequences of not executing specific missions. 
Because of submarines' long dwell time and ability to collect 
intelligence covertly from close-in, the impact of unfilled submarine 
intelligence missions could include missed intelligence tippers for the 
National Command Authority, lost cueing for national sensors, or missed 
opportunities to observe and evaluate adversaries' tactics and 
operating patterns. Although intangible by nature, all of these 
intelligence ``gaps'' degrade, to varying degrees, our Nation's 
national security and readiness.
    I heartily agree that intelligence requirements should not be 
underfunded. At the same time, I must guide the Navy within the budget 
limitations and with careful consideration of the resources required to 
support all of the Navy's missions and operational requirements.

    47. Senator Smith. Secretary England, the U.S. and Russia signed a 
new bilateral maritime agreement recently ostensibly to facilitate 
trade between our Nations--I would like to know whether the Navy was 
consulted on this agreement? Can you explain why Puget Sound was left 
off the list of naval facilities that would have required advance 
notification for Russian merchant vessels? (given we know the Russians 
use ``merchant'' vessels for espionage and especially since Puget Sound 
was the site of the 1997 lasing incident involving the Russian, the 
Kapitan Mann-which caused eye damage to both the American and Canadian 
pilots).
    Secretary England. The Navy vetted the proposed bilateral maritime 
agreement with Russia through the Interagency. In the process, the Navy 
provided input to the Joint Staff in order to formulate a Department of 
Defense position for the U.S. negotiating team. Puget Sound was removed 
from the port security list in 1991. The Navy has continuously 
expressed concern in the interagency process over that removal.

    48. Senator Smith. Secretary England, General Jones, and Admiral 
Clark, when we recently met, we discussed a myriad of subjects. During 
the meeting you mentioned that you have been told that there is an 
approximate 25 percent excess in the military's infrastructure.
    In light of such an estimate and given the President's desire to 
withdraw from the island of Vieques by 2003, can we justify a continued 
presence on mainland Puerto Rico?
    Can you promise me that you will give serious consideration to 
closing Fort Buchanan and Naval Station Roosevelt Roads if the primary 
reason for their existence was to support operations on Vieques?
    Secretary England. The architecture and structure of Naval Station 
Roosevelt Roads has been built up over the years to support training in 
the Puerto Rico operating areas. Without that training, and coupled 
with our need to effectively use tight resources, the issue of whether 
the Navy will maintain a presence on mainland Puerto Rico, and to what 
degree is a question that will require careful examination. We have 
stated that the Navy will conduct this examination during the course of 
our resource decision-making.
    General Jones. The issue of closing facilities in Puerto Rico is 
outside my purview as the Commandant of the Marine Corps. While Marine 
Corps forces utilize the training facilities on Vieques, the Marine 
Corps does not own or operate any facilities in Puerto Rico. For this 
reason, the issue of continued facilities presence in Puerto Rico is 
better directed to the Chief of Naval Operations and the Chief of Staff 
of the Army and their Service Secretary, all of whom have facilities 
responsibilities in Puerto Rico in the form of Fort Buchanan and Naval 
Station Roosevelt Roads. Additionally, the Commander in Chief of 
Southern Command is a significant tenant at Fort Buchanan and his 
operations in the Southern Command Area of Responsibility must be taken 
into account when analyzing future facilities requirements in Puerto 
Rico.
    Admiral Clark. Bases are part of the overall structure that 
supports our combat capabilities. This ``support of combat capability'' 
is the value-added measurement that must be applied to all our Defense 
infrastructures. Naval Station Roosevelt Roads supports various 
missions related to the Atlantic Fleet Weapons Training Facility, 
including Vieques. Any decisions regarding the value of this base must 
include an objective review of the contribution to combat capability 
(in this case training) that the base makes. This method of measuring 
value, the contribution to ``support of combat capability'', will be 
continually applied to our infrastructure, and I will certainly apply 
this criteria in any future assessments of the need for Naval Station 
Roosevelt Roads.
    The Army will have to address the Fort Buchanan portion of this 
question. With respect to Naval Station Roosevelt Roads (NSRR), the 
mission of the base is to support training in the Puerto Rico operating 
area, to support U.S. Southern Command presence and outreach into South 
America, and support multi-agency drug interdiction efforts. Should 
training on the Vieques inner range cease, valuable training may 
continue to take place in the unencumbered sea and air space of the 
larger Puerto Rico operating area, in addition to continuation of the 
U.S. Southern Command and drug interdiction missions. The Navy will 
conduct an examination to determine the extent of training to be 
performed in the Puerto Rico operating area and the required Navy 
presence at Naval Station Roosevelt Roads.

    49. Senator Smith. General Jones, what is the current status of the 
MPF(E) initiative? What are its funding shortfalls and timeline for 
completion of the third and final ship?
    General Jones. The first MPF(E) ship, the USNS Harry L. Martin, is 
assigned to Maritime Prepositioning Squadron One (MPSRON 1) in the 
Mediterranean.
    Conversion of the USNS Stockham, MPF(E) ship two, was recently 
completed by NASSCO, San Diego, CA. The naming ceremony for the USNS 
Stockham occurred 06 July 01 at Blount Island Command (BIC), 
Jacksonville, FL. The USNS Stockham will complete load out in July 2001 
and join MPSRON 2 in Diego Garcia.
    We reached a major milestone and averted a work stoppage with our 
last MPF(E) ship to be fielded, the USNS Wheat/GTS Bazilaya. The new 
projected delivery date is late November 2001. Military Sealift Command 
(MSC) negotiated a contract modification (firm, fixed price vice cost 
plus contract) with Bender Shipbuilding (Mobile, AL) and additional 
funding of $11 million was provided from the National Defense Sealift 
Fund (NDSF) for the USNS Wheat/GTS Bazilaya conversion.

                              abaya policy
    50. Senator Smith. Secretary Roche, I wrote to Secretary Rumsfeld, 
along with four of my colleagues, including Senator Collins on this 
committee, asking for an explanation of the DOD policy which requires 
female service members to don an abaya--which is standard wear for 
Muslim women, but is not a Saudi mandate--either for State Department 
female employees or for tourists. I have yet to receive an answer, but 
I have had a lot of women and men who have since voiced their outrage 
over this policy--arguing that it isn't justifiable under any 
rationale--including force protection. An Air Force officer first went 
public about this, since her private efforts to reverse this Muslim 
garb edict were ignored for years--can you look into this and let me 
know when my letter will be answered substantively?
    Secretary Roche. As of 20 July, letters relating to this issue were 
in General Shelton's office awaiting approval. We have assurances from 
his staff that the letters will be forwarded to the concerned Senators 
shortly.

                          rogue nuclear threat
    51. Senator Smith. Secretary Roche, an article from the Jerusalem 
Post (July 9) claims Iran will have a nuclear bomb by 2005, and that 
the Iranian Shahab-3 will be capable of reaching any point in Israel. 
The Iranians are believed to be already in possession of chemical and 
biological weapons of mass destruction. The arms control lobby says 
we're exaggerating the threat from ``rogue'' states--but what about the 
threat to U.S. forces deployed near rogue states--e.g. in Korea, in 
Japan, in Guam, in Europe, etc.--and the threat to our close allies, 
such as Israel? If the Iranians are to become nuclear-capable, how 
would that transform our debate over missile defenses and the ABM 
Treaty? Are we going to wait for the surprise results of an Iranian 
test, as we witnessed with India (to the surprise and dismay of our 
intelligence community)--and then launch a crash program for deployment 
of missile defenses?
    Secretary Roche. No ``crash'' program is necessary to protect U.S. 
troops and allies near rogue states that may be developing Weapons of 
Mass Destruction (WMD). We have a robust capability and are developing 
additional capability against missile attack. The U.S. has currently 
fielded the Patriot missile defense system in areas close to rogue 
states to protect our troops and Allies. Additional Patriot systems are 
available in the U.S. to field worldwide if a new threat is perceived. 
We also have the capability to attack suspected sites of WMD launchers 
by using airpower and special operations units. In addition to these 
capabilities, the U.S. is developing additional layers of missile 
defense. Systems such as the Army's THAAD, Navy Theater Wide and the 
Air Force's Airborne Laser will further strengthen our ability to deal 
with future threats. All of these systems are designed for use in a 
theater and have been judged to be compliant with the ABM treaty, which 
only addresses missile defenses within the U.S.
                           acquisition reform
    52. Senator Smith. Secretary Roche, in his testimony before this 
committee on January, 11, 2001, the SECDEF pledged to undertake a 
wholesale reorganization of the acquisition process to reduce the time 
it takes to field new systems, Secretary Rumsfeld stated, and I quote, 
``The U.S. military needs to get on a new path that will permit the 
rapid introduction of advanced technology that can materially increase 
military effectiveness and decrease the cost of operating and 
maintaining those forces''. In previous communications with me you 
stated that the Air Force is fully committed to the expeditious 
development, procurement, and implementation of new technologies to 
``own the night'' such as the Integrated Panoramic Night Vision Goggle. 
As you stated in your letter to me dated January 23, 2001, ``Increasing 
our warfighters nightfield of view from 40 degrees to 100 degrees adds 
a combat dimension not present in current night vision devices''.
    Do you agree with the SECDEF that we need to fundamentally reform 
the acquisition process in order to accelerate the development and 
delivery of key technologies? Can you provide the committee with your 
plan to accelerate the delivery of the Integrated Panoramic Night 
Vision Goggle, and how your funding reflects your accelerated efforts.
    Secretary Roche. Yes, and we are working aggressively to improve 
our acquisition processes. We are embracing evolutionary and spiral 
development, experimenting with new ways to quickly fund and deliver 
promising technologies, and streamlining the requirements-writing 
process.
    Delivering the Integrated Panoramic Night Vision Goggle to the 
field is not a question of process, but funding. Currently, estimated 
costs of $11.3M RDT&E to fund flight test and ejection testing and 
$82.7M Procurement across the FYDP are needed to field a baseline 
quantity of 2,200 units. There is no specific funding for this effort 
in the Fiscal Year 2002 President's Budget. However the program is 
currently competing with other Air Force requirements for fiscal year 
2002 funding through one of our acquisition reform initiatives, the 
Warfighter Rapid Acquisition Program Process.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                         transformation funding
    53. Senator Santorum. Secretary White, last year, the Army 
terminated or restructured seven programs to pay for the Army's 
Transformation initiative. The Army believed these terminations and 
restructurings were necessary because the Office of the Secretary of 
Defense was unable to provide additional funds to support transforming 
the Army. Congress then restored several of these programs because of 
existing Army requirements. What assurance can you provide that the 
Army's Transformation initiative is fully funded in the Fiscal Year 
2002 Budget Amendment? If the Transformation effort is not fully 
funded, what are some of the trade-offs or choices that the Army will 
have to consider to see that this effort is adequately funded?
    Secretary White. The fiscal year 2002 budget generates sustainable 
momentum for Army Transformation, although not at optimal levels. We 
invested in Objective Force research, development, testing, and 
evaluation to set the stage for modernization of equipment; continued 
fielding the Interim Brigade Combat Teams; and funded modernization of 
key Legacy Force systems to enhance force capabilities. We made a 
number of tradeoffs to ensure a well-balanced Army program and will 
continue to evaluate competing requirements in our efforts to 
transform.
                                grizzly
    54. Senator Santorum. General Shinseki, the Army's Grizzly is a 
Military Load Class 70 complex obstacle-breaching vehicle that 
integrates advanced countermine and counter-obstacle capabilities into 
a single survivable system. The Grizzly incorporates a full-width mine 
clearing blade, a power driven arm for obstacle reduction and digging 
and a commander's control station (crew compartment) on a refurbished 
M1 tank chassis. The Grizzly will be capable of breaching other types 
of natural and man-made, simple and complex obstacles, creating a lane 
for vehicles to follow. The Grizzly is designed to provide our maneuver 
forces with mobility support (i.e., counter-obstacle breaching) for 
decisive operations.
    The fiscal year 2001 Army budget request included decisions to 
restructure or ``divest'' a number of programs in order to provide some 
of the resources to support its Transformation to achieve the ambitious 
deployment goals outlined in the October 1999 Army Vision. Grizzly was 
one of the programs that was terminated. Prior to this action being 
taken, the Grizzly breacher was scheduled to be fielded in 2004.
    Last year, the Senate Armed Services Committee authorized $108 
million in funding to restore the program. The committee did so because 
it believes that critical mobility systems like the Grizzly must be 
continued to correct critical operational shortfalls for deployed 
forces. The Senate Appropriations Committee provided only $15 million 
in research and development funding for fiscal year 2001. In the end, 
only $15 million in funding was provided for Grizzly.
    If the Grizzly breacher is not fielded, the Army will have to rely 
on the M728 Combat Engineer Vehicle (CEV), an armored vehicle which 
consists of a basic M60A1 tank with a hydraulically operated debris 
blade, a 165mm turret-mounted demolition gun, a retractable boom, and a 
winch. The CEV was placed in service in 1965 with a total of 291 
vehicles. During Operation Desert Storm the CEV proved unable to 
maneuver with the heavy force due to the inability of the M60 chassis 
and power train to keep pace with the M1A1.
    What is the level of support requested for fiscal year 2002 for the 
Grizzly breacher? If the Grizzly breacher is not fielded, how does the 
Army intend to meet its requirements for decisive operations? What are 
the costs associated with sustaining the CEV?
    General Shinseki. The Grizzly program is not funded in the Fiscal 
Year 2002 President's Budget.
    For the Legacy and Interim Forces, the Army will continue using the 
current deliberate breaching tactics of sequentially orchestrating 
multiple systems with soldiers on the ground to affect a breach in 
support of mounted operations. Deliberate breaching operations are 
resource and time intensive. Current systems used in support of 
breaching operations include the Armored Combat Earthmover for 
breaching craters and ditches, the Armored Vehicle Launched Bridge for 
breaching ditches, the Armored Battalion Countermine Set used to proof 
lanes in minefields, the Mine Clearing Line Charge used to breach 
minefields, the bangalore torpedo used to clear mines, and dismounted 
soldiers employed to reduce wire obstacles and to reduce other 
obstacles with explosives. For the Objective Force, Future Combat 
System concepts are under development. These will ensure we meet our 
requirements for decisive operations.
    There are no sustainment costs for the CEV, the vehicle was retired 
from service in 1998. However, 14 vehicles remain in the inventory. 
Four of these vehicles were converted into special purpose, remotely 
controlled, mine clearing vehicles in the Balkans. The remaining 10 
vehicles are located at Anniston Army Depot and are cannibalized for 
spare parts to support the four operational mine clearing vehicles.
    We do not have fiscal year 2001 cost data for these vehicles. 
However, historical fiscal year 2000 data show sustainment costs at 
$533,948. This cost was based on a total operational tempo of 560 miles 
for the four operating mine clearing vehicles.

    55. Senator Santorum. Secretary England, the T-6A Joint Primary 
Aircraft Training System (JPATS) turboprop is designed as a dedicated 
training aircraft possessing jet-like handling characteristics. 
Replacing the Air Force's T-37 and the Navy's T-34C aircraft, the T-6A 
will offer better performance and significant improvements in training 
effectiveness, safety, cockpit accommodations and operational 
capabilities. Powered by a PT6A-68 turboprop engine with a four-blade 
propeller, it features a stepped-tandem, cockpit configuration, with 
the instructor's rear seat raised slightly to improve visibility from 
the' rear cockpit; modern avionics; and improved egress systems.
    Briefing materials provided by the Navy note that the Service had 
originally intended to purchase 24 JPATS aircraft. Last year, the Navy 
purchased 24 trainers to continue modernizing its inventory of training 
aircraft. However, this year it appears that the Navy has not requested 
funds to purchase any JPATS aircraft in fiscal year 2002.
    Please explain this decision and please note the impact on the 
industrial base, which ramped up from producing 12 JPATS for fiscal 
year 2000 to 24 JPATS for fiscal year 2001. That is, what will be 
impact on the JPATS producer if no additional aircraft are purchased in 
fiscal year 2002? How is the Navy planning to fill the 24-aircraft gap?
    Secretary England. The T-34C is a safe and reliable aircraft and 
has sufficient service life remaining to satisfy Navy requirements for 
several more years. The Navy conducted a prioritized review of Navy 
programs including the Joint Primary Aircraft Training System (JPATS) 
procurement profiles. In this review all options were investigated, 
including maintaining the T-34C in service longer than previously 
envisioned. JPATS procurement was deferred to fund more urgent 
competing priorities and take better advantage of the service life 
remaining on the T-34C.
    Previously, the procurement profile would have resulted in a 
production rate in excess of economic order quantity. While this was a 
boon to industry in the short run, the end of the Air Force buy in 
fiscal year 2007 would have resulted in a Navy buy (of 24) far below 
minimum sustaining rate and at a premium cost to the Navy. By deferring 
the Navy buy to post Air Force procurement, we optimize the remaining 
life on the T-34C and allow the Navy to commence procurement at an 
economic order quantity in the future. This would provide industry with 
long-term steady state production and minimize the near-term fiscal 
year 2002 quantity reduction impact.
                                 ______
                                 
               Questions Submitted by Senator Pat Roberts
    56. Senator Roberts. General Jones, your statement refers to the 
differences between the terms transformation and modernization. Please 
explain for the committee the basic differences between these two terms 
as they relate to the Marine Corps.
    General Jones. Unlike the other services that have undergone a 
major restructuring in response to the changing strategic and 
operational landscapes of the post Cold War world, the Marine Corps has 
been assigned a role and organized, trained, and equipped as an 
expeditionary force in readiness that is as relevant today as it was in 
1952 when Congress established in law the role of the Marine Corps. The 
Marine Corps has neither had to downsize nor reshape itself as a result 
of the Cold War. Instead, the Marine Corps has continued to follow a 
plan for developing additional capabilities needed to hone its ability 
to conduct its assigned role against the changing threat in the 21st 
century.
    Absent a change of role as a result of the end of the Cold War, the 
Marine Corps has sought to modernize its forces through selective 
acquisition of new equipment that takes advantage of emerging 
technologies such as precision weapons, information technology, new 
engines, stealth technology, etc. In some cases, such as the Light 
Weight 155mm Howitzer, the intent is to replace existing equipment that 
is past its service life. In other cases--such as the MV-22 and AAAV--
the ideas for the technologies were developed during the 1980s to 
enable new operational concepts while the technologies to build the 
equipment have not been sufficiently developed until 20 years later. In 
this sense, modernization through the addition of new equipment that 
will provide a major increase in the depth and speed that the Marine 
Corps can carry out its assigned role as an inherently naval 
expeditionary force will result in potentially revolutionary increased 
capabilities but without a major restructuring and transformational 
change in the operating forces of the Marine Corps.
    Accordingly, modernization as used by the Marine Corps explicitly 
means reshaping the Marine Corps capabilities to meet the future 
through the selective acquisition of new equipment that will enable the 
execution of Expeditionary Maneuver Warfare in support of emerging 
joint warfighting concepts. Modernization does lead to quantum 
increases in capability; however, because it is part of an on-going 
process of Marine Corps combat development there is no requirement for 
a major shift in the way the Service trains, organizes, and equips 
Marine Corps operating forces that is implicit in the term 
transformation.
    To the Marine Corps, transformation is a continuing process that 
spans decades of innovation and experimentation with the implementation 
of new systems, operational and organizational concepts. It involves 
the development of new operational concepts, refinement of enabling 
capabilities through experimentation, and the development of new 
organizations, tactics, techniques, procedures and technologies as 
necessary to turn these concepts into warfighting capabilities.

    57. Senator Roberts. General Jones, your statement highlights 
concerns you have regarding the 2001 congressionally-mandated PERSTEMPO 
program. Could you please comment on some of your concerns and 
recommended solutions?
    General Jones. The Marine Corps understands the intent of the 
PERSTEMPO legislation, is fully complying by actively tracking and 
managing the PERSTEMPO of our marines, and will report to Congress as 
required. However, we have several concerns: The high-deployment per 
diem payment equates to paying premiums for doing what we do as normal 
operations and deployments in support of the nation. PERSTEMPO 
requirements put our commanders on the horns of a dilemma by causing 
them to make decisions they wouldn't ordinarily make: Use scarce 
Operations and Maintenance funds to pay per diem, or; break the 
continuity and cohesion of units to avoid putting some marines over the 
400 day threshold, or; reduce the amount of necessary re-deployment 
training so that individuals will not break the 400-day threshold 
during the deployment. We ask that Congress recognize that the 
PERSTEMPO legislation is a new requirement and the full impact is not 
known at this time. We need time to fully assess the impact and 
possible unintended adverse consequences and implement any necessary 
corrective actions. The Marine Corps recommends delaying the 
requirement to begin paying the high-deployment per diem payments, for 
those exceeding the 400 day threshold, until 1 October 2003. This delay 
allows the Services the time to use the tools we have devised to manage 
PERSTEMPO before we are required to start the payments. Using our 
tools, we will be able to reduce PERSTEMPO to the least possible amount 
and have time to budget for the PERSTEMPO per diem that we must pay.

    58. Senator Roberts. General Jones, your statement highlights the 
Marine Corps' efforts to move beyond traditional amphibious assault to 
advanced expeditionary operations from land and from sea. Please 
explain what expeditionary means as applied to the Marine Corps.
    General Jones. To the Marine Corps, expeditionary implies an ethos 
and state of mind. It defines both a constant state of readiness for 
deployment as well as a required preparation to adapt to a wide range 
of missions and warfighting conditions. As a naval service, the Marine 
Corps is specifically tailored to serve as part of a seabased 
operation. However, the same qualities that make it readily adaptable 
to a variety of seabased missions make it a force of choice for a 
number of expeditionary missions that are not necessarily seabased in 
nature.
    The Marine Corps is expeditionary by culture and transformational 
by design. Its organizational paradigm has been proven fundamentally 
sound and relevant, providing templates to forge innovation for the 
future. Each Marine Air-Ground Task Force (MAGTF) is an integrated 
combined-arms team, modular and scalable to meet the unique 
requirements of the specific mission, including leading or enabling 
joint and coalition operations. The objective is to develop the 
capability to use the sea both as maneuver space and sanctuary for 
reach back to integrated long-range precision fires, network centric 
command and control, adaptive integrated seabased logistic support, and 
assembly of follow-on forces.
    At the same time, the Marine Corps is capable of expeditionary 
operations that are not seabased. Historically, marines have been a 
force of choice for a variety of expeditionary missions that have not 
been seabased such as sustained support of the United Nations efforts 
in Somalia, and aviation support of joint operations over Bosnia and 
Kosovo from an expeditionary airbase at Aviano, Italy. During Desert 
Storm, marine expeditionary forces were among the first on the ground 
in Saudi Arabia through maritime prepositioning in support of an 
expeditionary operation that was hosted by a friendly nation rather 
than conducted from a seabase.
    As the Marine Corps modernizes with the addition of the AAAV and 
MV-22 it will have certain inherent capabilities for power projection 
that will enable even greater reach for Marine Corps operating forces 
operating either from the seabase or from intermediate staging bases 
ashore. This expanded reach will permit forcible entry operations over 
a much greater range of shoreline making it less predictable and 
vulnerable than traditional amphibious assaults against established 
defenses. At the same time, the addition of the MV-22 will provide an 
extraordinary extension in the range that marine expeditionary forces 
will be able to be projected from either sea or land bases in order to 
pursue the range of humanitarian and crisis response missions that U.S. 
military forces are required to conduct in addition to more traditional 
forcible entry operations.

    59. Senator Roberts. General Jones, how does the Marine Corps 
define its amphibious lift requirement? To what extent is this 
requirement being met today? Is this requirement being re-examined as 
part of the ongoing defense review?
    General Jones. The naval warfighting requirement, the capability 
the Marine Corps strives to provide to our Nation, remains at 3.0 
Marine Expeditionary Brigade Assault Echelons. The long standing 
requirement for an amphibious force structure plan that supports lift 
for 3.0 Marine Expeditionary Brigade Assault Echelons, as stated in the 
Department of the Navy's 1990 Integrated Amphibious Operations and USMC 
Air Support Requirements Study, the 1992 Mobility Requirements Study, 
and reemphasized in congressional testimony and the Secretary of 
Defense's 26 June 2000 Report On Naval Vessel Force Structure 
Requirements, remains a priority requirement.
    To determine amphibious ship requirements in this context, a Marine 
Expeditionary Brigade is measured by the five fingerprints of lift 
consisting of troops, square feet for vehicles, cubic feet for cargo, 
vertical take off and landing spots, and landing craft air cushioned 
spots. Today's active amphibious fleet is capable of lifting the 
following Marine Expeditionary Brigade Assault Echelon equivalents: 
Troops--2.72; Vehicle square feet--2.1; Cargo cubic feet--3.71; 
Vertical Take Off and Landing spots--3.25; and Landing Craft Air 
Cushioned spots--3.5. Shortfalls in active amphibious ships remain an 
area of concern.
    Naval amphibious ships combined with embarked marines provide 
forward presence and flexible crisis response forces for employment in 
support of foreign policy objectives. These forces provide the most 
formidable amphibious forcible entry capability in the world. 
Amphibious lift requirements are formulated to support the National 
military strategy, satisfy combat surge requirements, and can also be 
tailored to meet real world day-to-day commitments. Although this 
particular requirement is not being examined as part of the ongoing 
Quadrennial Defense Review, the Marine Corps, expeditionary by nature 
and transformational by design, continuously reexamines requirements to 
ensure validity.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
                         out-of-pocket expenses
    60. Senator Allard. Secretary Roche, Secretary White, and General 
Shinseki, I have long been concerned on the high out of pocket expenses 
of military personnel living off post in the Colorado Springs area and 
now outside of Buckley Air Force Base. The reduction of out of pocket 
expenses for military personnel living offpost is long over due. Can 
you comment on your efforts to meet the goal of reducing or eliminating 
these costs and increasing the availability of housing on these 
installations?
    Secretary Roche. In 2000, the Secretary of Defense directed that 
BAH would pay for 100 percent of the median out-of-pocket expenses by 
2005. BAH is being transitioned over the next few years to avoid any 
sizable changes to allowances. 2000 BAH rates were set at 18.9 percent 
out-of-pocket, 2001 is 15 percent, 2002 will be 11.3 percent, 2003--7.5 
percent, 2004--3.5 percent, and 2005--0 percent.
    The Air Force, along with DOD, is on track to meet the milestones 
of this reduction plan to decrease out-of-pocket expense. However, 
these improvements generate large DOD bills: $486 million for fiscal 
year 2002, $614 million for fiscal year 2003, $635 million for fiscal 
year 2004, and $718 million for fiscal year 2005. Continued 
congressional support is needed to pay for housing allowance reform and 
process improvements.
    Our Family Housing Master Plan (FHMP) identifies locations where 
there is not a sufficient supply of affordable and adequate units in 
the local community. The FHMP identifies a future requirement to 
construct 80 additional units at Peterson AFB in Colorado Springs and 
201 units for Buckley AFB in Denver. Consistent with this plan, our 
fiscal year 2002 program includes a privatization project to construct 
201 units for Buckley AFB.
    Secretary White and General Shinseki. The Army has been on a 
campaign to reduce out-of-pocket expenses. We have concentrated our 
efforts on the largest areas where out-of-pocket expenses occur: basic 
pay, housing, medical care, and permanent change of station (PCS) 
moves. With the help of Congress, we have been able to obtain pay 
raises at a rate higher than the National employment cost index through 
2006.
    The Secretary of Defense established a goal to eliminate out-of-
pocket housing expenses by fiscal year 2005 through increases to the 
basic allowance for housing. This initiative should increase off-post 
housing available to soldiers in the local community. At Fort Carson, 
the housing privatization contractor is constructing an additional 840 
housing units on post to meet the housing needs of soldiers assigned 
there.
    The Army has achieved substantial improvements to health care that 
our soldiers and their families receive. TRICARE Remote, elimination 
and reduction of co-pays, and reduction of pharmacy costs will help 
eliminate soldier out-of-pocket expenditures. Healthcare improvement is 
an ongoing process, and we will continue to adjust to meet the needs of 
an ever-changing world.
    A multi-service working group is reviewing ways to reduce out-of-
pocket expenses related to PCS moves. The working group is reviewing 
ways to streamline the moving process, introduce cost efficiencies, and 
improve entitlements for service members during and after their move.

                            force structure
    61. Senator Allard. General Ryan and General Shinseki, we often 
hear reports that the PERSTEMPO and the OPTEMPO are high and that the 
services are having difficulty maintaining them with the current force 
structure. An increased reliance on the Reserve components has had a 
positive effect, but they too are suffering from a high OPTEMPO. At the 
readiness hearing last September, the service chiefs implied that the 
Quadrennial Defense Review would likely return a recommendation to 
increase the size of our force structure, particularly in the Army. Yet 
in the fiscal year 2002 budget, all services maintain the same number 
of troops. How are you going to reduce the negative effects of a high 
PERSTEMPO and OPTEMPO now and in future years?
    General Ryan. The Expeditionary Aerospace Force (EAF) construct 
addresses high PERSTEMPO and OPTEMPO by spreading deployment 
requirements over a larger Total Force pool and making deployments more 
predictable for our airmen and their families. Ten Aerospace 
Expeditionary Forces (AEFs) and two Aerospace Expeditionary Wings 
(AEWs) represent the core of the EAF's deployable combat power and 
forward presence capability. Employing a rotational cycle allows us to 
manage the force better by making more Air Force people available for 
deployments and determining when, where, and how to focus contingency 
OPTEMPO relief. We are also reviewing and ``rightsizing'' the number 
and type of airmen we deploy in support of contingency deployments. The 
AEF schedule further helps us identify shortfalls in the current force 
and make appropriate changes to our investment strategies. We are 
exploring options to reduce the tempo for Low Density/High Demand (LD/
HD) assets, standoff precision weapons capability, and Suppression of 
Enemy Air Defense (SEAD) capabilities, but the bottom line is there are 
no quick fixes.
    We have also taken steps to ensure we have sufficient personnel to 
support future OPTEMPO and PERSTEMPO demands by addressing our total 
end-strength. The Air Force's programmed-end strength was reduced from 
357,000 in fiscal year 2001 to 352,200 in fiscal year 2002. We are no 
longer attempting to achieve this reduced end strength and have added 
back 6,600 billets in pursuit of a new fiscal year 2002 programmed end 
strength of 358,800. In addition to adequate manpower, we continue to 
focus on other quality of life issues which address the effects of 
PERSTEMPO by providing improved family support, better working 
conditions, and improved compensation.
    General Shinseki. Please allow me this opportunity to define the 
terms PERSTEMPO, OPTEMPO, and deployment tempo or DEPTEMPO. OPTEMPO is 
the annual operating miles or hours for major equipment or systems in 
battalion-level or equivalent organizations. PERSTEMPO is the number of 
days an individual soldier is engaged in official duties at a location 
or under circumstances that make it infeasible to spend off-duty time 
in his or her normal residence. DEPTEMPO is the average number of days 
spent away from barracks or quarters for training or operational 
deployments. DEPTEMPO is measured as the number of days a unit would 
have to deploy as a whole.
    That said, I can best answer your question from a DEPTEMPO 
perspective. The Army has studied DEPTEMPO and associated readiness 
issues and implemented several initiatives to improve the readiness of 
the force, mitigate the impacts of deployments, and improve the well 
being of our soldiers and their families.
    The Army manning initiative has significantly improved the 
personnel readiness of our combat divisions. We have manned these units 
to 100 percent of their authorized personnel to ensure they have the 
resources to execute and sustain the full range of missions they might 
be assigned. Fully manning the divisions has reduced personnel 
turbulence and increased unit readiness.
    We have implemented a corps alignment policy that tasks one corps 
at a time to support both Bosnia and Kosovo? allowing the other corps 
to focus on collective training requirements and quality of life. We 
believe this policy can provide additional leader focus and 
predictability to both deploying and non-deploying units.
    The Army has increased the use of our Reserve component for 
overseas deployments to distribute mission load, mitigate active force 
shortfalls, and reduce active component DEPTEMPO. At the same time, our 
Reserve component soldiers have developed valuable mission experience. 
We have studied the frequency, deployment, and recovery for our Reserve 
components. We are adapting our model for mobilization, training, and 
deployment for contingency operations to reduce the impact on soldiers, 
families, and employers.
    The Army has implemented a deployment policy that limits 
operational employment to 179 days. Where appropriate, based on 
specific mission requirements, we have reduced deployment lengths to as 
low as 120 and even 90 days. We are implementing PERSTEMPO legislation 
directed by the National Defense Authorization Act of Fiscal Years 2000 
and 2001 that requires general officer involvement in decisions to 
deploy soldiers for greater than 182 days over a moving 365-day window. 
Additionally, the Army also implemented a PERSTEMPO tracking and 
management system and a stabilization policy that prevents soldiers 
from back to back deployments. The Army also designs and announces 
deployment schedules to ensure deployments are spread throughout the 
force and to offer a greater degree of predictability of deployments. 
We continue to study ways to reduce soldier time away from home.

   departure area control group operations at peterson air force base
    62. Senator Allard. General Shinseki, in your written statement, 
you state the budget meets the Army's strategic mobility goal of fiscal 
year 2003. Does this include the Army's requirement for a building at 
Peterson Air Force Base to support the Departure Area Control Group 
operations? It is my understanding that building has been slipped to 
fiscal year 2004. Please explain.
    General Shinseki. The budget does not include the building at 
Peterson Air Force Base to support the Departure Area Control Group 
operations. During the fiscal year 2002 program review and subsequent 
discussions, U.S. Army Forces Command requested that funds programmed 
for the Departure Area Control Group building be reprioritized and 
reallocated to support the Sabre Hall project at Fort Stewart. The 
funds were subsequently reallocated with the understanding that since 
there is no funding for the Army Strategic Mobility Program in fiscal 
year 2004, the Departure Area Control Group building would compete 
within the Army's normal installation infrastructure program, until 
such time as funding becomes available. The project may also be 
considered in a planned follow-on program to the Army Strategic 
Mobility Program in support of Army Transformation, which will be the 
Army Power Projection Program.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    63. Senator Collins. General Jones, you recently testified to the 
Senate Appropriations Subcommittee on Defense that ``the future of 
naval precision fires is represented by the Zumwalt class DD-21 Land-
Attack Destroyer and the development of an Extended Range Guided 
Munition.'' Further, General Nyland testified before our Seapower 
Subcommittee that the Marine Corps, at present, lacks organic fire 
support capabilities. General Nyland highlighted the need and 
requirement for the Advanced Gun System currently scheduled to deploy 
on DD-21, which would help to address this sustained fire support 
shortfall. He went on to state that, ``I am confident that the top-down 
strategy review will reveal, given the state of the world and the 
potential for future conflict, that DD-21s validity and value will be 
certain to be characterized as a necessity and a relevant element of 
the future security.'' Taken together, these planned enhancements will 
dramatically improve the range, responsiveness, accuracy, and lethality 
of the Naval Surface Fire Support provided to forces ashore. General 
Jones, would you agree that the attributes and technologies, such as 
the Advanced Gun System, Extended Range Guided Munitions, and Land 
Attack Standard Missile, currently scheduled to deploy on DD-21 will 
make significant strides in addressing this critical fires support 
shortfall?
    How key is the DD-21 program to transforming our naval surface 
fires capabilities?
    General Jones. The attributes and technologies being developed for 
DD-21 are vital for meeting the Marine Corps' Naval Surface Fire 
Support (NSFS) requirements. The Navy has recognized the current 
deficiency in NSFS and has embarked upon a two-phased program to 
eventually satisfy the requirements of the Marine Corps.
    Near-term programs such as the 5''/62 gun, Extended Range Guided 
Munition and Land Attack Standard Missile will provide an enhanced NSFS 
capability, but will not meet all of the range and lethality 
requirements for supporting the Marine Air Ground Task Force in future 
expeditionary operations. These systems will enhance the fires support 
capability of the Navy in the near-term, but will also provide a means 
by which to leverage technological development to reduce the 
developmental costs of far-term. Specifically, the technological 
developments supporting the 5-inch Extended Range Guided Munition 
program will directly benefit the 155mm Long Range Land Attack 
Projectile under development for the Advanced Gun System for DD-21.
    In the far-term, the 155mm Advanced Gun System, with a family of 
precision-guided and ballistic ammunition, and the Advanced Land Attack 
Missile, with a family of general use and specialty warheads, will 
fully meet these requirements. The capabilities provided by the DD-21 
and its associated systems remain vital to realizing the full potential 
of Expeditionary Maneuver Warfare and the conduct of expeditionary 
operations and sustained operations ashore in a fluid, non-linear 
battlespace.

                      objective crew served weapon
    64. Senator Collins. Secretary White and General Shinseki, the 
Objective Crew Served Weapon (OCSW) is a perfect example of leap-ahead 
technology to support Army Transformation. The advanced materials from 
which it is made, and the increased lethality and survivability that 
come from this weapon should push it to the forefront of 
Transformation, yet it has taken a back seat to other work. As 
Secretary, can we expect you to press forward on this weapon system and 
ensure that our fighting men and women have the best possible 
equipment? General Shinseki, would you care to add any comments on this 
program?
    Secretary White. I agree that the OCSW has great potential to 
provide our soldiers with a lighter, more lethal weapon system that has 
leap-ahead characteristics. Rather than saying that this program has 
taken a back seat, I would say that more work needs to be done before 
the Army can commit to full development and fielding. The Army has 
applied lessons learned from the Objective Individual Combat System. 
Among those lessons are ensuring that the system is sufficiently mature 
before transferring it from the science and technology base to a 
program manager and addressing important issues, such as affordability, 
reliability, and manufacturability. Once these issues have been 
resolved, the Army will have confidence that OCSW is ready for 
transition to system development and demonstration and follow-on 
procurement. The Army shares your desire to get OCSW in soldiers' hands 
as soon as possible.
    General Shinseki. I agree with Secretary White that OSCW, when 
successfully developed and fielded, will provide leap-ahead 
capabilities. I would add that OCSW will greatly enhance the lethality 
and survivability of dismounted warriors. It also has potential as an 
armament for vehicles. OCSW's ability to engage targets in defilade at 
extended range offers the Army warfighting capabilities that we need.

    65. Senator Collins. Secretary England, we have discussed the P-3 
aircraft as an integral part of our current war plans, patrol and 
reconnaissance programs before, and the fact that the average age of 
the P-3 platform is roughly 25 years old. While aircraft avionics 
upgrades have kept the plane relevant and viable in today's threat 
environment, the airframe itself is reaching the end of its useful 
service life. I am aware that an ongoing service life assessment 
program is studying this airframe fatigue life issue and that there is 
an ongoing Analysis of Alternatives underway to look at the Multi-
Mission Aircraft as a follow-on to the P-3 program.
    What will the fiscal year 2002 budget amendment allow us to do to 
further extend the life of our current P-3 aircraft and/or further 
identify a follow-on program to meet this critical patrol and 
reconnaissance Navy mission?
    Secretary England. The fiscal year 2002 amended budget contains 
$53.8 million of Research, Development, Testing, and Evaluation funding 
to conduct the next phase of the planned acquisition (Component 
Advanced Development) for the P-3 replacement aircraft. Contracts will 
be signed with one or more contractors to further refine concepts 
proposed late in 2000. The Navy plans to continue work on analyses 
supporting development of acquisition documentation, performance 
specifications, and acquisition planning required by current directives 
and law.

    66. Senator Collins. Secretary England, do you agree that the 
Department needs to actively pursue and apply resources in the near-
term to ensure that we can continue the P-3 reconnaissance operations 
without impacting readiness, as these aging aircraft reach the end of 
their useful service life?
    Secretary England. The Navy agrees that the capability provided by 
P-3 aircraft is a core capability it intends to leverage in the future. 
The Navy is actively pursuing alternative funding options that minimize 
impact on readiness within budgetary constraints.

    [Whereupon, at 12:54 p.m., the committee adjourned.]

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        THURSDAY, JULY 12, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Cleland, Landrieu, Reed, Akaka, Ben Nelson, Carnahan, Dayton, 
Warner, Smith, Inhofe, Allard, Sessions, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Madelyn R. Creedon, counsel; and Peter K. Levine, 
general counsel.
    Majority staff members present: Kenneth M. Crosswait, 
Richard W. Fieldhouse, and Terence P. Szuplat, professional 
staff members.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; L. David Cherington and Scott W. 
Stucky, minority counsels; Brian R. Green and Mary Alice A. 
Hayward, professional staff members.
    Staff assistants present: Jennifer Key, Thomas C. Moore, 
and Jennifer L. Naccari.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; Peter A. 
Contostavlos and William K. Sutey, assistants to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Brady 
King, assistant to Senator Dayton; Wayne Glass, assistant to 
Senator Bingaman; Margaret Hemenway, assistant to Senator 
Smith; John A. Bonsell, assistant to Senator Inhofe; George M. 
Bernier III, assistant to Senator Santorum; Robert Alan 
McCurry, assistant to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee meets 
this morning to receive testimony on ballistic missile defense 
policies and programs in the proposed fiscal year 2002 amended 
budget from Deputy Secretary of Defense Paul Wolfowitz and the 
Director of the Ballistic Missile Defense Organization, Lt. 
Gen. Ron Kadish. I welcome you both to the committee this 
morning.
    We are 2 days away from the first attempted intercept test 
in over a year of a missile defense system intended to address 
the possibility of a limited long-range missile attack from a 
nation such as North Korea, Iran, or Iraq. All of us hope that 
Saturday's test will be successful. However, the future of a 
research program will not hinge on the success or failure of 
any one test. Learning whether or not a system can be developed 
and understanding the true costs will take many tests over many 
years. But there is a more fundamental uncertainty than the 
outcome of Saturday's test or future tests. Would a National 
Missile Defense system that is unilaterally deployed conflict 
with a treaty to produce a destabilizing response from other 
countries and increase the threat of proliferation of weapons 
of mass destruction? Further, would that response increase the 
possibility that the unimaginable horrors of a nuclear attack 
would be reigned upon us as a result of breaching the treaty? 
Would such a system make the United States, in other words, 
more secure or less secure? Is it worth risking those reactions 
to a unilateral deployment, particularly given the fact that 
we're told by the intelligence community that a ballistic 
missile is the least likely means of delivering a weapon of 
mass destruction and that a truck, a ship, or a suitcase would 
be more reliable, less costly, and have no return address? 
These fundamental policy questions will be the focus of later 
hearings.
    Today we will try to understand the budget request for 
missile defense programs that the administration has presented 
for fiscal year 2002. The administration is proposing a large 
increase for missile defense--a $3 billion or 57 percent 
increase over the current fiscal year--while proposing to 
decrease investments in other critical areas of the defense 
budget, such as procurement, science and technology, and even 
some readiness areas. Secretary Rumsfeld told the committee 2 
weeks ago that the ``taxpayers have a right to demand that we 
spend their money wisely.'' Well, a 57 percent increase is a 
huge amount for any program to absorb and spend wisely and 
efficiently in a single year. The administration proposes to 
spend $8 billion on missile defense in fiscal year 2002 but the 
Pentagon has not provided Congress the details of how it 
intends to spend that $8 billion. General Kadish briefed the 
committee 3 weeks ago on his recommendations to the Secretary 
of Defense. Two weeks ago Secretary Rumsfeld told us that the 
actual details of the R&D budget for missile defense are still 
in a state of flux. The administration's plans for missile 
defense for fiscal year 2002 have been harder to zero in on 
than a target in a missile defense test.
    The purpose of today's hearing is to attempt to get 
specific details on activities proposed in this budget request 
and clear answers to critical questions. Among the questions is 
whether any proposed activities in the administration's fiscal 
year 2002 budget request for missile defense would be in 
conflict with the Anti-ballistic Missile (ABM) Treaty. General 
Kadish addressed this very question in a briefing to the 
committee 3 weeks ago. He said that if all of his 
recommendations for missile defense were implemented, there 
would be no conflict with the ABM Treaty in fiscal year 2002. 
We have put the question of possible violations of the treaty 
in fiscal year 2002 to Secretary Rumsfeld twice in recent 
hearings. Secretary Rumsfeld first told the committee 3 weeks 
ago that ``I don't think the 2002 budget is a problem in that 
regard.'' He then told the committee 2 weeks ago that ``we 
don't know for sure.'' On July 2, I sent a letter to Secretary 
Rumsfeld asking the following question: ``Are their any 
activities proposed to be carried out with the funding you are 
requesting for missile defense in fiscal year 2002 that would 
not be in compliance with the ABM Treaty and, if carried out, 
either would cause a violation of the treaty or would cause the 
United States to give notice under the provisions of the treaty 
that we would withdraw from the treaty?'' I've yet to receive 
an answer to my July 2 letter.
    This morning the press reports that the administration has 
informed our allies that our missile defense research and 
development activities will conflict with the ABM Treaty in a 
matter of months, not years. That is exactly the question that 
I've been asking the administration for weeks without getting 
an answer. If press reports are true, Congress will need to 
decide within months whether to fund research and development 
activities that conflict with the ABM Treaty. The consequences 
of such funding and the responsibility that goes with it are 
serious. Secretary Wolfowitz will, I am sure, tell us if the 
reports in the papers are true and that we have informed our 
allies and Russia that ``these tests will come into conflict 
with the ABM Treaty in months, not years.''
    The President alone has the right to withdraw from a 
treaty, but Congress has the heavy responsibility of 
determining whether or not to appropriate the funds for 
activities that conflict with a treaty. Knowing the 
consequences of the budget actions requested of us is 
essential, not just for those who are concerned about whether a 
treaty violation would leave America less secure. It is also 
essential for those who are concerned about the huge 1-year 
increase in funding for missile defense given other pressing 
defense needs.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I 
examined the article this morning. I think the only detail that 
I could determine was in the Washington Post and the Secretary 
I think has verified it, that emanated from briefings on 
Capitol Hill yesterday and it's sort of a gathering of 
fragmentary reports that there is not a single press release in 
place. So, I hope we give our witnesses this morning, whom I 
welcome with you, the benefit of the doubt and we should 
hopefully receive the testimony today. I've reviewed Secretary 
Wolfowitz's statement, the complete and accurate statement by 
the administration that was made yesterday. But you and I have 
been engaged here some 23 years in this committee, in all types 
of reviews, of this issue of missile defense and it's been a 
long and arduous uphill climb. In that period of time, we have 
now reached, I think, clarity that all agree on here in the 
United States as well as abroad. There is a threat.
    It is absolutely the duty of any president of the United 
States to step up and prepare our Nation to defend itself 
against this threat. That's precisely what President Bush is 
doing in my judgment. I think that we should as a Congress give 
him the opportunity to, in a statesman-like manner, prepare to 
lead this Nation and hopefully our allies in a course of action 
to defend this country against what we clearly see now are 
actual threats.
    Secretary Wolfowitz in his opening statement refers to the 
attack in the Gulf War where we, the United States, sustained 
the largest number of casualties as a consequence of a SCUD 
attack during that conflict. I, together with Senators Inouye, 
Stevens, and Nunn, were in Tel Aviv one night during the war 
when a SCUD hit Tel Aviv. The following day we went out and saw 
the devastating damage inflicted upon the nation of Israel. 
Although we had our PAC system in there at the time, and I 
think that system was effective to a degree, it was defenseless 
and we as a Nation are just as defenseless 10 years after those 
attacks. Now, the PAC-3 has been upgraded, but there's still a 
growing threat. We accept that and so now I think the President 
has properly outlined what he intends to do. He did that 
initially on May 1, 2001 and I quote him: ``Today the sun comes 
up on a vastly different world. The wall is gone and so is the 
Soviet Union. Today's Russia is not our enemy. Yet this is 
still a dangerous world--a less certain, a less predictable 
one.''
    More nations have nuclear weapons and still more have 
nuclear aspirations. Many have chemical and biological weapons. 
Some already have developed a ballistic missile technology that 
would allow them to deliver weapons of mass destruction at long 
distances. We need new concepts of deterrence to rely on both 
offensive and defensive forces. We need a new framework that 
allows us to build missile defenses to counter the different 
threats of today's world. That is simply a responsible 
statement by the Commander in Chief of our Armed Forces as he 
is so designated under our Constitution. He is the chief 
architect, not Congress, of foreign policy. Quite true, we have 
the power of the purse. But I plead with my colleagues, let us 
form a partnership with the President to move forward. Let us 
recognize that he has the constitutional responsibility to lead 
and see where and how we can best support him.
    I think it's far too early to get tangled up in the small 
details of the lawyers trying to determine whether this does or 
does not comply with the ABM Treaty. As far as I know, the 
President has made good faith efforts in consultation with our 
allies. He has had preliminary discussions with Russia. This 
system which defends us against only perhaps as many as a dozen 
missiles is not a threat to the awesome--and I repeat, 
awesome--inventory of missiles that Russia has today in an 
operational status. I'm confident that if we, Congress, show 
our support to our President, he will eventually be able to 
work through the consultative process and eventually the 
negotiating process with Russia such that a hopeful new 
framework can be reached to replace the aging 1972 ABM Treaty 
and that we can go forward in such a way as to look at a far 
broader spectrum of technical options to defend this country 
and, in all probability share to some extent that technology 
with our allies and possibly with Russia. Russia should 
recognize that it is also threatened and threatened by systems 
in existence today with shorter ranges whereas our principal 
threat here at home are from the longer range missiles. I 
believe our President will succeed and I just hope that 
Congress will act as a full partner and be supportive to let 
him take the initiatives as the Constitution clearly empowers 
him, and we hopefully will give him that support so that he can 
be successful.
    Now, I will just put the balance of my statement in the 
record.
    [The prepared statement by Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin. I join you in welcoming our witnesses 
today. Secretary Wolfowitz and General Kadish, welcome, and I look 
forward with interest to hearing your testimony.
    The effort to develop and deploy missile defenses that will protect 
our Nation, our soldiers, sailors, airmen, and marines deployed 
overseas, and our allies and friends has been a long and arduous one. 
There have been many setbacks and many interruptions along the way. 
This year, that effort may hang in the balance.
    President Bush has proposed a bold new approach--to depart from the 
past and to restructure the strategic environment. ``We need a new 
framework,'' the President said on May 1 on this year, ``that allows us 
to build missile defenses to counter the different threats of today's 
world. To do so, we must move beyond the constraints of the 30-year-old 
ABM Treaty. This treaty does not recognize the present, or point us to 
the future. It enshrines the past. No treaty that prevents us from 
addressing today's threats, that prohibits us from pursuing promising 
technology to defend ourselves, our friends and our allies is in our 
interests or in the interests of world peace.''
    I agree with every word of that. I remain firm in my conviction 
that the deployment of effective missile defenses as soon as 
technologically possible is critical to the security of this nation. We 
have no higher responsibility than to protect our Nation, our troops, 
and our allies from the threats posed by the most lethal military 
weapons ever invented and the missiles which deliver these weapons.
    Today, the international situation is far different than in 1972 
when the ABT Treaty was signed and missile defense for our Nation was 
banned.
    Our treaty partner, the Soviet Union, is no more. Our relationship 
with Russia is still evolving, but clearly we cannot remain mired in 
the notion that our two great nations are implacable enemies. Far from 
a world in which two giants embraced each other in a death grip, today, 
many nations, some of them unstable, unpredictable and hostile to the 
United States, either have or are seeking to acquire ballistic 
missiles, weapons of mass destruction, or both.
    Yet today, despite these greatly changed circumstances in the 
world, our Nation remains completely defenseless against attack by even 
a single ballistic missile. Our friends and allies do not have the 
capability to defend themselves against short, medium, and intermediate 
range ballistic missile threats.
    Many in Congress have long recognized the critical need for missile 
defenses. I was a cosponsor of Cochran bill, which was finally enacted 
into law despite the strong opposition of the Clinton administration. 
That act--which is now the law of the land--states that ``it is the 
policy of the United States to deploy as soon as technologically 
possible an effective National Missile Defense system. . .'' against 
limited missile attacks. The decision to deploy has been made. 
President Bush has made that decision and Congress has already endorsed 
it. What we are now debating is ``when'' and ``how'' to deploy-not 
``if.''
    We will today, I believe, hear many of the specifics in the BMDO 
program proposal that will help answer the questions of when and how. 
The lateness with which our committee has received the defense budget 
is a matter of concern, and time is short. I understand that the BMD 
program is intended to provide a flexible path forward. At the same 
time, in our oversight capacity, we need to have a clear sense of 
program content and structure to determine whether the BMDO budget 
proposal will support the goal of deploying effective missile defense 
systems as soon as technologically possible.
    While the BMD program is vitally important, it is bound up in wider 
policy considerations, some of which I have already noted. 
Consequently, part of the path forward must involve continued 
consultation with our allies and Russia. I commend the President for 
reaching out to allies and friends, and to Russia, to build a new 
foundation of security based on openness and trust and to move beyond 
the confines of Cold War relationships.
    To those who would argue that deployment of missile defenses is too 
dangerous and destabilizing I would say this: given American leadership 
a chance. If the United States leads, there is every reason to believe 
that Russia and our allies will respect American determination to move 
forward and work with us to build a safer world. But if congress 
undermines this effort, we will surely cede to others the right to 
dictate American vulnerability and that of our allies to missile 
threats from rogue nations.
    I am looking forward to the discussion with Secretary Wolfowitz 
today about the complex policy issues, ranging from arms control, to 
deterrence policy, to our relationships with Russia, Europe, and our 
Asian friends and allies, that all relate to our efforts to defend our 
homeland, allies, and forces abroad from missile attack. Not all of the 
Department's answers, particularly with respect to the arms control 
implications of the BMDO program about which we will hear today, have 
been entirely clear or consistent. I anticipate that any confusion that 
has been created by this lack of consistency will be addressed today.
    Thank you again, Senator Levin, for your courtesy.

    Chairman Levin. Thank you, Senator Warner.
    Secretary Wolfowitz.

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
                            DEFENSE

    Secretary Wolfowitz. Mr. Chairman, Senator Warner, members 
of the committee, before I get into my testimony I'd like to 
thank you particularly but also the ranking member and the 
entire committee and your hard-working staffs for moving so 
quickly with our nominees. I know you held hearings when you 
weren't even officially organized yet to do so, and I know you 
moved, I think 15 of our nominees to the floor. We desperately 
need them. I hope the full Senate will act with the expedition 
that you did, but I sincerely thank you and everyone who 
participated in that. There are more coming. We need help.
    I also appreciate this opportunity to testify before you on 
this very important subject. General Kadish and I are here to 
try to answer in as much detail as we possibly can your 
questions and your concerns and to describe the program and to 
address those issues that you've raised--very important issues 
about where we are heading with respect to the treaty. But let 
me begin with a broader sketch.
    Imagine, if you will, the following scenario. A rogue state 
with a vastly inferior military but armed with ballistic 
missiles and weapons of mass destruction commits an act of 
aggression against a neighboring country. As President Bush 
sends forces into the theater to respond, the country's 
genocidal dictator threatens our allies and deployed forces 
with a ballistic missile attack. Almost without warning, 
missiles rain down on our troops and pound into densely 
populated residential neighborhoods of allied capitals. Panic 
breaks out. Sirens wail as rescue crews in protective gear 
search the rubble for bodies and rush the injured to hospitals. 
Reporters mumbling through their gas masks attempt to describe 
the destruction as pictures of the carnage are instantaneously 
broadcast around the world.
    Mr. Chairman, that scene is not science fiction. It is not 
a future conflict scenario dreamed up by creative Pentagon 
planners. It is a description of events that took place 10 
years ago during the Persian Gulf War--events that Senator 
Warner personally witnessed in Tel Aviv. I too have a vivid 
recollection of those events. When Saddam Hussein was launching 
SCUD missiles against Israel, I was sent there with Deputy 
Secretary of State Lawrence Eagleburger to help persuade Israel 
not to get drawn further into that war. We saw children walking 
to school carrying gas masks in gaily decorated boxes--no doubt 
to try to distract them from the possibility of facing mass 
destruction. They were awfully young to be thinking about the 
unthinkable. With those missiles, Saddam Hussein terrorized a 
generation of Israeli children and almost succeeded in changing 
the entire strategic course of the Gulf War.
    This year is the tenth anniversary of the first U.S. combat 
casualties from a ballistic missile attack. In the waning days 
of Operation Desert Storm, a single SCUD missile hit a U.S. 
military barrack in Dhahran, killing 28 of our soldiers and 
wounding 99, 13 of them from a single small town in 
Pennsylvania called Greensburg. For American forces, it was the 
worst single engagement of the Gulf War. For 13 families in 
Greensburg, it was the worst day of their lives. Today, 10 
years later, it is appropriate to ask: How much better able are 
we to meet a threat that was already real and serious 10 years 
ago--and has become even more so today? The answer, sadly, is 
not much better.
    Today our capacity to shoot down a SCUD missile is not much 
improved from 1991, when we deployed--as Senator Warner 
correctly recalled--on an emergency basis the PAC-2 missiles to 
Israel and to Saudi Arabia and other countries.
    We are still a year or 2 away from initial deployment of 
the PAC-3, our answer to the SCUD, and let me add, a very 
effective answer, and General Kadish will be talking about that 
technology in a few minutes. But we are still many years from 
full deployment. Today, our forces in the Persian Gulf and 
Korea, and the civilian populations they defend, have almost no 
means of protection against North Korean ballistic missiles 
armed with both chemical and conventional warheads. With no 
defenses, an attack by North Korea could result in tens or even 
hundreds of thousands of casualties.
    Mr. Chairman, we underestimated the ballistic missile 
threat 10 years ago and today, a decade later, we are in danger 
of underestimating it still. The time has come to lift our 
heads from the sand and deal with unpleasant but indisputable 
facts. The short-range missile threat to our friends, our 
allies, and our deployed forces arrived a decade ago. The 
intermediate-range missile threat is here now and the long-
range threat to American cities is just over the horizon--a 
matter of years, not decades, away--and our people and our 
territory are defenseless. Why? The answer to that last 
question has four letters: A-B-M-T--the ABM Treaty.
    For the past decade, our government has not taken seriously 
the challenge of developing defenses against missiles. We have 
not adequately funded it. We have not believed in it, and we 
have given the ABM Treaty priority over it. That is not how 
this country behaves when we are serious about a problem. It's 
not how we put a man on the moon in 10 years. It's not how we 
developed the Polaris program or intercontinental ballistic 
missiles in even less time. The time to get serious is long 
past. The number of countries pursuing nuclear, chemical, and 
biological weapons is growing. The number of countries pursuing 
advanced conventional weapons and ballistic missiles is 
growing.
    Consider these facts. In 1972, we knew of only five 
countries that had nuclear weapons. Today, we know of 12 with 
nuclear weapons programs. In 1972, we knew of a total of nine 
countries that had ballistic missiles. Today, we know of 28. In 
just the last 5 years, more than 1,000 of those missiles of all 
ranges have been produced. Those are just the cases that we 
know of. There are dangerous capabilities being developed at 
this very moment that we do not know about and which we may not 
know about for years--perhaps only after they are deployed. For 
example, in 1998 North Korea surprised the world with its 
launch of a Taepo Dong 1 missile over Japan with a previously 
unknown and unanticipated third stage. The intelligence 
community tells us that this launch demonstrated a North Korean 
capability to deliver a small payload to the United States. 
North Korea is now developing the Taepo Dong 2 missile, which 
will be able to strike even deeper into U.S. territory and 
carry an even larger weapons payload. If we do not build 
defenses against these weapons now, hostile powers will soon 
have, or may already have, the ability to strike U.S. and 
allied cities with nuclear, chemical, or biological weapons. 
They might not even have to use the weapons in their possession 
to affect our behavior and achieve their ends.
    While we have been debating the existence of the threat for 
nearly a decade, other countries have been busily acquiring, 
developing, and proliferating missile technology. We can afford 
to debate the threat no longer. We are in a race against time 
and we are starting behind. Thanks in no small part to the 
constraints of the ABM Treaty, we have wasted the better part 
of a decade. We cannot afford to waste another one.
    President Bush has declared his intention to develop and 
deploy defenses capable of protecting the American people, our 
friends, our allies, and forces around the world from limited 
ballistic missile attack. The 2002 amended budget requests $8.3 
billion for missile defense.
    We have designed a program to develop and deploy as soon as 
is appropriate, and General Kadish will be describing it in 
more detail. Developing a proper layered defense will take 
time. It requires aggressive exploration of key technologies, 
particularly those that have been constrained in the past by 
the ABM Treaty. So, we plan to build it incrementally, 
deploying capabilities as the technology is proven ready, and 
then adding new ones over time as they become mature.
    We have not yet chosen a systems architecture to deploy. We 
are not in a position to do so because so many promising 
technologies were not pursued in the past.
    In order to accelerate the program, we must first broaden 
the search for effective technologies before we can move 
forward toward deployment. We must dust off technologies that 
were shelved, consider new ones, and bring them all into the 
development and testing process. To do this we have designed a 
flexible and strengthened research, development, testing, and 
evaluation (RDT&E) program to examine the widest possible range 
of promising technologies and basing modes, including land, 
air, sea, and space-based capabilities that had previously been 
disregarded or inadequately explored.
    Notwithstanding the delays of the past decade, the 
capability to defend America is within our grasp. A great deal 
of work was done. The technology of 2001 is not the technology 
of 1981, or, for that matter, 1991.
    Today, ballistic missile defense is no longer a problem of 
invention. It is a challenge of engineering. It is a challenge 
we are up to and General Kadish will describe in a few minutes 
how to go about it. Before he does, Mr. Chairman, let me 
address the very important questions about the ABM Treaty and 
try as best as I can to answer your very pertinent questions.
    Our program is designed to develop, as I said, the most 
capable possible defense for our country, our allies, and our 
deployed forces at the earliest feasible time. That means it 
must at some point, and increasingly over time, encounter the 
constraints imposed by the ABM Treaty. We will not conduct 
tests solely for the purpose of exceeding the constraints of 
the treaty, but neither have we designed our program to avoid 
doing so.
    However, this administration does not intend to violate the 
ABM Treaty. We intend to move beyond it. We are working to do 
so on two parallel tracks: First, we are pursuing the 
accelerated research, development, and testing program that I 
have described. Second, we are engaged in discussions with 
Russia on a new security framework--one that would reflect the 
fact that the Cold War is long over and that the U.S. and 
Russia are not enemies. We are moving forward on both of these 
tracks simultaneously, and we feel the prospects for success in 
both cases are promising.
    Mr. Chairman, we have begun a dialogue with Russia on how 
to build a new security relationship, one whose foundation does 
not rest on the prospect of the mutual annihilation of our 
respective populations that was the basis of the old U.S.-
Soviet relationship. That is not a healthy basis for U.S.-
Russian relations in the 21st century.
    On his recent visit to Europe, President Bush had good 
discussions with President Putin, and Secretary Rumsfeld had an 
unexpectedly productive dialogue at NATO last month with 
Russian Defense Minister Sergei Ivanov. Indeed, after their 
meeting, Minister Ivanov declared his agreement with Secretary 
Rumsfeld, and I'm quoting from the Russian Defense Minister, 
``there are not only more threats facing us now in the 21st 
century, but they are multifaceted--much more so than in the 
past.''
    Our discussions with Russia are ongoing, and we have no 
reason to believe they will fail. The question of whether we 
will violate the ABM Treaty in 2002 presumes they will fail. 
But there is no reason to assume that and if we succeed, the 
ABM Treaty will no longer be an obstacle to protecting the 
American people, our allies, or our deployed forces from a 
ballistic missile attack.
    We hope and expect to have reached an understanding with 
Russia by the time our development program bumps up against the 
constraints of the treaty. We would prefer a cooperative 
outcome, and we are optimistic that such an outcome is 
possible. But we must achieve release from the constraints of 
the treaty.
    If we all agree that a cooperative outcome is the 
preferable one, I would submit, Mr. Chairman, that it is 
important also for Congress to demonstrate the same resolve as 
President Bush that we are going to proceed with development of 
defenses to protect our people, our friends and allies, and our 
forces around the world--defenses that cannot, by the wildest 
stretch of the imagination, be considered a threat to Russia or 
to Russia's broader interests. Conversely, if we give Russia 
the mistaken impression that, by insisting on adherence to the 
ABM Treaty, they can exercise a veto over our development of 
missile defenses, the unintended consequence could be to rule 
out, and certainly make a cooperative solution more difficult 
and perhaps leave the President no choice but to withdraw from 
the treaty unilaterally.
    As I stated earlier, as the program develops and the 
various testing activities mature, one or more of those will 
inevitably bump up against treaty restrictions and limitations. 
Such an event is likely to occur in months rather than in 
years.
    Mr. Chairman, this is the reason it has been difficult and 
remains still somewhat difficult to answer your questions with 
precision, but we're trying today to get as much precision as 
we possibly can. It is not possible to know with certainty 
whether that will occur in the coming year. This uncertainty is 
in part the result of the inevitable uncertainty of all 
research and development programs. You learn from your tests. 
You proceed from your tests. Your program gets altered 
depending on the results of your test. But the uncertainty also 
reflects legal uncertainties. Many of the early issues that we 
will encounter inevitably involve legal complexities; legal 
ambiguities. These we will fully resolve through the treaty 
Compliance Review Group and the established procedure for 
addressing those issues.
    In the interest, Mr. Chairman, of trying to give you more 
precision about where we see those issues coming in the next 
fiscal year, let me give you what I believe are the most 
important examples.
    For example, the test bed currently scheduled to begin 
construction in April 2002 is designed to permit the testing of 
a ground-based midcourse capability under realistic operational 
conditions. There will also be opportunities, while we are 
testing the Aegis midcourse system, to test the ability of 
Aegis ship-based radars to track long-range ballistic missiles 
and there will also be opportunities in the coming fiscal year, 
if the program proceeds as planned, to combine the data from 
radars used in midcourse tests with the radars used to track 
short-range missiles. Will these tests exceed the limits of the 
treaty? In each case, you will be able to find lawyers who can 
argue on all three sides of the coin, but we have an 
established system for resolving these difficult issues and 
what I can tell you is this: by the time a planned development 
activity encounters ABM Treaty constraints, we fully hope and 
intend to have reached an understanding with Russia. We would 
expect to identify any such issue 6 months in advance of its 
occurrence. At that point, we will either have reached an 
understanding with Russia, in which case the question would be 
moot, or we would be left with two far from optimal choices: 
either to allow an obsolete treaty to prevent us from doing 
everything we can to defend America, or to withdraw from the 
treaty unilaterally, which we have every legal right to do.
    However, even in the latter circumstance, we should 
continue our efforts to reach an understanding with Russia. But 
our goal is to reach an understanding with Russia well before 
that time. Such an understanding is in both countries' 
interest. The end of the Cold War has fundamentally transformed 
our relationship. We ask for your support as we continue to 
work towards that cooperative solution. I can assure you that 
the President will adhere to the requirements of the treaty to 
conduct the proper notifications as we go forward.
    Let me conclude with a few words about the new deterrence 
framework. We are optimistic about the prospects of reaching an 
understanding with Russia because the Cold War is over. The 
Soviet Union is gone. Russia is not our enemy. We are no longer 
locked in a posture of Cold War ideological antagonism. Yet, 
the ABM Treaty codifies a Cold War relationship that is no 
longer relevant in the 21st century.
    The missile defenses we deploy will be precisely that--
defenses. They will threaten no one. They will, however, deter 
those who would threaten us or our friends with a ballistic 
missile attack. Russia is not such a country. Americans do not 
lie awake at night worrying about a massive Russian first 
strike, the way they worried about a Soviet first strike during 
the Cold War.
    Our missile defenses will be of no threat to Russia. Their 
purpose will be to protect against limited missile attacks that 
are now possible from an increasing number of sources--but not 
conceivably against the thousands of missiles in Russia's 
arsenal. Further, they will be just one part of a larger 21st 
century deterrence framework.
    Just as we intend to build layered defenses to deal with 
missile threats at different stages, we also need a strategy of 
layered deterrence which can deter and dissuade a variety of 
emerging threats at different stages. Just as America's 
overwhelming naval power discourages adversaries from investing 
in competing navies, we should develop capabilities that, by 
their very existence, discourage adversaries from investing in 
other hostile capabilities. Missile defense is one example 
where we hope to achieve exactly that. It has received 
significant attention because it is new--but it is just one 
element of a new deterrence framework that includes several 
mutually-reinforcing layers of deterrence, including diplomacy, 
arms control, counterterrorism, counterproliferation, and 
smaller but effective offensive nuclear forces.
    Having said what the program aims to do, let me say, 
briefly, what the program is not. It is not an effort to build 
an impenetrable shield around the United States. This is not 
Star Wars. We have a much more limited objective to deploy 
effective defenses against limited missile attack. It is not a 
threat to anyone and will be a problem only for those states 
that wish to threaten our people, our allies, or our deployed 
forces with ballistic missiles.
    Very importantly, Mr. Chairman, it will not undermine arms 
control or spark an arms race. If anything, I believe building 
effective defenses will reduce the value of ballistic missiles 
and remove incentives for their development and proliferation. 
Since they will have virtually no effect on Russia's 
capabilities, there is no incentive for Russia to spend scarce 
resources to try to overcome them. China is already engaged in 
a rapid modernization of its missile capabilities, and will 
continue this modernization whether or not we build defenses. 
But, in fact, both the Russians and the Chinese, and I think 
this is very important, will be able to see that we are 
reducing our offensive nuclear forces substantially and there 
is no need for them to build up theirs. In this budget proposal 
alone, with Peacekeeper, Trident, and B-1 reductions, we will 
be reducing START-countable warheads by well over a thousand. 
We plan to reduce our nuclear forces no matter what Russia 
decides to do, but we believe it is in their best interest, and 
we think sooner rather than later, they will recognize that it 
is in their best interest to follow the same path.
    This is not a ``scarecrow'' defense. We intend to build and 
deploy defenses that will grow more and more effective over 
time. The more capable, the better. But defenses don't have to 
be perfect to save lives and reduce casualties. No defense is 
100 percent effective. Notwithstanding the billions we spend on 
counterterrorism, and should be spending on counterterrorism, 
we did not stop terrorist attacks on the Khobar Towers or on 
our embassies in Kenya and Tanzania, or on the World Trade 
Center. Yet no one would suggest that we stop spending money on 
counterterrorism because we have no perfect defense. Moreover, 
defenses don't need to be 100 percent effective to make a 
significant contribution to deterrence.
    I've heard some astronomical figures attached to this 
program, Mr. Chairman. But we are not planning to spend 
hundreds of billions of dollars of taxpayer money. The money we 
propose to spend is comparable to other major defense 
development programs, and comparable to other elements of our 
security strategy. We are proposing $8.3 billion for missile 
defense in 2002. That is still a large amount, but the 
consequences of failure could be larger still.
    Finally, I do not believe it diverts attention and 
resources from other more pressing threats. Some have argued 
that we should not spend any money on missile defense, because 
the real threat comes from terrorists using suitcase bombs. 
There is no question that terrorist threat is a real one, and 
we should be addressing it. But we shouldn't lock our front 
door because a burglar might break through the window. We 
should address both problems.
    As we move forward with accelerated testing and 
development, there are going to be test failures. There isn't a 
single major technological development in human history that 
didn't proceed with a process of trial and error, including 
many of our most successful weapons systems.
    Let me just mention six. The Corona satellite program, 
which produced the first overhead reconnaissance satellites, 
suffered 11 straight test failures at the beginning of the 
program. The Thor Able and Thor Agena launch programs failed 
four out of five times. The Atlas Agena failed five out of 
eight times. The Scout launches failed four out of six times. 
The Vanguard program failed 11 of its first 14 tries. The 
Polaris failed in 66 out of 123 test flights. Yet, from these 
failures and from the successes came some of the most effective 
capabilities we have ever fielded. Failure is how we learn. If 
a program never suffers test failures, it probably means we're 
not pushing the envelope hard enough.
    Mr. Chairman, let me conclude where I began. This threat is 
not fictional. It is not limited. It is not remote. It won't 
disappear if one or another troublesome regime disappears. This 
is not a partisan issue. We do not know whether the President 
who first faces a crisis with a rogue state capable of striking 
Los Angeles, Detroit, or New York with nuclear, chemical, or 
biological weapons will be a Republican or a Democrat. But we 
do know that individual will be an American. That is how we 
must proceed--not as Republicans or Democrats, but as 
Americans. Let future generations who look back at this period 
see statesmen who rose above party lines to make sure that 
America and its allies and its deployed forces were protected 
against this real emerging threat.
    Thank you very much for your attention.
    [The prepared statement of Secretary Wolfowitz]
              Prepared Statement by Hon. Paul D. Wolfowitz
                              introduction
    Chairman Levin, Senator Warner, members of the committee, thank you 
for this opportunity to testify on the administration's 2002 budget 
request for Ballistic Missile Defense.
    Imagine, if you will, the following scenario: A rogue state with a 
vastly inferior military, but armed with ballistic missiles and weapons 
of mass destruction, commits an act of aggression against a neighboring 
country. As President Bush sends U.S. forces into theater to respond, 
the country's genocidal dictator threatens our allies and deployed 
forces with a ballistic missile attack. Suddenly, almost without 
warning, missiles rain down on our troops, and pound into the densely 
populated residential neighborhoods of allied capitals. Panic breaks 
out. Sirens wail, as rescue crews in protective gear race to search the 
rubble for bodies and rush the injured to hospitals. Reporters, 
mumbling through their gas masks, attempt to describe the destruction, 
as pictures of the carnage are instantaneously broadcast across the 
world.
    Mr. Chairman, the scene I have described is not science fiction. It 
is not a future conflict scenario dreamed up by creative Pentagon 
planners. It is a description of events that took place 10 years ago--
during the Persian Gulf War.
    I have a particularly vivid recollection of those events. When 
Saddam Hussein was launching SCUD missiles against Israel, I was sent 
there with Deputy Secretary of State Lawrence Eagleburger to help 
persuade Israel not to get drawn further into the war, as Saddam 
Hussein was seeking to do. We saw children walking to school carrying 
gas masks in gaily decorated boxes--no doubt to try to distract them 
from the possibility of facing mass destruction. They were awfully 
young to have to think about the unthinkable. With those missiles, 
Saddam Hussein terrorized a generation of Israeli children, and almost 
succeeded in changing the entire strategic course of the Gulf War.
    This year marks the 10th anniversary of the first U.S. combat 
casualties from a ballistic missile attack. In the waning days of 
Desert Storm, a single SCUD missile hit a U.S. military barracks in 
Dhahran, killing 28 of our soldiers and wounding 99. Thirteen of those 
killed came from a single small town in Pennsylvania called Greensburg. 
For American forces, it was the single worst engagement of the Gulf 
War. For 13 families in Greensburg, it was the single worst day of 
their lives.
    Today, 10 years later, it is appropriate to ask how much better 
able are we to meet a threat that was already real and serious 10 years 
ago--and has become even more so today? The answer, sadly, is hardly 
any better. Despite this tragic experience, here we are, a decade 
later, still virtually not yet able to defend against ballistic missile 
attacks, even from relatively primitive SCUD ballistic missiles.
    Today, our capacity to shoot down a SCUD missile is not much 
improved from 1991. We are still a year or 2 away from initial 
deployment of the PAC-3--our answer to the SCUD, and an effective one--
and many years from full deployment. Today our forces in the Persian 
Gulf and Korea--and the civilian populations they defend--have almost 
no means of protection against North Korean ballistic missiles armed 
with both chemical and conventional warheads. With no missile defenses, 
an attack by North Korea could result in tens or even hundreds of 
thousands of casualties.
    To those who wonder why so many of the regimes hostile to the 
United States--many of them desperately poor--are investing such 
enormous sums of money to acquire ballistic missiles, I suggest this 
possible answer: They know we don't have any defenses.
    It cannot have escaped their notice that the only weapons that 
really permitted Saddam Hussein to make American forces bleed during 
the Gulf War--the only weapons that allowed him to take the war into 
the territory of his adversaries and murder innocent women and 
children--were ballistic missiles.
    We underestimated the ballistic missile threat 10 years ago--and 
today, a decade later, we are underestimating it still.
    Mr. Chairman, the time has come to lift our heads from the sand and 
deal with some unpleasant but indisputable facts: The short-range 
missile threat to our friends, allies, and deployed forces arrived a 
decade ago; the intermediate-range missile threat is now here; and the 
long-range threat to American cities is just over the horizon--a matter 
of years, not decades, away--and our people and territory are 
defenseless.
    Why? The answer has four letters: A-B-M-T.
    For the past decade, our government has not taken seriously the 
challenge of developing defenses against missiles. We have not 
adequately funded it, we have not believed in it, and we have given the 
ABM Treaty priority over it. That is not how America behaves when we 
are serious about a problem. It is not how we put a man on the moon in 
just 10 years. It is not how we developed the Polaris program or 
intercontinental ballistic missiles in even less time.
    The time to get serious is long past. Today, the number of 
countries pursuing nuclear, chemical and biological weapons is growing. 
The number of countries pursuing advanced conventional weapons is 
growing. The number of countries pursuing ballistic missile technology 
is growing. The number of missiles on the face of the earth is growing.
    Consider these facts:

        <bullet> In 1972, when the ABM Treaty was signed, the number of 
        countries pursuing biological weapons was unknown; today there 
        are at least 13;
        <bullet> In 1972, 10 countries had known chemical weapons 
        programs; today there are 16 (4 countries ended theirs, but 10 
        more jumped in to replace them);
        <bullet> In 1972, we knew of only 5 countries that had nuclear 
        weapons programs; today we know of 12;
        <bullet> In 1972, we knew of a total of 9 countries that had 
        ballistic missiles; today we know of 28, and in just the last 5 
        years more than 1,000 missiles of all ranges have been 
        produced; and
        <bullet> Those are only the cases that we know of. There are 
        dangerous capabilities being developed at this very moment that 
        we do not know about, and which we may not know about for 
        years--perhaps only after they are deployed.

    For example, in 1998 North Korea surprised the world with its 
launch of a Taepo Dong 1 missile over Japan, with a previously unknown 
third stage. The intelligence community tells us this launch 
demonstrated a North Korean capability to deliver a small payload to 
the United States. North Korea is currently developing the Taepo Dong 2 
missile, which will be able to strike even deeper into U.S. territory 
and carry an even larger weapons payload.
    Other unfriendly regimes, like Iran, Syria, and Libya, are also 
developing missiles of increasing range and sophistication. A number of 
these countries are less than 5 years away from being able to deploy 
such capabilities. These regimes are collaborating with each other, 
sharing technology and know-how.
    The countries pursuing these capabilities are doing so because they 
believe they will enhance their power and influence; because they 
believe that if they can hold the American people at risk, they can 
prevent us from projecting force to stop acts of aggression, and deter 
us from defending our interests around the world.
    If we do not build defenses against these weapons now, hostile 
powers will soon have--or may already have--the ability to strike U.S. 
and allied cities with nuclear, chemical or biological weapons. They 
will have the power to hold our people hostage to blackmail and terror. 
They may secure, in their estimation, the capability to prevent us from 
forming international coalitions to challenge their acts of aggression 
and force us into a truly isolationist posture. They would not even 
have to use the weapons in their possession to affect our behavior and 
achieve their ends.
    But we cannot be sure they would not use these weapons in a crisis. 
If Saddam Hussein had the ability to strike a Western capital with a 
nuclear weapon, would he really be deterred by the prospect of a U.S. 
nuclear strike that would kill millions of Iraqis? Is he that concerned 
about his people? Would we really want our only option in such a crisis 
to be destroying Baghdad and its people? A policy of intentional 
vulnerability is not a strategy to deal with the dangers of this new 
century.
    While we have been debating the existence of the threat for nearly 
a decade, other countries have been busily acquiring, developing and 
proliferating missile technology. We can afford to debate the threat no 
longer. We are in a race against time--and we are starting from behind. 
Thanks in no small part to the constraints of the antiquated ABM 
Treaty, we have wasted the better part of a decade. We cannot afford to 
waste another one.
                        development and testing
    President Bush has declared his intention to develop and deploy 
defenses capable of protecting the American people, our friends, allies 
and forces around the world from limited ballistic missile attack. The 
2002 amended budget requests $8.3 billion for missile defense.
    We intend to develop defenses, capable of defending against limited 
missile attacks from a rogue state or from an accidental or 
unauthorized launch. We intend to develop layered defenses, capable of 
intercepting missiles of any range at every stage of flight--boost, 
midcourse, and terminal.
    We have designed a program to develop and deploy as soon as is 
appropriate. Developing a proper layered defense will take time. It 
requires more aggressive exploration of key technologies, particularly 
those that have been constrained by the ABM Treaty. So we plan to build 
incrementally, deploying capabilities as the technology is proven 
ready, and then adding new capabilities over time as they become 
mature.
    We have designed the program so that, in an emergency, we might, if 
appropriate, deploy test assets to defend against a rapidly emerging 
threat. This has been done a number of times before with other military 
capabilities, both in the Gulf War and in Kosovo. But barring such an 
emergency, we need to consider the operational deployment of test 
assets very carefully--because such deployments can be disruptive, and 
can set back normal development programs.
    However, we have not yet chosen a systems architecture to deploy. 
We are not in a position to do so because so many promising 
technologies were not pursued in the past. The program we inherited was 
designed not for maximum effectiveness, but to remain within the 
constraints of the ABM Treaty. As a result, development and testing 
programs for defense against long-range threats were limited to ground-
based components--ignoring air, sea and space-based capabilities with 
enormous potential.
    In order to accelerate the program, we must first broaden the 
search for effective technologies before we can move forward toward 
deployment. We must dust off technologies that were shelved, consider 
new ones, and bring them all into the development and testing process.
    To do this, we have designed a flexible and strengthened research, 
development, testing and evaluation program to examine the widest 
possible range of promising technologies, of which there are many. We 
will expand our program to add tests of technologies and basing modes, 
including land, air, sea, and space-based capabilities that had been 
previously disregarded or inadequately explored.
    Notwithstanding the delays of the past decade, the capability to 
defend America is within our grasp. The technology of 2001 is not the 
technology of 1981, or, for that matter, 1991--the year we suffered our 
first losses to a ballistic missile attack by a rogue state.
    Today, ballistic missile defense is no longer a problem of 
invention--it is a challenge of engineering. It is a challenge we are 
up to.
                               abm treaty
    Our program is designed to develop the most capable possible 
defense for our country, our allies and our deployed forces at the 
earliest feasible time. That means it will at some point--and 
increasingly over time--encounter the constraints imposed by the ABM 
Treaty. We will not conduct tests solely for the purpose of exceeding 
the constraints of treaty--but neither will we design our program to 
avoid doing so.
    However, this administration does not intend to violate the ABM 
Treaty; we intend to move beyond it. We are working to do so on two 
parallel tracks: First, we are pursuing the accelerated research, 
development and testing program I have described. Second, we are 
engaged in discussions with Russia on a new security framework that 
reflects the fact that the Cold War is over and that the U.S. and 
Russia are not enemies. We are moving forward on both of these tracks 
simultaneously, and we feel the prospects for success in both cases are 
promising.
    We have begun a dialogue with Russia on how we can build a new 
security relationship whose foundation does not rest on the prospect of 
the mutual annihilation of our respective populations that was the 
basis of the old U.S.-Soviet relations. That is not a healthy basis for 
U.S.-Russian relations in the 21st century.
    On his recent visit to Europe, President Bush had a good discussion 
with President Putin, and Secretary Rumsfeld had a productive dialogue 
at NATO last month with Russian Defense Minister Sergei Ivanov. Indeed, 
after their meeting, Minister Ivanov declared his agreement with 
Secretary Rumsfeld that ``there are not only more threats facing us now 
in the 21st century, but they are multifaceted, much more so than they 
were in the past.''
    Our discussions with Russia are ongoing, and we have no reason to 
believe that they will fail. The question of whether we will violate 
the ABM Treaty in 2002 presumes they will fail. But there is no reason 
to assume we will fail; and if we succeed, the ABM Treaty will no 
longer be an obstacle to protecting the American people, our allies and 
deployed forces from ballistic missile attack.
    We hope and expect to have reached an understanding with Russia by 
the time our development program bumps up against the constraints of 
the ABM Treaty. But President Bush has also made clear that a 30-year-
old treaty designed to preserve the nuclear balance of terror during 
the Cold War must not be allowed to prevent us from taking steps to 
protect our people, our forces, and our allies. We would prefer a 
cooperative outcome, and we are optimistic that such an outcome is 
possible. But we must achieve release from the constraints of the ABM 
Treaty.
    If we all agree that a cooperative outcome is preferable, then it 
is important that Congress demonstrate the same resolve as the 
President to proceed with development of defenses to protect our 
people, our friends and allies, and our forces around the world--
defenses that cannot, by the wildest stretch of the imagination, be 
considered a threat to Russia or its security.
    If, conversely, we give Russia the mistaken impression that, by 
insisting on adherence to the ABM Treaty, they can exercise a veto over 
our development of missile defenses, the unintended consequence could 
be to rule out a cooperative solution and leave the President no choice 
but to walk away from the treaty unilaterally.
    As I stated earlier, the current planned testing program is not 
designed with the constraints of the ABM Treaty in mind; neither has it 
been designed for the purpose of exceeding those constraints. However, 
as the program develops and the various testing activities mature, one 
or more aspects will inevitably bump up against treaty restrictions and 
limitations. Such an event is likely to occur in months rather than in 
years. It is not possible to know with certainty whether it will occur 
in the coming year. This uncertainty is in part the result of 
inevitable uncertainty of all research and development programs. Many 
of the early issues will involve legal complexities, which we will 
fully resolve through the treaty Compliance Review Group.
    For example, the test bed currently scheduled to begin construction 
in April 2002 is designed to permit the testing of a ground-based 
midcourse capability under realistic operational conditions. There will 
also be opportunities, while we are testing the Aegis midcourse system, 
to test the ability of Aegis ship-based radars to track long-range 
ballistic missiles. There will also be opportunities to combine the 
data from radars used in midcourse tests with the radars used to track 
short-range missiles. Will these tests exceed the limits of the treaty? 
In each case, there will be those who argue on all three sides of the 
coin. We have an established system for resolving these difficult 
issues.
    What I can tell you is this: by the time a planned development 
activity encounters ABM Treaty constraints, we fully hope and intend to 
have reached an understanding with Russia. We would expect to identify 
such issues 6 months in advance. We will either have reached an 
understanding with Russia, in which case the question would be moot, or 
we would be left with two less than optimal choices: to allow an 
obsolete treaty to prevent us from defending America, or to withdraw 
from the treaty unilaterally, which we have every legal right to do.
    However, even in the latter circumstance, we should continue our 
efforts to reach an understanding with Russia. But our goal is to reach 
an understanding with Russia well before that time. Such an 
understanding is in both countries' interests. The end of the Cold War 
has fundamentally transformed our relationship. We ask for your support 
as we continue to work towards a cooperative solution. I can assure you 
that the President will adhere to the requirements of the treaty to 
conduct the proper notifications as we go forward.
                        new deterrence framework
    We are optimistic about the prospects of reaching an understanding 
with Russia, because reaching a new security framework is in both of 
our nations' interests. The Cold War is over. The Soviet Union is gone. 
Russia is not our enemy. We are no longer locked in a posture of Cold 
War ideological antagonism. Yet the ABM Treaty codifies a Cold War 
relationship that is no longer relevant to the 21st century.
    The missile defenses we deploy will be precisely that--defenses. 
They will threaten no one. They will, however, deter those who would 
threaten us with ballistic missile attack. We do not consider Russia 
such a country. Americans do not lie awake at night worrying about a 
massive Russian first strike, the way they worried about a Soviet first 
strike during the Cold War.
    Our missile defenses will be no threat to Russia. Their purpose 
will be to protect against limited missile attacks from an increasing 
number of possible sources--but not against the thousand of missiles in 
Russia's arsenal.
    Further, they will be just one part of the larger, 21st century 
deterrence framework we are working to build. During the Cold War, our 
aim was to deter one adversary from using an arsenal of existing 
weapons against us. In the 21st century, our challenge is not only to 
deter multiple potential adversaries from using existing weapons, but 
to dissuade them from developing dangerous new capabilities in the 
first place.
    This requires a different approach to deterrence. Just as we intend 
to build ``layered defenses'' to deal with missile threats at different 
stages, we also need a strategy of ``layered deterrence'' in which we 
develop a mix of capabilities--both offensive and defensive--which can 
deter and dissuade a variety of emerging threats at different stages.
    Such a strategy would aim to dissuade countries from pursuing 
dangerous capabilities in the first place, by developing and deploying 
U.S. capabilities that reduce their incentives to compete; to 
discourage them from investing further in existing dangerous 
capabilities that have emerged, but are not yet a significant threat; 
and to deter them from using dangerous capabilities once they have 
emerged to threaten us all, with the threat of devastating response.
    Just as America's overwhelming naval power discourages potential 
adversaries from investing in building competing navies to threaten 
freedom of the seas--because, in the end, they would spend a fortune 
and not accomplish their strategic objectives--we should develop a 
range of new capabilities that, by their very existence, dissuade and 
discourage potential adversaries from investing in other hostile 
capabilities.
    Missile defense is one example. It has received significant 
attention because it is new--but it is just one element of a new 
deterrence framework that includes several mutually-reinforcing layers 
of deterrence, including diplomacy, arms control, counterterrorism, 
counterproliferation and smaller but effective offensive nuclear 
forces.
                        what the program is not
    We have discussed what the program is; we must also discuss what 
the program is not.

        <bullet> It is not an effort to build an impenetrable shield 
        around the United States. This is not Star Wars. We have a much 
        more limited objective to deploy effective defenses against 
        limited missile attack. Indeed the change in the threat--from 
        the thousands of missiles in the Soviet arsenal to handfuls of 
        limited missile attacks--makes deployment of effective defenses 
        more realistic than ever before.
        <bullet> It is not a threat to anyone, and will be a problem 
        only for those rogue states that wish to threaten our people, 
        our allies or our deployed forces, with ballistic missile 
        attacks.
        <bullet> It will not undermine arms control or spark an arms 
        race. If anything, building effective defenses will reduce the 
        value of ballistic missiles, and thus remove incentives for 
        their development and proliferation. Since they will have 
        virtually no effect on Russia's capabilities, there is no 
        incentive for Russia to spend scarce resources to try to 
        overcome them. China is already engaged in a rapid 
        modernization of its missile capabilities, and will continue 
        this modernization whether or not we build missile defenses. To 
        the contrary, the Russians and the Chinese will be able to see 
        that we are reducing our offensive nuclear forces substantially 
        and there is no need for them to build up theirs. In this 
        budget proposal alone, with Peacekeeper, Trident, and B-1 
        reductions, we will be reducing START-countable warheads by 
        over 1,000. We plan to reduce our nuclear forces no matter what 
        Russia decides to do, but we believe it is in their best 
        interest to follow the same path.
        <bullet> It is not a ``scarecrow'' defense. We intend to build 
        and deploy effective defenses at the earliest possible moment. 
        Those defenses will grow more and more effective over time, as 
        we deploy an increasingly sophisticated mix of capabilities 
        that provide ``layered defenses'' against all ranges of 
        missiles at all stages of flight. The more capable the better, 
        but the defenses don't have to be perfect to save lives and 
        reduce casualties. As imperfect as the PAC-2 system was during 
        the Gulf War, there wasn't a single ally or commander who 
        didn't clamor for more.
          Will our defenses be 100 percent effective? Mr. Chairman, no 
        defense is 100 percent effective. Notwithstanding the billions 
        we spend on counterterrorism, we failed to stop terrorist 
        attacks on the Khobar Towers, our embassies in Kenya and 
        Tanzania, or the World Trade Center. Yet I know of no one who 
        has suggested that we stop spending money on counterterrorism 
        because we have no perfect defense. Moreover, defenses won't 
        need to be 100 percent effective to make a significant 
        contribution to deterrence.
        <bullet> It will not cost the taxpayers hundreds of billions of 
        dollars. The money we propose to spend on missile defense is 
        comparable to other major defense development programs, and 
        comparable to other elements of our security strategy. We are 
        proposing $8.3 billion for missile defense in 2002. That is 
        still a large amount, but the consequences of the failure could 
        be enormous.
        <bullet> It does not divert attention and resources from other, 
        more pressing threats. Some have argued that we should not 
        spend money on missile defense, because the real threat comes 
        from terrorists using suitcase bombs. That is like arguing that 
        you should not lock your front door because a burglar can break 
        in through your window. Both threats are real--but for the last 
        decade, work on countering the terrorist threat has proceeded 
        aggressively, while work on ballistic missile defense has been 
        hamstrung by an obsolete theory. We are correcting that.

    As we move forward with accelerated testing and development, Mr. 
Chairman, there will certainly be bumps along the way. We expect there 
to be test failures. There is not a single major technological 
development in human history that did not begin with a process of trial 
and error and many of our most successful weapons developments have 
been marked by testing failures:

        <bullet> The Corona satellite program, which produced the first 
        overhead reconnaissance satellites, suffered 11 straight test 
        failures.
        <bullet> The Thor Able and Thor Agena launch programs failed 4 
        out of 5 times.
        <bullet> The Atlas Agena launches failed 5 out of 8 times.
        <bullet> The Scout launches failed 4 out of 6 times.
        <bullet> The Vanguard program failed 11 of its first 14 tries.
        <bullet> The Polaris failed in 66 out of 123 flights.

    Mr. Chairman, from these failures came some of the most effective 
capabilities ever fielded. Failure is how we learn. If a program never 
suffers test failures, it means someone is not taking enough risks and 
pushing the envelope. Intelligent risk taking is critical to any 
advanced development program--and it will be critical to the 
development of effective ballistic missile defenses.
                               conclusion
    Mr. Chairman, let me conclude where I began. This threat is not 
fictional. It is not limited. It is not remote. It is not going to 
disappear if one or another troublesome regime disappears.

        <bullet> If there were a war in Korea tomorrow, our best 
        intelligence estimates are that North Korean missiles would 
        wreak havoc on population centers and our deployed forces in 
        South Korea, even if armed only with conventional weapons, and 
        North Korea now poses a significant threat to Japan as well.
        <bullet> We know that it is a matter of time before Iran 
        develops nuclear weapons, and may soon have the capacity to 
        strike Israel and some NATO allies.

    Think about what kind of hearings we would be having 3 or 4 years 
from now if Iran demonstrates intermediate-range capability to strike 
Israel or U.S. troops deployed in the Gulf--or if North Korea 
demonstrates the capability to strike the U.S. with long-range nuclear 
missiles. I, for one, don't want to have to come before this committee 
and explain why we ignored the coming threat, and didn't do everything 
we could to meet it.
    This is not a partisan issue. We do not now know whether the 
President who first faces a crisis with a rogue state capable of 
striking Los Angeles, Detroit or New York with nuclear, chemical or 
biological weapons will be a Republican or a Democrat. But we do know 
that individual will be an American. That is how we too must proceed--
not as Republicans, or Democrats, but as Americans.
    Let future generations who look back at this period not see 
partisan bickering, but statesmen who rose above party lines to make 
sure America and its allies and deployed forces were protected against 
this real emerging threat.
    Thank you very much.

    Chairman Levin. Thank you, Secretary Wolfowitz.
    General Kadish.

    STATEMENT OF LT. GEN. RONALD T. KADISH, USAF, DIRECTOR, 
             BALLISTIC MISSILE DEFENSE ORGANIZATION

    General Kadish. Good morning, Mr. Chairman, members of the 
committee. It's a pleasure to appear before you today and to 
present the Department of Defense's fiscal year 2002 Ballistic 
Missile Defense (BMD) program and budget. To allow more time 
for your questions, I request that the prepared statement that 
I forwarded to the committee be entered into the record.
    Chairman Levin. It will be made part of the record.
    General Kadish. The fundamental objective of the BMD 
program is to develop the capability to defend the forces and 
territories of the United States, its allies, and friends from 
all classes of ballistic missiles. The Department will develop 
and deploy promising technologies and concepts in order to 
build and sustain an effective, reliable, and affordable 
missile defense system. The research, development, test, and 
evaluation (RDT&E) program is designed to enhance system 
effectiveness over time by developing layered defenses that 
employ complementary sensors and weapons to engage threats in 
the boost, midcourse, and terminal phases of flight and to 
deploy that capability incrementally.
    At the direction of the Secretary of Defense, we have 
developed a research, development, and test program that 
focuses on missile defense as a single integrated ballistic 
missile defense, no longer differentiating between theater and 
National Missile Defense. This revised structure involves three 
basic thrusts. First, the new Ballistic Missile Defense program 
will build on the technical progress we have made to date by 
providing the funding required to develop and test elements of 
the previous program.
    Second, the new program will pursue a broad range of 
activities in order to aggressively evaluate and develop 
technologies for the integration of land, sea, air, or space-
based platforms to counter ballistic missiles in all phases of 
their flight. The new program will not cut corners. Rather, it 
is designed to pursue a parallel development path to improve 
the likelihood of achieving an effective, layered missile 
defense.
    Third, the new testing program will incorporate a larger 
number of tests than in the past. They will employ more 
realistic scenarios and countermeasures. This will allow us to 
achieve greater confidence in our planning and development. 
Through this robust testing, we may discover opportunities to 
accelerate elements of the program based on their performance 
and increase the overall capability and credibility of the 
Ballistic Missile Defense System. This approach is designed to 
enable contingency use of the demonstrated ballistic missile 
defense capabilities if directed.
    The goal of the BMD System is a layered defense that 
provides multiple engagement opportunities along the entire 
flight path of a ballistic missile. Over the next 3 to 5 years, 
we will pursue parallel technical paths to reduce schedule and 
cost risk in the individual RDT&E efforts. We will explore and 
demonstrate kinetic and directed energy kill mechanisms for 
potential sea-, ground-, air-, and potentially space-based 
operations to engage threat missiles in the boost, midcourse, 
and terminal phases of flight. In parallel, sensor suites and 
battle management and command and control will be developed to 
form the backbone of this system.
    Before I proceed to describe the new program in detail, I 
would like to make clear what this program does not do. It does 
not define a specific architecture yet. It does not commit to a 
procurement program for a full, layered defense. There is no 
commitment to specific dates for production and deployment 
other than for lower tier terminal defense elements. It is not 
a rush to deploy untested systems. It is not a step back to an 
unfocused research program. It is not a minor change to our 
previous program. Rather, this is a bold move to develop an 
effective, integrated layered defense against ballistic 
missiles of all ranges.
    The new program is a major change in our approach to 
developing ballistic missile defense. The previous National 
Missile Defense program, for example, was a high-risk 
production and development deployment program dependent for its 
success on an RDT&E effort that was somewhat underfunded but 
charged with developing a system that would operate at the 
outset with near perfection. It was based on rigid military 
requirements. The new program is built around a fully-funded, 
rigorous RDT&E effort designed to demonstrate increasing 
capability over time through a robust, realistic testing 
program.
    The objective of the new program is a layered defense to 
protect the United States, its allies, friends, and deployed 
forces against ballistic missiles of all ranges, and we will 
pursue this objective in the following way: First, we are 
recommending an acquisition approach that is evolutionary--one 
that will allow us to field systems incrementally once they are 
proven through robust testing. Because of uncertainties in the 
development program, the evolutionary approach is implemented 
in 2-year planning blocks. This allows us to adjust rapidly to 
change in the development performance of our sub-systems and 
allows us to build on our successes over time without the 
inherent difficulties of date certain expectations.
    Second, rather than committing to a single architecture as 
we have done in the past, we will deploy over time different 
combinations of sensors and weapons consistent with our 
national strategic objectives.
    We have designed the program so that, in an emergency and 
if directed, we might quickly deploy test assets to defend 
against a rapidly growing threat. This has been done before 
with other military capabilities, both in the Gulf War and in 
Kosovo. But barring such an emergency, we do not intend to 
deploy assets until they are ready because such emergency 
deployments are disruptive and can set back normal development 
programs by years.
    The technical and operational challenges of intercepting 
ballistic missiles are unprecedented. While these challenges 
are significant, our testing accomplishments to date tell us 
they are not insurmountable. Given the threats we expect to 
face, there is a premium on fielding highly reliable and 
effective systems.
    Reliability will be realized, in part, through redundancy 
in our system. Effectiveness is partly a function of the number 
of opportunities the system provides to intercept an in-flight 
missile and how early and often those opportunities occur in 
the missile's flight. Because we need redundancy, we determined 
that whatever BMD Systems we deploy, they should allow multiple 
engagement opportunities in the boost, in the midcourse, and 
terminal phases of a ballistic missile's flight.
    The boost phase is that part of flight when the ballistic 
missile's rocket motors are ignited and propel the entire 
missile system towards space. It lasts roughly 3 to 5 minutes 
for long-range missiles and as little as 1 to 2 minutes for 
short-range missiles.
    When the missile boosters are spent, the missile continues 
its ascent into what we call the midcourse part of flight, 
which lasts nominally 20 minutes for long-range missiles. In 
this stage of flight, a ballistic missile releases its payload 
warhead, submunitions, and/or penetration aids in space. The 
missile enters what we call the terminal phase when the missile 
or elements of its payload reenter the atmosphere. This is a 
very short phase, lasting from a few minutes to less than a 
minute.
    We are presented with unique opportunities and challenges 
when engaging a threat missile in each of these phases. The 
layered defense, or defense-in-depth approach, will increase 
the chances that the missile and its payload will be destroyed.
    Intercepting a missile in boost phase, for example, results 
in the defense of any target that the missile might be aimed at 
and can destroy a missile regardless of its design range. A 
midcourse intercept capability provides wide coverage of 
regions, while a terminal defense protects a localized area. 
Intercepting a missile near its launch point is always 
preferable to intercepting the same missile closer to its 
target. When we add shot opportunities in the midcourse and 
terminal phases of flight to boost phase opportunities, we 
increase significantly the probability we will be successful.
    Another advantage of the layered approach is that it 
complicates an adversary's plans. Countermeasures, for example, 
will always be a challenge for the defense. But because 
countermeasures have to be tailored to the specific phase of 
the missile's flight, layered defenses pose major challenges to 
an aggressor.
    The fiscal year 2002 program speeds development of 
established technologies, enables robust testing and evaluation 
of systems that are more mature, and explores new missile 
defense concepts and technologies. We plan to pursue multiple, 
parallel development paths to reduce the risk inherent in 
ballistic missile defense engineering with RDT&E initiatives in 
each of the boost, midcourse, and terminal defense segments of 
the overall system.
    We do not want to be in a position, in other words, where 
we discover a fundamental design flaw in our kill vehicle or in 
our only sea-based booster that might be under development. 
That would amount to a single point failure that could cost us 
years in developing effective missile defenses. We must be 
agile in our engineering approaches to keep the program on 
track and affordable.
    This robust RDT&E program aims to demonstrate what does and 
does not work. These activities showing the greatest promise 
will receive greater resource emphasis. Our progress will 
inform an annual high level decisionmaking process that will 
steer the BMD program in the most promising direction, taking 
into account optimal approaches and the most reliable 
information on costs that we can get. This process will allow 
us to make informed decisions regarding research, production, 
and any deployment.
    This RDT&E approach will also minimize possible disruptive 
effects that the introduction of new technologies, development 
challenges, or changes in the threat otherwise could have on 
any Ballistic Missile Defense program and allow us to keep 
pressing forward along the most promising paths. We will pursue 
enough paths so that the scaling back of any one effort will 
not undermine progress in other areas and that technological 
advances we make even in failed efforts will be put to good 
use. This represents the best approach for pursuing promising 
capabilities that will allow us to get out in front and pace a 
dynamic ballistic missile threat.
    Now I'd like to discuss the fiscal year 2002 budget and how 
it helps to implement this aggressive program. As I've said, we 
propose to invest in previous efforts as well as newer 
activities in order to set up multiple paths for solving this 
difficult technical challenge.
    The amended budget adds $2.54 billion to our program for a 
total of nearly $8.3 billion DOD-wide and just over $7 billion 
with the Ballistic Missile Defense Organization's (BMDOs) RDT&E 
program.
    In the terminal defense segment we have $968 million, an 
increase of $212 million over fiscal year 2001 enacted funding.
    In the midcourse, for both ground- and sea-based 
approaches, we have $3.9 billion, an increase of $1.4 billion, 
and in boost we have $685 million, an increase of $313 million 
over the fiscal year 2001 enacted funding.
    In fiscal year 2002, we are requesting $496 million for our 
sensors activities, which represents an increase of $221 
million over the fiscal year 2001 enacted funding.
    For integration of these segments in the overall Ballistic 
Missile Defense System, we have $780 million, which is an 
increase of $253 million for test infrastructure and 
countermeasures.
    These funds will enable us to improve the more mature BMD 
activities, begin development of the much needed BMD test bed, 
and undertake new concept development activities and 
experiments.
    In the terminal defense segment, we will continue 
investment in two of our most mature programs, THAAD and Arrow. 
We have added resources to accelerate the acquisition of a 
THAAD radar and buy more test missiles. This will allow us to 
capitalize on any early flight test successes should our 
disciplined development program prove effective in the test 
program. The U.S-Israeli Arrow Program initiated deployments of 
its first battery this year. Next year, there will be 
additional flight-testing of the Arrow system, and we will 
invest in additional production capacity for the Arrow missile.
    Patriot and Navy Area are approaching procurement and 
deployment decisions. For this reason, and in compliance with 
our program philosophy to have BMDO do research, development, 
test and evaluation and the services do procurement, and to 
support the services' air defense mission, the Department is 
transferring to respective services the responsibility for the 
execution and management of these three programs: Patriot 3, 
Navy Area, and the Medium Extended Air Defense System--MEADS. 
The transfer of these systems will maintain internal focus, 
consistency, and the interdependence of both BMDO and the 
services.
    In the midcourse segment we will continue to make 
improvements to counter the long-range ICBM threat, and to 
expand the ballistic missile defense test bed. The test bed is 
a central part of this program. It will provide an 
operationally realistic environment to test system elements and 
integration and to prove our construction, transportation, and 
logistics concepts. Over time, the test bed will expand to 
include weapons and sensor capabilities, to improve overall 
missile defense capabilities as they are made available. We 
will also proceed toward the development of a sea-based 
midcourse capability against long-range missile threats. Under 
the new BMDO program, we will continue the Navy Theater Wide 
Aegis LEAP Intercept, or ALI program, to counter short-range 
threats.
    In the boost defense segment, we will explore directed 
energy and kinetic energy options leading to experiments and 
demonstrations in the 2003 to 2005 timeframe. We are 
considering a sea-based boost activity to develop a high-speed, 
high-acceleration booster coupled with a boost-phase kill 
vehicle. This activity will simultaneously support a proof-of-
concept space-based experiment somewhere after 2004 using a 
space-based kinetic energy kill vehicle.
    We will continue the airborne laser development and plan a 
lethal demonstration in the 2003 to 2004 timeframe. We will 
also continue space-based laser risk reduction as we work 
towards an integrated flight experiment early in the next 
decade. The Department will consolidate program and management 
responsibility for the airborne laser and the space-based laser 
within BMDO.
    The sensors program element funds two key efforts: the 
SBIRS-Low, which was transferred from the Air Force to BMDO, 
and the Russian-American observation satellites cooperative 
research project with Russia.
    Mr. Chairman, we have an aggressive RDT&E program designed 
to enhance system effectiveness over time by developing layered 
defenses that employ complementary sensors and weapons to 
engage threat targets in the boost, midcourse, and terminal 
phases of flight and to deploy that capability incrementally. 
Along the way, there will be successes and there will be 
failures. We will learn from both and make significant progress 
in developing a layered Ballistic Missile Defense System.
    Mr. Chairman, I have a short film, if the equipment works, 
to demonstrate the fact that we have achieved the ability, at 
least in the demonstration phase in some of our programs, to 
hit an incoming warhead very accurately. If I might, I would 
like to walk you through the low altitude, the medium altitude, 
and in the space realm that we are testing on Saturday, and the 
successes that we have had. Now, to be sure, we have had 
failures, but I want to show you the continuity of hitting 
warheads directly with hit-to-kill technology and how that has 
developed over the past few years.
    Chairman Levin. About how long will it take?
    General Kadish. 3\1/2\ minutes.
    Chairman Levin. That is fine. Thank you. [Video.]
    [Copy of video retained in committee files.]
    General Kadish. We will start out with this, a target 
launch for our Patriot 3. You can see the Patriot 3. This is in 
the atmosphere, hit-to-kill. There are no explosives on Patriot 
for theater ballistic missile (TBM) intercepts. You can see the 
Patriot maneuvering to get in the position to very accurately 
intercept a TBM warhead that is coming in, a short-range 
missile. Towards the terminal, you will see white smoke and you 
will see that hit. That is a direct hit, hit-to-kill, in the 
atmosphere with the Patriot.
    The Patriot has missed only once in our test program, and 
we have had nine flights.
    Now we move to THAAD, which is higher up in the atmosphere 
and into space. That was the target launch, THAAD missile 
taking off. To stay on the range, it has to do a maneuver, but 
it is very high acceleration. This program is now in 
development to fix some of the problems we had with it. You can 
see it climbing into altitude to intercept the warhead in outer 
space. Here is a depiction of the target, and the THAAD you can 
see maneuvering to hit it very accurately. There were no 
explosives. That is pure kinetic energy, hit-to-kill, body-to-
body impact on the program.
    That was high enough so that you could see this particular 
intercept from Albuquerque from over White Sands.
    This is another view of it in more real-time.
    Now an example of what we are going to try to do on 
Saturday. The first time we did a National Missile Defense or 
long-range missile defense intercept, this is the last frame 
that THAAD saw before it intercepted. You can see the image of 
that warhead getting bigger in the sights of that intercept 
vehicle.
    This is a target launch out of Vandenberg into the South 
Pacific, 5,000 miles away. It occurred in October 1999, the 
first time we tried this. You can see the ranges are getting 
longer. This is the rise of the target into outer space. This 
is the interceptor at Kwajalein. Now, the intercept takes place 
over 140 miles into space, and you can see in a minute the two 
bodies coming together, from an infrared sensor.
    This is a more real-time look at it from a better 
perspective. That is the warhead in there coming together.
    Now, to be sure, we have major difficulties in making this 
type of technology work and work reliably and effectively. That 
is what this test program is designed to do, especially in the 
midcourse. We have had many failures in this process. However, 
it is an engineering challenge at this time.
    Mr. Chairman, that concludes my opening remarks.
    [The prepared statement of General Kadish follows:]
         Prepared Statement by Lt. Gen. Ronald T. Kadish, USAF
    Good morning, Mr. Chairman, members of the committee. It is a 
pleasure to appear before you today to present the Department of 
Defense's Fiscal Year 2002 Ballistic Missile Defense program and 
budget.
    The fundamental objective of the BMD program is to develop the 
capability to defend the forces and territories of the United States, 
its allies, and friends against all classes of ballistic missile 
threats. The Department will develop technologies and deploy systems 
promising an effective, reliable, and affordable missile defense 
system. The RDT&E program is designed to develop effective systems over 
time by developing layered defenses that employ complementary sensors 
and weapons to engage threat targets in the boost, midcourse, and 
terminal phases of flight and to deploy that capability incrementally.
    At the direction of the Secretary of Defense, we have developed a 
research, development and test program that focuses on missile defense 
as a single integrated BMD System, no longer differentiating between 
theater and National Missile Defense. This revised structure involves 
three basic thrusts. First, the new BMD program will build on the 
technical progress we have made to date by providing the funding 
required to develop and test selective elements of the current program 
fully.
    Second, the new program will pursue a broad range of activities in 
order to aggressively evaluate and develop technologies for the 
integration of land-, sea-,
air-, or space-based platforms to counter ballistic missiles in all 
phases of their flight. The new program will not cut corners. Rather, 
it is designed to pursue parallel development paths to improve the 
likelihood of achieving an effective, layered missile defense.
    Third, the new testing program will incorporate a larger number of 
tests than in the past. They will employ more realistic scenarios and 
countermeasures. This will allow us to achieve greater confidence in 
our planning and development. Through this robust testing activity, we 
may discover opportunities to accelerate elements of the program based 
on their performance, and increase the overall credibility and 
capability of BMD Systems. This approach is designed to enable 
contingency use of the demonstrated BMD capabilities, if directed.
    The goal of the BMD System is a layered defense that provides 
multiple engagement opportunities along the entire flight path of a 
ballistic missile. Over the next 3 to 5 years we will pursue parallel 
technical paths to reduce schedule and cost risk in the individual 
RDT&E efforts. We will explore and demonstrate kinetic and directed 
energy kill mechanisms for potential sea-, ground-, air-, and space-
based operations to engage threat missiles in the boost, midcourse, and 
terminal phases of flight. In parallel, sensor suites and battle 
management and command and control (BMC\2\) will be developed to form 
the backbone of the BMD System.
    But before I proceed to describe the new program in detail, I would 
like to make clear what this program does not do. It does not define a 
specific architecture. It does not commit to a procurement program for 
a full, layered defense. There is no commitment to specific dates for 
production and deployment other than for the lower tier terminal 
defense elements. It is not a rush to deploy untested systems; it is 
not a step back to an unfocused research program; and it is not a minor 
change to our previous program. Rather this program is a bold move to 
develop an effective, integrated layered defense that can be deployed 
as soon as possible against ballistic missiles of all ranges.
    The new program is a major change in our approach to developing 
ballistic missile defense. The previous National Missile Defense 
Program, for example, was a high risk production and deployment program 
dependent for its success on an RDT&E effort that was underfunded but 
charged with developing a system that would operate at the outset with 
near perfection; and it was based on rigid military requirements. The 
new program is built around a fully-funded, rigorous RDT&E effort 
designed to demonstrate increasing capability over time through a 
robust, realistic testing program.
    The objective of the new program is a layered defense to protect 
the United States, allies, friends, and deployed forces against 
ballistic missiles of all ranges. We will pursue this objective in the 
following way: First, we are recommending a broad, flexible approach to 
RDT&E that allows us to explore multiple development paths and to 
reinforce success based on the best technological approaches and the 
most advantageous basing modes in order to hedge against the inherent 
uncertainty of the ballistic missile defense challenge. Second, we are 
recommending an acquisition approach that is evolutionary, one that 
will allow us to field systems incrementally once they are proven 
through realistic testing. Third, rather than committing to a single 
architecture as we have done in the past, we will deploy over time 
different combinations of sensors and weapons consistent with our 
national strategic objectives.
    We have designed the program so that, in an emergency and if 
directed, we might quickly deploy test assets to defend against a 
rapidly emerging threat. This has been done before with other military 
capabilities, both in the Gulf War and in Kosovo. But barring such an 
emergency, as the Deputy Secretary has stated, we do not intend to 
deploy test assets until they are ready because such emergency 
deployments are disruptive, and can set back normal development 
programs by years.
           layered defense--effective against countermeasures
    The technical and operational challenges of intercepting ballistic 
missiles are unprecedented. While these challenges are significant, our 
testing accomplishments to date tell us that they are not 
insurmountable. Given the threats we expect to face, there is a premium 
on fielding a highly reliable and effective system. Reliability will be 
realized, in part, through redundancy in our system. Effectiveness is 
partly a function of the number of opportunities the system provides to 
intercept an in-flight missile and how early and how often those 
opportunities occur in the missile's flight. Because we need 
redundancy, we determined that whatever BMD Systems we deploy, they 
should allow multiple engagement opportunities in the boost, midcourse, 
and terminal phases of a ballistic missile's flight.
    The boost phase is that part of flight when the ballistic missile's 
rocket motors are ignited and propel the entire missile system towards 
space. It lasts roughly 3 to 5 minutes for a long-range missile and as 
little as 1 to 2 minutes for a short-range missile. When the missile 
boosters are spent, the missile continues its ascent into what we call 
the midcourse part of flight (which lasts nominally 20 minutes for a 
long-range missile). In this stage of flight, a ballistic missile 
releases its payload warhead(s), submunitions, and/or penetration aids 
it carried into space. The missile enters what we call the terminal 
phase when the missile or the elements of its payload, for example, its 
warheads, reenter the atmosphere. This is a very short phase, lasting 
from a few minutes to less than a minute.
    There are opportunities and challenges to engage a threat missile 
in each of these phases. The layered defense, or defense-in-depth, 
approach will increase the chances that the missile and its payload 
will be destroyed.
    Intercepting a missile in the boost phase, for example, results in 
the defense of any target that the missile might be aimed at and can 
destroy a missile regardless of its design range. A midcourse intercept 
capability provides wide coverage of a region or regions, while a 
terminal defense protects a localized area. Intercepting a missile near 
its launch point is always preferable to intercepting that same missile 
closer to its target. When we add shot opportunities in the midcourse 
and terminal phases of flight to boost phase opportunities, we increase 
significantly the probability that we will be successful.
    Another advantage of the layered approach is that it complicates an 
adversary's plans. Countermeasures, for example, will always be a 
challenge for the defense. But because countermeasures have to be 
tailored to the specific phase of a missile's flight, layered defenses 
pose major challenges to an aggressor.
                            rdt&e activities
    The Fiscal Year 2002 Program speeds development of established 
technologies, enables robust testing and evaluation of systems that are 
more mature, and explores new missile defense concepts and 
technologies. I will address some of these activities in a moment. We 
plan to pursue multiple, parallel development paths to reduce the risk 
inherent in BMD engineering, with initiatives in each of the Boost, 
Midcourse, and Terminal Defense Segments of the BMD System. As part of 
our risk reduction activity, we will explore different technologies and 
paths. We will also pursue technologies that may be useful across 
multiple segments and employ multiple technologies to avoid single 
point failures in each segment.
    We do not want to be in a situation, for example, to discover a 
fundamental design problem in our only Exoatmospheric Kill Vehicle 
(EKV), or in our only sea-based booster under development. That would 
amount to a single point failure that could cost us years in developing 
effective missile defenses, not to mention leaving America and our 
allies unnecessarily exposed. We must be agile in our engineering 
approaches to keep the BMD program on track and affordable.
    This robust RDT&E program aims to demonstrate what does and does 
not work. Those activities showing the greatest promise will receive 
greater resource emphasis. Our progress will inform an annual high-
level decisionmaking process that will steer the BMD program in the 
most promising direction, taking into account optimal approaches and 
the most reliable information on costs, allowing informed research, 
production, and deployment decisions.
    This RDT&E approach also will minimize possible disruptive effects 
that the introduction of new technologies, development challenges, or 
changes in the threat otherwise could have on the BMD program and allow 
us to keep pressing forward along the most promising paths. We will 
pursue enough paths so that the scaling back of one effort will not 
undermine progress in other areas and the technological advances we 
make even in failed efforts will be put to good use. This represents 
the best approach for pursuing promising capabilities that will allow 
us to get out in front and pace a dynamic ballistic missile threat.
    The business of missile defense requires coping with a number of 
technological, developmental, acquisition, and threat uncertainties. 
For this reason, I cannot tell you today exactly what the system will 
look like 15, 10, or even 5 years from now. This system will take shape 
over time. We do not intend to lock ourselves into a highly stylized 
architecture based on either known technologies or hoped for advances 
in technology that will take a decade or more to complete. We intend to 
go beyond the conventional build-to-requirements acquisition process.
    We have adopted a capability-based approach, which recognizes that 
changes will occur along two separate axes. On the one axis, the threat 
will evolve and change over time based on the emergence of new 
technologies, continued proliferation of missiles worldwide, and 
operational and technical adjustments by adversaries (including the 
introduction of countermeasures) to defeat our BMD System. On the other 
axis lie changes we will experience. These include improving 
technologies, incremental system enhancements, evolving views of system 
affordability, and out-year decisions expanding coverage, potentially 
including the territory and populations of our allies and friends.
    The BMD System will feature a uniform battle management and command 
and control network and leverage, where possible, other Department 
communication channels to integrate elements of the BMD System. Because 
the system must act within minutes or even seconds to counter ballistic 
missiles, the information we receive on threats must be accurately 
received, interpreted, and acted upon rapidly. The information network 
must be seamless and allow information to be passed quickly and 
reliably among all the elements of the system.
    Mobility in our sensor and interceptor platforms and the capability 
to do boost phase and/or midcourse phase intercept must be central 
features in our architecture if we are to provide effective territorial 
protection at home and abroad. Placing sensors forward, or closer to 
the target missile launch point, either on land, at sea, in the air, or 
in space, will expand the battle space, improve discrimination of the 
target complex, and increase engagement opportunities. We will develop 
complementary elements in different combinations in order to afford the 
system a high degree of synergism and effectiveness.
    Specific system choices and timelines will take shape over the next 
few years through our capability-based, block approach. We will 
increase our capability over time through an evolutionary process as 
our technologies mature and are proven through testing. The block 
approach allows us to put our best, most capable technologies ``in 
play'' sooner than would otherwise be possible. We have organized the 
program with the aim of developing militarily useful capabilities in 
biannual blocks, starting as early as the 2004-2006 timeframe. These 
block capabilities could be deployed on an interim basis to meet an 
emergent threat, as an upgrade to an already deployed system, or to 
discourage a potential adversary from improving its ballistic missile 
capabilities.
    Consequently, the CINCs and military services will be involved 
throughout the development process so that with each block we move 
steadily forward towards systems with ever increasing military utility 
that complement other operational capabilities and that minimize life 
cycle cost.
                                testing
    We have restructured the BMD program to facilitate success through 
rigorous, robust, and realistic testing. To ensure rigor our BMD 
testing philosophy recognizes that we must have an integrated, phased 
test program that comprehensively covers all aspects of testing; and 
our budget submission reflects our investment in the requisite test 
infrastructure to support this. To enable more robust testing we will 
invest in additional test articles and targets. The test bed we propose 
constructing will enhance our ability to test the full range of missile 
defense capabilities in realistic configurations and scenarios. Let me 
describe our approach to testing and discuss broadly what we are 
undertaking in fiscal year 2002.
    Our BMD developmental testing entails conceptual prototype 
development, assesses the attainment of technical performance 
parameters, generates data on risk, supports risk mitigation, and 
provides empirical data to validate models and simulations. Testing of 
systems, subsystems, and components, especially early in the 
developmental cycle, helps us to achieve two fundamental objectives: 
(1) determine performance capabilities, and (2) identify potential 
design problems to support timely changes. Later testing will 
demonstrate the broad range of effectiveness and suitability of missile 
defenses in increasingly realistic environments.
    Our test philosophy is to add, step-by-step over time, complexity 
such as countermeasures and operations in increasingly stressful 
environments. This approach allows us to make timely assessments of the 
most critical design risk areas. It is a walk-before-you-run, learn-as-
you-go development approach. These testing activities provide critical 
information that reduces developmental risk and improves our confidence 
that a capability under development is progressing as intended.
    Given the number of technical challenges shared among the many 
elements of the BMD System, we will conduct a number of program-wide 
tests, experiments, and measurement projects each year to achieve our 
program-wide objectives. System interoperability and critical 
measurements flight tests and ground experiments will be conducted to 
support development of BMD System operating concepts, reduce 
development risks, and assess BMD System integration and 
interoperability. Program-wide collection and measurement needs will be 
met by phenomenology measurements, countermeasure characterizations, 
and analysis of lethality, kill assessment, and discrimination. 
International cooperative test and evaluation activities could become 
an important part of our program.
    Each test range currently in use is equipped with precision 
instrumentation sensors (radar and optical), telemetry capabilities, 
and flight and range safety systems. Additionally, BMDO deploys mobile 
airborne sensors. Core supporting ranges include both short- and long-
range test facilities with multiple launch sites, primarily in New 
Mexico and over the Pacific Ocean. These collection capabilities are a 
critical part of our program. In fiscal year 2002, we will be engaged 
in a number of activities to develop and upgrade the test range 
infrastructure we require.
    The new program will feature range improvements for boost segment 
and system level testing, and will allow us to increase the tempo of 
our testing operations. Existing ground facilities will be upgraded for 
testing of Boost Segment elements, advanced sensors, counter-
countermeasures, and nuclear weapons effects. Airborne instrumentation 
platforms will be upgraded, and modeling and simulation software having 
system-level and program-wide application will be developed.
    Ground test facility development and enhancement will help us to 
improve sensor testing, strengthen our end-to-end test capability, and 
undertake tests using scenarios we cannot duplicate in our flight-
testing, such as nuclear weapons effects testing. Facilities for 
program-wide interoperability ground tests must be upgraded to be 
capable of both analyzing yesterday's flight test data and predicting 
tomorrow's expected system performance.
    With our more robust test program we will increase the number of 
tests and add tests of different technologies and basing modes. To meet 
the challenges of missile defense development we must upgrade our 
capabilities to test with flexibility over greater distances. Test 
scenarios must accommodate multiple intercepts occurring nearly 
simultaneously at realistic intercept geometries. Upgrades will be 
required in our launch facilities, flight hardware, and range tracking 
and collection assets.
    In fiscal year 2002 we will develop an inventory of targets and 
initiate procurement of additional test hardware to support a more 
aggressive test program. We must have quicker reaction in our targets 
program in order to accommodate changes in threat knowledge and to 
incorporate countermeasures. The BMD program will fund development of 
new threat-credible ballistic missile targets and countermeasures for 
all defense segment development activities, risk reduction flights, and 
comprehensive target system support, to include direct target costs and 
launch operations.
    Challenges we face in this area include development of new targets 
for boost segment testing, proper incorporation of countermeasures, and 
overcoming a dwindling supply of target hardware, particularly hardware 
incorporating countermeasures. The objective is to ensure an adequate 
supply of target boosters, reentry vehicles, and countermeasures to 
prevent major delays in development schedules resulting from a shortage 
of these major target components. We need to be able to test more and 
more often, and this requires that we have the test articles on hand 
and ready for use. Larger quantities of hardware also will help us 
overcome lengthy delays caused by, for example, a pre-launch problem 
with a target booster.
    As I mentioned earlier, we will increase testing of alternative 
technologies, especially in the medium and high-risk areas of 
development. We must be hardware rich if we are to have a robust 
testing program and if we are to avoid single point failures in any of 
our development efforts.
    Among the challenges that faced the previous NMD program was 
overcoming flight test restrictions on trajectories, impact areas, and 
debris in space in order to test overall system performance limits. The 
range we have been using between Vandenberg Air Force Base in 
California and Kwajalein Missile Range, while useful for developmental 
testing, lacks realism for tests of BMD interceptors and sensors.
    The amended budget request contributes significantly to the 
development of a BMD test bed, which will be used initially to prove 
out the midcourse capabilities. That test bed will expand test 
boundaries and develop and enhance test infrastructure and will provide 
for more operationally realistic testing. Over time the test bed will 
expand to include weapons and sensor capabilities to improve all 
missile defense capabilities as they are made available.
    The integrated test bed will be oriented in the Pacific region and 
extend many hundreds of miles from the Marshall Islands in the South 
Pacific to Alaska. It will allow more realistic flight-testing of 
capabilities in the Boost, Midcourse, and Terminal Defense Segments.
    The new test bed would make use of early warning radars at Beale 
Air Force Base and Cobra Dane at Shemya Island, and use the Kodiak 
Launch Facility in Alaska to launch targets and interceptors. The test 
bed would continue our practice of integrating early warning cueing 
information from Defense Support Program satellites and leveraging a 
battle management system operated out of Colorado Springs, Colorado. 
The test bed also will include up to five ground-based silos at Fort 
Greely, Alaska. We anticipate a prototype ground support capability, to 
include launch facilities, sensors, and networked communications, will 
be developed in fiscal year 2002 and built in fiscal year 2003. We will 
initiate construction of an interceptor integration facility in fiscal 
year 2002 to support a wide range of interceptor needs for testing.
    This test bed will allow us to test more than one missile defense 
segment at a time and exploit multiple shot opportunities so that we 
can demonstrate the viability of the layered defense concept. The test 
bed will provide a realistic environment to test different missile 
defense capabilities under varying and stressing conditions. It will 
also help us prove out construction, transportation, and logistics 
concepts we will need to clarify as we execute deployment decisions.
    If directed, the BMD test bed also could provide a basis for a 
contingency defensive capability if the security environment warrants.
                         bmd program management
    We must deviate from the standard acquisition process and recognize 
the unprecedented technical challenges we are facing. We do not have 
major defense acquisition programs in the fiscal year 2002 budget. We 
do not have program activities with traditional fixed milestones and 
clearly marked phases showing the road to production.
    The new approach to BMD development features more streamlined, 
flexible management through comprehensive and iterative reviews. We 
will establish yearly decision points to determine the status of the 
available technologies and concept evaluations in order to be in a 
position to accelerate, modify, truncate, or terminate our efforts in a 
particular area. This comprehensive annual review process will also 
help us make decisions to shape the evolving systems and allocate 
resources to optimally support them. This decision process will allow 
for: (1) more complete understanding of current technologies and the 
evolving capabilities; (2) evaluation of innovative concepts; (3) 
development of competing technologies to reduce cost, schedule, and 
performance risks; and (4) better estimation of complete costs for 
making informed decisions concerning system capability, production, and 
deployment. We believe that full annual evaluations of our program 
activities and demonstrated technical achievements will build 
confidence for decision makers.
    This program is designed to seek opportunities to provide the most 
effective and efficient missile defense by exploiting advances in 
technology as they emerge and by making timely decisions to direct 
individual development activities. We will make adjustments as we learn 
what we can and cannot do technically and as we make the tough calls on 
selecting among the promising technologies to create the best mix of 
missile defense capabilities across the threat missile flight envelope.
    As missile defense capabilities mature, we envision transferring 
the individual elements to the military department for production and 
procurement as part of a standard acquisition program. This approach 
will ensure that the military department can operate these capabilities 
effectively and reliably.
                    program elements and activities
    To manage and account for program resources, BMDO plans a 
configuration of nine Program Elements (PE): BMD System; Terminal, 
Midcourse, and Boost Defense Segments; Sensors; Technology; Pentagon 
Reservation Maintenance Reserve Fund; Small Business Innovative 
Research; and Headquarters Management. This PE structure supports the 
revised BMD program goals by aligning activities and funding with the 
program's internal technical focus. It also provides the flexibility to 
mitigate, through internal adjustment, unforeseen consequences and 
risks in budget and schedule. The following table illustrates the PE 
structure.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Program Element Descriptions
    BMD System
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The BMD System Program Element allocates the resources required for 
the overarching conduct and integration of the multi-layered BMD 
System. The BMD System PE comprises five primary projects: Battle 
Management, Command and Control (BMC\2\); Communications; Targets and 
Countermeasures; System Engineering and Integration (SE&I); and Test 
and Evaluation (T&E). System-level activities involve integrating the 
Boost, Midcourse, Terminal, and Sensors segments into a single and 
congruous missile defense system; this PE also includes management 
efforts to preserve and promote architectural consistency, 
interoperability, and integration of PAC-3, MEADS, and Navy Area 
systems within the overarching BMD mission. Our amended request of $780 
million for these activities represents an increase of $253 million 
over fiscal year 2001 enacted funding, and $251 million over the 
initial fiscal year 2002 budget submission.
    Our evolutionary acquisition process will increase the BMD System 
capabilities over time in 2 year increments. Each BMD System block will 
comprise multiple weapon and sensor elements. The BMC\2\ and 
Communications project funding is for developing and integrating the 
command and control and communications for the BMD System. The BMC\2\ 
project includes the development and allocation of BMC\2\ 
specifications to ensure the weapons and sensor system products are 
fully interoperable with each other and with external systems, 
providing optimum flexibility to the warfighter. To this end, a 
Ballistic Missile Defense Integration Center will be established at 
BMDO's Joint National Test Facility.
    The Communications project consolidates and refines BMD System-wide 
communication systems to allow components to exchange data and to 
permit command and control orders to be transmitted to the weapons and 
sensor systems.
    The Targets and Countermeasures project funding provides threat-
credible ballistic missile targets, countermeasures, and target system 
support. This project will provide new target and countermeasure 
development, risk reduction flights, and target characterization.
    As the central engineering component within BMDO, the Systems 
Engineering and Integration (SE&I) project provides the overall system 
engineering development and integration of the BMD System. The SE&I 
mission is to define and manage the layered BMD System, providing the 
collaborative, layered, and detailed systems engineering and 
integration required across the entire spectrum of BMD warfighter 
capabilities.
    Lastly, the Test and Evaluation project provides consolidated 
system-wide Test and Evaluation capabilities and resources required to 
allow for cohesive facilitation, management, and execution of test 
activities. Test and Evaluation efforts include the development, 
operation, maintenance, and modernization of the BMD program-wide Test 
and Evaluation infrastructure. The T&E program also addresses 
crosscutting issues related to BMD System lethality, discrimination, 
and other T&E derived mission critical functions. Finally, the T&E 
program conducts system integration tests for the entire BMD System and 
will validate performance of each block. Test & Evaluation activities 
are grouped in terms of Program Wide Test & Evaluation; Test Support of 
facilities, ranges, sensors, and test instrumentation; modeling and 
simulation; and facilities, siting, and environmental efforts.
Terminal Defense Segment
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Terminal Defense Segment (TDS) allocates resources to support 
development and selective upgrades of defensive capabilities that 
engage and negate ballistic missiles in the terminal phase of their 
trajectory. The primary projects under this PE are the Theater High 
Altitude Area Defense (THAAD) system and the Israeli Arrow 
Deployability Program (ADP). Related activities include the Israeli 
Test Bed (ITB), Arrow System Improvement Program (ASIP), and studies 
via the Israeli Systems Architecture and Integration (ISA&I) effort 
that assess the Arrow performance relative to both existing and 
emerging threats. Our amended request of $988 million represents an 
increase of $212 million over fiscal year 2001 enacted funding, and an 
increase of $224 million over the initial fiscal year 2002 budget 
submission. Note: The PAC-3, MEADS, and Navy Area programs are funded 
within their respective service accounts.
    The mission of the THAAD System is to defend against short- and 
medium-range ballistic missiles at significant distances from the 
intended target and at high altitudes. THAAD will protect U.S. and 
allied Armed Forces, broadly dispersed assets, and population centers 
against missile attacks. This evolutionary program is structured to 
demonstrate capability in Block 2004, with planned improvements based 
on upgraded seekers, ground support equipment, and discrimination 
software. Current efforts are addressing component and system 
performance, producibility, and supportability. A robust ground-testing 
program will precede flight testing, currently planned for fiscal year 
2004. The budget adds resources to accelerate acquisition of a THAAD 
radar and to buy more test missiles in order to capitalize on early 
flight test successes should our disciplined development program prove 
effective. The Arrow Weapon System (AWS) (developed jointly by the U.S. 
and Israel) provides Israel a capability to defend against short- and 
medium-range ballistic missiles and helps ensure U.S. freedom of action 
in future contingencies. Arrow also provides protection against 
ballistic missile attacks for U.S. forces deployed in the region. The 
successful Arrow intercept test on September 14, 2000, resulted in 
Israel declaring the system operational in October 2000. The Arrow 
Deployability Program (ADP) also supports Israel's acquisition of a 
third Arrow battery and Arrow's interoperability with U.S. TMD systems. 
Interoperability will be achieved via a common communication 
architecture utilizing the Link-16. An interoperability test was 
completed in January 2001 using the Theater Missile Defense System 
Exerciser (TMDSE) that validated that the Arrow Weapon System is 
interoperable and can exchange surveillance and missile track cueing 
data with U.S. Patriot and Aegis missile defense systems. The Arrow 
System Improvement Program (ASIP) will include both technical 
cooperation to improve the performance of the AWS and a cooperative 
test and evaluation program to validate the improved AWS performance. 
We added $20 million in our amended budget specifically for additional 
flight testing and development of additional production capacity for 
the Arrow missile.
    Equally important to the integrated BMD System are the lower tier 
programs that are being transferred to the military departments. We 
have had significant success with the PAC-3, and interceptor missiles 
will be delivered to training battalions this year. PAC-3 system will 
provide critical operational capability to defend our forward-deployed 
forces, allies, and friends. The system is designed to counter enemy 
defense suppression tactics that may include tactical ballistic 
missiles, anti-radiation missiles, and aircraft employing advanced 
countermeasures and low radar cross-section. The PAC-3 technology has a 
proven record of hit-to-kill success. We are now 7-for-8 in body-to-
body intercepts against ballistic missile targets. PAC-3 missile 
technology also accomplished 4-for-4 body-to-body intercepts against 
cruise missiles and air-breathing threats. Recent successes included 
multiple simultaneous engagements of both short-range ballistic 
missiles and cruise missiles using PAC-2 and PAC-3 interceptors.
    Although the Navy Area Program has experienced technical, cost and 
schedule challenges we are now at a point where we can execute a 
rigorous set of flight tests and likely achieve a capability in the 
middle of this decade. A fly-by test is anticipated for early 2002, to 
be followed by a series of intercept flight-tests. At-sea testing is 
expected to begin in late 2002/early 2003. Navy Area has been 
positioned to undertake initial at-sea tests using, Aegis 
``LINEBACKER'' ships.
    With the German Parliament funding recently made available to 
continue the trilateral MEADS activity, that program is about to embark 
on a 3-year risk reduction effort. MEADS will use the PAC-3, which has 
already begun production, as its interceptor. Once deployed, MEADS will 
improve tactical mobility and strategic deployability over comparable 
missile systems and provide robust, 360-degree protection for 
maneuvering forces and other critical forward-deployed assets against 
short- and medium-range missiles.
    These systems have been in development for many years and Patriot 
and Navy Area are approaching procurement and deployment decisions. For 
this reason, and in compliance with our program philosophy to have BMDO 
do RDT&E and the military departments do procurement, and to support 
the military departments' air defense mission, the Department is 
transferring to the respective services the responsibility for 
execution and management of PAC-3, Navy Area, and MEADS.
Midcourse Defense Segment
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Midcourse Defense Segment (MDS) develops increasingly robust 
capabilities for countering ballistic missiles in the midcourse stage 
of flight. The MDS will develop and test multiple technologies to 
provide credible capabilities against this threat to operate in this 
segment of flight. The MDS program of work is divided into multiple 
elements including Ground-Based Midcourse System, and Sea-Based 
Midcourse System, the successors to the National Missile Defense and 
Navy Theater Wide programs, segment Systems Engineering and 
Integration, and segment Test and Evaluation. Our amended request of 
$3,941 million represents an increase of $1,455 million over fiscal 
year 2001 enacted funds, and an increase of $1,237 million over the 
fiscal year 2002 initial budget submission.
    Under the previous BMD program, we had under development only one 
system that could provide a midcourse intercept capability for 
defeating ICBMs. We made significant progress in the National Missile 
Defense (NMD) program and brought system development to the point where 
an independent review team led by retired Air Force General Larry Welch 
concluded that, despite some challenges, the technical capability was 
in hand to develop and field the limited system to meet the projected 
threat. We were pursuing a highly concurrent development and production 
program focused on a 2005 deployment. While the NMD testing program 
experienced delays in development and testing, our analysis last year 
showed that ground and flight tests to date have demonstrated about 93 
percent of the system's critical engagement functions and have shown 
the ability to integrate the system elements.
    The revised Ground-Based Midcourse System has three objectives: (1) 
to develop and demonstrate an integrated system capable of countering 
known and expected threats; (2) to provide an integrated test bed that 
provides realistic tests and reliable data for further system 
development; and (3) to create a development path allowing for an early 
capability based on success in testing. During its initial phase, the 
program will develop an integrated system, further demonstrate a ``hit-
to-kill'' capability, and prepare for the RDT&E test bed capability and 
subsequent blocks. Each block will develop capability against 
increasing threat complexity.
    Within the MDS, the bulk of the resources are designed to build and 
sustain an operationally realistic test architecture that represents 
the envisioned operational capability. We plan to have an RDT&E ground-
based test bed available in the 2004-2006 time frame. As designed, this 
test bed will expand to enhance overall test infrastructure and system 
maturation, although its initial development will occur within the 
midcourse segment. Over time the test bed will expand to include 
weapons and sensor capabilities from throughout the BMD System when 
they become available.
    The test bed will consist of up to five ground-based silos with an 
upgraded Cobra Dane radar; associated command and control and launch 
facilities; other sensors; and networked communications to support 
robust testing with credible targets, scenarios, and countermeasures. 
This project includes four flight tests in fiscal year 2002. Moreover, 
upon availability, the test bed could incorporate air launched targets, 
thereby providing geographically realistic scenarios and improving 
overall testing realism. Throughout, enhancements will be made to both 
the Fort Greely and Kodiak Island test facilities, improving both 
target and interceptor launch capabilities.
    This approach might provide a near-term option to employ the test 
facilities--radars, C\2\, and interceptor missiles at Fort Greely and 
Kodiak--in an operational mode. Its use in this mode could provide an 
interim capability to meet an emergent threat. This interim capability 
could subsequently be upgraded through technical improvements, replaced 
by deployment of production-quality radars, C\2\, and interceptors as 
described below or supplemented with a Sea-Based Midcourse System, 
described below.
    The Sea-Based Midcourse System is intended to intercept hostile 
missiles in the ascent phase of midcourse flight, which when 
accompanied by a ground-based system, provides a complete midcourse 
layer. By engaging missiles in early ascent, sea-based systems also 
offer the opportunity to reduce the overall BMD System's susceptibility 
to countermeasures. The Sea-Based Midcourse System will build upon 
technologies in the existing Aegis Weapon System and the Standard 
Missile infrastructures and will be used against short and medium-range 
threats. Funding in fiscal year 2002 offers the ability to continue 
testing and enables a potential contingency sea-based midcourse 
capability that can grant limited defense to U.S. and allied deployed 
forces as an element of the BMD System Block 2004. To support this 
effort five flight tests of the sea-based midcourse system are planned 
in fiscal year 2002. Funding also begins concept development and risk 
reduction work for advanced capability blocks to include more robust 
capability against intermediate and long-range threats to complement 
ground-based midcourse capabilities later this decade.
    The United States and Japan signed a memorandum of understanding in 
August 1999 to conduct a 2-year cooperative project to conduct systems 
engineering and to design four advanced missile components for possible 
integration into an improved version of the SM-3 interceptor. This 
project leverages the established and demonstrated industrial and 
engineering strengths of Japan and allows a significant degree of cost-
sharing.
    Other segment activities include Systems Engineering and 
Integration (SE&I), Test and Evaluation (T&E), and Program Operations. 
SE&I funding will allow for further risk reduction activities and 
counter-countermeasure development and will begin a complementary kill 
vehicle development which could be common to both ground- and sea-based 
interceptors. T&E funding starts a new target booster development that 
will allow for testing against more realistic targets.
Boost Defense Segment
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The mission of the Boost Defense Segment (BDS) is to define and 
develop boost phase intercept (BPI) missile defense capabilities. Our 
amended request of $685 million for the Boost Defense Program 
represents an increase of $313 million over the fiscal year 2001 
enacted funding, and an increase of $384 million over the initial 
fiscal year 2002 budget submission.
    The capabilities defined and developed in the BDS will 
progressively reduce the ``safe havens'' available to a hostile state. 
A ``safe haven,'' is formed by geographic and time constraints 
associated with BPI. It is the region of a state from which it can 
launch a missile safely out of range of a potential boost phase 
intercept. To engage ballistic missiles in this phase, quick reaction 
times, high confidence decisionmaking, and multiple engagement 
capabilities are needed. The development of higher power lasers and 
faster interceptor capabilities are required to reduce the size of safe 
havens, whereas development of viable space-based systems could 
potentially eliminate them entirely. Thus, resources have been 
allocated to develop both kinetic and directed energy capabilities in 
an effort to provide options for multiple engagement opportunities and 
basing modes to address a variety of timing and geographic constraints.
    Successful BDS operational concepts could be fully integrated with 
midcourse and terminal elements in the overall BMD System. In 
accordance with the overall BMD acquisition strategy, BDS will employ 
multiple paths and acquisition methodologies to deliver initial 
capability blocks as soon as practical, and upgrade the initial 
capabilities over time. From information gained following this 
approach, BMDO will evaluate the most promising projects to provide a 
basis for an architecture decision between 2003 and 2005.
    There are four principal objectives for the BDS. First, it will 
seek to demonstrate and make available the Airborne Laser (ABL) for a 
contingency capability in Block 2004 with a path to an initial 
capability in Block 2008. Second, it will define and evolve space-based 
and sea-based kinetic energy Boost Phase Intercept (BPI) concepts in 
the next 2 to 4 years, supporting a product line development decision 
in 2003-2005. This effort will include concept definition, risk 
reduction activities, and proof-of-concept demonstrations. For example, 
the sea-based boost program is considering a high-speed, high-
acceleration booster coupled with a boost kill vehicle. This same 
booster will be evaluated (with a different kill vehicle) for sea-based 
midcourse roles. Third, the BDS will execute a proof-of-concept Space-
Based Interceptor Experiment (SBX). Fourth, the BDS will also continue 
Space-Based Laser (SBL) risk reduction on a path to a proof-of-concept 
SBL Integrated Flight Experiment (SBL-IFX) in 2012. At appropriate 
times, BMDO will insert mature system concepts and technologies into 
product line development and deployment. Planned tests within the Boost 
Segment include a ground test of the ABL project and a ground test of 
the Sea-Based Boost concept in 2002.
    Kinetic Energy Concepts
    Little has been done in this area in recent years. We intend to 
address operational concept development and technical risk reduction to 
produce experiments and systems to deliver demonstrations in the 2003-
2006 timeframe. Kinetic boost phase intercept is a challenge because 
the threat missile must be detected and confirmed within a few seconds 
of launch. It then becomes a race between an accelerating ballistic 
missile and the interceptor in which the threat missile has had a head 
start. Another technical challenge is designing a kill vehicle that can 
detect and track the target following missile-staging events and then 
impact the missile in the presence of a brilliant plume.
    The money requested in fiscal year 2002 will allow us to begin risk 
reduction activities to resolve critical technological risks associated 
with candidate boost systems and the development of a concept of 
operations through war-gaming and other planning activities. We are 
considering a sea-based boost activity to develop a high-speed, high-
acceleration booster coupled with a boost kill vehicle. This activity 
will simultaneously support a proof-of-concept Space-Based Experiment 
(SBX) using a space-based kinetic energy kill vehicle.
    Directed-Energy Capabilities
    The two primary programs in this area are the Airborne Laser (ABL) 
and Space-Based Laser, now transferred to BMDO. The Air Force ABL 
program has been focused on short- and medium-range threats. We are 
taking deliberate steps to prepare ABL for a strategic defense role as 
well. With onboard sensors, each ABL aircraft will conduct long-range, 
wide-area surveillance of regions from which threat missiles might 
launch. The fiscal year 2002 budget request will allow us to conduct an 
initial flight test of ABL and plan for a lethal demonstration in 2003.
    The budget request will enable BMDO to continue SBL risk reduction 
work. Near-term SBL activity will focus on ground-based efforts to 
develop and demonstrate the component and subsystem technologies 
required for an operational space-based laser system and the design and 
development of an Integrated Flight Experiment vehicle that is 
scheduled to be tested in space in 2012. The SBL project builds on many 
years of previous development and is based on prudent reduction of 
technical risk as early as possible in the design process.
Sensors
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Sensors developed in this segment will have multi-mission 
capabilities intended to enhance detection of and provide critical 
tracking information for ballistic missiles in all phases of flight. 
This PE funds the Block 2010 SBIRS-Low sensor satellite constellation, 
and the Russian-American Observation Satellites (RAMOS) Program, as 
well as emergent technologies and test and evaluation activities. In 
addition, resources are provided to further concept development and 
risk reduction efforts. Our amended budget request of $496 million 
represents an increase of $221 million over the fiscal year 2001 
enacted funding, and an increase of $113 million over the initial 
fiscal year 2002 budget submission.
    SBIRS-Low (transferred from the Air Force) will incorporate new 
technologies to enhance detection; improve reporting of 
Intercontinental Ballistic Missile (ICBM), Sea-Launched Ballistic 
Missile (SLBM) and tactical ballistic missiles; and provide critical 
midcourse tracking and discrimination data for BMD. SBIRS-Low, in 
conjunction with SBIRS-High (developed by the Air Force), form the 
SBIRS system, which will consist of satellites in Geosynchronous Orbits 
(GEO), Highly Elliptical Orbits (HEO) and Low Earth Orbits (LEO) and an 
integrated centralized ground station serving all SBIRS space elements 
and Defense Support Program (DSP) satellites.
    The Russian-American Observation Satellites (RAMOS) Program is an 
innovative U.S.-Russian space-based remote sensor research and 
development program addressing ballistic missile defense and national 
security directives. This program engages Russian developers of early 
warning satellites in the joint definition and execution of aircraft 
and space experiments.
Technology
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Technology Segment will develop components, subsystems and new 
concepts needed to keep pace with the evolving ballistic missile 
threat. The primary focus of the Technology Segment is the development 
of sensors and weapons for future platforms that can complement today's 
missile defense capabilities. Investments will maintain a balance 
between providing improvements in current acquisition programs and 
demonstrating the enabling technology for new concepts. Our amended 
request of $113 million represents a decrease of $74 million relative 
to the fiscal year 2001 enacted funding (and congressional adds), and a 
$41 million increase over the initial fiscal year 2002 budget 
submission.
    The technology program is divided into four thrust areas: (1) 
terminal missile defense, (2) midcourse counter-countermeasures, (3) 
boost phase intercepts, and (4) global defense. Specific projects 
include the development of a doppler radar to be used in a missile 
seeker, the demonstration of active and interactive midcourse 
discrimination techniques, the design and development of miniature kill 
vehicles for boost and midcourse application, and the development and/
or testing of space relay mirrors for laser tracking systems. In 
addition to thrust area projects, investments are made in technology at 
the component level to improve the state-of-the-art in radars, infrared 
sensors, lasers, optics, propulsion, wide band gap materials, and 
photonic devices.
    In closing, the Ballistic Missile Defense System Strategy balances 
significant engineering, management, schedule and cost challenges. It 
also provides for a robust RDT&E program with rigorous testing. Your 
support will be critical to our success.
    Thank you, Mr. Chairman. I would be happy to answer any questions 
you and the members of the committee might have.

    Chairman Levin. Thank you both.
    The issue that this Nation is going to have to face is not 
whether North Korea is trying to develop missile capability, 
but whether our response to that will make us less secure or 
more secure. That is the issue.
    The moral obligation that the President has and that 
Congress has is to make us more secure. If it comes down to the 
breach of a treaty, which leads to a Russian and Chinese 
response to increase the number of weapons they otherwise would 
have and to increase the amount of nuclear material on Russian 
soil particularly, and speed up the development of a nuclear 
program in China, this could lead to the greater possibility 
that terrorists could get their hands on a nuclear weapon. This 
increases the terrorist threat because of the greater access to 
nuclear material, the greater number of nuclear weapons in this 
world. If that is the response--and that very well could be the 
response--we then have a new arms race on our hands, a new Cold 
War on our hands and a greater proliferation threat on our 
hands.
    This is the reason for the original ABM Treaty. Countries 
are going to respond. As one of the experts put it back then, 
one side's quest for safety can heighten the other side's 
insecurity. That is the issue. Is our quest for safety in this 
particular way going to increase Russian and Chinese 
insecurity? You hope it does not. We would all hope it does 
not. You say it should not. We would all feel it should not. 
But the question is, will it?
    Does that mean we give anybody a veto? Of course not. 
Nobody has a veto. But does that mean that the response of 
other countries, nuclear powers with the capability of 
increasing their capability, MIRVing their weapons, of 
transferring countermeasures and decoys to other countries and 
developing themselves--is that response relevant to what we do? 
It seems to me it surely is relevant. If it comes down to a 
unilateral deployment in violation of a treaty, we need to 
weigh that response and decide whether or not we will be left 
more or less secure by a unilateral deployment.
    That is a particularly difficult question, it seems to me, 
in light of the fact that we have been informed over and over 
again by our intelligence sources that the more likely means of 
delivery of a weapon of mass destruction is not a missile. It 
is not a ballistic missile. It is a truck or a suitcase or a 
ship. Do we then take action to defend unilaterally in 
violation of a treaty against the least likely means of 
delivery with the likelihood of increasing a proliferation 
threat when there is another means of delivery more likely, 
cheaper, more accurate, stealthier?
    Those are the questions which this administration I believe 
has not given adequate attention to. We will be spending a lot 
of time on those questions at a later hearing. Obviously, today 
people will comment on that, and you already have.
    What I want to focus on today with my time has to do with 
the testing, which is now being requested, the budgeting that 
you are requesting.
    For the first time we are told in your statement that the 
tests or activities that you are seeking funding for are likely 
to bump up against the ABM Treaty in months rather than years. 
Now, as my good friend Senator Warner said in his opening 
statement, when the press reported that this morning, we were 
wondering whether that was just sort of snippets from various 
comments put together by the press. Well, it is not. What we 
have here this morning for the first time is the administration 
telling us that, if we fund this budget request, the likelihood 
is that this treaty will be violated in months not years.
    We have been told that our allies and the Russians have 
been informed of that recently. That is what the press was told 
yesterday. That is what we have been told, that the Russians 
and the allies have been informed that the activities that 
would be budgeted for 2002 are likely to bump up against and be 
in conflict with the ABM Treaty in months not years.
    Now, we were told by General Kadish just 3 weeks ago that 
there would be no treaty violation in 2002 based on the 
recommendations that he had made. We were briefed on that, and 
that is what you told us, General, 3 weeks ago.
    Something has changed in the last 3 weeks.
    You obviously hope that these tests proceed well. You want 
them to proceed well, these tests that we budget. Therefore, if 
it is likely that they will bump up against the treaty in 
months not years, that means that you are telling us that if we 
adopt this budget that you have requested, that this treaty, if 
not amended--everybody hopes there will be an amendment, but if 
it is not amended with the Russians--that this treaty would be 
violated unless we withdrew from it during fiscal year 2002. Is 
that correct?
    Secretary Wolfowitz. There is a very important measure of 
difference. I used in my testimony the phrase ``bump up.'' I 
think in the talking points we used with our allies, we used 
the phrase ``encounter.'' I noticed the newspaper uses the 
phrase ``conflict,'' and that is a very different--that 
presumes you have already made the legal judgment.
    As I tried to lay out very clearly in my testimony, at this 
early stage, the legal issues are just loaded with ambiguities. 
The central ones in the examples I mentioned have to do with 
the question of whether the development of a test bed, which 
would clearly be legal under the treaty, becomes illegal if you 
harbor the intention or the plan or the possibility of turning 
that test bed into an operational capability. It is going to 
take a great deal of legal argument to decide what the answer 
is to that.
    The other issues that I described involve issues 
essentially of testing non-ABM radars in so-called ABM modes or 
essentially issues that were argued throughout the period of 
the treaty because we had one interpretation and the Russians 
had another. The lawyers are going to have to come up with some 
definitive judgments as to which of those interpretations 
apply.
    We are in a gray area, Mr. Chairman, and that is why I use 
a fuzzy phrase like ``bump up'' rather than a very clear-cut 
phrase like ``conflict.'' As I said in my testimony, if we come 
to a judgment that it conflicts and we have not yet revised the 
ABM Treaty, then we either can withdraw from the ABM Treaty, 
not violate it--we are not going to violate it. We are legally 
allowed under the treaty to give 6 months' notice of 
withdrawal--or we can scale back our program and take out some 
tests that would otherwise be useful or stop doing something 
that would give us both the test and operational capability.
    Chairman Levin. Mr. Secretary, I must tell you the 
administration handed out a document to the press yesterday. 
The press asked us to comment on it. Can we give them a copy of 
this?
    I am just going to read this. This is what the press 
quoted. You can say there is a big difference between conflict 
and bump up against. OK. The administration said conflict in 
this document. The document is titled, ``The Administration's 
Principal Themes on Missile Defense: Questions and Answers.'' 
It says, ``Moreover and again as we have told both allies and 
the Russians, while we do not know precisely when our programs 
will come into conflict with the ABM Treaty in the future, the 
timing is likely to be measured in months not years.'' Those 
are your words. Those are the administration's words. Now you 
are telling us you did not mean conflict, you mean bump up.
    You cannot tell us whether there is anything in this budget 
which, if everything works well, would lead to activities which 
conflict with the ABM Treaty? You do not know?
    Secretary Wolfowitz. I can tell you--and I have identified 
them--that there are activities in this budget that will raise 
issues of treaty interpretation, and we have not yet come to a 
resolution of those issues.
    Chairman Levin. You have a Compliance Review Group, do you 
not?
    Secretary Wolfowitz. Which is working on these issues as we 
speak.
    Chairman Levin. Have they decided whether they would 
conflict or not?
    Secretary Wolfowitz. I do not believe they have.
    Chairman Levin. When will we know that?
    Secretary Wolfowitz. At least 6 months before we proceed 
with these.
    Chairman Levin. We are not going to know that before you 
are asking us to vote on this budget, whether your own 
Compliance Review Group thinks that the activities that you are 
asking us to fund are in conflict with the ABM Treaty, which 
could lead to all kinds of ramifications for the world? We are 
not going to have that assessment from your Compliance Review 
Group before you are asking us to approve a budget? Is that 
what you are telling us this morning?
    Secretary Wolfowitz. I am telling you, Mr. Chairman, that 
we do not have that assessment now. We will get it as soon as 
we can, and we will certainly get it well in advance of 6 
months of the event.
    Chairman Levin. The whole purpose of that group, by the 
way, is to tell us whether or not an activity violates a 
treaty. A pretty significant judgment. You are proceeding 
without it, and you are asking us to proceed without it. I hope 
we do not.
    Senator Warner.
    Senator Warner. I opened the comments that I provided at 
this hearing with the statement that it is really my belief 
that Congress will work constructively as a partner in a calm 
manner to achieve the necessary defenses that this Nation must 
have.
    Now, I also point out that we are going to talk about 
different interpretations of different statements, but clearly 
on page 7, your last sentence, ``I can assure you that the 
President will adhere to the requirements of the treaty to 
conduct the proper notifications as we go forward''--in other 
words, time and time again our President has indicated that he 
is going to follow a path of consultation, then negotiation. I 
think that should be sufficient reassurance to Congress that we 
can work as full partners.
    Now, much was said rather loosely about unilateral 
withdrawal. I think the President had no alternative but to lay 
down very clearly the threat against this country, his 
determination as the constitutional leader to deal with that 
threat technologically, to the extent that we can, but at the 
same time, leave no doubt that if consultations and subsequent 
negotiations do not result in a framework, we have no 
alternative but to exercise the right under the treaty to 
withdraw.
    Otherwise, it is my judgment--and I ask the question to 
you, Secretary Wolfowitz--we put squarely in the hands of the 
Russians a veto. Am I not correct in that assumption?
    Secretary Wolfowitz. I believe that is what we would be 
doing and then we would, in effect, be making the judgment that 
the kinds of dangers Chairman Levin has talked about and which 
I believe are very manageable are much more serious than what I 
believe the rather unmanageable proliferation of missile 
threats in the hands of rogue nations.
    Senator Warner. Now, this phrase that within months we 
will--whatever you want to use--bump up or challenge the ABM 
Treaty--all during that period, our President will be 
conducting consultations and negotiations, will he not, 
Secretary Wolfowitz?
    Secretary Wolfowitz. We expect those negotiations and 
discussions to be intensifying significantly in the coming 
months.
    Senator Warner. Correct. In good faith, he is manifesting 
not only to our country but to the world that he is trying to 
work within the treaty framework to seek a resolution of the 
differences.
    Secretary Wolfowitz. That is absolutely right. We are also 
demonstrating in a number of ways, including most importantly 
with the way we are bringing down our offensive forces, that we 
are no longer enemies with Russia and that we need to move 
beyond the old thinking that put the focus on being able to 
annihilate one another within 30 minutes of warning. That is 
old. I understand we lived with that kind of thinking for so 
long. There are vestiges of it certainly even in this country. 
It is rife in Russia, but I think we can move beyond it.
    Senator Warner. I think that case is made very clearly.
    Another observation in my judgment, and I say this with 
great deference to this institution which I have been 
privileged to serve these almost 23 years. I really believe 
Congress will reach down into its own wisdom and find a common 
basis to support our President. But should somehow we fail to 
do so or should we turn up the rhetoric and heat it up, does 
that not hinder our President in those negotiations?
    Secretary Wolfowitz. I think, Senator, you are absolutely 
right. The entire record of negotiating with almost every 
country and certainly with Russians and the former Soviet Union 
suggests that the most effective way to reach agreement is to 
demonstrate some determination to move forward on our own.
    Senator Warner. If we can move as partners, it is more 
likely that he will succeed.
    Secretary Wolfowitz. Absolutely. I think partnership and 
solidarity between the executive and legislative branches on 
this issue is crucial.
    Senator Warner. Now, the law of the land was stated by 
Congress in the Cochran legislation. There were 97 yea votes to 
3 negative votes on that piece of legislation. It is very clear 
that it gives the President, this President--it was enacted and 
signed by the previous President--the clear authority to move 
within the technological framework of milestones. In any way 
can anyone point to where the President has breached that law?
    Secretary Wolfowitz. I believe he is in full compliance 
with both the letter and the spirit of it.
    Senator Warner. I agree with that.
    Now, General Kadish, let us assume for the moment that we 
are able to work through a satisfactory revision of the 
framework of the ABM Treaty. Your program under 2002 is 
consistent with the Cochran bill, namely that we will pace 
ourselves in accordance with technology?
    General Kadish. That is correct, Senator.
    Senator Warner. I think it is important, General Kadish, 
that we also address the question of the limited defense which 
we use in terms of the intercontinental ballistic missiles. 
That is what we are endeavoring to do to defend ourselves 
against the hopefully less than a dozen that attack us. 
Assuming this system becomes effective, I do not see how it 
poses a threat to Russia. Their arsenal could crush that system 
like an ant. Am I not correct?
    General Kadish. The system certainly would have inherent 
limitations against long-range missiles.
    Senator Warner. The question simply is this. If we are able 
to bring into being technologically this limited defense, the 
Russian inventory today could overwhelm it in a matter of 
hours. Am I not correct?
    General Kadish. That is correct.
    Senator Warner. It does not pose a threat. Do you see that 
it poses any threat to Russia to induce them to go into an arms 
race again?
    General Kadish. It is not designed against thousands of 
nuclear warheads.
    Senator Warner. It would be overwhelmed.
    General Kadish. So, it would be overwhelmed, as could any 
defenses in the history of mankind could eventually be 
overwhelmed.
    Senator Warner. Now, again, the word ``limit'' is applied 
to the intercontinental system, but when we get down to the 
smaller systems, particularly those systems we hope to have in 
the architecture to defend our forward deployed troops, those 
systems could interdict more than the few missiles. Am I not 
correct?
    General Kadish. That is correct. Our intention would be to 
have enough inventory to have a robust protection of our 
deployed forces.
    Senator Warner. I think some clarity has to be made as we 
move along because the fundamental concept is limited and that 
is the main target that we are dealing with under the ABM 
Treaty. But there will be more missiles involved in that 
system.
    My time is up.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Secretary Wolfowitz and General Kadish, I thank you for 
your testimony today. I think this is a very important day and 
discussion on a most significant and difficult issue. I do 
think that you have moved us forward today by speaking directly 
about this new approach to a ballistic missile defense. I for 
one find it helpful.
    I hope that the aim that you described, Secretary 
Wolfowitz, of ultimately having bipartisan support here in 
Congress is realized because this is a very important question 
of national security we are discussing. Traditionally we have 
found ways not to divide on partisan lines on exactly this kind 
of question. That goal will be greatly assisted if the 
administration speaks with more clarity and consistency on this 
question than it has up until this time. I would like to feel 
that the statements that you have made today, which I have 
found at least personally to be helpful and clear, whether one 
agrees with them or disagrees with them, whether one is 
reassured by them or alarmed by them, will set a standard for 
what will follow.
    Words are very important here, as Senator Levin's questions 
illuminated. I think it is very important that everyone in the 
administration use the same language, be on the same program, 
and that will help us to find the common ground that we ought 
to be able to find on this critical issue.
    I implore you to spend as much time as necessary in 
speaking directly to the members of this committee in closed 
and open session, and to members of the relevant House 
committees so we can find that common ground that is ultimately 
going to be in the interest of our country.
    The prevailing law here--and we are, after all, a Nation of 
laws--is the National Missile Defense Act of 1999. I was an 
original cosponsor of this proposal with Senator Cochran and 
others. I think it is important for us to go back to it because 
it is important for our allies and others around the world to 
understand this, that in this law, the United States committed 
to deploy as soon as is technologically possible an effective 
National Missile Defense system capable of defending the 
territory of the United States against limited--limited--
ballistic missile attack.
    So the question then, according to this law, is not whether 
we will build a ballistic missile defense, but how and when we 
will do it.
    These are serious questions that involve matters of 
international treaty and international security. I think you 
have spoken directly to this today, and I appreciate it. I for 
one will not shy away from supporting authorization and 
appropriation that might necessitate a withdrawal from the ABM 
Treaty if I am convinced that it is necessary to do so for the 
protection of our national security and that the administration 
has made every possible effort to negotiate the appropriate 
modifications of the ABM Treaty with the Russians and that 
effort has failed.
    I think your directness has helped us to move forward here 
into difficult territory, but it is important territory. I urge 
you to hold the line on the position you have taken as we begin 
to negotiate and discuss more specifically how we can achieve a 
bipartisan agreement on this critical question.
    The National Missile Defense Act of 1999 had in it what I 
would consider to be two qualifications or conditions. The 
first is that the deployment of the National Missile Defense 
would be subject to the annual authorization of appropriations 
and the annual appropriation of funds for National Missile 
Defense.
    I have taken that to mean that we in Congress and members 
of whatever administration was in office at the time would have 
to make a judgment about priorities. How much are we prepared 
to invest in NMD or BMD now as compared to other national 
security needs?
    I want to ask you to go into a little more detail in 
answering a question that you touched on in your opening 
statement. The Bush administration's proposed defense budget 
for fiscal year 2002 goes up overall 7 percent after inflation. 
The budget proposal for the Ballistic Missile Defense Office 
goes up 57 percent after inflation. We have seen in hearings 
that this committee has held that, notwithstanding the 7 
percent overall increase, there are serious cuts in weapons 
procurement. Procurement for the Navy, for instance, is down as 
we rapidly head toward less than a 300-ship Navy. Basic 
research and development for the Air Force, for instance, is 
down, and certain elements of readiness and training are less 
than they have been in the past.
    So, my question is, can you respond to that qualifier or 
condition in the National Missile Defense Act of 1999 that the 
administration has its priorities right here and that the 
reductions in funding that are part of the overall budget, as 
compared to the dramatic increase in the National Missile 
Defense budget, are justified?
    Secretary Wolfowitz. A couple of points, if I might. First, 
on your original comment, if there has been any lack of clarity 
in what people say--and I also address this to the chairman--it 
is not because of a lack of desire to achieve clarity. It is 
because these issues are murky. As I said, there are 
technological uncertainties and there are legal uncertainties. 
We are trying--and my statement represents another part of that 
effort--to be as clear and direct as we possibly can.
    We have never for a minute hidden the fact that we have 
directed General Kadish to develop a program that is not in any 
way constrained by the treaty, not to go out of his way to look 
for opportunities to violate the treaty at its earliest 
possible time, but also not to foreswear something that makes 
developmental or deployment sense because it would conflict 
with the treaty. That has been a whole new revision in the way 
BMDO has done its work. It has flushed new ideas and new issues 
on the table, and we are trying to be as clear as we possibly 
can with Congress.
    I agree these are important issues and we will continue to 
do that. I appreciate the effort of bipartisanship, but we have 
never made a secret of the fact that the President fully 
intends to deploy a defense of the United States. Of course, 
that is what the National Missile Defense Act calls for as 
well. It should be no secret to anyone that article I of the 
treaty explicitly prohibits such defense of American territory.
    So, we are on a collision course, and trying to determine 
the exact point of collision or the closest point of approach. 
But no one is pretending that what we are doing is consistent 
with that treaty. We have to either withdraw from it or replace 
it.
    The question about priorities is a crucial one, we have 
been wrestling hard with it. I would challenge the notion that 
we have increased missile defense at the expense of everything 
else. I am sorry the numbers are not as fresh in my mind as I 
would like, but we have I think approximately a $22 or $23 
billion real increase in defense spending this year over the 
2001 budget, and I believe of that, roughly 10 percent of that 
increase is in missile defense. We have weighed that against 
many other priorities. We have invested even more heavily in 
improved flying hours, improved base maintenance, not to 
mention increased health care costs, in which there is a $5 
billion real increase. The largest single portion of that $23 
billion increase is essentially going to welfare and training 
of our troops which is the first priority. There is a $7 
billion increase in research and development over and beyond 
the $2.4 billion that we are adding to missile defense.
    Yes, Senator, I really do believe that is an appropriate 
allocation. As I said in my opening statement, our current 
schedule for deploying PAC-3 is woefully inadequate. It has to 
be accelerated. On the current schedule, it will not be until 
the year 2007 that we complete the planned deployment, and that 
is not nearly as thick as it ought to be in places like Korea. 
So, we are accelerating theater missile defense, as well as 
longer-range missile defense, and we will continue to weigh 
those priorities very carefully as we look in the 2003 budget 
where we really have to address the fundamental issues of force 
structure--how large the Navy should be, for example--as you 
mentioned in your comments just now. What Secretary Rumsfeld is 
trying mightily to do with a very intensive approach to the 
quadrennial defense review is to flush up as much as possible 
the tradeoffs so that he, the President, and ultimately 
Congress can make sensible decisions about what we are funding 
and what we are not funding and where those tradeoffs lie. But 
I really do believe this is a very important priority for our 
country.
    Senator Lieberman. Thank you, Mr. Secretary. My time is up.
    I would just say finally that it seems to me that you and 
General Kadish have laid out the administration's plans 
regarding missile defense with clarity and directness today. 
That is an important step in this very significant debate. I 
just urge you again to not only work as hard as you can with 
the Russians to see whether we can achieve a modification in 
the treaty to allow the testing program that the administration 
wants to carry out or something like it, but that you work as 
hard as you possibly can with members of both parties in 
Congress to see if we can find a way to go forward on this 
critical national security matter without having party 
identification divide us. I think that weakens the overall 
effort and it is worth really reaching as far as possible to 
avoid that result. Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Lieberman has made reference to the National 
Missile Defense Act, and we will make part of the record at 
this point the entire act, including section 3, which was not 
referred to, which is the policy of the United States to seek 
continued negotiated reductions in nuclear forces of Russia.
    The statement by President Clinton when he signed that 
Missile Defense Act on July 23, 1999, will also be made part of 
the record, including his words that our missile defense policy 
must take into account our arms control and nuclear 
nonproliferation objectives.
    I do not know if that was the second condition that Senator 
Lieberman was going to refer to, but his time ran out. We will 
make both of those documents part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, General Kadish, I appreciate the visual that 
you brought with you today and the way you explained it. I wish 
all of the American people could be here watching this.
    I said to Senator Smith, because he was a little late in 
getting here, Secretary Wolfowitz, that your opening statement 
I believe was the most passionate, accurate, and superb opening 
statement I have heard in the 15 years that I have served in 
the House and the Senate. I thank you very much for that.
    Secretary Wolfowitz. Thank you, Senator.
    Senator Inhofe. I know it came from your heart.
    I want to ask four quick questions that should just take a 
minute to answer. The reason I want to ask these questions is 
we sit around the table here and we are with Senators and we 
are with top military leaders and with negotiators and experts. 
But there are a lot of people who are not here today, and those 
are the people, a lot of whom are in Oklahoma. There are some 
basic questions that I think need to be brought to their 
attention, questions we know the answer to but they do not. But 
they are performing one important thing, and that is they are 
paying for all this fun that we are having. So, I would like 
just to pose four quick questions and then I want to get into 
something here.
    The first is, does the United States currently have the 
ability to defend the 50 States against an incoming missile? 
Very simply asked.
    Secretary Wolfowitz. None at all, Senator.
    Senator Inhofe. Does article I of the ABM Treaty not 
explicitly prohibit the United States from defending our 
territory, the 50 States, against missile attack?
    Secretary Wolfowitz. Yes, it does.
    Senator Inhofe. Does article V not prohibit the 
development, testing, and deployment of sea-based, air-based, 
space-based, or mobile land-based missiles?
    Secretary Wolfowitz. Yes, it does, Senator.
    Senator Inhofe. Now the other question. The three of us 
have something in common. We are not attorneys. So, let me ask 
you the question that is asked of me quite often because I have 
not heard a good answer yet. Why is it we are sitting around 
spending so much time talking about the violation or the 
amending of a treaty that was between two countries, one of 
which no longer exists today?
    Secretary Wolfowitz. I am not a lawyer, so I will not get 
into legal issues. I know the President has made a judgment 
that rather than to get into those legal issues--and I know 
there are lawyers who would argue that the treaty lapsed with 
the demise of the Soviet Union--that it is a very important 
fact in the relationship between the United States and Russia. 
In fact--I will try to keep this answer short, but my 
impression from discussions that I had in May in Moscow, when 
the President sent Steve Hadley and I there and from the 
discussions that Secretary Rumsfeld has had with his Russian 
counterpart, is that the ABM Treaty is important more because 
it is a tie to the United States that they badly want to 
preserve, rather than because of its exact content. I think 
that is the spirit in which we are trying to replace it.
    Senator Inhofe. Thank you very much.
    Let me just share with you--there are two areas of this 
whole debate that I have found most offensive. One is the 
argument about the suitcase and the terrorist threat. It is a 
very real threat. It is there. There is no one in this hall 
today who is more sensitive to that than I am being from 
Oklahoma, being from an area where I was moments after the 
largest domestic terrorist attack in the history of this 
country, and seeing what happened to the Murrah Federal Office 
Building and seeing the parts of bodies stuck to the walls and 
people I knew intimately with loved ones that were never found.
    To think that the explosive power of that was about 1 ton 
of TNT, and yet those nuclear warheads that we talk about, in 
most cases the smallest ones are about a kiloton, 1,000 times 
the explosive power that devastated the Murrah Federal Office 
Building and killed 168 Oklahomans. When you put that in 
perspective, it changes the whole thought I think around this 
subject in terms of defending ourselves.
    The other thing that I have found offensive is this 
discussion today of the treaty. It is a treaty that could be 
argued is not there, but let us assume that that treaty is in 
some degree of effect. It was put together at a time in our 
history that we three are all old enough to remember even 
though I did not agree with it at the time, but there was a 
pretty smart guy named Henry Kissinger who did. He felt that we 
did have two super powers and that perhaps this mutual assured 
destruction made some sense at that time.
    But Henry Kissinger himself has said--and I have used his 
words on the floor of the Senate many times--this is not 1972. 
There are not two superpowers. In fact, the threat that is 
facing America today because of its proliferation and its lack 
of identity is greater in my opinion than it was at that time. 
He said, ``It is nuts to make a virtue out of our 
vulnerability.'' Here is the guy who was the architect of the 
ABM Treaty of 1972. As you have both so accurately pointed out, 
along with some others, that is not true today.
    So, with that treaty as a major discussion, in the last few 
seconds here I want to just throw out a few things to at least 
get into this meeting the real sense of threat that faces this 
country. I agree with George Tenet, Director of Central 
Intelligence, who before this committee said that we are very 
likely in the most threatened position today that we have been 
in the history of our Nation.
    Remember the movie that we saw recently that is out right 
now, ``Thirteen Days,'' talking about the Cuban missile crisis 
of the 1960s. We have the same defenses today that we had back 
then. People really are not aware of this.
    We had something happen in 1996 in the straits off of 
Taiwan. Trying to intimidate their elections, the Chinese were 
firing missiles. Their second highest military authority said 
that we are not concerned about America getting involved 
because they would rather defend Los Angeles than Taipei.
    We recall that just 2 years after that, the Minister of 
Defense of China, Chi Hou Tun, said war with America is 
inevitable.
    You look at all of these and as you pointed out in your 
opening statement, Secretary Wolfowitz, the three-stage 
rocket--that was August 31, 1998--was a rocket from North Korea 
that has the capability of hitting the United States of 
America. Only 7 days before that, we had a letter, dated August 
24, 1998, that said that it would be 5 to 10 years before that 
threat would be there.
    We know that when they talked, during the last 
administration, about how far out this threat was, later on 
they said, well, that is an indigenous developed missile. We 
are not talking about that anymore. We are talking about 
countries that we know have the ability to fire a rocket to hit 
us and we have no defense for that. We know that they are 
trading technology and assistance with countries like Iraq, 
Iran, Syria, Libya, Pakistan. We know specifically that Iraq is 
trading technology and systems with North Korea. We know that 
Saddam Hussein said at the end of the war, if we had waited 10 
years to go into Kuwait, we would not have had to worry about 
America because we would have had a missile that could have 
reached them. Here it is now 10 years later.
    So, my question is, what is your current comfort level?
    Secretary Wolfowitz. My comfort level is very low, or my 
discomfort level is very high. I should have said that in 
partial answer to Senator Lieberman's previous question on the 
relative priorities: if you go back to the Gulf War, we over-
estimated virtually every Iraqi capability except this one. 
Ballistic missiles were the only area in which Saddam Hussein 
was much more capable than we thought he would be.
    We know if there were a war in Korea this year that the 
ballistic missile threat from North Korea would be one of the 
most serious threats we would face. One of the decisions 
Secretary Rumsfeld made was to stop talking about this 
difference between national and theater because many of these 
capabilities apply across the board. Just as North Korea is 
seeking to extend the range, it is also true that our ability 
to defend across the board in a Korean conflict would be 
crucial.
    The airborne laser, for example, which would be a clear 
violation of the ABM Treaty, if it is successful, can shoot 
down short-range missiles as well as long-range missiles in 
boost phase. When you do an analysis of what would make the 
greatest difference for a theater missile defense on the Korean 
peninsula, I believe the analyses conclude the most important 
effective advance would be airborne lasers.
    So, I think we are sitting here already very vulnerable to 
short-range missiles, increasingly vulnerable to intermediate-
range missiles, and as you said, Senator, it is only a matter 
of time and not 15 years but 5 or less before those countries 
acquire the capability to reach the United States, and not just 
a limited piece of the United States.
    Senator Inhofe. Thank you.
    Secretary Wolfowitz. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Cleland.
    Senator Cleland. Thank you very much. Thank you all for 
appearing today.
    General Kadish, you mentioned an interesting point that in 
the history of warfare, there has been no defense system that 
was 100 percent perfect. Is it your opinion that this National 
Missile Defense system that is seeking to be deployed will not 
be 100 percent perfect in defense?
    General Kadish. We will make it as good as we can make it, 
Senator.
    Senator Cleland. No, no. The question is, is it not true 
that this system that we are going to spend billions on to 
perfect and test will not be 100 percent effective?
    General Kadish. I do not think I could answer that question 
the way it is stated because 100 percent against what amount of 
threat? Although you could be overwhelmed at some point, these 
systems can be very effective against a certain number of 
threats.
    Senator Cleland. All it takes is one nuclear warhead to 
ruin our day.
    Now, is it not true? You just said it yourself. In the 
history of warfare, there was no defense system that could not 
be overwhelmed. So, is it not true the deployment of this 
National Missile Defense system will not be 100 percent 
effective? There is no such thing out there as 100 percent 
security that we are going to get from that in terms of 
incoming missiles? Is that not true?
    General Kadish. That is true, but it is true for all the 
weapons systems we have in all our services.
    Senator Cleland. Now, is it not also true that over the 
last 29 years since 1972, the inauguration of the ABM Treaty, 
that the combination of our deterrence and our treaty 
obligations, particularly in terms of the ABM Treaty, has been 
100 percent effective? We have not had an incoming missile in 
terms of the United States territory. Is that not true?
    General Kadish. That is true.
    Senator Cleland. It does seem to me that this is part of 
the crux of this argument here. Are we going to shift from a 
system that has been reliable for 30 years, a combination of 
deterrence and treaty obligations, particularly with Russia, to 
something here that actually is not going to be 100 percent 
effective and may, indeed, destabilize, as the chairman has 
indicated, our relationships not only with Russia, but with 
China and cause the Russians to MIRV their warheads, cause the 
Chinese to build more missiles and actually destabilize our 
relationship with our allies?
    Secretary Wolfowitz, in all honesty, your comment about 
bumping up against the ABM Treaty but not inhaling--[Laughter.]
    That is strange credibility.
    So, that is where I get off the boat. I happen to be a big 
supporter of theater missile defense. There is a distinction 
between theater missile defense and a National Missile Defense 
system. Theater missile defense is allowed under the law. All 
this testing we saw, General Kadish, that you pointed out, was 
that not allowable under the ABM Treaty?
    General Kadish. Yes, it was.
    Senator Cleland. Well, we could continue to test and do 
those kind of things that we need to do. As a matter of fact, I 
am a strong supporter of the Arrow missile defense program with 
the Israelis, the THAAD missile high altitude intercept, the 
Patriot-3. Those are theater missile defense programs that can 
protect our troops and can be moved from time to time against 
whatever rogue nation we choose to target it against.
    This deployment of a National Missile Defense system is 
actually illegal under the ABM Treaty, and I think if we throw 
out the ABM Treaty here, we are throwing out the baby with the 
bath water. That is where I get off the boat.
    Let me just say I also think that it compromises other 
aspects of our defense. I just finished reading ``Waging Modern 
War.'' It is a book about the whole Balkan war. We used 
precision weapons to a degree unheard of in modern warfare, and 
yet the Chief of Staff of the Air Force sat right at that table 
2 days ago, and when I asked him if we had replenished our 
stockpile of precision munitions, he said no. Yet, we are going 
to spend $2.2 billion extra here on some National Missile 
Defense system in an effort to deploy it when it is not quite 
ready for prime time and we cannot even replenish the stockpile 
of precision munitions that do work. I am greatly concerned 
that we are putting the cart before the horse here.
    I will say that the chief sat here and talked about $30 
billion in unfunded requirements that are not being met. I 
would say to you that increasing National Missile Defense 
funding by some 57 percent more than last year is a little bit 
out of line with what we are trying to do in other aspects of 
our military.
    I think, quite frankly, the real threat, as the chairman 
has indicated and as others have indicated and intelligence 
analysts have indicated, is not so much from a missile with a 
return address, but from a terrorist attack somewhere. Look at 
the most recent attack. It was on the U.S.S. Cole, sitting dead 
in the water and vulnerable to a terrorist attack.
    So, I think we have to rethink our priorities here. The 
Defense Department's own reports call the deployment of this 
National Missile Defense program into great question.
    Mr. Chairman, I have a copy of the report. It took 8 months 
to get this out of the Pentagon. I would like to have it 
entered into the record, along with an article, ``Pentagon 
Report Reveals Flaws in Missile Defense.'' I ask that this 
report be included in the record.
    Chairman Levin. Both will be made part of the record.
    [The information referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] T5346.001
    
    [GRAPHIC] [TIFF OMITTED] T5346.002
    
    [GRAPHIC] [TIFF OMITTED] T5346.003
    
    [GRAPHIC] [TIFF OMITTED] T5346.004
    
    [GRAPHIC] [TIFF OMITTED] T5346.005
    
    [GRAPHIC] [TIFF OMITTED] T5346.006
    
    [GRAPHIC] [TIFF OMITTED] T5346.007
    
    [GRAPHIC] [TIFF OMITTED] T5346.008
    
    [GRAPHIC] [TIFF OMITTED] T5346.009
    
    [GRAPHIC] [TIFF OMITTED] T5346.010
    
    [GRAPHIC] [TIFF OMITTED] T5346.011
    
    [GRAPHIC] [TIFF OMITTED] T5346.012
    
    [GRAPHIC] [TIFF OMITTED] T5346.013
    
    [GRAPHIC] [TIFF OMITTED] T5346.014
    
    [GRAPHIC] [TIFF OMITTED] T5346.015
    
    [GRAPHIC] [TIFF OMITTED] T5346.016
    
    [GRAPHIC] [TIFF OMITTED] T5346.017
    
    [GRAPHIC] [TIFF OMITTED] T5346.018
    
    [GRAPHIC] [TIFF OMITTED] T5346.019
    
    [GRAPHIC] [TIFF OMITTED] T5346.020
    
    [GRAPHIC] [TIFF OMITTED] T5346.021
    
    [GRAPHIC] [TIFF OMITTED] T5346.022
    
    [GRAPHIC] [TIFF OMITTED] T5346.023
    
    [GRAPHIC] [TIFF OMITTED] T5346.024
    
    [GRAPHIC] [TIFF OMITTED] T5346.025
    
    [GRAPHIC] [TIFF OMITTED] T5346.026
    
    [GRAPHIC] [TIFF OMITTED] T5346.027
    
    [GRAPHIC] [TIFF OMITTED] T5346.028
    
    [GRAPHIC] [TIFF OMITTED] T5346.029
    
    [GRAPHIC] [TIFF OMITTED] T5346.030
    
    [GRAPHIC] [TIFF OMITTED] T5346.031
    
    [GRAPHIC] [TIFF OMITTED] T5346.032
    
    [GRAPHIC] [TIFF OMITTED] T5346.033
    
    [GRAPHIC] [TIFF OMITTED] T5346.034
    
    [GRAPHIC] [TIFF OMITTED] T5346.035
    
    [GRAPHIC] [TIFF OMITTED] T5346.036
    
    [GRAPHIC] [TIFF OMITTED] T5346.037
    
    [GRAPHIC] [TIFF OMITTED] T5346.038
    
    [GRAPHIC] [TIFF OMITTED] T5346.039
    
    [GRAPHIC] [TIFF OMITTED] T5346.040
    
    [GRAPHIC] [TIFF OMITTED] T5346.041
    
    [GRAPHIC] [TIFF OMITTED] T5346.042
    
    [GRAPHIC] [TIFF OMITTED] T5346.043
    
    [GRAPHIC] [TIFF OMITTED] T5346.044
    
    [GRAPHIC] [TIFF OMITTED] T5346.045
    
    [GRAPHIC] [TIFF OMITTED] T5346.046
    
    [GRAPHIC] [TIFF OMITTED] T5346.047
    
    [GRAPHIC] [TIFF OMITTED] T5346.048
    
    [GRAPHIC] [TIFF OMITTED] T5346.049
    
    [GRAPHIC] [TIFF OMITTED] T5346.050
    
    [GRAPHIC] [TIFF OMITTED] T5346.051
    
    [GRAPHIC] [TIFF OMITTED] T5346.052
    
    [GRAPHIC] [TIFF OMITTED] T5346.053
    
    [GRAPHIC] [TIFF OMITTED] T5346.054
    
    [GRAPHIC] [TIFF OMITTED] T5346.055
    
    [GRAPHIC] [TIFF OMITTED] T5346.056
    
    [GRAPHIC] [TIFF OMITTED] T5346.057
    
    [GRAPHIC] [TIFF OMITTED] T5346.058
    
    [GRAPHIC] [TIFF OMITTED] T5346.059
    
    [GRAPHIC] [TIFF OMITTED] T5346.060
    
    [GRAPHIC] [TIFF OMITTED] T5346.061
    
    [GRAPHIC] [TIFF OMITTED] T5346.062
    
    [GRAPHIC] [TIFF OMITTED] T5346.063
    
    [GRAPHIC] [TIFF OMITTED] T5346.064
    
    [GRAPHIC] [TIFF OMITTED] T5346.065
    
    [GRAPHIC] [TIFF OMITTED] T5346.066
    
    [GRAPHIC] [TIFF OMITTED] T5346.067
    
    [GRAPHIC] [TIFF OMITTED] T5346.068
    
    [GRAPHIC] [TIFF OMITTED] T5346.069
    
    [GRAPHIC] [TIFF OMITTED] T5346.070
    
    Senator Cleland. Why are we in such a hurry to spend an 
additional $3 billion on National Missile Defense? It is termed 
National Missile Defense in the law. I can find no good reason 
to justify the increase. I think it is unconscionable when our 
servicemen and women are flying aircraft that are 18 to 22 
years of age. It is unconscionable when American pilots flying 
foreign-built fighters defeat those flying our own equipment in 
90 percent of training engagements. That is one reason why I am 
so big on the F-22. It is unconscionable when we are procuring 
ships at a rate that will erode our Navy to a level of ships 
well below that which is reasonable to meet our requirements, 
and it is unconscionable when 70 percent of our Army's major 
combat systems are more than halfway through their projected 
service lives.
    I just state quite sincerely that I was as much for a 
theater missile defense as anyone and the technology involved 
in it. But in a fiscal environment that precludes us from 
meeting our legitimate bread and butter needs, in a global 
security environment that presents us with a multitude of 
potential threats more imminent than missiles not yet off the 
drawing board, I cannot look the taxpayers of this country and 
of my state in the eye and tell them that this is a worthy 
expenditure of their money. I am convinced that this NMD effort 
is something we need to take a strong look at and that Congress 
ought to use the power of the purse in rejecting this increase.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    First of all, I would like to thank both the Secretary and 
the General for their clarity and straightforwardness in 
answering questions and discussing our National Missile Defense 
and all theater missile defenses and for the notification of 
Russia and our allies that we intend to go forward with this 
defense system. The first priority in the Constitution is 
national defense, and things certainly have changed since 1972 
and we are now in the year 2001 and spending money to defend 
the United States of America from intercontinental ballistic 
missiles ought to be the top priority that we have. I 
congratulate you on making that decision and doing what is 
necessary to defend the majority of our American people.
    General Kadish, are you positive the technology is there to 
build this system?
    General Kadish. I guess the way I would answer that is that 
at this point for the technologies we are pursuing, there are 
no inventions required to do it. It is a matter of very 
difficult engineering activities. Then as we pursue some of the 
additional ideas that might come out of this new process, 
because of treaty issues and other activities we did not 
explore very much, there may be some new technologies that 
could be applied. So, it is an engineering challenge rather 
than an invention challenge for the types of systems that we 
are looking at very early in this process.
    Senator Bunning. Secretary Wolfowitz, I just came back from 
Seoul, Korea. There are about 45 million people in the greater 
Seoul area. The North Koreans have just moved up their 
conventional artillery 10 miles behind the 38th parallel. Not 
only do we face the nuclear threat out of North Korea but a 
conventional weapons threat. Do we have anything possible in 
our systems right now if North Korea decided to pull the 
trigger on the conventional weapons? Could we defend ourselves 
and our 35,000 to 38,000, depending on what time of the year it 
is, American troops that are there?
    Secretary Wolfowitz. Against conventional ballistic 
missiles, our capability is negligible.
    I would like to make this also an answer to some of Senator 
Cleland's comments before. The theater missile threat, as you 
were describing it, is very real and very urgent. There are 
hundreds of those North Korean conventionally armed missiles. 
Some may have chemical weapons on them.
    Frankly, I do believe, particularly when we are talking 
about conventional missiles, if you can take out 50 percent of 
them, that is a heck of a lot better than 0. During the Gulf 
War with the PAC-2, which was a lot less than 50 percent, there 
was not a single ally or a single commander who did not clamor 
for more.
    We are adding a substantial amount of money. I believe it 
is on the order--and General Kadish can correct me--of $1.5 
billion, Senator Cleland, in this increase goes exclusively for 
theater missile defense.
    Another large part of what we are doing is dual capable. I 
bring up, as I said before, the airborne laser, which when it 
starts to shoot down missiles will be a clear violation of the 
ABM Treaty, whether those missiles are heading for Los Angeles 
or heading for Seoul, because it shoots them down in the boost 
phase when it cannot tell the difference, unless we are going 
to start putting software in to tell it you can only shoot down 
missiles of a certain limited boost capability.
    That threat is very real. I agree strongly with Senator 
Cleland on the urgency of dealing with the theater missile 
threat, but what I would also urge all of your colleagues to 
consider is that the more serious we are across the board, the 
more our capability will be across the board. By pursuing 
defenses against long-range missiles, we develop technologies 
that are also useful against shorter-range missiles and vice 
versa. Frankly, if it has taken us more than 10 years to field 
PAC-3, I have to conclude we have not yet been serious as a 
country. It is time to be serious.
    Senator Bunning. In other words, the money we are devoting 
to the upgrade of not only theater missile defense but National 
Missile Defense is a priority that should be at the top of the 
list not down the list.
    Secretary Wolfowitz. In fact, every theater commander will 
tell you that is his biggest vulnerability. Again, I believe 
strongly in investing in ships and aircraft, and I wish we had 
more money to spend on them. But in a war in Korea, many of our 
air bases could be rendered completely useless, many of our 
ships would be sunk by a ballistic missile attack. It is a 
critical deficiency in our military capability in both that 
theater and in the Persian Gulf.
    Senator Bunning. I suggest that everybody on the Armed 
Services Committee that has not been to the 38th parallel can 
look just 10 miles north and see the encampment and the 
batteries that have been moved in place that expose 45 million 
people to, my God, who knows what, whether there is nuclear or 
whether--if it is just conventional warheads on those, we would 
have a slaughter that would shock not only our own people in 
the United States, but would put in jeopardy all of the 35,000 
or 38,000 U.S. service people that are there to defend and help 
defend and enforce the 1953 cease-fire that was put in force.
    So, I want to thank you for going forward with this and 
make it as fast and quick as possible.
    Secretary Wolfowitz. Thank you, Senator.
    By the way, the increasing range of North Korean missiles 
means that it is not just South Korean facilities that are at 
risk. Everything in Japan----
    Senator Bunning. No. I am just talking about those bases. 
The other ones are capable of reaching the United States of 
America.
    Thank you.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
Mr. Secretary, General Kadish.
    This morning's testimony, together with other positions of 
the administration with respect to the Comprehensive Test Ban 
Treaty (CTBT) and others, raises great concerns because I 
believe what is happening is there is conscious rejection of 
arms control as a central tenet of American foreign policy, and 
by that I mean an endeavor, through bilateral and multilateral 
agreements, not just to limit weapons, but to create a stable 
strategic structure. I know the Secretary has indicated that 
you intend to talk to the Russians, but the definite insistence 
that, regardless of the result of those discussions, you will 
proceed with these plans, suggests that that is less than an 
invitation to negotiations and more of a demand for 
acquiescence, which is very difficult to achieve in the 
international arena.
    What I have heard this morning I would sum up as the four 
noes. No specifics with respect to a deployable system. No cost 
estimates with respect to the life cycle of a deployable 
system. No agreement with our allies, both our old allies and 
our newfound allies, and most emphatically, no ABM.
    Now, let me turn to some specific issues. Mr. Secretary, 
you have several times referred to the reduction of our 
missiles as part of this new framework, making specific 
reference to Peacekeeper. Yesterday we had the opportunity in 
the Strategic Subcommittee to discuss these issues with Admiral 
Mies and General Blaisdell and Admiral Dwyer. You have budgeted 
$5 million to acquire some equipment to begin the preparation 
for the reduction and elimination of the Peacekeeper.
    We are told that is less than a third of what is necessary. 
There is absolutely no provision going forward that we were 
shown to suggest that you have budgeted the approximately $500 
million necessary to actually retire the Peacekeeper missile. 
So, your words today do not seem to be supported by your budget 
proposals in this budget and looking forward to 2003. Is that 
accurate?
    Secretary Wolfowitz. I would have to get the details, 
Senator, because you are asking me something I am not 
completely certain about, but I believe the remaining funds 
would be coming in 2003 and possibly future years, although I 
assumed we would be finished in 2003. You do not have a 2003 
budget request yet. You have an old 2003 budget that did not 
plan for Peacekeeper in or Peacekeeper out.
    Senator Reed. I understand that, Mr. Secretary.
    Secretary Wolfowitz. The clear intent is to retire 
Peacekeeper.
    Senator Reed. Well, if that is your clear intent, then you 
are grossly underfunding the first preliminary step in terms of 
acquiring equipment to do that, and you apparently have not 
made any provisions, at least not to the awareness of Strategic 
Command, to fund the approximately $500 million that will be 
necessary to do that.
    Again, when not just the Senate but the world looks at our 
words and then looks at our budget, if there is a 
discontinuity, then I think they will tend to look more at the 
budget than our words.
    General Kadish, the proposed budget dedicates funds to 
something called space-based kinetic. Is it right to assume 
this is a Brilliant Pebbles type system? If so, I have some 
specific questions. Are you planning to ultimately deploy a 
space-based interceptor system if the technology works?
    General Kadish. The line also includes sea-based kinetic as 
well. So, this is an effort to define how we can do boost phase 
kinetic energy intercepts as a hedge against the directed 
energy that we have in that area, namely the airborne laser. 
There has been very little work done on that in the last few 
years.
    The situation we face with kinetic energy boost phase 
interceptors, terrestrially based, is that you have to catch an 
accelerating missile with another accelerating missile that is 
launched many minutes after the first one. Overtaking and 
intercepting an accelerating missile is a very tough challenge. 
So, we are going to explore that area with the monies involved.
    We have an additional effort to look at an experiment doing 
the same from space because you are in a better position to do 
that, and that has some legacy back to Brilliant Pebbles but it 
is not a major effort at the beginning to look at that as part 
of our architecture other than to do the early experiments.
    Senator Reed. But if these experiments prove to be 
effective, there is a possibility that you could propose to 
deploy a system of satellites in order to acquire these targets 
and essentially put in a space-based system. Is that correct?
    General Kadish. That would just be one of the many hundreds 
of decisions that have to be made about how the architecture 
develops in an incremental way. That is certainly not imminent 
in our program right now.
    Senator Reed. It is not imminent, but we have heard 
repeatedly in the discussions, both your responses and my 
colleagues', that Russia, China, no one has anything to fear 
with the proposals that we are talking about today in this 
budget. Yet, you are beginning to do research which could 
create a space-based interceptor system, which unlike the 
airborne laser needs to be closely proximate to the threat 
area, and could effectively interdict Russian or Chinese 
missiles. Is that correct?
    General Kadish. Well, Senator, if my memory serves me, we 
got $5 million out of a $7 billion budget to look at that 
effort.
    Senator Reed. General, you know I will not quibble with you 
on the dollars, but essentially you are beginning to 
investigate possibilities that could, in fact, raise legitimate 
concerns from a technical point with both the Russians and the 
Chinese. Is that fair?
    General Kadish. I am not sure exactly what their concerns 
would be.
    Senator Reed. Let me put it this way. If Russia had a 
system in space that was capable of intercepting our 
Intercontinental Ballistic Missiles (ICBMs) when they left our 
launch pad, would you be concerned?
    General Kadish. I am always paranoid about those types of 
things. That is what you pay me for. [Laughter.]
    I guess it is a strategic framework issue, and maybe the 
Secretary should answer that from a policy----
    Senator Reed. My time has expired, but if--Mr. Chairman?
    Chairman Levin. Yes.
    Secretary Wolfowitz. I would say, Senator, that we are 
years away from anything of that kind. Whether it is in space 
in Russian altitudes or in space over Iranian altitudes or 
Iraqi altitudes, for example, would make all the difference in 
the world. But we are just years away from that. As the General 
said, it is a very small piece of the program. But I think it 
is important to try to understand what the technological 
possibilities are.
    We are looking for a relationship with Russia where we are 
not threatening one another. We have already moved 
significantly in that direction. We have a much longer way to 
go.
    Senator Reed. Mr. Secretary, if I may, but if you would 
throw off an ABM Treaty, this research could--there is no 
constraint on deploying a system such as this if it proves out 
technically. Is that correct?
    Secretary Wolfowitz. Unless we came to some different 
agreement with the Russians that constrained it, or unless we 
decided politically to constrain it because it was a matter of 
concern, or unless we limited it in a way that made it clear to 
the Russians that it was not a matter of concern. We could 
perhaps do it cooperatively because we are both vulnerable to 
those kinds of attacks.
    We are talking about something that is at least 10 years 
away from even being something that you could talk about 
concretely. By that time, I would hope the U.S.-Russian 
relationship is genuinely transformed and then, in fact, we 
could talk about whether those capabilities could be mutually 
beneficial if deployed in the right way or the right numbers.
    Lord knows neither of us want to be vulnerable to an 
accidental attack by the other side. If you asked me, would I 
feel threatened if the Russians had a limited capability to 
shoot down an accidentally launched American ICBM, I would feel 
much more comfortable if they had that capability than if they 
are primed, as they are today, to launch on warning. They 
nearly launched a few years ago when they saw a Norwegian 
weather rocket. I would feel so much safer if they had some 
ability to defend against a limited attack than if they sit 
there thinking that launch on warning is the answer.
    So, I am not trying to be contentious. We are miles down 
the road. We are trying to develop a relationship with the 
Russians where we are talking regularly and frequently about 
where we are heading in our defense programs across the board 
from a perspective of essentially common interests, which I 
think are growing.
    Senator Reed. Mr. Secretary, my colleagues have been very 
kind, but let me say it is not just a question of how far down 
the road we are going. It is what roads we are taking. I think 
this is a critical issue.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I thank 
Secretary Wolfowitz and General Kadish for I think a ringing 
call to reality to face the fact that the world has changed and 
we have different threats. Jim Inhofe referred to Henry 
Kissinger. I believe one of the statements I heard him make was 
that he never heard of a country whose policy it was to keep 
itself vulnerable to attack when we have the ability to defend 
ourselves from attack.
    Secretary Wolfowitz, you served on a commission to examine 
this, a bipartisan commission when President Clinton was in 
office. Would you tell us how many people served on that 
commission, the makeup of it, and what your conclusion was?
    Secretary Wolfowitz. In fact, it was known as the Rumsfeld 
Commission because Don Rumsfeld--I guess he was already 
Secretary Rumsfeld by that time--was the chairman of the 
commission. There were nine of us, five Republicans, four 
Democrats. Very diverse points of view. I felt honored to be 
included among those people.
    Senator Sessions. The commission rendered a unanimous 
report, did it not?
    Secretary Wolfowitz. It did, and I think that surprised all 
of us. We came in there with very diverse points of view. Our 
mandate was--let me emphasize--not to assess how to deal with 
this problem. It was to assess what the problem was. If we had 
been asked to recommend how to deal with it, you would have 
probably had 11 different solutions from our nine members. But 
on assessing what the threat was, we came to a degree of 
unanimity that surprised me and I think surprised everyone. It 
happened because the more we dug into the facts, the more 
astonished we were at how rapidly this ballistic missile 
technology had proliferated, how much the various bad actors 
were cooperating with one another, sharing technology with one 
another, and how aggressively this had all moved forward.
    Senator Sessions. Well, I think you found that in 1972 nine 
nations had ballistic missiles and now we have 29 nations with 
ballistic missiles. Those things I think are important.
    As to what is unconscionable, I think it is unconscionable 
for us to have the President of the United States handcuffed in 
the ability to take strong action around the world because in 
doing so, he might subject the American people to a missile 
attack. It is that fundamental to me.
    Now, with regard to the Soviet Union, which is gone, and 
the now existing Russia, it is my great hope and belief that we 
can reach a peaceful partnership between those two countries 
and that we can move forward carefully to expand that 
friendship in a way that we cannot even imagine today. Nothing 
would be better for the world, and I think we have every reason 
to believe that is possible.
    But is it not true that we have a treaty with Russia, the 
ABM Treaty--presumably it is still a treaty--and that agreement 
does not impact any of the other nations around the world who 
have these ballistic missiles? It does not bind them. Is that 
right?
    Secretary Wolfowitz. That is correct, although some of them 
feel it should bind us, but it does not bind them.
    Senator Sessions. So, what we are saying is this agreement 
we have with Russia over how we are going to conduct our 
bilateral relations beginning in 1972 is now a major detriment 
to our ability to protect ourselves from North Korea or some 
other nation that may decide to attack us with a ballistic 
missile.
    Secretary Wolfowitz. Or from even a limited accidental 
attack.
    Senator Sessions. It might come from one of the Russian 
missiles.
    Secretary Wolfowitz. It could.
    Senator Sessions. So, to me we are in a new world here. We 
are holding on to this relic of the Cold War, this agreement 
between the United States and a nation that no longer exists, 
the Soviet Union, and we are denying ourselves the ability to 
prepare a defense against attack by missiles from any other 
country in the world. Is that fair to say?
    Secretary Wolfowitz. I think that is pretty accurate.
    Senator Sessions. Are you familiar with the 1999 
legislation, Secretary Wolfowitz, that the Senate passed 97 to 
3 to move forward with a National Missile Defense, to deploy it 
as soon as we are technologically able to do so?
    Secretary Wolfowitz. Yes, I am.
    Senator Sessions. I know the chairman mentioned that 
President Clinton, when he signed it, made a statement that did 
not make any reference to the abrogation of the ABM Treaty or 
not. But that language is not a part of the law of the United 
States, is it?
    Secretary Wolfowitz. I am not a lawyer. I will not try to 
practice without a license. But I think not.
    Senator Sessions. I think not also. I am a poor lawyer and 
I do not think that a piece of legislation can be changed by a 
statement made at the time the President signed it if it is not 
made a part of that legislation. So, that is not a factor here.
    Secretary Wolfowitz, is it your view that it is now time in 
this post-Cold War period for us to reassess how we are going 
to defend America, what the threats are to America? Do you 
consider it your challenge to analyze this situation and move 
us into a new period to deal with the changed threats to 
America? Is that what the President has directed you to do?
    Secretary Wolfowitz. Yes, Senator, but can I also make a 
bipartisan appeal? I think it is much broader than just 
rethinking those threats and developing the abilities to defend 
against them. It is also a matter of rethinking the whole 
relationship with Russia.
    I think General Kadish was a little nonplussed at the 
question of how we would feel about a Russian ability to shoot 
down an American ICBM. I do not mean to suggest that my good 
colleague here is mired in the Cold War, but frankly I think we 
need to think about an era in which, if the Russians have a 
capability to shoot down an accidentally launched American 
missile, we will understand that to be in our interest just as 
it is in their interests if we are not vulnerable to their 
accidental attack. If we could pass an agreement that abolished 
all ballistic missiles in the world, we would probably be a lot 
better off. We cannot do that, but let us move away from the 
mind-set that said stability rests on the ability of Moscow and 
Washington to push a button and be absolutely sure within 30 
minutes they had annihilated the other country. It is 
absolutely appalling.
    Senator Cleland said it worked 100 percent. It worked 100 
percent for a limited amount of time. I lived through the 1962 
Cuban missile crisis, old enough to be pretty darned scared. I 
do not think it is the greatest system in the world, but a big 
change in thinking is necessary to get beyond it.
    Again, I am going to pick on General Kadish because he is 
here and he is useful. The fact that somebody as forward 
thinking as my colleague here has a little bit of trouble 
thinking that way, imagine the mental changes, the intellectual 
changes we are asking of the Russians who in many ways are much 
more mired in the Cold War than anyone you could find in this 
country.
    But let us think beyond not just in terms of defenses, but 
in terms of our whole relationship with Russia. It is a 
different country. It is a brand new country. It will never be 
the threat to the United States that the Soviet Union was, and 
frankly I think it can be a real partner because if you look 
around the world at real stability, which in my view is not the 
stability that comes from mutual annihilation, it is the 
stability that comes from a stable Europe. It is the stability 
that comes from a stable Northeast Asia. It is the stability 
that comes from a stable Persian Gulf. Those three critical 
parts of the world are right around the border of Russia. They 
are not interested--they should not be. Sometimes they act 
contrary to their interests, I think. We need to try to talk 
them out of that. But Russia's interests are served by 
stability in those regions just as ours are served. We ought to 
be aiming at a relationship that is based on that kind of 
interest in mutual stability, not the interest in mutual 
annihilation.
    Senator Sessions. Well, I thank you for that wonderful 
response. I think you are right and I think your concern that 
we need to be able to defend ourselves from other threats 
around the world that are growing and becoming more 
sophisticated is legitimate. I thank you for having the courage 
to articulate a new vision for America's defenses. Thank you 
very much.
    Secretary Wolfowitz. Thank you, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Gentlemen, I share with the President and with your 
administration, being newly arrived in Washington, in our 
responsibilities in January of this year. So, from the outset, 
I have thought that the administration's request for the 
broadest possible latitude in developing its plans and the 
budget were appropriate and I think they have been supported by 
Congress with, among other things, what I am told was an 
unprecedented provision in the budget resolution that permitted 
the Secretary of Defense, subsequent to the adoption of that 
resolution, and the chairman of the two budget committees to 
put in what had not been contemplated until that time. So, I 
think Congress has been responsive and supportive.
    I would say that my own view is, before today's testimony, 
that there has been a reprehensible lack of detail and even at 
times candor about these enormously consequential decisions 
that you are making and we are being asked to concur with. I 
support entirely what Chairman Levin recounted in terms of the 
difficulty of obtaining accurate information. I noted that you, 
Mr. Secretary, respectfully had a different perspective, which 
is understandable, from the chairman in your response to 
Senator Lieberman.
    I would just go back again and say that if you reviewed the 
prepared testimony of the Secretary on June 21 and June 28 of 
this year and his response to questions posed here, to hear 
this now, 2 weeks later, it has either been a great 
intellectual leap forward or it has been a matter of, I think, 
difficulty for this committee to obtain the information that I 
would believe I and others are entitled to in order to carry 
forward our responsibilities.
    I would just say, again from my own personal experience, I 
have learned more information about your intentions by watching 
and reading the independent news reports than I have from any 
hearing in this room or even in closed session and executive 
session. I think that is antithetical in terms of what you are 
talking about here in terms of a collaboration and a 
partnership.
    I think it would be one thing to ask for that kind of 
latitude and ambiguity if what you were discussing or proposing 
is the continuation of essentially the previous and generally 
accepted military and diplomatic strategy rather than what is 
in this case a very dramatic and even radical departure from 
both prior military theory and strategy, as well as what is 
contemplated to be an abrupt rupture of a longstanding 
international arms control agreement.
    I would say today's testimony is the first real specificity 
and I certainly trust the veracity that has been forthcoming 
and I commend you for that. I think perhaps now on the basis of 
this--and I would certainly second what the chairman, Senator 
Lieberman, and others have said in urging you to make this the 
new hallmark and trademark of this relationship, that perhaps 
this committee and Congress can now begin to engage in the same 
process that the administration claims it is pursuing with its 
allies and its former adversaries--that is a discussion and a 
debate about the merits and the demerits of these momentous 
decisions.
    I recall the very distinguished former chairman of this 
committee, the Senator from Virginia, noted the word 
``partnership'' between Congress and the administration, and I 
think that is appropriate to ask for. In my business and 
professional experience, the partnership requires that I know 
who or what my partner really is and that I will be consulted 
and informed rather than engaged in an intellectual game of 
hide and seek where words are often more intended to evade and 
even to mislead than to inform and then finally being told what 
the administration has already decided it is going to do and 
asked to concur with that under the guise of partnership and 
patriotism.
    I would also like to say to you in partial response to some 
observations that have been made by other members of this 
committee that I do not think there is anybody on this 
committee or anybody in Congress or in this administration or I 
believe in former administrations who does not want to make 
this country safer and more secure, who does not want to reduce 
the chance of nuclear war and annihilation anywhere and 
everywhere in this world. But I think we can admit that we need 
to have an honest debate and even disagreement about how best 
to achieve those conditions. I hope we can proceed on that 
basis.
    I guess I would ask, Mr. Secretary, in your testimony you 
said that this system will not undermine arms control or spark 
an arms race. If anything, defenses will reduce the value of 
ballistic missiles and thus remove incentives for their 
development and proliferation. Are you willing to acknowledge 
that that constitutes at least a significant departure from 
previously established U.S. military theory and strategy?
    I recall that the former Chairman of the Joint Chiefs of 
Staff, General Shalikashvili said words to the effect that any 
new defensive system creates a new wave of offensive systems 
and technology. You referred to the former Soviet Union, 
Russia, and our hope for a new relationship there. But as you 
yourself have noted, sir, this world is in a constant state of 
flux. Is it reasonable to assume that setting up this kind of 
multi-layered defense system is not going to spawn worldwide an 
attempt to develop offensive systems of greater ability to 
evade and destroy?
    Secretary Wolfowitz. Before I answer that question, let me 
just address very briefly the concern you stated at the outset. 
I really do not believe in intellectual games of hide and seek. 
I do not believe I have ever practiced them in my dealings with 
Congress.
    Senator Dayton. When I referred to you, sir, I am speaking 
in general terms.
    Secretary Wolfowitz. Well, I understand what you are 
saying, and I am understanding the desire of this committee and 
the whole Congress to be as well informed as possible on these 
crucial issues. We will do our level best to give you that 
information.
    One of the reasons that some of these independent news 
reports tell you things that we have not told you is because 
sometimes they know things that we do not know and some of 
those things are not true. You get a contractor who has a gleam 
in his eye about some way that General Kadish can help keep him 
going, and before you know it, there is a story in some 
newspaper that says we are actively considering or maybe even 
have decided. We have to be a lot more careful before we come 
up with something that is actually a program. Even when we have 
a program, as we have tried to explain, programs change, 
especially development programs, in the course of testing.
    So, as far as I am aware, there has been no effort to 
conceal. There has been a genuine difficulty in absorbing a lot 
of change, a lot of facts in a really relatively short period 
of time. As you alluded to, Senator, this is not the only issue 
on which we have been having to scramble hard. So, I appreciate 
your indulgence, and I hope that you will take this testimony 
today as a significant measure of trying to respond to those 
concerns. Quite honestly, I would acknowledge that I think the 
mere scheduling of this hearing has flushed a lot more 
information up in our system to higher levels, and that has 
been useful.
    On the question you raised about defenses spawning a new 
arms race, at the risk of picking a fight with an even higher 
ranking general, or at least an intellectual argument, I think 
that thinking is a vestige of the Cold War. There is no reason 
for the Russians to start taking their scarce resources and 
investing them in new nuclear systems because we build a very 
limited capability to shoot down an accidental launch or a 
North Korean or Iranian ballistic missile. I do not honestly 
believe they will. I think they might come and ask us for some 
relief from some of the arms control restrictions that are 
going to end up costing them money because their security 
problems are above all economic security problems.
    But you have to take each of these things I think in very 
specific context. I used in my testimony the example of what 
American naval supremacy--in fact, you could go back further 
and say Anglo-American naval supremacy--has done to piracy. 
People, except in fairly remote parts of the world, do not 
invest in big pirate fleets because they cannot succeed. In 
fact, very few countries invest in big navies because they 
cannot challenge us. So, the effect of our improving missile 
defense capability I think will be to discourage countries from 
following the path of North Korea and Iran and maybe even 
discourage North Korea and Iran from investing so heavily in 
those capabilities.
    You have to take it case by case. You have to look 
carefully. But I really do believe that it is a nontrivial fact 
that this is the one capability where Iraq did better than 
expected in the Gulf War. It is the one Achilles' heal of the 
American military. The reason these countries are putting so 
much money into ballistic missile capabilities, conventional 
and non-conventional, has to be because they cannot beat us any 
other way, and they see this as a vulnerability. I think it is 
a vulnerability we should close.
    Senator Dayton. I thank you again for your specificity and 
candor and the diligence you are putting into this. You have an 
enormous responsibility and we want to share that with you.
    Thank you, Mr. Chairman. My time has expired.
    Secretary Wolfowitz. Thank you, Senator Dayton.
    Chairman Levin. Thank you very much, Senator Dayton.
    Senator Allard.
    Let me, before you start, indicate where we are. We have 
two votes that are now scheduled. The first vote began just a 
few minutes ago. After Senator Allard, we have Senator Nelson 
for the first round. There may be other Senators who come for 
their first round, and the question is how do we proceed to our 
second and third rounds?
    One possibility, because there is a huge amount of material 
here which we have not yet proceeded to discuss--I guess the 
possibility that I want to talk to Senator Warner about is that 
given the fact that we have a subcommittee meeting this 
afternoon and that we have much material to cover, that after 
everybody concludes their first round here--we will call on 
Senator Allard in a moment because he can get his questions in 
before the first vote is over. I am not sure that Senator 
Nelson will be able to do that--that we then adjourn this 
hearing until next Tuesday where we had an open slot and we 
pick up at that point. It is either that or we go after lunch, 
which would create a conflict I think with the subcommittee, 
which we would like to avoid.
    So, this is no way to consult on this publicly, but we do 
not have much choice.
    Senator Warner. I am just wondering. If I were to go vote 
right now and Senator Allard used the time for his questions, 
then you and I each have a follow-on round, I think we could 
almost continuously use the time between now and, say, 1:30 and 
conclude this hearing. I am prepared to do that.
    Chairman Levin. Is that agreeable with you, that you stay 
here until 1:30 if we are able to conclude by then? If I make 
an assessment that we can conclude--I would like to talk to 
other members of the committee, but assuming that we reach that 
assessment, are you able to stay that late?
    Secretary Wolfowitz. Yes, I will be a little late to 
something else, but this is more important.
    Chairman Levin. You can do that.
    Senator Dayton.
    Senator Dayton. We have received an enormous amount of 
information today, and given the importance of this subject, I 
think I would be better prepared, others perhaps as well, to 
come back next Tuesday and ask a follow-up round of questions.
    Chairman Levin. I think I am going to proceed that way for 
this reason, and I hate to do it, given Senator Warner's 
suggestion, which is somewhat different. But we did not have 
your testimony until this morning. We expect it 48 hours in 
advance under our rules. You were asked about that at your 
confirmation. This is a hugely important subject. Given the 
fact that we have this problem now and that we need time to 
digest that testimony, I think what we will do is after 
everyone's first round here now, we will adjourn this until 
next Tuesday, if that is an agreeable time with the ranking 
member. If that is not an agreeable time, we will pick this up 
at another date which is agreeable with the ranking member. 
There is just too much material here to squeeze in this way.
    Senator Warner. Mr. Chairman, we accept your perfect right 
to schedule for next Tuesday, but I would like that you and I 
at least have the opportunity--I have purposely withheld one or 
two observations until I could have the benefit of hearing all 
colleagues comment on this. So, I do have some concluding 
remarks about what I think has been an extraordinarily 
successful hearing.
    Chairman Levin. We will do that. After everybody's first 
round here today, you and I will then take a few minutes to 
wind up today. We will then adjourn until next Tuesday, at 
least tentatively, at the same time. We will now call upon 
Senator Allard.
    Senator Ben Nelson. Mr. Chairman, does that mean that I 
would go ahead and do mine next Tuesday or whenever it is set?
    Chairman Levin. No. If you can squeeze it in today, 
definitely. Anybody who has not had a first round today will 
have an opportunity today to do their first round.
    Senator Ben Nelson. Come back after the two votes?
    Chairman Levin. After the two votes, absolutely.
    Senator Ben Nelson. OK, thank you.
    Senator Allard. Thank you, Mr. Chairman.
    I would like to commend the panel on their great 
presentation today. I have watched the presentation by General 
Kadish in the past where he showed the technology, that we do 
have the capability to use a missile to hit another missile 
during flight. I think that is phenomenal technology and every 
time I see that, I am continually amazed. It demonstrates to me 
that we are clearly on the way technologically to being able to 
even apply that kind of technology to longer-range missiles, 
and I am confident that we are moving in the right direction 
technologically and showing that that can technologically be 
done.
    The other thing that particularly amazes me is that the 
argument is made that somehow or other we are perpetuating a 
nuclear arms race because we are just responding to what other 
nations are doing throughout the world. I was struck by your 
statement that we now have some 28 countries that have 
ballistic missiles. We have some 12 countries that are 
developing the ability to have a nuclear program.
    Yet, when we come forward and this administration comes 
forward with a proposal that says that we are going to move 
from strictly an offensive posture established during the Cold 
War and we are going to begin to look more closely at a truly 
defensive way of protecting ourselves and that even when the 
administration has said, look, we are willing to even step 
ahead of any treaty that we have signed and reduce our nuclear 
warhead capability below what is being called for in any other 
treaties that we have signed, that somehow or other we are 
accused of moving towards some kind of an arms race.
    From what I see out of this administration, there is a 
definite commitment to bring about world peace. I commend the 
President for reaching out to our allies. He has really just 
started that process. I think he has a long ways to go, but I 
think it will work and I think it is the right thing to do. I 
think that we need to move ahead with our own technology, and I 
am impressed with what the panel has presented to this 
committee here today.
    Senator Levin, chairman of the committee here, had raised 
concerns that the ballistic missile budget before us had not 
been fully vetted, in other words, had not been looked at as to 
whether it was complying with the treaties and the review 
process. But I understand that the BMDO budgets have never been 
fully vetted when they have been submitted to Congress. In 
fact, they have never been fully vetted even after they have 
passed Congress. I am told, for example, that the Compliance 
Review Group certified your last long-range missile defense 
test on June 30, 2000, and the test took place on June 8, 2000.
    So, the question I have is, does the process to determine 
the compliance of program activities during the budget cycle 
differ significantly from the process used in past years? In 
other words, you are using the same budget process as far as 
the vetting process as we have ever done in that past. We have 
not deviated from that, have we?
    General Kadish. No, Senator. We are using the same 
compliance review process, but that will be adjusted somewhat I 
think to ensure that we put more attention than we have in the 
past on that, given the Secretary's interest in this subject.
    Senator Allard. Which shows again a commitment I think by 
the administration to try and comply and work with our allies.
    I want to follow that up with another question. Is it not 
true that compliance certification usually comes in only a 
matter of days to months prior to the test event?
    General Kadish. That has been true in the past because 
there is so much analysis that goes into those compliance 
reviews of testing activities. So, many times we do not know 
exactly the final configuration of the test until days 
beforehand or weeks beforehand. We are trying to improve that, 
but that is just a fact of life. Therefore, the final 
compliance certification tends to follow those decisions in the 
program. So, we have had that situation I think in the past few 
tests that we have done.
    Senator Allard. Were you going to comment, Secretary 
Wolfowitz?
    Secretary Wolfowitz. Well, my first comment, Senator, is 
you have just informed me of something rather significant that 
I did not know about before that we certified a test after it 
had been conducted. So, obviously, there is more I have to 
understand about this arcane process than I knew before I came 
here. Obviously, we have to make it work in a way that gets 
information on these legal judgments to the President and to 
Congress in a more timely way than that particular example 
suggests, but at this moment I cannot tell you how we are going 
to do that exactly.
    Senator Allard. According to my information, it was a week 
before.
    My understanding is that I have a vote on the floor. I am 
the only one here in the committee, so I am going to put it in 
recess so I do not miss my vote. Then when I return, I will 
finish my question period. I will put the committee in recess. 
[Recess.]
    I would like to go ahead and call the Armed Services 
Committee back to order. When you are at the first of the 
alphabet and you get a chance to vote first, sometimes there is 
an advantage. So, I was the last to leave and first to arrive.
    I will continue to use my time to question the panelists, I 
would like to move forward with my questioning by addressing 
this to General Kadish.
    In your testimony, you spoke about a significant effort to 
improve your testing capabilities in the Pacific. As I recall, 
the realism of your testing program has been criticized 
considerably not only by individuals like Mr. Coyle, who is the 
former Director of Operational Testing and Evaluation, but also 
by groups like the Union of Concerned Scientists and even some 
Members of Congress.
    In fact, Mr. Coyle made the following recommendations in 
his NMD DRR report, ``Current test range limitations need to be 
removed to adequately test the NMD system. Target trajectories 
or radar surrogate locations need to be changed.'' It goes on 
to say that ``flight testing artificialities must be 
eliminated. Multiple engagements must be accomplished. This 
type of engagement should have flown in integrated flight tests 
before OT&E.''
    The Union of Concerned Scientists stated that testing 
should be conducted--and I quote them--``under realistic 
conditions.''
    The GAO had cited in their May 20, 2000 report--and I quote 
that report--``A number of test limitations affect the ability 
to test, analyze, and evaluate system performance.''
    Now, it seems to me that the test bed you are proposing 
should go a long way towards answering the criticism that I 
have just mentioned. In fact, it seems that it is a much better 
way to test the systems we are trying to develop. Could you 
comment on the advantages of the test bed that you are 
proposing?
    General Kadish. You are exactly right, Senator. In fact, 
all of those recommendations have been, in one way or another, 
incorporated into this test bed idea because the best way to 
test against a long-range missile threat in a midcourse type 
system, whether it is ground-based or, for that matter, sea-
based, is to do it the way you plan to operate.
    This test bed in the Pacific, with elements at Fort Greely 
and Kodiak, Alaska, and at Kwajalein and Vandenberg, and other 
elements, does exactly that. To the best of our ability, it 
replicates an operationally realistic test arrangement. That 
gives us many more geometries to test against. It gives us much 
more flexibility and realism to test the communications and 
command and control, as well as reliability and maintainability 
of the systems. It provides us with a lot more information than 
we had planned to get. But it is expensive.
    Senator Allard. Now, as I had mentioned in some of my 
remarks earlier, the President has proposed a new strategic 
framework that relies on a mix of offensive nuclear forces, 
missile defenses, and nonproliferation efforts. I wondered if 
the panel would elucidate again what you see as the fundamental 
differences between deterrence during the Cold War and the 21st 
century challenge.
    Secretary Wolfowitz. I guess the heart of it comes down to 
who it is you are trying to deter and what you are trying to 
deter them from doing.
    While there were many other concerns that we had during the 
Cold War, I think our whole nuclear posture, the whole 
structure of arms control during the Cold War was driven by the 
fact that there were 23 Soviet divisions, heavy divisions, in 
eastern Germany. There were some 100, more or less, divisions 
backing them up all the way to the Urals. They had operational 
plans to, in the event of war, move within a matter of a few 
weeks to the English Channel. We on the other side went from 
planning to deal with that with tactical nuclear weapons to 
planning to deal with it with increasing levels of long-range 
nuclear weapons, and the Soviets responded in kind. So, we had 
a hair trigger situation built on a major military 
confrontation in the heart of Europe.
    What we have today is something very different. The 
relationship with Russia is just completely transformed. It 
bears no similarity to the old Soviet Union, and I would submit 
not only are we not enemies, but as I said to one of your 
colleagues earlier, I believe we have a real interest in mutual 
stability, but it is not the mutual stability that comes from 
mutual annihilation. It is the mutual stability that comes from 
stability in Europe, stability in East Asia, and stability in 
the Persian Gulf.
    The people we are trying to deter are a number of countries 
whose hostility in the United States and hostility to its 
friends has been made abundantly clear. What they are really 
trying to do, as exemplified in some ways by the Gulf War, is 
find ways to keep us from applying our unquestioned 
conventional superiority to protect our friends and allies from 
threats from those countries.
    If you imagine what the Gulf War crisis would have been if 
Saddam Hussein had had the capability to threaten Tokyo and 
Paris and London with nuclear armed ballistic missiles or, even 
worse, if he could have threatened Washington with nuclear 
armed ballistic missiles, maybe we would have gone ahead in 
just the same way that we proceeded. I question that. I 
question even more whether our allies would have proceeded in 
that way.
    So, what we are trying to do is add to the obvious, 
enormous offensive nuclear capability we have relative to any 
of those small countries and to the impressive conventional 
capability that we have an ability to protect against limited 
attacks and to deny them, as much as we possibly can, that 
option of blackmailing us or blackmailing our friends.
    In this framework, I think the larger efforts of 
nonproliferation and counterproliferation loom much larger as 
well. The Soviet Union's capabilities were almost entirely 
indigenous, although we did make a big effort to make sure that 
they did not get help from our friends and allies. In the case 
of these countries, they all depend on a great deal of help 
from other places, and we cannot cut off all of it. We cannot 
stop North Korea from cooperating with Iraq. But we can try to 
prevent France and Japan from cooperating with Iraq or North 
Korea. So, that has to be another major piece of preventing 
these threats from emerging.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Allard.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    First of all, I want to thank both of you, Mr. Secretary 
and General Kadish, for being here today. I appreciate the 
opportunity to learn more about missile defense and some of the 
other issues that are extremely important to national defense.
    I have a lot of questions about missile defense, but 
personally I think it is important to say that we should never 
say no to missile defense outright. There are some who say 
absolutely yes and there are some who say absolutely no. I want 
it clear that I am saying maybe. Maybe not because I do not 
think there is a legitimate threat. I think there is a 
legitimate concern from the so-called rogue nations, that they 
might launch toward us. I think there is a legitimate concern 
about accidental launch. I think these are certainly things 
that we do need to take into account.
    But I want to be assured that sufficient research has been 
done and is being done so that we can determine if missile 
defense is even possible and how likely it is that it is going 
to work because it is a cost-benefit analysis in many respects. 
It is certainly a personal safety and humankind safety issue as 
well.
    But what we are being asked to do is to consider it in 
terms of the overall budget for defense and how it might relate 
to taking money away from other threats that are very likely. 
Biological warfare is clearly very possible or chemical warfare 
or even another weapon of mass destruction being delivered 
through another mechanism.
    So, I want to make sure that what we do is based on sound 
science and that our cost-benefit analysis is thorough.
    I have asked the Secretary if he could give me some idea of 
a percentage of success that we might be able to evaluate to 
determine whether or not missile defense is possible, whether 
it truly is the kind of security that we would want it to be if 
we are going to spend that kind of money.
    I have heard the argument that at least it is a scarecrow. 
I come from an agricultural state, and I know my Nebraska 
farmers would not put a scarecrow out that did not scare crows 
and they would not call it a scarecrow if it did not scare 
crows. They would want to know how much that scarecrow costs 
before they invested in it and whether on a cost-benefit basis 
it was going to be worthwhile.
    What I am leading up to is that I want to make sure that we 
have done everything that we can in this arena because I am 
worried that we are inching our way toward deployment before I 
have received answers to my questions. I think whether it is a 
runaway train that is heading down the track or whether it is 
boiling a lobster slowly or whatever it is, I think there is a 
decision made that we are going to have it and we are going to 
have it regardless. I hope that is not the case, but everything 
that I hear, everything that I see would almost lead me to that 
conclusion.
    I do not want to be a cynic. I hope that we are being asked 
to pursue this honestly and sincerely, as I am attempting to 
do, because I have not concluded that we ought not to deploy 
it. But I have not concluded either that there is such a thing 
as a true missile defense. I know we can call it that, but will 
it be a defense? Will it really work the way we want it to work 
and how will it fit into our other defense needs and our 
defense requirements? Those are my questions. They are very 
simple.
    I know that we have tried to arrange schedules to get 
together where I could talk to you privately and I hope we are 
able to do that because I do not simply want to talk about it 
in the public forum. I want to talk about it in every way and 
explore every avenue that I can.
    Secretary Wolfowitz. Well, first of all, I would be eager 
to get together with you privately and talk at whatever length 
is useful.
    Let me just, therefore, sort of summarize by saying we have 
no intention of deploying things that do not work.
    Senator Ben Nelson. Maybe you can give me what the 
definition of ``work'' is. What does it have to do to work?
    Secretary Wolfowitz. Let me give you an example which I 
think is germane. It is not with respect to defense against 
longer-range missiles, but we are getting ready to deploy the 
PAC-3 as a defense against shorter-range missiles. Up to what 
range, General?
    General Kadish. In tens of kilometers, 20, 30 kilometers.
    Senator Ben Nelson. More for the theater defense.
    General Kadish. Oh, the range of the incoming. They are 
short-range missiles up to 600 kilometers.
    Senator Ben Nelson. So, the theater defense----
    Secretary Wolfowitz. We are getting ready to deploy 
finally.
    Senator Ben Nelson. I really do not have a problem with 
that at all.
    Secretary Wolfowitz. It does work, but it did not work 4 
years ago and 5 years ago, and we are actually investing 
significant additional amounts in that program because it does 
work.
    If you look at the defenses against longer-range systems, 
what this program represents is a certain stepping back to 
explore what does and does not work and to research much more 
aggressively things that we set aside maybe for other reasons, 
but I think largely because they raised ABM Treaty issues. We 
will try and learn from research and development which of those 
potentially promising technologies work and which ones do not. 
When we have decided which ones work, we will come up with 
sustainable notions of what they can do and what they cannot 
do.
    For example, the airborne laser, which we have referred to 
many times in this hearing--if it works as we hope it may work, 
that still then leaves the issue about how much to invest in it 
because its geographical range is intrinsically limited.
    So, we definitely are going to take this step by step and 
every one of those steps will be up here for thorough scrutiny 
and appropriation and authorization. So, the intention is 
certainly not to throw money at things that do not provide us 
real capability.
    Senator Ben Nelson. Well, I would not suggest that we would 
or that you would advocate that either.
    My time has expired. Maybe you can clarify for me what the 
installation--maybe during the next round of questions, you can 
help me understand a definition of deployment. As we work on 
the definition of what works and what percentage of success it 
has to have for us to be able to say it works, maybe you can 
help me understand the steps of deployment because I must admit 
that I would see the installation in Alaska as steps 1, 2, 3, 
some incremental steps, of deployment. But maybe I do not 
understand the word.
    Secretary Wolfowitz. I do not know if we have time.
    Senator Ben Nelson. We can do it the next round.
    Chairman Levin. We are going to pick this up Tuesday, and 
that is the type of question which we are going to be focusing 
on, those kinds of technical questions at the Tuesday hearing.
    Senator Warner. Mr. Chairman, that is such a key question. 
I think we really ought to take just a minute or 2. I will 
yield a minute or 2 of my time.
    Chairman Levin. It will take many more minutes to answer 
it, but fire away.
    Senator Warner. I think it is important. The Senator raises 
a key question and a lot of people want to know because I look 
at the Missile Defense Act of 1999, and it is clear that we are 
not going to do anything until it is technologically feasible. 
There are 97 votes behind that.
    Senator Ben Nelson. Excuse me. That is what I am referring 
to because I am in favor of research and development to get the 
technology to the point where we can say it works. But I am 
worried that we have not defined what ``works'' is yet, and I 
certainly do not have any understanding of what deployment is 
when it starts. I think I will know when it is over, but I will 
not know when it started. That is what worries me.
    Secretary Wolfowitz. Let me try a quick answer. If it needs 
correction, I will ask General Kadish to correct. If it just 
needs elaboration, then we will keep the elaboration until next 
week.
    The Alaskan system is a complicated issue because what we 
are trying to develop there is a uniquely realistic test bed 
for exploring the land-based midcourse intercept system. It 
would be hard to improve on it I think as a way of finding out 
as well as possible how that kind of system would work. In 
fact, it will do it so well that at some point we might say, 
gosh, this works as well as we expected or maybe even better 
than we expected. If at that same time country orange--let us 
not be too specific--came out with a primitive ballistic 
missile threat to the western United States, we would say, 
well, we have a primitive capability to shoot down that 
primitive missile.
    Senator Ben Nelson. So, is it part of development? Is it 
part of the technological development to comply with the vote, 
the 97 vote?
    Secretary Wolfowitz. But that is not the capability we are 
aiming at. That would be sort of an emergency departure. What 
we would really anticipate is if we say, gosh, it works and we 
are not in an emergency state, we would take that information 
that it works, develop a real architecture that makes maximum 
use of that capability, and then come here with a full-fledged, 
long-term program for deployment of that full-up capability.
    Senator Ben Nelson. It might be in the range of development 
at this point in time or research or something, not deployment.
    Secretary Wolfowitz. That is the way I would consider it, 
Senator. But it has a little bit of dual potential.
    The Joint Surveillance and Target Attack Radar System 
(JSTARS), which is one of the most spectacular technological 
developments of the last decade--it has this ability to track 
vehicles moving on the ground with amazing precision--was still 
in the development phase when the Gulf War broke out. Someone 
said, gee, it is just developmental, but we can use anything 
that might possibly work. So, we sent it to the Gulf. It turned 
out it worked amazingly well. We tracked the one major Iraqi 
attack on Khafgi. These aircraft in the air saw three large 
armor formations converging on one place and we were able to 
destroy them from the air. So, it certainly proved its worth.
    People will also tell you that it set back the long-term 
development of the JSTARS program by some significant amount of 
time because it is disruptive to do that. So, you do it in an 
emergency. You do not do it according to a plan.
    Senator Ben Nelson. Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    We will now turn to Senator Warner for his remaining 
questions and wrap-up. Then I will do the same.
    Senator Warner. Thank you very much, Mr. Chairman.
    Gentlemen, I think we have had an excellent hearing. The 
intensity of the debate I think is constructive. We have made a 
solid foundation for the Senate, indeed, I think for Congress 
eventually, to make a decision. It is my personal judgment that 
we move forward, that we had a positive sequence of exchanges 
today on the whole and that you move forward toward the goal of 
defending this country. We have a long way to go, but I commend 
both of you.
    I am going to just ask some very basic questions here 
because so many people are going to look at this hearing in 
many parts of the United States, and some of it is a little 
complicated. I recognize that, and I am just going to ask some 
basic questions.
    First, General Kadish, I am confident that our President, 
if not hindered by Congress, will be able to achieve a new 
framework with Russia. That is just my own personal conviction.
    Now, on that assumption that we resolve that this new 
framework will enable us to go ahead with these various options 
which the treaty has precluded our country from doing for 30 
years in its various formulations of trying to meet this 
threat, if we are able to go ahead, would we not then be able 
to get a system that is more effective and achieve it in less 
time?
    General Kadish. I believe that to be the case, Senator.
    Senator Warner. So do I, and I have often said that, for 
decades, around here that that treaty has acted--well, it was 
designed for the purpose of not letting the United States--it 
was the intent of the treaty not to let us build any defenses. 
So, once we resolve this new framework, then we can go ahead 
and it will be more effective.
    Now, much has been said about the suitcase bomb, and this 
is a chart that the Joint Chiefs have provided the committee.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Quite accurately, my colleague points out that the suitcase 
bomb sort of falls in the middle spectrum of threats. In other 
words, it is more likely that someone would bring a suitcase 
bomb than the intercontinental exchange of an accidental or a 
rogue firing of a missile.
    But at the same time, the other axis of the chart clearly 
shows that the damage done by a suitcase bomb is but a small 
fraction of the damage that potentially could be done by an 
intercontinental ballistic missile. Am I not correct in that, 
General Kadish?
    General Kadish. Yes, sir.
    Senator Warner. Could you give us some possible multiple of 
the damage? Would it be 10 or 100 times more damaging? Say that 
the North Koreans did send that missile on to a major city in 
California or Hawaii or the Chinese who had some bellicose 
statements about firing a missile against California at one 
time. Suppose that did happen and it had a nuclear warhead. 
What is the multiple of damage that that missile would create 
as opposed to the suitcase bomb? These are just rough 
estimates. I realize it is speculation.
    General Kadish. To speculate a little bit, probably 15 
times.
    Senator Warner. 15 times as great.
    General Kadish. I would say 14 to 15 times.
    Senator Warner. Now, also in the case of the suitcase bomb, 
it is in the category quite properly of a terrorist weapon. 
Secretary Wolfowitz, as I have sat here these many years, we, 
the United States, have put in place as best we can 
technologically and by other means by the expenditure of 
literally billions of dollars every resource we can to prevent 
that suitcase bomb. Take, for example, the intelligence. That 
is the first and it has proven to be the most successful way to 
interdict that suitcase bomb.
    But in sharp contrast to the accidental firing of a missile 
where we have not yet been able to devise a defense, we have in 
place significant defenses and deterrence for the suitcase 
bomb. Am I not correct? We have expended enormous sums of 
dollars.
    Secretary Wolfowitz. That is correct, and we should do so. 
I think we should continue to aggressively pursue every 
reasonable avenue in that direction. As you are implying, 
Senator, in the case of an accidental missile launch, we have 
not only not pursued it aggressively, we have allowed our hands 
to be tied behind our backs.
    Senator Warner. We have covered that ground very clearly.
    Now, you pointed out I think quite clearly that the 
accidental firing could be an accident here by the United 
States of America in our arsenal. I regret to have to point out 
that we have seen two very significant military accidents here 
in a little over 12 months: one, the Russian submarine which I 
think the public should understand was the very top of their 
technology, a modern submarine. We have every reason to know 
that their crews are the finest trained among their Armed 
Forces. Yet, they lost that submarine with all hands. The full 
accident report is yet to be known. But it happened.
    In stark contrast, one of our own submarines with one of 
the finest trained crews that we have was brought to the 
surface negligently, in my judgment, and created a loss of 
life.
    There is a clear example of how the military itself, both 
sides, Russia and the United States, is subject to accidents 
happening. I do not know what clearer proof we need that 
accidents can happen.
    If we were to accidentally fire a missile, your comment was 
we would want to have Russia be able to interdict that missile 
with a system which presumably we might be able to help them 
with in building rather than have it cause severe damage. Am I 
not correct in that?
    Secretary Wolfowitz. Correct.
    Senator Warner. We cannot, under the current framework of 
the ABM Treaty and the current provisions, share that 
technology should our President and successive presidents so 
desire. Am I not correct?
    Secretary Wolfowitz. I believe that is correct, Senator.
    Senator Warner. I know it to be correct. So, I think there 
is another example of the reason why we should move forward and 
change this framework.
    Lastly, the reductions in the levels of our own inventory 
of nuclear weapons. That has been a subject that has been 
discussed by our President. It is his intention at an 
appropriate time. To the extent that you can inform the Senate 
in public hearing, is that to be an integral part of the 
negotiations with Russia in the ABM framework of negotiations? 
Is it independent? What is the likely timing of a decision? 
Again, is it linked to the ABM or could our President 
independently make that decision?
    Secretary Wolfowitz. I think, Senator, we are still in a 
discovery mode. We have already made some decisions, as I 
pointed out, three quite significant ones in this year's budget 
that were done without relation to any requirement to negotiate 
with the Russians or see how our forces compare with the 
Russians.
    But in his meetings in Genoa later this month with 
President Putin, I would hope one of the points President Bush 
makes is that we are already doing this kind of thing. We are 
not trying to threaten Russia and we would encourage Russia to 
take as many economies as she can in her forces. It just does 
not make sense to have unnecessary nuclear capabilities.
    But we are trying to proceed with more precision, as 
rapidly as possible, to come up with a structure for what is a 
truly required, long-term nuclear posture in an era when Russia 
is no longer an enemy. I think that is going to come in stages. 
I think it will be part of this framework of discussions with 
the Russians. Some will be formal negotiations, some will be 
other kinds of things.
    In fact, I think a major goal of what we would like to 
achieve with the Russians is the kind of dialogue and 
transparency that we take for granted with allies. We do not 
have treaties with Britain and France to regulate the nuclear 
balance between our two countries. Russia is not yet at the 
level of being a member of NATO, but we have very important 
common interests. We think that with openness and with showing 
them what we have in mind and where we are going, that we can 
encourage them in a positive direction with us.
    Senator Warner. Lastly, you are one of the most seasoned 
and experienced members of this administration with regard to 
Russia. You were recently there. Do you share my view of 
optimism that our President can work out a framework agreement?
    Secretary Wolfowitz. I do very strongly because I think so 
strongly that it is in the interests of both Russia and the 
United States. I really think we are in a new era. I understand 
for everyone, myself included, there are a lot of thoughts that 
come from the Cold War that you have to extract from your 
brain, but the faster we can do that, the further we can go 
with that. That is I think really building mutual security for 
the future.
    Senator Warner. That is a very sound note on which to 
conclude my participation. I thank both of you.
    Secretary Wolfowitz. Thank you, Senator Warner.
    Chairman Levin. Thank you, Senator Warner.
    I think everybody wants to make this world safer. We all 
start with that. There is no argument that North Korea is 
seeking that capability. The only real question here is whether 
or not our response to it, if it is unilateral and if it 
results in a Russian and Chinese response to maintain a lot of 
additional nuclear weapons on Russian soil, nuclear material, 
which then makes the proliferation of it, the theft of it more 
likely by terrorists, surely that is going to make us less 
safe, not more safe. If China speeds up their activities, works 
on countermeasures, decoys, sells them to others, we have then 
helped to unleash an arms race, which will make us less secure, 
not more secure.
    So, the question is not whether there is a threat that is 
emerging over here. The question is whether the response to 
that threat will make us more secure or less secure. That is a 
very significant issue. The issue is not whether there is a 
threat which is emerging, which North Korea is working on, it 
is what is the best way to respond to that threat in a way 
which makes us more secure.
    That is our moral obligation. That is the moral obligation 
of the President and the moral obligation of Congress, to make 
us more secure and not to respond to the least likely threat, 
which is the attack with a ballistic missile from North Korea, 
and increase the likelihood of terrorist threats from a 
different direction as a result.
    That, it seems to me, is what requires a great deal of 
analysis. It is not good enough to simply say there is a threat 
without asking yourselves: is there a way to respond to that 
threat which makes us more secure rather than less secure? 
Would a unilateral response, if we cannot get a modification of 
the treaty with Russia, precipitate some actions by Russia or 
China, including not just the increased likelihood of 
proliferation, but also the countermeasures and the decoys 
which can be then created by them in order to overcome such a 
threat and then be transferred to others as a result?
    I could not agree with you more about getting out of Cold 
War thinking, by the way. I think everybody agrees with that, 
but I hope that you will firmly keep in your minds what was 
known back then, which is still true. It was known in the 
1970s, is known now, and will always be the case that when one 
country seeks unilaterally to achieve its own safety, it can 
increase the insecurity in another country. That is not our 
intent. I could not agree with you more. That is not your 
intent.
    But you have to consider the Russian and Chinese view. Do 
not give them a veto. No one is going to give them a veto, but 
at least consider why it is that they do not agree with you. 
Why is it that they feel less secure if we deploy a limited 
defense? You have to consider it and I hope you will consider 
it.
    The problem is you have made a decision. You are going to 
deploy without consideration of why it is that those other guys 
out there will feel less secure by that unilateral deployment. 
That is the challenge.
    I wish you had gone about this in a very different way, 
frankly, I wish you had started with the argument, hey, let us 
move together to a different structure based on defenses. The 
world will be better off. Then try to persuade people, rather 
than the statement, the declaration, we are going to do it, 
like it or not. We hope you like it. Because it is more likely 
you are going to precipitate a negative response by taking that 
approach than you would by the persuasive approach, which is, 
hey, does it not make more sense for us to have defenses rather 
than to continue the same form of deterrence?
    Deterrence has worked. I think you would agree with that. 
Deterrence is important. You are not aiming to end deterrence. 
It has worked with North Korea, by the way. Has it not?
    Secretary Wolfowitz. A combination of different things, 
yes.
    Chairman Levin. Yes, but deterrence has worked with North 
Korea.
    All those missiles that North Korea now has have not been 
used. There are probably a number of reasons, but I will tell 
you one good reason. It would amount to their suicide if they 
used them. We have been told by our intelligence people that 
the number one goal of the North Korean regime is survival. 
That is the number one goal we have been told. That being the 
case, for them to launch a missile at us, which may or may not 
work, which would lead to their immediate destruction, runs 
counter to their number one goal, which is the survival of 
their regime.
    In addition, we have been told on this threat spectrum, 
that there are other means of delivery of a weapon of mass 
destruction, not just a truck bomb, but a nuclear weapon, 
biological, chemical weapon, not just with a suitcase, but with 
a truck and with a ship. I take it, General, that a nuclear 
weapon that is delivered by truck of the same size as a nuclear 
weapon delivered by a ballistic missile would have the same 
damage. Is that a fair statement? The same size nuclear weapon.
    General Kadish. The same size nuclear weapon. It would be a 
little harder to deliver by truck I think, though.
    Chairman Levin. It may be a little harder, but if it were 
deliverable by truck, would that be about the same damage?
    General Kadish. Yes, sir.
    Chairman Levin. How about two trucks and three trucks?
    General Kadish. Scales.
    Chairman Levin. So, in addition to being concerned about 
the response and why other countries respond to this unilateral 
approach of ours, there is this other factor, which is that in 
pursuing that road, we are ignoring the fact that it is much 
easier, cheaper, more accurate for them to deliver a weapon of 
mass destruction with another means. No return address, which 
does not lead necessarily to their own destruction if we do not 
know where it came from.
    Those are critical policy questions. Now, we have many 
technical questions as well, and we are going to get into those 
next time. But I just want to ask a few questions and then wrap 
it up.
    General Kadish, 3 weeks ago you told us there was nothing 
in your recommendations which, if implemented, would violate 
the ABM Treaty in 2002. Is that still true in your judgment?
    General Kadish. No, it is not, Senator.
    Chairman Levin. What has changed since you testified 
before?
    General Kadish. At the time we talked about this, I believe 
I said at the time that the program was not fully approved and 
that the Compliance Review Process was ongoing and could change 
things a lot.
    Chairman Levin. What has changed?
    General Kadish. What has changed is that the definition of 
the program in getting into the compliance review, which is a 
lengthy process to some degree, pointed out events that were 
potentially more near-term that the Secretary described. So, 
this process is ongoing and it will yield the types of 
decisions that you are talking about.
    Chairman Levin. Now, we need to know precisely. If 
everything goes well in this program in 2002, what are those 
events which would be in conflict with the ABM Treaty? If 
everything that goes well that is in your budget request, what 
specific activities are in conflict with the ABM Treaty?
    General Kadish. That is a living list, and I think 
Secretary Wolfowitz has outlined a couple of them in his 
testimony already.
    Chairman Levin. He did not say they would in 2002.
    General Kadish. That is right.
    Chairman Levin. I am asking you if everything goes well in 
2002, give me the specific activities in your budget which 
would be in conflict with the ABM Treaty. Just give me one, 
two, and three.
    General Kadish. That is not my responsibility to determine 
whether they are in compliance.
    Chairman Levin. OK. Secretary Wolfowitz, what activities in 
your budget request will be in conflict with the ABM Treaty in 
2002 if all those activities in the budget go well?
    Secretary Wolfowitz. Again, that is also not my 
responsibility. It is a legal determination that goes through 
the treaty compliance----
    Chairman Levin. You have not asked your lawyers yet.
    Secretary Wolfowitz. The lawyers are working on these 
issues. What I have outlined in my testimony, Senator, are, as 
best we can identify them, the most significant issues that are 
coming. I am sorry I do not have the same version of the 
testimony that you have, but as I said, as the program 
develops, we have some issues coming.
    The first issue is the test bed currently scheduled to 
begin construction in April 2002, designed to permit the 
testing of a ground-based midcourse capability under realistic 
operational conditions.
    Chairman Levin. Are you saying that is in conflict with the 
ABM Treaty?
    Secretary Wolfowitz. No. I am saying that raises an issue 
about ABM Treaty interpretation.
    Chairman Levin. You do not care what the answer to the 
issue is?
    Secretary Wolfowitz. Of course I care but I do not know the 
answer.
    Chairman Levin. When will we find out? When will you find 
out?
    Secretary Wolfowitz. I do not know.
    Chairman Levin. If you care, why is it in your budget 
before you know?
    Secretary Wolfowitz. Because we are trying to do two things 
at once, and we have to. I mean, we need to proceed.
    I have listed the other two major examples in my testimony.
    Chairman Levin. But you are not able to say now, without 
this board giving us a decision, whether or not those 
activities are inconsistent with the ABM Treaty. Is that 
correct? Is that your testimony today?
    Secretary Wolfowitz. That is correct.
    Chairman Levin. I just want to end with this one comment. 
Clarity is important and I think at least there is a little 
greater clarity today than there has been. But I have to tell 
you, we are a long way from there. Just on policy issues, we 
are a long way from there because just yesterday--just think 
about this. We have an issue here which is so significant to 
the world. Everybody is involved in this issue. Just about 
every country cares about this issue. We get visits from the 
British. We get visits from other allies in Europe. They come 
and visit us. This is the issue we talk about.
    Yesterday the administration hands out a document which 
says that ``while we do not know precisely when our programs 
will come into conflict with the ABM Treaty in the future, the 
timing is likely to be measured in months not years.'' That is 
just yesterday.
    Today you tell us that one or more aspects will inevitably 
bump up against the treaty. Such an event is likely to occur--
that is, the bump up--in months rather than years.
    Now, this is not splitting hairs because you also testified 
today that there is a difference between bumping up and in 
conflict with. That is your testimony. So, yesterday the 
administration hands out a document which uses the word in 
``conflict'' with ABM. Today the administration testifies that 
it will bump up in months, or likely to bump up in months 
instead of years.
    We have a long way to go before there is just clarity, and 
clarity, it seems to me, is the basis for a solution--hopefully 
a bipartisan solution--because that has to be the goal of 
everybody, but then ultimately a solution not just between 
Congress and the administration, but ultimately a solution that 
hopefully will allow us to move together with our allies, who 
are very skeptical of this, and hopefully with the Russians 
towards a new kind of structure because that is everybody's 
goal I think, to try to move together towards a new kind of 
structure where defenses have a role.
    That is the reason that we are doing the testing. We want 
to see if we can come up with something that is operationally 
effective, cost effective, and which will make us more secure. 
That is everybody's goal.
    I think this has been a helpful hearing. I agree with 
Senator Warner. I also feel, though, that it is important that 
we spend this time, and I hope you feel it is useful as well 
for us, for Congress, being asked to fund these programs, as 
well as for the country and for the world, that we really 
explore what roads we are walking down at what speed with what 
advantages, what disadvantages, with what risks, and what 
gains.
    We hope that your recovery is complete so that when we see 
you next Tuesday, you will be out of that temporary interim 
cast.
    Senator Warner. I would like to say a word here. I thank 
you, my colleague.
    First, I ask unanimous consent, Mr. Chairman, that our 
committee proceed to try and declassify that testimony that 
General Kadish provided this committee which has been the 
subject of discussion as to what you did say. It seems to me 
there are sufficient caveats in here that you properly placed 
about taking certain steps with lawyers and others before 
proceeding.
    Chairman Levin. I would very much like that, as a matter of 
fact. What I have said here, however, I want to assure my good 
colleague was approved. I think it is important, though, 
however, that we try to declassify General Kadish's entire 
testimony.
    Senator Warner. Lastly, Mr. Chairman, we have had a lot of 
discussion today about unilateralism and the term has been used 
by a number of Senators. I think I would like to just clarify 
my own view on a very important point.
    First, the treaty explicitly provides for that. Am I not 
correct?
    Secretary Wolfowitz. Absolutely, Senator.
    Senator Warner. So, it is not a matter of breaking the law. 
The treaty gives a president that option.
    Chairman Levin. Do you mean to withdraw? I am sorry.
    Senator Warner. Yes. I mean it is explicit. It is not 
something that we would just do. It is in the treaty. Those who 
wrote the treaty--and I happen to have been around at the time 
it was written--envisioned a problem could arise some day and 
it would be in the national interest, and the commander in 
chief, our President, would have to make that decision. So, it 
is in the treaty.
    Second--and this is my own view. Having come to know our 
President and having formed a great respect for him, I am 
confident that if after a clear and credible program of, first, 
consultation with allies and then negotiations with Russia, if 
he were of the mind that that was the only alternative to go to 
that provision of the treaty, that he would come to Congress, 
particularly when I predict that Congress will be a full 
partner in each step of the way, and consult with Congress 
before he would take that action under the treaty. He would not 
simply be raising the telephone and calling the leadership and 
say, I am going to do this tomorrow morning. He would go 
through a period of consultation.
    Would you share that view with me?
    Secretary Wolfowitz. I believe so, yes, Senator.
    Senator Warner. I think that should be known by the people 
following this.
    Chairman Levin. Well, it also should be known that we will 
give you a chance. It is great to hear that he is going to 
consult, but the President said he is going to withdraw if he 
cannot get modification. I mean, he has already said that. We 
always welcome consultation, but the consultation needs to come 
before decisions, not after.
    Secretary Wolfowitz. Well, this is part of the 
consultation.
    Senator Warner. I think he had to say that in fairness to 
the Russians to know the full----
    Chairman Levin. He said that to the American people, not 
just to the Russians.
    Senator Warner. Well, the Russians know it. It is in the 
treaty, and he simply says, I have to protect this Nation and I 
want to do it through a new framework.
    Chairman Levin. What is in the treaty is the power to 
withdraw. The President has told the American people he is 
going to deploy, and if he does not get an agreement to modify, 
he is withdrawing.
    So, I welcome consultation but again, the consultation, to 
be real, needs to be real. It has to come before decisions, not 
after decisions.
    Secretary Wolfowitz. Mr. Chairman, can I make one quick 
response?
    Chairman Levin. Yes, absolutely.
    Secretary Wolfowitz. There is a great deal in what you said 
that I guess we will discuss at length on Tuesday. I agree with 
you. All these choices are a matter of balancing risks, and you 
and I may assess the risks differently. Maybe if we discuss 
them more, we will come to convergence on that.
    But I think we would absolutely agree that the way to 
minimize most of the risks that you are concerned about is to 
come to some kind of cooperative approach with the Russians. I 
do not think there is any argument on that question.
    On that question, I think I would implore you and everybody 
in Congress to think about the fact that I think the record 
shows consistently that our success in getting that kind of 
cooperative outcome depends on having some momentum. The ABM 
Treaty itself would never have come into being if the United 
States had not shown some determination through some extremely 
difficult votes up here, one of which in fact succeeded on a 
tie vote, as I recall, to move ahead with the so-called 
Safeguard system. That is what brought the old Soviets to the 
negotiating table.
    We went through a very difficult period a few years ago 
with a completely different country, that is, Russia, over the 
subject of NATO enlargement. It was difficult, but I think if 
you look at it from 20/20 hindsight now a couple of years 
later, I think even the Russians are beginning to realize that 
bringing Poland into NATO is no threat to Russia and has 
actually improved relations between Poland and Russia.
    Chairman Levin. We never had a treaty with Russia that we 
would not enlarge NATO.
    Secretary Wolfowitz. Each case is different, but what I am 
saying is if the Clinton administration brought the Russians 
around I think in that process to a framework, not an 
agreement, but a framework of understanding that actually did 
include a formal agreement between Russia and NATO, that was 
part of the enlargement of NATO process, I think what you need 
to achieve a cooperative approach is both a willingness to 
cooperate and some determination to move forward. I think that 
is the combination that the President is looking for.
    Chairman Levin. A lot of determination to move forward, 
plenty of momentum in the billions that we put into test 
programs, a lot of momentum that everyone has supported. We 
have supported the research and development programs. So, there 
is a lot of momentum in that.
    But I think we will pick this up next Tuesday at 9:30. Let 
me just make this clear to everybody. There have been a number 
of people who have not had a chance to have their first round. 
We will start with questions instead of opening statements, 
except if the ranking member and I want to make a brief opening 
statement at the beginning. But other than that, we will not 
have opening statements from you. We will go directly to 
questions. I want to hold open the possibility that if there is 
time, that we consider additional witnesses on the technical 
side, which we want to get to at some point anyway.
    Senator Warner. Mr. Chairman, they may wish, upon 
examination of today's lengthy record, to make some brief 
opening statement.
    Chairman Levin. We would have to keep it very limited, 
otherwise we are going to run into the same kind of problem. We 
would welcome corrections, clarifications.
    Senator Warner. That gives them the chance.
    Chairman Levin. They may be very long in that case, though. 
[Laughter.]
    We will stand adjourned.
    [Whereupon, at 1:40 p.m., the committee was recessed, to 
reconvene at 9:30 a.m., Tuesday, July 17, 2001.]

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                         TUESDAY, JULY 17, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The committee met, pursuant to notice, at 9:40 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Cleland, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Carnahan, Dayton, Warner, McCain, Inhofe, Allard, 
Sessions, Collins, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; and Peter K. Levine, general counsel.
    Professional staff members present: Kenneth M. Crosswait 
and Richard W. Fieldhouse.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director, Judith A. Ansley, deputy staff 
director for the minority, and Scott W. Stucky, minority 
counsel.
    Professional staff members present: Brian R. Green and Cord 
A. Sterling.
    Staff assistants present: Kristi M. Freddo, Thomas C. 
Moore, and Jennifer L. Naccari.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; Eric Pierce, 
assistant to Senator Ben Nelson; Neal Orringer, assistant to 
Senator Carnahan; Brady King, assistant to Senator Dayton; 
Christopher J. Paul and Dan Twining, assistants to Senator 
McCain; J. Mark Powers, assistant to Senator Inhofe; George M. 
Bernier III, assistant to Senator Santorum; Robert Alan 
McCurry, assistant to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; Arch Galloway II, assistant to 
Senator Sessions; Kristina Fauser, assistant to Senator 
Collins; and Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order. The 
committee meets this morning to continue our hearing from last 
Thursday with Deputy Secretary Paul Wolfowitz and General Ron 
Kadish on the Defense Department's missile defense programs in 
the fiscal year 2002 amended budget request.
    General Kadish, before we begin, I want to congratulate the 
BMDO team that was involved in last Saturday night's successful 
intercept test. That test, as you pointed out, is just one of 
many tests that are needed to determine whether an operation of 
a successful system is feasible, but it is an important test, 
and we congratulate you for it.
    Protecting and defending the American people must be our 
goal in all that we do. In my judgment, we should be mighty 
cautious before ripping up an arms control treaty in order to 
meet the highly unlikely threat of North Korea using a missile 
against us.
    Unlikely, because they could use a truck more cheaply and 
with greater accuracy, and without a return address. Unlikely, 
because if they launched a missile against us, it would lead to 
their immediate destruction. We are told that regime survival 
is their number one goal, so in order to meet a highly unlikely 
threat, if you rip up an arms control treaty and you start a 
new kind of arms competition or cold war with Russia and China, 
America could be less secure.
    Protecting and defending America from that state of affairs 
must also be one of our goals. No one I know of is willing to 
give Russia or anyone else a veto over our actions, but Russian 
reaction to a unilateral breach of an arms control agreement is 
relevant to our security and could leave us a lot less secure. 
That is an issue that Congress hopefully will grapple with. 
Long before the administration submitted this budget request 
that is before us, it notified the world that it would rip up 
the ABM Treaty if Russia refused to modify it. Congress will 
hopefully find a more moderate course than that. Senator 
Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, you 
and I have been here many years together, and I rarely 
challenge you on an opening statement, but I really believe 
that the terminology, ``ripping up'', is not supported by the 
record of our President. I have talked with him one-on-one 
several times, and I feel he is pursuing first a course of 
orderly consultation with our allies.
    He has had some initial discussions--perhaps they could be 
classified as preliminary negotiations--with the President of 
Russia on the subject of the treaty. He is due to meet with him 
again. I feel very strongly that he is pursuing an orderly 
process consistent with the ABM Treaty at this point in time, 
and that we in Congress should give our President a chance in 
his role as commander in chief and chief architect of not only 
foreign policy but of those policies that relate to the Armed 
Services and our weapons programs, and hopefully we can work 
with him and structure a partnership.
    To the extent that Congress backs a President, it is more 
likely that President can succeed throughout history. I 
remember very well, when I was Secretary of the Navy, the early 
negotiations on the ABM Treaty, the presentation, the action by 
the Senate and Congress, and they were narrow margins, but 
nevertheless, President Nixon did succeed in negotiating that 
document and signing it. Treaties are the law of the land, and 
I find our President is doing the best he can.
    I join my distinguished colleague, General Kadish, in 
saluting you and many others in the program for the test over 
the weekend. I note very carefully the observations by the 
Secretary of Defense, yourself and others, putting into 
proportional balance the significance of this test, but making 
clear that it is but a step in a long process. It is not the 
decisive one, but certainly we are pleased that it did add a 
constructive step forward in this program, and that it is 
subject to the evaluation of the vast quantity of test analysis 
that has to be done with this particular test. We will have to 
await all of that analysis, but it looks like it is a step 
forward.
    I am hopeful that we can work out the partnership with the 
President. I think we are making good progress. I would like to 
bring a matter to the attention of my colleagues here today. 
During last Thursday's hearing there was a concern expressed 
that the President was asking Congress to vote for a ballistic 
missile defense budget request even though all the programs in 
that budget request had not gone through, ``the compliance 
review process,'' which to an extent determines whether the 
activities are compliant or noncompliant with the ABM.
    In the many years I have been here there has never been 
total clarity among the lawyers on this subject. The issue of 
judging compliance is often subject to a conscientious 
difference of opinion of lawyers, but we do our best in the 
compliance process.
    This concern here in the committee was picked up and 
properly, I think, reported in the press. I just wanted to go 
back and point out the following. I think it is important to 
note for the record that the process this administration is 
following is consistent with the steps taken by the BMDO office 
for many years. I hope you can assert that in your testimony, 
General.
    I point to our distinguished former chairman, now ranking 
member of the Subcommittee on Strategic, Senator Allard, who 
pointed out last Thursday that the BMD programs had never been 
fully vetted through the compliance review process either when 
the BMDO budget is submitted to Congress or when Congress has 
approved the BMDO budgets.
    You, Senator, noted an excellent example on Thursday. The 
certification that last year's integrated flight test under the 
Clinton administration, test number 5, was compliant with the 
ABM Treaty. That was issued on June 30, 2000, the compliance 
analysis. The test took place on July 8, just 8 days later, 
clearly indicating that the test had to start the preparations 
long before the compliance letter was in hand.
    In fact, most of the time the Compliance Review Group 
continues to review test plans as these tests are refined, 
until shortly before the test is conducted. In other words, 
every time we voted, that is, Congress, on a BMDO budget in 
past years, we have voted without full knowledge that each of 
the test activities contained in the BMDO budget request would 
be ABM-Treaty compliant.
    Therefore, it seems to me we are following a consistent 
pattern. That pattern may be changed under this administration. 
Perhaps Secretary Wolfowitz wants to attest to that this 
morning, or others, but I just point that out.
    So I welcome you, Mr. Secretary, once again, and General, 
and I am going to strive as best I can to see that Congress 
gives our President every opportunity to discharge his 
constitutional responsibilities with regard to this treaty. 
Hopefully Congress will form a partnership in the near future, 
because I must say that this particular piece of legislation 
that the Armed Services Committee is entrusted each year to 
prepare, the annual authorization bill, is a crossroads at 
which these issues will be met, and we have had an 
authorization bill for 30-plus years now.
    I am absolutely desirous, as is the President, to have 
another one this year, but these issues have to be, with due 
respect to my colleagues who have different views, worked out 
ahead of time. Otherwise this bill could be held up, or stalled 
on the Senate floor, and this bill covers the entire Armed 
Services of the United States, in all aspects. The missile 
defense portion of the bill, the authorization, is a vital part 
of it. Hopefully we can reconcile such differences as we may 
have before the time of a markup in this committee and, indeed, 
debate on the floor, such that this bill can be passed by the 
Senate eventually.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Again, Secretary Wolfowitz, we are very anxious to mark up 
this budget, but we need the justification material, which is 
not yet in from two of the services. We have been very 
impatiently awaiting that material. It is essential for our 
markup, because we absolutely share the goal that Senator 
Warner just set forth of trying to mark up our bill as quickly 
as possible so we can get an authorization bill to the floor. 
Secretary Wolfowitz, do you have a statement?

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
                            DEFENSE

    Secretary Wolfowitz. Let me be very brief, Mr. Chairman. I 
know you want to get to questions. I do not have an extended 
opening statement, but let me just make a brief comment about 
events that have taken place since we met last week. Last 
Saturday we conducted a successful test intercept of an 
intercontinental ballistic missile over the Pacific Ocean, and 
General Kadish has a short film clip of that intercept. It is 
very short. I would ask your indulgence to show it to the 
committee.
    Chairman Levin. We would be happy to see it.

    STATEMENT OF LT. GEN. RONALD T. KADISH, USAF, DIRECTOR, 
             BALLISTIC MISSILE DEFENSE ORGANIZATION

    General Kadish. If you could roll it, this will show the 
interceptor in the Kwajalein Islands. The intercept kill 
vehicle is on top of the silo. You will see the shroud remove 
itself on launch. This prototype booster accelerates rather 
rapidly. It is not the booster that we intend to ultimately 
use, but it is only for the test program at this point. You can 
see the booster climbing for altitude with the kill vehicle 
attached, and this year we did get separation of the kill 
vehicle, which is very encouraging.
    The booster goes through a series of maneuvers. It is a 
rather short, but important set of maneuvers that make sure it 
stays on the test range. If we had a longer trajectory to test, 
we would not necessarily have to do these types of maneuvers to 
dissipate the energy and they are characteristic of solid state 
boosters. So you can see it maneuvering, almost changing 
direction a number of times in order to stay on the particular 
test range. That is one of those maneuvers.
    Senator Warner. You might talk a little bit about the 
guidance it is receiving, and where that comes from.
    General Kadish. The ground gives it. It has autonomous 
guidance, but it gets at least one update from the ground to 
tell it where to go in space, and then the kill vehicle, after 
it launches, will take an immediate set of star shots in order 
to confirm its position, and then get ground up-dates from the 
same communications system that the booster did, so the whole 
idea here is the booster gets the kill vehicle in position to 
be separated and launched over the target complex, and that is 
a major part of the integrated part of the system.
    The altitude of the intercept is about 140 miles, 220 
kilometers, and you will see this next series of different 
phenomenology that confirmed the actual intercept. This is an 
infrared picture, and a series of infrared pictures all showing 
that the impact of the hit-to-kill on the warhead was 
successful.
    We lost all telemetry at the same time we were expected to 
lose it in a successful intercept, and so we are very confident 
that we hit very accurately. This is a radar trace, the 
interceptor coming through, and you can see the debris that 
resulted from the intercept picked up by the radar, and this is 
the final shot.
    So it built our confidence, but there is a long way to go 
in the test program, and we hopefully will be here over the 
next year showing many more of these types of successes.
    That is all I have.
    Chairman Levin. General, just before Secretary Wolfowitz 
begins, you made a comment that after the test it would be a 
number of weeks or months before you had the final analysis of 
the test results. Could you just briefly tell us, is there 
anything we should expect, other than what we have seen, that 
it was a successful hit?
    General Kadish. Each test has a number of objectives we are 
after, all the way from whether the communications system works 
properly, to the radar traces, and we compare that to the truth 
data that we get from other sensors on the test range, and in 
that process we may discover that there was an anomaly with one 
of the elements that did not quite work properly, and we have 
backups to make sure the tests come out successfully at certain 
points, so what we want to do is compare that truth data to the 
actual telemetry data to see if there were any anomalies, and 
that takes us a number of weeks to accomplish.
    So right now, the initial data indicate we had a fairly 
good test.
    Chairman Levin. Thank you. Secretary Wolfowitz.
    Secretary Wolfowitz. Thank you. That successful test is 
another step forward on the long road to developing and 
deploying effective defenses to protect the American people 
from limited ballistic missile attacks, but it is an important 
step. It underscores the point General Kadish and I made to 
this committee last week that missile defense is no longer a 
problem of invention, it is a challenge of engineering, and it 
is a challenge America is up to.
    To build on the success of this test, we will need 
successive tests that push the envelope even further, that are 
even more operationally realistic, and we need to begin testing 
the many promising technologies which were not pursued in the 
past, but which have enormous potential to enhance our 
security.
    This inevitably means our testing and development program 
will eventually encounter the constraints imposed by the ABM 
Treaty. We are seeking to build defenses to defend the American 
people. The treaty's very purpose is to prohibit us from 
developing such defenses. If we are to build on this weekend's 
accomplishments, we must move beyond the ABM Treaty.
    We are working to do so on two parallel tracks, first with 
a robust research development and testing program and, second, 
through discussions with Russia on a new security framework 
that reflects the fact that the Cold War is over, and that the 
U.S. and Russia are not enemies.
    To succeed, we need Congress' help in both areas. First, we 
need your support to fully fund the President's budget request 
for development and testing of missile defense. The ability to 
defend the American people from ballistic missile attack is 
clearly within our grasp, but we cannot do so unless the 
President has Congress' support to expand and accelerate the 
testing and development program.
    This weekend's test shows the potential for success. Let us 
not fail because we did not adequately fund the necessary 
testing, or because we artificially restricted the exploration 
of every possible technology.
    Second, we need your support for President Bush's efforts 
to achieve an understanding with Russia on ballistic missile 
defense. The President is working to build a new security 
relationship between the U.S. and Russia, one whose foundation 
does not rest on the prospect of the mutual annihilation of our 
respective populations. He will meet with President Putin 
shortly in Genoa, and he has invited Putin to his ranch in 
Crawford, Texas, and he has accepted an invitation to visit 
President Putin in Russia.
    Secretary Rumsfeld and Secretary Powell are engaged in 
discussion with their Russian counterparts as well, so a very 
important dialogue is underway. We are optimistic about the 
prospects for reaching an understanding with Russia, but 
Congress can have a significant impact on the outcome of those 
discussions. If Congress shows the same resolve as the 
President to proceed seriously with development and testing of 
defenses to protect our people, our friends and allies, and our 
forces around the world, it will significantly enhance the 
prospects for a cooperative outcome.
    Conversely, I would urge Congress not to give the Russians 
the mistaken impression that they can somehow exercise a veto 
over our development of missile defenses. The unintended 
consequence of such action could be to rule out a cooperative 
solution, and leave the President no choice but to walk away 
from the treaty unilaterally, an outcome that none of us surely 
wants.
    As we proceed with robust testing, we will work to achieve 
an understanding with Russia to move beyond the ABM Treaty. We 
have established a process that will identify issues raised by 
our program at the earliest possible moment. The Department's 
ABM compliance review group has been directed to identify ABM 
Treaty issues within 10 working days of receiving the plans for 
new development or treaty events. That process is already 
underway.
    The Secretary and I will be informed of whether the planned 
test bed, the use of Aegis systems in future integrated flight 
tests, or the concurrent operation of ABM and air defense 
radars in next February's test, are significant treaty 
problems. I have attached to my testimony fact sheets prepared 
by the Ballistic Missile Defense Office on each of these three 
cases, and I would like to submit them for the record.
    Chairman Levin. They will be made a part of the record.
    Secretary Wolfowitz. This process will permit us to take 
them into account as early as possible as we pursue our 
negotiations with Russia on a new strategic framework. We will 
keep Congress informed as the process unfolds, but if we agree 
that cooperation in setting aside the constraints of the ABM 
Treaty is preferable to unilateral withdrawal from the treaty, 
then we need Congress' full support for missile defense 
research and testing.
    We look forward to working with the committee to build on 
this weekend's successful test, and to ensure that we can 
defend the American people, our friends and allies, and our 
deployed forces, from limited ballistic missile attacks.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Wolfowitz follows:]
              Prepared Statement by Hon. Paul D. Wolfowitz
    Chairman Levin, Senator Warner, members of the committee, I don't 
have an extended opening statement today, but allow me to make a brief 
comment about events that have taken place since we met last week.
    Last Saturday we conducted a successful test intercept of an 
intercontinental ballistic missile over the Pacific Ocean. This 
successful test is another step forward on the long road to developing 
and deploying effective defenses to protect the American people from 
limited ballistic missile attacks. But it is an important step. It 
underscores the point General Kadish and I made to the committee last 
week: that missile defense is no longer a problem of invention--it is a 
challenge of engineering. It is a challenge America is up to.
    To build on the success of this test, we will need successive tests 
that push the envelope even further, that are even more operationally 
realistic, and to begin testing the many promising technologies which 
were not pursued in the past, but which have enormous potential to 
enhance our security.
    This inevitably means that our testing and development program will 
eventually encounter the constraints imposed by the ABM Treaty. We are 
seeking to build defenses to defend the American people. The ABM 
Treaty's very purpose is to prohibit us from developing such defenses.
    If we are to build on this weekend's accomplishments, we must move 
beyond the ABM Treaty. We are working to do so on two parallel tracks: 
First, with a robust research, development and testing program; and 
second, through discussions with Russia on a new security framework 
that reflects the fact that the Cold War is over and that the U.S. and 
Russia are not enemies.
    To succeed we need your help in both areas:
    First, we need Congress's support to fully fund the President's 
budget request for further development and testing of missile defense. 
The ability to defend the American people from ballistic missile attack 
is clearly within our grasp. But we cannot do so unless the President 
has Congress' support to expand and accelerate the testing and 
development program. This weekend's test shows the potential for 
success is there. Let us not fail because we did not adequately fund 
the necessary testing, or because we artificially restricted the 
exploration of every possible technology.
    Second, we need Congress' support for President Bush's efforts to 
achieve an understanding with Russia on ballistic missile defense. The 
President is working to build a new security relationship between the 
U.S. and Russia whose foundation does not rest on the prospect of the 
mutual annihilation of our respective populations. He will meet with 
President Putin shortly in Genoa, he has invited President Putin to his 
ranch in Crawford, Texas, and has accepted an invitation visit 
President Putin in Russia. Secretary Rumsfeld and Secretary Powell are 
engaged in discussions with their Russian counterparts as well.
    So an important dialogue is underway, and we are optimistic about 
the prospects for reaching an understanding with Russia.
    But Congress can have a significant impact on the outcome of those 
discussions. If Congress shows the same resolve as the President to 
proceed seriously with development and testing of defenses to protect 
our people, our friends and allies, and our forces around the world, it 
will significantly enhance the prospects for a cooperative outcome.
    Conversely, Congress should not give Russia the mistaken impression 
that they can somehow exercise a veto over our development of missile 
defenses.
    The unintended consequence of such action could be to rule out a 
cooperative solution, and leave the President no choice but to walk 
away from the treaty unilaterally--an outcome none of us surely wants.
    As we proceed with robust testing, we will work to achieve an 
understanding with Russia to move beyond the ABM Treaty. We have 
established a process that will identify issues raised by our program 
at the earliest possible moment.
    The Department's ABM Compliance Review Group has been directed to 
identify ABM Treaty issues within 10 working days of receiving the 
plans for new development or treaty events. That process is already 
underway.
    The Secretary and I will be informed of whether the planned test 
bed, use of Aegis systems in future Integrated Flight Tests, or 
concurrent operation of ABM and air defense radars in next February's 
tests are significant treaty problems (I have fact sheets prepared by 
BMDO on each of these cases which I would like to submit for the 
record). This process will permit us to take them into account as early 
as possible as we pursue our negotiations with Russia on a new 
strategic framework. We will keep Congress informed as the process 
unfolds.
    But if we agree that cooperation in setting aside the constraints 
of the ABM Treaty is preferable to a unilateral withdrawal from the ABM 
Treaty, then we need Congress' full support for missile defense 
research and testing.
    We look forward to working with the committee to build on this 
weekend's successful test, and to ensure that we can defend the 
American people, our friends and allies, and our deployed forces, from 
limited ballistic missile attacks.
    Thank you.
           AEGIS SPY-1 TRACKING A STRATEGIC BALLISTIC MISSILE
                           plans and purpose
        <bullet> Plans to use an Aegis SPY-1 radar to track long-range 
        ballistic missiles are currently under development and are only 
        at a preliminary stage.
        <bullet> The most likely near-term scenario is for an 
        unmodified Aegis SPY-1 radar to track an outgoing target 
        immediately after its launch from Vandenberg Air Force Base 
        during an ABM intercept attempt at Kwajalein Missile Range.
        <bullet> This test would provide initial data for assessing the 
        basic capability of the Aegis SPY-1 radar to track long-range 
        targets that will assist in formulating Aegis development 
        options.

                <bullet> The Aegis SPY-1 radar may be connected to the 
                test's command, control and data communications 
                backbone.
                <bullet> The SPY-1 radar, however, would likely not 
                contribute to the data used to complete the intercept 
                (i.e., it will not help guide the interceptor).

        <bullet> Future (and currently unprogrammed) plans might 
        include an Aegis SPY-1 radar:

                <bullet> Collecting intercept data at the ABM test 
                range during ABM testing.
                <bullet> Providing real-time data to the U.S. strategic 
                early warning system.
                <bullet> Providing data to assist an Integrated Flight 
                Test intercept attempt.
                <bullet> The Aegis SPY-1 radar might also participate 
                in testing at the Missile Defense System Test Bed using 
                targets with various ranges and velocities.

        <bullet> We eventually expect to integrate a modified, more 
        capable version of the Aegis SPY-1 radar into tests of our 
        boost and ascent phase elements.
 SYSTEMS INTEGRATION TEST II (SIT II) COMBINING DATA FROM ABM AND NON-
                               ABM RADARS
                           plans and purpose
        <bullet> We will conduct a short-range missile defense test 
        beginning next February.

                <bullet> Three targets will be tracked by two Aegis 
                SPY-1 radars, a Patriot PAC-3 radar and the THAAD UOES 
                radar.
                <bullet> An ABM radar located at Kwajalein Missile 
                Range will also track each target, but will not 
                communicate with any of the other radars.
                <bullet> During the flight test of at least one target 
                missile, a Patriot PAC-3 missile system will attempt an 
                intercept.

        <bullet> The ABM radar will obtain data supporting all U.S. TMD 
        programs. This is critical information as to how both our 
        interceptor and the threat targets behave, as well as unique 
        information measuring the lethality of the intercepts. Using 
        the ABM radar will significantly improve the quality of the 
        information gained from the test.
                  THE MISSILE DEFENSE SYSTEM TEST BED
                           plans and purpose
        <bullet> Test Bed as a Whole. Allows overall system performance 
        testing to occur using more realistic threat trajectories and 
        allowing more complex engagement scenarios.
        <bullet> Launchers.

                <bullet> Construction at Fort Greely, AK (5 silos) will 
                be in the spring or early summer next year. Once 
                complete, the five silos will allow tests of 
                operational command and control, communications, and 
                the capability of the long haul communications network; 
                rehearsal of maintenance and upkeep processes; and 
                assessment of the adverse effects of Arctic conditions 
                at a potential operational site.
                <bullet> The two Kodiak, AK launcher silos to be 
                constructed in the spring/summer of 2003 will allow 
                higher closing velocities, more realistic test 
                geometries, and multiple engagements.

        <bullet> Radars. At least three large phased-array radars will 
        be part of the Missile Defense System Test Bed: Cobra Dane 
        (Shemya, AK), Beale, CA, and a new X-Band in the mid-Pacific.

                <bullet> Cobra Dane currently collects data on 
                ballistic missile launches from Russia and also has the 
                mission of early warning and space track. An upgraded 
                Cobra Dane radar will provide enhanced early warning 
                and may have some ABM radar capability.

                        <bullet> Initial upgrades are software 
                        modifications like those ongoing for the Beale, 
                        CA early warning radar. No changes to the 
                        radar's hardware are currently planned.
                        <bullet> Boeing is investigating what 
                        additional upgrades to Cobra Dane might be 
                        appropriate, and when. Possibilities range from 
                        mere software upgrades to significant physical 
                        modifications. We will know our options this 
                        fall.
                        <bullet> In any operational system, we 
                        anticipate that the X-Band radar at Shemya 
                        would be required to provide needed 
                        discrimination, even with all possible upgrades 
                        to Cobra Dane.

                <bullet> Beale software modifications will not raise 
                ABM Treaty issues before fiscal year 2004.
                <bullet> Current plans contemplate constructing an X-
                Band radar in the mid-Pacific in fiscal year 2006.

        <bullet> In-Flight Interceptor Communications Systems (IFICS) 
        to be constructed next spring/summer may raise ABM Treaty 
        issues depending on whether they are determined to be 
        subcomponents of an ABM radar.

    Chairman Levin. General Kadish, do you have an opening 
statement?
    General Kadish. No.
    Chairman Levin. At last week's hearing, I said we would 
first call on members who were able to come to the hearing but 
were not able to participate. So I will first recognize those 
committee members who attended last Thursday's hearing but did 
not have a first 6-minute round of questioning. We will then 
follow our normal early bird order of recognition, and begin a 
new 6-minute round of questioning.
    Under that announcement which I made last week, I would 
first call upon Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my word of welcome to Secretary Wolfowitz and General 
Kadish, and also to your staff people who are here. National 
missile defense is among the most important issues that is 
facing Congress and the American people today. As Vice Admiral 
Dennis McGinn said recently at the Naval War College, 
``Whatever money we spend on national missile defense against 
ballistic missile threat to this Nation is a high opportunity 
cost, and we should do it very, very carefully.''
    Today's hearing is an effort by this committee to study the 
issue very carefully, and I commend the chairman and members of 
this committee for their dedication shown in ensuring that 
Congress does a job before committing great amounts of scarce 
funds to an expanded program.
    Let us remember that we are designing a system to meet 
future as well as present threats. The system may not be fully 
deployed until the year 2010 or 2020. We need to consider 
whether the major threats faced 10, 20, or even 30 years down 
the road will be delivered in a way that a missile defense 
program protects us, or will our missile defense system be the 
defensive equivalent of France's Maginot Line, something our 
adversaries will be able to easily evade? This is a much more 
difficult question, and one which argues for more caution in 
our current approach to setting priorities for defense 
spending.
    I would ask the Chairman to place my full statement in the 
record, and if it pleases the Chairman, I will proceed with 
questions.
    Chairman Levin. Thank you. It will be made part of the 
record.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement by Senator Daniel K. Akaka
    Thank you Mr. Chairman. National missile defense is among the most 
important issues facing Congress and the American people.
    As Vice Admiral Dennis McGinn said recently at the Naval War 
College, ``whatever money we spend on national missile defense against 
a ballistic missile threat to this Nation is a high opportunity cost 
and we should do it very, very carefully.''
    Today's hearing is an effort by this committee to study this issue 
very, very carefully. I commend the Chairman for his dedication to 
ensuring that Congress does its job before committing great amounts of 
scarce funds to an expanded program. We heard testimony this week from 
the service chiefs and secretaries that they need more money in fiscal 
year 2003 and beyond to provide for basic procurement and operations. 
We cannot afford to do everything. Basic decisions must be made 
concerning what is a reasonable financial commitment to make, to deter, 
or prevent a realistic threat.
    The Pentagon's acquisition chief, Edward Aidridge, Jr., has said 
that ``we are not sure we know what the answer is [for providing 
missile defense].'' We need to know more accurately the response to 
that question before proceeding with a crash program involving billions 
of dollars.
    If our approach is, as some have suggested, ``test through 
failure,'' that sounds like we will try anything, go anywhere, spend no 
matter what, until we find something that works some of the time. That 
sounds like a prescription for waste: a waste of time and a waste of 
money.
    Rather than trying everything at once, it may make more sense to 
build slowly, test by test, a defense system that works against the 
most likely threats. Make it simple, effective and efficient. What we 
have now is a little of this, a some of that, and a lot of money.
    Let us also remember that we are designing a system to meet future 
as well as present threats. The system may not be fully deployed until 
the year 2010 or 2020. We need to consider whether the major threats we 
face 10 or 20 or even 30 years down the road will be delivered in a way 
that a missile defense program protects us or will our missile defense 
system be the defensive equivalent of France's Maginot Line--something 
our adversaries will be able easily to evade. This is a much more 
difficult question and one which argues for more caution in our current 
approach to setting priorities for defense spending.
    I thank the Chairman once again for his leadership in this area. I 
look forward to this morning's discussion.

    Senator Akaka. Secretary Wolfowitz, Secretary Rumsfeld has 
decided that a mid-course system alone is not sufficient to 
provide global protection, but many boost-phase systems such as 
an airborne or space laser will only be able to destroy an ICBM 
booster. The warhead is built to survive reentry, and could not 
be affected by a laser.
    Are you concerned about knocking out a booster to prevent 
the warhead from hitting U.S. territory, only to send that 
warhead falling on some other territory, such as Canada, Japan, 
or Europe, where we have American troops and allies present?
    Secretary Wolfowitz. Senator, I am more concerned at the 
moment that we do not have the capability at all. I would like 
to develop it. When we develop it, we will also have much more 
knowledge about exactly the kind of question you raise.
    I think it is almost certain that a missile launched by a 
hostile country will do much more damage if it hits the place 
that it is aimed at than if it is knocked off-course somewhere 
along the way, and I would prefer to knock it off-course as 
early as possible so that the problems that you are raising 
arise for the country that launches the missile, not for our 
friends or our allies, and certainly not for ourselves, but it 
is a valid question. It is one that one would have to look at 
in the operational context of a successful capability, and we 
are unfortunately a long way from that capability.
    To give you a for instance, during the Gulf War, when we 
were subjected to ballistic missile attack and our friend, 
Israel, was subjected to ballistic missile attack, our pilots 
flying over Western Iraq watched missiles rising from the 
launch pad with big, bright signatures, but no capability to 
shoot them down. If one of those missiles had had a chemical 
warhead on it, I would have much preferred to have it land in 
Iraq than to land on Israel or Saudi Arabia.
    Senator Akaka. Mr. Secretary, one of the criticisms of the 
old national missile defense schedule was that it required a 
deployment decision to be made before any operational testing. 
The BMDO has stated that the focus of missile defense is no 
longer on deployment, but on testing. Does the new plan put off 
a deployment decision until after all the developmental testing 
is complete and operational tests have begun?
    Secretary Wolfowitz. I will let General Kadish answer that 
question.
    General Kadish. There are no procurement or deployment 
activities in the current program, but there are decision 
points to offer it to the Secretary and others to decide 
whether we have enough information to proceed with a 
procurement and deployment program. Right now that is not part 
of the plan, and our intention at this point is to test as 
robustly and rapidly as we can all the systems that are under 
development so that we can be in a position to actually provide 
that information to the decisionmakers.
    Senator Akaka. General, I would like to mention and discuss 
countermeasures. In space, a warhead and simple decoy, such as 
a traffic cone, look the same. Is that correct?
    General Kadish. They theoretically can be made to look the 
same, but you have to define look, and what visible or IR 
spectrum. There is a number of ways that you would want to look 
at them in the spectrums we deal with.
    Senator Akaka. It is my understanding that the flight test 
on Saturday used a single balloon decoy. How many decoys are 
you planning to use in future tests? If it is just a few 
decoys, is this a realistic test, when an enemy could use 
multiple cheap decoys, such as a simple traffic cone to deceive 
us?
    General Kadish. The countermeasure and the decoy problems 
will be addressed as we build our test to be more complex in 
these areas, and ultimately I am hoping that we have--I could 
not give you the exact number of decoys, but a lot of decoys, 
and see how the system performs.
    In fact, in the world of development, we would like to 
actually test what we call the edge of the envelope, so that we 
can actually break the system and find out how many decoys you 
can have or not have, and that would be my intention, if we can 
afford to do that in the long run. But again, that is the issue 
of having a layered system, because countermeasures that work 
in the midcourse, like the tests that we did on Saturday, do 
not work in boost phase, and those that work potentially in 
boost phase do not work in midcourse, so having a layered 
system greatly complicates the countermeasure problem for our 
adversary, and it simplifies it for us to a large degree.
    That does not mean that we would not aggressively pursue 
overcoming midcourse countermeasures, but it certainly would 
help us to have a layered system.
    Senator Akaka. Thank you very much for your responses. 
Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman, and thank you 
for extending this hearing on this most important subject.
    The committee is tasked with the responsibility of 
authorizing funds for our Nation's defense programs. As we 
address this year's defense budget, we will need to address 
some fundamental questions that I believe concern the American 
people. First, are we spending the available defense funds in a 
way that maximizes our national defense? We need to strike the 
right balance.
    The President has requested a huge increase in missile 
defense, but his requests for readiness are modest. We are 
actually cutting funds for nonmissile defense science research. 
Even if one supports the concept of missile defense, we all 
need to ask, at what cost, and what other defense priorities 
will be sacrificed, and second, we need to make sure our budget 
is geared toward addressing the most imminent and realistic 
threats to the United States.
    I believe the average American is genuinely and 
appropriately concerned about the possibilities of a terrorist 
attack with a deadly virus, or some other devastating lethal 
attack. Of course, we must also address the serious threat of 
an accidental missile launch, or a missile attack by a rogue 
nation. Again, the difficulty is striking the right balance. I 
hope that this hearing will bring us closer to answering these 
questions. I am encouraged by the successful results of last 
weekend's flight test, but I believe that we must remain 
cautious in our enthusiasm.
    As General Kadish commented on Saturday night, this success 
was only one step on the journey. We have a long road ahead in 
all of the missile defense activities that we have ahead of us. 
I hope that today, General Kadish and Secretary Wolfowitz will 
be able to help us as we proceed along that road.
    My first question is to General Kadish. I understand your 
organization intends to accelerate its testing schedule with 
close to two dozen flight tests before the 2004 deployment 
date. Are you at all concerned that this schedule is so 
condensed that you may not have sufficient time between each of 
the tests to evaluate the performance of the system's 
components, and what primary factors will you be reviewing to 
measure the success of this program?
    General Kadish. Well, Senator, that is a good question. 
Whenever we accelerate tests of this magnitude, the 
intercontinental ranges--I think you saw how complex it was on 
Saturday. When we decide to increase the number of tests, we 
will also at the same time put in the management practices to 
deal with that acceleration, and so to some degree having a lot 
of time between tests gives us the luxury of having a lot of 
time to do data reduction and data analysis. As we squeeze that 
time between tests, we have to make the management changes as 
well as invest in some equipment to do the data analysis 
quicker.
    In addition to that, as we have more experience with our 
tests, doing high ops tempo testing, we will be looking at 
finer grain type elements of the system, and we should be able 
to reduce that data quicker. So I am confident that, as we 
increase the number, we will not lose any of our fidelity of 
analysis, but we will be able to accelerate that as well, and 
if we cannot, we are going to look very carefully at slowing 
the test program down, but I do not think we should slow down 
the test program based on our ability to analyze data.
    Senator Carnahan. Secretary Wolfowitz, legal discussions on 
missile defense have recently focused on two important 
documents, the 1972 Antiballistic Missile Treaty, and the 1999 
Cochran-Inouye National Missile Defense Act. At the last 
hearing, we learned that the President has requested funds for 
missile defense programs that may violate the ABM Treaty. Would 
you once again explain how missile defense development proposed 
in the President's defense budget might bump up against our 
commitment to the ABM Treaty?
    Secretary Wolfowitz. I would point out that this is not the 
first budget that has done that. One budget actually includes 
money that the Clinton administration asked for to begin the 
construction of a radar in Shemya, Alaska which is, I think, 
the consensus of virtually all lawyers, and that is a hard 
consensus to find, that would have been, or would be a 
violation of the ABM Treaty.
    In the 2002 budget, as best we can determine, there are 
three events that raise questions about the treaty. I discussed 
them in some detail in my last testimony, and they are 
addressed in the attachments to this testimony.
    Each of the three, the test bed at Fort Greely, Alaska and 
the two test events of non-ABM radars, and some of our missile 
shots, raise issues under the treaty that we still do not have 
full review by the lawyers as to whether they are compliant or 
not compliant. They are in the gray zone on the boundaries of 
the treaty, and therefore one cannot say with clarity whether 
they violate the treaty or not.
    Senator Carnahan. Before leaving the treaty, the United 
States would have to announce its intention to do so at least 6 
months in advance. Is the administration prepared to make this 
announcement if it is determined that the U.S. missile defense 
policies compete with the treaty's provisions?
    Secretary Wolfowitz. I do not think the President has made 
that decision. It is certain we will comply with the treaty, 
and that if we were to do something in violation of the treaty, 
we would only do it after withdrawing, and withdrawal, as you 
correctly point out, requires 6 months notification.
    But as I have said, and I have said it repeatedly, our goal 
is to get to a situation where we can move forward 
cooperatively with the Russians beyond the constraints of the 
treaty, and not to find ourselves in a situation where we are 
forced either to constrain our program and limit our ability to 
protect the American people or, alternatively, to withdraw from 
the treaty unilaterally.
    We would like to find a cooperative approach with the 
Russians, and Senator, I am optimistic we can do so.
    Senator Carnahan. One final question. The 1999 Cochran-
Inouye National Missile Defense Act mandated a dual-track 
approach toward national missile defense. First, it authorizes 
as soon as technologically possible deployment of a national 
missile defense system capable of defending the territory of 
the United States against limited ballistic missile attacks 
with funding subject to the annual authorization, and 
appropriations, and the annual appropriation of funds for 
national missile defense, and second, the law authorizes that 
the United States continue negotiating reductions in Russian 
nuclear forces.
    Does your budget request seek funds for programs designed 
to address more than a limited ballistic missile attack? In 
other words, do you feel that you need additional statutory 
authority to plan and design and build the layered missile 
defense that you have proposed?
    Secretary Wolfowitz. All we are seeking in the missile 
defense area this year is the money we are requesting under the 
authorization, but on the other side of that act, the Cochran-
Inouye Act, the part you referred to about negotiated 
reductions, that is part of the framework of issues we are 
discussing with the Russians. We are pursuing further 
reductions in nuclear forces, but we are also, in fact, 
reducing our nuclear forces in areas where we think we have 
systems that we do not need in this year's budget.
    We are proposing to remove four Tridents, some 30 B-1s, and 
some 50 Peacekeeper missiles, and I believe at least for the 
Peacekeeper missile reduction we would require congressional 
authorization.
    Senator Carnahan. Thank you very much.
    Chairman Levin. Thank you, Senator Carnahan. We will now 
begin our next round.
    Secretary Wolfowitz, the administration has expressed an 
interest in the option of having an early emergency deployment 
capability focused on having a small number of test 
interceptors and linking them to an upgraded radar that already 
exists at Shemya called Cobra Dane, and this is something 
General Kadish mentioned in his briefing to the committee on 
June 13.
    My questions are relative to Fort Greely. As well as being 
part of a test bed, do you intend that Fort Greely have 
operational capability, even if primitive, or rudimentary?
    Secretary Wolfowitz. It is too early to make that 
determination, Senator. It would depend, I think really and 
principally on two things: first, how the tests proceed, what 
operational capability we think we could acquire, and we will 
not know that until we have done further testing, and then 
second, the question of where we are with respect to potential 
threats.
    It is envisioned much more as a kind of rudimentary 
emergency capability that one would have available if two 
conditions are met, if the testing and development goes well, 
and if the threat proceeds rapidly. If the threat does not 
proceed rapidly, or if the testing does not go well, then we 
could not turn into an operational capability, but the 
philosophy is here, since we need a much more operationally 
realistic test bed, let us do it in a way that makes that 
investment convertible to operational capability if and when we 
decide to go forward.
    Chairman Levin. When would you expect the earliest date for 
that convertibility to an operational capability?
    Secretary Wolfowitz. I had better let General Kadish make 
the prediction about dates.
    Chairman Levin. Well, if all the tests go well, it would 
have that capability, and I want to know at what point would it 
have that capability?
    General Kadish. Well, I think the clearest declaration of a 
capability, if it was directed, would be when we actually had 
that physical assets on site.
    Chairman Levin. When would that be?
    General Kadish. At this point, the planning is ongoing, but 
sometime in the calendar year 2004 to 2006, and I put a 2-year 
window in there because of the nature of the uncertainty that 
we have.
    Chairman Levin. You want this test bed at Fort Greely to 
have an operational capability, is that correct? You want that 
option?
    Secretary Wolfowitz. Yes, and a very rudimentary one, and I 
think it is worth emphasizing, Senator, if we did not have a 
treaty issue, the Russians would look at that and they would 
laugh. This is not something that should make any Russian 
planner stay awake at night for even a single minute.
    Chairman Levin. I do not think they are laughing about what 
you are proposing. From what I gather, they are not laughing at 
all, unless you think that is just----
    Secretary Wolfowitz. It is because of the larger treaty 
issues, but what I am trying to emphasize is, this capability 
we are talking about at Fort Greely may disturb a North Korean 
planner, but it is not in any way a capability that threatens 
Russian missiles at all.
    Chairman Levin. But they do view it as a serious possible 
violation of a treaty, is that correct, with broader 
implications? Is that a fair statement, that they view it that 
way?
    Secretary Wolfowitz. That is a fair statement, and I am 
trying to make a distinction which I think is a relevant one 
between the broader implications of the treaty, which we take 
very seriously, and the actual military implications of this 
deployment, which are quite modest.
    Chairman Levin. I want to be really clear, though, on one 
point. You do intend now that the Fort Greely activity have as 
soon as possible an operational capability, albeit rudimentary. 
That is your current intent, is that correct?
    Secretary Wolfowitz. Not necessarily.
    Chairman Levin. Well, you do intend that the tests work 
well, and the threat from North Korea is here and now.
    Secretary Wolfowitz. The General said 4 to 6 years. There 
are some people--and I cannot say I am quite this optimistic. 
There are people who think the North Korean regime might 
collapse within that time frame.
    Chairman Levin. But that is not where you are coming from. 
You believe the North Korean threat is basically here and now, 
is that not correct?
    Secretary Wolfowitz. I think it is moving along rapidly, 
yes, sir.
    Chairman Levin. You do want the tests to succeed, is that 
not correct?
    Secretary Wolfowitz. That is correct.
    Chairman Levin. Given those two facts, what you believe and 
what you hope, is it not a fair statement to say that you want 
the Fort Greely activity to have the operational capability, 
albeit rudimentary, as soon as possible? Is that not a fair 
statement?
    Secretary Wolfowitz. I think that is a fair statement. I am 
not a lawyer. I do not know what intent means.
    Chairman Levin. Your intent.
    Secretary Wolfowitz. I would like that development to give 
us an option for a rudimentary operational capability.
    Chairman Levin. To give it to us as quickly as possible.
    Secretary Wolfowitz. Yes, Senator.
    Chairman Levin. So then you are going to have your review 
group tell us whether or not, since that is your intent for 
that activity, that activity then would violate--yes or no, we 
do not know yet--the ABM Treaty, and we are going to have a 
compliance review group decision on that issue, I assume, when?
    Secretary Wolfowitz. Soon.
    Chairman Levin. Within weeks?
    Secretary Wolfowitz. I hope within weeks, yes.
    Chairman Levin. Now, is it correct that no test 
interceptors would be launched from Fort Greely?
    General Kadish. That is our current state of planning right 
now because of safety considerations. However, I am going to 
ask our people to look hard at that particular issue over time.
    Chairman Levin. My time is up.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Secretary and General, again, I think the opening 
statements by both clearly are a step forward in this debate, 
and a constructive and positive step forward, and I 
congratulate you.
    I have gone back and listened to you carefully, then reread 
your testimony with regard to the caption, ``we need Congress' 
support for President Bush's effort to achieve an understanding 
with Russia on ballistic missile defense.'' To me, that clearly 
indicates the course which the President is pursuing, namely, 
consultation, negotiations, and working toward an 
understanding.
    We have also used a term, a new strategic framework.
    Now, let us go back to the treaty itself. Those two generic 
terms that you use, understanding, and new strategic framework, 
they do not preclude, I presume, the option of a series of 
amendments to the treaty, is that correct?
    Secretary Wolfowitz. I do not think we preclude anything at 
this point, Senator.
    Senator Warner. So that is still an open option, and I 
refer to the President's statement, to offer Russia amendments. 
I am reading from the speech he gave down at the University of 
South Carolina. To make this possible, we will offer Russia the 
necessary amendments to the ABM Treaty. You have not at this 
time ruled out as a possibility for either the understanding or 
the new strategic framework an amended treaty.
    Secretary Wolfowitz. As I said, Senator, I do not think we 
have ruled out anything.
    Senator Warner. But we are coming to this question of 
ripping up the treaty. It seems to me the option of amending it 
is on the table.
    Secretary Wolfowitz. It is, Senator.
    Senator Warner. It is?
    Secretary Wolfowitz. Yes.
    Senator Warner. I just wanted to spell that out, because we 
are moving, as the Senator said, on two tracks, the track the 
President is doing, consultation and negotiation with Russia, 
and at the same time the track under the 2002 budget of testing 
and the like. This committee in its authorization bill will be 
the first station at which this issue stops, as to whether or 
not we can obtain from Congress the support that you expressed 
a request for on behalf of the President to work as a partner. 
I am hopeful we can clarify these things, and I think you have 
moved forward today in that clarification.
    Secretary Wolfowitz. Senator, I would hope that whatever 
understanding we reach with the Russians goes beyond the old 
notion that we have to stay awake at night worrying about small 
changes in the nuclear posture of either side. We do not do it 
with the countries with whom we are clearly and openly friends, 
and that is the relationship we would like to get into with 
Russia.
    Senator Warner. I know there are some who desire, and I 
fully appreciate that, completely taking the treaty and 
agreement with Russia, to drop it and start over with an 
entirely new framework. But at this point in time, to allay 
fears that we are trying to rip it up, you say the amending 
process--which could achieve that and go beyond it--amendments 
could clearly take us beyond the ABM Treaty. Amendments can be 
very broad in their scope--but that option is on the table.
    Secretary Wolfowitz. As I said, I do not think the 
President has ruled out anything.
    Senator Warner. If for some reason these negotiations with 
Russia do not meet the goals that the President has laid down, 
he would come back to Congress, would he not, in the 
consultative process?
    Secretary Wolfowitz. I am certain we will be consulting 
closely with Congress throughout the coming months.
    Senator Warner. So that would be, again, a partnership with 
Congress.
    Secretary Wolfowitz. I believe it must be, Senator.
    Senator Warner. That is very reassuring.
    Now, I raise this question of the amendments because it is 
my understanding that President Putin has indicated Russia is 
now open to revising though not abandoning the ABM Treaty. Is 
that a correct statement?
    Secretary Wolfowitz. I have heard different statements. I 
think that is correct, Senator, yes.
    Senator Warner. I think that lends great hope to the 
negotiations thus far, preliminary though they may be, with 
Russia producing fruitful comments.
    Secretary Wolfowitz. I think that is the indication we have 
gotten from comments we have heard directly from him, and 
comments he has made to other people, and even some comments he 
has made in public.
    Senator Warner. Can you also address the issue of the 
process we are undertaking with Russia? The process does not 
provide a basis for other nations in the world to say that they 
should begin to suddenly augment, precipitously, their 
strategic systems and build more, because these other notions 
perceive we are going through a process that makes the world 
more unstable than stable.
    Clearly, if we reach a new framework agreement with Russia, 
that should send a message to the world that it would be a more 
stable situation, and would not provide a basis for them moving 
out unilaterally in their own security interests and 
substantially augmenting their missile capability. Was that a 
correct assumption?
    Secretary Wolfowitz. I think that is correct, Senator, and 
as far as those countries, the small number of what some have 
referred to as the walking wounded that pursue these ballistic 
missile offensive capabilities because they think it will 
secure advantage, I would think this demonstration of our 
ability to move forward on missile defense and to move forward 
cooperatively with the Russians might help to begin to 
discourage them from those investments, and that would also 
make the world a more stable place.
    Senator Warner. So clearly, a part of the case that the 
President is making in his consultations and negotiations is to 
ensure that the defenses will increase rather than detract from 
global security.
    Secretary Wolfowitz. Absolutely, Senator.
    Senator Warner. General Kadish, the proposed budget request 
includes a greatly expanded test bed that will enhance test 
realism and allow for a larger number of tests. The expanded 
test bed will allow the BMDO office to implement many of the 
recommendations made by former Director of Operational Test and 
Evaluation, Philip Coyle. He is due to appear before this 
committee shortly. Those tests will help meet the demands of 
some BMD critics that BMD programs be thoroughly tested prior 
to deployment to assure operational effectiveness. Do you 
generally agree with my opening statement on this question?
    General Kadish. Yes, Senator.
    Senator Warner. What would be the impact on the test 
program should Congress elect to cut the BMD budget by, say, a 
billion, or $2 billion?
    General Kadish. Well, we would have to reevaluate what type 
of testing we would be able to accomplish, and obviously, it 
would be less. The ability to prove our systems, our models and 
simulations, hinges on a robust testing program in addition to 
making it more operationally representative.
    Senator Warner. Such failure to authorize the President's 
request would go contrary to what Philip Coyle projected, would 
it not?
    General Kadish. In my view, yes.
    Senator Warner. Thank you. My time is up, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Secretary and General, welcome back. I wanted to come back 
to some of the items we discussed last week. Last week, I said 
that I thought the program you laid before us for missile 
defense was generally consistent with the National Missile 
Defense Act of 1999, which was adopted with support, I believe, 
of 97 Members of the Senate, but I expressed my concern about 
the availability of resources generally to the Pentagon. I am 
worried about your capacity to carry out this program in a way 
that does not affect other priority items in the Department.
    I did note, Secretary Wolfowitz, and perhaps you did, too, 
that Bill Kristol and Bob Kagan have an article in this week's 
Weekly Standard in which they call upon you and Secretary 
Rumsfeld to resign in protest over the failure of the 
administration, and particularly the folks at OMB, to 
adequately fund defense priorities. It is an editorial worth 
reading for the details, if not the ultimate recommendation. 
[Laughter.]
    I presume you have no intention to resign.
    Secretary Wolfowitz. I do not want to get into a discussion 
of that, but no, I have no plans to resign.
    Senator Lieberman. You have been very consistent about 
that. Thank you.
    I do think, in seriousness, we have to keep coming back to 
this, and again I express the hope that I have expressed 
earlier that this committee on a bipartisan basis will provide 
adequate levels of funding for the Pentagon generally.
    I want to come to a direct question about Russia and ask 
you to speak a little bit more on it. Last week when you were 
here, you expressed not only a commitment to attempt to 
negotiate modifications in the ABM Treaty consistent with the 
Ballistic Missile Defense program you and General Kadish 
outlined, but I thought you expressed a certain degree of 
optimism about the ability to reach those modifications with 
the Russians. To some extent, you have done that this morning.
    After the hearing last week, in response to your testimony, 
there was an interview with the minister of defense in Russia, 
Ivanov, and I guess at best, as I read the interview, I would 
describe his frame of mind as puzzled by the optimism expressed 
here, and at worst, I would say he disagreed with it.
    Of course today we see on the front page of the papers Mr. 
Putin and Mr. Jiang embracing in friendship, and one of the 
items that draws them together is their opposition to our 
missile defense initiative, and even agitated by what has 
pleased and delighted us here, which is the successful test on 
Saturday.
    So why are you optimistic about our ability to negotiate 
the necessary modifications with the Russians on the ABM Treaty 
to allow this program to go forward?
    Secretary Wolfowitz. If I might very briefly, before I 
answer that, in opening you talked about the balance among 
different things, and I would just like to point out that our 
adversaries, the countries we worry most about, are investing 
heavily in the offensive capability. It is the one Iraqi 
capability we underestimated during the gulf war. It is in many 
ways one of the biggest weaknesses in our overall defense 
posture, and I think our adversaries have discovered it.
    I think we have done a careful job of balancing, but it is 
a very big increase. It may not be as big as Bill Kristol or 
Bob Kagan would like it. Frankly, it is not as big as I would 
like, but it is the largest in 15 years, and it is a 7-percent 
real increase. It is substantial.
    To come now to your main question, my reasons for optimism 
rest most fundamentally on the fact that I think we have a 
fundamentally different relationship with Russia, but we have 
not yet gotten to the point of really developing that or 
elaborating it in ways that I think are important.
    I think their concerns about the ABM Treaty rest very 
heavily on broader political significance of the treaty, as I 
think--and I do not want to put words in the chairman's mouth, 
but it seems to me that was one of the points he was making 
when I said that from a military point of view, from a Russian 
military planner's point of view what we are doing is 
insignificant.
    I think what they are looking for is a framework of 
relations with the United States, and I hope it is one that 
addresses the real security needs of this era. I do not think 
the Russians have to lay awake at night worrying about our 
attacking them with nuclear missiles, and I do not think we 
need to waste a lot of time worrying about them attacking us. I 
think what we have is very substantial common interests in 
mutual stability in Europe, and mutual stability in Asia, and I 
must say, I take with a certain amount of salt the agreement 
with the Chinese.
    I do not object to it. I think good relations between 
Russia and China contribute to stability in Asia, but I do not 
think the Russians have discounted the possibility that China 
could be a problem for them. I think working together on 
stabilizing those critical areas of the world is where the 
cornerstone of strategic stability is today, if I might use 
that phrase. It is not in the old pattern of mutual 
annihilation, and I think when they see that we are not only 
saying things, we are doing them, we are bringing down our 
offensive nuclear forces, we are not waiting for protracted 
years and years of negotiations in Geneva before we remove a 
single warhead, that our whole posture is one that they should 
be comfortable with, and I think as we deepen those discussions 
we will begin to make some progress.
    I think the fact that they have shown great interest not 
just in traditional arms control negotiations between the 
foreign ministry and the State Department, but very serious 
interest in discussions between Defense Minister Ivanov and 
Secretary Rumsfeld suggests to me that they are viewing this in 
a broad context of security.
    Senator Lieberman. My time is up. Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. The opening 
sentence of our chairman has, I think, kind of set the tone for 
one thing we all agree with, and that is, if I recall him 
right, he said protecting and defending the American people is 
our number 1 objective. Do you consider that to be our number 1 
objective?
    Secretary Wolfowitz. That is why we are all serving in the 
Defense Department, and I think it is what everyone on this 
committee agrees with.
    Senator Inhofe. I think we all do, and it is significant. 
When you look at the threats that are out there--I notice that 
Senator Roberts is not here, but there is a new subcommittee 
that he chaired on the new types of threats, emerging threats, 
and yet the one that we are facing right now is one that is 
really not emerging, it is here. It is one that we have been 
dealing with for a long time.
    I would like to just briefly respond to a couple of the 
arguments you keep hearing against moving forward with our 
missile defense system, one being that we might precipitate an 
arms race. I would suggest, and I want to say this for the 
record, I think there is already an arms race as far as China 
is concerned. We do not know the exact number, but China has 
made a very large purchase of approximately 240 SU-27s and SU-
30 vehicles that are air-to-air and air-to-ground superior to 
anything that we have.
    They currently, it is my understanding, have purchased some 
of the rapid-fire artillery systems and platforms that are 
better than our Paladin is, and they are spending a very large 
percentage of their money on this arms race.
    But there is something else that I think is significant to 
bring out, and that is, could it not be argued that by having a 
missile defense system not only are you defending yourself, but 
you are also allowing us to reduce our nuclear weapons.
    Secretary Wolfowitz. It is certainly true we can do both at 
the same time, Senator. That is fundamental, and I do think to 
some degree if we were to think about very low levels of 
offensive forces it would be, frankly, impossible to 
contemplate, if we did not have a security that we have some 
ability to defend against limited missile attacks.
    But I think the main point is, there is plenty of room to 
bring down our offensive forces. We are doing so. That ought to 
be a strong signal, particularly to Russia and to anyone else 
who thinks about it, that there is absolutely no reason to 
respond to a limited American missile defense capability by 
building up their offensive nuclear forces.
    Senator Inhofe. I guess what I am saying, and let me make 
sure it is clear, is that if we had a system in place to defend 
ourselves against an incoming missile, would that not allow us 
to reduce our nuclear capability in terms of offensive weapons?
    Secretary Wolfowitz. In some circumstances it might. The 
reason I am hesitating, Senator, is I do not think in any case 
we would want to do that in the foreseeable future. I mean, one 
could imagine a world of complete disarmament, and that might 
be a wonderful world, but in the foreseeable future, I do not 
think we would----
    Senator Inhofe. I am not suggesting that.
    Secretary Wolfowitz. We would not want to give up our 
deterrent capability, and these calculations of how one 
substitutes for another are complicated.
    Senator Inhofe. As far as one substituting for another, the 
argument we always hear is the suitcase threat, the terrorist 
threat. We know that is a very real threat, but I think it is 
important for the record to reflect that we are currently--
maybe not through the Department of Defense--we are currently 
addressing this threat, the suitcase threat, and in the case of 
the Oklahoma City bombing of the Murrah Federal Office 
Building, that was a pickup truck.
    We have gone back, and we have been doing it right here in 
Washington to see what could be done, what could be placed to 
keep something like this from happening again, so we are doing 
that very actively, and I think it is important to talk about 
that. I was likening it to an insurance policy. There is a risk 
out there, so you insure your house. That does not mean you do 
not insure your car, and so we need to do both, and I think it 
is very significant that we talk in those terms.
    Secretary Wolfowitz. If I might, Senator, on that point, I 
think they are both serious threats, and we need to work on 
protecting ourselves from both.
    What is different about the two as far as I can see is that 
number one, we have some capability to defend against that 
terrorist threat. We have intercepted people at the border. We 
have counterintelligence means to disrupt terrorist cells. We 
work on it constantly.
    We do not have any means of protecting this country from a 
ballistic missile attack, not a single one, and second we have 
no treaty that prohibits us from protecting ourselves against 
terrorist attack. I cannot imagine signing one, and I think we 
need to think about that in thinking about the anachronism of 
this treaty that had a purpose during the Cold War, but I think 
has long since outlived that military purpose.
    Senator Inhofe. Thank you very much. That is a very good 
answer.
    Just for a minute, could you describe some of the 
advantages of a sea-based system, and then we can kind of go 
into how we might be able to move toward that.
    Secretary Wolfowitz. You always have to qualify these 
things by if it works, but if it worked, if we could develop 
the capability to intercept from the sea, I think there are at 
least three benefits that you get from it. I am sorry, I 
started to say advantages, but I think one needs to get away 
from the mind set that one system is better than another 
system.
    In fact, one of the advantages of developing sea-based 
capability allows you to introduce another method of 
interception, another point at which you can intercept, another 
complication for any attacker, and so the more different things 
that work, the better off you are.
    Number two, by being mobile and deployable you could locate 
it in a crisis situation closer to wherever the relevant threat 
is, and that, one could imagine, could be useful.
    Finally, because it is mobile and could be located in a 
crisis situation, depending on where the crisis is, it might 
provide you with boost intercept capability, and I think of all 
the phases at which you would like to be able to intercept for 
reasons I said to Senator Akaka, boost phase is the place I 
would most like to be able to get things.
    Senator Inhofe. I think you made that very clear. My time 
has expired. I did want to ask, if there is anything you would 
like to suggest to us? This is our fourth test. I believe the 
first one was successful. We had a couple that were not, and 
you have not really talked too much about what we are going to 
do next time, where do we go from here. Is there anything you 
want to share with us that you have not already?
    General Kadish. Well, Senator, I think we are going to go--
--
    Senator Inhofe. Maybe more sophisticated decoys?
    General Kadish. A lot will depend on the internal data 
analyses to see if we want to proceed and replicate the same 
tests, and then we will be looking at complicating it, but 
those decisions will be taken over the next month and a half.
    Senator Inhofe. Thank you very much.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Mr. Secretary, in a recent commentary in the Washington 
Post, you stated two of the most important conditions for 
success in building and deploying a missile defense system. I 
guess I would like to ask if you would agree that these would 
represent two of those important conditions for success. One, 
prove the technology before deployment, and second, that we 
reach agreements with Russia and other nations that ensure the 
defenses will increase rather than detract from global 
stability.
    Secretary Wolfowitz. Well, certainly I agree with the 
general proposition that you want to prove technology before 
you deploy. As General Kadish has said, there is always the 
judgment to be applied as to what level of demonstration you 
require to achieve a certain level of capability, but clearly 
there is no point in deploying things that do not work.
    Second, I think the way you said it was reaching agreements 
with other nations to ensure that missile defense increases 
stability rather than decreases it. In that general way, I 
think I would agree, but I would certainly point out I do not 
expect to get Iraq or Iran or North Korea to agree to our 
deployment of ballistic missile defense.
    I think some of the stability we would hope to achieve in 
the world is precisely from demonstrating to them that their 
large investments in their offensive missile capabilities will 
come to naught.
    Senator Dayton. Regarding Russia, and the pact we have with 
them, in your testimony today you indicate one of the possible 
violators of the ABM Treaty would be the systems integration 
test, which is scheduled for next February, and the treaty 
requires the 6-month notification if we are going to 
unilaterally withdraw from it.
    So if I do the arithmetic, that says to me that if you 
determine through what your outlined procedure is today that 
this test will violate the ABM next February, by next month, 
August, the administration will have to notify Russia and the 
world of its intention to withdraw from the ABM Treaty. Is that 
the kind of timetable we are looking at here, respectively?
    Secretary Wolfowitz. I believe these are a series of tests 
that we will be conducting. I do not believe we are going to 
have--if there were a determination that this is a treaty 
problem, I imagine we would just wait a little while. Is that 
the plan, General?
    General Kadish. Yes, sir.
    Secretary Wolfowitz. It is a series that begins next 
February. It is a series that raises issues. I do not think we 
consider that if it is a treaty issue, that we would proceed 
with that particular test, and force the issue by next 
February.
    Senator Dayton. There is another reference to the missile 
defense test bed, the construction beginning next spring, as 
another possible violation of the treaty, which again is going 
to require a 6-month notification, that would require that 
notification occur sometime in the fall. I guess without 
quibbling over a particular month or another, it seems that 
this reflects the kind of very accelerated timetable that this 
testing is proceeding under as it relates to the ABM Treaty, 
and I guess that leads into my question.
    You reference the President's intention to meet with 
President Putin this week and have reciprocating visits, which 
I think is commendable. You also talked in your testimony last 
week about moving beyond the ABM Treaty and setting up this new 
agreement that reflects the new strategic framework.
    In the history of arms control negotiations and agreements, 
I am not aware of any major agreement that has proceeded on the 
kind of accelerated timetable that this would require. I guess 
I am wondering, are you aware of such a timetable such as this 
having been met in the past, and if not, what makes you think 
it can be achieved this time?
    Secretary Wolfowitz. Well, the history of arms control 
agreements are mostly these protracted negotiations between two 
heavily armed, essentially hostile adversaries, the United 
States and the Soviet Union, and you are right, those 
negotiations took forever. I participated in a lot of them, and 
it was reminiscent of root canal work, and we are certainly not 
going to reach an agreement early if we approach it in that 
way. But the premise on which we are proceeding is that Russia 
is not the Soviet Union.
    This is not a potential adversary. It is, in fact, a 
country that we would like to bring into closer partnership 
with us. It is a potential friend, maybe even a potential ally, 
and I think that is the way we want to move forward.
    I must say that if someone envisions a negotiation like the 
old ones with the Soviet Union, and that we will not in any way 
encounter constraints to the ABM Treaty during the time of a 
protracted negotiation like that, I think, Senator, that really 
is giving the Russians a veto over our program, and that is the 
dilemma we are caught in here.
    I think everyone agrees we need to move forward in missile 
defense. We do not want to give the Russians a veto. I think 
everyone agrees also we would like to achieve a cooperative 
outcome, and I think that forces a fairly rapid schedule.
    I would emphasize, too, though I hope this is not where we 
end up, that even in the worst case if we say these are 
important things we have to proceed with them. If we do not yet 
have an agreement but we need to withdraw, that certainly 
should not be the end of negotiations. In fact, most of the 
negotiations that you refer to did not begin from a treaty. 
They began from an American program. In fact, the ABM Treaty 
itself grew out of a vote in this body to move forward with a 
Safeguard ABM system.
    Senator Dayton. I would agree with you, Mr. Secretary, that 
we certainly do not want to give Russia a veto. On the other 
hand, what seemed to be an agreement that the improvement, or 
at least the retention of global stability is the sine qua non 
in this arrangement, so as you say, you are in a delicate 
situation. It would seem that if the actions diplomatically of 
this administration are such that they cause Russia to respond 
adversarially, rather than cooperatively, that would seriously 
undermine even the military's intent of this undertaking.
    Secretary Wolfowitz. That is a fair point, Senator, but we 
are doing more than trying to achieve an agreement with the 
Russians. We are doing a lot of things that they can observe, 
and I think ought to discourage them from any kind of 
precipitous or dangerous reaction. I come back to what I think 
is really very fundamental, and that is the reductions in our 
own offensive nuclear forces.
    We are already taking some without any protracted 
negotiations. We did not even negotiate a week to remove 50 
MIRV'd MX missiles from our force, nor to remove four Trident 
submarines, with nearly 800 nuclear warheads. We are taking 
more than 1,000 nuclear warheads out of our force with this 
budget alone, and it did not take a week of negotiations with 
the Russians.
    I mean, you go back 10 years, when the previous President 
Bush, and I believe it was September--I think it was even 
September 27 of 1991--announced that we were going to make 
major reductions in both our tactical nuclear forces and our 
strategic nuclear forces, and that we hoped the Russians would 
reciprocate, within 10 days and no negotiations. No first-class 
tickets to Geneva, not even any coach tickets to Geneva, yet 
within 10 days President Yeltsin and President Gorbachev, who 
was still the president at the time, responded positively.
    We did more arms control in those 10 days than in 20 years 
of negotiating with the old Soviet Union, so I think it really 
is a different era, and we have a different view of Russia. I 
hope they realize that we have a different view of them, and I 
hope they have a different view of the United States.
    Senator Dayton. That is a very good point, sir, and I wish 
you success with that undertaking.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Dayton.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. With regard to 
the treaty, I do salute you and the President and others for 
the consistent message you have sent to the world that we want 
to work and be responsive and listen and cooperate, but we do 
have a primary responsibility, which is to defend the United 
States from missile attack, which you just noted we have no 
defense for whatsoever.
    We also know that more and more nations are developing a 
missile attack system with the capability of reaching the 
United States, and I am glad, Secretary Wolfowitz, that you are 
there, having served on the bipartisan commission that 
evaluated this problem and reached the conclusion that we did 
need to deploy a national missile defense system, before you 
became Assistant Secretary of Defense.
    One of the objections that has been raised is that there 
has been this huge increase in spending on national missile 
defense. There has been a 56-percent increase in spending for 
ballistic missile defense. I believe that refers primarily to 
going from President Clinton's $5 billion that he planned to 
spend on ballistic missile defense to $8 billion that this 
administration proposes in its new budget.
    I would like to talk about those numbers a little bit. 
Under the numbers as I calculate them, President Bush in his 
defense budget, including the supplemental this year, has 
proposed a $38 billion increase in defense over the last year's 
budget, and that is a significant increase for sure, but it 
does show that the $3 billion increase that is alleged here is 
not as big as some would say.
    I would like to ask a little further, General Kadish, of 
the $3-billion increase from $5 billion to $8 billion that is 
being proposed here. A lot of that is involved with other 
missile systems that many on this committee strongly support, 
like the Patriot and the THAAD, the theater missile defense 
that has been going on for years.
    Can you tell us pretty much where the numbers come out 
there, how much of that $3 billion is not in ballistic missile 
defense, but in the theater and the Patriot-type missiles that 
all of us agree need to be built?
    General Kadish. Senator, I would like to get you the exact 
figures for the record, but as I recall, all but about $800 
million to $1 billion of it is in the theater, or dual-use type 
of systems, but I would like to be precise and answer the 
question for the record.
    [The information referred to follows:]

    In the previous construct of shorter-range theater missile defense 
and longer-range missile defense, the following budgets are requested. 
All funds are requested in BMDO's budget except where noted. Programs 
marked with an asterisk are split evenly between the two categories as 
their efforts apply to both.

                 FISCAL YEAR 2002 AMENDED BUDGET REQUEST
                        [In millions of dollars]
------------------------------------------------------------------------
                                     Short and Medium
                                          Range            Long Range
------------------------------------------------------------------------
Patriot Advanced Capability -3....            \1\ 784  .................
Medium Extended Air Defense System             \1\ 74  .................
Navy Area.........................            \2\ 395  .................
Ground Based Terminal (THAAD).....                923  .................
Arrow.............................                 66  .................
Ground Based Midcourse............              3,285  .................
Sea-Based Midcourse (NTW).........                596                 60
Space-Based Kinetic Boost.........                105  .................
Airborne Laser *..................                205                205
Space-Based Laser project *.......                 85                 85
SBIRS-L *.........................                210                210
Advanced Technology *.............                 56                 57
International programs *..........                 38                 37
Systems Engineering *.............                410                411
                                   -------------------------------------
  Total...........................              3,842              4,455
------------------------------------------------------------------------
\1\ In Army budget.
\2\ In Navy budget.


    Senator Sessions. So we are really talking about, in terms 
of ballistic missile defense, no more than half of the $3 
billion, maybe less, actually going into the development of a 
Ballistic Missile Defense program.
    General Kadish. Under the old definitions, that is heading 
in the right direction. We are trying to define this as a 
system now, a layered system.
    Senator Sessions. I know you see it correctly as one system 
and not a series of systems, but many here say, well, we 
approved theater, we approved Patriot, but we do not approve 
ballistic. When you look at those numbers, that is not much, 
when you take $1.5 billion out of the $30 billion increase 
President Bush has proposed, we are talking about 5 percent or 
less of his increase going to missile defense, and that is not 
reckless spending, in my view. Am I far wrong from that, 
Secretary Wolfowitz? Do you see it that way?
    Secretary Wolfowitz. I see it that way, and we can try to 
get you precise numbers.
    I do know that just the PAC-3 increase alone is $750 
million, the Navy area-wide is $396 million, so that is $1.3 
billion that is exclusively for shorter-range systems. We are 
trying to get away from this national and theater, but there is 
shorter-range and longer-range.
    I think to understand precisely what General Kadish said a 
few minutes ago, there is a large chunk of it that is 
applicable to short, intermediate, and long-range. You can 
improve better radars, you have Airborne Lasers, there are a 
whole variety of things that will intercept missiles of a 
variety of ranges, so I think it is probably roughly correct 
that there is between $1 and $2 billion that is exclusively for 
shorter-range, including two programs I mentioned, and between 
$1 and $2 billion that is exclusively for longer range, and the 
rest is dual applicable. I can get you the exact numbers.
    Senator Sessions. That would represent less than 1 percent 
of the total defense budget of $300-plus billion.
    Secretary Wolfowitz. $1 billion would be one-third of 1 
percent.
    Senator Sessions. As you had concluded, the President and 
Secretary of Defense, and really the President announced it 
during the campaign, that he considered having a national 
defense system to be a national priority.
    Secretary Wolfowitz. It is, Senator, and it is a defense 
priority. The threats that we are talking about, if they were 
effective and we had no ability to cope with them, could render 
all of the rest of our investment in defense capabilities 
useless, and that is why hostile countries, I think, are 
investing so much money in their own offensive capabilities.
    Senator Sessions. So hostile countries are investing in 
attack missiles, missiles that eventually, as they improve 
them, can reach the United States, and oddly, they are the ones 
that are opposed to us building a national missile defense, and 
our allies, Israel and Taiwan and Japan and other countries, 
are very interested and supportive, or at least are interested 
and generally supportive of what we are doing, is that not 
correct?
    Secretary Wolfowitz. I think you find, Senator, the closer 
they are to the threat, the more supportive they are.
    Senator Sessions. Well, I am not surprised that nations 
like some of our adversaries would be opposed to this, because 
we would be denying them a capability of intimidation and even 
attack that they presently think they can have in the years to 
come.
    My time is up. I just would like to say that I thank you 
for the courage to confront this issue openly and talk about it 
plainly, and to recognize that the treaty does contemplate 
completely that we would not have a national missile defense 
system. There is no need to try gimmicks to get around it. Let 
us confront it. Let us work with the Russians and our European 
allies and others, and see if we cannot improve, and establish 
a way to get around that, and build what we need to build for 
America.
    Thank you for your work.
    Secretary Wolfowitz. Thank you, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. First, I want 
to thank the Secretary and the General for being here today and 
to extend my congratulations on a successful test.
    Mr. Secretary, I would like to get your take on the Russia-
China agreement that was just announced during the last day or 
so regarding either the ABM Treaty or an ABM Treaty. Is there 
any authority for them to do that, for Russia to do this under 
the existing treaty, to add unilaterally, or is this a separate 
treaty arrangement without regard to our treaty with the former 
Soviet Union and others?
    I guess the question really is, is this sort of a tacit or 
de facto veto of what we are attempting to do with the missile 
defense system as it relates to our treaty with the former 
Soviet Union, which is in question, and finally, were we aware 
that this was going to this treaty, or that this agreement, if 
not a treaty, between Russia and China was imminent?
    Secretary Wolfowitz. Senator, we were definitely aware they 
were likely to sign a treaty of friendship during this meeting. 
I have to confess I have not yet seen it, and I do not know 
that we have the exact text of what they have signed.
    Senator Ben Nelson. But it is outside of the agreement that 
we have with the former Soviet Union which is in question.
    Secretary Wolfowitz. Well, I think it has no direct bearing 
on the ABM Treaty. I think what it does indicate is, at least 
if one thinks about what the Russians are doing here, first of 
all, they have a 12,000 mile border with China, and they have 
good reason to try to have good relations with that country.
    Second, we know that in relationships like this, countries 
try to use their relationship with another country to try to 
get some leverage in another negotiation, and this clearly is 
intended to get some leverage with us, and we know outside of 
that arrangement, and frankly much more disturbing, that the 
Russians are selling a number of military systems to China that 
some day I think they may come to regret.
    There is no direct connection to the ABM Treaty, and I 
think we can reach the kind of understanding we are hoping to 
reach with the Russians consistent with their having a treaty 
of friendship with China.
    Senator Ben Nelson. So you do not see this as a de facto 
veto of our efforts to move forward without regard to an 
agreement with Russia.
    Secretary Wolfowitz. I do not think it is a veto. I think 
it probably is, among other things, intended by the Russians to 
give them more negotiating leverage, but it certainly does not 
give them a veto.
    Senator Ben Nelson. At least it may be in part sending a 
message.
    Secretary Wolfowitz. It may be, yes.
    Senator Ben Nelson. I want to thank you for your patience, 
or at least your appearance of patience. When I keep trying to 
bore in on some definitional things so I know whether we are 
moving from development to deployment, I am really trying to 
figure out whether there is a difference, or if it is a matter 
of shades of gray.
    I get a little concerned when we begin to lump all defense 
systems together--theater as well as intercontinental--as 
layered, because I am not sure where one shade of gray begins 
and the other ends. Maybe that is the fair way to do it, but it 
is a harder way for a person such as myself to analyze where we 
are, and I was taken by General Kadish's comment that there is 
a long road ahead.
    At least on a road, if I am looking at a map, I know from 
point A to point B the points in between. I cannot determine 
for myself right now the points in between from development to 
deployment. Sometimes I think we are definitionally encumbered 
here, and it makes it more difficult for somebody such as 
myself. Is it a definitional difference, or is there a real 
difference?
    I need to know whether Fort Greely is a test bed becoming 
an operational facility, not whether the decision has been made 
to do that, but is it a very short step? Is it a very short 
shade of gray difference from being a test bed to an 
operational entity? That is what I am really trying to get my 
arms around as we go through this.
    I applaud the test. I think it was exceptional that it was 
successful, but I am still concerned about not knowing the 
difference between development and deployment.
    Secretary Wolfowitz. Well, we can come to the treaty part 
of it, or try to, if you like, in a minute, but I think the 
important thing, when we are engaged in a weapons system 
development for us, and the General can elaborate on this, 
there is a very important difference between the development 
stage and the deployment stage, and there are very important 
hurdles you have to cross to get to the point of a deployment.
    When you do a deployment you have multiyear plans for how 
you are going to spend the money and what the total system is 
going to look like at the end, whereas when you are doing 
development, by definition, you are feeling your way. You do 
one test to see where you go with the next test.
    Senator Ben Nelson. Is that correct? Excuse me. Is that 
pretty much where we are right now with this missile defense 
system?
    Secretary Wolfowitz. It is, but I think if I take an 
example from a different arena, maybe you will realize that it 
is not an effort to be obscure that is causing the obscurity 
here.
    We had a system in development called Joint Surveillance 
and Target Attack Radar System (JSTARS), which gave us this 
remarkable ability to track moving vehicles on the ground, and 
we had no deployment plans for it. It was not far enough along. 
It had not been proven out.
    Then suddenly, Saddam Hussein invaded Kuwait, and we needed 
emergency capability to track vehicles on the ground, and the 
decision was made that even though JSTARS had not met the 
requirements that we would normally impose to do a multiyear 
procurement to send it to a war, we sent it to a war, and it 
had a great deal of operational capability.
    Senator Ben Nelson. In a theater layer.
    Secretary Wolfowitz. What we are talking about in Alaska is 
something like that. It is a test bed. It will be used to 
improve our knowledge of how the system works, but it is a test 
bed designed with the thought in mind that if it works as well 
as we hope it will work, it could have a rudimentary 
operational capability.
    Senator Ben Nelson. So the theater capability we are 
looking at right now from this test bed could develop into 
intercontinental capacity, is that fair to say?
    Secretary Wolfowitz. I would put it just slightly 
differently, but I think the idea is the same, that this 
developmental capability could become, with very little 
modification, an operational capability.
    Senator Ben Nelson. My time has expired. Thank you very 
much. I appreciate you both being here.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Bunning.
    Senator Bunning. First of all, I would like to ask that my 
opening statement be put into the record.
    Chairman Levin. It will be.
    [The prepared statement of Senator Bunning follows:]
               Prepared Statement by Senator Jim Bunning
    Thank you, Mr. Chairman. Gentlemen, thank you for appearing before 
us again. I would like to begin by congratulating you on a successful 
test this last weekend.
    The defense of our Nation from all kinds of threats is the most 
important responsibility of government. Ballistic missiles, and the 
weapons they carry, contain a threat of destruction so terrible that 
ballistic missile defense must be our first priority in protecting this 
Nation.
    During the 1980s when President Reagan wanted to deploy 
intermediate range ballistic missiles in Europe, many resisted, 
believing that it would be provocative to the Soviet Union. The result, 
as we all know, was that we were able to convince the Soviets to remove 
all of their intermediate range missiles, in exchange for removing 
ours.
    The world is very different today than it was then. Russia is not 
our enemy, and we are not proposing to deploy an offensive system, as 
President Reagan did. We are going to deploy a defensive system, that 
will protect our citizens from the threat of a rogue nation or of an 
accidental launch.
    Our missile defense system will not threaten the Russian's 
strategic capabilities. Once they know that to be true, they will 
accept our program, and perhaps wish to work with us to establish their 
own. The only people who should be upset by our defensive shield, are 
those who might one day wish to threaten us with their missiles.
    It is important to remember that arms control treaties exist 
because they improve the security of both parties to that treaty. When 
the strategic situation changes, as it has since the end of the Cold 
War, and those treaties hinder security rather than strengthen it, then 
they serve no further purpose. This is clearly the case with the ABM 
Treaty.
    Gentlemen, I realize that we have a long way to go to protect our 
country from this threat, but we will never get there unless we 
continue to press forward.

    Senator Bunning. I congratulate you, General and Mr. 
Secretary, for the successful test that we had last Saturday. 
It is a step in the right direction, obviously. To succeed is 
better than failing, and to move one step forward in the 
missile defense program is very important at this point in 
time.
    A question for Secretary Wolfowitz. Russia is actually 
located a lot closer to a large number of countries that are 
developing ballistic missile technology. They are closer than 
we are. It would seem to me that the threat to their nation is 
at least as great as the threat to ours. If that is the case, 
then it would seem to be in their national interest to develop 
national missile defense also. Do you feel that a limited 
national missile defense is in Russia's national interest, as 
well as ours?
    Secretary Wolfowitz. I do absolutely, Senator, and if you 
will indulge me for a minute, we had talks with the Russians 9 
years ago. In the summer of 1992 Dennis Ross led a delegation 
to Moscow and met with Foreign Minister Mamyedov. One of the 
things they addressed specifically was the situation of the 
threat of third countries to both of us, and the impression our 
people had at the time was that there was a great deal of 
Russian interest in the possible danger to themselves from 
these capabilities, and at one point in the discussions, the 
subject came up.
    The Russian side said, well, what would you Americans do if 
you had a missile defense capability in space and one of these 
third countries launched a missile at us, and the American side 
said, well, if we could, we would shoot it down, and this was 
the moment at which people were falling asleep in this hot 
room, and they suddenly woke up. The Russians were, I think, 
quite surprised, pleasantly surprised that in this new world we 
would see a threat to them from third countries as something we 
would like to help them defend against.
    We talk about a new strategic framework with Russia. We do 
not just mean amendments to the ABM Treaty, we mean a different 
kind of approach to the whole subject. I think it would 
include, Senator, along the lines of your question, every 
effort to work cooperatively on improving missile defenses, 
because it is not in the interest of the United States--and let 
me repeat this--it is not in the interest of the United States 
or Russia to be vulnerable to limited missile attack from any 
direction. I do not believe it is in the interest of Russia for 
the United States to be vulnerable to limited missile attack. I 
believe that we have more to do working together to cooperate 
in dealing with that than in trying to work around the edges of 
a 1972 treaty between two hostile adversaries.
    Senator Bunning. I would like to follow up. Would you 
characterize the fiscal year 2002 testing program as being the 
first step in developing a missile defense system that is more 
concerned about being successful than being in compliance with 
an outdated treaty from 1972 which does not take into account 
modern threats?
    Secretary Wolfowitz. I think this is the first time that 
the Secretary of Defense--and General Kadish I guess should be 
the witness here--when Secretary of Defense Rumsfeld said, I 
want you to develop the best possible development program to 
move as rapidly as we can to explore these technologies and be 
in a position to deploy. Do not worry about the ABM Treaty. If 
there are ABM Treaty issues, you through your compliance review 
group will bring them to me, but I will resolve them. I think 
that was the first time you had that guidance, is that not 
correct, General?
    General Kadish. Certainly during my tenure, yes.
    Senator Bunning. Let me ask the General a follow-up, then. 
The Clinton administration designed its ballistic missile 
program around the goal of ensuring compliance with the ABM 
Treaty. As a result, it only pursued technologies that would 
not violate the treaty, rather than pursuing technologies that 
had the best chance of working.
    Unlike the previous administration, I actually want to see 
a missile defense system that works. The current RDT&E program 
pursues a number of different technologies that the previous 
administration did not. Do you believe that the structure of 
the current program provides the most likely chance of 
developing a system, or a group of systems that can actually 
defend the American people?
    General Kadish. I do, Senator, and that is the basic thrust 
of the multilayered system approach, because we have to 
consider mobile systems, sea-based and others, in order to 
achieve that, which do have treaty implications.
    Secretary Wolfowitz. Senator, in fairness, the last 
administration did submit in its last budget a request for 
money for the Shemya radar, which, as a matter of fact, would 
have been a violation of the ABM Treaty. They were prepared at 
least in that area to move forward, but I think constrained the 
program artificially with a variety of technologies that 
General Kadish is pursuing that I think were kept off of the 
table because of their treaty implications.
    Senator Bunning. One last question. It is about the ground-
based interceptors and radars in Alaska. Please, please explain 
to me--and I know you have tried to explain to many others--the 
advantage gained for the program by that placement. I mean, is 
it specifically to counter North Korea, or is it specifically 
to develop and test the technology?
    Secretary Wolfowitz. Let me try, since I am not the 
technician, and then the technician can correct it, but as I 
have understood the explanations, and it made sense to me, in 
order to move beyond kind of rudimentary capability that was 
demonstrated in the test Saturday night that you saw the film 
strip on, in order to begin to introduce the sort of real-world 
complications that I think Senator Akaka referred to with 
multiple decoys and multiple angles, longer ranges, in other 
words, in order to be more realistic, you need a different test 
bed, a more dispersed test bed.
    Alaska allows us that geometry. It also puts it in a place 
where that test bed will ultimately begin to be the basis of an 
operational capability, and it is a philosophy of, if we are 
going to spend this much money on a test bed, let us have it be 
in a place where it could also become operational, rather than 
deliberately put it somewhere where it cannot be operational, 
and then have to reproduce that whole expenditure somewhere 
else.
    General Kadish. I would agree wholeheartedly with that. 
That is exactly why we chose to do it this way. Instead of 
building it twice, we build it once, basically.
    Senator Bunning. My time has expired. I want to thank you 
both for your straightforward answers, and Godspeed.
    Chairman Levin. Senator Cleland.
    Senator Cleland. Mr. Secretary, are you on track for 
deploying a national missile defense system by 2004?
    Secretary Wolfowitz. Senator, I am not sure what on-track 
means, and you may not have been here when General Kadish 
explained, with this test bed in Alaska, if things worked well 
we would have expect to have in the time frame 2004 to 2006 
some rudimentary capability to set up an operational system, 
but it is rudimentary. It is not something I would call a 
national missile defense system. It is not a long-term 
procurement.
    Senator Cleland. Will that violate the ABM Treaty?
    Secretary Wolfowitz. That would surely violate the ABM 
Treaty.
    Senator Cleland. How much will that system cost?
    Secretary Wolfowitz. What is the test bed, General?
    General Kadish. The test bed itself, or a larger system?
    Senator Cleland. How much will this system, this 
rudimentary system deployed between 2004 and 2006, that 
violates the ABM Treaty, how much will it cost?
    General Kadish. I would like to be precise for the record, 
but as I remember the number, the physical emplacement of the 
test bed is about $750 million out of the budget for the 
development program.
    [The information referred to follows:]

    The 2004 RDT&E test bed provides a development test bed consisting 
of an upgraded Cobra Dane radar in Alaska as a surrogate for the 
planned Upgraded Early Warning Radar (UEWR) capability, initial In-
Flight Interceptor Communications System (IFICS), and Battle Management 
Command Control and Communications (BMC\3\) capability, five silos, 
Command Launch Equipment (CLE), and software upgrades. Up to five 
ground-based interceptors using the Payload Launch Vehicle Plus (PLV+) 
booster, which is comprised of the current test configuration booster 
plus a Minuteman (MM) II first stage, could be installed expeditiously 
to provide a contingency defense if needed in the fiscal year 2004 to 
2006 timeframe.
    In fiscal year 2002, BMDO is developing the test bed with RDT&E 
funding exclusively.

        <bullet> Total fiscal year 2002 = $786.485 million

    Major Fiscal Year 2002 Test Bed Activities include:

        <bullet> Initiate development of five PLV+ interceptors 
        ($305.444 million)
        <bullet> Initiate upgrades to Cobra Dane radar ($55.000 
        million)
        <bullet> Execute test program ($98.500 million)
        <bullet> Initiate Kodiak Island target/interceptor launch 
        facility modifications ($21.700 million)
        <bullet> Kwajalein Missile Range upgrades ($6.000 million)
        <bullet> Accelerate BMC\3\ development and installation 
        ($17.020 million)
        <bullet> Initiate facility construction activities at Fort 
        Greely ($273.121 million)
        <bullet> Efforts to mitigate community impacts at Fort Greely 
        ($9.700 million) 

    Senator Cleland. I am not talking about the development 
program. I am talking about the total system here that you are 
going to deploy that will violate the ABM Treaty, that you are 
going to deploy this rudimentary system between 2004 and 2006. 
You cannot tell me it is going to cost just $750 million.
    Secretary Wolfowitz. Senator, that is why it is a very 
rudimentary capability. If you wanted to turn it into a full 
national missile defense capability, it would be more money, 
more time, and a whole different set of decisions.
    Senator Cleland. We are spending $3 billion just to test 
out this rudimentary system here. Next year, it will be more 
money, and the year after that. I mean, what is the total cost 
of the system, to deploy it, that will violate the ABM Treaty? 
Do you know?
    General Kadish. I would have to get the actual number. I do 
not know off the top of my head, but the number was in 2002 not 
the total cost, nor the life cycle, nor any of the other ways 
we defined it that I just referred to.
    Senator Cleland. It seems like before we walk down this 
road here over the next 4 or 5 years, we ought to have a sense 
of the total cost of the system. Can either one of you share 
that with us?
    Secretary Wolfowitz. We will get you something for the 
record, Senator.
    Senator Cleland. You do not know now?
    Secretary Wolfowitz. I do not know the outyear cost.
    Senator Cleland. Well, I think the costs are obvious. As to 
the fall-out from what this effort will do in violating the ABM 
Treaty, the fall-out has already produced an amazing picture.
    We have driven the Russians and the Chinese into the arms 
of one another. According to the New York Times the Russians 
and the Chinese joined to oppose a missile shield for the U.S., 
and one Russian commentator pointed out that it was, ``an act 
of friendship against America''.
    It was a chilling picture for me, because the last act of 
friendship between Russia and China against America they got 
involved with, I was a part of. It was called the Vietnam War, 
and I almost got killed by a Russian 122 millimeter rocket in 
1968, and so this is a chilling photograph for me. I think it 
should be chilling for all of us to understand the impact of 
what we are doing here. We have a cost associated with this 
effort, and this is just phase 1, if you might want to indicate 
it, of that cost.
    Politically, I think it makes the world less secure, and it 
is painfully obvious what the Russians are going to do. Two 
years ago I sat in a meeting with Senator Levin and Senator 
Lugar, one of the authors of the Nunn-Lugar program which this 
administration is underfunding by over $100 million, I might 
add, and sat in the presence of the former director of the 
Russian rocket forces, and 2 years ago he told us that if you 
deploy a national missile defense system, we will not build 
more rockets, we will just MIRV our warheads. We will go from 8 
warheads per missile to 12.
    I think that makes the world less secure. It is painfully 
obvious that the Chinese, not only with this friendship pact 
with the Russians, but they are going to go on their own and 
build more missiles. It seems to me that makes the world less 
secure, so I think there is a price exacted here, whatever the 
actual total in dollars to us.
    Now, in testimony last Thursday, General Kadish stated that 
your missile defense proposal has no milestones by which to 
measure progress. At the Frontier Institute last Friday, 
Secretary Rumsfeld said, ``We do not have a proposed 
architecture. All we have is a series of very interesting 
research and development and testing programs''.
    In fiscal year 2001, the entire Department of Defense 
budget is $9 billion for basic research and development, $9 
billion for basic research and development in all of DOD. You 
are now proposing to spend $8 billion on missile defense 
research and development alone. How can you, Mr. Secretary, 
justify spending $8 billion on missile defense if you have no 
milestones, requirements, or architecture in mind? If you do 
not know where you are going, how can you know what it will 
cost?
    Secretary Wolfowitz. I think that is the essence of 
development programs. We are not setting up an architecture 
until we know what we can do. We do not think we should spend 
enormous amounts of money on architectures until the technology 
has been proven. We are pursuing a great deal of research and 
development, and we think the total in this year's budget is 
$47 billion, of which this is a very important piece.
    I do not know if you were in the room when the subject was 
discussed. A good deal of that $8 billion you referred to is 
either exclusively theater missile defense or dual use, theater 
and long-range missile defense. The portion that is exclusively 
for long-range missile defense is a very small fraction of that 
$8 billion, and I think a very necessary fraction.
    General Kadish. Senator, I might add that when we referred 
to specific major defense procurement milestones, it is true we 
do not have those right now, but that does not mean that we do 
not have plans, and we are developing criteria to move forward 
on a very disciplined way on a development program. We do and 
will have those. How they lead to specific procurement and 
deployment milestones, however is yet to be determined.
    Senator Cleland. My time is up, but the Chiefs have 
identified some $32 billion in unfunded requirements, and part 
of that is still making up the precision weapons inventory that 
we expended more on.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman, and I would first 
of all like to thank the Ranking Republican, Senator Warner, 
for his comments at the start of the hearing, and I would also 
like to congratulate General Kadish and everyone who was 
involved on what appears to be a very successful Saturday 
evening.
    I know you were all under a great deal of pressure, and I 
can think back 2 years ago where you had a failure due to a 
fogging over of the optical system from the cooling equipment. 
It seems to me you learned something from that, and the last 
failure we had here, where you had a failure of a system we 
have been using over and over. It just proved to us again we 
are dealing with a machine, and even the best designed machines 
sometimes surprise you.
    As you indicated in your comments, this is a long journey. 
It is step-by-step, but at least I am pleased that we completed 
the steps still standing up, and I think that if this had been 
a failure we probably would have had a great deal more 
attendance at this committee meeting today, so I want to 
congratulate you on where you stepped forward this last 
weekend.
    During Thursday's hearing, I had a question regarding the 
test, and the ABM compliance review, and I stated that the 
compliance review group certified a test on June 30, 2000, and 
I believe I made a misstatement in that I said the test itself 
took place on June 8 of 2000. I want to correct that for the 
record, because the certification actually took place on June 
30, with the test taking place on July 8, and so then I want to 
restate my question for the record.
    Does the process to determine the compliance of program 
activities during this budget cycle differ significantly from 
the process used in past years?
    Secretary Wolfowitz. I believe it does, Senator, in that in 
past years they would assess events, and frequently sort of go 
down to the wire back and forth with the developers, and the 
fundamental premise was, if anything was ultimately decided to 
violate the ABM Treaty, they would not do it.
    Since then we have told General Kadish to proceed 
differently, to proceed with the most aggressive possible 
development, and that means we have asked them to surface 
compliance issues much earlier in the process. So we are trying 
now to change the process so instead of last-minute 
determinations we get notification well in advance of 6 months 
of the actual event.
    Senator Allard. So in other words, have we deviated from 
the same budget process as the compliance vetting procedures, 
as we have done in the past?
    Secretary Wolfowitz. No, we have not.
    Senator Allard. That is the question.
    Secretary Wolfowitz. No. We are applying the same 
compliance standards. We are just trying to apply them much 
earlier, because we realize that we are consciously in a zone 
where we----
    Senator Allard. You are bringing it up appropriately for 
discussion.
    Secretary Wolfowitz. Correct.
    Senator Allard. But then your fiscal year budget for 1999, 
and the fiscal year budget for the year 2000 budget request, 
that was not certified by the compliance review group before 
the President submitted it, was it?
    Secretary Wolfowitz. I do not believe any of the previous 
budgets were, and the budget for last year included an event 
that I do not think anybody disputes would be a treaty-
violating event, and that would have been the construction of 
the radar in Shemya in Alaska, which we decided not to proceed 
with.
    Senator Allard. Thank you. It has been suggested that 
because the Department of Defense cannot say for certain now 
whether the testing activities you plan are compliant with the 
ABM Treaty the Senate cannot approve the budget, but my 
understanding is that compliance determinations are almost 
never made well in advance of a test or other activity, and 
that it is virtually impossible to do so because the plans 
often change right up to the time of the test.
    Now, my question is, is that a fair description, 
characterization of the process?
    Secretary Wolfowitz. Senator, that is a fair description of 
the process, and obviously if you get within the 6-month limit 
and you are under the treaty, it is law and we will follow it, 
and therefore, if at the last minute we discover a compliance 
problem we will fix the event to comply, but we have simply for 
the first time now tried to make sure the compliance process 
surfaces these problems earlier, and as I pointed out, and I do 
not mind repeating it, last year's budget included events that 
would have been judged to be noncompliant, and there was never 
an issue about that.
    Senator Allard. General Kadish, your organization prepared 
information for another Senator not on this committee regarding 
compliance determinations for various tests that have occurred 
over the years, and I would like to highlight some of those for 
the record.
    For example, you conducted integrated flight test 1, or 
IFT-1, which was the first test of the exoatmospheric kill 
vehicle, on January 16, 1997, but compliance was not certified 
until December 20, 1996.
    Another example, you pointed out the technical critical 
measurements program, or TCMP flight 2A, was not certified 
until September 14--I mean, February 14, 1996, just 8 days 
before it occurred.
    Also, the risk reduction flight test 1 for what was then 
the National Missile Defense Program was certified 3 days 
before it occurred in 1997, and then a second risk reduction 
flight was certified just 2 days before it was conducted a 
month later.
    Another example is the test of the NMD prototype radar was 
not certified until August 31, 1998, less than 3 weeks before 
it occurred.
    The first test of the Navy theater-wide missile was 
certified November 2, 1999, for a November 20 flight. The IFT 
number 3 for the national missile defense system, which was the 
first successful intercept attempt, was certified on September 
28, 1999, just 4 days before the test.
    The IFT 4 was certified 12 days before the test took place 
on January 18, 2000.
    The certification IFT 5 was issued 8 days before that test 
last summer, but the certification actually had to be modified 
on July 7, the day before the test, because of changes in the 
test plan.
    Is it not the case that the certification for Saturday 
night's test was also modified 1 day before, on Friday, July 
13, because of changes in the test plan, and I would like to 
follow that first question up with a second question. It seems, 
then, it is not unusual at all to be uncertain about whether a 
planned test activity conflicts with the ABM Treaty until 
shortly before the test occurs. Would you agree with that?
    General Kadish. I would agree with that, Senator. Under the 
process we have been using, and I believe those dates are 
correct, I would have to check them in detail, but even the 
Saturday's flight had a modification, as you pointed out.
    [The information follows:]

    The first Navy Theater Wide Control Test Vehicle Test was certified 
September 3, 1997, for a September 26, 1997, flight.
    IFT 4 was certified 12 days before the test took place on January 
18, 2000, and was modified on January 14, 2000, because of changes in 
the test plan.

    Senator Allard. I hope I have stated those situations 
correctly. If for some reason we disagree, let me know, and I 
will correct it for the record.
    I want to thank you for the response, Mr. Chairman. I see 
my time has expired.
    Chairman Levin. Thank you, Senator Allard. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. General Kadish, 
congratulations on your successful intercept over the weekend.
    Mr. Secretary, if I could pursue for a moment a response 
you gave to Senator Allard with respect to compliance 
immediately prior to a test event. You said that if at that 
late period it was noncompliant, in your words you would fix 
the event to comply. Is that your approach to all of these 
potential tests going forward, that you would endeavor to fix 
the event to comply in all cases?
    Secretary Wolfowitz. If you are under the ABM Treaty you 
have no choice, and in fact, frankly, it is not the right way 
to go about optimally pursuing a development program. It means 
that you come up with something you say may be the optimal test 
program, and the lawyers say, whoops, it does not comply, and 
you have to drop it. That is why we are trying to alert the 
senior decisionmakers early, and well in advance of 6 months 
before the event, if we think we see something that will 
definitely raise a compliance issue. But once you are within 
that 6-month window, if you are still within the treaty, then 
you have no choice.
    Senator Reed. You could fix the test to comply, you could 
violate the treaty, or you could simply postpone the test for 6 
months plus a day. Those to me are the three options.
    Secretary Wolfowitz. We have ruled out violating the 
treaty.
    Senator Reed. So as we go forward, the real choice you will 
have when these events are scheduled and you discover they are 
noncompliant, or you think they are noncompliant, is to fix it 
or to postpone the event, or announce you are withdrawing from 
the treaty.
    Secretary Wolfowitz. I think that is correct.
    Senator Reed. Thank you.
    General Kadish, last year I understand the Defense 
Department canceled the Navy theater-wide block 1 program in 
order to pursue the more capable block 2 variant. I gather the 
decision was driven not only by technical shortcomings with 
block 1, but because the planned quantity of 40 block 1 ships 
and Navy block 1 missiles was insufficient. The proposed budget 
we are discussing today asked for $410 million in the 2002 
budget for Navy theater-wide, yet this effort is apparently 
focused once again on deploying a block 1 version of the 
system. Could you explain the funding? Will it go to block 1 
and, if so, why, since there apparently was a decision 
previously to step away from that system.
    General Kadish. Well, Senator Reed, to the best of my 
knowledge there was no formal decision to step away from Navy 
theater block 1. There was an analysis that we did under the 
approach of where we were trying to do procurement and 
development at the same time, that it might be more economical 
and beneficial to go beyond block 1 in that framework.
    Now, under this layered approach that we are pursuing for 
these classes of missiles, the development of the block 1 and 
the completion of the intercept program that underlies that is 
certainly a viable part of our development program, and we want 
to aggressively pursue that. It does not mean that we will 
actually procure these types of systems. It depends on the 
development program and the results of the test.
    Senator Reed. But you are pursuing block one for the 
potential deployment, for a potential deployment?
    General Kadish. To the degree that the Aegis interceptor 
program represents a block 1, we are, and I know I cut that 
fine, but that is an important distinction.
    Senator Reed. That is not only fine, that is metaphysical, 
I guess. Is it fair to say, though, that there were technical 
questions raised about the capability of the system, and also a 
question raised about the availability of sufficient platforms 
that could force you to seriously reevaluate block 1 last year 
that now you are aggressively moving toward a block 1 potential 
deployment?
    General Kadish. Both of those cases we are pursuing are 
test programs, and what I am saying is, the decision to pursue 
that from a procurement program will not be taken until we get 
sufficient test data.
    Senator Reed. Let me move to the THAAD system, which is a 
system, I believe, that has great potential, and I am strongly 
supportive of. It is a fundamentally sound system, I believe, 
but it is plagued by tests which some people ascribe to a 
mentality that puts the schedule ahead of really looking at 
quality control and important fundamentals.
    Last year, I understand the Defense Department considered 
accelerating THAAD but decided not to, since it felt the 
program was at a prudent pace, with acceptable technical risk. 
Again, the proposed budget adds $224 million to THAAD's program 
for 2002 for program acceleration. Once again, are we in a 
situation where experience told us to slow down, but politics 
are telling us to speed up?
    General Kadish. No, Senator. In that particular case the 
money to ``accelerate THAAD'' is designed to buy more test 
hardware early on and take a risk that we will be successful.
    We do not intend to change the structure of our current 
program from a very risk-handling approach, where we are very 
deliberate on ground tests and on redesign of THAAD, but 
instead provide the money to more aggressively test the 
program, and take the idea that should it be successful we 
would have test assets to actually put in an emergency 
situation, and thereby accelerate that capability if we should 
deem it capable. There is no intent to speed up or eliminate or 
cut corners in that program, and that is something that I am 
going to watch very carefully that we do not do across a broad 
spectrum. We cannot afford it.
    Senator Reed. SBIRS-Low is being transferred from the Air 
Force responsibility to your responsibility. The current 
estimate of life cycle cost, about $20 billion or so. That is 
an estimate, and also you have indicated how critical it is to 
your national missile defense plans. Do you have a good idea at 
this point of how much SBIRS-Low will cost?
    General Kadish. We have a generalized estimate, as you 
point out, that varies to some degree up to $20 billion. I 
think we have to get through the next few years of the 
competition and design activity to really nail that down, and 
so I think we are 18 months to 2 years out from really 
understanding what the long-term cost will be, and then it 
would only be an estimate, based on where we are.
    Senator Reed. My time has expired. Thank you, Mr. 
Secretary. Thank you, General.
    Chairman Levin. Thank you, Senator Reed.
    Senator Collins.
    Senator Collins. Mr. Secretary, you testified that the 
administration is pursuing two parallel tracks, that first you 
are pursuing an accelerated research and development and 
testing program, and second, the administration is engaged in 
discussions with Russia on a new security framework. If the 
Senate were to significantly reduce the money in this budget 
for missile defense, what would be the impact on the 
President's attempts to achieve a new strategic framework with 
Russia? Would it lessen the chances of success in your 
judgment?
    Secretary Wolfowitz. Senator, I think it would lessen it 
substantially, because I do think our ability to reach an 
understanding with Russia is going to depend in considerable 
part on their sense that we are moving forward. We are ready to 
move forward together. We would like to do it in a way that is 
cooperative, but if they feel that if they drag their feet we 
will not move forward at all, they might well prefer to drag 
their feet.
    Senator Collins. Thank you.
    Mr. Secretary, Senator Inhofe raised a common criticism of 
missile defense that I want to pursue further with you. Critics 
of missile defense repeatedly contend that the United States 
faces a far greater threat from the so-called suitcase 
terrorist than from ballistic missile attacks from a rogue 
nation.
    It is my understanding that last year the United States 
spent about $11 billion on counterterrorism programs, and that 
this is about twice the amount that was dedicated to pursuing 
missile defense. Is the administration continuing a significant 
investment in counterterrorism programs while continuing the 
accelerated research and development of missile defense?
    In other words, is this not a false choice, and in fact we 
are pursuing aggressively counterterrorism measures while 
pursuing the research for our missile defense?
    Secretary Wolfowitz. I think it is, Senator, and I do not 
have a sufficiently good crystal ball to say which is the more 
likely one, and frankly, I have spoken to a lot of intelligence 
analysts. I do not think their crystal balls are perfect, 
either.
    I do know that the countries hostile to the United States 
are investing a lot of money in both efforts, and probably, if 
you look at their budgets, they are investing more in ballistic 
missiles, just because it is an expensive program. I think they 
understand that it is one of our weaknesses. It is, as I said, 
the one Iraqi capability we underestimated during the Gulf War, 
but I think it is a false choice.
    I think we have to pursue efforts in both directions, but I 
think before you came I was pointing out that these are both 
threats. They should both be taken seriously, but when I think 
about it, what is different about the two is, number one, we 
have some capability against the terrorist threat today. We 
intercepted people coming in from Canada during the Millennium 
event. We have aggressive counterintelligence programs that 
disrupt efforts when we can.
    It is not 100 percent perfect, or we would not have had the 
Cole catastrophe, but we are actively engaged in--we have some 
ability to protect ourselves. We have no ability to protect 
ourselves against ballistic missiles.
    Second, and this is the reason we have no ability, or part 
of the reason we have no ability to protect against ballistic 
missiles, we have a treaty prohibiting us from doing so. There 
is no treaty prohibiting us from working against terrorist 
attacks, and we would never contemplate signing them.
    Senator Collins. General, I would like to switch gears and 
ask you a couple of questions about the Arrow weapons system 
which is being developed jointly by the United States and 
Israel, and would provide Israel with a capability to defend 
against short to medium-range ballistic missiles.
    Last year, Congress provided $95.2 million for the Arrow 
program. Could you tell me what you propose for funding for the 
Arrow this year, and whether or not you will be supporting the 
Arrow system improvement plan which Congress initiated last 
year?
    General Kadish. In the fiscal year 2002 budget, if I recall 
the numbers correctly, we complete the purchase of the Arrow 
third battery and finish our commitment there, and I think the 
dollars associated with that and interoperability type 
activities amount to somewhere around $50 million.
    We have also proposed a $20-million addition over and above 
those activities for further allocation to either the ASIP 
program or the improvement program, or for other activities 
that might be deemed beneficial, so we have added basically $20 
million to our commitment for 2002.
    Senator Collins. It is my understanding that there is also 
cooperation underway with Israel in examining the possibility 
of an intercept in the boost phase over the course of the last 
several years, and that Israel has proposed a new joint boost 
phase launcher intercept program. Do you have a judgment of the 
feasibility of the Israeli program, and does your office intend 
to work with Israel on the boost phase launcher intercept 
program?
    General Kadish. We have been in discussions with Israel 
over that particular effort, and I believe, if I am not 
mistaken, we have sent a report to Congress, I think last year, 
over the feasibility assessments that we put together for that, 
and I can provide that for the record, if you like.
    [The information follows:]
 Report to Congressional Defense Committees On Joint U.S.-Israel Boost 
 Phase Intercept-Attack Operations Using Unmanned Aerial Vehicles--15 
                               April 2000
                            i. introduction
Purpose
    This report responds to the request set out in the Senate report to 
accompany the National Defense Authorization Act for Fiscal Year 2000, 
S. Report No. 106-50, page 226. The Senate Armed Services Committee 
requested that the Secretary of Defense study the feasibility and 
benefits of a joint U.S.-Israel unmanned aerial vehicle (UAV) boost 
phase intercept (BPI)-attack operations (AO) program. This report 
summarizes the potential opportunities and pitfalls in establishing 
such a program. The committee report language is shown below.
    The committee is aware that BMDO and the government of Israel have 
examined options for boost-phase intercept (BPI) of ballistic missiles, 
and the possibility of a joint U.S.-Israeli program using unmanned 
aerial vehicles (UAVs) to defeat ballistic missiles in the boost-phase 
or missile launchers following the launch of a missile. The committee 
understands that to date there is no agreement between the two 
governments on the potential merits of the options considered, nor has 
agreement been reached on a joint program.
    Believing that the ability to defeat ballistic missiles before and 
during their launch phase could significantly enhance the security of 
the United States and its allies, the committee directs the Secretary 
of Defense to study the technical and operational feasibility of such a 
joint program, and determine if the missile defense benefits would 
justify initiating a joint U.S.-Israel BPI-attack operations program 
employing UAVs. The study shall include an assessment of whether a BPI-
attack operations program can be developed that supports U.S. and 
Israeli requirements, whether the United States would support a program 
that is oriented primarily or exclusively toward satisfying Israeli 
requirements, and whether DOD supports an attack operations UAV system 
that does not include BPI capabilities. The committee directs the 
Secretary to submit a report on these matters to the congressional 
defense committees not later than February 15, 2000.
Background
    [Deleted.]
                        ii. systems description
    [Deleted.]
                                uav bpi
    [Deleted.]
                  FIGURE 1. UAV Boost Phase Intercept.
    [Deleted.]
                               FIGURE 2.
    [Deleted.]
                        iii. program assessment 
The assessments responding to the congressional report language are 
        detailed in the next sections.

    1. Technical Feasibility Assessment.
    2. Operational Feasibility Assessment.
    3. Missile Defense Benefits Assessment.
    4. U.S. and Israeli Requirements Compliance.
    5. U.S. Support for Program Oriented Primarily or Exclusively to 
Israeli Requirements.
    6. DOD Support for an Attack Operations UAV That Does Not Include 
BPI Capabilities.

    1. Technical Feasibility Assessment
    UAV BPI
    2. Operational Feasibility Assessment 
    [Deleted.]
                  weapon control and battle management
    [Deleted.]
    3. Missile Defense Benefits Assessment
    4. U.S. and Israel UAV BPI-Attack Operations Requirements 
Compliance
    [Deleted.]
    5. U.S. Support for Program Oriented Primarily or Exclusively to 
Israeli Requirements
    [Deleted.]
    6. DOD Support for an Attack Operations UA that does Not Include 
BPI Capabilities
    [Deleted.]
               iv. non-proliferation and policy concerns
    [Deleted.]
                              v. summary 
    [Deleted.]

    We will continue those discussions, but I think subject to 
the Secretary's further comments, that will be basically a 
fiscal year 2003 decision as we deliberate through those budget 
issues.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary, and General Kadish. We are glad to see you here.
    I think, as maybe the members of the committee know, 
General Kadish was the commanding officer at Hanscom AFB in 
Massachusetts. He had some very important responsibilities in 
the areas of intelligence, advanced research, a whole wide 
range of areas, and has many, many friends up there. He did an 
outstanding job. Mr. Secretary, you are fortunate to have the 
General.
    I want to get back to the point about where we are and 
where we are going. We want to congratulate you on the success 
of the test last Saturday. We all understand we still have a 
long way to go, but that is an important benchmark. We all take 
pride, I certainly do, in the work that is being done on 
theater defense. That has been impressive. We followed that. I 
have closely, obviously, because Raytheon is in my own State of 
Massachusetts, and we are always interested in the progress, as 
well as some of the problems that they have up there.
    But I want to get back to the question of where we are and 
where we are going, and where we have been in terms of research 
and get some idea now about how we are going to make judgments 
about the research program.
    We had the Secretary of Defense, on June 28, appear before 
the committee to present the 2002 budget, and when asked about 
the details on ballistic missiles, he said he had not been 
briefed on the BMD proposal, and he had not made any 
decisions--this was the end of June. We are now into mid-July--
been briefed about it, and had not made any decisions about it, 
even though we now have been provided with the budget 
information, we are told. It is for a proposed program. The 
actual content of the program will be decided later.
    Now, this is the Secretary of Defense before the committee 
as recently as 3 weeks ago.
    So now we have your own response to others about the fact 
that a lot of this is going to be in-theater defense, and 
others on ballistic defense, and General Kadish's statement 
today, he said, I cannot tell you today exactly what the 
ballistic missile system will look like, even 5 years from now.
    Well, he says, he continues here, evidently--and General 
Kadish, you also said at a press conference last Friday that 
you have internal plans that you are working on at the present 
time that are spelling out how these resources are going to be 
made. What have we spent, what has DOD spent during the whole 
``Star Wars'' on ballistic missile defense, $35, $40 billion, 
some have estimated to $60 billion, roughly? General, do you 
know? Well, if it is not that figure, are we in the ball park?
    General Kadish. About $5 billion a year, on average.
    Senator Kennedy. Well, $45 or $50 billion has now been 
expended on this to date. We are not starting over here. We 
have spent $45 or $50 billion. I think we want to disabuse 
ourselves that we are suddenly starting fresh now with all of 
this. The DOD has already spent $45 or $50 billion to date on 
this.
    Now you are asking for $8 billion more, and even though you 
have spent $45 or $50 billion, evidently you are not able to 
give the committee a clear idea of why we would expect that 
this would be either more effective than what has been spent in 
the past, other than I hear that maybe we are looking along 
some different areas, or different lines.
    Secretary Wolfowitz. If I might, Senator, what we spent in 
the past has already produced results. I would complain that it 
has not produced results as fast as I think this country might 
have in the past been capable of. We produced Polaris 
submarines in 5 years with a crash effort. We got to the moon 
in 10 years with a crash effort. I would say this has not been 
a crash effort, but it has produced important results.
    You referred to one of the most important ones a few 
minutes ago, which is our ability now, finally, 10 years after 
the Gulf War, to have hit-to-kill capability against a 
primitive SCUD missile. I would have thought, given the fact 
that Saddam Hussein almost brought Israel into that war and had 
success in killing Americans with SCUD missiles, that we might 
have moved faster, but we have moved, and this budget includes 
a substantial amount of money, $857 million, to accelerate the 
acquisition and deployment of that PAC-3 system which would 
protect us in the Persian Gulf, and could protect allies.
    Senator Kennedy. I am talking about the other, the PAC-3. I 
have been a strong supporter, many of us have been, in terms of 
the theater missile. We are trying to ask, in terms of outer 
space, the ballistic missile defense, the amounts we are going 
to be spending on this, and quite frankly, for every 
technology, for the most part we have seen countertechnologies, 
and serious questions with all the billions we spent on the 
Stealth technology, whether that is really going to work any 
more because of new breakthroughs in radar in terms of it.
    I do not want to spend much of my time here now going and 
thinking in terms of technology that has developed that there 
have not been countertechnologies that have been developed. The 
moon example is not really clear, because that is a different 
situation, but to come back to this question, we have spent the 
$45 billion.
    We want to have, again, some idea as to how the $8 billion 
is going to be expended, because we heard testimony by the 
Secretary of Defense before the committee 3 weeks ago where he 
indicated that he was not prepared to give that to us. My 
question is, which has been repeated by others here, and 
perhaps we are going to get the same answers, can you give us 
any more indication or assurance that it is going to be any 
more successful, and what it is going to be, and what the time 
lines are going to be in terms of expenditures?
    Secretary Wolfowitz. Senator, the Secretary has been 
briefed in detail. We have submitted detail, and I was trying 
to explain in my previous response that detail includes a great 
deal of money on systems like PAC-3, $857 million on PAC-3 
alone that have now been demonstrated to be successful.
    I think before you came, Senator, we showed a film strip of 
the successful test Saturday night, and believe me, I would not 
say that that test demonstrates a capability, but it certainly 
demonstrates a very big advance in what we can do, and you do 
not get to this kind of very successful, I mean, very demanding 
technological challenge overnight. I think the record shows we 
are making serious progress, demonstrable progress on shorter-
range missiles and I think we clearly are within reach of doing 
something with long-range systems, so yes, we can give you 
great detail on the plan for that expenditure, and I think it 
is a very convincing story that General Kadish and his team put 
together.
    Senator Kennedy. Well, my time is up, but you are going to 
give us, then, how that $8 billion is going to be expended?
    Secretary Wolfowitz. Yes.
    Senator Kennedy. Thank you. Has it been made available to 
the committee?
    Secretary Wolfowitz. I believe it is.
    Senator Kennedy. The $8 billion, how you are going to spend 
that $8 billion?
    Secretary Wolfowitz. The General says at the end of this 
week.
    [The information referred to follows:]

    The fiscal year 2002 amended budget submission has been submitted 
to Congress and provides detailed program plans for the full fiscal 
year 2002 program.

    Senator Kennedy. It has not been, then, you have not given 
it to the committee.
    Secretary Wolfowitz. My understanding is we will be 
submitting it at the end of this week.
    Chairman Levin. Which means you have not yet given it to 
the committee.
    Secretary Wolfowitz. Yes. I apologize.
    Chairman Levin. At this time, I request unanimous consent 
that Senator Landrieu's statement be made a part of the record.
    [The prepared statement of Senator Landrieu follows:]

             Prepared Statement by Senator Mary L. Landrieu

    Thank you Mr. Chairman: I would like to thank you for calling this 
important hearing to review the National Missile Defense Program. I 
would also like to take this opportunity to welcome and thank Secretary 
Wolfowitz and General Kadish for appearing here today.
    As we all know, the impassioned dispute over U.S. national missile 
defense has dominated press coverage around the world almost daily over 
the last few months. Secretary Wolfowitz has worked tirelessly since 
taking office on the difficult but important task of selling missile 
defense, not only to the Russians and Chinese, but to our allies as 
well.
    Unfortunately, we all know that the threat of a missile attack from 
a rogue nation is credible and the proliferation of missile technology 
continues as we sit here today. As long as this remains the case, it is 
our responsibility to devise an effective defense system and a policy 
that provides the American people with a sufficient level of 
protection. Adm. Richard Mies, the Commander in Chief of the U.S. 
Strategic Command uses an interesting analogy which I find quite 
appropriate. To have an effective military, you need both a sword and a 
shield. A soldier without a shield is defenseless and a soldier without 
a sword lacks the ability to take action against his enemies. If either 
is too big, it prevents the soldier from maximizing use of the other. 
The trick is to balance both the shield and sword in an equitable 
manner.
    We are faced with that very task when it comes to missile defense. 
While no rogue nation possesses the capability today, we know that 
several states are actively pursuing development or acquisition of 
ballistic missile technology. There is mounting and credible evidence 
that, in the future, national missile defense is a capability this 
country will be forced to acquire. However, it is important to develop, 
test and deploy a valid, credible system. If the shield is made of 
paper, it's worse than having no shield at all because it gives false 
confidence with potentially disastrous consequences.
    Across the political spectrum there is debate over the need for 
missile defense, the impact on the ABM Treaty, our relationship with 
Russia, our allies and other countries and on the amount that should be 
invested on missile defense. There are strong opinions on all aspects 
of this tremendously complicated issue. Senator Sam Nunn, a man I have 
a great deal of respect for, has commented on this debate saying, 
``It's time to get the theology out of it and the technology into it.''
    I couldn't agree more. When you look at the National Missile 
Defense Deployment Readiness Review, one fact is undisputable. 
Regardless of politics or ideology, the one thing the national missile 
defense program and Ballistic Missile Defense Organization need is 
TIME. Time to develop, test and evaluate this technically complex 
system. Time to negotiate with the Russians. Time to consult with our 
allies and address their concerns. No matter how bad we want the 
system, or how much money we throw at it, time is still required.
    It's clear that money must be spent on this program, and I support 
that. It is equally clear that there are other threats and pressing 
needs facing our military, indeed facing our country, today. Given the 
limited resources available, it would be unwise to invest all of them, 
or even the majority of them, on national missile defense. It's a time 
for tough choices. Those choices will significantly impact the 
readiness, posture and capability of our military forces for years to 
come. They will affect the size and strength of both our sword and 
shield. The administration amended it's defense budget request adding 
$18.4 billion which I wholly support. That budget includes spending an 
additional $3 billion on missile defense which needs further review 
based on developing technology and its implications on ABM Treaty 
negotiations.
    It's important that the American People have the confidence that 
their tax dollars are properly spent. With that in mind, I look forward 
to hearing Secretary Wolfowitz' and General Kadish's testimony here 
today. I know it will be insightful and help this committee make those 
tough choices.
    Again, thank you Mr. Chairman for calling this important hearing.

    Chairman Levin. First, about your statements, General, that 
your predecessors did not have the same instructions that you 
did relative to ABM. I just want to read General Lyles' 
testimony, when he said there is nothing we would do 
differently.
    The question from Senator Robb was, ``If you did not have 
an ABM Treaty, are there things you would be doing, or could be 
doing less expensively now?'' General Lyles: ``In all honesty, 
Senator Robb, there is nothing we would be doing differently.''
    Do you disagree with General Lyles?
    General Kadish. No.
    Chairman Levin. General Ralston said, I would like to add, 
as I understand it, and as General Lyles has said, there is 
nothing today in the Antiballistic Missile Treaty that is 
constraining what we are doing in our National Missile Defense 
Program, or our theater missile defense program. Do you 
disagree with that?
    General Kadish. No, Senator.
    Chairman Levin. So this is really the first time we may be 
facing that issue, and the difference, of course, between what 
President Clinton did last year and what you are doing this 
year is that President Clinton never made the decision that if 
you could not modify the treaty, that he would walk away from 
it.
    That decision was never made by President Clinton. He said 
there would be four factors which he would consider before 
making that decision, whereas this President, this 
administration has said ``if Russia refuses the changes we 
propose, we will give prompt notice under the provisions of the 
treaty that we can no longer be a party to it.'' That is a huge 
difference.
    Senator Warner. Can you give a citation to what you just 
read?
    Chairman Levin. That is the Citadel speech, September 1999, 
Governor Bush, then a candidate.
    ``If Russia refuses the changes we propose, we will give 
prompt notice under the provisions of the treaty that we can no 
longer be a party to it.'' This is a totally different set of 
circumstances from what it was in the previous administration, 
which said, we might give notice, we might not, we are going to 
look at four factors, including whether or not we are more 
secure by pulling out of that treaty, including the effect on 
arms reductions, including the cost-effectiveness, including 
the operational effectiveness. All factors would go into it.
    You have given us three sheets of paper with the outline of 
the three activities which you apparently indicate could bump 
up against the ABM Treaty this year. One is called the missile 
defense system test bed, the other one, Aegis, Spy-1 tracking 
and strategic missile, the other one is System Integration Test 
II.
    First of all, we will make those three documents a part of 
the record, but my question is this to either one of you. Could 
you identify on those three sheets of paper which of those 
activities will in a matter of months, not years, likely 
conflict with the ABM Treaty's limits, since you have now 
informed us that in a matter of months, not years, it is likely 
the activities that are in the budget request for 2002 will 
conflict with, as the administration said last Wednesday, 
``bump up against'' the treaty? Can you just identify for us on 
these three sheets now which of these specific activities are 
likely to either conflict with or bump up against the treaty 
under your budget request?
    Secretary Wolfowitz. Senator, we identified all three of 
these because all three of them have the potential of raising 
serious ABM Treaty compliance problems.
    Chairman Levin. Can you just identify, for instance, in the 
test bed document, some of these--a lot of this you say is not 
likely to happen inside these documents.
    Secretary Wolfowitz. That is why we need a compliance 
review.
    Chairman Levin. I know, but will you do this for the 
record? Since there is a lot in these documents, which you say 
do not see any compliance problem, it is hard for me to sort 
out which will and which will not, and this is a specific 
question, and you can do it for the record. On these three 
sheets of paper, which of these activities will, in all 
likelihood, if you are funded in 2002 as requested, conflict 
with or bump up against the ABM Treaty? That is my question for 
the record.
    Secretary Wolfowitz. We will work with your staff to make 
sure we have the correct question and we will answer it for the 
record.
    [The information referred to follows:]

    All three activities (the Missile Defense System Test Bed, Aegis 
SPY-1 tracking a strategic ballistic missile, and Systems Integration 
Test II (SIT II) combining data from ABM and non-ABM radars) could 
conflict with our obligations under the ABM Treaty. A compliance 
assessment is underway within the Department to determine whether these 
activities would violate the treaty. That said, the administration has 
made clear that it will not violate the treaty, and the activities of 
the Ballistic Missile Defense Organization, like all DOD activities, 
will be conducted in compliance with U.S. arms control obligations. 
Therefore, the ABM Treaty will not be violated if the missile defense 
program is funded as requested.

    Chairman Levin. Will you also be giving us the compliance 
review group's results promptly after you receive them?
    Secretary Wolfowitz. I will do my best.
    Chairman Levin. What would constrain you? There is no 
treaty that prohibits you from doing that.
    Secretary Wolfowitz. These are advisory opinions from the 
Secretary of Defense's lawyers to the Secretary of Defense, and 
I assume we will share them with you.
    Chairman Levin. Let us know, would you, promptly, if you 
are not going to promptly share those with us.
    Secretary Wolfowitz, you said today that the developmental 
activity at Fort Greely could be made an operational capability 
with little modification. What specific modifications would be 
needed to convert Fort Greely from a developmental or test 
capability to a rudimentary operational capability?
    Secretary Wolfowitz. I think I will let General Kadish 
answer that.
    General Kadish. We still have a lot of planning to do to 
implement this test bed and the ongoing activities in the 
coming months, and certainly through 2002, we would probably be 
in a better position to answer that when we do exactly the 
configuration we want to test and to put that together.
    But I guess I would answer in a general way that if we have 
a test activity that represents an operationally realistic 
configuration where everything is hooked up right and that we 
could launch out of Fort Greely if we wanted to test a 
particular segment and it was safe enough. Then by definition 
you have a capability there to launch and then if you have 
confidence in the system based on all the other testing you are 
going to do to actually use it in combat, that would be a 
decision that would have to be taken by the Department.
    Chairman Levin. But the question was not the decision, but 
what specific modifications would need to be made to convert 
Ft. Greely from your proposed developmental test facility to a 
rudimentary operational capability.
    General Kadish. I guess the answer to that is we don't know 
in detail what those would be, but in general it would be 
command and control activities to uniformed people to actually 
do the combat alert type of activities. So over time we will 
define exactly what that is. I can't tell you specifically 
today what it would be.
    Chairman Levin. My time is up. Thank you. Senator Warner.
    Senator Warner. Mr. Chairman, I would like to defer my time 
to our colleague and then I will follow back in sequence with 
my wrap-up. But I would like to make one unanimous consent 
request, that Secretary Wolfowitz provide for the record 
statements that President Bush made subsequent to his September 
24, 1999 Citadel speech to which our chairman referred. At that 
time he stated if Russia refuses to accept changes to the ABM 
Treaty, as we've proposed we will give prompt notice of our 
intention to withdraw, under article 15 of the treaty. I think 
he has made a series of statements about the framework that he 
is hoping to achieve and I think those statements should be 
examined in parallel with his statement at the Citadel. So will 
you provide that for the record?
    Secretary Wolfowitz. We will do that, Senator.
    Senator Warner. It can be put in the record at this 
juncture. I will yield my time to Senator Allard.
    [The information referred to follows:]

                              May 23, 2000

                          National Press Club

                             Washington, DC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. I thank Senator Warner for yielding. I 
would like to pursue this issue on the THAAD radar and direct 
my question to General Kadish. I understand the THAAD radar was 
present at Kwajalein this weekend when you conducted your 
missile defense test. Did that radar participate in the test?
    General Kadish. No, it did not, Senator.
    Senator Allard. Since you've identified the THAAD as part 
of the terminal defense element of your overall ballistic 
missile defense system, isn't it potentially useful to have at 
least the THAAD radar or the BMC-3 participate in tests like 
the one conducted this weekend?
    General Kadish. Eventually it would be, Senator.
    Senator Allard. Is such participation permitted by the ABM 
Treaty?
    General Kadish. At this time, it is not and I believe one 
of the situations that has been provided by the Secretary's 
testimony of using our X-band radar at Kwajalein to do a 
theater-level test, which is the opposite of what you're 
describing, is in fact on the table for treaty compliance 
issues. So concurrent use of these assets is an issue with the 
treaty.
    In regard to the THAAD, we haven't at this point in time 
done sufficient planning, although we have for use of the GBRP 
such that we would want to propose using the THAAD in these 
types of tests. Our intent over time and certainly over the 
next year is to plan in detail how we would exploit those types 
of resources.
    Senator Allard. I'm further told that several years ago the 
THAAD radar was at Kwajalein for testing when an operational 
ICBM test was conducted and I'm told that the THAAD test 
manager saw this as a wonderful opportunity to characterize the 
performance of the THAAD radar but that his proposal to do so 
set off a minor panic in the Pentagon because this would have 
violated the ABM Treaty. Is this an example of the kind of 
opportunity you have to forego because of the constraints of 
the ABM Treaty?
    General Kadish. Without the constraints or thinking about 
the constraints we would be able to exploit that, and that is 
our intent at this point in time.
    Senator Allard. I would like to pursue the ABM Treaty and 
security issues. We have heard from several colleagues about 
their concerns that U.S. missile defenses will spur the 
proliferation of missile and weapon/missile defense 
technologies and lead to the build-up of offensive forces that 
would reduce U.S. security. Since concerns are based in part on 
a belief that the ABM Treaty has inhibited the growth of these 
forces, or such concerns based on that, how many warheads did 
the Soviet Union have in 1972 when the ABM Treaty was signed? 
Do you know that?
    Secretary Wolfowitz. I would be dredging up my memory. I 
don't believe they had substantially MIRVed their force at that 
time, thousands less than they do today, that's for certain.
    Senator Allard. Then when we looked at it 10 years later, 
do you have any idea how many warheads the Soviet Union had and 
if you can't give me a specific figure, was it dramatically 
increased, moderately increased?
    Secretary Wolfowitz. I think dramatically increased 
throughout the seventies, Senator. We can get you those exact 
numbers for the record, obviously.
    [The information referred to follows:]

    When the ABM Treaty was signed in 1972, the Soviet Union had 2,081 
strategic missile (e.g., ICBM and SLBM) warheads. By 1982, the Soviet 
inventory had grown to 8,555 warheads.

    Senator Allard. So in your view, did the ABM Treaty 
accomplish its goal of preventing or slowing down the Soviet 
offensive buildup?
    Secretary Wolfowitz. I don't know if that was its goal. It 
certainly didn't accomplish it if that was the goal.
    Senator Allard. Since 1972 how many nations have ballistic 
missile capabilities?
    Secretary Wolfowitz. I believe we now estimate--let me get 
it exactly.
    Senator Allard. I think it was 28 or 29 now that I 
remember.
    Secretary Wolfowitz. Yes.
    Senator Allard. Yes. How many nations have or are seeking 
to have ballistic missile capabilities today?
    Secretary Wolfowitz. Beyond the ones that already have it?
    Senator Allard. Yes, of the 28.
    Secretary Wolfowitz. I would have to get you that for the 
record. I think they are, in experimental programs there are 
quite a few.
    [The information referred to follows:]

    At present, 28 countries have ballistic missile capability, either 
through purchase (17 countries), or through indigenous development 
programs (11 countries). Six countries, all with indigenous capability, 
are developing longer range (MRBM, IRBM, or ICBM) systems.

    Senator Allard. I think it would help us to better 
understand what's happened worldwide and the dynamics out there 
if you could describe the ongoing Chinese strategic 
modernization. In your view is this modernization effort a 
response to U.S. Ballistic Missile Defense programs?
    Secretary Wolfowitz. Absolutely not. It's been underway for 
some time and I think it has its own dynamic partly motivated 
by growing Chinese military budgets, partly motivated by, I 
think, their growing sense of their position in Asia. If I 
might say in answer to your previous question, it's my own 
personal sense that one of the reasons that countries like Iraq 
and Iran and North Korea are investing so much in ballistic 
missile defenses is precisely because they realize that they 
can't match us in other areas of military capability and I am 
sorry to bore you, but as I've said repeatedly, this is the one 
Iraqi capability that proved in the Gulf War to be more serious 
than what we had estimated it to be.
    I think they're investing, not in spite of the ABM Treaty, 
but to some extent because of the ABM Treaty.
    Senator Allard. Secretary Wolfowitz, I'm going to ask for 
your view on Russian security. Would Russian security be 
enhanced by proliferating missile and WMD technologies?
    Secretary Wolfowitz. No, it wouldn't, and again a point 
that I think was observed in an important way earlier, I think 
Russian security would be enhanced if they could reduce their 
vulnerability to limited missile attack. I also think our 
security will be enhanced if they can reduce their 
vulnerability and I think the same goes for the United States. 
We are in a different era. It is not an era where it is our 
goal to keep Russia vulnerable and it shouldn't be their goal 
to keep us vulnerable.
    Senator Allard. Also, as we all know, MAD, or mutually-
assured destruction, was the only means by which we deterred 
the Soviet Union from missile attack against the United States. 
While mutually-assured destruction worked in a bipolar world, 
today the world has changed and is a more chaotic and dangerous 
place and that is why we must have an updated approach, I 
believe, to deterrence, both offensively and defensively. I 
believe that Admiral Mies said it best on July 11 in front of 
the Strategic Subcommittee when he said: ``Missile defense 
would not be a replacement for an assured retaliatory response, 
but rather an added dimension to complement our existing 
deterrent capabilities and an insurance policy against a small-
scale ballistic missile attack. It would also serve as an 
element of our strategy to dissuade countries from acquiring 
weapons of mass destruction and ballistic missiles.''
    My question: will the concept of mutually-assured 
destruction remain a part of the administration's deterrent 
strategy?
    Secretary Wolfowitz. I've never been fond of the mutually-
assured destruction term, but yes, certainly nuclear deterrence 
will remain part of our deterrent strategy but the reliance 
exclusively on retaliation as our deterrent is something we're 
trying to move away from. Retaliation is always, I think, going 
to be a part of deterrence, the potential of retaliation.
    Senator Allard. Mr. Chairman, my time has expired again. 
Thank you.
    Chairman Levin. Senator Allard, thank you.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Mr. 
Secretary, following up on your exchange with the Chairman, as 
I understood it, the concept of Alaska becoming operational 
comes to fruition when you replace the testing crew with 
operational personnel. Was that your answer to the Chairman's 
question?
    Secretary Wolfowitz. I would have to refer back to General 
Kadish, but what I hear General Kadish saying is that I think 
it is essentially, if everything worked well experimentally, it 
would be essentially a software change to turn it into an 
operational capability. It's a little more than just changing 
the mental intent. There would have to be definitely command 
and control changes, probably some communications changes, but 
I think it is what you would call in the area of software.
    Senator Bill Nelson. In terms of Alaska and the treaty, is 
that when, in your opinion, the treaty would be abrogated and 
up until that point with regard to the Alaska facility it would 
not?
    Secretary Wolfowitz. I don't think I need to be a lawyer to 
say that if we crossed that line and turned it into operational 
capability that would be a violation of the treaty.
    Senator Bill Nelson. Yes, I understand. My question is up 
to that point.
    Secretary Wolfowitz. That is where you get into questions 
of intent and verification and what can and can't be verified 
by national technical means and, it isn't simply that lawyers 
have a way of making problems complicated, this is a genuinely 
complicated problem because in the, what is it now, 29 years 
since the treaty was signed, we have had a lengthy, tedious 
record of going over these issues with the Russians. You have 
to look at that record. You have to examine it. You have to 
weigh American positions, Russian positions. We are in a 
difficult zone and so I'm hoping that when the lawyers look at 
this they will give us at least some more clarity than I have 
right now.
    Senator Bill Nelson. Well, thank you. General, I want to 
congratulate you on your test over the weekend. I would like to 
see you be very successful as you proceed with the various 
tests. By reading the press I get the impression that you're 
going to have these tests scheduled quite frequently, and I am 
a little bit concerned that we might be sacrificing some of our 
success in the future with the number of tests. Would you 
comment on that, and the frequency of those tests?
    General Kadish. I think our goal has always been in the 
test program to test frequently and often and move rapidly 
through our development program, because we built a whole 
series of technical milestones and specifications we want to 
check out. So the sooner we get it done, not only does the 
technology develop, but we save a lot of money, even though 
these tests are expensive.
    So it is not our intent to test without the discipline 
required to do testing. I think that is the basic thrust of 
your question.
    Secretary Wolfowitz. Senator, I share the congratulations 
to General Kadish on his success, but I sort of worry that 
people have to understand, I think, that if a program never 
suffers from test failures, then it's probably been too 
conservative a program. If you look at the history of our 
developments, the satellite program which put satellites in 
orbit suffered 11 straight test failures in its initial 
testing. The Polaris, which is one of our most successful 
systems, failed 66 out of 123 flights. I have a number of other 
examples in my testimony.
    A successful development program has to include testing 
failures, so I would like to see them pushing aggressively and 
if and when they fail, I may not show you the film strip of it, 
but I do think they will be learning things.
    Senator Bill Nelson. Hopefully the successful testing of a 
man-rated system does not occasion all of those failures, 
although we have seen those in the past, unfortunately, for 
example with the space shuttle.
    Secretary Wolfowitz. Obviously when you get to the point of 
putting people's lives at risk with a test, you have to go up 
to a higher standard and even then, as you point out, you can 
have a failure.
    Senator Bill Nelson. Well, under that theory, then, why did 
we wait over a year after the last one for this test to occur?
    General Kadish. We are dealing with prototype hardware and 
over time we expect and intend and are working very hard at 
making this hardware more like the system we want to actually 
use and so it's going to get better.
    But basically in the last 3 years to do four tests and to 
have two successes out of four is a major achievement. But we 
learn from our failures and the reason why it took us a year to 
come to this point is because we took the two failures that we 
had and learned from those and went back and took the time to 
fix everything.
    Those types of failures we experienced, unfortunately from 
my point of view, were more related to quality problems, if you 
will, process problems and not the fundamental design and 
hardware. So in order to wring those types of process problems 
out, you have to put more discipline in the program and make 
sure that people do the right thing and in fact are rewarded 
for telling us when there is something wrong and that took us 
time.
    Once we are confident we have those processes in place, 
which I have right now, then I expect that we will be able to 
do things more rapidly without those types of problems 
occurring.
    Senator Bill Nelson. What was the reason for the failure a 
year ago?
    General Kadish. The reason for the failure a year ago, we 
believe, was a circuit card that failed, that did not send the 
right signal to the kill vehicle to separate from the booster, 
and the reasons for those types of failures have to do with 
foreign object damage, those types of things.
    Senator Bill Nelson. It was a failure that had nothing to 
do with the actual design of the new system of the kill vehicle 
to home in on the target?
    General Kadish. Correct.
    Senator Bill Nelson. So why did it take a year for what 
would normally be a pedestrian kind of failure? For what you 
are trying to test, why would it take a year?
    General Kadish. Because it indicated that it was a failure 
in something that we did not expect because as you correctly 
point out, it actually worked on all the other flights and it 
is something we know how to do. That indicated to us that we 
needed to go back and look at every piece of the hardware in 
the test program and not leave any stone unturned and make sure 
that the smallest detail in our program was looked at to ensure 
the type of discipline I talked about earlier. That took time 
and we took the time to do that.
    Now that we have gone through that and have adjusted 
people's expectation to this rigorous way of doing it, it is my 
opinion we can move faster in our test program, especially 
given if you have successes, you want to turn up the complexity 
and the challenge, as Secretary Wolfowitz points out, to test 
the edges of the envelope, or you may fail doing such.
    Senator Bill Nelson. When is the next test scheduled?
    General Kadish. Our next test is currently scheduled for 
the end of October, early November time frame of this year.
    Senator Bill Nelson. The next one after that?
    General Kadish. It will be in the February time frame.
    Senator Bill Nelson. You feel comfortable with that kind of 
interval to build on either the success or failure of each of 
those tests?
    General Kadish. That is correct, and when you have a 
success and you analyze the data that supports that and find 
that there are minor or no glitches, it gives you even more 
confidence in your next test schedule.
    Senator Bill Nelson. When in this regime of testing is your 
first major full up with many different targets that are not 
actual targets, that are decoys; when does that occur?
    General Kadish. We haven't taken the decision of how we are 
going to add complexities to the test in final detail yet, so I 
think that will occur in the next couple of months. But 
certainly over the next 18 months we are going to be adding 
complexity, but it won't be until we've built the full test bed 
capability where we will have the ability to put more targets 
in flight almost simultaneously rather than just one and fire 
more interceptors than just one and then put more decoys in to 
get the different geometries that will convince ourselves as 
well as our critics that we have an operationally viable 
system. So that's why the test bed is so important to us.
    Senator Warner. Senator, I have to interrupt. We have just 
a few minutes left. The Chairman suggested that we now adjourn 
the hearing and you can come back and resume your questioning. 
Would that be inconvenient?
    Senator Bill Nelson. Oh, we have a vote? I'm sorry, I did 
not know that, Mr. Chairman.
    Senator Warner. These are good questions and I am 
listening.
    Senator Bill Nelson. Mr. Chairman, may I just conclude by 
asking one simple question? When do you expect that full up 
test bed onto your present regime?
    General Kadish. Between fiscal year 2004 and 2006.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Warner. We will stand in adjournment. [Recess.]
    Chairman Levin. We will be back in session. Let me ask this 
question of both of you. It has to do with when that test bed 
becomes operational. You said, Mr. Secretary, you hope, it is 
your intent and your hope, that it become operational as 
quickly as possible. It is your hope--I guess everybody's 
hope--that the tests succeed. It is also, it seems to me then, 
the question comes back as to what is the change which would 
need to be made to make that an operational system. General 
Kadish said before that there are some changes that would need 
to be made. You characterize those as software changes, I 
believe, Mr. Secretary.
    Secretary Wolfowitz. That's my understanding from hearing 
the General speaking. Yes.
    Chairman Levin. Is that a difficult thing to do--to make 
those software changes? Does that have to be tested or is it 
something that we assume could be done quite readily?
    General Kadish. Well, I hesitate to say it's only a 
software change because those things are monumental in our 
business but the issue is that I wouldn't expect the changes to 
be difficult to implement. However, in keeping with the 
philosophy of making sure we test like we use it in this test 
bed, we would have to, at some point, start testing those 
command relationships and making sure when you turn the switch, 
the right thing happens. So, what I said earlier about having 
detailed plans to do that, I would expect us to start thinking 
about how to do that over the next year to 18 months and even 
beyond that and that plans will change over time based on what 
we discover. So, that's why its difficult for me to say 
precisely right now exactly what it will take to turn it 
operational.
    Chairman Levin. But it will take that?
    General Kadish. It will at least take that.
    Chairman Levin. It's our intent to have that tested so that 
it is ready when the other elements of an operational system 
are ready to go as well.
    General Kadish. Well, again, this is where it gets 
imprecise because if you recall, last year, Senator, we were 
doing things concurrently and you questioned me very closely on 
why the high risk on a concurrent program. This program doesn't 
have that now. We wait to make that decision--to actually 
produce the system that we intend to deploy based on more 
concrete test data and performance of the program. So, at some 
point over the next 3 to 4 years I would expect, based on the 
progress of our test bed testing, to take to the Secretary and 
the decisionmakers options every year as to whether or not we 
want to start one of those concurrent programs. In that regard, 
we would use what we know in the test bed and that test bed 
capability then could provide only an interim capability on our 
way to a larger system.
    Chairman Levin. But the interim system, which has been 
called a rudimentary capability, is that the way you're using 
it basically?
    General Kadish. That's the best term we've come up with to 
date.
    Chairman Levin. But the words rudimentary or primitive or 
interim all are intended----
    General Kadish. Not the final system.
    Chairman Levin. But they're all intended to describe a 
system which has operational capability and is intended to have 
minimum or modest operational capability. Is that accurate?
    General Kadish. That's one of the things it would do. Yes. 
There are two primary functions--test bed first and then the 
residual capability it gives you.
    Chairman Levin. But that residual capability, that 
operational capability is one of the purposes here. Is that not 
correct?
    General Kadish. That's correct.
    Chairman Levin. You've said, Mr. Secretary, that it is your 
intent that that be achieved as quickly as possible. Is that 
correct? I just want to be real clear here.
    Secretary Wolfowitz. Yes.
    Chairman Levin. I want to talk about the Cobra Dane radar 
for a few minutes. In your point paper that was provided to 
this committee, you said that an upgraded Cobra Dane radar, 
``may have some ABM radar capability.'' But in any operational 
system we anticipate that a new X-band radar Shemya would be 
required to provide needed discrimination even with all 
possible upgrades to Cobra Dane. So, are you then saying that 
Cobra Dane will provide that contingency capability as early as 
2004?
    General Kadish. If I understand the question, I believe the 
answer will be yes because it's an early warning radar and it 
only functions as an early warning radar. One of the issues is 
the countermeasure problem for any midcourse system that we 
need X-band for. So, the capability is very basic and as we've 
been describing it, rudimentary.
    Chairman Levin. But Cobra Dane will provide useful 
contingency capability?
    General Kadish. That's what our belief is today.
    Chairman Levin. Mr. Secretary, this is a bit unrelated to 
the series of questions that I want to keep pursuing here but I 
have been troubled by it because a number of times in the last 
few hearings, I think at least twice, it has been stated that 
you are on a commission that concluded that we needed to deploy 
a national missile defense system. You have not said that that 
was not accurate.
    Secretary Wolfowitz. That is not what the commission 
concluded.
    Chairman Levin. I think it would have been useful for you 
when that statement is made as it has been repeatedly here for 
you to say when it's your turn to respond to the question that 
in fact that is not what the commission recommended. I would 
just ask you in the future that you clarify.
    Secretary Wolfowitz. That's a fair point, Senator.
    Chairman Levin. In your statement today, Mr. Secretary, on 
page 3 at the top, you make the following statement. Well, 
first let me go to the bottom of page 2. ``The Department's ABM 
compliance review group has been directed to identify ABM 
Treaty issues within 10 working days of receiving the plans for 
new development of treaty events. That process is already under 
way.'' When did that begin?
    Secretary Wolfowitz. This new procedure, I think, was 
instituted by Under Secretary Aldridge within the last week or 
2.
    Chairman Levin. Then at the top of the next page you say 
the following: ``The Secretary and I will be informed of 
whether the planned test bed use of Aegis systems in future 
integrated flight tests or concurrent operation of ABM and air 
defense radars in next February's tests are significant treaty 
violations.'' Then you made reference to those three fact 
sheets that are made part of the record. You say here, you're 
going to be informed as to whether they are significant treaty 
violations. Are you going to distinguish between significant 
treaty problems and just treaty problems? Is that word 
significant supposed to tell us that you will say that if it's 
a treaty problem or a treaty violation in your judgment or the 
judgment of that compliance review group that then there's 
going to be another test. Is it a significant violation?
    Secretary Wolfowitz. It doesn't say significant violation. 
It's significant problem and I have to read in the mind of the 
authors who gave me the phrase. I think what it means is if 
it's a prospective violation, it is a significant problem. If 
you can't guarantee because of the way these things change and 
alter over time that there are no treaty problems, but it 
certainly better mean it's what I took it to mean that if 
there's any serious prospect of a violation that this is going 
to surface early.
    Chairman Levin. That a violation is a violation. You're not 
trying to distinguish between a serious and a non-serious 
violation?
    Secretary Wolfowitz. Not at all.
    Chairman Levin. Alright. The next sentence, which I found 
to be a really interesting sentence, I must tell you. ``This 
process will permit us to take them,'' and I assume that is 
referring to the treaty problems?
    Secretary Wolfowitz. Yes.
    Chairman Levin. ``Into account as early as possible as we 
pursue our negotiations with Russia on a new strategic 
framework.'' What do you mean by take into account?
    Secretary Wolfowitz. I mean that it becomes part of the 
considerations that the Secretary and the President have to 
make. In their discussions with the Russians, it becomes 
something we have to take into account in our consultations 
with you and other members of Congress. It becomes something we 
have to take into account in moving forward with the program. 
There are different ways to go with these issues depending on 
the character they raise and so, there's not a--until you see 
the forum in which the issue specifically arises, it's hard to 
say exactly which way you'll go with it.
    Chairman Levin. See, what I'm struggling with is whether or 
not the administration, the President, has decided that if 
modifications cannot be agreed to with Russia, the decision has 
already been made to withdraw from the treaty. That's what I'm 
trying to figure out. Has it?
    Secretary Wolfowitz. I think there is a decision that at 
some point, and I'm not sure--I think the point is a crucial 
question--that at some point if we can't get modifications that 
allow us to proceed with missile defense, we will withdraw from 
the treaty. The question is at what point and I don't think 
there's been a decision about what point.
    Chairman Levin. To that point, even if all of this testing 
worked out this year may not come this year?
    Secretary Wolfowitz. I guess the most I can say is this 
phrase that there seems to be an agreement with the 
administration that we're talking about months and not years. I 
mean, I think you yourself would say at some point you would 
withdraw from the treaty.
    Chairman Levin. I might. Not would. That's the whole 
difference. You just put your finger right on it.
    Secretary Wolfowitz. OK.
    Chairman Levin. I read this before and Senator Warner very 
appropriately asked for later comments to the administration 
that if Russia refuses the changes we propose, we will give 
prompt notice under the provisions of the treaty that we can no 
longer be a party to it. What you're telling us is that it may 
or may not be the situation now because it may not be such 
prompt notice. Now you're saying that at some point. That's 
fine with me, by the way, because that begins to show a little 
complexity in how to approach a--probably the most significant 
security decision we're going to make, which is if we can't 
modify the treaty, whether we're going to, in fact, withdraw 
from it. What I'm trying to see is whether or not there are in 
fact the beginnings of flexibility, that opening to considering 
the ramifications of withdrawal.
    The impact on our security of withdrawal from a treaty is a 
factor to be considered. I was glad to hear you answer Senator 
Warner's question about if, in fact, the modifications cannot 
be agreed to whether you would come back to Congress in a 
consultative process and your answer was yes. That, to me, 
means that what you do in that circumstance is subject to 
consultation. That, to me, means you have not made a final 
decision; that no matter what the circumstances are; no matter 
what the fallout out is; no matter what the reaction is; no 
matter what the actions which we would then expect from Russia 
and China are; no matter what anything, that you're going to 
promptly withdraw from the treaty. Instead, if you're going to 
be consulting with us, and I would welcome that, I gotta tell 
you, before you make the decision that you're going to 
withdraw, I view that as progress. I don't want to look to see 
something that isn't there but I took a little bit of heart 
from your answer to Senator Warner's question because it's 
different. It's a different kind of a spirit to say that if 
Russia refuses the changes we propose, we will consult with 
Congress and come back to you as to what then, what actions, 
we're going to do. If those actions are already decided, if 
you've already decided that if Russia doesn't agree to the 
changes that you're then going to give prompt notice under the 
provisions of the treaty that you're withdrawing from it, that 
puts us in a very different position. So, you can comment on 
that or not.
    Secretary Wolfowitz. Let me say a great deal of complexity 
has been added to the President's position since the Citadel 
speech that you quoted that from and even last year in May when 
he made his statement about a new approach to nuclear weapons 
and deterrence talked in quite elaboration about the importance 
of a new approach to offensive retaliatory forces as well. I 
mean, that already is a very major layer of complexity added to 
what we're trying to present. When we talk about a new 
framework with Russia, we're talking about something that 
actually goes beyond missile defense and beyond nuclear weapons 
and to incorporate a much broader view of security and one that 
I think is appropriate to this era. So, we are very much trying 
to take a lot of people's views into account.
    Certainly, Congress is our ally but certainly also the 
Russians and I do think that--I made a comment earlier which I 
think you may have taken as dismissive that I didn't think this 
rudimentary capability in Alaska would keep a Russian military 
planner awake even for a minute. I don't believe it would. But 
I in no way mean to dismiss the importance of the ABM Treaty as 
something that unfortunately became the centerpiece of U.S.-
Soviet relations. We'd like to have a different centerpiece for 
U.S.-Russian relations and that's what we're working on 
constructing. It's going to take work and we need to work with 
Congress in doing it.
    Chairman Levin. Well, that's more than welcome but the 
complexity, again, that I'm referring to, the layer of 
complexity that I'm referring to, is the question of whether to 
withdraw. The question that I'm trying to figure out the answer 
to is whether or not that decision has been made to promptly 
withdraw from this treaty in the event--or just a decision made 
to withdraw from this treaty--in the event that the 
modifications cannot be made. If, in fact, there's true 
consultation that is going to take place on that question 
before the decision is made, that puts us in one situation. If, 
in fact, the decision has been made that there's going to be a 
prompt withdrawal, in the event modifications cannot be 
achieved, that seems to me to put us in a different situation 
in looking at your budget request. So, I guess I'll try the 
question again. Is it your judgment that the decision has been 
made in the event modifications cannot be achieved to promptly 
withdraw from the ABM Treaty?
    Secretary Wolfowitz. I think we are at the point, as the 
phrase is said, that it's a matter of months, not years, before 
we reach that point. Now, does that----
    Chairman Levin. Reach the point of deciding whether or 
reach the point of withdrawing?
    Secretary Wolfowitz. Reach the point of deciding that we 
would have to.
    Chairman Levin. Reach the point of deciding later on? You 
have not now decided? Look, to me this is a very important 
little conversation we're having here. I don't know; I can't 
speak for others, but to me it's a very important conversation. 
It is not something which is splitting hairs. It is something 
which goes to the heart of a very important issue because we 
have a responsibility, as do you, to defend this country, the 
security, and to protect and defend America. We want to, it 
seems to me, make sure we don't create a greater problem by 
addressing the problem over here in a North Korean threat and 
create a bigger problem with a larger number of nuclear weapons 
on Russian or Chinese soil. The response can leave us less 
secure if we don't do this right. I think most of us would like 
to see a new framework. I really believe we'd like to see a new 
cooperative framework. There's no difference in that regard. 
The question is how best to achieve it and whether it's best to 
achieve it by telling Russia we're going to withdraw if there's 
no modification, or to tell Russia we may withdraw if there's 
no modification, depending on how we perceive our security 
circumstances at the moment that we think we have something 
that might be workable. Those are very different issues and 
very different ways to phrase an approach. So, I don't want to, 
unless you'd like to comment further on what I just said, I'll 
just go on to a couple other questions and then turn it over to 
Senator Warner. Do you want to add anything.
    Secretary Wolfowitz. I don't think I can add.
    Chairman Levin. In the statement which was given to the 
media last Wednesday the following sentence appears. The 
administration made this following statement: ``As we have 
informed our allies and Russia, we expect our RDT&E efforts 
will conflict with the ABM Treaty limitations in a matter of 
months, not years.'' When was Russia informed that we expect 
our RDT&E efforts to conflict with the ABM Treaty limitations 
in a matter of months? When did we notify them?
    Secretary Wolfowitz. I'm not sure, Senator. I'll have to 
get that for the record.
    Chairman Levin. I'd appreciate that.
    [The information referred to follows:]

    During frequent high-level discussions throughout 2001 we informed 
the Russians that in pursuing the best options available for defense of 
our territory, our allies, and our friends, we would come into conflict 
with the ABM Treaty. We further communicated that we did not intend to 
conduct tests solely designed to exceed treaty constraints, but neither 
could we design tests that conformed to the treaty and still build the 
most effective missile defense system.

    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Secretary 
Wolfowitz, I listened very carefully to your response to 
Senator Reed and your responses to his question about a 
violation of a treaty, the ABM Treaty, were very succinct, very 
clear and consistent with what you have said in 2 days of 
testimony but tightly packaged in one response. I wrote it down 
as best I could quickly. You simply said, we will not violate 
the ABM Treaty, isn't that correct?
    Secretary Wolfowitz. That's correct, Senator.
    Senator Warner. Fine. To me that puts to one side very many 
concerns of others and, second, you indicated that you would 
further consult with Congress, if the option--well, let me put 
it this way. It would be my hope that at some point in time 
this statement could somehow be embraced by the administration. 
I've just sort of put it together. That the United States will 
continue its consultations with our allies, negotiations with 
Russia, and indeed I support the President having indicated 
that withdrawal is an option, that he is commander in chief of 
our forces and he must consider should he be unable to 
structure a new framework and/or the option as we discussed 
earlier of amendments. But that in his final decision he would 
have further consultation as necessary he deems with allies and 
with Congress before exercising the treaty provision of 
withdrawal. Now, it would be my hope that somehow words could 
be crafted along those lines. I'll just leave it at that.
    Further to General Kadish, a legitimate concern has been 
made that we, the United States, prove the technology before 
deployment and I guess I have been around weapons system about 
as long as anybody up here in Congress--30 years plus. Clearly, 
a deployment decision of a new weapons system or new defense 
against a weapon would only be done after the full test 
evaluation, all the various steps and benchmarks were taken. 
Then it's certified to the Secretary of Defense. Am I not 
correct in that?
    Secretary Wolfowitz. That's the way we normally do our 
major procurement programs. However, there is precedent and I 
think it's embedded in some of our thinking here, that we may 
want to take decisions a little bit earlier and take some risk 
in this. No defense system is ever perfect even if it's fully 
operationally tested. So, we may want to do some things 
concurrently that would advance the capability with a little 
bit of risk.
    Senator Warner. I don't think that's any significant 
departure, in my judgment, from what we have done because I 
think there's several concerns that one, we would be foolishly 
throwing money at the system were we to deploy it without 
having gone through the normal sequence of benchmarks prior to 
certification that the system can be employed and that we would 
take it without pursuing which I fervently believe our 
President will do, consultation with allies, negotiations with 
Russia and the like. All of these things. So, I think the 
testimony today has gone a long way to clearly lay a foundation 
of fact that this administration is proceeding in a prudent 
manner with regard to reaching at some future point in time a 
deployment decision. It has met my satisfaction. I hope it has 
met those of others.
    Mr. Chairman, I will submit a series of questions for the 
record. We are way over our time estimates here and you and I 
have other commitments with regard to several questions on the 
treaty itself and the necessity. I just think the general 
public fully understands that this treaty constrains the United 
States from developing missile defenses cooperatively with 
other allies and indeed Russia. Am I not correct on that?
    Secretary Wolfowitz. That's correct, Senator.
    Senator Warner. That's such a fundamental proposition 
because I think basically the world wants to see a greater 
framework of security against the threat of these missiles and 
that at some point in time our President, not unlike what 
President Ronald Reagan did, would offer to share technology 
and to allow this greater security to not only benefit the 
United States and our allies but Russia and indeed some others. 
So, I think those fundamentals have to be pointed out in very 
simple, plain, good old fashioned American English language. I 
intend to do just that but I commend both of you today. I think 
this hearing has been a very significant step forward in 
meeting the challenge of legitimate concerns of others with 
regard to what this administration is doing to protect our 
fundamental security against an overgrowing threat of missile 
technology. I'm glad that you said today very clearly, Mr. 
Secretary, that unless we come to grips with a defense against 
the threats of missiles, whether they're ballistic or 
intermediate, it renders almost useless the entire inventory of 
weapons that we now have and seriously impairs the ability of 
our Nation to help other nations when their security could be 
challenged by a common enemy. Because a threat against our 
Nation, should we employ forces to save another nation, could 
be seriously put in jeopardy if we were threatened with 
retaliation by some nation against us should do that by use of 
this missile.
    We also have to understand that many nations are putting 
their limited resources behind acquiring this capability 
because those limited resources do not enable them to have the 
conventional forces and other forces to promulgate their 
foreign policy even though that foreign policy may be 
antithetical to our own. This is a very simple, less costly 
means by which to enter the world of politics in foreign policy 
and we've got to prepare ourselves to defend against it.
    I thank both of you.
    Chairman Levin. General Kadish, today I guess, you prepared 
these three sheets for us, or the Department prepared these 
three sheets for us, and they're now part of the record. When 
you told the committee on June 13 that none of the recommended 
activities would cause a violation of the ABM Treaty in fiscal 
year 2002, were any of these activities on these three sheets 
included in the recommendations at that time?
    General Kadish. I think they're all being developed and 
subject to the normal look by those in compliance review. As I 
stated and in qualifying that it was all subject to the 
compliance process.
    Chairman Levin. Have there been any changes in your 
proposed activities since June 13.
    General Kadish. Oh yes, Senator. Lots of changes.
    Chairman Levin. Since June 13?
    General Kadish. Yes, sir and that is part of the problem we 
have is that there's always changes to this process and as 
stated earlier in the hearing it wasn't until Friday, the 13th, 
that we got a modification to our latest test. So, that is why 
it is so difficult for us to be precise, at least for me to be 
precise, on this because planning at very low levels in our 
organization on the construction projects could change a date 
by months. That has treaty significance.
    Chairman Levin. You gave us a booklet on June 13 laying out 
what your program was and what I would appreciate your doing 
for the record is telling us in what specific ways these three 
sheets differ from that presentation which you made to us on 
June 13.
    General Kadish. We will attempt to do that.
    Senator Warner. Mr. Chairman, might I also ask unanimous 
consent that I have obtained clearance, security clearance, on 
the June 13 testimony which further amplifies General Kadish's 
reply to your questions and the questions of others. I would 
ask unanimous consent that that be placed in today's record. I 
presume this would be an appropriate juncture.
    Chairman Levin. It would be. It would be very helpful, as a 
matter of fact. I appreciate that.
    [The information referred to follows:]

    The June 13 booklet was provided to provide information about the 
status of the program, not to provide information related to treaty 
issues. The fact sheets provided on July 17 set forth information 
related more specifically to treaty issues. From June 13 to July 17, 
the planning the testing and development program continued, decisions 
were made and the fact sheets document some of those decisions. The 
fact sheets are attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    Chairman Levin. First, let me say relative to Senator's 
Warner's comments about a formulation of a position that I 
commended to you. It's something I've been urging for quite 
some time, which is that the President, rather than saying he's 
going to withdraw from the treaty if modifications are not 
agreed to, state that he's going to consider the option to 
withdraw in that event. It's a very significant statement and 
it's significantly better, I believe, both in terms of trying 
to obtain an agreement but also in terms of working with 
Congress. This is really what the position has been of Congress 
for some time, at least in the Senate. Senator Warner, then 
Senator Cohen, Senator Nunn and I talked about getting 
ourselves in a position to have capability so that a president 
could determine whether or not to withdraw based on the nature 
of the threat, based on whether or not overall we'd be more 
secure with a withdrawal, based on operational effectiveness, 
based on impact on arms reductions, based on cost 
effectiveness.
    Those factors were put into a bill that the four of us 
worked on in the mid-1990s so that the President would be in a 
position to decide whether or not to exercise the treaty 
provision relative to withdrawal. In that formulation that 
Senator Warner just made about the President stating that if 
modifications were not available, and were not achievable, that 
then he would consider that option, it seems to me is 
consistent with the position that we have wanted each President 
to be in since we've started down the road of research and 
development of a missile defense.
    In terms of wanting another framework, I think everyone of 
us would like to see a new framework. But we also would like to 
see a new framework in place before the old one is destroyed 
unilaterally--before it's torn down. That is going to take some 
real effort and it's worth trying for but it's very different 
from saying we're going to tear down the old before we have a 
new one--to say we would like to get to a new one and here's 
why. That's a matter of persuading folks that it is in their 
interest and our interest to be able to defend against that 
rogue state or that accidental launch. Both of those are 
useful. But it also means that we don't want to do it in a way 
which could put us in a less secure position. That would 
actually add to our insecurity because of the unilateral action 
which then precipitates a response on the part of Russia and 
China to overcome what they consider to be a threat to their 
security. We may not understand why it's a threat to their 
security but if they feel that way, they're going to act. 
They're going to respond if they feel threatened by our 
unilateral action. We should at least factor that into our 
thinking--not be stymied by it, not give anyone a veto--just be 
aware of what that response is and consider whether or not, 
given what the likely response might be, we would be left in a 
more or less secure position.
    Thank you. You both have been very helpful. These have been 
long hearings, but helpful hearings. We will keep the record 
open for 24 hours for those of our colleagues that have 
additional questions. There is material you're going to be 
submitting for the record. We stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin


                        ALLIES, RUSSIA AND CHINA

    1. Senator Levin. Secretary Wolfowitz, the administration released 
a paper during the week of July 9, 2001 that stated that it had 
``informed our allies and Russia'' of its expectation that the 
ballistic missile program will ``conflict'' with the ABM Treaty in 
months, not years.
    What exactly has the administration told our allies and Russia? 
When did you tell them?
    Secretary Wolfowitz. We have informed them on several occasions 
that in pursuing the best options available for defense of our 
territory, our allies, and our friends, we will come into conflict with 
the ABM Treaty in months, not years. We communicated that we do not 
intend to conduct tests solely designed to exceed Treaty constraints, 
nor do we intend to design tests to conform to, or stay within the 
confines of the Treaty.
    Additionally, we have told them that we hope and expect to have 
reached an understanding with Russia by the time our development 
program bumps up against the constraints of the ABM Treaty, and that we 
would prefer a cooperative outcome. In this context, we have told our 
friends and allies that we intend to continue our consultations with 
them as our discussions with Russia proceed.


    2. Senator Levin. Secretary Wolfowitz, what, if anything, has the 
administration told China?
    Secretary Wolfowitz. We have communicated the same information to 
China.


    3. Senator Levin. Secretary Wolfowitz, did the administration tell 
these nations that you do not plan on modifying the ABM Treaty, but 
rather to move away from it in the hope of a new framework?
    Secretary Wolfowitz. We have informed these nations that we plan to 
move beyond the constraints of the 1972 ABM Treaty--which the President 
has called ``an artifact of the Cold War confrontation'' that prevents 
us from acquiring the capabilities we need to deter and defend against 
new threats and that perpetuates an adversarial relationship with 
Russia.


    4. Senator Levin. Secretary Wolfowitz, has the administration 
considered, or ruled out, the option of deploying long-range 
interceptor missiles in NATO or other allied nations? If so, has the 
administration discussed such an option with our allies?
    Secretary Wolfowitz. As the President has stated, missile defenses 
will be designed to protect the United States, deployed forces, and its 
friends and allies. To accomplish this mission, the Department of 
Defense is exploring a wide range of technologies and basing modes that 
could contribute to an effective missile defense program. Therefore, we 
have not ruled out the possibility of needing to deploy interceptors on 
allied territory, though no decisions have been made. Over the past 
several months we have been involved in an intense dialogue with our 
allies and friends on missile defense issues. In these discussions, a 
number of allies have expressed interest in participating in U.S. 
missile defense plans. We expect these discussions to continue and 
expand.


                          STRATEGIC FRAMEWORK

    5. Senator Levin. Secretary Wolfowitz, your prepared statement from 
July 12 stated: ``We hope and expect to have reached an understanding 
with Russia by the time our development program bumps up against the 
constraints of the ABM Treaty.''
    Why do you expect to have reached agreement with Russia within this 
near term period, which you described elsewhere in your statement as 
``in months rather than in years''? Are there any indications from the 
Russians that they are willing to reach agreement on a new strategic 
framework, or to amend the ABM Treaty?
    Secretary Wolfowitz. My reason for optimism is that I think we have 
a fundamentally different relationship with Russia than we had with the 
Soviet Union. I do not think that the Russians have to lay awake nights 
worrying about our attacking them with nuclear missiles, nor do we need 
to worry about the Russians attacking us. What the Russians are looking 
for is a new framework of relations that addresses the real security 
needs of this era. Both the United States and Russia have a very 
substantial common interest in maintaining stability in Europe and 
Asia. Working together on stabilizing those critical areas of the world 
is the cornerstone of strategic stability today. I believe that as we 
deepen our strategic framework discussions with the Russians--which are 
well underway--we will begin to make some progress.

    6. Senator Levin. Secretary Wolfowitz, what is the U.S. proposing 
for a strategic framework with Russia on the following elements: 
offensive nuclear forces, defensive forces, threat reduction and 
nonproliferation?
    Secretary Wolfowitz. President Bush has called for the development 
of a new strategic relationship with Russia based on openness, mutual 
confidence and real opportunities for cooperation, which recognize the 
fundamental changes in the international security environment.
    In the missile defense area, we are prepared to examine a range of 
cooperative activities with Russia such as the sharing of early warning 
information, sensor technology, and expansion of our existing U.S.-
Russia Theatre Missile Defense (TMD) Exercise. With regard to offensive 
nuclear forces, we see the new framework including substantial 
reductions in offensive nuclear forces
    In the threat reduction area, we are prepared to assist in 
deactivating additional nuclear warheads, destroying strategic delivery 
systems, and improving accountability, storage and transport security 
for deactivated warheads. With regard to nonproliferation, the U.S. and 
Russia could establish a defense-to-defense dialogue on proliferation 
concerns and the challenges to regional and global security posed by 
the acquisition of longer-range missiles and WMD in regions of 
instability. We could also work together in areas of shared 
proliferation concern to identify approaches that can reduce the risks 
of instability.

     LEGAL BASIS FOR R&D FUNDING OF A MILITARY CONSTRUCTION PROJECT

    7. Senator Levin. Secretary Wolfowitz, the Defense Department 
budget proposal for fiscal year 2002 requests research and development 
funding to construct five missile silos at Fort Greely, Alaska for NMD 
interceptor test missiles. Section 2353 of Title 10, U.S. Code, 
prohibits the use of research and development funding for ``new 
construction,'' and the five proposed silos are clearly ``new 
construction.'' The Department has not requested, and Congress has not 
approved, military construction funds specifically for building these 
new silos at Fort Greely.
    What is the legal authority for requesting research and development 
funding for this new construction?
    Section 2802 of Title 10, U.S. Code, states that military 
construction projects require an authorization in law. They also 
require an appropriation. If you are seeking neither of these required 
elements for military construction funds for construction at Fort 
Greely, would the construction you propose conflict with the law?
    General Kadish. The construction at Fort Greely, Alaska will be a 
portion of the Ballistic Missile Defense System Test Bed. Section 2353 
of Title 10, United States Code authorizes construction and acquisition 
of research, developmental or test facilities needed for the 
performance of a research or development contract using Research, 
Development, Test and Evaluation (RDT&E) funds, provided that the 
facilities constructed do not have ``general utility.'' Because some of 
the Ballistic Missile Defense System Test Bed facilities to be improved 
or constructed may have general utility, the Department of Defense has 
proposed new legislation to establish that RDT&E funds may lawfully be 
used for the purpose of constructing the Ballistic Missile Defense 
System Test Bed.
    The Ballistic Missile Defense Organization is proceeding in fiscal 
year 2001 with site preparation work for the portion of the Ballistic 
Missile Defense System Test Bed located at Fort Greely, Alaska using 
the authorization and appropriations of the Fiscal Year 2001 National 
Defense Authorization Act and Fiscal Year 2001 Military Construction 
Appropriations Act. The Fiscal Year 2001 National Defense Authorization 
Act provided project authorization at unspecified worldwide locations 
in the amount of $451,135,000. It also provided an authorization of 
appropriations for such military construction projects at unspecified 
worldwide locations in the amount of $85,095,000. The Fiscal Year 2001 
Military Construction Appropriations Act provided a lump sum 
appropriation for ``Military Construction, Defense-Wide,'' of which the 
table in the accompanying conference report indicates $85,095,000 was 
intended for ``NMD Initial Deployment Facilities (Phase I).'' It is 
critical to the initial deployment of a ballistic missile defense 
system for the United States that the Ballistic Missile Defense 
Organization provides for robust testing in an environment that 
resembles as closely as possible a realistic, operational environment. 
The construction of the Test Bed facility at Fort Greely is consistent 
with and is a necessary and prudent intermediate step toward the 
ultimate construction of an initial deployment facility at Fort Greely. 
Such activities comport with both the Fiscal Year 2001 National Defense 
Authorization Act and the Fiscal Year 2001 Military Construction 
Appropriations Act.

                KODIAK AS AN ALTERNATIVE TO FORT GREELY

    8. Senator Levin. General Kadish, you have indicated that you 
intend to launch test interceptors from Kodiak Island, but not Fort 
Greely, yet you propose putting test missile silos at both Kodiak 
Island and Fort Greely.
    Would it be possible to just use Kodiak, and put as many test silos 
(and other assets) there as you are proposing to put at Kodiak and 
Greely combined? Why couldn't such test assets placed at Kodiak have 
just as much ``residual operational capability'' as those you plan to 
place at Fort Greely?
    General Kadish. First, it is important to note that Kodiak could 
not provide as effective a missile defense as Fort Greely because the 
Kodiak silos would be ineffective against select and specific 
trajectories. Thus, Kodiak could not provide the same ``residual 
operational capability.''
    As a launch site within a test bed, Kodiak has advantages, but even 
then, unlike Fort Greely, it could not allow for proving out and 
testing of operations in a realistic arctic environment. Silo 
construction, silo and interceptor maintenance procedures, system 
acceptance and turnover, training development, and system operations 
would all be different at Kodiak.
    Kodiak has insufficient space for five silos, and there would be no 
room for growth should such a decision be taken. In addition, since 
Kodiak is not Federal land, it cannot assure the same force protection 
and physical security as Fort Greely. Site-specific facility designs 
have not been started, and environmental requirements are not complete 
for Kodiak, while they are approaching completion for Fort Greely.
    Finally, it would be duplicative and wasteful to build the required 
communications and battle management infrastructure at both Fort Greely 
and Kodiak. These elements will be needed at Fort Greely for any 
operational system, so it would be cost prohibitive to construct test 
versions at Kodiak, as well.


    9. Senator Levin. General Kadish, is there anything you can do with 
a silo at Fort Greely that is impossible to do with a silo at Kodiak?
    General Kadish. Yes, Fort Greely can provide for proving out and 
testing of operations in a realistic arctic environment, while Kodiak 
cannot. Silo construction, silo and interceptor maintenance procedures, 
system acceptance and turnover, training development, and system 
operations would all be different at Kodiak.
    In addition, since Kodiak is not Federal land, it cannot assure the 
same force protection and physical security as Fort Greely. Site-
specific facility designs have not been started, and environmental 
requirements are not complete for Kodiak.

                  TEST MISSILES FOR LONG TERM TESTING

    10. Senator Levin. General Kadish, you propose to build five test 
silos at Fort Greely and place test interceptors in them on a long-term 
basis for logistics and maintenance testing, to make sure electronics 
work, and that you understand everything you want to know about the 
missiles. There would be test missiles, rather than fully developed, 
tested and operationally deployed missiles. Is it typical for a missile 
test program like this to build 5 test missiles just to store them in 
silos and never fire them?
    General Kadish. Although this is not a typical program, it is 
typical to build missiles for long-term storage testing in projected 
deployment climates as part of shelf-life reliability assessment 
programs. It is also typical to test missiles in the full range of 
expected deployment climates. In order to verify the functionality of a 
complex system such as this, and to launch and engage several missiles 
simultaneously, multiple silos are required. The test bed requires five 
silos to simulate a maximum Ground-Based Midcourse Missile Defense 
salvo. Five silos are also a reasonable sample to construct, load, and 
observe interceptors in an arctic environment.


    11. Senator Levin. General Kadish, do we do such testing now at 
either Vandenberg Air Force Base or at the launch site at Kwajalein, 
where we have test silos for missile launches?
    General Kadish. No. The target missile and ground-based interceptor 
launched from existing ranges are put in place a few weeks prior to the 
scheduled test execution date.


    12. Senator Levin. General Kadish, do we now do this sort of thing 
anywhere else, where we basically deploy these missiles permanently 
just to test them for logistics and maintenance issues, knowing that 
they are not operational missiles?
    General Kadish. Yes, we typically employ test missiles for 
logistical and interface verification purposes. For example, this 
testing approach was used for the Hawk missile system. A battery of 
Hawk missiles along with all complete operational support equipment was 
emplaced at Redstone Arsenal for the purpose of testing. All changes to 
the system and first article testing were performed on the battery of 
Hawk missiles.
    The test bed missiles will not be operational and will be built to 
test out the interface and functionality of the ground based mid-course 
system, which is very complex. The missile along with functional Launch 
Site Components, Command Launch Equipment, and Environmental Control 
Systems will be stored for a period of years in the environment 
expected during deployment and sustainment. These missiles will 
eventually be removed from the silos at Fort Greely and taken to a test 
range for Live Fire Testing. This approach adds realism to the 
Reliability Test Program.


    13. Senator Levin. General Kadish, do we do this sort of permanent 
testing deployment with any operational missiles; as opposed to 
developmental or surrogate test missiles, where we place them in silos 
or launchers for long periods for the exclusive purpose of testing them 
in logistics and maintenance issues?
    General Kadish. No, it is not typical to permanently deploy 
operational missiles in a testing deployment. We do, however, conduct 
testing deployments and simulations for our ICBM forces at Vandenberg 
AFB and at their operational bases.
    However, it is not unusual to construct and deploy permanent 
testing facilities when developing missile programs. For example, the 
U.S. ICBM program constructed permanent silos and support facilities 
for each type of ICBM developed. These facilities allowed the proving 
out of logistical, maintenance, and operational procedures prior to the 
system's deployment and construction of operational facilities. Many of 
these facilities remain in use to support the Follow-on Operational 
Test and Evaluation (FOT&E) of our current ICBM force.
    Testing of operational ICBMs does occur at the operational base as 
well. Simulated Electronic Launch Minuteman (SELM) exercises isolated 
10 missiles from the operational wing for a period of approximately 1 
month. During these exercises, the Minuteman ICBMs are put through a 
series of ground tests and then given orders to launch. The missiles 
are safed to prevent the firing of the motors. These end-to-end tests 
help provide confidence in the force.
    Yes, we typically employ test missiles for logistical and interface 
verification purposes. For example, this testing approach was used for 
the Hawk missile system. A battery of Hawk missiles along with all 
complete operational support equipment was emplaced at Redstone Arsenal 
for the purpose of testing. All changes to the system and first article 
testing were performed on the battery of Hawk missiles. 


    14. Senator Levin. General Kadish, how much funding is proposed in 
the fiscal year 2002 budget request for building the silos at Fort 
Greely?
    General Kadish. Of the $273.121 million programmed for the 
Ballistic Missile Defense test bed facilities construction, $168.645 
million is programmed for the Ground Based Interceptor. $20.911 million 
of this amount is allocated to prepare Fort Greely for the five missile 
silos.

             ENVIRONMENTAL IMPACT STATEMENT FOR FORT GREELY

    15. Senator Levin. General Kadish, has an Environmental Impact 
Statement (EIS) been prepared in accordance with the requirements of 
the National Environmental Protection Act for the construction of the 
five proposed test silos and placement of interceptor missiles at Fort 
Greely?
    General Kadish. Yes. The National Missile Defense (NMD) Deployment 
Final Environmental Impact Statement (EIS) was final December 15, 2000. 
One of the five alternative locations analyzed in the EIS for the 
construction of up to 100 NMD missile silos and placement of up to one 
hundred missiles was Fort Greely, AK. The Fort Greely portion of the 
Ballistic Missile Defense System test bed proposal is essentially a 
down-scoped version of the deployment proposal analyzed in the NMD 
Deployment EIS. Accordingly, the environmental consequences associated 
with the Fort Greely portion of the test bed proposal are not expected 
to differ materially from those already analyzed in that EIS, but are 
anticipated to be reduced in scope and intensity.


    16. Senator Levin. General Kadish, if so, when was it completed and 
issued?
    General Kadish. December 15, 2000.

    17. Senator Levin. General Kadish, if so, please provide the 
committee with the relevant portions of the EIS that deal with the 
specific proposal to build five test silos and emplace test missiles at 
Fort Greely.
    General Kadish. Relevant portions of sections 2, 3, and 4 are 
provided that analyze activities of like kind at Fort Greely. 
(Information retained in committee files.)


    18. Senator Levin. General Kadish, has a Record of Decision been 
issued for this specific proposal to build five test silos and emplace 
five interceptor missiles in these silos? If so, please provide the 
committee with the relevant portions of the Record of Decision 
pertaining to this specific proposal.
    General Kadish. No Record of Decision has been issued for the 
specific proposal to construct five test silos and emplace five 
interceptor missiles in these silos. BMDO would issue a Record of 
Decision before it awards a contract to begin test bed site preparation 
work. The relevant portions of a Record of Decision pertaining to this 
specific proposal would be provided to the committee upon its issue.
    NOTE: A Record of Decision dated August 10, 2001 was signed and 
published in the August 15, 2001 Federal Register. Contract award date 
was August 18, 2001.


     19. Senator Levin. General Kadish, was there a ``Finding of No 
Significant Impact'' for this specific construction proposal?
    General Kadish. No. A ``Finding of No Significant Impact'' (FONSI) 
would not be issued for this specific construction proposal. In 
accordance with the implementing regulations of the National 
Environmental Policy Act (NEPA), a FONSI is issued in conjunction with 
an environmental assessment (EA) process, to document no significant 
impacts were identified for activities analyzed in the EA process. The 
NEPA process that analyzed the NMD activities at Fort Greely was an 
environmental impact statement (EIS).

                        COBRA DANE RADAR UPGRADE

    20. Senator Levin. General Kadish, how much funding is included in 
the fiscal year 2002 budget to upgrade the Cobra Dane radar on Shemya? 
Precisely what activities are funded? According to your proposal, when 
would upgrade begin and when would it be completed?
    General Kadish. The fiscal year 2002 budget contains $55.0 million 
to begin the Cobra Dane radar upgrades on Shemya Island, AK. The effort 
would begin in fiscal year 2002 and be completed in fiscal year 2004. 
Boeing, the Prime Contractor, would upgrade the existing data 
processor, modify Midcourse Defense Segment software to accommodate L-
Band system radar inputs (from Cobra Dane), provide for a SATCOM link 
to the BMC\3\ node at Fort Greely, and provide final integration and 
testing. In addition, the fiscal year 2002 construction requirements 
are $44.566 million for facilities and power requirements upgrades at 
Eareckson Air Station.


    21. Senator Levin. General Kadish, what is the missile defense test 
purpose for this proposed radar upgrade, and what would it do that the 
existing test range capability does not do?
    General Kadish. The test approaches being considered include flying 
air-launched targets into the Cobra Dane's field of view. The air-
launched targets provide realistic target opportunities for Cobra Dane 
and would allow interplay between the radar and BMC\3\. The use of 
Cobra Dane in such operationally representative test scenarios would 
provide test data that are relevant to evaluating system development 
concepts and performance against a wider range of test parameters. 
Additionally, employing Cobra Dane in the BMD test scenarios would 
allow the radar to utilize legacy capabilities against targets of 
opportunity. Existing prototype and surrogate radars at Kwajalein and 
Hawaii cannot provide for such realistic tests on realistic geometries.


    22. Senator Levin. General Kadish, can the Cobra Dane radar, either 
now or after the proposed upgrade, see target missiles launched from 
Vandenberg Air Force Base or from Kodiak, Alaska?
    General Kadish. No. None of the planned upgrades will change Cobra 
Dane's field of view to the point where it will detect targets launched 
from Vandenberg or Kodiak along their customary trajectories. Note that 
Cobra Dane is in the architecture as a surrogate for a forward deployed 
early warning radar. Shemya's geographic relationship to Vandenberg 
clearly precludes this function for Vandenberg launched targets. Cobra 
DaneS's primary utility will involve air- or other mobile-launched 
targets.


    23. Senator Levin. General Kadish, General Franklin told committee 
staff that the upgraded Cobra Dane radar would be able to look westward 
over the Pacific to track a Long-Range Air Launched Target that is 
under development. Do you have fiscal year 2002 funding proposed for 
development of an ICBM-class air launched target? If so, how much?
    General Kadish. A specific request for funding of an Air Launched 
Target in fiscal year 2002 was not made. A study is currently underway 
to look at development of an increased target launch capability 
(payload and range). In fiscal year 2002, $10 million has been 
requested for this study.


    24. Senator Levin. General Kadish, when do you plan on first using 
this target in a test with the Cobra Dane radar?
    General Kadish. The use of the Long-Range Air Launched Target is 
part of a study to improve testing. The planned use will be determined 
based on the results of that study.


    25. Senator Levin. General Kadish, what will this target's range be 
during this test?
    General Kadish. The desired target performance parameters will be a 
product of the study.


    26. Senator Levin. General Kadish, since that target does not yet 
exist, and it may turn out not to be a long-range target, why is the 
Department requesting funding in fiscal year 2002 to upgrade the Cobra 
Dane radar?
    General Kadish. The funding requested for the Cobra Dane radar in 
fiscal year 2002 will only initiate hardware and software upgrades. The 
Cobra Dane upgrade would assist in development of both the X-Band and 
upgraded early warning radar (UEWR) systems, which would be used in an 
operational ground-based midcourse defense. The Cobra Dane upgrades 
will also allow the BMD program to learn earlier about how such a radar 
and BMC\3\ interoperate. In addition, the short construction window at 
Shemya means that the time required to install and test the planned 
upgrades to the Cobra Dane radar and supporting facilities will require 
more than a single construction season to complete. It is therefore 
prudent to begin this activity as soon as possible.


    27. Senator Levin. General Kadish, would the proposed Cobra Dane 
radar upgrade make sense if you did not build the five interceptor 
silos at Fort Greely? What is the connection between the upgrade of the 
Cobra Dane radar and building five silos at Fort Greely that will never 
launch test missiles?
    General Kadish. Yes, the proposed Cobra Dane upgrades make sense 
even without the five planned silos at Fort Greely. Both the Cobra Dane 
radar and the five Fort Greely silos are part of the overall test bed 
architecture that is intended to allow more robust and realistic 
testing of the ground-based midcourse element of the BMD System.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland

                           PROGRAM MANAGEMENT

    28. Senator Cleland. General Kadish, according to the briefing you 
presented to the Senate Armed Services Committee on 13 June, the 
earliest, ``high risk'' deployment for the various missile defense 
systems under consideration are 2009 for Airborne Laser, 2010 for sea-
based systems, and 2006 for a ground-based system designed to intercept 
missiles in mid-course. The only system whose earliest, high-risk 
deployment was claimed to be 2004 is the ground-based system designed 
to intercept missiles in the missile's terminal phase. Is this correct? 
I define the term ``high risk'' to mean that these programs have a 
probability for success that is lower than what is generally acceptable 
for defense programs, and that rushing these programs is likely to lead 
to expenditures and blind alleys that might be avoided with a more 
deliberate research and testing schedule. Is that correct?
    General Kadish. You are correct regarding our planned fielding 
dates for the Airborne Laser, the Sea-based system and the Ground-based 
portion of the Mid-course segment. However, all of our programs have 
been restructured to support an earlier contingency capability in the 
2004 timeframe.
    By its very nature, building a ballistic missile defense is an 
extremely complex undertaking and is inherently high-risk. The ABL, 
Sea-based Mid-course, Ground-based Mid-course systems are all high-risk 
ventures in the traditional sense because they are all truly ``state of 
the art'' efforts. The Ballistic Missile Defense Program is as complex 
as any in our Nation's history. However, we intend our highly rigorous 
testing and risk-reduction efforts to prevent us from entering ``blind 
alleys.'' We are dedicated to these testing and risk-reduction efforts 
and confident they will serve their intended purpose.

                 ADDITIONAL FUNDING FOR MISSILE DEFENSE

    29. Senator Cleland. Secretary Wolfowitz, are you aware that the 
military services have identified $32.4 billion in requirements that 
are not funded in the administration's fiscal year 2002 budget 
amendment? In light of these very tangible unfunded requirements, how 
do you justify asking for an additional $3 billion for missile defense 
when Saturday's test indicates that the current program, as funded last 
year and programmed for the next several years, is making progress?
    Secretary Wolfowitz. The priority the Department places on missile 
defense reflects the current administration's understanding of the 
growing threat the United States faces from short-, medium-, and long-
range ballistic missiles. While we are just beginning to field systems 
to reliably counter the shorter-range threats, there is still much work 
to be done before we will be in a position to deploy capabilities to 
protect U.S. and allied cities and troops against the emerging longer-
range threats from rogue states, whose leaderships may use these 
offensive capabilities for purposes of terror, coercion, or aggression.
    While we currently have deployed many systems to counter threats 
from the land, sea, and air, and we have initiatives and operations to 
take care of numerous other defense needs, today we have no capability 
against longer-range threats against the American population. Nor do we 
currently have a capability to defeat the medium- and intermediate 
threats that could threaten our troops and allied and friendly cities 
this decade. Much like the threat we expect to face, the Ballistic 
Missile Defense System we are endeavoring to deploy is unprecedented. 
The administration will pursue a robust missile defense research, 
development, test, and evaluation (RDT&E) program to acquire the 
capabilities to deploy limited, but effective missile defenses as soon 
as possible to protect the United States, our deployed forces, and our 
friends and allies. The proposed missile defense funding for fiscal 
year 2002 represents our commitment to developing a rigorous test 
program, which will be essential to our ability to determine which 
technologies and basing modes will be most effective against what by 
all measures is a very dynamic threat. Early deployed capabilities may 
be expected to provide more protection than we currently have.
    Missile defense technologies have been under development for years. 
Many of the technologies required to build an effective BMD System are 
in hand and are improving year by year. The challenge before missile 
defense developers is in engineering the system. We will increase our 
knowledge of system capabilities over time through our RDT&E 
activities, and especially our testing program. These activities will 
give us a sound understanding of the technological and engineering 
possibilities inherent in the system we intend to deploy.


                          BUDGET/ARCHITECTURE

    30. Senator Cleland. Secretary Wolfowitz, in testimony last 
Thursday, General Kadish stated that your missile defense proposal has 
no milestones by which to measure progress. At the Frontier Institute 
last Friday, Secretary Rumsfeld said that: ``We don't have a proposed 
[missile defense] architecture. All we have is a series of . . . very 
interesting research and development and testing programs . . .'' In 
fiscal year 2001, the entire Department of Defense spent $9 billion on 
all basic research and development alone. How can you justify spending 
$8 billion on missile defense if you have no milestones, requirements, 
or architecture in mind? If you don't know what you are going to do, 
how can you know what it will cost?
    Secretary Wolfowitz. The Ballistic Missile Defense program includes 
funding for research, development, testing and procurement. Procurement 
activity and funding will be transferred to the Service responsible for 
the acquisition, and these pro rams--namely PAC-3 and Navy Area 
Defense--have traditional milestones. The remaining missile defense 
activity, which encompasses a significant majority of the funding, is 
for research, development, and testing, and is directed by the 
Ballistic Missile Defense Organization. There are no procurement 
activities in the current BMDO program, but there are decision points. 
The goal of the program is to have sufficient information at these 
decision points to determine whether we should proceed with procurement 
and deployment of particular systems. At this point, our plan is to 
test as robustly and rapidly as possible all systems under development 
so we can provide the necessary information to decisionmakers. 
Therefore, although there is no architecture, per se, there are 
distinct points at which we will measure progress.

                        NATIONAL MISSILE DEFENSE

    31. Senator Cleland. Secretary Wolfowitz, what specific missile 
defense-related activities will take place in Alaska in fiscal year 
2001?
    Has the Compliance Review Group or the DOD General Counsel ruled on 
whether each of these actions violate the ABM Treaty?
    Were there any dissenting opinions expressed by the legal experts 
consulted on the legality of the preparations that you intend to carry 
out this year?
    Are there any missile defense plans outside of Alaska in fiscal 
year 2001 which raise significant compliance issues with respect to the 
ABM Treaty? If so, please give us the views of the Compliance Review 
Group and General Counsel as well as any dissenting views on each such 
plan. Will you assure us that there will be no violations of the ABM 
Treaty during the remainder of fiscal year 2001? During fiscal year 
2002?
    Secretary Wolfowitz. In fiscal year 2001, BMDO is scheduled to 
begin site preparation activities, which will include clearing, 
excavating and grading the site at Ft. Greely, AK.
    In accordance with the procedures set forth in DOD Directive 
2060.1, the General Counsel for the Ballistic Missile Defense 
Organization reviewed the planned activities and determined that they 
did not reasonably raise any issue of compliance with the ABM Treaty. 
As permitted under the Directive, the Under Secretary of Defense for 
Acquisition, Technology and Logistics was informed of this 
determination.
    No. The determination was based on the plain language of the 
relevant Treaty documents. Furthermore, the determination was well 
within the prior consensus of the legal community established during 
consideration of when construction of the Shemya radar would be 
considered to first violate the ABM Treaty.
    There are no missile defense plans outside of Alaska in fiscal year 
2001 which raise significant issues with respect to the ABM Treaty. The 
Secretary of Defense has assured Congress that the Department will 
comply with the law.


    32. Senator Cleland. General Kadish, is prep work on a missile test 
facility at Alaska being contracted for this year? What funds are to be 
used for this work? For what purpose were these funds authorized and 
appropriated?
    General Kadish. Yes, work for the test bed is intended to be 
contracted in fiscal year 2001. BMDO notified Congress on 16 July 2001 
of its intent to solicit a proposal and subsequently anticipates award 
of a construction contract for initial site preparation of a test bed 
at Fort Greely, Alaska, using the authority and appropriations provided 
in the Fiscal Year 2001 Military Construction (MILCON) Authorization 
and Appropriations Acts.
    Congress authorized the Department of Defense Agencies to carry out 
a $451.135 million MILCON project, for which Congress appropriated 
$85.095 million in fiscal year 2001 for the National Missile Defense 
(NMD) Initial Deployment Facilities, Phase I.
    The test bed is essentially a limited portion of the Fiscal Year 
2001 NMD MILCON project, sized appropriately for a testing, not 
operational, mission. The site preparation work planned for Fort Greely 
in fiscal year 2001 will be a small portion of the same work authorized 
for the GBI site construction work. The site preparation contract is 
not expected to exceed $9.0 million.
    NOTE: The contract to begin site preparation work was awarded on 
August 18, 2001.


    33. Senator Cleland. General Kadish, the proposal to build 
interceptor silos at Fort Greely, Alaska, is part of a proposed 
expansion of the BMD test infrastructure. (a) Exactly what would those 
silos be for, and (b) what would they add to the test infrastructure 
that either doesn't exist elsewhere or could not exist elsewhere? (c) 
How much funding is proposed in the budget request for building the 
silos at Fort Greely? (About $200 million) That sounds like a lot of 
money to spend in a single year on construction. (d) Given the short 
construction season in Alaska (I understand it's about 8 weeks), how do 
you plan to spend that much money in a single year, from a ``standing 
start?''
    General Kadish. The elements of the test bed at Fort Greely would 
allow us to test interceptors and associated command launch equipment 
in an operationally realistic environment. Operational aspects that 
will be tested include Battle Management, Command, Control, and 
Communications throughout the system, from radars and sensors in 
various parts of the world all the way to the silos, including critical 
digital message timing. Operations in an Arctic environment, such as 
silo construction, silo and interceptor maintenance procedures and 
planning and rehearsal for system acceptance and turnover, can be 
developed and tested in no other location, not even Kodiak.
    The test bed requires five silos to simulate a maximum Ground-Based 
Midcourse Missile Defense salvo. Five silos are also a reasonable 
number to construct, load, and observe interceptors in an arctic 
environment. Other factors that were considered arise from the fact 
that Fort Greely is optimally suited to be a future deployment 
location. Because of this, environmental requirements and site specific 
facility plans are complete; enough land is available, both for the 
initial five silos and for a future expansion if authorized; and 
Federal ownership provides force protection and physical security.
    Of the $273.121 million programmed for the test bed facilities 
construction, $168.645 million is programmed for the Ground Based 
Interceptor. $20.911 million of this amount is allocated for the five 
missile silos at Fort Greely. The construction season for central 
Alaska is from approximately April through October. This totals about 
28-32 weeks per year depending on weather delays. The first year's 
expenses include mobilization costs, procurement by the contractor for 
long lead items, and the costs for foundation work and enclosing the 
facilities. After enclosure of facilities, some inside work can 
continue into the winter season. It is anticipated and planned that all 
requested funds will be obligated during the fiscal year.


    34. Senator Cleland. General Kadish, your testimony from last week 
indicated that a test bed activity consisting of five test interceptors 
in silos at Fort Greely linked to an upgraded Cobra Dane radar could 
provide an emergency operational capability for limited missile 
defense. When does a test bed activity become an operational capability 
and what needs to happen to change its status? What is the difference 
between the two? What can a test facility do that an operational 
facility cannot do and vice versa? At what point would either activity 
conflict with the ABM Treaty?
    General Kadish. The interceptors in silos at Fort Greely will be 
used to conduct realistic ground testing and gain experience working 
with a variety of different aspects of missile defense, including 
integration of critical system interfaces, maintenance, security, and 
construction. These crucial aspects of developing our capability will 
not include operational command and control (C\2\) linked to the 
National Command Authority, but rather a test command and control 
configured for safety. The test bed could not become an operational 
capability until the operational C\2\ infrastructure, which is part of 
the National Command Authority, is put into place and direction is 
given to make the site operational. The test facility will only launch 
interceptors from Kodiak and only after significant preparation. An 
emergency operational capability would be able to launch interceptors 
from Fort Greely if needed. Although ABM Treaty issues are not within 
my purview, I understand that the compliance questions have not yet 
been resolved.


    35. Senator Cleland. General Kadish, if Fort Greely is intended as 
a test bed site, is it correct that no test interceptors would be 
launched from Fort Greely, but instead the missiles would be stored 
there in silos, and that interceptor test launches would instead be 
conducted from Kodiak Island? Under what conditions, if any, would you 
launch interceptors from Fort Greely?
    General Kadish. It is true that current plans call for test 
interceptors to be launched only from Kodiak Island. It would be 
desirable to be able to launch test missiles from Fort Greely. 
Investigations into the safety and environmental issues involved with 
future test launches from Fort Greely are ongoing. Under current plans, 
interceptors would be launched from Fort Greely only in an emergency.


    36. Senator Cleland. Secretary Wolfowitz, at the outset of this 
administration's defense review, we in Congress were assured that major 
defense program changes would be deferred until after the completion of 
the strategic review. That review is still ongoing. Notwithstanding 
congressional support for the previous administration's program of 
missile defense research and development, adding $3 billion to that 
program is, by any definition, a major defense program change. Why has 
this administration selectively chosen to accelerate missile defense 
programs in violation of your own previously established guideline?
    Secretary Wolfowitz. The Department initiated several major reviews 
at the outset of the administration. The defense strategy review is 
ongoing, and most major defense program changes will await the outcome 
of that review. The Department also initiated a missile defense review, 
which is completed, and the results briefed to Congress. Missile 
defense is one of the Administration's top priorities, and it was 
important to implement the results of the review as soon as possible. 
The budget increase request for missile defense was part of this 
implementation. 

                           PROGRAM MANAGEMENT

    37. Senator Cleland. General Kadish, you have stated in your 
testimony that there are no milestones or other elements of major 
defense acquisition program architecture by which we can measure 
progress with the new missile defense approach you have proposed, but 
you have also indicated that you have ``internal plans'' that provide 
detail on the specific things for which the money is being requested. 
Provide for the record, and in as much detail as is available, the 
internal plans for spending the money you are asking for in the fiscal 
year 2002 budget request.
    General Kadish. The Fiscal Year 2002 Amended Budget Submission has 
been delivered to Congress with additional program details. BMDO will 
monitor the development of our systems through disciplined, internal 
engineering and program management processes. The only change we are 
proposing is how the Department oversees our progress. In lieu of the 
formal Milestone review, which occurs at intervals often spanning 
several years, the Department is planning to review BMD at a senior 
level in a formal process on an annual basis. These incremental steps 
allow technologies that are proven successful to continue to mature or 
be accelerated and those that do not prove successful to be slowed or 
terminated.
    At an oversight level, a senior executive council, chaired by the 
Deputy Secretary of Defense, will provide BMDO guidance and direction. 
The top-down oversight will enable BMDO to carry out our new approach 
with shorter lines of communication and authority. BMDO will have the 
flexibility to adjust program priorities and will support major annual 
reviews with the oversight council to refresh policy and strategic 
framework for program direction. During these annual reviews, the 
oversight council will make executive level decisions to deploy, 
accelerate, truncate or modify capabilities or elements of the 
Ballistic Missile Defense System, major programming decisions, and 
execution year adjustments. The review process will help make decisions 
to shape the evolving systems and allocate resources to optimally 
support missile defense. Congress will have insight into detailed 
spending plans through the budget submissions provided by the 
Department.


          NATIONAL MISSILE DEFENSE DEPLOYMENT READINESS REVIEW

    38. Senator Cleland. General Kadish, many theater missile defense 
programs that were funded under BMDO last year have been broken out to 
the services in this budget request. Provide for the record the exact 
amount of money that was authorized and appropriated for Patriot, 
Theater High Altitude Air Defense, and Navy Area Wide program in the 
fiscal year 2001 Appropriations Act. Provide also the dollar amount of 
BMDO funding that you expect will have been spent, obligated, or 
otherwise committed for each of these programs as of 30 September 2001.
    General Kadish. The appropriated and authorized funding is the same 
and is as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                           Expected
                                                        Obligation Rate
                                                         \1\ (Percent)
------------------------------------------------------------------------
RDT&E:
  PAC-3................................       81.016                 99
  Theater High Altitude Area Defense...      549.945                 97
  Navy Area Program....................      274.234                 96
 
Procurement:
  PAC-3................................      365.457                 70
  Theater High Altitude Area Defense...        0.000
  Navy Area Program....................        0.000
 
MILCON:
  PAC-3................................        0.000
  Theater High Altitude Area Defense...        0.000
  Navy Area Program....................        0.000
 
                                        --------------------------------
Total:
    PAC-3..............................      446.473                N/A
    Theater High Altitude Area Defense.      549.945                N/A
    Navy Area Program..................      274.234               N/A
------------------------------------------------------------------------
\1\ Obligation rates apply to the current program funding which differs
  from the authorized/appropriated funding position.

                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

               NATIONAL MISSILE DEFENSE READINESS REVIEW

    39. Senator Landrieu. General Kadish, the National Missile Defense 
Deployment Readiness Review is critical of the current program. 
Specifically, it notes problems in situations with ``phantom tracks'' 
where interceptors were accidentally launched despite operator's 
attempts to override the system. It also indicates flight tests to date 
have been ``dumbed down'' by reducing the number of decoys and 
utilizing canned scenarios. Despite this, the system has met deployment 
readiness criteria. Specifically, ``it has not achieved two intercepts 
nor demonstrated integrated system performance with a successful 
intercept.'' What steps are being taken to address the concerns 
expressed in this report?
    General Kadish. The NMD Deployment Readiness Review evaluated the 
previous administration's National Missile Defense program, not the 
Ballistic Missile Defense program that is currently planned. The 
previous administration's plan was to undertake development and testing 
for three years, review the results and then determine whether to 
deploy over a three year period. The Deployment Readiness Review 
documented whether the previous administration's program had met its 
stated criteria supporting a decision to deploy. In contrast, the 
planned approach is a research, development, testing and evaluation 
effort that will allow more robust testing, including software testing.
    It appears that the question is in fact referring to the DOT&E 
Report incident to the DRR process, which raised several valid points 
about testing which would be applicable to the current program. BMDO 
has taken several steps to address those concerns. The Battle 
Management Command, Control, and Communications (BMC\3\) software 
accurately correlates sensor data with good covariance estimates; 
however, duplicate tracks may temporarily be created in the system 
track file due to real-world sensor uncertainty in reporting their 
track data covariance estimates to BMC\3\. The BMC\3\ software 
correlation process automatically recognizes and purges these temporary 
duplicate tracks within a few sensor-reporting cycles. It does not 
become "confused" as to which target cluster(s) to engage, since 
engagements are only planned against stable system tracks. This 
reported problem was a development maturity issue identified during 
earlier testing, and it has since been corrected.
    Testing has not been simplified in order to guarantee success. 
Rather, we are ensuring that we know how to walk before we begin to 
run. Flight testing up to this point, as well as tests for the 
foreseeable future, has been designed to prove that hit-to-kill can 
work. Once we have confidence in the hit-to-kill approach, we will add 
more realistic countermeasures and employ more complex testing 
scenarios. Much of this testing is envisioned to be done with the 
proposed missile defense test bed, as laid out in the fiscal year 2002 
budget request.
    At the time of the Deployment Readiness Review (DRR), we had 
achieved only one intercept, and that one intercept did not demonstrate 
a fully integrated system test, as originally planned; however, the one 
intercept demonstrated the feasibility and effectiveness of hit-to-kill 
technology. Also, in each flight test, we have met many of our test 
objectives and this has added to the understanding of how the system 
will perform. At DRR, ground and flight tests had demonstrated about 93 
percent of the critical engagement functions and had shown the ability 
to integrate these elements. The failures that occurred in Integrated 
Flight Test (IFT)-4 and IFT-5 reflect problems in basic engineering and 
fabrication rather than underlying NMD technology or design.


    40. Senator Landrieu. General Kadish, when do you expect system 
maturation and test evaluation to arrive at a point where we need to 
commit to system deployment in a way which would violate the ABM Treaty 
as it is written today?
    General Kadish. Months, not years.


                          ABM TREATY VIOLATION

    41. Senator Landrieu. General Kadish, there has been much 
discussion before this committee on the subject of ABM Treaty violation 
and the fiscal year 2002 budget. We keep hearing different things from 
different witnesses. Can you definitively state that the missile 
defense program for fiscal year 2002, to include the test plan and 
proposed range expansion to Alaska, will not violate the ABM Treaty? If 
not, when can you provide this committee with that information?
    General Kadish. It is not known at this time whether the referred 
to activities are consistent with the ABM Treaty. We will inform 
Congress when a final recommendation by the ABM Treaty Compliance 
Review  Group has been approved by the appropriate decision maker. The 
United States will comply with all of its international treaty 
obligations, including those imposed by the ABM Treaty while it remains 
in force.


                             AIRBORNE LASER

    42. Senator Landrieu. General Kadish, most missile defense experts, 
while possessing varying degrees of confidence in the Airborne Laser 
system's viability, agree that the concept of Boost-Phase Intercept 
holds great promise from a political and technical standpoint. Can you 
please update us on the status of the Airborne Laser program and where 
it is going?
    General Kadish. The concept of boost-phase intercept does hold 
great promise. In a layered approach to ballistic missile defense, the 
capability to destroy ballistic missiles early in their flight profile 
will be a very important capability. The Airborne Laser (ABL) program 
has made a lot of progress over the last calendar year. Some examples 
include ``first light'' from laser module # 1, which achieved a power 
output of 111 percent of design specification. Major structural 
modifications to the 747-400F aircraft were completed in Wichita, 
Kansas, including attaching the 14,000 pound turret to the aircraft. 
This culminates the largest structural modification ever undertaken to 
a commercial aircraft. The integration and test checkout facility for 
the beam control/fire control system was opened in Sunnyvale CA; and 
developing the software and hardware that will comprise the BMC\4\I 
system will continue. Next year's activities will include flight 
testing of the airframe with the turret installed, laser integration in 
the system integration laboratory at Edwards AFB, and continuing to 
populate the beam control/fire control integration and test checkout 
facility with hardware. It is expected that ABL will allow the United 
States to counter missiles of all ranges in the boost and ascent phase.


                           SYSTEM DEPLOYMENT

    43. Senator Landrieu. General Kadish, the proposed fiscal year 2002 
budget includes provisions to expand the range complex by building 
facilities, to include missile silos used to store test interceptors, 
at a site in Alaska which has been proposed as the location for the NMD 
system when ultimately deployed. We've also been told that storing 
these test vehicles in silos would provide the United States with an 
``emergency capability'' even before system deployment. Is this true? 
If so, does it violate the ABM Treaty?
    General Kadish. The program includes plans to construct test silos 
at Fort Greely, Alaska that will contain test interceptors to support 
testing activities. Should the United States face an emerging threat, 
it will have the option to take steps necessary to give the test site 
some operational capability on an emergency basis to provide a very 
limited defense capability. The process of reviewing the ABM Treaty 
compliance of these activities has not been completed. The United 
States will not take any action that will violate the ABM Treaty while 
it remains in force.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                             AIRBORNE LASER

    44. Senator Reed. Secretary Wolfowitz, at the hearings we held, you 
stated twice that the Airborne Laser program is a clear violation of 
the ABM Treaty. My understanding is that unless the Airborne Laser 
system is tested against a strategic ballistic missile target, it would 
not constitute a violation of the ABM Treaty since it is a theater 
ballistic missile defense system. I gather that the Compliance Review 
Group at DOD has reviewed the program previously, but had not conducted 
a final compliance review because the technology was not mature enough 
to render a compliance determination.
    Has the Department changed its position on whether the Airborne 
Laser system would comply with the ABM Treaty, and has it reached a 
final determination on compliance of the ABL system? Is it the 
Department's determination that the ABL system would violate the ABM 
Treaty even if not tested against a strategic missile target?
    General Kadish. The Air Force has briefed the ABL program to the 
DOD Compliance Review Group (CRG) on a regular basis. While no final 
determination of treaty compliance for ABL has yet been made by the 
CRG, nor have they determined at what point the ABL program might bump 
up against the ABM Treaty, they have determined that no formal 
compliance certification under DOD Directive 2060.1 has yet been 
required.


    45. Senator Reed. General Kadish, the Program Manager for the ABL 
program recently briefed committee staff on the program and said that 
the program remains a TMD program designed and intended to defeat 
theater ballistic missiles. Has the Department changed the program's 
objectives recently away from a TMD mission?
    General Kadish. Yes, the Department has broadened the objectives 
for the ABL Program to address longer range missiles. We have not, yet, 
changed the performance specifications of the baseline ABL program. 
Rather we are investigating its capability against other BMD threats in 
addition to theater ballistic missiles to determine if changes should 
be made to the baseline program.


    46. Senator Reed. Secretary Wolfowitz, is the current lethal shoot 
down test currently planned for fiscal year 2003 going to be against a 
theater missile target or a long-range missile target?
    Secretary Wolfowitz. The current ABL baseline program plan is to 
test against a theater missile target at the end of calendar year 2003. 
The baseline test plan is being reviewed for possible inclusion of 
other BMD threats.

                           PROGRAM MANAGEMENT

    47. Senator Reed. General Kadish, at the hearing, we discussed the 
Space-Based Kinetic initiative proposed in the fiscal year 2002 budget 
request. At the hearing you indicated that the program is funded at 
roughly $4 million for fiscal year 2002. A recent newspaper article 
suggested it may be a much higher figure. Please provide for the record 
the amount of funding proposed for fiscal year 2002, and a description 
of what the funding is intended to accomplish during fiscal year 2002. 
Is there a plan to deploy such a system, and if so what is the 
estimated cost and deployment date? What would be the system's intended 
capability?
    General Kadish. Within the Fiscal Year 2002 Amended President's 
budget request is $20 million for space-based, kinetic energy boost 
phase intercept (BPI) activities: $15 million to support space-based 
BPI concept definition and operations concepts, and $5 million for the 
design and hardware requirement definition for a space-based kinetic 
energy experiment. These efforts are specifically aimed at advancing 
the state of the art for space-based BPI applications. Alternative 
platforms for space-based interceptors will be conceptualized and 
evaluated during concept definition to determine system and platform 
trade-space. In parallel, this element will be supported by modeling 
and simulation. Experimentation and phenomenology data collection 
activities conducted within the segment integration line of this 
program element (PE 0603883C) will provide validation for the models 
and simulations used.
    There are no plans at present to deploy such a system. The specific 
ballistic missile defense architecture and deployment timelines are as 
yet undefined, but will take shape over the next few years. As new 
ideas (such as a space-based kinetic energy BPI concept) mature, they 
will be integrated into the BMD System if they increase the capability 
to respond to the evolving threat, and if they are effective within the 
overall system, technical risk, potential deployment schedule, and 
cost.


                    SPACE-BASED KINETIC INTERCEPTOR

    48. Senator Reed. General Kadish, at the hearing I asked if you 
would think it beneficial for Russia to have a space-based kinetic 
interceptor program capable of shooting down U.S. long-range missiles. 
Your answer indicated that you thought it could be useful if Russia had 
a space-based kinetic interceptor capability to defeat an accidentally 
launched U.S. missile. I would like to know what your view would be if 
Russia had the capability to intercept all U.S. long-range ballistic 
missiles, rather than just an accidentally launched missile. Do you 
think such a capability would be good for our security, or would that 
cause you concern that our deterrent capability is reduced?
    General Kadish. Senator, you've asked me to comment on a 
hypothetical question that does not fall within my purview. As the 
Department of Defense official in charge of being the materiel 
developer for our missile defense program, it is not for me to comment 
on the strategic implications of various hypothetical Russian missile 
defense deployments.

              DEVIATION FROM STANDARD ACQUISITION PROCESS

    49. Senator Reed. General Kadish, in your prepared statement you 
stated that: ``We must deviate from the standard acquisition process 
and recognize the unprecedented technological challenges we are facing. 
We do not have major defense acquisition programs in the fiscal year 
2002 budget. We do not have program activities with traditional fixed 
milestones and clearly marked phases showing the road to production.'' 
But it is just these ``traditional acquisition processes and clearly 
marked phases'' that have made the U.S. military the best in the world, 
bar none. If the F-22 fighter were being developed without these 
traditional processes, there would be no way to determine what stage it 
was in its testing, when it would be deployed, and how much it would 
cost, or even what it was being designed to do. Without these 
traditional processes how do you expect oversight organizations both 
within and outside the Pentagon, including Congress, to do their jobs 
in the missile defense area?
    General Kadish. The Fiscal Year 2002 Amended Budget Submission has 
been delivered to Congress with additional program details. BMDO will 
monitor the development of our systems through disciplined, internal 
engineering and program management processes. The only change we are 
proposing is how the Department oversees our progress. In lieu of the 
formal Milestone review, which occurs at intervals often spanning 
several years, the Department is planning to review BMD at a senior 
level in a formal process on an annual basis. These incremental steps 
allow technologies that are proven successful to continue to mature or 
be accelerated and those that do not prove successful to be slowed or 
terminated.
    At an oversight level, a senior executive council, chaired by the 
Deputy Secretary of Defense, will provide BMDO guidance and direction. 
The top-down oversight will enable BMDO to carry out our new approach 
with shorter lines of communication and authority. BMDO will have the 
flexibility to adjust program priorities and will support major annual 
reviews with the oversight council to refresh policy and strategic 
framework for program direction. During these annual reviews, the 
oversight council will make executive level decisions to deploy, 
accelerate, truncate or modify capabilities or elements of the 
Ballistic Missile Defense System, major programming decisions, and 
execution year adjustments. The review process will help make decisions 
to shape the evolving systems and allocate resources to optimally 
support missile defense. Congress will have insight into detailed 
spending plans through the budget submissions provided by the 
Department.


    50. Senator Reed. General Kadish, how will we know the taxpayers 
are getting their money's worth for missile defense, or that the 
programs you are pursuing will work effectively?
    General Kadish. Let me start with the second question. The programs 
we have pursued for a number of years now are bearing fruit. The PAC-3, 
for example, designed to intercept short-range missiles like the Scud, 
will be fielded this fall. It will work. Other important systems are 
maturing--the technology is at hand, and we're working hard on 
engineering and reliability. Any future deployments made from the 
programs we are pursuing will be done with an initial early capability 
and grown to be more and more effective over time in a layered system 
of defenses.
    Will it be worth the money? That must be measured by the cost of 
not having a defense, by the cost of devastation of an American city or 
two. We have national defenses against terrorism, but nothing against 
missiles targeted at American soil. We have air defenses for our 
deployed troops, but woefully little to protect them from ballistic 
missiles, such as the one that killed 28 and wounded another 99 service 
members 10 years ago.
    As major defense programs go, the expenditures are in line with, or 
less than, programs of comparable impact. The entire BMD budget request 
this year is about 2\1/2\ percent of the DOD request and fills a gap 
where no previous effective capability existed against missiles. In so 
doing, it will strengthen both deterrence and defense as one important 
part of our national security fabric.

                     CAPABILITIES-BASED DEVELOPMENT

    51. Senator Reed. General Kadish, you stated last week in your 
prepared statement that you ``intend to go beyond the conventional 
build-to-requirements acquisition process . . . [and have] adopted a 
capability-based approach.''
    Requirements serve an important role in the defense business. They 
define, among other things, how much time and money to spend on a 
program. Development programs come to a successful conclusion once 
their performance requirements are met and the required number of units 
are bought. With no requirements, how do you know you are spending the 
correct amount?
    General Kadish. Given the considerable technical challenges of our 
mission, a traditional acquisition process that includes rigid, 
predetermined user requirements does not provide the requisite 
flexibility to build missile defenses efficiently. For this reason, 
capability-based acquisition is appropriate for this program.
    Nevertheless, while it is correct that we intend to go beyond the 
conventional build-to-requirements acquisition process, BMDO will 
conduct a structured acquisition process. In fact, we do have 
requirements in the form of system development objectives and goals, 
which can and will be adjusted based upon the results of research, 
experimentation, and testing. These standards differ from the 
conventional process in that they will evolve in parallel with 
capabilities, allowing us to significantly reduce schedule and cost 
risk.
    We successfully followed this approach in our early ICBM programs, 
when progress was paced by the evolution of our technological and 
engineering maturity. As needed and possible, those capabilities were 
enhanced. In accordance with our Block acquisition approach, BMDO and 
the Department will conduct rigorous annual reviews of all program 
activities to ensure that we proceed steadily towards an architecture 
that will maximize defensive capabilities. At these recurrent decision 
points, systems will be evaluated on the basis of technological 
maturity, mission requirements, technology readiness levels, cost, 
resource availability, and schedule. Throughout, the CINCs and Service 
Users will be involved in the development process so that, with each 
block, we move steadily forward towards a system with ever-increasing 
military utility that incorporates complementary operational 
capabilities and minimizes life cycle cost.


    52. Senator Reed. General Kadish, it sounds like your proposed 
approach is something like ``we'll see what we can build and then say 
that level of capability is our requirement.'' If so, doesn't that turn 
the normal definition of a ``requirement'' on its head? How can you 
judge whether your programs are successful or not if there is no 
standard for measuring success?
    General Kadish. While it is correct that we intend to go beyond the 
conventional build-to-requirements acquisition process, BMDO will 
conduct a structured acquisition process. In fact, we do have 
requirements in the form of system development objectives and goals 
that can and will be adjusted based upon the results of research, 
experimentation, and testing. These standards differ from the 
conventional process in that they will evolve in parallel with 
capabilities, allowing us to significantly reduce schedule and cost 
risk.
    We successfully followed this approach in our early ICBM programs, 
when progress was paced by the evolution of our technological and 
engineering maturity. As needed and possible, those capabilities were 
enhanced. In accordance with our Block acquisition approach, BMDO and 
the Department will conduct rigorous annual reviews of all program 
activities to ensure that we proceed steadily towards an architecture 
that will maximize defensive capabilities. At these recurrent decision 
points, programs will be evaluated on the basis of technological 
maturity, mission requirements, technology readiness levels, cost, 
resource availability, and schedule. Throughout, the CINCs and Service 
Users will be instrumental in the development process so that with each 
block we move steadily forward towards a system with ever-increasing 
military utility that incorporates complementary operational 
capabilities and minimizes life cycle cost.

                   BALLISTIC MISSILE DEFENSE PROGRAM

    53. Senator Reed. General Kadish, So far, the proposal for missile 
defense has been described only in general terms. Given the far-
reaching nature of the proposed restructuring of the missile defense 
program, one would expect you have a detailed implementation plan to 
achieve the program's objectives, including schedule, milestones, 
technical objectives, test program and cost estimate. We need this 
implementation plan to do our work in marking up the fiscal year 2002 
budget request. When will you deliver this plan to the committee?
    General Kadish. The fiscal year 2002 amended budget submission has 
been submitted to Congress that provides detailed program plans for the 
full fiscal year 2002 program.


    54. Senator Reed. General Kadish, at a press conference on June 13 
you said that you have ``internal plans that [you] are going to work 
to.''
    When will you submit those internal plans to the committee?
    General Kadish. The fiscal year 2002 amended budget submission has 
been submitted to Congress that provides detailed program plans for the 
full fiscal year 2002 program.

                         uncertainty in program
    55. Senator Reed. General Kadish, in your prepared statement for 
the first BMDO hearing you stated: ``I cannot tell you today exactly 
what the [ballistic missile defense] system will look like even 5 years 
from now.''
    We have been researching missile defense technologies for decades, 
and have spent tens of billions of dollars on them, but this comment 
seems to be suggesting that we have to start again as if we have not 
learned from all that effort.
    For what time frame can you tell us what the system will look like?
    General Kadish. Our evolutionary approach focuses on developing a 
single integrated BMD System that will change over time, depending on 
the threat, operational need, and technological maturity. We have 
learned a great deal from past efforts and will continue to build on 
our technical progress. However, by not committing to a single 
architecture, as we have in the past, we can explore multiple 
development paths and take advantage of the best technological 
approaches and most advantageous basing modes. This approach also 
provides the opportunity to deliver capabilities incrementally, in 
increasingly enhanced blocks, rather than wait for the ultimate 
architecture. We have organized the program with the aim of delivering 
militarily useful capabilities in biennial blocks, starting as early as 
the 2004-2006 time frame. Therefore, the composition and capability of 
the BMD System will evolve based upon selection of proven technology, 
demonstrated successes, and opportunities and need for incremental 
employment, and, of course, affordability. While we cannot tell you 
what the final composition of the BMD System will look like, system 
choices and timelines will take shape over the next few years, and the 
evolution of the system will be defined though our capability-based, 
block approach.


    56. Senator Reed. General Kadish, if you have no clear idea of 
where you are heading over 5 years, how can you be sure that you are 
funding the correct activities?
    General Kadish. Our fundamental objective is to develop the 
capability to defend the forces and territories of the United States, 
its Allies, and friends against all classes of ballistic missile 
threats. What we do not know, at this point, the most promising 
developmental paths. Our evolutionary strategy is to fund a broad range 
of activities and parallel development paths to improve the likelihood 
of achieving an effective, layered missile defense. To ensure that we 
are funding the right activities, we are putting in place a stringent 
engineering approach to aggressively develop and evaluate technologies 
and concepts and a new rigorous test program incorporating a larger 
number of tests and employing more realistic scenarios and 
countermeasures. This robust engineering and test activity will provide 
the technical basis for decisions to accelerate, continue, truncate, or 
terminate activities.


    57. Senator Reed. General Kadish, what would be the basis of any 
future decisions to adjust funding between different programs?
    General Kadish. Decisions will be based on thorough analysis of 
risks, technical progress, performance, and affordability.

                            PENTAGON REVIEW

    58. Senator Reed. General Kadish, has the fiscal year 2002 proposal 
for ballistic missile defense been looked at by the military services 
as part of the Quadrennial Defense Review?
    General Kadish. The Department initiated several major reviews of 
strategy and forces at the outset of the administration. The ongoing 
Quadrennial Defense Review reflects the decisions made as a result of 
these initial assessments. Among these was a missile defense review, 
which has been completed, and the results have been briefed to 
Congress. Missile defense is one of the top priorities for the 
administration, and it was important to implement the results of the 
review as soon as possible. The Services played a role in the budget 
review process for missile defense.


    59. Senator Reed. General Kadish, given the focus the proposal has 
on testing, has it been reviewed by the Director, Operational Test and 
Evaluation organization?
    General Kadish. The Department budget process combines numerous 
budget proposals into the overall budget for the fiscal year in concert 
with Departmental guidance. These budget proposals are provided to the 
Comptroller for consolidation into the Departmental budget. The 
Director, Operational Test and Evaluation organization reviews the 
justification materials that accompany the budget submission.


    60. Senator Reed. General Kadish, if not, why? When will DOT&E 
review the testing plan?
    General Kadish. DOT&E is provided an opportunity to review and 
comment on all major revisions to MDA test programs. They also approve 
all operational test planning as documented in the Test and Evaluation 
Master Plans (TEMPs).

                     CONSOLIDATION OF FUNDING LINES

    61. Senator Reed. General Kadish, you propose to establish six 
major pots with $7 billion of research and development money and to do 
annual reviews each November to determine what technologies are proving 
successful. The idea, as I understand it, is that you could accelerate, 
truncate, deploy or slow down specific programs after each review. Are 
you proposing to be able to transfer funds within these pots without 
requiring a specific authorization from Congress, or at a minimum a 
reprogramming request?
    General Kadish. The question focuses on the proposed November 
department review process of the BMD program. Our idea is that BMDO 
will make annual recommendations to the OSD senior leadership on 
program plans and budgets in November in order to finalize the 
President's Budget position submitted to Congress in the following 2 
months. BMDO and the Department, just like every year, will propose an 
allocation of funds to support our priorities, which may include 
program acceleration, truncation, or deployment. Once funds are 
appropriated, BMDO will have the ability to reallocate funds across 
projects within a Program Element, consistent with the Department's 
current operating procedures. Current procedures also limit transfers 
to only $3.999 million between Program Elements for RDT&E; for 
transfers greater than this, we would coordinate with OSD and Congress, 
as necessary.

                             AIRBORNE LASER

    62. Senator Reed. General Kadish, the Airborne Laser has great 
potential as a boost phase intercept program, but it is technically 
challenging, as most revolutionary concepts are. The proposed $196 
million plus-up in fiscal year 2002 almost doubles the ABL funding 
level. What is the new funding to be used for? Will any of this funding 
be used for EMD? What changes in program schedule would result if this 
additional funding is or is not made available?
    General Kadish. Fiscal year 2002 funds continue execution of the 
Airborne Laser Preliminary Design and Risk Reduction Program. This 
includes completing fabrication, integration, and testing of the key 
ABL segments: battle management, beam control fire control, and laser. 
It also provides for preparation of facilities and support equipment at 
Edwards AFB, CA. The Fiscal Year 2002 ABL budget reflects funding for 
increased (1) spares, (2) contractor test manning, (3) test assets, and 
(4) government test support in order to correct program shortfalls and 
to reduce technical and schedule risk during ABL integration and 
testing.
    In regards to funding used for EMD, the budget includes $10 million 
to initiate purchase of long lead optics for the first full-power ABL 
aircraft. The $10 million is needed to meet congressional direction in 
the fiscal year 2001 authorization act to maintain the ability to meet 
a fiscal year 2008 IOC. In addition, the program will conduct risk 
reduction efforts on technologies for application in the full power 
ABL. None of the fiscal year 2002 funds will be used for EMD design 
efforts or purchase of an aircraft.
    Without full funding in fiscal year 2002, the ABL PDRR program 
execution will increase in schedule and technical risk. The program 
will be forced to reduce spares, test assets, and test manning. Given 
such circumstances, the test schedule will likely face delays.


    63. Senator Reed. General Kadish, can the new funding be spent 
efficiently in 1 year without increasing program risk? Why or why not?
    General Kadish. Yes, the program can efficiently spend the 
requested funding. Fiscal year 2002 funding of $410 million is 
comparable to the fiscal year 2001 funding of $386 million, including 
the Fiscal Year 2001 Emergency Supplemental. The new funds allow us to 
buy spares off the current ABL fabrication lines. Additional manning 
for the test team will come from the existing design teams. The lean 
funding for the ABL program in the fiscal year 2001 President's budget 
would have forced us to shut down ABL fabrication lines and reassign 
ABL design teams. The fiscal year 2002 President's budget bridges this 
funding gap.


    64. Senator Reed. General Kadish, since the ABL laser must fit into 
a 747 aircraft, the size and weight of the laser system are critical, 
and must be kept below a certain limit. How does the current estimated 
weight of the test system compare to the operational system weight 
limit?
    General Kadish. The prototype weapons system engineered in the 
Preliminary Design and Risk Reduction phase of development is currently 
projected to weigh 174,194 pounds. The current target weight the 
program office has set is 180,000 pounds for the operational system at 
design completion.


    65. Senator Reed. General Kadish, if the laser system exceeds the 
weight limit, will you reduce the number of laser modules to 
compensate? Would the system be effective with less laser power?
    General Kadish. For the operational system, the design will be 
optimized to provide the warfighter with optimum system performance and 
effectiveness. The ABL program maintains a database of weight reduction 
and aircraft-performance enhancement concepts that will be explored 
during the EMD design. Reducing the number of laser modules would not 
be the first consideration.


    66. Senator Reed. General Kadish, how are you addressing potential 
countermeasures to the Airborne Laser? What are the most important 
potential countermeasures that the department has examined thus far, 
and by what numerical amount would these countermeasures reduce ABL 
performance, if deployed?
    General Kadish. The AF has established a Directed Energy 
Countermeasures Assessment Team managed and operated separately from 
the ABL Program office, which is exploring all possible countermeasures 
identified within the Defense community. The details regarding their 
efforts are classified. BMDO is also funding a significant counter-
countermeasures effort to comprehensively explore realistic 
countermeasures, across all phases of a missile trajectory, that could 
be employed by adversaries attempting to defeat the BMD System.


    67. Senator Reed. General Kadish, the Airborne Laser is designed to 
rupture the fuel and/or oxidizer chambers of a ballistic missile, 
thereby causing early termination of the missile's boost phase. What 
test activities has the department conducted, or does the department 
have planned, to determine whether or not the warhead carried by a 
missile will still detonate after an ABL engagement?
    General Kadish. The Preliminary Design and Risk Reduction test 
program focuses on demonstrating the concept of tracking and destroying 
a ballistic missile in the boost phase. The weapon system's primary 
objective is to prevent a missile warhead from hitting its designated 
target. There are other modeling and simulation efforts underway within 
the BMDO Test directorate to examine boost phase lethality and debris 
and warhead shortfall stemming from missile defense engagements. ABL is 
participating in those efforts.

                       SBIRS-LOW SATELLITE SYSTEM

    68. Senator Reed. General Kadish, SBIRS-Low is a satellite program 
being developed primarily to contribute to the National Missile Defense 
Program. Your proposed fiscal year 2002 budget would transfer SBIRS-Low 
from the Air Force to the Ballistic Missile Defense Organization. 
General Kadish, in your testimony last week, you stated that SBIRS-Low 
will ``enhance detection . . . and provide critical mid-course tracking 
and discrimination data for ballistic missile defense.'' You have 
indicated that current life cycle cost estimates for SBIRS-Low 
currently range as high as $20 billion or so. I understand there is a 
study on SBIRS-Low going on now, led by BMDO. What is the purpose of 
the study, and what results seem to be emerging? Do you plan on 
providing the results of this study to Congress?
    General Kadish. The purpose of the study is to comply with the 
Deputy Secretary of Defense direction from Program Decision Memorandum 
(PDM-1), dated 22 Aug 2000. PDM-1 directs BMDO to ``. . . provide to 
the Deputy Secretary of Defense . . . a comprehensive study of cost-
effectiveness issues concerning the contributions of SBIRS Low to 
defense missions, with the primary emphasis on NMD.'' The objective of 
the study is to estimate the military utility and total cost of SBIRS 
Low as a basis for future Department decisions and determine the cost-
effectiveness of selected alternatives to SBIRS Low.
    New analysis conducted in fiscal year 2001 for the SBIRS Low PDM 
study involved assessing the military utility of SBIRS Low and/or 
terrestrial radar alternatives in support of national missile defense. 
With the directed focus on NMD the study relies on summarizing past 
analyses to show the military utility of SBIRS Low to the former 
Theater Missile Defense mission area and Missile Warning, Battle Space 
Characterization and Technical Intelligence mission areas. Since the 
inception of the SBIRS Low PDM Study, the Secretary of Defense directed 
BMDO to develop a research, development and test program that focuses 
on missile defense as a single integrated Ballistic Missile Defense 
System, no longer differentiating between NMD and TMD. The new analysis 
performed for the study analyzes military utility with respect to what 
is now known as the Ground-based Midcourse element of the BMD System.
    The preliminary results emerging from the SBIRS Low PDM Study 
support the need for SBIRS Low capability within the legacy NMD 
architecture and are consistent with the many studies performed by BMDO 
over the last decade. Results show that SBIRS Low will provide critical 
precision cueing and midcourse tracking and prevent threat complexes 
from overwhelming system radars with countermeasures. In addition to 
providing the BMD System a robust solution against complex threats, it 
provides significant added value to the ancillary missions: Missile 
Warning, Battlespace Characterization, and Technical Intelligence.
    The study will be provided to the Deputy Secretary upon conclusion 
and will be made available to Congress with his approval.


    69. Senator Reed. General Kadish, why do you propose to accelerate 
SBIRS Low now, before the study is completed and the results are 
reviewed?
    General Kadish. The emerging SBIRS Low PDM study results are 
consistent with the many studies performed by BMDO over the last 
decade-SBIRS Low satellites are essential for supporting a robust 
missile defense capability against the evolving threat. It is necessary 
to accelerate the program now, because sophisticated threat 
countermeasures are expected to be such that, by the time SBIRS Low 
constellation is fielded, performance of a radar-only defense will be 
below that needed to counter the threat. The proposed schedule for 
SBIRS Low development is capable of addressing over time an evolving 
advanced threat. SBIRS Low will provide multiple engagement 
opportunities and complicate the adversary's plans with a layered 
surveillance capability. SBIRS Low is also expected to be capable of 
handling a larger number of reentry vehicles, penetration aids, and 
associated objects that could otherwise overwhelm existing radar 
sensors.
    The program plan focuses on accelerating the early risk reduction 
activities to preserve an option to speed up the deployment of the 
satellite constellation. The program will be reviewed annually to 
assess program needs and progress. Review of options to accelerate 
SBIRS Low deployment will take place annually.


    70. Senator Reed. General Kadish, would the proposed acceleration 
of SBIRS Low allow for adequate testing of the basic satellite 
performance prior to committing to buy a large number of satellites?
    General Kadish. Based on our revised acquisition strategy and 
associated risk reduction activities, the proposed acceleration of 
SBIRS Low allows for adequate testing of satellite performance prior to 
committing to purchase a large number of satellites. It also allows for 
evolutionary block upgrades as necessary and feasible. These risk 
reduction activities will allow the SBIRS Low program to address design 
issues earlier, allow more design schedule recovery time, provide for 
higher confidence in source selection, and achieve the proposed 
development schedule. A description of risk reduction activities 
follows:
    The SBIRS Low Program has developed a robust Ground Demonstration 
Program (GDP), in which contractors use simulations and hardware-in-
the-loop testing to reduce risk during the design process and on-orbit 
test period. The GDP has supported engineering trades at the beginning 
of the Program Definition and Risk Reduction Phase and will continue to 
provide lessons learned during the satellite design process. When the 
initial satellites are launched, they will be electronically networked 
with simulated satellites in the GDP to further enhance the fidelity of 
test results prior to additional launches.
    The SBIRS Low Program added an Engineering Model Sensor Package 
with the acceleration of the program. The Engineering Model Sensor 
Package will allow contractors to test an integrated SBIRS Low sensor 
prior to development of the satellite qualification unit and the final 
operational satellite design.
    The Ballistic Missile Defense Organization will review the SBIRS 
Low Risk Reduction program results at the annual BMD System review, 
while facilitating the build-up for production of the SBIRS Low 
constellation. The robust risk reduction program aims to demonstrate 
what does and does not work within the hardware and software designs. 
The annual BMD high-level decision review will steer the program in the 
most promising direction based on data generated by risk reduction 
activities and contractor progress.


    71. Senator Reed. General Kadish, how much funding would be 
committed to satellite purchases prior to the first operational test 
results?
    General Kadish. The fiscal year 2002 APB includes $46.881 million 
to start the satellite buys for testing purposes. The Department has 
not addressed fiscal year 2003-2007 requirements.

                        NAVY AREA DEFENSE SYSTEM

    72. Senator Reed. General Kadish, just last year, about $120 
million had to be added to the Navy Area Defense System across the next 
2 years to cover program cost growth during the research and 
development phase. Despite this, the First Unit Equipped date for the 
program has slipped from fiscal year 2003 to fiscal year 2004.
    Just last week, the Secretary of the Navy sent a letter to Congress 
stating that the average procurement unit cost for the Navy Area 
program was expected to exceed the planned value by more than 25 
percent. Recent news reports suggest an additional program delay. The 
proposed budget adds a further $98 million to the Navy Area program to 
fix R&D problems, and I understand from the Secretary of the Navy's 
letter that significantly more will be needed in the outyears to cover 
program cost growth. How much cost growth do you expect in the program 
over the next 6 years--the time frame of the Future Years Defense 
Program?
    General Kadish. The Secretary of the Navy notified congressional 
members on July 13, 2001 that unit costs for the Navy Area TBMD Program 
have exceeded the Acquisition Program Baseline values by more than 25 
percent. The exact amount is still pending given uncertainties related 
to the DOD Strategy Review and fiscal year 2003 budget development 
process.


    73. Senator Reed. General Kadish, what are the reasons for the 
significant cost growth in both procurement, and research and 
development costs?
    General Kadish. Research and development cost growth has been 
driven by technical integration issues associated with the SM-2 BLK IVA 
missile's increased cost for target procurements and restructuring of 
test and evaluation events. SM-2 Block IVA technical issues in the area 
of software integration and hardware/software integration within the 
guidance section have required adjustments to the program schedule. 
Schedule adjustments impact other parts of the program, including key 
missile/ship integration activities, test ship certification, and 
extension of the Developmental Testing/Operational Testing (DT/OT) test 
program, all of which add additional cost.
    Increased target costs are attributable to contract overruns for 
DT/OT testing at the White Sands Missile Range (WSMR), in addition to 
increased estimates for at-sea Short-Ranged Air Launched Targets. The 
restructuring of Test and Evaluation execution phases at WSMR and for 
at-sea DT/OT has resulted in increased costs for test execution and 
range charges.
    Procurement cost growth has been driven by a number of factors. 
These factors include: higher unit cost estimates due to a flatter 
learning curve based on Long Lead Material/Low Rate Initial Production 
proposal; changes in assumptions for Value Engineering Change Proposal 
(VECP) phase-in/costs; and higher estimates for spares, canisters, and 
production support. Decreases in near-term production due to higher 
missile costs and budgetary constraints have affected vendor stability 
and increased risk to the industrial base. Additionally, common 
component costs have increased based on fiscal year 2001 contract 
awards.


    74. Senator Reed. General Kadish, given the excellent prospects for 
the PAC-3 program, and the high interest our allies have in purchasing 
PAC-3 batteries, what is the relative military contribution of the Navy 
Area program to our theater ballistic missile defense posture?
    General Kadish. The Navy Area and PAC-3 provide two different but 
complementary and essential capabilities for defense against short-to-
medium range ballistic missiles. Conclusions of the Navy Area Theater 
Ballistic Missile Defense (TBMD)/Patriot PAC-3 Report to Congress of 24 
May 2001 were that the PAC-3 interceptor does not meet Navy Area 
performance requirements.
    If PAC-3 is not pre-deployed, the Navy Area-equipped ship could 
protect an asset such as a port or coastal airfields from ballistic 
missile threats and Anti-Air Warfare (AAW) threats while U.S. forces, 
including other missile defense assets, are arriving in theater. Navy 
Area could also be used alone to provide littoral defense as well as 
fleet protection. Navy Area assets would provide great flexibility and 
quick response to regions that do not have forward-deployed ground-
based missile defense systems. In addition, the Navy Area Block IVA 
missile maintains AAW requirements of the SM2 Block IV against advanced 
anti-ship cruise missile threats.
    The PAC-3, when forward deployed, can be used alone to provide 
point defense of collocated assets. But when used together, both the 
PAC-3 and the Navy Area can provide a defense in depth that neither 
could provide alone. These complementary capabilities could appeal to 
other nations for the same reason. The Navy Area capability might be 
particularly attractive to those nations already possessing an Aegis 
capability.

                      NAVY THEATER WIDE VS. ICBMS?

    75. Senator Reed. General Kadish, currently, the Navy Theater-Wide 
program is being designed to defend against theater ballistic missiles, 
rather than ICBMs. Do you plan on testing the Navy Theater-Wide system 
against ICBMs? If so, when?
    General Kadish. The Navy Theater Wide (NTW) program is being 
integrated into the Mid-Course Segment of the Ballistic Missile Defense 
System as the Sea Based Mid-Course (SBMC) element to defeat medium to 
long-range ballistic missiles in the midcourse ascent phase of the exo-
atmospheric battlespace. A concept definition phase will be initiated 
in fiscal year 2002 to focus on a more robust SBMC system with a 
desired deployment in the fiscal year 2008-2010 time frame. Given the 
early stages of the concept definition study, specific test objectives 
have not yet been defined.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

    76. Senator Akaka. Secretary Wolfowitz, I asked you about the 
international consequence of using an Airborne Laser, specifically of 
disabling a missile booster with a nuclear warhead which would then 
lead it to fall someplace, other than the United States, and 
potentially land on an ally or neutral party. You stated that we do not 
have the capability, at this time, for the airborne or space laser, and 
that you would rather work on that before worrying about consequences 
of that capability. A boost phase intercept has very little time to 
intercept a fast moving target. By the time we detect and launch an 
interceptor against a missile launched by, for example, North Korea or 
Iraq that missile will likely be over another country's territory. 
There is nothing to prevent an adversary from arming its warhead at 
launch rather than in the descent phase so we must be prepared for the 
consequences of knocking down a missile with an armed warhead.
    If the U.S. policy is to convince our allies and the international 
community that the layered BMD approach will serve all our interests, 
how can that be reconciled with the very real consequence of dropping 
warheads on them after they are deflected from their original 
trajectory?
    Secretary Wolfowitz. The Airborne Laser is part of our proposed 
system of layered missile defense. The benefit of a layered missile 
defense is that it increases the probability of hitting the target 
missile and its warhead, as there are multiple opportunities for 
engagement. An increased probability of hitting the target missile and 
its warhead serves all our interests.


    77. Senator Akaka. Secretary Wolfowitz, there have been several 
comments about the U.S. NMD program not being a threat to Russia's 
thousands of nuclear warheads. While it is true that Russia has 
thousands of warheads, the real question is the number of missiles that 
Russia believes are reliable. How many do Russian planners consider 
effective on any given day? How many do they believe would survive the 
theoretical U.S. first strike? When all the missile silos, stored 
submarines, mobile units and warheads are subtracted from the total 
number, how many are left?
    Secretary Wolfowitz. [Deleted.]


    78. Senator Akaka. Secretary Wolfowitz, you have stated that you do 
not believe that Russia would increase its missiles or MIRV warheads in 
response to a limited American capability. Do you have the same 
assessment for China? Is it our intelligence assessment that China will 
not increase its missiles or warheads if the U.S. deploys a limited 
capability?
    Secretary Wolfowitz. [Deleted.]


    79. Senator Akaka. General Kadish, you have outlined a very 
aggressive test plan for the next few years. You stated that you plan 
on performing 12 tests over the course of the next 2 years. Do you have 
the personnel to prepare and carry out these tests, perform the 
analysis, and other research and development for which you are 
responsible?
    General Kadish. Yes. We had expected the load on program and staff 
personnel, particularly test and engineering, to become much greater 
and have budgeted for, and already started, adding additional personnel 
to accommodate the extra load over this time period. I am comfortable 
that our organization can support this test plan.


    80. Senator Akaka. General Kadish, an alternative to mid-course 
missile defense is a re-entry, or terminal phase system. A terminal 
phase system waits until a warhead and countermeasures have re-entered 
the atmosphere and decoys will begin acting differently depending on 
the type of decoy being used. For example, balloon decoys may begin 
slowing down relative to the warhead at 250km, while a traffic cone may 
not until 50 or 60km. What requirements have you defined for the 
proposed re-entry system? At what altitude do you expect it to work? 
How large an area do you expect it to cover? How much time will it have 
to track and home in on the warhead?
    General Kadish. You are correct that a characteristic of terminal 
defense systems is that they can take advantage of atmospheric slow-
down (which begins at about 100 km altitude) of intentional and 
unintentional penetration aids to assist the discrimination process to 
identify the lethal warhead in the presence of decoys and debris. Each 
of our terminal defense systems has different requirements, depending 
on the specific threats they are engaging. The THAAD system, for 
example, is an area defense system that counters short-, medium-, and 
long-range theater ballistic missiles. Therefore, it operates in both 
the mid- to high-endo- and exo-atmosphere to defend a large area on the 
ground. This allows THAAD to time its engagement to take advantage of 
the very phenomenon you mentioned, but to also intercept at higher 
altitudes that would be more effective in the presence of other 
counter-measures. PAC-3, Navy Area, and MEADS, are limited area defense 
systems that defend critical assets from short- and medium-range 
ballistic missiles. Engagements by these systems occur in the low endo-
atmospheric regime. Their effectiveness is also enhanced by atmospheric 
strip out. Speaking very broadly, Lower Tier systems such as PAC-3 
could defend a city, while an Upper Tier system such as THAAD could 
defend a medium sized state. Tracking is a function of warning time 
provided by sensors not on the interceptor, with more obviously being 
better. Homing is done by the interceptor and is a function of optimum 
intercept altitude.


    81. Senator Akaka. General Kadish, you testified before the House 
Armed Services Committee on June 14, 2001, that advances in lightweight 
structures have enabled a lighter and smaller kill vehicle. This allows 
costs of the kill vehicle to be kept low while increasing lethality. 
However, such gains may be lost to a boost phase missile defense system 
that requires a kill vehicle to maneuver and accelerate to reach an 
ICBM after its launch. Such diverting capability will require 
considerable fuel, which will increase the kill vehicle weight and 
volume. How will a larger and more massive kill vehicle affect plans 
for a ship-based boost phase system for ICBM threats?
    General Kadish. There are many factors that affect the size and 
mass of the kill vehicle. For boost phase interceptors, the two most 
important factors are: (1) the ability to predict where the hostile 
booster is going; and (2) the need to be able to accelerate the kill 
vehicle quickly from side-to-side if the target maneuvers.
    The first factor requires that we have a lot of fuel on board the 
KV to take out any errors we might have in predicting where the threat 
missile will be when we intercept it. This may require having more than 
half again as much fuel for the divert and attitude control system as 
we need for coasting targets.
    Studies have shown that to counter a maneuvering boosting 
capability, we may require twice the acceleration that we currently 
need in our mid-course kill vehicles for coasting targets.
    Intercepting during the boost phase does have its advantages as 
well. Since the burning missile is much brighter than a reentry vehicle 
coasting in space, we will need far less sensitive missile seekers to 
find it during boost.
    Our investments in kill vehicle technology since 1986 have been 
focused on developing and testing lightweight, high performance 
seekers, high strength, light weight composite structures, and high 
performance divert and attitude control systems. These advances have 
enabled an order of magnitude weight reduction in the kill vehicles 
since the early 1980s. We will draw on this extensive technology base 
to help us solve this engineering problem.
    Our plans for risk reduction in the boost phase include extending 
the kill vehicle technology base in flexible, high performance divert 
systems and integrated passive and active seeker systems. We believe 
this will provide the necessary engineering capability to make boost 
phase kinetic energy intercepts a reality.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard 

                        COMPLIANCE REVIEW GROUP

    82. Senator Allard. Secretary Wolfowitz, according to testimony 
from the Chairman of the Compliance Review Group before the 
Governmental Affairs Committee, ``the Military Services and Defense 
Agencies must seek compliance approval before taking any action that 
would reasonably raise a compliance issue.'' So, by definition, 
activities that are evaluated by the Compliance Review Group have some 
sort of substantive compliance question at stake. Do you agree?
    Secretary Wolfowitz. I agree.

                 COMPLIANCE REVIEW, TESTS AND CONGRESS

    83. Senator Allard. General Kadish, THAAD is a particularly 
interesting example, because it is one in which a compliance 
determination was made ahead of time, at the insistence of Congress, 
although there was no attempt to withhold funding pending the outcome 
of the review, as some seem to be suggesting now.
    The Fiscal Year 1994 Defense Authorization Bill required the 
administration to report to Congress on whether THAAD was compliant 
with the ABM Treaty because of its potential to have capabilities to 
counter strategic ballistic missiles. That report was sent to Congress 
on January 14, 1994, and concluded that THAAD, as its design was then 
understood, in fact would not comply with the ABM Treaty, and, 
according to testimony from General O'Neill, then Director of BMDO, 
``would have to be treated as an ABM system,'' and of course an illegal 
one since it is a mobile system. Later that year, the Senate passed a 
Defense Authorization bill that funded THAAD. In January of 1995, THAAD 
was cleared for initial flight testing, but on the condition that its 
ability to accept cueing data from space-based sensors be crippled. 
Finally, in September of 1996, the Clinton administration declared that 
THAAD was fully compliant, even with cueing software, because as more 
became known about the system, it became clear that the initial 
determination was wrong, and THAAD really didn't have ABM capabilities 
after all.
    Thus--In the fall of 1993, the Senate funded a system whose 
compliance with the ABM Treaty was at the time questionable.
    In the fall of 1994, the Senate funded a system which had been 
determined not to be compliant with the ABM Treaty, and continued that 
funding in subsequent years, until finally the system was declared 
compliant.
    I also point out that last year's authorization bill authorized 
$85.1 million for National Missile Defense Initial Deployment 
Facilities--which some of the expenditures are for the construction of 
an X-band radar at Shemya, Alaska, which is an activity which will 
clearly come into conflict or bump-up against the ABM Treaty.
    So, would I be wrong in concluding that far from being some 
extraordinary departure from normal practice, uncertainty about the 
compliance of these testing activities is the way we have always done 
business, and necessarily so, given the nature of a test program?
    General Kadish. That is correct. The compliance approval for any 
particular activity cannot be completed until all relevant plans are 
complete. On several occasions, that has meant that the compliance 
approval was completed weeks, or even days, prior to the activity.

                             OTHER THREATS

    84. Senator Allard. General Kadish, some have argued that missile 
defense does not defend against other means of delivering a WMD payload 
to the U.S., such as a terrorist using a suitcase or car bomb. However, 
I know we are spending billions of dollars to combat terrorism which I 
do not believe will protect us from a ballistic missile attack. Thus, 
does this mean we shouldn't do either.
    Can you please comment on this as well as discuss not only the 
Department's efforts, but also the Government's efforts as a whole to 
combat against this form of attack against the United States?
    General Kadish. The United States must be prepared to defend itself 
against the full spectrum of threats--from conventional attack to 
terrorism. To combat terrorism, the DOD engages in intelligence 
collection and maintains force protection measures, the capability to 
preempt or otherwise counter terrorism, and units to assist with 
consequence management. DOD and other Federal agencies have undertaken 
a significant, integrated effort to develop effective policies on 
counterterrorism and establish mechanisms that enable the United States 
to preempt and deter terrorism against American citizens and U.S. 
interests around the world. Unfortunately, some terrorists succeed in 
accomplishing their objective. Even under those circumstances, the 
United States has aggressively pursued a policy that seeks to bring 
these terrorists to justice and has been successful in bringing a 
number to the United States for trial and convictions.

                    CHEMICAL AND BIOLOGICAL WEAPONS

    85. Senator Allard. General Kadish, the U.S. has or is developing 
substantial defensive capabilities to deal with the threats posed by 
chemical and biological weapons and WMD terrorism. Do we have defensive 
capabilities that we have developed in response to the threat of 
chemical weapons?
    General Kadish. We place a high priority on protecting our forces 
against chemical agents and have developed and continue to modernize 
our defenses against these weapons. The objective of our Chemical and 
Biological (CB) Defense Program is to enable our forces to survive, 
fight. and win in a chemically or biologically contaminated 
environment. Joint and Service-unique programs support the framework of 
CB defense: Contamination Avoidance (detection) and NBC Battle 
Management (reconnaissance and warning), Force Protection (individual, 
collective and medical support), and Decontamination. These 
capabilities combined with sound doctrine and realistic training are 
fundamental to our success.
    Contamination avoidance capabilities are designed to detect, 
identify and confirm the presence of chemical hazards. Examples are 
chemical agent alarms, sensors, and NBC reconnaissance vehicles. 
Currently we are fielding the Joint Warning and Reporting Network that 
will enhance our NBC Battle Management capability by providing chemical 
hazard area predictions to the warfighting commander. Individual and 
collective protection capabilities allow forces to operate safely while 
in a chemical environment. These include the eye/respiratory protective 
masks, and battlefield protective suits. Collective protection 
capabilities include tentage and shelter systems as well as filtration 
systems on ships and vehicles. Decontamination capabilities allow the 
sustainment of operations in a contaminated environment. These 
capabilities include personnel decontamination kits, and combat 
equipment, vehicles, and aircraft decontamination systems and 
decontamination solutions. Additionally, integral to our chemical 
defensive capability are medical countermeasures designed to enable the 
individual warfighter to survive, fight and win in a chemical 
environment. These countermeasures include pre- and post-chemical 
exposure measures such as the nerve agent antidote and treatment 
procedures for chemical casualties. All of these capabilities 
integrated together are essential to avoid contamination. and to 
sustain operational tempo on an asymmetric battlefield.


    86. Senator Allard. General Kadish, has there been a ``chemical 
weapons arms race'' in response the U.S. development of defenses to 
chemical weapons threats?
    General Kadish. We view the proliferation of chemical and other 
weapons of mass destruction by nation states and transnational groups 
as a means to counter U.S. conventional superiority rather than as a 
response to enhanced U.S. defense against such weapons. Potential 
adversaries recognize their inability to fight and win a conventional 
war against the U.S. and therefore have pursued asymmetric methods such 
as chemical weapons to support their objectives. These weapons are also 
seen by nations as ways to complicate the U.S. regional presence, or 
influence U.S. decision making during a crisis. Other motivations for 
pursuing these weapons include enhanced prestige, intimidation or 
deterrence of regional adversaries, and the relatively low cost of 
these weapons. This strategy also applies to terrorist groups intent on 
inflicting a large number of casualties if they do not fear political 
or military retaliation.

    87. Senator Allard. General Kadish, is the U.S. developing 
defensive capabilities in response to threats posed by biological 
weapons?
    General Kadish. We place a high priority on protecting our forces 
against biological agents and have developed and continue to modernize 
our defenses against these weapons. The objective of our Chemical and 
Biological (CB) Defense Program is to enable our forces to survive, 
fight, and win in a chemically or biologically contaminated 
environment. Biological agents are different than chemical agents. It 
is difficult to detect a biological attack and the onset of symptoms 
may not occur until days after the attack. Therefore, biological 
defense is especially challenging and is receiving increased attention. 
Our Joint and Service-unique programs support the framework of CB 
defense: Contamination Avoidance (detection) and NBC Battle Management 
(reconnaissance and warning), Force Protection (individual, collective 
and medical support), and Decontamination. These capabilities combined 
with sound doctrine and realistic training are fundamental to our 
success.
    Contamination avoidance capabilities are designed to detect, 
identify and confirm the presence of biological hazards. Examples are 
the U.S. Army's mobile Biological Integrated Detection System (BIDS) 
units and fixed site biological detection systems such as Portal 
Shield. Essential to the identification of biological agents is the 
laboratory confirmation of samples and this is provided by the U.S. 
Army's deployable Theater Medical Laboratory unit as well as other 
medical laboratories in the United States and overseas. The Joint 
Warning and Reporting Network will enhance our NBC Battle Management 
capability by providing biological hazard area predictions to the 
warfighting commander. Individual and collective protection 
capabilities allow forces to operate safely while in a biological 
environment. Examples of individual protection capabilities include the 
eye/respiratory protective masks. Collective protection capabilities 
include and shelter systems as well as filtration systems on ships and 
vehicles. Critical to the defense against biological agents are medical 
countermeasures. We have fielded and are developing more medical 
countermeasures that will improve individual protection, treatment, and 
diagnoses. These include vaccines that enable forces to be immunized 
against potential biological agents and antibiotics that may be used 
for treatment following a biological attack.


    88. Senator Allard. General Kadish, has there been a ``biological 
weapons arms race'' in response to the U.S. development of defenses to 
biological weapons threats?
    General Kadish. We view the proliferation of biological weapons and 
other weapons of mass destruction by nation states and transnational 
groups as a means to counter U.S. conventional superiority rather than 
as a response to enhanced U.S. defense against such weapons. Potential 
adversaries recognize their inability to fight and win a conventional 
war against the U.S. and therefore have pursued asymmetric methods such 
as biological weapons to support their objectives. These weapons are 
also seen by nations as ways to complicate the U.S. regional presence, 
or influence U.S. decision making during a crisis. Other motivations 
for pursuing these weapons include enhanced prestige, intimidation or 
deterrence of regional adversaries, and the relatively low cost of 
these weapons. This strategy also applies to terrorist groups intent on 
inflicting a large number of casualties if they do not fear political 
or military retaliation.


    89. Senator Allard. General Kadish, do we have, and are we 
developing, capabilities to defend against WMD terrorism?
    General Kadish. The WMD terrorist threat is one of the most 
difficult and pervasive challenges. To ensure a comprehensive approach 
to combating this threat to U.S. forces, DOD has organized a strong and 
aggressive antiterrorism/force protection program. The Department has 
persisted in making improvements, such as identifying and correcting 
antiterrorism vulnerabilities to ensure there is a reduction in risk to 
our personnel and property and implementing enhancements in planning, 
training, assessing, and equipping. Further, the Department is 
providing guidance and direction to assist the field commanders in 
developing and implementing antiterrorism programs.


    90. Senator Allard. General Kadish, has there been an increase in 
terrorist efforts--a ``terrorist arms race''--as a result of U.S. 
efforts to prevent and defend itself against terrorist threats?
    General Kadish. [Deleted.]

                                 ALLIES

    91. Senator Allard. Secretary Wolfowitz, I have a hypothetical, 
what if an ally, Poland for example, comes to the United States to ask 
for our assistance in developing a missile defense system to combat a 
long-range ICBM threat. Can we share with them our ABM technologies to 
help them defend their territory against this long-range ICBM?
    Secretary Wolfowitz. The ABM Treaty prohibits both transferring ABM 
systems or their components to other States and providing to other 
States technical descriptions or blueprints specially worked out for 
the construction of ABM systems and their components. All responses to 
requests to share ABM-related technologies with another State must be 
reviewed to assure that they are consistent with those obligations.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                        FISCAL YEAR 2002 BUDGET

    92. Senator Sessions. General Kadish, Secretary Wolfowitz answered 
my question regarding what is the breakout of costs between theater and 
national missile defense in the fiscal year 2002 budget by stating, 
``About one to two billion for long range systems, one to two million 
for short range systems, and the rest for dual use technologies.'' With 
greater fidelity, what is the Ballistic Missile Defense Organization's 
(BMDO) budget for short range, long range and dual use technologies/
programs for fiscal years 2001 and 2002? Also, similarly delineate the 
fiscal year 2001 supplemental request for BMDO.
    General Kadish. The fiscal year 2001 supplemental request of $153 
million for Airborne Laser is to support the existing baseline Air 
Force program. The Department-wide fiscal year 2002 amended budget 
requests $8.3 billion total for missile defense. This information is 
based on the Fiscal Year 2002 Amended Budget Submission, which has been 
submitted to Congress.
    In the previous construct of shorter-range missile defense and 
longer-range missile defense, the following budgets are requested. All 
funds are requested in BMDO's budget except where noted. Programs 
marked with an asterisk are split evenly between the two categories as 
their efforts apply to both.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                               Short & Medium Range            Long Range
----------------------------------------------------------------------------------------------------------------
Patriot Advanced Capability-3.............................                    \1\ 784  .........................
Medium Extended Air Defense System........................                     \1\ 74  .........................
Navy Area.................................................                    \2\ 395  .........................
Ground Based Terminal (THAAD).............................                        923  .........................
Arrow.....................................................                         66  .........................
Ground Based Midcourse....................................  .........................                      3,285
Sea-Based Midcourse (NTW).................................                        596                         60
Space-Based Kinetic Boost.................................  .........................                        105
Airborne Laser *..........................................                        205                        205
Space-Based Laser project *...............................                         85                         85
SBIRS-L *.................................................                        210                        210
Advanced Technology *.....................................                         56                         57
International programs *..................................                         38                         37
Systems Engineering *.....................................                        410                        411
                                                           -----------------------------------------------------
  Total...................................................                      3,842                      4,455
----------------------------------------------------------------------------------------------------------------
\1\ In Army budget.
\2\ In Navy budget.

    93. Senator Sessions. General Kadish, why did BMDO eliminate 
THAAD's Fiscal Year 2006-2007 procurement line and move funds from 
THAAD's EMD line in fiscal year 2002.
    General Kadish. All THAAD funding has been designated as RDT&E to 
comply with the overarching BMD System acquisition approach. Funding 
levels for THAAD have been increased in fiscal year 2002 by $210 
million. In accordance with BMDO's restructured management process, it 
is BMDO's intent to transfer management of mature programs at the 
procurement stage to the Services. BMDO expects THAAD to be a mature 
program in fiscal year 2006-2007, at which time procurement 
responsibilities would be transferred to the U.S. Army. To facilitate 
the program transition to the U.S. Army, BMDO will allocate at the 
appropriate time ``transition to procurement'' funding to initiate low-
rate production provided that development and testing prove successful.

                           PROGRAM MANAGEMENT

    94. Senator Sessions. General Kadish, THAAD funds were lumped with 
other programs in a BMDO Dem/Val line. There is no indication of how 
much RDT&E belongs to THAAD. What are the details of the restructured 
funds?
    General Kadish. The R-2 for the Terminal Defense Segment 
(PE0603881C) provided in the Fiscal Year 2002 Amended President's 
Budget Submission includes an R-2A exhibit for the THAAD program. This 
exhibit breaks out in detail the Fiscal Year 2002 Planned Program. No 
funding has been cut from the THAAD program. Funding was consolidated 
into a uniform budget and does account for funding for EMD and the 
transfer to production in later years.


    95. Senator Sessions. General Kadish, what is BMDO's level of 
support under PBD 816 for PAC-3 in the out years? I am concerned about 
funding all ten Army Patriot Battalions and feel the Department has an 
inherent responsibility to support all ten battalions, not just the 
Army.
    General Kadish. The Department is still undergoing its Quadrennial 
Defense Review process. The QDR will address force structure issues 
such as the number of Patriot Battalions. PBD 816 transferred all 
funding to the Army so that they could assess their total warfighting 
capability and affordability constraints. The Department's intent with 
regard to PBD 816 is to transfer $3B in PAC-3 procurement from BMDO to 
the Army. However, final PAC-3 funding is subject to the QDR and 
subsequent DOD guidance over the FYDP.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                               TECHNOLOGY

    96. Senator Collins. General Kadish, some defense experts are 
questioning the technology that is available today and in the near-term 
that would be available to contribute to the development of a robust, 
layered BMD System. You have addressed some of the program elements and 
activities in your written testimony, but I would ask that you 
elaborate on some of the promising technologies which could lead to a 
robust, layered missile defense system, and tell us in what time-frame 
these technologies could be deployed? Further, can you briefly discuss 
how your proposed capabilities-driven approach, vice requirements-
driven, will benefit the overall goal of a robust, layered missile 
defense system?
    General Kadish. We are exploring multiple technologies that will 
enhance current capabilities or form the foundation for the development 
of new missile defense capabilities. Currently, we have funded a number 
of concept definition and risk-reduction efforts intended to support 
this approach. Although we have not yet developed comprehensive 
schedules showing deployment time frames, as BMD technologies emerge 
and mature and we progress in our development activities, we will 
further define schedules and make overall architecture decisions 
consistent with our Block acquisition approach.
    Given the considerable technical challenges of our mission and the 
dynamic nature of the threat, a traditional acquisition process that 
includes rigid, predetermined user requirements does not provide the 
requisite flexibility to build missile defenses efficiently. For this 
reason, capability-based acquisition is appropriate for this program.
    BMDO will conduct a structured acquisition process, applying 
requirements in the form of technological objectives and goals that can 
and will be adjusted based upon the results of research, 
experimentation, and testing. These standards differ from the 
conventional build-to-requirements process in that they will evolve in 
parallel with capabilities, allowing us to significantly reduce 
schedule and cost risk.
    We successfully followed this approach in our early ICBM programs, 
when progress was paced by the evolution of our technological and 
engineering maturity. As needed and possible, those capabilities were 
enhanced. In accordance with our Block acquisition approach, BMDO and 
the Department will conduct rigorous annual reviews of all program 
activities to ensure that we proceed steadily towards an architecture 
that will maximize defensive capabilities. At these decision points, 
programs will be evaluated on the basis of technological maturity, 
mission requirements, technology readiness levels, cost, resource 
availability, and schedule. Throughout the CINCs and Service Users will 
be instrumental in the development process so that, with each block, we 
move steadily forward towards a system with ever-increasing military 
utility that incorporates complementary operational capabilities and 
that minimizes life cycle cost.


    97. Senator Collins. General Kadish, in your written testimony you 
briefly describe the boost phase intercept. Would you describe in more 
detail the advantages of intercepting a missile during its boost phase? 
Further, is it fair to say that the Airborne Laser program is the most 
mature boost-phase intercept system currently under development?
    General Kadish. Interception in boost phase has many advantages. It 
precludes the deployment of countermeasures, such as decoys, in later 
phases of flight. The payload falls short of its intended target 
presenting the attacker with the possibility the warhead, potentially 
carrying nuclear, biological or chemical agents, will fall on his 
territory. Also, the missile is easily identified by its bright exhaust 
plume. Furthermore, the area that can be defended is the entire 
operational area of the threat missile--potentially global for the 
intercept of an ICBM. Finally, any intercept in boost phase lessens the 
load for other elements in the layered BMD System.
    The ABL program is the most mature boost-phase intercept system 
currently under development.


    98. Senator Collins. General Kadish, if the Airborne Laser is close 
enough to the missile being launched, will it have the capability to 
destroy both long-range and short-range missiles? For example, will it 
be able to destroy short-range North Korean Scud missiles, as well as 
the long-range Taepo Dong 2 missile under development in North Korea?
    General Kadish. ABL is designed to kill ballistic missiles at a 
range of several hundred kilometers while the missile is boosting. The 
specific range depends on the details of the construction of the 
missile and the altitude at which booster burn out occurs. Specifics on 
ABL capabilities (range, power requirements) against certain missiles, 
such as the Taepo Dong 2, are classified.


    99. Senator Collins. General Kadish, for the past several years, 
this committee and both bodies of Congress have voted to authorize and 
appropriate funding for the Airborne Laser, yet it has not been 
certified as compliant with the ABM Treaty, is that correct?
    General Kadish. That is correct.


    100. Senator Collins. General Kadish, in your written testimony you 
briefly discuss sea-based boost-phase defense. Would you further 
elaborate on the benefits of sea-based missile defenses? Further, do 
you intend to pursue development of sea-based defenses against a long-
range missile attack on the United States?
    General Kadish. Sea-based missile defenses are complementary to 
land-based and airborne missile defense platforms. Sea-based defense 
offers several key advantages:

        <bullet> Ships may already be forward deployed in the theater, 
        monitoring missile launches. This real-time reaction to a 
        hostile missile launch is necessary to destroy the missile as 
        close to the launch site as possible.
        <bullet> While territorial waters are a concern, ships can 
        maneuver without being encumbered by land-based host nation 
        restrictions or, in the case of airborne platforms, obtaining 
        host agreements from foreign countries for temporary basing, 
        maintenance, and re-supply.
        <bullet> For specific periods of time, they can be 
        operationally ready 24 hours a day; aircraft would be stressed 
        to provide such a capability over a long period of time.
        <bullet> Deployment of a contingency Sea-based Midcourse may be 
        done more rapidly with an existing fleet of Aegis-equipped 
        cruisers.

    It is our intent to develop the Sea-Based Midcourse System to 
intercept and destroy medium to long-range ballistic missiles in the 
midcourse ascent phase of the exo-atmospheric battlespace.

    [Whereupon, at 1:10 p.m., the committee adjourned.]

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        THURSDAY, JULY 19, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

            BALLISTIC MISSILE DEFENSE POLICIES AND PROGRAMS

    The committee met, pursuant to notice, at 9:30 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Cleland, Reed, Bill Nelson, E. Benjamin Nelson, Warner, Inhofe, 
Allard, Sessions, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Christine E. Cowart, chief clerk; and Anita R. 
Raiford, deputy chief clerk.
    Majority staff members present: Richard D. DeBobes, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Kenneth M. Crosswait, professional staff member.
    Minority staff members present: Judith A. Ansley, deputy 
staff director for the minority; Brian R. Green, professional 
staff member; and Scott W. Stucky, minority counsel.
    Staff assistants present: Thomas C. Moore, Jennifer L. 
Naccari, and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Barry Gene (B.G.) Wright, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; Peter A. 
Contostavlos, assistant to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; J. Mark Powers, and John A. 
Bonsell, assistants to Senator Inhofe; George M. Bernier, III, 
assistant to Senator Santorum; Douglas Flanders and Charles 
Cogar, assistants to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to continue to receive testimony on 
ballistic missile defense policies and programs from three 
individuals with extensive experience in foreign and defense 
policy. I want to welcome to the committee Samuel Berger, 
Chairman of Stonebridge International and former Assistant to 
the President for National Security Affairs; Philip Coyle, 
Senior Advisor at the Center for Defense Information and former 
Director of Operational Test and Evaluation at the Department 
of Defense; and Richard Perle, Resident Scholar at the American 
Enterprise Institute and former Assistant Secretary of Defense 
for International Security Policy.
    This is the committee's third hearing on missile defense 
policies and programs in the proposed fiscal year 2002 amended 
budget request. Over the last 2 weeks, Deputy Secretary of 
Defense Paul Wolfowitz and the Director of the Ballistic 
Missile Defense Organization, Lt. Gen. Ronald T. Kadish, USAF, 
have presented the administration's proposal for an 
``aggressive'' research and development program for ballistic 
missile defense, costing $8 billion in fiscal year 2002 alone, 
a 57 percent increase in spending on missile defense over the 
current fiscal year.
    Despite the unfortunate absence of specific details on how 
the administration would spend that $8 billion in the next 
fiscal year (details we have been promised by the end of the 
week), our hearings have helped to shed some light on the 
administration's plans for a national missile defense system.
    We learned that one or more aspects of this research and 
development program could either, ``conflict with the ABM 
Treaty,'' as we heard Wednesday of last week from Deputy 
Secretary of Defense Paul Wolfowitz, or, ``bump up against,'' 
ABM Treaty restrictions, as we heard Thursday of last week, 
also from Secretary Wolfowitz, ``within months rather than 
years.''
    Secretary of State Colin Powell gave a somewhat different 
slant this week when he said he did not want to say ``months.'' 
It certainly is not going to be years before we would, in his 
words, ``hit the wall of that treaty.'' We learned that there 
are three specific activities for which funds are requested for 
fiscal year 2002 that would likely conflict or bump up against 
the treaty.
    We learned the administration would like the Fort Greely 
and Shemya Island test bed to, ``give us the option for 
rudimentary operational capability,'' as quickly as possible. 
In other words, a major purpose of the Fort Greely and Shemya 
activities is to provide a rudimentary operational capability. 
The test bed is but one of two purposes for which these sites 
will be used.
    Finally, I was heartened to see the beginnings of a spirit 
of flexibility in how the administration would approach the 
sensitive issue of the ABM Treaty. In the event that 
modifications to that treaty cannot be achieved with Russia, 
Senator Warner asked on Tuesday whether, ``if for some reason 
these negotiations with Russia do not meet the goals that the 
President has laid down, whether he would come back to Congress 
in a consultative process.''
    Secretary Wolfowitz responded, ``we will be consulting 
closely with Congress throughout the coming months.'' Senator 
Warner continued by stating that he hoped that the President 
``would have further consultation as necessary with Congress 
before exercising the treaty provision of withdrawal.''
    I also believe that consultation is critical before such a 
momentous shift is made. Drawing on their wealth of experience, 
today our witnesses can help us better understand the 
consequences of the administration's budget actions. The 
critical question is whether testing in violation of the ABM 
Treaty or deploying a national missile defense system, if done 
unilaterally by withdrawing from the ABM Treaty without a new 
arrangement to replace it, would leave America more or less 
secure.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming our three witnesses, who I have known for a very long 
time. They bring to the hearing corporate knowledge of foreign 
affairs that goes back many decades. Mr. Berger, you certainly 
earned a place in history by serving President Clinton very 
loyally. I also feel you set new parameters for consultation 
with Congress. Many times the President, through you, invited 
Members down to work with him, particularly in the troublesome 
period of Bosnia and Kosovo, and I value those consultations 
and respect them, and I thank you for those meetings.
    Mr. Perle, you are an icon, who needs no further 
elaboration from me. Mr. Coyle, while I do not know you that 
well, I studied many times your pragmatic and objective 
assessments of those serious issues, particularly relating to 
the subject before us today. So I welcome you all.
    We awakened this morning to find that our distinguished 
Majority Leader Daschle made some fairly troublesome 
statements, in my judgment, with regard to our President. 
President Bush is making a conscientious effort to consult with 
our allies and to initiate preliminary negotiations with Russia 
on the subject before us today, and that is missile defense.
    It seems to me in my 23 years in the Senate, as I have 
observed colleagues in the Senate, they have always at least 
given the President, irrespective of party, some latitude as 
they undertake their primary function under the Constitution, 
that is, to be the chief architect of our foreign policy and 
security issues. I would hope during the course of the next 24 
hours that somehow this rhetoric from Majority Leader Daschle 
can be resolved.
    Also, in this hearing room we have had some pretty tough 
criticism directed at our President. While I believe our 
hearings have been very productive and a major step forward in 
seeking to better understand the necessity for our country to 
look at a new relationship with Russia, and to move forward 
with a series of options to explore the full parameters of how 
we construct a missile defense system, we too have been 
pockmarked here and there with some pretty tough criticism.
    Even in this morning's paper there seems to be some very 
interesting and constructive comments by Russian President 
Putin, toward the actions of our President. I remain very 
confident that our President can forge a mutually acceptable 
new framework, and to allow this country and, indeed, others to 
proceed toward the necessity for missile defense.
    Mr. Chairman, I am anxious, as you are, to proceed. I would 
note, however, that Secretary Wolfowitz, as you stated to 
General Kadish in our last hearing, did a remarkable job of 
testifying for 2 consecutive days. These sessions were in 
excess of 4 hours, and we covered, I think, the basics for this 
committee and the Senate as a whole. It was excellent. I thank 
the chairman.
    Chairman Levin. Thank you very much, Senator Warner, and a 
very warm welcome to you, Sandy. It is great to see you again. 
Please proceed.

   STATEMENT OF HON. SAMUEL R. BERGER, CHAIRMAN, STONEBRIDGE 
 INTERNATIONAL, FORMER ASSISTANT TO THE PRESIDENT FOR NATIONAL 
                        SECURITY AFFAIRS

    Mr. Berger. Thank you, Mr. Chairman, and thank you, Senator 
Warner, for those kind words. Members of the committee, I thank 
you for the invitation to appear today on one of the most 
consequential national security issues our Nation faces. These 
are difficult issues, and they need full discussion among 
people of varying perspectives conducted with goodwill and with 
a shared interest in advancing the security of the United 
States.
    Mr. Chairman, the issue is not whether to protect America, 
but how best to protect America. There is an emerging threat 
from proliferation of long-range missiles. Missile defense may 
be an appropriate part of our response, but how we get there 
matters. We must pursue a strategy that advances our security 
interest, not just with tunnel vision, but also with peripheral 
vision.
    That is why I find the missile defense that Secretary 
Wolfowitz sketched out over the past several days troubling. It 
requests congressional support for activities the 
administration says are likely to ``bump up against'' the ABM 
Treaty ``within months.''
    To me, that means either we will be constrained by or 
withdrawing from the treaty in the absence of an agreement with 
the Russians in a very short timeframe. It is a schedule that 
key experts tell us is not necessary to vigorously pursue a 
range of missile defense technologies. It means we could incur 
serious cost and risks before we know what threat our system is 
designed to target, whether the system is likely to work 
against that threat, the cost and tradeoffs involved (including 
within the defense budget), and the overall consequences for 
our national security. It is as if the objective is to put the 
most pressure on the treaty and collapse the time frame for 
negotiations.
    The Bush administration's focus, in my judgment, is at this 
stage too narrow. The issue is, how do we enhance the overall 
security of the American people in a world with complex and 
diverse threats and overlapping security equities. The 
administration is correct to give serious weight to the 
emerging threat from the proliferation of ballistic missiles. 
But we must also give serious weight to former adversaries 
still armed with nuclear weapons, in particular Russia, whose 
actions can affect our security; to allies whose solidarity 
with us is a strategic asset and whose cooperation to build any 
missile defense system is highly desirable if not necessary; to 
bountiful but not unlimited budgetary resources; and to a 
multitude of threats--some old, some new--which impose the 
obligation to establish priorities and balance.
    I welcome Secretary Powell's statement last week that we 
intend to make a serious effort with the Russians to modify the 
current ABM Treaty and seek a new strategic framework as the 
President has discussed. But the game plan outlined by the 
Pentagon last week proceeds on a timetable that makes it 
impossible for any such negotiations to succeed.
    Indeed, we may be creating a self-fulfilling prophecy, 
leading almost inevitably to a breach or unilateral abrogation 
which, at the very least, is premature. In the past 6 months, I 
have heard a number of different objectives articulated for our 
missile defense program. But there is little detail regarding 
the capabilities and architecture that would be required to 
accomplish these objectives. Each would have different 
potential consequences for the Russian deterrent.
    How can we expect to negotiate modifications to the ABM 
Treaty or a change in decades of strategic policy with the 
Russians in a matter of months when the purpose, architecture, 
and scope of our missile defense system are all undefined? This 
is a collision course to unilateral breach or abrogation sooner 
rather than later.
    Is that necessary? Mr. Coyle will speak to the view he has 
expressed that testing a range of technologies which would 
require modifications to the ABM Treaty is, ``many years 
away.'' I welcome the successful flight test conducted last 
weekend. But the ABM Treaty is not constraining vigorous 
pursuit of a range of technologies.
    Why not unilaterally abrogate the treaty? Does it matter?
    Let me address these questions: No other country can ever 
have a veto over U.S. security requirements. But that does not 
end the argument. For in calculating our national interest, we 
need to include reasonably foreseeable consequences of our 
actions.
    What are the risks and costs, particularly from what would 
be seen as a precipitous withdrawal from the treaty?
    First, as President Bush has said, Russia is no longer our 
enemy, but it is also true that a cycle of instability, 
uncertainty, danger, and paranoia is still possible. In very 
recent years, we have been through crises in the Balkans, the 
Middle East, the Persian Gulf, and elsewhere in which the 
United States and Russia have been at tense, fast-moving, 
confusing, and contentious moments of crisis. Even with the end 
of the Cold War, our two countries still harbor distrust, 
burdens of history, fierce national pride, and large nuclear 
arsenals. Uncertainty about each other's capabilities and 
intentions still can be dangerous. Agreed constraints, 
transparency, and verification of our nuclear capabilities are 
important; we erode this as we move away from agreed rules.
    Second, while changes in the ABM Treaty may be warranted, 
agreed constraints on defenses are not obsolete. The purpose of 
the ABM Treaty was to decrease each side's sense of 
vulnerability to preemption or coercion, and therefore, to keep 
their nuclear guns in the holster, and not on a hair trigger. 
While the political context has changed, the strategic dynamic 
changes more slowly. Without the ABM Treaty, or a modification 
thereof, the Russians have said--and there is risk in ignoring 
this--that they will act in ways they believe will decrease 
their vulnerability, not just to U.S. attack--which is, of 
course, hard to conceive--but to U.S. coercion, which for the 
Russians is not hard to conceive. In the context of what is 
seen as a precipitous abrogation by us, unfortunately they 
would have sympathy from much of the world. There are steps 
which are not beyond their means, including withdrawing from 
the START and INF Treaties, adding warheads to strategic 
missiles, and redeploying tactical nuclear weapons at sea, or 
on NATO's periphery. These all would take us back down the path 
of instability in a dangerous world.
    Again, none of this is to suggest that Russia should have a 
trump card. It does mean to me, however, that the path to 
unilateral abrogation of the ABM Treaty, particularly without a 
serious effort at modification, is not without risk that must 
be part of our calculation of our national interest.
    In this respect, I agree with Henry Kissinger. 
``Unilaterally American decisions,'' he recently wrote, 
``should be a last resort. The most powerful country in the 
world should not adopt unilateralism until the possibilities of 
agreement have been fully explored.''
    There are other essential questions that need to be 
clarified if we are to move forward in a way that looks at our 
security interests broadly, not narrowly.
    First, what will be the effect of missile defense on 
stability in Asia? We acknowledge that this system we seek to 
build could defeat China's small nuclear deterrent. Our answer 
seems to be: they are going to build up anyway. I think that is 
a strange posture for the United States which would be in 
effect, legitimizing and perhaps accelerating China's strategic 
modernization. What impact will that have on the intertwined 
Asian nuclear dynamic, on India's nuclear program, and 
Pakistan's? On the calculations across the Korean peninsula? On 
the sense of vulnerability, and the incipient nuclear debate, 
in Japan? This all must be part of the equation as we decide to 
move forward.
    Second, are we looking at weapons of mass destruction 
through the wrong end of the telescope? There is a significant 
possibility that the United States will be attacked by a 
nuclear, chemical, or biological weapon over the next decade. 
But I agree with the former chairman of this committee, Sam 
Nunn, who recently wrote, ``the clear and present danger is not 
from North Korean missiles that could hit America in a few 
years . . . the likeliest nuclear attack against the United 
States would come from a warhead in the belly of a ship or the 
back of a truck.''
    The obvious response to this argument is that it is not 
either/or. We should build a missile defense to bolster 
deterrents and provide insurance in case deterrence fails and 
do more to protect ourselves against other threats, including 
the more probable attacks in the United States. But, in fact, 
as the members of this committee know, in the real world, we 
cannot avoid choices, setting priorities, and allocating 
resources.
    Missile defense appears to be the central strategic 
imperative of the Bush administration, with virtually 
everything else subordinated to it. The allies, Russia, Asia, 
the merits of arms control, other defense modernization needs, 
other WMD threats, and cooperation with the Russians through a 
fully funded Cooperative Threat Reduction (CTR) program to 
control nuclear materials seem to have been forgotten. The 
essential job of the administration and Congress is to strike 
the right balance.
    Let me briefly suggest how I propose we should go forward. 
First, we should continue to pursue actively a range of 
potential missile defense technologies and define the scope of 
the threat, but not engage in a 2-minute drill that is likely 
to put us on a collision course with the ABM Treaty and most of 
the rest of the world in the next few months.
    Second, with greater clarity on the scope of the system, we 
should press for an agreement with the Russians on new 
defensive constraints, and engage in real consultations with 
the allies.
    Third, we should vigorously fund our theater missile 
defense programs, which are needed on today's battlefield and 
need not conflict with the ABM Treaty.
    Fourth, we must see the issue before us as WMD defense, not 
simply national missile defense. To the extent the American 
people think about this in bed at night, I believe their 
greatest fears relate to a terrorist attack: toxic chemicals 
placed in the water supply or an anthrax attack that could 
swiftly sweep across the country or a nuclear device in a 
truck. There is far more we must do to fight virulent anti-
American terrorists who are seeking these weapons and to 
protect our critical infrastructure.
    Fifth, we can reduce offensive nuclear arsenals to levels 
commensurate with today's needs, either bilaterally or 
unilaterally verified through existing strategic arms accords, 
which still have great value for our security.
    Sixth, we must address the needs and requirements of 
tomorrow's military across-the-board, as Secretary Rumsfeld's 
current defense review will require, for we need a strong 
defense and the right defense, and that will require adequate 
resources and difficult choices.
    Seventh, we should resume serious negotiations with the 
North Koreans to stop their missile program--the front edge of 
the threat. I do not know whether a verifiable, acceptable 
agreement is possible. I do know that the missile testing 
moratorium we negotiated in 1999 has slowed their program and 
that we will never find out what is possible if we do not 
reengage in a serious way at a serious level.
    Mr. Chairman, our first obligation is to protect America. 
But America's national security interests are not one-
dimensional. I hope the United States will fashion a course 
that provides that protection with wide-angle vision.
    Thank you.
    [The prepared statement of Mr. Berger follows:]

              Prepared Statement by Hon. Samuel R. Berger

    Mr. Chairman, members of the committee: I thank you for the 
invitation to appear today on one of the most consequential national 
security issues our Nation faces. These are difficult issues, and they 
need full discussion among people of varying perspectives, conducted 
with good will and with a shared interest in advancing the security of 
the United States.
    Mr. Chairman, the issue is not whether to protect America but how 
best to protect America. There is an emerging threat from proliferation 
of long-range missiles. Missile defense may be an appropriate part of 
our response. But how we get there matters. We must pursue a strategy 
that advances our overall security interests, not just with tunnel 
vision but also peripheral vision.
    That is why I find the missile defense outline that the 
administration sketched out to this committee over the past several 
days troubling. It requests congressional support for activities the 
administration says are likely to ``bump up against'' the ABM Treaty 
``within months.'' To me, that means either we will be constrained by 
or withdrawing from the treaty in the absence of an agreement in a very 
short timeframe. It is a schedule that key experts tell us is not 
necessary to vigorously pursue a range of missile defense technologies. 
It means we could incur serious costs and risks before we know what 
threat our system is designed to target, whether the system is likely 
to work against that threat, the cost and tradeoffs involved--including 
within the defense budget--and the overall consequences for our 
national security.
    It's as if the objective is to put the most pressure on the treaty 
and collapse the timeframe for negotiations.
    The Bush administration's focus appears, at this stage, too narrow. 
The issue is: how do we enhance the overall security of the American 
people in a world with complex and diverse threats and overlapping 
security equities. The administration is correct to give serious weight 
to the emerging threat from the proliferation of ballistic missiles. 
But we must also give serious weight to former adversaries still armed 
with nuclear weapons, in particular Russia, whose actions can affect 
our security; to allies whose solidarity with us is a strategic asset 
and whose cooperation to build any missile defense is highly desirable 
if not necessary; to bountiful but not unlimited budgetary resources; 
and to a multitude of threats-some old, some new-which impose the 
obligation to establish priorities and balance.
    I welcome Secretary Powell's statement last week that we intend to 
make a serious effort with the Russians to modify the current ABM 
Treaty and seek a new strategic framework as the President has 
discussed. But the game plan outlined by the Pentagon last week 
proceeds on a timetable that makes any such negotiation virtually 
impossible to succeed.
    Indeed, we may be creating a self-fulfilling prophecy, leading 
almost inevitably to breach or unilateral abrogation which, at the very 
least, is premature. In the past 6 months, I have heard a number of 
different objectives articulated for our missile defense program. But 
there is little detail regarding the capabilities and architecture that 
would be required to accomplish these objectives. Each would have 
different potential consequences for the Russian deterrent.
    How can we expect to negotiate modifications to the ABM Treaty with 
the Russians in a matter of months when the purpose, architecture and 
scope of the system are undefined? This is a collision course to 
unilateral breach or abrogation sooner rather than later.
    Is that necessary? Mr. Coyle will speak to the view he has 
expressed that testing a range of technologies which would require 
modifications to the ABM Treaty is ``many years away.'' I welcome the 
successful flight test conducted last weekend. But the ABM Treaty is 
not constraining vigorous pursuit of a range of technologies.
    Why not unilaterally abrogate? Does it matter?
    First, let me be clear. No other country ever can have a veto over 
U.S. security requirements. But that doesn't end the argument. For in 
calculating our national interest, we need to include reasonably 
foreseeable consequences of our actions.
    What are the risks and costs, particularly from what would be seen 
as a precipitous withdrawal from the treaty?
    First, as President Bush has said, Russia no longer is our enemy, 
but it also is true that a cycle of instability, uncertainty, danger 
and paranoia still is possible. In very recent years, we've been 
through crises in the Balkans, the Middle East, the Gulf and elsewhere 
in which the U.S. and Russia have been at tense, fast moving, 
confusing, and contentious moments of crises. Even with the end of the 
Cold War, our two countries still harbor distrust, burdens of history, 
fierce national pride and large nuclear arsenals. Uncertainty about 
each other's capabilities and intentions still can be dangerous. Agreed 
constraints, transparency and verification of our nuclear capabilities 
are important; we erode this as we move away from agreed rules.
    Second, while changes in the ABM Treaty may be warranted, agreed 
constraints on defenses are not obsolete. The purpose of the ABM Treaty 
was to decrease each side's sense of vulnerability to preemption and 
coercion and, therefore, to keep their nuclear guns in the holster, not 
on a hair trigger. While the political context has changed, the 
strategic dynamic changes more slowly. Without the ABM Treaty, or a 
modification thereof, the Russians have said--and there is risk in 
ignoring this--that they will act in ways they believe will decrease 
their vulnerability, not just to U.S. attack--which, of course, is hard 
to conceive--but of U.S. coercion, which for the Russians is not hard 
to conceive. In the context of what is seen as a precipitous abrogation 
by us, unfortunately they would have sympathy from much of the world. 
There are steps which are not beyond their means, including withdrawing 
from the START and INF Treaties, adding warheads to strategic missiles, 
or redeploying tactical nuclear weapons at sea or on NATO's periphery. 
These all take us back down the path of instability in a dangerous 
world.
    Again, none of this is to suggest that Russia should have a trump 
card. It does mean to me, however, that the path to unilateral 
abrogation of the ABM Treaty, particularly without a serious effort at 
modification, is not without risks that must be part of one calculation 
of our national interest.
    In this respect, I agree with Henry Kissinger. ``Unilateral 
American decisions,'' he recently wrote, ``should be a last resort; the 
most powerful country in the world should not adopt unilateralism until 
the possibilities of agreement have been fully explored.''
    There are other essential questions that need to be clarified if we 
are to move forward in a way that looks at our security interests 
broadly, not narrowly.
    First, what will be the effect of missile defense on stability in 
Asia? We acknowledge that the system we seek to build could defeat 
China's small nuclear deterrent. Our answer seems to be: they're going 
to build up anyway. That is a strange posture for the U.S.: in effect, 
legitimizing and perhaps accelerating China's strategic modernization. 
What impact will that have on the intertwined Asian nuclear dynamic? On 
India's nuclear programs, and Pakistan's? On calculations across the 
Korea Peninsula? On the sense of vulnerability, and the incipient 
nuclear debate, in Japan? This must all be part of the equation as we 
decide how to move forward.
    Second, are we looking at the weapons of mass destruction threat 
through the wrong end of the telescope? There is a significant 
possibility that the United States will be attacked by a nuclear, 
chemical or biological weapon over the next 10 years. But I agree with 
the former chairman of this committee, Sam Nunn: ``The clear and 
present danger,'' he recently wrote, ``is not from North Korean 
missiles that could hit America in a few years . . . The likeliest 
nuclear attack against the United States would come from a warhead in 
the belly of a ship or the back of a truck.''
    The obvious response to this argument is that it is not either/or. 
We should build a missile defense to bolster deterrence and provide 
insurance in case deterrence fails and do more to protect ourselves 
against other threats, including more probable attacks in the U.S. But, 
in fact, in the real world, we cannot avoid choices, setting 
priorities, and allocating resources. Missile defense appears to be the 
central strategic imperative of the Bush administration, with virtually 
everything else subordinated to it: the allies, Russia, Asia, the 
merits of arms control, other defense modernization needs, other WMD 
threats, including cooperation with the Russians through a fully-funded 
Cooperative Threat Reduction (CTR) program to control nuclear 
materials, now inadequately protected in Russia and in quantities that 
could build 60,000 nuclear weapons.
    The essential job of the administration and Congress is to strike 
the right balance.
    Let me suggest how I think we should proceed going forward:

        <bullet> First, we should continue to pursue actively a range 
        of potential missile defense technologies and define the scope 
        of the threat, but not engage in a ``2-minute drill'' that is 
        likely to put us on a collision with the ABM Treaty and most of 
        the world in the next few months.
        <bullet> Second, with greater clarity on the scope of the 
        system, we should press for agreement with the Russians on new 
        defensive constraints and engage in real consultation with 
        allies.
        <bullet> Third, we should vigorously fund our theater missile 
        defense programs, which are needed on today's battlefield and 
        need not conflict with the ABM Treaty.
        <bullet> Fourth, we must see the issues before us as WMD 
        defense, not simply national missile defense. To the extent the 
        American people think about this in bed at night, I believe 
        their greatest fears relate to terrorist attack: toxic 
        chemicals placed in the water supply or an anthrax attack that 
        could quickly sweep across the country or a nuclear device in a 
        truck. There is far more we must do to fight virulent anti-
        American terrorists who are seeking these weapons and to 
        protect our critical infrastructure.
        <bullet> Fifth, we can reduce offensive nuclear arsenals to 
        levels commensurate with today's needs, either bilaterally or 
        unilaterally, verified through existing strategic arms accords 
        which still have great value for our security.
        <bullet> Sixth, we must address the needs and requirements of 
        tomorrow's military across-the-board, as Secretary Rumsfeld's 
        current defense review will require, for we need a strong 
        defense and the right defense, and that will require adequate 
        resources and difficult choices.
        <bullet> Seventh, we should resume serious negotiations with 
        the North Koreans to stop their missile program--the front edge 
        of the threat. I don't know whether a verifiable, acceptable 
        agreement is possible. I do know that the missile testing 
        moratorium we negotiated in 1999 has slowed their program and 
        that we'll never find out what's possible if we don't reengage 
        in a serious way at a serious level.

    Mr. Chairman, our first obligation is to protect America. But 
America's national security interests are not one-dimensional. I hope 
the United States will fashion a course that provides that protection 
with wide-angle vision.
    Thank you.

    Chairman Levin. Thank you very much, Mr. Berger.
    Mr. Coyle.

 STATEMENT OF HON. PHILIP E. COYLE, SENIOR ADVISER, CENTER FOR 
  DEFENSE INFORMATION, FORMER DIRECTOR, OPERATIONAL TEST AND 
               EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Coyle. Mr. Chairman, members of the committee, I 
appreciate this opportunity to discuss the National Missile 
Defense (NMD) Program. NMD is the most difficult program the 
Department of Defense has attempted. This is as true today as 
it has been for the 30 years that national missile defense has 
been on the American political scene. While the technology that 
might be used for NMD has changed over the years, the overall 
difficulty at each stage in the development of new technology 
has not.
    Some have compared the difficulty of NMD with the Manhattan 
Project, but a difference is that NMD is being developed 
without either the urgency of the threat or the constituency of 
wartime emergency.
    The NMD program or, rather, a portion of it, which is now 
being called the mid-course defense segment, has begun to 
demonstrate considerable progress. The battle management 
command and control and communications system has progressed 
well. The X-band radar performance looks promising, and an 
initial systems integration capability has been demonstrated, 
although achieving full system of systems interoperability is 
recognized as one of the most challenging aspects of NMD 
development.
    There are many limitations in the test program so far, but 
notwithstanding the limitations in the testing program and 
failures of important components in all of the first four 
flight intercept tests, including the two that achieved 
intercept, the program has demonstrated considerable progress.
    To address the limitations in the testing program, while I 
was in the Office of the Secretary of Defense, I made over 50 
recommendations to enhance NMD testing. These recommendations 
included more realistic flight engagements, tests with simple 
countermeasures beyond those planned, tests with simple 
tumbling re-entry vehicles (RVs), and tests with multiple 
simultaneous engagements. BMDO is now implementing many of 
those recommendations. For example, I recommended that the 
program develop more realistic engagement geometries, either 
with launches of interceptors or targets from the Kodiak launch 
complex in Kodiak, Alaska, and BMDO has recently announced that 
they will be implementing this recommendation.
    Developmental tests in a complex program, especially those 
conducted very early, contain many limitations and 
artificialities, some driven by the need for specific early 
design data, and some driven by test range safety 
considerations. Also, the program was never structured to 
produce operationally realistic test results early. 
Accordingly, it was not realistic to expect that early test 
results could have supported a full deployment decision in the 
Clinton administration, even if all of the tests had been 
unambiguously successful, which they were not.
    Similarly, the early test results to date, including the 
latest flight-intercept tests last Saturday, do not yet justify 
a Bush administration decision to deploy an operational system 
in Alaska. The Bush administration is proposing a very 
aggressive new testing program. Such a test program, with many 
activities conducted in parallel, will be necessary if 
deployment of even a primitive operational capability is 
expected this decade.
    For example, four or five tests per year of the midcourse 
defense segment could complete in 4 or 5 years the 20 or so 
developmental tests needed before realistic operational testing 
could begin. This would assume that all 20 tests were 
successful and that no tests needed to be repeated because of 
setbacks, surprises, or failures.
    The midcourse defense segment of the Clinton administration 
is the farthest along, technically, and will be a necessary 
part of any layered system. Also, the Bush administration has 
emphasized mobile land-based, sea-based, airborne, and space-
based approaches to these segments, whereas the Clinton 
administration was focused on a fixed land-based mid-course 
system.
    This array of options and the declared intention to also 
defend our friends and allies around the world has produced 
confusion about what we will actually try to build, since all 
of these options are probably not affordable. Each of the 
approaches to NMD has its strengths and weaknesses. Mid-course 
NMD provides national coverage in a relatively cost-effective 
way, but has been lambasted by scientists for its inability to 
discriminate decoys and countermeasures.
    Boost-phase NMD avoids the problem with countermeasures and 
decoys, but requires interceptors to be very close to enemy 
territory, and confronts the operators with breathtakingly 
short reaction times. The sensing radars and satellites must 
begin to discriminate and characterize the enemy missiles 
within seconds, and intercept must occur within 3 or 4 minutes, 
possibly within 120 seconds in some scenarios.
    A boost-phase system must be essentially computer-operated 
and autonomous, with no time for consultation with the 
President, the National Security Advisor, or the Secretary of 
Defense. Also, boost-phase systems can be vulnerable to certain 
countermeasures and tactics themselves.
    Terminal-phase systems have the advantage of atmospheric 
stripping, that is, using the atmosphere to strip out lighter 
objects, decoys, and chaff that are designed to conceal the 
desired target. However, the effects of the atmosphere on 
decoys are observable only during the last 60 seconds or so of 
flight and, once again, there are countermeasures an enemy 
could use.
    In general, regardless of which phase of NMD you are 
talking about, the systems must achieve reliability, 
availability, and effectiveness levels that are rarely, if 
ever, achieved by military systems and, when parsed out into 
various components and subsystems, the required reliability of 
those components and subsystems becomes exceedingly high.
    There is nothing wrong with testing the program the 
Department has been pursuing, so long as the desired results 
match the desired pace of acquisition decisions to support 
deployment. However, a more aggressive testing program with 
parallel paths and activities will be necessary to achieve an 
effective operational capability by 2005 or even for several 
years thereafter. This means a test program that is structured 
to anticipate and absorb setbacks that inevitably occur.
    I am pleased that the NMD program is developing test plans 
that move in this direction. However, the Test and Evaluation 
Master Plan (TEMP) is obsolete, and much work must be done just 
to develop detailed test plans and a TEMP which cover the 
administration's newest research, development, test, and 
evaluation (RDT&E) program for NMD. As these plans are 
developed, continued interaction with the operational test and 
evaluation organizations will be essential. I recommend that 
this committee follow these developments closely and encourage 
BMDO and the NMD program offices to improve the frequency and 
candor of their interactions with these operational test 
experts.
    Considering a layered system, I would expect that each 
segment, boost phase, mid-course, and terminal, could each 
require 25 or 30 tests before they get to realistic operational 
testing, bringing the total for the full system to over 100 
tests.
    Mr. Chairman, deployment means the fielding of an 
operational system with some military utility that is effective 
under realistic combat conditions against realistic threats and 
countermeasures, possibly without adequate prior knowledge of 
the target cluster composition, timing, trajectory, or 
direction, and one operated by military personnel at all times 
of the day and night and in all weather. Such a capability is 
yet to be shown practicable for NMD. These operational 
considerations will become an increasingly important part of 
test and simulation over the coming years.
    Mr. Chairman, in my prepared testimony, I also discuss the 
relationship between NMD and the ABM Treaty, NMD and 
deterrence, and the importance of greater priority on Theater 
Missile Defense (TMD). I will skip those sections in the 
interest of time and just proceed to my conclusion.
    The technical and political challenges for NMD are such 
that careful oversight will be required by this committee for 
many years, probably decades, to come. To demonstrate an 
effective operational capability, the service test 
organizations who work together jointly on NMD provide an 
essential operational perspective. This operational perspective 
is vital for any military system, but particularly so for NMD 
because of its complexity.
    Working with the Director, Operational Test and Evaluation, 
and the Office of the Secretary of Defense, the service 
operational test agencies provide valuable insights to the NMD 
program office, to the services and OSD leadership, and to 
Congress. The early involvement of the operational test 
community can help avoid setbacks and delays and help solve 
problems early that will be much more difficult and expensive 
to fix later.
    The early involvement of the operational test community 
will be key to NMD systems that really work in realistic combat 
environments. I am confident that the future and ultimate 
success of NMD will depend on the OT&E community. It is through 
the operational test community that you will know whether 
Theater Missile Defenses can reliably protect our sons and 
daughters serving in the military overseas.
    It is through the operational test community that you will 
know what kind of protection an NMD system can provide from 
unauthorized or accidental launches, ICBM launches from Russia 
or China, as well as intentional launches from States of 
concern, and it is through the operational test community that 
NMD and Theater Missile Defense as well has its best chance for 
success.
    Throughout, the DOD operational test community will require 
the encouragement and the steadfast support of this committee 
and Congress. I urge this committee and Congress to require the 
assessments of the operational test agencies in congressional 
reviews of the progress of NMD.
    Mr. Chairman, I will be pleased to take your questions.
    [The statement of Mr. Coyle follows:]

               Prepared Statement by Hon. Philip E. Coyle

                              INTRODUCTION

    Mr. Chairman, members of the Committee, I appreciate this 
opportunity to discuss the National Missile Defense (NMD) program.
    From 1994 to 2001, I was an Assistant Secretary of Defense and the 
Director, Operational Test and Evaluation, in the Department of 
Defense. During those 6\1/2\ years, I became the longest-serving 
Director in the 18-year history of the office. I have spent more than 
40 years in defense testing, including testing of the warheads of the 
original Safeguard ABM system in Nevada and Alaska more than 30 years 
ago. Currently, I am serving as a Senior Advisor to the Center for 
Defense Information.
    NMD is the most difficult program the Department of Defense has 
attempted, more difficult than the F-22 Raptor, the Land Attack 
Destroyer (DD-21), or the Abrams M1A2 tank complete with battlefield 
digitization. This is as true today as it has been for the 30 years 
that national missile defense has been on the American political scene. 
While the technology that might be used for NMD has changed over the 
years, the overall difficulty at each stage in the development of new 
technology has not. Some have compared the difficulty of NMD with the 
Manhattan Project, but a difference is that NMD is being developed 
without either the urgency of the threat or the constituency of a 
wartime emergency. In fact, one question that has dogged NMD is who 
exactly is the enemy? Is it North Korea? Is it Iran, Iraq, or Libya? Is 
it China or Russia? Or is it all those countries at once?
    You requested that today's testimony focus on the impact of the 
test results to date on technology maturity and deployment schedules. 
You also indicated I should address the relationship between NMD and 
the Anti-Ballistic Missile (ABM) Treaty, NMD and deterrence, and NMD 
and Theater Missile Defense (TMD), and the current proposals to design, 
test, and deploy an effective missile defense system. Throughout my 
testimony, you will hear my conviction about the value of early and 
close coupling of the operational test perspective during the whole 
life cycle of a major system such as NMD, and especially during 
development. First, I will discuss the progress so far.

                            PROGRESS SO FAR

    The NMD program--or rather what is now being called the Midcourse 
Defense Segment--has begun to demonstrate considerable progress toward 
its defined goals. The Battle Management Command, Control, and 
Communications (BMC\3\) system has progressed well. Potential X-Band 
Radar performance looks promising, as reflected in the performance of 
the Ground Based Radar-Prototype (GBR-P). An initial systems 
integration capability has been demonstrated, although achieving full 
system-of-systems interoperability is recognized as one of the most 
challenging aspects of NMD development.
    The ability to hit a target reentry vehicle (RV) in a direct hit-
to-kill collision was demonstrated in the first flight intercept in 
October 1999. However, in that test, operationally representative 
sensors did not provide initial interceptor targeting instructions, as 
would be the case in an operational system. Instead, for test purposes, 
a Global Positioning System (GPS) signal from the target RV served to 
first aim the interceptor. We were not able to repeat such a successful 
intercept in the next two flight intercept tests due to failures of 
systems we would have liked to have been able to take for granted, i.e. 
failure of a cooling system in the second flight intercept test, and 
failure of rocket stage separation and of the decoy to deploy in the 
third test. The fourth test, conducted just last Saturday, also 
achieved a hit-to-kill and was essentially a successful repeat of the 
two previous tests that did not go as well. Like the previous two 
tests, this latest test was an early test with necessary test 
limitations. Notwithstanding the limitations in the testing program and 
failures of important components in all of the first four flight 
intercept tests, the program has demonstrated considerable progress.

                          TESTING LIMITATIONS

    In these early tests, the engagement conditions are different from 
an operational situation. The target, launched from Vandenberg AFB in 
California, is seen immediately by the early warning radar also in 
California, so early warning is not an issue. These early tests all 
have used a single large balloon as a decoy; more realistic tests later 
will use more representational decoys. The prototype X-band radar at 
Kwajalein is not forward-based in relation to the interceptor as it 
would be in many operational scenarios. As a result, either a C-band 
radar beacon or GPS has been used in the tests so far to provide target 
track information. These and other limitations will need to be phased 
out as the NMD program moves forward.

                          TEST RECOMMENDATIONS

    In the correspondence with the Ballistic Missile Defense 
Organization (BMDO), my former office has made over 50 recommendations 
to enhance the NMD testing program. These recommendations also were 
stated in my August 11, 2000, deployment readiness review (DRR) report, 
my testimony last September before the House Committee on Government 
Reform and Oversight, and in my Fiscal Year 2000 Annual Report. These 
recommendations include more realistic flight engagements, tests with 
simple countermeasures beyond those planned, tests with simple tumbling 
RVs, and tests with multiple simultaneous engagements. BMDO is now 
implementing many of those recommendations. For example, I recommended 
that the program develop more realistic engagement geometries either 
with launches of interceptors or targets from the Kodiak Launch Complex 
in Kodiak, Alaska. BMDO has recently announced that they will be 
implementing this recommendation.
    Because of the nature of strategic ballistic missile defense, it is 
impractical to conduct full, operationally realistic intercept flight-
testing across the wide spectrum of possible scenarios. The program 
must therefore augment its flight-testing with various types of 
simulations. Overall, NMD testing is comprised of interrelated ground 
hardware and software-in-the-loop testing, intercept and non-intercept 
flight-testing, computer and laboratory simulations, and man-in-the-
loop command and control exercises.
    Unfortunately, all of these simulations have failed to develop as 
expected. This, coupled with flight test delays, has placed a 
significant limitation on the ability to assess the technological 
feasibility of NMD.
    The testing program has been designed to learn as much as possible 
from each test. Accordingly, the tests so far have all been planned 
with backup systems so that if one portion of a test fails, the rest of 
the test objectives might still be met.
    Developmental tests in a complex program, especially those 
conducted very early, contain many limitations and artificialities, 
some driven by the need for specific early design data and some driven 
by test range safety considerations. Also, the program was never 
structured to produce operationally realistic test results this early. 
Accordingly, it was not realistic to expect such early test results 
could have supported a full deployment decision in the Clinton 
administration, even if all of the tests had been unambiguously 
successful, which they were not. Similarly, the early test results to 
date, including the latest flight intercept test last Saturday, do not 
yet justify a Bush administration decision to deploy an operational 
system in Alaska. The Bush administration is proposing a very 
aggressive new testing program. Such a test program, with many 
activities conducted in parallel, will be necessary if deployment of 
even a primitive operational capability is expected this decade. For 
example, four or five tests per year of the Mid-course Defense Segment 
could complete in 4 or 5 years, the twenty or so developmental tests 
needed before realistic operational testing could begin. This assumes 
that all twenty tests are successful and that no tests need to be 
repeated because of set-backs, surprises, or failures.
    In a way, the NMD program has been set back during the last 6 
months. While the Bush administration has not yet said exactly what its 
system--or system-of-systems will be, in policy statements the 
administration has emphasized layered defenses with new emphasis on 
boost- and terminal-phase defenses. However, the Midcourse Defense 
Segment of the Clinton administration is the farthest along 
technically, and will be a necessary part of any layered system. Also, 
the Bush administration has emphasized mobile land-based, sea-based, 
airborne, and space-based approaches to these segments, whereas the 
Clinton administration was focused on a fixed, land-based midcourse 
system. This array of options, and the declared intention also to 
defend our friends and allies around the world, has produced confusion 
about what we will actually try to build since all of these options are 
probably not affordable.
    In addition, during the last 6 months, NMD fell another 6 months 
further behind in its planned testing. Three tests of the new two-stage 
booster which were to all have taken pIace by now have slipped about 6 
months, with the first of these now scheduled for next month. Also the 
fourth flight-intercept test, so-called IFT-6, just conducted, was to 
have taken place many months ago. Since my testimony before the House 
last September, the latest flight-intercept test had slipped 6 months, 
as have the three booster vehicle tests. This tendency for NMD tests to 
suffer significant delays, which has been a characteristic of the NMD 
program for several years now, will need to change if satisfactory 
overall progress is to be realized.

                       OPERATIONAL CONSIDERATIONS

    Each of the approaches to NMD has its strengths and weaknesses. 
Midcourse NMD provides national coverage in a relatively cost-effective 
way, but has been lambasted by scientists for its inability to 
discriminate decoys and countermeasures. Boost-phase NMD avoids the 
problem with countermeasures and decoys, but requires the interceptors 
to be very close to enemy territory and confronts the operators with 
breathtakingly short reaction times. The sensing radars and satellites 
must begin to discriminate and characterize the enemy missiles within 
seconds, and intercept must occur within 3 or 4 minutes, possibly 
within 120 seconds in some scenarios. A boost-phase system must be 
essentially computer operated and autonomous, with no time for 
consultation with the President, the National Security Advisor or the 
Secretary of Defense. Also, boost-phase systems can be vulnerable to 
certain countermeasures and tactics as well. Terminal-phase systems 
have the advantage of atmospheric stripping, that is, using the 
atmosphere to strip out lighter objects, decoys and chaff that are 
designed to conceal the desired target. However, the effects of the 
atmosphere on decoys are observable only during the last 60 to 90 
seconds of flight, and once again there are countermeasures an enemy 
could use.
    Taken together in a layered system, all these segments could be 
better than any one segment alone, provided that they worked together 
and that failures in one part of a layered system didn't lead to 
failures in another. The more complicated the overall system, the 
greater the cost and the demands on reliability and availability.
    In general, NMD systems must achieve reliability, availability and 
effectiveness levels that are rarely if ever achieved by military 
systems, and when parsed out to the various components and subsystems, 
the required reliability of those components and subsystems becomes 
exceedingly high.
    For the sake of comparison, in Iraq and in Kosovo, the enemy air 
defense systems have had zero effectiveness against U.S. aircraft. 
Using a combination of stealth, jamming and tactics, we have prevented 
these enemy air defense systems from having any real capability against 
U.S. targets. While conventional air defense is not the same thing as 
missile defense, the comparison does illustrate the challenge.
    Midcourse NMD is analogous to a golfer trying to hit a hole in one 
when the hole is going 15,000 miles per hour. With decoys, midcourse 
NMD is analogous to trying to hit a hole in one when the hole is going 
15,000 miles per hour, and the green is covered with flags and other 
holes that look similar to the real hole.
    Boost-phase NMD is analogous to trying to hit your golf partner's 
drive out of the air with a drive of your own. Your reactions must be 
quick, and your drive has to be very fast to catch up.
    In terminal-phase NMD, your golf perspective flips and is analogous 
to being the hole. But now you are trying to prevent another golfer's 
drive from landing anywhere on the green, where the green is as big as 
the United States.
    Such analogies may seem exaggerated, but they really aren't. For 
example, to take just one component of both boost-phase and midcourse 
systems, it is difficult for us to visualize how the infrared seeker on 
the kill vehicle ``sees.'' With human sight and human brains we may get 
clues about which is the real target, clues the kill vehicle doesn't 
get. On the kill vehicle, the IR seeker sees in only one color--you 
could think of it as a particular shade of red--and it sees through a 
narrow field of view, like a soda straw. Sometime try telling what's 
going on by watching black and white television through a soda straw 
with one eye closed and without sound. Then you'll begin to see how 
difficult discrimination is for NMD seeker systems.

                          FUTURE TEST PLANNING

    Recently, the Ballistic Missile Defense Organization has said that 
the focus of the NMD program is going to be on testing, not deployment, 
a development I applaud. This new emphasis could help correct what has 
been a chronic problem, namely, that test results were not likely to be 
available soon enough to support a recommendation for early deployment 
anyway. This is because the planned testing program continues to run 
behind schedule, because the test content has not yet addressed 
important operational questions, and because ground-test facilities for 
assessment and training are considerably behind schedule.
    NMD developmental testing needs to be augmented to prepare for 
realistic operational situations in the IOT&E phase, and will need to 
be very aggressive to keep pace with the recently proposed plans to 
achieve early operational capability with test assets in Alaska. The 
testing schedule, including supporting modeling and simulation, 
continues to slip while plans for deployment have not. Important parts 
of the test program have slipped a year and a half in the two and a 
half years since the NMD program was restructured in January 1999. 
Thus, the program is behind in both the demonstrated level of technical 
accomplishment and in schedule. Additionally, the content of individual 
tests has been diminished and is providing less information than 
originally planned.
    While in the Pentagon, I expressed concern that the NMD program had 
not planned nor funded any intercept tests until IOT&E with realistic 
operational features such as multiple simultaneous engagements, long-
range intercepts, realistic engagement geometries, and countermeasures 
other than simple balloons. I am pleased that BMDO has accepted many of 
my recommendations and is changing the flight-test matrix to include 
such tests. While it may not be practical or affordable to do all these 
things in developmental testing, selected stressing operational 
requirements should be included in developmental tests that precede 
IOT&E to help ensure sufficient capability for deployment. For example, 
the current C-band transponder tracking and identification system, 
justified by gaps in radar coverage and range safety considerations, is 
being used to provide target track information to the system in current 
tests. This practice should be phased out prior to IOT&E. This will 
ensure that the end-to-end system will support early target tracking 
and interceptor launch.
    There is nothing wrong with the limited testing program the 
Department has been pursuing so long as the achieved results match the 
desired pace of acquisition decisions to support deployment. However, a 
more aggressive testing program, with parallel paths and activities, 
will be necessary to achieve an effective operational capability by 
fiscal year 2005 or even for several years thereafter. This means a 
test program that is structured to anticipate and absorb setbacks that 
inevitably occur. I am pleased that the NMD program is developing test 
plans that move in this direction. However, the Test and Evaluation 
Master Plan (TEMP) is obsolete, and much work must be done just to 
develop detailed test plans and a TEMP which covers the 
administration's newest RDT&E program for NMD. As these test plans are 
developed, continued interaction with the Operational Test and 
Evaluation organizations will be essential. I recommend that this 
Committee follow these developments closely, and encourage BMDO and the 
NMDO Program Offices to improve the frequency and candor of their 
interactions with these operational test experts.
    The time and resource demands that would be required for a program 
of this type would be substantial. As documented in the Congressional 
Budget Office (CBO) report on the budgetary and technical implications 
of the NMD program,\1\ the Safeguard missile program conducted 165 
flight tests. The Safeguard program was an early version of NMD. 
Similarly, the Polaris program conducted 125 flight tests, and the 
Minuteman program conducted 101 flight tests. It is apparent from these 
test schedules that an extensive amount of work was done in parallel 
from one flight test to another. Failures that occurred were accepted, 
and the programs moved forward with parallel activities as flight-
testing continued.
---------------------------------------------------------------------------
    \1\ CBO Papers, Budgetary and Technical Implications of the 
administration's Plan for National Missile Defense, April 2000.
---------------------------------------------------------------------------
    Rocket science has progressed in the past 35 years, and I am not 
suggesting that a hundred or more NMD flight tests will be necessary 
for each segment of a layered NMD defense. However, I would expect that 
each segment--boost-phase, midcourse, and terminal--could each require 
25 or 30 tests, bringing the total for the full system to over 100 
tests. Also, the technology in the current NMD program is more 
sophisticated than in those early missile programs, and we should be 
prepared for inevitable setbacks.
    As in any weapons development program, the NMD acquisition and 
construction schedules need to be linked to capability achievements 
demonstrated in a robust test program, not to schedule per se. This 
approach can support an aggressive acquisition schedule if the test 
program has the capacity to deal with setbacks. On three separate 
occasions, independent panels chaired by Larry Welch (General, USAF 
Retired) have recommended an event-driven, not schedule-driven, 
program. In the long run, an event-driven program will take less time 
and cost less money than a program that must regularly be re-baselined 
due to the realities of very challenging technical and operational 
goals.
    Aggressive flight-testing, coupled with comprehensive hardware-in-
the-loop and simulation programs, will be essential for NMD. 
Additionally, the program will have to adopt a parallel test approach 
that can absorb occasionally disappointing test results that do not 
achieve their objectives in order to have any chance of achieving a 
deployment of operationally effective systems this decade. As noted by 
CBO, the Navy's Polaris program successfully took such an approach 30 
years ago.
    Deployment means the fielding of an operational system with some 
military utility that is effective under realistic combat conditions, 
against realistic threats and countermeasures, possibly without 
adequate prior knowledge of the target cluster composition, timing, 
trajectory or direction, and when operated by military personnel at all 
times of the day or night and in all weather. Such a capability is yet 
to be shown to be practicable for NMD. These operational considerations 
will become an increasingly important part of test and simulation plans 
over the coming years.
    My work in the DOD, and more than 30 years experience at Lawrence 
Livermore National Laboratory, has given me a perspective I'd like to 
share with the committee on the ABM Treaty, the role of deterrence, and 
the nature of the current threat.

                         NMD AND THE ABM TREATY

    Currently, the Anti-Ballistic Missile (ABM) Treaty restricts 
conduct of flight-testing to the declared test ranges of Kwajalein 
Missile Range and White Sands Missile Range. In particular, with 
targets launched from Vandenberg toward Kwajalein, the targets are 
moving away from the early warning radar at Beale AFB, near Sacramento. 
In this geometry, early warning is not realistically tested. However, 
under the ABM Treaty, this can be relatively easily remedied by the 
declaration of other ranges as test ranges. Recently, BMDO has 
announced a plan to develop new test facilities in Kodiak and at Fort 
Greely, Alaska. This will support alternative Ground-Based Interceptor 
launches from more operationally representative locations. These 
additional launch sites would expand the test envelope beyond that 
currently available, as recommended by my former office and the Welch 
panel, to validate system simulations over a broader range of the 
operating regimes
    The treaty also currently precludes use of a surrogate radar in the 
NMD mode to skin track the incoming target RV during testing and to 
support creation of the Weapon Task Plan that first aims the 
interceptor. This necessitates the use of a non-operationally realistic 
beacon transponder or GPS on the RV for midcourse tracking during 
intercept testing.
    Since additional test ranges can be established under the ABM 
Treaty, the treaty is not now an obstacle to proper development and 
testing of a National Missile Defense system. Development of an 
effective NMD network, even one with only a limited capability to 
intercept and destroy long-range missiles, will take a decade or more. 
This is for simple technical and budgetary reasons. In the near-term, 
the ABM Treaty hinders neither development nor testing.
    Development and testing of fixed-site, midcourse missile defense is 
permitted under the ABM Treaty. The Pentagon, in fact, has been 
developing and testing technologies necessary for such a system for at 
least a decade in compliance with the treaty. Most flight-testing is 
done at the Army's Kwajalein Missile Range in the Pacific Ocean, a test 
site that is specifically permitted under the ABM Treaty.
    Eventually, intercepts will be attempted at greater distances from 
Kwajalein to demonstrate more realistic engagements, but this also will 
be permissible under the ABM Treaty. More importantly, a midcourse 
missile defense system will need to demonstrate that it can 
discriminate decoys, countermeasures, and rocket debris from the real 
target, the re-entry vehicle. This will take many tests paced by time, 
money and other resources, again not by the ABM Treaty.
    At the point where the program is ready to move from developmental 
work to true operational testing, more realistic tests of NMD--using 
real soldiers and mimicking battlefield or attack conditions--would be 
required, and these tests likely would require modifications to the ABM 
Treaty. But there is plenty of time to consider this, as such real-
world testing is many years away.
    What about boost-phase missile defense? While the ABM Treaty 
prohibits the development and testing of mobile NMD systems, there is 
plenty of work on boost-phase systems that not only could be, but also, 
in any case, must be, done before running afoul of the treaty.
    Boost-phase interceptors could be launched from Navy ships or from 
land. Either way the interceptors must be close enough to the enemy 
launch site that the interceptors can catch up before the enemy missile 
has traveled too far and deployed its payload. The process of detection 
and classification of an incoming missile must begin within seconds of 
its launch, and intercept must occur within only a few minutes. 
Consequently, a boost-phase system would need to be essentially 
autonomous, commanded by computers.
    Naturally, any administration would want extensive testing of such 
a system to ensure the reliability and accuracy of the command and 
control computer network. But, again, the ABM Treaty would not be an 
obstacle. Testing can be done at various U.S. testing centers, 
including Kwajalein and the White Sands Missile Range in New Mexico.
    Boost-phase systems, whether on land or aboard ship, would also 
require very fast rockets and high acceleration maneuvering--more so 
than midcourse systems. Such new rockets would take years to develop 
and test. The interceptor rocket for midcourse NMD has been under 
development and testing for many years, and within accepted 
interpretations of the ABM Treaty. Similarly, still-faster rockets for 
a boost-phase NMD could be tested in the same way.
    With respect to the Airborne Laser and the Space Based Laser, each 
has its own special challenges that have little to do with the ABM 
Treaty. In the case of the Airborne Laser, there are important 
operational considerations. A Boeing 747 aircraft loaded with heavy 
laser apparatus, and flying close to an enemy, makes an inviting 
target. To permit the 747 to stand back from the forward edge of 
battle, the airborne laser needs very high power to damage its targets 
through the atmosphere. Development of such lasers is ongoing at 
contractor and government test facilities in full compliance with the 
ABM Treaty.
    As for the Space Based Laser, the current prototype is too heavy to 
be launched into space by existing U.S. boosters. Perhaps it can be 
made lighter and more powerful, but this will take time--at least a 
dozen years. The ABM Treaty is not currently an issue here.
    Perhaps the greatest challenge for NMD right now is building 
realistic simulators to model how all the elements of a system, from 
launcher to interceptor to radar to command and control networks, might 
work together. As I noted, the NMD program is years behind in this 
arena, but not because of the ABM Treaty. The problem is a 
technological one.
    The United States faces a very complex and difficult set of 
expensive NMD development problems--problems that abrogating the ABM 
Treaty will not overcome. Rather than focusing on the red herring of 
the ABM Treaty, the NMD program would do better to concentrate on 
crafting long-term, affordable approaches to technology development.

                           NMD AND DETERRENCE

    Unfortunately, to justify the possible near-term abrogation of the 
ABM Treaty, the Bush administration has been talking down the value of 
traditional nuclear deterrence. This simply is not necessary in making 
a case for development of NMD, and is potentially harmful to global 
strategic stability.
    In talking down deterrence, the administration has suggested that 
nuclear deterrence is obsolete and that the United States wouldn't drop 
a nuclear bomb on, say, Pyongyang, even if North Korea attacked the 
U.S. homeland with weapons of mass destruction first. The 
administration also has coupled plans for reducing the U.S. nuclear 
stockpile with an increased effort on National Missile Defense.
    The administration is saying, in effect, that as we reduce our 
nuclear stockpile, we become more vulnerable and thus must have NMD. 
The general idea is that our nuclear deterrent stockpile will become 
too small to be effective, and we won't have the resolve to use it 
anyway, so NMD can fill the gap.
    Maintaining a credible nuclear deterrent takes steady 
determination. Adversaries must believe that U.S. nuclear weapons work, 
and that U.S. leaders have the will to use them if so attacked. This 
explains why it is so difficult for nuclear powers to adopt a no first 
use policy. While no nuclear power has the intention of striking first 
with nuclear weapons, saying so officially begs questions about the 
resolve necessary to maintain deterrence.
    The Bush administration, on the other hand, is flipping traditional 
deterrence theory upside down. Administration officials are saying that 
U.S. nuclear deterrence policy is to turn the other cheek. They are 
acknowledging a lack of resolve to use nuclear weapons no matter what, 
and are suggesting instead that the answer is to absorb enemy missile 
attacks with NMD.
    The trouble with this approach is that it leaves us empty-handed. 
Pentagon briefings for National Missile Defense show a flawless 
Plexiglas dome covering the United States. We imagine that incoming 
enemy missiles would bounce off it like hail off a windshield. 
Unfortunately, such a missile shield--even under the Bush 
administration concept for a layered system--is a practical 
impossibility.
    Recognizing this technical problem, Defense Secretary Donald 
Rumsfeld has noted that missile defense doesn't have to be perfect, and 
that if it worked only part of the time it would still be worth it. 
This makes little sense. It is hard to believe that an adversary who is 
not afraid of nuclear retaliation would refrain from shooting missiles 
at the United States simply because of a missile shield that only works 
part time. It is also hard to believe that any U.S. president would be 
comfortable in taking action that might provoke a missile attack 
knowing that one or more of the weapons might well hit its target.
    Giving up deterrence for an unpredictable defense leaves the United 
States holding the bag. As former Secretary of State George Shultz put 
it in the days of President Ronald Reagan's Strategic Defense 
Initiative, such propositions for intercontinental missile defense are 
nothing more than the sleeves in our vest. If we give up deterrence for 
nothing, we invite conflict around the globe, and encourage rather than 
deter first use of nuclear weapons by rogue nations.
    In addition to inviting U.S. enemies to test our resolve, the 
rejection of deterrence policy in favor of national missile defense 
places U.S. arms control proponents in a devilish dilemma. On the one 
hand, they would like to eliminate nuclear weapons entirely, and 
nuclear deterrence too. On the other hand, they see missile defense as 
dangerously destabilizing, and sure to cause Russia, China and other 
nations to build up their own nuclear stockpiles simply to beat our 
missile defense.
    Also, pursuit of national missile defense threatens the very 
sensible proposal by many serious scholars of global security to take 
nuclear weapons off hair-trigger alert. Why would Russia or China agree 
to take their nuclear weapons off alert if they thought that quick 
surprise was the best counter to a U.S. attempt at missile defense?
    The danger with talking down deterrence is that some may listen and 
change their behavior accordingly.
    As Secretary Rumsfeld put it at the Munich Conference on European 
Security Policy last February, ``We know from history that weakness is 
provocative. That it entices people into adventures they would 
otherwise avoid.'' With those words, the Secretary was trying to 
justify national missile defense. But those words also justify a 
believable nuclear deterrent.

        THEATER MISSILE DEFENSE AND THE REAL AND PRESENT THREAT

    Amidst all the political and technical turmoil surrounding NMD, the 
U.S. military today faces a real enemy threat that, for the past 10 
years, we unfortunately have failed to seriously address. Not something 
hypothetical that could possibly arise in the future, but a real danger 
to our military forces and capabilities that we have already 
experienced and have failed to handle. That danger is attack against 
U.S. troops overseas from short-range ballistic missiles.
    A few months ago we observed the tenth anniversary of the first 
lethal Scud attack against U S. troops. In that attack, 28 U.S. 
soldiers were killed and more than 100 were wounded. Yet, today, a 
decade after the Persian Gulf War, American troops overseas remain in 
serious peril from short-range ballistic missiles. The United States 
has soldiers stationed in the Persian Gulf or in Korea who are 
potential targets of enemy short-range missile attacks.
    It is unusual for the United States to be so far behind a real 
military danger. Our military is sometimes accused of ``fighting the 
last war,'' of not preparing for the future. Scuds, unfortunately, are 
a threat from the last war we still need to fight.
    In fact, both the Army and the Navy have tactical missile defense 
development programs that are making progress toward dealing with this 
vulnerability. These systems are called ``area'' or ``lower tier'' for 
countering short-range attacks, and ``theater'' or ``upper tier'' 
defense systems for intermediate-range attacks. These promising short- 
to intermediate-range systems are technically and politically distinct 
from NMD, which is intended to defend against missiles of 
intercontinental range.
    However, the debate about National Missile Defense has drowned out 
the most urgent missile defense need, namely, defending our troops on 
the battlefield. The debate also has affected priorities inside the 
Pentagon. As currently scheduled, realistic operational tests of our 
short-range missile defense systems won't take place for many years. 
The theater defense systems have field deployment schedules after the 
deployment dates now being proposed for NMD, even though the theater 
missile threat is much more imminent.
    Whether we can successfully develop NMD technology is debatable. By 
contrast, the technology needed for area and theater missile defense is 
much more straightforward, and the lessons learned from working on 
shorter-range defenses could usefully be applied to an NMD network. 
Nevertheless, at the current pace, we are still years away from 
realistic operational demonstrations of area and theater missile 
defense systems, and the complex command and control, interoperability, 
and reliability standards they must achieve to be effective.
    As I noted, the administration has begun to describe missile 
defense in new ways, and administration officials have emphasized the 
importance of defending our friends and allies. Equally important, 
however, is defending our own troops overseas, something about which we 
have heard little.
    The area and theater missile defense systems have been set back by 
the pressures to push NMD. The shorter-range systems could be further 
ahead today if they had not been delayed by the distractions and the 
budgetary priorities of NMD. Because shorter-range attacks are the real 
threats our troops overseas face every day, shorter-range defensive 
systems should be getting more urgent priority.
    I would recommend that this Committee in exercising its oversight 
over NMD, consider as well the question of TMD as a separate issue, and 
one deserving of more attention.
    The Pentagon's recent decision in PBD 816 to transfer the Army and 
Navy area and theater missile defense systems out of BMDO and back to 
the Army and Navy is a positive step. Assuming the area and theater 
defense programs are adequately funded, this will enable the services 
to move forward on area and theater missile defense undistracted by NMD 
issues.

                               CONCLUSION

    The technical and political challenges for NMD are such that 
careful oversight will be required by this Committee for many years--
probably decades--to come. To demonstrate an effective operational 
capability, the Service Test Organizations, who working together 
jointly on NMD, provide an essential operational perspective. This 
operational perspective is vital for any military system, but 
particularly so for NMD because of its complexity. Working with the 
Director, Operational Test and Evaluation in OSD, the Service 
Operational Test Agencies provide valuable insights to the NMD Program 
Office, to Service and OSD leadership, and to Congress. The early 
involvement of the operational test community can help avoid setbacks 
and delays, and help solve problems early that will be much more 
difficult and expensive to fix later. The early involvement of the 
operational test community will be key to NMD systems that really work 
in realistic combat environments. I am confident that the future and 
ultimate success of NMD will depend on the OT&E community. It is 
through the operational test community that you will know whether 
theater missile defenses can reliably protect our sons and daughters 
serving in the military overseas. It is through the operational test 
community that you will know what kind of protection an NMD system can 
provide against unauthorized or accidental ICBM launches from Russia or 
China as well as intentional launches from states of concern. It is 
through the operational test community that NMD--and TMD as well--has 
its best chance for success. Throughout, the DOD operational test 
community will require the encouragement and the steadfast support of 
this committee and Congress. I urge this committee and Congress to 
require the assessments of the operational test agencies in 
congressional reviews of the progress of NMD.
    Mr. Chairman, I would be pleased to answer any questions you or the 
members of the committee may have.

    Chairman Levin. Thank you very much, Mr. Coyle.
    Mr. Perle.

STATEMENT OF HON. RICHARD N. PERLE, RESIDENT SCHOLAR, AMERICAN 
ENTERPRISE INSTITUTE, FORMER ASSISTANT SECRETARY OF DEFENSE FOR 
                 INTERNATIONAL SECURITY POLICY

    Mr. Perle. Thank you very much, Mr. Chairman, for including 
me in these hearings. In complex issues of this sort, there is 
no substitute for thorough discussion, and you and your 
colleagues have done well to devote time and serious attention 
to this issue.
    The issue before you is one that I have followed since the 
spring of 1969, when I came to Washington to work for Senator 
Henry ``Scoop'' Jackson. I had met Scoop in the course of 
assessing the debate over missile defense for a small committee 
headed by Dean Acheson, Karl Nitze, and Albert Wohlstetter. 
These three distinguished Americans believed that it was 
dangerous for the United States to remain vulnerable to a 
missile attack, and they formed a committee to develop the 
argument for ballistic missile defense.
    At the time, we were deep in the Cold War. Suspicion, 
hostility, and fear dominated the relationship between the 
United States and the Soviet Union. We observed the heavy-
mechanized Warsaw Pact divisions arrayed along the Iron Curtain 
and devised the means to deter them. Outnumbered in Europe, we 
relied on nuclear weapons to achieve a military balance.
    The situation then required us to calculate the nuclear 
balance between the United States and the Soviet Union to a 
degree of arithmetic precision that included the provision--I 
had one as a young staffer--of a calculator that permitted you 
to estimate how much of our nuclear deterrent would survive in 
the face of a massive Soviet attack, depending on the accuracy 
of their weapons and whether they were air or ground-based and 
the like. We spent our time doing those calculations.
    We were forced to consider whether enough of our nuclear 
deterrent would be able to survive a massive Soviet strike, and 
retaliate with force sufficient to deter, and since many of 
these scenarios that preoccupied our military planners began 
with a nonnuclear war in the center of Europe, the control of 
escalation was fundamental to our strategy.
    In those circumstances, the argument was made first by 
American strategists and scientists and eventually by Soviet 
officials that the deployment of a missile defense by the 
United States would threaten the Soviet ability to destroy us 
in a retaliatory attack if we should launch a massive nuclear 
strike against them. Thus, it was argued, any American missile 
defense would inevitably be countered by a buildup of Soviet 
missiles and bombers. An effort to defend ourselves would 
simply stimulate an arms race as the Soviets sought to 
neutralize our defense by expanding their offense.
    That was the core argument against missile defenses, and it 
was made in the context of a bitter, deadly cold war between 
two nuclear superpowers with fundamentally different 
philosophies and interests. I remember well the debate about 
the Safeguard Missile Defense System in 1969 and 1970. Much of 
it took place before this very committee, and in 1970 the 
Senate, by a single vote, approved going forward with the 
Safeguard system.
    Armed with the authority to begin building defenses, the 
Nixon administration, led by Henry Kissinger, negotiated a 
treaty with the Soviet Union essentially banning the deployment 
of missile defenses. Signed in 1972, the ABM Treaty, together 
with an interim agreement on offensive weapons, sought to 
freeze the growth of offensive missile forces and to fix the 
balance between offense and defense. The ABM Treaty marked the 
acceptance of the view that a legally binding arrangement was 
necessary to achieve stability in the nuclear balance between 
hostile powers.
    Parenthetically, in the end, the Soviets found ways to 
significantly expand their nuclear force, with the result that 
the two agreements of 1972 largely failed to achieve their 
underlying intended purpose.
    When the ABM Treaty was before the Senate, it was approved 
overwhelmingly. There was either one vote against it, or two. I 
know Senator Buckley from New York voted against it, and 
possibly Senator Hollings.
    A number of Senators who had misgivings about whether the 
treaty would lock us into a set of constraints that might later 
prove unwise were reassured by a key provision in the treaty, 
the right of either side to withdraw 180 days after giving 
notice, and I call this to your attention, Mr. Chairman, 
because if we now find it impossible to exercise that right to 
withdraw, which was understood at the time the treaty was 
approved as essential flexibility to respond to historical 
change, it raises a question about whether any withdrawal 
provision offers any real protection when history changes.
    At this point, Mr. Chairman, you might well ask, why is he 
boring us with this ancient history, and the answer is that 
much current thinking about missile defense, and especially 
about the ABM Treaty, is mired in ancient history, the history 
and the context of the Cold War, and one could not have found a 
better illustration of that than the arguments we just heard 
from Sandy Berger.
    Today, the United States stands naked before its enemies, 
unable to intercept even a single ballistic missile aimed by 
accident or design at our territory. Many Americans are shocked 
to learn that this condition of abject vulnerability has been 
the freely chosen policy of the government of the United 
States, and is widely, if superficially, supported by many of 
our allies.
    It is, Mr. Chairman, a legacy of the Cold War. Frozen in 
that Cold War like a fly in amber are those who oppose missile 
defense because it is inconsistent with the ABM Treaty, 
believing that our exposure to attack by ballistic missiles 
actually makes us safer. Therefore, they argue, the 
vulnerability that developed during the Cold War should 
continue to be a permanent feature of American policy, 
enshrined forever in the ABM Treaty, or some minor modification 
of it, operating on an autopilot set during the Cold War.
    The opponents of missile defense argue that a 
technologically serious defense, even if limited, would 
precipitate an arms race because other nuclear powers, 
especially Russia, would build additional missiles to overwhelm 
any defense we might deploy. You heard that argument from Sandy 
Berger.
    Perhaps this is why, according to talking points prepared 
for official U.S.-Russian meetings, American officials in the 
last administration sought to assure the Russians that even if 
the United States built a modest, ground-based defense, Russia 
would still be able to incinerate the United States after a 
massive American nuclear strike. It is hard to imagine a mind 
set more reflective of the Cold War than that, yet this is the 
logic that animates the idea that the ABM Treaty is the 
cornerstone of strategic stability.
    The idea of the ABM Treaty as a cornerstone of stability is 
simply anachronistic and dangerous. How can a treaty that was 
the cornerstone of stability in 1972, at the height of the Cold 
War, still constitute a cornerstone in 2001, with the Cold War 
over and the Soviet Union dissolved? After all, there is almost 
nothing in common between the geopolitical situation in the 
middle of the Cold War and the situation we face today. That is 
why Henry Kissinger, who managed the negotiations that resulted 
in the ABM Treaty, has wisely and convincingly argued that it 
no longer serves American interests.
    Far from assuring stability, the Cold War doctrine that we 
must seek safety through voluntary vulnerability is dangerously 
ill-conceived. Consider the core of the argument, that the 
Russians would build more nuclear weapons if we were to build a 
defense against ballistic missiles. Since we have no defense at 
all today, a nuclear force consisting of even one missile could 
do catastrophic harm to Los Angeles, Washington, or New York. A 
handful would mean destruction beyond imagination.
    Now, suppose we were to deploy a defense capable of 
countering not one, or a handful, but a few hundred incoming 
warheads. With such a defense, we might no longer be 
vulnerable, as we are today, to such nuclear powers as, say, 
Britain, or France, each of which has offensive nuclear 
weapons.
    Would the British feel compelled to build more nuclear 
weapons to overpower our defense, if our defense robbed them of 
their deterrent capability? Of course not. They do not regard 
the United States as an enemy. It is the political context, not 
the weapons themselves, that determines whether and to what 
extent any particular military capability is threatening, and 
whether agreements banning it are a source of stability.
    Now that the Cold War is over, should Russia regard us as 
an enemy? We are more likely to send Mr. Putin a check than a 
massive barrage of missiles with nuclear warheads. We have 
sought in countless ways to work with, not against, the 
Russians. It is unimaginable that we would launch thousands of 
nuclear weapons against Russia and hope to benefit thereby, and 
that would be true even if we had a defense that would knock 
down every missile that might be launched in retaliation.
    Would it make sense for Mr. Putin to respond to an American 
defense against North Korea or Saddam Hussein, or some unknown 
threat? Unless you believe history has stopped, it is simply a 
matter of time before a country hostile to the United States 
acquires a ballistic missile capable of reaching our territory 
and a warhead capable of inflicting mass destruction, and it 
almost does not matter exactly when or exactly who, because 
unless we are prepared to wait until that threat has already 
emerged, we have to begin at some point to build a defense that 
we all understand will take a long time to achieve.
    Would it make sense for Mr. Putin to respond to an American 
defense against North Korea or Saddam Hussein by building more 
missiles? Is the Russian economy such that a vast investment in 
new weapons aimed at the United States would benefit his 
country? It is sometimes said in response, and there was a 
glimmer of this argument in what Sandy had to say, that it is 
perceptions, not reality that counts. If the Russians or the 
Chinese perceive the United States as a threat, and, therefore, 
regard any antimissile system it may build as a danger to them, 
shouldn't the United States stand down?
    This seems to me a particularly unwise line of argument. In 
psychiatry, it would lead to humoring paranoids, and Sandy 
referred to paranoia, by accepting their paranoia and acting to 
accommodate baseless fears. In science, it would mean the 
abandonment of rigor and discipline, pretending instead of 
proving, and in international politics, it would mean 
nurturing, rather than finding ways to correct false, 
dangerous, and even self-fulfilling ideas.
    The Cold War is over, but we will not realize the full 
benefit of its passing until everyone involved behaves 
accordingly, abandoning the fears and apprehensions of half a 
century of conflict and the ideas about security that flowed 
from and were reflected in that long, dark conflict.
    By clinging to the idea that the security of others is 
diminished if the United States is protected against missile 
attack, some Americans, and a number of European leaders, 
perhaps unwittingly, and certainly ironically, are perpetuating 
the anxiety of the Cold War. By arguing that the Russians or 
the Chinese or others are right to feel threatened by our 
defense, we are perpetuating the psychology of the Cold War.
    Sandy Berger said, and I think I am quoting, for the 
Russians, U.S. coercion is not hard to conceive. I cannot 
imagine a less prudent argument to put in the mind of Mr. 
Putin, or, perhaps more to the point, in the minds of his 
critics and detractors, legitimizing the notion that Russia is 
right to fear an American missile defense because U.S. coercion 
is not hard to conceive.
    We should be responding to those fears and those 
apprehensions by developing a new policy with Russia and by 
assuring the Russians in convincing ways that they need not 
fear coercion from the United States, rather than accepting the 
premise, and adjusting our self-defense capability to reflect 
that.
    We should proceed to develop and employ defenses against 
the Saddam Husseins of this world, and we must explain, 
explain, and explain again to President Putin that such a 
defense does not diminish the security of his country, and we 
should be prepared to reduce sharply the size of our nuclear 
offensive forces both because the end of the Cold War enables 
us safely to do that, and because it will lend credibility to 
our new approach to Russia.
    Mr. Chairman, some opponents of a robust missile defense, 
including, for example, French President Chirac, argue that 
such a defense would encourage the proliferation of nuclear 
weapons, and we heard some of that in Sandy Berger's testimony, 
too, yet the opposite is far more likely.
    Imagine, if you will, the sharp rise in tension between 
India and Pakistan, both of which have nuclear weapons and 
ballistic missiles. Suppose the United States could dispatch an 
Aegis cruiser to the region with instructions to intercept any 
ballistic missile fired by either side. Such a capability in 
American hands would be highly stabilizing, reducing the 
likelihood of a conflict, discouraging the use of offensive 
missiles, and reassuring to both sides.
    Other nations, like Iran, Iraq, and North Korea are 
actively trying to acquire missiles capable of attacking the 
United States. They believe that acquiring even a single 
missile will catapult them into a select class of states 
capable of inflicting massive damage on the United States.
    They are well aware of Sandy Berger's suggestion that a 
truck with a bomb in it, or a ship with a bomb in it, could do 
great destruction, and yet they are investing massively, with 
only limited resources, not to acquire trucks, not to acquire 
ships in which they could assert a nuclear weapon, but to 
acquire ballistic missiles with ranges capable of reaching the 
United States. They have declared what they consider to be 
important. They have judged where they think their potential 
advantage to coerce and to attack may lie.
    They believe that acquiring a single missile will catapult 
them into a select class of states capable of inflicting 
massive damage on the United States and, given time and money, 
a single missile or even several is not beyond their reach.
    We can debate endlessly exactly when they emerge with it, 
but suppose that we were to construct a defense that could 
intercept all the warheads and decoys carried by 100 or 200 
enemy missiles, that a Saddam Hussein or a Kim Jung Il would 
need that number to be confident that he could land a missile 
on New York, or Chicago, or an allied capital. In that case, 
even a determined adversary might well throw up his hands and 
conclude that such a missile force is beyond his reach.
    By having no defense at all, we set the bar so low that it 
is an encouragement to the Saddam Husseins of the world. The 
hurdle they have to overcome is as small as it could possibly 
be, and our purpose should be to raise that barrier, to raise 
that hurdle.
    The best way to protect against a missile attack is to 
discourage our adversaries from investing in the missiles in 
the first place, and there can be no more powerful disincentive 
than to have the shield that guarantees that their hugely 
expensive programs will fail. Based on our most advanced 
technology, it is that shield, not an outdated treaty, that 
will protect us best.
    Sandy Berger put some emphasis on negotiating with Russia, 
and I infer from what he had in mind that he is thinking in 
terms of preserving, perhaps amending, but preserving the ABM 
Treaty. Mr. Chairman, I think we would be wise to put the ABM 
Treaty behind us, even if we had no plan or desire to build a 
ballistic missile defense, because as long as that treaty is 
regarded, as it is in some places today, as fundamental to the 
security of Russia and the United States, it continues the 
context of the Cold War. There is no other way to understand 
it.
    Unless you take seriously the prospect of a massive 
American missile attack on Russia, or a massive Russian missile 
attack on the United States, the regulation of the offense-
defense relationship, which is what the ABM Treaty is all 
about, makes no sense, and when we say to the Russians we want 
to renegotiate the legal right we both enjoy to build defenses 
as well as offenses, we are saying to them that it is necessary 
to have such a structure in order to ensure that neither of us 
launches a nuclear attack on the other.
    Until we break decisively with the history of the Cold War 
and the institutions that reflected that history, the Cold War 
will carry on. I think that is true of the relationship on 
offensive forces as well, which is why I believe we should 
reduce our forces unilaterally to the levels that we think 
appropriate, and without concern that doing so will make us 
vulnerable to an attack from Russia, because I do not believe 
there is evidence that we need be concerned about a massive 
nuclear attack from Russia. But there is a great deal of 
evidence that we need to be concerned about the Saddam Husseins 
of the world, those who are active today and those who will be 
active tomorrow, because it is simply a matter of time.
    Let me conclude with one last point, and I read Phil 
Coyle's testimony, which has deterrence theory in it in 
addition to comment on testing, and he is obviously concerned 
that by building defenses we may appear to be abandoning or 
diminishing the importance of nuclear deterrence, of the threat 
to retaliate with nuclear weapons. The point I want to make is 
a moral one.
    During the Cold War, none of us liked the fact that we 
based our security on the threat to destroy millions of people 
if we should come under attack, but we contented ourselves with 
that morally difficult policy by persuading ourselves that we 
had no choice, that defense was neither technically feasible 
nor practically feasible because it would precipitate the arms 
race that we have been talking about.
    But today we have a choice. We no longer need to depend 
exclusively on the threat to use nuclear weapons in 
retaliation, nuclear weapons that might be aimed against us by 
a Saddam Hussein. If deterrence alone is to be the means by 
which we defend, it would require us in response to destroy 
women and children in Baghdad who would have no say in the 
decision by Saddam Hussein to launch a monstrous attack, or the 
attack from Saddam might be on another country, on a country 
friendly to the United States.
    Can we justify holding hostage a hapless civilian 
population when we have the alternative of building a defense, 
and my answer to that is no. I hope the committee will consider 
that, in time, basing our security on the threat to destroy 
millions of civilians is not a tenable policy when we have 
alternatives.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perle follows:]

              Prepared Statement by Hon. Richard N. Perle

    Mr. Chairman, let me begin by thanking you for the invitation to 
appear before the committee today. The issue before you is one I have 
followed since the Spring of 1969 when I came to Washington to work for 
Scoop Jackson. I had met Scoop in the course of assessing the debate 
over missile defense for a small committee headed by Dean Acheson, Paul 
Nitze, and Albert Wohlstetter.
    These three distinguished Americans believed that it was dangerous 
for the United States to remain vulnerable to a missile attack and they 
formed a committee to develop the argument for a ballistic missile 
defense.
    At the time, we were deep in the Cold War. Suspicion, hostility and 
fear dominated the relationship between the United States and the 
Soviet Union. We observed the heavy mechanized Warsaw Pact divisions 
arrayed along the Iron Curtain and devised the means to deter them. 
Outnumbered in Europe, we relied on nuclear weapons to achieve a 
military balance.
    The situation then required us to calculate the nuclear balance 
between the United States and the Soviet Union. We were forced to 
consider whether enough of our nuclear deterrent would be able to 
survive a massive Soviet strike and retaliate with force sufficient to 
deter. Since many of the scenarios that preoccupied our military 
planners began with a non-nuclear war in the center of Europe, the 
control of escalation was fundamental to our strategy.
    In those circumstances, the argument was made first by American 
strategists and scientists and, eventually, by Soviet officials, that 
the deployment of a missile defense by the United States would threaten 
the Soviet ability to destroy us in a retaliatory attack if we should 
launch a massive nuclear strike against them. Thus, it was argued, any 
American missile defense would inevitably be countered by a build-up of 
Soviet missiles and bombers. An effort to defend ourselves would simply 
stimulate an arms race as the Soviets sought to neutralize our defense 
by expanding their offense. That was the core argument against missile 
defenses and it was made in the context of a bitter, deadly cold war 
between two nuclear powers with fundamentally different philosophies 
and interests.
    I remember well the debate about the Safeguard missile defense 
system in 1969 and 1970. Much of it took place before this very 
Committee. In the end, in 1970, the Senate, by a single vote, approved 
going forward with the Safeguard defense system.
    Armed with the authority to begin building defenses, the Nixon 
administration, led by Henry Kissinger, negotiated a treaty with the 
Soviet Union essentially banning the deployment of missile defenses. 
Signed in 1972, the ABM Treaty, together with an interim agreement on 
offensive weapons, sought to freeze the growth of offensive missile 
forces and to fix the balance between offense and defense.
    The ABM Treaty marked acceptance of the view that a legally-binding 
arrangement was necessary to achieve stability in the nuclear balance 
between hostile powers. (In the end the Soviets found ways 
significantly to expand its offensive forces with the result that the 
two agreements of 1972 largely failed to achieve their intended 
purpose.)
    When the ABM Treaty was before the Senate it was approved 
overwhelmingly. A number of Senators who has misgivings about whether 
the treaty would lock us in to a set of constraints that might later 
prove unwise were reassured by a key provision in the treaty: the right 
of either side to withdraw 180 days after giving notice.
    At this point, Mr. Chairman, you might well ask: why is he boring 
us with this ancient history?
    The answer is that much current thinking about missile defense--and 
especially about the ABM Treaty--is mired in ancient history, the 
history--and context--of the Cold War.
    Today the United States stands naked before its enemies, unable to 
intercept even a single ballistic missile aimed, by accident or design, 
at our territory. Many Americans are shocked to learn that this 
condition of abject vulnerability has been the freely chosen policy of 
the government of the United States, and is widely--if superficially--
supported by many of our allies. It is a legacy of the Cold War.
    Frozen in the Cold War like a fly in amber, those who oppose 
missile defense because it is inconsistent with the ABM Treaty believe 
our exposure to attack by ballistic missiles actually makes us safer. 
Therefore, they argue, the vulnerability that developed during the Cold 
War should continue--a permanent feature of American policy, enshrined 
forever in the ABM Treaty or some minor modification of it.
    Operating on an autopilot set during the Cold War, the opponents of 
a missile defense argue that a technologically serious defense, even if 
limited, would precipitate an arms race because other nuclear powers, 
especially Russia, would build additional missiles to overwhelm any 
defense we might deploy.
    Perhaps this is why (according to talking points prepared for 
official U.S.-Russian meetings) American officials in the last 
administration sought to assure the Russians that even if the United 
States built a modest ground-based defense, Russia would still be able 
to incinerate the United States after a massive American nuclear 
strike. It is hard to imagine a mind-set more reflective of the Cold 
War than that. Yet this is the logic that animates the idea that the 
ABM is the ``cornerstone'' of strategic stability.
    The idea of the ABM Treaty as a cornerstone of stability is simply 
anachronistic--and dangerous. How can a treaty that was the cornerstone 
of stability in 1972 still constitute a cornerstone in the year 2001? 
After all, there is almost nothing in common between the geopolitical 
situation in the middle of the Cold War and the situation today. That 
is why Henry Kissinger, who managed the negotiations that resulted in 
the ABM Treaty, has argued wisely and convincingly that it no longer 
serves American interests.
    Far from assuring ``stability,'' the Cold War doctrine that we must 
seek safety through voluntary vulnerability is dangerously ill-
conceived. Consider the core of the argument, that the Russians would 
build more nuclear weapons if we were to build a defense against 
ballistic missiles.
    Since we have no defense, a nuclear force consisting of even one 
missile could do catastrophic harm to Los Angeles or Washington or New 
York. A handful would mean destruction beyond imagination. Now, suppose 
we were to deploy a defense capable of countering not one or a handful, 
but a few hundred incoming warheads. With such a defense, we might no 
longer be vulnerable--as we are today--to such nuclear powers as, say, 
Britain or France. Would the British feel compelled to build more 
nuclear weapons to overpower our defense? Of course not. They don't 
regard the United States as an enemy. It is the political context, not 
the weapons themselves, that determine whether, and to what extent, any 
particular military capability is threatening--and whether agreements 
banning it are a source of stability.
    Now that the Cold War is over, should Russia regard us as an enemy? 
We are more likely to send Mr. Putin a check than a massive barrage of 
missiles with nuclear warheads. We have sought in countless ways to 
work with, not against, the Russians. It is unimaginable that we would 
launch thousands of nuclear weapons against Russia and hope to benefit 
thereby. That would be true even if we had a defense that would knock 
down every missile that might be launched in retaliation.
    Would it make sense for Mr. Putin to respond to an American defense 
against North Korea or Saddam Hussein by building more missiles? Is the 
Russian economy such that a vast investment in new weapons, aimed at 
the United States, would benefit his country? It is sometimes said in 
response that it is perceptions, not reality, that counts. If the 
Russians or the Chinese perceive the United States as a threat and 
therefore regard any anti-missile system it may build as a danger, 
shouldn't the United Sates stand down?
    This seems to me a particularly unwise line of argument. In 
psychiatry it would lead to humoring paranoids by accepting their 
paranoia and acting to accommodate baseless fears. In science, it would 
mean the abandonment of rigor and discipline, pretending instead of 
proving. In international politics, it would mean nurturing rather than 
finding ways to correct false and dangerous and even self-fulfilling 
ideas.
    The Cold War is over; but we will not realize the full benefit of 
its passing until everyone involved behaves accordingly, abandoning the 
fears and apprehensions of half a century of conflict and the ideas 
about security that flowed from, and were reflected in, that long, dark 
conflict.
    By clinging to the idea that the security of others is diminished 
if the United States is protected against missile attack, some 
Americans and a number of European leaders, perhaps unwittingly, and 
certainly ironically, are perpetuating the anxiety of the Cold War. 
That is a climate we must now transcend.
    We should proceed to develop and deploy defenses against the Saddam 
Hussein's of this world and we must explain, explain and explain again 
to President Putin that such a defense does not diminish the security 
of his country. We should be prepared to reduce sharply the size of our 
nuclear offensive forces both because the end of the Cold War enables 
us safely to do that and because it will lend credibility to our new 
approach to Russia.
    Mr. Chairman, some opponents of a robust missile defense, including 
President Chirac, argue that such a defense would encourage the 
proliferation of nuclear weapons.
    Yet the opposite is far more likely. Imagine a sharp rise in 
tension between India and Pakistan. Both countries have nuclear weapons 
and ballistic missiles. Suppose the United States could dispatch an 
Aegis cruiser to the region with instructions to intercept any 
ballistic missile fired by either side. Such a capability in American 
hands would be highly stabilizing, reducing the likelihood of conflict, 
discouraging the use of offensive missiles, and reassuring to both 
sides.
    Other nations, like Iran, Iraq, and North Korea, are actively 
trying to acquire missiles capable of attacking the United States. They 
believe that acquiring even a single missile will catapult them into a 
select class of states capable of inflicting massive damage on the 
United States. Given time and money, a single missile, or even several, 
is not beyond their reach. But suppose that we were to construct a 
defense that could intercept all the warheads and decoys carried by 100 
or 200 enemy missiles. A Saddam Hussein or a Kim Jung Il would need 
that number to be confident he could land a missile on New York or 
Chicago or an allied capital. In that case, even a determined adversary 
might well throw up his hands and conclude that such a missile force is 
beyond his reach.
    The best way to protect against a missile attack is to discourage 
our adversaries from investing in the missiles in the first place. 
There can be no more powerful disincentive than to have a shield that 
guarantees their hugely expensive programs will fail. It is that 
shield, based on our most advanced technology--not an outdated treaty--
that will protect us best.

    Chairman Levin. Thank you.
    We are now going to give the witnesses an opportunity to 
respond to each other. Mr. Perle, your testimony was not 
presented in advance, as the rules require. The other two 
witnesses did present their testimony in advance so that we had 
an opportunity to read them. You had an opportunity to read the 
other statements, so we are going to give each of you an 
opportunity to respond to the other's comments for a few 
minutes, and then begin our first round of questions.
    Mr. Berger.
    Mr. Berger. Mr. Chairman, I would make a few observations, 
because I think I would really like to engage with this 
committee. First of all, I suspect we all might object to the 
proposition that something over 30 is, ipso facto, obsolete. 
That would include most of us.
    But putting aside that comment, I find it, first of all, 
rather startling that Mr. Perle takes objection to my saying 
that the Russians could believe that our attempt, or could see 
our attempt, to build a system, the definition of which they do 
not know, with very little opportunity to engage, as an 
opportunity to gain unilateral advantage, and be concerned 
about the context of not that we are going to launch a nuclear 
strike against them, but what do we do in a crisis if we had 
that capability.
    We have been toe-to-toe quite recently. I find it ironic 
that he would take objection to that, and say that is 
responsible and yet in a sense say to Saddam Hussein and Kim 
Jong Il and the rogue-state leaders that their threat of 
coercion against us will work. That is, we do not have the will 
to respond either preemptively or otherwise to a rogue state 
that threatens to wipe out an American city with a long-range 
nuclear weapon.
    He is saying, essentially, do not believe that we will use 
these things for deterrence. He is saying our deterrence will 
not work, to Saddam Hussein. I think that is equally unwise. 
The fact of the matter is, I cannot believe any President, 
faced with the statement by Saddam Hussein or Kim Jong Il that 
he is threatening Los Angeles would not preemptively eliminate 
the source of that threat, and I think we should be very 
careful in saying that deterrence does not work against rogue 
states, because the very statement of that lowers our security.
    Second of all, I think again what Mr. Perle has 
demonstrated is a single-minded view of our national security, 
and essentially said at the end let us just get rid of the 
treaty. That is the objective.
    Well, to me the objective is, let us enhance our security, 
and it seems to me that while we do have a rogue-state missile 
threat, we need to deal with it. The first line of defense is 
deterrence. There may be desire for an insurance policy, a 
value in an insurance policy in the nature of a defensive 
system.
    How we go about that matters, and if we say right now, as I 
hear the administration saying, and I certainly hear Mr. Perle 
saying, we are going to do that without regard to what you 
think, we are going to just abrogate the ABM Treaty, or as the 
administration says, we are going, in the next 6 months, to be 
at a point where we either are bumping up against the treaty, 
or abrogate it, I think we cannot ignore the potential that 
there will be consequences and that there will be consequences 
in a number of different respects.
    The Russians, in that situation, not knowing, because we 
have not told them what the purpose and scope of this defensive 
system is, I think quite possibly will respond in various ways, 
including eroding the framework of arms control, which gives us 
verification, transparency, and predictability.
    I believe if our allies see us proceeding in this way 
without regard to trying to reach some sort of a strategic 
framework, as the President has said, they will think that our 
objective is getting rid of treaties, not enhancing our 
security. I do not think they will support us, and under those 
circumstances I do not know how we deploy a system.
    I think in general, if you look only at one dimension here, 
the answer is self-evident. I think we ought to try to figure 
out how we get this apple if we need it without upsetting the 
entire apple cart in the process of doing that.
    I think you heard from Mr. Perle in perhaps slightly more 
pure form than you heard it from Deputy Secretary of Defense 
Wolfowitz what the objective is here, which is, the principal 
objective is, get rid of the treaty, and my judgment is, let us 
proceed here in a way that looks across the range of our 
interests and tries to maximize our security and not put us in 
a collision course with the world.
    Chairman Levin. Thank you. Mr. Coyle, do you have any 
comments for a couple of moments before we begin our round of 
questioning?
    Mr. Coyle. Just a brief one, Mr. Chairman. If I thought we 
knew how to build a national missile defense system that would 
work, in realistic operational situations, I would agree with 
Mr. Perle in his remarks about deterrence, but as I noted in 
the longer version of my statement, Pentagon briefings on 
national missile defense show a flawless plexiglass dome 
covering the United States. We imagine that incoming enemy 
missiles would bounce of it like hail off a windshield. 
Unfortunately, such a missile shield, even under the Bush 
administration concept for a layered system, is a practical 
impossibility.
    Chairman Levin. Mr. Perle, do you have a couple of moments 
of rebuttal?
    Mr. Perle. Thank you, Mr. Chairman. I think Sandy Berger is 
right to observe that there have been some difficult situations 
with the Russians in the post-Cold War period. We have been 
toe-to-toe recently, he said. I do not believe that our nuclear 
arsenal had any bearing on the way in which those issues were 
dealt with. Whether we are talking about differences over 
Kosovo or differences about Chechnya or other differences, I 
simply do not believe that the nuclear arsenals of either 
nation are relevant to the way we conduct our relationship.
    Sandy Berger says of my argument that our deterrent will 
not work with Saddam Hussein. He is saying to Saddam Hussein 
that our deterrence will not work. Sandy Berger is saying that 
you can count on Saddam to be deterred by our deterrent, and I 
frankly do not want to count on the rational judgment of a man 
who has used poison gas against his own people, who has 
murdered his own closest associates, and whose stability and 
rationality cannot be assumed, because when we discover that 
deterrence did not work it will be too late. This applies, as 
well, to an accident. After the accident, it will be too late.
    I am sure that Mr. Coyle will tell us that there are no 
foolproof systems. There are no absolute systems. There is 
reason to be concerned about how safe nuclear arsenals are over 
the long term, particularly in the deteriorating circumstances 
of the former Soviet Union, so it seems to me simple prudence 
that you do not bet the life of an American city, you do not 
bet the lives of millions of Americans, on the theoretical 
confidence that you will deter a Saddam Hussein or a Kim Jong 
Il, or some other individual who may possess the means to 
attack us who we do not even know today. Unless you believe 
that for the foreseeable future there is no danger, it makes 
sense to begin the process of a prudent insurance.
    Now, Sandy says if we just abrogate the treaty we cannot 
ignore the consequences, and I agree with that. Of course we 
cannot ignore the consequences. We also cannot ignore the 
consequences of continuing the treaty, of continuing the Cold 
War relationship, which is the context for that treaty, and he 
has suggested the Russians will respond, or may respond by 
eroding arms control.
    I am not quite sure what that means. I think what he meant 
to say is, they may respond by holding on to more nuclear 
weapons than they would otherwise have, or that they might 
respond by building new nuclear weapons. I tried to address 
that issue in my testimony, and it is up to you to judge 
whether that would be a rational and sustainable decision by 
Mr. Putin, whether he would conclude that it is in Russia's 
best interest to invest further in nuclear weapons because we 
had deployed a defense against the Saddam Husseins of the 
world.
    He said further, our allies will not support us. In the 
recent weeks of this debate, I have met with any number of 
allied officials, dozens, and I have been encouraged by the way 
in which, as they listen to the argument, as this committee is 
listening to the argument, they have come to adjust their view, 
which in some cases was, indeed, an expression of opposition, 
and it is much less opposition today, and if we continue this 
argument in a careful and deliberate and rational way, I am 
convinced most of our allies will support us, but we have to do 
what is best for our own security. We are not going to take a 
vote among our allies and have our policy determined by them.
    Chairman Levin. Thank you. I think we can have a 10-minute 
round here. We have three witnesses, and I think that would 
work all right. I did not consult with my colleague on that, 
but let us try a 10-minute round of questions here.
    Senator Warner. I am just wondering about the schedules of 
our colleagues. I simply would like to have a 6-minute round.
    Chairman Levin. We will do that. We will have 6-minute 
rounds.
    Senator Warner. We could perhaps go to a second round.
    Chairman Levin. We will have a second round, if necessary.
    Mr. Coyle, your written testimony says that development of 
an effective NMD network, even one with only a limited 
capability to intercept, will take a decade or more. This is 
for simple technical and budgetary reasons. In the near term, 
the ABM Treaty hinders neither development nor testing. Now, we 
have been given testimony that is somewhat different from that, 
which is that there are constraints.
    Secretary Wolfowitz told us the following: that we designed 
a program to develop and deploy as soon as is appropriate. 
Developing a proper layered defense will take time. It requires 
a more aggressive exploration of key technologies, particularly 
those that have been constrained by the ABM Treaty, so the 
administration is arguing that the ABM Treaty constrains 
testing in the near term. You have indicated that it does not. 
I would like you to comment on that.
    Also, have you read the three pages given to us by 
Secretary Wolfowitz, one page for each of the three possible 
technology testing, which could bump up or conflict with the 
ABM Treaty within months, and if you would comment particularly 
on the test bed situation, as to whether or not that is 
necessary, does it add something? If so, does that not 
conflict, in a few months, with the ABM Treaty, and then how 
does that then fit with your statement that in the near term 
the ABM Treaty hinders neither development nor testing?
    Mr. Coyle. Perhaps I could give a general answer first and 
then go to the specifics. We have been testing for years, in 
full compliance with the ABM Treaty, national missile defenses, 
and there are many tests still to be done. For example, the 
tests that are being done so far, the intercepts occur very 
close to Kwajalein.
    Obviously, you would want to do tests where the intercepts 
really were at mid-course, which they have not been so far, but 
that is something you can do under the ABM Treaty now, just 
like the tests we have already been doing.
    Also, as many scientists have pointed out, you would want 
to do tests with different kinds of countermeasures, different 
kinds of decoys, but again that is something that you can do 
right now from Kwajalein or Vandenberg or Kodiak, if that turns 
out to be a new test site, as well.
    Similarly, you would want to do tests at different ranges, 
different trajectories, but all of those things take time and 
money, and there is nothing about them that requires new 
freedoms from the ABM Treaty.
    With respect to boost-phase missile defenses, it is true 
that the treaty prohibits mobile defenses, such as from a ship, 
but we already know that the Navy missiles that they have now 
are too slow for boost-phase defense. They need to be twice as 
fast, so those new rockets would have to be developed and 
tested, something we have to do now at Kwajalein, White Sands, 
or other places. We already know that the radars on those ships 
are not suitable for NMD-class engagements, so new radars have 
to be built. Again, that would take time and money. So that is 
again why I said what I said.
    Chairman Levin. If you would just focus, because of time 
constraints, on the test results at Fort Greely now.
    Mr. Coyle. With respect to Fort Greely, my understanding is 
the administration does not intend to launch from Fort Greely 
for test purposes because of nearby populations of caribou and 
the like, so the things you might do there are store missiles 
that you would launch from Kodiak. I suppose there is nothing 
wrong with that, but that is not much of a test purpose. You 
could just as well store them at Kodiak, and it might be safer 
than hauling them from the middle of a very large state like 
Alaska down to Kodiak.
    Fort Greely is the place where the Army has had its cold-
regions test center, and it gets miserably cold there in the 
winter. I suppose an argument could be made also that you could 
learn something about operating a potential operational site at 
Fort Greely by having equipment there, because things that work 
in the rest of the world do not work at Fort Greely.
    But again, there are many things that need to be done 
first, long before we would get to those kinds of issues.
    Chairman Levin. Mr. Perle, you have said whether or not the 
ABM constrains this testing or not, that we should withdraw 
from the ABM Treaty, is that accurate?
    Mr. Perle. Yes, Senator. Can I just say one thing on the 
testing?
    Chairman Levin. If you do not mind, because of time 
constraints, do you then disagree with Mr. Kissinger's comment 
that unilateral American decisions should be a last resort?
    Mr. Perle. No. I think we should have and are having a 
dialogue with the Russians.
    Chairman Levin. You do believe, then, that the most 
powerful country, as he puts it, should not adopt unilateralism 
until the possibilities of an agreement have been fully 
explored? Do you agree with that?
    Mr. Perle. Yes. I think as a general rule, that sounds----
    Chairman Levin. No, as a specific rule here, relative to 
withdrawal from the ABM Treaty, do you agree that the most 
powerful country in the world should not adopt unilateralism 
until the possibilities of agreement have been fully explored? 
Do you agree to that statement relative to withdrawal from the 
ABM Treaty?
    Mr. Perle. No. Stated that way, I do not agree with it.
    Chairman Levin. Mr. Berger, on the question of Shemya, 
which in the last budget we had put some money in for Shemya, 
if we had deployed that radar at Shemya, there would have been 
a clear violation of the ABM Treaty at some point.
    The point has been made that we did that without a 
compliance review group deciding anything, we did other testing 
without a compliance review group telling us that a particular 
test would be in compliance, and in the case of Shemya, we 
actually put money in which, if obligated at a certain point, 
at least, along the construction curve would have violated the 
ABM Treaty. What is the difference between what this budget 
request is asking for, if any, and what we did in the last year 
of the Clinton administration relative to Shemya?
    Mr. Berger. I think the context is entirely different, Mr. 
Chairman. The context of last year's budget request, which did 
include money for Shemya which we did not actually spend, meant 
we were embarked upon a testing program that was consistent 
with the treaty: we had a discrete, specific architecture for a 
treaty, we were engaged in negotiations with the Russians, and 
had amendments on the table, including amendments to START III, 
so that is one context.
    In this context, the administration has told you that their 
intent is to bump up against the treaty in the next several 
months, that as someone said in the New York Times today, a 
senior administration official, we do not want to have formal 
restrictions on development testing and deployment, similar to 
what Mr. Perle has said, so the context is different.
    You have an administration that is putting you on notice 
that their intent is, essentially, to bump up against this 
treaty in the next several months unless the Russians agree to 
some new strategic framework in that period of time, so I think 
the context here is entirely different between where we were a 
year ago, a testing program consistent with the treaty, in the 
context of an ongoing negotiation and specific architecture, 
and an administration which seems in my judgment to be heading 
toward the horizon for abrogation unless, in the next few 
months, we can replace 50 years of strategic policy with a new 
strategic framework. I do not think that is enough time.
    I actually believe, if I could add one thing, Mr. Chairman, 
it may be possible to reach a deal with President Putin. I 
agree with Senator Warner. I do not think it is at all 
inconceivable that the Russians would agree to changes in the 
ABM system that would accommodate a more robust testing 
program, or that would in other ways accommodate some of what 
we want to do.
    But I do not believe that in the absence of telling them 
what we intend to do, what the architecture is, with some 
people, Mr. Perle writing in the Wall Street Journal saying we 
should have a residual capacity against the Russians in a 
defensive system without knowing what the architecture is, and 
saying in February, March, we are basically going to be between 
a rock and a hard place, I just think we are not creating 
enough space here, and it is in that context that I say to Mr. 
Perle that I think the allies are going to be deeply troubled.
    If they see us acting here in a prudent, responsible way, 
as the President has suggested, trying to move to a new 
strategic framework, I applaud them for that, but that is not 
going to happen overnight. I think over time it is conceivable 
they will come around.
    If they see that our objective is abrogation, and that our 
testing regime is neither necessary, as Mr. Coyle said, in 
terms of aggressive pursuit of a range of technologies, and is 
designed in a sense to create this kind of confrontation and 
create this collision as soon as possible, I think we are going 
to be isolated in the world. I think that matters.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman and witnesses, I think we have 
had another good day of hearing our witnesses come forth and 
share their views. I have certain agreements with each of you 
and certain disagreements, so I will start with my long-time 
friend, Mr. Perle.
    I thoroughly benefitted by your historical references as to 
how this whole concept of the ABM Treaty evolved. You were here 
in this building, and I was across the river in that period of 
time, and we were young and vigorous in those days. We do 
respect the framework and the concept of our elders, and I 
think that the withdrawal clause was put in there for a 
purpose; to enable both sides to have essential flexibility in 
the face of change.
    I think, Mr. Berger, you underestimate how much change has 
really taken place since May 1972, and ironically I was there, 
primarily for other purposes, but as a part of that delegation 
which took place in Moscow in May 1972. I remember it very 
well.
    But let me start with how I disagree with each of our 
witnesses to some extent.
    Mr. Perle, I am of the frame of mind that the ABM Treaty in 
a sense has outlived its justifications and foundations, but I 
also believe that you have to deal with Congress as the chief 
executive. As Congress moves toward a new framework of 
understandings with Russia given Congress as a partner, and 
that a number of our colleagues have strong views, contrary to 
those of the President, we should thoroughly explore first a 
two-step process:
    Step 1, to see whether or not we can conceive of a series 
of amendments to the ABM Treaty which, in effect, would give us 
a new framework, almost in the nature of a substitute amendment 
which is a phrase we use frequently on the Senate floor. I 
think that that is within the realm of possibility of our 
President to negotiate the new framework and somehow leave some 
vestiges of the ABM Treaty in place. This would address the 
difficulty so many nations have understanding on the heels of 
the Comprehensive Test Ban Treaty why our country has not 
consistently gone ahead with the old framework.
    So keep an open mind. Eventually I think our President can 
show Russia the advantages of having an entirely new framework, 
but I do believe amendments can accommodate the near-term 
objectives of our President as he devises essential new steps 
in an architecture which I strongly support. We will take it a 
step at a time. That is my view.
    Mr. Berger, I think you have very carefully analyzed the 
relationships between the United States and the former Soviet 
Union, today Russia, but we cannot be unmindful of the fact 
that a lot of nations are hell-bent on trying to acquire one or 
more of these weapons for whatever purpose they wish.
    We dwell on my good friend and former chairman's views 
about the threat of one single weapon in the suitcase, and we 
are expending enormous sums of money, primarily in 
intelligence, to intercept those types of threats, but we are 
not spending commensurate funds to give us the essential 
ability to stop one or two missiles fired against the United 
States.
    We have seen here recently two events involving the finest-
trained military people. In Russia, they lost their submarine. 
We all know that their finest go into the submarine force. No 
dollars are spared in terms of safety, training, and capability 
in modern submarines, and then we saw gross negligence by the 
commanding officer of a submarine in Hawaii, when that 
submarine surfaced and caused the loss of life of innocent 
people.
    Mistakes happen in the military. Mistakes can happen with 
the aging forces in Russia today--its missile forces which they 
can no longer economically support in the numbers they have. 
Accidents happen with our military as well. So we have to 
prepare ourselves against that type of situation.
    I hope, Mr. Berger, in the course of your remarks this 
morning you can allay any concerns I have in listening to you 
that you might advocate a preemptive nuclear first strike 
against these countries that threaten us with their ballistic 
missiles, as opposed to putting a defensive system in to 
interdict that missile. Preemptive strikes by a superpower like 
ours against a small nation of helpless people, I just hope you 
will correct that in the course of the morning, I will move on 
to another subject, which is directly related to this.
    We wake up this morning, to hear Russian President Putin 
advocating that he wants to join NATO. Now, it may be just 
jocular rhetoric on his part as he goes off to meet with our 
President, but that is something that has been discussed from 
time to time in your administration and others. What is your 
assessment? I will lead off with you, Mr. Berger. What is your 
assessment of his comments this morning, because if he were to 
join NATO, it seems to me we could very quickly reach an 
accommodation with regard to missile defense, because it is in 
the common interests of Russia as well as the United States.
    Mr. Berger. I think that is a long way off in the future, 
at the very least.
    Senator Warner. I certainly would not advocate it at this 
point in time. I think it would be the demise of NATO.
    Mr. Berger. Let me say I certainly agree, and the Clinton 
administration was never accused of underestimating the change 
in Russia over the last 8 years. I certainly agree that there 
is a new Russia, new leadership, new democracy, but in fact it 
is in part because of their crumbling offense, the fact that 
they cannot put their subs out on deployment, they cannot 
deploy their strategic aircraft, that a defensive system that 
we do not define for them in a system without rules, is going 
to cause them concern.
    I do not think that concern is a trump card. I do not think 
that we ask their permission. We certainly did not as we were 
proceeding with our system, but I do think that we have to look 
smartly at how they could respond to decrease what they already 
see, as they lose confidence in their deterrent and as they see 
an increasing vulnerability from their own economic----
    Senator Warner. Excuse me, under my time constraints, I 
would like to have Mr. Perle address that.
    Mr. Berger raises the question which I think we have to 
respond to, the timetable that the Bush administration has put 
down to achieve a new framework is so unrealistic that it 
raises a credible inference that their subliminal intention is 
to just trash the treaty from the beginning. I think our 
testimony here from Mr. Wolfowitz went a long way to dispel any 
basis for that assertion, but nevertheless, you have spent many 
years in the negotiating field.
    Go back to the Intermediate Nuclear Forces (INF) weapons in 
Europe. We took in the 1980s a very assertive stance, quickly 
told them what we were going to do, and while our allies 
objected initially, eventually that unfolded successfully.
    Mr. Perle. Senator, I think this is unlike the issues, the 
arms control issues of the Cold War, where every detail was 
important, where we wanted to cross every T and dot every I, 
and the difference is, we are talking about a whole new 
conceptual relationship between the United States and Russia. 
It is not a question of the details, it is a question of the 
concept.
    Sandy Berger wants to stick with the old concept. He does 
not like the idea of replacing 50 years of strategic policy in 
a few months' time, but that was 50 years of policy during the 
Cold War. The Cold War is over.
    It is rather more akin to demobilization after a world war, 
and so I do not think we need protracted negotiations to say to 
the Russians, unless you can conceive of an American, a 
massive--and we are talking thousands of weapons, nuclear 
attack on Russia, you do not need to be concerned about the 
very limited defense we have in mind. I frankly find it hard to 
imagine how a Russian across the table could say we would be 
concerned about a defense against a modest number of ballistic 
missiles that might be aimed at you.
    How could they justify that concern, and if they cannot, 
and I believe they cannot, then we should put this treaty 
behind us, and without regret. It served a useful purpose 
during the Cold War. It now prevents us from mounting a modest 
defense against a Saddam Hussein or against an accident.
    On balance, and I think the chairman put the question 
exactly right at the outset, are we better off with the treaty, 
or are we safer with or without it? On balance, the threat of 
an accident or a rogue state is much greater than the 
likelihood of a nuclear war, deliberate, massive nuclear war 
between the United States and Russia.
    Mr. Berger. Mr. Chairman, can I add one comment to that?
    Senator Warner. I am going to defer to the chairman. I 
think we had best stick to our time.
    Chairman Levin. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks to the 
three of you for excellent testimony this morning.
    I want to pick up on a question Senator Warner raised, and 
it goes to the heart of the changing strategic relationship 
between Russia and the United States, which is in many ways the 
premise, or it is certainly the reassuring context that the 
administration and others who support development of a national 
missile defense put forward, which is that the Cold War is 
over. Russia and the United States are no longer enemies, 
therefore, why is Russia concerned about our development of a 
missile defense?
    I must say in that regard that, although this is not the 
first time this has been discussed, I took President Putin's 
comment at the press conference--I believe it was in Moscow 
yesterday--about his own interest in altering the strategic 
framework and in having Russia be considered for membership in 
NATO as a significant statement, and it is one that I hope on 
which the administration will engage him.
    I hope President Bush will pick President Putin up in their 
discussions in Europe this weekend, because if, in fact--and 
look, NATO was created, as I understand its history, for two 
reasons. One, obviously, was in response to the Warsaw Pact, as 
the centerpiece of a Cold War confrontation. The other, which 
is so often ignored, but at which NATO has been extraordinarily 
historically successful, is to form an institution in which 
historic enmities within Europe could be reconciled.
    I mean, after all, we were talking about, this is a post-
Second World War institution in which previous enemies in the 
Second World War, Germany, France, Britain, came together and 
have formed an alliance over the years.
    We have already begun to work with Russia, I think quite 
constructively, in the Balkans, so I do not think there should 
be any inherent reason not to commence with such discussions.
    They have another salutary effect. There are qualifications 
for membership in NATO. Some of them go to military 
comparability and preparedness. Obviously, Russia is in a much 
better position than some of the other nations we have taken in 
to meet that standard, and the others go to proof of the 
vibrancy or reality of democracy, which is an important 
additional guarantee to the people of Russia, who have suffered 
for too long under communism.
    So I hope we will engage President Putin on this. I think 
it is a great thing to happen now, as we begin to talk to him 
about missile defense and modifications, or even abandonment of 
the ABM Treaty, because what better way than to say, President 
Putin, history has changed, the Cold War is over, we are no 
longer enemies, so much so that we are prepared to begin a 
process which may lead to your admission in to NATO, where you 
will generally be our ally.
    My question is this. Just very briefly, I have been saying 
at these hearings, and I think the National Missile Defense Act 
of 1999, which passed the Senate 97 to 3, committed the United 
States to a policy of developing a national missile defense 
against limited attack as soon as it is technologically 
feasible, so to me the question is not whether we are going to 
have a missile defense, but when.
    I also think, in truth, that the adoption of that act put 
us on another course, which was to have a missile defense 
obviously at some point requires either the comprehensive 
modification or abandonment of the ABM Treaty. You cannot have 
both, and, therefore, I think the question about ABM is not 
whether it will be altered, but when and how, and those are the 
questions that I want to ask particularly Mr. Berger.
    Mr. Perle, I was troubled in this regard to read a 
statement in the New York Times today from Condoleezza Rice, 
President Bush's National Security Advisor. The reporter said, 
first, the White House has no interest in detailed talks about 
permissible testing and deployments--this is on missile 
defense--and then, ``this is not about lining in, lining out 
the ABM Treaty to try to get a little bit of flexibility to do 
this test or that test.''
    I presume she is talking about a broader alteration, but 
if, in fact, we are going to violate the ABM Treaty soon, as I 
think Mr. Berger is saying this morning, modifications are 
necessary or we are going to have to totally withdraw and 
precipitate a crisis, so I would ask the two of you two 
questions, Mr. Berger and Mr. Perle.
    First, listening to Mr. Coyle particularly, who thinks we 
are not in any danger in the near term of violating the ABM 
Treaty, speaking generally and simplistically, to the extent 
that the two of you understand the administration's program 
here, when do you think we are going to violate the ABM Treaty, 
which would require us to pull out? Second, perhaps covered in 
the last round, why not modify the ABM Treaty if, in fact, 
there is going to be a violation soon, rather than forcing what 
may be very difficult, which is a major reorganization of the 
geopolitical strategic architecture between Russia and the 
United States?
    Mr. Berger. Let me try to answer both of those questions as 
concisely as I can. I think what Mr. Coyle is saying is that we 
need not violate the ABM Treaty any time soon to have an 
aggressive program with respect to a range of technologies.
    Now, as I see it, as I read what the administration is 
putting forward, they have said they are going to bump up 
against the treaty in several months, and there are three ways 
in which that could happen. One is they have said there is 
going to be a PAC-3 test sometime in February. Now, if that is 
tested against a strategic missile, that would be a violation.
    Second of all, they said they are going to use Aegis 
radars. Depending on how that happens, that could raise a 
treaty issue on the test track. We have a right to additional 
test sites under the treaty when we notify the Russians of 
that. We do not have a right to do that inconsistent of the 
treaty. That is, if we are doing it as an operational base.
    So they have raised a series of--they have designed a test 
plan that they have said will bump up against the treaty, and 
depending on at least how those three tests go, could cross the 
line. I think what Mr. Coyle is saying--and I do not want to 
speak for him--is we want to be very aggressive in going 
against a range of technologies without bumping up for the time 
being.
    On the second question, why not modify, we tried. We 
designed an architecture which BMDO and the Pentagon said was 
the fastest, most mature, most affordable way to meet the 
threat before us, which was the rogue state threat against the 
United States, and as Mr. Coyle has said, we made a good deal 
of progress in moving toward that system.
    At the same time, we went to the Russians with a specific 
architecture and specific modifications. In the last 3 weeks, 
Senator Lieberman, I have heard four different rationales. We 
should have a system to defend ourselves against the United 
States, against rogue-state threats. That is what we were 
doing.
    Second, we should have a system that should protect us and 
the Europeans and our friends against long-range ballistic 
threats. That is a different system. I do not know whether the 
Europeans are volunteering to pay for their portion of that. I 
have not heard that yet.
    Third, we should have a system that does all of that plus 
enables us to deal with an unauthorized or accidental launch 
from Russia. That is a different system. Unless we know which 
SS-18 is going to accidentally launch, that is a different 
footprint.
    Others say we need a 360-degree system that can defend us 
against anything from anywhere.
    We are going to the Russians at this point saying, we 
cannot tell you what we are going to do. We cannot really tell 
you why we are going to do it. We cannot really tell you what 
we are asking you to do in the way of modifications. Just let 
us out of this treaty and trust us.
    I think that we have a better chance of doing what 
President Bush has said, which is negotiating a new strategic 
framework, if we give ourselves more room, and what Mr. Coyle 
is telling us is that we can do that without prejudice to the 
development of a range of technologies.
    Mr. Perle. Senator, the ABM Treaty says we cannot have a 
defense, and what it permits is insignificant. The question, it 
seems to me, before the country is do we want to continue to 
live with that prohibition? Do we want to try to open enough 
freedom to take the next step for the next few months, or do we 
want to deal with the fundamental underlying conceptual 
question of whether we are right to prohibit defenses on the 
theory that we are somehow going to be safer if those defenses 
are to be prohibited?
    What I put before the committee is an admittedly radical 
proposal. It is to recognize the way in which the world has 
changed, and not cling to this anachronism, and we would be 
clinging to the anachronism if we tried to deal with these 
small details in a way that would buy us some time.
    The whole idea of buying some time implies that this treaty 
is serving our interest, and therefore we should preserve it 
for as long as we can. I think it is no longer serving our 
interest. It is contrary to our interest, and the sooner we 
exercise the right that was agreed upon in 1972 that we can 
withdraw, the better, and it has the added benefit that it will 
put the U.S.-Russian relationship in a new and much healthier 
context than the one that produced that treaty and has led some 
people to cling to it.
    It is significant that in Russia the proponents of the 
treaty are the opponents of real change in the relationship 
between the United States and Russia. I am going to Moscow on 
the weekend to participate in the discussion, as I did last 
year, and I can tell you that the reformers, the most ardent 
reformers in Russia are the people who are most anxious to be 
rid of the Cold War context, and they are not in the least 
concerned about abandoning the ABM Treaty.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Berger, you are quoted, I guess in the International 
Herald Tribune on Friday, July 13, of this year, saying, 
``China does not have the capability to be a destabilizing 
force in Asia, nor is there much evidence that it intends to do 
so.''
    Right now, with some 209 M-11 missiles, with the building 
of the destroyers, the submarines, with the upgrading of their 
platforms, with the recent purchase that--the number has not 
been confirmed, but around 240 SU-27s and SU-30s, which are 
state-of-the-art, and are actually better and more 
sophisticated than our F-15s and F-16s, and their air power 
conservatively estimated to be 3 to 1 over Taiwan, do you not 
believe that that military buildup is a destabilizing force on 
Taiwan?
    Mr. Berger. I think the sentence before the one you read, 
Senator--I have not seen how that was edited by the Herald 
Tribune--said that after several, a period of declining 
military budgets, the Chinese have increased their defense 
budgets. They are modernizing. These are things we need to be 
concerned about and to watch carefully. That was the context.
    Senator Inhofe. So they could be a destabilizing force?
    Mr. Berger. I think at this point, I do not see them having 
the capability to launch a successful attack against Vietnam or 
against Korea. I think Taiwan is a unique and very difficult 
set of problems, but my view is, we should be dealing with that 
in a very deliberate way.
    Senator Inhofe. Back during the Clinton administration, 
when you had the position of National Security Advisor, we went 
through an event that I know you were involved in, where we 
were all a little bit embarrassed after our intelligence had 
said that it would be somewhere around 5 years before North 
Korea would have the multiple stage rocket capability--I 
actually have a letter dated August 24, 1998, that stated 
that--then on August 31, they fired a three-stage missile 
capable of reaching the United States of America.
    It is also well-known that North Korea is selling--not just 
trading its technology but selling systems to Iraq and Iran. 
Can you sit here today and say that there are currently no 
weapons of mass destruction and ICBM threats to the United 
States from rogue nations today?
    Mr. Berger. I am troubled, very troubled by the Korean 
program, which is why, Senator, we did several things. We 
negotiated a missile test moratorium to stop their testing, 
number 1, in 1991. That moratorium holds still today. Number 2, 
we initiated discussions----
    Senator Inhofe. Let me interrupt you on that, because your 
recommendation number 7 in your opening statement was, and I 
wrote it down here, ``negotiate with North Korea to stop the 
missile threat.'' You essentially did that, and it is my 
understanding that there is strong evidence of testing that is 
taking place since that agreement was made.
    Mr. Berger. I do not know. You have greater access at this 
point to classified information than I do, Senator. I am not 
aware of any long-range testing by the Koreans since that 
moratorium. I think that is something we would know about and 
read on the front page of the New York Times.
    We also, at the very end of the Clinton administration, 
began a conversation with the North Koreans about stopping 
their exports to states in the Middle East and elsewhere, and 
about ending their program. We did not have enough time to 
satisfy ourselves that we could reach an agreement that would 
reach our standard in terms of verification and otherwise, but 
I think we have an obligation to see whether we can negotiate 
away the threat in a verifiable way.
    Senator Inhofe. This is chewing up my time rapidly, so I 
think your statement is that you feel comfortable in 
negotiating with North Korea to stop the missile threat. You 
have enough confidence in them.
    Mr. Berger. I do not think that is the only thing: Trust, 
but verify.
    Senator Inhofe. Mr. Perle, do you have any comments to make 
about either of those two things? First of all, can we sit here 
today and assume that there is no threat from a rogue nation 
today, in light of this trading of technology and systems with 
North Korea?
    Mr. Perle. No, I do not think we can make that assumption. 
There is a great deal we simply do not know, and we have to 
assume that we could be surprised.
    Senator Inhofe. Do you totally trust the North Koreans to 
agree to stop their missile threat?
    Mr. Perle. I do not trust the North Koreans at all.
    Senator Inhofe. On the missile, the ABM Treaty.
    Mr. Berger. I would say I agree with that statement.
    Senator Inhofe. On the ABM Treaty of 1972, this was back 
when, as we have said before, the Soviet Union was our enemy. 
Is Russia our enemy today?
    Mr. Berger. Senator, I find it somewhat ironic to hear 
myself cast here as the defender of old things, since Mr. Perle 
spent most of the last 8 years saying we had an overly romantic 
view of Russia. The fact is, a lot has changed, and Russia is 
not our enemy. The Soviet Union does not exist. The Cold War 
does not exist. We promoted NATO in large measure----
    Senator Inhofe. They are our ally.
    Mr. Berger. They are not our ally, but they are not our 
enemy, but that does not mean that they do not have a gigantic 
nuclear arsenal, and that they are still not a strategic 
dynamic, and there is still not danger and uncertainty.
    Senator Inhofe. Just a yes or no, do you think it could be 
argued, logically, that--and we want a missile defense system 
that will protect us but also our allies, and also Russia--it 
could be to their benefit for us to have this?
    Mr. Berger. I argued that to President Putin face-to-face. 
I said to President Putin, I think you ought to make these 
changes because I think it is in Russia's interest to have this 
system proceed in the context of arms control and in the 
context of constraints, not unbounded by constraints.
    Senator Inhofe. Mr. Berger, you said in your opening 
statement also that you agree with Henry Kissinger, and then 
you went on to talk about it. I would ask you also if you agree 
with another statement Henry Kissinger made.
    Henry Kissinger, having been the architect of the 1972 ABM 
Treaty, felt at that time, and frankly I did not agree with him 
at that time, but many people did, that mutually assured 
destruction (MAD) was the right thing to do.
    Since that time, that very architect has said he is very 
much opposed to its application today because of the changing 
world, the proliferation we have been talking about, and he 
said, ``It is nuts to make a virtue out of our vulnerability.'' 
Do you agree with Henry Kissinger on that statement?
    Mr. Berger. First of all, Senator, I do not know anybody 
saying we should abandon deterrence with respect to Russia, 
unless someone is saying we should build this system as a 
system designed against the Russian arsenal. No one is saying 
we should walk away from deterrence of mutual destruction. They 
are saying, do it at a lower level.
    What I am saying, and I think Henry Kissinger and I 
disagree on a number of aspects of this, what he is saying is 
big nations like the United States do not preemptively withdraw 
from treaties without demonstrating to the world that they have 
tried to make the changes that are necessary.
    Senator Inhofe. Mr. Chairman, I know my time is up. I have 
just one yes or no question for Mr. Coyle.
    Mr. Coyle, you said, and I believe national missile defense 
is being developed without the urgency of a threat. Don't you 
believe that, with the buildup that we are seeing in China, and 
with the comments that were made back when the demonstrations 
were taking place off the Taiwan Strait, and the comment was 
made that America would rather defend Los Angeles than Taipei, 
and when their defense minister said war with America is 
inevitable, would you not throw that into a category of urgency 
of a threat?
    Mr. Coyle. Senator, I find it hard to believe that North 
Korea would be so reckless as to attack----
    Senator Inhofe. No, I am talking about China now. This is 
China.
    Mr. Coyle. I would make the same comment. I find it hard to 
believe that China would try to attack the U.S. homeland 
tomorrow, whereas I can certainly imagine North Korea or China 
firing short-range missiles, and the sense of my testimony was 
I believe the short-range missile threat is much more urgent.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Perle, you premised a great deal of your testimony on 
the assertion, repeatedly, that the Cold War is over, and in a 
very obvious sense you are absolutely right, describing the 
conflict, the competition between the United States, the Soviet 
Union, China, and the Communist Bloc.
    But the Cold War is also a shorthand for a strategic 
situation where two nations have antithetical interests, 
commercial and ideological. They both have weapons of mass 
destruction that inhibits their use of conventional forces, and 
at the time that you are talking about the demise of the Cold 
War, you are also talking about the inability of nations 
acquiring these weapons, in effect, creating at least the 
dynamics of a Cold War in the future, i.e., two nations with 
antagonistic interests and nuclear weapons.
    In that sense, and I guess it goes back to the point that 
has been made by others, is there any way that we can step away 
from mutual assured destruction, ultimately, as a strategic 
concept?
    Mr. Perle. I think that ultimately we will, of course, 
reserve the right and the capability to respond with nuclear 
weapons under certain circumstances. I think the circumstances 
are becoming much narrower than they once were.
    We always preserve the right to use nuclear weapons to deal 
with a conventional attack in the center of Europe, for 
example. I no longer think that that makes sense. I believe 
that at the end of the day the role of nuclear weapons will be 
solely as a last resort, a response if nuclear weapons are used 
against us, and in all other contingencies we will have to find 
nonnuclear ways of protecting our interest and the interests of 
our allies.
    Where I think the world is fundamentally different now is 
that we cannot be sure that there will not be a missile fired 
by accident. We could not be sure before, but we did not have a 
ready response, and second there are countries and individuals 
who I believe it is imprudent to assume will be deterred in the 
way that we were able to deter the Soviet Union.
    I do not want to bet on the stability of a Saddam Hussein 
or a Kim Jong Il if they are in possession of a missile that 
can reach our territory with a warhead of mass destruction. I 
think we are in immediate jeopardy, and it is going to take, 
everyone agrees it is going to take, many years before we have 
a highly competent defense. They will argue that very 
effectively. It may take 30 years, and the second or third 
generation, before we have a defense that we can be completely 
confident about. We have to start somewhere.
    Senator Reed. I think we all agree we have started. The 
question is where are we going, what path, and how fast we are 
going, and without being facetious, but it seems that some of 
your foundation is psychoanalytical. You are looking into the 
mind, if not the soul, of these people, and concluding that 
they are irrational, whereas Joseph Stalin was reasonably 
rational, and others who are rather unseemly characters were 
rational, and essentially that is one of the great issues here, 
the rationality of our foes.
    Let me say something else, too, that in your concluding 
paragraph you say the best way to protect against a missile 
attack is to keep our adversaries from investing in the 
missiles in the first place. One of the problems I have with 
that is, our adversaries have their own adversaries.
    It would seem to me that the Indians and the Pakistanis are 
not developing nuclear weapons and missiles because they want 
to attack New York. It is because they are concerned about 
their border, the Iraqis, the Iranians, and as a result, if the 
premise is this national missile system is going to dissuade 
rogue states, or even developing states from developing 
missiles, I think that is an erroneous presumption.
    Mr. Perle. That is not my assumption at all. There are 
going to be additional nuclear powers. We do not worry about 
the British or French nuclear capabilities, and I do not worry 
about the Indian nuclear capability. I do not think India is 
going to attack the United States. I do worry about Saddam 
Hussein. I do worry about Kim Jong Il.
    Senator Reed. So this comes down, essentially your 
presumption is that you just feel that they are irrational, 
that they will sacrifice themselves and their regime in a 
conflict or a contest with the United States.
    Mr. Perle. I do not know whether they will or not, but I do 
not think you can rule that out. That is the difference. You 
can take the position that you are prepared to take that risk. 
Let us not have a defense and we will hope that neither Saddam 
Hussein, or Kim Jong Il, nor someone else in the future does 
something that we would consider totally irrational and launch 
an attack on the United States. That is a risk that I do not 
think we need to take, and given the catastrophic nature of 
getting that wrong, I want to err on the side of prudence and 
be able to intercept that missile.
    To repeat, this applies to an accident as well. There are 
no guarantees there will not be an accident.
    Senator Reed. A quick comment in response. The accident, 
there is also a possible consequence of our abandoning the ABM 
Treaty in that the Chinese, or perhaps even the Russians, 
decide they had to increase their alert status and for the 
Chinese to put warheads on their missiles, which ironically 
increases the chance of a dangerous accidental launch, but let 
me also go to Mr. Coyle for a quick question.
    It seems to me, as we go down here, we could find ourselves 
in a race between the offense and the defense, between our 
limited defensive shield and the capability of Iran or Iraq or 
North Korea to take offensive weapons and make them more 
effective than our defense, and in that way do you have any 
comment about who wins the offense or defense? You have looked 
at these systems.
    Mr. Coyle. Yes, sir, Senator Reed. It is a classic comment, 
really, certainly not original with me, that in such matters as 
we are discussing here today, the offense always has the 
advantage. The United States being an open society, the defense 
trade journals will publish details of the work that we are 
doing on missile defenses, and an adversary will have insights 
about how to build countermeasures and decoys that could be 
very difficult for us to deal with.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    Mr. Berger, in your opening statement you say that we 
should take into account the reaction of the Chinese when we 
assess the risks and costs of developing missile defense for 
our citizens. Well, as Jim Inhofe has said, for years now over 
our strong objectives, the Chinese have been providing 
ballistic missile technology to many rogue nations, nations 
like North Korea, Iran, Iraq, and Pakistan that are the source 
of this missile threat to the United States.
    If the Chinese had not been providing this technology to 
these nations, we probably would not be here talking about this 
today. We would likely have no missile threat to us, at least 
not right now. Do you think that the Chinese should have 
thought about the risks and costs of giving missile technology 
to other countries like North Korea?
    The risks and costs to the Chinese turn out to be that we 
are forced to develop a system to protect ourselves. They may 
not like it, but they have made their bed and now they are 
going to have to sleep in it. Do you think that we should 
ignore the threats that have been created as a result of the 
Chinese proliferation, that we should let the Chinese, through 
third countries, create a threat to us and then not respond to 
that threat because they may not like it?
    Mr. Berger. I do not think it is a question at all of what 
they like, Senator Bunning. I think that the Chinese 
proliferation has been something that has been a serious 
problem. We spent a considerable amount of time in the Clinton 
administration trying to get greater constraint on Chinese 
proliferation practices. We made substantial progress in the 
nuclear area. We have made less progress in the missile area, 
and there is no question that the Chinese, among others, have 
added to the capability of the North Koreans and others.
    My point is simply this, that we cannot ignore, in 
assessing the overall consequences of this, what effect it will 
have in Asia. We are basically saying that we are acknowledging 
that this system will defeat the Chinese deterrent. Some are 
even suggesting that is part of its purpose, but we are saying 
the answer. The administration has said as well, we will just 
say, ``Fine, the Chinese can build up.''
    I find that actually to be a strange posture for the United 
States to be in a sense acquiescent to the buildup, and the 
only point I am trying to make here is that we have to assess 
as part of this overall equation, and it may lead ultimately to 
the conclusion that the best part of wisdom is going forward 
with a robust national missile defense.
    But the part of the equation is, what does it unleash in 
China or in Asia? What does China do? What do Pakistan and 
India do as a result?
    Senator Bunning. I think we understand that. I think 
because of the fact of the Chinese intervention in the creation 
of third countries and their proliferation, that we have 
reacted to that.
    Let me ask you some other questions. I understand that you 
were at the law firm of Hogan & Hartson. You represented the 
Chinese government, is that correct?
    Mr. Berger. That is not correct. I was at the law firm, 
along with my distinguished friend, Senator Warner, of Hogan & 
Hartson for about 15 years, but I did not represent the Chinese 
Government.
    Senator Bunning. Someone at the firm did.
    Mr. Berger. I do not know. There are 860 lawyers at that 
law firm, sir.
    Senator Bunning. That is a lot of lawyers.
    Mr. Berger. It sure is.
    Senator Bunning. God help us all. [Laughter.]
    You do not have an ongoing relationship with that law firm?
    Mr. Berger. I have my own firm now. They are a client of my 
firm, but I do not have any kind of----
    Senator Bunning. You do not have any relationship with the 
Government of China?
    Mr. Berger. I do not.
    Senator Bunning. In your prepared statement, you indicated 
that negotiations with Russia to modify the ABM Treaty would be 
difficult if we did not know the purpose and the architecture 
of the system. The purpose of the system is to protect our 
citizens against a limited ballistic missile attack. The reason 
that we do not have a defined architecture, as the 
administration has repeatedly explained, is because we do not 
know what will work the most effectively.
    The way to find that out is to conduct a rigorous testing 
program. That is what the administration is doing. Don't you 
think that it is irresponsible not to be sure we have the best 
system available to protect our citizens?
    Mr. Berger. Senator, the Pentagon and the Ballistic Missile 
Defense Organization said to us repeatedly during the 1990s 
that the most effective, fastest, affordable way to deal with 
the threat, I think all of us are saying, is the most immediate 
threat. That is the rogue state missile threat against the 
United States, to which the best response was a land-based, 
mid-course, limited system.
    Senator Bunning. But that was considering we were going to 
use the ABM Treaty, and it would still be in effect forever.
    Mr. Berger. No, that was inconsistent with the ABM Treaty, 
which is why we went to the Russians to seek to modify it, and 
why we reserved the right ultimately to decide to stay within 
it, but now we have a situation where we have blurred what we 
are doing here. Are we still focused on rogue state threats to 
the United States? Are we focused now on covering Europe?
    Senator Bunning. No. I think we are focused on protecting 
the citizens of the United States, primarily.
    Mr. Berger. I agree with that, Senator. That should be our 
only overriding and single-minded concern.
    Senator Bunning. I think that is the Bush administration's 
overriding concern. I cannot help what is being said in the 
press by other people.
    Mr. Berger. But what I am saying, Senator, is that 
acknowledging that, which I agree is not only a moral but in a 
sense a constitutional and patriotic responsibility, does not 
predetermine how you do that, and in doing that we cannot only 
look through the prism of saying, how do we get this system up, 
we also have to say, are the allies going to support us, 
because we need their participation in building the system.
    Senator Bunning. The allies and/or Russia and/or any other 
country have no veto power over us protecting our citizens.
    Mr. Berger. Senator, now, Mr. Coyle knows more about this 
than I do, but most of the systems that I have seen require 
radars and other activities on European soil, and so we 
cannot--we do not ask their permission to do what we need to 
do, but the fact of the matter is, we would need to build and 
expand radar for the system we were designing in England and 
Greenland, and therefore we need to proceed in a way here that 
maintains some degree of consensus. If we are seen as pushing 
pell-mell when it is not necessary to abrogate----
    Senator Bunning. We can debate about how necessary it is.
    Mr. Berger. The last thing, I agree we should be engaged in 
an aggressive effort to look at other technologies. One of the 
things I said to President Putin when I saw him was, you talked 
about boost-phased sea-based systems. They could be of benefit 
to you. Why shouldn't we develop them? Why shouldn't we change 
the ABM Treaty?
    Senator Bunning. My time has expired. I thank you for your 
comments. Mr. Putin's comments in the paper were very 
constructive today.
    Mr. Berger. I agree, and that is why I think it is possible 
to do this if we do it in the right way.
    Chairman Levin. Thank you.
    Senator Cleland.
    Senator Cleland. Thank you very much to all of our 
panelists today. Let me just say, Mr. Berger, thank you very 
much for articulating what I think is the strategic question 
before us, and that is, are we going to pursue a WMD capability 
as our number 1 priority, or an NMD capability as our number 1 
priority? I think that really is the question.
    WMD, weapons of mass destruction, I think that is the great 
threat to the country. Every intelligence briefing I have been 
in for every one of the last 5 years that I have been here 
indicates the great threat to the country is not from some 
missile attack from some nation with a return address where you 
have to have a third-stage rocket or a nuclear missile, or a 
biological or chemical weapon, that is not the delivery system 
that is most likely to come our way. It is a WMD threat, 
weapons of mass destruction, nuclear, biological, chemical, 
coming from a terrorist threat, backpack, truck, or whatever. 
That seems to be the way military installations have been 
attacked in recent years, the most recent being the U.S.S. 
Cole.
    Now, I think that that is right on target, and so I think 
our number 1 priority should be defending against WMD, not so 
much NMD.
    Now, in terms of treaties, I think that Mr. Coyle is 
correct, from what I understand, and being a strong advocate of 
the theater missile defense and research therein, namely 
supporting the Arrow missile defense system research and 
development, which is a very successful system with the 
Israelis going on, the third generation of Patriots, the 
Theater High-Altitude Air Defense (THAAD), high altitude 
intercept program, all of that is consistent with the theater 
missile defense, and can be targeted to a Saddam Hussein or 
some rogue state.
    What bothers me is the abrogation of the ABM Treaty. We 
seem to be throwing the baby out with the bath water and 
triggering other things. About 3 days ago, I saw a chilling 
photograph on the front page of the New York Times. It shows 
the price that we are paying politically for pursuing pell-
mell, as you say, the abrogation of the ABM Treaty to put 
together an NMD system that, at best, cannot be deployed for 
another 10 years; at best, is not the plexiglass shield that we 
are led to believe and; at best, is not the maximally effective 
against anybody who wants to put some decoys out there and 
attack either our forces or this country.
    The chilling photograph I saw as a result of our pell-mell 
efforts to abrogate the ABM Treaty and pursue this NMD quest 
was the President of Russia and the President of China 
embracing in a friendship pact. The last time Russia and China 
got together in a friendship pact was when Mao Tse Tung and 
Stalin got together, and a few months later the Korean War 
broke out.
    A few years later, the Vietnam War broke out, all with the 
support of Russia and China working together against the United 
States. That is a strategic concern I have. That is the price 
we are paying for this pell-mell pursuit, as you mentioned, on 
NMD, which I think is not necessary.
    Let me ask you, Mr. Berger, if you do not agree with this 
statement. It is a statement by Mr. Ivo Dadler of the Brookings 
Institution, quoted in today's New York Times. ``Treaties that 
place limits on the testing and deployment of defensive systems 
provide predictability to all sides about the future strategic 
environment, and it is that predictability that will enable 
Russia to avoid worst-case assumptions and to continue to 
reduce its nuclear arsenal significantly. It is wrong to equate 
arms control treaties with the Cold War. Treaties are an 
instrument for reducing tensions among states in a Cold War, 
and for avoiding a return to the Cold War.'' Is that something 
you would agree with?
    Mr. Berger. Yes, I do, Senator.
    Senator Cleland. Let me just say, would you also not agree 
with the German official quoted in the New York Times today 
about the impact of the ABM Treaty on our allies, particularly 
our NATO allies, with whom we just fought the Balkan War? The 
German official is quoted as saying, ``If the ABM Treaty is 
changed, it should be a negotiated solution between the United 
States, the Russians, and the Europeans, namely Germany. Our 
concern is that there is a framework that has served us well, 
and that we should only do away with it, with the old 
framework, if we have a better one.''
    Mr. Berger. I do not believe that we ever should rule out 
unilateral action. I do not. I agree with my colleagues up here 
that the Russians do not have a veto, but I do think that 
agreed constraints on defense are not obsolete. They do provide 
predictability. They are likely to diminish the chance that the 
consequences of our proceeding will solve one problem--that is, 
the rogue state problem--and aggravate another problem, and 
that is the tension and uncertainty.
    Senator Cleland. Is it not true that for a number of years 
with the Arrow missile system, with the upgrade of the Patriot, 
with the THAAD, high-altitude intercept, we have been pursuing 
at a reasonable pace theater-based antimissile technology to 
defend our troops and our allies in a theater, in a region? 
Isn't that true?
    Mr. Berger. Yes, and in 1993, when the Clinton 
administration came into office, one of the things that came 
out of the Bottom-Up Review (BUR) with Secretary Aspin was to 
reorient our programs to focus on TMD, and all of those 
programs that you mentioned are complaint with the ABM Treaty, 
as we learned in the Gulf War.
    Senator Cleland. Mr. Coyle, I was concerned today about 
another piece in the New York Times, where one senior officer 
in the Pentagon says, missile defense is their number 1 
priority, namely, the administration's. He said we have to find 
a way to deemphasize conventional programs to pay for strategic 
defense.
    That is the thing that bothers me, that you have a 57 
percent plus-up, of $8 billion for so-called missile defense, 
which at best in 10 years will give us only a rudimentary 
system that is not the plexiglass shield that is contemplated. 
At the same time, our Service Chiefs have testified we have $30 
billion in unfunded requirements, we have 75 percent of the 
United States Army's equipment more than half of its life gone, 
we have the average age of American aircraft 18 to 20 years of 
age, and we have a Navy under 300 ships.
    It does not seem to me to be very smart for us to put this 
pell-mell pursuit of some National Missile Defense Program, 
which at best will not provide the security that we think it is 
going to provide, and does, at worst, mitigate against our 
relations with potential adversaries now, Russia and China who 
have embraced each other, in each other's arms, so I am very 
concerned.
    Mr. Coyle, you mentioned the Manhattan Project. I 
understand we have already spent about two or three times the 
amount of money on missile defense and research as we spent on 
the Manhattan Project.
    Mr. Chairman, my time is up.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman, and thank you for 
having this important hearing. I also want to thank the three 
witnesses for taking time to be here, and Mr. Chairman, at 
today's hearing I would just observe that this is the third 
hearing in 7 days on missile defense. I am very glad to see 
that protecting the United States and its allies and friends 
from incoming missiles is a high priority for the committee.
    I look at the number of full committee hearings we have had 
this year, and 25 percent of our full committee hearings have 
been regarding missile defense, and that is why I am glad we 
are focusing on this critical need and threat, and look forward 
to working with my colleagues to ensure that we address the 
needs of missile defense.
    Mr. Chairman, I too have a small piece of information that 
concerns some of what my colleague from Georgia just mentioned 
with respect to Russia and China. President Putin stated in a 
news conference just yesterday that: ``As for a possible 
response, a joint reply of Russia and China to a U.S. 
withdrawal from the 1972 ABM Treaty, each state itself decides 
what it is to do and how. It is possible in theory, but in 
practice Russia plans no joint actions with other states in 
this sphere, including China.''
    Now, Mr. Coyle, last week you wrote an op-ed piece for the 
Washington Post titled, ``The ABM Ambush,'' in which you made 
some interesting claims. That piece opened with the following 
sentence, and I will quote: ``Despite claims by some in the 
Bush administration, the Antiballistic Missile Treaty is not an 
obstacle to proper development and testing of a national 
missile defense system.''
    That claim is certainly at odds with statements made by 
both Deputy Secretary Wolfowitz and General Kadish, who 
testified earlier this week in this committee. They said they 
had already identified at least three development and testing 
activities in the coming months which, in their words, ``have 
the potential of raising serious ABM Treaty compliance 
problems.''
    They also pointed out that the compliance determinations 
are not simple matters, and, in fact, Secretary Wolfowitz said, 
``this is a genuinely complicated problem, because in the, what 
is it now, 29 years since the treaty was signed, we have had a 
lengthy, and I would actually say, tedious, record of going 
over these issues with the Russians. You have to look at that 
record. You have to examine it. You have to weigh American 
positions and Russian positions. We are in a very difficult 
zone.''
    Mr. Coyle, in February of this year the Office of 
Operational Test and Evaluation at the Department of Defense 
issued the operational test and evaluation report. Your office 
made some very detailed recommendations and conclusions, and so 
my question is, when you were the head of OT&E, did your office 
conduct studies or analysis concerning ABM Treaty compliance?
    Mr. Coyle. Yes, sir, Senator Allard, we did. We looked at 
the question of how these various tests would be done, and with 
respect to the work at Fort Greely that is being proposed by 
the administration, if the administration wants to turn Fort 
Greely into a test site for NMD, the treaty permits the 
administration to declare Fort Greely as a test site. As I said 
earlier, it has already been a place where the Army has done 
cold-weather testing. So if they want to do more testing, but 
specifically on NMD, that is something that the treaty would 
permit.
    Senator Allard. Department of Defense directive 2060.1 
prescribes procedures for compliance review of DOD activities. 
What role in assessing compliance does that directive provide 
for the Director of Operational Testing in the Pentagon?
    Mr. Coyle. It does not provide a role for the DOT&E.
    Senator Allard. Did every one of the 50 activities go 
through your compliance review group?
    Mr. Coyle. No. We were looking at ways to improve testing. 
For example, I supported and recommended the initiative which 
the Bush administration is now taking to add testing 
capabilities at Kodiak.
    Senator Allard. In testimony before a Governmental Affairs 
Subcommittee, the head of the Defense Department's compliance 
review group was asked numerous questions like the one I just 
asked you regarding the compliance of various potential testing 
activities for both theater and national missile defense, and 
he said, ``we cannot make judgments on questions like that 
until we see the actual system design.'' So, if the head of 
DOD's compliance review efforts cannot make those assessments, 
how are you able to assert what is and is not a treaty obstacle 
to our missile defense plans?
    Mr. Coyle. So far, I have not seen anything proposed that 
would come into conflict with the ABM Treaty any time soon. For 
example, we have just been talking about the Fort Greely work. 
A different example is the PAC-3 test, which Mr. Berger brought 
up a little while ago. That is a test of a short-range missile 
system. Tactical missiles are not governed by the ABM Treaty, 
and if the Department of Defense wants to do short-range tests, 
that is something we do all the time.
    Senator Allard. Are you aware of the administration's 
statements that the United States will not violate the treaty?
    Mr. Coyle. Yes.
    Senator Allard. Then on the test-bed restructure, hasn't 
the program been restructured significantly since your tenure 
at the Office of Operational Test and Evaluation at the 
Department of Defense?
    Mr. Coyle. It is beginning to be restructured. General 
Kadish has proposed a much faster rate of testing, something 
which I testified would be necessary in my testimony before the 
House last fall. General Kadish has talked about doing four or 
five tests per segment per year for each of the segments of 
national missile defense, maybe a test every month. I do not 
know whether they will be able to sustain that kind of a test 
rate, but they are proposing it. They have not yet developed 
test plans, nor reviewed those test plans with my former 
office, something I hope they will do.
    Senator Allard. The expanded test bed will provide an 
opportunity for more realistic intercept and target 
trajectories during testing. Do you believe this is consistent 
with your recommendations to improve the missile defense test 
program?
    Mr. Coyle. Yes, I do.
    Senator Allard. Mr. Chairman, my time has expired.
    Chairman Levin. Thank you, Senator Allard. Senator Nelson.
    Senator Bill Nelson. Thank you. What is it about the 
present test, Mr. Coyle, from Vandenberg to Kwajalein, that 
does not break the ABM Treaty?
    Mr. Coyle. Kwajalein is an accepted test site, along with 
White Sands, under the ABM Treaty. While the treaty allows for 
the test sites to be established, the Russians could establish 
new test sites and so could we; Kwajalein is already a 
permitted test site under the ABM Treaty, and so the tests we 
have been doing there for years, and I expect we will continue 
to do there for years, are permitted.
    Senator Bill Nelson. So a similar test could be done at 
Fort Greely and it not break the ABM?
    Mr. Coyle. Yes. The United States would have to declare 
that that was going to be a new test site, but that is all they 
would have to do.
    Senator Bill Nelson. You mentioned Kodiak Island testing. 
That would not break the treaty. Can you repeat that, please?
    Mr. Coyle. Yes. Once again, the administration would have 
to declare that Kodiak was to become a new test site in 
addition to Kwajalein and White Sands, but they could do that. 
As I said, it is something I would support, because it produces 
more realistic engagements than the current geometry.
    Senator Bill Nelson. In Mr. Perle's testimony he mentioned 
that, as we look at a conflict between India and Pakistan, the 
Aegis system could be deployed off the coast that could knock 
down an ICBM launched from one to the other. Is the current 
technology of the Aegis system able to do that?
    Mr. Coyle. No, sir. The standard missiles that are on the 
Aegis destroyers and cruisers are not capable for NMD-class 
engagements, nor are the radars. The Aegis radar is a wonderful 
radar for ship defense, but it is not capable of NMD 
engagements.
    Senator Bill Nelson. Would the testing of such a system 
break the treaty?
    Mr. Coyle. I suppose you could find lawyers who could argue 
that. It could be, but for example, you could take an Aegis 
destroyer today and go down off the coast of Florida and look 
at missile launches there and get the same data, where you were 
launching satellites, or whatever. So you would have to go out 
of your way to do it, and I am not sure it would prove much if 
you did.
    Senator Bill Nelson. But to develop a system that would 
knock down a missile from an Aegis platform, you are saying 
that that would violate the treaty?
    Mr. Coyle. Yes. The treaty prohibits mobile systems, and a 
defense system on a Navy ship would be a violation of the 
treaty, but we are not at that point yet. We do not have either 
the rockets or the radar we need for that.
    Senator Bill Nelson. In your opinion, how long down the 
road would that occur before the treaty were to be abrogated?
    Mr. Coyle. I would not be surprised if it took 10 years for 
a ship-based defense to be built. You are talking about 
developing a new missile that is twice as fast as the existing 
missile. That would take many years, as it has for the mid-
course missile. You are talking about a new radar that would 
also require extensive modifications to a ship, or perhaps a 
new ship or ships, and all of these things would take time.
    Senator Bill Nelson. Let me ask you about the descent 
phase, which you referred to as terminal. Tell me something 
about the development of a system that would be effective in 
the terminal phase of an ICBM's trajectory.
    Mr. Coyle. Tactical systems like PAC-3 and THAAD are coming 
along quite well, and they are effective. They have not been 
through realistic operational tests yet, so they still have a 
ways to go. There are many years before they will be ready to 
be fully deployed, but they are effective in defending 
themselves, defending an area of troops, or a battery that they 
are trying to defend.
    The difficulty with extending that technology to national 
missile defense is now you are trying to defend a very large 
area, and these theater systems are not capable of doing that. 
They are good at defending the troops they are trying to 
defend, but they do not yet have the technology to defend an 
area, say, the size of the United States.
    Senator Bill Nelson. I want you to know how appreciative I 
am of this discussion. This has been quite illuminating to me. 
We have talked about Russia's reaction. What would be, in your 
opinion, China's reaction, as we proceed with robust research 
and development, whether it did or did not break the treaty? I 
would like to hear your differing opinions on that, Mr. Berger.
    Mr. Berger. I think China has a strategic modernization 
program. They have about 18 or 20 strategic missiles. There is 
a program that they are planning. I think one would expect 
probably an acceleration of that program, and that could 
trigger consequences all through Asia.
    That to me again is not, ipso facto, a statement that we 
should not do this, but it seems to me we ignore that chain of 
consequences at our risk. That is part of the overall equation. 
If the incipient nuclear debate in Japan winds up over 10 
years, as we have nuclear buildups throughout Asia, changing 
the fundamental direction of Japan with respect to nuclear 
weapons, I am not sure that we will have been better off in the 
end, and so I think it is a factor that we have to know more 
about, this committee I think should inquire about, and is part 
of the equation.
    Senator Bill Nelson. Mr. Perle.
    Mr. Perle. Senator, I think we probably have the capacity 
today to destroy the Chinese deterrent in a first strike, if we 
chose to do so, and that is a situation that they have 
tolerated I assume because they reason that we are unlikely to 
do that, or at least it is sufficiently unlikely so that they 
do not want to make a huge effort to deal with it.
    I think we must be very careful about slipping into the 
idea that because we had a Cold War with the Soviet Union, and 
because we have differences with the Chinese, we are going to 
have another cold war with the Chinese to which all of the 
rules and history of the Cold War between the United States and 
the Soviet Union will now apply. I see no reason to expect a 
Cold War with China.
    We will have our differences. I think we will be able to 
resolve those differences, and if at the end of the day there 
is a Cold War with China, it will have to be the responsibility 
of the Chinese. We should take no actions that would cause that 
Cold War, or that situation to occur between us.
    Senator Bill Nelson. I want to get Mr. Coyle's response to 
the question as well, but let me just say, on that note, it 
seems to me that in a common-sense way, Mr. Chairman, of 
approaching this whole thing so that you do not make a decision 
that you are going to break the treaty, but rather, recognizing 
the sensitivities of our relations with others, as Mr. Perle 
has suggested, with regard to the Chinese; that you work with 
them, showing them how it is in their interest that we continue 
a robust research and development program of missile defense. 
That eliminates a lot of the problem, as long as you are 
working along with people.
    I would like Mr. Coyle's response.
    Mr. Coyle. I have been very interested to see that some 
members of the Bush administration have said that they are 
interested first and foremost in an aggressive testing program, 
and testing, not deployment. This is an emphasis which I 
applaud, and I think, if they follow that emphasis, the issues 
with the ABM Treaty will become moot.
    Chairman Levin. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. On that subject, 
Mr. Coyle and Secretary Berger, this Congress has spoken. As 
Senator Lieberman said, we voted 97 to 3 to deploy a system as 
soon as technologically feasible. The President signed it, I 
suppose, with National Security Adviser Berger's advice, and 
that committed us on a course that seems to me, in all honesty, 
of suggesting that we have to do something about this treaty.
    The whole purpose of this treaty was to prohibit a national 
missile defense from being built by the United States. The 
first clause of the first article says, each party undertakes 
not to deploy an ABM system for a defense of the territory of 
its country, and not to provide a base for a defense, and not 
to deploy ABM systems for defense of an individual region, 
even, except as provided in Article III of the treaty.
    So, we are really looking at something here that was a 
treaty between two nations, one of which no longer exists, the 
Soviet Union, and we are facing threats now from 29 nations 
that have ballistic missiles. So I just think that the honest, 
direct approach is to create a new form of relationship in the 
world, including a statement about Russia joining NATO--what a 
comment that was.
    I mean, we do have an opportunity for new relationships in 
the world, but we must not allow this Nation and this President 
to be intimidated from carrying out his duties to protect our 
Nation by threat of some rogue nation with a few missiles that 
could reach our country and kill, perhaps, millions of people. 
That, to me, is basically where we are, and I am somewhat 
frustrated, I have to say.
    The President is negotiating daily. He is negotiating with 
the Russians and the Europeans daily and consistently. He is 
making progress in that negotiation, and we have the former 
National Security Adviser and others in this Congress 
undermining his ability to negotiate. They appear to think that 
we do not want to fund this program, we do not have to fund it, 
but I think we ought not to undermine the President's ability 
to have the freedom to do what we voted 97 to 3 to do.
    I think it is a big issue for America, and I think this is 
the right thing for this country to do, and I believe we have 
to be careful on this committee how we conduct ourselves, that 
we do not tie the hands of the President of the United States.
    You have been there, Mr. Berger, that it is difficult to 
work out negotiations. You say negotiate, but if you argue the 
position of the Russians here on this floor, then how can you 
negotiate effectively? I would ask you to respond to that.
    Mr. Berger. Senator, I hardly believe that I am arguing for 
the position of the Russians. The only country I care about is 
the United States. I was invited to testify. I am giving you my 
best assessment here. I do not think it is any more 
irresponsible for me to offer my view of how best to do this 
than it is for Mr. Perle to say we are going to abrogate the 
treaty no matter what the Russians think. President Bush 
probably swallowed that pretty hard in terms of going into a 
negotiation with the Russians. If we are going to present them 
with a fait accompli, I do not know how we create a new 
relationship.
    All I am saying, Senator, is let us take the time to see 
whether we can do this, to create a new relationship, a new 
strategic relationship, and not do it on a schedule, which Mr. 
Coyle says is not necessary. That makes that much more 
difficult to do.
    I applaud the President's efforts to negotiate this with 
President Putin, and I hope he succeeds.
    Senator Sessions. Mr. Coyle, in June, in Defense Monitor, 
you wrote a number of articles about this question. You 
question the threat the United States faces, and you wrote, 
``One question that has dogged NMD is exactly who is the enemy? 
Is it North Korea? Is it China? Is it Iran, Iraq, or Libya? Is 
it Russia? Is it all these countries?''
    A year and a half ago, North Korea was emphasized as a 
threat, but thanks in good measure to fine diplomatic efforts 
of former Secretary of Defense Bill Perry, North Korea no 
longer seems to be the same threat as before.
    That reflects your observations and thoughts, but you are 
not privy to intelligence information, and you do not consider 
yourself an intelligence expert, do you, Mr. Coyle?
    Mr. Coyle. No, sir. I think the best way to answer your 
question is in personal terms. I have a son who serves overseas 
in the military. I am a heck of a lot more concerned about his 
danger, being attacked by short-range missiles, than I am 
concerned about the United States, say, Los Angeles being 
attacked, where I have recently moved. That is my point.
    Senator Sessions. I understand that, but let me read you 
what the Director of Central Intelligence Agency, George Tenet, 
said in a committee hearing over a year ago: ``Over the next 15 
years, however, our cities will face ballistic missile threats 
from a wide variety of actors, North Korea, possibly Iran, 
possibly Iraq, and in some of these cases this is because of 
indigenous technological development and in other cases because 
of direct foreign assistance, and while the missile arsenals of 
these countries will be fewer in number, constrained to smaller 
payloads and less reliable than those of the Russians and 
Chinese, they still pose the lethal and less-predictable 
threat. North Korea already has tested a space-launched 
vehicle, the Taepo Dong I, which could theoretically convert 
into an ICBM capable of delivering a small biological or 
chemical weapon to the United States already.'' He goes on to 
say, ``moreover, North Korea has the ability to test its Taepo 
Dong II this year. This missile may be capable of delivering a 
nuclear payload to the United States. Most analysts believe 
that Iran, following the North Korean pattern, could test an 
ICBM capable of delivering a light payload to the United States 
in the next 5 years. Given that Iraqi missile developments are 
continuing, we--that is the CIA--think that it, too, could 
develop an ICBM, especially with foreign assistance, sometime 
in the next decade.''
    There was a commission--you were not on the Rumsfeld 
Commission, I know--a bipartisan commission reviewed this 
subject and they said the threat could be, would be real by 
2005, so that is the basis, I think, of where we are.
    My time has expired. I believe that we do have a threat, we 
do have a commitment to deal with it, the President is working 
with our allies, he is working with the Russians. I believe he 
is going to be successful, but at any rate, we have an 
opportunity and a responsibility to defend this Nation from 
missile attack, we have the technological capability of doing 
so, and we need to get busy about deploying it before we are 
vulnerable.
    I thank the chairman.
    Chairman Levin. Thank you, Senator Sessions.
    First, on the question of the National Missile Defense Act, 
which has been raised both by Senator Sessions and Senator 
Lieberman, is it not true, Mr. Berger, that there are two 
provisions in that act, one of which has been referred to this 
morning, which is the intent to deploy as soon as 
technologically feasible, but another provision that it is also 
the policy of the United States to negotiate further reductions 
in nuclear weapons with Russia, is that not correct?
    Mr. Berger. That is correct, Senator.
    Chairman Levin. Is it not correct that if we unilaterally 
withdraw from the ABM Treaty, that it is possible that the 
Russian response will be not to reduce or dismantle their 
weapons, not to carry out START II, not to negotiate START III, 
but to maintain the number of nuclear weapons they have and, 
indeed, MIRV some of their weapons? Is that not true?
    Mr. Berger. I think that is also true, particularly if we 
seem to be doing it in a precipitous way.
    Chairman Levin. So there are a number of provisions of 
those acts, not just the one that has been referred to here 
this morning, but the other provision, which could be in 
conflict with the policy of the United States to deploy a 
national missile defense system when technologically feasible.
    Mr. Berger. When the President signed that, he made it 
clear that his deployment decision would be based on his 
evaluation of four factors: cost, threat, technology, and the 
overall security effect on the United States.
    Chairman Levin. The next question goes to Mr. Coyle. How 
much operational capability do the five test interceptors 
provide at Fort Greely? Let me put it another way to you: The 
administration proposes to build five test silos at Fort Greely 
and place NMD interceptors in them by 2004. They plan to link 
the five test missiles to an upgraded Cobra Dane radar in 
Shemya to provide a rudimentary operational capability to shoot 
down a North Korean missile.
    First of all, could you do the testing with one silo 
instead of five, if that was the major purpose?
    Mr. Coyle. Yes, sir.
    Chairman Levin. So when you say that they could declare it 
as a test site, they have already told us--and this is Mr. 
Wolfowitz--that it is his intention to have the option, as he 
put it, to have a rudimentary operational capability at Fort 
Greely as soon as possible. That is the option that they want 
as soon as possible. Is that something different from just 
declaring it as a test site? Is it inconsistent with declaring 
it as a test site? Is it a second purpose? How would you define 
that?
    Mr. Coyle. If the purpose of having a test site there is to 
give soldiers training, that would be a fine thing, I suppose. 
If the purpose is to learn about the effect of the very cold 
weather at Fort Greely, that would certainly be a worthwhile 
thing to do. But they do not plan to actually launch missiles 
from those silos for test purposes--the missiles are going to 
be launched from Kodiak or Kwajalein, as I understand it. Since 
they do not plan to launch any missiles from those five silos 
for test purposes, they will not play much of a test role. You 
can question whether or not the investment in five silos is 
needed to give them the experience working with cold weather. I 
think you can do that equally well with just one silo.
    Chairman Levin. Have you heard or read Mr. Wolfowitz's 
testimony that it is their intention that they have the option 
as soon as possible to have a limited operational capability at 
Fort Greely?
    Mr. Coyle. Yes, sir, I have.
    Chairman Levin. Is that a different purpose from a test 
site?
    Mr. Coyle. Yes, sir, it is.
    Chairman Levin. Is that permitted under the ABM Treaty?
    Mr. Coyle. Under my understanding, it would not be.
    Chairman Levin. So this, then, comes down to a question 
that if a principal purpose is an operational capability as 
soon as possible, which may, indeed, conflict with the ABM 
Treaty. Is that true?
    Mr. Coyle. Yes, sir, it would be a new deployment site.
    Chairman Levin. He did not quite say that. He said, to give 
us the option to do that as soon as possible, I do not want to 
put words in his mouth. That is what the compliance review 
group, I guess, will look at, as to what the purpose of that 
site is, but you said this morning that if they declared it as 
a test site, that is fine. It may not be worth the money in 
terms of that additional value it gives them, but that that 
would be consistent with the treaty if they declare it as a 
test site.
    If they declare it as both a test site, but a site which 
would also give them the option as soon as possible to have a 
limited operational capability, then what is your understanding 
of the treaty connection?
    Mr. Coyle. If the declaration were that this is a new 
operational site, that would be in conflict with the treaty.
    Chairman Levin. Now, Mr. Berger, do you have any comments 
on that in particular?
    Mr. Berger. I think it is very important, the line of 
questioning you are pursuing, because while we do not know that 
the plan of the administration is to--they are not going to 
violate the treaty. They have said that. But, of course, 
withdrawal is not inconsistent with violation, so the question 
is, is this test plan going to cross that line, and it seems to 
me in three respects there are questions that this committee 
needs answers to.
    The treaty says you cannot deploy an ABM system for defense 
of territory or its country, and not provide a base for such a 
system, so there is the first question of what is the nontest 
purpose of what is happening in Alaska.
    Second of all, while I agree with Mr. Coyle that if the 
PAC-3 test is against a short-range missile, that is not a 
violation. If the PAC-3 test is against a strategic missile, or 
if the Aegis cruiser is used in a test, in an ABM mode, those 
would be a violation.
    Now, it does not say that on the fact sheets, but Mr. 
Wolfowitz has told us that they are going to bump up against 
the treaty in February. That, it seems to me, leaves an 
important area for clarification. That is, is it the plan of 
this administration to engage in activities in this fiscal year 
which in fact will cross the line of the treaty? I think this 
committee and the American people have a right to know the 
answer to that question.
    Chairman Levin. Much of our three hearings are aimed at 
getting an answer to that question. As a matter of fact, I have 
asked the Secretary of Defense exactly that question in a 
letter to which we do not yet have a response, but that is a 
critical question, because it is not just the administration 
which must make a judgment as to whether or not it wishes to 
abrogate the treaty, giving notice, of course. That is a part 
of the treaty, to give notice to pull out of the treaty, but 
nonetheless, it must make that judgment.
    Whether or not the value of these tests marginally give 
them anything, whether they want to do that or need to do this 
testing early, leaving themselves very little time to negotiate 
what they say they want to negotiate with the Russians, putting 
themselves in a time box which is very severe in terms of a new 
agreement, whether they want to do that, whether they need to 
do that, whether the marginal gain in terms of testing 
outweighs the loss of time which is necessary to negotiate, or 
might be necessary to negotiate particularly a whole new 
structure. Putting aside modifications to the ABM Treaty, that 
is a judgment which the administration must make in the first 
instance, whether or not to give notice of withdrawal, and 
whether or not what it is asking for in this budget will, in 
fact, put them in a position where they are, through their 
testing program, conflicting with the treaty.
    However, we have a responsibility of whether to fund that 
after we figure out what they are doing. After they notify us 
what their intent is, we, as a Congress, have the 
responsibility to decide whether or not we are safer with such 
a withdrawal from the treaty, a unilateral withdrawal if that 
is what it takes.
    Now, Mr. Perle takes the position you ought to withdraw 
anyway. Your position is pretty clear. It is a radical 
proposal, as you have suggested and self-described it, but 
nonetheless it is very clear. Whether or not these tests bump 
up against the treaty is not relevant to you. You believe we 
ought to withdraw from the treaty as a relic of the Cold War in 
any event.
    By the way, I happen to agree with you, the Cold War is 
over, but that also means that we should deal with Russia on a 
different basis than we used to deal with the old Soviet Union, 
and you say you cannot imagine anybody sitting across the table 
from you in Russia who could possibly have any problem with 
these tests. I think we ought to be listening to what they are 
saying.
    Why is it that they are disturbed by these tests? I am not 
saying give them a veto. God knows, we are not going to do 
that. We are not going to give anyone a veto, but we sure as 
heck ought to consider, at least, what their reaction is, and 
whether or not, given what they tell us their reaction is going 
to be--whether we think it is logical or not, given what they 
tell us their reaction is going to be or may be, the same with 
the Chinese, whether we are more secure with or without pulling 
out of the treaty. I think that is the overarching question 
which we all have to address.
    My time is up.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I know we have 
kept our panel a little longer than we anticipated so I will be 
brief in hopes we can wrap up here. I think we've had a good 
session, a very good session. I'm going to try and ask two 
questions--one to you, Mr. Coyle, and one to each of our 
distinguished foreign-policy experts in hopes that maybe some 
others who are trying to follow this debate can get a better 
grasp on it.
    I introduced you, or at least gave you my view, that you 
have a reputation for being pragmatic and objective, Mr. Coyle. 
I continue to believe that. Now, supposing there wasn't an ABM 
Treaty right now and that it had expired this year. Would you 
advise the President as to how to redesign the previous efforts 
by previous administrations--not only Clinton--but Bush before 
it, and so forth. Would you advise them how to redesign the 
architecture of a missile defense system to meet the threat of 
limited missile attack? Would you move out into space? 
Throughout the long time that I've been on this committee, 23 
years, I've dealt with this issue, and time and time again I've 
put the question to people such as yourself: If there were no 
constraints of the ABM Treaty, would you do something 
differently? I've always believed that we could. If we had full 
authority to devise an architecture, particularly to defend 
against unlimited attack, we could utilize space, we could 
utilize mobility, we could utilize other aspects of our 
technology to move more swiftly with a greater likelihood of 
success perhaps at less cost to the American people. My 
question is simply, if there were not the constraints of the 
treaty, would you be advising the President to do something 
different today, not unlike the architecture that was laid out 
here with the direction of the BMDO, Lt. Gen. Kadish, here in 
the past week or two?
    Mr. Coyle. I believe I understand, Senator Warner. I 
understand the logic behind the layered defense. It does give 
you three bites at the apple. If you miss the missile in the 
boost phase, you have the mid-course and terminal phases left. 
I also believe that the United States could have the technology 
to do boost-phase defenses from ships, and under the ABM Treaty 
that would be a mobile system and mobile systems are not 
permitted.
    The technology for boost-phase defenses from ships is much 
farther ahead than the airborne laser or the space-based laser 
in my view. The space-based laser is too heavy to even be 
lifted into orbit by any boosters that the United States has 
and the airborne laser has a very long way to go in development 
also. But ship-based defenses for the boost phase, I think, 
could become practicable. It may take a decade; it may be many 
years away, but I think it could become practicable.
    Senator Warner. But had we not had the ABM Treaty, we may 
well have done the research, development, and testing on that 
ability a decade ago and now be in a position where we could 
consider the deployment of such systems. My question to you is 
that there has been serious constraints by this treaty for 
decades and as a consequence we've labored along within the 
lawyers' framework of what we can and cannot do. I'm asking you 
to put the treaty to one side. I'm not suggesting by this 
question that you just trash it and shred it and tear it up--
phrases that have been used in this hearing, unfortunately--but 
simply that it didn't exist. Or I might rephrase it: Suppose 
there was the opportunity for this President to say I can go 
and set up amendments to the ABM Treaty that would enable us to 
do other things. Would you recommend that he do some other 
things now prohibited by ABM Treaty within the framework of a 
series of amendments?
    Mr. Coyle. Not for the foreseeable future. If the Navy 
wants to build higher velocity missiles for ships for boost-
phase defenses, that's something they can do at White Sands, as 
they do now when they do standard missile tests. So, there's a 
lot of work that can be done on new missiles for Navy boost-
phase defenses. If the Navy wants to build high-power X-band 
radars for ships that work on the seas, that's something else 
they can do, but that's not bumping up against the ABM Treaty 
either. I'm not trying to say that there isn't any conceivable 
thing that might ever occur that couldn't cause a problem with 
the ABM Treaty. Obviously, mobile defenses themselves are a 
problem with the ABM Treaty, but there is so much work that 
needs to be done, whether you talk about ship-based defenses or 
other defenses.
    Senator Warner. I understand it's a lot of work, but 
somebody has to start at some point in time to explore other 
options, other architectures, than the one that we have 
prodigiously followed for decades in the United States, in my 
judgment. That's the initiative that this President is taking 
and it raises legitimate debate as to whether or not those 
architectures come up against the ABM Treaty. My question to 
you is could we not devise a framework of amendments to the 
treaty to accommodate the parameters of moving out into such 
architectures that you and other experts indicate should be 
explored if we're trying to pursue a defense against a limited 
attack.
    Mr. Coyle. Yes, sir. My answer would be, yes, I believe we 
could devise such amendments and there is plenty of time to do 
that.
    Senator Warner. Now, to both of our other experts here. Mr. 
Berger, I've followed very carefully in the years that you were 
National Security Advisor to President Clinton the efforts to 
negotiate amendments to the ABM Treaty. The record is clear, 
for whatever reason, you didn't succeed, but I think you made 
an honest effort. I frankly think that the fact that our 
President had finally pointed out that there is a withdrawal 
clause and that he as President could at some point and time be 
forced to utilize that clause unless we can work out amendments 
to the treaty and/or a new framework might have been the tactic 
that is beginning to bring President Putin, in my judgment, 
around to an open discussion with the President on the 
parameters of either amendments or a new framework.
    I'll start with you, Mr. Perle, since you feel so strongly. 
I think the option to not try and keep the ABM Treaty in 
existence is not preferable. I still think a two-step process 
is a wise one. I say that because, again, I have had the 
responsibility either as chairman or ranking member to get a 
bill through for the Armed Services Committee and that is a 
mighty train to drive through the floor of the Senate, and the 
appropriations likewise are difficult. I think it is extremely 
important that we do get an authorization bill this year, that 
it not be side-tracked by a continuing debate on this issue, 
and that we do, as a Congress, support our President in his 
initiatives with the funding and the authorization necessary 
for him to explore a new architecture and at the same time 
continue his negotiations with Russia. So, that's why I suggest 
a two-step process. But it seems to me it's in President 
Putin's interest to pursue that two-step process for the 
following reason. I'm beginning to admire him even though, 
incidentally, gentlemen, he has not yet met one single member 
of Congress and that puzzles me. I was with the first 
delegation that met Mr. Gorbachev led by Robert Byrd and the 
second delegation to meet Mr. Yeltsin led by Robert Dole. But 
anyway, Mr. Gephardt, who had considerable standing in this 
Congress, was not able to meet President Putin a few weeks ago, 
nor has anyone else. But in any event, I think he's an 
interesting man and he is trying to do his best with a country 
that is suffering economically and suffering in many other 
ways. It would be devastating, not only from a military 
standpoint but from an image standpoint, for the United States 
to withdraw from a treaty to which he attaches so much 
significance. I have to believe that our President, in pointing 
that out has done it properly thus far and that gives 
considerable leverage to these options whereby we can devise a 
framework of changes to the treaty to enable us to pursue such 
architecture as he and his advisors deem necessary. Do you 
share that view, Mr. Perle?
    Mr. Perle. Yes, I think on serious reflection, the treaty 
does nothing to enhance President Putin's security and he would 
be well-advised to work with us in getting it behind us because 
it also puts the Cold War behind us.
    Could I just add, Senator, the question you asked at the 
end, of course, prompts the reflection that if the ABM Treaty 
didn't exist today, would anyone propose that the United States 
and Russia negotiate anything that looked like the ABM Treaty? 
Of course, the answer is, nobody would propose that. So, we're 
dealing with a legacy. We're dealing with an historical legacy. 
Second, because we have spent a great deal of time in the 
latter part of this hearing on the question of testing and 
where the program is today and where it might go, we have tied 
our hands from 1972 until the present.
    People who might have had ideas about approaches to missile 
defense that were outside the treaty were unable to do anything 
effective with those ideas. Companies that might have had 
scientists within them who had ideas knew that they couldn't 
get funded to produce programs that would violate the ABM 
Treaty. There was just an exchange with Senator Nelson about a 
ship-based system. You can take a narrow legal perspective and 
say, well, you could do research for years before you encounter 
the limitations of the treaty but I don't believe anyone is 
going to make a significant investment in a system that 
violates the terms of the treaty until the treaty is clarified 
one way or another. So, we're not going to build a sea-based 
system until the treaty obstacle to a sea-based system has been 
eliminated, and we are not going to look at the other new 
architecture that you are talking about until the treaty issue 
is resolved. It prevents us from applying our minds and our 
talent, our scientific talent, from solving technical problems. 
So, it isn't a question of how much can you do before you bump 
up against the treaty. No one invests in a business that is 
prohibited by regulation from operating and no one's going to 
invest in new approaches to missile defense until the treaty is 
clarified, and by clarified, I mean the obstacles within it are 
removed. So, if we want to put our technical genius to work, we 
have to deal with the treaty now and not pretend we can get 
started now and only deal with the treaty when we bump up 
against it, as we have heard today.
    Senator Warner. Mr. Berger, I commend your efforts to try 
and negotiate changes to the treaty. Let's talk about whether 
or not it would be in Russia's interest, quite apart from ours 
and their military considerations, to be faced with the fact 
that the United States, an acknowledged superpower, would 
withdraw from that instrument. It really relegates Russia to a 
second-class status, which we do not wish to do. We do not wish 
to embarrass that country and our President has said that many 
times. They're not our enemy. We have a number of programs with 
Russia today to help them in different ways, particularly with 
the struggle to prevent the proliferation of weapons of mass 
destruction. So, I think there is much at stake here, but you 
never put on the table that we might have to withdraw. I think 
this President has, and I think it's been to his benefit.
    Mr. Berger. Senator, first all, I think we can't rule out 
that possibility. I do think that it will, if we do it, as I 
said several times here, preemptively walk into the room, and 
say, sometime in the next several months, this is where we are 
going to be.
    Senator Warner. Yesterday Mr. Wolfowitz said in response to 
questions from me that there would be consultations with 
Congress.
    Mr. Berger. As you've said to me many times Senator, there 
are consultations and there are consultations when the shoe is 
on the other foot. But I would say that we should be exploring 
other technologies and I've made the argument to President 
Putin, for example, that sea-based, boost-phase defense is 
something that may be very much in their interest. In fact, he 
has spoken favorably about boost-phase defense. So, I don't 
believe that it is inconceivable at all that we could work out 
a new arrangement. What I think would be very damaging in the 
context of the end of the Cold War, as Mr. Perle has talked 
about, is to say we're withdrawing. We're not going to tell you 
what this new strategic framework is. We have no amendments on 
the table. We've not put one on the table with respect to the 
ABM Treaty. First, we want to withdraw, and then we'll sit down 
and talk about what comes next. I don't think that's an 
effective way to get a strategy framework, a new strategic 
framework that President Bush seeks.
    Senator Warner. I thank all the witnesses.
    Chairman Levin. Senator Sessions.
    Senator Sessions. Mr. Chairman and Senator Warner, I really 
don't believe that if we had to withdraw from this treaty we 
would be relegating them to second-class status. I just don't 
believe that. I think what we need to be doing is moving to a 
higher period of relationship between the two countries. I 
spent 2 weeks there in 1993 visiting with the Russian people 
and they are wonderful, talented people. I think somehow we can 
develop a new, positive relationship, not focusing on a relic 
of the old Cold War. One of the things that I would want to 
note here is in the ABM Treaty itself. Article 1 says each 
party undertakes not to deploy an ABM system for defense of its 
territory. Then, I think it is healthy that we begin to make 
clear what it prohibited explicitly in it. In Article V it says 
each party undertakes not to develop tests or deploy ABM 
systems or components which are sea-based, air-based, space-
based, or mobile land-based. Now, Secretary Wolfowitz has 
indicated that he believes, and it certainly makes sense to me, 
that we need a layered, comprehensive system, one system of 
defense against missile attack, that many of the component 
parts could serve all of our system. Wouldn't you agree, Mr. 
Coyle, that we would be constrained in developing that kind of 
system under this treaty?
    Mr. Coyle. Eventually, yes.
    Senator Sessions. You say eventually. Let me ask about an 
additional word in Article 5. Article 1 says we will not deploy 
a system. Article 5 says we will not develop, test, or deploy a 
sea-based, air-based, or mobile system. Doesn't that go 
further? Doesn't that even, perhaps, prohibit research?
    Mr. Coyle. No, it doesn't, sir. I certainly was not a 
negotiator of the treaty, so I can't speak first-hand about 
this but I've talked to people who were involved in the 
negotiations first-hand. They point out that the ABM Treaty 
permits both countries to have a missile defense system, not a 
missile defense system of its entire territory but a missile 
defense such as we deployed briefly in North Dakota and the 
Russians around Moscow. It was understood under the 
negotiations that both countries would--we have decided not to 
keep the system that we deployed--but if both countries wanted 
to keep that kind of a missile defense system, it was 
understood that they would need to continue to develop and 
improve and test that system. So testing a missile defense 
system was expected to take place.
    Senator Sessions. What about a sea-based, air-based, or 
space-based system that seems to be pretty explicit. I'm sure 
they argued over every word. Now, Mr. Perle, were you there or 
do you have an opinion on that?
    Mr. Perle. I do. I was very much involved in the hearings 
that examined that treaty, and the simple answer is, we cannot 
test a space-based, a sea-based, or a land mobile-based system, 
period. We can't do it. Now, you can try to find ways around it 
by testing components that do not in and of themselves 
constitute elements of a system, and the question you have to 
ask is whether a furtive approach of that kind can ever be made 
to work and can ever be the basis on which we're prepared to 
commit serious resources to a development program. I don't 
think we can and don't think we should. I think it's very 
misleading when Mr. Coyle says ``eventually,'' because you 
don't start developing a system you know you cannot deploy 
under the terms of the treaty. So eventually is today.
    Mr. Berger. Senator, I don't want to impose on your time 
but could I just say something? First of all, we have been 
working on a system for the last 5 years. The land-based mid-
course system which is prohibited by the treaty and which would 
require either amendment to the treaty or withdrawal from the 
treaty and we've spent billions of dollars doing it. So, of 
course, you can do that. Second of all----
    Senator Session. Wait a minute. Let me get that straight. 
You're saying that we are now in violation of the treaty?
    Mr. Berger. No, I'm saying that we have been developing and 
testing a land-based limited mid-course system consistent with 
the treaty and that we can't deploy it unless there's a change 
in the treaty or we withdraw. So, it defies the kind of 
economic-business model that Mr. Perle was talking about. 
Second of all, we can research the other technologies, and I 
think again Mr. Coyle has said that there's a lot of work we 
can do before we bump up against the treaty to give ourselves 
time to go to the Russians and say, let's talk about a sea-
based system.
    Senator Sessions. But the treaty says we can't develop. 
Where it says develop, test, or deploy, presumably that is an 
upward trend test. We know what test means. Develop it seems to 
me to mean no serious research.
    Mr. Berger. No, it does not, sir. The research is 
specifically permitted on sea-based and on other systems. We 
are doing research on sea-based systems and as I understand Mr. 
Coyle, if I read his remarks, there's a lot more research we 
need to do. If we went to the stage that we had to test, that 
would require a modification of the treaty, but that's not 
February or March.
    Mr. Perle. I think there is a potential for some real 
misunderstanding in these statements. It is true that the 
previous administration did work on a system which, if deployed 
in certain locations, would require an amendment to the treaty.
    Mr. Berger. We assumed it would.
    Mr. Perle. It was a land-based system and they essentially 
made a bet. I don't think they were ever serious about this, to 
be blunt. But if you give them the benefit of the doubt and 
assume they were serious about it, if they had another 16 years 
maybe they would have gotten around to deploying something, but 
they assumed that they would be able to go to the Russians and 
say, look, we're going to have 100 interceptors, which we're 
entitled to have. Under the treaty, we could have those at 
ground force. How about letting us have them someplace else. 
That was the extent to which they ran into the treaty and I 
believe they selected that program because there was such a 
modest modification to the treaty that they assumed the 
Russians would readily agree to that.
    Mr. Berger. Excuse me, I'm sorry. We have gone 3 hours and 
15 minutes without getting gratuitous. I guess that must be the 
limit. We selected that system because BMDO and the Pentagon 
said that that was the fastest, most affordable, most mature 
system to get to a system that would be effective against the 
threat we faced which was the rogue state threat, and I don't 
think we should get into motivations, Mr. Perle.
    Mr. Perle. Set the motivations aside. When you get to any 
sort of ambitious system like a sea-based system, a space-based 
system, or a mobile system, you cannot do what Sandy Berger 
suggested could be done in the other case where the only change 
to the treaty would have been permission to deploy 100 
interceptors in one location rather than another location and 
that was a trivial change in the whole program over many years 
and not just this administration. It was true under the Bush 
administration as well. The whole program of ballistic missile 
defense has been conducted within the suffocating constraints 
of the ABM Treaty, which as you rightly observe, begins by 
saying neither side will protect its national territory. That 
is the treaty we're talking about. That is the artifact of the 
Cold War and we can talk all week about how to work around, how 
to amend, how to revise, how to negotiate. At the end of the 
day, you're talking about taking a treaty that prohibits 
defense and revising it so that it permits defense. The 
straightforward, honest approach is to say the treaty no longer 
serves our security interests, and go on to negotiate something 
entirely different with the Russians, which is a security 
arrangement for the future.
    Senator Sessions. I think that is precisely correct and I 
think that is what Condoleezza Rice and the President have 
concluded. I would just mention in Article 6, I read that as a 
clear prohibition of theater missile defense if it any way 
could be utilized to knock down incoming ballistic missiles. It 
prohibits capabilities to counter strategic ballistic missiles 
or their elements in flight trajectory and not to test these 
missiles in the ABM mode. Then it goes on to say, in 
subparagraph b, we commit not to deploy in the future radars 
for early warning of strategic ballistic attack except at 
locations along the periphery of our national territory. So, 
wouldn't that complicate both our desire to integrate in a 
layered approach theater missile defense and our radar systems 
that might be necessary? Wouldn't we be running into the treaty 
on those two issues also?
    Mr. Berger. Senator, I'm sure Mr. Perle would have a 
slightly different take on this but all of the theater missile 
systems can proceed unencumbered. Our understanding with the 
Russians----
    Senator Sessions. But not in an ABM mode.
    Mr. Berger. Not in an ABM mode. That is correct. We have an 
understanding with the Russians. If they're tested against a 
missile that is proceeding at more than 5 kilometers per second 
or has a range of more than 3,500 kilometers, that's a 
ballistic missile. That's the demarcation between theater 
missile defense and ABM and I think all of our TMD programs are 
proceeding unencumbered by the treaty. I think the one concern 
I have about the new approach is whether we lose focus on 
getting the TMD systems done, up, and ready as Mr. Coyle has 
said, and getting to the end zone on a deployable system that 
can deal with missile threats rather than running all over the 
field trying to discover what is possible to do before focusing 
on what we need to do.
    Mr. Perle. Senator, could I comment on that? The reference 
from Mr. Berger was to a proposed understanding with the 
Russians on the line of demarcation between permitted and 
prohibited test of systems that are in fact theater defense 
systems. The administration proposed but has never submitted to 
the Senate as an amendment to the treaty, a proposal that we 
limit the speed of an interceptor, not to 5 kilometers, but to 
3 kilometers. That unfortunately is too slow for an effective 
theater defense. It was a terrible mistake to propose that, in 
my view, but happily, it has no legal status and the new 
administration is free to proceed in any way it wishes with 
respect to this.
    Let me tell you what the difference is between 3 kilometers 
a second and 5 kilometers a second. At 3 kilometers a second, a 
sea-based system, theater system, if we deployed it off the 
coast of Italy, say in the vicinity of the waters of Rome, 
could defend our forces in the field in central Italy. Roughly, 
I think it's 70 or 80 kilometers either side of Rome, at 5 
kilometers per second, that same system, other things being 
equal, could defend most of western Europe. So, the last 
administration, in an effort which I thought at the time was 
unnecessary, in an effort to strengthen the ABM Treaty to which 
it remained committed until it's last day in office, we all 
understand that, in an effort to strengthen that treaty, 
burdened our theater missile defense programs with technical 
and physical restrictions that make it very difficult to 
justify them. That's the simple truth, and one of the first 
things we should do is say to the Russians, we no longer think 
that 3 kilometers per second is an appropriate limitation and 
therefore we intend to explore sea-based systems at 
accelerations higher than that because that will give us the 
potential for a serious defense that can be of significant use 
to our troops in the field and to our allies.
    Senator Sessions. Thank you very much.
    Senator Levin. Thank you, Senator Sessions. Just for what 
it's worth, Lt. Gen. Lester Lyles, who was the previous head of 
the Ballistic Missile Defense Organization, said the following 
in response to a question from Senator Robb in 1998: Senator 
Robb asked ``If you did not have an ABM Treaty, are there 
things you be doing or could be doing less expensively now?'' 
Lt. Gen. Lyles said ``In all honesty, Senator Robb, there's 
nothing that we would be doing differently. General Ralston has 
said there is nothing today in the Antiballistic Missile Treaty 
that is constraining what we are doing in our national defense 
program or our theater missile defense program.'' Now, will we 
at some point bump up against an ABM Treaty, a program, a 
National Missile Defense Program? The answer is yes. As a 
matter of fact, the one that was proposed by President Clinton 
and if deployed would have bumped up against the treaty, put 
money in there to develop it, and indeed again on the 
deployment of it subject to those four conditions which Mr. 
Berger has laid out for us today.
    But what we're facing now is a very different question. 
Everyone points out that the Cold War is over. It seems to me 
that that is a given. The Cold War is over. We're grateful for 
it. Now the question is how do we get from an old structure to 
a new structure. What you're suggesting, Mr. Perle, we just 
simply destroy the old structure. Just simply say it's over. 
We're pulling out of the ABM Treaty which was the keystone to 
the old structure. Just yank out that keystone, the arch 
collapses, and now let's build a new arch. I don't think that's 
any way to treat someone who takes a treaty as seriously as the 
Russians take this treaty. I happen to fully agree with what 
Senator Warner said when he said it would be devastating for us 
to withdraw from a treaty to which President Putin places such 
great importance. That is not something we should do very 
readily. We should be exhausting, it seems to me, the 
possibilities of negotiating a new structure before we reach 
that conclusion. Does that mean we'll never reach that 
conclusion? No. We could reach that conclusion, but if you're 
serious about the Cold War being over and if you're serious 
about really renegotiating with Russia, you don't put a 
deadline of months on those negotiations and say then we're 
pulling out of a treaty which has been so important if we don't 
succeed within that period of months. Now, what gets me is that 
we've taken that position for a relatively small gain. In terms 
of testing, I think what Mr. Coyle has told us is that the 
testing advantages of what is being proposed for Fort Greely, 
first of all, could be achieved as I understand what he said at 
Kodiak, is that correct?
    Mr. Coyle. Yes, sir.
    Chairman Levin. Number 2, those testing advantages wherever 
they take place are marginal gains, what you could do with one 
silo are small testing gains in terms of the whole scheme of 
things. Is that a fair statement, Mr. Coyle?
    Mr. Coyle. Yes, sir.
    Chairman Levin. All right, so that if there's an advantage 
to negotiating a new structure, and it seems to me there surely 
is if we're serious that the Cold War is over and that we no 
longer treat Russia as an adversary. If we're really serious 
about that and really want to understand why is it that they 
would like a new structure in place before the old one is 
destroyed, why is that important to them? If we really want to 
negotiate something new with them, then we don't put down the 
ultimatum of months, particularly when the advantage from a 
testing perspective can be gained somewhere else.
    Now, with respect to Kodiak. Assuming you want the 
advantages, which are very costly but nonetheless, if you want 
those testing advantages, you can do them somewhere else and 
you can do them without bumping up against the ABM Treaty or 
conflicting with the ABM Treaty the way it was phrased last 
Wednesday. You can do it without conflicting with the ABM 
Treaty. What conflicts with the ABM Treaty, and I want to be 
real clear on this, Mr. Coyle, is not what they are proposing 
in terms of test. As I understand it, if they declare that as 
part of a test bed, that does not conflict with the ABM Treaty 
whether it's in Fort Greeley or whether it's at Kodiak. Is that 
correct?
    Mr. Coyle. Yes, sir.
    Chairman Levin. What is the problem and what does bump up 
against the ABM Treaty, isn't that robust additional testing? 
But if they declare or if it is their intent that that 
development be in addition to a test site a rudimentary 
operational capability, that is where the conflict comes in. So 
I want to ask Mr. Coyle this question about that rudimentary 
operational capability. I want you to judge for us the 
operational capability of that system, that test bed at Fort 
Greeley. Would you expect it to be effective in shooting down 
an operational long-range missile?
    Mr. Coyle. If it only had five interceptors and if it 
didn't have the capability to deal with decoys and 
countermeasures which so far we haven't demonstrated any 
capability to handle, it would not be effective.
    Chairman Levin. Then it seems to me that we all have to 
weigh whether or not it is advantageous to enter into a new 
relationship with Russia, to try to negotiate that new 
relationship. But whether or not in order to get an operational 
capability at Fort Greely, which we've just heard is described 
because it doesn't have those capabilities that Mr. Coyle 
described, which would be ineffective. In the rush to gain an 
ineffective capability, we constrain ourselves to months of 
negotiations with a country for whom this treaty is a very 
serious matter, has been a keystone in that arch, that 
structure. As a matter of fact, it has been for us too as well. 
Secretary Baker even said that, by the way, after the collapse 
of the Soviet Union.
    So, we have a treaty which has been a keystone in an arch 
of a security arrangement, the removal of which would cause 
great problems for someone who is no longer an enemy, doing 
that for no testing advantage because we can declare that as a 
test site and do all the testing we want, assuming it's worth 
the money. We can do all the testing we want there to gain an 
ineffective rudimentary operational capability, whether or not 
doing that makes us more or less secure. That's what it comes 
down to. It's a very significant issue that everyone's 
grappling with. People reach different conclusions on it, but 
we all start with the same goal, I hope, and that is to make 
America more secure by that kind of an action. That's the only 
question. Are we more or less secure? Would our doing that 
unilaterally, would saying we're pulling out of this treaty, it 
no longer serves a purpose in our mind, goodbye, sayonara to 
that kind of a security arrangement. If we do that 
unilaterally, will we be precipitating a reaction in Russia and 
China, particularly which maybe from your perspective, Mr. 
Perle, isn't the way they should react. You can't understand 
why they would react that way. But if they in fact would react 
that way because they feel less secure by our unilateral action 
and because of the response that they would take to make 
themselves secure even though Richard Perle doesn't understand 
it, whether or not that reaction will leave us and the world 
less secure. It is a major issue.
    I would hope that the President would consult not just with 
our allies and with the Russians and with Congress but with the 
best minds that he can find of all different persuasions on 
this issue before he makes this judgment because it is a 
judgment which would have huge implications for the future. We 
all agree that North Korea is trying to achieve a capability 
that we do not want them to have. We would like to have a 
defense against it, if we could do it without creating a 
greater threat to ourselves. At least, I'll say that that's 
where I'm at. I'd love to have a defense against a North Korean 
missile if I could have it operationally effective and take 
away whatever leverage that it gets them. But I don't, in that 
process, want to create a greater danger to ourselves, and we 
have to weigh all those dangers. That's the broader picture 
which Mr. Berger talked about as he opened up this discussion 
today.
    It's been a long morning for all of you and I would like to 
ask Mr. Coyle, for the record, to do the following. I don't 
know that we went into great detail on those three pages which 
Secretary Wolfowitz gave to us. I gather you did not see those 
until today. Is that correct?
    Mr. Coyle. In exactly the form they're in, no. But I had 
read about them in other ways.
    Chairman Levin. I would like you to take a look at them in 
the exact form in which we received them and made them part of 
the record, and to then analyze for us how they might bump 
against or conflict with the ABM Treaty, in your judgment. I 
would offer to each of our other witnesses an opportunity to 
comment on the same question if you wish and with that we will 
bring this hearing to a close.
    [The information referred to follows:] 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. We will stand adjourned. Thank you.
    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator E. Benjamin Nelson

    1. Senator Ben Nelson. Mr. Perle, in his testimony, Philip Coyle 
said that a missile defense system is a matter of cost and workability. 
Isn't he right?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    2. Senator Ben Nelson. Mr. Perle, Secretary Rumsfeld said missile 
defense is a ``scarecrow'' which would serve as a deterrent to 
potential aggressors. Deputy Secretary Wolfowitz has said missile 
defense is not a scarecrow. Who is right?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    3. Senator Ben Nelson. Mr. Perle, how workable does a missile 
defense system have to be to be an effective deterrent?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    4. Senator Ben Nelson. Mr. Perle, how would you advise the 
Secretary and President to prioritize their financial resources in 
terms of the potential threat of a rogue states launching a missile at 
the U.S. and our allies versus the threat of weapons of mass 
destruction?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    5. Senator Ben Nelson. Mr. Perle, shouldn't we continue to pursue 
development of a national missile defense system first before pushing 
toward deployment of a system still being tested? If the threat level 
increased, I have no doubt that we would be able to speed up our 
development phase as was the case during the Gulf War with the Patriot 
system.
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    6. Senator Ben Nelson. Mr. Perle, at what point would you recommend 
we move to deployment of a land-based missile defense system?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

    7. Senator Collins. Mr. Berger, during your tenure as National 
Security Advisor, the Clinton administration engaged in discussions 
with Russia on revising the ABM Treaty to permit the United States to 
deploy a national missile defense system. President Bush has said that 
he would also like to reach an agreement with Russia that would pave 
the way for deployment of a system to defend the United States against 
missile attack. I assume you support President Bush's efforts to reach 
such an accommodation with Russia, is that correct?
    Mr. Berger. I support a mutual agreement to amend the ABM Treaty in 
ways that would enable us to pursue a limited national missile defense.

    8. Senator Collins. Mr. Perle, we have heard many opponents of 
missile defense warn that if the United States withdraws from the ABM 
Treaty to deploy a missile defense system, the Russians and Chinese 
might build up their nuclear forces and an arms race would ensue. Then 
the Russians and Chinese dutifully threaten just such an outcome, and 
those same critics point to those threats as confirmation of their 
theory. It becomes sort of an echo chamber in which the threats are 
bounced back and forth between the Russians and domestic opponents of 
missile defense. How seriously should we take such threats, or are 
these discussions simply rhetoric to slow down the progress the United 
States makes on developing a robust, layered missile defense system?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    9. Senator Collins. Mr. Perle, would it not be in the interest of 
Russia and China to make these threats knowing that missile defense 
critics will themselves dutifully echo them in their efforts to prevent 
deployment of a robust, layered missile defense system?
    [The information was not provided in time for printing of this 
hearing. When received, it will be retained in committee files.]

    [Whereupon, at 1:08 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
